<html>
<title> - TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998</title>
<body><pre>[Senate Hearing 105-26]
[From the U.S. Government Printing Office]


[DOCID: f:39865.done]

                                                        S. Hrg. 105-26
 
  TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2378/S. 1023

 AN ACT MAKING APPROPRIATIONS FOR THE TREASURY DEPARTMENT, THE UNITED 
   STATES POSTAL SERVICE, THE EXECUTIVE OFFICE OF THE PRESIDENT, AND 
 CERTAIN INDEPENDENT AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      1998, AND FOR OTHER PURPOSES

                               __________

                   Assassination Records Review Board
                       Department of the Treasury
                   Executive Office of the President
                      Federal Election Commission
                   Federal Labor Relations Authority
                       General Accounting Office
                    General Services Administration
                     Merit Systems Protection Board
              National Archives and Records Administration
   National Commission on Restructuring the Internal Revenue Service
                       Nondepartmental witnesses
                      Office of Government Ethics
                     Office of Personnel Management
                          U.S. Postal Service
                             U.S. Tax Court

                               __________

         Printed for the use of the Committee on Appropriations

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

            Subcommittee on Treasury and General Government

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
LAUCH FAIRCLOTH, North Carolina      BARBARA A. MIKULSKI, Maryland
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  ex officio                           ex officio
                           Professional Staff
                          Patricia A. Raymond
                              Tammy Perrin
                              Lula Edwards
                     Barbara A. Retzlaff (Minority)


                            C O N T E N T S

                              ----------                              

                        Tuesday, April 15, 1997

                                                                   Page
Congressional witness............................................     1
Department of the Treasury.......................................    13
General Accounting Office........................................    41
Department of the Treasury: Internal Revenue Service.............    51
Material submitted subsequent to conclusion of hearing...........    77

                        Thursday, April 17, 1997

Department of the Treasury.......................................    81
    Bureau of Alcohol, Tobacco and Firearms......................    91
    U.S. Customs Service.........................................   108
    Federal Law Enforcement Training Center......................   118
    Financial Crimes Enforcement Network.........................   132
    U.S. Secret Service..........................................   144
Department of the Treasury.......................................   181

                        Wednesday, May 14, 1997

Executive Office of the President: Office of National Drug 
  Control Policy.................................................   315

                        Thursday, June 19, 1997

National Commission on Restructuring the Internal Revenue Service   399
General Accounting Office........................................   415
Department of the Treasury: Internal Revenue Service.............   437

    Material Submitted by Departmental and Independent Agencies Not 
                     Appearing for Formal Hearings

Department of the Treasury:
    Bureau of the Public Debt....................................   543
    Financial Management Service.................................   545
    Office of the Secretary......................................   548
Executive Office of the President: Office of Administration......   560
Independent agencies:
    Assassination Records Review Board...........................   570
    Federal Election Commission..................................   578
    Federal Labor Relations Authority............................   589
    General Services Administration..............................   599
    Merit Systems Protection Board...............................   615
    National Archives and Records Administration.................   619
    Office of Government Ethics..................................   627
    Office of Personnel Management...............................   628
    U.S. Postal Service..........................................   633
    U.S. Tax Court...............................................   636
Nondepartmental witnesses........................................   639


  TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                        TUESDAY, APRIL 15, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:17 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Shelby, Faircloth, and Kohl.
    Also present: Senator Glenn.


                                panel 1


                         CONGRESSIONAL WITNESS

STATEMENT OF HON. JOHN GLENN, U.S. SENATOR FROM OHIO


                  opening remarks of senator campbell


    Senator Campbell. The Subcommittee on Treasury and General 
Government will be in order. I want to apologize to all of the 
witnesses for having to delay the hearing this morning. We 
scheduled this hearing before we realized there were going to 
be votes this morning. I guess this goes to prove to you that 
we are in our usual confused state. I know some of you had 
other appointments, so I really apologize for inconveniencing 
you.
    This morning the subcommittee is here to discuss an issue 
of personal interest to most of the members; that is, the 
Internal Revenue Service's employee misuse of taxpayers' files. 
Abuse by employees in the IRS has been a concern of many 
Members of Congress for many years. Here are some of the 
examples of letters that I have received. Some of our 
constituents have written very vehemently about the problems 
they have had with the IRS.
    One constituent from Longmont, CO, thought his problems 
with the IRS had been resolved when he followed the 
instructions of the U.S. Attorney before they moved to Colorado 
from Massachusetts. This constituent says--I will just read an 
excerpt from each of these letters. We have just recently moved 
back to Colorado and the Internal Revenue Service in Worcester, 
MA, will not release our file back to the Denver office unless 
we agree to sign a Form 300 to allow this problem to be 
investigated 10 more years.
    Another constituent from Lakewood, CO, has a story of an 
abusive IRS employee in an attempt to get answers by the phone. 
Here is her account of what happened. This person talked in a 
raised voice during the whole conversation, obviously meant to 
intimidate me. He hammered and hammered about two missed 
payments. I tried to explain that I acknowledged this and 
previously corresponded about this and I needed clarification 
on the issues that concerned me. I was told, listen, do not 
argue with me. Be quiet or I will hang up. He asked me what my 
letter said and I read it to him. His reply was, well, then it 
tells you what to do, does it not?
    By now my frustration had turned to tears. I said, I am 
making an effort. I need to know how and when so that I can 
make the necessary arrangements. There is no need to get nasty 
with me. I hoped he was happy that I was this upset. He said 
exactly, I do not care if you cry or you do not cry. You do not 
make my day. By now I had had enough. I asked for confirmation 
of his name and he told me, Mr. Christenson, like I told you 5 
minutes ago. You do not listen very well, do you?
    A citizen in Broomfield, CO, found out the hard way not to 
count on information supplied by the IRS. Every time he was 
told that the situation had been resolved, the IRS found yet 
another problem. Here was his bottom line.
    I have made many business, financial, and personal 
decisions based on my information received from the IRS. I have 
ruined my credit rating, my good name, and if I do not receive 
a minimum of $5,000 by January 21 I will most probably be 
forced to file bankruptcy. I do not understand how a Government 
agency can mislead and deceive the people of this country. They 
are not accountable to anyone. You, as an elected official, 
should be concerned and understand that these are some of the 
reasons that the anti-Government are becoming more visible.
    A certified public accountant in Fort Collins, CO, has 
written on behalf of thousands of citizens who were bilked out 
of millions of dollars by a fraudulent scheme. When it was 
discovered, most taxpayers wrote off their losses for income 
tax purposes. But there were hoops created by the IRS. This 
gentleman says in part, the IRS moved in, changed the returns, 
but granted 87 percent of the investments as theft loss or 
capital loss. This was agreeable. But to claim the loss, the 
taxpayer had to sign an agreement drawn up by the IRS.
    The kicker to the agreement was that in any future recovery 
of the loss, the taxpayers had to report the recovery not at 
face value, but at an inflated amount based upon a stated 
factor for each potential year of recovery. The wording of this 
agreement was very ambiguous. I still interpret it differently 
from the IRS. I am confident that a majority of the taxpayers 
signing it did not understand its results. They also signed 
under coercion. No sign, no loss allowed.
    There is more; several other parts in that letter. I will 
not go into them because we did get started late. But those 
were a few examples of letters that I have received, and I know 
many of my colleagues receive the same type of letters. I will 
be inserting all of these in the record, without objection.
    [The letters follow:]
                 Excerpts of Constituent Correspondence
    Some things seem so logical that they are not apparent, but 
wouldn't it be a good time to do something about the IRS and the 
present tax system? The tax system is out of control, not understood by 
anyone, including tax accountants. The billions of dollars spent on the 
up-dating the computer system was money down the drain.
                                                        Denver, CO.
                                 ______
                                 
    I have always prided myself on my skill to figure out my own 
Federal income tax, while many of my friends (engineers, school 
teachers, retired military officers, and businessmen) have reverted to 
professionals to accomplish the same * * *. This year I had made some 
stock & bond transactions which require submission of the ``Gains and 
Losses from Section 1256 Contracts and Straddles, Form 6781.'' I called 
the IRS and asked for verification of my entries. The lady said she did 
not have the form. I said to her ``Please get it and help me out.'' The 
line went dead for about two minutes and she came back on and said ``We 
don't have Form 6781''. I replied `'Surely, if you're the IRS you must 
have the form.'' She reiterated ``Form 6781 is on my list but I can't 
get one.'' Then I just laughed and said, ``I don't believe this'' and 
then I thanked her for her time.
                                              Colorado Springs, CO.
                                 ______
                                 
    When I called the IRS information line to obtain answers to 
questions, they were not able to answer them with consistency * * *. 
The tax rules are so complex, that no one, including the IRS, can 
interpret them. Yet the IRS constantly uses them to penalize and 
terrorize the American public.
                                                Grand Junction, CO.
                                 ______
                                 
    We are average taxpayers. We required five different IRS 
publications in addition to the instructions accompanying our 1040. 
High powered mathematicians and accountants must be paid plenty to 
devise all of the formulas that go with these various publications. For 
example, Form 4797 takes 18 hours and 53 Minutes to prepare. Form 6252 
takes 56 minutes. Form 1040 takes 4 hours and 33 minutes, (just to 
mention a couple). This information is directly from the IRS. This has 
gone beyond good sense. The money wasted in the devising, publishing, 
and distributing these forms and publications would go a long way 
toward balancing the budget.
                                                        Golden, CO.
                                 ______
                                 
    We just had our taxes done. It is interesting to note that when I 
first filed an income tax return, in 1956, I was able to do it myself, 
without any help from anyone. Plus, I had a refund. Now, 41 years later 
I have to pay someone to do my taxes. Something has really gone wrong 
with our tax system when the average person has to pay someone to do 
their taxes. The IRS seems driven towards making everything so 
confusing as to make it impossible to do your tax return without 
outside help * * *. I may be wrong, but our tax system seems to be 
designed to punish you if you are successful in any way.
                                                      Lakewood, CO.
                                 ______
                                 
    I do want to say that I do not know why the IRS does what they do 
to the middle and lower-middle class of America.
                                                      Lakewood, CO.

             Inappropriate Browsing Through Taxpayer Files

    Senator Campbell. Obviously, there are many problems and 
concerns about IRS interaction with U.S. citizens. Today we are 
going to focus on one of those concerns which was brought to 
our attention by a recent story in the Washington newspapers 
about inappropriate browsing through taxpayer files. We have 
heard allegations of IRS employees accessing the computerized 
tax records of celebrities, friends, and enemies; most often 
just for the fun of it. But I know most of my constituents 
certainly do not believe that is funny.
    This morning we are going to hear first from the ranking 
member of the Senate Governmental Affairs Committee, Senator 
John Glenn. Senator Glenn has spent considerable time on the 
issue of the IRS computer security and we are pleased to have 
him here this morning.
    We will also hear from Treasury Deputy Secretary Larry 
Summers. We are particularly interested in knowing what 
leadership has been provided from the Department on these 
issues.
    Next, the General Accounting Office will brief us on their 
recent report dealing with IRS computer security in general and 
employee browsing in particular. We will then talk with other 
representatives of the Department of the Treasury, the IRS 
Commissioner Margaret Milner Richardson, and the Inspector 
General Valerie Lau. Hopefully, we will learn what the Treasury 
Inspector General's office and the IRS itself has done to 
address these problems.

                           Prepared Statement

    The president of the National Treasury Employees Union, 
Robert Tobias, was invited to join us, but unfortunately had to 
be out of town. Without objection though, he has sent a 
statement and we will introduce that in the record.
    [The statement follows:]
 Prepared Statement of Robert M. Tobias, National President, National 
                        Treasury Employees Union
    Mr. Chairman, Ranking Member Kohl, Members of the Subcommittee, on 
behalf of the 150,000 federal employees, including many at the IRS, 
represented by the National Treasury Employees Union, thank you for 
inviting me to testify today on the issue of electronic browsing of tax 
return information by IRS employees. I deeply regret that a previous 
commitment does not allow me to be here in person, but I sincerely 
appreciate the opportunity to submit this statement for the hearing 
record and would be happy to answer specific questions for the record 
as well.
    Let me state at the outset that NTEU does not condone ``browsing,'' 
or the unauthorized inspection of taxpayer information by IRS employees 
or anyone else. We have worked with the IRS to emphasize the 
seriousness of these offenses to the IRS work force. In a joint 
Memorandum For All Employees, dated November 16, 1994, (which is 
included in Appendix II of the April 1997 GAO report on IRS Systems 
Security) Commissioner Richardson and I wrote: ``Safeguarding public 
confidence in the integrity and competence of the Service is a top 
priority for all employees. Each of us must take seriously any 
perceived or real breach in public confidence and trust in our ability 
to administer tax laws.''
    The joint memo went on to say: ``Our efforts to maintain taxpayer 
privacy also includes continually improving Service ability to identify 
any employee who fails to safeguard taxpayer information and, where 
appropriate, taking disciplinary action, up to and including removal. 
This effort is not intended to impose an additional burden on 
conscientious employees in their use of tax systems. It is, however, 
intended as a concerted effort to maintain a work environment that 
reflects the highest standard for the protection of sensitive taxpayer 
information.''
    I am very distressed that recent information compiled by GAO and 
IRS indicates that browsing has not been stopped by these efforts. I am 
particularly disturbed by published reports concerning incidents of 
browsing by those with truly heinous objectives such as the white 
supremacist, Mr. Czubinski.
    While NTEU is committed to the total eradication of browsing and 
for that reason will not oppose Senator Glenn's bill, S. 523, to 
criminalize the unauthorized inspection of tax returns, the 
Subcommittee should know that my belief is the large majority of 
browsing is misguided rather than malicious. Curiosity, rather than 
personal gain seems to be the common motivation. In fact, the IRS 
report that was the basis of the 1,515 instances of browsing in 1994 
and 1995 also states: ``It should be noted, however, that many of these 
cases (about one third) which are detected through regular IDRS 
security systems, are situations of accessing one's own account that is 
generally attributable to trainee error.''
    I would like to emphasize that I do not mean to try to excuse 
incidents of browsing by noting that the motivation is for the most 
part not malicious. I understand the serious impact that browsing has 
on the public's ability to feel secure that their tax documents are 
being held in a truly confidential manner and I pledge the cooperation 
of my union, as I have in the past, in efforts to end any browsing.
    As I stated earlier, I do not intend to oppose Senator Glenn's 
bill, S. 523, but have been working with him and the Treasury 
Department to clear up some concerns about the adequacy of the language 
of the bill to clearly identify the distinctions between authorized and 
unauthorized inspections. IRS employees must inspect tax returns and 
tax return information on a daily basis and care must be taken to 
ensure that only willful and intentional actions of unauthorized 
browsing will be subject to criminal penalties.
    I realize that by the time of this hearing the House and Senate 
bills to make browsing of tax returns a criminal offense will be very 
close to being on the President's desk. It is not lost on me that the 
date of this hearing is April 15th, tax filing day. I have been 
President of the National Treasury Employees Union, which represents 
IRS employees, for 13 years and associated with the Union for much 
longer. I recognize that Americans do not enjoy paying their taxes and 
that many in Congress choose the symbol laden April 15th to highlight 
their sympathy with their constituents on the issue by acts aimed at 
reforming the IRS or the tax code. I don't fault anyone for that, but I 
do hope that symbolism will not obscure the importance of legislating 
in a prudent and judicious manner, especially when criminal penalties 
are involved.
    In addition to April 15th, this week holds another symbolically 
important date for federal employees and, I hope, the country. April 
19th will mark the second anniversary of the bombing of the Oklahoma 
City Federal Building, which resulted in 169 deaths, mostly of federal 
employees who worked in the building. The GAO report on IRS Systems 
Security that was the subject of a hearing in the Governmental Affairs 
Committee last week and mentioned in numerous media stories associated 
with the issue of browsing also found serious weaknesses in physical 
security for IRS work sites. In fact, the report states that ``primary 
weaknesses were in the areas of physical and logical security.'' (p.5, 
emphasis added.) The physical security weaknesses were so serious that 
GAO refused to publish them for public review for fear of further 
endangering IRS employees and the information kept at their work sites. 
Yet, no hearings, closed to the public or otherwise, have been called. 
No bills have been introduced. No symbolically important dates have 
been targeted for action that would highlight Congressional concern or 
commitment to corrective legislation.
    My hope, Mr. Chairman, is that you and other Members of Congress 
who have jurisdiction over matters dealing with the IRS will request 
briefings from GAO on the physical security threats they found in doing 
their recent report and address those threats, which pose life 
threatening consequences, with the same zeal and speed that the issue 
of unauthorized glancing at tax returns is being addressed. I would 
suggest April 19th as an appropriate day to undertake corrective 
action.
    I am attaching to my testimony an article that appeared in the New 
York Post recently outlining a plan to have retail shops on the first 
floor of a New York City federal building that houses IRS and FBI 
offices as an example of the kind of serious security problems that 
need to be addressed at IRS facilities.
    Before concluding, Mr. Chairman, I would like to return to the 
issue of browsing by IRS employees. Because I have honestly worked hard 
to make it clear to the members of my union that browsing was totally 
unacceptable, I've been asking myself in light of the recent 
disclosures that it has not abated, why? Again, please do not take my 
words as offering excuses, but as providing you with a sense of the 
culture IRS workers operate in that could help explain why seemingly 
clear directives do not have the impact they should.
    As any parent knows, consistency and fairness are the cornerstones 
to good behavior. Rules are more likely to be followed when 
expectations are consistently put forth and the measures of meeting 
expectations fairly applied. Unfortunately, consistency and fairness do 
not reflect the current culture at IRS. And some of that is Congress' 
fault.
    Budget cuts and policy changes swing back and forth on a yearly 
pendulum. In debates on Taxpayer Bill of Rights and other similar 
legislation, IRS employees hear sentiments that would indicate that 
their most important priority is to ensure that taxpayers (or in many 
instances, tax-owers) are treated with the utmost in tact and 
politeness, regardless of the fact that they may have thrown a brick 
through your car window when you tried to get them to pay what they 
owe. Just weeks later, in Congressional debates IRS workers can hear 
loud support for contracting out tax collection to the private sector 
because the IRS employees aren't aggressive enough (and can't legally 
be motivated by quotas or monetary incentives) at collecting the 
revenue that is owed to the Treasury.
    One of my personal favorite Congressional flip-flops was on the 
administration of the Earned Income Tax Credit. First, IRS was called 
to Congress to explain why there was so much fraud being perpetrated 
under the program. They were beaten up pretty badly and instituted a 
good fraud detection system for the program. Then they were called to 
the Hill to explain why EITC refunds were being delayed in order to 
ensure that no fraud was committed.
    As I'm sure you know, IRS employees have also recently been facing 
downsizing, furloughs and Reductions in Force. I cannot overstate how 
much these proposals undermine employees' morale, especially when these 
actions are accurately perceived as being not thoroughly analyzed or 
fairly implemented, as in the case of the IRS Field RIF.
    As I said at the outset of this section, I do not mention these 
things to provide excuses for browsing tax returns, but to illustrate 
that the current real or perceived inconsistencies and unfairnesses of 
the current IRS culture make it difficult to convince IRS employees 
that the important ``must follow'' rules of today (such as those 
against browsing) will be the same tomorrow, because they often aren't.
    Thank you again for inviting me to testify today. I would be happy 
to provide answers for the record to any questions you might have.
                                 ______
                                 

                 [From the New York Post, Mar. 7, 1997]

                G-Men Fear Wholesale Slaughter in New HQ
                           (By Niles Lathem)
    Jittery FBI and IRS agents say a government plan to let trendy 
shops rent space in their high-security downtown Manhattan building 
will make them vulnerable to terrorist attack.
    The General Services Administration, which manages federal 
buildings is going ahead with a plan to lease prime first-floor space 
in the federal building at 290 Broadway to private vendors despite the 
security concerns, The Post has learned.
    The rentals could make millions of dollars for Uncle Sam.
    Agents fear that the shops, uncontrolled by federal security, would 
offer terrorists and madmen an easy way into their building.
    The building is considered a prime target for terrorists because 
both the FBI and the IRS do their business there.
    The controversy comes just as security at all federal buildings, 
military installations and airports is being boosted, fueled by 
tensions in the Middle East, the trial of accused Oklahoma City bomber 
Timothy McVeigh and the approach of April 19--the anniversary of the 
bombing and the fiery ending of the Waco, Texas, siege.
    Security is high at 290 Broadway.
    All visitors are carefully screened, and extra measures have been 
taken to protect the building's perimeter.
    Sidewalk traffic is monitored. No unauthorized cars are allowed to 
park at the curb. Delivery trucks are not allowed to double-park.
    But, according to people who work inside, the security measures 
could be neutralized if the GSA goes ahead with its plan to build a 
trendy shopping area downstairs.
    ``We believe the potential for placing a bomb directly outside or 
inside these stores could be greatly increased as a result of these 
commercial rentals,'' managers of the IRS, the FBI and the 
Environmental Protection Agency said in a letter to the GSA.
    ``Since public access to these areas would be uncontrolled and 
delivery and repair work would not be supervised by the building guard 
service, security as a whole would be severely compromised.''
    But the GSA is undeterred.
    ``The development of retail space was part of the terms of our 
acquisition of land from New York City in 1990,'' GSA spokeswoman Rene 
Misscione told The Post.
    ``We are aware of the security concerns and these are matters we 
take seriously. These concerns are being taken into consideration in 
the negotiations,'' she added.
    The FBI, which conducts its anti-terrorism and organized-crime 
investigations out of the building, has plenty of enemies. The IRS also 
is a potential terrorist target.
    The IRS wants to use the storefronts for taxpayer service--a move 
that would increase security by keeping the general public out of the 
main section of the building. Now people coming in for audits or 
picking up forms have to go through a metal detector and up to the 
fifth floor.
    But the GSA has said the IRS would have to pay a lot more rent as 
well as foot the bill for renovating the space. The IRS has been unable 
to afford it.

                       Statement of Senator Kohl

    Senator Campbell. I thank all of our witnesses for being 
patient this morning. With that, Senator Kohl, do you have a 
statement?
    Senator Kohl. I thank you, Senator Campbell. I also would 
like to thank Senator Glenn for taking the time to testify 
before us today. His presence here and his hard work on this 
issue are clear demonstrations that IRS management and 
mismanagement are of deep concern to Democrats and Republicans 
alike.
    I will keep my opening statement brief today as I have a 
very busy morning ahead. I have to finish up on my taxes. 
[Laughter.]
    Senator Campbell. Good luck.
    Senator Kohl. In fact, I see that Commissioner Richardson 
is on the last panel of the morning. Perhaps if I work hard 
enough I could hand in my returns to her at the end of the 
hearing.
    On a more serious note, today our hearing will address 
employee misuse of taxpayer files, or what the papers have 
termed snooping. With all the recent press coverage of IRS 
problems with their computer systems and their general 
management, some might think a few IRS employees snickering 
over Elvis Presley's returns is not a serious issue. I could 
not disagree more.
    Eighty-three percent of all income taxes collected by the 
IRS--that would be about $760 billion a year--are sent in 
voluntarily. That is amazing. That means that our current tax 
collection system relies heavily on Americans willingness to 
follow tax laws and pay what they owe. These recently reported 
incidents of snooping by IRS employees, and the IRS' 
inconsistent treatment of employees caught snooping, puts in 
jeopardy this incredibly high compliance rate.
    Would you want to buy a house if you knew a peeping Tom 
lived next door? Do you want to send in a record of your most 
personal financial transactions if you think IRS employees 
might with impunity be browsing through your tax returns?
    Concerns for the privacy for citizens who willingly provide 
information to Government agencies led to the enactment last 
year of the Economic Espionage Act, a bill which I authored. 
That legislation includes a provision making it a crime to look 
at information stored in any Federal Government computer 
without proper authorization. Senator Glenn's legislation, of 
which I am a cosponsor, also makes a crime the unauthorized 
inspection of any tax return, be it on paper or the computer. 
These are the first steps we need to take to restore taxpayers' 
faith in the IRS.
    Another step is this morning's hearing. Today I hope our 
witnesses will tell us how these incidents of unpunished 
snooping occurred and what is being done to keep them from 
happening again.
    I look forward to discussing this with our witnesses this 
morning, and I hope that we can leave today with a renewed 
commitment for the IRS, Treasury, and Congress to complete the 
task started in 1992, a zero tolerance policy for snooping.
    Senator Campbell. Senator Shelby.

                      Statement of Senator Shelby

    Senator Shelby. Thank you, Mr. Chairman. Mr. Chairman, I 
have a short statement. I appreciate first, Mr. Chairman, you 
holding this hearing today on such an important task as the 
security of the American people's tax and financial 
information. But, Mr. Chairman, in my view this hearing today 
is about a lot more than ensuring the integrity of the American 
people's financial records. It goes right to the issue of 
whether or not the American people can trust their Government.
    It has been said many times before that the power to tax is 
one of the most ominous powers given to the Government. If 
there is any area in which the American people need to be able 
to trust their Government, it is in the area of tax collection.
    The recent revelation of IRS' employees snooping through 
people's files without authorization only undermines that 
trust. This abuse of power, Mr. Chairman, raises a couple of 
serious concerns, and I hope that today's panel can help 
address them.
    First, it does not seem to me that the IRS has any idea how 
bad this problem is. If I was in charge at the IRS and this 
problem was brought to my attention, it would seem to me that 
the first thing I would want to do is to get some sense of how 
widespread the problem is, Mr. Chairman. There would need to be 
some way to accurately measure how many violations have 
occurred. I am not aware of any such procedure in place at the 
IRS, but I hope there will be.
    Another concern, Mr. Chairman, is that the IRS has been 
aware of the problem of file snooping for several years now, 
and their attempts to address it have not only been ineffective 
but have appeared to me to reflect a lack of commitment to 
stamping out this problem. The lengthy delay in responding to 
this problem, the gaping holes left in the IRS security, and 
the seemingly weak disciplinary action are all prime examples.
    I look forward to hearing our witnesses today.
    Senator Campbell. With that, Senator Glenn, if you would 
like to proceed. Welcome to the committee.

                       Statement of Senator Glenn

    Senator Glenn. Thank you very much, Mr. Chairman. I 
appreciate being here with you today as the subcommittee takes 
a look at taxpayer privacy and IRS records. I want to thank 
you, Mr. Chairman, for convening this important hearing, and 
also want to thank the ranking member, Senator Kohl, for his 
efforts. I remember when the Senator from Wisconsin was a key 
member of the Governmental Affairs Committee, before he gave up 
all the glitter and glamour of that committee for the humdrum 
work of the Appropriations Committee. Senator Kohl did do a lot 
of work on privacy matters and Government information and 
public access, some of the things that you are addressing here 
today. We do miss him on our committee.
    By the end of today, hardworking citizens across this land 
will have voluntarily shared their most personal and sensitive 
financial information with their Government. All Americans 
should have unbridled faith that their tax returns will remain 
absolutely confidential and will be zealously safeguarded. That 
is the hallmark of our taxpaying system. If this trust is 
breached, it shakes the whole foundation of our very 
Government. No wonder we have some of the cynical attitude that 
is too often exhibited today.
    That is why I am so hopeful that today Congress will 
finally pass legislation I had first introduced a couple of 
years ago to outlaw what I have come to term as computer 
voyeurism. That is, the unauthorized inspection of your own tax 
information by those not entitled to see it. Some of our 
interest in this goes back several years.
    In 1993 and 1994, as chairman of the Governmental Affairs 
Committee, I held hearings which first exposed this insidious 
practice. We had come across this problem almost by 
happenstance, by a reference--it was a footnote, as a matter of 
fact, to an internal IRS report contained in one of the first 
chief financial officer audits that are required to be done and 
are performed by the General Accounting Office on the IRS.
    We conducted a couple of hearings to further investigate 
this matter. And it turned out that between 1989 and 1994, more 
than 1,300 IRS employees had been investigated on suspicion of 
snooping through private taxpayer files, confidential 
information that is supposed to be for official use only.
    Now, Mr. Chairman, at least 99 percent of the employees 
over there are very hardworking, honest people doing the best 
job they know how. But my hearings revealed that a few IRS 
employees had been browsing through the financial records of 
family members, ex-spouses, coworkers, neighbors, friends, and 
others they saw as their enemies. Still others had submitted 
fraudulent tax returns and then used their special access to 
monitor how IRS was processing those returns. Other workers had 
used their computers to issue fraudulent refunds to family and 
friends. And at least one employee was reported to have altered 
some 200 accounts and received kickbacks from those inflated 
refund checks.
    All American taxpayers were outraged to know that the most 
personal information they voluntarily and in good faith provide 
to the Government could, in effect, become an open book for 
others' private entertainment.
    Even worse was the pitifully low numbers fired for 
committing these awful actions. It turned out that no criminal 
penalties existed for many kinds of these browsing offenses. We 
all know they are wrong, but there was no law that really 
addressed them. There was a legal loophole that allowed you to 
get off the hook if you did not disclose tax information to 
others or altered those returns. That is what we have been 
working to correct through legislation.
    At our hearings, the Commissioner of Internal Revenue 
pledged to implement a zero tolerance policy, and she has 
undertaken several initiatives. I want to give her credit for 
acknowledging the problem, trying to address it, and working 
with me on this legislation. They have over 100,000--I think it 
is 106,000 employees at IRS, Mr. Chairman. About 50,000, I 
understand, work directly on taxpayer returns all through the 
year. We need to tighten up on what those employees can do.
    But it is very difficult to set up a completely foolproof 
system. And it is expensive to do that, also. So some of the 
problem with modernizing the system over there, we have to 
acknowledge, comes back to us here in the Congress, I am sorry 
to say. The Commissioner has said that she favors this 
particular legislation on tightening up and eliminating the 
loophole that I described briefly a moment ago.
    To evaluate the effectiveness of actions that she had taken 
to try and reach a zero tolerance, there is a system called 
EARL. It is a new computer detection system. So I asked the GAO 
and the inspector general at the Department of the Treasury to 
examine the results. That was the report that was released last 
week that was widely reported in the news.
    The findings of GAO's report are very disturbing. Just as 
important, their conclusions are affirmed by the IRS in a 
comprehensive internal report of their own compiled last fall. 
They are also buttressed to some extent by the Treasury 
inspector general's review. The report is restricted to limited 
official use only. It is on IRS computer security controls so 
we could not release it.
    But the bottom line is, although the IRS' efforts in this 
area are well-intentioned, unfortunately they have come a 
little late and fall short of the commitment and determination 
sorely needed to tackle this problem head on. GAO found that 
serious weaknesses in IRS' information security makes taxpayer 
data vulnerable to unauthorized use, to modification, and even 
to destruction.
    The IRS also has no effective means for measuring the 
extent of the browsing problem, the damage being done by 
browsing, or the progress being made to deter browsing. As I 
said, it is very difficult, and it is also expensive to set up 
what would be a foolproof system.
    Finally, and this is something I am having GAO look at 
further, we do not know to what extent detection and control 
systems exist in other IRS data bases besides IDRS, the primary 
taxpayers' account system examined here. I was also struck by 
the candor in the IRS' own internal report on the EARL 
detection system. That report found its progress painfully 
slow, to use their own words, and quite distressing to me, 
indicated that some employees felt IRS management did not 
aggressively pursue browsing violations.
    Moreover, some IRS workers, when confronted about their 
snooping activities, saw nothing wrong and believed it would 
be, to use their words, of no consequence to them even if they 
were caught. Obviously, we have to fix that. When you have over 
1,515 investigations of browsing since the hearings and only 23 
workers fired--I think the figures are another 480-some 
counseled, 392 got some sort of disciplinary punishment, that 
just shows in our zero tolerance policy, we have a long ways to 
go before we reach it.
    So, Mr. Chairman, I appreciate your letting me appear this 
morning and add my remarks to your deliberations here. We have 
legislation that Senator Coverdell and I are working on 
together that I hope reaches the floor of the Senate either 
today or tomorrow that will address this loophole whereby 
people taken to court and found guilty were, on appeal, 
exonerated because the law had said they could be punished only 
if they passed the information on to somebody else. That 
snooping for their own voyeurism or whatever was not really 
against the fine print of the law. So that is what we are 
hoping to close today or tomorrow with legislation on the 
floor.
    I would be glad to try to answer any questions you might 
have.
    Senator Campbell. Thank you. Thank you for your leadership 
on this issue, Senator Glenn.
    You mentioned the person that had altered 200 accounts and 
got kickbacks. There was nothing in his actions that were not 
already against an existing statute?
    Senator Glenn. Yes; I think they were fired and that person 
was--I do not know what the penalty was for that, but he was 
prosecuted.
    Senator Campbell. Thank you. Senator Kohl.
    Senator Kohl. I have no questions, Mr. Chairman.
    Senator Campbell. Senator Shelby.
    Senator Shelby. No questions.

                           Prepared Statement

    Senator Campbell. Thank you for your appearance, Senator 
Glenn, we do appreciate it. We will insert your complete 
statement in the record.
    Senator Glenn. Thank you, Mr. Chairman.
    [The statement follows:]
                  Prepared Statement of Senator Glenn
    I appreciate being here with you today as the Subcommittee takes a 
look at Taxpayer Privacy and IRS Records.
    I want to thank the Chairman, Senator Campbell, for convening this 
important hearing. I also want to thank the Ranking Member, Senator 
Kohl for his efforts.
    I remember when the Senator from Wisconsin was a key member of the 
Governmental Affairs Committee--before he gave up all the glitter and 
glamour of our panel for the ``humdrum'' of the Appropriations 
Committee. Senator Kohl did a lot of work on privacy matters, 
government information, and public access. We miss him.
    By the end of today, hard-working citizens across the land will 
have voluntarily shared their most personal and sensitive financial 
information with their government.
    All Americans should have unbridled faith that their tax returns 
will remain absolutely confidential and zealously safeguarded. That is 
the hallmark of our taxpaying system. If this trust is breached, it 
shakes the whole foundation of our very government.
    That is why I am so hopeful that today Congress will finally pass 
legislation I had first introduced a couple of years ago to outlaw what 
I have come to term as ``computer voyeurism''. That is the unauthorized 
inspection of your own tax information by those not entitled to see it.
    In 1993 and 1994, as Chairman of the Governmental Affairs 
Committee, I held hearings which first exposed this insidious practice. 
We had come across this problem almost by happenstance--by a reference 
to an internal IRS report contained in one of the first Chief Financial 
Officer (CFO) audits performed by the General Accounting Office (GAO) 
on the IRS.
    We conducted a couple of hearings to further investigate this 
matter. It turned out that between 1989-1994, more than 1,300 IRS 
employees had been investigated on suspicion of snooping through 
private taxpayer files--confidential information that is supposed to be 
for official use only.
    My hearings revealed that some IRS employees had been browsing 
through the financial records of family members, ex-spouses, coworkers, 
neighbors, friends, and ``enemies''. Still others had submitted 
fraudulent tax returns and then used their special access to monitor 
how IRS was processing those returns. Other workers had used their 
computers to issue fraudulent refunds to family and friends. At least 
one employee was reported to have altered some 200 accounts and 
received kickbacks from those inflated refund checks.
    All American taxpayers were outraged that to know that the most 
personal information they voluntarily and in good faith provide to the 
government could, in effect, become an open book for others' private 
entertainment.
    Even worse was the pitifully low numbers of employees fired for 
committing these awful actions. It turned out that no criminal 
penalties existed for many kinds of these browsing offenses. There was 
a legal loophole that allowed you to get off the hook if you did not 
disclose tax information to others or altered those returns. That is 
what I am working to correct through legislation.
    At our hearings, the Commissioner of Internal Revenue pledged to 
implement a ``zero tolerance'' policy and has undertaken several 
initiatives. I give her credit for acknowledging this problem, trying 
to address it, and working with me on this legislation.
    To evaluate the effectiveness of these actions, particularly 
``EARL''--its new computer detection system--I asked GAO and the 
Inspector General at the Department of the Treasury to examine the 
results.
    The findings of GAO's report are disturbing. Just as important, 
their conclusions are affirmed by the IRS in a comprehensive internal 
report of their own compiled last fall. They are also buttressed to 
some extent by the Treasury IG's review (the report is restricted to 
``Limited Official Use'') on IRS computer security controls.
    The bottom line is although the IRS efforts in this area are well-
intentioned, unfortunately, they have come too late and fall far short 
of the commitment and determination sorely needed to tackle this 
problem head-on.
    GAO found that serious weaknesses in IRS' information security 
makes taxpayer data vulnerable to unauthorized use, modification, and 
destruction. The IRS also has no effective means for measuring the 
extent of the browsing problem, the damage being done by browsing, or 
the progress being made to deter browsing. Finally, and this is 
something I'm having GAO look at further, we don't know to what extent 
detection and control systems exist in other IRS databases, besides 
``IDRS'', the primary taxpayers' account system examined here.
    I was also struck by the candor in the IRS' own internal report on 
the ``EARL'' detection system. That report found its progress 
``painfully slow'', and, quite distressing to me, indicated that some 
employees felt IRS management did not ``aggressively pursue'' browsing 
violations. Moreover, some IRS workers, when confronted about their 
snooping activities, saw nothing wrong, and believed it would be of 
``no consequence'' to them even if they were caught.
    We have to fix that. When you have over 1,500 investigations of 
browsing since my hearings, and only 23 workers fired, something just 
ain't right. That doesn't sound like ``zero tolerance'' to me.
    Again, I appreciate your interest in this important issue and want 
to offer any help I can.
    Thank you.
                                Panel 2

                       DEPARTMENT OF THE TREASURY

STATEMENT OF LAWRENCE SUMMERS, DEPUTY SECRETARY

                        Introduction of Witness

    Senator Campbell. We will now take the second panel which 
will be the Honorable Larry Summers, Deputy Secretary of the 
U.S. Department of the Treasury. Larry, thank you for 
appearing. I understand you are on a tight schedule, Larry, so 
if you want to abbreviate your comments, without objection, we 
will take all of your written testimony and put that in the 
record.

                     Oral Statement of Mr. Summers

    Mr. Summers. Thank you very much, Mr. Chairman. I am glad 
to be here. We have always had a good working relationship with 
this committee and Secretary Rubin and I look forward to 
working with you as our new chairman and ranking member.
    We at Treasury are very much aware of the critical 
management problems at the IRS, the problems associated with 
TSM which are by no means behind us, and the seriousness of the 
recent incidents involving browsing.
    Before I get into those subjects I want to acknowledge the 
fact that today is April 15. That it brings to a close what is 
an important annual ritual in America, the payment of taxes. A 
task that none of us enjoy but that the vast, vast majority of 
us carry through with in an honest and complete way.
    And I want to thank 100,000 honest and dedicated IRS 
employees who make this possible. To date we have processed 76 
million returns. Versus last year, I am pleased to report that 
electronic filed returns are up 25 percent, that 36 percent 
more taxpayers have been serviced over the telephone than last 
year, and the accuracy rate has increased from 90 to 93 
percent. The IRS web site has received over 95 million hits, 
and I was pleased that an AP poll released last week reported 
that 7 out of 10 taxpayers give the IRS a positive rating on 
its ability to handle returns and inquiries.
    We need to build on that record. Let me be clear. No one 
can be satisfied with where we are, but I think it is worth on 
this special day acknowledging a successful filing season.

                                Browsing

    Let me now turn to the question of browsing. The Treasury 
Department's policy is very simple: willful, unauthorized 
access to taxpayers' records will not be tolerated. Those who 
violate the rules will be punished swiftly, surely, and with 
appropriate severity. Total respect for the privacy of 
information provided by taxpayers is integral to high quality 
customer service and voluntary compliance; the foundation of 
our system of taxation. That is why, in 1993 in response to 
incidents of violation of that policy the IRS announced what 
was intended to represent an aggressive policy to combat 
unauthorized access to taxpayer records.
    It is clear, however, that this policy was not as 
effectively designed or implemented as it should have been. So 
dealing with this problem calls for additional action on the 
legal front, the managerial front, and the technical front.
    On the legal front, unauthorized access or inspection is 
not now in itself a criminal offense. It should be. That is why 
we at Treasury, as well as Commissioner Richardson, believe 
that the antibrowsing legislation introduced by Senator Glenn 
and a companion bill introduced by Congressman Archer in the 
House need to be enacted as soon as possible. We have worked 
with Senator Glenn and his colleagues to draft this legislation 
and have promoted it from the beginning.
    On the managerial front, we agree with the Congress that 
appropriate penalties for IRS employees engaged in unauthorized 
access must be applied uniformly, firmly, and fairly if the IRS 
is to convince its employees and the public that unauthorized 
access to taxpayer information will not be tolerated.
    But penalties are only a deterrent. On the technical front, 
the IRS needs to strengthen its computer systems to prevent and 
detect unauthorized access. Dramatically improved security 
mechanisms will be an integral part of the architecture for 
modernized tax systems which the Congress will receive in May. 
Secretary Rubin and I have ordered the IRS to report in 1 month 
on what it proposes to do both managerially and technically to 
better address this problem.
    We have further asked the IRS to identify in its report 
what best practices may be learned from other enterprises, 
public and private, which acquire and process very sensitive 
information such as medical and financial records. As soon as 
that report is complete we will convene our modernization 
management board to agree on appropriate action.
    Browsing though is by no means the only significant problem 
that the IRS faces. I would like now to briefly summarize our 
plan to improve the management and operations of the IRS.

                    Treasury Plan to Improve the IRS

    Secretary Rubin and I recognized in testimony last year 
before the Congress that the modernization program, as we put 
it at the time, was off track. We called for a sharp turn and 
made clear our determination to bring about change in the way 
the IRS uses information technology and provides customer 
service. And there has been some important change.
    A new Associate Commissioner for Modernization and Chief 
Information Officer, Art Gross, has been brought into the IRS. 
Following his review of technology projects we have canceled or 
collapsed 26 programs into 9, saving in several cases hundreds 
of millions of dollars in expenses that otherwise would have 
played out over time because we judged the projects not to be 
worthwhile on a go-forward basis.
    Second, we will be submitting a draft request for proposal 
for a tax systems modernization prime contractor to Congress 
and to industry on May 15, 10 weeks ahead of the 
congressionally mandated date. On May 15 of this year we will 
submit to Congress an architectural blueprint which will 
clearly describe what modernization would and would not include 
and how the pieces fit coherently together.
    Steps such as these are only a beginning. Everyone in the 
process recognizes that these problems with the IRS have 
developed over decades and will not be solved overnight, or 
even over a couple of filing seasons.
    As we go forward, it is important that we have a framework 
in which the IRS has the best prospect of carrying out these 
very difficult tasks. Toward that end, we have proposed and 
have discussed with members of the IRS commission and with a 
number of congressional committees five steps that we believe 
are important if the IRS is to work more effectively.
    First, we must strengthen and make more proactive our 
oversight of the IRS. We will consolidate the success of the 
modernization management board by making it permanent and 
extending its mandate to cover the broad range of strategic 
issues facing the IRS. In many ways, within Government this 
entity functions like the board of directors of a troubled 
corporation with outsiders from the agency meeting monthly to 
review and approve, and in some cases disapprove, strategic 
plans that are proposed, and to ensure the top executives of 
the IRS are held accountable for performance.
    We will also establish a blue ribbon advisory committee to 
bring private sector expertise to bear.
    Second, we must work and will work to enhance and 
strengthen the IRS' ability to manage its operations working 
with Congress and the union to improve management flexibility 
in crucial areas such as personnel and procurement. In return, 
employees of the IRS, as in any well-managed business, will be 
held accountable for results.
    Third, we will work with Congress to help the IRS get the 
stable and predictable funding it needs to operate more 
effectively, particularly where capital investments and 
projects with measurable financial paybacks are concerned.
    Fourth, we will work to simplify our 9,451-page tax code. 
Yesterday the administration introduced a revenue neutral 
package of more than 60 simplification measures and we will 
continue to build on this base. These measures will save 
individuals and businesses literally millions of hours that are 
now spent in filing tax forms.
    Fifth, leadership is crucial to performance. Commissioner 
Richardson has guided the IRS through some difficult times. As 
we move forward we are committed to appointing a new 
commissioner whose past experience, different from that of most 
previous commissioners, is with the challenges of 
organizational change, customer service, and improved 
information technology management, because we see these as the 
crucial challenges that the IRS now faces.
    In conclusion, Justice Holmes said that taxes are what we 
pay for civilization. It is essential that our Nation have the 
kind of tax collection system that the American people deserve. 
We at the Treasury are determined to work closely with you 
toward that objective.
    I would be happy to answer any questions that you may have.

                           Prepared Statement

    Senator Campbell. Thank you, Mr. Summers. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
        Prepared Statement of Deputy Secretary Lawrence Summers
                              introduction
    I am pleased to be here today to talk with you about Treasury's 
plan to implement lasting solutions to difficulties the IRS has 
encountered and, more specifically, the issue of unauthorized access by 
IRS employees to tax returns and taxpayer records. I understand that 
this is the first of a series of hearings your Committee will be 
holding over the next two months on Treasury operations as you begin 
your review of the Department's budget requirements for the next fiscal 
year. This Committee has been very supportive of the key role Treasury 
plays in Government as tax administrator, revenue collector, law 
enforcer, financial manager and regulator. Secretary Rubin and I look 
forward to working with you and members of your Committee throughout 
the coming year.
    This is the day that Americans fulfill their annual obligation to 
pay their taxes. As such, it is an appropriate moment to recall both 
the purpose of taxation as well as what Americans ought to demand of 
their system of tax collection. Taxes funds our armed forces, our 
children's education, and our parents' health care, and they finance 
advances in science and technology that benefit us all. They play a 
critical role in sustaining our society.
    However, recent announcements about problems in modernizing the 
computer systems of the IRS have focused attention on its shortfalls 
and provoked an important debate about how best to improve it. I would 
like to begin this morning by addressing the specific topic of today's 
session, the issue of unauthorized access by IRS employees of tax 
returns and taxpayer information. I want to thank the Congress and 
others for their continued focus on this matter, which is helping to 
ensure that it gets the attention it deserves. In turn, I will also 
discuss specific elements of the Administration's five-point plan for 
reform of the IRS.
                   unauthorized access of tax returns
    From the Department's perspective, total respect for the privacy of 
information provided by taxpayers is integral to high quality service 
and voluntary compliance--the foundation of our system of taxation. 
That is why, in 1995, in response to incidents of violation of that 
privacy, the IRS announced what was intended to represent an aggressive 
policy to combat unauthorized access to taxpayer records. Two years 
later, however, it is clear that this policy was not effectively 
designed or implemented and penalties are neither sufficiently 
consistent nor severe to put an end to unauthorized access.
    A key problem is that unauthorized access or inspection is not 
itself a criminal offense. In our view, it should be. We, at Treasury, 
as well as Commissioner Richardson, believe that the anti-browsing 
legislation introduced by Senator Glenn, and a companion bill 
introduced by Congressman Archer in the House, developed with our 
active participation from the beginning of the process, a bill we 
worked together to draft, should be enacted as soon as possible.
    As the Congress has recognized, appropriate penalties for IRS 
employees engaged in unauthorized access must be swift and sure if the 
IRS is to convince its employees and the public that unauthorized 
access to taxpayer information will not be tolerated. Unauthorized 
access represents a fundamental violation of the public's trust in the 
confidentiality of tax returns and return information.
    Significant progress was made on this issue last year when the 
Economic Espionage Act of 1996 amended the Federal wire fraud statute, 
to make unauthorized access by computer to information from any 
department or agency of the United States a separate misdemeanor 
offense. In view of these provisions, ``browsing'' a Federal computer 
is already punishable as a crime.
    However, the bills before the House and Senate today would amend 
the Internal Revenue Code to specifically prohibit the unauthorized 
access or inspection of tax returns and return information, whether or 
not the information is relayed to someone else, criminalizing 
activities not punishable under current law. For instance, they would 
prohibit the unauthorized inspection of non-computerized tax 
information, such as ``hard-copies'' of paper returns or return 
information. They would also prohibit unauthorized inspection of State 
or local government computers (not covered by the Economic Espionage 
Act amendments last year) when Federal tax information has been 
conveyed to them. Finally, even in cases that are already prohibited 
under current law, the new misdemeanor will provide prosecutors with an 
additional tool to obtain a plea bargain or to use in cases where they 
feel that other provisions of the law should not be invoked.
    While the new legislation would strengthen our hand in putting an 
end to unauthorized access, it is important to remember that penalties 
are only a deterrence. In addition, the IRS needs to strengthen its 
computer systems to detect and prevent unauthorized access before it 
occurs. Secretary Rubin and I have ordered the IRS to report within one 
month on what it proposes to do both managerially and technically to 
better address this problem. Let us be clear, however, that this 
problem is not one confronted by the IRS alone. Every organization that 
depends on complex computer systems faces a similar challenge. 
Therefore, the Secretary and I have also asked the IRS to identify in 
its report what best practices might be copied from other enterprises, 
both public and private, which acquire and process sensitive 
information, such as medical and financial records. As soon as that 
report is complete, we will convene a special meeting of the 
Modernization Management Board to agree on appropriate action.
    In short, Mr. Chairman, Our policy is simple: Willful unauthorized 
access will not be tolerated. Our goal is also simple: We want quick, 
appropriate and severe penalties for those who violate these rules.
    While it is vitally important that Congress pass the legislation I 
have mentioned, let me share with you some of the administrative steps 
we have already taken.
    Under Treasury's oversight, the IRS has:
  --Expanded use of the Electronic Audit Research Log (``EARL'') to 
        identify instances of unauthorized access;
  --Created an ``800'' number offering tips about unauthorized 
        inspections;
  --Hired new managers in computer security; and
  --Put in place disciplinary procedures that include provisions up to 
        and including dismissal, for employees who are found to have 
        violated the privacy policy.
    In addition, IRS employees have been provided with:
  --Warnings to employees on unauthorized access to taxpayer records 
        when documents are accessed by computer;
  --Training on the privacy policy of Sec. 6103;
  --Regular refreshers on Sec. 6103; and
  --Privacy guidelines which explicitly condemn unauthorized browsing 
        of taxpayer records.
    We expect that these actions as well as others enumerated in the 
GAO report issued last week will exert a strong deterrent effect on 
employees who might otherwise be tempted to perform unauthorized 
inspection of taxpayer records.
                           management reform
    To improve our ability to handle this and the other issues facing 
the IRS, significant changes are needed. I would now like to turn to 
our plan to improve the management and operation of the IRS.
    Over the last year, the Treasury Department has focused intense 
efforts on improving the IRS. The National Commission on Restructuring 
the IRS, led by Senator Bob Kerrey and Congressman Rob Portman, has 
already made a significant contribution to the ongoing discussion. A 
consensus has emerged among a wide group of stakeholders, from business 
executives to Members of Congress to leaders of the National Treasury 
Employees Union. The message is clear: it is time for change.
    I believe that in the next year or so we have the opportunity and 
the obligation to bring about the most far-reaching changes in the way 
the IRS is managed and in the way it does its business in decades. It 
will be the task of management at the IRS to manage information 
technology better and to harness it toward the goal of better customer 
service. What I would like to provide today is the Treasury 
Department's view of how to establish a framework within which the IRS 
can best get its mission accomplished. I use the phrase ``get its 
mission accomplished'' deliberately to underscore the fact that the IRS 
of the future will have to contract out, outsource, partner with the 
private sector, and rely on outside vendors to a much greater extent 
than the IRS of the present.
    Secretary Rubin and I recognized last year in testimony before the 
Appropriation Committees that the IRS's modernization program was, as 
we put it at the time, off track. We called for a ``sharp turn'' and 
made clear our determination to bring about change in the way the IRS 
uses information technology and provides customer service. And there 
has been change. Specifically:
  --We have appointed a new Chief Information Officer at the IRS, Art 
        Gross. Following his review of technology projects, we canceled 
        or collapsed 26 programs into nine.
  --The IRS has increased outsourcing. The percentage of contractors, 
        as opposed to IRS staff, working on tax systems modernization 
        has increased from 40 to 64 percent over the past two years. 
        The number of IRS staff working on tax systems modernization 
        has decreased from 524 to 156. And we expect to pursue a prime 
        contractor for systems modernization and integration and to 
        develop an outsourcing strategy for submissions processing.
  --The IRS has made progress in eliminating paper. This year, we 
        estimate that 19.2 million Americans will file electronically 
        by telephone or computer, up from 11.8 million taxpayers in 
        1995.
  --While there is a long way to go, the IRS has made progress in being 
        able to respond to all incoming calls.
  --The IRS has improved customer service by beginning to change the 
        internal culture of the IRS. Last summer, President Clinton 
        signed bi-partisan legislation enacting the Second Taxpayer 
        Bill of Rights, which vastly increased our number of taxpayer 
        advocates. After interviewing our head Taxpayer Advocate on 
        NBC's Today Show, Katie Couric proclaimed that Americans have a 
        friend at the IRS.
  --We will be submitting a draft Request for Proposal for a Tax 
        Systems Modernization prime contractor to Congress and to 
        industry on May 15, ten weeks ahead of the required due date.
  --On May 15 of this year, we will submit to Congress an architectural 
        blueprint which will clearly describe what modernization would 
        and would not include and how the pieces fit coherently 
        together.
    Steps such as these are obviously only the beginning. Everyone 
involved in this process at Treasury, the IRS, Congress, and the union 
has recognized that the problems at the IRS have developed over decades 
and will not be solved overnight or even over a couple of filing 
seasons. Only if we confront problems directly--from protecting 
taxpayers' privacy to using technology to making sure the phones are 
answered--will we build an IRS for the 21st century.
    As we chart our new course, our focus will center on five critical 
areas to effect broad change: (1) oversight; (2) flexibility; (3) 
budgeting; (4) tax simplification; and (5) leadership. Let me address 
each of these in turn.
    First, Treasury has strengthened and made proactive our oversight 
of the IRS. We will consolidate the success to date of the 
Modernization Management Board (MMB) by making it permanent and 
extending its mandate to cover the broad range of strategic issues 
facing the IRS. We will also establish a Blue Ribbon Advisory Committee 
to bring private sector expertise to bear on the management of the IRS.
    Oversight of the IRS by the Treasury department is the best way to 
ensure the IRS's accountability to the American people and to 
coordinate tax collection with tax policy. Through the Treasury, the 
IRS is able to bring concerns about the difficulty of administering tax 
changes to senior Administration officials; I raise these concerns 
frequently in tax policy discussions with policymakers in the White 
House and throughout the Administration. In addition, the IRS is able 
to draw upon Treasury resources for critical projects, as demonstrated 
by our current cooperation on the Year 2000 conversion.
    Going forward, first, we have set up a Modernization Management 
Board comprised of senior officials from Treasury, the IRS, and other 
parts of the Administration. The Modernization Management Board is 
directed at overseeing the information technology programs and 
functions in many ways like a corporate board, approving major 
strategic decisions and investments.
    Second, we will also establish a blue ribbon Advisory Committee, 
reporting directly to the Secretary of the Treasury, to bring private 
sector expertise to bear on the management of the IRS. This committee, 
composed of senior business executives, experts in information 
technology, small business advocates, tax professionals, and others, 
will meet regularly to make recommendations on major strategic 
decisions facing the IRS.
    Second, we will enhance and strengthen the IRS's ability to manage 
its operations, working with Congress and the union to improve 
management flexibility in personnel and procurement. In return, 
employees of the IRS, as in any well-managed business, will be held 
accountable for results. Second, we will enhance and strengthen the 
IRS's ability to manage its operations. The IRS faces a multitude of 
restrictions--restrictions that would be unacceptable in the private 
sector--that hamper its ability to provide efficient service. For 
example:
  --The IRS should be able to attract and retain the highest quality 
        information technology specialists and other professionals.
  --The IRS should not face rules that make restructuring the work 
        force needlessly difficult for employees and the employer.
    To strengthen the Commissioner's ability to effect change, we at 
Treasury will work with Congress, the Commission, and the union to 
improve flexibility: to bring on people with specific skills more 
quickly, to pay them more competitively, and to give them the training 
they need. Many of these changes will require legislation, and we 
expect to propose this legislation to Congress later this year.
    In return, if legislation is passed, employees of the IRS, as in 
any well-managed business, will be held accountable for results.
    Let me add that in taking these steps, we are committed to 
maintaining the independence and freedom of the IRS from political 
influence.
    And a crucial part of any strategy for improving flexibility has to 
be outsourcing. Just as private industry has found that outsourcing 
enables an organization to focus on what it does best and to rely on 
others for what they do better, so government can benefit from 
outsourcing as well. Inevitably, resources hired from private companies 
will be more flexible than those that become part of the IRS's 
overhead. Where it is cost effective, but only where it is cost 
effective, we will pursue outsourcing strategies vigorously.
    Third, we will work with Congress to help the IRS get the stable 
and predictable funding it needs to operate more effectively. To this 
end, the fiscal year 1998 budget proposes multi-year investments for 
technology.
    Fourth, we will work to simplify a tax code that covers 9,451 
pages. Just yesterday, the Administration proposed a series of 
simplification proposals as part of our plan to improve IRS operations. 
These proposals represent a continuation of efforts to provide IRS with 
a simpler tax code to administer.
    There are some who, based on the complexity of the tax code and on 
the problems at the IRS, argue for extreme measures such as a flat tax. 
I believe that such proposals would not only unfairly increase the tax 
burden on the middle class and hamper economic growth, they would not 
simplify the administration of the tax code.
    Fifth, leadership is crucial to performance. Commissioner 
Richardson has guided the IRS through difficult times and has made 
progress in many areas. As we move forward, we are committed to 
appointing a new Commissioner who has experience with the challenges of 
organizational change, customer service improvement, and information 
technology management that the IRS faces.
                               conclusion
    This morning I have discussed some of the specific steps we are 
taking and must take to put an end to unauthorized access to taxpayer 
information. In turn, I have discussed the broad five point plan that 
we believe represents the best way to reform the management of the IRS.
    Let us be clear about one thing. In any discussion of the 
performance of the IRS, we must recognize the unswerving 
professionalism and dedication of the 100,000 loyal IRS employees who 
are just completing this year's filing season. They are not the 
problem.
    Let us also recognize that while the IRS needs to be more 
responsive to taxpayers, to use technology more effectively, and to be 
more efficient, it is likely that for the foreseeable future, the 
United States will have an income tax that taxes people based on their 
ability to pay. Given this, it is not possible to eliminate the IRS, 
and it is vital that we have an IRS that functions effectively. We must 
all work constructively toward this end. What we must not do is attack 
the IRS in order to promote other agendas.
    While we have further to go, the filing season which is about to 
end has been our most successful to date. Let me share with you three 
statistics which I believe demonstrate that IRS performance is on the 
upswing. To date:
  --Electronically-filed returns are up 25 percent over last year, 
        while 35 percent more taxpayers have been served by IRS 
        employees over the telephone;
  --The IRS web site has received over 95 million hits this fiscal 
        year, a 162 percent increase; and
  --The accuracy rate for tax law questions continues its upward trend 
        from 90 percent to 93 percent.
    Reflecting the success of this past filing season, Americans are 
recognizing that the IRS has improved. A poll by the Associated Press 
released last week reported that 7 out of 10 taxpayers give the IRS a 
positive rating on its ability to handle returns and inquiries. I have 
attached to this statement summary statistics on the current filing 
season.
    In conclusion, we are making progress. But we have a long way to 
go. As we go forward, we, at Treasury and the IRS, want and need your 
suggestions and help, and I look forward to working closely with this 
Committee to set the right course and stay on it. I will now be happy 
to answer any questions the Committee may have.

                                          IRS CUSTOMER SERVICE ACTIVITY                                         
----------------------------------------------------------------------------------------------------------------
                        Activity                            1994 \1\      1995 \1\      1996 \1\        1997    
----------------------------------------------------------------------------------------------------------------
Total Paper.............................................        54,969        56,987        53,480        49,794
Total ELF...............................................        13,173        10,871        13,613        17,079
Total returns (thousands) as of 4/4/97..................        68,142        67,858        67,093        66,873
1040 Telefile...........................................           490           635         2,591         4,072
1040 ELF \2\............................................        12,683        10,236        11,022        13,007
On-line.................................................           N/A           N/A           122           300
FedState................................................         1,066         1,408         2,902         3,916
1040PC..................................................         2,507         1,253         3,871         4,488
1040....................................................        27,470        29,154        25,769        25,114
1040A...................................................        12,863        14,046        12,639        11,317
1040EZ..................................................        12,130        12,534        11,031         8,875
1040OT..................................................           N/A           N/A           170           N/A
Direct deposit:                                                                                                 
    Volume (thousands)..................................         9,670         6,160         8,980        13,307
    Dollars (billions)..................................         $14.5          $8.5         $16.8         $24.2
IRS Internet accesses (fiscal year) as of 3/30/97.......           N/A           N/A    36,559,735    95,724,828
Toll-free calls as of 3/29/97: \3\                                                                              
    Fiscal Year.........................................       ( \4\ )    21,179,346    23,476,558    30,924,598
    Filing season.......................................       ( \4\ )  \5\ 14,287,0                            
                                                                                  85    18,081,884    24,652,160
Walk-in as of 3/22/97:                                                                                          
    Fiscal year.........................................     2,869,005     2,997,884     3,224,312     3,354,413
    Filing season.......................................       ( \4\ )       ( \4\ )     2,142,728     2,296,333
Accuracy rates:                                                                                                 
    Tax law (percent)...................................          89.9          89.6          90.0          95.0
    Accounts (percent)..................................          85.9          91.5       ( \4\ )          93.0
EFTPS as of 3/28/97:                                                                                            
    Dollars (billions)..................................           N/A           N/A           N/A         $54.8
    Number enrolled.....................................           N/A           N/A           N/A   \3\ 960,171
TaxLink as of 3/28/97:                                                                                          
    Dollars (billions)..................................        $78.17         $84.9        $175.3        $173.1
    Number enrolled.....................................       ( \4\ )        32,057        57,201        79,689
----------------------------------------------------------------------------------------------------------------
\1\ Comparison is made to the closest measurement period in these years.                                        
\2\ On-line and FedState totals are included in 1040 ELF volumes.                                               
\3\ As of March 15, 1997--97 calls answered including 1040, 8815 and 4262 calls.                                
\4\ Unavailable.                                                                                                
\5\ Computed figure.                                                                                            

                            Browsing at IRS

    Senator Campbell. I know that you would like to leave by 
11:15. I have about 8 or 10 questions. I think about one-half 
of those I will submit to you. If you would answer those for 
the committee in writing, I would appreciate it. Just let me 
ask you a couple.
    You have, obviously, addressed the issue with the IRS 
Commissioner as part of your oversight functions on many 
occasions. I take that from your testimony. How long have you 
known about the snooping problem within the IRS? When did it 
come to your attention?
    Mr. Summers. Snooping as an issue has been out there for 
some years. In 1993, the IRS introduced a set of policy changes 
that were designed to deter snooping within the IRS, and we 
were aware of this problem and that they were working to fix 
it. When I say we, I mean people in the Treasury Department. It 
was not part of my position at that time.
    Subsequently, it has become clear from the GAO reports and 
from other sources that the steps that had been taken were not 
adequate to respond to this problem, and that is why we have 
worked with Senator Glenn to support this legislation that 
offers, we believe, an important prospect to enhance our 
deterrence with respect to snooping.
    Senator Campbell. You feel that you cannot do an adequate 
job without that legislation to really rein in the snooping?
    Mr. Summers. I think it is absolutely essential that that 
legislation pass. I think it is also essential that we 
strengthen our technical means to detect snooping when it takes 
place. And I think it is essential that we draw on the best 
practices, because this problem of available records and 
employees is a problem that hospitals face. It is a problem 
that credit card companies face. We have to learn what the best 
practice is, and we have to make sure we are implementing the 
best practice. That is what Secretary Rubin and I have ordered 
that the IRS do.
    Senator Campbell. I noticed with interest, you mentioned 
that some of the browsing is done against people's enemies. But 
they also do it with their own relatives and friends, on 
occasion. Who within the IRS and Treasury is ultimately 
responsible for the management and security of taxpayers' 
files? Is there an office or a title of a person that is the 
lead person on that?
    Mr. Summers. Ultimately, the Commissioner of the IRS, the 
Secretary and Deputy Secretary of the Treasury, and ultimately 
the President are responsible for the execution of law, and we 
take that responsibility very seriously. There is a privacy 
advocate within the IRS for whom issues of this kind, 
obviously, should be an important focus.
    Senator Campbell. Thank you. I will submit the rest of my 
questions.
    Senator Kohl.

                       Management Failures at IRS

    Senator Kohl. Thank you, Mr. Chairman. Deputy Secretary 
Summers, I would like to focus on the Department of the 
Treasury and the IRS' administration that allows the recurrence 
of management failures. Recently Congress has signaled its 
concern over IRS' progress in modernizing its processes and 
systems by cutting IRS' budget request for funds to support 
modernization efforts, withholding modernization funding until 
IRS successfully addresses certain identified problems, 
directing Treasury to assess and report on IRS progress in 
taking corrective actions, and establishing a national 
commission on restructuring IRS with a broad charter to review 
IRS management and operations.
    Treasury has also signaled its concern by directing the IRS 
to allow in outside contractors with technical expertise, and 
establishing a review and decisionmaking board to monitor IRS' 
information technology, the Modernization Management Board. My 
question is, Have any of these efforts produced an IRS that is 
more management aware? And what actions has the IRS taken to 
indicate that they are taking these management failures 
seriously?
    Mr. Summers. Senator, the changes that have been made over 
the last year in canceling or consolidating 26 projects, many 
of which had been underway for some years that were not 
producing the kinds of cost-effective results that had been 
hoped, that represented the cancellation of contracts into 
which a good deal had been invested because of a recognition 
that you cannot run a business by using the sunk cost principle 
and continuing any investment in which you have sunk costs, but 
instead have to go on a go-forward basis and do only those 
things that are economic, going forward, recognizing that that 
can mean some painful writeoffs.
    I think that is a real departure, and I think it is an 
important departure. If you look at contracts like the DPS 
contract, a very tough decision was made and I think that 
decision was forced by the processes of improved management 
that we have put in place.
    Traditionally, senior positions at the IRS have been, in 
the vast majority of cases, filled from within. The Department 
and the IRS brought in Art Gross as Chief Information Officer 
even though his experience was not at the IRS. His experience 
was in quite innovative reengineering, in effect, of the New 
York State tax system. As Chief Information Officer and 
Associate Commissioner for Modernization, he now has broad 
ranging responsibilities for the information technology program 
and is assembling a team, in part from within the IRS and in 
part by drawing on expertise that is available on the outside, 
to change the management practice.
    So we have taken tough choices. We have brought in new 
people. We have changed approach.

                          IRS Prime Contractor

    Traditionally, the IRS has been its own systems integrator. 
It has taken responsibility for negotiating with a wide number 
of different contractors, and with that wide number of 
different contractors it puts the whole process together. We 
have made a decision to seek to move toward a prime contractor 
and have committed to develop the specifications and share them 
with industry and are ahead of schedule--something that I think 
has not been terribly common in the past--ahead of schedule in 
being in a position to share those prime contract 
specifications with the contractor community.
    And as I suggested, with all the problems, I think it is 
worth taking note and acknowledging where there has been 
improvement. Thirty-six percent more people--not enough, not 
adequate, but 36 percent more people were able to speak on the 
telephone with an IRS representative. They got more accurate 
information than they had in the past.
    So I think we have said all along that this is going to be 
a process of continuing improvement. That that is going to take 
a long time. That these problems were not made within a year 
and that it is going to be a process of producing improvement. 
But I am convinced that the turn that we indicated we needed to 
bring about is underway.

                  Treasury Executive Attention to IRS

    Senator Kohl. You are a very busy man with many 
responsibilities, one of which is the IRS. Could you tell us, 
in the average month how much time do you get to spend on these 
problems?
    Mr. Summers. It seems like a lot of time. In the last 
several months I think I have spent certainly more time on the 
IRS and issues of IRS management than I have on any other 
single issue that the Treasury Department is engaged in. I 
might say that Secretary Rubin has also devoted a substantial 
amount of time to discussing issues relating to the structuring 
of the IRS, the search for a new Commissioner, design of the 
information technology management programs.
    So this is, in terms of people, more than two-thirds of the 
Treasury Department and is about as fundamental an executive 
responsibility, collecting taxes, as the executive branch has. 
So while it may not always have been a high priority for the 
Treasury Department, certainly Secretary Rubin has made it a 
central priority for himself and for his team, and I guess his 
team starts with me.
    But beyond what we are able to do, this structure we have 
created, the management board, which by meeting monthly, by 
having to review all major investments and strategic decisions, 
focusing a whole set of review activities that take place 
within the Department.
    In our management section which looks at cost effectiveness 
analyses with respect to investments, in our tax policy areas 
that reviews regulatory decisions and reviews policy decisions 
that have impact on tax administration, in our legal area that 
reviews questions relating to taxpayers' rights and drove some 
of the decisions that were contained in the simplification 
proposal we have put forward. For example, to make certain 
adjustments with regard to equitable tolling, taxpayers who 
were disabled or were unable to file their returns for very 
legitimate kinds of health reasons who previously had not been 
treated fairly under the system.
    So it is a major preoccupation for Secretary Rubin and I. 
But beyond that, it receives very substantial attention from a 
number of different parts of the Treasury Department. In 
particular, we are strengthening the oversight in the 
management area because clearly that is something where we are 
going to need to be able to do our own analyses in order to 
hold the IRS accountable for performance.
    Senator Kohl. Thank you.
    Thank you, Mr. Chairman.
    Senator Campbell. Senator Shelby.
    Senator Shelby. Thank you.

                         Penalties for Browsing

    Secretary Summers, I understand that the GAO listed 
retirement as one of the most severe penalties that is imposed 
by the IRS on employees caught browsing. Is it possible for an 
IRS employee who is caught file snooping, browsing, to receive 
a buyout for early retirement? And is it also possible for that 
employee to keep retirement benefits?
    In other words, is there a difference between being fired 
and just getting early retirement?
    Mr. Summers. There ought to be a difference, Senator.
    Senator Shelby. What did you say?
    Mr. Summers. Senator, I said there certainly ought to be.
    Senator Shelby. There should be a difference.
    Mr. Summers. There ought to be a very clear difference.
    Senator Shelby. Do you know if there is a difference?
    Mr. Summers. I suspect that the difference now is 
inadequate. That is why I think it is very important that we 
pass this legislation that affects browsing. As you can 
appreciate, Senator, this is not an area I am familiar with. 
Throughout the Federal Government there are personnel policies 
to cover if somebody is guilty of some kind of malfeasance and 
is fired and what happens to their pension with respect to what 
they have accumulated to date. That is something that has to be 
harmonized with overall personnel policies.
    But certainly, people should not get bought out for having 
committed serious instances of malfeasance. That is absolutely 
wrong.
    Senator Shelby. How important is it, do you believe, within 
the Internal Revenue Service that they stop browsing, stop 
snooping of employees in taxpayers' files? How important is it 
to the integrity of the Internal Revenue Service?
    Mr. Summers. I think customer service is the highest 
priority for the IRS, along with ensuring compliance. And I 
think that achieving ending browsing is absolutely central to 
that objective.

                      Stopping Browsing at the IRS

    Senator Shelby. How do you stop things like that? Do you 
stop it by an example of firing people, by punishing people 
that do this, that break into taxpayers' private files? Or do 
you do it by just giving them a retirement and a little slap on 
the wrist?
    Mr. Summers. I think you do it by firing them, and I think 
you do it by making it a crime, a Federal crime. That is why 
the legislation that Senator Glenn and Senator Coverdell and 
Congressman Archer have worked on is so very important. And I 
think, as I acknowledged in my testimony, Senator, that the 
approach that was followed to date has not been adequate. That 
is why it is so important that we have this legislation.
    Senator Shelby. Would you, for the record, just furnish 
this? I am sure you do not have it today. By how many IRS 
employees who have been caught file snooping or browsing have 
received early retirement? We would like to have that for the 
record.
    And Dr. Summers, can you provide this committee an idea of 
how much money has been paid in early retirement incentives or 
retirement benefits to the IRS employees caught snooping in 
other people's tax files? Could you do this for the record for 
the committee?
    Mr. Summers. We certainly will.

                         Privacy of Tax Records

    Senator Shelby. I realize you do not deal with the details 
of this in your job description every day, but as one of the 
key people over there, you and Secretary Rubin, I think it is 
very, very important to send a message to the American people 
that when they file their tax returns that their privacy is 
going to be protected, do you not?
    Mr. Summers. Absolutely. Absolutely, I think it is a 
central aspect of maintaining the integrity of the system. That 
is why I think the legislation is important. But that is why I 
think the legislation is not the whole answer. I think we have 
to strengthen our systems of detection with respect to these 
kinds of problems. This is a problem that the IRS faces. It is 
a problem that a major hospital faces where you do not want 
people browsing through people's medical records. It is a 
problem that credit card companies face, and we need to find--
--
    Senator Shelby. Doctor, you are not comparing, I hope, the 
Internal Revenue Service--that institution that Americans live 
in fear of and have a lot of respect for historically--to 
regular hospital records that people run in, and look in, and 
copy and so forth?
    Mr. Summers. Not at all.
    Senator Shelby. You are not really comparing the IRS to a 
hospital? I hope not.
    Mr. Summers. Not at all, Senator. I was only seeking to 
suggest that I think, as a general proposition, we in 
Government need to find best practices from the private sector 
to assure that we are incorporating them. And I think we have 
to be held to a much, much higher standard than any private 
institution in terms of stopping browsing because of how 
absolutely fundamental a person's tax return is as basic 
financial information, and how central privacy is with respect 
to that very basic information.
    Senator Shelby. Has this Secretary and this administration 
put a great emphasis on that at the Internal Revenue Service, 
or is it just business as usual? We hear about it in the press 
and somebody--we have a hearing, and it goes on and people 
continue to go on and do it, and if they get caught, they get a 
retirement. Or what happens?
    Mr. Summers. As I acknowledged, Senator, I think what we 
are seeing is that what was put in place when this problem 
surfaced several years ago was not fully adequate. That is why 
from this point forward this has been made something that is 
absolutely central. It is not business as usual. It has 
occupied a substantial amount of time of the top management of 
both the Treasury and the IRS, and we are going to do 
everything we humanly can to combat this practice.
    Senator Shelby. If the Congress passes the bill to make 
this a crime, are you and the Secretary going to urge the 
President to sign it and not veto it?
    Mr. Summers. Absolutely.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Campbell. Senator Faircloth, do you have comments 
or questions?

                      Supervision of IRS Employees

    Senator Faircloth. Yes; thank you, Mr. Chairman, I do have 
a very brief statement and I will make it more brief than it 
was. I thank you for holding the hearing.
    Today is an important day in most of our lives in that 
today is the big day, and 211 million Americans are going to 
file tax returns and they are going to pay something like $1.6 
trillion.
    But the results of the recent investigation by the General 
Accounting Office was an outrage when there were 1,500 cases of 
IRS employees going into Government computers to browse through 
tax files. It is not the first time. It went on in 1993 and 
1994 when 1,300 tore into the same files. But that ended it in 
1993 and 1994, because the Commissioner announced a zero 
tolerance for such policies. I am not sure what zero tolerance 
means. I guess it means be more discreet when you do it from 
now on.
    I am concerned that we cannot count on the senior 
management at the IRS to supervise their own employees. I have 
some questions about the supervisors themselves. I keep reading 
accounts in the paper of specific organizations being audited 
selectively. I do not know whether it is true or not. I do not 
work for the IRS. But I think if it is, it is a deplorable 
condition to have developed.
    I support the bill that Senator Glenn is an original 
cosponsor. The only problem I find with it is it is far, far 
from strong enough; $1,000 fine and 1 year in prison for 
probing into some people's files. It does not take much of a 
breaking of revenue loss to bring you a lot more than that 
under the revenue code.
    But I think I will go on with a question. What authority 
does the Secretary of the Treasury have over the IRS 
Commissioner? In other words, who supervises the head of the 
IRS in making selective audits?
    Mr. Summers. I will try to give you as legally accurate an 
answer as I can.
    Senator Faircloth. Just an accurate answer. It does not 
have to be legal.
    Mr. Summers. The Commissioner of the IRS is a Presidential 
appointee subject to Senate confirmation. The Commissioner of 
the IRS reports to the Office of the Secretary of the Treasury 
in this administration, and I think normally, through the 
Deputy Secretary of the Treasury.
    Senator Faircloth. Come through that again slower, or maybe 
quicker.
    Mr. Summers. The Commissioner of the IRS is a Presidential 
appointee subject to Senate confirmation located in the 
Treasury Department. The Commissioner reports to the Office of 
the Secretary of the Treasury.
    Senator Faircloth. Which is you?
    Mr. Summers. Which is the Secretary of the Treasury and me 
as Deputy Secretary; that is right.
    Senator Faircloth. So you supervise her?
    Mr. Summers. That is right.
    Senator Faircloth. So you take responsibility for her 
actions?
    Mr. Summers. That is right.

                        Taxpayer Bill of Rights

    Senator Faircloth. I am always amused, the administration 
has a taxpayers' bill of rights; is that not right?
    Mr. Summers. That is right.
    Senator Faircloth. Why write a taxpayers' bill of rights 
when you blatantly are ignoring the original Bill of Rights in 
the Constitution by probing into people's tax returns? Why have 
one if you are not going to obey the other? It kind of sounds 
like a redundancy to me.
    Mr. Summers. Senator, there is no difference, I think, 
between anyone in the administration, in the Congress, in the 
indignation with which we regard, and the outrage with which we 
greet these revelations that snooping is a continuing practice. 
We are determined to do everything we can to find the formula 
which will eliminate this practice because it is an outrage.
    Senator Faircloth. What did you do with the 1,300 they 
caught in 1993 and 1994? What happened to those people? How 
many of them were fired?
    Mr. Summers. I do not have the data on 1993 and 1994, but--
--
    Senator Faircloth. Does somebody know?
    Mr. Summers. It was a small fraction.
    Senator Faircloth. Does somebody there know?
    Mr. Summers. If somebody can hand it to me, they can give 
it to me. But it was a very small fraction.
    Senator Faircloth. Were fired?
    Mr. Summers. A very small fraction were fired, that is 
right.
    Senator Faircloth. What did you do with the other ones?
    Mr. Summers. In some cases there were cautions and no 
formal discipline. In others there was formal discipline up to 
a suspension of less than 14 days. In other cases there was a 
suspension of 14 days or more or a grade reduction.
    Senator Faircloth. How many of them were retired?
    Mr. Summers. I do not have in front of me the information 
on those who retired.
    Senator Faircloth. I see a man back there who looks like he 
is getting it.
    Mr. Summers. If somebody can hand me--the only information 
that I have here is on fiscal years 1995, 1996, and 1997 to 
date.
    Senator Faircloth. So you are talking about the 1,500, the 
last batch of them.
    Mr. Summers. I am sorry, Senator?
    Senator Faircloth. It was 1,300 they caught in 1993 and 
1994.
    Mr. Summers. I do not have the numbers in front of me on 
1993 and 1994.
    Senator Faircloth. Well, do you have them behind you?

                            Browsing in 1994

    Mr. Summers. I am looking for them behind me. Apparently, 
we do not have them behind me. We will certainly furnish that 
information for the record.
    I was just given a sheet of paper that says that in fiscal 
year 1994, for example, there were 646 allegations involving 
misuse of the system. That in 50 of them the person was 
cleared. In 204 of them the matter was closed without action, 
whatever that means. In 190 of them the person received 
counseling.
    Senator Faircloth. What does counseling mean?
    Mr. Summers. I suspect that means their supervisor spoke 
with them about how this was wrong.
    Senator Faircloth. And they did not know that before?
    Mr. Summers. Senator, I can only----
    Senator Faircloth. I am sure glad they told them that that 
was wrong.
    Mr. Summers. Senator, I share your indignation about this 
having been managed in a way that was wrong. That is why I 
think this legislation making clear to everybody that this is a 
crime is so very, very important.

                       Tax Systems Modernization

    Senator Faircloth. If I may, I want to ask you a quick 
question about the computer fiasco. Will you tell me where that 
has been and where it is heading? Briefly, because the chairman 
is going to cut me off.
    Mr. Summers. It has been way off track. It has been turned 
around through the cancellation of projects that are not cost 
effective going forward through the development of an 
architecture, through bringing in new personnel, and through 
turning the most difficult work over to closely supervised 
private sector experts.
    Senator Faircloth. Whoa, whoa. You mean you are going to 
turn the tax returns----
    Mr. Summers. No, no, no. No; the task of building a 
computer system. Not operating a computer system or having any 
contact with tax returns. The task of building and constructing 
a computer system and making sure that different computers talk 
to each other in line with the recommendations of a number of 
outside groups, we are going to move toward a prime contracting 
approach.
    Senator Faircloth. Mr. Summers, there is not anyone in the 
world that knows less about computers than I do, and at 69 
years old I plan to go out of here without learning any more 
about them. But I would think somewhere in the IRS, with all of 
its accumulated wisdom, with the ability to draw on any source 
in the world, I do not see how we could waste $3 billion--and 
that is what I understand we have absolutely wasted in a fiasco 
of mistakes. Is that an overstatement of the facts?
    Mr. Summers. Senator, serious as this problem has been, I 
think it is a bit of an overstatement of the facts.
    Senator Faircloth. Cut it back to where it should be. How 
many billion did you lose?

                              Cost of TSM

    Mr. Summers. The total cost of the project has been between 
$3 and $4 billion, and the project overall has certainly not 
lived up to expectations. But the largest fraction of that 
money has been used to modernize equipment, to create systems 
like the Telefile, which has enabled more and more Americans to 
pay their taxes on telephones. Approximately $500 million has 
been spent on systems that were subsequently discontinued as 
not cost effective.
    Senator Faircloth. So you are saying that of this $4 
billion, $3.5 billion of it has been well-spent money, and no 
waste? It can jump right in----
    Mr. Summers. No; I think there are----
    Senator Faircloth. I keep hearing that only a small part of 
it is salvageable.
    Mr. Summers. No; I think, Senator, based on our analysis of 
the situation----
    Senator Faircloth. Half of it?
    Mr. Summers. Most of the money has been spent purchasing 
equipment that is in use at the IRS today assisting in the 
processing of tax returns. I am not going to say that that 
means that that money was spent as well as it could have been, 
that the systems that were purchased were the right systems or 
that they are as effectively configured to interact with one 
another as they could have been if this project had been better 
designed and managed. But the writeoff, the stuff that is the 
equivalent of trying to purchase a plane that does not fly, 
that is contained, that represents about $500 million, which--
just so we are clear--is $500 million too much.

                         Accountability for TSM

    Senator Faircloth. Who was in charge of buying this stuff? 
Who was the person in charge of running it, buying it and 
making it work?
    Mr. Summers. This project, the efforts to computerize the 
IRS have been underway for 25 years. The TSM program has----
    Senator Faircloth. But this thing started about 4 years 
ago, this expenditure, did it not?
    Mr. Summers. No; I think that the TSM program that involved 
the figures that you referred to dates back to 1988 or 1989----
    Senator Faircloth. Who was in charge of it in 1988 or 1989?
    Mr. Summers. And has been carried on under three or four 
IRS Commissioners. I think that the responsibility would be 
with the Commissioners. Frankly, I do not precisely recall the 
order of the Commissioners during the 1980's. Ms. Peterson was 
the Commissioner for a time. Mr. Goldberg was the Commissioner 
for a time. Mr. Gibbs was the Commissioner for a time. There 
have been a number of Commissioners.
    Senator Faircloth. But was there not an engineer, a 
computer expert within the IRS that was leading this?
    Mr. Summers. There have been a number of----
    Senator Faircloth. The Commissioner is a political 
appointee. They kind of come and go. But is there not a head 
engineer for computer buying in the IRS?
    Mr. Summers. Frankly, that has been one of the problems. 
There were over this period a number of Associate Commissioners 
for Modernization and Chief Information Officers who had 
responsibility. Frankly, the performance internally had not 
been satisfactory, which is why the Department insisted, after 
recognizing that the program was way off track, that the IRS 
turn to the outside and get someone with proven experience in 
this area, and the Department took an active involvement in 
recruiting Mr. Gross.
    Senator Faircloth. Did you fire the ones that messed up 
inside?
    Mr. Summers. The ones that----
    Senator Faircloth. That wasted this $1 billion.
    Mr. Summers. The ones who, the people who I think were 
involved in making these mistakes are no longer involved in 
information technology management at the IRS.
    Senator Faircloth. What are they involved in? They are 
still with the IRS?
    Mr. Summers. In some cases the people have resigned and 
have left the IRS. Whether there are other people who are now 
working in the IRS in capacities outside of information 
technology management who were involved in some way in this 
program, I think that may well have happened.
    Frankly, Senator, this is also part of what has been 
involved in our effort to fix this is, I think, exactly what 
you are trying to get at, which is that the culture of the IRS 
did not provide for adequate accountability.
    Senator Faircloth. I am sorry?
    Mr. Summers. The way the IRS was structured did not provide 
for adequate accountability. In other words, a committee, a 
group of people who were supposed to work together on the 
system, and so if the system did not work there was no 
identified individual who could be held responsible.
    Senator Faircloth. It sounds like it was put together by a 
committee. It really does. It has all of the outward 
appearances of a committee operation.
    Senator Campbell. The gentleman's time has----
    Mr. Summers. Senator, we have changed that. Senator, I just 
want to say, we have changed that. There is now a person who is 
in charge, who is responsible, who has come in from the outside 
and who I believe is doing a very good job.
    Senator Faircloth. Thank you.

                   Disposition of IRS Browsing Cases

    Senator Campbell. Just as an addendum to what Senator 
Faircloth, some of the questions he asked, I have a disposition 
of cases, misconduct allegations involving misuse of the IDRS 
in front of me here and I am looking at the 1995--and they are 
pretty similar to 1991, 1992, 1993, and 1994. It says 7 percent 
were cleared, 33 percent closed without action, 32 percent 
counseled, 21 percent disciplinary action, 5 percent 
retirements. Only 1 percent separation. The word separation 
means fired, gone, right?
    Mr. Summers. I believe so.
    Senator Campbell. I wanted to ask you, IRS people are all 
Civil Service people; is that correct?
    Mr. Summers. Yes.
    Senator Campbell. So it is pretty tough to fire them?
    Mr. Summers. Yes.
    Senator Campbell. You have got to have pretty solid 
grounds?
    Mr. Summers. Yes.
    Senator Campbell. The IRS, I guess their business kind of 
ebbs and flows. This is a very busy time of the year. In the 
fall it is not nearly as busy, I would assume. Is that correct?
    Mr. Summers. Yes.

                        IRS Seasonal Employment

    Senator Campbell. What do all those people do, that 100,000 
manpower do in the fall?
    Mr. Summers. The witnesses you will have subsequently could 
speak more knowledgeably than I. But part of the answer to the 
question is that the IRS hires seasonally, and hires as many as 
30,000 people seasonally.
    Senator Campbell. Are they Civil Service when they are 
hired seasonally?
    Maybe the IRS can answer. I might be asking the wrong 
person.
    Mr. Summers. I am told they are.
    Mr. Moravitz. Yes, sir; they are. Many of them are 
temporary, but they are seasonal.
    Senator Campbell. Can I also ask you, two or three times 
you referred to taxpayers as customers. If I go to a store and 
I purchase something, I know I am a customer. When did that 
come into vogue, calling taxpayers customers? And what kind of 
a service do they get for their hard-earned money when they 
turn it in? Is that kind of a placebo? Because if I ask my 
folks at home, they are not going to refer to themselves as 
customers. They are going to, if anything, refer to themselves 
as victims.
    Mr. Summers. I think you raise a very fair point, Senator. 
I think that the term customer service has been used in recent 
years precisely with the objective of trying to change the 
culture at the IRS so as to treat taxpayers more like people in 
stores treat the people who buy from them and less like 
victims. To provide more courteous and responsive service on 
the telephone, to recognize that people have problems, and to 
treat people in the right kind of way.
    It is the analogy of how successful businesses have come to 
treat the people they interact with that is what we are trying 
to inculcate in the IRS through the use of that term. I think 
we can probably all agree that the IRS should be seeing 
taxpayers not as victims, but as people who are to be respected 
and worked with as cooperatively as possible.
    Senator Campbell. I thank you, Mr. Summers. I have no 
further questions. Senator Kohl, do you have?
    Senator Kohl. I would only make the comment, Mr. Chairman, 
and Mr. Summers, in a recent poll 75 or 80 percent of the 
American people indicated that they really do not have any 
strong quarrel with the IRS; that they feel that they have been 
treated fairly and have not had any disputes of one sort or 
another. But it is, as we have pointed out and you have said, 
essential that the confidence of the American people with 
respect to this poll is repeated again and again in the future.
    There is a lot of work to be done. I am encouraged by your 
statement that you are spending a great share of your time on 
this problem. I do not think that there is anything more 
visible to the American people in terms of what you do than 
straightening out this problem and assuring the American people 
in the months and years to come that in fact the IRS is 
operating in a marvelously efficient, and disciplined and 
ethical manner. I would like to hope that as a result of your 
activities, and this hearing and what you have heard, and what 
you are going to do, that in the years ahead we will achieve 
that result.
    Mr. Summers. Thank you very much, Senator.

                          Submitted Questions

    Senator Campbell. Thank you, Mr. Summers. We got you out a 
few minutes late, but hopefully you will not miss your next 
appointment. We will submit additional questions to be answered 
for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Campbell
                        irs management awareness
    Question. Deputy Secretary Summers, what I would like to focus on 
this morning is the Department of the Treasury's and the Internal 
Revenue Service's administration that allows the reoccurrence of 
management failures.
    Recently, Congress has signaled its concern over IRS' progress in 
modernizing its processes and systems by:
  --cutting IRS' budget requests for funds to support modernization 
        efforts;
  --withholding modernization funding until IRS successfully addresses 
        certain identified problems;
  --directing Treasury to assess and report on IRS' progress in taking 
        corrective actions; and
  --establishing the national Commission on Restructuring IRS with a 
        broad charter to review IRS management and operations.
    Treasury has also signaled its concerns by:
  --directing the IRS to rely on outside contractors for technical 
        expertise; and
  --establishing a review and decision making board to monitor IRS' 
        information technology--the Modernization Management Board.
    Have any of these efforts produced an IRS that is more management 
aware? What actions has the IRS taken to indicate they are taking these 
management failures seriously?
    Answer. We are all quite aware of these criticisms. We are 
certainly spending a considerable amount of time and effort to make 
sure that the IRS does not simply go into a defensive crouch, but 
instead deals with both criticisms and new ideas forthrightly and 
openly. We have already taken some significant actions, such as 
appointing a new CIO with wide powers and intensified our recruitment 
efforts in order to attract outside talent. We think we have made 
considerable progress already, with more to come.
    Question. Senator Glenn's Bill, the Tax-Payer Privacy Protection 
Act would:
  --Provide that unauthorized inspection of returns or return 
        information is an offense punishable by a fine (not to exceed 
        $1,000) or imprisonment of not more than one year, or both 
        together with costs of prosecution;
  --Allow for the firing upon conviction of any officer or employee of 
        the U.S. who committed the offense; and
  --Clarify that unauthorized inspection of returns or return 
        information is a violation of the Criminal Code's 
        confidentiality provisions.
    Do you support Senator Glenn's proposed Taxpayer Privacy Protection 
Act? Do you believe that criminalizing taxpayer file browsing will 
eliminate this practice?
    Answer. While we can never give assurance that such changes to the 
law will eliminate the practice, we support adding a new provision to 
the Internal Revenue Code that would specifically prohibit the 
unauthorized inspection or browsing of tax returns and return 
information, as Senator Glenn's bill would do. Such legislation would 
explicitly make it a crime to examine willfully records not within an 
employee's official responsibilities. It would prohibit the 
unauthorized inspection of non-computerized tax information, such as 
hard-copies of paper returns or return information, and the 
unauthorized inspection of State or local government computers not 
covered by the Economic Espionage Act amendments of last year. The new 
legislation would clarify that such inspections alone constitute a 
separate criminal offense.
    We therefore support the addition of a new, separate misdemeanor 
for unauthorized inspection, as Senator Glenn's bill would provide. For 
some minor technical reasons, however, the version of the bill that we 
prefer is S. 522 or H.R. 1226.
                           blue ribbon panel
    Question. Mr. Summers, in your April 10th testimony before the 
senate Government Affairs Committee you discussed the establishment of 
a blue ribbon panel of experts which will provide private sector 
security expertise. Could you please explain the functions of this 
panel?
    Answer. We have proposed creating a blue-ribbon panel as part of 
our 5-point plan to improve IRS management. This group would include 
outside experts in the areas of technology, financial services and tax 
administration and would provide advice and assistance to the Secretary 
and the IRS on a variety of topics, including security.
                           audit research log
    Question. Isn't it true that consistent review and application of 
the existing Audit Research Log would confirm that inappropriate access 
has occurred? Do you have any indication that the private sector has 
developed superior systems which are less labor intensive?
    Answer. The IRS' current processes have identified that 
unauthorized access has occurred. IRS is currently assessing its 
policies and procedures for protecting against and detecting 
unauthorized access, and it is currently evaluating the possible 
consolidation of many functions to ensure consistent review and 
application of the Audit Research Log.
    To date, IRS has not found any superior systems or any less labor 
intensive systems for preventing or detecting unauthorized access to 
individual tax records. IRS is continuing to look at commercial-off-
the-shelf software or any best practices being used by the private 
sector that could be used for this purpose.
                             fixing the irs
    Question. You are establishing panels and instituting boards and 
encouraging the use of outside contractors. But the IRS problems, those 
that seem to persist, are the result of a breakdown in management 
decision making. This decision making seems to be made independent of 
the desired outcomes. What actions are being taken to ensure the 
management of the IRS is fixed?
    Answer. I would, of course, strongly disagree with the 
characterization of IRS management as having broken down. The agency is 
still functioning and many areas are continuing to be quite successful. 
This year's filing season, for instance, has gone very well.
    But as is true with any large organization, there is always room 
for improvement. We have made a number of proposals and decisions in 
this area. For instance, we have determined that the primary criterion 
for the next Commissioner will be management experience with large 
organizations and with how to implement technology-based changes. We 
have intensified our efforts to bring in outside managers with new 
ideas, experience and energy. We would like to do more in this area.
    I think it is important to recognize that there are no simple 
answers to the problems facing the IRS. What is needed is continued 
hard work and the willingness to make difficult decisions. That is what 
we are trying to achieve.
                     modernization management board
    Question. It is my understanding that you have been instrumental in 
organizing a modernization management board (MMB) to provide oversight 
of the TSM acquisition system. What kind of oversight does this board 
provide? Can you explain the amount of time board members spend 
reviewing the IRS proposals? Who staffs the board? Has the board 
rejected any IRS proposals?
    Answer. We created the MMB last summer. I serve as the Chair. The 
other members include the senior officials from OMB, Treasury and IRS 
who are responsible for tax administration. We have tried to use the 
Board as the equivalent of a proactive Board of Directors for a large 
private sector corporation. Like any such Board of Directors, the MMB 
will focus on broad strategic issues and major investment decisions for 
the IRS. For instance, we will be spending a considerable amount of 
time this spring on the overall IRS systems architecture and 
development plan.
    I should note that the MMB does not become involved in tax policy 
issues, which are handled through different means. Its focus is on 
management issues.
    The amount of time that individual Board members spend on IRS 
issues will naturally vary. Most of the members already spend a great 
deal of time on the IRS and have general familiarity with the issues. I 
will say that I have been putting a large portion of my time into IRS 
management issues over the past year, and expect to continue to do so.
    The MMB has a small professional staff. In the past the staff has 
been drawn from the IRS. We are now converting the staff into Treasury 
employees.
    As for the Board's actions in rejecting IRS proposals, things 
seldom develop that way. I see the MMB's primary job as clarifying 
strategic options and, on occasion, choosing one. What we constantly do 
is push the IRS for more specificity, imagination and speed. So far the 
process has worked quite well.
    Question. The National Commission on Restructuring the IRS, of 
which you are a member, is planning to issue its final report in June. 
It is my understanding the Commission will address the security 
weaknesses and management problems that exist within IRS. What can you 
tell us about the Commission's recommendations for tackling these 
problems?
    Answer. The Commission is scheduled to release its final report in 
June, however, I am not a member of the Commission and will have to 
reserve my comments on their proposals until I have seen them.
                      treasury/irs accountability
    Question. How does Treasury intend to follow up and monitor the IRS 
to ensure they are following through with the policies put in place? 
The concern here is that not enough oversight has been carried out in 
the past on this issue.
    Answer. Treasury intends to monitor the ``browsing'' issue on a 
continuing basis. Deputy Secretary Summers has requested a 
comprehensive report from the IRS on its plans. This report will be 
discussed at a special meeting of the Treasury Modernization Management 
Board (MMB), which is the principal body within Treasury for oversight 
of the administrative functions of the IRS. In addition, the Treasury 
Office of Security will work closely with the security office at IRS to 
monitor implementation of IRS plans. The MMB will continue to track 
this issue.
    Using the tools presently available to it, the IRS has already 
stepped up its efforts to end ``browsing.'' Those tools include: 
employee training on the privacy policy of Sec. 6103; regular 
refreshers on Sec. 6103; privacy guidelines to employees, condemning 
unauthorized browsing of taxpayer records; warnings when documents are 
accessed by computer; expanded use of the Electronic Audit Research Log 
(``EARL'') to identify instances of unauthorized access; an ``800'' 
number for reporting misconduct; new managers in the computer security 
program; and disciplinary actions, up to and including dismissal from 
employment, against employees who are found to have violated the 
privacy policy.
    We also support the application of criminal sanctions to employees 
found guilty of ``browsing.'' As you know, the Economic Espionage Act 
of 1996 amended the Federal wire fraud statute in the criminal code 
(Title 18 U.S.C.), to make unauthorized access by computer to 
information from any department or agency of the United States a 
separate misdemeanor offense. In view of these provisions, ``browsing'' 
a Federal computer is already punishable as a crime.
    Further, we support the legislation (H.R. 1226 in the House, S. 522 
in the Senate) to make ``browsing'' a separate criminal offense under 
the Internal Revenue Code. This should provide an additional tool to 
criminal investigators and prosecutors and, perhaps more importantly, 
an additional deterrent to IRS employees who may be tempted to browse.
    We fully expect that these actions will deter persons who have 
access to tax returns and return information from unauthorized 
browsing, and we anticipate that the number of such instances should 
decline significantly in the future. We will be closely monitoring the 
IRS's progress in this area over the next couple years. If improvements 
are not forthcoming, we may seek additional tools from Congress.
                    security procedures/punishments
    Question. What action has the Treasury Department taken to ensure 
the IRS puts in place solid mechanisms to protect taxpayer files?
    Answer. As noted in response to the previous question, the Deputy 
Secretary has requested a comprehensive report of what IRS will do 
managerially and technically to better address unauthorized access 
problems. The report will be reviewed by the MMB, and the MMB will 
monitor IRS progress in this area.
    Question. Is there a Department of the Treasury standard for 
dealing with sensitive information, such as taxpayer files for example, 
import/export financial information at Customs? Please provide the 
committee a copy of these standards for the Record.
    Answer. The Department is governed by a wide range of standards and 
rules limiting access to official information. The Standards of Ethical 
Conduct for Employees of the Executive Branch provide that ``An 
employee shall not * * * allow the use of nonpublic information to 
further his own private interest or that of another.'' 5 C.F.R. 
Sec. 2635.703. This requirement applies to all Treasury employees in 
all bureaus and offices, is distributed to every employee, and is the 
subject of periodic ethics training. The requirement is supplemented by 
the Department's supplementary ethics regulations, specifically 31 
C.F.R. Sec. Sec. 0.205 and 0.206, which provide that ``[employees are 
required to care for documents according to federal law and regulation, 
and Department procedure [and] shall not disclose official information 
without proper authority, pursuant to Department or bureau 
regulation.''
    As a general matter, disclosure of information maintained by the 
Department is governed by the regulations at 31 C.F.R. Part 1. With 
respect to sensitive information about individuals, information that is 
retrieved by that individual's name, code, number, may be disclosed 
only to employees who have a need for the record in the performance of 
their duties, pursuant to the Privacy Act of 1974, as amended, 5 U.S.C. 
Sec. 552a . This requirement is promulgated department-wide by Treasury 
regulations at 31 C.F.R. Part 1, Subpart C and Treasury Directive 25-
04, which also require each component to develop a Notice of System of 
Records for every system from which information about individuals is 
retrieved. All systems notices require a description of the safeguards 
for the records contained therein. A list of the Department's current 
Privacy Act Systems Notices is attached at Attachment A. As shown in 
Attachment A, the IRS has in excess of 100 Privacy Act Systems. Of 
special note regarding access to taxpayer files is IRS 34.018, which 
logs employee inputs and inquiries to the IRS's Integrated Data 
Retrieval System. A copy of that Notice is attached at Attachment B.

    [Clerk's note.--Attachment A can be found in the Federal Register, 
Vol. 60, No. 217, Nov. 9, 1995, Notices, pp. 56648-56651 and attachment 
B can be found on p. 56802 of the same volume.]

    Regarding other sensitive information, the Department's Security 
Manual establishes comprehensive, uniform security policies governing 
personnel, physical, and information systems security. While much of 
the Manual deals with National Security Information classified pursuant 
to Executive Order 12958, portions of it specifically address controls 
on Sensitive But Unclassified (SBU) Information, including proprietary, 
financial, and business confidential information. Section VI, 4.B.1 of 
the Manual, Controlled Access Protection for Automated Information 
Systems and Networks Processing Sensitive but Unclassified Information, 
is attached as Attachment C.
    [The information follows:]
                             [attachment c]
           Office of Security Manual, Chapter VI, No. 4.B.1.
                                                   October 1, 1992.
Subject: Controlled Access Protection (C2) for Automated Information 
        Systems and Networks Processing Sensitive But Unclassified 
        Information
    1. Purpose. This section provides policy and establishes the 
requirement to execute a minimum level of protection for automated 
information systems (AIS) and networks accessed by more than one user 
when those users do not have the same authorization to use all or some 
of the sensitive but unclassified (SBU) information processed, stored, 
or communicated by the AIS or network. Controlled Access Protection 
(also known as C2) can be used to deny unauthorized access to 
information stored in AIS and prevent outside intruders from 
electronically accessing SBU information by way of supporting 
telecommunications in networked AIS.
    2. Policy. It is the policy of the Department of the Treasury that 
AIS and networks which process, store, or transmit SBU information meet 
the requirements for C2 level protection as evaluated by the National 
Security Agency (NSA) or National Institute for Standards and 
Technology (NIST). The criteria for C2 is as follows:
    a. ensure individual accountability through identification and 
authentication of each individual system user;
    b. maintain an audit trail of user security relevant events;
    c. control responses to a user's request to access information 
according to the user's authorization; and
    d. prevent unauthorized access to a user's current or residual data 
by clearing all storage areas (core, disk, etc.) before they are 
allocated or reallocated. This C2 requirement shall be implemented 
within the operating system. However, with the approval of the Senior 
Information Resources Management Official (SIRMO) and the Principal 
Accrediting Authority (PAA), the object reuse feature may be 
implemented at the application level. For those systems where object 
reuse cannot be implemented, a bureau or office may elect to use 
approved alternative methods (e.g., file encryption) to satisfy this 
requirement. Waiver procedures for a permanent exemption to this 
feature of the C2 criteria are prescribed in paragraph 3.b.
    3. Exemption.
    a. A temporary exemption from the requirement to implement this 
policy by October 1, 1992, on existing AIS and networks or to 
incorporate the C2 provisions on new AIS and networks during the 
conceptual design stage may be granted jointly by the SIRMO and PAA. 
Such exceptions shall be based on the difficulty or cost of their 
execution and impairment to operations and mission effectiveness. Heads 
of bureaus and, for systems in the Departmental Offices, the Deputy 
Assistant Secretary (Administration) shall ensure continuous progress 
is made toward reducing or eliminating the circumstances causing the 
need for the temporary exemption.
    b. Permanent exemptions to paragraph 2.d. will be approved jointly 
by the SIRMO and PAA. Permanent exemptions from the requirement to 
clear residual data will be based on a risk analysis to determine what 
damage, if any, is caused by the potential disclosure of SBU 
information to a user who does not have the same authorization to use 
some or all of the SBU information on the AIS or network. No exemption 
to paragraph 2.d. is required for stand-alone AIS when all users are 
authorized access to all the SBU information on the AIS. However, prior 
to disposition or repair of any such AIS, approved clearing and purging 
is required (see Section 4.F. of Chapter VI).
    4. Applicability to Microprocessors.
    a. Networked Microprocessors. If a network is accessed by a user 
who is not authorized to use all or some of the SBU information 
processed by or communicated over the network (or if the network is 
accessed by dial-up circuits), C2 protection shall be implemented on 
microprocessors running UNIX or other multi-user multi-tasking 
operating systems. Presently, there is no acceptable and affordable 
technology that provides C2 approved software protection for DOS-based 
microprocessors (of which large numbers of MS-DOS personal computers 
have been procured throughout the Department). There are, however, 
evaluated subsystems which create C2 functionality in MS-DOS systems 
(i.e., identification, authentication, audit, discretionary access 
control, and object reuse). Therefore, until there are C2 approved 
operating systems available for networked DOS-based microprocessors, 
the bureaus could utilize existing NSA evaluated subsystems (e.g., 
Watchdog Armor or PC/DACS).
    b. Stand-alone Microprocessors. Evaluated subsystems, as described 
in paragraph 4.a., should be considered for use on stand-alone 
workstations when either of the following applies:
    (1) SBU information is stored on the microprocessor and is shared 
by multiple users who do not have a need to know some or all of the SBU 
information stored on the system, or
    (2) the workstation with stored SBU information is located in an 
uncontrolled area.
    c. Interim Measures. Until C2 products are available, interim 
discretionary access control protection measures for microprocessors 
shall be implemented. These measures include, but are not limited to:
    (1) physical security (controlling physical access to the terminal 
and purging system of SBU information when terminal is not in use);
    (2) personnel security (background or integrity checks);
    (3) communications security (encryption or guided media);
    (4) manual user identification and authentication;
    (5) procedural security;
    (6) security training and awareness;
    (7) contingency planning; and
    (8) risk analysis.
When C2 technology is incorporated into the computer, the above 
countermeasures (to the extent warranted by the known or perceived 
threat or vulnerability) will still be required in the overall 
protection plan for the microprocessor.
    5. Responsibilities.
    a. The Director, Office of Security, shall:
    (1) ensure compliance with this policy in the most cost-effective 
manner to include verifying that bureaus are making continuous progress 
toward reducing or eliminating the circumstances for requiring a 
temporary exemption from controlled access protection requirements;
    (2) provide input to the five-year information systems planning 
call and review bureau information systems plans for compliance with 
this policy;
    (3) review selected major solicitations of SBU AIS, as provided by 
the Deputy Assistant Secretary (Information Systems), to ensure 
compliance with this section and to eliminate duplication or conflict 
with existing or planned security measures within Treasury; and
    (4) provide reports on the results of reviews of bureau 
acquisitions and information systems plans to the Deputy Assistant 
Secretary (Information Systems).
    b. The Deputy Assistant Secretary (Information Systems) shall:
    (1) coordinate select major AIS and network solicitations with the 
Director, Office of Security, for systems security considerations;
    (2) coordinate bureau five-year information systems plans with the 
Director, Office of Security, for systems security considerations; and
    (3) ensure, through the annual computer security planning and 
reporting process, that bureaus report the status of their compliance 
with this section, including all temporary exemptions granted.
    c. The Deputy Assistant Secretary (Administration). Heads of 
Bureaus and the Inspector General shall, as it relates to their 
respective bureaus and offices:
    (1) take deliberate action, in the most cost-effective manner, to 
execute the provisions of this policy and ensure all existing 
Department of the Treasury systems shall be in compliance before 
October 1, 1992. This cost-effectiveness includes eliminating 
duplication of effort when upgrading security by ensuring that any AIS 
or network with user identification/authentication, key management, and 
encryption requirements utilize existing or planned Treasury resources 
to the maximum possible extent;
    (2) ensure that all new AIS or networks that are intended to 
process, store, or communicate SBU information incorporate the 
provisions of this policy during the conceptual design phase; and
    (3) report the status of compliance with this policy, including all 
temporary exemptions granted, to the Office of the Deputy Assistant 
Secretary (Information Systems) as part of the annual computer security 
planning and reporting process.
    6. Procedures for Controlled Access Protection
    a. Introduction.
    (1) The PAA's (data owners) of the AIS and networks have the 
authority and ability to decide who, among the system's authorized 
users, will be permitted access to SBU information.
    (2) The cost of strengthening the hardware or software features of 
your AIS or network may be prohibitive. You should document any 
exceptions to baseline requirements as explained in Section 7.A. of 
Chapter VI.
    b. C2 Criteria.
    (1) Identification and Authentication. The system shall require the 
users to identify themselves and to provide some proof that they are 
who they say they are. The most common means for accomplishing this are 
a user identification (user ID) and password. The system must protect 
authentication data so that it may not be accessed by an unauthorized 
user.
    (2) Audit. The system shall be able to create, maintain, and 
protect from modification, unauthorized access, or destruction an audit 
trail of accesses to the resources it protects. The audit data shall be 
protected by the system so that read access to it is limited to those 
who are authorized for audit data. The system shall be able to record 
the following types of events: log on, log off, change of password, 
creation, deletion, opening, and closing of files, program initiation, 
and all actions by system operators, administrators, and security 
officers. For each recorded event, the audit record shall identify: 
date and time of the event, user, type of event, and the success or 
failure of the event. For log on, log off, and password change the 
origin of the request (e.g., terminal ID) shall be included in the 
audit record. For file related events the audit record shall include 
the file's name. The ISSO and NSO shall be able to selectively audit 
the actions of one or more users based on individual identity. Audit 
procedures shall be developed and coordinated with other internal 
control procedures required under OMB Circular A-123.
    (3) Discretionary Access Control. The system shall define and 
control access between named users and system resources (e.g., files 
and programs). The system or network users shall be provided the 
capability to specify who (by individual user or users, group, etc.) 
may have access to their data. These controls are at the discretion of 
the user and the user may change them. The system or network will 
assure that users without that authorization are not allowed access to 
the data.
    (4) Object Reuse. When a storage object (e.g., core area, disk 
file, etc.) is initially assigned, allocated, or reallocated to a 
system user, the system shall assure that it has been cleared.
    c. Assurance. Given the security features in the preceding 
paragraphs, there must be some assurance that these features are 
properly implemented and protected from modification. For these systems 
and networks, assurance rests primarily with system and network 
testing. The security features including those of the system or network 
shall be tested and found to work as claimed in the system and network 
documentation. Testing shall be done to assure that there are no 
obvious ways for an unauthorized user to bypass or otherwise defeat the 
security protection mechanisms of the system or network. Testing shall 
also include a search for obvious flaws that would allow violation of 
resource isolation, or that would permit unauthorized access to the 
audit or authentication data.
    d. Documentation.
    (1) Security Features User's Guide. A single summary, chapter, or 
manual in user documentation shall describe the security features 
provided by the system, guidelines on how to use them, and how they 
interact with one another.
    (2) Trusted Facility Manual. A manual addressed to the system 
administrator, operator, and system security officer shall present 
cautions about functions and privileges that should be controlled when 
running a secure facility. The procedures for examining and maintaining 
the audit files as well as the detailed audit record structure for each 
type of audit event shall be given.
    (3) Test Documentation. A document shall be provided that describes 
the test plan and results of the security features functional testing.
    (4) Design Documentation. Documentation shall be available that 
provides a description of the developer's philosophy of protection and 
an explanation of how this philosophy is translated into the system. If 
the system's security features are composed of distinct modules, the 
interfaces between the modules shall be described.
    e. Conformance with Vendor Security Requirements and Guidelines. 
When using vendor-supplied security products providing controlled 
access protection, the extent to which AIS and network management 
follows vendor security-related instructions accompanying the system 
software documentation will determine how effective the security 
product will be. In many cases, failure to follow these instructions 
will reduce an otherwise trusted system to a less secure state. To 
prevent this, bureau ISSO's and NSO's (or available security staff) are 
required to thoroughly review all vendor recommendations and 
requirements for the configuration of security controls and formally 
document the compliance or non-compliance of such requirements. If 
operational requirements dictate that such security recommendations 
cannot be complied with, management shall formally document this 
decision through the exception process. Such exceptions require the 
review and approval of the ISSO or NSO (or available security staff).
    7. Cancellation. Treasury Directive 85-04, ``Controlled Access. 
Protection (C2) for Automated Systems which Process Sensitive 
Unclassified Information,'' dated August 15, 1989, is superseded.
    Certain information maintained by Treasury bureaus is subject to 
detailed controls on access. For example, the Customs Service maintains 
two interactive systems containing highly sensitive law enforcement and 
commercial information, the Treasury Enforcement Communications System 
(TECS) and the Automated Commercial System (ACS). Extensive security 
software requiring passwords limit access to both systems to employees 
authorized to make specific inquiries. A brief description of the 
system safeguards for ACS is attached as Attachment D. Another example 
are the restrictions on access to Financial Transaction Records 
maintained by FinCEN. See 31 C.F.R. Sec. 103.51.

    [Clerk's note.--Attachment D can be found in the Federal Register, 
Vol. 60, No. 217, Nov. 9, 1995, Notices, pp. 56763-56764.]

    Question. In your opinion, do you feel the IRS has consistently 
applied the punishments for those employees caught browsing taxpayer 
files?
    Answer. The IRS, like other Federal agencies, must consider several 
factors on a case by case basis when determining the appropriate 
penalty for misconduct. These factors include the employee's past 
disciplinary and performance history, length of service, job and grade 
level, potential for rehabilitation, the nature and seriousness of the 
offense, the consistency of the penalty with those imposed upon other 
employees, and any mitigating circumstances. Different penalties 
imposed in two cases for seemingly similar conduct may be the result of 
the weighing of these factors. It does not necessarily mean that an 
inappropriate penalty was imposed in one of the cases. In addition, 
many of these cases are appealed to the MSPB or through the negotiated 
grievance process. We understand that in some cases removals have been 
mitigated to lesser penalties by grievance arbitrators.
    It is also important to emphasize, that not all suspected instances 
of browsing actually turn out to have been willful unauthorized 
inspection of taxpayer records.
    Question. Can you explain, from Treasury's perspective, why IRS has 
been inconsistent in punishments?
    Answer. The IRS is a large, administratively decentralized 
organization and discipline is administered at the local level. As 
noted above, each case presents its own unique facts and circumstances 
and therefore different penalties may be deemed appropriate. This 
doesn't necessarily mean that the penalties are inconsistent. That 
being said, there is certainly room for improvement in terms of making 
sure that similar offenses receive similar treatment.
    Question. Has snooping been a problem with any other Treasury 
agencies with their respective files.
    Answer. ``Browsing'' is a term usually applied only to unauthorized 
access to taxpayer information. We are unaware of any similar instances 
of significant unauthorized access to sensitive systems or data at 
other Treasury bureaus.
    Question. From an oversight perspective, do you feel that there are 
any roadblocks, legal or otherwise, keeping the IRS from consistently 
applying these punishments?
    Answer. So long as this type of misconduct is subject to the same 
factors for evaluating the appropriateness of a penalty as other types 
of misconduct, there will likely be differences in penalty 
determinations because of the unique factors of each case. We will be 
evaluating whether additional legislation is needed to ensure that 
appropriate disciplinary penalties for browsing will be sustained.
                                Panel 3

                       GENERAL ACCOUNTING OFFICE

STATEMENT OF RONA B. STILLMAN, CHIEF SCIENTIST, 
            COMPUTERS AND TELECOMMUNICATIONS
ACCOMPANIED BY LYNDA WILLIS, DIRECTOR, TAX POLICY AND ADMINISTRATION

                        Introduction of Witness

    Senator Campbell. Our third panel will be Dr. Rona B. 
Stillman, Chief Scientist for Computers and Telecommunications 
from the General Accounting Office. Dr. Stillman, if you would 
like to submit your complete written testimony, without 
objection that will be included in the record and you are 
welcome to abbreviate it if you would like to. And if you might 
identify the lady that is with you for the record.
    Ms. Stillman. Thank you, Mr. Chairman. With me is Lynda 
Willis, our Director for Tax Policy and Administration. We 
appreciate the opportunity to testify on two very important 
matters concerning IRS: employees' unauthorized and improper 
perusal of confidential records, commonly known as browsing; 
and unjustified $1 billion-plus budget request for unspecified 
new systems development.
    Browsing is not a new problem. For years Members of 
Congress, GAO, and others have raised concerns about IRS 
employees accessing taxpayer files for purposes unrelated to 
their jobs, for example, reading the files of celebrities or 
neighbors, or making unauthorized changes to taxpayer files 
such as initiating unauthorized refunds or tax abatements.
    In response, the IRS has taken steps to detect and deter 
browsing. In particular, the IRS has developed and is using the 
electronic audit research log [EARL]. EARL is an automated tool 
which tries to identify suspicious patterns of employee 
activity by analyzing the audit trail of IDRS, the primary 
computer system IRS employees use to access and adjust taxpayer 
accounts. The IRS Commissioner has also instituted a zero 
tolerance browsing policy, and the agency has taken legal and 
disciplinary action against some employees caught browsing.
    We found that despite these steps, IRS is still not 
effectively addressing browsing. First, EARL is limited in its 
ability to detect browsing. EARL only monitors employees using 
IDRS to access taxpayer data. It does not monitor the 
activities of employees using other automated systems to access 
taxpayer data, such as the distributed input system [DIS], the 
integrated collection system [ICS], or the totally integrated 
examination system [TIES].
    In addition, EARL is not effective in distinguishing 
between browsing and legitimate work activity. It identifies so 
many potential browsing incidents that the subsequent manual 
review needed to find incidents of actual browsing is time 
consuming and difficult. IRS is evaluating options for 
enhancing EARL to enable it to better distinguish between 
legitimate activity and browsing.
    Second, according to the 1996 report of the EARL executive 
steering committee, IRS does not consistently count the number 
of browsing cases and cannot assess the effectiveness of 
individual detection programs or of IRS detection efforts 
overall.
    Further, browsing is inconsistently managed across IRS 
facilities. Facilities are inconsistent in reviewing and 
referring browsing incidents, inconsistent in applying 
penalties for browsing violations, and inconsistent in 
publicizing the outcomes of browsing cases to deter other 
employees from browsing.
    In a report we issued last week, we recommended that the 
IRS completely and consistently monitor, record, and report the 
full extent of browsing for all systems that can be used to 
access taxpayer data. We also recommended that the Commissioner 
report the associated disciplinary action taken, and that these 
statistics, along with an assessment of its progress in 
eliminating browsing, be included with IRS' annual budget 
submission. IRS has stated its intention to implement these 
recommendations. We plan to monitor its progress in doing so.
    I would now like to address IRS' budget request for new 
systems development in fiscal years 1998 and 1999. IRS has 
requested $131 million in fiscal year 1998 for new systems 
development and an additional $1 billion, $500 million in 
fiscal year 1998 and $500 million in fiscal year 1999 for an 
information technology investment account.
    To ensure that Federal agencies like the IRS invest wisely 
in information technology, the Congress has passed several 
laws, including the Chief Financial Officers Act, the 
Government Performance and Results Act, and the Clinger-Cohen 
Act. These acts require that information technology investments 
be supported by convincing business case analyses showing 
mission-related benefits in excess of the money spent. They 
also require that disciplined processes be in place to manage 
the investment and to develop or acquire the systems.
    IRS has not justified the $1.131 billion it has requested 
for fiscal years 1998 and 1999. In fact, IRS does not know how 
it will spend these funds or what benefits will be achieved. 
Instead IRS requested $131 million in fiscal year 1998 because 
that was about the same amount it received for new systems 
development in fiscal year 1997. And IRS requested an 
additional $1 billion in fiscal years 1998 and 1999 as a 
placeholder to ensure the availability of funding for yet-to-
be-determined new systems development.
    Moreover, although they are working to improve, IRS 
continues to suffer from the same fundamental and persistent 
management and technical weaknesses that we detailed in July 
1995. It is precisely this kind of approach, that is, 
earmarking huge amounts of money without convincing supporting 
business rationale, and attempting to build and buy systems 
without disciplined systems development and acquisition 
processes, that have led to past modernization failures at IRS. 
And it is precisely this kind of approach that GPRA and the 
Clinger-Cohen Act are designed to preclude.
    Therefore, consistent with the requirements of GPRA and the 
Clinger-Cohen Act, we believe that the Congress should not fund 
any significant IRS requests for information technology 
development until IRS provides convincing analytical business 
rationale, and until disciplined systems investment, 
development, and acquisition processes are in place.
    Mr. Chairman, this concludes my statement. Lynda Willis and 
I will be happy to respond to any questions that you or the 
subcommittee members may have at this time.

                           Prepared Statement

    Senator Campbell. Thank you Ms. Stillman. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
               Prepared Statement of Dr. Rona B. Stillman
    Mr. Chairman and Members of the Subcommittee: We appreciate the 
opportunity to testify on Internal Revenue Service (IRS) employees' 
electronic browsing of taxpayer files, as well as IRS' fiscal years 
1998 and 1999 budget requests for tax systems modernization (TSM) 
development currently before this Subcommittee.
    On April 8, 1997, we issued a report disclosing many serious 
computer security weaknesses at IRS.\1\ These weaknesses make IRS 
computer resources and taxpayer data unnecessarily vulnerable to 
external threats, such as natural disasters and people with malicious 
intentions. They also expose taxpayer data to internal threats, such as 
employees accessing taxpayer files for purposes unrelated to their jobs 
(for example, reading the files of celebrities or neighbors) or making 
unauthorized changes to taxpayer data, either inadvertently or 
deliberately for personal gain (for example, to initiate unauthorized 
refunds or abatements of tax). Such unauthorized and improper browsing 
of taxpayer records has been the focus of considerable attention in 
recent years. Nevertheless, our report shows that IRS is not 
effectively addressing the problem. IRS still does not effectively 
monitor employee activity, accurately record browsing violations, 
consistently punish offenders, or widely publicize reports of incidents 
detected and penalties imposed.
---------------------------------------------------------------------------
    \1\ IRS Systems Security: Tax Processing Operations and Data Still 
at Risk Due to Serious Weaknesses (GAO/AIMD-97-49, April 8, 1997).
---------------------------------------------------------------------------
    Compounding IRS' serious and persistent computer security and 
employee browsing problems are equally serious and persistent TSM 
management and technical problems that must be corrected if IRS is to 
effectively invest in TSM. IRS is requesting $1.131 billion in fiscal 
years 1998 and 1999 for TSM development and deployment. However, IRS 
does not know how it will spend this $1.131 billion and has not yet 
corrected the management and technical problems that IRS has 
acknowledged have resulted in hundreds of millions of dollars being 
wasted thus far on TSM. This is inconsistent with the Government 
Performance and Results Act (GPRA) of 1993 and the Clinger-Cohen Act of 
1996, which require that information technology investments be 
supported by convincing business case analyses and disciplined 
management and technical processes.
         irs is not effectively addressing electronic browsing
    Employee electronic browsing of taxpayer records is a long-standing 
problem at IRS. We reported in September 1993 that IRS did not 
adequately (1) restrict access by computer support staff to computer 
programs and data files or (2) monitor the use of these resources by 
computer support staff and users.\2\ As a result, personnel who did not 
need access to taxpayer data could read and possibly use this 
information for fraudulent purposes. Also, unauthorized changes could 
be made to taxpayer data, either inadvertently or deliberately for 
personal gain (for example, to initiate unauthorized refunds or 
abatements of tax). In August 1995, we reported that the Service still 
lacked sufficient safeguards to prevent or detect unauthorized browsing 
of taxpayer information.\3\
---------------------------------------------------------------------------
    \2\ IRS Information Systems: Weaknesses Increase Risk of Fraud and 
Impair Reliability of Management Information (GAO/AIMD-93-34, September 
22, 1993).
    \3\ Financial Audit: Examination of IRS' Fiscal Year 1994 Financial 
Statements (GAO/AIMD-95-141, August 4, 1995).
---------------------------------------------------------------------------
    To address employee browsing, IRS developed the Electronic Audit 
Research Log (EARL), an automated tool to monitor and detect browsing 
on the Integrated Data Retrieval System (IDRS).\4\ IRS has also taken 
legal and disciplinary actions against employees caught browsing. 
However, as our April 1997 report points out, EARL has shortcomings 
that limit its ability to detect browsing. In addition, IRS does not 
have reliable, objective measures for determining whether or not the 
Service is making progress in reducing browsing. Further, IRS 
facilities inconsistently (1) review and refer incidents of employee 
browsing, (2) apply penalties for browsing violations, and (3) 
publicize the outcomes of browsing cases to deter other employees from 
browsing.
---------------------------------------------------------------------------
    \4\ IDRS is the primary computer system IRS employees use to access 
and adjust taxpayer accounts.
---------------------------------------------------------------------------
EARL's Ability to Detect Browsing Is Limited
    EARL cannot detect all instances of browsing because it only 
monitors employees using IDRS. EARL does not monitor the activities of 
IRS employees using other systems, such as the Distributed Input 
System, the Integrated Collection System, and the Totally Integrated 
Examination System, which are also used to create, access, or modify 
taxpayer data. In addition, information systems personnel responsible 
for systems development and testing can browse taxpayer information on 
magnetic tapes, cartridges, and other files using system utility 
programs, such as the Spool Display and Search Facility,\5\ which also 
are not monitored by EARL.
---------------------------------------------------------------------------
    \5\ This utility enables a programmer to view a system's output, 
which may contain investigative or taxpayer information.
---------------------------------------------------------------------------
    Further, EARL has some weaknesses that limit its ability to 
identify browsing by IDRS users. For example, because EARL is not 
effective in distinguishing between browsing activity and legitimate 
work activity, it identifies so many potential browsing incidents that 
a subsequent manual review to find incidents of actual browsing is 
time-consuming and difficult. IRS is evaluating options for developing 
a newer version of EARL that may better distinguish between legitimate 
activity and browsing.
IRS Progress in Reducing and Disciplining Browsing Cases Is Unclear
    IRS' management information systems do not provide sufficient 
information to describe known browsing incidents precisely or to 
evaluate their severity consistently. IRS personnel refer potential 
browsing cases to either the Labor Relations or Internal Security 
units, each of which records information on these potential cases in 
its own case tracking system. However, neither system captures 
sufficient information to report on the total number of unauthorized 
accesses. For example, neither system contains enough information on 
each case to determine how many taxpayer accounts were inappropriately 
accessed or how many times each account was accessed. Without such 
information, IRS cannot measure whether it is making progress from year 
to year in reducing browsing.
    A recent report by the IRS EARL Executive Steering Committee \6\ 
shows that the number of browsing cases closed has fluctuated from a 
low of 521 in fiscal year 1991 to a high of 869 in fiscal year 1995.\7\ 
However, the report concluded that the Service does not consistently 
count the number of browsing cases and that ``it is difficult to assess 
what the detection programs are producing * * * or our overall 
effectiveness in identifying IDRS browsing.''
---------------------------------------------------------------------------
    \6\ Electronic Audit Research Log (EARL) Executive Steering 
Committee Report (September 30, 1996).
    \7\ We did not verify the accuracy and reliability of these data.
---------------------------------------------------------------------------
    Further, the committee reported that ``the percentages of cases 
resulting in discipline has remained constant from year to year in 
spite of the Commissioner's `zero tolerance' policy.'' IRS browsing 
data for fiscal years 1991 to 1995 show that the percentage of browsing 
cases resulting in IRS' three most severe categories of penalties 
(i.e., disciplinary action, separation, and resignation/retirement) has 
ranged between 23 and 34 percent, with an average of 29 percent.\8\
---------------------------------------------------------------------------
    \8\ The mix among these three categories has remained relatively 
constant each year with disciplinary action accounting for the vast 
majority of penalties.
---------------------------------------------------------------------------
Browsing Incidents Are Reviewed, Referred, Disciplined, and Publicized 
        Inconsistently
    IRS processing facilities do not consistently review and refer 
potential browsing cases. The processing facilities responsible for 
monitoring browsing had different policies and procedures for 
identifying potential violations and referring them to the appropriate 
unit within IRS for investigation and action. For example, at one 
facility, the analysts who identify potential violations referred all 
of them to Internal Security, while staff at another facility sent some 
to Internal Security and the remainder to Labor Relations.
    IRS has taken steps to improve the consistency of its review and 
referral process. In June 1996, it developed specific criteria for 
analysts to use when making referral decisions. A recent report by the 
EARL Executive Steering Committee stated that IRS had implemented these 
criteria nationwide. Because IRS was in the process of implementing 
these criteria during our work, we could not validate their 
implementation or effectiveness.
    IRS facilities are not consistently disciplining employees caught 
browsing. After several IRS directors raised concerns that field 
offices were inconsistent in the types of discipline imposed in similar 
cases, IRS' Western Region analyzed fiscal year 1995 browsing cases for 
all its offices and found inconsistent treatment for similar types of 
offenses. For example, one employee who attempted to access his own 
account was given a written warning, while other employees in similar 
situations, from the same division, not only did not receive a written 
warning but were not counseled at all.
    The EARL Executive Steering Committee reported widespread 
inconsistencies in the penalties imposed in browsing cases. For 
example, the committee's report showed that for fiscal year 1995, the 
percentage of browsing cases resulting in employee counseling ranged 
from a low of 0 percent at one facility to 77 percent at another. 
Similarly, the report showed that the percentage of cases resulting in 
removal ranged from 0 percent at one facility to 7 percent at another. 
For punishments other than counseling or removal (e.g., suspension), 
the range was between 10 percent and 86 percent.
    IRS facilities did not consistently publicize the penalties 
assessed in browsing cases to deter such behavior. For example, we 
found that one facility never reported disciplinary actions. However, 
another facility reported the disciplinary outcomes of browsing cases 
in its monthly newsletter. By inconsistently and incompletely reporting 
on penalties assessed for employee browsing, IRS is missing an 
opportunity to more effectively deter such activity.
    In summary, although IRS has taken some action to detect and deter 
browsing, it is still not effectively addressing this area of 
continuing concern because (1) it does not know the full extent of 
browsing and (2) it is addressing cases of browsing inconsistently. 
Because of this, our April report recommends that the IRS Commissioner 
(1) ensure that IRS completely and consistently monitors, records, and 
reports the full extent of electronic browsing; and (2) report IRS' 
progress in eliminating browsing in its annual budget submission. IRS 
has concurred with these recommendations and stated that it will 
implement them. We plan to monitor its progress in doing so.
      fiscal years 1998 and 1999 tsm budget requests not justified
    Recent legislation, such as GPRA and the Clinger-Cohen Act, require 
that information technology investments be supported by accurate cost 
data and convincing cost-benefit analyses. However, IRS' fiscal years 
1998 and 1999 TSM budget requests, which combined total $1.131 billion, 
do not include credible, verifiable justifications. Exacerbating this 
problem is the fact that the systems modernization continues to be at 
risk due to uncorrected management and technical weaknesses \9\ that we 
first reported in July 1995.\10\ Such an approach to modernization 
spending has contributed to IRS' past modernization failures, and 
giving IRS more money under these circumstances not only undermines the 
objectives of GPRA and the Clinger-Cohen Act, but also increases the 
risk of more money being wasted.
---------------------------------------------------------------------------
    \9\ GAO High Risk Series, IRS Management (GAO/HR-97-8, February 
1997); Tax Systems Modernization: Actions Underway But Management and 
Technical Weaknesses Not Yet Corrected (GAO/T-AIMD-96-165, September 
10, 1996); Tax Systems Modernization: Actions Underway But IRS Has Not 
Yet Corrected Management and Technical Weaknesses (GAO/AIMD-95-106, 
June 7, 1996); Tax Systems Modernization: Management and Technical 
Weaknesses Must Be Overcome To Achieve Success (GAO/T-AIMD-96-75, March 
26, 1996); and Tax Systems Modernization: Management and Technical 
Weaknesses Must Be Corrected If Modernization Is to Succeed (GAO/AIMD-
95-156, July 26, 1995).
    \10\ Tax Systems Modernization: Management and Technical Weaknesses 
Must Be Corrected If Modernization Is to Succeed (GAO/AIMD-95-156, July 
26, 1995).
---------------------------------------------------------------------------
Budget Request for Fiscal Year 1998 Systems Development Not Justified
    The Clinger-Cohen Act, GPRA, and OMB Circular No. A-11 and 
supporting memoranda require that information technology investments be 
supported by accurate cost data and convincing cost-benefit analyses. 
However, IRS has not prepared such analyses to support its fiscal year 
1998 request of $131 million for system development. The budget request 
states that IRS does not know how it plans to spend these funds because 
its modernization systems architecture and system deployment plan have 
not yet been finalized. These efforts are scheduled for completion in 
May 1997 and are intended to guide future systems development. 
According to IRS budget officials, $131 million was requested for 
fiscal year 1998 because it was approximately the same amount IRS 
received in fiscal year 1997 for system development.
No Justification to Support Information Technology Investments Account 
        Requests for Fiscal Years 1998 and 1999
    The administration, on IRS' behalf, is proposing to establish an 
Information Technology Investments Account to fund future modernization 
investments at IRS. It is seeking $1 billion-$500 million in each of 
fiscal years 1998 and 1999--for ``yet-to-be-specified'' development 
efforts. According to IRS' request, the funds are to support 
acquisition of new information systems, any expenditures from the 
account will be reviewed and approved by the Department of the 
Treasury's Modernization Management Board, and no funds will be 
obligated before July 1, 1998.
    The Clinger-Cohen Act, GPRA, and OMB Circular No. A-11 and 
supporting memoranda require that, prior to requesting multiyear 
funding for capital asset acquisitions, agencies develop accurate, 
complete cost data and perform thorough analyses to justify the 
business need for the investment. For example, agencies need to show 
that needed investments (1) support a critical agency mission, (2) are 
justified by a life-cycle-based cost-benefit analysis, and (3) have 
cost, schedule, and performance goals.
    IRS has not prepared such analyses for its fiscal years 1998 and 
1999 investment account request. Instead, IRS and Treasury officials 
stated that, during executive-level discussions, they estimated that 
they would need about $2 billion over the next 5 years. This estimate 
was not based on analytical data or derived using formal cost 
estimating techniques. According to OMB officials responsible for IRS' 
budget submission, the request was reduced to $1 billion over 2 years 
because they perceived the lesser amount as being more palatable to the 
Congress. These officials also told us that they were not concerned 
about the precision of the estimate because their first priority is to 
``earmark funds'' in the fiscal years 1998 and 1999 budgets so that 
funds will be available when IRS eventually determines how it wants to 
modernize its systems.
    In 1995 we made over a dozen recommendations to the Commissioner of 
Internal Revenue to address systems modernization management and 
technical weaknesses. We reported in 1996 that IRS had initiated many 
activities to improve its modernization efforts, but had not yet fully 
implemented our recommendations.\11\ Since that time, IRS has continued 
to take steps to address our recommendations and respond to 
congressional direction. While we recognize that there are ongoing 
actions intended to address these problems, we remain concerned. Much 
remains to be done to implement essential improvements in IRS' 
modernization efforts. IRS has not yet instituted disciplined processes 
for designing and developing new systems, has not yet completed its 
systems architecture, and has no justification for the funding it has 
requested.
---------------------------------------------------------------------------
    \11\ Tax Systems Modernization: Actions Underway But IRS Has Not 
Yet Corrected Management and Technical Weaknesses (GAO/AIMD-95-106, 
June 7, 1996).
---------------------------------------------------------------------------
    Given IRS' poor track record delivering cost beneficial TSM 
systems, persisting weaknesses in both software development and 
acquisition capabilities, and the lack of justification and analyses 
for over $1 billion in proposed system expenditures, we believe that 
the Congress should not fund these requests until the management and 
technical weaknesses in IRS' modernization program are resolved and the 
required justifications are completed.
    Mr. Chairman, this concludes my statement. Lynda Willis, Director, 
Tax Policy and Administration Issues, and I will be happy to respond to 
any questions you or Members of the Subcommittee might have at this 
time.

                    Capabilities to Snoop or Browse

    Senator Campbell. We are focusing on the IRS, but your 
comment did bring something to my mind. Do you know of any 
other agency of the Federal Government that has the 
capabilities to snoop or browse? I am only one step ahead of 
Senator Faircloth in understanding high-technology computers, 
but could another agency access IRS files to be able to snoop 
or browse?
    Ms. Stillman. IRS operational systems are not on open 
networks like Internet. They are on closed networks and access 
is limited to IRS employees.
    Senator Campbell. At what point did the GAO become aware 
that there was browsing of files?
    Ms. Willis. Senator, I believe the first time that we 
reported to the Congress on browsing was in 1993 as a part of 
our audit of the IRS' 1992 financial statement.
    Senator Campbell. You notified them of your findings at 
that time?
    Ms. Willis. Yes.
    Senator Campbell. What was their response at that time?
    Ms. Willis. That it was a serious problem that needed to be 
corrected.
    Senator Campbell. Do you think they have taken sufficient 
actions to prevent it?
    Ms. Willis. I will let Dr. Stillman answer that, but I 
think in part the fact that we are here today in 1996 with the 
same sorts of issues and the same sorts of problems indicate 
that if we have taken actions, they have not been adequate to 
address the underlying problem.
    Ms. Stillman. That is exactly correct. They have taken some 
actions. They have developed the EARL system. They are using it 
to some extent on IDRS. The Commissioner has indicated that she 
considers it important that employees not browse and has issued 
a zero tolerance statement. None of these actions has been 
sufficient to stop browsing.
    Senator Campbell. As a person that does not understand a 
lot about sophisticated equipment, could anybody in the IRS do 
this, or does it require some kind of a special skill to access 
these records, or could anybody that is pretty good with 
computers do it?
    Ms. Stillman. There are about 58,000 employees of IRS who 
use the IDRS system. You have to be a user of----
    Senator Campbell. Any one of those could do it?
    Ms. Stillman. Yes.
    Senator Campbell. To anyone they wanted to pull up, a 
celebrity, a family, friend; is that right?
    Ms. Stillman. As far as I know, they are not limited. If 
they have sufficient information to get the record, they are 
not limited.
    Senator Campbell. I appreciate it. I also have about a half 
a dozen questions that I would like to submit to you also, if 
you would get back to the committee with those in writing.
    Ms. Stillman. We surely will.
    Senator Campbell. Thank you.
    Senator Kohl.
    Senator Kohl. Thank you very much, Mr. Chairman.

                  Degree of Seriousness About Browsing

    Dr. Stillman, there is this concern that they are just not 
serious enough about it over there, about browsing. That it is 
not taken with the degree of seriousness that the American 
people and those of us who are sitting here today think it 
should be taken, and that is why we are where we are. That when 
you see that just 1 percent of those who were redlined for 
browsing have been discharged and so on, you get the impression 
that it is business as usual and let us hope that this thing 
blows over.
    Now you know more about it than we do. To what extent would 
you disagree with this appraisal?
    Ms. Stillman. IRS itself in its 1996 Executive Steering 
Committee Report on EARL has said that the attitude of IRS 
employees is a problem, that they do not regard it seriously. 
That they do not believe they will be punished, and they do not 
believe that this activity is important.
    Senator Kohl. So then in looking at how we change that 
culture you have to look at the management. It is management 
that has the responsibility for carrying out the rules and 
regulations, and for instilling a sense of discipline. Would 
you disagree with that?
    Ms. Stillman. No, I certainly would not disagree with that. 
The values of an organization, what it believes are important 
is determined at the top.
    Senator Kohl. Then what would you say about whomever the 
Deputy Secretary happens to be from one time to another--and we 
all understand the problem did not arise yesterday--and the 
Commissioner of the IRS? After all, these are the two top 
officials on a day-to-day basis who are involved in trying to 
run this organization properly. Would you say that that is 
where you have to start? I mean, any organization starts from 
the top and it moves down from that point. Would you disagree?
    Ms. Stillman. No; I would not disagree. The Deputy 
Secretary has already testified that he believes that browsing 
is an important problem. And it is important that that belief 
be inculcated through the agency, and apparently they have not 
done that very well to date.
    Senator Kohl. So much of the concern we have should be 
focused not only on those who are doing the browsing but on 
those who are supervising them clearly?
    Ms. Stillman. It is clearly a total agency problem.

                        Funding for TSM Project

    Senator Kohl. Dr. Stillman, what should we do about the TSM 
project? In your opinion, should we continue to provide funding 
for it, and what would happen to the Nation's tax collection 
systems if we were to call a halt to the modernization efforts 
at this time?
    Ms. Stillman. There is one very important myth that ought 
to be dispelled. That is that the money spent for developing 
new systems, for TSM new systems development, impacts current 
operation in the same year. It does not. Current operational 
systems are funded and operated separately. So in the 
discussion for TSM, there is considerable leeway in determining 
what we spend, and in what order.
    What is important is that TSM or systems modernization 
spending, whatever its name is in the future, be done very 
differently than it was done in the past. That first, before 
money is spent, there be good, solid business plans and clear 
capabilities inside the organization to develop or acquire 
systems; that systems be developed or acquired in small 
increments, not in big lumps; that the small increments have 
relatively short timeframes and very clear performance measures 
so that before the next increment of investment is made it is 
clear that the previous increment has been worthwhile.
    That is not the structure that TSM has exhibited in the 
past, but that should be the structure in the future.
    Senator Kohl. Thank you.
    Thank you, Mr. Chairman.
    Senator Campbell. Thank you for your very concise and clear 
answers, Doctor. I did have a couple of little questions. How 
does the IRS actions about misconduct--I read some of the 
numbers a while ago from this sheet I have here--how does that 
compare with other agencies? I know that this is just a kind of 
a rush in the IRS now, but other agencies certainly have some 
disciplinary problems too, and I was just wondering of those, 
how many of those are closed without action, or counseling, or 
disciplinary action? Do you have any idea if the IRS has an 
undue amount of disciplinary actions compared to other 
agencies?
    Ms. Stillman. I personally have no idea.
    Ms. Willis. Senator, we have not looked at that, but I 
think there are, obviously, a couple of agencies that you could 
look at, including Veterans Affairs, Social Security 
Administration, Medicare where you have files that similarly 
would be of interest to people. But I do not know of anyone who 
has actually gone in and compared what type of disciplinary 
actions those agencies have taken against employees found 
violating the confidentiality of the data on their systems.
    Senator Campbell. That is the only questions I have. I 
certainly appreciate you appearing today and I am sorry that we 
had to hold you up so long. Thank you, Dr. Stillman.
    Ms. Stillman. Thank you so much. It has been a pleasure to 
be here.
                                Panel 4

                       DEPARTMENT OF THE TREASURY

                        Internal Revenue Service

STATEMENTS OF:
        VALERIE LAU, INSPECTOR GENERAL
        MARGARET MILNER RICHARDSON, COMMISSIONER
ACCOMPANIED BY DAVID MADER, CHIEF OF MANAGEMENT AND ADMINISTRATION

                       Introduction of Witnesses

    Senator Campbell. The last panel will be the Honorable 
Margaret Milner Richardson, Commissioner of Internal Revenue 
Service, and the Honorable Valerie Lau, Inspector General of 
the U.S. Department of the Treasury. If you folks would come 
forward. Why don't we go ahead and start with you, Valerie? You 
may proceed, Ms. Lau.

                        Statement of Valerie Lau

    Ms. Lau. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Kohl, I am pleased to be here today to represent both the 
Treasury Office of Inspector General and the Internal Revenue 
Service's Inspection Service. With your permission, I would 
like to submit my prepared statement for the record and 
summarize my remarks.
    Senator Campbell. Without objection, your complete 
testimony will be in the record.

                Browsing of Tax Records by IRS Employees

    Ms. Lau. Thank you. Today we are addressing a very serious 
issue: how to protect taxpayer information from electronic 
browsing by IRS employees. Unfortunately, as you have heard, 
this is not a new issue. There has been extensive oversight of 
this problem for the past 5 years. In fact, in 1992 IRS 
internal auditors were the first to bring the problem of 
employee browsing to light. In response, IRS management has 
taken action. However, the abuse continues.
    So where do we go from here? I have three priorities to 
suggest. First, continued oversight by the IRS Chief Inspector 
and the Treasury Inspector General. Second, improved controls 
to prevent and detect abuse in current and future systems. And 
third, new laws that penalize browsing of taxpayer information 
by IRS employees.
    You might be wondering what the Treasury's auditors and 
investigators have done to help tackle this problem. I am 
pleased to say we have done quite a bit and we plan to do more. 
IRS internal auditors developed the first computer program to 
show the nature and extent of the browsing problem. That 
program was the impetus for the primary system, EARL, currently 
used to detect browsing.
    Since then, the Chief Inspector's auditors and mine have 
continued to monitor and report on the IRS' progress in 
addressing this and other computer security problems. The Chief 
Inspector and I intend to maintain our focus on this area.
    Since the auditors first identified the problem 5 years 
ago, the IRS' ability to detect browsing has improved. I 
believe the continuing audits and investigations I have 
described in my written statement have had a positive impact. 
But this does not mean that we can catch all abuses or scare 
away all of those who are intent on abusing the system.
    The challenge of protecting taxpayers' information is a 
difficult one because many IRS employees have a legitimate need 
to access the data in order to perform their assigned duties. 
Unfortunately, some IRS employees have abused this authority.
    The solutions? As others have mentioned, these include 
monitoring employee activity, educating employees, and taking 
consistent disciplinary action against those who abuse the 
taxpayers' trust.
    What else can be done? Let me return to my three 
priorities. Continued oversight. I pledge that my office and 
that of the IRS Chief Inspector will continue to give our 
attention to this area. We welcome the support you have shown 
in addressing this issue.
    Improved controls. Controls in the current IDRS system need 
to be further strengthened so they not only detect but also 
prevent abuses. In addition, controls are needed to monitor use 
of those systems not covered by detection systems such as EARL. 
The vulnerability of those systems which were identified by GAO 
need to be evaluated and given appropriate management 
attention. Prospectively, the next generation of systems should 
include controls that prevent, not just detect, unauthorized 
access.
    Finally, stronger laws. We need to have laws in place that 
penalize employees who browse taxpayer information. I join the 
support for the proposed antibrowsing legislation introduced by 
Senator Glenn.
    This concludes my remarks and I would be happy to answer 
any questions you have.

                           Prepared Statement

    Senator Campbell. Thank you, Ms. Lau. We have your complete 
statement and it will be made part of the record.
    [The statement follows:]
                   Prepared Statement of Valerie Lau
    Mr. Chairman and Members of the Committee: I am Valerie Lau, 
Inspector General of the Department of the Treasury. I am pleased to be 
here today to represent the Treasury Office of Inspector General (OIG) 
and the Internal Revenue Service's (IRS) Inspection Service. With your 
permission, I would like to submit my prepared statement for the record 
and take a few moments to summarize my remarks.
    Today we are addressing a very serious issue, how to protect 
taxpayer information from electronic browsing by IRS employees. 
Unfortunately, this is not a new issue. There has been extensive 
oversight of this problem for the past 5 years. In fact, in 1992, IRS 
internal auditors were the first to bring the problem of employee 
browsing to light. In response, IRS management has taken action. 
However, the abuse continues. So, where do we go from here?
    I have three priorities to suggest: (1) continued oversight by the 
IRS Chief Inspector and the Treasury Inspector General, (2) improved 
controls to prevent and detect abuse in current and future systems, and 
(3) new laws that penalize browsing of taxpayer information by IRS 
employees.
                 role of my office with respect to irs
    As you know, the Treasury Office of Inspector General was 
established by the 1988 Amendments to the IG Act of 1978. Unlike most 
other IG's, however, the Amendments did not create a single audit and 
investigative entity for the Treasury Department. Specifically, IRS 
retained its internal investigative and internal audit functions under 
the direction of the IRS Chief Inspector. That office has primary 
responsibility for all direct audit and investigative activity at IRS. 
My office was assigned oversight responsibility.
    The Amendments gave my office the authority to initiate, conduct 
and/or supervise audits of the IRS. However, with an audit staff of 160 
to provide primary coverage for the remaining 11 Treasury bureaus and 
the added financial audit responsibilities under the Chief Financial 
Officer's Act, our capacity to do many audits at IRS is limited. In 
contrast, the Chief Inspector has approximately 460 auditors who focus 
solely on IRS programs and operations. Consequently, my office must 
rely on IRS Internal Audit for most of the audit coverage at IRS. In 
addition, GAO performs an extensive amount of audit work at the IRS, 
including the audit of IRS' financial statements.
    The Amendments also changed the requirements for reporting the 
results of the Chief Inspector's audits and investigations. This work 
is routinely included in my office's Semiannual Report to the Congress. 
In fact, the Semiannual report has specifically included audit reports 
on computer security and browsing of sensitive taxpayer information 
since 1993.
                    ig and chief inspector coverage
    You might be wondering what the Treasury's auditors and 
investigators have done to help tackle this problem. I am pleased to 
say we have done quite a bit, and we plan to do more. IRS internal 
auditors developed the first computer program to show the nature and 
extent of the browsing problem. That program was the impetus for the 
primary system currently used to detect browsing. Since then, the Chief 
Inspector's auditors and mine have continued to monitor and report on 
the IRS' progress in addressing this and other computer security 
problems. The Chief Inspector and I intend to maintain our focus on 
this area.
    Security over tax information has received extensive and continuous 
audit coverage from both the IRS Chief Inspector and my office. While 
the Chief Inspector's work has covered a broad range of data security 
issues, Integrated Data Retrieval System (IDRS) security and employee 
browsing of taxpayer information have been a particular focus.
    The problems with IDRS were first reported by the Chief Inspector's 
office in 1992 in a report issued by the Southeast Region. The internal 
auditors developed computer utility programs which allowed them to 
analyze employee accesses to taxpayer accounts through IDRS and 
identify instances of unauthorized access and taxpayer browsing. In 
1993, the Chief Inspector conducted a nationwide audit which confirmed 
that employee browsing was a nationwide problem that needed immediate 
attention.
    In August 1993, the Senate Governmental Affairs Committee held a 
hearing focused on the Chief Inspector's findings. In response, the IRS 
developed the IDRS Privacy and Security Action Plan. That Plan included 
35 action items to improve security over information processed by IDRS. 
The plan included 10 action items that were the responsibility of the 
IRS Inspection Service.
    In 1994, at the request of Senator Glenn, the OIG reviewed the 
Service's progress in implementing the action plan. In 1996, we 
conducted a follow up review. In the second audit, we found that the 
Inspection Service had successfully completed its 10 Action Plan items 
for helping control IDRS abuse. While the IRS was making progress on 
the rest of the plan, several actions related to a key control 
mechanism, the Electronic Audit Research Log (EARL), were still not 
complete.
    In 1996, the Chief Inspector issued a follow up audit report to 
their 1994 audit of EARL. That report noted that EARL still has only 
limited ability to identify browsing and that IRS had not yet developed 
procedures to assure that potential browsing cases are consistently 
reviewed and referred. These and other issues are currently being 
addressed by the EARL Executive Steering Committee.
    The Chief Inspector and his staff have taken a proactive role in 
assisting IRS management in its efforts to improve security over IDRS. 
For example, the concept for EARL was based in part on the audit 
utility programs developed by the auditors who first identified the 
IDRS browsing problem. Also, the EARL Executive Steering Committee was 
created to respond to problems with EARL identified by the IRS internal 
auditors. A member of the Chief Inspector's staff participates on that 
Committee. The Steering Committee's 1996 report contains numerous 
recommendations to improve the Service's implementation and use of 
EARL.
    Finally, the Chief Inspector's auditors and investigators have 
worked together to identify indicators of abuse and have alerted IRS 
management through periodic Internal Audit Memorandums. Finally, the 
Chief Inspector's investigators have pursued management referrals of 
potential misuse.
    We have reported this work in our Semiannual reports to the 
Congress. Since 1993, we have regularly reported IDRS security 
weaknesses as a major area of concern for IRS. The various audits 
performed by the Chief Inspector have also contributed to raising this 
problem to the level of a material weakness in the Department's Federal 
Manager's Financial Integrity Act Assurance letter.
                              conclusions
    Since the auditors first identified the problem five years ago, the 
IRS' ability to detect browsing has improved. I believe the continuing 
audits and investigations I have described have had a positive impact. 
But this does not mean we can catch all abuses or scare away those who 
are intent on abusing the system.
    The challenge of protecting taxpayers' information is a difficult 
one, because many IRS employees have a legitimate need to access that 
data in order to perform their assigned duties. Unfortunately, some IRS 
employees have abused this authority. The solutions? As others have 
mentioned, these include monitoring employee activity, educating 
employees, and taking consistent disciplinary action against those who 
abuse the taxpayers' trust.
    What else can be done? Let me return to the three priorities:
    Continued Oversight.--I pledge that my office and that of the IRS 
Chief Inspector will continue to give our attention to this area. We 
welcome the support you have shown in addressing this issue.
    Improved Controls.--Controls in the current IDRS system need to be 
further strengthened so they not only detect, but also prevent abuses. 
In addition, controls are also needed to monitor use of systems not 
covered by detection systems such as EARL. The vulnerability of those 
systems, identified by GAO, need to be evaluated and given appropriate 
management attention. Prospectively, the next generation of systems 
should include controls that prevent, not just detect, unauthorized 
access.
    Stronger Laws.--We need to have laws in place that penalize 
employees who browse taxpayer information. I join the support for 
proposed anti-browsing legislation introduced by Senator Glenn.
    This concludes my remarks. I will be happy to answer any questions 
you may have.

                Statement of Margaret Milner Richardson

    Senator Campbell. Before we start the questions, I would 
also welcome Ms. Richardson, and thank you for coming. The 
committee understands that you will be leaving Government 
shortly and pursuing other adventures.
    Ms. Richardson. Yes.
    Senator Campbell. We wish you well.
    Ms. Richardson. Thank you very much.
    Senator Campbell. One of the wonderful things will be, you 
do not appear any more.
    Ms. Richardson. I will miss those opportunities.
    Senator Campbell. We will take all of your testimony in the 
record and you are welcome to abbreviate your comments if you 
would like.
    Ms. Richardson. Thank you. Mr. Chairman and Senator Kohl, I 
want to thank you very much for giving us the opportunity to 
come today and talk about the Internal Revenue Service's policy 
toward the unauthorized access of tax information by IRS 
employees. Our policy on the unauthorized access of taxpayer 
information is simple: Employees are prohibited from accessing 
information that is not needed to perform their official tax 
administration duties. They are permitted only to access 
information in order to carry out those duties, and there are 
no exceptions to that policy.

                   Unauthorized Access to Tax Records

    Shortly after I became Commissioner in May 1993, the IRS 
Chief Inspector brought to my attention results of an internal 
audit report that was looking into unauthorized access of 
taxpayer information by IRS employees. Since that time we have 
attempted to determine the scope of the problem, and we have 
also repeatedly emphasized to employees our policy against 
unauthorized access. The appendix to my testimony has a number 
of the communications and information we provided to employees.
    We have tried to educate the employees, and also to enhance 
our efforts to detect and punish those who do conduct 
unauthorized access of taxpayer accounts. I have consistently 
stressed that we will not tolerate unauthorized access of 
taxpayer accounts. Although unauthorized access does not 
involve an unauthorized disclosure outside of the Service by an 
IRS employee of taxpayer information to a non-IRS employee, 
those actions around unauthorized accesses do undermine 
taxpayer confidence in the tax administration system.
    In addition to the written communications to all employees, 
I have emphasized in virtually every meeting, teleconference, 
and every opportunity I have had to speak with employees that 
we cannot and will not tolerate such behavior. We have also 
tried to strengthen and clarify the penalties that would be 
imposed for violating our policy, and we have developed and 
supported legislative changes that would affirm criminal 
penalties for violations.
    As I mentioned, we have taken a number of steps. For 
example, now when an employee logs onto our principal taxpayer 
data base, the integrated data retrieval system you heard about 
earlier, I am sure, a statement warns of possible prosecution 
for unauthorized use of the system. All new users of that data 
base receive training on privacy and security of tax 
information before they are ever entitled to access it. They 
are required to review and to sign an acknowledgement that they 
have read and understand the rules and the penalties for 
violations of the rules.

                      Automatic Security Programs

    We have also installed automatic detection programs that 
would monitor employees' actions and accesses to taxpayers' 
accounts to help us identify patterns of use and alert managers 
to potential misuse. There are about 1.5 billion accesses to 
that data base each year, and only a very small percentage of 
those accesses are potentially unauthorized.
    Our electronic research analyzes the audit trails of each 
of the transactions and it is currently the key to our 
detection. We are continuing to refine that software so that we 
can more efficiently and effectively identify potential 
unauthorized accesses.
    We are also working with state-of-the-art private sector 
organizations with the aim of identifying the feasibility of 
various security prevention systems and the way these companies 
approach managing technology risks. Our ultimate goal is to 
better control access to information through up-front 
authorizations so that we will have to rely less on after-the-
fact detection.

                           Employee Education

    Since 1993 we have also been engaged in a vigorous campaign 
to let employees know that unauthorized access will result in 
disciplinary action including removal. We have also charged our 
executives with supporting our commitment by making certain 
that they will provide consistency of discipline for 
unauthorized access of taxpayer information within their 
offices, that they will personally ensure that their employees 
receive the required training and orientation in their offices, 
and that they will take the opportunity to communicate our 
policy to explain what IDRS systems monitoring capabilities are 
about and what our policy is.
    In January, we centralized responsibility for all privacy 
and security systems in the Office of System Standards and 
Evaluation. Recognizing the critical need to enforce Federal 
tax law and regulations on privacy and nondisclosure of 
confidential tax information that office was created to assume 
responsibility for establishing and enforcing standards and 
policies for all major security programs, including but not 
limited to data security.
    With me today is Mr. Len Baptiste, who is sitting behind me 
and who is the National Director of that program. He came from 
the General Accounting Office where he had systems evaluation 
management experience and dealt with a number of security 
issues. We also hired William Hadesty to be the Director of 
Security Standards and Evaluation. Mr. Hadesty's private and 
public sector computer security experience includes over 10 
years with the General Accounting Office where he led 
comprehensive computer security reviews at numerous Government 
agencies, including IRS.

                    Disciplining Unauthorized Access

    Although a clear policy of communication and training and 
effective detection are important ways of institutionalizing 
our policies against unauthorized access, we also need strong 
disciplinary and judicial support to reinforce the seriousness 
and the consequences of violating our policy. In pursuing 
strong disciplinary actions before administrative tribunals, 
thus far the results have been mixed. For example, in cases 
where employees have improperly accessed information but not 
used such information for anyone's gain, financial gain or 
their detriment, those cases have not always been viewed by 
third parties as seriously as we believe that they should be.
    Because nothing is more important to the operation of the 
tax system than protecting taxpayer information, I also today 
want to renew my request that Congress clarify the law and 
criminal sanctions. We continue to support the legislation that 
was marked up by the Ways and Means Committee last week and the 
similar legislation that was introduced in the Senate. I 
understand that there will be votes on both of those today and 
I want to indicate again, we do support that and hope they will 
pass.
    The IRS has supported enactment of a criminal misdemeanor 
penalty for the willful, unauthorized inspection of returns and 
return information since it became apparent in 1994 that that 
was one of the features that we would need to make sure that 
our policy was carried out and taken seriously by employees as 
well as outsiders.
    We developed two legislative proposals. The first 
recommended that we amend title 18 of the criminal code so that 
unauthorized inspection of computer records would be punishable 
as a misdemeanor. The second one recommended amending the 
Internal Revenue Code to provide a misdemeanor penalty for the 
unauthorized inspections of returns or return information in 
any medium, not just in computers. Senator Glenn, who I know 
testified earlier, introduced in the 104th Congress the 
Taxpayer Privacy Protection Act. We supported that then, and as 
I hope he indicated, we continue to support that.
    We did, however, get through the Economic Espionage Act of 
1996 which did amend title 18 to provide criminal penalties for 
anyone who accesses a computer. But the reason we feel that the 
legislation that is before Congress today is necessary is that 
we do want to clarify that the criminal sanctions for 
unauthorized access violates the Internal Revenue Code whether 
that information is in a computer or paper format. We also 
would like to have all of the confidentiality scheme respecting 
tax information in the Internal Revenue Code.

                           Extent of Problems

    I have stated in the past and I repeat that a single, any 
single unauthorized access is one too many. But I do believe 
that it is important that we put into context the numbers that 
were recently reported in the press. As I noted, there are 1.5 
billion accesses annually on our data retrieval system. During 
1996, 1,374 cases were identified as potential unauthorized 
accesses. Of that number, upon further investigation 411 were 
determined to have been authorized. Of the remaining 963 cases, 
disciplinary actions were taken in 862 cases, and 101 are still 
under review.
    For example, also during 1995 and 1996, 120 cases were 
referred to U.S. Attorneys for prosecution, 15 were accepted, 
12 were pending, and the rest were declined.
    I want to reaffirm that we do understand as an organization 
the importance of safeguarding taxpayer information, and we 
also understand it is essential to the operation of our self-
assessment system. As I said, we welcome the legislative 
changes and any other suggestions that you have that will help 
us address the problem of unauthorized access. Prevention is 
our ultimate goal.
    Thank you, Mr. Chairman, and I would be happy to try to 
answer any questions you might have.

                           Prepared Statement

    Senator Campbell. Thank you, Ms. Richardson. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
            Prepared Statement of Margaret Milner Richardson
    Mr. Chairman and Distinguished members of the Subcommittee. I 
appreciate the opportunity to be here today to discuss the Internal 
Revenue Service's policy toward the unauthorized access of tax 
information by IRS employees.
                              irs' policy
    The IRS' policy on unauthorized access of taxpayer information is 
simple: IRS employees are prohibited from accessing information not 
needed to perform their official tax administration duties. 
Unauthorized access of taxpayer information violates both privacy and 
disclosure rules. IRS employees are only permitted to access 
information in order to carry out their duties. There are no 
exceptions.
    Shortly after I became Commissioner in May of 1993, the IRS Chief 
Inspector brought to my attention his concerns about unauthorized 
access of taxpayer information by IRS employees. Since that time, we 
have repeatedly emphasized to employees the IRS policy against 
unauthorized access of taxpayer information. (See Appendix.) The 
Service has also adopted procedures to educate employees about the 
policy and to detect and punish unauthorized access of taxpayer 
accounts.
    I have consistently stressed both inside and outside the Service 
that the IRS does not tolerate unauthorized access of taxpayer accounts 
by IRS employees. In addition to written communications to all 
employees, I have consistently emphasized in virtually every meeting, 
teleconference or other opportunity I have had to speak to employees 
that the IRS cannot and will not tolerate such behavior.
    The IRS has strengthened and clarified penalties to be imposed for 
violations of the Service's policy. Warning messages have also been 
added to the ``sign-on'' screens for employees with access to the 
principal database that employees use. Additional steps the IRS has 
taken to prevent unauthorized access include expanding the ability to 
detect unauthorized accesses through the Electronic Audit Research Log 
(EARL) on the Integrated Data Retrieval System (IDRS), sending 
memoranda to all employees reiterating the Service's policy, and 
developing and supporting legislative changes that affirm criminal 
penalties for violations.
    The American federal income tax system is based upon self-
assessment. Confidentiality of tax returns and tax return information 
is part of the foundation of the self-assessment system. Public 
confidence that the personal and financial information given to the IRS 
for tax administration purposes will be kept confidential is vital to 
that system. Although unauthorized access might not involve 
unauthorized disclosure by an IRS employee of taxpayer information to a 
non-IRS employee, such actions can undermine taxpayer confidence in the 
tax administration system.
                              irs actions
    Since 1993, the IRS has taken a number of steps to ensure that 
unauthorized access of taxpayer information by IRS employees does not 
occur. For example, each time an employee logs onto the taxpayer 
account data base (IDRS), a statement warns of possible prosecution for 
unauthorized use of the system. (See page 29 of Appendix.) All new 
users receive training on privacy and security of tax information 
before they are entitled to access the IDRS. They are required to 
review and sign an acknowledgment that they have read and understand 
the Automated Information Systems (AIS) Security Rules. (See pages 30 
and 31 of Appendix.) The Service has also installed automated detection 
programs that monitor employees' actions and accesses to taxpayers' 
accounts, identify patterns of use, and alert managers to potential 
misuse.
    The EARL system, which detects potential unauthorized accesses by 
analyzing the audit trails of each of the transactions on IDRS, is 
currently the key to detection. Because of the volume of transactions--
about 1.5 billion annually--and the extremely small percentage of 
potential unauthorized accesses, the Service continues to refine the 
EARL software to more efficiently and effectively identify such 
potential unauthorized accesses. The IRS is also contacting ``state-of-
the-art'' private sector organizations with the aim of identifying the 
feasibility of various security ``prevention'' systems and their 
approaches to managing technology risks. This approach will enable the 
Service to better control access to information through ``up front'' 
authorizations and ultimately rely less on after-the-fact detection. 
The feasibility of monitoring potential unauthorized accesses on 
systems other than IDRS that can be used to access taxpayer data is 
also being assessed. In this regard, the IRS has initiated efforts to 
contract for feasibility assessments of all systems that are used to 
access information (e.g., the Integrated Collection System and the 
Totally Integrated Examination System) to monitor the full extent of 
unauthorized accesses of taxpayer information beyond IDRS and develop 
both prevention and detection measures.
    Administratively, since 1993, the IRS has been engaged in a 
vigorous campaign to let employees know that unauthorized accesses will 
result in disciplinary action, including removal from the Service. As 
recently as last month, I issued a memorandum to all executives and 
employees stating:

        Unauthorized access to accounts, absent mitigating 
        circumstances, is serious misconduct and would normally warrant 
        removal. It is also a violation of 18 USC 1030 (fraud and 
        related activity in connection with computers), which can 
        result in criminal prosecution. (See page 2 of Appendix.)

    At the same time, IRS executives were charged to support the 
organization's commitment to taxpayer privacy and the security of tax 
data by:
  --Assessing personally on a periodic basis the consistency of 
        discipline for unauthorized access of taxpayer information 
        within their offices. Electronic Audit Log Research cases will 
        now be sent directly to Heads of Offices, either initially or 
        after investigation by Inspection for appropriate review and 
        action.
  --Personally ensuring that employees receive the required training 
        and orientation within their offices; and
  --Personally taking every opportunity to communicate the Service's 
        expectations, and to explain IDRS systems monitoring 
        capabilities, to all their employees. (See page 4 of Appendix.)
    In January, the Service centralized responsibility for all privacy 
and systems security issues in the Office of Systems Standards and 
Evaluation (SSE). Recognizing the critical need to enforce federal law 
and regulations on privacy and non-disclosure of confidential tax 
information, SSE was created to assume responsibility for establishing 
and enforcing standards and policies for all major security programs 
including, but not limited to data security. In this regard, SSE 
provides IRS with a proactive, independent security group that is 
directly responsible for the adequacy and consistency of security over 
all IRS operations.
    Mr. Len Baptiste was appointed as the National Director of SSE. His 
past GAO systems evaluation management experience, including security 
issues, will provide the leadership needed to carry out his new duties. 
In March 1997, Mr. William Hadesty was appointed as SSE's Director of 
Security Standards and Evaluations. Mr. Hadesty's private- and public-
sector computer security experience includes over 10 years with the 
General Accounting Office where he led comprehensive computer security 
reviews at numerous government agencies, including his review of IRS 
facilities.
    Although a clear policy, communication and training, and effective 
detection are important ways of institutionalizing a policy against 
unauthorized access, strong disciplinary and judicial support are 
essential to reinforce the seriousness and consequences of violating 
the policy. In pursuing strong disciplinary actions before 
administrative tribunals, the results thus far have been mixed. For 
example, the cases in which employees have improperly accessed 
information, but not used such information for anyone's gain or 
detriment, financial or otherwise, have not always been viewed as 
seriously as we believe they should be.
    Because nothing is more important to the operation of the tax 
system than protecting taxpayer information, I want to renew my request 
that Congress clarify the law on criminal sanctions. The IRS continues 
to support the legislation marked up by the House Ways and Means 
Committee last week and similar legislation introduced in the Senate 
which would do just that.
    The IRS has supported enactment of a criminal misdemeanor penalty 
for the willful, unauthorized inspection of returns and return 
information since 1994. In fact, in 1994, the IRS developed two 
legislative proposals on this issue. The first proposal recommended 
amending Title 18, the Criminal Code, so that unauthorized inspection 
of computer records would be punishable by a misdemeanor. The second 
proposal recommended amending the Internal Revenue Code to provide a 
misdemeanor penalty for unauthorized inspection of returns or return 
information in any medium.
    In response to the IRS' request for legislation, Senator Glenn 
introduced S. 670, the ``Taxpayer Privacy Protection Act,'' during the 
104th Congress. It provided a misdemeanor penalty for unauthorized 
inspection. Unfortunately, Congress did not pass that legislation. 
However, Congress did pass, and the President signed, the Economic 
Espionage Act of 1996 (Public Law 104-294). This Act amended Title 18 
to provide criminal penalties for anyone who intentionally accesses a 
computer without authorization, or exceeds authorized access, and 
thereby obtains information from any department or agency of the United 
States (18 USC 1030(a)(2)).
    Because the Economic Espionage Act applies only to unauthorized 
access of computer records, the IRS continued to seek legislation 
clarifying the criminal sanctions for unauthorized access or inspection 
of tax information in section 7213 of the Internal Revenue Code--
whether that information is in computer or paper format--and ensuring 
that the entire confidentiality scheme respecting tax information and 
related enforcement mechanisms would be appropriately found in the 
Internal Revenue Code. Therefore, the IRS has worked with the staff of 
the Senate Governmental Affairs Committee to help develop the 
``Taxpayer Privacy Protection Act'' introduced on April 8, 1997, by 
Senator Glenn. Similar legislation was introduced in the House of 
Representatives.
    The House bill would apply to the unauthorized inspection of paper 
returns and related tax information. By clarifying the criminal 
sanctions for unauthorized inspection of tax information in section 
7213 of the Internal Revenue Code, whether that information is in 
computer or paper format, the entire confidentiality scheme respecting 
tax information and related enforcement mechanisms would be found 
appropriately in the Internal Revenue Code. The Service fully supports 
such an amendment and believes that it would serve important tax 
administration objectives.
    While I have stated in the past that one unauthorized access is one 
too many, I believe it is important to put the numbers that were 
recently reported in the press into some context. There are 1.5 billion 
accesses annually on IDRS. During fiscal year 1996 there were 1,374 
cases that were identified as potential unauthorized accesses. Of that 
number, upon further investigation, 411 were determined to have been 
authorized. Of the remaining 963 cases, disciplinary actions were taken 
in 862 cases and 101 are still being reviewed.
    I want to reaffirm that the Internal Revenue Service understands 
that safeguarding taxpayer information is essential to the operation of 
our country's self-assessment system. The Service welcomes the proposed 
legislative changes and hopes that you will assist us in addressing the 
problem of unauthorized access.
    Mr. Chairman, this concludes my statement. I would be happy to 
respond to any questions.

    [Clerk's note.--The appendix to Ms. Richardson's statement will not 
appear in the record, but is available for review in the subcommittee's 
files.]

                         Zero Tolerance Policy

    Senator Campbell. You have a zero tolerance policy. I would 
like you to explain this report of the disciplinary action 
taken. It says different numbers, but in 1995, 7 percent were 
cleared, 33 percent were closed without action. Does cleared 
mean somebody accused them of it and they did not really do it? 
Clarify that for me.
    Ms. Richardson. Yes; I apologize, could I also introduce 
David Mader who is the Chief of Management and Administration 
who is here with me today and who really oversees the 
disciplinary actions of employees and the employee relations 
part of the organization.
    Senator Campbell. OK, 33 percent were closed without 
action. What does that mean, there was not enough evidence? 
What is the difference between cleared and closed without 
action?
    Mr. Mader. Mr. Chairman, the difference is on cases that 
are cleared there is no indication whatsoever that there was 
any inappropriate activity. On closed without action, the 
circumstances are not as clear and it is impossible for 
management to make a judgment as to whether the infraction 
occurred or did not occur.
    Senator Campbell. If they were cleared and there was no 
indication they were doing anything wrong, how did their names 
come up in the first place?
    Ms. Richardson. The electronic audit trail that we have 
really analyzes all of the--we have an audit trail for every 
access. But where there appear to be patterns, they will kick 
out a name and then they will manually have to be looked at to 
see whether or not the employee had authority to be in the data 
base.
    Senator Campbell. Under a zero tolerance policy, does that 
mean a first-time offender--because I notice you have some 
counseling--a first-time offender means they are out?
    Ms. Richardson. I am sorry, means they are?
    Senator Campbell. Under zero tolerance policy, does that 
mean the first time that they are accused and there is 
sufficient evidence, they are gone? They are fired or they are 
moved out.
    Ms. Richardson. In cases where we have tried to take very 
severe action the first time, we have had difficultly having 
that activity sustained in arbitration because of the 
mitigation factors. One of the things that we appreciate about 
the legislative history, that is with the bills that are being 
marked up, is an indication that those mitigation factors do 
not have to be taken into account in every single instance and 
that the presumption could be in favor of firing with 
mitigation to follow afterward, as opposed to having to start 
with progressive discipline which is typically the way the 
Federal personnel disciplinary system works. You are not 
typically fired for a first offense.
    Senator Campbell. It was reported that some employees who 
were browsing, snooping, they did not think it was wrong. I am 
sure they would think it was wrong if they were snooping around 
somebody's house, but they do not seem to recognize that it is 
the same thing. In the standards that the IRS has are there 
different standards that would allow people to assume that it 
was not wrong? I mean, could it be innocently done.
    Ms. Richardson. I cannot imagine how anybody could not 
understand today that it is wrong. It has been very clear--we 
have articulated it very clearly and without any equivocation. 
I did see a recent broadcast, with a former employee I might 
add, and despite the statement made--and I do not know 
firsthand why he would have concluded it was not wrong--but 
certainly in our efforts to prosecute him I assume he learned 
that it was wrong. But----

                      Safeguards Against Browsing

    Senator Campbell. Well, under our system of justice he will 
probably write a book and get royalties.
    Mr. Mader. Mr. Chairman, if I could. The Commissioner 
mentioned some attachments to her testimony, and each employee 
that we put on these systems signs a form that acknowledges 
they understand the rules and regulations. If you would bear 
with me, I would just like to read a couple of those sentences.
    Senator Campbell. When they sign that form--let me ask you 
first, do they go through a seminar or some kind of instruction 
or something before?
    Ms. Richardson. Before anybody is ever authorized to access 
the system in the first place they have to be trained on the 
system, and part of the training includes understanding the 
privacy and disclosure rules and the authorization----
    Mr. Mader. And then they need to sign this form. I would 
like to quote from this form.

    I have read the automated information systems security 
rules on the reverse side of this form and understand the 
security requirements of the automated information systems and/
or applications described on this form. I understand 
disciplinary action, removal from the Service, and/or criminal 
prosecution may be taken based on violation of these rules.

    Each and every employee who accesses these systems has to 
sign that. I do not know how clear----
    Senator Campbell. They go through that once, or are there 
refresher courses, or they do that periodically?
    Mr. Mader. When they go on the system initially they, as 
the Commissioner mentioned, they have to sign this form and we 
maintain this form. Then there are periodic refresher and group 
meetings in which we continually reemphasize the privacy and 
security requirements of the Service.
    Ms. Richardson. Plus, as they sign on to the system each 
day there is a warning message on the system that indicates 
that unauthorized accesses will be subject to criminal 
prosecution.
    Senator Campbell. There is a clear explanation of the law?
    Ms. Richardson. Very clear.
    Mr. Mader. Yes.

                            Repeat Browsing

    Senator Campbell. Under the chart I have, 32 percent--this 
year, 1995, the last year this was recorded, 32 percent were 
counseled. Of that, do you know what number did repeat 
browsing?
    Mr. Mader. I do not know. I could submit that for the 
record.

                       Tax Systems Modernization

    Senator Campbell. Senator Kohl, if you would like to ask a 
couple of questions, I will try to think of a couple more here.
    Senator Kohl. Thank you.
    Commissioner Richardson, when we met yesterday you 
emphasized that the $3 billion that has been talked about as 
having been wasted in the tax systems modernization effort is 
not accurate; that there is a better and a clearer explanation 
that should be on the record. Would you like to take the time, 
along with your associate, to describe that a little bit today?
    Ms. Richardson. Certainly, Senator Kohl. I will also be 
happy to provide in more detail for the record where the moneys 
have been spent. I believe about $3.3 billion has been 
appropriated over a 10-year period for the tax systems 
modernization project. Our Chief Information Officer, Arthur 
Gross, testified at our appropriation hearing in the House and 
I know he will be here later on when you have the appropriation 
hearing to talk more specifically.
    But he indicated that based on a review that we have 
conducted in the last 6 months that about $400 million of the 
$3.3 billion over the 10-year period was devoted to 
noncontinuing projects; to projects that we have abandoned 
either because they no longer will provide what we had hoped 
they would do, or we cannot afford them, various things like 
that. So the number that relates to things that we are no 
longer using or planning to use is about $400 million.
    Of the $3 billion, we have spent quite a bit of that money 
on telecommunications infrastructure, site preparation in some 
of the service centers for upgrading our technology. I think I 
mentioned to you yesterday that we have this year over 4 
million who filed their tax returns by telephone. We now have a 
web site that has been visited over 100 million times since the 
first of the year, and we are able to route our telephone calls 
more effectively around the country.
    So this filing season we are, hopefully, still at about 70, 
over 70 percent of the callers are being serviced. We have been 
able to do that at a time when we have moved from 70 telephone 
sites and 44 geographic areas to about 31 sites on our way down 
to 23. That has been made possible because of the upgrades to 
the telecommunications technology that we have employed that 
allow us to route the calls around the country and manage our 
traffic better.
    Senator Kohl. Would you describe the TSM project, the tax 
systems modernization? That is a phrase that describes the 
investments that have been made over the past 10 years to 
modernize, upgrade, the IRS system to get it ready for tomorrow 
and the future. That is what this is all about.
    Ms. Richardson. That is what it is all about. We definitely 
need to modernize our technology. We are working on a plan 
right now, or are putting the finishing touches on a plan that 
hopefully will put in place an infrastructure and an 
incremental program that we can implement over the next few 
years that will help us provide better customer service and 
better compliance because we will have better access to 
taxpayer information.
    Now that poses an additional issue or concern about the 
issue we are talking about here today, and that is how to 
protect that information. So one of the things that we are very 
concerned about, and one of the things that Mr. Baptiste and 
his colleagues were working on is our security architecture as 
well so that we can protect that information.

                       IRS Treatment of Browsers

    Senator Kohl. Let me ask you this question. Do you think 
with respect to the browsing problem which has now mushroomed 
and become something of a scandal, do you think that the IRS 
has been tough enough in trying to deal with those who are 
accused of browsing? If you had it to do over again, would you 
be tougher?
    Ms. Richardson. First, I think we need to put into 
perspective the notion that it has mushroomed. One of the 
things that I have learned, not just about this issue but about 
our efforts along with refund fraud, is that because we are 
detecting fraud or detecting a problem and the numbers are 
going up over some period of time does not necessarily mean 
that there are more instances. It may mean that you have better 
detection.
    I believe in this case that that is exactly what the issue 
is. That we have a more effective way today of detecting the 
unauthorized access than we have ever had before. In fact, 
before 1993 we really had nothing except the reliance on people 
I guess reporting----
    Ms. Lau. Like internal auditors.
    Ms. Richardson. Internal audit reports or people who would 
perhaps report something based on what their fellow employees 
were doing. We now have some automated systems that really aid 
us in detecting the unauthorized browsing. I do not think it is 
accurate to say that the instances have mushroomed. I think 
that we are better and wiser about detecting it.
    I think that there are instances where I believe we 
probably should have taken or imposed tougher penalties. I do 
not know every specific instance. There are cases where 
mitigating instances have entered into it. But we have also 
taken some very tough actions and been thwarted in those 
actions in the courts--there are two very well known cases that 
have gotten publicity where we have prosecuted people. One 
where a jury acquitted the person because there was no 
financial gain or any other type of gain. The other was 
recently overturned by the second circuit because again, they 
felt the statutory basis for a criminal prosecution was not 
clear.
    That sends a very strong message to the people who are 
trying to impose discipline both in the administrative process 
as well as within our organization, that maybe people on the 
outside are not taking our efforts as seriously as they could. 
That is, again, why we support this legislation.

                  Qualifications for Next Commissioner

    Senator Kohl. Last question. Mrs. Richardson, with respect 
to your successor what are the qualifications, the three or 
four most important qualifications that we should look for in 
your successor?
    Ms. Richardson. I have often said probably the most 
important qualification is a sense of humor. But I also think 
that someone who has a lot of energy, who understands tax 
administration is terribly important. I think having management 
capabilities as well as experience is very useful as well. But 
I think that you also have to understand that this is a 
different environment that we are operating in in the 
Government. People like to say the Government should be run 
like a business, but there are some restrictions on people 
operating in the Government environment that are not always 
present in a business. I think those have to be taken into 
account as well.
    We have a check and balance system with Congress in its 
oversight of an agency. But we also sometimes, as a result, 
have a board of directors of 535 people who may one day think 
that the priority should be compliance, and the next day 
customer service. There is a certain amount of schizophrenia, I 
think, among the people who have to deal in that environment. 
Frequently in the private sector your board of directors and 
you can establish the priorities for an organization and then 
move to try to accomplish those, your priorities. You do not 
always get to do that in a Government environment. I think 
understanding that will alleviate any frustrations that my 
successor might have, too.
    Senator Kohl. Thank you, Ms. Richardson.
    And thank you, Mr. Chairman.

                        Punishment for Browsing

    Senator Campbell. Before I ask a question or two of Ms. Lau 
I wanted to get back just to one or two things you said. When 
you go through these charges, who is responsible for assessing 
the punishment? If it is criminal, are you to refer that to 
Justice, or how do you handle that?
    Ms. Richardson. Yes; if it is a criminal referral, it would 
be reviewed by our Chief Counsel's office and then referred to 
the Justice Department for further review.
    Senator Campbell. But if it is counseling, you do not do 
anything with Justice then?
    Ms. Richardson. Correct. If it is through the 
administrative process, the Justice Department is not really 
involved. We have for employees who are bargaining unit 
employees--I mean, that are represented by the union--they have 
the ability to go to arbitration over a disciplinary action.
    Senator Campbell. You also talked at some length about 
upgrading the devices that would identify browsing. This 
probably will be done after you leave. Do you have a timeframe 
that you think this might be done?
    Ms. Richardson. We are constantly working on ways to refine 
the audit trail system we have in place. But I think that the 
real key to being able to ultimately prevent people from 
getting in at all except on an authorized basis, the timetable 
for that really awaits our reconstructed data base as part of 
our tax systems modernization project. That is several years 
down the road.
    Senator Campbell. Several years you said?
    Ms. Richardson. Several years.
    Senator Campbell. Thank you. I appreciate your appearing. I 
know you were a little pressed for time this morning.

                     Role of the Inspector General

    Ms. Lau, could you explain your role in the investigation, 
since your office is really responsible for investigating waste 
and fraud and abuse? What was your relation to the 
investigations?
    Ms. Lau. Related to these IDRS browsing issues?
    Senator Campbell. Yes.
    Ms. Lau. One of the points that is in my written testimony 
is the statutory structure of my office in relation to the IRS. 
The IRS retains its own internal audit and internal 
investigative function. For most of these browsing cases, any 
involving criminality that would require further investigation 
would have been conducted by the Chief Inspector's office. My 
office has oversight responsibility for the Office of the Chief 
Inspector Treasury and investigative responsibility over senior 
Treasury officials and any Chief Inspector employees who might 
be involved.
    Senator Campbell. Does your office have any input on the 
counseling or policywriting or any of that with the IRS?
    Ms. Lau. No; as a matter of course, we would not be 
involved in that aspect of their program.
    Senator Campbell. I think we will end up there. I have 
about half a dozen written questions I would like to submit to 
both of you. If you would get back to us with those for the 
committee, I would appreciate it.

                          Reasons for Browsing

    One other thing maybe, Ms. Lau. Did you see any kind of a 
common theme? I have heard today some people browse relatives, 
celebrities, political opponents, something of that nature. Did 
you spot anything that could be perceived as a theme?
    Ms. Lau. I am sorry, I am not aware of any particular 
themes, but I would be happy to provide something for the 
record if we have identified such.
    Senator Campbell. Clearly, most of them did not do it 
because they were bored. They did it with some kind of intent 
apparently. Even though they might not have thought it was 
wrong, it was not accidental.
    Ms. Lau. I think the reasons surely vary, as the 
dispositions of the cases would indicate.
    Ms. Richardson. Mr. Chairman, in many cases people are 
doing it for reasons they think are perfectly fine; they are 
helping a neighbor locate a former spouse or something like 
that. That is still unacceptable and cannot be done. So many of 
the cases are not just for idle curiosity but where people 
think they are actually performing a service; checking on a 
refund for a friend or neighbor just to make sure that it had 
not gotten misplaced.
    Senator Campbell. So when they do that, that is not 
supervised or cleared by a supervisor?
    Ms. Richardson. They are not authorized to be in the system 
to look at anything other than an official case to which they 
have been assigned. So if you were to ask if we could check on 
the status of your refund, that would not be appropriate. You 
can call a number and have it checked on, but you could not 
directly ask an IRS employee just to do that. If they looked 
into the system that would be considered browsing or the 
unauthorized access.
    Senator Campbell. That is gratifying to know. A few years 
ago I cosponsored the taxpayers' bill of rights and got audited 
about 2 weeks later. I know there was no connection, of course.
    Ms. Richardson. If we were that efficient, I would be very 
surprised.

                          Submitted Questions

    Senator Campbell. I do appreciate you appearing today, and 
thank you very much. If you would both get back to us on the 
written questions, the subcommittee would appreciate that.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Campbell
                             current policy
    Question. You've told GAO that you became aware of the browsing 
issue in 1993 and had taken steps to educate IRS employees to the 
illegality of the snooping. Do you believe that these measures have 
been effective?
    Answer. In 1994, we developed mandatory training programs for 
managers and employees who had access to confidential taxpayer 
information. These materials fully covered the importance of only 
accessing taxpayer information employees had a need to review in 
connection with their tax administration responsibilities and covered 
the fact that the Service would not tolerate unauthorized access. We 
also provided one hour of time for all employees to review the 
``Interim Handbook of Employee Conduct and Ethical Behavior'', Document 
9335 (11-94). This Handbook covered the Declaration of Privacy 
Principles, which discussed access to tax information: ``Principle 8: 
Browsing, or any unauthorized access of taxpayer information by any IRS 
employee, constitutes a serious breach of the confidentiality of that 
information and will not be tolerated.''
    Although these actions have been effective to a large degree, 
strong disciplinary and judicial support are essential to reinforce the 
seriousness and consequences of violating the policy. In pursuing 
strong disciplinary actions before administrative tribunals, the 
results thus far have been mixed. For example, the cases in which 
employees have improperly accessed information, but not used such 
information for anyone's gain or detriment, financial or otherwise, 
have not always been viewed as seriously as we believe they should be.
    Because nothing is more important to the operation of the tax 
system than protecting taxpayer information, I want to renew my request 
that Congress clarify the law on criminal sanctions. The IRS has 
supported enactment of a criminal misdemeanor penalty for the willful, 
unauthorized inspection of returns and return information since 1994. I 
support the ``Taxpayer Privacy Protection Act'' introduced by Senator 
Glenn on April 8, 1997 and similar legislation introduced in the House 
of Representatives.
    Question. It has been reported that there are some employees who 
snooped and never thought it was wrong--I don't know if that scares 
you, but it should because it sure scares the taxpayers. Can you 
comment?
    Answer. As I responded in the last question, since 1993, the IRS 
has taken a number of steps to ensure that unauthorized access of 
taxpayer information by IRS employees does not occur. However, it is 
essential that we have strong disciplinary and judicial support to 
reinforce the seriousness and consequences of violating the policy.
    Question. Aside from the memorandums that the employees receive, do 
they receive any seminars or other instruction which explains the law 
to them and the consequences of browsing?
    Answer. In each of our training courses for IDRS users we 
incorporate the materials on ethical principals and privacy of taxpayer 
information in the course book and instructor guide for mandatory 
coverage in the training session. They are required to review and sign 
an acknowledgment that they have read and understand the Automated 
Information Systems (AIS) Security Rules. We are in the process of 
fully publicizing our updated IDRS users training materials (revised in 
fiscal year 1996) for managers and employees and the requirements for 
its use. A videotape also accompanies the training materials which 
outlines in detail what accounts employees can access and the 
ramifications of accessing unauthorized data. We are also examining 
other methods to publicize our intolerance of any unauthorized access 
of information by employees or managers.
    Question. Are these seminars mandatory in attendance?
    Answer. Yes they are. Any manager who has employees who has access 
to data must attend the Manager's seminar and employees receive 
training either as a separate module or as a module incorporated into 
the training materials dealing with access to the data. As employees 
receive different modules dealing with access to information they must 
go through the materials again.
    Question. What is the IRS' policy regarding those individuals 
who've been identified as browsing if they are caught browsing again?
    Answer. On March 14, 1997, memos from the Commissioner and the 
Deputy Commissioner were sent to all employees and to all executives to 
reconfirm the IRS Policy on unauthorized accesses. The memo to all 
executives stated that we will discipline those who abuse taxpayer 
trust up to removal and including prosecution. There is no question 
that substantiated unauthorized access and disclosure are among the 
most serious breaches of trust with the taxpaying public that a Revenue 
Service employee can commit. Although, pursuant to the penalty guide, a 
range of administrative penalties can apply, the appropriate managerial 
response to any unauthorized access, absent any mitigating 
circumstances, is a proposal to remove.
    Question. Can you provide the subcommittee with the numbers of IRS 
employees that have been caught browsing more than once? If you are 
unable to provide the subcommittee with this information, please state 
why the information is unavailable.
    Answer. Although this information is embedded in the Automated 
Labor and Employee Relations Tracking System (ALERTS) it is not 
captured in this format and there is no easy way to retrieve it at this 
time. We are forming a task group to retrieve, analyze and compile this 
data.
                           irs accountability
    Question. Ms. Richardson, can you please provide for the committee 
how you intend to change the approach to the browsing problem since the 
IRS efforts have not been effective?
    Answer. The IRS is reexamining system security looking at ways to 
tighten administration of discipline and improving employee education. 
We intend to centralize systems security and expect to be making 
substantial improvements over the next few years.
    In the long run the best approach to dealing with browsing and 
other security risks is to implement the modernization blue-print which 
provides modernized controls over security accesses. The IRS is 
reexamining system wide security in the context of developing the 
overall modernized architecture. This approach will enable the Service 
to better control access to information through ``up front'' 
authorizations and ultimately rely less on the after-the-fact 
detection. In the interim, the feasibility of monitoring potential 
``browsing'' on other systems that can be used to access taxpayer data 
is being assessed.
    I want to reaffirm that the Internal Revenue Service (IRS) has long 
understood that safeguarding taxpayer information is essential to the 
operation of this country's self-assessment income tax system. That is 
why for many years the IRS has had in place policies and practices to 
protect the security and confidentiality of taxpayer information.
    Question. Can you tell me why there is an inconsistency in the 
application of punishment when browsing has been confirmed?
    Answer. Indeed there is a spectrum of discipline Servicewide which 
can be attributed to a number of factors. Discipline is administered at 
the local level in accordance with the Penalty Guide. The local office 
determines the severity of the infraction and then relies on 
established practices and the relevance of aggravating and/or 
mitigating factors (i.e., the nature and seriousness of the offense, 
the disciplinary record and the consistency of the penalty with those 
imposed upon other employees) commonly known as the ``Douglas'' 
factors. This constellation of factors makes every case unique and 
therefore requires the application of different penalties. We do intend 
to institute some form of National Office coordination to ensure that 
discipline across the nation is administered as evenly as possible.
                           fixing the problem
    Question. Do you have a plan in place to secure taxpayers' 
electronic files from browsing? Please submit for the record.
    Answer. Yes. The IRS is just finishing a new architecture for 
modernization along with a sequencing plan to describe how this 
functionality will be delivered. Within the architecture and sequencing 
plan, security and privacy have been addressed ``head on'' by a solid 
top-down design to prevent unauthorized employee activity and to detect 
anomalies or suspicious trends in employee activity. The new security 
architecture is designed to audit all activity which attempts accesses 
to taxpayer data. Additionally, a replacement for our current 
Electronic Audit Research Log (EARL) is being designed. The replacement 
will utilize advanced data mining techniques and examine more systems 
to detect trends of unauthorized activity.
    Question. When do you expect to have this plan implemented?
    Answer. These systems will be designed and deployed as part of the 
new architecture. Specific dates have not yet been determined. The EARL 
replacement may precede the first release of the modernized 
architecture, in order to increase our ability to detect unauthorized 
accesses on a wider range of systems. However, the replacement system 
will be developed in compliance with the new architecture.
    Question. Time line and cost for this plan?
    Answer. From the starting date of these projects, it is expected 
that these efforts will take approximately 48 months to build and 
deploy. The EARL replacement could be completed in 24 months. Final 
cost estimates have not been determined. These estimates, however, 
depend on the availability of appropriations.
    Question. Which department would be responsible for this 
implementation?
    Answer. Information Systems will be responsible for these efforts.
    Question. In your estimation, does your current computer system 
provide an adequate level of protection?
    Answer. Our current systems do provide some protection but improved 
levels of protection are needed.
    Question. Can it be modified to include those systems which it does 
not currently monitor or would it require a new system?
    Answer. We are currently examining opportunities and methods, which 
are not cost prohibitive, to increase the prevention and detection 
capabilities contained within our current systems.
    Question. If a new system's needed in order to secure files, do you 
have any information for the subcommittee that details what would be 
needed to secure taxpayer files?
    Answer. We are examining technologies such as file and password 
encryption and digital signatures using products such as RSA, Secure 
Sockets Layer, and S/MIME.
    Question. Has IRS made any computer-based security improvements 
over the last ten years to limit the browsing of taxpayer files?
    Answer. Yes. The IRS has made significant effort to deter browsing 
and to detect such activities. Efforts have included employing 
education and increased manual and automated audit analysis.
    Question. Will computer security improvements be part of the 
architecture that you are planning to submit to Congress in mid-May?
    Answer. Yes. The architecture will define an environment rich in 
identification and authentication (Identification and Authentication); 
access control; auditing and audit analysis; and public-private key 
encryption. Significant focus will be placed on real-time prevention of 
unauthorized employee activities which is augmented by a robust after-
the-fact detection of unauthorized activity through a comprehensive 
audit analysis and reporting process.
    Question. Were these improvements developed in-house by IRS or did 
you contract out your systems security?
    Answer. Improvements made to date were developed by a combination 
of IRS security analysts in close coordination with the Integrated 
Support Contractor (ISC). Similarly, the new architecture was a joint 
effort between IRS architects, engineers, technical management and 
their ISC counterparts.
    Question. Did the IRS look into purchasing security programs that 
were already available commercially?
    Answer. Yes. In the past few years, coincidental with the open 
encryption standards, significant industry strides have been made with 
commercial off-the-shelf products which provide much of the 
functionality demanded by valid IRS requirements.
    Question. Were any of these improvements made as part of the TSM 
project?
    Answer. Yes. Version 1.0 and 2.0 of the formal Infrastructure 
design includes security design guidance which improves the existing 
security baseline.
                    ig investigation of irs snooping
    Question. Can you explain your role in the investigation of those 
employees which have snooped into taxpayer files, since your office is 
responsible for investigating issues of waste, fraud, and abuse?
    Answer. The first level of responsibility to evaluate indications 
of improper employee access rests with IRS management. Once indications 
of potential abuse have been identified, management then needs to do 
further work to determine if accesses are for legitimate business 
purposes or are improper browsing activity. If they determine that 
curiosity browsing has occurred, they coordinate with their labor 
relations staff and determine the appropriate disciplinary action to 
take. If there are indications of more serious misuse of taxpayer 
information, then the case is referred to the Chief Inspector's Office 
for investigation of any IRS employee below the senior management level 
(GS-14 and below). The Chief Inspector has primary internal 
investigative authority for IRS employees. However, my office oversees 
the IRS Inspection's investigative, as well as internal audit, 
operations. If the browsing involves senior IRS officials or a member 
of the Chief Inspector's Office, we will conduct the investigation. 
Since taxpayer browsing and other illegal activity on electronic files 
is primarily committed by lower graded IRS employees my office 
typically will not conduct the investigation.
    Question. At what point do these cases come to your office?
    Answer. My office would be involved in a browsing case where the 
suspected browser was an IRS senior management employee (GS-15 and 
above) or a member of the IRS Chief Inspector's staff, or in any 
browsing case having broad impact or far reaching implications.
    Question. Is there any information which the IRS is currently 
unable to provide you which would help you in working on these cases?
    Answer. There have not been many cases involving employee browsing 
that would have met the criteria to fall under my jurisdiction. Most 
cases involve IRS employees who, by virtue of their position, have 
access to taxpayers' accounts. Generally, senior level managers do not 
perform those types of tasks that would require their personal entry 
into the Integrated Data Retrieval System (IDRS). Therefore, the 
potential for this kind of violation reaching my office is minimal. 
Theoretically, there is no information in the possession of the IRS 
relative to this subject which cannot be shared with the Office of 
Inspector General. The Inspector General's authority for accessing 
confidential tax information in the possession of the Service is 
section 6103(h) (1) of the Internal Revenue Code and section 8C of the 
Inspector General Act of 1978, as amended.
    Question. In your opinion, of the browsing cases that have occurred 
can (you) explain why 33 percent of the employees are counseled and 
only 1 percent are separated?
    Answer. First, there is some apparent discrepancy in the statistics 
cited in your question and the information my office has obtained. We 
reviewed the IRS Commissioner's testimony of April 15, 1997 and the 
accompanying appendices that show the disposition of unauthorized 
access cases. According to that information, of the confirmed browsing 
cases in fiscal year 1996, 41 percent of employees were given oral or 
written counseling. Another 12 percent were separated (i.e., removed, 
resigned or retired). There is no doubt that the IRS needs to do a 
better job in taking action against employees who abuse the system. The 
issue of consistent application of disciplinary action has been 
reported as a problem in reports issued by the Chief Inspector and GAO. 
One further point regarding the 41 percent of employees who were 
counseled. It would be incorrect to assume that actual misuse was 
confirmed in these type cases. In some situations, employees were 
detected doing celebrity browsing or accessing ex-spouses, friends or 
family members' returns, and it was a first-time offense. Also, there 
are other cases where improper access is preliminarily indicated but 
management could not conclusively determine whether improper browsing 
occurred and therefore did not have a basis for taking action.
    Question. Do you believe IRS has a ``zero tolerance'' policy?
    Answer. I wholeheartedly endorse the Commissioner's policy and 
position on unauthorized accesses. IRS employees should only be 
permitted to access information in order to carry out their duties--
with no exceptions. Although one unauthorized access is one too many, 
it is important to frame this issue with some contextual information. 
There are approximately 55,000 IRS employees who are granted access to 
the IDRS. IRS has reported that there are 1.5 billion accesses annually 
on the IDRS of which a small percentage involve potential unauthorized 
accesses. These are subsequently reviewed by IRS management to 
determine the extent and degree of possible misuse of taxpayer 
information. Of those remaining confirmed browsing cases, existing 
administrative procedures can require the IRS to use a progressive 
discipline system when dealing with bargaining unit employees. Also, 
pursuing strong disciplinary actions before the courts have produced 
mixed results. I believe the ``zero tolerance'' policy could be greatly 
enhanced by the proposed anti-browsing legislation introduced by 
Senator Glenn.
    Question. Who is ultimately responsible for addressing browsing 
issues within your office?
    Answer. My Office of Investigations would conduct investigations of 
any IRS senior level or Inspection employee involved in taxpayer 
information browsing. The Office is headed by the Assistant Inspector 
General for Investigations who reports to my Deputy Inspector General. 
Additionally, the Offices of Audit and Oversight routinely look at this 
issue from a program effectiveness perspective.
    Question. As a result of your work on the browsing issue, have you 
identified weaknesses within the IRS anti-browsing program which could 
be improved or which are lacking entirely?
    Answer. The Treasury Office of Inspector General has previously 
identified weaknesses within the IRS' anti-browsing program. We 
reviewed the program and issued a report in March 1996. We made seven 
recommendations in the report to help correct the problems identified 
during our review. Service management agreed with our findings and 
cited actions they had taken or planned for implementing our 
recommendations. We are also considering a follow-up audit on the 
taxpayer browsing issue in future audit work. The Chief Inspector's 
Office has also been proactive in their coverage of the browsing 
problem as well as identifying security weaknesses in computer systems 
other than the IDRS. In June 1996, the Chief Inspector's Office issued 
a report that concluded the Electronic Audit Research Log (EARL) system 
had limited ability to identify employee browsing; it needed consistent 
executive oversight and user involvement; and it needed a clear 
strategic direction to meet IRS objectives. Their review also found 
that there were no procedures to assure IRS management was consistently 
reviewing and referring potential browsing cases. In another report 
issued in September 1996 on IRS Small Scale Computer Systems, the Chief 
Inspector's Office reported that taxpayer data was vulnerable to 
disclosure, fraudulent manipulation, theft, and loss. Noteworthy about 
the security weaknesses in microcomputers and local area networks was 
that they were similarly cited in a report issued by the Chief 
Inspector's Office in August 1994.
    Question. Have you communicated them and any other recommendations 
with Commissioner Richardson? Please provide the subcommittee an 
outline of your recommendations for the record.
    Answer. We issued a report on March 29, 1996, to Commissioner 
Richardson presenting her with the results of our review. An outline of 
the seven recommendations are as follows:
    Taxpayer Services needs to better comply with IRS' certification 
process.
    Taxpayer Services should ensure that the uncompleted corrective 
action regarding audit trail requirements is undertaken.
    Quality Assurance Division officials should follow up on and 
receive verification of corrective actions taken by program managers to 
ensure implementation.
    Taxpayer Services should only accredit new security systems after 
the Quality Assurance Division has unconditionally certified them.
    The EARL system officials need to complete the required procedures 
for system certification and accreditation as quickly as possible.
    The EARL system officials should write new position descriptions 
commensurate with the responsibilities of the position and ensure that 
recommended 5-year background investigation updates are performed.
    The Bureau Audit Recommendation Monitoring Officer should remind 
senior management officials of the importance of verifying the accuracy 
of corrective actions reported to the Inventory Tracking and Closure 
(ITC) system.
    The Chief Inspector's report on the IRS EARL System was issued on 
June 21, 1996. The report recommended:
    IRS management establish and document the strategic direction for 
EARL and ensure that users are involved at key points throughout the 
system's development.
    Changes be made to management reporting systems to provide an 
effective feedback mechanism to show the resolution of browsing cases.
    Development of procedures to increase the system's ability to 
identify browsing in a cost effective manner.
    The Chief Inspector's report on Information Security Over IRS Small 
Scale Computer Systems was issued September 30, 1996. The report 
recommended:
    IRS management perform another self-assessment and validation of 
IRS' systems.
    Development of a plan that will budget for the costs of bringing 
IRS into compliance within two years.
    The Federal Managers' Financial Integrity Act process identify 
systems with inadequate security capabilities or improper 
configurations and that future purchases meet minimum security 
requirements.
    The Chief Inspector's Internal Audit Reports are issued to the 
Commissioner's Chief Officers who are responsible for taking action on, 
and responding to, the conditions and recommendations reported.
    Question. Can you provide the subcommittee any insights why 
browsing is taking place? For example, do the employees not understand 
it is wrong or are they just bored?
    Answer. According to the EARL Executive Committee Report issued on 
September 30, 1996, even the large number of oral and written 
communications as well as training over the past three years has failed 
to adequately explain that browsing data for personal curiosity is an 
unauthorized IDRS access and to impart the seriousness of employee 
browsing. It also found that some employees indicated that they browsed 
because they do not believe it was wrong and that there would be little 
or no consequence to them if they were caught. The perception was that 
the Service was not aggressively pursuing browsing violations.
    Question. Without getting into specifics, do you find a common 
``theme'' to the browsing activity itself, that is what are people 
looking up?
    Answer. There is no common theme as to why employees browsed. 
Various reasons were given by the employees who were caught browsing. 
It appears to depend on what motivated the person to browse, for 
example, curiosity, financial gain, and fraud.
                      ig findings and current law
    Question. Of the cases your office has handled, did those employees 
found browsing taxpayer files fully understand the law?
    Answer. We have conducted one investigation that involved a GS-15 
manager. The investigation determined that access had occurred; 
however, the report of investigation was forwarded to IRS on December 
31, 1996 for final review and disposition. Although the investigator 
did not specifically pose a question regarding the manager's knowledge 
of the privacy and disclosure issues, we believe the manager was aware 
of the browsing restrictions.
    Question. What did the employees not understand?
    Answer. The GS-15 manager did access the IDRS for taxpayer 
information indirectly by having subordinates perform the query, but 
did not believe, nor were we able to prove, the data were unauthorized, 
misused, or divulged to any parties in violation of any IRS policy.
    Question. What has been the most difficult legal hurdle you have 
found with your involvement in browsing cases?
    Answer. The one investigation my office conducted did not reach the 
prosecutorial level. I believe that you may gain greater insight into 
any legal hurdles encountered in investigating browsing cases by 
directing your inquiry to the IRS' Office of Chief Counsel.
    Question. Is there anything lacking in the current law which you 
see as hampering your ability to effectively handle browsing cases?
    Answer. A major hurdle in deterring browsing is that the act of 
inspecting taxpayer data without disclosing information to a third 
party is not a criminal offense under existing statutes. I believe the 
proposed Taxpayer Privacy Protection Act introduced by Senator Glenn 
will enhance IRS efforts to strengthen the disciplinary actions against 
those employees who have browsed taxpayer records and/or returns. It 
clearly articulates the conditions and punishment for browsing. Again, 
however, your question can be more appropriately addressed by IRS' 
Chief Counsel's office and IRS management who have the primary 
jurisdiction of these cases.
                                 ______
                                 
                  Questions Submitted by Senator Kohl
                  irs commissioner margaret richardson
    Question. Last year as part of my Economic Espionage Act of 1996 we 
created criminal penalties from computer browsing without authorization 
or obtaining information from any Department or agency in the United 
States. Could you please explain how this law will impact snoopers of 
electronic records? Can I assume that as more and more returns are 
filed electronically this law will have greater impact on the snoopers?
    Answer. The Internal Revenue Service supported the amendment to 18 
U.S.C. Sec. 1030(a)(2)(B) which provides criminal misdemeanor penalties 
for anyone who intentionally accesses a computer without authorization 
or who exceeds authorized access and thereby obtains information, 
including tax information, from any department or agency of the United 
States. We are hopeful that this legislation will serve as a 
significant deterrent to unauthorized computer access of taxpayer 
information by Internal Revenue Service employees and others. We note 
that 18 U.S.C. Sec. 1030(a)(2)(B) has government-wide impact and as 
such you may also wish to direct your inquiry to the Department of 
Justice.
    Question. Commissioner Richardson, yesterday when we met we 
discussed the $3 billion that is reported has been wasted on the TSM 
efforts. According to your explanation $3 billion was not wasted. Can 
you please clarify this issue so that we can all understand it?
    Answer. Certainly Mr. Campbell. I believe about $3.3 billion has 
been appropriated over a 10-year period for the Tax Systems 
Modernization (TSM) project. Our Chief Information Officer, Arthur 
Gross, testified at our appropriation hearing in the House and 
indicated that, based on a review that we have conducted in the last 
six months, about $400 million of the $3.3 billion over the 10-year 
period was devoted to non-continuing projects; to projects that we have 
abandoned either because they no longer will provide what we had hoped 
they would do, or we cannot afford them; various things like that. So 
the number that related to things that we are no longer using or 
planning to use is about $400 million.
    Of the $3 billion, we have spent quite a bit of that money on 
telecommunications infrastructure, and site preparation in some of the 
Service Centers for upgrading our technology. I believe I mentioned to 
you yesterday that over 4 million taxpayers have filed their tax 
returns by telephone. We now have a Web site that has been visited over 
100 million times since the first of the year, and we are now able to 
route our telephone calls more effectively around the country.
    So far this filing season we are still at over 70 percent of the 
callers being served. We have been able to do this at a time when we 
have moved from 70 telephone sites and 44 geographic areas to about 31 
sites on our way down to 23. That has been made possible because of the 
upgrades to the telecommunications technology that we have employed 
that allow us to route the calls around the country and manage our 
traffic better.
    We definitely need to modernize our technology. We are putting the 
finishing touches on a plan right now that hopefully will put in place 
an infrastructure and an incremental program that we can implement over 
the next few years that will help us provide better customer service 
and better compliance because we will have better access to taxpayer 
information.
    Now that poses an additional issue or concern about the issues we 
are talking about here today, and this is how to protect that 
information. So one of the things that we are very concerned about is 
our security architecture as well so that we can protect that 
information.
    Question. Commissioner Richardson, you have indicated you will 
leave the IRS at the end of this tax year's filing season. I know you 
have guided the IRS through some difficult times. Thank you. Let me ask 
you--if you were going to interview potential candidates to replace you 
what characteristics would you look for on the candidates' resumes?
    Answer. I think that the most important qualifications are someone 
who has a lot of energy and who understands tax administration. I think 
that having management capabilities as well as experience is very 
useful. But I think that you also have to understand that this is a 
different environment that we are operating in the Government. People 
like to say the Government should be run like a business, but there are 
some restrictions on people operating in the Government environment 
that are not always present in a business. I think those have to be 
taken into account as well.
    We have a check and balance system with Congress in its oversight 
of an agency. But we also sometimes, as a result, have a board of 
directors of 535 people who may one day think that the priority should 
be compliance, and the next day, customer service. There is a certain 
amount of schizophrenia, I think, about the people who have to deal in 
that environment. Frequently in the private sector, you and your board 
of directors can establish the priorities for an organization and then 
move to try to accomplish those priorities. You do not always get to do 
that in a Government environment. I think understanding that will 
alleviate many frustrations that my successor might have too.
    Question. In the past the appropriation committee has recommended 
cutting IRS budget request and fencing funds associated with its 
modernization efforts. Are there other methods the committee should be 
using to try and effect fundamental management changes within the IRS?
    Answer. No.
    Question. Do you feel that the 1515 incidents of ``snooping'' by 
IRS employees is an accurate representation of unauthorized browsing?
    Answer. The 1515 incidents of ``snooping'' previously submitted for 
fiscal year 1994 and fiscal year 1995 reflect an approximate 
representation of the Service's unauthorized accesses for the years 
indicated. Recently we have reviewed and updated our database to 
include more detailed information concerning unauthorized accesses.
    Question. Did the IRS ever consider implementing a service-wide 
policy regarding the handling of unauthorized browsing?
    Answer. Yes, IRS has a number of policies in place to mitigate 
unauthorized access to taxpayer information. For example, Policy 
Statement P-1-1, which was approved on December 18, 1993, addresses 
taxpayer privacy rights. In part it states that the Service is ``* * * 
fully committed to protecting the privacy rights of all taxpayers * * * 
Among the most basic of a taxpayer's privacy rights is an expectation 
that the Service will keep personal and financial information 
confidential * * * IRS employees will perform their duties in a manner 
that will recognize and enhance individuals' rights of privacy and will 
ensure that their activities are consistent with law, regulations, and 
good administrative practice.''
    In January 1995, I sent a memorandum to all IRS employees about the 
information security policy which is intended to ensure ``* * * that 
the Service complies with the applicable guidance from public laws, 
regulations, and directives * * * that taxpayer and other sensitive 
information is protected commensurate with the risk and magnitude of 
the harm that would result from inappropriate use * * * that taxpayer 
and other sensitive information is used only for necessary and lawful 
purposes.''
    In March of this year, I sent another memorandum to all employees 
reminding them that IRS employees are ``prohibited from accessing 
information not needed to perform official duties. Unauthorized access 
to accounts is a fundamental violation of the public trust in the 
confidentiality of returns and returns information * * * It violates 
both privacy and disclosure rules and may result in removal from the 
Service and criminal prosecution.''
    Question. In your June 6, 1996 testimony before the Senate 
Committee on Governmental Affairs you indicated that the new systems 
developed to better control access to taxpayer records misuse were not 
always executed in accordance with required procedures. Since that time 
are you aware of the IRS taking any efforts to produce consistent 
guidelines for application of these systems?
    Answer. IRS Internal Audit has been looking into the Service's 
efforts to ensure information systems are adequately secured. In their 
draft audit report dated January 21, 1997, they found that the security 
certification process does not always result in a complete and/or 
independent evaluation of security controls prior to issuance of a 
certification. Further, the Service's efforts to identify all sensitive 
computer systems have not been effective. As a result of their 
recommendations, procedures should be developed to ensure consistency 
in the certification process. In addition, the EARL Executive Steering 
Committee was charted by the IRS to address inconsistencies and 
concerns about how the EARL systems were being administered and the 
effectiveness of the EARL programs. The Committee issued a report in 
September 1996, which contained many recommendations to improve the 
EARL system. Lastly, GAO reviewed the IRS systems security in December 
1996 and found that pervasive weaknesses persist in security controls 
intended to safeguard IRS computer systems, data, and facilities and 
tax processing operations from the risk of disruption and taxpayer data 
from the risk of unauthorized use, modification and destruction. Their 
recommendations, when implemented, will also result in consistent 
guidelines for application of the systems.
    Question. You also reported that corrective actions necessary for 
implementing audit recommendations were sometimes reported closed 
before all corrective actions were taken. Have you, in conversations 
with the Office of the Chief Inspector elsewhere been provided with any 
evidence that this situation has been corrected?
    Answer. In our report of March 29, 1996, we made a recommendation 
that senior management officials should be reminded of the importance 
of verifying the accuracy of corrective actions reported to the ITC 
system. As a response to our recommendation, the Management Controls 
Office implemented new procedures tightening reporting controls. For 
every new audit, a memorandum is issued to the responsible Chief 
Officer, detailing how to report their corrective actions. In addition, 
the Chief Officer must sign a memorandum verifying concurrence with 
what is reported to them.
    Question. Since Treasury has now taken on greater responsibilities 
as they relate to the IRS and the Modernization Management Board will 
the role of the IG's office be heightened?
    Answer. I believe that more vigilant oversight is needed by the 
Department over the IRS, particularly with respect to renewed efforts 
to develop the Tax Systems Modernization (TSM) architecture. I plan to 
do this through my participation as an advisory member of the 
Modernization Management Board (MMB). Back in 1995, and before the 
establishment of the MMB, my office issued a report on the Department's 
oversight of the IRS' TSM Program. We concluded that the Department's 
efforts at that time were not effective to oversee a project the size 
and complexity of TSM. We have recently initiated a follow-up audit to 
assess the Department's and IRS' revised approach, newly created 
internal structures, and oversight mechanisms that have been put in 
place since our report was issued. To this end, we will also be 
coordinating with GAO and the IRS' Chief Inspector's office to plan the 
appropriate audit coverage.
    Question. Now that the separate oversight functions within the 
Inspector General and the Chief Inspector's Office have been in 
operation for over 10 years are there other options (such as having the 
Chief Inspector report to the Treasury Deputy Secretary as opposed to 
the IRS Commissioner) that should be considered? If consideration was 
given to reorganizing this reporting structure how would taxpayer 
privacy issues be addressed?
    Answer. We have worked with the Chief Inspector's Office within the 
existing framework. I do not feel my ability to manage the internal 
audit resources in the Treasury is compromised by the current 
arrangement. We have an understanding with the Chief Inspector that 
they will work through my office whenever they have an issue where they 
cannot obtain adequate resolution with IRS management. Regardless of 
the reporting structure of any reorganization, access to taxpayer 
information and privacy must be protected under IRC 6103. Even though 
my office currently does not have the same level of access that the IRS 
Chief Inspector's Office has, we would be able to provide the same 
level of protection that is provided by the Chief Inspector's Office, 
if the need arose.
    Question. It is my understanding that the internal audit functions 
of the law enforcement agencies were transferred to the Inspector 
General's Office with internal investigations remained within the 
agency. Could and/or should that structure be duplicated in the IRS?
    Answer. As you know, the Treasury Office of Inspector General was 
established by the 1988 Amendments to the IG Act of 1978. Unlike most 
other IGs, however, the Amendments did not create a single audit and 
investigative entity for the Treasury Department. Specifically, IRS 
retained its internal investigative and internal audit functions under 
the direction of the IRS Chief Inspector. That office has primary 
responsibility for all direct audit and investigative activity at IRS. 
My office was assigned oversight responsibility. As specified by 
Section 8C of the Inspector General Act, I can initiate, conduct and 
supervise internal audits of the IRS. My authority to conduct any 
review in the IRS that I deem appropriate has never been challenged. 
Further, Treasury Order 114-01 gives me the authority, if a need 
arises, to detail personnel from the IRS Inspection Service to conduct 
audits or investigations under my direct supervision. However, with an 
audit staff of 160 to provide primary coverage for the remaining 11 
Treasury bureaus and the added financial audit responsibilities under 
the Chief Financial Officer's Act, our capacity to do many audits at 
IRS is limited. In contrast, the Chief Inspector has 445 auditors who 
focus solely on IRS programs and operations. Consequently, my office 
must rely on IRS Internal Audit for most of the audit coverage at IRS. 
Having that body of work performed by resources under my direct control 
would have the immediate effect of raising the level of independence.

                          Subcommittee Recess

    Senator Campbell. With that, the subcommittee will recess. 
Thank you.
    [Whereupon, at 12:15 p.m., Tuesday, April 15, the 
subcommittee was recessed, to reconvene at 9:32 a.m., Thursday, 
April 17.]


         MATERIAL SUBMITTED SUBSEQUENT TO CONCLUSION OF HEARING

    [Clerk's note.--The following material was not presented at 
the hearing, but was submitted to the subcommittee for 
inclusion in the record subsequent to the hearing:]
Letter From Jeff Thompson, Chief of Government Relations for Don Novey, 
  State President, California Correctional Peace Officers Association
                                    Sacramento, CA, April 23, 1997.
Hon. Ben Knighthorse Campbell,
Subcommittee on Treasury, Postal Service and General Government,
Washington, DC.
    Dear Senator Campbell: Thank you for the opportunity to submit this 
letter for inclusion in the hearing record on IRS employees' misuse of 
taxpayer records held on April 15, 1997. I am submitting this letter on 
behalf of over 25,000 members of the California Correctional Peace 
Officers Association (CCPOA), all dedicated correctional officers and 
parole agents in the state of California, to highlight an issue of 
grave importance to our members and law enforcement in general.
    It has come to our attention that parolees and individuals that 
have served time in prison for felony convictions have been and are 
able to work at Internal Revenue Service (IRS) field offices and access 
sensitive tax information. The fact that convicted felons and parolees 
have access, whether authorized or not, to the addresses and social 
security numbers of officers and their families, as well as information 
on personal assets and income, pose a serious security threat. With 
such information, a revenge-seeking criminal (Particularly a member of 
a prison gang) could cause serious harm to an officer and his or her 
family.
    We are aware that current federal law and legislation moving in 
Congress would make it illegal and impose criminal penalties for any 
IRS employee to access information on computers, tax forms, and any 
paperwork without specific authorization to do so. We support this 
legislation. However, we believe more needs to be done to protect 
officers and their families.
    One problem with this law is that there is no way to prevent an 
individual from accessing unauthorized information. Based on 
discussions with the Fresno IRS Service Center, Internal Security at 
IRS needs specific information, such as the name of the employee and 
his or her social security number, in order to investigate any alleged 
misconduct on the part of an IRS employee. In other words, if an IRS 
employee was accessing information and was unauthorized to do so, an 
officer would have to know that this was occurring, who was doing it, 
and report it to IRS Internal Security before an investigation would 
occur. It would be impossible for an officer to prevent such misconduct 
from occurring in the first place. Indeed, an officer could only react 
to such misconduct if an IRS employee either informed the officer that 
he or she had accessed information or actually used such information 
against the officer.
    The second problem is that IRS employees are oftentimes working 
before a FBI fingerprint clearance has been completed. After an 
employee is hired by the IRS, he or she must fill out a background 
check, which could take months to complete. If an individual has lied 
on the background form, hopefully IRS would eventually terminate the 
employee. During the interim however, the IRS employee could work for 
months and have inappropriate and potentially damaging access to our 
peace officers' personal information.
    To provide you with one example, Inmate Ramirez (W-31599, A3-135L) 
served time in state prison and was released on parole. Within one 
year, Inmate Ramirez violated her parole and was returned to prison. At 
that time, she informed a correctional officer that she worked for the 
Internal Revenue Service while on parole. According to the parole 
offices in Fresno County, parolees would not be allowed to work at the 
IRS. However, inmate Ramirez did not tell her parole agent that she was 
working for the IRS and her file indicates that she was unemployed 
during her parole period. Inmate Ramirez was able to tell a 
correctional officer detailed information on the income and assets of 
several officers at four facilities in Central California, information 
that was clearly accessed at the IRS Fresno Service Center.
    Given the sensitive information IRS employees have access to and 
the safety issues facing law enforcement personnel and their families, 
we believe current federal law needs to be strengthened. We 
respectfully request you to introduce legislation that would prohibit 
any individual who has been incarcerated for a felony conviction within 
the past ten years to be denied employment by the IRS. Further, we 
believe such legislation should include a provision mandating that an 
employee not begin employment at the IRS until the FBI fingerprint 
clearance and the background check has been completed.
    We thank you for your consideration of this important matter.
            Sincerely,
                                                     Jeff Thompson.
                                 ______
                                 
  Letter From Robert M. Tobias, National President, National Treasury 
                            Employees Union
                                       Washington, DC, May 5, 1997.
Hon. Ben Nighthorse Campbell,
Subcommittee on Treasury, Postal Service and General Government, 
        Committee on Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Pursuant to your request of April 22, 1997, 
requesting written responses to hearing questions from the National 
Treasury Employees Union (NTEU), I hereby submit our responses to your 
questions.
            Sincerely,
                                                  Robert M. Tobias.
    Attachment.
                                 ______
                                 
                Questions Submitted by Senator Campbell
                         taxpayer file browsing
    Question. In your testimony submitted for the Record, you mention 
the ``budget cuts and policy,'' ``Congressional flip-flops * * * of the 
Earned Income Tax Credit,'' ``downsizing,'' ``furloughs'' and 
``contracting out'' all have a negative impact and are part of the IRS 
culture. Please explain how these examples could in any way lead 
employees to believe that there is really nothing wrong with browsing 
taxpayer files.
    Answer. My statements do not in any way suggest that poor morale 
should excuse any unauthorized actions. My comments were meant only to 
suggest that poor employee morale and employee frustration over 
constantly changing priorities may contribute to confusion as to how 
seriously something like the ``zero tolerance'' policy is to be taken. 
I agree that browsing is a very serious issue and will continue to make 
that clear to members of my union.
    Question. Given NTEU's opposition to downsizing and Reductions in 
Force at IRS, based upon the argument that all employees are necessary 
to adequately process taxpayer information, how would you suggest I 
explain to constituents that IRS employees have time to snoop in 
taxpayer files?
    Answer. NTEU agrees with the IRS and GAO that browsers are doing 
something wrong and should be punished. More than 99 percent of IRS 
workers work hard and respect taxpayer privacy. My suggested 
constituent response would advise the constituent that the IRS caught 
and disciplined the individuals who improperly accessed these records. 
The IRS fired some employees and forced others to resign or retire. I 
believe it is more important to emphasize that these cases do not 
reflect the actions of the more than 102,000 honest, hard working IRS 
workers who diligently respect the privacy of more than 250 million 
taxpayer returns and other records the IRS processes each year.
    I would also suggest that your response mention that some of these 
cases involve improper access of taxpayer files by employees whom 
friends, neighbors or relatives asked to check on the status of their 
refunds and other information. This conduct does violate IRS policy and 
should not be tolerated, but should not be viewed as ``snooping'' into 
private tax records.
    Question. During fiscal year 1997's Treasury Appropriation bill one 
of the biggest complaints registered about outsourcing debt collection 
to the private sector was that the security of the taxpayer files would 
be potentially at risk. In light of the recent GAO report on IRS 
employees browsing, please respond for the record how you would 
characterize the outsourcing of debt collection vis-a-vis recent GAO 
revelations.
    Answer. Besides the far greater risk of unauthorized disclosure of 
taxpayer data, the outsourcing of tax debt collection could result in 
decreased taxpayer compliance and higher costs.
    First, effective use by the IRS of existing computer security 
technology could prevent nearly all unauthorized access. Second, the 
GAO did not find any evidence showing that the IRS employees who 
improperly accessed a taxpayer's tax filings were motivated by 
financial considerations. Instead, the GAO report only states that 
``unauthorized changes could be made to taxpayer data * * * for 
personal gain.'' Third, taxpayers' data has great economic value to 
many individuals and businesses. Just a few instances of fraudulent use 
of that information could undermine our currently high rate of 
voluntary compliance. Fourth, voluntary compliance is the key to cost-
effective tax administration in a democratic government. Both the IRS 
and NTEU believe that private debt collection would compromise 
voluntary compliance due to the manner and means of collection. Lastly, 
the current outsourcing of processing in the State of New York provides 
ample caution that private debt collection would probably not lower tax 
collection costs.
    The State of New York paid all of its contractor's capital startup 
costs, including new computer hardware, and guaranteed the company an 
exorbitant 20 percent profit. Despite the financial and technological 
edge, this contractor still processes far fewer returns and refunds 
much slower than current IRS employees using very antiquated computer 
systems.
    Question. Does your organization have a Code of Ethics?
    Answer. Both the Department of the Treasury and the Internal 
Revenue Service have strict Codes of Ethics. These Codes cover NTEU 
members. NTEU has no code covering these federal employees.
    Question. Since your members work for the Department of the 
Treasury, I would say that many of them deal with sensitive information 
in some function of their job. Does your Code of Ethics contain 
anything that deals with employee handling of sensitive information?
    Answer. Not Applicable. Please refer to the answer of the previous 
question.
    Question. Although this issue could not be characterized as 
widespread, do you feel there are any measures that Congress can take 
that would better protect those employees who do not violate this law 
or its intent?
    Answer. Again, NTEU supports improved technology that will provide 
more computer security safeguards. Contrary to the assertions of 
Commissioner Richardson, our members report that they believe they do 
not receive adequate training. NTEU members also note that is sometimes 
difficult to balance demands for greater customer service with other 
privacy priorities. In other circumstances, some IRS employees are 
responsible for creating taxpayer compliance analysis models that they 
cannot develop without inspecting a wide range of tax records. 
Especially where the IRS may impose a criminal sanction, very clear 
lines must be drawn to distinguish authorized inspection from 
unauthorized inspection.
    Question. Do you feel there is anything we can do better in order 
to prevent this practice from recurring, with an eye on maintaining a 
balance between the things the employees must endure and maintaining an 
adequate level of security and protection of files?
    Answer. Please refer to the answer to the previous question.


  TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                        THURSDAY, APRIL 17, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Shelby, and Kohl.

                                Panel 1

                       DEPARTMENT OF THE TREASURY

STATEMENT OF RAYMOND W. KELLY, UNDER SECRETARY, 
            ENFORCEMENT

                            Opening Remarks

    Senator Campbell. The Subcommittee on Appropriations of 
Treasury and General Government will come to order. I thank 
everyone for being here. I asked, with Senator Kohl's 
concurrence, for a visual display to be set up this morning 
and, frankly, I have been thinking about this some time. In the 
aftermath of Waco and a few other tragic incidents, the 
accusations against Government agencies kind of went up to an 
alltime high. And the very, very volatile things that were said 
about some of our Federal agencies, how they were insensitive, 
the Gestapo tactics, all the things that you and I heard, 
really bothered me.
    Part of the reason for wanting this display was to try to 
give a positive illustration of the efforts that our agencies 
are doing in fighting crime. I do not recognize some of those 
things, frankly, I appreciate the guided tour.
    Years ago, I was active, I was a deputy sheriff. The last 
time was 1968. Boy, things have come a long way. I know that 
some of these technological advances are very, very expensive. 
I noticed with interest that small box. I was told that there 
was only three of them in the world. And that the cost is about 
$25,000 a copy. That is expensive equipment.
    On the other hand, I firmly believe if you look at the 
alternative of not investing in new technology for fighting 
crime that the cost in terms of lost lives and lost property is 
going to be a heck of a lot more than that.
    I just want to thank all of the agencies that set up those 
displays. I understand that you came in pretty early this 
morning to do that and I thank you.
    I hope everybody in the audience had an opportunity to see 
those items on display. I think it is important to remember the 
people that work in the agencies, we hear from the ones that 
are kind of on the top echelon of the different agencies, but 
there are an awful lot of people out there putting their lives 
on the line for us whether they are Border Patrol or ATF or FBI 
or so on, and I just want to reaffirm my support for all of 
those people within the agencies.
    The purpose of this morning's hearing is to discuss the 
budget request of the various law enforcement agencies within 
the Department of the Treasury. Most people are not aware that 
40 percent of all Federal law enforcement is part of the 
Treasury Department and we are pleased to have those 
representatives with us this morning.
    Our first panel will include Under Secretary for Law 
Enforcement, Raymond Kelly. He is the person responsible for 
law enforcement at the Department level. He is also in a unique 
position to see the big picture and accompanying him will be 
the heads of the various agencies.
    George Weise, Commissioner of Customs, is also with us 
today. Customs has a very far-reaching mission. They administer 
and enforce the 1930 Tariff Act and its 400 provisions and its 
301 ports of entry. They monitor all incoming and outgoing 
commercial traffic, collect dues and taxes on trade, interdict 
smuggling and other illegal entry practices, and they process 
about 450 million people a year at our borders and annually 
collect about $23 billion in revenue.
    John Magaw, the Director of the Bureau of Alcohol, Tobacco 
and Firearms, is also here with us today. He has also had many 
diverse responsibilities for enforcing Federal firearms, 
explosive, and arson laws, to regulating wine, beer, and 
distilled spirits. His agency also collects about $13 billion a 
year from taxes on alcohol and tobacco and fees on firearms and 
explosives. The ATF is the premier agency in detection and 
investigation of explosives. And those who have not seen it, 
you might look at some of the ingenious bombs that have been 
built that are on display back in the back, no doubt disarmed, 
but they give a pretty graphic illustration about how creative 
people can be when they are intent on hurting their fellow 
human beings.
    Charles Rinkevich, Director of the Federal Law Enforcement 
Training Center, is also here. Mr. Rinkevich is based in 
Glynco, GA. He also has the responsibility for the Artesia, NM, 
campus. This agency provides a comprehensive consistent basic 
training for Federal law enforcement personnel and advanced 
training at the request of some other agencies. There are now 
70 agencies which send employees to be trained at this unit. 
This consolidation of training saves the Federal Government 
approximately $135 million a year.
    Stanley Morris, the Director of the Financial Crimes 
Enforcement Network. FinCEN is responsible for establishing, 
overseeing, and implementing the Treasury's policies to prevent 
and detect money laundering. It is the central source for 
identification, collation, and analysis of intelligence in 
support of law enforcement operations combating money 
laundering.
    Eljay Bowron, the Director of the U.S. Secret Service, is 
also here. While most people associate the Secret Service with 
protecting the President and the Vice President, in reality 
they have an extremely wide range of responsibilities. They 
investigate financial crimes such as counterfeiting, forgery on 
Government checks, theft and fraud associated with Treasury, 
electronics transfers, and computer and telemarketing fraud.
    They are also responsible for protecting the White House, 
the Vice President's residence, foreign diplomatic missions, 
and the Treasury Buildings.
    Our second panel will be Inspector General of the Treasury 
Department, Valerie Lau. Some of you will recognize Ms. Lau. 
She testified in committee, last week and we are glad to have 
her here again.
    And with that, Senator Kohl, if you have an opening 
statement, we would be delighted to hear that.

                       Statement of Senator Kohl

    Senator Kohl. I do, Senator Campbell, and I will submit it 
for the record.
    I would simply like to offer just a few thoughts.
    We, here, are very much indebted to those agencies who are 
coming before us today to review their budget and to make their 
requests and, of course, as you know, we will look at them very 
carefully to try and be as critical as we can, and as 
constructive as we can in helping you to fund your agencies.
    But it should be recognized that this is, in a real sense, 
the good guys against the bad guys and what you all represent 
are the good guys. And we are fighting the bad guys throughout 
this country and throughout the world. I think in that effort 
you do, for the most part, a really heroic job in fighting, in 
many cases, insurmountable odds. The money that is available 
out there in illegal traffic is enormous and as long as that 
kind of profit is available to illegal people doing illegal 
things then our job will be very difficult in combating them. 
But as technology improves, your efforts improve, the kind of 
support that we give each other, hopefully, will continue to 
improve. And we will win that war; for the most part we will 
win that war by working together.
    I think your agencies represent a commentary on how 
important Federal agencies can be, particularly law enforcement 
agencies, how important they are to our country. And while 
people are oftentimes cynical about Government and about what 
Government can and cannot do, I think there is no question that 
with respect to the kinds of efforts that you expend, your 
efforts are enormously important to our country and to our 
country's future.
    So, I start out with that kind of confidence in you and 
that kind of support for your work and I hope that working 
together with you all, Senator Campbell, myself, other members 
of our committee, we can be and will be very constructive as we 
set upon deciding your budgets for the year ahead and I am 
delighted to be in your presence.

                           Prepared Statement

    Senator Campbell. Thank you, Senator Kohl. Your complete 
statement will be made part of the record.
    [The statement follows:]

                   Prepared Statement of Senator Kohl

    Thank you Senator Campbell. We should also thank the 
agency's representatives for attending this very important 
hearing concerning the Treasury Department's law enforcement 
efforts.
    Mr. Chairman, over the last twenty or so years we've 
engaged in an ongoing debate in Washington over the role of 
government. And, while people can argue over education and 
social programs, and whether government should be involved in 
any or all of these things--on the fundamental question of 
protecting our citizens, there can be no debate. The federal 
government has an important role to play in protecting the 
public, and the agencies assembled here today are critical to 
the success of that effort.
    We are interested in reviewing all of the law enforcement 
programs that these agencies oversee, but let me highlight a 
few for special mention. First, crime prevention must be part 
of our strategy. While we must continue to fund prisons and 
police, investments in young people--before they encounter the 
law--have proven benefits.
    While crime in many areas of the country has abated, 
juvenile crime continues to be a major problem. For example, 
since 1970, the number of juvenile homicides involving a 
firearm have increased by 300 percent. And over the next 10 
years the juvenile population is expected to explode to numbers 
as large as during the Baby Boom period. So how can we address 
the juvenile crime problem?
    The Bureau of Alcohol, Tobacco, and Firearms has operated 
two programs which deserve special attention, programs which I 
plan to explore later today with our witnesses. The Gang 
Resistance Education and Training program, known as GREAT, was 
created by ATF to help young people fight the pressure to join 
gangs by bringing a specialized anti-gang message directly to 
classrooms. Preliminary results of a national GREAT evaluation 
by the University of Nebraska are positive. We must, of course, 
make sure that we are spending money wisely, and I have 
introduced legislation to require evaluation for all federal 
prevention programs. But this is a promising program that 
deserves our attention. That is why I visited two GREAT program 
classes--one in Superior and another in LaCrosse, Wisconsin--
and heard directly from community leaders, police and young 
people, about the positive message of GREAT.
    Wisconsin has also recently benefited from another ATF 
program, the Youth Crime Gun Interdiction Initiative. This 
cooperative federal-local effort goes after illegal gun dealers 
by using the extensive ATF capabilities to trace guns used in 
crimes. By shutting down these gun traffickers, we can take 
hundreds, if not thousands of guns off the streets. Last summer 
Milwaukee was named one of 17 pilot cities to test this program 
first used with great success in Boston. And just last week our 
local police made their first arrest as a result of the joint 
Milwaukee-ATF program. The suspect was arrested for selling at 
least 28 guns to precisely the people we all agree should not 
own them--convicted felons and kids under 18. This program has 
already made a difference in my home city, and I thank you for 
your efforts.
    I hope to use these hearings to learn more about these 
prevention programs and discuss how we can build and improve 
upon the successes we've already seen.
    With regard to protecting our young people, it is important 
to credit this Administration with requiring that all federal 
law enforcement personnel use child safety locks on their 
handguns. As the sponsor of legislation to require that all 
handguns should be sold with these safety devices, I think it's 
just common sense to keep a firearm locked, stored, and safe. 
Hopefully, all families can have the same protection from 
accidental injury and death that federal law enforcement agents 
now enjoy.
    Finally, we are at a difficult time for federal law 
enforcement agencies and, as a co-chairman of the Ruby Ridge 
hearing I pursued some of these problems in some detail. So we 
must all work hard to maintain the faith of the American people 
in federal law enforcement.
    But we must also keep our perspective. Your people are on 
the front lines and many have to go to work every day knowing 
that they may be in some kind of dangerous situation. Bashing 
federal authorities will not reform agencies or build a 
stronger trust with the public. Only through constructive 
dialogue, in a bipartisan fashion, can we continue to build and 
maintain the type of law enforcement structure that will 
protect every American and preserve their confidence.

                        Introduction of Witness

    Senator Campbell. We will just start in order of the people 
as they are printed on the panel sheet here.
    So, if Ray Kelly, the Under Secretary of the Treasury for 
Enforcement for the U.S. Department of Treasury could start 
out, we would appreciate it.

                     Statement of Raymond W. Kelly

    Mr. Kelly. Thank you very much, Mr. Chairman.
    Senator Campbell. If you have extensive information you 
would like to turn in, without objection, it will all be 
included in the record. If you want to abbreviate your 
comments, feel free to do so.
    Mr. Kelly. Yes, sir.
    I have submitted my remarks for the record. I will keep to 
the direction that we have that our initial remarks will be no 
more than 2 minutes.
    Mr. Chairman, Senator Kohl, I have spent virtually my 
entire adult life in law enforcement. And I have never 
encountered better men and women than those who serve in the 
enforcement bureaus of the Treasury Department. They are 
dedicated and resourceful professionals. They are well-led by 
the executives here today and well-trained at our Federal Law 
Enforcement Training Center.
    There are scores of examples of enforcement activities in 
each bureau that deserve attention. The bureau directors will 
go into greater detail than I will now. I will only cite a few 
in the interest of time.
    ATF is revolutionizing the way American law enforcement 
solves violent crimes through its gun-tracing programs. The 
police once considered a case virtually closed when they 
apprehended the shooter and retrieved his gun. Thanks to ATF, 
we are now going after the gun traffickers and straw purchasers 
who put guns into the hands of killers.
    The Customs Service continues to interrupt the flow of 
illegal narcotics into the United States with significant 
successes in Operations Gateway and Hardline. Customs agents 
are also seizing record amounts of cash that the cartels are 
trying to smuggle out of the United States in bulk, as Treasury 
enforcement disrupts money laundering through banks and 
nonbanking systems.
    The Financial Crimes Enforcement Network has helped lead 
this effort, supported by the Criminal Investigation Division 
of IRS, and others. The Secret Service, in addition to its 
important protective missions, is meeting new challenges in 
combating counterfeiting presented by computer, printing in 
color, copier technology.
    As it has done in combating credit card fraud, the Service 
encourages the business community to work jointly with it to 
fight financial crimes in general.
    In fighting narcotics and gun trafficking, arson and 
explosives, money laundering, and other financial crimes, 
Treasury enforcement is playing to its traditional strengths. 
With the Committee's support and advice, we intend to further 
develop our expertise, sharpen our effectiveness, and stay 
forward-looking. Thank you.

                           Prepared Statement

    Senator Campbell. Thank you, Mr. Kelly. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
                 Prepared Statement of Raymond W. Kelly
    Mr. Chairman, Senator Kohl, and Members of the Committee, it is a 
pleasure for me to be here before you today to highlight the fiscal 
year 1998 budget request for Treasury's law enforcement bureaus and 
offices (with the exception of the Internal Revenue Service, Criminal 
Investigation Division (IRS-CID)). With me today are George J. Weise, 
Commissioner of the U.S. Customs Service; John Magaw, Director of the 
Bureau of Alcohol, Tobacco and Firearms; Eljay Bowron, Director of the 
U.S. Secret Service; Charles Rinkevich, Director of the Federal Law 
Enforcement Training Center (FLETC); and Stanley Morris, Director of 
the Financial Crimes Enforcement Network (FinCEN), and members of their 
staffs.
    The Treasury Department represents approximately 40 percent of the 
total law enforcement officers of the Federal Government. Each year, 
Treasury's mission grows in complexity, scope and importance. Treasury 
Enforcement plays a critical role in serving the nation's law 
enforcement priorities. Treasury agencies protect our leaders and 
safeguard our financial institutions from money launderers and fraud. 
Treasury agents and inspectors protect our borders from drug 
traffickers and every day our agents fight to protect our streets from 
the threat of bombs, arson and gun violence.
    In my testimony today, I wish to highlight aspects of our work and 
how that work would be supported by the fiscal year 1998 budget 
request.
                          u.s. customs service
    The Customs Service plays the leading role for the Treasury 
Department and the United States in interdicting drugs and other 
contraband at the border, and ensuring that all goods and persons 
entering and exiting the United States do so in compliance with all our 
laws and regulations. Most of the narcotics seized in the United States 
each year are seized by the Customs Service.
    Customs' responsibility is tremendous. To put the drug interdiction 
challenge faced by Customs into perspective: Last year, Customs 
processed over 457 million people, 126 million vehicles and nearly $800 
billion of trade. It performed the initial checks, processes, and 
enforcement functions for over 40 federal agencies and applied hundreds 
of laws and regulations. It performed these tasks by covering over 
7,000 miles of land border and servicing over 300 ports of entry. While 
doing so, it collected approximately $22 billion in revenue for the 
United States in the form of duties, taxes, and fees.
    Customs constantly strives to improve its ability to stem the flow 
of drugs while dealing with the increasing volumes of cargo and 
passengers into and out of the United States. Indeed, the number one 
operational priority for the Customs Service is preventing the 
smuggling of narcotics into the United States. It pursues this mission 
through interdiction, intelligence and investigation capabilities that 
disrupt and dismantle smuggling organizations. Major initiatives, such 
as Operation Hardline at the Southwest border and Operation Gateway in 
the Caribbean, have been extremely effective in denying smugglers 
access to the United States.
    However, as you are aware, the job is not finished; although 
Customs seizes more illegal narcotics than all other agencies combined, 
illegal narcotics and other contraband continue to find their way into 
the United States. Customs will continue to develop the capabilities to 
meet the ongoing smuggling threats, on our southwest land borders, in 
the Caribbean, and at all borders and ports of entry across the 
country. Customs actively participates in inter-agency criminal 
investigations, and it will continue to strengthen its partnerships 
with the private sector, cooperative foreign governments and other 
federal agencies in order to continue its active role in the efforts 
against narcotics smuggling.
    Customs' budget proposal reflects increases for Operation Hardline, 
Operation Gateway, updated technology and the rebuilding of 
infrastructure. The $23.4 million requested for Operations Hardline and 
Gateway, along with the funding request for infrastructure and 
equipment needs, will permit Customs to continue its fight to prevent 
illegal drugs from being brought into the United States.
                             secret service
    The Secret Service is the nation's lead agency in investigating 
counterfeiting, forgery, and access device fraud. As the nation's 
counterfeiting expert, the Secret Service has investigated fictitious 
financial instruments, counterfeit currency and credit card schemes 
both domestically and internationally. United States currency is 
counterfeited around the globe. Indeed, approximately 70 percent of all 
counterfeit currency detected domestically is of foreign origin. 
Therefore, it is only prudent that the Secret Service devotes a large 
portion of its investigative resources to battling international 
counterfeiting issues.
    The Secret Service has learned through experience that the best 
method to manage this problem is to address counterfeit issues at their 
source, with the permanent stationing of Secret Service agents in 
foreign posts. In addition, the Secret Service leverages its resources 
by enlisting international law enforcement agencies to identify 
counterfeit currency and suppress counterfeiting plates. These efforts, 
primarily carried out through counterfeit detection seminars, have 
promoted a cooperative international law enforcement effort to detect, 
suppress and prosecute counterfeit violations
    Moreover, to prevent financial fraud schemes, the Secret Service 
has developed and implemented longstanding and effective partnerships 
with private industry to better understand various financial systems 
and combat significant losses. Assisting the industry and their 
financial systems with ``systemic fixes,'' aggressive analysis, and 
proactive security enhancement measures has increased the overall 
security of these financial systems. Proactive joint initiatives with 
the industry, such as public awareness campaigns, media programs, 
speeches, seminars, and security training, are having a positive 
impact. These partnerships have reduced the ability of criminal 
organizations to target financial institutions.
    As you know, the Secret Service also has the critical 
responsibility of protecting the President, Vice President, and other 
specially designated protectees. Its protective duties recently 
included the 50th Anniversary of the United Nations, the Olympics in 
Atlanta, and the presidential election campaign. Included in the Secret 
Service's fiscal year 1998 budget is a request for $28.8 million to 
implement security changes at the White House which are being made in 
accordance with recommendations made in the White House Security 
Review. This funding, along with the additional funding provided this 
fiscal year, will enable the Secret Service to implement all of the 
Review's recommendations. The funding provides for staffing to cover an 
enlarged security perimeter, as well as for the construction of 
additional crash resistant barriers and guard booths needed to define 
this perimeter.
                                  atf
    ATF is responsible for investigating some of the most destructive, 
dangerous, and controversial crimes in the United States--bombings of 
abortion clinics, arson of churches, firearms trafficking, and firearms 
and explosives violations. In an effort to reduce violent crime, ATF 
focuses its investigative efforts on armed violent criminals, career 
criminals, armed narcotics traffickers, violent gangs, and domestic and 
international arms traffickers. It strives to deny criminals access to 
firearms, safeguard the public from bombings and arson, and imprison 
violent criminals.
    ATF has developed and implemented a number of innovative programs 
to achieve these goals. ATF's Project LEAD, introduced in 1996, uses 
information obtained from tracing crime guns to identify and prosecute 
illegal firearms traffickers. Previously, a gun would be recovered in 
connection with a crime and, except for the investigation of the 
underlying crime, it would not be analyzed or traced further by law 
enforcement authorities. ATF has stepped up its efforts with other law 
enforcement agencies to learn more about crime guns. Using advanced 
computer software, ATF analyses information obtained during the tracing 
of crime guns to determine patterns of multiple purchases by one 
individual or from one store. When ATF uncovers a situation where 
multiple guns used in crimes all emanated from one source, they are 
able to investigate and prosecute, thereby eliminating a source of 
illegal guns. For example, when a New York City police officer was 
recently killed, four handguns were recovered at the scene. Tracing 
these handguns through Project LEAD has resulted in several 
investigations of sizable drug and gun trafficking rings across the 
country.
    To further reduce the trafficking of firearms to juveniles, last 
summer ATF initiated the Youth Crime Gun Interdiction Initiative 
(YCGII) in 17 pilot cities throughout the country. The YCGII will help 
identify the sources of firearms being supplied to juveniles and to 
prosecute the traffickers responsible for providing these guns.
    In response to the growing need for Federal assistance in 
communities experiencing serious gang and drug-related shooting 
incidents, ATF initiated a comprehensive enforcement approach entitled 
CEASEFIRE. The CEASEFIRE Program combines ATF's gun tracing, gun 
trafficking, and violent offender initiatives with the latest forensic 
technology. The Integrated Ballistic Identification System (IBIS) is 
the heart of the CEASEFIRE Program. IBIS is a computer imaging 
identification system capable of matching cartridges or bullets from 
multiple shooting incidents. It also allows investigators to link 
shootings that occur locally to shootings involving the same weapon in 
another city. Given the number of shooting incidents that occur in the 
United States each year, a firearms examiners unassisted by technology 
working to connect related shooting incidents is in effect trying to 
find the proverbial needle in the haystack. Now, with IBIS, what used 
to take weeks and sometimes months, if it could be done at all, now can 
be done in seconds. The IBIS technology has already yielded significant 
results in violence-plagued communities across the country, and will 
continue to contribute significantly to the identification of homicide 
and shooting suspects and the linking of related gang shootings. For 
example, when a gang-related shooting occurred in Atlanta, GA, in 
September 1996, no suspect was identified and no one was arrested. 
However .40 caliber shell casings were recovered at the scene and were 
entered into IBIS. Two weeks later, an individual was arrested on 
unrelated narcotics charges. The gun found in his possession was test 
fired, entered into IBIS, and found to match the gun used in the 
earlier attempted murder. But for the use of IBIS, these two seemingly 
unrelated cases would likely never have been linked. Based on the 
results achieved with IBIS to date, we estimate that 1 firearms 
examiner equipped with IBIS can do the work of 550 firearms examiners 
without IBIS. This results in substantial cost savings, greater 
efficiency and more crimes solved.
    ATF is also renowned for its expertise in the areas of arson and 
explosives. Through its certified fire investigators, National and 
International Response Teams, accelerant and explosives detection 
canine program, its accredited laboratory, its forthcoming arson and 
explosives repository, and numerous other programs, ATF maintains its 
role as the leader and innovator in these areas. Its expert work on the 
National Church Arson Task Force has helped produce a 33 percent 
clearance rate for the arsons under investigation, a rate that is more 
than twice the average rate for arson crimes in general. ATF assists 
State and local authorities with arson investigations falling under 
Federal jurisdiction and having a significant impact on their 
community, particularly when the nature or extent of the problem 
extends beyond the available resources or expertise of the locale 
involved. ATF also provides training to other Federal, State, and local 
enforcement agencies in the detection and investigation of arson, 
particularly arson-for-profit, and post-blast bombing investigation.
    In addition to all of its investigative efforts, ATF is working to 
prevent violent crime and drug use through its Gang Resistance 
Education and Training (G.R.E.A.T.) project. G.R.E.A.T. is a program by 
which uniformed law enforcement officers help elementary and middle 
school children reject gangs and the drugs they peddle. ATF administers 
the program in partnership with the Phoenix Police Department, the 
National Sheriffs' Association, the International Association of Chiefs 
of Police, and the Federal Law Enforcement Training Center (FLETC), and 
provides the training to law enforcement officers to become certified 
G.R.E.A.T. instructors. Currently, over 800 different localities are 
teaching the G.R.E.A.T. curriculum in classrooms around the country.
    To continue its vital work combating firearms violations, arson, 
explosives and violent crime, ATF's budget request for fiscal year 1998 
represents a modest 3 percent increase over its fiscal year 1997 base 
funding.
                                 fletc
    One of the reasons that Treasury law enforcement is so successful 
is the quality of training that its agents and inspectors receive at 
the Federal Law Enforcement Training Center (FLETC). Since its 
establishment by a memorandum of understanding in 1970, FLETC has built 
a reputation for providing high quality, cost effective law enforcement 
training. As you know, there are many advantages to consolidated 
training for Federal law enforcement personnel, not the least of which 
is an enormous cost savings to the Government. 70 agencies in 200 
different training programs now train at the Center. Additionally, 
FLETC has been involved in providing law enforcement training overseas 
for over 20 years and has trained more than 5,000 foreign law 
enforcement officials from more than 102 different countries. We expect 
this growth to continue as more agencies recognize the many benefits of 
consolidated training.
    Let me just mention a few of the many valuable training programs 
provided by FLETC: One of FLETC's particularly valuable tools is its 
Financial Fraud Institute (FFI). The FFI provides the skills that 
criminal investigators need to combat the ever increasing 
sophistication of money laundering, financial crime, and computer 
crime.
    FLETC is increasingly utilizing computers to provide instruction, 
thereby both providing state of the art training and maximizing the use 
of its facilities. It is also working with the U.S. Army Simulation 
Training and Instrumentation Command (STRICOM) to develop a joint 
technology transfer proposal, the centerpiece of which will be the 
FLETC's prototype multimedia computer based training module. This 
module will help prepare law enforcement officers to make split-second 
decisions in life or death situations. The expanded use of this 
computer based instruction will permit delivery of consistent and 
accurate information and training, as well as measurement and 
documentation of student performance.
    The FLETC's budget request for fiscal year 1998 is $100,832,000. 
This represents a 30 percent increase (of which 25 percent relates to 
master plan construction projects) over fiscal year 1997 that results 
from the tremendous growth in FLETC's workload. Among the chief factors 
that have contributed to this unprecedented increase in workload is the 
recent Congressional and Administrative initiative to control 
immigration along our borders, the addition of new Federal prisons, and 
enhancements to security now being required at Federal buildings around 
the country. Since early 1996, FLETC has been operating at full 
capacity and we expect that this workload will continue through fiscal 
year 1999. To accommodate this increasing demand, FLETC has been 
utilizing temporary buildings and contracted or licensed facilities. In 
addition, some Border Patrol training is occurring at a temporary 
facility in Charleston, S.C.
    To permit FLETC to train the law enforcement agents in the skills 
needed for the future, it has been implementing its master plan for 
facilities. This plan was first introduced in 1989 and when fully 
implemented will permit FLETC to achieve its goal of further 
developing, operating, and maintaining state-of-the-art facilities and 
systems responsive to interagency training needs. Indeed, a major 
portion of FLETC's fiscal year 1998 request--$18.6 million--is the 
continued implementation of the facilities master plan for new 
construction at FLETC's two centers in Glynco and Artesia. As FLETC's 
capacity increases, the need for a temporary site at Charleston, SC, 
now being used for overflow US Border Patrol training, can be phased 
out as soon as possible.
                                 fincen
    While Customs, Secret Service and IRS-CID are the financial crime 
investigators, FinCEN serves as Treasury's principal support arm for 
such investigative efforts. As its name states, FinCEN is a network, a 
link between the law enforcement, financial, and regulatory 
communities. It brings together government agencies and the private 
sector, in this country and around the world, to identify ways to 
prevent and detect financial crime, particularly money laundering.
    In the complex world of money laundering, innovation is the key to 
keeping money launderers in check. This innovative approach was 
recently demonstrated by Treasury and FinCEN with the use of a 
Geographic Targeting Order--or GTO--in the New York City area. This 
order, which supports an anti-money laundering operation of the U.S. 
Customs Service, IRS, New York City Police and others, has caused a 
dramatic reduction in the amount of illicit funds moving through New 
York money transmitters by requiring 22 licensed transmitters of funds 
to report information about the senders and recipients of all cash 
purchased transmissions to Colombia of $750 or more.
    As a result of the GTO, the targeted money transmitters' overall 
business volume to Colombia has dropped by approximately 30 percent. 
With this mode of moving money to Colombia restricted, the criminals 
have had to find other means of moving their money, including bulk 
smuggling. As a result, their transfers have become easier for law 
enforcement to detect and seize. Indeed, since the GTO went into effect 
in August 1996, Customs and the other participating law enforcement 
agencies have seized over $50 million, which is approximately four 
times higher than the amount seized during comparable periods in 
previous years.
    FinCEN's fiscal year 1998 budget request of 181 FTE's and 
$23,006,000 will support the GTO and other innovative techniques to 
combat money laundering and financial crimes, using both regulatory and 
enforcement tools. In addition, under FinCEN's appropriation, we are 
proposing that two one-time initiatives be funded from the Violent 
Crime Reduction Trust Fund: $1 million dollars for a Secure 
Communications Outreach Program and $2 million dollars and four FTE in 
support of the President's efforts to encourage money laundering 
countries to institute internationally accepted anti-money laundering 
standards.
                                irs-cid
    Although IRS-CID is not a part of this appropriations hearing, I 
want to say a few words about their important contribution to 
Treasury's law enforcement efforts. Fighting financial crime is a job 
well suited for the special agents of the IRS-CID. They are known for 
their ability to ``follow the money trail'' and stop the criminal when 
no one else can. IRS-CID agents are financial experts in combating 
money laundering and tax evasion. Their expertise is sought in 
investigations of all types of financial crimes, including health care 
fraud, pension fraud, insurance fraud, bankruptcy fraud, telemarketing 
fraud, gaming, narcotics, and public corruption.
    Today, IRS-CID is combating the increased use of computers for 
committing financial crimes with its latest weapon * * * a new type of 
special agent known as the Computer Investigative Specialist (CIS). 
Through IRS-CID's national Computer Investigative Specialist Program, 
the CIS continuously receives training in cutting edge investigation 
automation and evidence seizure and data recovery methods. Combining 
its unique financial expertise with advanced computer skills permits 
IRS-CID to optimize its ability to investigate and solve computer based 
and computer related financial crimes.
                               conclusion
    In summary, the Treasury Department is proud of the contributions 
that its law enforcement bureaus have made and continue to make to this 
nation. Treasury law enforcement will continue to make us proud as it 
enters into the 21st century by contributing to the goals of 
establishing leadership in the global economy, expanding trade, 
protecting our borders, fighting crime, and preserving the health and 
safety of the American people. This budget request would enable 
Treasury's law enforcement bureaus to meet the current challenges and 
to begin preparations for the challenges of the 21st century. I am 
confident you will find this to be a responsible budget, as it 
considers the growing demands of the law enforcement in a constrained 
budget environment.
    With your permission Mr. Chairman, I would like to ask the 
Directors of the Treasury law enforcement bureaus to describe in more 
detail those strategies and goals we see as playing a key role in the 
coming fiscal year, as well as our recent accomplishments. After which 
we would be pleased to answer any questions you or members of this 
Committee may have.
    Thank You.

                Bureau of Alcohol, Tobacco and Firearms

STATEMENT OF JOHN MAGAW, DIRECTOR
    Senator Campbell. What we will do with Senator Kohl's 
concurrence is go through the whole panel before we proceed 
with questions.
    So, John Magaw, Director of the Bureau of Alcohol, Tobacco 
and Firearms [ATF], could proceed.
    Mr. Magaw. Thank you, Mr. Chairman, Senator Kohl.
    My written statement contains the complete description of 
our budget and, so, I will just go very briefly through the 
statement.
    With me here today is our executive staff, whom I am very 
proud of. I believe that it is important that this executive 
staff is here, in this audience, to hear what you say, see what 
your concerns and suggestions are so that as we move forward, 
as a bureau, we can do what Congress wants us to do.
    The Secretary of the Treasury is charged by Congress with a 
unique set of regulatory and criminal enforcement 
responsibilities involving all controversial products--alcohol, 
tobacco, firearms, and explosives.
    These ATF-regulated products all have legitimate 
applications but also share serious social consequences if 
misused. Congress has chosen to address these products through 
a full array of Federal powers. ATF is a law enforcement agency 
with interwoven responsibilities for criminal investigation, 
tax collection, and industry regulation. ATF's fiscal year 1998 
budget request flows from our key strategies developed to best 
fulfill our mission: That is to reduce violent crime, collect 
the revenue, and protect the public.
    For example, in the area of violent crime one of our 
highest priorities is to respond to the American tragedy of 
youth violence by using the tools unique to ATF to make a 
difference through prevention and enforcement. We have exposed 
close to 1 million children to gang-resistance education and 
training programs. Through the youth gun interdiction 
initiative we are partnering with major cities to identify the 
adult sources of guns and crime guns going to juveniles.
    In compliance with the Government Performance and Results 
Act, we have developed a performance plan and set a program for 
performance targets for each of our major activities. Our 
budget request is approximately $602 million. Once our 
headquarters and laboratory relocation funding is subtracted, 
our request represents less than a 3-percent increase over our 
1997 budget.
    The most important message I bring to you today is that you 
are overseeing a revitalized ATF, made stronger by the 
accountability demanded by the men and women of ATF, the 
Secretary and Under Secretary of the Treasury and, as important 
as any, the close oversight of this subcommittee. None of our 
recent successes, and there have been many, would have been 
possible without the funding that you have provided for vital 
training and much needed operational equipment. This Director 
and the women and men of ATF thank you. That concludes my 
statement.

                           prepared statement

    Senator Campbell. Thank you, Mr. Magaw. Your complete 
statement will be made part of the record.
    [The statement follows:]
                  Prepared Statement of John W. Magaw
    Thank you Mr. Chairman, Senator Nighthorse-Campbell, and members of 
the Subcommittee. I welcome this opportunity to appear before this 
committee and further acquaint you with ATF and the unique value we 
bring to the American public. I am here today to support the Bureau's 
fiscal year 1998 budget request of $602,354,000 and 3,991 full-time 
equivalent positions (FTE's). When compared to fiscal year 1997, this 
request represents an increase of $89,203,000 and 73 FTE's. This 
increase consists primarily of $48,044,000 for the relocation of our 
laboratory and $26,312,000 for the relocation of Bureau headquarters. 
Minus these increases, our request represents less than a 3 percent 
increase over fiscal year 1997 base funding. In addition, while I am 
here today, I would like to discuss our ongoing Church Arson and 
Counter-terrorism activities.
    With me today are my executive staff members. If I may, I would 
like to introduce one new executive appointment. Mr. William Earle is 
our new Assistant Director for Management and Chief Financial Officer. 
He replaces Mr. Richard Watkins, who has recently retired. Since this 
new member has not appeared before your committee, I am submitting his 
biographical sketch for the record at this time. Executive staff 
members who have appeared with me before are Mr. Bradley Buckles, 
Deputy Director; Mr. Andrew Vita, Associate Director for Enforcement; 
Mr. Patrick Hynes, Assistant Director for Liaison and Public 
Information; Mr. Stephen McHale, Chief Counsel; Mr. Arthur Libertucci, 
Assistant Director for Science and Information Technology; Ms. Gale 
Rossides, Assistant Director for Training and Professional Development; 
and Ms. Marjorie Kornegay, Executive Assistant for Equal Opportunity.
                     progress in strategic planning
    As many of you are aware, starting in 1997, the Government 
Performance and Results Act, commonly referred to as ``GPRA'' requires 
us to: publish strategic plans covering at least 5 years, publish 
annual performance plans which include measurable goals, and report on 
actual performance.
    This law is intended to fundamentally change the Federal management 
and accountability from a focus on inputs and processes to a greater 
emphasis on outcomes and programmatic results. In essence, GPRA 
requires that we tell you what each of our programs is intended to do 
in the long term, specifically what we intend to achieve each year, and 
finally, what we did achieve.
    ATF began its initial strategic plan in April 1994 which consists 
of the following key strategies/activities:
  --To effectively contribute to a safer America through an integrated 
        violence impact initiative.
  --To maximize ATF's effect on crime and violence through the 
        collection, analysis, and exchange of information and strategic 
        intelligence.
  --To maximize the advantages of technology for ATF and the public.
  --To establish cooperative working relationships with industries and 
        concerned groups through a formal ATF program.
    With our fiscal year 1998 budget, we are including a performance 
plan and a set of program performance targets for each of our three 
major activities. We are making progress in developing meaningful, 
quantifiable measures for our programs. We will continue to look for 
improvements, and we welcome Congress' feedback on the measures we have 
submitted.
    As an outcome of ATF's current strategic plan, the activity 
structure in the fiscal year 1998 budget has been realigned from 
Criminal and Regulatory Alcohol, Tobacco, Firearms, and Explosives to 
our Reduce Violent Crime, Collect Revenue and Protect the Public. ATF 
has also identified key outcome-oriented measures to gauge the success 
of the goals for each activity. The new activity structure is:
    Activity 1: Reduce Violent Crime.--Reduce the future number of 
violent crimes and cost to the public through enforcing Federal 
firearms, explosives, and arson laws in the future.
    Key Indicators: Crime-Related Costs Avoided; Future Crimes Avoided.
    Activity 2: Collect Revenue.--Maintain an efficient and effective 
revenue management and regulatory system that continues reducing payer 
burden and government oversight, and effectively and fairly collects 
the revenue due under Federal laws administered by ATF.
    Key Indicators: Taxes/Fees collected from alcohol, tobacco, 
firearms, and explosives industries; Alcohol and Tobacco Taxes Owed vs. 
Paid. (Tax Gap; Ratio of Taxes/Fees Collected vs. Resources Expended; 
and Burden Reduced.
    Activity 3: Protect the Public.--Complement enforcement with 
training and prevention strategies through community, law enforcement, 
and industry partnerships and reduce public safety risk and consumer 
deception on regulated commodities.
    Key Indicators: Individuals Exposed to Community Outreach; 
Satisfaction level of Public/Community and Industry Partnerships; 
Number of Unsafe Conditions Reported and Corrected; and Numbers of 
Individuals Trained/Developed.
    ATF is committed to defining its unique Federal role, setting 
strategic goals, long term and annual targets, managing to achieve 
those targets, and reporting on its performance annually. ATF will 
continue to work over this next year to make sure that our measurements 
for success are carefully defined and tracked. Some are more difficult 
than others, but ATF is committed to reporting to the Congress and the 
American public on how well ATF is serving its taxpayers and achieving 
its goals.
                         atf's unique programs
    ATF is a law enforcement organization with unique responsibilities 
dedicated to reducing violent crime, collecting revenue, and protecting 
the public. The Bureau enforces the Federal laws and regulations 
relating to alcohol, tobacco, firearms, explosives, and arson by 
working directly and in cooperation with others. ATF's mission is to: 
Suppress and prevent crime and violence through enforcement, 
regulation, and community outreach; ensure fair and proper revenue 
collection; provide fair and effective industry regulation; support and 
assist Federal, State, local, and international law enforcement; and 
provide innovative training programs in support of criminal and 
regulatory enforcement functions.
    Year after year, ATF works to make America a safer place for all of 
us by fighting violent crime. ATF's unique position of being vested 
with the enforcement and regulation of the Federal firearms and 
explosives laws and the regulation of those industries puts it at the 
forefront of violent crime enforcement. At our disposal are valuable 
assets that assist us in carrying out investigations against those who 
violate these statutes.
    The statutes ATF enforces involve a blend of tax, regulatory, and 
criminal functions that the Treasury Department is uniquely suited to 
handle. Treasury law enforcement functions have always involved 
criminal laws interwoven with revenue laws and regulatory controls, 
whether in the enforcement of tax or trade law, currency protection, or 
firearms regulations. In the case of the firearms and explosives 
industries, the criminal investigative responsibilities cannot 
effectively be separated from the tax and regulatory responsibilities 
because they are so technically and practically interwoven.
    ATF achieves tax compliance by focusing inspections on production 
facilities offering the greatest risk to revenue based on the volume of 
operations, past history of violations, poor internal controls, or 
questionable financial conditions. Teams of ATF special agents and 
inspectors perform complex investigations of multi-state criminal 
violations of the Federal Alcohol Administration Act and sections of 
the Internal Revenue Code. In addition, there has been a marked 
increase in the area of diversion internationally by organized criminal 
groups.
    ATF inspectors maintain regulatory oversight of the legal 
explosives industry, including 13,000 explosives licensees and 
permittees. ATF's jurisdiction and specialized expertise are unique and 
provide invaluable services to the public through enforcement, 
regulation, and cooperative industry partnerships. This is particularly 
true in our efforts on firearms and explosives-related violence.
    ATF provides resources to local communities to investigate 
explosives incidents and arson. ATF has a wide range of resources 
available. For instance, our National Response Teams (NRT's) include 
special agents, explosives technicians, fire protection engineers, and 
forensic scientists who respond to major incidents within 24 hours of a 
request to assist in large-scale fire and explosives scene 
investigations. Additionally, ATF: (1) has been active in the Church 
Fire Investigations, (2) trains canines in accelerant-detection and 
explosives detection, (3) has several ongoing explosives studies, and 
(4) provides expertise in solving arson-for-profit schemes.
    In the area of firearms, our mission is simple--to reduce gun 
violence and to fairly and effectively regulate the legitimate firearms 
industry. Our targets are criminals who illegally use and/or supply 
guns to other criminals. The enemy of the law-abiding gun owner is not 
ATF; the enemy is the violent armed criminal. Every time someone fires 
indiscriminately into a school yard, or a crowded courtroom, or sprays 
gunfire at the White House, or targets law enforcement officers, we are 
reminded once again of the dangerous times in which we live. Our 
National Tracing Center, provides 24-hour assistance to Federal, State, 
local, and foreign enforcement agencies in tracing guns used in crimes. 
It is the only facility of its kind in the world. To further ATF's 
ability to trace crime guns, the National Tracing Center has partnered 
with members of the gun wholesale industry through electronic linkups 
that both speed trace completion time and save the industry money. This 
joint government/industry partnership is helping to fight crime 
nationally.
    The more successful we are in keeping guns away from criminals, 
keeping illegal gun traffickers from reaching children, and prosecuting 
those who use guns in crimes and burn down America's churches, the 
safer all Americans are. That is ATF's mission--enforcing the law on 
behalf of the American people.
                      fiscal year 1996 highlights
    In support of this mission, the following are some highlights of 
our everyday work over the past year:
  --An ATF defendant was sentenced to 215 years of incarceration. The 
        sentence is the result of his conviction of 11 counts of 
        robbery and 11 counts of using a firearm during a crime of 
        violence. The defendant's arrest was the result of an 
        investigation conducted by the Violent Crime Task Force, 
        comprised of ATF agents and other law enforcement officers.
  --ATF arson investigators assisted local law enforcement and 
        prosecuting attorneys in a murder by arson investigation. ATF 
        investigators utilized computerized fire modeling techniques to 
        refute the version of the property owner's account of the fire. 
        The owner pled guilty to the murder and arson and was sentenced 
        to two consecutive life terms plus 30 years of incarceration.
  --An ATF defendant, who has 40 felony convictions, was sentenced to 
        22 years incarceration and fined $17,000 as a result of a 
        sentencing enhancement. This sentencing was a result of the 
        defendant being arrested while being in possession of a loaded 
        semiautomatic pistol.
  --Five ATF defendants, who are members of the ``El Rukin'' street 
        gang, were found guilty of conspiracy to commit racketeering, 
        narcotics conspiracy, and other Federal law violations. The 
        verdicts were the result of a 3-month trial. Each defendant is 
        facing life imprisonment.
  --Two ATF defendants, who are Ku Klux Klan members, pled guilty to 
        Federal arson and civil rights violations relating to the arson 
        of two predominantly African American congregation churches. 
        The following day two additional Ku Klux Klan members were 
        indicted for Federal arson, firearms, and civil rights 
        violations for their participation in one of the previously 
        mentioned church fires, the burning of a migrant worker camp, 
        and automobile arson, and possession of 13 firearms and 
        ammunition. Two of the defendants have now been sentenced to at 
        least 18 years in prison.
  --An ATF defendant was sentenced to two life sentences after being 
        found guilty of Federal firearms violations. This defendant 
        shot and pistol-whipped a victim as he robbed him of $150 in 
        cash and a cellular phone. The defendant was later arrested in 
        possession of a firearm that the ATF laboratory identified as 
        the same firearm used to shoot the victim.
  --An ATF defendant was sentenced to death for a murder, which he 
        committed by setting fire to an apartment in which a female 
        acquaintance and her 3 year old daughter were killed. The 
        investigation revealed that the arson fire was an attempt to 
        cover the deaths of the victims.
  --A defendant was sentenced to 31 to 94 years in prison for two 
        subway bombing incidents in which 41 people were injured. ATF 
        agents assisted in the investigation by gathering evidence from 
        the defendants residence, which resulted in the defendants 
        conviction.
    I am also proud to report that ATF was the recipient of four Hammer 
Awards. These awards are given by the Vice President for significant 
contributions in support of the National Performance Review Principles 
of putting customers first; cutting red tape; empowering employees; and 
getting back to basics. Awards were given to the following areas:
    Project LEAD Team.--For developing a computer process that analyzes 
traced crime gun data and identifies by name criminal firearms 
traffickers and associates to aid field investigators.
    The Partnership Formula Approval Process Working Group.--For 
streamlining, in partnership with the beverage alcohol industry and the 
flavor industry, the flavor approval process. The process time required 
prior to approval of some beverage alcohol labels and prior to the 
marketing of these products was reduced by six weeks.
    The ATF CEASEFIRE Program Team.--For providing new and innovative 
government/private industry partnerships, resulting in the cost saving 
development of a highly-effective ballistics comparison technology and 
a national enforcement strategy to solve firearms related violence.
    The National Tracing Center.--For using cost effective technology 
and teamwork involving Federal and contract personnel through which to 
implement an automated records management system, convert a massive and 
disorderly records collection system to a viable data storage and 
retrieval system--a valuable tool for the law enforcement community.
    I want to congratulate the ATF personnel who have worked hard to 
earn these prestigious awards. This is a very significant 
accomplishment and shows ATF dedication and commitment to producing 
quality programs that benefit the United States.
                          the year in progress
    ATF and its predecessor agencies have rendered honorable and 
effective service for generations. As with all organizations, we have 
gone through changes. Effective organizations continuously re-examine 
the way they do business. Over the last several years we have sought to 
improve management, training, and operational systems. These changes 
have provided the framework for making ATF a stronger and more 
effective organization. With the strong support of the committee, we 
have begun to make significant strides in these areas.
    When I appeared before this subcommittee last year I talked about 
instituting a series of leadership and operational changes. I feel that 
we have made good progress in implementing these changes. Along with 
our continued work in our daily efforts to build a sound and safer 
America through innovation and partnerships, we face several important 
issues throughout fiscal year 1997 and into fiscal year 1998:
  --Headquarters Relocation.--ATF has been pursuing a suitable, secure 
        site to relocate its headquarters and is requesting a 
        prospectus approval to expedite the first phase of this 
        relocation. Partial funding is requested in fiscal year 1998 to 
        begin site acquisition, design and construction of a new 
        building.
  --Restoration of Base Budget (Direct Appropriation).--ATF's base had 
        a disproportionate share of pay, fixed and operational 
        resources. ATF has made strides to correct this problem in 
        fiscal year 1997, and with the Committee's support, ATF will 
        meet its goal of continuing to correct this problem in fiscal 
        year 1998.
  --Relocation of ATF's National Laboratory Center and Construction of 
        a FIRE Facility.--ATF received partial funding to begin the 
        required analysis, site selection and engineering and design. 
        The final prospectus is pending Congressional action by the 
        Senate Environment and Public Work Committee. In fiscal year 
        1998, the Bureau is requesting the balance of funds to procure 
        a site, design, and build the facilities.
  --Settlement of the African-American Employees Lawsuit.--During 
        fiscal year 1997, the Bureau has begun to implement the 
        settlement of the African-American employees lawsuit by making 
        changes in our recruitment, hiring, promotion, and training 
        systems.
  --Implement GPRA.--During fiscal year 1997 the Bureau identified 
        outcome oriented performance measurements for fiscal year 1998, 
        integrated its strategic plan with the budgeting process, and 
        refined its budget activity structure to accommodate its 
        business strategies. In fiscal year 1998 the Bureau will 
        continue to develop systems and collect data to report on these 
        performance measures.
  --Continuation of Studies.--Through funding provided to the 
        Department of Treasury in fiscal year 1997, ATF in conjunction 
        with the National Academy of Science, will complete the four 
        part Explosion Prevention Study (which includes Taggants) and 
        the Armor Piercing Ammunition Study required by the Anti-
        terrorism and Effective Death Penalty Act of 1996 and report to 
        the Committee on its status by April of 1997. We are also 
        contracting with the National Academy of Science to conduct the 
        Smokeless and Black Powder Tagging Study as required by the 
        Omnibus Consolidated Appropriation Act of 1997.
                   fiscal year 1998 resource request
    Before I move to more details of our program activities, I will 
highlight the following key budget changes from fiscal year 1997 which 
will move us closer to reaching our strategic goals, strengthening the 
management infrastructure, as well as providing the tools necessary to 
carry out our unique missions. If approved, our fiscal year 1998 budget 
represents the final stage of our three year goal of implementing a 
balanced funding ratio and will help us to fulfill our strategic goals 
to reduce crime, collect revenue and protect the public.
    In addition to non-recurring one-time costs totaling $15,854,000 
and $14,847,000 to maintaining current service levels, our direct 
appropriation request includes the following initiatives:
Base Restoration: $20,462,000
    Supports funding to balance the Bureau's pay and non-pay expenses, 
thus providing base funding for operational needs and non-human tools 
necessary to carry out our programs in a safe and effective manner. 
Funding will be used to maintain equipment replacement cycles for 
vehicles, radios, and computers, renew software leases; meet 
communication requirements; assist in meeting the Year 2000 ADP 
conversion requirements, and provide needed recurring laboratory, 
investigative, and software supplies.
CEASEFIRE/IBIS Maintenance Costs: $1,200,000
    The Bureau is requesting funding to maintain equipment and provide 
for recurring data line requirements associated with 25 existing sites. 
This program has now been installed at 12 out of our 21 field 
divisions.
Canine Explosives Detection Program: $3,974,000 and 17 FTE's
    In fiscal year 1997, the Bureau has begun to expand the canine 
facility in Front Royal, VA., hire canine handlers and train up to 30 
canines. In fiscal year 1998, with an expanded facility, the Bureau 
will be able to train up to 100 canines for state, local, and federal 
agencies. This expansion will complete the canine detection training 
infrastructure necessary to provide this level of training on an annual 
basis.
    As part of our continuing plans to relocate our National Laboratory 
from Rockville, Maryland, the Bureau is requesting the following 
increase to complete this relocation and is requested as part of the 
Laboratory Construction Fund.
Laboratory and Fire Research Facilities: $48,044,000
    In fiscal year 1997, Congress provided ATF partial funding to cover 
the costs of acquisition of a single site and the design for two 
separate buildings to house the National Laboratory Center relocated 
from space in Rockville, MD, and a new initiative, the Fire 
Investigation, Research, and Education (FIRE) Center, the newest member 
laboratory in ATF's Laboratory Services System. In fiscal year 1998, 
ATF is requesting full funding of the balance to cover construction and 
relocation costs. Construction of the new facilities is scheduled for 
completion in fiscal year 2000. Until that time, the National 
Laboratory Center will remain in its present location. The FIRE Center 
will be co-located with ATF's Forensic Science Laboratory. This FIRE 
facility will provide law enforcement agencies with access to a unique 
single facility for scientific research and forensic support into the 
causes and characteristics of uncontrolled structure fires. Currently, 
there is no fire research facility that is solely dedicated to support 
criminal enforcement needs.
    In fiscal year 1997, the Bureau was appropriated $44,595,000 from 
the Violent Crime Reduction Fund. An increase of $5,783,000 over last 
year's level allows the Bureau to fund the following initiatives:
Headquarters Relocation: $26,312,000
    This request allows the Bureau to begin site selection and design 
for construction of a new, secured Headquarters building in the 
metropolitan Washington, D.C. area.
Increase Number of Annual Explosives Inspections: $5,458,000 and 53 
        FTE's
    This request is part of a three year phased in goal to annually 
inspect 100 percent of all high explosives manufacturing and storage 
facilities. In fiscal year 1997, we will increase our coverage to 65 
percent of the industry. In fiscal year 1998, our goal is to increase 
the annual inspection coverage to 80 percent with the addition of 53 
new inspectors.
Clearinghouse $1,608,000 and 3 FTE's
    This request expands on the fiscal year 1997 initiative to enhance 
ATF's Explosives Incident System to allow direct access for all Federal 
agencies to report explosives and arson incidents. In fiscal year 1998, 
the Bureau expects to complete the second year requirements for systems 
development, and hardware requirements, and allow field office on-line 
access to this information. Three positions are requested to assess and 
refine the data for tactical investigative purposes.
Illegal Firearms Trafficking: $6,000,000
    One of the Bureau's main activities is to reduce violent crime. 
This activity utilizes ATF's unique statutory jurisdictions in firearms 
and explosives to attack armed violent crime by targeting for 
prosecution those illegal firearms traffickers who are supplying 
firearms to the criminal element and deny criminals access to firearms. 
This request is for a two prong strategy to upgrade Project LEAD to a 
Local Area Network (LAN)-based system from a PC-based system on a 
nation-wide basis. These funds also allows the National Tracing Center 
to handle the increased tracing workload by enhancing software, 
simplifying data entry and provide better database tools. Fourteen 
firearms trafficking groups will have access to this information.
Continuation of G.R.E.A.T. Program: $11,000,000 and 24 FTE's
    To continue the partnership originally established between ATF, the 
Phoenix Police Department and the Federal Law Enforcement Training 
Center to utilize the expertise of each agency and to provide gang 
resistance and anti-violence instruction to children in a classroom 
setting. ATF will provide funding to 44 different localities through 
cooperative agreements to support their participation in this community 
outreach program at the same level as in fiscal year 1997. Arresting 
violators alone will not stop crime. We must dissuade young people from 
becoming involved in violence.
    Our fiscal year 1998 budget is the cornerstone for creating a 
sound, fully balanced Bureau. It balances our pay, fixed and 
operational costs, while at the same time ensures we have acquired the 
necessary tools to face the law enforcement challenges of the twenty-
first century.
                          reduce violent crime
    ATF recognizes the role that firearms, explosives, and arson play 
in violent crimes and pursues an integrated regulatory and criminal 
enforcement strategy to impact these crimes. Investigative priorities 
focus on armed violent offenders and career criminals, armed narcotics 
traffickers, violent gangs, and domestic and international arms 
traffickers. Sections 924 (c) and (e) of Title 18 of the United States 
Code provide mandatory and enhanced sentencing guidelines for armed 
career criminals and narcotics traffickers. ATF uses these statutes to 
target, investigate and recommend for prosecution these types of 
offenders to reduce the level of violent crime and to enhance public 
safety.
    Under the activity Reduce Violent Crime, we have three main 
programs: Deny Criminals Access to Firearms, Safeguard the Public from 
Bombing and Arson, and Imprison Violent Offenders.
                   deny criminals access to firearms
    The projects under this program relate to identifying and deterring 
the sources and participation in illegal firearms. We apply these 
strategies in concert with our community and industry partnership 
efforts and particularly in conjunction with our GREAT prevention 
effort. Projects include: Illegal Firearms Trafficking including 
Project LEAD, International Trafficking in Arms, Youth Crime Gun 
Interdiction Initiative; Firearms Inspections; Stolen Firearms; 
Operation Alliance; the National Tracing Center; and the High Intensity 
Drug Trafficking Areas (HIDTA).
Illegal Firearms Trafficking
    The investigation of illegal firearms trafficking is one of the 
highest priorities within ATF. Illegal firearms trafficking involves 
the distribution of firearms for the principal purpose of making 
firearms available to others in violation of the law. Amendments to the 
Crime Control Act of 1990, the Brady Act, and the Violent Crime Control 
and Law Enforcement Act of 1994 have provided ATF with additional 
jurisdiction to pursue illegal firearms traffickers and reduce the 
availability of firearms to criminals. Illegal firearms trafficking 
program highlights for fiscal year 1996 include:
  --Cases forwarded for prosecution--1,043
  --Defendants recommended for prosecution--2,230
  --34,491 firearms were illegally trafficked by those 2,230 defendants 
        prior to their recommendation for prosecution.
  --Due to the incarceration of these illegal firearms traffickers, in 
        1 year it is projected there will be 3,520 future firearms 
        related crimes avoided, producing a savings to the American 
        public of $38 million in crime related costs.
    An additional component of our illegal firearms trafficking project 
is our enhanced training efforts regarding such activities, especially 
training provided to State, local and foreign law enforcement 
personnel. In addition to courses taught at the Federal Law Enforcement 
Training Center (FLETC), ATF will also conduct courses on illegal 
firearms trafficking at targeted locations.
    In partnership with the Police Executive Research Forum (PERF), ATF 
has participated in the development of firearms trafficking training 
designed to certify State and local law enforcement officers as 
trainers in this curriculum.
    These courses will enhance the expertise of our own agents as well 
as further the cooperative relationships already established with State 
and local agencies in combating illegal firearms trafficking 
activities.
Project LEAD
    ATF has developed state-of-the-art computer software to analyze 
firearms trace data maintained by the National Tracing Center. Through 
Project LEAD, information captured during the tracing process enables 
ATF and other law enforcement agencies to identify and target potential 
illegal firearms traffickers.
Firearms Tracing
    The ATF National Tracing Center traces the origin and ownership of 
guns used in crimes and is sharing this information with law 
enforcement agencies. The information, which is only from recovered and 
traced crime firearms, can be requested by Federal, State, local, or 
foreign law enforcement agencies. Criminal firearms trace statistics 
are maintained for each State, and investigative leads are furnished to 
the law enforcement community by identifying suspected traffickers.
    During fiscal year 1996, approximately 116,674 requests for 
firearms traces were processed, an increase of 46 percent from fiscal 
year 1995. Urgent traces are usually completed within minutes and 
facilitated by our electronic links to industry.
Youth Crime Gun Interdiction Initiative (YCGII)
    This initiative was designed to identify the sources of firearms 
supplied specifically to juveniles and to target traffickers who 
acquire and provide guns to juveniles. With the newly developed Project 
LEAD investigative analyses, the Bureau will begin to trace juvenile 
crime guns to their sources utilizing technological improvements in 
certain select locations nationwide. In support of the YCGII, ATF 
entered into a partnership with the National Institute of Justice and 
17 police departments around the country. In support of this 
initiative, research will be conducted that will provide a 
comprehensive picture of the illegal flow of firearms to juveniles, 
juvenile crime patterns, and juvenile firearm preferences in each 
participating city. The enforcement effort will consist of ATF special 
agents and inspectors working with police departments from each 
selected city to investigate and prosecute those individuals that are 
identified as illegally supplying firearms to juveniles. The research 
results concerning trends in juvenile crime and the juvenile firearms 
market will be published at the conclusion of the initiative.
              safeguard the public from bombing and arson
    The projects under this program focus on identifying and deterring 
sources and pursuing the criminal misuse of explosives material and 
fire. Projects include: Preventing Criminal Misuse of Explosives, 
including Trace Element (Detection), Stolen Explosives and Recovery, 
Profiling, Canine, Interdiction, Explosives Incident System, Tracing, 
Dipole Might (Pipe Bomb Study), Certified Explosives Specialist; Arson 
Audits; Asset Forfeiture; Investigation (Post Incident Response), 
including National Response Team, International Response Team, 
Explosives Technology and the Fire Facility. Consistent with our 
jurisdiction, ATF:
  --Assists State and local authorities with any arson investigation, 
        falling under Federal jurisdiction, and having a significant 
        impact on their community, especially when the nature or 
        magnitude of the problem extends beyond the investigative 
        jurisdiction or resource capability of such authorities.
  --Provides training to other Federal, State, and local enforcement 
        agencies relative to the detection and investigation of arson 
        over a broad spectrum of arson-oriented topics, with special 
        emphasis on arson-for-profit schemes and other related arson 
        tactics employed by organized crime and white collar criminals.
  --Provides training in post-blast bombing investigation to Federal, 
        State, local and foreign law enforcement agencies.
  --In conjunction with the U.S. Army Corps of Engineers, the National 
        Security Council, and the Defense Nuclear Agency, continued to 
        participate in a project known as Dipole Might. The project is 
        designed to develop a computer software system to assist 
        investigators when processing large car bomb scenes.
    During fiscal year 1996, ATF instructors participated at numerous 
explosives and arson related training programs conducted throughout the 
country. ATF publications entitled ``Arson Investigation Guide'' and 
``Explosives Investigation Guide'' were revised, and the 1996 Arson 
Case Brief Publication was distributed.
    During the period of fiscal year 1996 there were 255 explosives-
related arrests that involved 315 defendants, 152 indictments and 294 
convictions. There were also 287 arson-related arrests which involved 
450 defendants, 81 indictments and 287 convictions. Over $29.8 million 
was saved from fraudulent insurance claims. And with ATF's 
internationally and nationally accredited laboratories, expert forensic 
support is provided on arson and explosives investigations.
Arson Program
    ATF provides vital resources to local communities in the wake of 
arson and explosives incidents. ATF pioneered the development of local 
multi-agency task forces designed to pool resources and expertise in 
areas experiencing significant arson problems. In fiscal year 1996, ATF 
led formal arson task forces in 15 major metropolitan areas throughout 
the United States, and participated in numerous others.
    Critical to the success of this comprehensive post-incident 
response is the certified fire investigator (CFI). ATF CFI's are the 
only investigators trained by a Federal law enforcement agency to 
qualify as expert witnesses in fire cause determinations. The 
Department of Justice recently requested that ATF provide basic arson 
familiarization training to the FBI and Department of Justice 
prosecutors concerning the church fire investigations. In fiscal year 
1996, there were 54 CFI's stationed throughout the United States. 
Fifteen of those CFI's completed the 2-year training process and were 
certified in fiscal year 1996, and an additional 29 CFI candidates were 
in the initial stages of training and will be fully certified in fiscal 
year 1998. ATF CFI's have played a major role in the church arson 
investigations, and assisted with the fire investigation at the 
Department of Treasury Building in June, 1996.
    In fiscal year 1996, ATF:
  --Hired four additional explosives enforcement officers and the first 
        of two full-time fire protection engineers (FPE's), making ATF 
        the only Federal enforcement agency that employs this level of 
        expertise. ATF's FPE's are dedicated solely to the analyses of 
        origins and dynamics of fire as it pertains to criminal 
        investigations. ATF also trained 24 special agents as certified 
        explosives specialists.
  --Developed a prospectus covering the creation of a Fire 
        Investigation, Research and Education (FIRE) Center that will 
        be constructed in partnership with an institution of higher 
        learning. This facility will be co-located with and be a part 
        of ATF's relocated National Laboratory Center, and will focus 
        on forensic investigative support.
  --At the direction of Congress, the Department of Treasury and ATF 
        initiated a four-part Explosion Prevention Study. This study 
        will continue to explore the feasibility of placing tracer 
        elements in explosives materials for the purpose of detection 
        and identification.
Accelerant and Explosives Detection Canine Project
    ATF pioneered development and usage of canines to detect 
accelerants at suspected arson scenes in the early 1980's. This 
project, utilizing the ATF National Laboratory, has developed 
scientifically validated canine training methodologies and protocols.
    These accelerant detection canines are made available to State and 
local police and fire agencies across the country. At the present, 
there are 46 working accelerant-detecting canines teams nationwide that 
are trained and certified by ATF. Recertification of the canines is 
done annually. There are an additional 115 ATF certified canines in 7 
foreign countries through an agreement with the Department of State.
    ATF also utilizes scientifically validated training methods and 
protocols in its canine explosives detection program. ATF is expanding 
its canine explosives detection program to provide canine explosives 
detection training for State and local law enforcement agencies.
    ATF has received funding for the construction and expansion of its 
canine training facility. ATF is using the funding to expand its 
infrastructure and for the construction of a new canine training 
building and a new kennel facility. ATF will be expanding its cadre of 
explosives detection canine teams and will place these teams throughout 
the country.
    Finally, ATF has been authorized to develop explosive K-9 
standards.
Church Arson Investigations
    Since January 1, 1995, ATF, in conjunction with the National Church 
Arson Task Force, has investigated 349 church fire incidents. As a 
result of these investigations, 159 defendants have been arrested, 
clearing a total of 115 incidents. This represents a 33 percent 
clearance rate of church arsons by the task force, which is more than 
twice the average clearance rate of 16 percent for arson 
investigations.
    In May 1996, the U.S. House of Representatives' Judiciary Committee 
held hearings on the church fires. ATF's participation in the hearings 
led to supplemental funding for fiscal year 1996 and fiscal year 1997 
totaling $24 million.
    ATF was instrumental in the development of the Major Case Team that 
has addressed the church fire investigations. The Major Case Team is 
collocated with the National Church Arson Task Force, and has a current 
staffing level of 12.
    ATF developed a Church Threat Assessment Guide, and distributed 
over 30,000 copies. An additional 250,000 copies of these guides were 
distributed by the Federal Emergency Management Agency.
    ATF implemented the 1-888-ATF-FIRE and 1-888-ATF-BOMB phone 
numbers. These national hotline numbers were developed and implemented 
in order to allow the public to phone in possible leads in these 
investigations.
National Response Team (NRT)
    In fiscal year 1996, the NRT's provided effective post-incident 
response in 22 activations and obligated funding for the purchase of 6 
replacement NRT vehicles, which will further enhance response 
capabilities. These vehicles will be ready beginning in March. ATF will 
order 10 additional vehicles to replace all antiquated and poorly 
designed vehicles (1981-1983). The NRT was utilized for the crime scene 
efforts in the Olympic Centennial Village bombing and the TWA Flight 
800 investigations.
    ATF also maintains an International Response Team (IRT), formed as 
a result of an agreement with the Department of State. The team has 
been deployed to such countries as Peru, Argentina, Pakistan, El 
Salvador, and Macedonia. The IRT was activated for two incidents in 
fiscal year 1996.
                       imprison violent offenders
    This program focuses on the investigation, arrest and 
recommendation for prosecution, of those criminals who violate firearms 
and explosives laws in their criminal activity. Programs/projects that 
fall under this activity include: Achilles, Task Forces and Project 
Uptown; CEASEFIRE; and the Violent Offenders Program.
CEASEFIRE
    In response to the growing need for Federal assistance in 
communities experiencing serious gang and drug-related shooting 
incidents, ATF initiated a comprehensive enforcement approach entitled 
CEASEFIRE. This approach to repetitive violent crime combines all of 
our firearms assets--tracing, trafficking program, violent offender 
program, and our Achilles program experience with the latest forensic 
technology. At the heart of the program lies the Integrated Ballistic 
Identification System (IBIS), which is a computer imaging 
identification system capable of assisting the firearms examiner in 
linking firearms to expended ammunition and multiple shooting 
incidents. It also allows investigators to link shootings in one city 
to shootings involving the same weapon in another. The system does not 
replace the firearms examiner, but helps find the proverbial needle in 
the haystack in seconds rather than what used to take weeks and 
sometimes months.
    CEASEFIRE has yielded significant results in violence-plagued 
communities across the country. ATF fully expects this project to 
continue to contribute significantly to the identification of homicide 
and shooting suspects and the linking of related gangland shootings. 
During fiscal year 1996, CEASEFIRE was able to expand to an additional 
10 sites. This allows 12 out of our 21 field divisions do not have this 
equipment on site.
    Laboratory personnel provide day-to-day technical support, give 
demonstrations of the technology, assist new users, work with the 
manufacturer on system improvements, and maintain a leadership role in 
a newly established users group.
    Detroit, MI.--A firearm taken into custody for a traffic stop was 
test fired and entered into IBIS. An ATF examiner working with the 
local police to help clear the backlog of cases matched it to a October 
1996 murder. Detroit police have said that they could not have linked 
the two incidents without IBIS. One suspect is in custody and three 
additional suspects have been identified.
    Washington, DC.--In January 1996 the CEASEFIRE program in 
partnership with the Metropolitan Police and using IBIS technology were 
able to link a 1992 shooting with a suspect who was taken into custody 
on an unrelated assault charge.
The Achilles Program
    The Armed Career Criminal and Comprehensive Crime Control Act of 
1984 provided the cornerstone of ATF's national firearms project known 
as ``Achilles''. ATF has experienced tremendous success with the 
enforcement of Title 18 U.S.C. section 924 and 924(e), which provide 
for mandatory minimum sentencing of recidivist criminals and armed 
narcotics traffickers. The Achilles Project is particularly effective 
in removing the most violent criminals from our communities, and in 
many cases, for the remainder of their crime-producing lives. Achilles 
Task Forces have been established in 20 major United States cities. The 
task forces, comprised of ATF special agents and inspectors, often with 
assigned State and local officers, work in targeted neighborhoods where 
the highest incidents of gang-related violence, drug trafficking, 
homicides, and other violent crimes occur.
    The Achilles Project impacts on armed violent crime by 
incarcerating that percentage of active career criminals who are 
responsible for a majority of the violent crimes. From fiscal year 1989 
through fiscal year 1996 there have been 29,872 defendants recommended 
for prosecution for being armed drug traffickers or armed career 
criminals. In addition, 1,889 defendants have been sentenced to a total 
of 33,602 years in prison as armed career criminals; 5,275 defendants 
have been sentenced to a total of 31,738 years in prison as armed drug 
traffickers, and there have been 41 life sentences under these two 
statutes. Using the Achilles Project performance measure formula, which 
meets the requirements of the Government Performance Results Act, it 
can be shown that in just fiscal year 1996, with the incarceration of 
1,889 armed career criminals, ATF will have prevented 302,240 crimes 
and $700 million in crime-related costs that the public would have 
incurred.
Laboratory Support
    The National Laboratory supports this activity by providing 
services in the following areas:
  --Firearms and Automated Ballistics Examination.--Analytical support 
        services for activities under our Reduce Violent Crime 
        activity.
  --Explosives and Fire Debris Analysis.--Chemist members of National 
        Response Teams investigate bombings and arsons by identifying 
        explosives and device components, reconstructing devices for 
        investigative and court purposes, and developing investigative 
        information from trace evidence collected at crime scenes using 
        arson computer-based fire modeling and computer forensic data 
        recovery.
    The forensic science laboratories in San Francisco, CA and 
Rockville, MD, received notice of 5-year re-accreditations following 
inspections by the American Society of Crime Lab Directors (ASCLD), the 
leading professional organization committed to forensic science service 
for the criminal justice community.
                          collect the revenue
    ATF collects the excise taxes on alcohol, tobacco, firearms, and 
ammunition. Taxes on these controversial products generate $12--$13 
billion in Federal revenue annually.
    Under this activity there are two main strategies: Ensure 
Collection of Revenue Due, and Manage and Process Revenue.
                    ensure collection of revenue due
    This program focuses on ensuring that all revenues eligible and due 
are collected. Projects under this program are: Excise Tax Inspections 
(alcohol, tobacco and firearms); Industry Seminars; Diversion and 
Smuggling; Market Basket Sampling; and Bonding and Qualification of 
Revenue Plants.
Excise Tax Inspections
    ATF ensures that the revenue we collect remains sound by protecting 
it from fraud. There are more than 3,000 manufacturers of alcohol 
beverages, tobacco products, firearms, and ammunition who pay excise 
taxes on the commodities they produce. On-site inspections of alcohol, 
tobacco and firearms taxpayers are focused on facilities offering the 
greatest risk to revenue. With ATF's efficient post-audit system, we 
estimate that over 99 percent of the excise taxes owed to the Federal 
Government are paid through ATF in a timely fashion. Generally, the 
remainder is identified and collected through the audit process. This 
is accomplished primarily with the use of commercial records and a 
minimum of required reports or forms.
    ATF employees continuously monitor tax collections by auditing tax 
returns and assessments, initiating enforced collection action, 
analyzing required reports, and accounting for tax payments, licensing 
fees, and related refunds. ATF also reviews and acts upon applications 
and surety bonds submitted by companies that produce or sell alcohol or 
tobacco products.
    When violations of law or regulations are uncovered by ATF 
inspectors and technical specialists, the natural inclination is to get 
the problem fixed, not to prosecute in a criminal court. When 
circumstances warrant it, however, ATF's regulatory enforcement 
inspectors forward the information to the criminal enforcement agents, 
then assist in the prosecution of the criminal case.
Diversion Project
    ATF's regulatory oversight protects the Federal Government's 
revenue through compliance inspections of the manufacturers and 
importers of alcohol beverages, tobacco products, firearms, and 
ammunition. These inspections include investigating the diversion of 
export alcohol beverages and cigarettes withdrawn from the 
manufacturers' inventories without payment of tax.
    During recent years, the Canadian government and certain State 
governments have imposed higher excise taxes on alcohol and tobacco 
products. The imposition of these taxes created a lucrative black 
market primarily dominated by white collar and organized crime groups.
    ATF discovered that alcohol and tobacco products, originally 
destined for overseas countries, were being diverted, without payment 
of taxes, from the United States to Canada. Parts of the shipments were 
illegally diverted and smuggled into Canada to avoid the payment of the 
high Canadian excise taxes. Other portions of the shipments were found 
in the United States Had the products remaining in the United States 
gone undetected, the excise tax revenue would have been lost.
    In similar circumstances, tax-paid products have been smuggled into 
Canada as well as from state to state in the United States to avoid the 
payment of the higher-rate State excise taxes in violation of Federal 
law. Domestic and international alcohol and tobacco diversion is 
becoming a target area for ATF enforcement priorities as it increases 
globally.
    The seizure of alcoholic beverages and tobacco products by ATF 
agents and inspectors in 1996 has resulted in over $804 thousand being 
credited to the Asset Forfeiture Fund. Also, through our efforts, 
several members of the organized crime groups have been successfully 
prosecuted and in fiscal year 1996, ATF accepted $107,000 in 
settlements from subject distilleries and wholesalers to compromise 
their illegal involvement in diversion activity. There are currently 
146 open diversion cases.
    Approximately $2.7 million was assessed by ATF against entities who 
evaded payment of excise taxes by diverting alcohol and tobacco 
products. ATF's combined assets of regulatory inspectors, auditors, 
special agents, intelligence analysts, and tax specialists have enabled 
ATF to detect current and prevent future erosion of the revenue, 
particularly in the area of product diversion.
    The National Laboratory, with several functions unique to ATF, 
supports this project in the following ways:
  --Beverage Alcohol Analyses.--Chemical analysis is performed on 
        alcoholic beverages produced in the United States or imported 
        into the United States. Examinations verify that products meet 
        legal requirements and reveal whether contaminants such as 
        pesticides or toxic materials are present. New products are 
        evaluated to determine how much tax is to be levied.
  --Non-beverage Alcohol Program.--Chemical analysis of non-beverage 
        alcohol products is performed to determine taxes owed. 
        Technical evaluation of applications are conducted for new 
        products containing taxable alcohol. These non-beverage alcohol 
        products include foods, flavors, medicines, cosmetics, and 
        industrial solvents. Over 10,000 new product formulas and 
        samples are examined each year.
  --Tobacco Analysis.--Chemical analysis and physical examination of 
        new tobacco products to establish tax classification are also 
        conducted. Examinations of existing products ensure that ATF 
        collects the proper amount of tax revenue each year.
                       manage and process revenue
    This program focuses on developing systems and processes to ensure 
that revenues received and paid out are effectively and timely managed. 
Projects under this program include: Tax Return and Claims Processing 
including Technical Services and the Tax Processing Center. This 
oversight is done with minimum impact on commercial operations.
    ATF ensures the collection of Federal excise tax and protection of 
the revenue through a system of laws, regulations, tax returns, 
permits, bonds, and disbursement (refund) functions in accordance with 
the Internal Revenue Code of 1986. The Bureau collects, records, and 
accounts for a variety of taxes and registration and license fees from 
alcohol, tobacco, firearms, ammunition and explosives industries. None 
of the non-entity revenue collected by ATF is used in any Bureau 
operations; all funds are transferred to the U.S. Treasury or other 
Federal agencies for further distribution in accordance with the 
various laws and regulations.
    Management of taxpayer accounts and the proper receipt of tax 
returns and payments ensures accurate collections and reporting of all 
receivables. ATF's collection systems include work by the technical 
services staffs located in the districts and the Tax Processing Center 
in Cincinnati, Ohio. Principal activities of these entities include 
office audits of tax returns and reports, audits of claims, and 
collection actions, review and approval of applications for permits, 
registration of plants and surety bonds, and processing and custody of 
official case files.
    ATF has begun the process of reducing the number of technical 
services offices, leading to a single revenue center in Cincinnati 
serving the whole country, which will be in place by 2001. In 
accomplishing this, ATF plans to maintain or enhance customer service 
and revenue protection despite an overall reduction in resources 
allocated to these functions.
                           protect the public
    There are three programs under this activity: Community Outreach, 
Protect the Consumer, and Public Safety.
                           community outreach
    The focus of this strategy is community efforts designed to 
encourage and participate in the prevention of violence including the 
Gang Resistance Education and Training (GREAT) project.
    G.R.E.A.T. is a school-based gang and violence prevention program 
taught by uniformed law enforcement officers to elementary and middle 
school children. ATF administers the program in partnership with the 
Phoenix Police Department, the National Sheriffs' Association, the 
International Association of Chiefs of Police, and the Federal Law 
Enforcement Training Center (FLETC).
    The Bureau anticipates providing funding to 44 different localities 
to support their participation in the G.R.E.A.T. project. We estimate 
that over 800 different localities are currently teaching the 
G.R.E.A.T. curriculum in classrooms around the country. In addition to 
providing financial resources, ATF also provides training to law 
enforcement officers, certifying them as G.R.E.A.T. instructors.
    This program has been highly successful in educating young children 
about the dangers of gangs and violence. A cross-sectional evaluation 
conducted by the University of Nebraska in Omaha was completed in 1996 
and concluded that the G.R.E.A.T. project has had a significant, 
positive impact on the participants.
                          protect the consumer
    The focus of this program is to ensure that commodities meet safety 
and product identity standards. Projects under this program include: 
Certificates of Label Approval, Market Basket Sampling, Industry and 
State Partnerships, Trade Practices, Beverage Alcohol Permits and Field 
Product Integrity.
    An important part of the ATF mission is its focus on protecting the 
consumer. The authorization for this focus and oversight is based on 
the Federal Alcohol Administration Act (FAA Act). Passed in 1935, just 
after the repeal of Prohibition, the FAA Act gives ATF the power to 
regulate and prevent many of the industry excesses that led to 
Prohibition in the first place. This law, along with portions of the 
Internal Revenue Code, requires ATF to regulate the labeling and 
advertising of malt beverages, wine, and distilled spirits.
    ATF prevents organized crime and other criminal elements from 
entering the alcohol beverage industry through the regulatory process. 
This includes the pre-screening of permit applications and the 
financial investigation of applicants.
    ATF is committed to helping the consumer directly and immediately 
by monitoring possible health hazards and investigating consumer 
complaints of tainted or adulterated alcohol beverages. Consumers are 
also helped indirectly by ATF's regulation of trade practices within 
the alcohol beverage industry. This regulatory activity ensures a level 
playing field for industry members and contributes to consumer values 
in the market.
    Finally, a continuing liaison relating to alcohol beverages is 
maintained between the United States and its foreign trading partners. 
ATF is required not only to know the United States laws relating to 
beverage production, marketing, and trade, but also the parallel 
policies of major foreign nations. This liaison helps to reduce or 
eliminate trade barriers for United States businesses selling their 
products in foreign markets.
                             public safety
    This program focuses on keeping ineligible or prohibited persons 
out of the regulated industry and ensuring that firearms and explosives 
are properly accounted for. Program/projects include: Licensing 
(firearms and explosives); Investigations (firearms and explosives 
applications); Explosives Inspections; and Fire Facility.
Firearms Licenses and Inspections
    The Bureau is responsible for enforcing the licensing provisions of 
the Gun Control Act of 1968 (GCA). This law imposes licensing 
requirements on firearms manufacturers, importers, collectors, and 
dealers. In order to ensure that these requirements are met, ATF 
conducts a thorough inquiry with respect to each applicant. In the 
past, the GCA contained less stringent standards for acquiring a 
firearms license. However, recent changes in law and regulation have 
resulted in several additions to licensing requirements. ATF works to 
ensure compliance with present firearms licensing requirements. ATF 
implemented procedures to require more reliable forms of 
identification, such as fingerprints to assist in identifying any 
criminal history. In addition, the November 30, 1993, enactment of the 
Brady Handgun Violence Prevention Act increased the licensing fee for 
dealers from $30 to $200 for 3 years and from $30 to $90 for a renewal 
application.
    Licensing standards were further enhanced by the enactment of the 
Violent Crime Control and Law Enforcement Act of 1994 (the Act). 
Provisions of the Act require that applicants for a license certify 
that they will comply with all State and local laws, including zoning 
requirements. In addition, applicants are required to notify the chief 
law enforcement officer of where their premises are located, and of 
their intent to apply for a Federal Firearms License (FFL).
    As a result of the recent changes in law, there has been a dramatic 
decrease in the population of licensed dealers. As of February 19, 
1997, there were 119,708 licensees in this Nation. ATF has fewer than 
450 regulatory inspectors to monitor this program and conduct all other 
field inspections, including the entire range of alcohol, tobacco, and 
explosives work.
    During fiscal year 1996 ATF received 6,460 new firearms license 
applications and inspected 6,385 on-premise firearms license dealers. A 
total of 21,795 telephone renewal applications occurred. A total of 
10,051 on premise compliance inspections resulted in 7,026 violations 
being disclosed.
Explosives Licenses and Inspections
    As important as it is to put arsonists and bombers in jail, ATF 
recognizes the value of averting accidents and keeping explosives from 
the hands of those who are prohibited from possessing them. ATF's 
regulatory enforcement provides a system of industry regulation 
emphasizing a proactive approach to the problem. Similar to the 
requirements for firearms, all manufacturers, importers and dealers are 
required to obtain a Federal license from ATF to conduct business, and 
certain users of explosives are required to obtain a Federal permit.
    ATF regularly conducts on-site inspections to ensure that 
explosives are stored in approved facilities, which are secure from 
theft and located at prescribed distances from inhabited buildings, 
railways, and roads. One important focal point of this function is to 
correct violations before inspection, leading to reducing the threat to 
the public.
    During fiscal year 1996, ATF conducted 957 on-premise explosives 
application inspections. A total of 2,813 on-site compliance 
inspections of permit holders were conducted and 1,238 violations were 
found.
                misdemeanor crimes of domestic violence
    The Omnibus Consolidated Appropriations Act of 1997 (the Act) 
effective September 30, 1996, made several amendments to the Gun 
Control Act of 1968. One of those amendments was to make it unlawful 
for any person convicted of a ``misdemeanor crime of domestic 
violence'' to ship, transport, possess, or receive firearms or 
ammunition.
    The amendment also applies to employees of government agencies. 
Thus, law enforcement officers and other government officials who have 
been convicted of a qualifying misdemeanor will not be able to lawfully 
possess or receive firearms or ammunition for any purpose including 
performing official duties.
    ATF has notified all Federal firearms licensees and all Federal, 
State and local law enforcement agencies of this new category of 
prohibited persons. ATF has also modified all forms used by Federal 
firearms licensees to include this prohibited person category.
                 current information technology support
    In fiscal year 1996, ATF developed a concept for the acquisition 
and deployment in fiscal year 1997 and fiscal year 1998 of 
infrastructure equipment, integrated networks, and operating and 
applications software forming an ``Enterprise Systems Architecture'' 
capable of providing automated information gathering and information 
sharing capabilities to aid ATF's investigative and regulatory business 
strategies and activities. When deployed in late fiscal year 1997 and 
early fiscal year 1998, this technology will improve access to critical 
data sources throughout ATF dealing with violent crimes, gun tracing, 
regulated industry data and performance data. All employees will, for 
the first time, have access to the data they need, where and when they 
need it.
    The Enterprise Systems Architecture is a mix of hardware and 
operating software that forms the infrastructure on which a virtual 
office of continually evolving application services will be installed 
to support ATF's Firearms, Arson and Explosives, Intelligence, 
Integrated Ballistics Identification, Collections, Financial 
Management, and Personnel and Performance Measurement systems.
    The infrastructure consists of:
  --a ``backbone'' communications network capable of transmitting and 
        sharing data instantaneously within and among organizational 
        segments via local, metropolitan, and wide area networks;
  --deployment of a mix of desktop and notebook personal computers with 
        simultaneous delivery of training in their use to ATF's 
        approximately 4,000 employees;
  --a standardized suite of software consisting of operating systems, 
        telecommunications software, database management systems, 
        applications development tools, etc.; and
  --upgrades to ATF's mainframe computer so that it can continue to be 
        the host platform for legacy applications, provide a base for 
        client/server applications, and provide archival data storage 
        for recovery purposes for all servers in the configuration.
    These infrastructure and application services developed within or 
under contract for ATF have been designed to meet ATF's core business 
strategies, as well as meet information systems security requirements 
and Year 2000 compliance requirements.
    In fiscal year 1997, ATF will be able to:
  --purchase mainframe computer upgrades including robotics for virtual 
        unattended operation; and
  --create an Enterprise Systems Architecture office to work with the 
        Information Technology Standards Working Group, the Information 
        Resources Management Council, the Information Technology 
        Advisory Board, and the Strategic Management Team, to apply a 
        3-year lease acquisition strategy for deployment of the 
        Enterprise Systems Architecture by late fiscal year 1997/early 
        fiscal year 1998.
                            training efforts
    With the support of this Committee, the Bureau has undertaken a 
number of new training initiatives and enhancements to existing 
training programs. We have allocated additional resources to support 
our training efforts and have focused primarily on arson, explosives, 
and firearms training projects. We have increased the number of post-
blast and general explosives proficiency training courses, increased 
the number of firearms trafficking schools (with an added emphasis on 
international firearms trafficking), revised our arson training 
curriculum and undertaken to train additional personnel as Certified 
Fire Investigators (CFI's), and enhanced our leadership development 
programs.
    Concurrent with these efforts and with the support of the 
Department of State, we continue to conduct post-blast and firearms 
trafficking training for international law enforcement officers in both 
Eastern Europe and Latin America.
    One of the Bureau's statutory mandates is to undertake the training 
of State and local law enforcement personnel. To this end, we conduct 
courses in firearms trafficking, post-blast explosives, arson, and 
undercover techniques for these personnel. Utilizing funds provided in 
fiscal year 1997, we have undertaken development of an Improvised 
Explosive Device (IED) training curriculum for delivery to State, 
local, other Federal, and airline industry personnel.
    In addition to our classroom activities, we have also pursued a 
number of systemic changes designed to improve the quality and 
effectiveness of our training programs. We have completed and 
implemented an ATF Training Model, which establishes standards and 
protocols for the development and delivery of ATF training. We have 
also initiated curriculum re-engineering efforts, particularly with 
regards to some of our arson training courses, designed to achieve 
formal accreditation of our educational efforts. Our recently 
implemented instructor development system is designed to enhance the 
skills and techniques of ATF instructors, thereby elevating the quality 
of the training courses ATF delivers. Finally, we have undertaken 
revisions in the methods by which we identify and select personnel to 
receive training to ensure compliance with legal mandates. Training 
must be a continuing process.
                      equal employment opportunity
    Three major cross-cutting issues dealing with training, 
recruitment, and supervisory accountability are presently being 
addressed by focus groups and members of the Executive Staff.
    I am proud of the significant progress we have made in the area of 
career advancement for women and minorities. For example, in 1987, 
women held only 5.4 percent of GS 13-15 positions in ATF; in 1996, that 
figure was 17 percent. Gains were also made in SES positions. In 1987, 
there were no women in SES positions; in 1996, women represented 14.8 
percent of the SES cadre. Minorities hold 7.4 percent of SES positions.
    We have also increased the number of female and minority special 
agents in our work force. In 1982, the Bureau employed only 23 female 
special agents; by 1988, that number had risen to 116; and by 1996, ATF 
had a total of 216 female special agents, or 12 percent of the total, 
up from 7.9 percent in 1988 and 1.8 percent in 1982. Similarly, we have 
steadily increased the number of minority special agents in recent 
years. In 1982, ATF employed only 63 minority special agents; in 1988 
that number increased to 201; and by 1996, we had a total of 357 
minority special agents, or 19.1 percent, up from 5 percent in 1982 and 
14 percent in 1988.
ATF Early Complaint Resolution Program (ECRP)
    On December 3, 1996, ATF established an 18 month pilot Early 
Complaint Resolution Program (ECRP). This program is designed to help 
parties involved in the Equal Employment Opportunity (EEO) Complaint 
process resolve their differences through the use of Alternative 
Dispute Resolution (ADR) techniques, primarily during the pre-
complaint/counseling stage of the process. The program is completely 
voluntary and the mediator cannot impose a decision on the parties. 
Participation in the ECRP does not jeopardize an aggrieved party's 
right to pursue formal EEO procedures if no resolution of the dispute 
is achieved. This program has the potential to improve morale and 
significantly reduce the time and costs associated with traditional EEO 
procedures.
Professional Review Board and ATF/NTEU Partnership
    Illustrating our commitment to ensuring a fair and equitable 
workplace for our employees, ATF established a Professional Review 
Board (PRB) and the ATF/NTEU Partnership Council.
    The PRB addresses issues of timeliness and consistency in 
disciplinary actions for all non-bargaining unit employees. Working 
with the Employee and Labor Relations Branch and Chief Counsel, the PRB 
(composed of senior Headquarters managers representing a cross section 
of the Bureau) determines and issues proposals for disciplinary and 
adverse actions resulting from Office of Inspection investigations.
    The ATF/NTEU Partnership Council, which meets on a quarterly basis, 
provides a forum to address and resolve issues of mutual concern 
between ATF management and the National Treasury Employees Union. In 
the almost 2 years since its inception, the Council has worked together 
in reaching solutions to Bureau-wide issues. Feedback received from the 
facilitator who works with our Council, as well as those of other 
Federal agencies, indicates that ATF's partnership is the most 
productive and successful organization of its type in its experience.
                 management and administrative efforts
    Several other administrative and management initiatives are 
noteworthy. They are in the areas of security, field structure, 
accountability, and customer service plans.
    As a result of the Oklahoma bombing, ATF was provided funding to 
enhance physical security, both in the field and at Bureau 
Headquarters. Immediate steps were taken to safeguard employees, and 
plans are underway to relocate Bureau Headquarters so that we may have 
more control over our security. In addition, a number of security 
enhancements have been scheduled for our field installations following 
a security needs survey. For example, we are placing X-ray machines in 
facilities that receive a high volume of mail.
    ATF continues its drive to become a customer focused organization, 
which is directly in line with the guiding principles of our strategic 
plan:
  --We created a new position in the Office of the Ombudsman to 
        develop, support, and oversee a problem resolution program for 
        external customers.
  --We established the new position of Customer Service Specialist at 
        the Firearms and Explosives Licensing Center in Atlanta and 
        Technical Services in Cincinnati.
  --Annually, we publish customer satisfaction reports telling our 
        customers how well we did in meeting our previously published 
        service standards.
  --Several groups within ATF, including our labeling section, have 
        sent their customers surveys, the results of which are used to 
        improve service. More groups, including our National Response 
        Teams, will be surveying their customers this year.
    This completes my statement. I will be happy to answer any 
questions you may have and I would like to express my sincere 
appreciation of the support that your Committee has provided us. I look 
forward to working with your Committee to further our mutual goals of 
safeguarding the public and reducing violent crime.

                          U.S. Customs Service

STATEMENT OF GEORGE WEISE, COMMISSIONER
    Senator Campbell. I just noticed I had skipped over George 
Weise, U.S. Customs Service.
    So, George, I apologize, go ahead.
    Mr. Weise. Thank you very much, Mr. Chairman and Senator 
Kohl. It is, indeed, an honor to come before you and describe 
the work of the U.S. Customs Service. I would like to join my 
colleagues and take this opportunity to thank you and this 
committee for your outstanding support and to assure you that 
we will continue the high-quality performance which has earned 
your backing.
    Customs' fundamental mission, as you indicated in your 
opening statement, is to protect the Nation's borders. We 
enforce hundreds of tariff and trade laws and regulations. We 
perform the initial checks, processes, and enforcement 
functions of over 40 other Federal agencies and we collect over 
$20 billion in revenue in the form of taxes, duties, and fees.
    We have many responsibilities in Customs, but I want it to 
be made clear that none is more important than the task of 
preventing illegal drugs from crossing our borders. Drug 
interdiction has been and is our greatest operational priority. 
Last fiscal year we seized over 1 million pounds of illegal 
narcotics--a Customs record.
    Our seizures of cocaine, heroin, and marijuana rose sharply 
from the previous year: 15 percent for cocaine, 23 percent for 
marijuana, and 20 percent for heroin. These figures are 
impressive, but they are by no means signs that we, as a 
nation, are making major inroads against the cartels who 
continue to flood our communities with drugs and all too often 
deprive these communities of hope and fill them with crime.
    All of us in the drug law enforcement business can do a 
better job and Customs, notwithstanding last year's success, is 
no exception. I believe that the $641 million we have requested 
for our antidrug efforts in fiscal year 1998 will enable us to 
better combat drug smugglers.
    With these funds we will be able, for example, to conduct 
more antismuggling operations; to employ new technology, some 
of which you have seen in the room today, that will allow us to 
more efficiently and more effectively use our resources; to 
devote more personnel to high-threat drug zones; and, finally, 
to shore up our infrastructure.
    Inextricably related to Customs' interdiction mission is 
our focus on promoting integrity within our ranks. We are 
keenly aware of the threat of corruption and we are continually 
introducing new programs and procedures to prevent corruption 
and to quickly detect it when it occurs. Our Office of Internal 
Affairs continuously reevaluates security controls, regularly 
conducts extensive integrity training, and is in the process of 
improving our data base so that we can identify trends and, in 
essence, find rotten apples before they do any damage to the 
rest of the barrel.
    Our $1.7 billion budget request for fiscal year 1998 not 
only will help us in the fight against drug smuggling but will 
ensure adequate funding for all of our operations. Our capacity 
to deliver to the American taxpayers the high-quality services 
they expect and deserve depends on maintaining a well-equipped, 
reliable infrastructure.
    Let me thank you again for your support and I will be happy 
to answer any questions at the end of the testimony.
    Thank you, Mr. Chairman.

                           prepared statement

    Senator Campbell. Thank you, Mr. Weise. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
                 Prepared Statement of George J. Weise
    Mr. Chairman and Members of the Committee, it is a pleasure to be 
here today to discuss the activities of the Customs Service and to 
present our appropriation request. Once again, I am looking forward to 
working with this Committee and am confident that Customs will continue 
to enjoy the same high level of support it has received in the past. 
Accompanying me today are members of Customs executive management team.
    Our resource requests, our priorities, and our commitment are all 
derived from our mission, which is to ensure that goods and people 
entering and leaving this country conform to all applicable laws. In 
fiscal year 1998, while challenges facing Customs will continue to grow 
in complexity and scope, our greatest operational priority will 
continue to be drug interdiction and the dismantling of drug smuggling 
organizations. In fiscal year 1996, Customs cocaine seizures increased 
approximately 15 percent from the previous year, heroin seizures 
increased approximately 29 percent and marijuana and hashish seizures 
increased approximately 23 percent. Overall, Customs seized 
approximately one million pounds of narcotics--more than all other 
Federal law enforcement agencies combined. This is a new milestone for 
the agency.
    As you are aware, however, the job is not finished. Illegal 
narcotics and other contraband continue to find their way into the 
United States. To meet the drug challenge and our projected workload, 
we are proposing a budget of $1.7 billion for fiscal year 1998 which 
includes funding for anti-smuggling operations, land border automation, 
laboratory upgrades, personnel relocation and vehicle replacement. 
These resource increases, which I will discuss in more detail later in 
this statement, will contribute to refining our core processes and 
strategies.
                                workload
    The U.S. Customs Service is accountable for the screening of all 
commercial movement of cargo across our borders. Last year, the Customs 
Service collected about $22 billion in revenue for the United States in 
the form of duties, taxes, and fees. The Customs Service applied 
hundreds of laws and regulations concerning tariff and trade to over 16 
million entry summaries which involved nearly $800 billion of trade. 
Additionally, Customs performs the initial checks, processes, and 
enforcement functions for over 40 federal agencies. Customs performs 
these tasks by covering over 7,000 miles of land border and servicing 
over 300 ports of entry.
    Customs will have to address increasing workload requirements as 
the number of passengers and conveyances crossing our land borders or 
entering through our airports and seaports grows. In fiscal year 1997, 
it is estimated that there will be 372 million land border passenger 
arrivals, 71 million air passenger arrivals, and 8 million sea 
passenger arrivals. Customs also estimates that 125 million vehicles, 
713,000 aircraft, and 110,000 vessels will enter our ports. As trade 
and traffic increase, Customs must remain ever vigilant against drug 
smuggling attempts.
                        processes and strategies
    The Customs Service reorganized in fiscal year 1995 with the 
principles outlined in their report, People, Processes and 
Partnerships: A Report on the 21st Century. This effort, which was 
recognized by the General Accounting Office (GAO) as a model in their 
guide ``Effectively Implementing the Government Performance and Results 
Act,'' provided the framework for Customs to develop the processes and 
strategies it will need to adapt to the changing demands of its 
mission.
    Customs has three core operational processes: Trade Compliance, 
Passenger Processing, and Outbound. The goal of the Trade Compliance 
process is to maximize compliance with Customs trade laws while 
decreasing the cycle time for releasing legitimate cargo in an 
environment in which our workload is expected to balloon, and in which 
we must address effective interdiction objectives which I will discuss 
shortly. Customs expects to achieve this through a balance of informed 
compliance and targeted enforcement that will allow us to focus 
resources on violators of import laws and regulations. The goal of 
Passenger Processing is to ensure compliance with Federal laws and 
regulations by targeting, identifying, and examining high-risk 
travelers, while expediting low-risk travelers. The Outbound Process is 
responsible for the enforcement of laws concerning the export of 
undeclared currency, the illegal export of stolen vehicles, munitions, 
dual use materials with military applications, and precursor materials. 
Outbound is also charged with the high profile responsibility to 
enforce embargoes against countries sanctioned for supporting 
terrorism. Other responsibilities of Outbound include the maintenance 
of the Office of Defense Trade Control (ODTC) munitions license 
program, and the collection of outbound trade statistics and harbor 
maintenance fees on exports. Inherent in Customs processes are the 
Narcotics and Money Laundering strategies which deal with those who 
willfully violate the law.
                       customs narcotics strategy
    Customs goal is to prevent the smuggling of narcotics into the U.S. 
by creating an effective interdiction, intelligence, and investigation 
capability which also helps to disrupt and dismantle smuggling 
organizations. Proactively, Customs developed four objectives as part 
of its overall narcotics strategy. The purpose of these objectives is 
to provide to Customs enforcement officers the tools and systems they 
need to improve their ability to interdict narcotics. Through the 
various initiatives and programs which I will highlight, it is clear 
that Customs is making progress in its efforts to combat the illegal 
flow of drugs.
    Customs first objective is the development, collection, analysis 
and dissemination of actionable intelligence throughout all levels of 
federal, state, and local narcotics enforcement agencies. Customs has 
been at the forefront in developing more useful intelligence, 
especially as it relates to the Southwest Border.
    A second objective of our narcotics strategy is the development and 
dissemination of information to trade and carrier communities to 
prevent the use of cargo containers and conveyances by smuggling 
organizations. One program which is helping Customs meet this objective 
is the Business Anti-Smuggling Coalition (BASC). In March 1996, BASC, a 
business-led, Customs-supported alliance, was created to eliminate the 
use of legitimate business shipments by narcotics traffickers to 
smuggle illicit drugs. BASC is currently being prototyped at the ports 
of San Diego, Miami, and Laredo. The Border Trade Alliance, Mattel and 
32 other companies in San Diego, as well as Sara Lee and other 
businesses in Miami, have been working with Customs in developing the 
program. Mattel, setting an example for others, has already developed a 
comprehensive anti-drug program that has been incorporated into its 
daily business practices. BASC was recognized in the Vice President's 
report to the President on the National Performance Review as a shining 
example of how government and industry can work together.
    Two other programs which Customs has employed are the Carrier 
Initiative Program and the Land Border Carrier Initiative Program which 
enhance the movement of legitimate cargo while bolstering Customs 
enforcement posture. These programs encourage air, sea, and land border 
carriers to improve their security practices to prevent narcotics from 
getting onboard their conveyances. Participation in both programs is 
encouraging. As of January 1997, 105 air carriers, 2,870 sea carriers, 
and 800 land border carriers have agreed to participate. Over the last 
two fiscal years, participants in the Carrier Initiative Program have 
provided Customs with information that led to seizures totaling 18,437 
pounds of narcotics, as well as initiating their own foreign 
interceptions totaling 59,181 pounds of narcotics.
    Customs third narcotics strategy objective is the development and 
introduction of technologies to identify smuggled narcotics and to 
force smuggling organizations to resort to higher risk methods. Customs 
recognizes that technology plays a significant role in our ability to 
remain effective while thwarting smuggling efforts between some of the 
ports by aircraft and boats. Customs employs a wide range of 
technological tools to protect our borders.
    This year, we look forward to further enhancing the effectiveness 
and quality of support provided by our Air Program through a variety of 
initiatives. By the end of fiscal year 1997, Customs will have 
integrated seven maritime search and surveillance-configured C-12 
aircraft into our fleet. These aircraft will be deployed to our 
Aviation Branches in Puerto Rico, Miami, and San Diego.
    Consistent with direction set forth in our fiscal year 1997 
appropriations, Customs assumed the air support requirements of the 
Bureau of Alcohol, Tobacco, and Firearms. Three new Customs Air Units 
have been established in Sacramento, California; Cincinnati, Ohio; and 
Kansas City, Missouri; to ensure our support is comprehensive and 
timely. Also this year, funding was made available to retrofit two Navy 
P-3 aircraft to Airborne Early Warning (AEW) configuration for 
incorporation into our fleet during fiscal year 1999.
    New and emerging land border technologies, such as truck x-ray 
systems and License Plate Readers (LPR's), coupled with skilled 
inspectors and National Guard personnel, provide effective enforcement 
systems for identifying and isolating the smuggler or contraband, while 
expediting the flow of legitimate trade and travelers. The LPR's will 
enable our inspectors to accomplish their work without being distracted 
by entering license plate numbers into our automated law enforcement 
system. The first truck x-ray system continues to be successful at Otay 
Mesa, California. This prototype has contributed to the seizure of 
17,765 pounds of drugs, most of which were concealed in false 
compartments and other hiding places in the vehicles, not in the cargo.
    In support of examination technology, Customs has developed the 
Automated Targeting System (ATS). ATS is an expert, rule-based system 
with artificial intelligence principles. Commercial transactions will 
be run against approximately 300 rules developed by field personnel, 
inspectors, and analysts in order to separate high-risk shipments from 
legitimate ones.
    Customs involvement in various multi-agency operations has helped 
us maximize our narcotics interdiction results and meet the fourth 
objective of our narcotics strategy--the implementation of various 
proactive, reactive, and multi-agency covert and overt narcotics 
investigative programs. In addition to fortifying and enhancing our 
efforts along the Southern Tier of the United States under Operation 
Hardline, Customs is increasing its investigative emphasis in staging 
and distribution cities such as Los Angeles, Houston, Miami, Chicago, 
and New York. These efforts will do even more to disrupt the highly 
complex and sophisticated smuggling organizations that challenge our 
borders. These investigative efforts will also add to our body of 
knowledge, allowing Customs to interdict more at the border based on 
prior information. This full circle approach is what we call the 
``Investigative Bridge'' and it seeks to go beyond border interdiction 
and capitalize on the intelligence and information developed through 
investigations of smuggling organizations. This information then feeds 
our border interdiction efforts resulting in additional seizures and 
the cycle begins again.
    Two other effective vehicles for accomplishing this fourth 
objective are the High Intensity Drug Trafficking Areas (HIDTA) 
sponsored by ONDCP and the Organized Crime Drug Enforcement Task Force 
(OCDETF) sponsored by the Department of Justice. The HIDTA program 
identifies those geographic areas in the U.S. that are responsible for 
the majority of importation and/or distribution of much of the Nation's 
drug supply. OCDETF investigations also target major narcotics 
organizations. Frequently, these investigations link organization cells 
that span across the entire United States as well as source and transit 
countries.
                           operation hardline
    Over the course of several months during 1994, our Nation's 
Southwest Border ports of entry experienced a dramatic escalation of 
violence associated with narcotics smuggling attempts. Drug traffickers 
known as ``port runners'' were recklessly crashing narcotics-laden 
vehicles through Customs checkpoints along the entire land border with 
Mexico. These incidents of port running were often successful, and 
always posed great danger to border officers and innocent civilians. In 
February 1995, Customs began Operation Hardline in an attempt to 
permanently harden our ports of entry against border violence and to 
deny smugglers the use of commercial cargo as a means of introducing 
narcotics into the United States.
    Since the inception of Operation Hardline, we have fortified our 
port infrastructure, expanded our investigative activities, and 
enhanced our intelligence gathering and analysis efforts. As a result, 
our personnel are safer, better equipped, and in greater number at the 
ports of entry along the Southwest Border. Additionally, the highest 
threat areas have benefited from the acquisition of sophisticated 
detection technologies.
    Hardline has proven to be successful thus far. Port running is down 
over 56 percent from 1994 levels. In fiscal year 1996, narcotics 
seizures on the Southwest Border increased 29 percent by total number 
of incidents (6,956 seizures) and 24 percent by total weight (545,922 
pounds of marijuana, 33,308 pounds of cocaine, and 459 pounds of 
heroin) when compared to fiscal year 1995 totals. The total weight of 
narcotics seized in commercial cargo on the U.S.-Mexico border in 
fiscal year 1996 increased 153 percent (56 seizures totaling 39,741 
pounds) over fiscal year 1995.
                           operation gateway
    The Caribbean area, specifically Puerto Rico and the U.S. Virgin 
Islands, has emerged as a vital strategic location for the introduction 
and transshipment of narcotics into the U.S. and Europe. The Puerto 
Rico area, according to Customs intelligence reports, has the highest 
rate of non-commercial maritime and airdrop smuggling activity of any 
Customs area.
    On March 1, 1996, Customs initiated Operation Gateway. The mission 
of Operation Gateway is to achieve a complete and unified securing of 
Puerto Rico, the U.S. Virgin Islands, and their surrounding waters and 
airspace from narcotics smugglers. It is a cooperative plan that 
commits a sizable investment of funds, personnel, and equipment by 
Customs, with support from the Government of Puerto Rico. It is part of 
Customs overall plan to secure the Southern Tier of the U.S., from San 
Juan to San Diego.
    Since the initiation of Operation Gateway, Customs narcotics 
enforcement activities in Puerto Rico have increased dramatically. In 
comparing March 1 through the end of December 1996, to the same nine 
months in 1995, cocaine seizures have risen 44 percent. Reflecting our 
enforcement initiatives, we have increased the number of examinations 
of full inbound containers by 143 percent.
                         challenges for customs
    While Customs has experienced much success in its drug interdiction 
efforts, challenges will continue to surface. As long as drug smugglers 
are flexible, greedy, and have almost unlimited resources to draw upon, 
we must be prepared to meet all challenges.
                            money laundering
    Although drug interdiction remains our highest priority, it is by 
no means the only challenge facing Customs at our borders. Customs also 
focuses on the most significant international criminal organizations 
whose corrupt influence impacts global trade, economic and financial 
systems. Our efforts are not limited to drug-related money laundering 
but the financial proceeds of all crime.
    Customs has implemented an aggressive strategy to combat money 
laundering. Customs money laundering investigations yielded $258 
million in currency seizures in fiscal year 1996. Customs also made the 
largest cash seizure to date at the U.S. border--$15 million in Miami, 
Florida.
    Through our strategy, we will continue to enhance our asset 
identification and forfeiture capabilities with advanced training and 
the use of more sophisticated computer software for analytical 
purposes. Customs will also continue to develop information through 
interaction and training with foreign law enforcement personnel, 
prosecutors, judges, and legislators through domestic and international 
anti-money laundering awareness seminars. Finally, Customs will proceed 
to develop information on international money laundering organizations 
by participating in long-term advisor programs and cross-border 
reporting and information exchange programs pertaining to the movement 
of monetary instruments. Again, the focus will be on detecting the 
movement of all illicit proceeds, not just narcotic proceeds.
    In addition, Customs is currently working with the Financial Crimes 
Enforcement Network on a regulatory initiative to make foreign bank 
drafts reportable. This would curtail a frequently used money 
laundering technique and help investigators trace criminal proceeds 
that have been reinvested or repatriated back to the U.S.
                           border corruption
    Customs knows all too well that the agency is vulnerable to the 
threat of corruption by the very nature of its work. Customs is dealing 
with an enemy that has vast resources at its disposal--organized drug 
cartels.
    Fortunately, Customs has been able to effectively counteract 
criminal threats by two means: first, the vast majority of dedicated 
Customs employees will not and cannot be corrupted, and second, through 
the commitment of the Office of Internal Affairs (IA) to effectively 
pursue all allegations of corruption in a timely, professional and 
responsible manner.
    Incidents of corruption are isolated situations and represent a 
very small percentage of Customs employees--approximately 0.3 percent. 
But Customs will never be complacent about the threat of corruption. 
The Office of Internal Affairs assesses all allegations that are 
received and conducts investigations based on analysis and the content 
of the allegation. The Customs Service is proud of its ability to 
detect and ferret out corruption within its ranks, yet in balance, a 
number of high profile investigations and special projects have 
consistently shown that widespread corruption does not exist in 
Customs.
    In one significant investigation on the Southwest border, both 
Customs IA and the Treasury Inspector General found the reported 
corruption allegations to be unsubstantiated. In breaking new ground, 
the Customs Service requested the Federal Bureau of Investigation, as 
an independent entity, to conduct an objective outside investigation of 
existing information, reports and intelligence regarding alleged 
Customs corruption in the San Diego area of Southern California. The 
Customs Service provided complete support throughout the 17-month 
investigation. On August 22, 1996, the U.S. Attorney formally cleared 
Customs officials of allegations that they collaborated with drug 
traffickers at the Mexican border. A public announcement was made at 
the end of the investigation because of continuing media reporting of 
widespread corruption in Customs. The result of the FBI investigation 
revealed there was no basis for criminal prosecution.
    The Office of Internal Affairs training staff prepared an 
integrity/ethics course for approximately 60 train-the-trainer 
personnel. These 60 employees then provided the ethics course to 
approximately 5,800 Customs employees along the Southwest border, South 
Florida, and Puerto Rico.
    The Office of Internal Affairs is continuously reevaluating 
security controls, has initiated proactive integrity programs, and 
conducts operational investigations to minimize risks and to decisively 
deal with corruption issues. IA is also in the process of data base 
enhancements which will allow for more precise trend analysis, and 
adoption of an early assessment system to detect potential corruption 
indicators. Joint office integrity initiatives also include: the proper 
recruitment and selection of highly qualified individuals as Customs 
officers; full field investigative screening; rigorous training which 
includes integrity training and agency expectations of stringent 
standards of conduct, supported by a clearly defined table of offenses 
and penalties; and in-service ethics/integrity/bribery awareness 
training.
    We understand the American people expect all of its public 
officials and law enforcement personnel to have integrity and be 
deserving of their complete trust and confidence. Customs will continue 
to do everything it can to assure that this trust and confidence are 
not shaken. The Customs Service places the highest value on integrity, 
and no amount of corruption, when detected, is tolerated.
                         internal conspiracies
    Customs has recently been confronted with an emerging smuggling 
threat relating to ``internal conspiracy'' organizations who attempt to 
circumvent Customs targeting and examination processes by removing 
narcotics from cargo containers prior to inspection. There are 
virtually thousands of individuals, employed by the carriers, ports, 
freight forwarders, and contractors, who obtain certain information as 
to how, why, where, and when Customs examines cargo. These people are 
also knowledgeable about all the associated documentation, from entry 
through liquidation. They are the resident experts at all ports of 
entry and, if corrupt, are extremely valuable to any smuggling 
organization.
    Smugglers, working through an internal conspiracy, are able to 
modify their mode of operation each and every day depending upon what 
they see Customs doing. These criminals tailor their methods and 
techniques port-by-port. The cost to business and industry is in the 
hundreds of millions of dollars; the cost to the American people is 
even greater.
    There have been several recent Customs investigations whereby 
personnel who are working for airlines, steamship companies or seaport 
terminals have used their position and unrestricted access in ports of 
entry to engage in drug smuggling activities and/or conspiracies. When 
they successfully apply their knowledge in furtherance of criminal 
activity, i.e., drug smuggling, our border security and control is most 
vulnerable. In these types of conspiracies, the drug or other 
contraband is removed prior to our border searches. Customs is 
currently involved in several major initiatives focused on internal 
conspiracies in various areas of the country.
                 meeting the demands of increased trade
    In order to face the challenges of growing trade and reaching 
higher levels of compliance, Customs has undertaken innovative efforts 
in automation, outreach programs, and planning. These efforts are 
described below:
                         information technology
    Information technology has become a critical enabler for Customs in 
serving the public and addressing the international trade and 
enforcement issues facing our Nation. Some notable initiatives 
implemented over the past year include the Automated Targeting System 
(ATS) pilot in Newark, the Trend Analysis Prototype (TAP) interface 
pilot in Savannah, Los Angeles and Seattle, and the Remote Entry Filing 
prototype. In addition, drawback claims can now be submitted 
electronically using the Automated Broker Interface (ABI). Other 
initiatives include the expansion of the Advance Passenger Information 
System (APIS) and the acquisition of non-intrusive Truck X-Ray Systems 
and Automated License Plate Reader Systems for installation at southern 
tier ports of entry.
    As successful as the Automated Commercial System (ACS) has been 
over the years, it is just not robust enough to serve the processing 
needs of an increasingly complex trade environment. As a result, 
Customs has been working to replace the older system with a new, more 
sophisticated system called the Automated Commercial Environment (ACE).
    The hallmark of ACE is that it moves from a transaction-based 
approach to an account-based system founded on compliance measurement 
and predicated on reengineered ways of doing business. Companies 
cooperating with Customs achieve mutually beneficial outcomes including 
raised compliance, minimized data requirements at time of release, and 
ability to make payments on a periodic basis. As compliance increases, 
the cost to Customs and to trade will decrease. The benefits of this 
approach will include uniform treatment, shorter processing time, more 
efficient information collection and dissemination, and greater 
opportunities to fulfill our enforcement mission. A full scale 
implementation plan for the roll out of ACE in its entirety is due in 
November of this year.
                         trade outreach efforts
    Since passage of the Customs Modernization Act in December 1993, 
the Customs Service has engaged in extensive efforts to consult with 
the trade on how to improve Customs trade processes. All proposals to 
implement the Modernization Act are first put on the Customs Electronic 
Bulletin Board for informal comment. When needed, public meetings are 
held to explain proposals and solicit comments and suggestions. All of 
this routinely occurs before the formal Notice of Proposed Rulemaking 
is published in the Federal Register. The early consideration of trade 
concerns has resulted in better formal proposals. Drawback and record 
keeping are just two examples in which trade concerns resulted in 
vastly different formal proposals than originally contemplated. In 
addition, Customs has engaged in a major effort to improve the trade's 
compliance with Customs laws and regulations. These informed compliance 
efforts have included public meetings and seminars at the port and 
national levels, informed compliance publications on a variety of 
valuation and classification topics, videos on the textile rules of 
origin and compliance and a very informative Internet World Wide Web 
site and Electronic Bulletin Board. Our Website has been visited by 
over 5000 users in a single day. The Textile Origin video has been 
purchased by over 300 members of the trade. Over 250 copies of the 
Compliance video have been requested.
                      trade enforcement plan (tep)
    Since December 1993, all trade-related activities of Customs have 
been driven by the Customs Modernization Act, which mandated shared 
responsibility between Customs and the importing community for 
achieving maximum compliance with U.S. trade laws and regulations. Each 
year, Customs prepares a Trade Enforcement Plan (TEP), which describes 
the role Customs will play in furthering the goal of maximum 
compliance. To create this plan, Customs assesses the principal threats 
to compliance with U.S. trade laws, develops a coordinated approach to 
confront those high impact national threats, and defines targeted 
areas, strategies, priorities, and intra-agency responsibilities and 
time lines for accomplishing these goals.
    Customs most recent TEP builds on compliance measurement results 
and some compliance assessment results, which forms an integrated 
compliance system to assess the principle threats to compliance. This 
analysis aids Customs focus on high-priority or ``Primary Focus'' 
industries (PFI's) and issues that have a significant economic impact 
on the Nation.
    In fiscal year 1996, the compliance rate for overall importation 
increased from 80 percent to 82 percent. Duty collections on imports 
remained in excess of 99 percent. Of particular note is that higher 
value importations had a significant increase in compliance, to a rate 
of over 86 percent. The cooperative effort with the importing community 
and domestic industry to address compliance issues can be credited with 
the improved performance of major importers.
                    primary focus industries (pfi's)
    PFI's are commodity areas that will attract significant attention 
from Customs in every regard. By establishing a national focus on these 
product sectors, they will receive the level of attention which they 
warrant. Eight PFI's were determined by use of a number of factors, 
including strategic importance, international trade agreements 
concerns, quotas, duty, public health and safety, Intellectual Property 
Rights (IPR), and Gross Domestic Product/economic impact. The eight 
PFI's are: Advanced Information Displays (e.g., cathode ray tubes, flat 
panel displays); Agriculture; Automobiles and Automobile Parts; 
Critical Components (e.g., fasteners, bearings); Production Equipment; 
Steel Mill Products; Telecommunications; and Textiles.
                       priority commercial issues
    Because not all important trade issues confronting Customs can be 
identified by industry sectors, additional specific and cross-cutting 
trade priorities were identified. Many of these were derived from 
earlier versions of annual Trade Enforcement Strategies, and others 
have been identified by various customers. The 12 priority issues are: 
Anti-Dumping and Countervailing Duty; Classification; Trade Statistics; 
Country of Origin Marking; Embargoes and Sanctions; Intellectual 
Property Rights; Trade Agreements; Public Health and Safety (pending 
other government agency participation); Transshipment; Quota Evasion; 
Revenue; and Valuation.
    Clearly, many of these are cross-cutting over a range of products 
or source countries. Others link closely with the priority industries--
textiles with quotas and transshipment, for instance. A few issues such 
as embargoes and convict labor are country-specific.
    A new priority area, Revenue, has been added for the 1997 TEP. 
Concerns over the gap between revenues due and revenues collected, and 
our new ability to use compliance measurement to project a measurement 
of that gap, have enabled us to identify the scope of the issue and 
develop a Revenue Gap Subplan to address it.
              north american free trade agreement (nafta)
    The NAFTA trade enforcement Sub-Plan will form the basis for 
Customs efforts in assuring the highest level of compliance possible 
for NAFTA transactions in the coming year. The specific goals of this 
initiative are the development of a national plan for NAFTA compliance 
for U.S. Customs; avoidance of using NAFTA enforcement as an unintended 
non-tariff barrier; the effective use of the experience and knowledge 
of all Customs Officers; and the integration of Customs NAFTA efforts 
into a single effective process. Components of the 1996-97 NAFTA Sub-
Plan include audit; compliance measurement; informed compliance; 
interventions and investigations; port-initiated verifications; and the 
Strategic Trade Centers.
    Additionally, Customs ports have local initiatives for verifying 
the NAFTA claims for companies and commodities not selected nationally. 
Informed Compliance for NAFTA is being achieved through information 
dissemination by the Dallas NAFTA Center, video broadcasting, and port 
outreach.
                       changes in cobra user fees
    The NAFTA Implementation Act includes a provision to restore the 
Air and Sea passenger processing fee to $5.00 per entry, a reduction of 
$1.50 per entry, and again exempt passengers arriving from Canada, 
Mexico, and certain Caribbean Nations. These changes will take effect 
in fiscal year 1998. Customs estimates that the fee reduction and the 
restored exemptions will result in a $187 million decrease in 
collections from this fee.
                    fiscal year 1998 budget request
    Customs proposed appropriation for fiscal year 1998 totals 
$1,690,602,000 and 17,193 Full Time Equivalents (FTE) and reflects our 
highest budget priority for fiscal year 1998--ensuring adequate funding 
for effective operation of our programs within a constrained budget 
environment. Customs ability to perform its enforcement functions and 
collect revenue depends on a well-equipped, reliable infrastructure. 
The resources identified below are necessary to meet the broad and 
diverse mission requirements of the Customs Service and accept the 
realities of a growing workload.
                              initiatives
    Our Anti-Smuggling Initiative will provide the necessary resources 
for Customs to counter the increasing threat of narcotics smuggling in 
cargo shipments through South Florida and other high-risk ports of 
entry. The $23.4 million ($8.4 million and 119 FTE in Salaries and 
Expenses and $15 million from the Violent Crime Reduction Trust Fund) 
requested will provide us with the human and technological resources 
vitally necessary to continue the successes seen in Operation Hardline 
on the Southwest Border and Operation Gateway in Puerto Rico, the U.S. 
Virgin Islands, and the Caribbean.
    The Land Border Passenger Automation Initiative of $11.5 million 
requested for fiscal year 1998 is a joint undertaking between Customs 
and the Immigration and Naturalization Service to provide both agencies 
with the technological tools to increase inspector effectiveness and 
safety, and expand the use of automated data capturing for query 
against enforcement databases. It will also provide valuable 
intelligence to federal law enforcement agencies on the movement of 
vehicles across our borders, and provide expanded service at low-risk 
ports through remote processing, offering the potential for a 
redirection of resources to higher risk activities.
    This year's budget request also includes $5.5 million for a hangar 
to house the two new P-3 aircraft in Corpus Christi, Texas. We are also 
requesting $2.5 million to fund 27 additional FTE for the aircrew and 
related support personnel that will be needed to support these new 
aircraft.
    To assist in the apprehension of individuals involved with the 
removal of unreported currency, weapons of mass destruction, and 
precursor chemicals, Customs requests $1.1 million from the Violent 
Crime Reduction Trust Fund to construct canopies for detailed 
inspection of suspect outbound vehicles at selected crossings. This 
enhancement will also provide our inspectors with some measure of 
safety from traffic flow while they concentrate on this important 
effort.
    Our Operational Support Initiative is comprised of three 
components: Laboratory Modernization, Vehicle Replacement, and Agent 
Relocation. We are requesting an additional $5.7 million to enable 
Customs to upgrade its laboratories with state-of-the-art analytical 
instrumentation based on contemporary scientific approaches, required 
to adequately support the Customs mission; to develop analytical 
methods for the determination of country of origin of agricultural, 
petroleum, and textile products; and to maintain a continuous and 
intensive laboratory research program. Customs must successfully meet 
the new examination requirements of expanded international trade 
(textile transshipment, trade and narcotic enforcement, criminal 
investigations, forensic work, anti-dumping violations and compliance 
measurements). Laboratories, with modern, sophisticated analytical 
instrumentation, are especially important for protecting our Nation's 
trade interests.
    Additional resources requested for Operational Support will also 
benefit our enforcement activities by replacing severely worn-out 
vehicles. By fiscal year 1998, approximately 83 percent of Customs 
vehicles will be eligible for replacement in accordance with General 
Services Administration replacement criteria. Without adequate funding, 
our vehicles will be potentially unsafe, inefficient, and very costly 
to maintain. We are requesting $10 million for this portion of the 
Operational Support Initiative.
    Lastly, the Operational Support Initiative includes funding for 
agent relocation. This funding is requested to allow Customs to 
relocate agents to high-threat drug zones. Customs is currently only 
able to fund relocations at the expense of other priorities and has not 
been able to implement a comprehensive relocation program like other 
enforcement agencies. If this continues, Customs ability to respond to 
changing threats will be hindered, the morale and effectiveness of our 
agents will likely deteriorate, and the public's and Congress' 
perception of Customs ability to perform its mission will likely be 
damaged. Funding for this portion of the initiative, $4 million, is 
requested from the Violent Crime Reduction Trust Fund.
    This concludes my statement for the record. Thank you again for 
this opportunity to appear before the Committee. You have provided 
tremendous support to the Customs Service in the past and I look 
forward to a very productive future working with you and your staff.

                Federal Law Enforcement Training Center

STATEMENT OF CHARLES RINKEVICH, DIRECTOR
    Senator Campbell. Charles Rinkevich, if you would like to 
go ahead.
    Mr. Rinkevich. Thank you, Mr. Chairman.
    Chairman Campbell and Senator Kohl, thank you very much for 
this opportunity to appear before you. I join with my 
colleagues and Under Secretary Kelly in also thanking you for 
the support that you have shown for Treasury law enforcement 
and particularly for the Federal Law Enforcement Training 
Center [FLETC].

                              cost savings

    Because of the existence of FLETC, the Government avoids 
the cost of some $108 million in per diem savings and $35 
million in facility closure savings for a total of $143.1 
million in savings in duplicative training facilities around 
the country. The strength of the Center is in the consolidated 
nature of its organization. This budget request before you for 
1998 has some significant features and I will summarize those 
and the rest of my long statement has been submitted for the 
record.

                              fletc growth

    The most significant part of this budget request is the 
initiative to support the direct cost of basic training. As you 
know, the workload of the Center, because of the growth of 
Federal law enforcement over the course of the last several 
years, has grown significantly.

                     number of graduating students

    To give you a better fix on that, in 1996, the Center 
graduated about 19,300 students. In 1997, we anticipate 
graduating over 29,000 students and for the fiscal year 1998, 
which this budget request covers, we will graduate in excess of 
31,000 students. This is a direct result of the buildup that is 
occurring principally within the Immigration and Naturalization 
Service, but also with the Customs Service, Secret Service, and 
others that have Federal law enforcement responsibility.

                             budget request

    Our budget request before you is for $100,832,000. This is 
the largest budget request that the Center has ever submitted 
with an FTE request of 527 full-time equivalency positions. 
When you add to that the amount of funds that we will receive 
in reimbursement costs for services we provide to the agencies 
that are not included in our budget, the total budget that we 
will administer at FLETC is close to $120 million.

                              initiatives

    There are seven initiatives within our salaries and 
expenses account, most of which are due to the workload growth, 
and two initiatives in our construction account. I will not go 
into the detail of those but reserve the time with you and the 
Committee for questions on them.

                         commitment and support

    Again, let me say, thank you for the support that this 
Committee has shown in the past and the obvious personal 
commitment and support that you and the Committee have for 
Treasury law enforcement and the Center.
    Thank you.

                           prepared statement

    Senator Campbell. Thank you, Mr. Rinkevich. Your complete 
statement will be made part of the record.
    [The statement follows:]
               Prepared Statement of Charles F. Rinkevich
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to report on the current operations and performance of the 
FLETC and to support our appropriations request for fiscal year 1998. 
The Center has seen tremendous growth since its establishment in 1970 
when a handful of agencies joined together and established the 
Consolidated Federal Law Enforcement Training Center. The Department of 
Treasury has been the lead agency for the United States Government in 
providing the administrative oversight and day-to-day direction for the 
FLETC since its creation. Under the leadership of Secretary of the 
Treasury, Robert E. Rubin; and Under Secretary for Enforcement, Raymond 
W. Kelly, the FLETC has received strong support and active assistance 
for carrying out its responsibilities. We are indeed fortunate to have 
these two distinguished individuals playing a leadership role as the 
FLETC prepares to embark on the next century. This Committee, Mr. 
Chairman, also is owed a debt of gratitude. Throughout our 27 years of 
service to Federal law enforcement, this Committee has been most 
generous in its funding of consolidated training and its oversight 
role. We extend our appreciation and look forward to working with you.
    There are now 70 agencies which train at the Center, and we expect 
this growth to continue as more agencies recognize the many benefits of 
consolidated training. The Administration and Congress can be proud of 
the quality of the training being provided at the FLETC and the savings 
realized through consolidation. FLETC's success is the direct result of 
the strong support we have received from Treasury leadership, this 
Committee, and our participating organizations.
    Today, I am prepared to discuss a number of our initiatives 
outlined in the President's fiscal year 1998 budget. The Center's 
fiscal year 1998 request is for a Salaries & Expenses (S&E) 
appropriation of $68,284,000 and 527 FTE, an increase of $12,099,000 
and 45 FTE from the fiscal year 1997 level. The S&E request includes 3 
FTE and $2,621,000 in Crime Bill funds. Our request for Acquisition, 
Construction, Improvements & Related Expense (ACI&RE) is $32,548,000, 
an increase of $10,964,000 from the fiscal year 1997 level. Crime Bill 
funding in the amount of $21,437,000 is included in the ACI&RE request. 
The S&E and ACI&RE funding requested will support nine important 
initiatives: Mandatory Basic Training Workload Increase ($5,614,000 and 
26 FTE); New Training Building Support ($1,044,000 and 6 FTE); 
Occupational Safety and Health Compliance ($400,000 and 1 FTE); 
Training Operations Support ($2,239,000 and 5 FTE); Rural Drug Training 
($1,000,000 and 3 FTE); Environmental Compliance ($111,000 and 1 FTE); 
Fiber Optics ($3,001,000 and 1 FTE); Minor Construction and Maintenance 
($492,000); and Master Plan ($18,618,000). The Fiber Optics and New 
Training Building Support initiatives are split between the S&E and 
ACI&RE accounts because of the nature of the initiatives. A breakout of 
the funding between the accounts for those initiatives is as follows:
  --Fiber Optics--S&E, $182,000 and 1 FTE; ACI&RE, $2,819,000; and
  --New Training Building Support--S&E, $769,000 and 6 FTE; ACI&RE, 
        $275,000.
    The S&E and ACI&RE request, including the Crime Bill funding, 
represents an increase of $23,063,000 over the fiscal year 1997 level. 
Coupled with $18,709,000 in funds to be reimbursed to us for training 
related services, our total budget for fiscal year 1998 is 
$119,541,000.
    Before providing this Committee with an overview of Center 
operations, I would like to take a moment and address progress being 
made in complying with the requirements of the Government Performance 
and Results Act. As you know, Congress passed, and President Clinton 
signed, the Government Performance and Results Act, known as GPRA, in 
1993. Starting in 1997, GPRA requires agencies (1) to publish strategic 
plans covering at least five years, (2) to publish annual performance 
plans which include measurable goals, and (3) after the year is 
completed, to report on actual performance. This law is intended to 
fundamentally change Federal management and accountability from a focus 
on inputs and processes to a greater emphasis on outcomes and 
programmatic results. In essence, GPRA requires that we tell you what 
each of our programs is intended to do in the long term, specifically 
what we intend to achieve each year, and finally, what we did achieve.
    The Center and the Treasury Department have embraced GPRA and have 
begun implementing it early. The FLETC began the process of drafting 
its strategic plan in fiscal year 1994. We involved numerous levels of 
the FLETC and participating agency staff in the planning process, and a 
draft of the plan was completed and approved by the Center's Board of 
Directors in July 1995. A copy of that plan was also provided to the 
staff of this Committee for review and comment during 1995. Since that 
time we have been working with the Department of the Treasury and the 
Office of Management and Budget to ensure that our plan fully complies 
with all GPRA requirements by September 1997. We feel that the broad 
based approach followed by the FLETC in developing its strategic plan 
has resulted in a realistic and achievable plan which reflects 
organizational goals that will garner strong support from both the 
FLETC and participating agency staffs.
    Performance plans required by GPRA are now an integral part of the 
budget documents sent to you each year. In our fiscal year 1997 budget 
request last year, we incorporated measures of program performance in 
addition to the traditional output-oriented workload measures. As you 
know, good measures of program performance are not always available. 
Ours are not perfect. However, we believe that we are making progress 
in developing meaningful, quantifiable measures for our programs. As we 
gain more experience, we hope to improve on the performance measures we 
use, and we would welcome any suggestions or feedback you would like to 
provide in this area.
    Included in our budget request this year is a report on whether or 
not we achieved each of the targets we proposed for the most recently 
completed fiscal year (fiscal year 1996). The performance measures used 
for law enforcement training in fiscal year 1996 included: (1) student 
quality of training survey, (2) student weeks trained, (3) students 
trained, and (4) variable unit cost per basic student week of training 
funded. Plant operations performance measures include student quality 
of services survey. The student quality of services survey and student 
quality of training survey performance measures are outcome measures. 
The overall student quality of training index is based on a seven point 
scale, and the overall student quality of services index is based a 
five point scale. Both indices are computed using evaluations completed 
by students attending Center programs. This data is collected for the 
Center's automated Student Feedback System (SFS) using a form on which 
students are asked to evaluate the quality of Center programs, 
instructional staff, facilities, and services. I will discuss the SFS 
in more detail later. The variable unit cost per basic student week of 
training funded is also an outcome measure and is based on training 
dollars divided by funded student weeks of training. The final two 
measures, students trained and student weeks of training, are output 
measures and show the student workload at the Center.
    I want to take this opportunity to correct an error in the Center's 
1996 GPRA performance report as shown in the FLETC's fiscal year 1998 
budget submission. Both the target and the actual indices shown for the 
Student Quality of Training performance measures and Student Quality of 
Services performance measures are incorrectly recorded. The target and 
actual indices for Student Quality of Training should have been ``5.0'' 
and ``5.5'' respectively. The target and actual indices for the Student 
Quality of Services should have been ``4.0'' and ``4.0'' respectively. 
This error was discovered after our budget was furnished to Congress.
    With those corrections in mind, I am pleased to report that the 
Center's performance against established targets was excellent overall. 
The index for the most critical performance measure in our plan, the 
Student Quality of Training Survey measure, was ``5.5''. This is above 
the Center's existing standard and performance plan target of ``5.0''. 
The Student Quality of Services actual performance index was ``4.0'' 
which equals our performance target measure of ``4.0''.
    The performance targets for Students Trained and Student-weeks 
Trained as shown in the performance plan were not met. While the 
workload conducted was somewhat less than the initial projections and 
the targets in our performance plan, the FLETC did conduct 100 percent 
of requested basic training in fiscal year 1996. Because workload 
estimates used in the performance plan are based on Spring 1994 
estimates of our customers, it is not surprising to find that there is 
a variance between the targets and actual workload. The budget process 
requires that the Center's participating agencies provide these 
estimates well in advance of funding actions by the Congress and 
Administration. Although estimates are based on the best available data 
and the agencies' best guess at the time, changes in Congressional and 
Administration policy and initiatives that occur in the interim can and 
do have a dramatic impact on the outcome of actual workload. Therefore, 
the best measure of the FLETC's performance in this area is whether the 
Center provided 100 percent of the basic training requested, which in 
this case we did.
    The same categories of performance measures used in fiscal year 
1996 will be used in fiscal year 1997 and fiscal year 1998. However, as 
I stated earlier, the FLETC will continue to refine existing 
performance measures and/or identify new performance measures in an 
effort to more accurately reflect its performance and provide this 
Committee with the information it needs to make informed budget 
decisions. I believe that this system--setting strategic goals and 
strategies for the long term, setting annual targets, managing to 
achieve those targets, and reporting on annual performance--will help 
all of us manage the Center's programs more efficiently and 
effectively.
    In reviewing our request, and later in our discussions today, I am 
sure you will find that there is a strong and direct relationship 
between our budget initiatives and the mission and goals outlined in 
the Center's strategic plan. That mission is to provide quality, cost 
effective training for law enforcement professionals. It is a vitally 
important mission and is essential if we are to equip our law 
enforcement personnel with the skills necessary to deal with 
increasingly sophisticated and violent crimes.
    Four key strategic goals guide the Center in fulfilling its 
mission. They are:
  --Provide high quality training for law enforcement;
  --Develop, operate, and maintain state-of-the-art facilities;
  --Effectively organize, develop, and lead FLETC's personnel in 
        support of the Center's mission; and,
  --Strengthen partnerships among participating organizations and the 
        FLETC.
    The initiatives outlined in our fiscal year 1998 request directly 
support the mission of the Center and can be tied to one or more of the 
goals in the Center's strategic plan. Equipment and FTE's requested 
under Salaries and Expenses for Mandatory Workload, Environmental 
Compliance, New Training Building Support, Occupational Safety and 
Health Compliance, Rural Drug Training, Fiber Optics, and Training 
Operations Support are essential if the Center is to provide quality 
training that is responsive to needs of its customers. Failure to fund 
these initiatives could result in a degradation of the services and 
jeopardize training, putting the Center in a position where it could 
not meet its customers' training requirements. For example, not 
complying with environmental and health safety issues could endanger 
the health of the FLETC and participating agency personnel. It could 
result in closure of certain facilities and adversely impact on FLETC's 
ability to provide the training requested by its participating 
agencies.
    Funding requested in the ACI&RE account will allow the Center to 
continue implementation of its Master Plan for facilities expansion and 
provide the necessary data and voice communication and facilities 
maintenance support for the training requested by our participating 
agencies. Continued implementation of the Master Plan is necessary if 
we are to avoid the need to invest in costly temporary facilities to 
meet the training needs of our customers during periods of peak demand. 
Additionally, temporary facilities adversely impact on the quality of 
training provided and the quality of life of the student, even though 
we take steps to mitigate that impact as much as we can. I will discuss 
this issue more fully, later in my testimony.
                         overview of operations
    Now Mr. Chairman, if I may, I would like to provide the Committee 
with a brief overview of the operations of the Federal Law Enforcement 
Training Center.
    The Center was established by a Memorandum of Understanding in 1970 
and has experienced tremendous growth over the last 27 years. We 
currently conduct basic and advanced training for the majority of the 
Federal Government's law enforcement personnel. We also provide 
training for state, local, and international law enforcement personnel 
in specialized areas and support the training provided by our 
participating agencies that is specific to their needs. Currently, 70 
Federal agencies participate in more than 200 different training 
programs at the Center.
    There are entry level programs in basic law enforcement for police 
officers and criminal investigators, along with advanced training 
programs in areas such as marine law enforcement, anti-terrorism, 
financial and computer fraud, and white-collar crime. Training is 
conducted at either the main training center in Glynco, Georgia; our 
satellite training center in Artesia, New Mexico; or a temporary 
training facility in Charleston, South Carolina.
    The temporary training site in Charleston was established in fiscal 
year 1996, to accommodate an unprecedented increase in the demand for 
basic training by the participating agencies, particularly that of the 
Immigration and Naturalization Service (INS) and United States Border 
Patrol (USBP). It is the direct result of recent Administration and 
Congressional initiatives to control illegal immigration along the 
United States borders and to protect Federal workers in the workplace.
    In addition to the training conducted on-site at one of the FLETC's 
residential facilities, some advanced training, particularly that for 
state, local and international law enforcement, is exported to regional 
sites to make it more convenient and/or cost efficient for our 
customers. The tremendous demand for basic training over the next three 
years will increase the FLETC's reliance on export training sites to 
meet these advanced training requirements. The Center's driver and 
firearms special training facilities cannot accommodate all of the 
training being requested. Therefore, much of the advanced training 
requiring the use of special training facilities will have to be 
accommodated elsewhere.
    Realizing that a short-term solution was needed to meet the 
advanced training needs of our customers, the FLETC began to identify 
state and local training facilities that could be used to accommodate 
this training in early 1996. We are now discussing with several of 
these non-Federal organizations the use of their facilities on a 
reimbursable basis. Once discussions are complete the Center will be in 
a position to facilitate the scheduling of the training at these sites 
and assist our customers in meeting their advanced training needs.
    Over the years, the FLETC has become known as an organization that 
provides high quality and cost efficient training with a ``can do'' 
attitude and state-of-the-art programs and facilities. During my 
association with the Center, I have seen first-hand the many advantages 
of consolidated training for Federal law enforcement personnel, not the 
least of which is an enormous cost savings to the Government. 
Consolidated training avoids the duplication of overhead costs that 
would be incurred by the operation of multiple agency training sites. 
Furthermore, we estimate that consolidated training will save the 
government $108,100,000 in per diem costs alone during fiscal year 
1998. This estimate is based on projected fiscal year 1998 workload and 
per diem rates in Washington and other major cities of $152/day versus 
the cost of housing, feeding, and agency miscellaneous per diem of 
$25.26/day for a student at Glynco. Consolidation also ensures 
consistent high quality training and fosters interagency cooperation 
and camaraderie in Federal law enforcement.
    We view FLETC and consolidated training as a National Performance 
Review concept ahead of its time. Quality, standardized, cost-effective 
training in state-of-the-art facilities, interagency cooperation, and 
networking are indisputable results of consolidation. However, the 
concept of consolidated training is fragile and needs constant 
nourishment and support if it is to remain intact.
                                workload
    As I mentioned earlier, the Center is facing an unprecedented 
increase in its training workload that began in fiscal year 1996 and is 
projected to continue through fiscal year 1999. The majority of the 
increase in training workload is the result of the fiscal year 1995 
initiative by the Administration and Congress to increase the 
effectiveness of the INS in controlling our borders by increasing the 
number of INS and USBP law enforcement personnel. Other factors 
contributing to the Center's increasing workload include security 
enhancements at Federal facilities and new Federal prisons coming on-
line.
    During fiscal year 1996, the Center graduated 19,352 students, 
representing 88,792 student-weeks of training. This total included 
15,689 students who were trained at Glynco, Georgia, 1,562 students 
trained at Artesia, and 2,101 students trained in export programs 
conducted at various locations throughout the United States. There were 
9,106 basic students; 7,704 advanced students; 1,959 state and local 
students; and 583 international students trained equating to an average 
resident student population (ARSP) of 1,708. Although the total of 
students trained was below the performance targets established for 
fiscal year 1996, the Center did provide 100 percent of the basic 
training requested by its customers. The performance targets 
established for fiscal year 1996 were based on Spring 1995 projections 
of the 70 agencies we serve. These projections are made in advance of 
appropriations. Because of circumstances beyond the control of the 
agencies or the FLETC, the projections changed by the start of the 
fiscal year, and fewer training requests materialized.
    In April 1996, participating organization projections indicate that 
during fiscal year 1997, the Center will train 29,531 students 
representing 135,691 student-weeks of training. This total includes 
26,736 students to be trained at Glynco; 1,049 students at Artesia; 
1,392 students at the temporary site in Charleston; and 354 students in 
export programs. A total of 13,517 basic students; 13,207 advanced 
students; 2,292 state and local students; and 515 international 
students are projected for a total ARSP of 2,609.
    Our participating agencies indicate that during fiscal year 1998, 
we will train a total of 31,143 students representing 137,297 student-
weeks of training. This total includes 24,242 students at Glynco; 4,153 
students at Artesia; 1,392 students at Charleston; and 1,356 students 
in export programs. A total of 13,587 basic students; 14,694 advanced 
students; 2,356 state and local students; and 506 international 
students are projected for a total ARSP of 2,640.
    The Center has seen enormous growth in the training demanded by its 
participating agencies over the past decade. We have been able to 
accommodate many, but not all, of these increased training demands by 
being innovative and undertaking extra-ordinary measures.
    To accommodate training during fiscal year 1985 and again in fiscal 
year 1989, the Center had to temporarily expand its capacity for 
housing, dining, classroom, office space, storage, and special training 
facilities by using temporary buildings and contracted or licensed 
temporary facilities. Further, the Center has not always had space to 
accommodate all of our students in on-Center housing and has used 
contractual arrangements with local motels to house our overload. Many 
of the temporary measures taken to meet these training demands were 
costly, and they adversely impacted the Center's operations.
    The Center is again in a position where it has had to resort to 
using a temporary facility to meet the training needs of its 
participating agencies. As I mentioned earlier, a temporary training 
facility was established in Charleston, South Carolina, during 1996 
because our current facilities do not have the capacity to accommodate 
all of the training being requested. It is primarily being used to 
conduct USBP training that cannot be accommodated at the Glynco and 
Artesia training Centers. Plans call for Charleston to be closed after 
1999, once the training requirements for the Border Patrol buildup are 
completed. Sufficient capacity should then exist at Glynco and Artesia 
to meet projected training requirements of our participating agencies.
    This is the third time since fiscal year 1985 that FLETC has taken 
extraordinary measures to meet the training demands of its 
participating agencies. More importantly, it is the second time in the 
last eight years that a temporary training facility has had to be 
established. A temporary training facility was established at Ft. 
McClellan, Alabama, in 1989 to meet a similar increase in the USBP 
training workload.
    Opening temporary training facilities is a time-consuming and an 
expensive process. Capital improvements must be made to bring the 
facility on line and, unlike capital improvements made at Glynco or 
Artesia, there is no permanent return on that investment. The dollars 
expended are lost when the facility is closed. It also impacts the cost 
effectiveness of the training provided and on the student's quality of 
life and overall training experience. However, as was done in 1989, the 
Center is taking steps to mitigate any impact the temporary training 
facility might have on the quality of training provided. We are 
extremely proud of our reputation for providing high quality, cost 
effective training and will take the steps necessary to ensure that the 
quality of training provided at Charleston remains high.
                         facilities master plan
    Now, Mr. Chairman, if I may, I would like to brief you and the 
other Committee members on progress being made in expanding the FLETC's 
facilities. The Master Plan, presented to Congress in June 1989, 
provided a basis for the efficient and orderly development of the 
Center's land and facilities resources. It was and is a comprehensive 
blueprint to guide the expansion of the Center so that it can more 
effectively support the present training workload as well as the 
workload projected for the future. The original plan called for a total 
investment of $86,010,000.
    Over the years the Master Plan has been updated to refine earlier 
estimates and incorporate changes necessary to meet the evolving 
training needs of our customers. In April of 1996, a copy of the most 
recent update was provided to the Congress. It shows that approximately 
$121,346,000 is needed to completely fund the Master Plan. Through 
fiscal year 1997, Congress has appropriated $62,757,000, or about 52 
percent of the funds needed. Of this amount $48,904,000 was for Glynco 
projects and $9,715,000 was for Artesia projects.
    At Artesia, major projects that have been completed include: 
rehabilitation of the Cafeteria/Student Center complex and Main 
Classroom building; construction of a physical training complex, 
completed in October 1991; interim driver/firearms ranges, completed in 
1991; a much needed road and sidewalk network at the Artesia main 
campus, completed in 1992; permanent firearms ranges, completed in 
1993; and a driver/firearms administrative support/classroom building, 
completed in 1996. At Glynco completed projects include: a dormitory, 
completed in April 1993; an expansion of the indoor firearms range 
complex, completed in August 1993; consolidation/expansion of the 
physical techniques facility, completed in October 1993; an expansion 
of the cafeteria, completed during 1994; an addition to our Steed 
classroom building (two state of the art classroom buildings), 
completed in May 1996; and an expansion of our driver training complex 
(the addition of control tower, defensive driving and highway response 
ranges), completed in February 1997.
    The Center's fiscal year 1998 ACI&RE request is in the amount of 
$32,548,000 and includes $18,618,000 to continue implementation of the 
Master Plan. The Master Plan funds requested will complete funding of 
Phase I Master Plan projects at Glynco and provides funds for many of 
the Phase II and III projects. Projects that would be funded at Glynco 
include among others: a Firearms Multi-Purpose Building, the Student 
Activity Center, renovation of the Auditorium/Conference Center, 
Warehouse Expansion, office space, and, a Student Registration 
Facility. Artesia projects that would be funded include: a Front Gate 
Security Building, Physical Training Expansion, and, an Office 
Building.
    This Master Plan initiative supports goal two in FLETC's strategic 
plan. That goal is to develop, operate, and maintain state-of-the-art 
facilities and systems responsive to interagency training needs. 
Funding is required if the Center is to meet the training needs of its 
customers. Not funding these initiatives will result in the continued 
reliance on the more costly method of establishing temporary training 
facilities to meet training requirements. It also endangers the concept 
of consolidated training as the larger agencies look at alternatives, 
such as individual agency sites, to meet their training requirements.
    The Center continues to consult closely with its participating 
agencies so that the design features of each project will meet current 
and future needs. This close consultation sometimes prolongs the period 
it takes to design and construct facilities; however, we feel the time 
and effort are well spent because it ensures that funds are efficiently 
and wisely used.
    Obviously, changing events have and will continue to dictate 
modifications to the various projects outlined in the Master Plan. I 
assure you that we will continue to work through the Treasury 
Department, Office of Management and Budget, and the Congress in 
dealing with these changes.
    Mr. Chairman, I want to thank you and members of the Subcommittee 
for the support given the Center in its Master Plan development and 
implementation. We are pleased and grateful that Congress has seen fit 
to appropriate the funds necessary to expand our facilities and better 
equip the Center to meet the training needs of our customers. Only by 
doing so is the concept of consolidated training nurtured and 
strengthened.
    Now, if I may Mr. Chairman, I would like to take this opportunity 
to briefly discuss the eight remaining initiatives in the Center's 
fiscal year 1998 budget request which I briefly referred to earlier in 
my testimony.
               mandatory basic training workload increase
    In our fiscal year 1998 request the Center is asking for $5,614,000 
and 26 FTE to support the direct cost of basic training. As I discussed 
in some detail already, the Center is faced with an unprecedented 
increase in its workload over the next three years. This initiative 
will allow the Center to fund 100 percent of the direct cost of the 
discounted projected basic training in fiscal year 1998 and supports 
goal one in FLETC's strategic plan.
    Our request is in accordance with the current OMB/Treasury/FLETC 
policy that requires funding of the direct cost of basic training. The 
participating agencies do not request funding for these costs in their 
budget submissions and are fully expecting and relying upon the FLETC 
to provide that funding.
                     new training building support
    As I touched on in my testimony earlier, the Center is requesting 
$1,044,000 and 6 FTE for new training building support ($769,000 and 6 
FTE in S&E and $275,000 in ACI&RE). The funding and FTE requested is 
necessary to support the operation and maintenance of new facilities 
that have already come on-line or will be coming on-line at both Glynco 
and Artesia. At Glynco these include the Driving Range Expansion, two 
Classroom Buildings, and the Computer Training Facility. In Artesia it 
includes an Administration Building, Front Gate Building, and Security 
Systems. The FLETC's request provides the necessary resources and 
personnel to support operation of the new facilities including 
utilities, contracts (janitorial/grounds maintenance), and minor 
construction and maintenance. It is essential to protect the 
Government's investment in these facilities and supports both goals one 
and two in FLETC's strategic plan.
                        environmental compliance
    Too often in the past, FLETC's compliance with environmental 
requirements has been on an emergency response basis with costs 
absorbed from existing resources. However, increasing requirements 
under environmental legislation and shrinking budgets make it 
impossible to be in compliance without additional funding.
    Environmental compliance is non-discretionary. The FLETC must be 
properly funded for the design and implementation of pollution 
prevention, hazardous waste, and recycling programs if it is to fully 
comply with environmental laws, regulations, and executive orders. In 
fiscal year 1997, funding was provided to move the FLETC closer to full 
compliance. The $111,000 and 1 FTE in our fiscal year 1998 request will 
allow the FLETC to fully comply with existing environmental laws and 
regulations. It will ensure that the health and safety of FLETC 
employees and students, as well as those of the citizens living 
adjacent to the FLETC, is protected.
    Examples of costly and serious environmental requirements that will 
be addressed by this initiative include: removal and disposal of 
underground storage tanks; analysis of solid waste discovered during 
construction; testing of water for lead; analysis, handling, and 
disposal of lead paint during renovations; and maintaining and disposal 
of hazardous waste generated by the Center's firearms, driver training, 
printing, photography, and medical operations. The requested funding 
will provide the necessary staffing to address these important and 
significant health issues. It is essential in light of the Center's 
environmental law obligation. If not funded, some of the Center's 
training operations could be adversely affected. A worst case scenario 
is that FLETC could be forced to discontinue some of its training 
operations. This request supports goals one, two, and three in the 
FLETC's Strategic Plan.
               occupational safety and health compliance
    The head of each agency is required to ensure that the agency's 
budget submission includes sufficient resources to effectively 
implement and administer an Occupational Safety and Health Program. 
Although the FLETC has been able to utilize existing resources to 
comply with rules and regulations in the past, the expansion and aging 
of the Center's facilities, increasing training workload, and new 
requirements such as those dealing with Blood Borne Pathogens and 
Hazardous Material Management have outpaced resources and the Center's 
ability to fully comply with all requirements. Therefore, the FLETC 
must have additional resources if it is to have an effective program. 
Funding is essential in light of the FLETC's obligations under existing 
occupational health and safety laws and regulations.
    Our fiscal year 1998 request includes $400,000 and 1 FTE to support 
the required occupational safety and health program. An effective 
program at the FLETC is essential given the importance and nature of 
the Center's training mission and the grave safety risks it poses to 
both students, staff, and the surrounding community. Again, as in the 
previous initiative, this request support goals one, two, and three in 
the FLETC's strategic plan.
                              fiber optics
    The current underground telephone cable plant at Glynco is owned 
and maintained by the local BellSouth Telephone Company. It is old, has 
reached its capacity and cannot provide the necessary services for the 
Center and its customers to operate effectively and efficiently. 
Because of restrictions imposed by divestiture, BellSouth cannot 
increase current capacity to meet the forecasted communications 
requirements of the FLETC. The best alternative is for the FLETC to 
invest in its own fiber optics plant. This initiative requests 
$3,001,000 ($182,000 and 1 FTE in S&E and $2,819,000 in ACI&RE) for the 
first phase of a $7,500,000 two-phase project. The request will start 
the site preparation, infrastructure work, and cabling of the facility. 
The second phase of the project would include completion of phase one 
and purchase and installation of remote mode switches and building 
wiring. Funding for the second phase would be requested in fiscal year 
1999.
    By investing in a fiber optics plant, the FLETC can migrate to a 
modern comprehensive telecommunications system. The Center will be able 
to use current technology, adapt to new technology as it evolves, and 
expand automation into new areas as the need arises. This initiative 
will allow the FLETC to meet the current and future communications 
requirements of the FLETC and its customers including: high-speed data 
communications, Integrated Services Digital Network, video 
conferencing, imaging, message services, and the exchange of 
information among users both locally and at satellite facilities. This 
initiative supports goals one and two in the FLETC's Strategic Plan.
                      training operations support
    The Center is requesting $2,239,000 and 5 FTE for training 
operations support in fiscal year 1998. As I mentioned earlier, the 
Center's training workload has increased dramatically in fiscal year 
1997 and is expected to stay at that level through fiscal year 1999. 
This request will provide the necessary FTE and resources to support 
this increased workload.
    The Center's current base funding and FTE resources are sufficient 
to support a basic training workload of approximately 58,000 student-
weeks. However the fiscal year 1998 training workload is expected to be 
approximately 95,000 student-weeks, an increase of 37,000 student-weeks 
of training. Our request represents the minimum increase needed to 
support the fiscal year 1998 basic training workload. It will provide 
the funding for workload-driven increased requirements in: equipment 
(primarily training equipment), service contracts (security, 
janitorial, and lead removal), communications, utilities, and staff 
travel. Additional administrative support personnel in the areas of 
training, finance, procurement, property, and planning are also needed 
to support this workload. This initiative supports goals one, two, and 
three of the FLETC's Strategic Plan. If not approved, the Center will 
not be able to properly support its basic training mission.
                          rural drug training
    In the fiscal year 1994 Crime Bill, FLETC was authorized $1,000,000 
for Rural Drug Training. However, funding was never approved in support 
of this initiative. Therefore, the Center is requesting funding to 
support the Rural Drug Training initiative in fiscal year 1998. The 
request is for $1,000,000 and 3 FTE. It will allow the Center to 
provide 4 training programs to address the drug enforcement training 
needs of small rural law enforcement agencies. The programs are:
  --Drug Enforcement Training Program (DETP)
  --Rural Crime Drug Enforcement Task Force Training Program (RADE)
  --Airborne Counterdrug Operations Training Program (ACOTP)
  --Advanced Airborne Counterdrug Operations Training Program (AACOTP)
    This initiative supports goal one in FLETC's Strategic Plan.
                   minor construction and maintenance
    Finally, Mr. Chairman, the Center is requesting an increase of 
$492,000 in its minor construction and maintenance funds. This request 
will allow the Center to comply with the requirements of Elective Order 
12902 (EO), Energy Efficiency and Water Conservation at Federal 
Facilities, which requires that energy efficiency be accomplished over 
the next nine years.
    To meet the energy efficiency targets set by the EO, the FLETC will 
have to replace existing lighting at both the Glynco and Artesia 
training centers with modern energy efficient lighting. Although the 
Center has been funded for maintenance and minor construction (MCM) for 
the past twelve years, the existing base funding has not kept pace with 
facility expansion. It is not sufficient to meet current MCM needs and 
must be increased if the Center is to meet the requirements of the 
Executive Order without negatively impacting other operations. If this 
initiative is not supported, the Center will have to draw on existing 
resources and either reduce facility maintenance or reduce activities 
in support of training to meet the requirements of the EO. Reducing 
facility maintenance will endanger the Government's investment in 
facilities while reducing activities in support of training will 
negatively impact on the Center's mission. This initiative supports 
goals one and two in FLETC's Strategic Plan.
    Now, Mr. Chairman, if I may, I would like to take a moment and 
briefly update the Committee on activities of our satellite training 
center in Artesia, New Mexico, and the activities of our National 
Center for State, Local and International Training.
                           artesia operations
    The Artesia center was purchased and became operational in 1989. 
Training facilities at Artesia include a 164-room dormitory, cafeteria 
with seating to serve 270 persons per sitting, and a physical training 
complex. There are 22 general purpose classrooms which will accommodate 
up to 730 students. Special purpose classrooms include a 24-person 
computer classroom and a 24-person fraudulent document lab. Other 
specialized facilities at Artesia include practical exercise areas, a 
mock courtroom, driver training and firearms ranges, an obstacle 
course, 31-breakout rooms, and a rappelling tower.
    The Department of Interior's Bureau of Indian Affairs (BIA) Indian 
Police Academy moved to Artesia during 1993. In addition to the BIA 
training that is conducted, Artesia also serves as an advanced training 
site for students posted in the Western United States. Additionally, 
because of its diverse special training facilities, it can accommodate 
overflow basic training that cannot be done at Glynco because of space 
limitations. Artesia is playing and will continue to play an important 
role in meeting the training requirements of the INS over the next 
three years.
    During fiscal year 1996, the Center trained 1,562 students at 
Artesia. In fiscal year 1997, our latest estimates indicate that we 
will train 3,463 students. April 1996 projections by our participating 
agencies indicate that 4,153 students will be trained in fiscal year 
1998. The majority of the increase in the fiscal year 1998 training 
workload is due to the advanced training requirements of the INS, USBP, 
Bureau of Prisons, and Fish and Wildlife Service.
    Other users of Artesia in addition to those already mentioned above 
include the Bureau of Land Management, National Marine Fisheries 
Service, and the FLETC's National Center for State, Local and 
International Training.
    The expansion of the Artesia center as authorized by the Congress 
is continuing essentially as planned. As I mentioned earlier in my 
testimony when discussing the Master Plan, many of the Artesia Master 
Plan projects have been completed and are in use. Nine modular 
buildings have also been installed to accommodate the increase in 
training workload resulting from the INS buildup, and the Center 
recently approved the final design drawings for the expansion of the 
Artesia dormitory to add an additional 76 rooms. Additionally, the 
Center received Master Plan funding in its fiscal year 1997 
appropriation for a much needed Classroom Building/Practical Exercise 
Complex at Artesia, and initial planning for that project is underway.
          national center for state, local, and international
    Glynco's National Center for State, Local, and International 
Training was established in 1982 by the President to provide much 
needed training for state and local law enforcement agencies. Since its 
inception, the National Center has received broad support from the 
Federal, state, and local law enforcement communities. They provide 
subject matter experts for course and program development as well as 
instructional services.
    The National Center is charged with training personnel from state, 
local and international law enforcement agencies in advanced topics 
designed to develop specialized law enforcement skills. By combining 
the expertise of the participating agencies' and FLETC's staffs with 
the specialized training facilities already available at the FLETC, the 
Center is able to provide participants with instruction in advanced 
programs that meets their specific needs. In most cases the training 
enables these agencies to be more supportive of Federal agencies and 
their missions.
    During fiscal year 1996, there were 1,959 state and local students 
trained through the National Center in more than 40 advanced training 
programs. In fiscal year 1997 we expect to train 2,292 students. In 
fiscal year 1998 we project that 2,356 state and local students will 
receive training through the National Center.
    Because of the success of the National Center, many of these 
programs are being conducted on an export basis at sites across the 
country, including our Artesia center. This has proven to be a cost 
effective method to provide training to state and local agencies. 
Additionally, exporting training to state and local academies and other 
locations throughout the country increases the Center's visibility and 
leads to improved cooperation between the Center and state and local 
agencies.
    In addition to training Federal, state, and local law enforcement 
officers, the FLETC's National Center provides training assistance to 
selected foreign governments in a variety of ways including operational 
briefings, technical assistance, and hands-on training programs. The 
same network and support structure in place to assist state and local 
agencies in meeting their training needs makes the National Center a 
logical focal point for international training at the FLETC.
    The FLETC has been involved in foreign training for more than 20 
years. Since 1979 the FLETC has provided training to more than 5,000 
foreign law enforcement officials from more than 102 countries. 
Training has been provided at the Center (on a space available basis) 
or abroad with recent training focusing primarily on the areas of 
international banking and money laundering, financial fraud 
investigations, and telecommunications fraud.
    The number of foreign training requests have grown substantially in 
the last few years, with student weeks of training increasing by more 
than 200 percent since 1994. Two Administration and Congressional 
initiatives, the Freedom Support Act and the Support for Eastern 
European Democracies Act, are responsible for much of the upsurge in 
foreign training. As you know, these acts provide law enforcement 
technical assistance in combating organized crime, financial crime, and 
narcotics trafficking to Russia, the newly independent states of the 
former Soviet Union, and other eastern European countries.
    The majority of recent training has been provided under the 
sponsorship of the Department of State's Office of Antiterrorism 
Assistance and Office of International Criminal Justice. During the 
last two years programs have been conducted in Russia, Poland, and 
Hungary, with training to be conducted this fiscal year in Romania and 
Moldavia. In addition to this training, the FLETC also provides 
instruction in financial crimes to students attending each session of 
the program conducted at the International Law Enforcement Academy in 
Budapest, Hungary.
    The FLETC maintains frequent contact and liaison with several 
foreign law enforcement academies, such as the Royal Canadian Mounted 
Police Academy, Bramshill Police College in England, and the Australian 
Police Academy to further collaborative efforts in training related to 
transnational crime. Additionally, in January of this year, the FLETC, 
in partnership with the Department of State's Antiterrorism Assistance 
Program, sponsored a Training Directors' Conference at nearby St. 
Simons Island, Georgia. Approximately 35 senior-level training 
officials from 17 Latin American countries participated. The focus of 
the conference was the delivery of law enforcement training and 
education in support of counter terrorism efforts in Latin America, and 
it was hailed by conferees as a great success.
    During fiscal year 1996 the Center trained 583 foreign students, 
representing 1,455 student-weeks of training. Although the majority of 
the foreign training is done at the request and under the sponsorship 
of the U. S. State Department, the Center stands ready and has the 
capability to assist other agencies in meeting critical foreign 
training needs, particularly for the new governments in the former East 
block countries.
                       financial fraud institute
    Mr. Chairman, if I may, I would now like to spend a few minutes 
discussing the Center's Financial Fraud Institute.
    The Financial Fraud Institute (FFI) was established by the FLETC's 
Board of Directors in April 1989 to serve as the hub for the Federal 
Government's efforts in the fight against sophisticated white collar 
crime. The FFI provides training and/or coordinates training related 
research and course development, and provides an organized network for 
sharing training concepts/materials in the white collar crime arena 
including financial and computer crimes.
    Being a proactive organization, the FFI identifies the training 
methodologies and provides the knowledge and skills criminal 
investigators need to combat the ever increasing sophistication of 
financial and computer crime. The FFI is an important element in 
dealing with this growing crime problem. Programs such as Criminal 
Investigations in an Automated Environment, White Collar Crime, 
Advanced Financial Fraud, International Banking and Money Laundering, 
Computer Evidence Analysis, Telecommunications Fraud, and International 
Financial Fraud are examples of training that the FFI can provide.
    In addition to the information gathering and research conducted by 
its staff, the FFI relies on feedback and guidance from a Consultant 
Group and the Federal Computer Investigations Committee to guide and 
direct its program development efforts. Recognized experts in the field 
of computer and telecommunications fraud serve on these committees and 
provide the FFI with advice and insight necessary to stay abreast of 
changing trends in this type of criminal activity.
    The FFI Consultant Group, formed in 1989, acts as the primary 
steering committee for FFI and ensures the currency of its curriculum. 
It meets annually, and its membership includes representatives from the 
Secret Service, Customs Service, Internal Revenue Service, Financial 
Crimes Enforcement Network, Department of Treasury's Office of 
Enforcement, President's Council on Integrity and Efficiency, American 
Bankers' Association, Department of Justice, Federal Reserve Bank 
Board, Digital Equipment Corporation, American Institute of Certified 
Public Accountants, Stanford Research Institute, American Society of 
Industrial Security, American Bar Association, and the Communications 
Fraud Control Association.
    The Federal Computer Investigations Committee (FCIC), formed around 
the same time as the FFI Consultant Group, is an independent 
association of investigators, attorneys, and other professionals 
involved in the prevention, detection, investigation, and prosecution 
of all types of computer crime. Representatives from more than 30 
Federal, state, county, and municipal organizations regularly 
participate on this committee. It was born as a result of networking 
among the graduates of the FFI's programs. Its mission is to develop 
methods, standards, and techniques for the successful identification, 
investigation, and prosecution of complex computer and computer-
supported crime.
    To complement its curriculum offerings, the FFI has also organized 
and sponsored several brainstorming sessions or colloquies where 
experts in the field make formal presentations and discuss the latest 
advancements in hardware, software, and investigative techniques to 
detect and/or prevent high-tech crime like telecommunications fraud. 
For example, in February 1996 the FFI hosted a colloquy on ``Electronic 
Sources of Information.'' More than 90 investigators and prosecutors 
from both the state and Federal sectors attended, representing 
organizations such as: the Financial Crimes Enforcement Network, 
National Security Agency, Central Intelligence Agency, Department of 
Justice, and the National White Collar Crime Center. Examples of topics 
covered in the colloquy were: ``Law Enforcement in a Digital World,'' 
``Legal and Social Issues for Law Enforcement Investigations on the 
NET,'' and ``Threats to Networks: Challenges for Law Enforcement and 
Investigations.''
    Before closing Mr. Chairman, I would like to briefly discuss the 
FLETC's efforts in measuring the quality of its training programs and 
meeting the needs of its customers. I would also like to briefly touch 
on our application of computer based training at the FLETC.
        student feedback system and customer satisfaction survey
    The Student Feedback System (SFS) is a major element of the 
overall, on-going quality assurance program at the FLETC. It was 
implemented at the Center in May of 1990 and is one of the tools the 
FLETC uses to evaluate the quality of the Center's basic training 
programs. Data is collected and analyzed on the Criminal Investigator 
Training, Land Management, and Mixed Basic Police training programs. 
Four forms are used to collect the data, a Course/Instructor evaluation 
form, a Program evaluation form, and two Administrative Services 
evaluation forms. We are in the process of expanding the SFS to include 
Center Advanced programs.
    Under the SFS, students are asked to evaluate every aspect of their 
training experience while at the FLETC. For example, they are asked 
whether practical exercises were realistic, whether examination 
question were clear and understandable, whether handout materials were 
helpful, or whether student conduct in the classroom interfered with 
learning. In the administrative support services area they are asked to 
rate housing, housekeeping, messenger service, recreational activities, 
dining hall, bus service and so on. Finally, students are asked to rate 
the overall quality of the program, instructors and administrative 
support services at the FLETC.
    The SFS provides immediate feedback that can be used to improve 
programs and has proven to be an important tool for maintaining the 
quality of FLETC training programs. I am pleased to note that in the 
latest SFS cumulative report covering fiscal year 1996, student 
perception of the overall quality of our programs and services exceeded 
our established standards.
    In addition to the SFS, the Center conducts customer satisfaction 
surveys to ensure that the FLETC is meeting the needs of its 
participating agencies. The latest survey, for which complete data is 
available, was done during fiscal year 1994. The survey measured 
customer satisfaction in three general areas: Training Systems, 
Services, and Support Systems. In training systems and service 
categories, FLETC ranked very high. The overall average for the areas 
evaluated under these two categories was 93 and 90 percent 
respectively. This indicates that over 90 percent of FLETC customers 
feel the Center is meeting or exceeding their requirements in these 
areas.
    Under training systems the agencies were asked to evaluate five 
areas: instructional facilities and resources, classroom scheduling, 
curriculum content, instructors and overall quality of the training. 
Individual ratings in the three most critical areas--curriculum 
content, instructors and quality of training--were 94, 96, and 94 
percent respectively. These ratings reflect that our customers feel the 
quality and cost effectiveness of training provided by FLETC is high 
and that the Center is meeting or exceeding their requirements.
    In the service category, our customers were asked to evaluate the 
quality of services provided by the FLETC in 45 different areas. 
Examples of the areas our customers were asked to evaluate include: 
student registration, fire prevention, emergency medical services, 
recreational services, uniform issues, post office service, moving 
service, telephone service, printing support, and safety and security 
service, etc. Again, I am pleased to report that 90 percent of our 
customers felt the quality of services provided by the FLETC met or 
exceeded their requirements.
    Customers were also asked to evaluate the FLETC's support systems 
in 9 areas. Examples are: student housing, maintenance, communication 
and interaction, FLETC's policies, organizational structure, quality of 
FLETC management, and agency participation in decision making. In this 
category, 76 percent of FLETC's customers felt that the support systems 
of the FLETC met or exceeded their requirements.
    Following the survey, FLETC began working with its customers to 
improve its performance in all areas, especially in those areas where 
customer expectations were not being met. FLETC and agency personnel 
formed work groups to correct identified weaknesses and changes were 
made to strengthen FLETC's performance in communication, procurement, 
agency participation in decision making, and housing to name a few.
    The Center recently conducted another customer satisfaction survey. 
Results of that survey are currently being compiled and analyzed. 
Although the Center received very high marks in customer satisfaction 
in 1994, we are even more pleased with preliminary trends in the 
current survey data from our on-site participating agencies. It shows 
an across-the-board improvement in almost all areas and indicates the 
actions taken to correct weakness identified in the 1994 survey are 
having the desired effect.
    The Student Feedback System and customer satisfaction surveys 
ensure that FLETC focuses on continuous improvement in meeting the 
needs of our students and participating agencies. They are two 
important tools in the Center's performance monitoring system.
                        computer based training
    For the past several years, the Center has been expanding the use 
of computer based training (CBT) in its training programs as a means of 
improving quality and/or controlling program costs. We are now using 
five CBT training courses in the Basic Criminal Investigator Training 
Program and are also using computer based interactive video training 
simulation to train in deadly force decision-making and radio 
communications. Additionally, our Driver and Marine Division is in the 
final stages of developing a computer based interactive video that will 
focus on defensive and high speed pursuit driver decision making 
skills.
    Much of the instruction provided using CBT is after hours and/or 
off duty training that the student does on his own. This allows 
additional material to be covered in a program to meet training 
requirements without increasing the length of the program. It also 
allows students to review and practice skills that they are taught in 
the classroom, reducing the need for remedial training.
    CBT is a good long-run cost avoidance/savings and quality 
improvement tool. However, the initial investment can be quite high in 
some instances, and that is affecting the rate at which we are able to 
expand our use of CBT. The Center has only scratched the surface in the 
use of CBT and its long term impact on the training we provide will be 
tremendous.
    The FLETC's Firearms and Media Support Division staffs just 
recently completed another computer based training module, the 
Situational Awareness and Response Training CBT. The module combines 
CBT and interactive video technology using a scripted scenario that 
primarily incorporates the Federal Law Enforcement Training Center's 
(FLETC) Use of Force Model and the Justice/Treasury Use of Force 
Policy. The video scenario is displayed on a computer screen and 
students are required to select the best option from a button bar at 
one of several decision points in the scenario. If the correct option 
is selected, the video continues uninterrupted. If an incorrect option 
is selected, a narrator appears explaining the reason the option was 
incorrect. This allows students to practice decision-making skills in a 
controlled training environment. It can be used in conjunction with or 
prior to other scheduled training, and at the conclusion of training it 
can be used as an evaluation tool. The training module's file server 
can collect and compile comprehensive reports of student performance to 
include class and individual performance analysis.
    Although this training module is currently limited to firearms 
applications related to the use of force, other divisions and agencies 
can easily build upon the basic scenarios. The development of the 
multi-media training module has generated interest from other federal 
agencies and Department of Defense.
                                closing
    Mr. Chairman, I am committed to the mission of the Center to 
provide high quality training at the lowest possible cost. Substantial 
savings are being realized through the operation of the Center as a 
consolidated training facility. I look forward to your continued 
support as the FLETC strives to remain a partnership committed to 
excellence.
    I am available to answer any questions you may have concerning this 
appropriation request.

                  Financial Crimes Enforcement Network

STATEMENT OF STANLEY E. MORRIS, DIRECTOR
    Senator Campbell. Mr. Morris.
    Mr. Morris. Thank you, Mr. Chairman, Senator Kohl, for this 
opportunity to join with my colleagues to discuss the mission 
of the 1998 appropriation requests of the Financial Crimes 
Enforcement Network [FinCEN].

                            money laundering

    FinCEN is a small and unique agency with an incredible 
breadth of responsibility. It has thousands of law enforcement 
customers, regulates hundreds of thousands of financial 
institutions, and provides global leadership in the fight 
against money laundering. FinCEN operates in diverse forums, 
addressing extremely complex issues. It carries out its work 
with carefully tailored skills and resources enabling it to 
serve the broadest needs of its customers and the American 
people.
    To fully appreciate FinCEN's approach to combating money 
laundering, it is important to understand the complexity of the 
problem. Money laundering is the fuel for drug dealers, 
terrorists, arms dealers, and other criminals to operate and 
expand their enterprises. Indeed, organized crime cannot exist, 
much less flourish, unless it can move its profits into 
legitimate financial institutions.
    If unchecked, money laundering has the ability to 
destabilize democratic systems and undermine economic and 
financial markets around the world. As commerce is globalized, 
so is crime. It is crucial that in a global economy a 
comprehensive international effort be waged to combat this 
threat.
    As Secretary Rubin has said and I quote:

    In a global economy the comprehensive, international effort 
is required to choke off the threat imposed by money 
laundering. Also, the diffusion of responsibilities throughout 
government requires a coordinated and cooperative response 
within each government. In the United States we have brought 
together elements of our Treasury, State, and Justice 
Departments, and other agencies to deal with the issue. 
Globally, other nations will similarly need to coordinate 
expertise from across a range of ministries.

    The coordinated and cooperative response described by 
Secretary Rubin is at the heart of FinCEN's mission. It serves 
as a network bringing together diverse groups with specialized 
expertise. It helps coordinate the antimoney laundering efforts 
of Federal, State, local, and foreign law enforcement and our 
regulatory agencies. All of this is accomplished with 179 
people--a small but very effective team.

                    fiscal year 1998 budget request

    FinCEN's fiscal year 1998 budget request of 181 FTE's and 
$23,006,000 will enable us to continue our support to law 
enforcement investigations, regulatory efforts, and 
international coordination. In addition, under FinCEN's 
appropriation, we are proposing that two one-time initiatives 
be funded from the violent crime reduction trust fund, $1 
million for a Secure Communications Outreach Program which 
would be designed to improve secure communications among all 
the Treasury's law enforcement bureaus; and $2 million in 
support of the President's efforts to encourage money-
laundering countries to institute internationally accepted 
antimoney laundering standards through training and 
technological assistance programs.
    Thank you again for the opportunity to share our efforts 
with the Committee. Please be assured that FinCEN will continue 
to use its funds wisely and look for new and innovative ways to 
lead in our fight against money laundering.
    Thank you.

                           prepared statement

    Senator Campbell. Thank you, Mr. Morris. We have your 
complete statement and it will be made part of the record.
    [The statement follows:]
                Prepared Statement of Stanley E. Morris
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to discuss the mission and the fiscal year 1998 
appropriations request of the Financial Crimes Enforcement Network 
(FinCEN).
    FinCEN is a unique agency with an incredible breadth of 
responsibility, particularly considering its size. It has thousands of 
law enforcement customers, regulates hundreds of thousands of financial 
institutions, and provides global leadership on the problem of money 
laundering. Much is expected of it--and much is delivered. FinCEN 
operates in diverse forums, addressing extremely complex issues. It 
carries out its work with carefully tailored skills and resources 
enabling it to serve the broadest needs of its customers and the 
American people.
    This agency was first created seven years ago as a central source 
for financial analysis and intelligence retrieval to assist in the 
investigation of money laundering and other financial crimes. Then, two 
and a half years ago, its mission broadened to include regulatory 
responsibilities. And now with its burgeoning international programs, 
it serves as one of the key components of Treasury's anti-money 
laundering efforts.
    FinCEN's fiscal year 1998 budget request of 181 FTE's and 
$23,006,000 continues its support to law enforcement investigations, 
regulatory efforts, and international coordination. In addition, under 
FinCEN's appropriation, we are proposing that two one-time initiatives 
be funded from the Violent Crime Reduction Trust Fund: $1 million for a 
Secure Communications Outreach Program which would be designed to 
improve secure communications among Treasury's law enforcement bureaus; 
and $2 million in support of the President's efforts to encourage money 
laundering countries to institute internationally accepted anti-money 
laundering standards through training and technical assistance 
programs.
                   the magnitude of money laundering
    In order to appreciate FinCEN's approach to combating money 
laundering, it's important to understand the complexity of the problem. 
Today, I will discuss that complexity and then FinCEN's methods for 
helping to address the problem.
    Money laundering is the fuel for drug dealers, terrorists, arms 
dealers, and other criminals to operate and expand their enterprises. 
Indeed, organized crime can not exist much less flourish unless it can 
move its profits into legitimate financial institutions. If unchecked, 
money laundering has the ability to destabilize democratic systems and 
undermine economic and financial markets around the world. As commerce 
is globalized, so is crime. It is crucial that in a global economy, a 
comprehensive, international effort be waged to combat this threat.
    As Secretary Rubin has said in the past: ``In a global economy, a 
comprehensive, international effort is required to choke off the threat 
posed by money laundering. Also, the diffusion of responsibilities 
throughout government requires a coordinated and cooperative response 
within each government. In the United States, we have brought together 
elements of our Treasury, State and Justice Departments, and other 
agencies, to deal with the issue. Globally, other nations will 
similarly need to coordinate expertise from across a range of 
ministries.''
    The coordinated and cooperative response described by Secretary 
Rubin is at the heart of FinCEN's mission. It serves as a network, 
bringing together diverse groups with specialized expertise. It helps 
coordinate the anti-money laundering efforts of federal, state, local, 
and foreign law enforcement and regulatory agencies. All this is 
accomplished with 179 people--a small but very effective team.
    FinCEN accomplishes its missions in the following ways:
  --First, supporting law enforcement investigations at the federal, 
        state, and local level by providing intelligence and analysis;
  --Second, regulating financial institutions under the Bank Secrecy 
        Act--the BSA--(the nation's primary counter money laundering 
        law);
  --Third, helping to influence and guide the international fight 
        against money laundering through both bilateral and 
        multilateral initiatives; and
  --Fourth, playing a leadership role in creating unique approaches to 
        dealing with and beating sophisticated financial criminals at 
        their game.
    We do not accomplish these enormous tasks alone. FinCEN relies on 
its partners in law enforcement--at the federal, state, and local 
levels, the regulatory community, the financial sector, and numerous 
organizations around the world. The work is too complex and far-
reaching to do without the support and expertise of all the players.
                       i. law enforcement support
    The original mission of FinCEN centered on law enforcement case 
support. This is still our primary mission, but we have expanded it to 
include specially tailored forms of assistance. Let me describe the 
five categories of support.
    Direct Case Support.--Since its creation in 1990, FinCEN has 
provided almost 38,000 analytical case reports involving over 100,000 
subjects to federal, state, and local law enforcement agencies. Last 
year alone, FinCEN worked with more than 150 different agencies, 
answering more than 7,600 requests for investigative information. Using 
advanced technology and countless data sources, FinCEN links together 
various aspects of a case, finding the missing pieces to the criminal 
puzzle.
    Our compilation of databases provides one of the largest 
repositories of information available to law enforcement in the 
country. FinCEN's technology and expertise draws representatives from 
17 agencies--the major federal investigative agencies--in order to have 
direct access to our information. These are analysts and agents who 
serve long-term details at FinCEN. These individuals are critical in 
the case development process and act as a point of contact on essential 
law enforcement dissemination issues.
    Platform Access.--FinCEN support is also provided to law 
enforcement agencies through a ``Platform'' which is a way to permit 
others to use FinCEN's resources directly to carry out their work. 
FinCEN pioneered the Platform in 1994, offering training, office space 
and database access to employees of other federal agencies who needed 
to conduct research on cases under investigation by those agencies. 
Platform personnel are on the payroll of other federal agencies and 
come to FinCEN on a part-time basis to work only on cases being 
conducted by their own offices or agencies. These individuals know the 
needs of their organization and can support that need directly through 
database access. FinCEN is currently assisting 43 Platform participants 
from 21 agencies. About 10 percent of FinCEN's case work last year and 
20 percent so far this year was carried out through these Platforms.
    Artificial Intelligence Targeting System.--FinCEN's Artificial 
Intelligence (AI) system is yet another avenue available to law 
enforcement in the fight against money laundering. Through the 
employment of advanced AI technology, the system provides a cost 
effective and efficient way to locate suspicious activity in the tens 
of millions of currency transaction reports required by the Bank 
Secrecy Act.
    For the first time in the 25 year history of the act, every 
reported financial transaction can be reviewed and evaluated. This 
unique blend of state of the art technology within a user friendly 
environment provides intelligence analysts and federal investigators 
with the ability to link ostensibly disparate banking transactions, 
producing hundreds of leads for new investigations.
    FinCEN's innovative system finds potential suspects during the AI 
analysis who might have otherwise gone undetected. This technology and 
the expertise of FinCEN's analysts essentially find the needles in the 
haystack. Since the creation of the system in 1993, it has matched more 
than 39 million BSA reports against the algorithms of the system, 
revealing over 3,500 subjects.
    Support to ICG.--FinCEN also is supporting the Interagency 
Coordination Group (ICG) whose purpose is to share money laundering 
intelligence in order to promote multi-agency money laundering 
investigations. The group includes the Internal Revenue Service, the 
U.S. Customs Service, the Drug Enforcement Administration, the Federal 
Bureau of Investigation, and the United States Postal Service. FinCEN 
and the Department of Justice's Criminal Division, serve as advisors to 
the group. FinCEN provides a central site for the group's operations 
and the support of four personnel who provide research and analysis of 
the intelligence information generated by the group. This intelligence, 
coordinated in FinCEN's case lab, is then disseminated to case agents 
currently working major money laundering investigations in the field.
    Through analyzing information provided by the ICG, FinCEN's case 
lab has identified more than 5,000 bank accounts opened in the United 
States by Colombian/Mexican money launderers. By tailoring one of 
FinCEN's computer applications, these accounts have been linked to 
other accounts, providing additional intelligence.
    Several weeks ago, FinCEN hosted a meeting of more than 100 
investigators, analysts, and prosecutors to develop a strategy for 
leveraging the intelligence gained from this process. This law 
enforcement group is considering both domestic and international 
operations to cripple the major money laundering systems.
    Gateway.--FinCEN's network extends to state and local governments 
in order to ensure the widest possible anti-money laundering effort. 
Through a system called Gateway, state and local law enforcement 
agencies have direct, on-line access to records filed under the Bank 
Secrecy Act, the largest currency transaction reporting system in the 
world. BSA records contain information such as large currency 
transactions, casino transactions, international movements of currency, 
and foreign bank accounts. This information often provides invaluable 
assistance for investigators because it is not readily available from 
any other source.
    Using FinCEN-designed software, the Gateway system saves 
investigative time and money because subscribing agencies can conduct 
their own research and not rely on the resources of an intermediary 
agency to obtain BSA records. All states and the District of Columbia 
are now on-line with the system. In fiscal year 1996, Gateway processed 
49,466 queries from 45 states. Through February of this year, FinCEN 
has received 21,843 Gateway queries from 48 states.
    During the research and analysis process, Gateway electronically 
captures the information gathered on incoming inquiries and 
automatically compares this information to subsequent and prior queries 
from Gateway customers. About 17,000 subjects have been identified 
through Gateway. In addition, Gateway users ask FinCEN to match about 
600 new subjects each month against its other databases to identify 
potential parallel investigations. This technique enables FinCEN to 
assist state and local agencies in coordinating their investigations 
among themselves, and with federal agencies, through the sharing and 
exchanging of case data. (In other words, FinCEN has the ability to 
``alert'' one agency that another has an interest in their subject.) In 
1996, 356 ``alerts'' were given to agencies who had an interest in the 
same investigative subject. From October 1996 through February 1997, 
186 ``alerts'' were issued.
    Since the inception of Gateway in 1994, 463 representatives of 
state and local law enforcement (to include state attorney general 
offices) have been trained on Gateway. As of March 1, 1997, there were 
354 active users of the system.
    In all the programs I just described, our goal is to give our 
customers access to as many tools as possible to build their 
investigations and to share our expertise in as many ways as possible. 
With the volume and complexity of the work, it is impossible to always 
do their analysis and intelligence gathering for them. Nor should we 
try. Agencies know best what they need for their case work. FinCEN 
strives to find all the avenues--whether it be traditional data 
analysis, detailee support, Platform, Artificial Intelligence System, 
the ICG or Gateway--to leverage our resources to efficiently and 
effectively serve the greatest number of customers. I believe that if 
we did nothing more than this law enforcement investigative support, 
FinCEN would justify its resources, but we do much more.
              ii. anti-money laundering regulatory program
    The link between FinCEN's law enforcement mission and its 
regulatory mission is vital. The first mission finds ways to create and 
manage information needed by front-line investigators and prosecutors, 
and by policy makers. On the regulatory side, the Bank Secrecy Act is 
used to require the preservation at financial institutions and, where 
appropriate, the reporting, of that information to law enforcement.
    It makes no sense to require information--and impose burdens on 
banks and others--if the information isn't essential to our anti-money 
laundering strategy. And, it makes no sense to have potentially useful 
information that you can't get to an investigator in time for 
successful case development.
    That's where the BSA and FinCEN's database management and 
exploitation programs come together. The BSA increasingly supplies the 
input, and FinCEN's law enforcement support supplies the output. We 
endeavor only to require information of a type and in a form we can 
really put to use, and to use the BSA to get that information in a way 
that our database systems and intelligence programs are prepared to 
handle.
    Our regulatory program reflects two principles. First, effective 
anti-money laundering programs must address the needs of law 
enforcement without creating unnecessary burdens on the financial 
community. FinCEN works in partnership with banks and others to 
establish these policies and regulations to prevent and detect money 
laundering. Second, the Bank Secrecy Act rules must be of use to, and 
capable of audit and enforcement, by other agencies--the five federal 
financial supervisory agencies (as well as in some cases state banking 
officials), the Securities and Exchange Commission, the Examination 
Division of the Internal Revenue Service, and federal and state law 
enforcement agents and prosecutors. I think you can see how complex the 
issue is--just in the number of organizations involved in the process, 
much less the complexity of the regulations themselves.
    None of this is easy for a small agency (or for that matter a big 
agency). There are more than 200,000 financial services providers--from 
the largest money center banks to the scattered currency exchange 
businesses along the Southwest border, with hundreds of variations in 
between--that are subject to the BSA rules. Enforcement authorities 
around the nation--and, importantly, the Congress--look to us to use 
the BSA, as intended, to come up with appropriate civil strategies to 
prevent, detect, and enforce the laws against money laundering. At the 
same time, these financial institutions (from big to small) look to us 
for rules that make sense, don't impose unnecessary or arbitrary costs, 
and fit their own sense of what it takes to fight financial crime 
effectively.
    So there is no place for quick, ``off the rack'' solutions. There's 
no cookbook listing the recipes, let alone describing how to get the 
wide variety of regulators, agencies, and financial institutions 
involved to understand and to use the rules effectively.
    The financial industry is a crucial part of this picture. As we've 
often said, we cannot succeed in fighting money laundering in a 
professional world that separates enforcement and regulation, or the 
public and private sectors. We must break down narrow and parochial 
thinking. We need to be more flexible and creative than criminal 
organizations. Thus, our strategies for prevention emphasize working 
with the legitimate businesses that see potential money launderers 
first, up close--that is, banks and other financial institutions.
    FinCEN's regulatory program is developed in close consultation with 
the public and private officials represented on the Bank Secrecy Act 
Advisory Group (BSAAG), which has proved extremely effective as a forum 
for a frank exchange of views and fostering of increased cooperation 
and understanding between law enforcement and the financial community. 
Since its creation in 1994, the BSA Advisory Group has been hailed by 
the Treasury, Advisory Group members, the public and the G-7 Financial 
Action Task Force as an innovative way for government and industry to 
work together in a partnership to fight financial crime while reducing 
industry's regulatory burden.
    The group's members represent the financial services industry, from 
big banks to small ones, as well as the securities and casino 
industries and the nonbank sector, such as check cashers, money 
transmitters and traveler's check issuers. In addition, there is 
representation from state and federal law enforcement and regulatory 
authorities. The group discusses the problems of domestic and 
international money laundering and the programs created to fight 
financial crimes.
    Both in the design and formulation of the details of regulatory 
proposals, FinCEN consults on a regular basis with officials in other 
federal enforcement and regulatory agencies, both within the Treasury 
and Department of Justice, and, as we said, with financial industry 
officials. State officials are also consulted where states have 
significant experience and primary regulatory responsibility.
    Let me describe some examples of how FinCEN's regulatory strategy 
focuses on increasing the quality of the information and preventing our 
financial institutions from being used for money laundering:
    Exemptions.--Currency Transaction Reports--CTR's--(reports which 
are filed by banks on cash transactions over $10,000) and other key BSA 
reports still provide the basic raw material for FinCEN analyses--in 
individual cases and for broader analyses of patterns of illegal money 
movement. But the meaningful CTR data is often obscured by a large 
volume of information that is not necessary or relevant--and that clogs 
the system. In fact, the BSA database is made up of more than 100 
million reports filed by financial institutions.
    Last year more than 12 million CTR's were filed, the significant 
majority of which involved legitimate commercial transactions. While 
banks are permitted to ``exempt'' certain transactions from CTR 
filings, the existing process is too complicated, requires constant 
monitoring and creates significant liability for penalties for 
mistakes. With these risks and advances in technology, many banks have 
decided to file CTR's rather than exempt.
    So we're trying to use the Congressional directive in the Money 
Laundering Suppression Act to unclog the system. FinCEN has issued an 
interim rule (soon to be a final rule) which creates ``bright line 
tests'' by which banks may exempt most publicly traded companies and 
their subsidiaries as well as transactions with domestic banks and 
government agencies realizing that these CTR's are ``of little or no 
value for law enforcement purposes.''
    Also, we hope very soon to issue a notice of proposed rulemaking 
totally eliminating the present--complex, costly and much criticized--
exemption system by expanding the types of businesses eligible for 
exemption beyond the entities listed above to also provide simplified 
procedures to exempt retail, wholesale and service businesses as well. 
The purpose of these proposed rules is to cut the number of filings by 
at least half and release the banks from burdensome processes so that 
they can focus on information important to investigators such as the 
reporting of suspicious activity.
    It's important to note that when the substance of our proposals was 
first announced by FinCEN, the American Bankers Association issued a 
news release applauding the effort, stating in part, ``FinCEN's new 
currency transaction reporting exemption regulation is a victory of 
reason over process...(these changes) will cut down on paperwork, save 
the banking industry millions of dollars and allow law enforcement to 
focus on truly suspicious activity.''
    SARS.--Working closely with the Federal Reserve Board and the other 
regulatory agencies, the new Suspicious Activity Reporting System 
(SARS) focuses on information government does require--information 
about transactions that appears to represent attempts to launder funds 
or violate the banking laws. The SAR system allows banks to report 
suspected criminal activity such as bank fraud, misdeeds by bank 
officials, tax fraud, check kiting, credit card fraud, embezzlement or 
money laundering, to one collection point.
    The new system, which went into effect in April 1996, merged and 
revolutionized two older reporting systems that had been in place for 
over a decade. Under the old system, banks filed more than two million 
pieces of paper, usually through the mail, in order to report 
suspicious activity occurring at or through banks; separate filings 
were made with numerous law enforcement and regulatory agencies, and no 
uniform mechanism for tracking the referrals (or even knowing that they 
had been made at each agency) existed.
    This single centralized system allows more than a dozen federal law 
enforcement and regulatory agencies to use the information in these 
reports simultaneously. The single filing point for banks permits the 
rapid dissemination of reports to appropriate law enforcement agencies, 
provides for more comprehensive analyses of these reports, and results 
in better information about trends and patterns which is vital to 
Treasury enforcement in our efforts to address money laundering. As of 
this month, financial institutions have filed almost 65,000 SARS. And 
about 40 percent of SARS filings reported suspected money laundering 
activity.
    The system is administered by FinCEN in a unique partnership with 
the IRS Detroit Computing Center, federal law enforcement and the five 
bank regulatory agencies. In the context of technology and keeping one 
step ahead of criminals, the SARS will significantly improve law 
enforcement's ability to detect, analyze and understand criminal 
financial activity. The users of the information--the IRS/CID, U.S. 
Customs, U.S. Secret Service, the FBI, the U.S. Attorneys, the federal 
bank regulators, and state law enforcement agencies and banking 
supervisors now have equal access to the data as soon as its processed.
    Wire Transfer Rules.--The world's intricate wires transfer systems 
move over $2 trillion a day, involving over 500,000 transactions. In 
the past, wire transfers offered criminal organizations an easy, 
efficient and secure method of transferring huge sums of money over a 
very short period of time. However, two funds transmittal (wire 
transfer) rules issued jointly by FinCEN and the Federal Reserve became 
effective on May 28, 1996. Requiring years to design, these wire 
transfer rules preserve an information trail about persons sending and 
receiving funds through wire transfer systems, helping law enforcement 
agencies trace criminal proceeds.
    Casinos.--Since 1985, when state-licensed casinos were first 
subjected to the safeguards and controls of the BSA, the size and 
availability of casino gaming in the U.S. has increased dramatically. 
At that time, the new rules applied only to casinos in Puerto Rico and 
Atlantic City, New Jersey. Under an agreement between the state of 
Nevada and Treasury, that state's casinos were subject to a separate 
regulatory regime. Today commercial casino gaming is authorized in 
fifteen states and accounts for nearly half a trillion dollars in 
wagered funds.
    Concurrently, there has been a significant expansion in the 
availability of bank-like financial services provided to casino 
patrons, including the establishment of deposit and credit accounts, 
and money transfer, currency exchange and check cashing services. Given 
the large volume of activity occurring at casinos, and the cash-
intensive nature of transactions, this industry is vulnerable to abuse 
by customers intent upon committing money laundering, tax evasion and 
other financial crimes.
    FinCEN has worked closely with the industry to ensure that 
effective anti-money laundering programs exist, including working with 
the new American Gaming Association and state casino associations and 
regulators from Nevada, New Jersey, Puerto Rico, Mississippi and other 
jurisdictions.
    Tribal Casinos.--In addition to the growth in state-licensed 
gaming, in the six years since Indian tribal casinos were first 
established in the U.S., this segment of the industry has spread to 
nearly half of the states and accounted for over $50 billion in funds. 
In order to meet Congress' direction in the Money Laundering 
Suppression Act to end the disparate regulatory treatment of tribal 
casinos, and in recognition of the unanticipated growth of this 
industry, FinCEN began the extensive process of meeting with 
representatives of tribal governments, casino operators and others 
associated with this industry. We conferred with The National Indian 
Gaming Commission, National Congress of American Indians and, most 
especially, the National Indian Gaming Association.
    In April, 1996, FinCEN sponsored a BSA conference designed 
specifically to address compliance with the new regulations. While 
tribal representatives often express concern over the potential threat 
to their tribal sovereignty, FinCEN has been cited favorably for its 
willingness to work with the tribal community through the regulatory 
process.
    Moreover, our regulations were designed to avoid a contentious 
issue between tribal and state governments, by applying these 
regulations uniformly regardless of whether state-tribal compacts were 
in force. This rule received no critical comments and, on August 1, 
1996, it went into effect largely as proposed.
    Our experience in dealing with casinos has taught us that non-
traditional financial services providers require special attention, and 
also a creative, and sometimes flexible, regulatory approach. That 
experience should serve us well as we deal with the challenge of 
upgrading BSA compliance and anti-money laundering controls in what 
we've come to call ``money services businesses,'' a subject to which 
I'd now like to turn.
    Money Services Businesses.--As you may know, hearings were recently 
held by the House Banking Committee which focused on a geographic 
targeting order, or ``GTO.'' The U.S. Customs Service, IRS, New York 
City Police, FinCEN, and others supported an anti-money laundering 
operation which caused a dramatic reduction in the amount of illicit 
funds moving through New York money transmitters. The GTO required 22 
licensed transmitters of funds to report information about the senders 
and recipients of all cash purchased transmissions to Colombia of $750 
or more.
    As a result of the GTO, the targeted money transmitters' overall 
business volume to Colombia dropped by approximately 30 percent. With 
this mode of moving money to Colombia restricted, the criminals had to 
find other means of moving their money so they turned to bulk 
smuggling. This method of money movement is vulnerable to law 
enforcement interception and resulted in a dramatic increase in the 
amount of currency seized along the East coast--over $50 million while 
the GTO was in effect. This figure is approximately four times higher 
than in previous years. The GTO was a great success story for both 
federal and local law enforcement.
    The GTO focused a search-light on a little-understood but very 
large and important part of the financial sector. This is the class of 
non-bank businesses that sell money orders and travelers checks, 
transmit funds, exchange currencies and cash checks. (We think the 
businesses are better-described by the term ``money services 
businesses'' than ``non-bank'' financial institution, because the 
latter term also includes broker-dealers, insurance companies, and 
gaming businesses.) Although the businesses that offer these products 
are often small, the industry is anything but. It is estimated that 
$200 billion passes through these businesses each year. As I indicated 
above, we think that there may be in excess of 200,000 businesses 
nation-wide that offer one or more of these products.
    Of course, as in the case of the nation's banks and securities 
firms, most money service business operators and agents are law-
abiding, cooperate with enforcement authorities, and, in truth, are as 
interested in cost-effective financial law enforcement as we are. But 
the GTO indicates that we need to pay more attention to updating the 
way the BSA applies to these businesses, and to equalize the money 
laundering controls to which various types of financial institutions 
are subject; this is not just a question of new rules, but rather of 
extending existing rules to non-bank money service providers.
    Three proposed rules to address money services businesses are 
currently under review. Each of them is better because of our 
partnerships with industry and law enforcement. The first proposal sets 
forth a registration scheme that is designed to capture crucial 
information about money transmitters, check cashers, currency 
exchangers and issuers, sellers, and redeemers of money orders and 
traveler's checks, while at the same time not imposing an undue burden 
on small businesses engaged in providing these services.
    The other two proposals would extend the suspicious transaction 
reporting requirement to certain categories of money services 
businesses and require special currency transaction reporting and 
recordkeeping by money transmitters. These proposals are based not only 
on the general knowledge of the industry that we have gained in 
connection with the registration proposal, but also on the experience 
of the New York GTO.
    I want to emphasize that the three packages I've described are 
still in review and are simply notices of proposed rulemaking. We look 
forward to working with industry groups to refine the proposals to 
strike the necessary balance between the many competing factors that 
must be weighed to devise workable rules in this area.
    As I think you can see, we've been asked to tackle a wide variety 
of problems and issues on the regulatory side. There is no set of 
``instructions for assembly'' that comes with these tasks, and few 
precedents for designing a regulatory system that truly enlists the 
cooperation of financial businesses in making money laundering harder 
to carry out and easier to detect. As in the case of our law 
enforcement support operations, I hope you'll agree that the taxpayers 
would be getting their money's worth if all of FinCEN's efforts were 
devoted simply to re-engineering the BSA. Still, we are required to and 
should do more.
                     iii. international initiatives
    The ``business'' of laundering money in the United States is being 
made more difficult. The consequences of these successes here at home 
are two-fold. First, criminals are being forced to search for financial 
systems beyond our borders in which to disguise their illicit proceeds. 
Secondly, a growing list of countries are recognizing the corrosive 
dangers that unchecked financial crime poses to the integrity of their 
economic and political systems. As a result, countries are seeking 
Treasury's and FinCEN's assistance in establishing effective anti-money 
laundering programs.
    We are meeting the challenges created by a borderless marketplace 
for money launderers by developing and fostering bilateral and 
multilateral initiatives aimed at whittling down the number of 
countries who choose not to play by international standards. FinCEN has 
helped Treasury provide international leadership in developing and 
fostering global anti-money laundering strategies, policies, and 
programs, and reaches out to assist countries in implementing those 
standards. FinCEN has received worldwide recognition for its 
capabilities and accomplishments and we are frequently called upon to 
provide guidance and assistance in multilateral fora, as well as in 
individual government-to-government exchanges.
    Our principal efforts in the international arena include:
    Financial Action Task Force (FATF).--In just the past three years, 
FinCEN has been instrumental in revitalizing the world's premier anti-
money laundering organization, the Financial Action Task Force. Created 
at the G-7 Economic Summit in 1989, the FATF is comprised of 26 
countries. It is dedicated to promoting the development of effective 
anti-money laundering controls and enhanced cooperation in counter-
money laundering efforts among its membership and around the globe. 
FinCEN serves as the lead agency for coordinating the U.S. role within 
the FATF. It heads up the U.S. delegation which consists of Treasury, 
State and Justice, and I am one of six members of the FATF Steering 
Group.
    The U.S. held the Presidency of the FATF from July 1995 to July 
1996. During the U.S. presidency, FinCEN spearheaded the successful 
effort to strengthen the Task Force's 40 recommendations, the standards 
for countries to follow in combating the laundering of criminal 
proceeds. This was the first update to the recommendations since they 
were issued in 1990.
    FATF also mandates ``mutual evaluations''--regular, on-site peer-
group examinations of each member nation's progress in implementing 
anti-money laundering controls. A mutual evaluation of the United 
States was conducted in December 1996. The positive evaluation that the 
United States received lends international credibility to U.S. anti-
money laundering programs as well as further establishes U.S. 
leadership in countering money laundering worldwide.
    FinCEN has given new focus to FATF's Annual Typologies Exercise, 
this year persuading FATF to issue a public version of its report. The 
annual typologies meeting brings together law enforcement 
representatives from member countries to discuss current money 
laundering trends and patterns. Disseminating public versions of these 
reports to financial institutions in the private sector provides them 
with valuable feedback about the usefulness of compliance programs to 
law enforcement. This year's report contains an annex which discusses 
the money laundering implications of emerging payment systems, such as 
electronic money (e-money) and Internet transactions.
    A primary goal of the U.S. has been to expand FATF's anti-money 
laundering standards to key regions around the world. To this end, it 
has encouraged the development of sister organizations such as the 
Caribbean Financial Action Task Force (CFATF) and the Asia/Pacific 
Group on Money Laundering.
    FinCEN played a role in the success of a conference held in October 
1996 in South Africa. The conference resulted in 13 countries from the 
region agreeing to seek the establishment of a Southern and Eastern 
African Financial Action Task Force. We are especially encouraged by 
this first but important step towards bringing a key region of the 
world under the FATF umbrella.
    With strong encouragement from the United States, the current 
President of the FATF has been developing contacts with the 
Multilateral Development Banks, such as Asian Development Bank and the 
Inter-American Development Bank.
    Financial Intelligence Units and the Egmont.--We are witnessing a 
new world-wide phenomenon, that is the establishment of financial 
intelligence units (FIU's) in countries through out the globe. These 
units serve as the central focal point for countries' anti-money 
laundering efforts. Just five years ago, there were less than a handful 
of FIU's in the world. Today, there are at least 29 such units. The 
momentum for this development came about as a result of several years 
of an intensive anti-money laundering effort by FinCEN and its 
counterparts in Europe and Australia.
    Under the leadership of FinCEN, a core group of FIU's met for the 
first time in Brussels in 1995 and created an organization known as the 
Egmont Group. This group serves as an international network, fostering 
improved communication and interaction among FIU's in such areas as 
information sharing and training coordination.
    Although differing in size, structure and individual 
responsibilities, Egmont members share a common purpose--cooperation in 
the fight against money laundering through information exchange and the 
sharing of ideas.
    The effort to increase communication among FIU's has been furthered 
by FinCEN's development of a secure web site which will permit members 
of the Egmont Group to access information on FIU's, money laundering 
trends, financial analysis tools, and technological developments. We 
cannot emphasize strongly enough the importance we place on the 
expansion of financial intelligence units around the world. It is the 
embodiment of the network concept offering support to law enforcement 
nationally and internationally.
    International Criminal Police Organization (Interpol).--Interpol is 
an international organization established to facilitate information 
sharing and coordination among nations in worldwide criminal 
investigative matters. Treasury's Under Secretary for Enforcement has 
served on Interpol's Executive Committee. At the 64th session of 
Interpol's General Assembly held in October 1995, a resolution was 
unanimously adopted establishing the first major anti-money laundering 
declaration in the organization's history. Additional progress against 
money laundering is made through annual financial analysis conferences 
which FinCEN co-sponsors with Interpol's FOPAC unit. In fact, just 
yesterday I was in Buenos Aires at the annual FinCEN-FOPAC conference, 
where more than 20 countries were discussing the ways governments can 
use suspicious activity reports filed by financial institutions to 
combat money laundering.
    Interpol is also focusing on money laundering controls in the 
countries of the Former Soviet Union and Eastern European. As these 
governments struggle to put into place effective regulatory and legal 
infrastructures, ample opportunities for criminals to launder their 
money exist. The Secretary General of Interpol called upon FinCEN to 
lead an examination of the economic environment and factors that impact 
money laundering in 15 of 26 of these countries. Since July 1995, 13 of 
the 15 reports have been drafted under ``Project Eastwash.''
    FinCEN and FOPAC's combined efforts have generated the political 
will in several of these countries to begin establishing anti-money 
laundering regimes. For example, the Latvian government used our 
Eastwash report as the impetus to push forward with efforts to develop 
new anti-money laundering measures. Through attendance at the annual 
financial analysis conferences, Slovakia and Czech Republic moved to 
establish FIU's, and most recently, several Latin American countries 
(Argentina, Colombia, Uruguay, and Bolivia) used these discussions to 
initiate similar efforts.
    Summit of the Americas (SOA).--In December 1995, Treasury Secretary 
Rubin chaired a conference in Buenos Aires, Argentina, that was 
attended by Ministers from 29 of the 34 SOA nations. FinCEN led the 
year long effort to lay the groundwork for the Buenos Aires Conference 
by coordinating the development of a Communique--a document which 
commits each of the participating countries to take a series of steps 
to combat money laundering.
    Treasury and FinCEN, along with other agencies, are leading the 
follow-up efforts to the conference. This includes offering coordinated 
training and assistance to SOA participating countries. The process is 
beginning to take effect. At least 25 of the 34 Summit countries have 
taken positive steps toward implementing the communique by passing, 
amending or drafting legislation, or issuing related regulations.
    Money laundering continues to pose a serious threat to the 
stability of the world's financial institutions. Yet, in the past two 
years, more than 25 countries with as varied political systems as 
Bulgaria and New Zealand have passed anti-money laundering laws. About 
a dozen others such as Russia, Israel, Ukraine, and Mauritius have 
draft laws or regulations pending.
    The role that the United States plays, both by itself and as part 
of multilateral efforts, is critical in setting effective standards in 
the fight against money laundering. FinCEN is at the forefront of this 
world wide movement. We have found that it is important to share our 
expertise--as well as our mistakes--with our foreign counterparts. 
FinCEN representatives have visited five continents and more than 50 
countries in the past three years urging these countries to take the 
money laundering threat seriously and adopt effective anti-money 
laundering measures. We have also acted as host to 313 visitors 
representing 71 countries since the fall of 1995.
                             iv. leadership
    The fourth and final area goes to fundamentally how we get all of 
this done. As I said earlier, we are indeed, a small agency. I hope 
that it is also recognized that small does not mean unimportant as 
evidenced by our critical and in many cases, leading role in the fight 
against financial crime. Granted, we do not have a sizable work force. 
Therefore, we cannot possibly do everything ourselves, but it isn't 
size but rather expertise and the help of others that permits us to 
accomplish our many missions. In fact, it is our small size that allows 
us the flexibility to operate as our name suggests, i.e., as a 
``network.''
    Candidly, we like being and want to remain relatively small. We do 
not want to increase our size substantially but rather our 
effectiveness and ability to influence others. In short, we must rely 
on our own skills to persuade and lead.
    In the era of financial globalization, no single set of skills or 
tools alone can protect the financial system from abuse. One reason we 
are able to accomplish so much with so few is the diversity and 
professional dedication of the men and women of FinCEN. We are former 
bankers, linguists, law enforcement agents, regulatory officials, 
academics, lawyers and computer experts. This is why we are able to 
lead and think outside of the status quo. And, I would like to mention 
a few areas to illustrate what I mean.
    Technology.--In the area of technology, we really are pioneers. 
FinCEN uses state of the art technology to not only strengthen its own 
capabilities, but also to improve the means by which we provide 
investigative support and analysis to law enforcement.
    In addition to having what has been called one of the best and most 
informative government Web Pages on the Internet by Federal Computer 
Week magazine, we have developed a sophisticated Intranet network of 
databases to link financial, law enforcement and commercial information 
to provide cost-effective and efficient measures (``one stop 
shopping'') for federal, state and local law enforcement officials to 
prevent and detect financial crime. FinCEN provides this information/
access for no charge, but it is true that there is no such thing as a 
free lunch. What we gain is additional information on investigations to 
assist future investigations; this allows us to link ongoing 
investigations together to avoid duplication, and assemble masses of 
data to identify strategic trends. In this regard, our Gateway system 
won an award in 1995 from Government Executive magazine for identifying 
creative ways to enlist the support of other entities.
    FinCEN's Artificial Intelligence (AI) system is another example of 
how FinCEN has used technology to improve the quality of information. 
And, as I described earlier, the SAR system has integrated technology 
and pooled the information, expertise and resources of several 
different regulatory agencies to develop a system that was better and 
more efficient for the government as well as the industry.
    Partnership.--Five years ago, the BSA concentrated on the reporting 
of currency being deposited into banks. Today, money laundering 
methods, as well as the financial service sector, has changed 
dramatically. Our success at deterring and identifying large currency 
deposits has forced criminals to use alternative more sophisticated 
methods to gain access to the financial systems. As a result, we have 
had to employ more sophisticated counter measures. Now financial 
services are provided by hundreds of thousands of entities ranging from 
traditional depository institutions to broker dealers, state and Indian 
casinos, check cashers, currency exchangers, issuers and sellers of 
money order and travelers checks as well as money transmitters. 
Needless to say the government's resources dedicated to this fight have 
not and could not possibly increase at the same rate. Therefore, we 
have had to do more with what we have. We have done this by developing 
partnerships with the affected industries who share our mission as well 
as with other nations.
    Money laundering is a global problem and cannot be handled on a 
national basis. Treasury and FinCEN have led the world in promoting 
effective international anti-money laundering measures. As you have 
heard, we use the creation of regional organizations to ensure a level 
playing field and provide support and expertise to international 
organizations like FATF, CFATF, Organization of American States, the 
Summit of the Americas and emerging areas such as Africa and Asia.
    We have also begun to build new relationships with the nearly 30 
Financial Intelligence Units (FIU's) throughout the world. Toward that 
end, FinCEN has again used technology as an important tool. FinCEN, as 
the U.S. representative to this group, is coordinating the development 
of an International Secure Web System to provide a centralized 
information exchange service. Improved interaction and communication 
among the membership will serve a broad range of common goals in the 
area of information sharing and training and technical assistance.
    Leadership through inclusion is working at home on the domestic 
front. As you have heard, our Advisory Group is a sounding board and 
``reality check.'' The members are truly the best and brightest of the 
industry and do not work for the Treasury, but thankfully work with us 
to provide insight and recommendations for improvement. We have also 
used outside assistance in our study of the NBFI industry, not only by 
working with members of the industry, but also by commissioning studies 
to assist us in understanding the nature and importance of this 
industry. Therefore, the outreach beyond government is allowing us to 
develop effective and commercially feasible anti-money laundering 
measures.
    Another area of which I am very proud is FinCEN's study of emerging 
new payment technologies often referred to as E-Money. FinCEN was one 
of the first government agencies to begin studying this issue over 2\1/
2\ years ago. Our interest and ability to grasp and lead on this issue 
reflects our various responsibilities. As a regulator, we administer 
and maintain the largest currency reporting system in the world and our 
computer expertise and experience in attempting to curtail laundering 
of currency makes us particularly sensitive to crimes that could be 
facilitated by cutting-edge information technology. However, our most 
crucial role is that of being a network. E-Money, as expected, has 
raised many issues that go beyond FinCEN's or any other single agency's 
jurisdiction or mission. Our approach was to raise awareness of the 
issues and bring together and support government agencies and the 
private sector to work in cooperation to discuss the implication of 
these systems as they are being developed.
    Our efforts began with a September 1995 Colloquium in New York 
City. We chaired the FATF study of this topic and are supporting the 
work of the G-10 Working Party on Electronic Money. And again, we have 
employed technology. We have conducted computer-based E-Money war games 
and have sought out experts to support and validate our efforts to 
understand the industry. We are also developing money laundering 
simulation exercises with Rand Corporation which is an expert in 
simulations.
                               conclusion
    FinCEN's fiscal year 1998 budget continues the programs outlined 
above. I hope I have also been able to show the importance of a secure 
communications network among the law enforcement agencies and bringing 
nations into conformance with anti-money laundering standards--the 
purpose of our initiatives under the Violent Crime Reduction Trust 
Fund.
    Thank you again for the opportunity to share our efforts with the 
Committee. Please be assured that FinCEN will continue to use its funds 
wisely and look for new and innovative ways to lead in the fight 
against money laundering.

                          U.S. Secret Service

STATEMENT OF ELJAY B. BOWRON, DIRECTOR
    Senator Campbell. Director Bowron.
    Mr. Bowron. Mr. Chairman, I, too, would like to thank you 
and Senator Kohl for the opportunity to appear here today and 
discuss Treasury law enforcement, and specifically the Secret 
Service. I want to let you know that the entire executive staff 
of the Secret Service is here today and we want to pledge our 
commitment to continue a forthright and effective working 
relationship with the committee, and to thank the committee for 
all the support that it has given to the Secret Service.
    I have submitted a complete statement for the record 
detailing our budget request; and with the funding, the Secret 
Service will advance the attainment of its general strategic 
goals, which are: First, to maintain the highest level of 
physical protection possible through the effective use of human 
resources, protective intelligence, risk assessment, and 
technology. Second, to protect the integrity of the Nation's 
financial payment systems through criminal investigations, and 
the assessment of trends and patterns to identify preventive 
measures to counter systemic weaknesses. Third, to foster 
partnerships with both State, local, and other Federal law 
enforcement, as well as private industry and the affected 
industries specifically.
    I really think that is sufficient for my abbreviated 
statement, and I am prepared to answer your questions.
    Thank you.

                           prepared statement

    Senator Campbell. Thank you, Mr. Bowron. Your complete 
statement will be made part of the record.
    [The statement follows:]
                 Prepared Statement of Eljay B. Bowron
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today.
    Before I introduce my associates who are with me today, I would 
first like to extend my congratulations to you Senator Campbell for 
assuming the Chairmanship of this subcommittee. In addition, I would 
like to extend my best wishes, and those of the men and women of the 
Secret Service, to all of the new members of this subcommittee. 
Further, I want to let you know that my colleagues and I pledge to 
continue a forthright, effective, and cooperative working relationship 
with the subcommittee.
    With me today, Mr. Chairman, are Richard J. Griffin, Deputy 
Director; W. Ralph Basham, Assistant Director for Administration; 
Richard S. Miller, Assistant Director for Protective Operations; 
Stephen M. Sergek, Assistant Director for Protective Research; Bruce J. 
Bowen, Assistant Director for Investigations; K. David Holmes, 
Assistant Director for Inspection; Lewis C. Merletti, Assistant 
Director for Training; Terrence Samway, Assistant Director for 
Government Liaison and Public Affairs; and John Kelleher, Chief Legal 
Counsel.
                 fiscal year 1998 appropriation request
    The Service's fiscal year 1998 funding request totals $605.8 
million and 5,027 FTE, and is comprised of three separate 
appropriations: the Salaries and Expenses account; the Acquisition, 
Construction, Improvement and Related Expenses account; and the Violent 
Crime Reduction Trust Fund account. Taken together, the funding 
requested for these three accounts is $17.1 million, or 2.9 percent, 
above the level of funding the Service received this fiscal year for 
these accounts.
    With this funding, the Service expects to further advance the 
attainment of its general strategic goals, which are: to maintain the 
highest level of physical protection possible through the effective use 
of human resources, protective intelligence, risk assessment, and 
technology; to protect the integrity of the nation's financial systems 
through criminal investigations, and assessing trends and patterns to 
identify preventative measures to counter systemic weaknesses; and, to 
foster partnerships with other federal, state and local law enforcement 
entities.
                      salaries and expenses (s&e)
    The Service's Salaries and Expenses appropriation request for 
fiscal year 1998 totals $575,971,000 and 5,007 FTE positions. This is 
an increase of $44,683,000, and 56 FTE over the fiscal year 1997 
appropriated level of $531,288,000 and 4,951 FTE. This request includes 
$32,385,000 and 28 FTE in program increases, $16,803,000 in upward 
adjustments necessary to maintain current program performance levels, 
and an increase of $5,000,000 and 28 FTE transferred from the Violent 
Crime Reduction Trust Fund (VCRTF). These increases are partially 
offset by $2,634,000 for non-recurring costs, and $6,871,000 in 
decreased mandatory changes in workload.
                          s&e program changes
    The Service is requesting $13,136,000 and 27 FTE to further 
implement White House Security Review recommendations. A portion of 
this funding is required to cover a shortfall in funding for additional 
staffing authorized for fiscal year 1997, and for additional technical 
and clerical FTE needed to maintain and support White House Security 
upgrades.
    Base incremental increases of $1,623,000 are requested for fixed 
site security and maintenance, and to cover a shortfall in funding 
required for the Departmental digital telecommunications system. 
Current base funding is insufficient for these mandatory requirements.
    The Service, as the Department's Executive Agent, is requesting 
$6,100,000 for the Federal Law Enforcement Wireless Users Group 
(FLEWUG). This program is jointly managed and funded by the Treasury 
and Justice Departments, and was established to plan implementation of 
a Public Safety Wireless Network (PSWN) for federal, state and local 
government agencies.
    Funding of $2,830,000 is being requested for a personal computer 
replacement program, and a local area network implementation program. 
With current base funding it would take 18 years to replace the 
Service's current personal computers, and 32 years to complete local 
area network implementation in all field offices. The requested funding 
will enable the Service to establish a five-year replacement cycle for 
personal computers and a phased six year Service-wide local area 
network implementation.
    The Service is requesting $996,000 and one FTE for its ongoing 
effort to meet standardized Departmental financial system requirements. 
This fiscal year 1998 funding will be used for modernizing the 
Service's information technology environment, for completing an 
analysis of procurement system requirements, for purchasing the 
financial management system travel subsystem, and for a portion of the 
procurement system hardware and software.
    Funding of $1,000,000 is requested for year 2000 conversion of the 
Service's information system applications.
    Funding of $5,000,000 is requested to increase base funding for the 
replacement of vehicles in the Service's investigative sedan fleet. At 
the beginning of fiscal year 1998, 49 percent of the vehicles in the 
sedan fleet will have over 60,000 miles on them--the current federal 
replacement standard. The requested funding will sustain a five-year 
replacement cycle for the investigative sedan fleet, and essentially 
meet the GSA mileage standard for replacement.
    The Service is also requesting an additional $1,700,000 to sustain 
an eight-year replacement cycle for its special purpose vehicles. This 
funding will likewise bring the replacement program for these vehicles 
in line with the replacement standard of 50,000 miles for these types 
of vehicles.
  acquisition, construction, improvement, and related expenses (acire)
    The Service's fiscal year 1998 request for the Acquisition, 
Construction, Improvement, and Related Expenses (ACIRE) account is 
$9,176,000; a reduction of $28,189,000 from the fiscal year 1997 
appropriation of $37,365,000.
    Of this amount, $7,176,000 is required for technical support 
services, special purpose equipment, information systems, dual 
operations and moving services relative to the Service's headquarters 
relocation. Funding for these fiscal year 1998 requirements is the 
responsibility of the Service, and is not covered with the construction 
of the building through the GSA's Federal Buildings Fund.
    Also budgeted under this account is $2,000,000 required to enhance 
the physical plant maintenance base for the Service's James J. Rowley 
Training Center. Base funding for routine maintenance and general 
improvement and upkeep of this facility is currently inadequate.
               violent crime reduction trust fund (vcrtf)
    The Service's fiscal year 1998 request for funding from the Violent 
Crime Reduction Trust Fund totals $20,664,000 and 20 FTE. This is 
$664,000 greater than the level appropriated in fiscal year 1997.
                         vcrtf program changes
    The fiscal year 1998 VCRTF budget includes $15,664,000 to further 
implement White House Security Review recommendations; $3,000,000 to 
support a number of task forces investigating financial institution 
fraud; and $2,000,000 to continue to provide unique technical expertise 
and assistance to federal task forces and to state and local law 
enforcement for investigations of missing and exploited children. 
Government Performance and Results Act
    The Fiscal Year 1996 Program Performance Report is included in the 
fiscal year 1998 budget request. This report presents actual fiscal 
year 1996 performance results. Virtually all significant annual 
performance goals were met, indicating movement toward achieving the 
long term strategic goals of the Secret Service. Most annual 
performance goals in the investigative area were either met or 
exceeded. This was particularly true in areas reflecting case quality 
and impact. Highlights of the Fiscal Year 1996 Program Performance 
Report include:
  --The number of travel stops involving the protection of foreign 
        dignitaries exceeded the level anticipated by over 50 percent.
  --The Secret Service closed 27,393, criminal cases resulting in 
        11,889 arrests, reaching its goal in this area. Additionally, 
        the Secret Service was able to surpass the planned number of 
        counterfeiting and financial crime cases closed by 
        concentrating investigative efforts in these high priority 
        areas.
  --By effectively utilizing its investigative resources, the Secret 
        Service was able to present financial crime cases for 
        prosecution consistent with the crime suppression strategies of 
        the U.S. Attorneys. This is indicated by both the increased 
        number of arrests for financial crimes, and the number of 
        defendants prosecuted at the Federal level.
  --The Secret Service also used its resources in a more efficient and 
        cost saving manner by focusing on significant criminal activity 
        and using joint task force operations. Again, this was 
        indicated with the increased numbers of cases closed and 
        arrests.
                           protective program
    The Secret Service protective operations program provides security 
for the President, the Vice President and other dignitaries and 
designated individuals; and protection of the White House and other 
buildings within Washington, D.C.
    Protective operations were extraordinarily active last fiscal year. 
In addition to the presidential campaign, and with the assistance of 
other Treasury law enforcement bureaus, massive protective security 
operations were successfully managed for the 50th anniversary meeting 
of the United Nations General Assembly, the visit of Pope John Paul II, 
and the 100th Anniversary Olympic Games. By any measure, this was an 
outstanding and historic effort.
    During the campaign, some of the more demanding protective 
operations, beyond the political conventions in San Diego and Chicago, 
were a presidential train trip and three presidential bus trips--each 
bus trip requiring over 100 motorcade vehicles. Also, a candidate/
nominee protection CD ROM historical archive was produced to aid in 
protective planning for the next campaign.
    In September and October 1995, during the 50th anniversary meeting 
of the United Nations General Assembly, 154 Heads-of-State and 72 
accompanying spouses received protection. This was the largest single 
protective event in Secret Service history. In comparison, this fiscal 
year, during the 51st annual meeting of the United Nations General 
Assembly, 34 Heads-of-State and 10 accompanying spouses received 
protection.
    In October of 1995, Pope John Paul II visited New York and 
Baltimore. Both of these stops involved huge crowds, large public 
events, and also involved visits by the President and Vice President.
    President Clinton had extensive travel both foreign and domestic 
during the past campaign year. In April, the President visited Japan, 
Korea and Russia. After his reelection, President Clinton traveled to 
Australia, the Philippines, and Thailand.
    In October 1996, the President suddenly called for a Middle-East 
Summit of the Heads-of-State of Israel and Jordan to be held in 
Washington, D.C. This unexpected event placed a tremendous burden on 
available resources. Despite many obstacles, a comprehensive security 
plan was established that contributed to the success of this major 
event.
    The Service is currently planning security for the 1997 Economic 
Summit of the Industrialized Nations, being held in Denver, Colorado in 
June. The President will host the Heads-of-State/Government and their 
spouses of Canada, Germany, Great Britain, France, Italy, and Japan. It 
is also anticipated that Russian leaders will be invited and that they 
will attend. The First Lady, the Vice President and Mrs. Gore will also 
attend the summit. This major protective event will require significant 
manpower and resources.
    Beyond meeting the challenges of major protective events, 
construction of the new White House Remote Delivery Facility (RDF) was 
completed last September, and became fully operational the following 
month. This facility, located at the Anacostia Naval Station, is where 
Secret Service personnel screen all mail, packages, equipment, supplies 
and furniture prior to delivery to the White House. With this facility, 
efficiency has been enhanced through the use of new, state-of-the-art 
palletized x-ray equipment. This equipment significantly reduces 
processing time.
    Co-located adjacent to the RDF is the new Vehicle Repair Facility 
which became operational last September. Armored limousines used for 
the President, Vice-President and foreign dignitaries are housed and 
repaired in this facility.
                          protective research
    The Office of Protective Research has oversight of the Service's 
protective intelligence, technical security, strategic planning, 
communications, and information resources management support for both 
the protective and investigative missions.
    Protective intelligence serves as a critical component of the 
Secret Service's protective mission. The Intelligence Division develops 
threat assessments in support of protectee visits to domestic and 
foreign settings; provides warning indicators for specific and 
generalized threat environments; strengthens liaison with the mental 
health, law enforcement, and intelligence communities; and conducts 
operational studies that are needed to stay at the forefront in the 
effort to predict dangerousness.
    During fiscal year 1996, the Secret Service investigated and 
evaluated 1,903 protective intelligence cases, resulting in 60 arrests 
and 226 mental health commitments. In the first quarter of fiscal year 
1997, 388 protective intelligence cases have been investigated and 
evaluated, resulting in 10 arrests and 44 mental health commitments.
    Also, during fiscal year 1996, the Exceptional Case Study Project 
(ECSP) final report on the behavior of all persons known to have 
attacked, or approached for potential attack, a person of prominent 
public status in the United States since 1950, was completed. ECSP 
information will be used to better recognize, evaluate, and manage the 
risks of targeted violence against protectees, before an attack occurs.
    The technical security program is involved in numerous, diverse 
security and investigative related efforts, including major initiatives 
resulting from the White House Security Review. The following 
summarizes the most recent efforts concerning these initiatives:
  --The third and final phase of additional security enhancements to 
        the White House itself is underway, and the second phase is 
        expected to be completed this fall.
  --Permanent crash resistant barriers and guards booths are currently 
        being installed at new control points around the White House 
        perimeter.
  --The Joint (command/control/communications) Operations Center is 
        under construction in the Old Executive Office Building, and 
        should be completed this spring. This center will consolidate 
        each critical element within the Secret Service that is 
        responsible for incident command and coordination at the White 
        House Complex. The center will be the focal point for all 
        security and life safety systems, communications, and 
        specialized detection and assessment programs affecting the 
        White House.
  --The Service's evolving chemical and biological threat detection 
        program utilizes specialized scientific equipment and systems, 
        and properly trained response teams, to mitigate potential harm 
        to protectees and protected facilities in the event of an 
        incident.
  --The Service expects to complete this fiscal year implementation of 
        a new integrated state-of-the-art White House Access Control 
        System (WHACS) that utilizes electronic badge readers, entry 
        turnstiles, and magnetometers.
    In the communications arena, the Federal Law Enforcement Wireless 
Users Group (FLEWUG) Program Management Office is operational. Plans 
for fiscal year 1997 are to complete the case study of Federal land 
mobile radio systems in use in Pittsburgh, Pennsylvania; establish an 
Iowa test bed for proof of concept testing of linking broad band fiber 
systems with land mobile radio or other high capacity wireless systems; 
and achieve initial operation of the Washington, D.C. test bed of 
narrow-band digital radios.
    In the Service's information resources technology program the 
mainframe computing and the client/server revolution continues to 
challenge the Service to carefully evaluate the proper mix of the two 
technologies. One example of integrating a client/server application 
with a mainframe application is the Combined Operations Logistics 
System (COLO) which was developed to support the daily operational 
needs of the candidate/nominee protection program.
                         investigative program
    The Service's investigative activity is a significant and critical 
element of its mandated mission. For over 130 years, the United States 
Secret Service has effectively served to protect the integrity of our 
nation's financial systems. Whether that involves the suppression of 
counterfeit currency, or the combating of financial institution, access 
device, or computer fraud, at the local or global level, the Secret 
Service has been successful; bringing to each of these investigative 
areas its unique expertise and forensic talents.
    United States currency has become the currency of choice world-
wide. As the international demand for U.S. dollars has risen over the 
past several years, the Secret Service has seen a marked increase in 
the production and seizure of counterfeit U.S. currency outside of our 
borders. An analysis of the counterfeit currency passed in the United 
States in 1996 revealed that more than 68 percent originated outside 
our borders.
    There exists a need to maintain emphasis on the interdiction and 
suppression of counterfeit United States currency outside our borders. 
Last year, in response to this need, the Secret Service continued to 
expand its overseas presence, by opening new offices in Hong Kong and 
Milan. Agents also are dispatched from domestic offices on temporary 
assignments, and temporary task force operations, to individual 
countries or regions where a specific problem exists.
    The Secret Service continues to conduct seminars and provide 
training to foreign and domestic authorities concerning the 
identification of genuine United States currency, and the detection of 
counterfeit. Foreign training is done under the aegis of the State 
Department. During fiscal year 1996, the Secret Service conducted more 
than 180 seminars and training sessions for law enforcement agencies 
and banking institutions, in more than 30 foreign countries. 
Additionally, more than 900 training sessions for law enforcement 
agencies, banking institutions, businesses, and civic organizations 
were conducted by Secret Service personnel here in the United States.
    Half of the counterfeit manufacturing plants that were suppressed 
by the Secret Service in fiscal year 1996 utilized new reprographic 
technology, such as office color copier machines and ink jet printers. 
The Secret Service is the only law enforcement agency with the ability 
to decode the identification systems that have been incorporated into 
the new, foreign manufactured generation of full color copier systems, 
and it has set legal precedence by having this technical evidence 
accepted in judicial proceedings. Through cooperation with the foreign 
copier system manufacturers, the Service can determine the copier 
system make, model, serial number, purchaser name and address, and in 
some cases, the date and time the counterfeit currency was created. 
Hopefully, domestic copier manufacturers will decide to include these 
covert security features in their products, thereby eliminating the 
need for legislation requiring that action.
    The Secret Service has seen the emergence of financial crimes go 
from the local level to a global level. The Secret Service is 
continually trying to allocate more resources to already established 
offices so that it may be successful in its efforts to suppress these 
criminal activities. Also, it is more important than ever before that 
we as an agency enter into a global partnership with other law 
enforcement.
    In its approach to financial crimes investigations, the Secret 
Service has developed a preventive, risk analysis concept, which seeks 
to identify systemic weaknesses and vulnerabilities within the 
financial industry. The Service continually develops strategies, which 
employ the latest technology, to combat the criminal exploitation of 
emerging systems and related technology. Experience and expertise 
acquired during the course of investigating these technical crimes is 
routinely shared with domestic and foreign law enforcement agencies, 
the financial industry, and legislative bodies.
    The Secret Service recognizes the future of its financial crime 
investigations will continue to evolve with technology. More than ever 
the Service must rely on its already established and continuing 
partnerships with national and international law enforcement agencies, 
to combat an ever changing global problem. The Secret Service's 
financial crime investigations will continue to develop a systemic 
approach to combat this form of economic terrorism. The actual losses 
associated with financial crime investigations conducted by the Service 
in fiscal year 1996 were limited to $500 million. This figure 
represents the actual losses to federally insured financial 
institutions and other financial systems. The Service is proud of the 
fact that, while these actual losses are very high, the savings to 
American businesses and private citizens are even higher. The potential 
for total losses in these investigations exceeded $10 billion. This 
figure, arrived at through standards set by the financial industries, 
indicates the loss which would have been incurred had the criminal 
activity not been stopped through the intervention of the Secret 
Service.
    Organized criminal groups are a rapidly growing phenomenon 
throughout the world. For the past ten years, the Secret Service has 
taken an aggressive approach to this organized criminal activity by 
establishing throughout the United States and internationally, task 
forces whose primary focus is the investigation of financial frauds 
committed by organized criminals. Our experience has shown that 
organized criminal groups are involved in myriad criminal activities, 
including credit card and bank fraud, advance fee fraud, immigration 
benefit fraud, government entitlement fraud, various types of insurance 
fraud, and the trafficking of narcotics.
    Organized criminal groups, based in West Africa, Hong Kong, Russia, 
and the Middle East, threatens the integrity of America's financial 
systems by defrauding U.S. citizens and financial institutions, and by 
conducting fraudulent operations beyond our national borders. In 
addition to dedicating resources to task forces which address 
transnational crime, the Service has a permanent presence on a variety 
of working groups. One such working group, the Lyon Group, is comprised 
of representatives from all G-7 countries, plus Russia and the European 
Union. In addition to addressing transnational organized crime issues, 
this assembly is setting the foundation for establishing law 
enforcement issues at the upcoming G-7 Summit in Denver, Colorado.
    The Service has instituted a counterfeit document database, 
containing specimens of counterfeit traveler's checks, credit cards, 
driver licenses, social security cards, and other documents obtained 
from investigations conducted throughout the world. These counterfeit 
documents contain unique characteristics which enable us to track 
criminals' movements, associate investigations, and identify trends. 
This information is helpful in determining total actual and potential 
monetary losses on both national and international levels. This level 
of monetary loss can affect federal sentencing guidelines.
    The Service recently established a state-of-the-art 
telecommunications and computer laboratory to facilitate investigations 
of the growing number of computer-related crimes. This lab is unique, 
in the sense that it focuses not only on the forensic examination of 
computers, but also on the technical examination of telecommunications 
devices.
    The Service's asset forfeiture program has matured. The key element 
to the success of the program has been its partnership with the 
Treasury Executive Office for Asset Forfeiture, and a constantly 
evolving approach which targets criminal enterprises that have a 
significant impact upon the financial community. An increasing number 
of Secret Service forfeitures involve organized criminal groups 
associated with large scale food stamp fraud, and bank fraud utilizing 
the desk top publishing to produce counterfeit financial instruments.
    The Service has continued to expand its use of advanced technology. 
The Service constantly is increasing the database for its Forensic 
Information System for Handwriting (FISH), which allows for the 
searching of handwritten threat letters directed toward the President, 
Vice President, former Presidents, visiting foreign Heads-of-State, 
members of Congress, and elected state officials. Recently, a database 
containing material related to missing and exploited children was added 
to this system. The Service continues to give full laboratory support 
to the Federal Agency Task Force on Missing and Exploited Children and 
the Morgan P. Hardiman Task Force. We also are expanding our Automated 
Fingerprint Identification System (AFIS), watermark, computer printer 
and ink database capabilities for protective and criminal 
investigations. The Service continually receives requests from other 
federal, local, and foreign law enforcement agencies and non-law 
enforcement agencies, and the intelligence community, to establish the 
date of authenticity of documents through forensic techniques.
    The Service strives to exploit and leverage technology in an effort 
to provide vital services to its field investigators, as directly and 
efficiently as possible. The Service continues to work toward extending 
the capabilities of its photo-imagery system to all field offices. This 
system allows investigators to quickly and accurately transmit digital 
images of photographs and documents between Secret Service field 
locations around the world. During the past year, the Service has 
developed and designed a new electronic Confidential Informant Database 
that complies with the guidelines set forth by representatives of the 
Treasury and Justice Departments. This database allows the Secret 
Service to manage, register, control, and compensate confidential 
informants using a secure and easy-to-use system.
    The Service continues to assist other federal, state and local 
governmental agencies by lending its expertise in conducting security 
surveys. Among several such projects conducted in the past year were 
surveys of the U.S. Capitol Complex, U.S. Supreme Court Building, and 
the Bureau of Engraving and Printing's Western Currency Facility in 
Fort Worth, Texas.
    Working with the Department of Housing and Urban Development the 
Service is continuing its involvement in Operation Safe Home by doing 
security surveys to combat crime in major metropolitan public housing 
communities. The Service resumed Operation Safe Home in March in 
Greensboro, North Carolina, after the manpower intensive protective 
events were completed. Future Operation Safe Home surveys are projected 
for fiscal year 1997 and fiscal year 1998 in Hartford, Connecticut; New 
York; Philadelphia; Gary, Indiana; Kansas City, Missouri; and the 
District of Columbia.
        new headquarters building and consolidation of training
    The new headquarters consolidation building design is complete. 
Below grade foundation construction is underway and is expected to be 
completed in August. The superstructure construction is scheduled to 
follow, with phased occupancy expected to start by August 1999.
    The design of the new administration building for the Rowley 
Training Center has been completed and the construction contract is 
being advertised. The construction contract is scheduled for award in 
June 1997, with construction to be completed by June 1998.
    The prospectus for the classroom building has been prepared and 
approved by the Office of Management and Budget. This prospectus is 
being forwarded by the General Service Administration to the Congress 
for authorization. With authorization action completed by June 1997, it 
is anticipated that the construction will be completed by August 1999.
    The Service has a proud history of performing its job very 
effectively. The Service moves into the future, with all of its 
uncertainties, as a unified force to perform its duel missions of 
providing the highest level of protection for the President of the 
United States and other designated domestic and foreign dignitaries, 
and protecting the nation's financial systems through its criminal 
investigations.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other members of the subcommittee may 
have.

                            Crime Prevention

    Senator Campbell. Maybe before I ask a few questions I 
might impart a little of my homespun philosophy. As some of you 
know, I used to be a volunteer counselor in Folsom Prison when 
I was a policeman and I was head of a board of directors for a 
halfway house out in Sacramento, CA. I know that the missions 
of all of your agencies have some common goals but it just 
seems to me from a broader standpoint when you talk about how 
do we reduce crime in America, boy, we are sure missing the 
boat on a lot of things. I know it is not your mission. Your 
mission primarily is prevention and interdiction and, perhaps, 
incarceration, too. I keep thinking as the drug war wages on 
and on and on that we do not seem to be making the kind of 
successful reduction that we would really like to see as 
Americans. Until we recognize that the law of supply and demand 
works for drugs like anything else and your efforts are almost 
all dealing with the supply side, and if Americans, themselves, 
cannot be convinced to reduce the demand it will be like 
Prohibition. You know, you can make all the laws in the world 
and you can have all kinds of good hardworking law enforcement 
people, but as long as Americans want it they will find a way 
to get it.
    We rarely put much effort in our crime prevention in 
education of youngsters, rehabilitation of those people who 
could be salvaged, and I know that is not in your bailiwick. 
But I remember one time when I was in Folsom I was talking to a 
convict there and he was just about to get out. He had been 
there 5 years. I asked him what he had done--he had sold dope, 
sold drugs--I asked him if what he had done was worth it to 
spend 5 years of his life in a penitentiary?
    And he told me, well, when I was selling drugs I was making 
a million bucks a year, and I'm here 5 years, that is better 
than working. And he had a point. The guy had made something 
like $5 or $6 million before he got caught and put away and it 
was just a matter of, you know, kind of a vacation for 5 years 
but the amount he had made, of course, some of that was 
confiscated and he did not get it all. Those things happen when 
he got collared but I got to thinking, holy smoke, if it is 
that lucrative and if it is that enticing some of these people 
are just looking at it like the risk you take to make those 
huge profits.
    I realize that has nothing to do with anything, I guess, in 
your mission, but I wanted to say that.
    Let me just ask and I will start with Under Secretary 
Kelly, the Office of Professional Responsibility was created by 
the House and signed into law by the 1997 omnibus 
appropriations bill. According to the House report no funds 
could be obligated for that office until the House and Senate 
Appropriations Committees received a detailed plan.
    Has there been work on that detailed plan?
    Mr. Kelly. Yes, sir; we are and have engaged in discussions 
with both this Committee staff and the House staff. Hopefully 
we will reach a resolution as early as tomorrow.
    Senator Campbell. Have you also been working with the other 
agencies on this plan?
    Mr. Kelly. Well, I have talked informally to some of the 
bureau heads about this. We have not had a plan to go forward 
with and brief. However, the structure of the office, as the 
report language indicates, is determined by the Under Secretary 
and the Secretary of the Treasury feels very strongly about 
this. I believe the structure, itself, is a management decision 
but we will hopefully have a plan at least approved by the 
House Committee by the close of business tomorrow and then 
hopefully with your approval we will be able to go forward.
    Senator Campbell. Thank you.
    One of the concerns expressed by some of our colleagues 
last year was the potential of duplication of efforts, most 
particularly between the Office of Professional Responsibility 
and the Treasury inspector general. Have there been steps taken 
to eliminate that or reduce that?
    Mr. Kelly. Yes, Mr. Chairman. There is no intention at all 
for this office to do inspector general type investigations. 
That is clearly the intention. It is, in essence, an inspection 
function rather than an investigative function.
    Senator Campbell. I thank you.
    In the breakdown of fiscal year 1998 budget request for OPR 
which accompanied the most recent draft organizational plan 
received by this subcommittee, 3.3 percent is requested for the 
Federal employee pay raise. As you know, the President has 
recommended that Federal employees receive an increase of 2.8 
percent. So, there is a little discrepancy. Can you explain 
that?
    Mr. Kelly. I think there was, in fact, an error in that, 
Mr. Chairman, hopefully that will be corrected when we put 
forward the final plan.
    Senator Campbell. I thank you.
    Let me go to Commissioner Weise. Am I pronouncing that 
right, or is it Commissioner Weise?
    Mr. Weise. It is Weise.

                           Operation Hardline

    Senator Campbell. The last three appropriations bills that 
passed Congress provided funding for the Hardline program which 
began in 1994 in response to a dramatic increase in what was 
called port runners or drug smugglers who try to crash through 
U.S. land borders in an attempt to escape inspection by Customs 
authorities. These incidents were a great threat not only to 
those trying to do the crashing, but to the agents, too.
    With Hardline there has been a reported 56 percent decline 
in port running incidents. Given the success of that program, 
can you tell the subcommittee how your fiscal year 1998 request 
would follow on that improvement?
    Mr. Weise. Yes, Mr. Chairman; I thank you very much for 
acknowledging it. I think it has been a very successful program 
and I am very appreciative for the support that this Committee 
has provided.
    With the resources that are requested in this pending 
budget before you, we would have an additional 119 inspectors 
that we would be putting into the cargo arena. One of the 
things that we fully expected when we clamped down on the ports 
of entry--where we had those instances that you talked about--
was that the smugglers were getting so brazen that they were 
not resorting to finding secret compartments, they were simply 
loading the drugs in the trunk of their car and when they got 
to the primary inspection booth, speeding through.
    We knew full well that one of the likely responses to our 
clamping down and reducing the opportunity to smuggle through 
that method would be the scenario of bringing the drugs in via 
commercial cargo and we have seen, as a matter of fact, record 
increases in the seizures that we have made in commercial 
cargo. That is one of the reasons that we are moving through 
our fiscal year 1998 budget to put more technology, more of the 
large container x-ray machines, as well as more inspectors into 
the cargo arena so that we can be sure that we are there ready 
for them as they come through using that method of smuggling.
    Mr. Chairman, you did not ask the question directly and if 
you would not mind--regarding the comment that you made to open 
the question and answer period, I would just like to say that 
in my judgment you are absolutely right, that we cannot solve 
the problem through interdiction alone. Interdiction is an 
extremely important component of trying to deal with the drug 
problem but we do need to deal with the demand side of this 
equation as well.
    And even though it is not the primary mission of any of the 
organizations here, I know Mr. Magaw can tell you about some 
ATF outreach initiatives. And, we in Customs have a number of 
individuals who take it upon themselves with their own time to 
go out into the schools with the canines, and you may have had 
an opportunity to see it work, to help the children early on to 
understand what illegal drugs are all about. And it has been a 
tremendously successful program.
    As I have traveled around and had the opportunity to talk 
to my inspectors, I try to reinforce that the work that they do 
at great personal risk in the trenches is something that is 
very rewarding to all of us and very important to the American 
taxpayer. But the work they do in those schools is perhaps, if 
not equally productive, more productive in terms of dealing 
with our overall drug mission. And I think that is an important 
point that I just wanted to get on the record.

                             Border Patrol

    Senator Campbell. I appreciate you pointing that out and I 
certainly commend those agents who are doing that on their own 
time. I guess one of the weaknesses of running for political 
office is that it sells when you talk about how tough you are 
going to be, you know, lock them up, throw away the key, that 
kind of business. But, when you talk about putting resources, 
money, toward education and prevention it does not seem to get 
the visceral rise of the voters. So many elected officials just 
turn gutless and they do not want to talk about putting money 
upfront to help kids, they just want to talk later about 
locking them all up which, as you and I know, is a hell of a 
lot more expensive.
    Given the 5,000 new Border Patrol agents that are going to 
come on with the INS; how will that affect the impact, the work 
of the Customs Service?
    Mr. Weise. Well, I cannot answer precisely. We have 38 
ports of entry along a 2,000-mile border between us and Mexico. 
What we found when the Border Patrol beefed up their resources 
through some very effective operations--Operation Hold the Line 
and Operation Gatekeeper--basically to deal with the threat of 
illegal immigrants crossing into the United States, as they put 
their forces in place between the ports of entry, that is when 
we had record numbers of the smuggling events at the 38 ports 
of entry.
    Senator Campbell. They look for the line of least 
resistance kind of?
    Mr. Weise. Exactly. They are looking for the point of least 
resistance and that is one of the points that we have attempted 
to make that if you only beef up one side of this and do not 
beef up the other side, in terms of the budgets with Customs 
and with INS and the Border Patrol, you find that there will be 
weaknesses in the system. So, I think it is important that you 
take a comprehensive view of that border and how the resources 
are allocated so that there is compatibility and consistency, 
so that we can maintain those strong defenses throughout the 
2,000-mile border.

                               Smuggling

    Senator Campbell. Well, clearly as you get better they get 
better after they find other ways. And you mentioned the 
hardlining, is that kind of the latest trend in smuggling or 
are there other ways that are beginning to be on the rise?
    Mr. Weise. Well, as you indicate they are tremendously 
resourceful and they basically respond and react to wherever 
our defenses are the greatest. One of the things that we have 
noted is that we would indicate that there has been a shift in 
smuggling patterns. We have seen, for example, that our 
seizures in south Florida and in the Caribbean have increased 
dramatically over the course of the last 2 years.
    Now, I cannot scientifically demonstrate that it is because 
of the defenses that we have put in Hardline but clearly they 
are changing patterns constantly, they are looking at points of 
least resistance. What we are seeing with Mexico, for example, 
is they are resorting to the waterways again. We have seen 
increasing smuggling efforts going into San Diego, around us, 
by sea and in Brownsville, in the gulf. So, we constantly have 
to be vigilant and try to stay not only with them but try to 
stay ahead of them.
    Senator Campbell. We have noticed in our area, the Rocky 
Mountain area, an increase. I guess as you apply more pressure 
in Florida or California they find the line of least 
resistance, there are more coming through our Mountain States. 
Last year, as you know, we did start a Rocky Mountain HIDTA 
program and your agency is involved in that. I would hope that 
they are gearing up and are of some assistance to the Customs 
Service, but I do not know if they are active at the ports of 
entry. Are they at all, the HIDTA program?
    Mr. Weise. Mr. Chairman, there is some activity in the port 
of entry but we also have 2,000 criminal investigators that are 
part of the investigative teams working in conjunction with the 
Drug Enforcement Administration in doing criminal 
investigations and Customs is a very active participant in all 
of the HIDTA's including the HIDTA that you referred to.
    Senator Campbell. I think I will go ahead and ask Senator 
Kohl if he has a few questions and maybe I will come back.
    Senator Kohl. Thank you very much, Mr. Chairman.
    Why don't we start out with you, Mr. Kelly?
    Mr. Kelly, according to organizational documents OPR is to 
provide oversight support in terms of independent factfinding 
and assessments of bureau actions, policy implementation, 
training, equal opportunity, internal affairs investigations, 
and other inspection issues. The office is to be staffed by 
high-level officials with agency background to provide 
independent factfinding and assessment of bureau actions and 
policy implementation. OPR will also conduct periodic reviews 
of bureau capabilities, including internal affairs and 
inspection issues.
    Mr. Kelly, do you see this generally as the purpose of OPR?
    Mr. Kelly. Yes, sir; I do.
    Senator Kohl. Mr. Kelly, should not the bureau directors 
work directly with you in providing necessary information and 
interaction?
    Mr. Kelly. Necessary information and interaction on a daily 
basis? Yes, sir; they do.
    Senator Kohl. Mr. Kelly, have the directors been given an 
opportunity to review the draft organizational plan?
    Mr. Kelly. Only on an informal basis and not all the 
directors. But as I said in my answer to the chairman, the 
appropriations subcommittee language or the report language 
indicates that the structure will be determined by the Under 
Secretary. When the Secretary of the Treasury has agreed to the 
structure that I put forward and we have a formalized, agreed-
to structure, then the bureau heads will certainly be involved 
in the fine-tuning of that.
    Senator Kohl. Well, do you believe that it is necessary to 
have the bureau directors to be given an opportunity to buy 
into this new plan?
    Mr. Kelly. Oh, yes; I do. Yes, sir.
    Senator Kohl. Do you think it is going to happen, will 
happen?
    Mr. Kelly. Do I think they will be given an opportunity? 
Yes, sir; I do, certainly. But we need, again, to come to final 
resolution on the structure of OPR. We have been in discussions 
with both the House Committee and the staff of this Committee 
and your staff, as well, sir. So, when we are able to do that 
then I think that would afford the opportunity to sit down and 
talk about the details of the implementation.

                 Office of Professional Responsibility

    Senator Kohl. I would ask the other directors whether or 
not you all support establishing OPR as defined by the Under 
Secretary?
    Mr. Weise.
    Mr. Weise. Yes; I support it.
    Senator Kohl. Any reservations?
    Mr. Weise. None whatsoever.
    Senator Kohl. Mr. Magaw.
    Mr. Magaw. Well, I would want to see the plan because we 
must be careful. I just want to make sure that the director 
still has the responsibility to run the bureau and if that 
would change, then I would not want to operate under those 
circumstances.
    Senator Kohl. Thank you.
    Mr. Rinkevich.
    Mr. Rinkevich. Senator Kohl, I have not had the opportunity 
to see the plan and I would associate my comment with Mr. 
Magaw's. I would like the opportunity to review it and 
understand how it would impact us. But I do think it is 
important that bureau heads have accountability along with 
responsibility for functions.
    I certainly have no objection and support proper oversight 
from the Department to a bureau, but there is a fine line 
between that oversight and the bureau director's responsibility 
to implement operationally the functions of that bureau.
    Senator Kohl. Are you suggesting that it is important that 
we carefully define and integrate how this is going to work? 
That it can work well but if we are not careful, it might not 
work well?
    Mr. Rinkevich. I think that is true.
    Senator Kohl. Mr. Magaw, is that what you said?
    Mr. Magaw. Yes, sir.
    Senator Kohl. Mr. Morris.
    Mr. Morris. Well, I had the opportunity to serve as chief 
of staff to Mr. Kelly's predecessor during the follow-on to the 
issues of Waco and the like. I support the concept and clearly 
the Under Secretary needs the tools necessary to oversee his 
obligations and responsibilities. And I know, at least when I 
was there at the main department of the Treasury he did not 
have them.
    So, I certainly support the concept. I am not aware of the 
details of the plan, but I think the concept makes a lot of 
sense.
    Senator Kohl. Mr. Bowron.
    Mr. Bowron. I am also not familiar with what the current 
plan is. I tend to think of an Office of Professional 
Responsibility as one having some responsibility for oversight 
of investigations and allegations of criminal conduct or 
unethical conduct, or misconduct on the part of bureau or 
department officials.
    And in that context, I think it is clear that Congress has 
supported the creation of an Office of Professional 
Responsibility. I think where the care really has to be taken 
is to be clear about the difference between oversight, policy 
oversight, and operational management or operational 
involvement outside of the affected bureau. And that would be 
my area of concern.
    I think there has already been a decision made and 
supported by Congress that an Office of Professional 
Responsibility is a necessary component. I would not second-
guess the judgment of Congress in that regard. Personally, I do 
not feel I have any shortage of oversight now between 
committees on both the House and Senate side, the Department, 
the inspector general, and the General Accounting Office. I 
think there is a lot of oversight right now.
    We should not duplicate any of that oversight but, by the 
same token, an Office of Professional Responsibility may have a 
unique niche that needs to be filled in this particular case.
    Senator Kohl. All right. I thank you very much.

                             Drug Seizures

    Mr. Weise, the drug seizures along the Southwest border 
rose between 1993 and 1995. Officials dealing with drugs 
acknowledge that the seizures are small compared with the 
mountain of drugs that traffickers are believed to smuggle from 
Mexico each year.
    For example, in 1995, we seized 119 tons of marijuana and 
marijuana believed to enter the United States by land was 4,000 
tons. Cocaine seized in 1995 was 11 tons, cocaine estimated to 
pass from South America to the United States in 1995 was 330 
tons. Heroin seized in 1995 was 89 pounds, and heroin estimated 
to arrive from Mexico to the United States in that same year 
was 5.5 tons.
    According to the Office of National Drug Control Policy's 
figures, Customs is only seizing 1 percent of all drugs 
smuggled into the United States. What is Customs doing to 
increase drug smuggling interdiction efforts? Is it an 
impossible problem? One percent, Mr. Weise.
    And this is not being critical, we understand the 
difficulty of the problem, there is no suggestion of effort or 
competence or anything else of that sort. When you look at that 
percentage the estimate is 1 percent that we are managing to 
interdict. A cynic, which I am not, might almost suggest that 
it is an impossible task and that when you look at what we are 
getting for what we put into it, the question is, is it worth 
it? One percent.
    Mr. Weise. Mr. Chairman, I am not going to quibble about 
the numbers. I will tell you that the estimate that we have is 
that we seize a much larger percentage than 1 percent. Some 
have estimated it as high as 30, some 10. But, obviously, when 
we are dealing with the quantity of drugs that are getting 
through, that is very speculative. We do not have scientific 
hard numbers, because if we could measure it, we would be 
seizing it.
    So, I would just accept the premise that we are not seizing 
as much as we need to be seizing to seriously address the drug 
problem and that is something that is clear. I have 
acknowledged in my statement that notwithstanding the fact that 
we have achieved record numbers of seizing more than 1 million 
pounds for the first time in our history and not losing sight 
of the fact that we, in the Customs Service, seized more drugs 
than all other Federal organizations combined, including the 
DEA, that we are doing in my judgment a decent job. But I think 
it gets back to the point that the chairman made that you 
cannot solve the problem through interdiction alone. Because we 
are a free society, of very open, vast expanses through which 
drugs can be smuggled into this country, most of which is in 
our area of responsibility but others, like between the ports 
of entry, are other organizations', we need to have a 
comprehensive approach.
    And I believe very fervently that interdiction is an 
important component. Many have said that we ought not to be 
wasting our time in interdiction. My feeling is the problem 
would be even worse because we are being successful in 
disrupting the methodology, the flows. We are changing the way 
they do their business.
    But so long as that demand exists in the United States, no 
matter what action we take in the interdiction arena, the 
profit motive is sufficiently broad and great that they are not 
just going to say, we give up, you have got us.
    They are going to continue to move to new areas and new 
approaches and try to find those areas of vulnerability. My 
sense is that we need to continue our commitment to 
interdiction as an important component of the larger whole, but 
we also need to work more comprehensively. We have to address 
treatment, we have to address the demand and we have to do this 
comprehensively. And that to me is the only way that we will 
ultimately be successful.
    All of that being said, seizing drugs is going to continue 
to be Customs No. 1 priority. We are looking at new methods, 
new technologies, some of which we have demonstrated--like 
full-container and cargo x-ray machines--a whole host of new 
ways of doing the job so that we can be more effective. We are 
not going to take anything for granted and we are not going to 
accept the status quo. We are going to continue to strive to 
improve.
    Senator Kohl. So, your suggestion to the American people, 
very strongly, is to recognize that unless we do something 
about the demand in this country, we are not ever going to win 
the war?
    Mr. Weise. That is my personal feeling, Senator.

                             Border Fences

    Senator Kohl. Well, you are an experienced man and your 
opinion is very important to get out. I happen to agree with 
you and I think that is a very important message.
    Mr. Weise, is it possible to construct physical barriers to 
prevent smuggling such as fences? People talk about fences 20 
feet high and 10 feet deep. And they cannot, many of them, 
understand why our borders are not protected by these kinds of 
fences. Can you comment on that?
    Mr. Weise. Senator, we have been experimenting with fences 
and I will indicate that it is primarily not for the drug 
smugglers but more for the question of illegal immigration. And 
this has been through the Border Patrol that we have seen 
fences erected along various areas in California and they are 
obviously hotly controversial. We have historically, 
traditionally been a free society.
    And the local communities are not pleased when they see the 
fences erected and there are tremendously resourceful people 
who can get around and over those fences. Because in addition 
to those fences, you have to have someone there in case someone 
has the resources to get over the fences. And it is a 2,000-
mile border and much of that terrain is not easily fenced 
because, as you know, in various places there are huge valleys 
and hills and very difficult terrain.
    So, in my judgment you can use fences strategically and 
tactically in certain areas, but I do not think the answer to 
the problem is a 2,000-mile fence.
    Senator Kohl. Well, now, let us get into that a little bit 
more. How many ports of entry are on the southern border?
    Mr. Weise. Thirty-eight.
    Senator Kohl. So, if we do the job at the ports of entry, 
which we are capable of doing, particularly with respect to the 
technology that is coming on board, and if drugs in this 
country are the problem that they are and we all regard that as 
such--we are not just paying lip service to it--why should we 
not at almost any cost build those fences as high as we need to 
build them and as deeply as we need to build them? What would 
be the reason not to do it in your opinion?
    Mr. Weise. Well, I am not an expert on this subject but I 
would think that one of the things you need to do is talk to 
the Border Patrol and the Immigration and Naturalization 
Service about their own experience with fences. I think they 
have seen that fences have been an effective tool when properly 
positioned to deal with the threats that existed.
    And what it does do, which is a point that you are raising, 
is that it moves people further out away from the fence and, 
under your theory, if you have a fence the full distance you 
could solve the problem. But I think what the Border Patrol's 
experience has been is that the fence, itself, is not a 
solution in and of itself. It is an important tool but we have 
to have Border Patrol officers on this side of the fence to be 
sure that it is not being penetrated.
    But I do not mean to preclude that as an option. I am 
simply suggesting it is a controversial issue. One that I have 
not given a lot of thought to as a solution to the Southwest 
border problem. But I know from many, many trips that I have 
made to the Southwest border how hotly controversial those 
fences are in the local communities. People, American citizens, 
who think that it's just not the way they want to live, 
notwithstanding that they recognize we are dealing with a 
serious problem. But, I do not know what more I can say. It is 
an interesting idea. It is one that, perhaps, ought to be 
explored. I would not preclude it as an option but I can tell 
you there would be issues that need to be addressed.
    Senator Campbell. If I could interject. You build a fence, 
you cannot just build up, you have got to build down because of 
a tunneling. But it would seem to me if you did build a fence 
what you do basically is increase the sea trade or through the 
air. You know, we have a longer border along the oceans to try 
to guard than we do along the land border.
    Mr. Weise. That is one of the reasons, Mr. Chairman, that I 
think the fences more aptly deal with the issue of people 
trying to come across and the illegal immigration issue. We 
have discovered three very sophisticated tunnels, as you have 
indicated, along that Southwest border.
    I already indicated in my earlier statement that we are 
seeing more people come around us by sea. We are seeing 
smugglers on the little jet skis that you see at local resorts 
with the drugs packed in their backpacks and loaded in and 
around the jet skis. We are seeing little fishing vessels in 
the Gulf of Mexico.
    And we have been very successful in our air interdiction 
program in the Customs Service. One of the most common ways of 
smuggling drugs for a decade leading up to the initiation of 
our air program was by air. You bring it in, you drop it 
quickly and you get back out. We have mounted some rather 
significant air defenses that have reduced that flow but, 
again, the more you put pressure in one area they will not say, 
we give up, that fence is too tall for us, they will resort to 
other means.
    And, frankly, what I have often felt as we have what we 
call a southern-tier strategy through Operation Hardline, and 
we are trying to tighten it all the way from San Diego to San 
Juan--if that gets too tight, even though it is not a threat 
area now, Canada can certainly be another border point through 
which they can come.
    Ultimately I do not think you can put a fence around this 
entire country and that is one of the problems.

                            Air Interdiction

    Senator Campbell. Well, the air creates a whole different 
problem. I notice with interest one of the displays that we 
have in the room has some photographs of some airplanes. There 
is some kind of detection apparatus that can be put on a little 
small isolated airport so that it monitors any kind of 
landings. But I know in some places in the Southwest they do 
not land. They just get it down to stall speed and dump it out 
at a prearranged location right in the middle of the desert and 
pick it up with a four-wheel-drive truck. They do not land. So, 
I am sure that that is effective to monitor the ones that are 
going to land but I often wonder how many just do not bother.
    Mr. Weise. Obviously, you cannot employ any one solution 
alone. That helps us ensure that we do not have to be observing 
those particular airstrips too much, but we have a rather 
sophisticated air interdiction system, with radar so that we 
can see when the incursions occur, when they are not on 
registered flight plans. And we can show you clear evidence and 
would love to invite you at your convenience to our air 
facility in Riverside, CA, where we see clear evidence.
    Historically, we saw many of these tracks of aircraft had 
been crossing into the United States and then returning to 
Mexico, but they are now landing more in Mexico, coming from 
South America, landing in Mexico and then using other means to 
get the drugs from Mexico into the United States over land and 
by sea and around us in the gulf.

                     New Interdiction Technologies

    Senator Kohl. Mr. Weise, will you tell us something about 
the new technologies that are being employed in interdiction?
    Mr. Weise. Well, we have some of them on display in the 
back. One of the things I think is one of the most important 
pieces that we are adding to our arsenal, as I mentioned, 
because of the smuggling that is occurring in commercial cargo, 
is a prototype in Otay Mesa, CA. It is a full container cargo 
x-ray machine that is akin to a carwash in that the entire 
vehicle can come through the machine and we get a good x-ray 
vision of the compartments of the container.
    One of the drawbacks of that is that the x ray, because of 
safety to the people in and around it, is not of sufficient 
power to go through the merchandise that may be in boxes in the 
containers. But what it is very good at and where we are seeing 
a very prevalent means of smuggling is hollowed out floors or 
walls or ceilings, in the wheel-wells and things of that 
nature. And that has been a very important addition to our 
arsenal. It is not something that you can do in and of itself, 
it has to have supplementary inspection techniques as well.
    Through our budget process we are moving beyond a prototype 
stage in Otay Mesa. Within this year, with the support of this 
Committee, we will have four additional machines like that in 
place and we will have as many as 12 over the next several 
years through Operation Hardline.
    We are also looking at a number of other technologies that 
I am not an expert on that can actually look into gas tanks and 
a whole series of things, and we will be more than happy to 
have the people that really understand the technologies come up 
and brief you on them more completely, sir.
    Senator Kohl. How do you decide where to put this new 
technology, Mr. Weise?
    Mr. Weise. Again, it is an overall threat analysis. And one 
of the things we recognize is that once you have these fixed x 
rays in place, again like the balloon theory that where your 
pressure is the greatest, they are likely to go somewhere else.
    We are trying to supplement the use of those fixed x rays 
and those are going to be put in places where we obviously have 
a very significant cargo trade, where we know the vehicles are 
coming through but supplementing those with more of a mobile 
system that is actually on a truck, itself, that can go from 
port to port and be relocated in a very short period of time, 
so that we can keep the surprise element and the uncertainty 
and keep them on their defenses. And, so, we are putting x-ray 
machines in our fixed locations where the traffic is 
significantly high and where the threat is significantly high, 
and supplementing those with others that are more mobile and 
that we can put on a kind of sporadic, random, unsuspecting 
basis so that they would not be able to predict where those x-
ray machines would likely be.
    Senator Kohl. As you look ahead, mobile versus fixed-
detection systems, would you comment on one versus the other or 
are they complementary?
    Mr. Weise. Again, I think they are complementary. I think 
you need some of both. I do not think it is an either/or 
proposition. I think the mobile x-ray machines are an important 
supplement to the fixed. And there are other technologies that 
we are looking at that would be able to be more powerful 
without causing risk of harm to humans, that would have greater 
strength of penetration of the cargo, itself. We are looking at 
those, as well.
    Senator Kohl. Thank you.
    And I appreciate your comments. I appreciate particularly 
your clear expression that in the long run as well as in the 
short run if we are really going to win this war, it has got to 
be done finally by reducing the demand in this country. As long 
as the demand is there, it is pretty hard to interdict 50 or 75 
or 100 percent of all the drugs that are being smuggled in.
    That is a very clear statement you are making.
    Mr. Weise. Again, it is a personal observation but yes; it 
is very clear that I believe that.

                       Youth Crime Gun Initiative

    Senator Kohl. OK. Mr. Magaw, would you say that there is a 
correlation between gun laws and childhood homicides?
    Mr. Magaw. I think the childhood homicides are primarily 
because of unsafe conditions in the home or wherever they may 
find the weapons. That is why I am very pleased with the 
increased interest by Congress in terms of locked weapons and 
securing those weapons and education for homes and children 
about weapons.
    But I think the gun laws, themselves, do not really have a 
bearing other than that this country is one that loves firearms 
and they want to have firearms and they are going to have 
firearms. So, I think the thing to do is, like seatbelts in an 
automobile, cause them to use these safety locks.
    Senator Kohl. I am aware of Boston's participation in the 
youth gun crime interdiction initiative. Can you explain to us 
why this program has been such a success?
    Mr. Magaw. I think somewhat the same as Mr. Weise 
mentioned. It would take a combination of what is available 
there. We brought our abilities to bear in assistance to the 
Boston Police Department in tracing weapons, in trying to work 
trafficking cases to cut the flow down, trying to find out who 
the kinds of persons are that are bringing the weapons in. 
Those who are on probation and parole they have put probation 
officers right in the police vehicles as they patrol the 
streets.
    They know these individuals, they know what time they are 
supposed to be on the street, when they are not supposed to be. 
So, that has really helped.
    Also, educational programs in the schools talking about 
firearm safety. The penalties of the courts have been much 
stronger in keeping the very violent criminal element off of 
the street. But what has really been helpful has been the close 
working relationship between all entities--Federal, State, 
county, and local.
    Senator Kohl. So, you would emphasize how important it is 
that you get everybody involved in dealing with the problems 
that we encounter in the inner city?
    Mr. Magaw. That is correct. I believe, as has been 
mentioned a couple of times here today, that what we have to 
really do is work in our elementary schools and our high 
schools because some of the generations that are out there on 
the street now are beyond help in a lot of cases because of 
what they have been through and we still want to try to be 
helpful to them but you are going to have the same group coming 
up if we do not do something in the schools. That is why I am 
very proud of ATF's GREAT Program and also the program that we 
have in the high schools. We have been doing it here in 
Washington for a number of years. It has been very successful 
and now there is an interest in spreading it across the country 
and that is having a law enforcement academy within the high 
school.

             Gang Resistance Education and Training Program

    Senator Kohl. Let us talk about the Gang Resistance 
Education and Training [GREAT] Program a little bit. It 
provides grants, as you know, to communities who are 
participating in and encouraging the prevention of violence. 
The program, which is taught by uniformed officers, so far, has 
provided training to over 2 million of our children in this 
country, primarily they are enrolled in the seventh and eighth 
grades. Currently it is running in 54 locations, in 21 
different States.
    Mr. Magaw, you have talked about the GREAT Program as being 
very promising and I would suspect that you really believe we 
should continue to fund it?
    Mr. Magaw. Yes, sir; I believe that we should continue to 
fund it and even though it has not been funded all across the 
country, you mentioned the 54 locations, it is in every State. 
Every State and every law enforcement and most of the Governors 
and mayors throughout this country see the benefit of it.
    In fact, the University of Nebraska just did a study to see 
what the value was and it was very positive. So, the inquiries 
are something like 200 a month into our headquarters saying, 
how can you help us set this up? Many cities are funding it 
themselves and what we are trying to do is provide them the 
information of how to do it, trying to teach their officers to 
become instructors and providing them the school materials and 
the booklets. We are spending this money very well but we are 
only supplementing really 44 different programs, but it is in 
every State now.
    Senator Kohl. Well, now, if the program is considered to be 
the success that we believe it is, why has the funding request 
remained level for the past 3 years?
    Mr. Magaw. I think it is a matter of OMB, Treasury, and 
others. We are willing to raise that program up as high as this 
Congress would see it but what our submissions have been is 
what is reasonable, what do we believe that Congress will fund.
    Senator Kohl. Well, and I appreciate that, but here we talk 
and so oftentimes, we talk about the need to do prevention. And 
everybody at the table is suggesting--and you people are 
ultimately professional and knowledgeable--that we have to do 
something about prevention, the demand side.
    And here is an example and this is one of many of a program 
or of an area in which we can and should do more to reduce the 
demand by education, and different prevention programs. Here is 
a program that works. And yet, the funding is small and it has 
not increased over the past 3 years. And, so, I am asking you 
maybe to make a comment more than simply to tell us that, well, 
it just has not been done because the Congress has not been 
willing.
    Are we making a big mistake in not increasing funding for a 
program that is directed primarily and clearly at reducing the 
demand in our society for illicit activities and drugs, the 
GREAT Program. Should we do more to fund it?
    Mr. Magaw. I believe we should do more to fund it. What I 
would say, though, is that as we are trying to do now and use 
the funds as best we can, if a city or a location has the means 
to fund it themselves then we try to help them with the 
booklets and train the instructors.
    I think we would have to have some kind of guideline 
because the amount could just blow sky-high if we are not 
careful. But it is a program that I believe needs to be taken 
forward and taken forward rather quickly. It is capable of 
doing that. It has been tried, it has been tested. Like you 
say, it has been 2 million students. There are about 1,000 
instructors. There will be many more than that after this year 
because we have four or five major instructor programs. And, 
so, I want to see it grow.
    Senator Kohl. Out across the State of Wisconsin I attended 
several of the GREAT Program presentations in our schools and 
they are very good and they are very well received by students. 
They have clearly a positive and a beneficial effect in 
fighting the war that we are trying to fight in this country. 
And I am glad to hear you be so positive about it, Mr. Magaw, 
in strongly encouraging us to continue to fund this, to 
increase the funding to see to it that every young person in 
this country at the seventh and eighth grade level is exposed 
to the GREAT Program which I think is what you are saying.
    Mr. Magaw. That is right. What we would also use other 
funds for is in the summer program we have tried out. They go 
right back into the communities that they were born and raised 
in, so, you have to have periodic updates for them, and we have 
done that through a summer program with the Phoenix Police 
Department, Tucson, and others. And it has been very, very 
successful.

                             Trigger Locks

    Senator Kohl. All right.
    Just a couple of questions on trigger locks. Now, will you 
say a few words and I will ask a couple of questions. How do 
you feel about trigger locks, their use in our society, the 
importance to have them in our society, proliferating trigger 
locks. The legislation that I have authored would require 
trigger locks be sold with handguns from now on in this 
country, the President's directive that law enforcement 
officials use trigger locks, how do you feel about trigger 
locks, Mr. Magaw?
    Mr. Magaw. ATF personnel have used trigger locks for any of 
the weapons that they have for years. And, so, I am a proponent 
of trigger locks. I remember back 35 years ago when I was a 
young State trooper, I did not wear a seatbelt, there was not 
even a seatbelt in my automobile. Today that seems almost 
ridiculous. I had to learn to wear a seatbelt. We had to have 
some guidelines in order to force me to first start using a 
seatbelt. Now, I do not move the car without a seatbelt, and I 
believe that these safety devices are in that category. They 
will be beneficial and it will take the public a period of time 
to get to use them, but I think clearly they are something that 
we should push forward.
    Senator Kohl. I thank you.
    Mr. Chairman, would you like to continue?
    Senator Campbell. Yes; since we are asking some questions 
of Director Magaw, let me ask you a couple.

                         Oklahoma City Bombing

    We are now going through the McVeigh trial in Denver, 
Director Magaw. And some of the Oklahoma bombing victims have 
filed a multimillion-dollar lawsuit against the Federal 
Government alleging that the Federal informant had warned the 
ATF that a building had been targeted for violence associated 
with the April 19 anniversary of the raid on the Branch 
Davidian compound in Waco.
    If that is accurate, it is rather disturbing and I know you 
have some constraints of what you can say in public, but I 
would like to know if you think there is any basis, in fact, to 
that allegation?
    Mr. Magaw. I find no basis for that allegation, but I, 
again, have to be very careful because of the muzzle order by 
the court. That has been an item that has been on some of the 
families' minds from the very day that it happened.
    On that day, when I first learned about it, we made 
inquiries. I sent an investigative team there to find out what 
we could determine and the other thing about these claims is 
that they are not only against ATF but they are virtually all 
of Government; we should have known and, therefore, we are 
liable. So, we will have to just wait and let that go forward.
    But nothing I have found in the investigation led me to 
believe that or I would have brought it forward immediately.

                                  IBIS

    Senator Campbell. Well, thank you.
    In your display back in the back of the room you have a 
very sophisticated machine that I guess is called IBIS to 
measure--it compares casings. The FBI also has an 
identification system called drugfire. A little while ago I 
talked about duplication of effort. Could you tell me how they 
compare and why the two agencies could not use the same kind of 
system?
    Mr. Magaw. They can use the same kind of system, no 
question about that. Back when the FBI started studying this 
and started doing their research they were doing shell casings. 
We felt, at the time, that bullets were also very, very 
important because there are times--in fact, now, just a crime 
out in Prince George's County, they picked up all the shell 
casings because they knew they could be used--but that bullet, 
whether it is in the body or in the woodwork or wherever it 
might be is also very important evidence.
    So, we started research on the bullet. Well, the commercial 
company who was working on that with us ended up at the same 
time developing the technology for the shell casing. So, now 
that machine will do both.
    Senator Campbell. This is IBIS, it will do both?
    Mr. Magaw. It will do both?
    Senator Campbell. Will drugfire also do both?
    Mr. Magaw. Drugfire is getting close to being able to do 
both. In the bullets they cannot quite do them in quite the 
same manner. I would want somebody independent to look at that 
and say. But the key thing I believe is that now that the 
technology has come along where it is really helping local law 
enforcement we need to get the machines tied together so that 
they can talk to each other.
    And the National Institute of Standards and Technology 
[NIST] is doing that for us under the guidance of OMB, and with 
total coordination between Director Freeh and myself. Now, they 
have got the technology figured out so that the two shell 
casing units can talk to each other but they are having a 
little trouble with the bullet being able to talk to each 
other. So, we will have to see how it goes.
    Senator Campbell. I had several questions dealing with the 
GREAT Program but you have already answered them with great 
clarity and I appreciate that. Because I think Senator Kohl and 
I really agree about the increase of youth violence and what we 
have to do in working with youngsters so, I do appreciate your 
response to that.

                       Canine Explosive Detection

    I am also interested in dogs. I notice you did not have any 
dogs up here today. But I would note that you have requested 
funding to expand the canine explosive detection program to 
train up to 100 dogs a year. First, let me ask you, are there 
machines that can totally replace that dog's nose now in 
detecting drugs or bombs?
    Mr. Magaw. There are not. The technology is getting better 
but it just cannot compare with a well-trained dog. As we have 
talked before, the combination of both of them are very helpful 
because the dog cannot do it all in an airport or something 
like that. But anything that is suspicious the dog will be more 
accurate in most cases.
    Senator Campbell. Even to a machine like you have back here 
that measures like 1 in 1 billion parts or something?
    Mr. Magaw. Well, the x-ray technology is not to that 
capability yet. The dog, itself, we have had for a couple of 
years now. And there was a demonstration here last year with a 
dog so we brought some other things this year. But we would be 
delighted for you to see the dog. The dog can pick up, if you 
had one small bullet in your pocket or a shell casing or a 
bullet that had not even been fired. That dog could check all 
of us in here and it would find that bullet on you, every time.
    And when this dog was trained and developed it was an idea 
of ours but we did not know for sure how well it would work. 
So, we got our laboratory technicians and we said, as we train 
this dog you have to make sure that it is laboratory certified.
    And, so, this dog is now laboratory certified and now what 
we feel is that it has been so valuable that we are just 
beating them up flying them all over the country. That dog went 
into the Centennial bombing at Atlanta and you can imagine that 
evening when it happened and you saw that bomb go off, people 
just dropped everything they had and left.
    So, you had backpacks, you had sacks, you had all kinds of 
things there that that dog had to clear so that we knew we were 
not putting our personnel and all the law enforcement personnel 
in jeopardy. That dog cleared that area in about 2\1/2\ hours.
    It has gone into searches where people have had guns in 
sealed plastic bags hanging on a hanger inside a suit with a 
plastic bag over it and that dog will find it. So, they are 
just so valuable that we feel that for all of law enforcement--
and we do not want those dogs for ourselves. We will train 
those dogs like we have the fire dogs, the arson dogs, and put 
them out in the country where they can be used day to day by 
local law enforcement. The only agreement is that when we need 
them for a particular case, they will bring them to us. Most of 
the time the case is right close to where they are and they are 
helping anyway. We do not go out and work any of these cases by 
ourselves, it always involves the local community.
    It has worked very well on the arson side and we feel this 
will work very well on the explosive side. We have done it also 
for foreign countries. Israel is tremendously happy with it. 
Some of your Soviet bloc countries are tremendously happy with 
it.
    So, we just feel that it has been very well tested, that 
they are dependable, they have to be recertified and we would 
just like to see the program move forward. We think it is a 
benefit for law enforcement.
    Senator Campbell. I notice that in pictures I have seen, 
you use more of one breed than another. More German shepherds 
as an example it seems like. Is there any reason for that?
    I have a German shepherd and she is a real nice dog but 
years ago I had a Weimaraner and that dog had a nose so good, 
that dog could actually track me if I was in a car, could 
follow the tire tracks on a dirt road. Or if I was on a horse 
could follow the horse where I got on the horse and got off to 
follow me.
    Mr. Magaw. The observation you are making is exactly the 
right one. Labradors and Weimaraners are the ones that they are 
going to for this kind of work. In fact, our dog that we put 
through all these tests that I talked to you about is a 
Labrador. Your German shepherds were initially brought into the 
program in law enforcement a number of years ago when they were 
used for a different purpose. They were used as guard dogs for 
protection. If somebody was in a dark area with a weapon and 
you needed to go in, they would send a dog in first and those 
kinds of things.
    So, for most of our work, although there are some German 
shepherds, most of them are Labradors. Their nose is so good. 
They can go into a fire scene where you have nothing but water 
and muck and three or four walls down on top of it and they 
will sniff around and they will go right over to where that 
fire was started, where the accelerant was used.
    Senator Campbell. Yes; they are amazing. Any old hunter 
that uses dogs will tell you that if you get them too fat they 
will not hunt. See, their nose gets more acute when they are a 
little hungry. Not that I want to see any starved dogs but that 
is what all the hunters tell me if they are a little hungry 
their nose gets very acute.
    Mr. Magaw. See, again, that is a very good theory because 
this dog on explosives is trained exactly that way. We do not 
have a ball that it plays with, we do not have a toy that it 
gets if it finds it, it gets food. And now that has to be 
measured, you have to make sure you have got the right amount 
of vitamins and everything else and that is why it has 
scientifically been worked out. But they are much more 
effective that way.
    Senator Campbell. In 1997, the House report states that ATF 
establish a joint canine explosive detection unit with the FAA 
at either National or Dulles Airports. What is the status of 
that pilot program?
    Mr. Magaw. It is going to be done at Dulles. We feel that 
is the best place to do it along with the Federal forces that 
are there. It is a matter now of working out with Customs 
personnel as to whether we are going to work part of the time 
in Customs, whether both dog units will work the same area or 
whether they will split them up? How can the best evaluation be 
done at the end of that period of time? And, so, that is where 
we are. We are in pretty much the final stages.
    Senator Campbell. Thank you.
    I might tell all of you that we are running on a little bit 
and I have quite a number of questions for my end of it. I am 
going to ask a few of each of you and then I am going to submit 
some that I would like some answers for the record.
    Before I go on and ask the other panelists, Herb, if you 
have a few more, why don't you proceed?

                       Youth Crime Gun Initiative

    Senator Kohl. Yes, Mr. Chairman, I just have one final 
question for Mr. Magaw.
    Mr. Magaw, what do you suggest we do to reduce juvenile 
access to firearms in this country?
    Mr. Magaw. Well, there is a program now on--and we just had 
a success in your city just the other day--there are 17 cities 
throughout the country that we are trying to trace every crime 
gun and having schools try to watch for weapons that we can 
trace to find out where these weapons are coming from.
    In a lot of occasions these weapons are coming from adults. 
As these 17 cities are evaluated, and we find out where they 
are coming from we believe then we can shut down the flow, and 
that is what we have got to do. Just like we were talking about 
the drug flow, we have to interrupt this flow. It was 
interrupted in Boston and that was very vital. In Milwaukee, 
the other day, they arrested an individual who had been 
providing guns for juveniles and there was one robbery and four 
other shootings committed with these guns.
    So, it is in the early stage. It has only been operational 
for 8 or 10 months now, but it is one that we feel once we iron 
all the kinks out it would be viable to spread around the 
country.
    When I was on the street in law enforcement and I arrested 
somebody with a firearm I did not even think about tracing it. 
If it solved that crime right now, I did not think about it 
being a bigger problem. In talking to Mr. Rinkevich this 
morning, for these young officers who are coming on all over 
the country, we should get into their curriculum firearms 
identification, firearms trafficking and firearms tracing, so 
that whenever they come upon a weapon they will trace it. And 
that is what these 17 cities have agreed to do. They will trace 
every weapon they get in their hands, and that is going to be 
an enormous help.
    Senator Kohl. I think you said youth gun crime initiative.
    Mr. Magaw. That is right.
    Senator Kohl. That is a good program, very promising 
program. But curiously, Mr. Magaw, correct me if I am wrong, I 
do not think there is any request for funding in 1998 for that 
program.
    Mr. Magaw. Well, it will be the 17 cities and it is a 2-
year research project and that would go through 1998. We then 
hope we will come back here next year, tell you the value of 
it, how it has worked, what the kinks have been and then get 
your judgment on where it should go from there.
    Senator Kohl. All right.
    Can we move on to the Secret Service, Mr. Chairman?
    Senator Campbell. Yes; just go ahead.
    Senator Kohl. OK, Mr. Bowron.

                                Security

    What level of security would the Secret Service be 
satisfied with, Mr. Bowron?
    Any level?
    Mr. Bowron. No; not any level. The best security that we 
can provide in an open society, and I think that that is what 
we do provide; but that certainly is a resource-intensive and 
labor-intensive process to provide that kind of security.
    Senator Kohl. Has that level of security, in terms of what 
you need and what you have, gone up exponentially since 1960's?
    Mr. Bowron. Yes; because the world is a more dangerous 
place. There are things happening in this country now that 
happened only in other parts of the world before.
    Technology and the increase in the number of extremist 
individuals and groups has increased and, in general, the world 
is a more dangerous place than it was before.
    Senator Kohl. So, over the past several years, the number 
of threats that you face has increased dramatically?
    Mr. Bowron. Yes.
    There is an increase in the number of threats but maybe 
more than the number of threats, the seriousness of the threat 
and the potential of the threat.
    Senator Kohl. Now, this is an opinion that you have or I 
would like to hear about it. What happened? Back in the 1940's 
and 1950's we did not have this. We have it today. What has 
happened in our society, in your opinion, that has elevated the 
violence, the threat of violence?
    Mr. Bowron. Well, I think that in general in our society 
there is an increase in extremist philosophies and 
antigovernment philosophies. There is an increase in the 
availability of weapons, explosives, and the information that 
would give one the ability to carry out these kinds of threats. 
For example, the information needed to manufacture explosive 
devices like the one used in Oklahoma City is widely available 
in publications and on the Internet. Even information that is 
specific to how you might shape a charge to maximize the damage 
in one particular direction versus another.
    I also think that political volatility around the world 
certainly contributes to an increase in the overall threat and 
in the intelligence picture, that we rely on in order to assess 
what our protective needs are.

                 Militia Movement in the United States

    Senator Kohl. Would you tell us about the militia movement 
in the United States and the threat that that presents to your 
organization?
    Mr. Bowron. Well, I think that, first of all, in general, 
some of the rhetoric of the militia movement that is 
antigovernment is problematic, in and of itself, as a part of 
those organizations.
    But I think that a problem associated with that that may be 
even more problematic is that there are individual members or 
participants in militia groups, or extremist groups, that 
endorse the philosophy of that group, who become frustrated 
with the lack of action, in their view on the part of that 
group. And then they engage in what I think is generally 
referred to as leaderless acts. I mean they, as an individual, 
are going to be the person that does not just talk about it, 
does not just go to the meetings, does not just participate in 
the discussion, but goes and does something.
    That is a big problem, from the standpoint of law 
enforcement, from the standpoint of gathering intelligence. 
Sometimes those people are not acting with a tremendous network 
of support through an organized group, but they just believe 
and endorse the philosophy of a group and are acting on their 
own, or with a much smaller number of people.
    So, I think that certainly it is important for law 
enforcement to be able to have available the tools to monitor 
the activity of those groups relative to criminal activity, and 
to be able to provide intelligence. And sometimes that can be a 
very fine line in terms of what is appropriate in terms of the 
investigation of a group; because really it has to be 
predicated on some illegal act.
    I mean people can have a group and should not necessarily 
be subjected to an investigation but, by the same token, some 
of the rhetoric and some of the antigovernment philosophies 
espoused by those groups can become very problematic and need 
to be a part of the intelligence picture.
    Senator Kohl. Thank you.

                              Task Forces

    Mr. Bowron, what is the West African task force? Would you 
explain that to us?
    Mr. Bowron. We have task forces in a number of cities 
across the country that really have centered on criminal 
activity, that is, organized criminal activity, perpetrated 
primarily by West African organized groups. We have even had 
agents working with the Nigerian Government in Lagos, Nigeria, 
because some of the crime emanates from there and affects the 
United States through members of those organizations here.
    So, those task forces are centered in major cities around 
the United States where we work with State and local as well as 
Federal law enforcement to try and bring all the expertise to 
bear on a wide range of criminal activities. Because, you know, 
certainly the criminal element does not compartmentalize. I 
mean they are truly infected with the entrepreneurial spirit, 
and they will just go where the money is.
    Money is the object of their criminal activity. So, it is 
very important, I think, for us to not be too compartmentalized 
in our approach to addressing that criminal activity and task 
forces seem to work best. Task forces give you the broadest 
expertise, in terms of investigative and technical ability, and 
also maximize the jurisdiction that you can rely on in order to 
investigate and prosecute those organized groups.

                           Advanced Fee Fraud

    Senator Kohl. The State of Wisconsin has been the target of 
a fraud known as advanced fee fraud. In my State, alone, over 
350 businesses and individuals have been sent solicitation 
letters. Recipients are told that they have been singled out to 
share in multimillion-dollar windfall profits for doing 
absolutely nothing. Can you tell us a little more about this 
sort of fraud and what your agency is doing to try and prevent 
it?
    Mr. Bowron. It is a very widespread problem throughout the 
United States and also in the United Kingdom. That is one of 
the specific areas where we have worked with the Nigerian 
Government in Lagos, Nigeria, to identify the principal targets 
involved in that scheme. It is commonly known as 419 
investigations; 419 happens to be the statute in Nigerian law 
that is violated.
    The scheme is basically they send out a very official 
looking letter. In fact, we have a blowup of one in the back in 
our display. It purports to be from a Nigerian bank or from an 
official government organization. The approach is to try and 
glean from the recipient of the letter some information that 
enables the criminal to extract money from that recipient.
    They will ask for your business letterhead, for a check, 
and what they are offering is, we have an enormous amount of 
money that we need to move from accounts in Nigeria and, for a 
percentage, we would like you to use your bank account to move 
this money.
    Sometimes, frankly, the recipient of the letter may have a 
little larceny in their heart; because it is obvious from the 
letter that these may not be legal funds in some instances. In 
other instances, that is not the case.
    But, as a result of receiving the letter and being offered 
this enormous amount of money just for the use of your business 
account or your bank account, they draw you into the scheme. 
Once you are drawn into the scheme then they begin to tell you 
well, before we can complete this transaction there are certain 
taxes that have to be paid, or certain legal fees that have to 
be paid. In other words, now they are asking you for money in 
order to complete this transaction.
    Now, we can sit here and think that most people would not 
go for a scheme like that, but the fact of the matter is that 
an awful lot of people have, and hundreds of millions of 
dollars have been lost by enormous numbers of victims. However, 
the good news is, we have identified who we think the key 
perpetrators of that particular scheme are, although it is by 
no means over with. We have gone through banking channels and 
public information channels to make people more aware of that 
scheme. And that has worked; the number of notifications we 
receive in terms of people receiving those letters is 
increasing.
    So we are able to give them information about that scheme 
before they are actually victimized. I can tell you, it has 
been so serious that people have actually gone to Nigeria, and 
lost their lives trying to recover their money. We have, in 
fact, been instrumental in getting some folks out of Nigeria 
who were there to get their money, before any harm came to 
them. But it is still a serious problem. It is very widespread. 
They take the shotgun approach, and certainly have been 
successful.

                          Counterfeit Currency

    Senator Kohl. We thank you for that information. Finally, 
on the counterfeit currency, Mr. Bowron, do you have the 
authority and the resources to deal with this problem insofar 
as you are able to at this time?
    Mr. Bowron. Yes, we do. The committee has been very 
supportive in terms of providing us with resources, 
particularly funding for increasing our staffing overseas. We 
are working through that process. And overseas is important in 
the counterfeit context because so much of the counterfeit 
appearing in the United States now originates overseas and is 
manufactured overseas.
    We have not completed our staffing at this point, but we 
have completed a substantial amount of it. We have some 
positions that are under appeal. Those positions that we 
ultimately do not get at the requested location we are going to 
suggest some alternative locations that would work 
geographically and logistically. But we have made great 
strides, and appreciate the support of the committee.
    Senator Kohl. Very good. I thank you.
    Mr. Chairman, would you like to----
    Senator Campbell. I have some questions for Director 
Rinkevich. While we are on this subject about counterfeit 
money, do we have an estimate of the amount of counterfeit 
money that is coming to this country?
    Mr. Bowron. Yes.
    Senator Campbell. You probably have, certainly of what you 
have confiscated. That would be my first question.
    Mr. Bowron. We can provide you with specific numbers. In 
terms of the amount that is seized overseas and the amount that 
comes into this country in circulation----
    Senator Campbell. You do not know offhand?
    Mr. Bowron. I cannot give you a total amount in terms of 
what is taken out of circulation. But I will----
    Senator Campbell. Will you provide that to the committee?
    Mr. Bowron. Yes.
    Senator Campbell. One other question dealing with 
counterfeit money. Do we have any proof that foreign 
governments are involved in counterfeiting American money?
    Mr. Bowron. No.
    Senator Campbell. Thank you.
    Director Rinkevich, let me ask you a couple of questions 
about FLETC. You requested and received a total of $1.46 
million for fiscal year 1997 for environmental compliance. In 
1998 you are asking an additional $111,000. What is that for, 
just cost overruns or something?

                         Environmental Requests

    Mr. Rinkevich. No, Mr. Chairman, that will be to expand the 
Center's ability to deal with environmental issues. The Center, 
as you know, occupies a World War II era naval installation and 
we are still dealing with environmental concerns that were left 
to us from the early days of that facility's use. Plus, we do 
have activities at the Center that indeed contribute to 
environmental problems: firearms training with the lead and 
associated activities, and photography and photo labs and those 
type of problems.
    These dollars are to enhance our ability to make sure that 
we do the proper things in terms of controlling our activities 
and remediating the environmental concerns. Some of those 
concerns were there before us, and others may have been created 
subsequent to our takeover.
    Senator Campbell. You have also requested $3.993 million 
and 26 new FTE's for mandatory workload adjustments. As I 
understand it, $1.925 million would be required to pay the 
compensation and benefits for 26 new instructors. What is the 
breakdown for the remaining $2.068 million?

                       Funding Workload Increases

    Mr. Rinkevich. Those mandatory workload increases, Mr. 
Chairman, are a result of the increase in the workload. That is 
how we derive those increases. A big part of that is for the 
compensation and benefits for the 26 instructors. It is about 
$1.9 million. Another $1.2 million is for the permanent change-
in-station cost in bringing those instructors to the Center 
after we have hired them. Also, there are training, travel, and 
equipment costs associated with the new instructors. So the 
total comes up to just short of $4 million.
    Senator Campbell. You are also requesting $18.618 million 
from the crime bill funding for master plan construction costs. 
If that is appropriated, what is the status of the completion 
of the master plan construction, No. 1? And No. 2, is the INS 
and the Border Patrol buildup playing into your master plan?

                          Master Plan Funding

    Mr. Rinkevich. Yes, sir; it is. The status of the master 
plan activity is that if the $18.6 million in this request is 
approved by the Congress we will be at about 60 percent in the 
appropriation of dollars necessary for the implementation of 
our master plan. That document, by the way, was originally 
developed in 1989. It is now 8 years old. We have in-house 
revised that document two times and are in the process of a 
third revision which this committee will see in the not-too-
distant future.

                         Environmental Changes

    Enough things have happened at the Center, the environment 
in which we operate has changed, the workload has changed and 
shifted to the point that our plans are to engage another 
consultant to assist us in doing a complete review of our 
facility needs against projected workload. So the status is 
about 60 percent of the master plan will have been 
appropriated, if this budget is approved.

                           INS Participation

    In regard to the Immigration and naturalization Service 
[INS] participation, I can say affirmatively that not only do 
we actively involve the INS, but we involve all of our customer 
agencies, particularly the larger ones that are posted at the 
Center, in the development of projects for submission to this 
committee as well as the actual undertaking of the design of 
those projects. We are proud of the customer orientation that 
we have at the Center. We want to be sure that any dollars that 
are entrusted to us to build facilities are going to meet the 
unique needs of the various agencies.
    So INS, as well as every other agency at the Center, are 
very heavily involved in the design of projects, and the design 
of the facilities.
    Senator Campbell. We talked when you were in my office the 
other day about the temporary FLETC facility in Charleston, SC. 
Could you tell the committee of the current status of that 
training facility, and how long you expect it to be needed, and 
perhaps the final price tag on the necessary renovations of the 
temporary facility?

                           Temporary Facility

    Mr. Rinkevich. The status of the temporary facility is that 
it is operational. The population that is there, at any given 
time, ranges between 450 and 600. That population is entirely 
made up of Border Patrol agent trainees. We, the Department of 
Justice, and the Department of the Treasury are very committed 
to deactivating our participation at that installation at the 
end of fiscal year 1999. That is the intention we clearly have, 
and I know that is also an interest this committee shares.

                         Cost of Temporary Site

    We have looked at figures that the Department of Justice 
has developed for a continuation of activities at the 
Charleston site. In fact, these are figures that I received 
just recently from Justice. They estimate that if that facility 
were to become a permanent facility to handle just the Border 
Patrol training, not including the other INS training, that the 
cost of bringing that facility on line for permanent use would 
be somewhere close to $110 million. The cost that has already 
been invested is over $8 million, and those costs were from 
appropriations that the INS received from the Congress.
    Senator Campbell. Thank you. Considering there is no 
Georgia Senator on this panel it may indeed be a temporary 
facility. But these things, you never know.
    You have requested $1 million from the crime bill fund for 
the rural drug training initiative. Could you explain that 
proposal, please?

                           Crime Bill Funding

    Mr. Rinkevich. Yes, sir; when Director Magaw was referring 
to conversations he and I had about weapons tracing and 
explosives recognition, that is the concept that we are talking 
about incorporating into our rural drug training initiative. 
This is an initiative that was authorized by the Congress 2 
years ago. This appropriation request has $1 million in it to 
implement that initiative for future and current programs, and 
the delivery of about six programs that are focused and 
targeted on rural law enforcement organizations.

                 Small Law Enforcement Agency Training

    As you may know 90 percent of America's law enforcement 
agencies consist of 50 or fewer officers. So there is a great 
deal of law enforcement in this country that is undertaken by 
smalltown police departments. The problem that they have, 
obviously, is that many of them are so small that they cannot 
afford financially or timewise for the officers to be away from 
their duty post for training. So the concept of this program is 
to deliver the training to them in locations that they can go 
to conveniently and at less cost.

                      Benefit of Train-the-Trainer

    It also embodies the notion of train-the-trainer. Four of 
these programs would be programs that train trainers from 
communities. Then rural communities could cascade that 
information out to other neighboring jurisdictions.
    Senator Campbell. Along that line, if they attend as space 
available, as I understand it, is there travel to and from 
training? Is that provided by FLETC or is that their local 
departments responsibility?

                      State and Local Requirements

    Mr. Rinkevich. That is a requirement of the local 
departments for State and local training that we do, Mr. 
Chairman. They are required to absorb the cost of travel to and 
from the Center.

                           Prepared Statement

    Senator Campbell. Speaking of Georgia, I would like to 
introduce at Senator Coverdell's request this very, very nice 
statement on FLETC in Glynco, GA, for the record, without 
objection.
    [The statement follows:]

                Prepared Statement of Senator Coverdell

    Chairman Campbell, members of the Subcommittee, and guest, 
I appreciate the opportunity to submit testimony as you 
consider the fiscal year 1998 Treasury Postal Appropriations 
bill. Although I would very much like to deliver these remarks 
in person, I am unable due to a scheduling conflict.
    As you are aware, I am currently chairing the Foreign 
Relations Subcommittee on Western Hemisphere. Part of this 
Subcommittee's jurisdiction, which I have made as one of my 
highest priorities, is to reignite the nation's drug 
interdiction efforts, as well as protect our citizens from 
terrorist activities. Through this Chairmanship, I have had the 
opportunity to obtain direct feedback from our nation's law 
enforcement officers on what they feel is needed in their day-
to-day activities in protecting our borders and citizens. 
Although they have mentioned several immediate needs, the one 
that is continually brought to my attention is the deployment 
of more federal law enforcement officers.
    As you know, Congress has committed to increase the number 
of federal agents on the job. As we move forward in this 
effort, we must also fulfill our obligation to the U.S. 
taxpayers by making sure these new agents are properly trained 
in the most cost-effective manner.
    As you know, prior to 1970, training of our federal law 
enforcement agents was divided between respective federal 
agencies. After the completion of two studies, the federal 
government came to the realization that this fragmented system 
had discrepancies in training, duplication of efforts, and 
inefficient use of funds. As a result, Congress authorized the 
creation of the Consolidated Federal Law Enforcement Training 
Center, whose purpose was to create high quality, standardized, 
and cost-effective training for our federal officers.
    This new organization was temporarily headquartered in 
Washington, D.C. until 1975 when, after much study, a permanent 
location was found at the former Naval Air Station in 
Brunswick, Georgia. Since then, the Consolidated Federal Law 
Enforcement Training Center has been renamed the Federal Law 
Enforcement Training Center (FLETC), and has been training and 
graduating the many men and women who continue to fight for our 
safety.
    As you consider your bill, I would like to express my 
support for the agency's appropriation request of $119,541,000. 
As you may know, this request not only includes funds for the 
administrative costs in running FLETC, but also includes the 
training reimbursement funds from 72 federal agencies, 
including the INS and Border Patrol, whose roles are currently 
expanding.
    I would also like to bring to your attention the need to 
complete the master construction plan at FLETC and express my 
support for the agency's appropriation request of $18.6 million 
to be applied towards the completion of this plan. 
Approximately 52 percent of the master plan has been completed 
and additional appropriations would allow FLETC to again move 
closer toward its goal of being the centralized training center 
for our federal agencies.
    Whether traveling in my home state of Georgia, or chairing 
a Subcommittee hearing on drug interdiction, the need to 
address the crisis we face with drugs and crime is constantly 
brought to my attention. Through continued funding and support 
of the Federal Law Enforcement Training Center, we will be able 
to take the necessary steps to achieve this goal for all 
Americans.
    Once again, thank you for allowing me to testify today and 
for all you and your colleagues on the Subcommittee are doing 
for our country.

                          Additional Questions

    Senator Campbell. Senator Shelby, did you have some 
questions you would like to ask of this panel?
    Senator Shelby. I have no questions of the panel. I am glad 
to see all of them.
    Senator Campbell. We will go back to Senator Kohl. If you 
have some more we will do another round here.
    Senator Kohl. The Federal Law Enforcement Training Center, 
Mr. Rinkevich, in the past several years your estimate versus 
what actually occurred with respect to training personnel has 
been 15 to 25 to 35 percent off. Would you explain this problem 
to us and what we can do to rectify it, because we then 
allocate money to you and go through the problem of having an 
overallocation. How are we going to deal with that or how would 
you suggest we deal with this misestimate that occurs?

                      Budgetary Process Estimates

    Mr. Rinkevich. The circumstance, Mr. Kohl, is that the 
estimates that we base our workload projections on come to us 
from the agencies. As you know, the budgetary process in the 
Federal Government requires those kinds of estimates to be 
developed by the agencies in the preparation of their budgets 
some 18 months in advance of the actual fiscal year in which 
they would be implemented. So we are at the mercy of agencies 
projecting accurately the numbers of new hires and other 
training resources that they are going to demand of us. So the 
agencies do their very best, but there are conditions that 
occur after they have made their projections that either 
increase or in some cases decrease.

                            Discount Policy

    Recognizing that, the Center has taken those agency 
projections and applied an experience factor to them to give us 
a more realistic number. For example, we know that over time 
their numbers decrease by 20 to 25 percent. So we apply a 
discount factor.
    There have been few exceptions to this discount practice. 
In the case of the INS estimates this year, we have not 
discounted those because we and they have been so certain that 
those are going to be delivered for both 1997 and 1998. We also 
have not discounted the Bureau of Prisons estimates because 
they, too, are very much on target. But every other agency we 
have discounted.

                   Solution to Overestimating Numbers

    The solution to the problem is one that is already in 
place. One or two years ago the Congress authorized the Center 
to have an account in which certain unexpected dollars for 
training in one fiscal year could be held over for use in 
another year for the same purpose. That amount would go into an 
account which would be applied to the next year's needs for 
training. So we have a multiyear account that rolls over from 
year to year. It rolls over up to 3 years, and it is designed 
to provide a cushion or an amount that can be committed to 
training in ensuing years.
    So I think, Mr. Kohl, the solution is really quite 
effective at this point.
    Senator Kohl. Anything that this committee can do to help 
you?

                                Closing

    Mr. Rinkevich. I can think of nothing other than the 
committee's ability to understand the difficultly that FLETC 
and our participating agencies have in predicting what we are 
going to need so far in advance. Also, your understanding of 
the fact that those numbers are, in some cases, soft. They are 
all we have for projecting our training numbers in advance.
    Senator Kohl. I thank you.

                  Suspicious Activity Reporting System

    Mr. Morris, how many criminal referrals did FinCEN receive 
last year?
    Mr. Morris. Last year, a new system was put in place which 
we call the suspicious activity reporting system. That includes 
money laundering referrals from banks as well as criminal 
referrals that are required by the five bank regulatory 
agencies. I give that background because I can give a bit more 
precise answer.
    We received 64,000 referrals from financial institutions, 
40 percent of those relating to money laundering and Bank 
Secrecy Act violations which is the law that banks are obliged 
to follow in terms of currency reporting. So 64,000 is the 
total answer. In the old format, that would mean that about 60 
percent of those were criminal referrals, such things as bank 
fraud and embezzlement and the like.
    Senator Kohl. Of those referrals how many of those was 
FinCEN instrumental in resolving or solving?
    Mr. Morris. Our job is a network. We take some pride in the 
fact that FinCEN--its last letter, N standing for network--was 
a network before being a network was cool, before the efforts 
and focus were on the information superhighway.
    Our job really is to get that information into the hands of 
multiple law enforcement and regulatory agencies that have 
criminal jurisdiction. Our primary purpose in this program is 
to make sure that the Secret Service, the Customs Service, the 
Internal Revenue Service, the FBI, and the States and 
localities having investigative jurisdiction have that 
information quickly and accurately. This happens 100 percent of 
the time.
    FinCEN uses that data base to begin to examine trends and 
problems in efforts to identify potential investigative targets 
for follow-on by the investigative agencies.
    Senator Kohl. Will financial institutions profit from being 
vendors of electronic commerce for Government?
    Mr. Morris. I think that question probably more 
appropriately fits in the other F agency at Treasury, the 
Financial Management Service. The system as I understand that 
the Treasury Department is in the process of developing will be 
the movement of benefit payments electronically. At present, I 
think the answer is yes, the electronic transfer that exists at 
present will result in some profit basis so that the services 
are provided.
    There is also a consideration being used to using some of 
the new electronic money forms in that regard as well, and my 
guess is that markets will develop, as they tend to, when the 
Government begins to move large amounts of money and there will 
be profits involved in that, yes.
    Senator Kohl. As you know, what we are talking about here 
is the requirement by January 1, 1999, that all Federal 
payments, wages, salaries, retirements, and so on be made 
electronically.
    Mr. Morris. That is correct.
    Senator Kohl. So should we or should we not be looking to 
see that banks are not making extraordinary profits from 
transferring these Federal payment benefits?
    Mr. Morris. I think probably that question is 
inappropriately raised to my agency. I can either defer to the 
Under Secretary, but the short answer is that the Department is 
examining this whole effort. I am not really privy to the 
details of how it will work or what the relationship with the 
financial institutions will be. We are interested at the 
margins of the activity, as is the Secret Service, in terms of 
its potential for fraud and for creating financial crimes. But 
how that system actually goes into place is being explored at 
the Department.
    Senator Kohl. I thank you.
    Mr. Chairman.
    Senator Campbell. Thank you.

                             Counterfeiting

    Mr. Morris, let me just ask you. It is illegal to 
counterfeit money. Most of your work is done with bills rather 
than coins, right? I mean, not many people counterfeit coins. 
It is not time efficient, I suppose.
    Mr. Morris. Counterfeiting is my colleague at the left. Mr. 
Bowron, would be happy to deal with that question.
    Senator Campbell. I got some of my questions mixed up. Let 
me ask Mr. Bowron that same question. Most of your efforts are 
done with paper, I suppose.
    Mr. Bowron. That is true, Mr. Chairman. Certainly in those 
cases, and there have been some where there is counterfeiting 
of coins, that certainly would fall within our jurisdiction. 
But that is by far the exception in terms of our investigative 
activity.
    Senator Campbell. If I went to Las Vegas, they make coins 
like tokens sometimes for their machines.
    Mr. Bowron. That is right.
    Senator Campbell. Is it illegal to counterfeit those if you 
were inclined to do so?
    Mr. Bowron. Yes; but it is not necessarily--that is not a 
Federal payment system so that is not necessarily in the 
jurisdiction of the Secret Service; but it would be a violation 
of a State or local law. In fact, that has occurred.
    Senator Campbell. It has?
    Mr. Bowron. Yes.
    Senator Campbell. I'm a jeweler, I could make one of those. 
But I guess I will not now that you have told me that. 
[Laughter.]

           National Center for Missing and Exploited Children

    I was pleased to note the participation of the Secret 
Service in the National Center for Missing and Exploited 
Children. Could you elaborate a little on the results record 
you have had since you have become involved? A very admirable 
effort.
    Mr. Bowron. Yes, sir; we have worked with the National 
Center for Missing and Exploited Children in a number of 
different cases, and our support and our involvement has 
primarily been through forensic activities that were developed 
mostly in conjunction with our protective mission. These 
forensic activities have a tremendous value in those kinds of 
investigations.
    The specific forensic activities include handwriting 
technology, a forensic information system for handwriting that 
we have, and fingerprint technology which relies on a rather 
extensive AFIS network that we have developed by networking 
four different AFIS vending systems through the Secret Service, 
and polygraph examinations. Also even in the area of cellular 
telephone communications investigations, we have been 
successful in working with State and local law enforcement to 
recover some victims of kidnapping and exploitation.
    Senator Campbell. Do most of those requests come from local 
law enforcement agencies that need help?
    Mr. Bowron. Almost exclusively. It comes through the center 
to us to support State and local law enforcement.

        Relationship With Office of National Drug Control Policy

    Senator Campbell. Director Morris, drug money is closely 
linked to money laundering. You mentioned something along this 
line. I would like to know how you interact with the drug 
czar's office.
    Mr. Morris. FinCEN has a good relationship with the Office 
of National Drug Control Policy. I know the challenges that 
they face. I served for 2 years, a number of years ago, as the 
deputy director in the drug czar's office.
    Senator Campbell. You did?
    Mr. Morris. Yes; I did. It is a very difficult challenge 
trying to do all the necessary coordination. I think also 
FinCEN is a unique agency in that we have some 28 different 
agencies who have agents or analysts assigned to our 
organization. So I think there is a natural kind of 
relationship between our organization and the ONDCP because we 
also interact with lots of other departments of the Government.
    General McCaffrey has been out to FinCEN, as well as a 
number of his senior staff. They have been involved in our 
close working relationships with banks and nonbanks. They are a 
member of the Under Secretary's antimoney laundering working 
group called the Bank Secrecy Act advisory group, and they have 
participated in the group as well as in some of our 
international initiatives. So I think our working relationships 
are quite close with them.
    Senator Campbell. I have a number of other questions I 
would like to submit to each one of you and have you answer, 
but I have no more for this panel. Senator Kohl, do you? 
Senator Shelby?
    Senator Shelby. No; I have no----
    Senator Kohl. No; I would simply say that it has been a 
really good session.
    Senator Campbell. Very informative.
    Senator Kohl. You are good people. You are doing a good 
job, and you will continue to have our support. We are working 
toward the same goals.
    Senator Campbell. We particularly thank you for setting up 
these terrific displays, not only for our education, but I am 
sure that many people in the audience found them very 
interesting, too. If there are people here who have not seen 
them, before you leave you might take a good look.
    I have a conflict, so I would like to ask Senator Shelby, 
if he has the time, if he would chair the last panel.
    Senator Shelby. Be glad to.
    Senator Campbell. If you will do that, I am going to have 
to run. Thank you.
    The last panel will be Ms. Valerie Lau of the Treasury's 
Inspector General's Office.
                                Panel 2

                       DEPARTMENT OF THE TREASURY

STATEMENT OF HON. VALERIE LAU, INSPECTOR GENERAL
ACCOMPANIED BY RICHARD CALAHAN, DEPUTY INSPECTOR GENERAL

                        Introduction of Witness

    Senator Shelby. Ms. Lau, we are glad to have you here 
today. I understand you are accompanied by your deputy, Richard 
Calahan?
    Ms. Lau. Yes, sir; I am.

                           Prepared Statement

    Senator Shelby. Ms. Lau, we have your complete statement 
and it will be made part of the record.
    [The statement follows:]
                   Prepared Statement of Valerie Lau
    Mr. Chairman, Members of the Committee, I am Valerie Lau, Treasury 
Inspector General, and I am pleased to appear before you today to 
discuss the fiscal year 1998 budget request for the Salaries and 
Expenses Appropriation of the Department of the Treasury's Office of 
Inspector General (OIG).
    Sitting at the table with me today is Mr. Richard B. Calahan, 
Deputy Inspector General. Also accompanying me are Mr. Dennis S. 
Schindel, Assistant Inspector General for Audit; Ms. Raisa Otero-
Cesario, Assistant Inspector General for Investigations; Mr. Gary L. 
Whittington, Assistant Inspector General for Resources; Mr. William 
Pugh, Deputy Assistant Inspector General for Audit (Financial 
Management); and Ms. Lori Y. Vassar, Counsel to the Inspector General.
    I have prepared a formal statement which, with your permission, I 
will submit for the record.
                                mission
    As you know, the Treasury Office of Inspector General (OIG) was 
established by the 1988 Amendments to the Inspector General (IG) Act of 
1978. The mission of all OIG's is to conduct independent and objective 
audits and investigations relating to the programs and operations of 
their respective Departments; to make recommendations that promote 
economy, efficiency and effectiveness; and to prevent and detect fraud 
and abuse.
    Unlike most other OIG's, however, the Amendments did not create a 
single audit and investigative entity for the Treasury Department. 
Instead, we share that responsibility and have oversight of other audit 
and investigative units within the four law enforcement bureaus. Simply 
put, the Treasury OIG has direct audit responsibility for all bureaus 
except the Internal Revenue Service (IRS). We have oversight 
responsibility for the internal audit and investigative functions of 
the IRS Chief Inspector's office and the internal affairs and 
inspection functions of the Customs Service, the Bureau of Alcohol, 
Tobacco and Firearms, and the Secret Service. In addition, we have 
investigative responsibility for all other Treasury bureaus and for all 
senior level officials departmentwide.
    Please keep in mind this unique structure, mandated by the IG Act 
Amendments, as we discuss the activities of my office.
    Today, we would like to describe what we have accomplished and 
discuss what we hope to achieve in the years ahead. We realize that 
what counts are the results made possible by the resources entrusted to 
us through this process. This submission reflects our first efforts to 
integrate our strategic plan into our request.
                        oig strategic direction
    We want to accomplish our mission in a way that will maximize our 
impact by focusing on what is most important. The strategic goals that 
support our mission are:
  --Promote Economy, Efficiency and Effectiveness
  --Improve Financial Management
  --Heighten Integrity Awareness and Deterrence
  --Monitor Departmental Information Systems Development
  --Address High-Priority Issues That Benefit Customers and 
        Stakeholders
  --Continually Improve Through Employee and Organizational Development
    We have identified strategies to accomplish each of these goals. As 
an example, to promote economy, efficiency, and effectiveness, we are 
developing a system for long and short-range planning which will 
identify programs and activities subject to high risk and 
vulnerabilities. The plan focuses particular attention on areas which 
reflect the Department's priorities. These priorities, identified from 
the Department's budget justification, include such issues as 
``Strengthening Internal Financial Management'' and ``Improving Border 
Operations.'' We will use our plan to direct our audit resources in a 
way that will provide coverage to significant and sensitive Treasury 
programs and operations.
    I believe that this process--establishing goals and strategies for 
the long term, setting annual targets, managing to achieve those 
targets, and reporting annually on our progress--can help us manage our 
programs more efficiently and effectively and make informed budget 
decisions.
                        fiscal year 1998 budget
    Our fiscal year 1998 budget request is $31.333 million and 313 
direct full-time equivalents (FTE). This represents a net increase of 
$1.563 million and 8 FTE over fiscal year 1997. The net $1.563 million 
increase includes: $0.614 million and 8 FTE to cover a workload 
adjustment to support audit functions that review all facets of 
Treasury's operations; $0.787 million to cover cost adjustments 
necessary to maintain our current levels; and $0.162 million to cover 
pay annualization.
                              oig progress
    My office has made steady progress in increasing its effectiveness. 
We have made significant progress in three specific areas--improving 
Treasury's financial management, developing in-house information 
technology capability, and strengthening our organizational 
independence. We have accomplished these by using our existing 
resources more effectively.
    First, we have focused a good portion of our audit resources 
towards helping the Treasury Department improve financial management 
through financial statement audits mandated by the Chief Financial 
Officer's (CFO) Act and Government Management Reform Act (GMRA). As you 
know, this year we are responsible for auditing the first 
Departmentwide financial statements. This is a large undertaking. In 
fiscal year 1995, Treasury's revenue collections amounted to $1.4 
trillion, accounting for almost all the Government's revenue.
    In less than three years, we have built one of the strongest 
financial statement audit groups in the Inspector General (IG) 
community. We have seen progress in financial management as measured by 
improved levels of audit assurance. We intend to build on this success. 
Treasury has made great strides in financial management, but there is 
still a great deal to be done. This will continue to be a major focus 
for us.
    Second, we have made progress in developing our information 
technology (IT) capacity. Information technology and its applications 
are of critical importance to the Department. Until two years ago, we 
relied largely on contracted IT expertise to support our audits and 
other projects. We did not have any in-house automated data processing 
(ADP) audit expertise. Last year I reported to the Committee that we 
had hired a senior ADP manager and combined the staffs of our ADP 
support group with a small ADP audit group under his leadership. I 
charged the new office with making information technology a strategic 
resource, and I am pleased with the progress we have made so far.
    This Office of Information Technology (OIT) has provided basic ADP 
audit training to our audit staff and instructed financial auditors in 
the use of computer assisted audit techniques. In addition, they direct 
the ADP audit work of the IT contractors we use when our office needs 
additional IT expertise.
    OIT has also improved our ability to use information technology to 
better advantage. One year ago, our only means of electronic 
communication was an obsolete and expensive computer system based on 
ten year old technology. During the year, we designed a new network, 
financed it using available funds, and began installation. As of today, 
we have installed local area networks and new software in the majority 
of our offices, supporting over 80 percent of our employees. By early 
spring, we will have local area networks installed in all of our 
offices and will be connected to the Treasury Communications System. 
This will improve our ability to share information and make our work 
processes more efficient.
    When I became Inspector General, I was dismayed to learn that the 
office had no system to account for project costs. During the past 
year, we have designed a new management information system that will 
run on our new network. This new system combines audit information, 
investigations case information, and project costs to give us a full 
picture of our activities. The new system will be initially installed 
April 1, 1997, and fully implemented by October 1, 1997.
    Third, we have strengthened our organizational independence. Last 
year, I reported that the General Counsel and I had entered into a 
Memorandum of Understanding (MOU) to ensure the provision of 
independent legal services by establishing procedures so that my 
counsel could provide legal advice independent of the Office of the 
General Counsel (OGC) and sever communications about any particular 
subject. During my tenure, the OIG has handled many issues that 
required the exercise of independent legal advice. Accordingly, my 
counsel had in practice not reported to or been under the general 
supervision of the General Counsel. Because the MOU did not adequately 
reflect the independent relationship between my counsel and the OGC, 
the General Counsel and I rescinded the MOU. The Department's 
organizational structure will now reflect that my counsel is solely an 
employee of the OIG who reports directly to and is supervised by my 
office.
                          operational results
    The OIG has four line functions, Investigations and Oversight, 
Audit, Information Technology, and Evaluations.
Investigations and Oversight
    During fiscal year 1996, the Office of Investigations (OI) closed 
156 cases resulting in 16 successful prosecutions, 7 suspensions or 
debarments, 50 administrative sanctions, and approximately $8 million 
in monetary benefits.
    Last year, I informed the Committee that OI had initiated an 
investigation into the area of Workman's Compensation and this could 
result in significant savings to the Government. One particular 
Workman's Compensation investigation resulted in a $967,000 savings to 
the government. Also, OI received special recognition from United 
States Attorneys in two different judicial districts, for its 
outstanding efforts in conducting criminal investigations.
    During fiscal year 1996, the Office of Oversight issued five 
reports concerning the operations and programs of the four law 
enforcement bureaus' internal affairs and inspection offices. At the 
present time, we have an additional nine reviews in progress. They 
address whether the internal affairs and inspections groups adhere to 
professional investigative standards, the economy and efficiency with 
which their operations and programs are carried out, and their 
compliance with applicable laws and regulations.
Audit
    During fiscal year 1996, we issued 111 Treasury OIG audit and 
evaluation reports including approximately $26 million in total 
questioned costs and funds that the bureaus could put to better use in 
their operations. These reports covered a range of Treasury operations.
    We continue to strengthen our financial statement auditing 
capabilities and work with the Department and GAO to improve financial 
management in Treasury. In the past year's audit work, we have achieved 
measurable progress and have laid a strong foundation for meeting the 
challenges of the Department's expanded financial reporting 
responsibilities while improving the Department's financial management.
    The OIG audited Customs, Bureau of Alcohol, Tobacco and Firearms 
(ATF), the Exchange Stabilization Fund, and a significant portion of 
the Treasury Forfeiture Fund. By working with Customs, we have moved 
from a disclaimer of opinion to a qualified opinion on their balance 
sheet on the fiscal year 1995 Financial Statement. With ATF's 
assistance, we quickly identified weaknesses and through ATF's vigorous 
actions, corrections were made. Thus, we were able to issue an 
unqualified opinion on ATF's fiscal year 1995 balance sheet on their 
very first financial statement audit. The fiscal year 1996 audits of 
these two bureaus are currently in progress. In both cases, management 
has made additional improvements in internal controls and financial 
reporting processes. We have also performed audit surveys of Secret 
Service and Bureau of Public Debt (BPD), and provided oversight and 
technical assistance for eight audits performed by contractors.
    This year we are focusing more program audit efforts in the areas 
of violent crime, money laundering and border operations. In Customs 
and ATF, we have begun to concentrate on revenue areas such as user 
fees and excise taxes. We also plan to perform audits in some of the 
new areas of responsibility in Treasury such as Electronic Benefits 
Transfer (EBT) and the Debt Collection Improvement Act.
    This year we will be implementing a new audit follow-up system, and 
we will be devoting more resources on prior audit recommendations to 
ensure management has taken adequate corrective action. For example, we 
are following up on our report of the Department's oversight of Tax 
Systems Modernization (TSM).
Information Technology
    Our Office of Information Technology supports both financial and 
program audit efforts. During its first year, this office has made 
great progress in their efforts to assist and add value to our audits. 
The recent Information Technology Management Reform Act of 1996, 
Federal Financial Management Improvement Act of 1996, and other 
legislation clearly indicate Congress' intention to make technology 
work and we are committed to do our part.
    Specifically, our OIT staff provides training and technical support 
to our financial auditors in the use of computer assisted audit 
techniques. The OIT staff has also used contractors to test computer 
controls on our Customs and Alcohol, Tobacco and Firearms financial 
audits and performed this work on our Secret Service financial audit. 
The OIT is currently involved in planning for future financial audit 
work at the Internal Revenue Service, Financial Management Service, and 
Bureau of Public Debt. The OIT is also supporting our program auditors, 
specifically in the reviews of the Tax Systems Modernization Program at 
IRS and the implementation of the Seized Asset and Case Tracking system 
(SEACATS) at Customs.
    We are also in the final stages of a departmentwide IT survey 
designed to identify the major risks affecting departmental and bureau 
information technology initiatives and operations. The survey focuses 
on IT strategic management, technical architecture, systems development 
and project management as well as the inherent risk in current 
development projects. The results of this survey report will be used to 
plan future audits in the information technology area.
Evaluations
    Our Office of Evaluation's first year of operation has focused its 
attention on assisting the Department with consultative services to 
address emerging issues and problems before vulnerabilities develop. 
These services have suggested the use of strategic planning to assist 
Treasury in coordinating with other agencies, encouraged the upgrading 
of automation to better manage regulatory functions, and provided 
operational frameworks for implementing new initiatives. The evaluators 
have also continued to assist the Bureaus in implementing the 
Government Performance and Results Act by identifying practical issues 
that impact performance, and suggesting approaches to integrating 
strategic and tactical planning.
                               conclusion
    In summary, we have worked hard to make our organization stronger 
and better equipped to handle the challenges of a large oversight 
mandate in a department with many significant and diverse functions. We 
thank you for your support and look forward to continued progress with 
your help.
    This concludes my opening statement. My staff and I will be happy 
to answer any questions you may have.

                        Status of Investigation

    Senator Shelby. If I can just proceed. When I was chairing 
this committee back in this past year you appeared before the 
subcommittee. I had intended today to just touch briefly on the 
status of your office's investigation, but in light of some new 
information that you have provided, I would like to discuss 
this in more detail here today.
    I have other questions on budget matters that I will submit 
for the record if we do not get to them today.
    Ms. Lau. That is fine, Senator.
    Senator Shelby. Madam Inspector General, I received a copy 
of your letter dated April 16, 1997, informing me that you have 
closed your investigation into the Secret Service testimony. I 
am glad to hear that. I would like to submit a copy of that 
letter for the record as well as copies of two letters that 
were sent to Senator Stevens and Congressman Waxman informing 
them of your office's decision. Without objection, that will be 
done.
    Ms. Lau. Thank you.
    [The information follows:]
                        Letters From Valerie Lau
                                Department of the Treasury,
                                    Washington, DC, April 25, 1997.
Hon. Ben Nighthorse Campbell,
Chairman, Subcommittee on Treasury and General Government, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: When I appeared before your subcommittee April 
17, 1997, I did not have the opportunity to enter an opening oral 
statement into the record. With your permission, I would like to submit 
for the record a group of letters dated April 16, 1997. In particular, 
I refer to my letter addressed to Senator Shelby regarding testimony 
before this Subcommittee last December.
    That letter summarizes two items regarding the Office of Inspector 
Generals (OIG) investigation of the Secret Service's computer system 
used to generate White House access lists. First, we have closed this 
investigation pending resolution of investigative access issues with 
the Secret Service. As we have informed you, the investigation has been 
inactive because the Secret Service will not provide the OIG full and 
unrestricted access to the employees and records needed to conduct this 
investigation. The Secret Service has insisted that all requests for 
information and contact with Service employees be done through the 
Office of Inspection, their internal affairs office. We have attempted 
to resolve the matter directly with the Service and through the 
management chain of command. We do not believe that we can conduct a 
credible and independent investigation under the circumstances imposed 
by the Service. We have notified the requesters and the Independent 
Counsel to explain our decision.
    Second, I would like to clarify my previous testimony before this 
Subcommittee last December. My testimony was based on information 
available to me at that time. I recently learned of the existence of 
administrative tracking documents which apparently, for one week, 
listed two Secret Service agents as subjects of an investigation. I 
have been informed that within a week, the OIG investigators handling 
this case concluded that no subjects could or should be identified 
based on the information available at that time. Consequently, the 
tracking document was revised.
    These documents facilitate administrative management of the 
investigative caseload and normally would not come to my attention. I 
became aware of these documents April 11 and directed by staff to 
immediately notify interested parties, such as your staff. We have 
referred this matter to the Integrity Committee of the President's 
Council on Integrity and Efficiency for appropriate action.
    I assure you that I have been forthcoming in my responses to the 
Subcommittee. Thank you for this opportunity to set the record 
straight.
            Sincerely,
                                               Valerie Lau,
                                                 Inspector General.
                                 ______
                                 
                                Department of the Treasury,
                                    Washington, DC, April 16, 1997.
Hon. Richard Shelby,
U.S. Senate,
Washington, DC.
    Dear Senator Shelby: I want to update you on the status of the 
investigation of the U.S. Secret Service (USSS) computer system (Waves) 
used to generate lists of persons authorized to have access to the 
White House. First, pending resolution of investigative access issues 
with the USSS, we are closing this investigation. As we have informed 
you, the investigation has been inactive because the USSS will not 
provide the Office of Inspector General (OIG) full and unrestricted 
access to the employees and records associated with this investigation. 
The USSS has insisted that all requests for information and contact 
with USSS employees be accomplished through the Office of Inspection, 
the USSS internal affairs office. Enclosed are copies of letters to 
Congressman Waxman and Senator Stevens explaining this decision.
    Second, as we have discussed with your staff this week, I would 
like to clarify my testimony before your Subcommittee on December 2, 
1996. My testimony was based on information that I had at the time of 
the hearing. My comments were accurate in that our investigation 
involved the process by which the USSS developed and maintained lists 
to the White House. However, for a short period of time our case 
management records listed the two agents as subjects of the 
investigation. These documents facilitate administrative management of 
the investigation caseload and normally would not come to my attention. 
I would like to inform you of information of which I have recently been 
apprised so that there is no misunderstanding.
    According to our procedures, the Regional Inspectors General for 
Investigations (RIGI) open cases. When an investigation is initiated, a 
Case Tracking Document (CTD) is prepared containing descriptive 
information pertaining to the allegations. A CTD can be prepared 
periodically throughout the investigation as specific information is 
received or as the status of the investigation changes. It is not 
uncommon to generate several CTD's during the course of an 
investigation. For most investigations, there are a minimum of two 
CTD's, an opening and a closing.
    For the USSS Waves list investigation, there are currently two 
CTD's. The first CTD was completed on October 2, 1996, and listed two 
USSS agents and unknown USSS employees as subjects. This CTD was sent 
to the Office of Investigations, Headquarters for entry into the 
Management Information System (MIS). On October 4, 1996, OIG agents met 
with a Minority staff member of the House Government Reform and 
Oversight Committee and received a copy of the USSS agents' testimony. 
Our agents reviewed the testimony and concluded that the USSS agents' 
testimony was not in question; the preparation of that testimony and 
the process of producing the lists was. They discussed this information 
with the RIGI on October 8, 1996.
    The RIGI and her agents agreed that the USSS agents were not the 
subjects of this investigation. I have been informed that October 9, 
1996 the RIGI prepared an updated CTD, reflecting that this 
investigation was based on letters received from Congresswoman Collins 
and Senator Stevens requesting that we investigate the process by which 
the USSS Waves list was developed and maintained and that the subjects 
were unknown. This CTD was sent to the Office of Investigations, 
Headquarters for entry into the MIS.
    Upon receipt of this updated CTD in Headquarters, the subjects 
listed on the first CTD were deleted from the MIS and the system was 
updated to reflect that the subjects were unknown. This status has not 
changed.
    Should you or your staff wish to discuss this please let me know.
            Sincerely,
                                               Valerie Lau,
                                                 Inspector General.
    Enclosures.
                                 ______
                                 
                                Department of the Treasury,
                                    Washington, DC, April 16, 1997.
Hon. Jim Kolbe,
Chairman, Subcommittee on Treasury, Postal Service and General 
        Government, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC.
    Dear Mr. Kolbe: I want to update you on the status of the 
investigation of the U.S. Secret Service (USSS) computer system (Waves) 
used to generate lists of persons authorized to have access to the 
White House. First, pending resolution of investigative access issues 
with the USSS, we are closing this investigation. As we have informed 
you, the investigation has been inactive because the USSS will not 
provide the Office of Inspector General (OIG) full and unrestricted 
access to the employees and records associated with this investigation. 
The USSS has insisted that all requests for information and contact 
with USSS employees be accomplished through the Office of Inspection, 
the USSS internal affairs office. Enclosed are copies of letters to 
Congressman Waxman and Senator Stevens explaining this decision.
    Second, as we have discussed with your staff this week, I would 
like to clarify my testimony before the Subcommittee on February 26, 
1997. My testimony was based on information that I had at the time of 
the hearing. My comments were accurate in that our investigation 
involved the process by which the USSS developed and maintained lists 
to the White House. However, for a short period of time our case 
management records listed the two agents as subjects of the 
investigation. These documents facilitate administrative management of 
the investigation caseload and normally would not come to my attention. 
I would like to inform you of information of which I have recently been 
apprised so that there is no misunderstanding.
    According to our procedures, the Regional Inspectors General for 
Investigations (RIGI) open cases. When an investigation is initiated, a 
Case Tracking Document (CTD) is prepared containing descriptive 
information pertaining to the allegations. A CTD can be prepared 
periodically throughout the investigation as specific information is 
received or as the status of the investigation changes. It is not 
uncommon to generate several CTD's during the course of an 
investigation. For most investigations, there are a minimum of two 
CTD's, an opening and a closing.
    For the USSS Waves list investigation, there are currently two 
CTD's. The first CTD was completed on October 2, 1996, and listed two 
USSS agents and unknown USSS employees as subjects. This CTD was sent 
to the Office of Investigations, Headquarters for entry into the 
Management Information System (MIS). On October 4, 1996, OIG agents met 
with a Minority staff member of the House Government Reform and 
Oversight Committee and received a copy of the USSS agents' testimony. 
Our agents reviewed the testimony and concluded that the USSS agents' 
testimony was not in question; the preparation of that testimony and 
the process of producing the lists was. They discussed this information 
with the RIGI on October 8, 1996.
    The RIGI and her agents agreed that the USSS agents were not the 
subjects of this investigation. I have been informed that October 9, 
1996 the RIGI prepared an updated CTD, reflecting that this 
investigation was based on letters received from Congresswoman Collins 
and Senator Stevens requesting that we investigate the process by which 
the USSS Waves list was developed and maintained and that the subjects 
were unknown. This CTD was sent to the Office of Investigations, 
Headquarters for entry into the MIS.
    Upon receipt of this updated CTD in Headquarters, the subjects 
listed on the first CTD were deleted from the MIS and the system was 
updated to reflect that the subjects were unknown. This status has not 
changed.
    Should you or your staff wish to discuss this please let me know.
            Sincerely,
                                               Valerie Lau,
                                                 Inspector General.
    Enclosures.
                                 ______
                                 
                                Department of the Treasury,
                                    Washington, DC, April 16, 1997.
Hon. Henry A. Waxman,
Ranking Minority Member, Committee on Government Reform and Oversight, 
        U.S. House of Representatives, Washington, DC.
    Dear Mr. Waxman: On September 25, 1996, the then-Ranking Minority 
Member of the Committee on Government Reform and Oversight requested an 
investigation into the preparation of certain testimonies before the 
Committee related to the creation of lists of persons authorized to 
have access to the White House. The initiation of an investigation was 
predicated on the notification by the Office of Independent Counsel 
(OIC) that an investigation could be conducted, without impeding their 
inquiry, subject to certain restrictions.
    To conduct this investigation requires unfettered access to records 
and personnel of the USSS. Initial contacts with the USSS established 
that the USSS was unwilling to provide the OIG with any access which 
was not coordinated with the USSS Office of Inspection. Under the 
current circumstances, we are unable to conduct a credible and 
independent investigation. The OIG would not be able to attest to the 
accuracy or veracity of the investigative results, if required to work 
through the USSS Office of Inspection. It is the position of the OIG 
that this constitutes an unreasonable denial of access by the USSS. The 
OIG has attempted to resolve this matter directly with the USSS and 
through the management chain of command within Treasury. The Inspector 
General Act, as amended (``I.G. Act'', 5 U.S.C.A. App. 3), provides 
that such instances of unreasonable refusal of access be reported to 
the Department and disclosed in the Semiannual Report to Congress (IG 
Act, Sec. 6(b)2). The OIG intends to report this matter in the next 
report to Congress.
    As it is not appropriate for the OIG to conduct this investigation 
under the conditions imposed by the USSS, the OIG is closing this 
investigation. When and if the question of access with the USSS is 
resolved, the OIG will reopen the investigation.
    If you have any questions or require any further assistance, please 
contact me.
            Sincerely,
                                               Valerie Lau,
                                                 Inspector General.
                                 ______
                                 
                                Department of the Treasury,
                                    Washington, DC, April 16, 1997.
Hon. Ted Stevens,
U.S. Senate,
Washington, DC.
    Dear Senator Stevens: On June 18, 1996, you requested that the 
Office of Inspector General (OIG) look into the creation, handling and 
dissemination of background investigation files and the capabilities of 
the computer system used by the United States Secret Service (USSS) to 
generate lists of persons authorized to have access to the White House. 
Subsequently, the USSS provided testimony regarding the process by 
which the White House access list is maintained and updated. The then-
Ranking Minority Member of the House Committee on Government Reform and 
Oversight made a separate request for an investigation into the 
preparation of testimony provided by Secret Service officials before 
that Committee. The initiation of an investigation was predicated on 
the notification by the Office of Independent Counsel (OIC) that an 
investigation could be conducted, without impeding their inquiry, 
subject to certain restrictions.
    To conduct this investigation requires unfettered access to records 
and personnel of the USSS. Initial contacts with the USSS established 
that the USSS was unwilling to provide the OIG with any access which 
was not coordinated with the USSS Office of Inspection. Under the 
current circumstances, we are unable to conduct a credible and 
independent investigation. The OIG would not be able to attest to the 
accuracy or veracity of the investigative results, if required to work 
through the USSS Office of Inspection. It is the position of the OIG 
that this constitutes an unreasonable denial of access by the USSS. The 
OIG has attempted to resolve this matter directly with the USSS and 
through the management chain of command within Treasury. The Inspector 
General Act, as amended (``I.G. Act'', 5 U.S.C.A. App. 3), provides 
that such instances of unreasonable refusal of access be reported to 
the Department and disclosed in the Semiannual Report to Congress (IG 
Act, Sec. 6(b)2). The OIG intends to report this matter in the next 
report to Congress.
    As it is not appropriate for the OIG to conduct this investigation 
under the conditions imposed by the USSS, the OIG is closing this 
investigation. When and if the question of access with the USSS is 
resolved, the OIG will reopen the investigation.
    If you have any questions or require any further assistance, please 
contact me, or a member of your staff may contact Raisa Otero-Cesario, 
Assistant Inspector General for Investigations.
            Sincerely,
                                               Valerie Lau,
                                                 Inspector General.

                       Attempt to Clarify Record

    Senator Shelby. Your letter also attempts to clarify your 
previous testimony before this committee in light of documents 
and information that has been brought to the committee's 
attention.
    Ms. Lau. Yes, sir.
    Senator Shelby. I want to start off by saying that while I 
appreciate your office's desire to clarify the record, I am not 
pleased by it. In fact, I am sincerely disturbed. About a week 
ago I was made aware by your office that new information had 
come to their attention that clearly showed that on October 2, 
1996, your office did in fact open a criminal investigation 
into the testimony of two specific Secret Service agents and 
this investigation was opened solely at the request of 
Congresswoman Cardiss Collins at that time, not Senator Stevens 
and Congresswoman Collins as has been previously maintained by 
you.
    Your office provided me a copy of an e-mail which was sent 
from them. Do you have copies of all of this?
    Ms. Lau. Yes, sir; I do. Thank you.
    Senator Shelby. Your office provided me a copy of an e-mail 
which was sent from then-assistant inspector general for 
investigations, James Cottos, to Emily Coleman, regional 
inspector general for investigations. The e-mail is dated 
October 2, 1996, and it reads--I would like to ask also that 
this be made part of the record. Without objection, it is so 
ordered.
    [The information follows:]
                         Interoffice Memorandum
                                                   October 2, 1996.
To: Emily P. Coleman.
From: James Cottos.
CC: Raisa Otero-Cesario.
Subject: Investigation of Secret Service Testimony of 7/17/96.

    I talked to Lori Vassar this morning regarding the letter from 
Congresswoman Cardiss Collins. Lori talked to Don Goldberg, the staffer 
for Congresswoman Collins, about the Secret Service testimony on 7/17/
96. The Congresswoman strongly believes that the Secret Service 
representatives committed perjury and obstruction of justice when they 
testified. The staffer has all the documents we need to initiate the 
investigation--a transcript of the testimony, the lists provided, etc.
    Lori said we have received clearance from the Independent Counsel 
to proceed, with the restriction that we clear names with them before 
interviews of Secret Service personnel. The contact attorneys at 
Independent Counsel are Rod Rosenstein or Steve Colloton. I'm sending 
copies of the two letters with SA Carl Hoecker, who stopped by to drop 
some documents off this morning. Let me know is you have any questions.
            Thanks,
                                                               Jim.

                     Concerns About Privacy Rights

    Senator Shelby. The e-mail is from James Cottos with a cc 
to Raisa Otero-Cesario and the subject matter is investigation 
of the Secret Service testimony of July 17, 1996.
    Ms. Lau. Excuse me, sir, I also have a copy of that e-mail 
and I believe for one item I am concerned about the privacy 
rights of the individual's named on the e-mail itself. I would 
be happy----
    Senator Shelby. Well, we are concerned about a lot of 
things that you perhaps misled this committee intentionally.
    Ms. Lau. It was not my intention to mislead the committee.
    Senator Shelby. That is why we want to get into this. But 
you have got this, do you not?
    Ms. Lau. I have it, sir. I wanted to raise my concern about 
the privacy rights of the individuals who are named on the e-
mail. I would be happy----
    Senator Shelby. I will respect their rights, but I am 
getting into the substance of--you do have a copy of this?
    Ms. Lau. I do have a copy.
    Senator Shelby. For the record, could you explain what it 
says without mentioning the people?
    Ms. Lau. If I could preface it, it is from the then-
assistant inspector general for investigations to the regional 
inspector general for investigations, and the cc is to the 
deputy assistant inspector general for investigations. Thank 
you for letting me clarify the roles of those individuals.
    Senator Shelby. You go ahead. What is the substance of it?
    Ms. Lau. The substance of it is an authorization from the 
assistant inspector general for investigations to commence an 
investigation.
    Senator Shelby. What is the nature of the investigation?
    Ms. Lau. According to his information, he indicates that it 
is regarding the testimony of the two Secret Service agents 
provided on July 17, 1996.
    Senator Shelby. It was regarding their testimony before 
Congress, was it not?
    Ms. Lau. Yes, sir; before the House Committee on Government 
Reform and Oversight.
    Senator Shelby. Your office also explained that on that 
time on October 2, 1996, that your office opened a perjury 
investigation into the testimony of two named Secret Service 
agents based on the Congresswoman's request. I was informed 
that a case tracking form was opened on October 2, 1996, 
identifying Congresswoman Collins as the requester and naming 
two agents as the subjects of this investigation.
    According to your office, this form was later changed to 
October 9 to reflect that the investigation was based on the 
request of both Senator Stevens and Congresswoman Collins, the 
specific agents named were removed as subjects, and the nature 
of the investigation was changed to address the preparation of 
testimony by the Secret Service and their policies and 
procedures for producing access lists to the White House.

                         Case Tracking Document

    Ms. Lau. Senator Shelby, my staff have informed me that 
within a week of the preparation of the case tracking document, 
the case tracking document was revised by the OIG investigators 
who were handling the investigations. They had concluded, based 
on their preliminary evaluation of the evidence that no 
subjects could be or should be identified based on the 
information available at the time. Consequently, the case 
tracking document was revised to reflect that there were no 
known subjects of the investigation.
    Mr. Calahan. If I might just give some perspective?
    Senator Shelby. You go ahead.
    Mr. Calahan. This form is frequently changed throughout an 
investigation. Normally what happens in our investigation 
offices is that the regional inspector general for 
investigations will receive information that is indicative that 
maybe an investigation should be started, and one of the first 
things they do will be to fill out this form so that the agents 
involved can charge time to the case. They normally when they 
first fill out the form the first time they put whatever 
information they might have pertaining to the case on the form. 
Then through the process of the investigation this form is 
changed when better information comes to light.
    Senator Shelby. It looks to me like that maybe this form 
was changed for reasons other than that. In other words, when 
did you learn of the change?
    Mr. Calahan. I learned of the change last Friday morning, 
April 11, at 9:30 in a meeting with the assistant inspector 
general for investigations, the regional inspector general for 
investigations, and the supervisor on the investigation.
    Senator Shelby. Ms. Lau, when did you learn of the change?
    Ms. Lau. I learned of this from Mr. Calahan following his 
meeting.
    Mr. Calahan. I informed her immediately.
    Ms. Lau. And I in turn directed him to contact interested 
parties such as your staff that very same day.
    Senator Shelby. I want to go ahead. Your office explained 
that at that time on October 2, 1996, your office opened a 
perjury investigation. I went through that. But according to 
your office this form that we keep talking about was later 
changed to October 9 that you just mentioned to reflect that 
the investigation was based on the request of both Senator 
Stevens and Congresswoman Collins, the specific agents' names 
were removed as subjects, and the nature of the investigation 
was changed to address the preparation of testimony by the 
Secret Service and their policies and procedures for producing 
access lists to the White House. I mentioned that earlier. Let 
me go on.
    In addition, I was informed that it was not until sometime 
after October 2 that the Office of Inspector General, your 
office, considered the Stevens' request and decided to join the 
two requests in one investigation. An explanation from Emily 
Coleman, the regional inspector general for investigations for 
the eastern region explaining this change in the investigation 
was also provided and I would ask that this be made part of the 
record. And it will be, without objection.
    [The information follows:]

    In preparation for the hearing scheduled for April 17, 
1997, I was reviewing the voluminous material gathered to date 
on the USSS Waves list investigation. During this review I 
realized that a discrepancy had occurred regarding the case 
opening tracking form. I will discuss the discrepancy below:
    The Case Tracking Form (CTF) in the file is the second form 
done on this case. The original CTF (copy attached) was 
completed on October 2, 1997. This form was completed based on 
information supplied by former Assistant Inspector General for 
Investigations James Cottos. Mr. Cottos called me and also sent 
me an E-mail stating that the OIG received an allegation from 
Congresswoman Cardiss Collins. Mr. Cottos states that the 
Congresswoman strongly believes that the Secret Service 
representatives committed perjury and obstruction of justice 
when they testified on July 17, 1996. He further states that 
Independent Counsel (IC) cleared us to proceed with the 
investigation, just clear names of any USSS personnel we want 
to interview through them. He finally states that he will send 
copies of Collins' letter and IC letter to my office later that 
afternoon.

    [Clerk's note.--The copy of the Case Tracking Form was of 
very poor quality and will not appear in the hearing record.]

    Based on Mr. Cottos' telephone call to me and his E-mail, I 
opened a case on this matter on October 2, 1996. I listed the 
complainant as Cardiss Collins and the subjects were the two 
USSS agents (Libonati and Undercoffer) and additional unknown 
USSS employees. This form was mailed to Headquarters for 
processing.
    On October 4, 1996, the assigned agents met with Collins' 
staff and picked up a copy of the testimony. The testimony was 
reviewed and the case agents stated on October 8, 1996, that 
Collins' letter and Mr. Cottos' E-mail were misleading and that 
the agents' testimony were not in question, but the preparation 
of that testimony--the process of producing the lists. Based on 
the agents statement we agreed that the subject line of the CTF 
should be changed to reflect the true nature of the case. On 
October 9, 1996, I met with Lori Vassar to discuss this case. 
We discussed Collins' letter I told her that based on the 
agents review of the testimony that the agents are not the 
subjects of this investigation. Lori was somewhat confused and 
asked me about Stevens' letter. I told her I didn't have 
Stevens' letter. She provided me a copy and agreed that the 
agents were not the subjects. On October 9, 1996, I did an 
updated CTF that reflected the investigation based on Collins 
and Stevens' letters. The allegation was rewritten to reflect 
the process not the testimony of the agents. Lastly the subject 
entry was changed to reflect the Unknown status. This form was 
sent to Headquarters for entry. (I can't explain why the 
Investigative Assistant has it dated 10/2/96 in the right hand 
corner except that she looked at the open date and did not fill 
in the status change date.)
    At the time of the telephone calls (10/18) and meeting (10/
21) with USSS, Agents Libonoti and Undercoffer were not 
considered subjects of the investigation and were not listed as 
such due to the revised CTF.

                       Response to Secret Service

    Senator Shelby. Has your office responded to the Secret 
Service letter notifying you of the concerns with your request 
for unfettered access in pursuing your investigation?
    Mr. Calahan. Senator, what we have done in response to 
Secret Service is, after a period of time of discussions, we 
have written a letter to Under Secretary Kelly to notify him of 
the situation, and I believe we did that on February 28. 
Previous to that we also provided the Under Secretary with our 
initial letter to the Secret Service back in, I think October 
31.
    Now subsequent to that there had been no action taken by 
management. We had been informed that there would not be. So at 
that point, we concluded that it would serve no useful purpose 
to continue an investigation and we closed it because of the 
access issue. Subsequent to this point, we will report it in 
our semiannual report to Congress.
    Senator Shelby. At this time I would ask that copies of 
your office's requests for access of October 31, 1996, and the 
Secret Service's response to your request of November 8 be made 
part of the record. Without objection.
    Ms. Lau. Thank you, sir.
    [The information follows:]
                     Memorandum for Eljay B. Bowron
From: Valerie Lau, Inspector General.
Subject: Congressional Inquiry.

    This memorandum is to request written clarification of the U.S. 
Secret Service (Service) position regarding Office of Inspector General 
(OIG) access to individuals, systems and records necessary to conduct 
our inquiry into matters referred to us by Senator Stevens and 
Congresswoman Collins. The OIG has been scrupulous in our efforts to 
consult with the Office of the Independent Counsel prior to initiating 
any inquiry into these matters. Please be assured we will continue to 
coordinate our activities with that office.
    On October 21, 1996, we met with the Service's Chief Counsel and 
Assistant Director of Inspection to discuss access to individuals, 
systems and records for the conduct of this inquiry. At that time OIG 
Counsel cited the statutory authority which provides the OIG legal 
basis for this access. We informed them of our intention to directly 
contact service employees. The Service's Chief Counsel stated that the 
Service would have to consider this issue as it was Service policy to 
require OIG to go through the office of Inspection (Inspection) for the 
conduct of OIG activity in the Service.
    On October 23, 1996, the Service's Chief Counsel reiterated the 
Service's position to the OIG Counsel. He also stated that the Service 
was not seeking to invoke the exemptions provided under section 8D of 
the Inspector General Act of 1978, as amended (IG Act), yet remained 
concerned about the effect of our inquiry on protective services. He 
further expressed his misgivings that without Inspection as an 
intermediary, the OIG inquiry would be disruptive and could delve into 
areas unwarranted by the scope of our review.
    The Service's position would require a departure from standard OIG 
practices. In investigative matters, we do not currently afford any 
other Treasury bureau with such an accommodation. As we clearly assured 
your Chief Counsel and Assistant Director for Inspection, it is our 
intention to conduct this inquiry in a thorough and professional manner 
looking only at the relevant issues. It is in the best interest of both 
parties to ensure an unimpeachable investigation. A departure from our 
standard practices may provide the appearance of a lack of impartiality 
towards the Service.
    As we stated in an earlier meeting with your staff, the Service's 
policy of using Inspection as a liaison may be a workable accommodation 
where the OIG's purpose is to conduct an audit or other review. 
However, as you know, investigative inquiries present a unique need for 
direct access to the source of evidence, whether they be individuals, 
systems or records. As OIG Counsel stated in that meeting, the OIG has 
a duty to protect the identity of any individuals who provide 
information to the OIG during the course of an investigation unless 
release of identities is unavoidable. Clearly identifying all 
individuals to be interviewed and informing the Service's internal 
affairs office, the Office of Inspection, may potentially have a 
chilling effect on employees' willingness to cooperate.
    The OIG believes the Service's general position regarding OIG 
inquiries into official matters to be contrary to the intent of the law 
as set forth in the IG Act and the corresponding Treasury Directive. 
More specifically, a thorough, credible review of the issues at hand 
cannot be conducted under the circumstances set forth by the Service.
    The legal basis for our position follows.
Statutory Authority
    The Inspector General Act Amendments of 1988 amended the Inspector 
General Act of 1978 (5 U.S.C. App. 3), by inter alia establishing a 
statutory OIG in the Department of the Treasury. Pub.L. No. 100-504. 
The OIG is authorized to conduct, supervise and coordinate timely and 
appropriate internal audits and internal investigations relating to the 
programs and operations of the Department and all of its bureaus and 
offices; and to provide leadership and coordinate and recommend 
policies for activities designed to (A) promote economy, efficiency, 
and effectiveness in the administration of; (B) prevent and detect 
fraud, waste and abuse in; and (C) provide a means for keeping the head 
of the establishment and the Congress fully and currently informed 
about problems and deficiencies relating to the administration of 
Treasury programs and operations. Id. at Sec. 2; see also Treasury 
Directive (TD) 40-01, para. lb.
Notice of Investigations
    In carrying out its investigative authority, the OIG is not 
required to give any notice to the head of the bureau or office 
involved. The IG Act specifically states that if the OIG initiates an 
investigation, the OIG ``may provide the head of the office of such 
bureau or service * * * with written notice that the [OIG] has 
initiated such an * * * investigation.'' IG Act at S8D(d). Further, 
there are no statutory or regulatory requirements that the OIG provide 
oral notification to bureau heads. Thus, while the Service may have 
always viewed notification as a means to insure that investigations run 
smoothly by making sure that all necessary employees are available and 
information provided, such a notification is not mandated by the IG Act 
and is provided by the OIG as a courtesy. In this connection, we note 
that while TD 40-01 states that ``[i]t is the policy of the OIG to 
notify appropriate Treasury and bureau officials of OIG investigations 
that are being conducted within their areas of responsibility[.]'', it 
is clear that this policy is discretionary. Moreover, while we have 
notified you of the existence of the investigation, the Service has 
requested notice on each interview.
    Further, the IG Act provides that,

        neither the head of the establishment nor the officer next in 
        rank below such head shall prevent or prohibit the Inspector 
        General from initiating, carrying out, or completing any audit 
        or investigation * * *.

    IG Act at Sec. 3(a).
    It follows from the above that bureau or agency management or 
employees have no authority to require the OIG to obtain ``permission'' 
to conduct an investigation, to request from the OIG a description of 
the nature of the investigation, or to restrict access to documents or 
employees by requiring that Inspection be an intermediary. The salient 
point is that the OIG has the legal authority to conduct an 
investigation (1) without providing notice of any type to the Service 
management chain; (2) without obtaining any type of ``permission'' to 
conduct such an investigation; and (3) without providing any 
description of the nature of the investigation.
    In this regard, the IG Act establishes the authority of each 
Inspector General:
    (1) to have access to all records, reports, audits, reviews, 
documents, papers, recommendations, or other material available to the 
applicable establishment which relate to programs and operations with 
respect to which that Inspector General has responsibilities under this 
Act; [and]
    (3) to request such information or assistance as may be necessary 
for carrying out the duties and responsibilities provided by this Act 
from any Federal, State, or local governmental agency or unit thereof.
    IG Act at Sec. 6(a).
    The IG Act also specifies that,

        whenever information or assistance under subsection 6(a)(1) or 
        6(a)(3) is, in the judgment of an Inspector General, 
        unreasonably refused or not provided, the Inspector General 
        shall report the circumstances to the head of the establishment 
        involved without delay.

    IG Act at Sec. 6(b)(2). The IG Act further specifies that such 
instances should be included in the Inspector General's semiannual 
report to Congress. IG Act at Sec. 5(a)(5).
Duties of Employees
    If a Service employee is involved in any way with an OIG 
investigation, TD 40-01 is explicit that it is the duty of that 
employee to cooperate. Specifically, the Directive states:

        d. All Treasury employees must provide to the IG and to that 
        officials duly authorized representatives full, free and 
        unrestricted access to Treasury activities, property, data, 
        correspondence, records, ADP systems, and any other information 
        that the IG determines is necessary to an audit, investigation, 
        or other official inquiry.

    TD 40-01, para. 2d.
    Further, in underscoring the mandate to cooperate, the Directive 
continues:

        e. All Treasury employees shall cooperate fully with duly 
        authorized representatives of the OIG by disclosing complete 
        and accurate information pertaining to matters being 
        investigated, audited or reviewed by the OIG. If the employee 
        is the subject of an investigation, the employee will be 
        afforded all rights.

    Id. at para. 2e. Accordingly, once an OIG representative 
appropriately identifies himself or herself, it is incumbent on service 
employees to cooperate fully.
Conclusion
    We have carefully considered the views the Service has expressed 
regarding this issue. However, given the seriousness of this matter and 
potential consequences of any misunderstanding between our two 
organizations, we believe that a special effort is warranted to ensure 
that we understand the Service's final position.
    Therefore, please provide us a written statement explaining your 
view on how the Service's general policy regarding OIG access and the 
Service's position in this particular matter does not constitute an 
unreasonable refusal to provide information or assistance under the 
provisions Sec. 6(b)(2) of the IG Act. Based on a review of the 
Service's written position, should we determine that that position 
constitutes an unreasonable refusal, I am required to notify the 
Secretary and Congress.
    To prevent undue delay in the conduct of our inquiry, please 
provide us your response by close of business November 8, 1996.
                                 ______
                                 
                       Memorandum for Valerie Lau
From: Eljay B. Bowron, Director, U.S. Secret Service.
Subject: Inspector General Investigation--FBI Background Investigation 
    Files.

    This memorandum responds to your October 31, 1996, memorandum (the 
``OIG memorandum'') in which you request a written clarification of the 
U.S. Secret Service's (the ``Secret Service'') position regarding an 
open investigation by the Office of the Inspector General (``OIG'') in 
connection with the FBI Background Investigation Files matter (the 
``FBI Files Case''). Specifically, you request that the Secret Service 
articulate how its ``general policy regarding OIG access and the 
Service's position in this particular matter does not constitute an 
unreasonable refusal to provide information or assistance under the 
provisions Sec. 6(b)(2) of the IG Act.'' You also ask why that position 
should not compel you--to report to the Secretary of the Treasury and 
Congress that the Secret Service has unreasonably refused to permit and 
assist an OIG investigation concerning the FBI Files Case.
    Let me first say that I am disappointed in the way you have chosen 
to approach this matter. Threats and attempts at intimidation are 
generally not productive. The Secret Service has not in any way 
demanded that you get our ``permission'' to conduct an investigation, 
nor has the Secret Service in any way unreasonably refused to provide 
the OIG with information or assistance. What we have attempted to 
discuss with the OIG has been the manner in which the information and 
assistance will be provided so that the OIG and the Secret Service can 
both meet their responsibilities. So that it is clear, let me say again 
that the Secret Service stands ready to cooperate and assist the OIG in 
any valid investigative effort it is authorized to conduct pursuant to 
applicable statutory authority and relevant Treasury Directives.
    But in acknowledging the statutory authority of the OIG and the 
Secret Service's willingness to cooperate in investigations undertaken 
pursuant to that statutory authority, the Service must be cognizant of 
its own responsibilities, the foremost of which is the protection of 
the President and his family and the White House Complex. Congress 
specifically recognized the importance of this protective 
responsibility in the Inspector General Act of 1978, as amended (``IG 
Act''), by providing that the OIG may be prohibited from carrying out 
an investigation which requires access to sensitive information 
concerning ``other matters the disclosure of which would constitute a 
serious threat to national security or to the protection of any person 
or property authorized protection by section 3056 of title 18, United 
States Code, section 202 of title 3, United States Code, or any 
provision of the Presidential Protection Assistance Act of 1976.'' See 
5 U.S.C. App. Sec. 8D(a)(1)(F). As you know, there are also other 
exemptions covering, for example, access to information relating to 
ongoing criminal investigations or proceedings or intelligence or 
counterintelligence matters. See 5 U.S.C. App. Sec. 8D(a)(1)(A) and 
(E).
    As you note in your memorandum, the Secret Service is not at this 
point seeking to invoke any of the above exemptions to the OIG Act. We 
do not at this point have any firm idea-of just exactly what the OIG 
plans to do, or to what information you seek access. You state in your 
memorandum that the OIG can have unrestricted access to any Secret 
Service employees or documents ``without providing notice of any type 
to the Service management chain,'' ``without obtaining any type of 
`permission' to conduct such an investigation,'' and ``without 
providing any description of the nature of the investigation.'' This 
demand for carte blanche OIG access to the White House Complex and 
Secret Service records is precisely the issue about which the Secret 
Service has raised what we believe are legitimate concerns. The key 
point here is a simple one--the Secret Service cannot be in a position 
to carry out its protective responsibilities or to seek the exemptions 
in the OIG Act if the Service has no idea what the OIG is doing or what 
records it is accessing. This is particularly true when many if not 
most of the employees and records to which the OIG may seek access are 
on the White House Complex.
    The Secret Service is not saying that the OIG cannot be trusted or 
that the OIG needs Service ``permission'' to carry out valid 
investigations. We understand the OIG'S responsibilities--we are asking 
that you make an effort to understand ours. We have asked that the OIG 
coordinate with our Office of Inspection because of the above concerns 
and because, given the secure nature of the White House Complex, it is 
the most efficient and practical way of conducting any investigation in 
this matter. (We note that the Office of the Independent Counsel (OIC) 
has coordinated through the Service for its access to Service employees 
and documents in connection with its investigation.) Allowing OIG 
employees carte blanche access to the White House Complex and all the 
records there would be a total abdication of the Secret Service's 
unique statutory obligations and protective mission.
                      i. the investigative mandate
    Turning substantively to the FBI Files Case, the Secret Service 
remains perplexed as to the actual nature and scope of the 
investigation the OIG intends to pursue. For that matter, it is fair to 
observe that this confusion is apparently shared by the Congress, the 
Treasury Department, the news media, and the public. This confusion 
regarding the nature and scope of the OIG investigation makes it even 
more difficult for the Secret Service to ascertain if the protective 
mission of the agency and other legitimate interests will be 
jeopardized by your investigation.
A. A Potentially Criminal Investigation With Specific Targets
    On October 16, 1996, Senator Charles E. Grassley wrote to Treasury 
Secretary Rubin requesting that Secret Service Special Agents John 
Libonati and Jeffrey Undercoffer answer certain questions concerning an 
August 1, 1993 WAVES list relevant to the FBI Files Case. These career 
criminal investigators constitute two of the Secret Service Agents 
serving as agency contacts in connection with the OIC and Congressional 
investigations into the FBI Files Case. Senator Grassley's request 
followed a September 25, 1996 letter to Secretary Rubin from 
Representative Cardiss Collins regarding a June 1993 Secret Service 
WAVES list also relevant to the FBI Files Case. This Secret Service 
list was released by the White House on September 24, 1996. In naming 
Secret Service Special Agents Libonati and Undercoffer specifically, it 
appeared that Representative Collins was requesting that the OIG 
``investigate the preparation of the testimony before this committee by 
Secret Service officials'' on the grounds that that testimony was 
``erroneous.''
    Observing that any future assistance by Special Agents Libonati and 
Undercoffer may be problematical in light of Representative Collins' 
letter, the Secret Service contacted the OIG on Friday, October 18, 
1996. On that date the OIG confirmed that an OIG investigation was 
being pursued regarding these two Special Agents based upon two 
referrals: (1) Representative Collins' September 25 letter; and (2) a 
June 18, 1996 letter from Senator Ted Stevens. This was the first time 
the Secret Service became aware that the OIG had officially opened any 
investigation involving the FBI Files Case, or against its agents, 
based upon Congressman Collins' letter issued three weeks earlier. 
Senator Stevens' letter, issued some four months earlier, had not been 
brought to our attention at all.
    On Monday, October 21, 1996, at your request, you and other OIG 
representatives met with Secret Service representatives to discuss this 
matter. At that meeting, the Secret Service was again advised that 
there was an active investigation of these two Secret Service special 
agents and, further, that this matter was potentially a criminal 
investigation. The OIG would not divulge with any specificity precisely 
what these agents were alleged to have done wrong or what exactly the 
OIG would be investigating.
    In light of the OIG's reluctance to shed any light on the nature 
and scope of the investigation, the Secret Service noted then, as it 
does now, that carte blanche access to the White House Complex (and to, 
for example, the White House access control system and records, FBI 
Background Investigation Summaries, and the computer records and 
personnel of the Secret Service White House Division) without any 
coordination or knowledge of Secret Service management, remains legally 
and operationally problematical. Indeed, this agency has taken similar 
positions in connection with ongoing investigations of the FBI Files 
Case, Travel Office Case, and Whitewater Case conducted by the OIC. 
Acknowledging the important protective mission and security concerns of 
the Secret Service, the OIC has agreed to a reasonable coordination of 
their investigations through appropriate Secret Service officials. 
Similarly, what the Secret Service suggested in lieu of unconditional 
access by the OIG was, in our judgment, a reasonable, coordinating role 
by our Office of Inspection that would accommodate the OIG's 
investigative efforts and yet permit organized access to subject matter 
touching both the White House and the Secret Service protective 
mission. In other words, an accommodation that would allow both the OIG 
and the Service to carry out their responsibilities.
    It appears that the Secret Service's understanding of the OIG 
investigation as ``potentially criminal in nature,'' and based upon 
Representative Collins and Senator Stevens' letters, has been 
separately confirmed by your office, and the Department of Treasury. 
For example, it was reported in an October 25 Washington Post article 
that a Treasury spokesman, Howard M. Schloss, confirmed that the OIG's 
investigation was the result of written requests by Representative 
Collins and Senator Stevens. Similarly, in two letters both dated 
October 22, 1996, addressed to Senator Stevens and Senator Richard C. 
Shelby respectively, Senator Grassley noted that his staff had 
specifically confirmed with the OIG's congressional liaison that 
Special Agents Libonati and Undercoffer were under investigation and 
that the OIG's investigation was ``potentially criminal.'' In an 
October 26 Washington Post article, it was reported that Senator 
Grassley's office was told by your office that ``a potentially criminal 
investigation wouldn't be taken off the table'' by the OIG. 
Consequently, it would appear that Congress understood your 
investigation to be based on Representative Collins' and Senator 
Stevens' letters and to be ``potentially criminal'' as well.
B. A ``Preliminary Inquiry'' With No Targets
    Recent OIG representations have made the matter even more 
confusing. As you know, in a letter to the OIG dated October 24, 1996, 
Senator Stevens disavowed that his June 18 letter requested an OIG 
investigation of career Secret Service Agents testifying before 
Congress. Indeed, Senator Stevens demanded that the OIG ``leave my name 
out of it'' and requested that the OIG state in writing that he had not 
requested such an investigation. In a responding letter dated October 
24, 1996, you wrote to Senator Stevens that the ``OIG has not 
represented to either the [Secret] Service or * * * Senator Grassley 
that any specific agents are the `subjects' of a `potentially criminal' 
investigation.'' Instead, you characterized the matter as an ``inquiry 
* * * in its preliminary stages,'' and wrote that the ``OIG has not 
stated whether any specific [Secret] Service agents are the subjects of 
an investigation.'' Further, in an October 25, 1996 Washington Post 
article, Representative Collins is quoted as saying that she did not 
want a ``criminal investigation,'' and did not request one from the 
OIG. And in an October 26, 1996 Washington Post article, it is reported 
that the OIG disavowed the existence of an investigation ``criminal in 
nature'' and noted that the matter was a ``preliminary'' inquiry.
    This summary of reports and correspondence confirms our initial 
observation that both the nature and scope of the OIG investigation 
involving the FBI Files Case, and more importantly what precisely the 
OIG has been requested to investigate by referral from Congressional 
leaders, is not at all clear. The Secret Service has not been able to 
ascertain what the OIG believes is the appropriate nature and scope of 
such an investigation given the various contradictory communications 
which are reportedly emanating from the OIG. Indeed, it remains unclear 
whether the investigation is criminal, potentially criminal, 
administrative, or a preliminary inquiry. We are unsure if the 
investigation is based upon Senator Stevens' or Representative Collins' 
letter, or both. It is uncertain if the investigation is targeted at 
Secret Service testimony before the House Committee or more broadly 
directed toward the FBI Files Case generally. Finally, the Secret 
Service does not know precisely what a ``preliminary inquiry'' 
constitutes under the IG Act.
                 ii. authority and statutory exemptions
    The answers to our reasonable inquiries are substantively relevant 
to the Secret Service on various legal grounds. These include, among 
others, the impact such an investigation might have on the protective 
mission of the Secret Service and whether the statutory exemptions to 
the IG Act should be invoked. Additional concerns relate to the impact 
of the OIG investigation on the privacy rights of individuals contained 
in numerous Secret Service systems of records relevant to the FBI Files 
Case. A third concern relates to the coordination of the OIG 
investigation in conjunction with the ongoing investigation of the FBI 
Files Case by the OIC. We turn to each issue specifically.
A. Notice And Nature Of The Investigation
    The Secret Service has raised legitimate concerns regarding OIG 
access to the White House Complex, the White House Complex computerized 
access system, and the records and personnel of the Secret Service's 
White House Division to name just a few. All of these areas and systems 
are restricted in access for obvious reasons relevant to the Secret 
Service's protective mission. All these areas, systems and records 
carry some degree of national security implication. The Secret Service 
is entitled to know of, arrange and coordinate OIG access to these 
areas, systems, records and personnel. Similar arrangements have been 
agreed to by the OIC in conjunction with the conduct of their 
investigation into the FBI Files Case and other investigations. Your 
demand to be permitted carte blanche access and entry to any premises, 
systems, records and personnel you choose is operationally 
impracticable and legally questionable.
    The Secret Service also submits that its request to be provided a 
reasonable idea of the OIG's investigation is both consistent with the 
IG statute and the applicable Treasury Directive, and comports with 
equally important statutory obligations of the Secret Service. Your 
memorandum states that the ``Service's position would require a 
departure from standard OIG practices.'' You further state that such a 
``departure * * * may provide the appearance of a lack of impartiality 
towards the Service.'' However, this position does not acknowledge that 
a specific exemption to your statutory authority exists concerning the 
Secret Service's protective responsibilities and that the Secret 
Service remains duty bound in a way other Treasury bureaus are not to 
ascertain the applicability of that exemption. The Secret Service can 
only do so by possessing a reasonable understanding of the nature and 
scope of the OIG investigation, and by coordinating any such 
investigation that seeks access to sensitive protective records.
    Your memorandum additionally states that notification of an OIG 
investigation is not statutorily mandated, and that Treasury policy 
mandates only ``discretionary'' notification by an OIG. We disagree on 
both counts. By virtue of the extant exemption, the IG Act implicitly 
requires that the OIG provide reasonable notice sufficient to determine 
if the exemption shall be exercised. Consistent with this 
interpretation, Treasury Directive 40-01 states:

        It is the policy of the OIG to notify appropriate * * * bureau 
        officials of OIG investigations that are being conducted within 
        their areas of responsibility.
Treasury Directive 40-01. September 21, 1992.
    Your interpretation of the IG statute and notification requirements 
would effectively nullify the protective mission exemption expressly 
provided by the statute and flies in the face of a straightforward 
reading of the Directive.
B. Privacy Act Concerns
    The FBI Files Case involves records of extraordinary sensitivity. 
For example, the FBI Background Investigation Summaries maintained by 
the Secret Service's White House Division contain derogatory 
information concerning former and present passholders to the White 
House Complex. The computerized data maintained by the Secret Service 
Access Control Branch on passholders is similarly sensitive and 
private. We remain committed to maintaining the confidentiality of such 
records and releasing such materials to investigators only consistent 
with law.
    Cognizant of the dictates of the Privacy Act of 1974, the Secret 
Service releases no record contained in the agency's system of records 
except consistent with law. See 5 U.S.C. Sec. 552a. As you know, the 
Privacy Act imposes both civil and criminal liability upon an agency's 
custodian of records for failing to adhere to the privacy protections 
of the statute. Accordingly, the custodian of records must be able to 
determine if the release of protected privacy materials to another 
individual or entity is legally permissible. To do so, the custodian of 
records must be provided sufficient information to ascertain if the 
office requesting the information has a need for the information in 
order to perform its official duties. The Secret Service has discussed 
the question of section 552a(b)(1) access with Privacy Act experts at 
the Department of Justice and Office of Personnel Management, who agree 
with us that a mere demand for access to Privacy Act materials by an 
OIG employee does not appear sufficient to permit the custodian of 
records to release any record without first ascertaining if the record 
is needed for the performance of the OIG employee's official duties.
    We again believe that the Secret Service's simple and reasonable 
request to coordinate and know what records the OIG is accessing is 
consistent with these Privacy Act concerns. For this reason alone, the 
Secret Service submits that unconditional OIG access is not reasonable 
and is legally problematical.
C. Office Of The Independent Counsel
    Finally, the Secret Service submits that an overarching 
justification for a reasonable understanding of the nature and scope of 
the OIG investigation, and the coordination of this investigation, lies 
in the reality that a parallel OIC investigation is being conducted in 
connection with the FBI Files case. The OIC has expressed its concern 
to the Service that no activities within the Secret Service should be 
undertaken which might lead to the loss or tainting of data, evidence 
or testimony relevant to that investigation. Accordingly, the Secret 
Service has coordinated OIC Grand Jury subpoenas and investigative 
demands so as to reasonably ensure compliance with OIC's concerns. 
Conversely, the OIC has agreed to similar, reasonable coordination 
efforts requested by the Secret Service to ensure the integrity of our 
protective mission.
    It is both prudent and reasonable to suggest that the Secret 
Service should not permit access to Secret Service premises, systems, 
records or witnesses relevant to the OIC's FBI Files Case prior to it 
being crystal clear that the OIC understands the nature and scope of 
such access and will permit such access. Any miscommunication in this 
arena could prove highly problematical.
                            iii. conclusion
    In summary, the Secret Service remains unsure exactly what it is 
that the OIG is investigating and at whose behest. The Service is 
certainly not aware of any wrongdoing by its employees. Nevertheless, 
the Secret Service stands ready to cooperate and assist the OIG in any 
valid investigative effort it is authorized to conduct pursuant to 
applicable statutory authority and relevant Treasury Directives. In 
doing so, however, we cannot accede to your demand for carte blanche 
OIG access to the White House Complex and sensitive Secret Service 
records. As noted earlier, the Service cannot be in a position to carry 
out its protective responsibilities or to seek the exemptions in the 
OIG Act if the Service has no idea what the OIG is doing or what 
records it is accessing.
    We again ask that you try to understand our responsibilities and 
coordinate any investigation because of the concerns expressed above 
and because, given the secure nature of the White House Complex, it is 
the most efficient and practical way of conducting an investigation in 
this area.

            Concerns About Potential Criminal Investigation

    Senator Shelby. Ms. Lau, the next thing--what was your 
understanding, Ms. Lau, of the concerns being raised by myself 
as chairman of the committee at that time and other Members of 
Congress about your investigation into the testimony of the 
Secret Service? In other words, did you understand that we were 
concerned that the investigation was potentially criminal in 
nature? You remember the hearing?
    Ms. Lau. I remember the hearing, sir.
    Mr. Calahan. I think our whole reaction to that--yes, we 
did understand your concerns, and I think that the situation 
that our investigators went through the first week of 
retrospect of looking at this case was to determine on their 
own that--information that I was not aware of until last 
Friday--but to determine on their own that it was inappropriate 
to investigate these two people for perjury.
    Senator Shelby. Was it an attempt by your office to shut 
these people up because they were telling the truth or 
testifying?
    Ms. Lau. I am sorry, I do not understand your question.
    Senator Shelby. I am asking you, you initiated this 
investigation on behalf of Congresswoman Cardiss Collins; is 
that right?
    Ms. Lau. The case document indicates that. I believe the 
regional inspector general for investigations was not aware 
also of a separate request that we had received from Senator 
Stevens----
    Senator Shelby. I want to get into that right now. Did you 
understand that there was concern on behalf of Senator Stevens 
that his name was being associated with this investigation and 
he never intended for that to be at all?
    Ms. Lau. Yes; that was unfortunate. As I provided to you 
last December, we did clarify that record with a memo to him 
stating that was not the case. We have tried very diligently to 
ensure that any misunderstanding about that has been corrected. 
In regards to whether or not this was ever a criminal 
investigation, we have testified previously and provided 
documents that we coordinated with the office of independent 
counsel who is conducting a criminal investigation and that 
they had asked us not to conduct any work that would impede 
their ongoing criminal investigation.
    Senator Shelby. Did it ever cross either one of your minds 
that perhaps you were being used politically in this 
investigation, or could have been used politically?
    Mr. Calahan. I assured your staff last week when I met with 
them that we were never aware of any plan to retaliate against 
these people and that we were not part of any such plan to 
retaliate against these people. That was true then and it is 
true now.
    Senator Shelby. Was it not a criminal investigation when 
you opened the case on October 2 I believe it was?
    Mr. Calahan. I think we would say that it was too early in 
investigation----
    Senator Shelby. To determine that?
    Mr. Calahan. To characterize the case. In fact, we have a 
letter from our office to Secret Service counsel on October 23 
stating just that.
    Ms. Lau. That it was too premature to characterize the 
investigation in any manner.
    Senator Shelby. I want to bring your attention to a couple 
of questions and responses and ask you to explain them to me. 
These are some of the responses you gave to questions that were 
asked for the record in December. Question No. 10----
    Ms. Lau. Just a moment, sir.
    Senator Shelby. Sure, take your time. Are you ready now?
    Ms. Lau. Yes.

                           Case Tracking Form

    Senator Shelby. Question No. 10: Was a case tracking form 
created for Senator Stevens' request of June 18? If so, please 
provide a copy of that form or outline the information 
contained in that form.
    The answer was this.

    No case opening documents were created for either request 
until after the office of the independent counsel notified the 
Office of Inspector General on September 27, 1996, that it 
could proceed on both matters. The matter was forwarded to the 
appropriate regional office. Because the two requests were 
related, they were opened on October 2, 1996, as one 
investigation.

    Now I believe you also stated in your testimony before the 
committee on December 2 the following, page 48 of the 
transcript. I asked the question as follows, now I would ask 
you to clarify--do you want to find that?
    Ms. Lau. Yes, thank you.
    Senator Shelby. You take your time. That would be page 48.
    Ms. Lau. Top, bottom, or----
    Senator Shelby. On the other--are you ready now?
    Ms. Lau. I am----
    Senator Shelby. On page 48 of the transcript.
    Ms. Lau. Yes.
    Senator Shelby. Can I proceed?
    Ms. Lau. Yes.
    Senator Shelby. I ask now--and this is quoting from the 
record--I would ask you to clarify again for the record, what 
was the exact date that you decided to have one investigation? 
In other words, you folded them into one.
    And you answered, the actual date would be October 2. Is 
this true?
    Ms. Lau. That was my understanding at the time.
    Senator Shelby. Based on what?
    Ms. Lau. Based on what my staff informed me. And I had no 
reason to think otherwise until last Friday.
    Senator Shelby. But in fact it was not true, was it?
    Ms. Lau. The case----
    Mr. Calahan. It was true within the best of our knowledge I 
think. We had meetings----
    Senator Shelby. Would you let her answer her own questions? 
Was that true?
    Ms. Lau. It was true to the best of my knowledge at that 
time.
    Senator Shelby. But factually it was not true, was it?
    Ms. Lau. As far as I knew at the time that I testified, it 
was true.
    Senator Shelby. Go ahead, Mr. Calahan.
    Mr. Calahan. We had meetings with our counsel and we looked 
at the two requests, and I think within the knowledge that the 
inspector general had of those meetings she fully believed that 
the two requests had been related and that one investigation 
had been established. She did not know about the intervening 
week, October 2 through 9. As soon as the investigators had a 
discussion with counsel and learned of the Stevens' request and 
they in turn informed her of what they had determined from 
reading the testimony, that on October 9, in effect, this 
statement became true in terms of the record.
    Ms. Lau. Senator Shelby, you referred to the letter that I 
provided you yesterday that describes this in great detail. In 
that letter I indicate that these are administrative documents 
that are used by the investigators for case management 
purposes. I as the inspector general would not normally be 
aware of or review these documents at all.
    Senator Shelby. Who did you talk with in preparing for your 
testimony on December 2 I believe it was?
    Ms. Lau. In preparing for the testimony?
    Senator Shelby. Yes; your staff?
    Ms. Lau. Yes; I talked with my staff including my deputy 
inspector general, my counsel, my assistant inspector general 
for investigations, the case agent, and the supervisor, as well 
as the regional inspector general for investigations.
    Senator Shelby. Going back just to the facts. Was one 
investigation basically opened on October 2, 1996?
    Ms. Lau. One investigation was opened, yes.

                     Congresswoman Collins' Request

    Senator Shelby. Question 31--going back and you might want 
to refer to your transcript. How much time did your office 
spend considering whether or not to proceed with investigating 
Congresswoman Collins' request?
    You answered, consideration of the initiation of an 
investigation was carefully deliberated and was done in 
conjunction with consideration of the Senate committee's 
request. No consideration was made to proceed solely with 
Congresswoman Collins' request.
    But that is not true, is it?
    Ms. Lau. It was true based on the information that I had 
available to me at the time.
    Senator Shelby. You thought it was true.
    Ms. Lau. Yes, sir.
    Senator Shelby. But in fact it was not true. You thought it 
was true based on the information.
    Ms. Lau. I believed it was true based on what I was 
informed of by my staff.
    Mr. Calahan. Again, in terms of context, if I might just 
make a point?
    Senator Shelby. Sure, go ahead.
    Mr. Calahan. On October 9, this was true at all levels of 
the Inspector General's Office. On October 2, what you were 
saying is that it was not true in terms of the case tracking 
document. But again I would like to say that those were 
preliminary. That was a preliminary document. Those records are 
intended to be amended. In fact, when the case is closed, a 
case tracking document is prepared. Since we decided to close 
the case yesterday, one of these case tracking documents will 
be prepared showing that the case is closed on April 16. As you 
can see, these records change throughout the investigation.
    So at the period of time that she said this, in terms of 
the decision to have one case, she was speaking accurately 
within the scope of her knowledge of the meetings she had had 
and the discussions she had had with staff.
    Senator Shelby. But assuming you are adding to records, 
which people are, why do you not show the chronology of things 
where people would not question whether or not you were trying 
to change documents to reflect so and on? Whereas if you had 
something that was dated October 2 and you came back on October 
9 and you put an explanation of why you were doing it, you are 
not trying to change the document to reflect your testimony. 
But that could be read that way.

                      Administrative Recordkeeping

    Ms. Lau. Your point on recordkeeping is very appropriate. 
In fact this has pointed out to us that we need to take a very 
serious look at our administrative recordkeeping, and we will 
be doing so immediately.
    Senator Shelby. So your testimony, in a sense, was only 
operable after a certain date. In other words, your testimony 
that you gave before you said was based on the information that 
you had at the time; is that correct?
    Ms. Lau. I believed it to be correct, and it was based on 
the information available to me at the time that I testified.
    Senator Shelby. But in fact though, it was not true, was 
it?
    Ms. Lau. It was true to the best of my knowledge.
    Senator Shelby. To yours, from what you knew.
    Ms. Lau. And when I found out otherwise, I immediately took 
steps to inform you through your staff.

                       Letter to Senator Stevens

    Senator Shelby. I would like to also draw your attention to 
the letter you sent to Senator Stevens that you are familiar 
with.
    Ms. Lau. Yes, sir.
    Senator Shelby. In response to his request that you clarify 
that he had nothing to do with asking you to investigate the 
testimony of Secret Service agents. In your response dated 
October 24, 1996, referring to your own letter, you state, and 
I will quote--this is the letter to Senator Stevens.

    In addition, the letter of Congresswoman Collins requesting 
an investigation of the testimony before the Committee on 
Government Reform and Oversight by Service officials to 
determine how the Service concluded that it was impossible for 
the Service to provide list with outdated names, she did not 
request that the office of inspector general investigate 
specific Service agents.

    Do you believe that statement in your letter to still be 
true?
    Ms. Lau. Yes, sir, I do.
    Senator Shelby. You do? Your office has provided an e-mail 
that reflects that the Congresswoman in fact did desire--did 
desire--that two specific agents be investigated; is that not 
true?
    Ms. Lau. I was not engaged in any discussion with the 
Congresswoman or her staff, so I cannot----

                             E-Mail Message

    Senator Shelby. I want to ask the question again. Your 
office has provided an e-mail that reflects that the 
Congresswoman in fact did desire that two specific Secret 
Service agents be investigated. Are you aware of that?
    Mr. Calahan. You are talking about the e-mail dated October 
2?
    Senator Shelby. That is right.
    Ms. Lau. Senator Shelby----
    Senator Shelby. He is in the dialog now. Excuse me just a 
minute. Yes; I am talking about October--I have a copy of it 
here. So again----
    Mr. Calahan. I think you could make that interpretation 
possibly.
    Ms. Lau. However, that conversation was made between my 
counsel, Mrs. Vassar, and staffers from Congresswoman Collins' 
office. My counsel is here today if you would like to hear from 
her regarding what she actually heard.
    Senator Shelby. I might want to in a few minutes, but I 
want to proceed here first, if I could.
    Ms. Lau. All right.
    Senator Shelby. You are familiar with, Mr. Calahan, the e-
mail that I just referred to. You have got a copy of that?
    Mr. Calahan. Yes.
    Senator Shelby. So I am going to ask you this question 
again.
    Ms. Lau. Yes, sir.
    Senator Shelby. Your office has provided the e-mail that 
reflects that the Congresswoman in fact did desire, from what I 
read of the e-mail and you have a copy of it, that two specific 
agents be investigated. Is that correct?
    Ms. Lau. The e-mail states that. However, I would refer you 
to the Congresswoman's letter to Secretary Rubin dated 
September 25 in which in regards to the investigation she 
specifically asks, that:

    You direct the inspector general of the department to 
investigate the preparation of the testimony before this 
committee by Secret Service officials to determine how and why 
the testimony was developed that led to the conclusion that it 
was impossible for the Secret Service to provide lists with 
outdated names.

    So relative to the specifics in her request letter, it was 
regarding the preparation of testimony, not any particular 
individuals.
    Senator Shelby. Did you not open the investigation doing 
just that? In other words, what Congresswoman Collins 
suggested, perjury investigation?
    Mr. Calahan. This e-mail resulted----
    Senator Shelby. Let her answer the question first and then 
you can--did you not----
    Ms. Lau. I was not party to the discussions that are 
described in the e-mail. I only am knowledgeable of the letter 
itself, and the letter itself indicates that the request was 
for the substance of the testimony and not either of the two 
agents.
    Senator Shelby. But basically, did you not open the 
investigation or it was done doing just that, doing the perjury 
investigation as Congresswoman Collins suggested? Do you want 
to comment on that? Go ahead.
    Mr. Calahan. I would be happy to. As a result of this e-
mail, there is no question that the form, the case tracking 
form was prepared that has the phrase on it, subjects may have 
perjured themselves.
    Senator Shelby. Absolutely.
    Mr. Calahan. And that the result of that was that for a 
period of time, days, these people were in our records as being 
investigated----
    Senator Shelby. Excuse me just a minute. Are you referring 
to this document, Treasury OIG document here?
    Mr. Calahan. Yes; the first case tracking form.
    Senator Shelby. Thank you. Go ahead.
    Mr. Calahan. The point I would like to make is while 
technically maybe these two people were subjects of an 
investigation for a week. In fact, the two people were never 
investigated. We never interviewed them. We took no steps to 
investigate these people in any way, and that the result of 
this, if you want to call it an error in judgment, is that 
there was no impact against those two people.
    Senator Shelby. Well, there is always an impact. But 
basically, this was sort of a sham in a sense, was it not? To 
bring these two veteran Secret Service agents names into 
something like this after they testified to Congress about 
something----
    Mr. Calahan. No; these are documents that normally never 
see the light of day. These are documents that do not 
constitute evidentiary information for our investigative files. 
These are administrative documents in the office that are used 
for technical management of the caseload because at any one 
time, I think right now we have 120 open investigations. So 
there has to be some method of summarizing information for use 
by the regional inspector general for investigations to keep 
track of the cases and so forth, and this is the form that is 
used.

                  Investigation Initiated on October 2

    Senator Shelby. I have some more questions. Were you aware 
at the time of the December 2, 1996, hearing that your office 
had initiated an investigation on October 2, 1996?
    Ms. Lau. I was aware that an investigation had been 
initiated on October 2; yes.
    Senator Shelby. Were you aware at the time of the December 
2, 1996, hearing before this committee that your office had 
initiated an investigation on October 2, 1996, based solely on 
the request of Congresswoman Cardiss Collins?
    Ms. Lau. No; I was not.
    Senator Shelby. Were you aware at the time of the December 
2, 1996, hearing that your office's investigation of October 2 
was opened as a perjury investigation?
    Ms. Lau. No; I was not.
    Senator Shelby. Were you aware at the time of the December 
2, 1996, hearing that your office's investigation of October 2 
identified two Secret Service agents as subjects?
    Ms. Lau. No; I had no idea.
    Senator Shelby. When did you first learn that your office 
had opened an investigation at Congresswoman Collins' request 
naming two Secret Service agents as subjects of a perjury 
investigation?
    Ms. Lau. April 11, 1997. As I mentioned, I immediately 
directed my deputy inspector general to notify you via your 
staff, and he did so that day.
    Mr. Calahan. Senator, she is being kind. She was greatly 
annoyed, as was I.
    Senator Shelby. Annoyed at what?
    Mr. Calahan. Annoyed that this had not come to our 
attention----
    Senator Shelby. Annoyed that you did not know about it?
    Mr. Calahan. Yes; much earlier.
    Senator Shelby. Were you ever informed by your staff that 
statement that ``one investigation was initiated on October 2, 
1996, based on the request of both Senator Stevens and 
Congresswoman Collins,'' in other words, was not true?
    Ms. Lau. No; I was not informed that my statement was not 
true. I believed it to be true----
    Senator Shelby. At the time.
    Ms. Lau. Based on the information I had available to me.
    Senator Shelby. According to documents you have provided, 
Ms. Coleman the regional inspector general for investigations 
for the eastern region who also testified before this committee 
on December 2, 1996, was aware of the criminal investigation 
initiated by your office on October 2, 1996. Did you as the 
inspector general consult with her before you testified on 
December 2, 1996?
    Ms. Lau. I believe we did have discussions as we were 
preparing for the hearing, sir.
    Senator Shelby. Did you consult with her after you 
testified on December 2, 1996?
    Ms. Lau. We, in responding to the questions for the record 
did, perhaps not face to face but were working----
    Senator Shelby. You did review the transcript, did you not?
    Ms. Lau. Yes; reviewing the transcript and preparing 
answers for the record.
    Senator Shelby. Who basically assisted you in preparing you 
for testimony before this committee on December 2? In other 
words, did you talk to Mrs. Vassar, Ms. Coleman, Ms. Otero?
    Ms. Lau. Cesario.
    Senator Shelby. Otero.
    Ms. Lau. She has a hyphenated last name, Otero-Cesario. Mr. 
Calahan.
    Senator Shelby. Who is seated with you.
    Ms. Lau. Who is seated with me. The case agent for the 
investigation as well as the supervisor for the investigation.
    Mr. Calahan. If I might just clarify the record.
    Senator Shelby. You go ahead; yes, sir.
    Mr. Calahan. I was just handed a piece of paper that 
indicates that the regional inspector general for 
investigations was actually out of town just before the 
December 3 hearing. So she was not----
    Senator Shelby. December 2 hearing.
    Mr. Calahan. I am sorry. So she was not part of a 
discussion that we had had to prepare.
    Senator Shelby. Who prepared the chronology provided to 
this committee on December 2 that you gave?
    Ms. Lau. I did, sir, based on the information available to 
me at the time.
    Senator Shelby. You did. Who assisted you in preparing the 
responses to the committee's additional questions for the 
record that were submitted after the December 2 hearing?
    Ms. Lau. A number of my staff. I do not know precisely who 
because it was during the holiday season. But I would be happy 
to----
    Senator Shelby. Would you do that for the record?
    Ms. Lau. Provide that for the record; yes.
    [The information follows:]

    There are inconsistent recollections regarding which 
individuals assisted in the preparation of the responses and 
the extent of their participation. As we informed you at the 
time of the hearing, I referred this matter to the President's 
Council on Integrity and Efficiency's Integrity Committee for 
its review. Subsequently, we have been informed that the matter 
has been referred to the Office of the Independent Counsel for 
appropriate action. Given that this question focuses on 
critical issues pertaining to the referred matter, we believe 
it may be inappropriate to pursue the answer to this question 
further at this time.

             Failure to Provide Original Case Tracking Form

    Senator Shelby. Can you please tell the committee today why 
your office failed to provide a copy of the original case 
tracking form of October 2, 1996, when the committee requested 
it in December of last year. Was it an oversight?
    Ms. Lau. I do not know why.
    Senator Shelby. Do you, Mr. Calahan?
    Mr. Calahan. No; except that I think that the intention on 
the part of staff was to give you the current document. That 
this was the accurate document that correctly portrayed the 
status of the case, and that is the reason they gave that to 
you, I think. Within my knowledge, that is the reason.
    Senator Shelby. The tracking form, at the bottom it has 
initials. I think it says RSL or something like that. Whose 
initials are those? There is a date below them. It reads 10/4/
96. What does that mean? Why are those initials and that date 
there? Do you know, Mr. Calahan?
    Mr. Calahan. I have been informed those initials and that 
date indicate the time that the form was sent to headquarters, 
and that those initials are in fact the initials of a clerical 
employee, so we would rather not state her name.

                       Amended Case Tracking Form

    Senator Shelby. OK. Now if you could look at the amended 
case tracking form you provided, you have it there, to this 
committee. It still represents that the investigation was 
opened on October 2, 1996, does it not?
    Mr. Calahan. You are referring again to the initials at the 
bottom right-hand corner of the page?
    Senator Shelby. Yes.
    Mr. Calahan. I cannot explain that. I have asked that 
question myself----
    Senator Shelby. In block two it does not show that the 
status was changed, does it?
    Ms. Lau. That would normally appear in block three, the 
status change day. I have been informed by the regional 
inspector general that normally that is where such a date would 
appear.
    Senator Shelby. Why is that now?
    Ms. Lau. Typically, the case tracking document is prepared 
by the case agent. The form can also be prepared either by the 
regional inspector general for investigations or her assistant 
regional inspector general for investigations. This form was 
prepared by the RIGI. Her initials are under block five. She 
informed me that generally any new documents that are added to 
the file will have that status change date entered as the date 
the new document was prepared.
    Senator Shelby. Now if you would just take a minute and 
look at the initials and date at the bottom of the form, the 
same initials as on the first document and yet the date is 10/
2/96. Do you see that?
    Mr. Calahan. I absolutely do.
    Senator Shelby. How is that possible?
    Mr. Calahan. I do not know. I have asked that same question 
myself. I would just like----
    Senator Shelby. Do you know?
    Ms. Lau. I do not know either.
    Senator Shelby. Go ahead. I did not mean to interrupt you.

                    Referral to Integrity Committee

    Mr. Calahan. We see the discrepancy there, Senator, and in 
all honesty, we are going to have this situation reviewed. In 
fact, we made a referral yesterday to the integrity committee 
of the PCIE regarding this matter.
    Senator Shelby. The person, if you would look at that 
again, somehow signed off on the second case form created 7 
days later before they ever signed on the first. How is that 
possible? Is that what you are talking about?
    Ms. Lau. We do not know.
    Senator Shelby. That is troubling, is it not?
    Mr. Calahan. It is troubling.
    Ms. Lau. It is very troubling. Senator Shelby, Mr. Calahan 
made reference to the integrity committee of the PCIE. As you 
may know, the PCIE is the President's Council on Integrity and 
Efficiency that is chaired by the Director of Management at 
OMB. This integrity committee is chaired by a senior official 
of the FBI and I have referred this matter to them for 
appropriate action.

                      Standard Operating Procedure

    Senator Shelby. Let me, if I can proceed. At this point, I 
would like to draw your attention again to several statements 
that you made before this committee on December 2. First, 
Senator Kerry asked you about how you go about making tough 
calls, what process you followed, what your standard operating 
procedure was. I believe that is on page 44 of the transcript, 
if you will refer to it. Have you found that?
    Ms. Lau. Not the precise location, but----
    Senator Shelby. Take your time and find it. I will go back 
again. Senator Kerry asked you at the committee about how you 
go about making tough calls, what process you followed, what 
your standard operating procedure was. That is on page 44 of 
the transcript. You answered, ``I am afraid the buck stops 
here. I am the one who makes the decision.''
    Ms. Lau. That is true.
    Senator Shelby. Is that true?
    Ms. Lau. Yes; I am responsible for the Office of Inspector 
General.
    Senator Shelby. So if that is true, did you make the 
decision to open the investigation on October 2, 1996, of the 
two Secret Service agents?
    Ms. Lau. No; I did not.
    Senator Shelby. Who did?
    Ms. Lau. The assistant inspector general for investigations 
directed the initiation of this particular investigation. It 
was my decision, however, that----
    Senator Shelby. You concur in the decision?
    Ms. Lau. Let me clarify the issue. It was my decision that 
we would do a review to respond to the 10 questions by Senator 
Stevens and the question posed by the Congresswoman. Two 
separate requests relating to the substance of the process of 
maintaining the White House access list and the data base. I 
did not direct Mr. Cottos, the assistant inspector general for 
investigations, to initiate this investigation in this manner.
    Senator Shelby. But you are responsible for it as the 
inspector general?
    Ms. Lau. Yes, I am.
    Senator Shelby. Is that what you meant?
    Ms. Lau. I am responsible for the office; yes.

                     Intimidating Future Witnesses

    Senator Shelby. Finally, I asked if you ever considered the 
fact such an investigation could intimidate future witnesses 
from testifying before Congress as to the truth of what they 
know; page 48 of the transcript. You responded, I can say from 
experience that being asked to testify before Congress has a 
sobering effect on anyone and it reinforces each individual's 
duty to tell the truth.
    Do you believe you have met this duty in testifying before 
this committee about your office's investigation of these 
matters?
    Ms. Lau. I have made every attempt to be forthcoming. I 
have been truthful based on the knowledge that I had at the 
time I testified. When I learned of new information that needed 
to come to light, I brought it forward immediately. Yes; I 
believe that I have been very forthright.
    Senator Shelby. Did not the regional inspector general open 
this investigation?
    Ms. Lau. The regional inspector general for investigations 
opened the investigation at the direction of the assistant 
inspector general for investigations.
    Mr. Calahan. Senator----
    Senator Shelby. And she testified to this, did she not, on 
December 2?
    Ms. Lau. I would have to check the transcript.
    Senator Shelby. As far as you know.
    Go ahead, Mr. Calahan.
    Mr. Calahan. I was just going to say that that is the norm 
in the office is that regional inspectors general open cases 
and manage cases.
    Senator Shelby. I know we are in an open hearing here. I 
have also been made aware of another document that I would like 
to talk with you about later. I would meet with you and ask you 
to confirm it for its accuracy. But I will not do it in the 
open hearing.
    Ms. Lau. Thank you. We would be happy to meet with you in a 
closed session.
    Senator Shelby. But since day one, this subcommittee's 
concern and the concern of many of my colleagues has been that 
your office improperly opened a potentially criminal 
investigation targeting two veteran Secret Service agents 
because of their testimony before Congress.
    Your office's recent revelations on this matter confirm 
what we suspected all along. Yet 7 months later, two public 
congressional hearings, a series of correspondence with Members 
of Congress and the Secret Service, and numerous questions for 
the record and only now today you come forward with information 
and documents that confirm that your office did in fact open a 
criminal perjury investigation based solely on the request of 
Congresswoman Collins naming two specific Secret Service----
    Ms. Lau. No, sir; I cannot agree with your statement of the 
facts.
    Senator Shelby. How do you disagree?
    Ms. Lau. It was not just today. Immediately upon learning 
of this new information I made sure that you, through your 
staff, were notified. It is not correct----
    Senator Shelby. Was this in the last several weeks?
    Ms. Lau. This was last Friday. As soon as we learned of it, 
we reported it. I could do no better than that.
    Senator Shelby. But is not this what we are talking about 
here when things like this happen? It is more than a formality 
or an administrative management thing. We are talking about 
more than that here today. The lives and the professional 
reputations of two career law enforcement officers I believe 
were wrongly impugned when you opened that investigation on 
October 2. For that, I believe you have done some explaining. 
But I think you have got some other explaining to do.
    You also, I think, have some explaining to do about how 
your testimony could be allowed to be so ill-informed, and how 
you could testify so assertedly to what your senior staff 
certainly knew to be untrue.
    Ms. Lau. Senator Shelby, I am not happy about that myself.
    Senator Shelby. What are you going to do about it? Are you 
going to investigate your staff as to their preparation----
    Ms. Lau. As we have mentioned, I yesterday referred this to 
the integrity committee of the PCIE that is chaired by a senior 
official of the FBI. I believe an independent review of this 
matter would be very helpful.
    Mr. Calahan. There was a Presidential----

                            Executive Order

    Ms. Lau. Senator, if you would like, there is an Executive 
order that talks about the process of situations regarding 
incidents involving inspectors general and their senior staff. 
This is the process to which I am referring that we have 
referred this matter for appropriate action.
    Senator Shelby. But would it basically be your policy that 
people when they come before Congress, whether they work for 
Treasury, they work for the FBI, they work for the State 
Department, or wherever, that they come up here and they tell 
the truth; they are under oath and so forth. And they should 
not, if they are telling the truth, although it may be not 
politically good for either party or some people, that they 
always tell the truth and they not be intimidated by your 
office or any other inspector general or someone else for 
telling the truth.
    Do you agree with that?
    Ms. Lau. I believe no one should be intimidated by anyone 
when they are asked to tell the truth and do so based on the 
knowledge that is available to them at the time they are 
testifying; yes.
    Senator Shelby. Mr. Calahan, do you have anything else?
    Mr. Calahan. No.

                          Submitted Questions

    Senator Shelby. We have additional questions for the 
Department and we would ask that you respond as quickly as 
possible.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Campbell
                  Financial Crimes Enforcement Network
                    fiscal year 1998 budget request
    Question. In FinCEN's fiscal year 1998 budget request, there is a 
new initiative for $2 million in support of Presidential Decision 
Directive 42, and includes 4 FTE. Given that these funds are requested 
from Crime Bill funds, which are to run out in fiscal year 1999, why 
were these continuing personnel funds being requested out of the Crime 
Bill?
    Answer. The objective of Presidential Decision Directive 42 is to 
combat international organized crime. In support of this objective, 
FinCEN requested $2 million and 4 FTE to: (1) support law enforcement 
agencies in their actions against money launderers and their illicit 
funds and assets; (2) increase FinCEN's assistance to cooperative 
governments; and (3) achieve greater cooperation and coordination with 
other countries. FinCEN is frequently called upon to provide guidance 
and assistance in bilateral and multilateral initiatives, as evidenced 
in its work with the Financial Action Task Force, the Egmont Group, and 
the Summit of the Americas. (See descriptions of this initiative in 
later questions.)
    These resources were requested as part of FinCEN's direct 
appropriation for fiscal year 1998 and approved by the Department, as 
requested. As part of the review process, a decision was made to 
support the PDD-42 initiative for FinCEN but to fund it out of the 
Crime Bill. If FinCEN must support this very important initiative 
through Crime Bill funds, it would recruit using temporary 
appointments.
    Question. Will FinCEN absorb the costs associated with these 4 FTE 
into the Salaries and Expenses account once the Crime Bill funds are no 
longer available?
    Answer. If Congress approved the use of Crime Bill ``No Year'' 
funding for FinCEN's Presidential Decision Directive 42 initiative, 
these resources would remain available until expended but would not 
become part of FinCEN's base operational funding level.
    FinCEN operates on a fairly small budget compared to other federal 
agencies. I'd like to focus on the initiatives you proposed as part of 
your budget request for fiscal year 1998 and how that will help to 
combat money laundering.
    Question. Can you briefly explain FinCEN's new initiatives for 
fiscal year 1998?
    Answer. The two initiatives requested from Crime Bill funds 
continue and improve current operations of FinCEN.
Background on First Initiative
    As stated above, in order to achieve the President's objective, as 
defined in Presidential Decision Directive 42, to devote greater effort 
in combating international organized crime, FinCEN seeks $2.0 million 
to (1) support law enforcement agencies in their actions against money 
launderers and their illicit funds and assets; (2) increase its 
assistance to cooperative governments; and (3) achieve greater 
cooperation and coordination with other countries.
    The Annunzio-Wylie Anti-Money Laundering Act, Public Law 102-550, 
provided that: ``The Secretary of the Treasury and the Attorney General 
shall jointly establish a team of experts to assist and provide 
technical assistance to foreign governments and agencies thereof in 
developing and expanding their capabilities for investigating and 
prosecuting violations of money laundering and related laws.'' This 
mandate is supplemented by Presidential Decision Directive (PDD)-42 
which was issued by President Clinton in October 1995 in recognition of 
the growing dimensions and dangers of global money laundering. The 
Directive provides the policy framework to focus U.S. efforts at the 
international level and through cooperation, specifically technical 
assistance and training.
    At the direction of the Secretary of the Treasury, FinCEN headed an 
interagency group in 1996, as part of the PDD-42 process. Based on that 
process, FinCEN initiated an in-house prioritization plan whereby 
regions and specific nations were assessed in order to determine the 
most efficient allocation of resources. The agencies involved in this 
process assessed the financial infrastructure and money laundering 
environment, attempted to calculate the political and legal environment 
for change, and conducted a technical assistance needs analysis 
necessary to bring that country(s) into compliance with international 
anti-money laundering standards.
    This assessment included: identifying countries that have or should 
have a counter-money laundering role; evaluating the ability of that 
country(s) to create an effective interagency information sharing 
mechanism; promoting partnerships between the government and domestic 
and international financial services industry, and recommending 
regulations to fully implement anti-money laundering laws.
    In addition, FinCEN sent its specialists to other countries to 
assess the technological needs and capabilities of those sectors 
responsible for overseeing anti-money laundering efforts. FinCEN relied 
upon and used the expansive expertise of other Treasury bureaus and 
other agencies including State and Justice, thereby reducing 
duplication of effort in geographic areas. Importantly, FinCEN 
developed each of its plans based on the needs of the country. It is 
critical that any plan be country specific and include money laundering 
specialists familiar with both that country and the region within which 
it operates.
    The funding requested in fiscal year 1998 will assist the U.S. in 
achieving greater cooperation and coordination with other countries, 
and increase efforts within the U.S. law enforcement community on 
international issues.
    Specifically, FinCEN intends to enhance its technological systems, 
fashioning and using a secure Intranet system to link the United States 
and other countries on drug trafficking and money laundering matters; 
developing a multi-lingual database for the exchange of financial 
intelligence; and exploiting the suspicious activity database for 
profiling and sharing information to impede criminal activity in the 
U.S. and world banking systems. Secondly, FinCEN will be able with 
additional funding to respond in a meaningful and responsible manner to 
the growing number of requests by other federal agencies as well as 
foreign governments for support and assistance with financial 
intelligence unit (FIU) development. The linkage of FIUs worldwide is a 
key component of FinCEN's anti-money laundering strategy.
Background on Second Initiative
    To provide a secure means of information sharing among the Treasury 
law enforcement bureaus, $1 million is requested to develop an Internet 
communication system. The need to communicate quickly and securely 
among the bureaus was identified as a priority. This system will 
greatly enhance the ability of Treasury's Office of Enforcement to 
communicate sensitive, case-related intelligence through a highly 
secure and protected system.
    Under this initiative, FinCEN is proposing to create an 
``extranet'' using the existing Internet infrastructure to interconnect 
Treasury enforcement bureaus. The system would allow for real-time 
information sharing in the form of e-mail, ``chat'' and ``newsgroups'' 
(to use Internet-speak). Moreover, the system would allow for secure 
electronic delivery of case reports, electronic requests for support, 
electronic deliveries of trend and pattern analyses, and computer-based 
training modules regarding financial crime.
    FinCEN's concept is to use state-of-the-art dynamic encryption to 
protect the flow of data through the Internet. By using an existing 
Internet infrastructure in conjunction with data encryption, FinCEN 
significantly reduces the cost of the system while at the same time 
providing services to Treasury law enforcement globally. Further, this 
solution also involves user accounts and user passwords thus limiting 
who gets access to the information, and digital certificate 
authentication to ensure that a qualified user is operating a 
government-owned computer in a physically secured environment.
    FinCEN's objective is to establish secure links for Treasury law 
enforcement to access specific information solely related to financial 
crimes. The entire system will be built around this focus and access to 
this information will be restricted to those who have a ``need-to-
know.''
    FinCEN, given its mandate of combating money laundering, has had to 
be progressive in what tools it uses to get the job done.
    Question. Can you explain the role of technology in FinCEN's work?
    Answer. FinCEN uses state of the art technology not only to 
strengthen its own capabilities, but also to improve the means by which 
we provide investigative support and analysis to law enforcement. Our 
compilation of databases provides one of the largest repositories of 
information available to law enforcement in the country. FinCEN's 
technology and expertise draws representatives from 17 major federal 
investigative agencies who are assigned as long term detailees in order 
to have direct access to our information.
    We have developed a sophisticated Intranet network of databases to 
link financial, law enforcement and commercial information to provide 
cost-effective and efficient measures (``one stop shopping'') for 
federal, state and local law enforcement officials to prevent and 
detect financial crime. FinCEN provides this information/access for no 
charge, however, in return, FinCEN gains additional information to 
assist in future investigations. This allows FinCEN to link ongoing 
investigations together to avoid duplication and assemble masses of 
data to identify strategic trends. In this regard, our Gateway system, 
which provides state and local law enforcement with direct, on-line 
access to records filed under the Bank Secrecy Act (BSA), won an award 
in 1995 from Government Executive magazine for identifying creative 
ways to enlist the support of other entities.
    FinCEN's Artificial Intelligence (AI) Targeting System is yet 
another illustration of the important role technology plays in the 
agency's mission. Through the employment of advanced AI technology, the 
system provides a cost effective and efficient way to locate suspicious 
activity in the tens of millions of currency transaction reports 
required by the BSA. For the first time in the 25 year history of the 
Act, every reported financial transaction can be reviewed and 
evaluated, allowing FinCEN analysts and federal investigators to link 
ostensibly disparate banking transactions, producing hundreds of leads 
for new investigations.
    FinCEN has also applied technology in an innovative manner to 
develop an information system for suspicious activity reporting. The 
Suspicious Activity Reporting System (SARs) went into effect in April 
1996, merging and revolutionizing two older reporting systems that had 
been in place for over a decade. This single centralized system 
provides the users of the information--the IRS/CID, U.S. Customs, U.S. 
Secret Service, the FBI, the U.S. Attorneys, the federal bank 
regulators, and state law enforcement agencies and banking supervisors, 
equal access to the data as soon as its processed. This also creates an 
opportunity for more comprehensive analyses of these reports and 
results in better information about trends and patterns which is vital 
to Treasury enforcement in our efforts to address money laundering. As 
of April 1997, financial institutions filed nearly 65,000 SARs, about 
40 percent reporting suspicious money laundering activity.
    In addition to employing state of the art technology to our case 
support efforts, FinCEN also must stay abreast of advances in emerging 
payment systems. New cyberpayment systems are coming on-line which 
create vast opportunities for consumers and for criminals. The 
possibility of virtually untraceable financial dealings, if it came to 
pass, would create new, perhaps unparalleled problems for law 
enforcement.
    FinCEN is striving to build a knowledge base throughout Treasury 
enforcement by bringing together government agencies and the private 
sector to work in cooperation to discuss the implication of these 
systems as they are being developed. FinCEN has conducted money 
laundering simulation exercises and has sought out experts from the 
public and private sectors to support and validate our efforts to 
understand the industry.
    FinCEN employs technology, in the numerous methods outlined above, 
to give law enforcement an edge against the schemes and wrongdoing of 
money launderers and others who would try to use it to their advantage.
    Question. Specifically, can you outline CD Rom program and its 
benefits to both FinCEN and the taxpayer for the Subcommittee?
    Answer. FinCEN is now entering and will remain in a sustained 
period of providing training and technical assistance to both domestic 
and foreign entities. The focus of this training and technical 
assistance will be on financial intelligence support to combat money 
laundering and financial crime. This assistance will cover a wide range 
of subjects running the gamut from how to organize and run a financial 
intelligence unit to how to analyze suspicious transaction data to how 
to produce, understand, and use strategic financial intelligence.
    FinCEN will be creating training and technical assistance modules 
in two main formats: (1) traditional instructional modules for 
presentation in classroom settings; and (2) tutorials for 
individualized use using CD ROM as the medium.
    The following are among the subjects on which we will be aiming to 
produce both traditional instructional modules and tutorials (on CD 
ROM):
  --``How to create and run an FIU''--including sub-components on such 
        topics as ``Computer LAN models,'' ``Suspect Transaction Report 
        databases,'' ``Staffing,'' ``Budgets.''
  --``FinCEN (FIUs) as tools for investigators''
  --``FinCEN (FIUs) as tools for bank regulators''
  --``Investigation/Analysis of Electronic Funds Transfers''
  --``Investigation/Analysis of BSA data''
  --``Domestic and international wire transfer systems''
  --``How to do regional/state money laundering threat assessments''
  --``Organization and operation of a money laundering case lab''
  --``Analysis of Federal Reserve data''
  --``Money laundering typologies'' plus units on subsets such as 
        ``Structuring'' and ``Use of monetary instruments''
  --``Vulnerabilities of cyberpayments systems to money laundering''
  --``Tactical financial intelligence analysis''
  --``Strategic financial intelligence analysis''
  --Modules on specific intelligence techniques such as computer-
        assisted brainstorming and simulation
  --``Money laundering statutes''
  --Practical exercises in money laundering intelligence analysis
    Question. What is the goal of the cyberpayment study and what do 
you hope the study will provide us?
    Answer. Cyberpayments is the term FinCEN uses to describe new 
payment mechanisms which use ``stored value'' or ``smart cards'' to 
transfer funds as well as financial transactions which occur via the 
Internet. FinCEN has been developing expertise in this area to ensure 
that these systems do not develop in a way that could potentially 
facilitate financial crimes such as money laundering.
    FinCEN intends to use requested funds to complete a portion of its 
ongoing analysis of this issue. The analysis includes additional 
domestic and international simulation exercises; securing external 
expertise to assist in the monitoring of the new systems; and continued 
outreach with the industry. FinCEN believes this process will 
contribute significantly to Treasury's on-going dialogue with industry, 
the Congress and federal agencies on the formulation of appropriate 
policy responses.
    As described above, the study of Cyberpayments is an ongoing 
process of systems which are in their infancy but continue to mature. 
The complex and dynamic nature of this issue suggests that FinCEN would 
not complete all its work in 1998, however this funding under the Crime 
Bill will significantly further FinCEN's understanding of this evolving 
issue.
    The Financial Intelligence Unit is mentioned in several places in 
your budget submission.
    Question. Can you explain what a Financial Intelligence Unit (FIU) 
is for the Subcommittee and how it can help FinCEN do its job?
    Answer. Inspired in part by FinCEN's success, Financial 
Intelligence Units (FIUs) have been established in countries throughout 
the world. These units serve as the central focal point for countries' 
anti-money laundering efforts. The FIUs are designed to protect the 
banking community, detect criminal abuse of its financial system, and 
ensure adherence to its laws against financial crime. FinCEN is one 
model of an FIU and others exist in such countries as Great Britain, 
France, Belgium, the Netherlands, Argentina, and Australia. Presently, 
there are at least 29 such units throughout the world.
    We cannot emphasize strongly enough the importance we place on the 
expansion of these units around the world. The proceeds of crime move 
quickly across national boundaries into the world's financial systems 
frequently causing money laundering investigations to spill over into 
multiple jurisdictions and traverse the web of global financial 
services. The objective is to close off avenues for money launders by 
building strong barriers to financial crime in nations around the world 
and then establishing ways to exchange information about criminal 
activity among nations. Financial Intelligence Units help accomplish 
both objectives. They are the embodiment of the network concept 
offering support to law enforcement and financial community nationally 
and internationally.
    Under the leadership of FinCEN, a core group of FIUs met for the 
first time in Brussels in 1995 and created an organization known as the 
Egmont Group. This group serves as an international network, fostering 
improved communication and interaction among FIUs in such areas as 
information sharing and training coordination.
    The FinCEN representation in the Egmont Group reflects the agency's 
leadership role in this important coordination effort. FinCEN is 
heavily involved in Egmont's three important working groups: Legal, 
Technology, and Training. The Legal working group is tasked with 
examining the obstacles related to the exchange of information among 
FIUs. The second working group, Technology, focuses on addressing 
technical matters regarding communication among FIUs. Lastly, the 
Training working group is responsible for seeking ``tools'' to assist 
in the conduct of financial analysis. FinCEN experts play key 
leadership roles in each group, working in conjunction with 
representatives from other FIUs to develop solutions to the numerous 
issues raised. Progress made in each working group is then reported at 
future meetings of the whole organization.
    The effort to increase communication among FIUs has been furthered 
by FinCEN's development of a secure web site, permitting access 
information on FIUs, money laundering trends, financial analysis tools, 
and technological developments.
                            bank secrecy act
    One of the laws which FinCEN administers is the Bank Secrecy Act, 
which is designed to ensure the existence of records that could be used 
to provide investigators and prosecutors with information on large 
currency transactions.
    Question. What is the current rate of compliance for the Bank 
Secrecy Act?
    Answer. The Bank Secrecy Act contains a number of different 
requirements, and it is difficult to create a single measure for 
compliance rates. The most encouraging developments over the past 
several years have been the cementing of a working partnership between 
the Treasury and the nation's financial institutions, especially banks, 
to build a system that truly makes money laundering more difficult. 
Thus, banks have responded very positively to the new suspicious 
activity reporting rules and have filed more than 70,000 forms in the 
first year the rules were in effect. At the same time, there is 
evidence that the large currency transaction reporting requirements 
(the ``CTR'' requirement for transactions in currency in excess of 
$10,000) are being carefully observed, and the rate of referrals of 
potential penalty cases to the Treasury from banking regulators has 
declined. The requirements for the reporting of cross-border 
transportation of currency in excess of $10,000 (the ``CMIR'' 
requirement) is more difficult to track because the requirement is 
imposed upon travelers themselves, not simply financial institutions.
    It is not clear that patterns of compliance in other parts of the 
financial sector are comparable to those of banks. Recent enforcement 
activity in the New York Metropolitan Area has indicated serious abuse 
of the non-bank money transmission industry by agents of narcotics 
traffickers seeking to send funds to Colombia. The abuses uncovered 
included, at best, negligence in the application of the BSA 
requirements to the businesses involved and, at worst, active collusion 
in criminal enterprise. The experience forms a part of the basis for 
FinCEN's proposal last week of new rules aimed at money transmitters 
and other non-bank ``money services businesses.''
    It is also important to note that part of FinCEN's strategy has 
been to move away from simply tracking rates of compliance and to ask, 
instead, whether the rules involved are themselves an efficient way to 
deal with the problem of money laundering. Thus, banks have for years 
complained about being penalized for relatively minor infractions of 
the currency transaction reporting rules when the data produced had 
little relevance to the prevention or detection of money laundering. 
Without necessarily agreeing with the criticism, both Congress, in the 
Money Laundering Suppression Act, and FinCEN, have taken steps to slim 
down the reporting process to data that is truly potentially useful to 
investigators and regulators and to place the greatest emphasis on the 
building of compliance systems that can impede serious money 
launderers.
    Question. What percentage of that is voluntary and what percentage 
of that is mandatory compliance?
    Answer. A large part of Treasury's long-term strategy has been to 
convince financial institutions that it is in their own interest to 
fight money launderers, who in the long run can do as much damage to 
the financial system--and to particular financial firms--as to 
government efforts to reduce crime. While the threat of civil and 
criminal sanctions are essential to keep tension in the compliance 
system, FinCEN has stepped up efforts, as stated above, to examine 
historic strategies in an effort to craft rules that financial 
institutions themselves can apply more efficiently and cost-
effectively, as colleagues, rather than potential adversaries, in the 
fight against money laundering. We believe this policy is meeting with 
some success and provides a firmer basis for true progress, over the 
years, than a strategy based solely on the threat of sanctions to gain 
compliance.
                 support to state and local authorities
    FinCEN has a critical role in providing support to state and local 
law enforcement agencies and their work in our communities. This is an 
aspect which I believe is critical when dealing with the enforcement of 
anti-money laundering laws and dealing effectively within our 
communities.
    Question. In fiscal year 1998, FinCEN is requesting funding for a 
new initiative called Secure Outreach. Can you briefly describe how 
this program will help state and local law enforcement to combat money 
laundering?
    Answer. The Secure Outreach Program will not directly support state 
and local investigations. As described earlier, it will establish a 
secure Internet link for the Treasury law enforcement bureaus to access 
information related to financial crimes. However, indirectly the system 
will support state and local law enforcement in that better 
communication among federal law enforcement ultimately helps get 
information to state and local entities. This is particularly relevant 
as it relates to task force efforts where federal, state and local law 
enforcement entities work together to combat criminal activity.
    Question. Can you detail for the Subcommittee the kind of support 
FinCEN provides to state and local law enforcement?
    Answer. FinCEN provides support to state and local law enforcement 
in four different components by: (1) providing state and local law 
enforcement agencies with direct, on-line access to records filed under 
the Bank Secrecy Act, through a program called Gateway; (2) 
``alerting'' federal and state agencies which have an interest in the 
same investigation; (3) providing in-depth intelligence reports to 
supplement Gateway information; and (4) working with Gateway's state 
coordinators to inform and educate state law enforcement to ways to 
combat money laundering, including services provided by FinCEN.
Gateway and Alerts
    Through a system called Gateway, state and local law enforcement 
agencies have direct, on-line access to records filed under the Bank 
Secrecy Act (BSA). BSA records contain information such as large 
currency transactions, casino transactions, international movements of 
currency, and foreign bank accounts. This information often provides 
invaluable assistance for investigators because it is not readily 
available from any other source.
    Using FinCEN-designed software, the Gateway system saves 
investigative time and money because subscribing agencies can conduct 
their own research and not rely on the resources of an intermediary 
agency to obtain BSA records. All states and the District of Columbia 
are now on-line with the system. The information queries are 
coordinated by law enforcement coordinators in each state. In fiscal 
year 1996, Gateway processed 49,466 queries from 45 states. Through 
April of this year, FinCEN has received 32,625 Gateway queries from 48 
states.
    During the research and analysis process, Gateway electronically 
captures the information gathered on incoming inquiries and 
automatically compares this information to subsequent and prior queries 
from Gateway customers. About 17,000 subjects have been identified 
through Gateway. In addition, Gateway users ask FinCEN to match about 
600 new subjects each month against its other databases to identify 
potential parallel investigations. This technique enables FinCEN to 
assist state and local agencies in coordinating their investigations 
among themselves, and with federal agencies, through the sharing and 
exchanging of case data. In other words, FinCEN has the ability to 
``alert'' one agency that another has an interest in their subject. In 
1996, 356 ``alerts'' were given to agencies who had an interest in the 
same investigative subject. From October 1996 through April 1997, 203 
``alerts'' were issued by FinCEN.
Intelligence Reports Beyond Gateway
    When state and local investigators need information and analysis 
beyond Gateway resources, they turn to FinCEN for detailed intelligence 
reports. For such officers, FinCEN is frequently the sole provider of 
the resources and expertise that federal agencies use so effectively to 
fight crime. These resources, often too expensive for small agencies, 
are extremely important as more and more local police departments begin 
to combat sophisticated white collar crime.
    All state and local requests first pass through state coordinators 
who review the request to determine whether it is an appropriate 
tasking for FinCEN. This process ensures that FinCEN only works on 
cases that can benefit from its extensive resources.
    Intelligence reports frequently include query results of 
commercial, law enforcement, and financial databases. When appropriate, 
analysts construct analytical products such as link charts and time-
lines. FinCEN makes and maintains contact with the requester to ensure 
the intelligence report meets the needs of the requester and can 
contribute to the successful completion of the investigation.
Education
    (See training question below)
    Question. What percentage of work conducted by FinCEN is focused 
toward state and local law enforcement agencies?
    Answer: Approximately 20 percent of FinCEN's work is dedicated to 
supporting state and local law enforcement. (This is primarily 
accomplished through Gateway and other investigative support efforts as 
outlined above.)
    It should be noted that it is difficult to completely distinguish 
support to state and local agencies from support to federal agencies. 
There is a great deal of overlap. Some of FinCEN's work contributes to 
both federal and local investigations, for instance, under task force 
efforts. In addition, FinCEN's regulatory work, such as the design and 
management of the Suspicious Activity Reporting System, benefits both 
federal and state law enforcement. Again, with the understanding of the 
difficulty in distinguishing support categories, FinCEN estimates 20 
percent of its efforts are devoted to state and local agencies.
    Question. What percentage of the work you do with state and local 
law enforcement is focused on training them on the law and what can 
FinCEN do for them?
    Answer. The majority of resources that FinCEN expends in its 
efforts with state and local law enforcement are channeled toward 
direct support of investigations. However, we would estimate that 10-12 
percent of our effort directed toward supporting state and local 
agencies involves training, of which perhaps one-half of that addresses 
legal issues.
    FinCEN is currently considering an initiative (to begin in the fall 
of 1997) which would involve a week-long course covering in-depth 
applications in financial investigations. This would be offered, over 
the course of one year, to approximately 250 of Gateway's State 
Coordinators and their personnel (at FinCEN's expense). While we are 
not prepared to cover state statutes, some basic legal training could 
be incorporated in this course.
    As part of its existing training efforts, FinCEN focuses on 
describing the benefits states have achieved from developing and 
implementing a strategy for attacking criminal proceeds. Such a 
strategy has several different elements, including legislation.
    There are currently 30 states with legislation criminalizing money 
laundering. Unfortunately, the provisions of these laws vary 
considerably which can substantially affect their effectiveness. FinCEN 
has been working closely with the National Alliance for Model State 
Drug Laws and the National Association of Attorneys General to inform 
the states of the availability of model legislation.
                             current issues
    With technology changing so fast these days, it is no surprise that 
it is difficult to keep up. Unfortunately, however, the criminal 
element seems to have no problem in taking what ever new technology 
that comes along and finding a way to make it useful to them in their 
crimes.
    Question. Can you comment on the latest trends in money laundering?
    Answer. Working with our partners in the law enforcement, 
regulatory and financial communities, we have learned that the tools of 
the money launderer can range from complex financial transactions, 
carried out through webs of wire transfers and networks of shell 
companies, to old-fashioned, if increasingly inventive, currency 
smuggling. We also know that as soon as law enforcement learns the 
intricacies of a new money laundering technique and takes action to 
disrupt the activity, the launderers replace the scheme with yet 
another, more sophisticated method.
    Most importantly, we see that the proceeds of crime generated in 
the United States move quickly across national boundaries and into the 
world's financial systems. The money laundering policy issues and the 
federal law enforcement cases involving international crime that FinCEN 
supports frequently spill over into multiple national jurisdictions and 
the web of global financial services.
    The Financial Action Task Force (FATF), a global leader in 
promoting anti-money laundering efforts, held its 1996-97 typologies 
earlier this year and released a public report on existing money 
laundering trends around the world. FinCEN chaired the 1996-97 FATF 
experts group on typologies which developed the report.
    A general observation drawn from this exercise, and which 
substantiates FinCEN's experience described earlier, is that given the 
global nature of the money laundering phenomenon, geographic borders 
have become increasingly irrelevant. Launderers tend to move their 
activity to jurisdictions where there are few or weak anti-money 
laundering countermeasures. Another major finding is that traditional 
money laundering techniques (such as smurfing, wire transfers, and bank 
drafts) continue as prominent laundering methods. Currency smuggling, 
also a traditional method, continues to increase due to effective 
counter-money laundering measures enforced in banks and other financial 
institutions.
    Drug trafficking remains the largest single generator of illegal 
proceeds; however, non-drug related crime (such as various types of 
fraud, smuggling and organized crime offenses) is increasingly 
significant. There is also the continuing shift from banking 
institutions to non-bank financial institutions.
    Because of this shift, Treasury recently announced new proposed 
regulations which apply to a segment of the non-banks, called money 
services businesses (MSB), such as money transmitters and check 
cashers. (See attached fact sheets.) The proposed rules require 
registration of MSBs; reporting of suspicious transactions by MSBs; and 
a lower threshold of currency transaction reporting for money 
transmitters. It should be stressed that the overwhelming majority of 
these businesses are engaged in legitimate and valuable commercial 
activity. In fact, the industry has been extremely supportive of 
FinCEN's work. The new rules are only intended to make life difficult 
for the money launderers and their accomplices.
    Question. How will the increasing usage of electronic financial 
transactions, or cyberpayments, impact the work of FinCEN?
    [With clarification from the Committee, we understand this question 
to ask how will the increasing use of wire transfers (also called funds 
transfers) impact the work of FinCEN. Electronic wire transfers move 
funds between financial institutions. This question does not relate to 
cyberpayments as defined as ``stored value'' or ``smart cards'' to 
transfer funds or financial transactions which occur via the Internet.]
    Answer: Electronic wire transfer systems move funds between 
financial institutions and handle a daily volume in excess of 500,000 
transactions, moving more than $2 trillion around the world each day. 
Wire transfers offer criminal organizations an easy, efficient and 
secure method of transferring huge sums of money over a very short 
period of time. Because wire transfer messages are often sent through 
several banks and wire transfer systems, money launderers have been 
able to easily confuse the money trail, making it difficult for law 
enforcement to trace the criminal proceeds. However, it should be noted 
that while there has been a steady increase in funds transfers between 
financial institutions, the use of these systems are not increasing in 
a manner greater than anticipated.
    Because of their use by money launderers, FinCEN issued (under the 
Bank Secrecy Act) two new regulations last year to prevent and detect 
laundering as money is moved around the country and the world. The 
first rule, issued jointly by Treasury and the Federal Reserve Board, 
requires banks and non-bank financial institutions to collect and 
retain information about transmittals of funds in the amount of $3,000 
or more; it also requires the verification of the identity of non-
account holders that are parties to such transmittals of funds. The 
second rule (known as the travel rule), issued by Treasury alone, 
requires each financial institution that participates in a wire 
transfer to pass along certain information about the transfer to any 
other financial institution that participates in the transmittal.
    The wire transfer rules are designed to help law enforcement 
agencies detect and investigate money laundering and other financial 
crimes by preserving an information trail about persons sending and 
receiving funds through wire transfer systems. While wire transfers do 
pose a challenge to law enforcement agencies investigating money 
laundering, the regulations significantly assist investigators by 
preserving more information identifying parties to such transactions 
than was previously available.
                      support to federal agencies
    Most of FinCEN's users are state and local law enforcement but 
there are a number of federal agencies that use FinCEN's expertise.
    Question. Can you briefly describe for the Subcommittee who 
FinCEN's federal users are and what information are you able to provide 
them?
    Answer. First, it should be noted that FinCEN's primary law 
enforcement customers are federal agencies. The Internal Revenue 
Service and the Bureau of Alcohol, Tobacco and Firearms were FinCEN's 
top two federal customers. The U.S. Customs Service's Office of 
Internal Affairs and the Treasury Inspector General were also 
significantly assisted by FinCEN.
    Additionally, FinCEN continues to see a demand for services from 
all segments of law enforcement around the country. Department of 
Justice agencies, such as the FBI, USMS, and DEA are significant users 
of FinCEN, as are the Department of Defense users such as Naval 
Criminal Investigative Services, Defense Criminal Investigative 
Service, AFOSI, and U.S. Army Criminal Investigative Division.
    FinCEN's original and primary mission is centered on law 
enforcement. In addition to housing key databases, FinCEN assists 
investigators by obtaining unique and complex data and performing 
research and analysis that plays a vital part in successful 
investigations. FinCEN assistance has proved crucial in investigations 
of criminal activity ranging from money laundering to national security 
issues.
    FinCEN's work is concentrated on combining information reported 
under the BSA with other government and public information. This 
information is then disclosed to FinCEN's customers in the law 
enforcement community as intelligence reports. These reports help them 
build investigations and plan new strategies to combat money 
laundering.
FinCEN's Information Sources
    FinCEN's information sources fall into three broad categories: 
Financial, Law Enforcement, and Commercial Databases.
    Financial Database.--The financial database consists of reports 
that are required to be filed under the BSA and include the Currency 
Transaction Report (CTR); Suspicious Activity Report (SAR), Report of 
International Transportation of Currency or Monetary Instruments 
(CMIR); Currency Transaction Report by Casinos (CTRC); and Report of 
Foreign Bank and Financial Accounts (FBAR).
    Law Enforcement Databases.--Through a Memorandum of Understanding 
(MOU), a written agreement outlining the details of database access, 
dissemination authority, etc., FinCEN is able to access individual law 
enforcement databases maintained by agencies such as the Treasury 
Bureaus, Drug Enforcement Administration, Department of Defense, and 
the Postal Inspection Service. FinCEN currently maintains MOUs with a 
wide range of federal and regulatory agencies, all 50 states and the 
District of Columbia.
    Commercial Databases.--FinCEN procures access to a variety of 
commercially maintained databases which are valuable in locating 
individuals, determining asset ownership and establishing links between 
individuals, businesses and assets. These commercial sources of 
information, coupled with the data from the law enforcement and 
financial databases, form the foundation of information sources for 
FinCEN analyses.
    Finally, the FinCEN Database serves as the central point upon which 
FinCEN coordinates information on all investigations it supports, thus 
enhancing FinCEN's efforts to improve the information sharing network.
    Currently, FinCEN has five ways of supporting federal law 
enforcement investigations. The following is a brief description of 
each of those methods.
    Direct Case Support.--Since its creation in 1990, FinCEN has 
provided almost 38,000 analytical case reports involving over 100,000 
subjects to federal, state, and local law enforcement agencies. Last 
year alone, FinCEN worked with more than 150 different agencies, 
answering more than 7,500 requests for investigative information. Using 
advanced technology and countless data sources, FinCEN links together 
various aspects of a case, finding the missing pieces to the criminal 
puzzle.
    Platform Access.--FinCEN support is also provided to law 
enforcement agencies through a ``Platform'' which is a way to permit 
others to use FinCEN's resources directly to carry out their work. 
FinCEN pioneered the Platform in 1994, offering training, office space, 
and database access to employees of other federal agencies who needed 
to conduct research on cases under investigation by those agencies. 
Platform personnel are on the payroll of other federal agencies and 
come to FinCEN on a part-time basis to work only on cases being 
conducted by their own offices or agencies. These individuals know the 
needs of their organization and can support that need directly through 
database access. FinCEN is currently assisting 43 Platform participants 
from 21 agencies. About 10 percent of FinCEN's case work last year and 
20 percent so far this year was carried out through these Platforms.
    Artificial Intelligence Targeting System.--FinCEN's Artificial 
Intelligence (AI) system is yet another avenue available to law 
enforcement in the fight against money laundering. This system provides 
a cost effective and efficient way to locate suspicious activity in the 
tens of millions of currency transaction reports required by the Bank 
Secrecy Act.
    For the first time in the 25 year history of the Act, every 
reported financial transaction can be reviewed and evaluated. This 
unique blend of state of the art technology within a user friendly 
environment provides intelligence analysts and federal investigators 
with the ability to link ostensibly disparate banking transactions, 
producing hundreds of leads for new investigations.
    Support to ICG.--FinCEN also is supporting the Interagency 
Coordination Group (ICG) whose purpose is to share money laundering 
intelligence in order to promote multi-agency money laundering 
investigations. The group includes the Internal Revenue Service, the 
U.S. Customs Service, the Drug Enforcement Administration, the Federal 
Bureau of Investigation, and the U.S. Postal Service. FinCEN and the 
Department of Justice's Criminal Division serve as advisors to the 
group. FinCEN provides a central site for the group's operations and 
the support of four personnel who provide research and analysis of the 
intelligence information generated by the group. This intelligence, 
coordinated in FinCEN's case lab, is then disseminated to case agents 
currently working major money laundering investigations in the field.
    Question. Do these federal agencies work with state and local law 
enforcement agencies using the information which FinCEN provides?
    Answer. A number of our state and local requests involve multi-
jurisdictional task forces comprised of federal, state, and local 
investigators. In other cases, requests come from federal agencies who 
are involved in similar task forces. We do support the HIDTA (High 
Intensity Drug Trafficking Areas) and OCEDTF (Organized Crime Drug 
Trafficking Task Force) programs with case support, field support, and 
make available to them a platform at FinCEN from which they can do 
their own work.
    Question. How does your work with federal agencies differ from the 
work with state and local law enforcement?
    Answer. FinCEN's databases and its analysts are readily available 
to assist law enforcement agents in solving cases at the federal, and 
state and local levels of government. The primary difference between 
FinCEN's work with federal agencies and the services it provides to its 
state and local customers lies in the process by which they access 
FinCEN's resources. At the federal level, requests for these services 
comes directly from law enforcement agents within each federal agency 
(see pages 13-15, Support to Federal Agencies for a full description of 
how federal agencies can use FinCEN's resources). State and local 
requests, on the other hand, are channeled to FinCEN through the 
Gateway program. As mentioned in a previous answer, this system of 
state law enforcement coordinators was established to help ensure an 
efficient response mechanism for the much broader state and local 
network of law enforcement entities (see page 8, Support to State and 
Local Law Enforcement for a complete description of Gateway).
                 working within the international arena
    Clearly, much of the task FinCEN must undertake occurs outside our 
borders, particularly with the advent of electronic information and 
electronic financial transactions. Therefore, FinCEN does a substantial 
amount of its work with other nations.
    Question. Would you outline FinCEN's most recent work in the 
international arena?
    Answer. We are meeting the challenges created by a borderless 
marketplace for money launderers by developing and fostering bilateral 
and multilateral initiatives aimed at whittling down the number of 
countries who choose not to play by international standards. FinCEN 
provides international leadership in developing and fostering global 
anti-money laundering strategies, policies, and programs and reaches 
out to assist countries in implementing those standards. FinCEN has 
received worldwide recognition for its capabilities and accomplishments 
and is frequently called upon to provide guidance and assistance in 
multilateral fora, as well as in individual government-to-government 
exchanges.
    Our principal efforts in the international arena include:
    Financial Action Task Force (FATF).--In just the past three years, 
FinCEN has been instrumental in revitalizing the world's premier anti-
money laundering organization, the Financial Action Task Force. Created 
at the G-7 Economic Summit in 1989, the FATF is comprised of 26 
countries. It is dedicated to promoting the development of effective 
anti-money laundering controls and enhanced cooperation in counter-
money laundering efforts among its membership and around the globe. 
FinCEN serves as the lead agency for coordinating the U.S. role within 
the FATF. It heads up the U.S. delegation which consists of Treasury, 
State and Justice, and FinCEN's Director serves as one of six members 
of the FATF Steering Group.
    The U.S. held the Presidency of the FATF from July 1995 to July 
1996. During the U.S. presidency, FinCEN spearheaded the successful 
effort to strengthen the Task Force's 40 recommendations, the standards 
for countries to follow in combating the laundering of criminal 
proceeds. This was the first update to the recommendations since they 
were issued in 1990.
    FATF also mandates ``mutual evaluations''--regular, on-site peer-
group examinations of each member nation's progress in implementing 
anti-money laundering controls. A mutual evaluation of the United 
States was conducted in December 1996. The positive evaluation that the 
United States received lends international credibility to U.S. anti-
money laundering programs as well as further establishes U.S. 
leadership in countering money laundering worldwide.
    FinCEN has given new focus to FATF's Annual Typologies Exercise, 
this year persuading FATF to issue a public version of its report. The 
annual typologies meeting brings together law enforcement 
representatives from member countries to discuss current money 
laundering trends and patterns. Disseminating public versions of these 
reports to financial institutions in the private sector provides them 
with valuable feedback about the usefulness of compliance programs to 
law enforcement. This year's report contains an annex which discusses 
the money laundering implications of emerging payment systems, such as 
electronic money (e-money) and Internet transactions.
    Investigators worldwide will also benefit from an important new 
tool allowing them to trace the source of illegal money that flows 
around the world because of a FATF initiative FinCEN helped negotiate 
with the Society for Worldwide Interbank Financial Telecommunication 
(SWIFT). In November, the SWIFT will modify its software which will 
allow electronic messages to include the sender's bank account number, 
critical information in a financial investigation.
    A primary goal of the U.S. has been to expand FATF's anti-money 
laundering standards to key regions around the world. To this end, it 
has encouraged the development of sister organizations such as the 
Caribbean Financial Task Force (CFATF) and the Asia/Pacific Group on 
Money Laundering.
    FinCEN is also co-hosting with CFATF, a Casino and Gaming 
Conference which serves as an example of how FinCEN is sharing its 
domestic experiences abroad. The Conference will explore the money 
laundering vulnerabilities of the growing gaming industry in the 
Caribbean and discuss possible regulatory requirements for the region.
    FinCEN played a role in the success of a conference held in October 
1996 in South Africa. The conference resulted in 13 countries from the 
region agreeing to seek the establishment of a Southern and Eastern 
African Financial Action Task Force. FinCEN is especially encouraged by 
this first but important step towards bringing a key region of the 
world under the FATF umbrella.
    With strong encouragement from the United States, the current 
President of the FATF has been developing contacts with the 
Multilateral Development Banks, such as Asian Development Bank and the 
Inter-American Development Bank.
    Financial Intelligence Units and the Egmont.--We are witnessing a 
new world-wide phenomenon--the establishment of financial intelligence 
units (FIUs) in countries through out the globe. These units serve as 
the central focal point for countries' anti-money laundering efforts. 
Just five years ago, there were less than a handful of FIUs in the 
world. Today, there are at least 29 such units. The momentum for this 
development came about as a result of several years of an intensive 
anti-money laundering effort by FinCEN and its counterparts in Europe 
and Australia.
    Under the leadership of FinCEN, a core group of FIUs met for the 
first time in Brussels in 1995 and created an organization known as the 
Egmont Group. This group serves as an international network, fostering 
improved communication and interaction among FIUs in such areas as 
information sharing and training coordination.
    Although differing in size, structure and individual 
responsibilities, Egmont members share a common purpose--cooperation in 
the fight against money laundering through information exchange and the 
sharing of ideas. The Egmont Group has since met three times, most 
recently in November 1996 in Rome where participants agreed on the 
definition of an FIU. This definition will likely facilitate the 
establishment of new units by setting minimum standards.
    The effort to increase communication among FIUs has been furthered 
by FinCEN's development of a secure web site that was first 
demonstrated in Rome. This web site will permit members of the Egmont 
Group to access information on FIUs, money laundering trends, financial 
analysis tools, and technological developments. The web site will not 
be accessible to the public therefore, members will be able to share 
this information in a protected environment. We cannot emphasize 
strongly enough the importance we place on the expansion of financial 
intelligence units around the world. It is the embodiment of the 
network concept offering support to law enforcement nationally and 
internationally.
    International Criminal Police Organization (Interpol).--Interpol is 
an international organization established to facilitate information 
sharing and coordination among nations worldwide on criminal 
investigative matters. Treasury's Under Secretary for Enforcement 
serves on Interpol's Executive Committee. At the 64th session of 
Interpol's General Assembly held in October 1995, a resolution was 
unanimously adopted establishing the first major anti-money laundering 
declaration in the organization's history. Additional progress against 
money laundering is made through annual financial analysis conferences 
which FinCEN co-sponsors with Interpol's FOPAC unit. At the last 
conference, held in San Francisco in 1996, more than 30 countries 
participated.
    As the countries of the Former Soviet Union and Eastern European 
struggle to put into place effective regulatory and legal 
infrastructures, ample opportunities for criminals to launder their 
money exist. The Secretary General of Interpol called upon FinCEN to 
lead an examination of the economic environment and factors that impact 
money laundering in 15 of 26 of these countries. Since July 1995, 13 of 
the 15 reports have been drafted under ``Project Eastwash.''
    FinCEN and FOPAC's combined efforts have generated the political 
will in several of these countries to begin establishing anti-money 
laundering regimes. For example, the Latvian government used our 
Eastwash report as the impetus to push forward with efforts to develop 
new anti-money laundering measures. Through attendance at the annual 
financial analysis conferences, Slovakia and Czech Republic moved to 
establish FIUs, and most recently, several Latin American countries 
(Argentina, Colombia, Uruguay, and Bolivia) used these discussions to 
initiate similar efforts.
    Summit of the Americas (SOA).--In December 1995, Treasury Secretary 
Rubin chaired a conference in Buenos Aires, Argentina, that was 
attended by Ministers from 29 of the 34 SOA nations. FinCEN led the 
year long effort to lay the groundwork for the Buenos Aires Conference 
by coordinating the development of a Communique--a document which 
commits each of the participating countries to take a series of steps 
to combat money laundering.
    FinCEN, together with Treasury and other agencies, is playing a 
leading follow-up role. This effort includes offering coordinated 
training and assistance to SOA participating countries. The process is 
beginning to take effect. At least 25 of the 34 Summit countries have 
taken positive steps toward implementing the Communique by passing, 
amending or drafting legislation, or issuing related regulations.
    United Nations.--FinCEN has provided leadership in the anti-money 
laundering efforts of the United Nations Commission on Narcotic Drugs 
(UNCND), which is the central policy making body within the UN for 
dealing with all drug-related matters. FinCEN worked in support of a 
U.S.-sponsored anti-money laundering resolution which was adopted by 
the UNCND in March 1995. This resolution calls for UN member states to 
encourage the reporting of suspicious or unusual transactions, 
establish financial intelligence units to collect and analyze this 
data, and recommends formation of financial investigative task forces 
and anti-money laundering investigative training programs.
    In April 1996, the UNCND adopted a second U.S.-sponsored anti-money 
laundering resolution that encourages UN member states to require bank 
customer identification procedures and to broaden other anti-money 
laundering measures such as confiscation and asset forfeiture 
provisions, and stresses that the 40 Recommendations of the FATF are 
the international anti-money laundering standard.
    Asia Pacific Economic Cooperation (APEC).--FinCEN played a critical 
role in ensuring that the APEC Finance Ministers recognize the threat 
money laundering poses to the economies in the region and the 
importance of international standards which have been established by 
the FATF to combat the problem. At the APEC Finance Ministers Meeting 
held April 5-6, 1997, a Joint Ministerial Statement was issued which 
recognized money laundering as a priority concern in the region. 
Ministers welcomed the establishment of the Asia/Pacific Group on Money 
Laundering, encouraged a determined global effort against money 
laundering, and requested that relevant international organizations 
integrate anti-money laundering activities into their operations to 
strengthen the integrity of financial systems. This most recent 
reference to money laundering in the APEC Ministerial Statements 
follows language in two previous documents. All were the result of 
FinCEN efforts.
    The role that the United States plays, both by itself and as part 
of these multilateral efforts, is critical in setting effective 
standards in the fight against money laundering. FinCEN is at the 
forefront of this world wide movement. We have found that it is 
important to share our expertise--as well as our mistakes--with our 
foreign counterparts. FinCEN representatives have visited five 
continents and more than 50 countries in the past three years, urging 
these countries to take the money laundering threat seriously and adopt 
effective anti-money laundering measures.
    Question. What percentage of FinCEN's work is dedicated to helping 
other nations combat money laundering?
    Answer. Approximately 25 percent of FinCEN's work is directed 
toward strengthening its network by developing partnerships with our 
international counterparts.
    Question. What types of services can you provide other nations in 
the way of helping them improve their anti-laundering capabilities?
    Answer. FinCEN provides international leadership in developing and 
fostering global anti-money laundering strategies, policies, and 
programs, and reaches out to assist countries in implementing the 
standards on money laundering. FinCEN has developed worldwide 
recognition for its capabilities and accomplishments and is frequently 
called upon to provide guidance and assistance in multilateral fora, as 
well as in individual government-to-government exchanges.
    FinCEN's international training and technical assistance program 
has two main components: 1) instruction provided to a vast array of 
government officials, financial regulators and others on the subject of 
money laundering and FinCEN's mission and operation; and 2) training on 
financial intelligence units, modeled after FinCEN and the other 
central disclosure agencies throughout the world.
    FinCEN has provided a wide range of guidance and assistance to a 
number of countries around the world in encouraging the creation of 
FIUs. Countries are at different stages of evolution in their ability 
and willingness to implement effective counter money laundering 
programs. Therefore, our efforts and approach are tailored to the 
individual needs of recipient countries. In general, our involvement 
encompasses: 1) providing assessments of money laundering laws, 
regulations and procedures; 2) recommending ways in which to develop a 
partnership between government and financial institutions to prevent 
money laundering; 3) advising foreign government officials on how to 
establish advanced systems for detecting, preventing and prosecuting 
financial crimes; and 4) offering specialized training and technical 
assistance in computer systems architecture and operation.
    Question. Are services provided for free, or do these nations pay 
for services of FinCEN?
    Answer. Nations do not pay a fee for the services provided by 
FinCEN.
    Question. What incentive does our government give other nations for 
being proactive in their efforts to combat money laundering?
    Answer. For those countries that are proactive in their efforts to 
combat money laundering, FinCEN and other US agencies provide support, 
encouragement and guidance in how to create an effective anti-money 
laundering regime. That support includes providing a wide range of 
technical assistance and training to countries geared towards helping 
them model an effective program to meet their respective country needs. 
For its part, FinCEN focuses much of its training and technical 
assistance in the form of supporting the establishment of financial 
intelligence units (FIUs) around the globe. FinCEN has provided 
guidance and/or technical assistance to Argentina, Czech Republic, 
Ecuador, Hungary Mexico, Panama, Poland and Russia among others in the 
creation and development of their FIUs.
    Additionally, there are consequences for countries that do not meet 
international standards on money laundering. The Foreign Assistance Act 
of 1961, as amended requires the USG to certify that certain countries 
are cooperating in the fight against drug money laundering. If a 
country is not certified, most foreign assistance is cut off and the 
United States is required to vote against multilateral development bank 
lending to that country. Also, the Financial Action Task Force (FATF) 
can urge countries to give special attention to business relations and 
transactions with persons, including companies and financial 
institutions, from those countries that do not or insufficiently apply 
the FATF forty Recommendations.
    Question. What is the average number of consultations you provide 
to foreign governments in a year regarding money laundering?
    Answer. Since the fall of 1995, when our efforts to create an 
international network of financial disclosure units intensified, FinCEN 
has had over 100 consultations in the United States with foreign 
government officials. In addition, during that same time, FinCEN 
representatives have traveled for consultations to more than 60 
countries urging those governments to adopt effective anti-money 
laundering measures.
                             tribal gaming
    Question. How does FinCEN regulate casinos to prevent and detect 
money laundering and has tribal gaming been brought under the same 
regulatory controls?
    Answer. Since 1985, when state-licensed casinos were first 
subjected to the safeguards and controls of the Bank Secrecy Act (BSA), 
the size and availability of casino gaming in the U.S. has increased 
dramatically. At that time, the new rules applied only to casinos in 
Puerto Rico and Atlantic City, New Jersey. Under an agreement between 
the state of Nevada and the Department of the Treasury, that state's 
casinos were subject to a separate regulatory regime. Today, commercial 
casino gaming is authorized in 15 states and accounts for nearly half a 
trillion dollars in wagered funds.
    Concurrently, there has been a significant expansion in the 
availability of bank-like financial services provided to casino 
patrons, including the establishment of deposit and credit accounts, 
money transfers, currency exchange, and check cashing services. Given 
the large volume of activity occurring at casinos, and the cash-
intensive nature of transactions, this industry is vulnerable to abuse 
by money launderers, tax evaders and other financial criminals.
    FinCEN has worked closely with the industry to ensure that 
effective anti-money laundering programs exist, including working with 
the new American Gaming Association and state casino associations and 
regulators from Nevada, New Jersey, Puerto Rico, Mississippi, and other 
jurisdictions. Over the past two years, representatives from FinCEN and 
the Nevada Gaming Control Board have worked closely to ensure that 
Nevada casinos are subject to regulatory requirements that not only 
meet but, in most cases, exceed current federal standards. This effort 
culminated in the recent enactment of state legislation making 
structuring of currency transactions at casinos a felony and 
significantly increasing criminal and civil penalties against casinos 
found in violation of state regulatory requirements.
    Moreover, early this year, Nevada adopted an entire overhaul of its 
anti-money laundering regulatory requirements and internal controls. 
These new changes took effect on May 1, 1997. In addition, in an 
important step which will take effect by October 1, 1997, Nevada will 
be the first state to require its casinos to report suspicious activity 
to the federal government. FinCEN will examine the experience of Nevada 
casinos with this new requirement before imposing a similar requirement 
on other state and tribal casinos.
    Tribal Casinos.--In addition to the growth in state-licensed 
gaming, in the six years since Indian tribal casinos were first 
established, this segment of the industry has spread to nearly half of 
the states and accounted for over $50 billion in funds. In order to 
meet the Congress' direction in the Money Laundering Suppression Act to 
end the disparate regulatory treatment of tribal casinos, and in 
recognition of the unanticipated growth of this industry, FinCEN began 
the extensive process of meeting with representatives of tribal 
governments, casino operators, and others associated with this 
industry. We conferred with The National Indian Gaming Commission, 
National Congress of American Indians and, most especially, the 
National Indian Gaming Association.
    FinCEN representatives have spoken in detail about the effects of 
this change on the tribal casino industry at a conference, met with 
travel governments, and conducted on-site visits at tribal casinos of 
varying sizes to assess the operational effect of new regulatory 
requirements on these developing businesses. In April 1996, FinCEN 
sponsored a BSA conference designed specifically to address compliance 
with the new regulations. While tribal representatives often express 
concern over the potential threat to their tribal sovereignty, FinCEN 
has been cited favorably for its willingness to work with the tribal 
community through the regulatory process.
    Moreover, our regulations were designed to avoid a contentious 
issue between tribal and state governments, by applying these 
regulations uniformly regardless of whether state-tribal compacts were 
in force. This rule received no critical comments and on August 1, 
1996, it went into effect largely as proposed.
    Our experience in dealing with casinos has taught us that non-
traditional financial services providers require special attention and 
also a creative, sometimes flexible, regulatory approach. That 
experience should serve us well as we deal with the challenge of 
upgrading BSA compliance and anti-money laundering controls in what 
we've come to call ``money services businesses.''
                              base funding
    There is funding outlined in the budget request which indicated 
that the base is fully funded.
    Question. Is your base fully funded?
    Answer. Funds requested are expected to enable FinCEN to maintain 
its current operating level. It must be noted, however, that FinCEN has 
received support from Treasury's Asset Forfeiture Fund to fully fund 
the costs of acquiring access to commercial databases and supporting 
the Gateway program which gives States on-line access to BSA and other 
data that can be used to support their investigations. If these funds 
were no longer available, full funding for these initiatives could not 
be absorbed into FinCEN's base. This would adversely affect FinCEN's 
ability to provide support to law enforcement.
    Question. How many positions (FTE) are unfilled?
    Answer. As of May 1997, FinCEN has 14 FTE positions unfilled.
    Question. What would it take to fill those positions?
    Answer. FinCEN is actively pursuing alternative ways to strike the 
proper balance between achieving the appropriate skill mix of 
personnel--with emphasis being placed on strong analytical abilities to 
carry out it's multi-faceted mission--and guarding against committing a 
disproportionate share of its resources to meet payroll costs.
    Question. Is the amount requested to maintain current levels 
accurate? What will all of this funding be applied to?
    Answer. Funds requested to maintain current levels ($420,000) are 
adequate to meet expected increases. Funding will be applied to pay 
annualizations, the expected pay raise, and the other services areas 
where increased costs are expected. This assumes that the requested 
$199,000 for a labor cost adjustment is also received.
    Question. When President Clinton took office he issued Executive 
Order 12837 that mandated the reduction of administrative costs, as 
well as personnel over a four year period. fiscal year 1997 was the 
last year of the Order, will you continue to maintain the mandated 
reductions in fiscal year 1998?
    Answer. Executive Order 12387 required a 3 percent reduction in 
administrative overhead based on fiscal year 1993 funding levels, taken 
in each of fiscal years 1994, 1995, and 1996, and a 5 percent cut in 
1997. FinCEN will maintain these efficiency reductions.
    Executive Order 12839 mandated a reduction of 6 FTE for FinCEN by 
fiscal year 1995. FinCEN met its new target of 147. However, in 1995, 
16 FTE were transferred from Treasury: 12 from the Office of Financial 
Enforcement, and four that FinCEN was funding through a reimbursable 
agreement. Additionally, FinCEN received 16 FTE from the Violent Crime 
Trust Fund which were made part of its base in fiscal year 1996. In 
fiscal year 1997, Congress authorized 2 FTE to be devoted to outreach 
efforts to the law enforcement community. FinCEN's current authorized 
FTE level is 181.
                                 ______
                                 
                Federal Law Enforcement Training Center
                              fiber optics
    Question. One of your fiscal year 1998 initiatives is funding for 
fiber optics to replace the existing underground telephone cable owned 
and maintained by Southern Bell. You have requested a total of 
$3,001,000 for this project, split between the Salaries and Expenses 
account and the Crime Bill funding. What is the total cost of this 
initiative? How long will this project take? Are there any potential 
environmental concerns at Glynco which could increase those costs?
    Answer. The total cost is estimated to be $7.5 million. It is 
anticipated that the project can be completed about one year after the 
funds are completely appropriated. At this time, there are no known 
environmental concerns that will affect this project and increase the 
estimated cost.
             temporary center at charleston, south carolina
    Question. Part of the rationale for establishing this temporary 
facility was that the FLETC was unable to commit the current resources 
to handle the expected influx of trainees. However, I am told that 
several INS and Border Patrol training classes have been canceled. With 
that in mind, would the FLETC have been able to handle the actual extra 
training without having to resort to the use of this temporary 
facility?
    Answer. No. While it is true that the Border Patrol has canceled 
several programs both at Charleston and Glynco, they hope to reschedule 
and make them up later in the year. Also, this was planned to be a 
three-year initiative. Therefore, the training could not have been 
conducted without the temporary site.
                          rural drug training
    Question. If the funding for the Rural Drug Training initiative is 
approved and the initiative is successful, would you expect that the 
FLETC would request a similar amount every year? What happens to this 
initiative when the Crime Bill is depleted?
    Answer. The Rural Drug Training initiative consists of ``train-the-
trainer'' programs; therefore, the FLETC will be training State and 
local agencies to conduct this training. Since this will take several 
years, it will be necessary to continue the funding. If the Crime Bill 
fund is depleted and the training has not been completed, the FLETC 
would request monies from the regular salaries and expenses 
appropriation.
                                 ______
                                 
                Bureau of Alcohol, Tobacco and Firearms
    Question. The President has requested $1.2 million for the ATF 
budget to maintain current IBIS (integrated ballistic identification 
system) sites, but no additional funding for new locations. We have 
received communications from several entities expressing support for 
sufficient funding to expand the IBIS program to new sites. Did you 
request funding for deployment of new IBIS systems in your original 
budget request to OMB?
    Answer. Yes, ATF's original budget request to OMB included new 
sites. The request of $5.7 million included approximately 4.5 million 
for costs associated with new sites and $1.2 million for costs to 
maintain the current systems.
    Question. I am a big proponent of the G.R.E.A.T Program--I believe 
that the only way we are going to steer young people away from gangs is 
through education. I understand that nine communities in Colorado have 
applied to participate in this program. What is the status of those 
applications?
    Answer. All nine cooperative agreements with the communities in 
Colorado will be in place by the end of June.
    Question. It was my understanding that the Violent Crime Reduction 
Trust Fund was designed to be used for one-time expenditures. Can you 
please explain to the subcommittee why you have requested funding for 
ongoing programs such as G.R.E.A.T and explosives inspections from the 
Trust Fund?
    Answer. The G.R.E.A.T and explosives inspections was initially 
funded under the Violent Crime Reduction Trust Fund. The Administration 
decided to continue to fund the G.R.E.A.T and explosives inspections 
from the Trust Fund.
    Question. In your prepared statement you say that ATF is 
contracting with the National Academy of Sciences to conduct the 
Smokeless and Black Powder Tagging Study as required by Congress. We 
are six months into fiscal year 1997. What is the status of that 
contract? What is taking so long?
    Answer. ATF and the National Academy of Sciences (NAS) have not yet 
agreed on a statement of work for this study due to the NAS position 
that it is unable to meet the statutory requirement that the smokeless 
and black powder study be completed by September of 1997.
    The Omnibus Consolidated Appropriations Act of 1997 mandates that 
the Secretary shall enter into a contract with the NAS to conduct a 
study of the tagging of smokeless and black powder by any viable 
technology for purposes of detection and identification. The law 
specifically requires that the study be presented to Congress no later 
than September 30, 1997. However, the NAS has consistently taken the 
position that it is not feasible to complete the study within the time 
frame specified by the law. Therefore NAS will not agree to a 
contractual statement of work that complies the statutory deadline no 
statement of work can be finalized.
    ATF does not have authority to extend the deadline imposed by 
statute for completion of the study on black and smokeless powders. 
Thus, we are unable to agree to the most recent NAS proposal which 
calls for completion of a study by August 31, 1998.
    ATF submitted its first draft statement of work to the NAS in 
December of 1996. This statement of work reiterated the requirements of 
the law, including the requirement that the study must be completed by 
September of 1997. On or about January 29, 1997, the NAS submitted 
their proposal to ATF, which called for a completion date of August 31, 
1998.
    On April 16, 1997, ATF met with the NAS and reiterated that the 
Bureau lacked the authority to extend the time for completion of the 
study beyond the statutory limit. On May 7, 1997, ATF requested that 
the NAS amend their proposal to complete the study by September of 
1997, or advise ATF in writing that they would not be able to perform 
the study as required. On May 16, 1997, the NAS submitted a revised 
proposal for the black and smokeless powder study. The revised proposal 
calls for the completion of the study by August 31, 1998. ATF has no 
authority to accept this completion date.
    Question. Can a credible study be conducted in the time remaining? 
Do you think that the statutory requirement that the report be 
presented to Congress 12 months after the date of enactment (which 
would be September 1997) should be extended?
    Answer. On February 4, 1997, the Chairman of the National Research 
Council submitted a letter to the Chairman of the Senate Committee on 
Appropriations, requesting an extension of the statutory deadline for 
the congressionally mandated study of the tagging of smokeless and 
black powder. The letter states that ``a longer timetable is necessary 
if [NAS] is to carry out a study that will provide the independent, 
scientifically credible, and objective assessment that is needed.''
    ATF is not involved in the actual conduct of the study; thus, 
questions concerning the time frame necessary to complete a credible 
study should be directed to the NAS.
    Answer. It is the position of the NAS that an extension is 
necessary so that they can carry out a study that will provide the 
independent, scientifically credible, and objective assessment that is 
needed.
    Question. There is widespread concern about the ability of the 
Federal Government to address the Year 2000 computer problem in time. 
What is the status of your efforts?
    Answer. I have appointed Mr. Patrick Schambach, Acting Assistant 
Director, Science and Information Technology, and Chief Information 
Officer, as the Year 2000 senior executive.
    An Integrated Program Team (IPT) is being formed to provide 
technical input and oversight for all Bureau Year 2000 issues. The IPT 
will report directly to Mr. Schambach. It will promote Bureau awareness 
and ensure that appropriate actions are taking place throughout the 
Bureau to correct or mitigate Year 2000 problems.
    Ms. Judith Walters, the Year 2000 Program Manager also serves as 
the IPT chairperson. She is the Bureau's single focal point for all 
Year 2000 information and actions. Ms. Walters reports to Mr. Schambach 
via Walter Scott, Chief, Information Services Division.
    The Bureau is working concurrently in the two areas, Information 
Technology (IT) and Non-Information Technology (Non-IT). These efforts 
are well underway.
Information Technology
    A Year 2000 contractor is on-site performing impact analysis of all 
Bureau application systems. This task will be completed in July 1997. 
Deliverables for this task include a Renovation Task Schedule and 
Renovation Plans for each Bureau system.
    A Conversion Plan is in place for the Renovation Task. This task 
will implement the designated impact analysis assessments to repair, 
retire, or replace systems. Year 2000 compliance testing will be 
performed on each Bureau system.
    We have an Enterprise System Architecture Plan in place that will 
ensure Year 2000 compliance for all IT equipment and operating 
software.
Non-Information Technology
    Identification and assessment of impacted classifications of Non-IT 
inventory and infrastructure are underway.
    The IPT will provide input into the development, staffing and 
execution of a Non-IT Vulnerability Assessment Plan and its execution.
    Our Acquisitions Division is working to create an interim measure 
for future impacted Non-IT acquisitions higher authorities provide 
policy and guidelines pertaining to Non-IT acquisitions. (No one has 
not yet addressed Year 2000 compliance for Non-IT acquisitions.)
    The current target date for Non-IT Vulnerability Assessment Plan 
execution completion is April 1998. Then, all classifications of 
impacted Non-IT equipment and facilities will have been identified for 
repair, retirement, replacement or other administrative protective 
action.
How big of a job is it for ATF?
    IT current estimates only include costs for application systems 
efforts. This figure now stands at $5,140,000 and 24.6 staff years. It 
includes full contract life cycle support through March 2000. We are 
currently gathering Year 2000 related costs for our ATF Enterprise 
Systems Architecture Project.
    Non-IT cost impacts will not be known until the Non-IT 
Vulnerability Assessment Plan is executed.
    Question. You have requested funding to expand the Canine 
Explosives Detection Program so that you can train up to 100 dogs per 
year. How many requests do you currently have on hand from state and 
local law enforcement entities for explosives-sniffing dogs?
    Answer. Since the inception of the Canine Explosives Detection 
Program (CEDP), ATF has received numerous inquiries and requests from 
State, local, and Federal agencies and foreign countries for 
information and training in our CEDP. ATF has always supplied as much 
information as possible to those agencies requesting information. It 
was not until fiscal year 1997 that ATF received any funding in our 
appropriations to expand and enhance its CEDP, which in turn is now 
allowing us to train canines for the State and local agencies who so 
desperately need it. ATF just recently started keeping records of 
requests for assistance and for formal training.
    Thus far in fiscal year 1997, ATF has received approximately 50 
unsolicited official requests from State and local agencies wanting 
information and applications for explosives detection canine training 
and approximately 40 official requests for accelerant detection canine 
training. ATF continues to receive daily inquiries and requests for 
information from interested law enforcement agencies/personnel across 
the United States.
    Most of the requests for canine training received are from law 
enforcement agencies who have heard about the success of our program by 
``word of mouth'' in the canine training community. Many of these 
agencies want our canines because of their ability to also detect 
weapons. ATF has not officially requested applications or advertised 
through any of the professional law enforcement journals (e.g., 
International Association of Arson Investigators, International 
Association of Bomb Technicians and Investigators, etc). Only during a 
few presentations this fiscal year has ATF informed the law enforcement 
community of the upcoming training available for State and local 
agencies.
    ATF has received additional inquiries from foreign governments for 
canine training. These inquiries are then directed to the Department of 
State, Bureau of Diplomatic Security, Office of Antiterrorism 
Assistance (DoS-ATA). ATF only trains canines for foreign countries 
that meet the criteria set by the DoS-ATA program. The DoS-ATA totally 
funds all training and expenses associated with the foreign classes. 
DOD-ATA also stated they would fund all of the classes we are able to 
train for them.
    Question. If funded, the proposed new National Laboratory Center 
would be completed in fiscal year 2000. Yet, you are requesting full 
funding to cover construction and relocation costs in the fiscal year 
1998 budget. What was the rationale for requesting full funding up 
front? Why didn't you request partial funding-spread that required 
appropriations over two or three years?
    Answer. Full funding was requested at the beginning of the project 
because GSA requires full funding before a construction contract can be 
issued. The $55 million requested in fiscal year 1998 is to be 
allocated for the construction of the facility only. According to GSA, 
they anticipate issuing a construction contract in fiscal year 1998 
with completion of the facility by the end of 2000.
    Question. Regarding the Youth Crime Gun Interdiction Initiative 
(YCGII), what is the expected time frame for the conclusion of this 
initiative?
    Answer. The YCGII established ATF, State, and local law enforcement 
partnerships in 17 pilot cities to target the illegal firearms market 
to juveniles and gang offenders; utilized ATF's National Tracing Center 
(NTC) and Project LEAD (ATF's illegal firearms trafficking information 
system) to provide investigative leads that identify illegal firearms 
traffickers involved in the transfer and or sale of firearms to 
juveniles; and will shortly publish a series of trace analysis reports 
that provide an overview of each site's crime gun problem based on 
crime gun traces provided by local law enforcement that will provide 
operational information about the illegal juvenile gun market.
    The YCGII originally was established as a 1 year pilot project with 
respect to field operations. The YCGII was launched by President 
Clinton, Vice President Al Gore, Treasury Secretary Robert Rubin, and 
Attorney General Janet Reno at the White House in July 1996.
    Question. Most Americans associate the Bureau of Alcohol, Tobacco, 
and Firearms with guns, forgetting the other ATF responsibilities. But, 
there are many ways in which ATF protects the American consumer. Would 
you care to comment on other, less well-known functions of the ATF.
    Answer. ATF has a leading regulatory role over alcohol, tobacco 
products, and explosives that raises significant revenue for the United 
States Treasury and protects the public and consumers in myriad ways.
    ATF collects almost $13 billion in excise tax revenues. At the same 
time, ATF oversees the production, importation and exportation, and 
labeling of alcohol beverages and tobacco products. Product integrity 
inspections and audits of these industry members are an essential part 
of protecting the revenue and the public. For example, in recent years,
    ATF has investigated incidents concerning lead levels and other 
contaminants in alcohol beverages. Likewise, ATF conducts background 
investigations on applications submitted by a person or business 
wanting to enter the alcohol and tobacco industries in order to ensure 
that only qualified applicants are approved in order to safeguard the 
revenue and protect the consumers.
    ATF regulates the labeling, advertising and unfair trade practice 
provisions that govern the alcohol beverage industry. ATF reviews and 
investigates labels and advertisements to prevent consumer deception. 
Approximately 60,000 labels are reviewed each year. ATF responds to 
consumer and industry complaints about labels or advertisements. In 
responding to the needs of consumers and the wine industry for accurate 
label information, ATF has established almost 150 viticultural areas 
where grapes are grown in the United States and has promulgated a 
definitive list of American grape varietal names. ATF reviews and 
approves new wine production practices and materials to help the 
American industry stay in the forefront of innovation while still 
protecting the consumer from being mislead or deceived about the 
product in the bottle.
    ATF assists the States and the industry in many ways. Under the 
contraband cigarette law, ATF investigates interstate shipments of 
cigarettes to ensure that the relevant State taxes are paid. ATF also 
works with the Joint Committee of the States on the Study of Alcohol 
Beverage laws to facilitate coordination between ATF and State alcohol 
authorities. Many tax information exchange agreements have been entered 
into by ATF with the States to assist in the audit of ATF regulated 
industries.
    ATF has a leading role in the international area by helping the 
United States Government to remove trade barriers that hinder exports 
by the American industries. ATF works closely with the United State 
Trade Representative in bi-lateral trade negotiations as well as in 
resolving distilled spirits and wine questions under the World Trade 
Organization obligations of the United States and under the North 
American Free Trade Agreement. ATF also represents the United States in 
international organizations related to these products.
    ATF relies on innovation, partnerships and open communications to 
achieve its goal of a regulatory and enforcement programs that ensures 
collection of the revenue that is due and responds to needs and demands 
of consumers and the various industries.
    Question. The United Nations International Study of Firearms 
regulations has been ongoing since 1995 under the guidance of U.N. 
Staff and a panel of experts. That group recently made recommendations 
to the Crime Commission to set out ways to regulate approaches to the 
civilian use of firearms among its Member States. I would be interested 
in knowing the ATF policy position concerning the following 
recommendations for global firearms regulations: (1) mandatory central 
registration and licensing of firearms and their owners, (2) mandatory 
regulations for firearms use, (3) mandatory safe storage and use 
regulations, (4) gun bans, (5) forfeiture programs, and (6) unnecessary 
regulatory burdens on industry.
    Answer. The position of the Administration is to better coordinate 
with other nations to combat International illegal firearms trafficking 
and the enforcement of existing laws. U.S. delegations are instructed 
to oppose vigorously any attempt to undermine our country's sovereign 
right to enact and enforce its own laws to combat illegal traffic of 
firearms by criminals and criminal organizations.
    It should be noted that although ATF participated in the United 
Nations International Study of Firearms, the Bureau did not participate 
in the recommendation phase of the study nor did it concur with those 
recommendations. It is ATF's position that in order to decrease the 
illegal flow of firearms to the criminal element worldwide a 
cooperative and organized effort by law enforcement agencies must be 
the key to accomplishing this goal. In this regard, the expenditures of 
enforcement energies can be best served at thwarting criminal 
activities without infringing on the rights of legitimate gun 
ownership. ATF is a neutral enforcer and regulator of the United States 
Federal firearms laws and that as an agency of the United States 
government, it does not endorse any firearms-related proposals that are 
contrary to U.S. law.
    Question. Congressman Schumer recently released a report entitled 
``The War Between the States.'' I understand that this report was based 
upon raw data supplied by ATF. Do you believe it is accurate or 
appropriate to use ATF raw data to draw conclusions about a pattern of 
interstate migration of illegal firearms from states with weak gun laws 
to states with strong gun laws? Do you think that the disclaimer 
attached to the raw data by ATF is sufficient to prevent misuse and 
misinterpretation of that raw data?
    Answer. Congressman Schumer's report was based upon his 
interpretation of raw data supplied by ATF's NTC. ATF provided this 
information to Congressman Schumer's office at their request along with 
a disclaimer that indicated what the data represents and the 
limitations of that data. Since firearms tracing information is 
available through the Freedom of Information Act, ATF can only advise 
the data requester about the limitations of the information. 
Additionally, ATF is not in a position where it can monitor or control 
the interpretation of firearms tracing data.
    It has been ATF's experience that the problem with statistical data 
from the NTC's records is in the percentage of crime guns that 
represent the universe of crime guns in a particular area. As long as 
the data is examined in the proper context, raw data can be utilized to 
draw conclusions about a pattern of interstate trafficking. Every year 
the number of crime guns traced by law enforcement increases. In 
calendar year 1996, there were approximately 134,000 crime guns trace 
requests. ATF expects the number of crime gun traces to increase as 
more agencies utilize the NTC's services. Once this occurs, the 
accuracy of conclusions based upon firearms tracing data will increase 
since more crime guns are being traced. Until that occurs, current 
conclusions drawn from crime gun trace data must be caveated by stating 
that the findings are based on a data set that does not represent the 
entire universe of crime guns; however, drawing findings from data 
sampling as opposed to the entire data universe is a widely accepted 
and valid practice among the research and academic community. 
Reasonably valid conclusions can be drawn from such data sampling 
methods.
    Question. What plans does the Department have to modernize and 
expand the business systems for ATF's Firearms and Explosives Import 
Branch and the National Firearms Act Branch? When was the last time 
these business systems were updated?
    Answer. Modernization of the business system within the National 
Firearms Act (NFA) Branch is currently underway. The newer version is 
being designed to accommodate state-of-art technology in the processing 
of applications, notices and other documents associated with the 
manufacture, importation, transfer, registration, transport and 
exportation of NFA weapons. This particular business system has been 
subject to ongoing enhancements since 1983.
                                 ______
                                 
                          U.S. Secret Service
                          white house security
    Question. The Service is requesting additional funding and staff to 
further implement White House Security Review recommendations. Has the 
review been completed?
    Answer. In September 1996, the Secret Service forwarded the final 
report to the Treasury Department concerning the White House Security 
Review.
    Question. When do you expect to begin implementation of the 
recommendations and when will it be complete?
    Answer. All of the recommendations of this review have been 
implemented. Permanent structural security changes, pending as yet 
undetermined requirements surrounding the establishment of 
``Presidential Park'', will be installed over the next two years. 
Further, It is anticipated that funding for all of the additional 
staffing and security enhancements will be sufficient with the funding 
requested in the fiscal year 1998 Budget Request.
    Question. Do you have any idea at this time what the total cost 
will be?
    Answer. The Service, with the funding contained in the fiscal year 
1998 funding request, will have budgeted approximately $70 million for 
this effort. Approximately $25 million of this amount is a continuing 
cost for the increased staffing. These are the total costs pending 
final decisions regarding the establishment of ``Presidential Park''.
                          year 2000 conversion
    Question. There is widespread concern about the ability of the 
Federal Government to address the Year 2000 computer problem in time. 
What is the status of your efforts?
    Answer. The Secret Service is making excellent progress converting 
our Information Technology assets to be Year 2000 compliant. We have 
already converted well over 50 percent of our mainframe/legacy code to 
be compliant, and we have active programs to correct problems 
associated with our personal computers, local area networks, and mid-
range systems. We are actively working with vendors and service 
providers to ensure that our communications infrastructure (both voice 
and data) will function properly.
    Question. How big of a job is it for the Secret Service?
    Answer. The Secret Service has an inventory of 31 mainframe/legacy 
applications. Our initial assessment identified sixteen applications 
that were non- compliant, thirteen of which are being corrected and 
three which will be replaced with new technology. The thirteen 
applications being corrected contain a total of approximately 2.5 
million lines of source code. The Service also maintains an inventory 
of approximately 4000 personal computer systems, most of which are non-
compliant and will need to be either corrected, upgraded, or replaced.
    Question. Have you determined whether the $1 million requested for 
fiscal year 1998 will be sufficient?
    Answer. The Secret Service has projected an overall cost for 
conversion of our information technology systems to be $3.6 million, 
including both government employees and contractor support. The $1 
million requested for fiscal year 1998 is sufficient to meet our 
contractor costs in fiscal year 1998. We also project costs in 
outyears, to cover such things as the expansion of date displays on 
reports, and other less critical or unexpected changes.
    The Service recently established a working group to specifically 
address ``non IT'' technology that could be impacted by the Year 2000. 
Until this working group has completed its inventory and assessment 
process, we cannot project the associated conversion cost.
                    financial crimes investigations
    Question. In the minds of most people, the Secret Service is 
basically responsible for protecting the President and Vice President. 
However, the Service protects all Americans in other ways such as 
cracking down on counterfeiting and investigating allegations and 
computer and telemarketing fraud. Would you care to comment on other, 
less well-known functions of the Secret Service?
    Answer. In addition to protection, the Secret Service is tasked 
with several investigative jurisdictions relating to protecting the 
public and financial institutions from organized criminal groups. The 
Financial Crimes Division of the Secret Service coordinates this 
mission and is responsible for the following:
    Plans, reviews, and coordinates criminal investigations involving 
Financial Systems Crimes, including bank fraud; access device fraud; 
telemarketing and telecommunications fraud (Cellular and hard wire); 
computer fraud; fraud associated with automated payment systems and 
teller machines; direct deposit fraud; investigations of forgery, 
uttering, alteration, false personation, or false claims involving U.S. 
Treasury Checks, U.S. Savings Bonds, U.S. Treasury Notes, Bonds, and 
Bills; electronic funds transfer (EFT) including Treasury disbursements 
and fraud within Treasury payment systems; fraud involving U.S. 
Department of Agriculture Food Coupons and Authority to Participate 
(ATP) cards; Federal Deposit Insurance Corporation investigations; Farm 
Credit Administration violations; fraud and related activity in 
connection with identification documents; fraudulent commercial, 
fictitious instruments and foreign securities; coordinates the 
activities of the U.S. Secret Service Organized Crimes Program and 
oversees money laundering investigations.
    Plans, directs and coordinates all seizures effected by the Secret 
Service under Title 18 U.S.C. 492, 981, 982 and 984, as well as Title 
49 U.S.C. 80303. Interacts with the Office of Chief Counsel to ensure 
compliance with requisite legal mandates. Routinely coordinates with 
the Treasury Executive Office for Asset Forfeiture (TEOAF) to ensure 
that all policy and procedure established by the Department of the 
Treasury are complied with. Oversees the responsibilities of the 
national storage contractor, EG&G Dynatrend, to ensure proper storage, 
maintenance, accountability and disposition of seized property. Directs 
the investigation of contesting parties' claims of pauper status, and 
the petitions of those seeking remission or mitigation of forfeitures. 
In partnership with the TEOAF oversees the sharing of assets with 
local, state, and foreign law enforcement agencies participating in 
joint criminal/forfeiture actions. Monitors legal and procedural case 
trends in the asset forfeiture community and the courts, and maintains 
appropriate liaison with other agency components in an effort to remain 
abreast of community practice.
 financial institution fraud (fif) and related criminal investigations
    On November 5, 1990, pursuant to Public Law 101-529, Section 528, 
the Secret Service received concurrent jurisdiction with Department of 
Justice law enforcement personnel ``to conduct or perform any kind of 
investigation, civil or criminal, related to fraud or other criminal or 
unlawful activity in or against any federally insured financial 
institution...''
     Annually, agents of the U.S. Secret Service review thousands of 
criminal referrals submitted by bank regulators and financial 
institutions. The Secret Service promotes an aggressive policy towards 
conducting these investigations in an effort to safeguard the soundness 
of the nation's financial institutions.
Major Initiatives:
    U.S. Secret Service has concurrent jurisdiction with the Department 
of Justice to investigate fraud, both civil and criminal, against 
federally insured financial institutions. The Crime Bill of 1994 
extended this investigative authority to the year 2004.
    The Service's financial institution fraud program distinguishes 
itself from other such programs by recognizing the need to balance 
traditional law enforcement operations with a program management 
approach designed to prevent recurring criminal activity.
    We are encountering new and developing criminal schemes which 
attack financial institutions, particularly those crimes being 
committed by organized ethnic criminal groups such as the West 
Africans, Asians and East Europeans.
    An American Bankers Association survey last year concluded that the 
two major problems in the area of bank fraud today are:
    (1) the fraudulent production of negotiable instruments through the 
use of what has become known as ``desk top publishing'' and
    (2) access device fraud.
    Recent U.S. Secret Service investigations indicate that there has 
been an increase in credit card fraud, fictitious document fraud and 
fraud involving the counterfeiting of corporate checks and other 
negotiable instruments and false identification documents through the 
use of computer technology.
    18 USC 514 was enacted into law in 1996 to prevent the increasing 
amount of fraud through the use of fictitious instruments. This law was 
passed through the joint efforts of Congress, Department of Justice and 
the Department of Treasury. The Service's Financial Crimes Division is 
responsible for the investigations of Title 18 USC 514 (Fictitious 
Instruments).
                          access device fraud
    Industry sources estimate that losses associated with credit card 
fraud are in the billions of dollars annually.
    The U.S. Secret Service is the primary Federal agency tasked with 
investigating access device fraud and its related activities under 
Title 18 USC 1029. Although it is commonly referred to as the credit 
card statute, this law also applies to other crimes involving access 
device numbers, (e.g., automatic teller machines, cell phone accounts.)
               counterfeit and fraudulent identification
    Since 1982, the U.S. Secret Service has enforced laws involving 
counterfeit and fraudulent identification. Title 18, Section 1028 of 
the U.S. Code, defines this criminal act as knowingly and without 
lawful authority producing, transferring, or possessing an 
identification document or false identification document in order to 
defraud the U.S. Government. The use of Desk-Top Publishing computers 
to counterfeit and produce different forms of identification for the 
purpose of obtaining funds illegally, remains one of the Secret 
Service's strongest core violations.
                            money laundering
    The Money Laundering Control Act makes it a crime to launder 
proceeds of certain criminal offenses called ``specified unlawful 
activities'' (SUA), which are defined in Title 18 USC 1956 and 1957, 
and in Title 18 USC 1961, (the Racketeer Influenced and Corrupt 
Organizations Act (RICO)).
    The Secret Service has observed an increase in money laundering 
activities as they relate to these predicate criminal offenses. This is 
especially witnessed in the area of financial institution fraud, access 
device fraud (credit card, telecommunications and computer 
investigations), food stamp fraud, and counterfeiting of U.S. currency.
                             computer fraud
    In 1986, Congress revised Title 18 of the U.S. Code to empower the 
Secret Service to investigate fraud and related activities concerning 
computers that were described as ``Federal Interest Computers'' as 
defined in Title 18 USC Section 1030. The Secret Service has also 
investigated cases where computer technology has been used in 
traditional Secret Service violations such as counterfeiting and the 
creation of false identification documents. In order to address these 
technologically advanced violations, a number of special agents of the 
U.S. Secret Service have been trained in the forensic examination of 
computer systems as well as other electronic devices.
    In 1996, a newly established state of the art computer and 
telecommunications laboratory was added to the Financial Crimes 
Division.
                        telecommunications fraud
    The Secret Service continues to maintain its role as one the most 
active law enforcement agencies in the investigation of 
telecommunications fraud. Gangs and organized criminal groups require 
instantaneous, reliable, and international connectivity in order to 
maintain and expand their illicit operations.
    The Secret Service works closely with other law enforcement 
agencies as well as representatives of the telecommunications industry 
in conducting telecommunications fraud investigations. These types of 
investigations, in many instances, act as a nexus to other criminal 
enterprises such as access device fraud, counterfeiting, money 
laundering, and trafficking in narcotics.
                      program fraud investigations
    The Program Fraud Investigations Branch was created to coordinate 
investigations related to fraud committed against government programs 
that are within the investigative jurisdiction of the Secret Service. 
This branch is responsible for identifying systemic weaknesses in 
government programs (Electronic Benefit Transfer, food stamps) which 
permit recurring criminal activity, and recommend corrective measures 
to strengthen these systems.
                                forgery
    Hundreds of millions of government checks and bonds are issued by 
the United States each year. This large number attracts criminals who 
specialize in stealing and forging checks/bonds from mail boxes in 
apartment houses and private homes. During a fraudulent transaction, a 
check/bond thief usually forges the payee's signature and presents 
false identification.
         operation trip (treasury recipient integrity program)
    In March 1994, the Secret Service established ``Operation TRIP,'' 
which was created to identify systemic weaknesses in the Treasury 
Department's disbursement systems and to subsequently suppress the 
associated fraudulent activities involving these systems worldwide. In 
a cooperative effort with other government agencies, the Financial 
Crimes Division has assisted in establishing uniform standards of 
benefit recipient verification, developed anti-fraud disbursement 
procedures, identified weaknesses in current verification systems and 
proposed acceptable alternatives to eliminate program fraud in this 
country and abroad.
    To date, the Financial Crimes Division has assisted in Operation 
TRIP efforts in Manila, Canada, Guam, Puerto Rico, Spain, Italy, 
Germany, Japan, Korea and United Kingdom.
                          food stamp violation
    The Food Stamp Act of 1977 was enacted by Congress to provide 
nutritional food to low- income families. It further directed the 
Secret Service to aggressively pursue fraud in the food stamp program. 
The possession or use of Food Stamp Coupons, Authorization to 
Participate cards, or Electronic Benefit Transfer cards by unauthorized 
persons compromises the integrity of the Food Stamp Program, and is a 
criminal violation of the Food Stamp Act.
                electronic benefits transfer (ebt) card
    The Vice President's National Performance Review has designated the 
Electronic Benefits Transfer (EBT) card as the method of payment for 
the delivery of recurring government cash benefit payments to 
individuals without a bank account, and for the delivery of non-cash 
benefits such as Food Stamps. For individuals with bank accounts, 
Electronic Funds Transfer will continue as the preferred method of 
making federal benefit payments. The National Performance Review has 
created the Federal EBT Task Force to design and implement the new 
nationwide program, a program which will annually deliver over $111 
billion in benefits from government agencies such as the Departments of 
Agriculture, Health and Human Services, and Veterans Affairs, the 
Office of Personnel Management, and the Railroad Retirement Board.
    The Federal EBT Task Force is attempting to design a system that 
will piggyback on the existing commercial credit/debit card 
infrastructure. The task force has proposed that EBT payment services 
be provided by financial institutions designated as financial agents of 
the government. The new EBT card will be an on-line debit system with 
benefits periodically placed in a customer's account. Customers will 
use their cards to retrieve the cash benefits from automated teller 
machines and food benefits from Point of Sale terminals at 
participating retail stores.
    The Financial Crimes Division is taking a preventive approach and 
is recommending fraud deterrent features to this new system as it is 
designed.
    As with any recurring payment system, EBT is open to a wide variety 
of fraud, including: multiple false applications for benefits, 
counterfeiting of the EBT card, and trafficking in non-cash benefits 
for cash or contraband.
    In an attempt to combat these potential attacks, the Financial 
Crimes Division has suggested the use of: biometric identifiers to 
verify applicants' identities and prevent application fraud; 
counterfeit deterrents such as four color graphics and fine line 
printing and the use of holograms and embossing in the design of the 
card; and features that allow investigators to monitor transactions and 
utilize the audit trail to identify criminals who illegally traffic in 
food benefits.
    Although the new EBT system design is still evolving, it can be 
assured that criminals with expertise in credit/debit card fraud will 
attack a program of this magnitude. Fraud associated with EBT programs 
is a violation of two of the Secret Service's primary jurisdictions; 
Title 18, USC 1029, Access Device Fraud and Title 18 USC 1030, Computer 
Fraud.
             nigerian advance fee fraud ``operation 4-1-9''
    The U.S. Secret Service has initiated ``Operation 419'' which is 
designed to target Nigerian Advance Fee Fraud on an international 
scale. Indications are that losses attributed to advance fee fraud are 
in the hundreds of millions of dollars annually. Agents on temporary 
assignment to the American Embassy in Lagos, in conjunction with the 
Regional Security Office, supplied information in the form of 
investigative leads to the Federal Investigation and Intelligence 
Bureau (FIIB) of the Nigerian National Police. This project was 
designed to provide Nigerian law enforcement officials with 
investigative leads to enable them to enforce their own jurisdictional 
venues.
    On July 2, 1996, officials of the FIIB, accompanied by Secret 
Service agents in an observer/advisor role, executed search warrants on 
sixteen locations in Lagos, resulting in the arrests of forty-three 
Nigerian nationals. Evidence seized included telephones and facsimile 
machines, government and Central Bank of Nigeria letterhead paper, 
international business directories, scam letters and addressed 
envelopes, as well as files containing correspondence from victims 
throughout the world.
    On July 25, 1996, two of these agents received awards from the 
Secretary of the Treasury for their work in this area over the last two 
years.
                              task forces
    The Secret Service is involved in numerous task forces with 
Federal, state, county, city, and local law enforcement agencies 
nationwide. Several of these task forces specifically target 
international organized crime groups and the proceeds of their criminal 
enterprises. All assets forfeited are shared with members of the task 
forces. Congress continues to recognize the West Africans and Asians as 
two of the emerging organized criminal groups in this country.
    These groups are not only involved in financial crimes, but 
investigations indicate that the proceeds obtained from financial fraud 
are being diverted towards other criminal enterprise. During fiscal 
year 1996, the Secret Service arrested 2,843 individuals through the 
use of task force operations. The Secret Service is involved in the 
following task forces that specifically target these groups:
        Nigerian Task Forces
        Criminal Alien Task Forces
        Financial Crimes Task Forces
        Asian Organized Crime Task Forces
        Violent Crimes Task Forces
        HIDTAs (High Intensity Drug Trafficking Areas)
        INTERPOL
        IBFWG (Interagency Bank Fraud Working Group)
        CABINET (Combined Agency Border Intelligence Network)
                     asset seizures and forfeitures
    Provides assistance to investigative offices by supplying counsel, 
direction, expertise and temporary support personnel as needed in terms 
of criminal investigations and the seizure and forfeiture of assets.
Major Initiatives:
    Continued emphasis on forfeiture actions involving program fraud 
(e.g. food stamp fraud and Medicare fraud). This emphasis is 
underscored by specialized training of both Asset Forfeiture Division 
and field personnel, and active involvement in these investigations 
from onset to criminal prosecution.
    Continued funding of task forces which have prioritized the use of 
asset forfeiture as a significant criminal deterrent.
    Continuation of an aggressive training program to enhance the 
quality and quantity of Secret Service seizures involving fraud and 
money laundering. Continued training of field investigators and support 
components, emphasizing basic asset forfeiture skills, and providing 
skill enhancement to those already possessing a basic knowledge of the 
program.
    As a funding source for the Service, allocates monies for the 
purchase of items having intrinsic law enforcement benefit and which 
perpetuate forfeiture investigations. Such items include vehicles, 
communications systems, law enforcement/forensic technologies, and the 
purchase of evidence/information.
    Coordination of the distribution of forfeited property requested 
for official use by Secret Service field offices, as well as other 
federal, state, and local law enforcement agencies participating in 
joint investigations resulting in the seizure and forfeiture of assets.
                                training
    The Financial Crimes Division has become involved in the training 
of foreign law enforcement officials in the areas of investigative 
techniques, types of international fraud schemes, and identification of 
systemic weaknesses in their financial systems which lead to fraudulent 
activity. The Financial Crimes Division has provided training for over 
2,000 foreign law enforcement and banking officials from the following 
countries: Latvia, Russia, Japan, Slovenia, Cyprus, Ukraine, Pakistan, 
Australia, Hong Kong, Peru, Korea, France, Aruba, South Africa, Mexico 
and Spain.
                  the economic impact to u.s. citizens
    As stated, the Secret Service recognizes that only through 
partnerships with the community, financial systems, and international 
law enforcement can an effective strategy to thwart organized financial 
crime be successful. In fiscal year 1996, the actual losses associated 
with Secret Service financial crime investigations was approximately 
$500 million. Were it not for the intervention of the Secret Service in 
identifying and arresting criminals executing these schemes, the 
industry estimated that in excess of $10 billion in ``potential 
losses'' would have occurred. These figures demonstrate the requirement 
for an innovative, flexible, coordinated law enforcement strategy 
designed to adapt to the criminal schemes of the future.
    Question. One of your other functions is financial crime 
investigations. How does your responsibility dove-tail with those of 
the Financial Crimes Enforcement Network, FinCEN?
    Answer. The Secret Service has responsibility for conducting 
investigations relating to fraud committed against federally insured 
financial institutions and systems. Federally insured financial 
institutions are required to file Suspicious Activity Reports (SARs) 
when a crime or suspected crime is committed against or through their 
institutions. The SARs are filed with FinCEN and the Secret Service 
receives the SARs through FinCEN. The SARS are filed as a result of our 
financial crime investigations and are also used to initiate 
investigations.
    Due to our unique jurisdictional responsibilities we have access to 
many of the databases which FinCEN maintains. These databases allow us 
instant access to information, and we utilize these resources prior to 
tasking FinCEN to conduct similar inquiries. Many of the agencies which 
utilize FinCEN do not possess these databases and must use FinCEN.
    FinCEN is also a repository for Bank Secrecy Act (BSA) information 
which is often used in our financial crime and money laundering 
investigations.
    The Secret Service maintains a good working relationship with 
FinCEN and is currently working with them on the SARs to create a 
database which can be utilized by all of the pertinent law enforcement 
bureaus.
                                 ______
                                 
                          U.S. Customs Service
                             drug smuggling
    I would like to take the time to recognize in fiscal year 1996 the 
Customs Service was responsible for seizing 1 million pounds of 
narcotics, more than any other federal agency. Unfortunately, as the 
Customs Service gets better at doing its fight against drugs, the drug 
traffickers get better at smuggling across our borders.
    Question. Commissioner Weise, your submitted testimony mentioned 
intelligence as being a key objective for the Customs Service, can you 
explain the types of intelligence information you're talking about?
    Answer. With the enormous volume of activity taking place at all 
ports of entry it is imperative that Customs applies its resources most 
effectively and targets those persons or conveyances that present a 
high risk of smuggling contraband into the United States. Just like any 
other law enforcement agency, Customs develops its own intelligence 
from investigations and informants. This intelligence is specific to 
Customs border drug interdiction mission and focuses on specific 
tactical intelligence that is needed to target high risk modes of 
conveyances, traffickers and smuggling methods. In addition, Customs 
depends on the Intelligence Community and other U.S. Federal law 
enforcement agencies to provide the much needed foreign based 
intelligence that is specific to Customs collection requirements. While 
efforts of these organizations meet some of Customs requirements there 
is still a need to develop and exploit targeting intelligence that is 
specific and unique to Customs. That is why Customs established a 
series of Intelligence Collection and Analysis Teams (ICATs) along the 
Southwest border whose core responsibilities are to collect all-source 
intelligence, intensify source and informant recruiting, analyze data, 
and disseminate tactical intelligence products to line officers. The 
ICATs have been very successful in their year and a half existence and 
have contributed to the seizure of over 16,550 pounds of cocaine, 
37,214 pounds of marijuana and over $4.3 million in currency.
    Question. Can you highlight for the subcommittee the Customs 
Service's most effective tools in catching drug smugglers at the ports 
of entry?
    Answer. With the deep concealment methods that are being utilized 
by smugglers, the technologies that allow us to perform non-intrusive 
examinations have proven to be a tremendous asset. Such technologies 
include the following:
  --Large scale truck x-ray system
  --Mobile truck x-ray system (prototype system in testing)
  --Transportable gamma-ray imaging system (prototype system in 
        testing)
  --X-ray vans and Pallet x-ray machines.
    In addition to the gamma/x-ray systems listed above, the following 
tools have been successfully utilized by inspectional personnel to 
detect narcotics:
  --Busters (density detection devices)
  --Laser Range Finders
  --Contraband Detection Kits (CDK's) with Fiberscopes
    Please see the attached material on Customs applied technology for 
explanations of these devices.

    [Clerk's note.--The photos of Customs applied technology do not 
appear in the hearing record but are available for review in the 
subcommittee's files.]

    While the above represents some of the most advanced technologies 
to date, one of the most effective tools in combating narcotic 
smuggling is the utilization of canines. Narcotic detection dogs have 
proven to be one of the most cost effective tools used in the fight 
against smugglers.
    One must also realize that, prior to using any of the above tools, 
the most significant factor in making seizures is the ability to target 
effectively. Sound research coupled with Officer intuition is the base 
on which meaningful enforcement is built. The most advanced 
technologies used on poor targets will yield poor results. But when the 
proper tools are put at the disposal of a well trained, well informed 
officer, the result is a well equipped individual capable of combating 
the narcotics smuggler.
    A Rocky Mountain HIDTA was created in fiscal year 1997, which is an 
entity created to coordinate drug enforcement efforts at the state and 
local level.
    Question. Can you tell me how the HIDTAs are assisting the Customs 
Service in its work at the port of entry?
    Answer. The High Intensity Drug Trafficking Areas (HIDTAs) enable 
Federal, State and local law enforcement agencies to marshal the 
efforts of manpower and assets with the consolidated mission of 
disrupting and dismantling international drug smuggling organizations 
operating in their specific HIDTA location. This is accomplished by 
collectively investigating and arresting suspects, seizing their assets 
and dismantling their hierarchy. The intelligence gathered as a result 
of the HIDTA investigations regarding smuggling methods, routes and 
techniques is in turn provided to those border interdiction agencies 
such as Customs and the Border Patrol.
    Customs inspectional personnel conducting narcotics enforcement 
operations at the Ports of Entry are faced with enormous volumes of 
cargo and passengers entering the United States. Inspectors focus their 
attention on the ever changing trends and concealment methods employed 
by the smuggling organizations. The intelligence provided as a result 
of the HIDTA investigations assist Customs Inspectors to identify and 
target vehicles, pedestrians and specific cargo shipments.
                           border corruption
    Commissioner Weise, there have been numerous articles on the 
apparent corruption of Customs agents and inspectors, primarily along 
the Southwest border. And of course, it's the scandal that sells papers 
in this town, so unfortunately the actions of a small number of corrupt 
people get more attention. The Customs Service has responded not only 
with requesting an FBI investigation, but also in proposing to fund 
relocations of Customs agents.
    Question. Under this program of agent relocation, would the agents 
be transferred voluntarily or involuntarily?
    Answer. The Office of Investigations does not currently have a 
system to rotate personnel off the Southwest Border. Personnel assigned 
to the Southwest Border must apply and are relocated based upon merit 
staffing practices. They can be reassigned on a voluntary or 
involuntary basis, dependent upon Customs needs. Customs seeks to fill 
all assignments with volunteers where possible. However, if sufficient 
volunteers cannot be found, personnel may be relocated to meet the 
threat.
    Question. Would these transfers be focused on particular 
individuals thought to be susceptible to corruption or would this be a 
random transfer program in high-threat drug zones?
    Answer. Were Customs to establish a formal rotational policy on the 
border, the policy would require employee rotation on a systematic 
basis after the completion of a border tour. A systematic relocation 
policy would be based upon law enforcement threat. This would enable 
Customs to effectively maintain its border presence and systemically 
rotate personnel off the border to a new duty station. A new agent 
would be assigned to the border location. Of course, the establishment 
of a formal rotation policy on the border so that our personnel could 
be systemically rotated would require that Customs be provided the 
additional funding required to implement the policy. This has been a 
problem previously when attempts to establish a formal rotation program 
failed due to a lack of resources. Currently, Customs estimates that 
the average cost to relocate one employee agent is $60,000. These 
expenditures would have to be allocated to Customs before the agency 
personnel could be rotated on and off the border upon completion of a 
tour of duty.
    Question. Could you outline for the subcommittee what type of 
person would the Customs Service look to transfer?
    Answer. Customs could transfer agent personnel on an systematic 
basis since all agents are subject to mobility reassignment as a 
condition of employment. While recognizing the funding requirements, If 
properly funded, it would be better to systematically rotate personnel 
onto and off the border. If funded, a systematic approach to agent 
relocations would be the best way to assist in the elimination of 
perceived corruption on the border. A systematic approach to rotation 
in hard-to-fill border locations would also enhance recruitment of 
highly qualified personnel and would enhance morale on the border.
    Question. If someone was identified as being potentially influenced 
by drug smugglers, why would Customs just transfer them instead of 
separating them from the Customs Service?
    Answer. The term ``influenced'' is somewhat ambiguous. 
Understanding the underlying meaning of the question however, an 
employee suspected of wrong doing would be subject to investigation. If 
this investigation could prove by a preponderance of the evidence (the 
standard used by the Merit Systems Protection Board (MSPB)) the 
employee in question would be subject to disciplinary actions including 
separation. In the case of special agents, Customs has the ability to 
relocate these employees for a variety of reasons, including concern 
over conflicts of interest or public perception of same.
                             current issues
    At the direction of Congress, the GAO has conducted an initial 
survey of the Customs' computer modernization program called ACE, or 
Automated Commercial Environment.
    Question. What did the Customs Service request for the ACE program 
in fiscal year 1998 and under which accounts are the funds requested?
    Answer. The President's fiscal year 1998 Budget contains $15 
million for ACE as part of the Treasury Department's Automation 
Enhancement Appropriation. As was done in fiscal year 1997, these funds 
will be transferred to Customs in the Salaries and Expenses Account.
    Question. What is the ACE request amount based on?
    Answer. The ACE budget request for fiscal year 1998 is $15 million, 
which is the annual recurrence of the amount requested in Customs 
fiscal year 1995 ACE budget initiative. That initiative assumed a 
multi-year approach for developing ACE, with the annual budgets 
directed toward the segments of the system development life cycle 
occurring during those years. Having completed the strategic planning 
and user requirements for ACE in fiscal year 1995, and the functional 
requirements and internal prototyping in fiscal year 1996, Customs is 
now engaged in developing the first operational demonstration of ACE 
which will be implemented as the National Customs Automation Program 
(NCAP) prototype beginning at the end of fiscal year 1997. Based on 
this progress and the recently updated ACE Project Plan, we have 
developed a detailed budget plan for fiscal year 1998.
    Rather than a single ``switch on'' of the new system, ACE will be 
implemented in a series of ``releases'', each comprising a set of 
automated features, and deployed to selected Customs ports and segments 
of the trade community. This is the only effective way to implement a 
system of this size and manage the inherent risk appropriately, 
especially when transitioning from a legacy system (ACS) that has been 
in operation for 13 years supporting Customs and the trade community. 
The NCAP prototype will be the first such release, followed by four 
more major releases staged in 9-12 month cycles. Each release will 
actually be deployed as a series of sub-releases 2 to 4 months apart. 
The current ACE Project Plan describes, in detail, the schedule for the 
NCAP prototype and the first major release of ACE. This plan is the 
basis for the fiscal year 1998 ACE budget.
    For fiscal year 1998, Customs plans to complete the implementation 
of the NCAP prototype (by June 1998) and develop the first sub-releases 
of Release 1 which will deployed in the beginning of fiscal year 1999. 
Customs also plans to expand the deployment of the Trend Analysis 
Platform (TAP) and ACE data warehouse, which are analytical systems 
that support field users of both ACE and the current legacy system 
(ACS). Planned activities for fiscal year 1998 that are supported by 
the ACE budget are (in $000s):

                                                                 Dollars
        Project component                                   in thousands
Continuing definition and analysis of requirements................$2,800
User training and outreach........................................   950
Design, programming and testing................................... 3,700
Project management................................................   400
Security planning and design......................................   450
Team support......................................................   840
TAP and data warehouse development/expansion...................... 1,750
Database design/administration....................................   360
Selectivity redesign project...................................... 2,750
ACE field equipment deployment.................................... 1,000
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................15,000

    The NCAP prototype which will be deployed during fiscal year 1998 
and which is the primary product delivered with the fiscal year 1998 
funding will have the following scope:
  --it will process truck cargo arrivals at the ports of Laredo, TX, 
        Detroit, MI, and Port Huron, MI;
  --based on responses to a recent Federal Register notice announcing 
        the prototype, there will most likely be five major importers 
        participating;
  --the prototype will implement three of the key automated features 
        from the NCAP portion of the Mod Act--reconciliation, remote 
        filing, and periodic filing.
  --NCAP will include a national, periodic financial statement with 
        automated payment and an accounts receivable subsidiary ledger 
        (required by the CFO Act);
  --it will demonstrate the streamlined ACE ``Track 4'' process for 
        releasing cargo with minimal information burden on the trade 
        participants; and,
  --it will demonstrate an account-based approach to improving 
        compliance and tracking compliance related activities.
    The first sub-releases of Release 1, which will be developed during 
the last half of fiscal year 1998 and deployed in early fiscal year 
1999, will expand the NCAP prototype functions to rail cargo and will 
also implement the ``Track 2'' and ``Track 3'' approaches for handling 
required trade data. fiscal year 1998 will also include the expanded 
deployment of the initial NCAP prototype functions to an additional six 
land border ports: Buffalo, Blaine, El Paso, Nogales, Champlain, and 
Eagle Pass.
    Question. How significant of a threat do Customs Service personnel 
face with weapons of mass destruction and precursor chemicals?
    Answer. There is a small yet significant threat to Customs Service 
personnel posed by the illegal export or import of weapons of mass 
destruction or their components. This is supported by threat 
assessments that have been conducted by the Intelligence Community and 
by the results of a pilot program conducted by the Customs Service and 
the Department of Energy, relative to the detection of radioactive 
isotopes at several large international airports in the United States.
    Conversely, the threat to Customs Service personnel posed by the 
illegal trafficking of precursor chemicals remains high. The attempts 
at either importing or exporting illegal precursor chemicals poses a 
very serious threat to Customs Service personnel stationed at the 
various border inspection facilities throughout the U.S. This was 
evident in a recent incident on the Canadian Border where Customs 
Service personnel intercepted a large quantity of un-manifested 
precursor chemicals used to clandestinely manufacture Methamphetamine. 
These precursors were in a tractor trailer rig loaded with commercial 
merchandise destined for the U.S. Although this seizure and arrest was 
effected without injury or contamination of the Customs personnel 
involved, the potential for injury or contamination, when dealing with 
un-manifested precursors, is extremely high.
    Question. There is a presence of the National Guard at ports of 
entry. Can you describe what the role of the Guard is at ports of entry 
and the percentage of the Customs' workload the Guard is a part of?
    Answer. National Guard support for our drug interdiction mission 
has become an integral part of Customs anti-smuggling efforts.
    Some of the specific ways the National Guardsmen assist Customs 
personnel include the following:
    National Guard personnel assist Customs Canine units by 
facilitating rapid searches of cargo, baggage, and conveyances.
    Operating under State authority and under direct Customs 
supervision, they assist in conducting pre-primary inspections, 
Southwest Border Team Oriented Processing (STOP) operations, inspecting 
truck cabs, fuel tanks, tires, trailers and arriving cargo using 
density meters (Busters), laser range finders, fiber optic scopes, as 
well as forklifts, power tools, and vehicle lifts.
    They assist in the devanning and reloading of cargo containers, 
trailers and commercial shipments.
    They assist in traffic control and the handling, transportation, 
and destruction of seized narcotics.
    They assist inspectional personnel by operating many high 
technology, non-intrusive detection devices such as mobile and 
permanent x-ray systems and hand-held density meters.
    The assistance provided by the National Guard in counter-drug law 
enforcement has been invaluable and is directly responsible for Customs 
achieving many drug seizures and related arrests. In the commercial 
cargo environment in fiscal year 1997 to date, members of the National 
Guard operating at the ports of entry in the United States participated 
and provided support in 89 narcotics seizures totaling over 75,000 
pounds of marijuana and cocaine.
    As a force multiplier, Guardsmen supplement existing staff thereby 
increasing the number of examinations, and more importantly, increasing 
the intensity of these exams. National Guard support proportionally 
increases the number of seizures made by Customs by increasing the 
number of inspections conducted on high risk shipments and conveyances. 
The added staff also decreases the inspection time per shipment and 
conveyance.
    Question. How does the Customs Service use technology to assist in 
its mission?
    Answer. Technological improvements in computer processing and 
targeting along with inspectional aids like the x-ray facility in Otay 
Mesa, California have helped us with the challenge of combating 
narcotics smugglers.
    Due to the fact that drug traffickers are themselves investing in 
high technology to advantage their own smuggling operations and defeat 
ours, Customs employees have been equipped with better tools to perform 
more intensive narcotics exams and investigations. Along the Southwest 
Border for example, port infrastructures have been fortified to include 
four additional nonintrusive truck x-ray systems in fiscal year 1997. 
The following ports of entry have been scheduled to receive fixed site 
(Otay Mesa style) truck x-ray equipment:
  --Calexico, California (new cargo facility)
  --El Paso, Texas (Bridge of the Americas)
  --El Paso, Texas (Ysleta)
  --Pharr, Texas
    The truck x-ray at Calexico, California, has been completed and has 
been operational since March of this year. The additional nonintrusive 
inspection systems for El Paso and Pharr are scheduled to be 
operational by October 1997. This will increase the number of 
operational fixed-site x-ray equipment from a current level of one 
system operating in Otay Mesa, California, to a total of five systems 
at the above referenced ports of entry.
    Additionally, Customs is testing mobile x-ray and transportable 
gamma ray technology at various ports of entry along the Southwest 
Border. A mobile-truck x-ray prototype system was used at the Nogales, 
Arizona, port of entry in support of an all inclusive statewide 
enforcement operation. This system is scheduled move to various Texas 
ports of entry this year in support of Customs coordinated enforcement/
intelligence operations planned for that region.
    Seizures in the commercial cargo environment in fiscal year 1996 
more than doubled over fiscal year 1995 levels. This dramatic increase 
was largely due to the implementation of technology and inspection 
techniques in support of enforcement operations along the Southwest 
Border, especially Operation Hard Line. The amount of cocaine seized by 
weight in the commercial cargo environment along the Southwest Border 
increased by a factor of almost 5 over fiscal year 1995 levels to a 
total of 15 cocaine seizures weighing 15,114 pounds.
    In addition, as part of Operation Hard Line, money has also been 
allocated to purchase equipment such as pallet x-rays, x-ray vans, 
portable contraband detectors (Busters), fiberscopes, and computers to 
allow inspectional personnel to conduct faster, more intensive, less 
intrusive examinations.
    Customs has numerous automated and non-automated cargo programs in 
place to meet the threat of smuggling. Customs automated systems were 
structured to be dynamic and versatile to address the fluctuation in 
smuggling trends, with the ultimate goal of identifying high risk cargo 
for examination without inhibiting the movement of legitimate trade. 
These programs include the Cargo Selectivity System and Three Tier 
Targeting System within our Automated Commercial System (ACS) and the 
Line Release Program. System criteria may be initiated at both the 
national and local level.
    Customs has also developed an Automated Targeting System (ATS) to 
assist Customs officers in identifying importations which pose a 
substantial risk of containing narcotics or other contraband. It is a 
rule-based expert system which combined the best features of two 
previous targeting systems into a single screening, profiling and 
targeting system. ATS has been installed in Newark, New Jersey, and 
Laredo, Texas. The Anti- Smuggling Initiative in the fiscal year 1998 
budget request seeks $3.0 million to continue the installation of this 
system at other high-risk ports.
    With the passing and implementation of NAFTA there has been a 
relaxing of traditional trade restriction with the US, Mexico, and 
Canada.
    Question. Can you explain NAFTA's impact on the Customs Service, 
including workload?
    Answer. While the goal of NAFTA to reduce trade barriers between 
the parties has been somewhat realized, the passage of NAFTA has not 
reduced the regulatory and enforcement workload of Customs. NAFTA has 
increased Customs workload primarily in two ways. Quantitatively, trade 
volume with Canada and Mexico has increased markedly since the 
enactment of NAFTA. The table below shows this growth.

                          [Dollars in billions]                         
------------------------------------------------------------------------
                                       1994         1995         1996   
------------------------------------------------------------------------
Value of Trade between the U.S.,                                        
 Canada and Mexico...............       $172.2       $206.6       $230.7
Change from previous Year                                               
 (percent).......................  ...........           20           12
Change from 1994 Baseline                                               
 (percent).......................  ...........           20           34
------------------------------------------------------------------------

    Land border traffic has increased approximately 25 percent from 
1995 to 1996. In 1996 approximately 3.5 million trucks crossed our land 
borders with Customs inspecting over 900,000. Customs must process this 
increasing trade volume without significant increases in staffing.
    Qualitatively, NAFTA has added additional complexity and regulatory 
activity to Customs workload because of the verification mechanism 
provided for in the agreement. A NAFTA verification is performed by the 
importing nation's customs administration to determine if goods 
claiming NAFTA preferential treatment qualify for this treatment. 
Verifications are principally conducted by written questionnaires and 
site visits. Customs sends questionnaires to the importer/producer who 
executed a Certificate of Origin or conducts a visit to the exporting 
country to ensure compliance with the appropriate ``rule of origin.'' 
The procedures for these verifications are found in 19 CFR 181.71-76. 
The table below provides detail on the number of verifications Customs 
has performed to date.

----------------------------------------------------------------------------------------------------------------
                                                                              Actual                            
                NAFTA Verifications Performed                --------------------------------------- To date \1\
                                                                  1994         1995         1996         1997   
----------------------------------------------------------------------------------------------------------------
Canada......................................................          271          882        1,807          241
Mexico......................................................          128          411          646          109
                                                             ---------------------------------------------------
      Total.................................................          399        1,293        2,453          350
----------------------------------------------------------------------------------------------------------------
\1\ As of 5/15/97.                                                                                              

    Additional complexities result from the opportunity for importers 
to file for NAFTA treatment up to a year after date of importation if 
an entry has not been liquidated. This requires Customs to research 
entry documentation and perform additional verifications in order to 
determine whether any refund is due the importer (see 19 CFR 181.31). 
This provision is being used by an increasing number of importers as 
they become more experienced in operations under NAFTA.
    The NAFTA Implementation Act includes a provision for establishing 
an academic center to focus on Western Hemispheric Trade.
    Question. It is the subcommittee's understanding that there was 
$2.5 million for the Texas center and $2.5 million for the Montana 
center. Can you provide for the Record the status of the funding of 
each of these centers?
    Answer. Customs fiscal year 1997 Appropriation (Public Law 104-208) 
contained the following provision: ``. . . That of the funds 
appropriated $2,500,000 may be made available for the Western 
Hemisphere Trade Center authorized by Public Law 103-182''. The 
Conference Report (Rep 104-863) to that legislation contained language 
stating that the conference agreement provided $2.5 million for the 
Western Hemispheric Trade Center.
    Customs has no knowledge of any requirement to provide $2.5 million 
in fiscal year 1997 to the Montana center.
    Question. If the funding has not been allocated to the centers, 
please provide the subcommittee information why the funding has not 
been allocated and what would need to be done in order for that funding 
to be allocated.
    Answer. As of May 14, 1997, Customs is awaiting the submission of a 
budget proposal detailing how the funds would be spent from the Center 
at Texas A&M University. Once the Customs Contracting Officer approves 
the budget plan, the funds will be provided to the Center, via a 
modification to their current grant agreement, within 30 days.
                           air/marine program
    The Customs Service Air and Marine program is responsible for 
helping to detect, sort, track, and apprehend aircraft and vessels 
involved in smuggling.
    Question. What are the current staffing levels of both the Air and 
Marine program?
    Answer. The current Customs Air Interdiction Division has a total 
on board strength of 740 as shown below.

                  Current Staffing--Customs Air Program

                                                               Number of
        Job category                                           personnel
Pilots and Flight Engineers.......................................   322
Air Interdiction Officers.........................................   109
Detection Support Specialists.....................................    93
Field Management and Support......................................   196
Headquarters Management and Support...............................    20
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   740

                Current Staffing--Customs Marine Program

                                                               Number of
        Job category                                           personnel
Marine Enforcement Officers.......................................    91
Special Agents (certified to operate vessels).....................    80
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   171

    Question. Are the Southwest border and Miami areas staffed 
sufficiently to perform their role in the Customs Service interdiction 
efforts?
    Answer. In light of a constrained budget environment, the 
Administration believes that Customs proposed staffing on the Southern 
border presents a balanced resource allocation and the Customs budget 
is well-crafted to realize long-term returns on investment in better 
tools and logistics for more efficient interdiction operations. We have 
made operational employment adjustments to maximize the effectiveness 
and efficiency of our existing Air resources. For example, sharing of 
the alert response commitment on a coordinated basis between field 
elements has allows Customs to cover more land areas with fewer 
aircraft and personnel--given the current threat assessment. The 
diminished airborne intrusion threat levels the past four years have 
enabled us to sustain a minimum deterrent posture. However, any 
resumption of large-scale domestic general aviation drug trafficking 
will call for a reassessment of these techniques.
    Through funding associated with Operation Gateway, Customs received 
twenty-three additional marine enforcement officers to meet the growing 
marine smuggling threat in Puerto Rico and the Caribbean area. With 
this expanded enforcement effort in Puerto Rico, Customs has seen a 
rise in marine smuggling activity along the Southern tier.
    Question. Can you provide the subcommittee the status of the 
retrofit of the P-3 airplanes the Customs Service acquired last year?
    Answer. The two P-3s slated for retrofit were transferred to the 
Customs Service in March 1997, after being excessed from Department of 
Defense (DOD) inventory. Both aircraft have been removed from desert 
storage at Davis-Monthan Air Force Base in Tucson, AZ, prepared for 
flight and flown to Lockheed Martin Aircraft Center at Greenville, SC. 
There they will soon begin depot-level phased maintenance to prepare 
them for eventual modification to Customs P-3 AEW configuration.
    Customs anticipates the signing of the contract modification with 
Lockheed Martin in September, 1997, with eventual delivery of the P-3 
AEW aircraft in mid to late 1999. The Office of the Deputy Assistant 
Secretary of Defense for Drug Enforcement Policy and Support (DEP&S) 
received $56.2 million of the total $98.2 million appropriated for 
Customs P-3 AEW conversions. The balance ($42.0 million) was 
appropriated to the Office of National Drug Control Policy (ONDCP) 
which transferred the funds directly to Customs. After numerous 
discussions, DEP&S has agreed to enter into an Economy Act Agreement 
whereby Customs will contract for both P-3 AEW aircraft with Lockheed 
Martin with reimbursement from DEP&S. All retrofit program 
requirements, including spare parts and nonrecurring engineering costs, 
are included.
    Question. Do you have enough personnel in the Air and Marine 
program to utilize your equipment sufficiently?
    Answer. As we pointed out in our response to the question relative 
to staffing and performance in Florida and along the Southwest border, 
we have a sufficient number of personnel in the Aviation Program to man 
our equipment on the current schedule.
    Customs currently has ninety-one Marine Enforcement Officers along 
the southern tier and eighty Special Agents that have been certified as 
vessel operators. The Special Agents are performing the role of vessel 
operator on a part-time basis to address the increase in marine 
smuggling events.
    Question. How many P-3 aircraft will the newly requested P-3 hangar 
accommodate?
    Answer. The second hangar bay will accommodate one aircraft. The 
additional hangar bay will be used for maintaining aircraft rather than 
storage. The existing hangar bay is used exclusively for mandatory, 
time-consuming heavy phased maintenance programs. The second hangar bay 
will permit indoor opening of fuel cells and other delicate (corrosion 
prone) areas of the aircraft, while protecting against the elements and 
related introduction of corrosion and damaging materials to these vital 
components.
    Safety is also a critical factor in determining the need for an 
additional hangar. Maintenance operations utilizing bucket trucks, man 
lifts and forklifts in lieu of the more appropriate overhead hangar 
hoist are dangerous. The second hangar, like the existing hangar, will 
be used exclusively as a maintenance facility thus enhancing the 
operational availability of the P-3 aircraft and providing a safer 
working environment. In addition, a significant dollar savings will be 
realized by reducing corrosion damage and effectively extending the 
useful life of these aircraft.
                              base funding
    There is funding outlined in the budget request which indicated 
that the base is fully funded.
    Question. Is your base fully funded?
    Answer. Customs base funding is an aggregate of funding received in 
past years for a variety of purposes. An attempt is made each year to 
make the appropriate adjustments for ``maintaining current levels,'' 
but occasionally these adjustments are insufficient to meet increased 
costs from one year to the next. The fiscal year 1998 President's 
Budget includes $29.0 million to address a funding shortfall for rent 
requirements associated with new headquarters and border facilities, 
$10.0 million for replacement vehicles, $5.735 million for Laboratory 
Modernization, and $4.0 million for agent relocation to correct these 
identified deficiencies.
    Question. How many positions (FTE) are unfilled?
    Answer. Customs currently has 210 vacant FTEs comparing our on-
board strength with our FTE controls.
    Question. What would it take to fill those positions?
    Answer. The completion of hiring for fiscal year 1997 initiatives 
(Operation Hard Line, Gateway and, Counter-Terrorism) during the 
remainder of fiscal year 1997 will fill most of these vacant FTEs.
    Question. Is the amount requested to maintain current levels 
accurate? What will all of this funding be applied to?
    Answer. Customs is requesting a total of $42.3 million to meet its 
increasing obligations due to pay raises, benefits, agency 
contributions to the civil service retirement funds, and other expected 
increases in the cost of operations. Customs is also requesting $29.2 
million to address a shortfall in the funding for its projected rent 
requirements in fiscal year 1998.
    Of the total amount, the budget request provides for a $25.6 
million increase to pay for the fiscal year 1998 pay raise for three-
quarters of a year and annualize the fiscal year 1997 pay raise. Of the 
$25.6 million, $18.0 million is requested for the 2.8 percent increase 
in the fiscal year 1998 pay raise and $7.6 million is requested for the 
annualization of the fiscal year 1997 3.0 percent pay raise.
    Customs is also requesting an increase of $9.8 million for benefits 
to pay the regular increases in the cost of retirement and health 
benefits, permanent changes of station, and worker's compensation.
    Finally, Customs is requesting $6.9 million that is needed to fund 
other expected non-pay increases in the cost of Customs operations.
    All of these amounts, except for Customs unique rent situation 
stemming from building relocations and facilities expansion, are 
generated centrally by Treasury using standardized factors and 
methodology.
    Question. When President Clinton took office he issued Executive 
Order 12837 that mandated the reduction of administrative costs, as 
well as personnel over a four year period. fiscal year 1997 was the 
last year of the Order, will you continue to maintain the mandated 
reductions in fiscal year 1998?
    Answer. The administrative reductions mandated by Executive Order 
12837 have been maintained in Customs base funding requests. Therefore, 
with the exception of the recognized deficiencies in rent funding, 
vehicles, laboratory modernization, and agent relocation that the 
fiscal year 1998 President's budget seeks to rectify, the out-year 
effect of these reductions will continue.
                    fiscal year 1998 budget request
    Commissioner Weise, the fiscal year 1998 budget request for Customs 
includes $1.1 million from the Crime Bill funding for the construction 
of canopies for inspection sites at outbound sites.
    Question. Can you detail for the subcommittee what conditions 
Customs inspectors are working under such that they would need such 
protections?
    Answer. The $1.1 million budget request for fiscal year 1998 is for 
the construction of outbound facilities that include canopies. 
Currently, very few land border ports of entry have facilities where 
outbound inspections can be properly conducted. Outbound inspections 
are often conducted on busy interstate highways where vehicles travel 
at dangerously high speeds, creating a safety risk for inspectors as 
well as the public. Outbound inspections are often rerouted to inbound 
facilities which creates both a safety and control concern. 
Administrative outbound offices are usually within inbound facilities, 
far removed from point of exit. Outbound inspection areas lack computer 
terminals with Treasury Enforcement Computer System (TECS), National 
Crime Information Center (NCIC), and Automated Commercial System (ACS) 
access increasing the difficulty of performing comprehensive 
examinations. The canopies will serve to provide power and lighting and 
protection from oppressive and inclement weather conditions for both 
staff and equipment. Currently along the southern border, inspectors 
are conducting outbound inspections in a climate that often exceeds 100 
 deg.F. The lack of cover also leaves the inspectors and public exposed 
when it rains.
    In the fiscal year 1998 budget request, under the Performance 
Measures under the Tariff and Trade activity, there is a listing of 
``Customer Service (Trade)'' on S&E p.29 item nine is ``Open Protests 
Older than 1 Year''
    Question. The Protests plan you have listed at 2,000 and actual at 
7,316. Can you provide the subcommittee with information why there is 
such a large backlog of trade protests and how the Customs Service 
intends to get to the 2,000 backlog rate?
    Answer. This performance measure is a count of protests that are 
not settled within a year of submission. 19 U.S.C. Sec. 1514 allows 
importers or interested parties to administratively challenge Customs 
decisions relating to imported merchandise. In addition, 19 U.S.C. 
Sec. 1520 (c) (1) allows a party at interest to petition for correction 
of a mistake in fact, clerical error, or other inadvertence not 
amounting to an error in the construction of the law. The total open 
protests for fiscal year 1996 were 7,316. This situation was the result 
of the increased number of protests filed as a result of NAFTA, which 
allows the importer to file a petition to request liquidation of an 
entry for a refund when duty-free treatment was not claimed at time of 
entry. This protest procedure provides for a payment of 8 percent 
interest on the duties paid by the importers, which is above bank 
rates, perhaps encouraging importers to delay requesting refunds up to 
a year from entry. A technical amendment to the law was put forward in 
an attempt to end this benefit. Although it passed (Public Law 104-
295), importers have identified another avenue of successfully delaying 
protest resolution thereby continuing the interest collection.
    The current number of open protests over a year old, 5,748, 
represents a 21 percent decrease. Customs strives to reduce the cycle 
time of protest processing by increased training, improved management 
controls, plus implementation of the Electronic Protest Filing program, 
an important component of the National Customs Automation Program 
(NCAP). The use of this performance measure has been discontinued after 
fiscal year 1996.
    Question. Can you provide the subcommittee information on the 
number of work hours the new truck x-ray saves the Customs Service in a 
year?
    Answer. To the inspectional personnel on the border, the truck x-
ray is viewed as a tool, like the canine teams and other non-intrusive 
examination equipment, which can increase the quality of the 
inspections performed on commercial conveyances entering the United 
States. In addition, because trucks, trailers, and cargo are frequently 
physically examined, as well as x-rayed, the x-ray system is viewed as 
complementing, rather than actually replacing the physical inspection 
of the truck, trailer, and cargo. Because the x-ray system complements, 
rather than replaces physical inspections, any discussion of the number 
of work-hours saved by the x-ray system must be viewed cautiously, and 
in terms of ``potential'' work-hours saved.
    The Cargo Search truck x-ray system that is currently in place in 
Otay Mesa, California can process, on average, 6 trucks per hour. The 
truck x-ray requires a minimum of three persons to operate the system 
at all times. The x-ray is used effectively to examine both unloaded 
and loaded trucks for false compartments; false front walls, roofs, and 
floors; and for concealments in the truck/trailer frame, tanks, tires 
and other parts of the conveyance.
    If the system is operating at peak efficiency, with no down time, 
it would be able to process approximately 30,000 empty or full trucks 
and trailers per year. On average, three inspectors, working under 
optimum conditions, with no down time, can perform three 100 percent 
examinations each hour on empty trucks and trailers in Otay Mesa. 
Therefore, the truck x-ray allows a team of three inspectors to examine 
twice as many empty trucks as they could do without the x-ray, with 
comparable or greater assurance of the effectiveness of the exam. It is 
important to note that in fiscal year 1996, 45 percent of the incoming 
trucks on the southern border were empty.
    The truck x-ray unit was not designed to penetrate the cargo of a 
loaded truck, therefore the x-ray system does not replace the devanning 
of loaded trucks when the inspectional personnel feel it is necessary. 
However, the system has discovered drug shipments in some low density 
commercial cargo shipments. The x-ray system can save time by allowing 
the inspectors to concentrate their efforts on specific portions of the 
loaded truck/trailer which appear questionable in the x-ray image.
    Question. In fiscal year 1997, did the Customs Service receive 
funding to cover the mandatory pay raises or did it have to absorb the 
cost of those pay raises?
    Answer. Yes, Customs received the requested funding to cover the 
fiscal year 1997 pay raise as well as other expected cost increases in 
its appropriation. This funding was partly offset by other reductions 
to the fiscal year 1997 President's Budget request.
    Question. In the fiscal year 1998 request, S&E p. 45, there is a 
listing of fiscal year 1997's denied requests. Can you supply the 
subcommittee information on the rationale for the denial of each 
request?
    Answer. The table on page 1143 of the fiscal year 1997 Conference 
Report (H. Rep. 104-863) constructs the fiscal year 1997 appropriation 
from the fiscal year 1996 enacted level. Those items requested in the 
fiscal year 1997 President's Budget and not included in the table were 
denied without comment.
    Question. Is there a duplication of effort with the Customs Service 
lab and ONDCP and Department of Defense labs in the same areas?
    Answer. It is assumed that the term ``labs'' implies the research, 
development and evaluation (RD&E) projects that are sponsored by 
Customs, ONDCP, and the Department of Defense (DOD).
    There is very little duplication among the three areas due to the 
facts that the programs at each organization have different RD&E 
objectives, and that strong coordination exists among the three 
agencies. To the first point, Customs is a ``user'' of technology, and 
as such benefits from the external support provided by both ONDCP and 
DOD. Thus we are not cognizant of any duplication of efforts that might 
result in an overlap of programs, at least to the extent that it 
impacts our mission. The ONDCP technology programs that support Customs 
generally are more in the research area, and often end with a ``proof-
of-concept'' demonstration. On the other hand, the projects that the 
DOD's Counterdrug Technology Development Program (CTDP) funds for 
Customs are less research oriented, and more toward the development and 
evaluation of prototype systems, primarily in the non- intrusive 
inspection area, that Customs cannot afford to develop or demonstrate 
on our own R&D budget. A good example of this is the gamma-ray imaging 
system, designed to inspect empty tanker trucks crossing the Southwest 
border for contraband hidden in the tank. Customs originated and 
initially funded the project, ONDCP provided major funding resulting in 
a proof of concept and prototype, and DOD is providing further funding 
for testing, evaluation, training, maintenance, and National Guard 
support for initial operational deployment under Customs direction.
    There is also considerable coordination among the agencies. One 
example is that the program managers of Customs RD&E, CTAC (Counterdrug 
Technology Assessment Center), and CTDP meet monthly to discuss, plan 
and coordinate their joint programs of interest.
    Question. Of the $15 million requested in fiscal year 1998 from the 
Violent Crime Reduction Trust Fund for the Anti-Smuggling, non-
intrusive automated targeting systems, what portion of those costs are 
recurring and what portion of those costs are non-recurring?
    Answer. The $15 million requested is for two separate initiatives: 
the first is $12 million for two higher energy, fixed-site non-
intrusive inspection systems, and the second is $3 million for the 
expansion of the automated targeting system to high-risk land and sea 
ports of entry. In both cases approximately 90 percent of the funding 
requested is non-recurring. The out year operations and maintenance of 
these systems is approximately $1.5 million per year which will be 
recurred.
    Question. In the fiscal year 1998 request, S&E p. 54 under the 
Direct Obligations Related to the Crime Bill, there are listed 
``Civilian personnel benefits'' and ``Benefits to former personnel''. 
The VCRTF is to be used for non-recurring costs, therefore why does the 
Customs Service have continuing personnel benefits in this category?
    Answer. The fiscal year 1998 President's Budget contains a request 
for $4.0 million to fund an Agent Relocation initiative from the 
Violent Crime Reduction Trust Fund (Crime Bill). According to OMB 
guidance, a portion of relocation expenses is paid in ``Civilian 
Personnel Benefits'' (object class 12).
    ``Benefits to Former Personnel'' (object class 13) is a part of the 
standard display format, however, no obligations are shown in fiscal 
years 1996-98.
    Question. What will the Customs Service do when the VCRTF funding 
runs out in fiscal year 1999?
    Answer. Section 1900(e) of the Violent Crime Control and Law 
Enforcement Act of 1994 authorizes $125 million for appropriation to 
Treasury bureaus in both fiscal year 1999 and fiscal year 2000. During 
each budget formulation cycle, Customs and Treasury deliberate with OMB 
and ONDCP to achieve the most effective proposed allocation of VCRTF 
resources. This does not guarantee funding for Customs, and in fact, 
Congess did not appropriate any VCRTF funding to Customs in fiscal year 
1997.
                                 ______
                                 
                  Questions Submitted by Senator Kohl
                  Under Secretary for Law Enforcement
                            project outreach
    Background: Project Outreach is a voluntary program that involves 
partnerships with the local communities. All Treasury agencies are 
invited to participate by providing law enforcement agents to the 
program on a voluntary basis. According to Treasury's report on the 
program, Alcohol, Tobacco and Firearms is a major player in Washington 
D.C. and Customs is a large participant in the Nationwide program. It 
is my understanding this program is conducted with churches, boys and 
girls scouts and/or other organizations.
    Question. What is the genesis of this program?
    Answer. Project Outreach, which is aimed at reducing drug use and 
violence among teen-agers, was conceived of by a staff member of 
Treasury's Office of Enforcement in the summer of 1988. The idea was to 
encourage others in the community to become personally involved in the 
anti-drug effort, by setting the example of involvement by Enforcement 
employees. The original plan was for each Treasury Agent to make a 
presentation to a community group on drug demand reduction.
       relationship with youth crime gun interdiction initiative
    Question. Is this program part of the Kids and Guns or Youth Crime 
Gun Interdiction Initiative?
    Answer. Project Outreach is a Treasury-wide demand reduction 
program involving volunteer efforts by government employees. It is not 
part of the Youth Crime Gun Interdiction Initiative.
    The Youth Crime Gun Interdiction Initiative, an ATF program 
supported by the Office of Enforcement, is a law enforcement 
demonstration project. Its purpose is to obtain information about the 
sources of illegal guns used by gang offenders and juveniles, to devise 
new strategies for interdicting that supply based on the information, 
and to strengthen law enforcement collaboration against illegal gun 
traffickers to young people. The Youth Crime Gun Interdiction 
Initiative is a component of ATF's national firearms trafficking 
strategy, aimed at denying illegal access to firearms to criminals, 
gang offenders and juveniles. (Kids and Guns is a nickname for the 
Youth Crime Gun Interdiction Initiative.)
                   participation in project outreach
    Question. What is the level of participation by the Treasury 
agencies as a percentage of total staffing per agency and as indicated 
by the number of events held per major city?
    Answer. There is no budget for this voluntary effort by Treasury 
Enforcement employees. Each agency has a Project Outreach liaison, that 
works with the Office of Enforcement, but these are not full time 
positions. Statistics on the number of events held per major city are 
not required to be maintained. Hundreds of dedicated Treasury 
Enforcement personnel volunteer their services in their communities. 
Individuals who make significant contributions to their community are 
recognized by receiving a Project Outreach certificate of appreciation.
                        treasury forfeiture fund
    Question. Last year the Treasury Forfeiture Fund gave $242 thousand 
to the program. What was done with these (limited) resources?
    Answer. Project Outreach did not receive any funds from the 
Treasury's Secretary's Enforcement Fund authority. However, the Youth 
Crime Gun Interdiction Initiative did receive some funding from the 
forfeiture fund.
    A total of $1.175 million in forfeited funds was authorized for the 
Youth Crime Gun Interdiction Initiative. Of this total amount, $344,000 
was obligated in 1996. These funds were used for computer programming, 
computers, and training in connection with National Tracing Center 
tracing by the 17 sites participating in the project, as well as for 
some investigative costs supporting cases against illegal firearms 
traffickers.
               coordination among youth violence efforts
    Question. What is the coordination between this program, the Youth 
Crime Gun Interdiction Initiative, GREAT, DARE, Project LEAD and other 
children education programs?
    Answer. There are instances where Project Outreach volunteers 
provide services to schools that have adopted the GREAT program. The 
Youth Crime Gun Interdiction Initiative, GREAT, and Project LEAD are 
complementary supply and demand reduction components of ATF's efforts 
to reduce illegal firearms access and gang violence among young people. 
Project LEAD and the Youth Crime Gun Interdiction Initiative are part 
of ATF's efforts to reduce the illegal firearms supply to criminals, 
gang offenders, and juveniles. GREAT is an ATF administered demand 
reduction program primarily focused on youth gang violence.
                       office of law enforcement
    Background: Under Secretary Kelly, according to the Department of 
the Treasury's Strategic Planfostering a safer America is one of the 
Department's three key missions.
    To ensure this mission is accomplished, resources are being 
requested in fiscal year 1998 to; combat violent crime, decrease the 
availability of illegal drugs and other contraband, protect designated 
officials, decrease financial crime and continue counter-terrorism 
efforts.
    Treasury law enforcement efforts are funded at approximately $3 
billion and employs over 29 thousand employees.
    Question. Given the diversity of law enforcement activities funded 
within Treasury, please explain how your office coordinates these 
activities to ensure that: each impacted agency is aware of inter-
related activities; that a duplication of services does not occur; and 
that adequate resources are provided?
    Answer. Treasury's law enforcement activities are well coordinated. 
Each week the Treasury Enforcement Council, composed of the heads of 
the law enforcement bureaus, myself, and my senior staff, meets to 
discuss pressing issues such as policies, procedures, current 
investigations, and budgetary concerns. Various working groups 
established to assist the Treasury Enforcement Council meet regularly 
to discuss relevant topics including budgetary issues, resources, and 
cross cutting law enforcement issues. Additionally, each morning 
representatives of the bureaus meet with me and my senior staff to 
share information and to report on law enforcement activities.
    In the field, many of our law enforcement investigations are 
undertaken as a part of multi-agency task forces. The use of task 
forces encourages the sharing of information and eliminates the 
duplication of efforts. Also, representatives from the various Treasury 
law enforcement bureaus and the Department of Justice are members of 
each Treasury bureau's Undercover Review Committee. These Committees 
review and authorize proposed undercover investigations. Coordination 
is furthered by the sharing of intelligence through centers such as 
FinCEN, EPIC and NDIC. Cross checking of targets and investigative 
activities is also accomplished through a network of case query 
information systems. These systems act as a wide area network that, 
with one telephone call, allows access to various law enforcement 
databases by federal, state, and local law enforcement officers.
    Question. The Office of Law Enforcement is also responsible for 
facilitating communication with other law enforcement Departments, such 
as Justice. What format exists for coordinating inter-departmental law 
enforcement activities?
    Answer. Deputy Secretary Summers and I regularly meet with the 
Deputy Attorney General to discuss law enforcement issues of concern to 
the two departments. Additionally, my staff speaks with representatives 
of the Department of Justice virtually on a daily basis on a variety of 
issues. I meet with the heads of other law enforcement agencies, such 
as the Director of the FBI, as necessary to ensure that our bureaus are 
working together effectively. My staff and I participate in a number of 
interagency law enforcement meetings and committees including those 
relating to the Southwest border and white collar crime issues. The 
Treasury and Justice law enforcement bureaus also participate in a 
joint working group to develop law enforcement policies and procedures.
    Question. Has the Office of Law Enforcement provided a bottom-up 
review of the overall resource allocations and made a determination on 
requirements based on programmatic requirements?
    Answer. Last fall the Office of the Under Secretary Enforcement 
conducted an organizational assessment of Treasury enforcement's policy 
oversight staffing needs that were deemed essential to discharge its 
mission and duties more effectively.
    Although there was no bottom-up review of the overall resource 
allocation, the staffing assessment did quantify the additional salary 
and benefits that would be required if the Office was restructured in 
an optimum manner. As an aside, compensation (salary and benefits) 
represent about 72 percent of current budget allocations. The residual 
(non-pay) represents travel, contracts, equipment, supplies, etc.
                                 ______
                                 
                  Financial Crime Enforcement Network
                     international financial crime
    Background: I recently read in the LA Times that several 
developments are making it easier for corrupt businesses and organized 
crime groups to carry on their activities such as:
  --The globalization of the economy (increasing the monetary stakes of 
        corruption).
  --Technological developments (making it easier to hide criminal 
        activity and dirty money).
  --The weakness and instability of governments in many parts of the 
        world (leaving them unable to raise revenue, protect border, 
        and keep criminal elements from infiltrating legitimate 
        institutions).
  --And, the flight of capital to offshore banks (allowing them to 
        avoid taxation).
    Question. How has the trading in international currency exchange 
grown over the past five years?
    Answer. Trading in international currency markets, often called 
foreign exchange trading, has continued its steady growth, and exceeds 
currently one trillion dollars per business day. Much of this trading 
involves the U.S. dollar as it continues to remain the world's leading 
currency. The growth in foreign exchange markets is closely tied to: 1) 
the globalization of international markets; 2) growth in imports and 
exports, especially in rapidly developing regions, such as Latin 
America and South East Asia; 3) the lowering of entry costs to market 
penetration, by reduced tariffs, and the loosening of many nations' 
currency exchange controls; and 4) increasing emphasis by many 
developing nations on achieving a more stable monetary policy, which 
lessens dollarization of their economies, and furthers continuous 
foreign exchange transactions.
    Foreign exchange trading for major currencies which historically in 
the past was often dominated by a central bank or governmental 
operations is now primarily dependent on market forces. As such, the 
foreign exchange markets are largely driven by non-governmental supply 
and demand factors, such as those described above. In addition, the 
foreign exchange markets have developed ever more efficient mechanisms 
by which to hedge currency risk for market participants through the use 
of futures, options, and similar derivative instruments. This lower 
risk, in turn, permits smaller market participants to participate in 
foreign exchange transactions, and has led to an increase in foreign 
exchange transactions. This greater efficiency has resulted in cost 
reductions for many importers and exporters.
    Of course, the exchange of currencies can occur at many levels of 
an economy, and the legitimate needs of businessmen for United States 
currency, given the dollar's status as the primary international 
reserve currency, can provide opportunities for money launderers. 
FinCEN's intelligence analysts have been working for some time with 
investigators to understand the role of ``parallel'' or ``black 
market'' currency exchange systems. Such systems develop in reaction to 
the exchange controls involved, and inflated exchange rates often 
charged in official exchange rate systems. The demand for market-rate 
dollars rises as legitimate trade increases; money launderers have an 
alternate source of dollars (the proceeds of narcotics transactions in 
the U.S.) at their disposal, and they can satisfy the demand for 
market-rate dollars in the black market while at the same time 
effectively laundering their funds through the brokers to whom others 
go to buy such dollars.
    Question. Over that same period, what percentage increase have you 
seen in international financial crime?
    Answer. The most positive developments of the last half-decade--the 
fall of the Soviet Union, globalization of trade, and the stunning 
growth of technology have provided a basis for the expansion of large-
scale organized criminal enterprise. Few accurate statistics are 
available, but the view that the growth of international organized 
crime poses a serious threat to the evolution of the global marketplace 
and to the evolution of democracy in, for example Russia, reflects the 
consensus of most observers.
    Question. Have you noted any decrease in financial crime that could 
be attributed to FinCEN's efforts to curb illegal financial activity?
    Answer. Government efforts to curb illegal financial activity--in 
which FinCEN is an active participant--have made significant progress 
in recent years. The evidence indicates that the cost of money 
laundering is rising, as is the complexity of money laundering schemes, 
as the government's knowledge of money laundering and the 
sophistication of its anti-money laundering policies have increased. 
The advent of suspicious activity reporting and the increased awareness 
of banks that they are responsible for understanding enough about their 
customers' activities to be able to tell what activities ought to raise 
suspicion, are encouraging. FinCEN hopes through recently proposed 
money services business rules, to improve compliance standards in the 
non-bank segment of the financial sector. Attempts to disrupt the 
``money laundering systems'' that the cartels and their allies use can 
be expected to increase over the next two years.
                           criminal referrals
    Background: FinCEN is responsible for gathering various forms of 
financial information filed with financial institutions, as required by 
the money laundering regulations. Based on this data, FinCEN, a non-
operational agency, evaluates money laundering threats, supports law 
enforcement agencies and implements the Bank Secrecy Act. FinCEN, as a 
result of agency generated criminal referrals, also provides law 
enforcement agencies with the appropriate financial information, to 
assist in the agencies criminal investigations.
    [Clarification: Based on the introduction above, we interpret the 
Committee's use of the term ``criminal referrals'' to mean requests for 
case support from law enforcement.]
    Question. How many criminal referrals did FinCEN receive last year?
    Answer: In fiscal year 1996, FinCEN received 7,530 requests for 
case support. (This number does not include the requests from state and 
local law enforcement agencies which came through the Gateway system.)
    Question. How many were from Treasury agencies? Which agencies are 
they from?
    Answer: In fiscal year 1996, 1,932 were from Treasury agencies.

                                                         Number of cases
        Agency                                       in fiscal year 1996
Bureau of Alcohol, Tobacco and Firearms...........................   761
Internal Revenue Service..........................................   413
Office of Foreign Assets Control..................................   302
US Customs Service................................................   285
US Secret Service.................................................    29
Department of Treasury (Inspector General)........................    16
Office of the Comptroller of the Currency.........................     5
Task forces with Treasury representation..........................   121

    Question. How many of these referrals was FinCEN instrumental in 
solving?
    Answer. FinCEN does not maintain statistics on the number of 
instances that our case work leads to the arrest or prosecution of 
criminals. It is important to note that successful investigations are 
often made up of a variety of influential factors, rather than just 
one. FinCEN's services are usually requested very early in the 
investigation. The information may be vital to a case, and along with 
other investigative information (informant contacts, for instance), 
find its way into a long-term financial investigation requiring years 
to fully develop. Financial cases, by their very nature, are extremely 
complex and take a great deal of time and effort to investigate. By the 
time the case reaches the arrest or prosecutorial stage, a connection 
to FinCEN's case work may be difficult to determine.
    FinCEN may add value to the investigative process in another way. 
The information provided by FinCEN may indicate to the agents that an 
investigation should be dropped because it is insignificant and that 
resources should be directed to other more important areas. (Thus, 
there would be not an arrest or prosecution statistic, but the 
information serves a useful purpose in that it helps investigating 
agencies allocate their resources more effectively.)
    FinCEN reports also are used to substantiate information from other 
law enforcement agencies supporting an investigation. Financial cases 
are complex, as stated above, and evidence which reinforces other 
information is very useful to investigating agencies. In this same 
regard, FinCEN's ``network'' approach allows it to bring together 
agencies which are conducting parallel investigations on the same 
criminal organizations. For example, an ATF office in one midwest city 
was investigating subjects who were also being investigated in a 
southwest USCS office. Both agencies had submitted a FinCEN request and 
were unaware they were working the same subjects until notified by 
FinCEN. Both case agents were subsequently put in touch with each other 
and viewed the information as helpful to their investigation. This 
network approach enables the agencies to coordinate their 
investigations and thus avoid duplicative effort and resources.
    FinCEN does not and has not taken credit for investigative work 
carried out by others. FinCEN's philosophy about its mission is 
simple--it is a support agency, providing assistance when needed to 
investigative work conducted by federal, state, and local law 
enforcement. Its service may be requested at the beginning of an 
investigation, during the investigation, at the very end of one or 
quite possibly, multiple requests could come to FinCEN during the 
course of an investigation. Viewing this support service as its role in 
the law enforcement community, FinCEN would be uncomfortable at the 
very least to take credit for arrests and prosecutions which may have 
been the result of information provided by us. Furthermore, the law 
enforcement community is a very competitive area; adding FinCEN to the 
mix by taking credit would serve no useful purpose. In fact, it would 
probably do more harm than good by alienating our customers. FinCEN's 
state-of-the-art resources, as previously described, provide 
information which may otherwise be unknown or unavailable to field 
agents. If agents feel that requesting assistance from FinCEN will 
result in a ``sharing of the limelight,'' it could very well reduce the 
number of incoming requests to FinCEN, thereby lessening the quality 
and quantity of information available to the case agent.
Evaluating Work Products and Feedback
    This philosophy does not mean that FinCEN does not have systems for 
gauging the value of its work product. The reports going back to the 
investigators include a ``feedback'' form requesting information on the 
value of the product. However, only about 20 percent of the forms are 
returned to FinCEN. To supplement this effort, FinCEN periodically 
undertakes on-site visits, as well as telephone surveys with its 
customers to determine the value of its work products. (In the most 
recent survey, most users expressed general overall satisfaction with 
FinCEN's services with several respondents offering constructive 
suggestions which have been implemented.)
    Efforts to monitor the usefulness of FinCEN's products also involve 
a tracking system. Under the system, follow up contacts are made with 
investigating agents on significant cases (those which appear to 
involve significant number of businesses, assets, and currency 
transactions) at intervals of three, six, twelve, and twenty four 
months. The follow-up contacts are designed not only to provide 
information about subsequent developments, but equally important, to 
assist FinCEN in appropriately allocating its resources.
    In addition, the Treasury Law Enforcement Liaison Committee, 
created by FinCEN, meets quarterly to coordinate and focus the needs of 
customer agencies in Treasury. It is used to air specific issues 
relating to agency requests.
    Question. How does FinCEN prioritize the investigative requests? 
Who sets the priority list?
    Answer. As a rule, FinCEN's prioritization of cases is on a first-
come, first-serve basis. There are, however, exceptions to this rule 
which require FinCEN to take immediate action on certain types of 
cases. When deemed appropriate (when a need really exists due to issues 
of national security, critical stages of investigations, court 
appearances, grand jury presentations, and on-site case support for an 
agency), immediate attention is given to a request.
    Question. Could you explain the similarities and differences 
between your system and the Justice Department National Drug 
Information Center? Is coordination and or data sharing between these 
two systems?
    Answer. FinCEN and the National Drug Information Center have worked 
together over the past year to find a common ground which will enhance 
mutual assistance. FinCEN is a tactical intelligence support center 
which provides information relating to specific law enforcement case 
work. We provide information gathered from BSA data, commercial 
database information, and law enforcement databases. Our support is 
wide-ranging and deals with all types of financial crimes, not just 
narcotics.
    NDIC is mandated to provide strategic intelligence relating to 
international drug trafficking and narcotics law enforcement. They 
support law enforcement through the issuance of long-term project 
papers with the purpose of advising senior law enforcement executives 
of trends and patterns in worldwide narcotics trafficking. NDIC does 
not provide database queries in response to specific requests, but 
rather, long-term analytical work products which are valuable to the 
law enforcement community as a whole but do not address specific case-
related issues. FinCEN and NDIC regularly exchange information relating 
to specific narcotics and narcotics money-laundering issues. FinCEN was 
recently responsible for giving NDIC a major south Florida money-
laundering database.
                         fincen database access
    Background: I recently read Grover G. Norquist's (President of the 
Americans for Tax Reform) statement to the House Judiciary Committee at 
the hearing on ``Security and Freedom Through Encryption.'' In that 
statement he said:
    ``The government has tremendous information resources at its 
disposal in data base centers, like the Financial Crimes Enforcement 
Network (FinCEN). FinCEN has literally everything there is no know 
about you--tax records, postal addresses, credit records, banking 
information, you name it--and if more taxpayers knew about if, they 
would be outraged.''
    Question. Is Mr. Norquist correct? Does FinCEN have access to all 
of this information? If so, what protections are being offered to 
ensure that this information is not being viewed randomly? Is there 
oversight for unauthorized access to information?
    Answer. Mr. Norquist's statement is incorrect. FinCEN has access to 
information filed under the Bank Secrecy Act (which it administers), 
pursuant to Congressional directive and implementing rule. It also has 
access to certain law enforcement information in the files of other 
federal enforcement agencies (for example the Customs Service and DEA), 
and to information that is sold by commercial vendors, both to 
government agencies and private buyers; much of the latter information 
is computerized public record information (for example, land ownership 
files).
    FinCEN has no access to income tax data of any kind, in accordance 
with the terms of section 6103 of the Internal Revenue Code (except for 
disclosures made by investigating authorities to obtain further 
information, as permitted by section 6103(k)(6)). The only tax records 
to which FinCEN has access are property tax records of the kind that 
any citizen may view in any courthouse. It has no access at all to 
credit records, which are generally available only upon issuance of a 
judicial order or a grand jury subpoena for the information, see 15 
U.S.C. 1681b(1). FinCEN does obtain from credit agencies certain basic 
identifying information for individuals as permitted by the Fair Credit 
Reporting Act; 15 U.S.C. 1681f. Finally, it has no general access to 
banking records but only to reports of large currency transactions and 
suspicious activity.
    (Although somewhat beside the point, it is also relevant that 
FinCEN's resources are generally used to assist in enforcement of 
criminal law and almost never simply for civil tax collection 
purposes.)
    Nonetheless, it is true that the information to which FinCEN does 
have access requires careful protection to assure that it is used only 
for permitted purposes to assist law enforcement and regulatory 
officials. As indicated more fully below, FinCEN has worked, since its 
beginning, to protect access to the information it holds, to oversee 
the activities of its employees, and, above all, to prevent misuse of 
the information with which it is entrusted.
    Question. What protections are being offered to ensure inside and 
outside computer users are not reviewing this very private information?
    Answer. FinCEN's ``network'' has been carefully built, since 1990, 
through the institution of information use, security, and dissemination 
policies. These policies are embodied in a number of written documents, 
in FinCEN internal procedures, and in the terms of a series of 
memoranda of understanding that govern FinCEN's access to information 
obtained from other government agencies. The policies define the 
parameters within which FinCEN works and are designed to protect and 
compartmentalize information, and to channel that information only to 
authorized uses.
    The policies may be summarized as follows:
    1. Need-to-Know.--No information may be read or used by a FinCEN 
employee who does not have a need to know the information for the 
performance of his or her duties.
    2. Ownership.--Each agency is deemed to ``own'' the information 
derived from its files (unless such information was itself identified 
in that agency's files as belonging to a third agency), even after the 
information is incorporated into a FinCEN report or data base. Thus, 
each bit of information must be tagged in FinCEN's files to assure that 
it is used only in accordance with the rules or policies governing its 
use in the hands of the owner-agency. Information obtained from 
commercially-available sources is treated as subject to the statutes, 
if any, to which it is subject in the hands of the companies from which 
it is derived.
    3. Owning Agency Approval.--No bit of information may be 
disseminated by FinCEN to a third agency without the explicit and in 
most situations case-by-case approval of the owning agency. This policy 
applies not only to information sought to be included in case reports 
but also to information obtained from another agency and integrated 
into FinCEN's own files.
    4. Electronic Access by FinCEN.--Generally, information is not 
downloaded wholesale into FinCEN's data bases. Instead, FinCEN has 
electronic access to the information for use on a case-by-case basis, 
in part, so that its use of information drawn from other government 
data bases can be more carefully tracked and the controls placed on the 
information by the owning agency more carefully observed.
    5. Electronic Access to FinCEN Information Sources.--No agency is 
permitted electronic access to FinCEN itself, in view of the multiple 
sources of information commingled within FinCEN and the desire to 
minimize the risks of unauthorized entry into or use of FinCEN's data 
network. BSA information is electronically available to state 
enforcement agencies and to some state banking agencies, under rules 
similar to those described above, through FinCEN's ``Gateway'' program. 
The ``Gateway'' connections run not to FinCEN itself, but to the 
Detroit Computing Center of the Internal Revenue Service where the 
files of BSA information are maintained.\1\
---------------------------------------------------------------------------
    \1\ The Suspicious Activity Reporting System, which joins the five 
financial institutions supervisory agencies, FinCEN, and a number of 
other federal and state enforcement agencies electronically to reports 
of suspect activity at depository institutions, is also a separate, 
stand alone system, run through the Detroit Computing Center.
---------------------------------------------------------------------------
    6. FinCEN Platform.--To assist with FinCEN's growing workload, and 
in accordance with its mission, FinCEN has made BSA and commercially 
purchased information available to employees of other agencies who come 
to FinCEN to perform restricted queries for their agencies. Agencies 
involved include the Federal Deposit Insurance Corporation, the Air 
Force Office of Strategic Investigations, and the Office of the 
Inspector General of the Department of Agriculture (for investigation 
of fraud against the Department's Food Stamp and other programs).
    Under these policies, FinCEN serves both as a source of analysis 
and as a sort of ``electronic information lock'' through which 
different agencies can interact. Each bit of information must pass 
through the legal and policy ``screens'' of both its owner-agency and 
FinCEN before that information is disseminated to a third party.
    FinCEN's intelligence reports, which contain information drawn from 
FinCEN's various sources, are indexed and used within the parameters of 
a system of records created in accordance with the terms of the Privacy 
Act of 1974, 5 U.S.C. section 552a (the ``Privacy Act''), and known as 
the ``FinCEN Data Base'' (Treasury/DO .200).\2\ The ``system of records 
notice'' for the FinCEN Data Base was published in the Federal Register 
on July 24, 1990, (55 Fed. Reg. 30074-75) and has been republished 
several times since. The FinCEN Data Base has been exempted by rule 
from various provisions of the Privacy Act by the Secretary of the 
Treasury, as permitted by the Privacy Act, for data bases created for 
law enforcement purposes.
---------------------------------------------------------------------------
    \2\ Federal agency data bases from which information is drawn are 
for the most part subject to their own ``system of records notices'' 
under the Privacy Act, to the extent those data bases contain indexed 
information that relates to United States nationals. FinCEN only 
accepts data upon affirmation from the supplying agency that the 
exchange is consistent with the terms of the Privacy Act.
---------------------------------------------------------------------------
    The procedures through which FinCEN acquires and shares information 
from and with other agencies, outlined above, have been designed to 
assure compliance with the Privacy Act. Information sharing agreements 
with state law enforcement agencies are subject to both federal law and 
whatever state privacy statutes apply to the records from which the 
information is drawn. Information used by FinCEN is also subject to 
other legal restrictions in particular cases. Thus, as indicated above, 
information may be subject to the Right to Financial Privacy Act, 12 
U.S.C. section 3401, et seq., the FCRA, the limitations of section 6103 
of the Internal Revenue Code, or the specially restrictive terms for 
the use of information obtained in proceedings before grand juries in 
federal court, see Fed.R.Crim.P. 6(e). Judicial doctrines may also 
restrict the uses of information in related investigations, and FinCEN 
may be barred altogether from using certain information because of 
statutory restrictions or agency practice.
    FinCEN tracks each identifiable ``bit'' of information to assure 
that the use and dissemination of that ``bit'' is consistent with 
applicable legal rules. FinCEN's internal accounting systems are being 
built to provide a detailed audit trail of the use of each record and 
the information within that record. When a FinCEN agent or analyst 
retrieves data for use in a report to be prepared for another agency, 
he or she should be able to ascertain with precision the source of the 
data and the restrictions attached to that data's subsequent use. (In 
addition, as noted above, FinCEN's access to information is also logged 
within the various record systems, for example the Treasury Enforcement 
Communications System, to which FinCEN is connected.)
    These policies, and the complexity of FinCEN's mission, place a 
great deal of responsibility on FinCEN's employees. All of those 
employees must successfully complete a full field background 
investigation, and the majority hold various levels of national 
security clearances. Perhaps even more important, FinCEN's training and 
management systems are designed to protect information from 
unauthorized uses.
    Protection against unauthorized information use starts with the 
management of the analytical process itself. Agencies may request 
information from FinCEN only upon a clear specification of the purpose 
of their request. This requirement assures both that agencies owning 
information understand to whom it is being disseminated and that FinCEN 
analysts and reviewers can judge whether the requested use of the 
information is permissible under federal law, even before the 
availability of particular bits of information is determined. In 
addition, the computer work of FinCEN employees is carefully tracked 
and monitored to assure against misuse of information or unauthorized 
``browsing'' in information files.
             gaxiola-medina money laundering investigation
    Background: According to a March 20th Wall Street Journal article, 
it was indicated that the Deputy Secretary of Treasury was concerned 
over the failure of the Mexican Government to freeze the bank accounts 
of a suspected drug trafficker.
    The case spotlights on the Gaxiola Medina family, which runs a 
lumber distribution business in Northern Mexico. A federal grand jury 
in Detroit indicated that a member of the family ran a drug trafficking 
organization distributing more than 2,200 pounds of marijuana in the 
U.S., beginning in 1992.
    The U.S. Customs Service began investigating this case in April 
1996. U.S. agents contacted the Mexican Finance Ministry Officials who 
traced $184 million in deposits in 15 Mexican bank accounts. On January 
8th, a freeze was placed on the accounts, but when the money was frozen 
by January 20th, only $16 million remained.
    However, the New York Times article on April 2nd, said that the 
U.S. erred in seeing any corruption in this case and the $184 million 
thought to be in the accounts was a mistake.
    Question. Was FinCEN part of this investigation? What actually 
occurred?
    Answer. No, FinCEN was not part of this investigation. The Office 
of Enforcement and the U.S. Customs Service would be better able to 
address questions related to this case.
    Question. Would systems like the FinCEN data bases and their 
Suspicious Activity Reports prevent this type of activity from 
occurring?
    Answer. Since FinCEN was not involved in this investigation, it is 
impossible to know if or how its systems would have served this case. 
FinCEN defers to the U.S. Customs Service and Office of Enforcement on 
this matter.
                                 ______
                                 
                Federal Law Enforcement Training Center
          ins/border patrol training at charleston naval base
    Background: Currently, a portion of INS/Border Patrol training is 
being conducted at the recently closed naval base in Charleston, South 
Carolina. This was a temporary measure to meet the training and 
staffing goals associated with reinforcing our borders. This Charleston 
initiative was scheduled to expire at the end of fiscal year 1999, when 
all training would move back to the FLETC-Glynco. Recently, there has 
been some discussion to maintain the Charleston site as a permanent 
training facility for INS/Border Patrol training.
    Question. What is the position of the Justice Department, which is 
currently funding all of the satellite training occurring at 
Charleston, with regard to turning this site into a permanent training 
facility for the Border Patrol training?
    Answer. Senior Justice Department officials consistently have 
expressed the view that they fully support the concept of consolidated 
training and participation in the FLETC. Their view is that the 
Charleston site should be kept open only as long as the need exists. 
They have expressed confidence that as the FLETC's capacity continues 
to increase over the next couple of years, the Immigration and 
Naturalization Service (INS) will be able to phase down the temporary 
Charleston operation and move completely back to existing, permanent 
FLETC centers. While no date has been firmly set for the closure of 
Charleston by Justice, they have clearly stated the intention to do so, 
and have urged the continued funding of the facilities Master Plan for 
the FLETC so that INS/Border Patrol training requirements can be met at 
Glynco and/or Artesia as quickly as possible.
    Question. What is the position of INS and U. S. Border Patrol 
(USBP)?
    Answer. The top leadership officials of the INS have expressed the 
same position regarding the temporary nature of the Charleston site as 
noted above by the Department of Justice. The USBP is a subordinate 
organizational element of the INS, and it is presumed the USBP's 
position is consistent with the INS and Department of Justice view.
    Question. If this facility was declared as another permanent 
training site under FLETC's administration, what additional upgrades 
and improvements would be necessary to bring Charleston up to your 
permanent training site standard?
    Answer. The FLETC has had extensive experience in developing sites 
for Federal law enforcement training. In addition to its permanent 
sites at Glynco, Georgia, and Artesia, New Mexico, the FLETC operated a 
leased facility at Marana, Arizona from 1984 to 1990. Also, for a short 
period of time, the FLETC conducted training operations at Davis-
Monthan Air Force Base, Arizona, and Fort McClellan, Alabama. The 
latter site operation was undertaken exclusively for overflow USBP 
training that could not be met on a schedule required by the INS during 
a major buildup that occurred in 1989. In each of these site 
adaptations, whether for permanent or temporary purposes, the FLETC has 
encountered different capabilities and constraints. But our experience 
has been that closed military sites usually have significant 
structural, environmental, and modernization issues. The FLETC does not 
have a detailed understanding of all of the infrastructure and related 
building factors at Charleston. If Charleston, as a former naval base, 
is similar to the deactivated naval facility that the FLETC found at 
Glynco in 1975, there are likely to be many costly improvements needed 
to effect a proper facility conversion for law enforcement training. It 
would be speculative as to what precisely is required in bringing 
Charleston up to the standard of a permanent FLETC site until a closer 
examination and the use of appropriate facility experts is undertaken.
    Question. Can you provide a ballpark estimate of the upgrade cost 
and time needed for conversion?
    Answer. The Justice Department recently shared with the FLETC its 
cost estimate to upgrade the facilities at the Charleston site. The 
estimates suggest that about $4 million more will be required to 
sustain Charleston until the end of fiscal year 1999, in addition to 
the $8 million funded to date. To sustain Charleston for an extended 
period, the cost would be about $40 million, and to consolidate a 
permanent Border patrol Academy at Charleston would cost an estimated 
$110 million. These figures do not include the annual operation costs 
for staff and administration support. The FLETC did not participate in 
the gathering of this data, and therefore, does not take exception to 
estimates.
    Question. There is also the possibility that this facility would 
come under the administrative control of the Department of Justice, 
which could conceivably move to consolidate other Justice training at 
Charleston. Has there been any movement in this direction by INS or 
Justice? What costs would be associated in converting this site to a 
complete Justice/INS training facility?
    Answer. In addition to the INS, other Justice agencies that 
participate in the FLETC include the U. S. Marshals Service, the Bureau 
of Prisons, and the Office of the Inspector General. Neither officials 
in the Department of Justice nor anyone in the FLETC, or its 
participating agencies, have suggested or recommended relocation to 
Charleston. The Justice agencies have, in fact, repeatedly voiced high 
satisfaction with the quality of training and the facilities at the 
FLETC centers. If all of INS training and the other Justice agency 
training, which are now a part of the FLETC, were to be consolidated 
into Charleston, the costs associated in converting the site for a 
Justice training center are likely to be significantly higher than the 
$110 million identified by Justice for a USBP site alone.
    Question. Worse case scenario, what would the impact be on the 
FLETC if all the Border Patrol and INS training was shifted to 
Charleston?
    Answer. The actual INS training, including the USBP, accounted for 
39,142 student-weeks of training in fiscal year 1996 at the FLETC 
centers and Charleston. The next highest number of student-weeks in 
fiscal year 1996 was for U. S. Customs Service training which was 9,196 
student-weeks. The fiscal year 1997 figures are likely to be higher for 
the INS. The departure of INS/USBP training from the FLETC's centers 
would have a significant impact on the economies of scale that have 
been achieved over a very long history of consolidated training at the 
FLETC. Quite likely, the costs of operation and training at the FLETC 
centers would be increased unless the other Federal participating 
agencies were to fill the void created by INS's leaving. There are no 
indications now that these other agencies, alone or in the aggregate, 
would have that significant increase sustainable over one or more 
years.
    Question. What additional impact on the FLETC would result if the 
Department of Justice shifted all of its departmental training to the 
Charleston facility?
    Answer. Over a three-year period (FY 1994-1996), Justice Department 
training, in terms of student-weeks, was slightly over 51 percent of 
the training conducted at the FLETC. In the context of both students 
and student-weeks of training, Justice agency participation is 
significant to the cost benefits of consolidated Federal government-
wide law enforcement training. The departure of Justice training from 
the FLETC concept would have serious, and likely irreversible, 
consequences to the notion of consolidated training from a 
philosophical, practical, and cost efficiency standpoint. Setting aside 
cost factors, the lynchpin for consolidation is the standardization, 
high quality training, and cooperative interaction that comes from 
Federal law enforcement agencies sharing in the same common training 
experience.
    Question. How would the loss of this training commitment to the 
FLETC impact on your current funding requests?
    Answer. The loss of INS/USBP and/or Justice Department training 
commitment to the FLETC would greatly diminish the cost savings 
currently recognized in consolidated training. Daily lodging, meals, 
equipment, administrative support, and tuition costs would rise, 
probably quite dramatically. Although we cannot provide an estimated 
figure at this time, the maximization of facilities and the volume of 
programs would drop significantly. There is a real potential that 
higher costs would cause agencies, particularly small ones, to schedule 
less training. In austere budget reduction periods, often the items 
first cut in a budget are training and travel. Conversely, the FLETC 
will still need capital funding as the requirements for environmental 
compliance alterations and training program changes are implemented 
regardless of Justice agency participation at Glynco and Artesia. If 
enacted, as requested, the fiscal year 1998 appropriation for facility 
work at the FLETC sites will reach the $80 million mark, but still be 
short of the $121 million currently identified for completed 
renovations and construction. While there will be ways to cutback on 
the new construction requirements, should the Justice agencies depart, 
the facility improvements and compliance with environmental regulations 
and some new construction will need to continue and be funded 
accordingly. At any rate, there will continue to be a need to provide 
funding for maintenance and annual operation costs. Furthermore, 
establishment of a separate facility at Charleston, or elsewhere, will 
create circumstances that will force needless competition for law 
enforcement training facility funding at a time when the Government is 
looking at greater cost reductions and consolidation.
    Question. What are the high and low limits of your ``economies of 
scale''? Specifically, at what level have you achieved the greatest 
economies of scale, and at what level is this inverted from the loss of 
training activity?
    Answer. The economies of scale are very important in the 
contractual areas, especially the two largest contracts for food 
service and dormitory management. Both of these contracts are based on 
a sliding scale geared to the daily student population. Essentially, 
the higher the student population goes, the lower the cost on a per 
student basis. Typically, these contracts are based on intervals of 100 
to 250 students. The greatest economies of scale are reached at the 
1,250 to 1,500 student population levels and the costs increase 
dramatically when the student levels drop under 1,000. When populations 
in excess of 1,500 are experienced, the economies continue to increase 
at a decreasing rate, but clearly at a savings to the taxpayer.
    Question. Should the INS/Border Patrol training initiative continue 
according to plan, with the Charleston facility closing as scheduled in 
fiscal year 1999, will the FLETC be able to meet the future training 
needs of INS/Border Patrol, in addition to its other clients, at the 
Glynco and Artesia facilities?
    Answer. Yes, if the Master Plan funding continues to be 
appropriated. The Master Plan will provide all of the facilities needed 
to conduct training well into the 21st century for all of the FLETC's 
participating agencies, including the INS and Border Patrol.
    Question. Since this is the site of the former Charleston Navy 
Base, are there any environmental hazards associated with the site? If 
the FLETC assumed permanent control of the site, would the FLETC also 
assume the liabilities associated with any identified EPA hazards in 
the future?
    Answer. The FLETC has not participated in any close review of the 
facility structures and prior land usage at the Charleston site. Rather 
than speculate as to problems that may exist at this former Navy 
shipyard, it would be prudent for the FLETC to engage appropriate 
environmental specialists for a formal study. Whether the FLETC, the 
Navy, the INS, or some other organization or mix of organizations, the 
government would be liable for environmental hazards uncovered later, 
should the FLETC assume permanent control of this site. Unfortunately, 
the experience at Glynco, a former Navy base built in the 1940's, is 
that the FLETC has had to bear the cost of major environmental cleanup 
ranging from asbestos covered structures to lead leeching into the soil 
from dirt berms built by the Navy for firearms use and continued in use 
by the FLETC. Over a period of the last 15 years particularly, the 
nature of environmental regulation has become increasingly more 
restrictive.
    Question. Are there any environmental concerns that would 
potentially jeopardize the health and welfare of the students, 
instructors, and administrative support personnel assigned to the 
Charleston site?
    Answer. As noted above, it would be premature to provide an 
assessment of environmental issues without more data being provided 
through an appropriate environmental study. It is our belief that INS 
and Justice are alert to potential environmental hazards affecting the 
health and welfare of staff and students and have taken appropriate 
precautions.
                           projected training
    Background: In past years, the FLETC has overestimated its 
projections for training from 15 to 35 percent on any given year, from 
the numbers of personnel actually trained. These projections, 
historically, have been the basis for your requests for funding 
additional FTE's, operating expenses, and capital improvements.
    The FLETC obtains the forecasted training requirements from its 
client agencies 18 months in advance of the actual training year. Often 
clients amend their anticipated training needs during this 18-month 
time period. This could account for some of the differences between the 
numbers actually trained versus the numbers originally predicted.
    The FLETC's budget request is based on the projected number of 
students they will train.
    Question. Could the FLETC supply amended training forecasts and 
budget projections based on the agency training budgets, included in 
the President's budget, when it is submitted to Congress in February?
    Answer. Because of the limited amount of time available between the 
Office of Management and Budget's final decisions on the agencies' 
budget requests and the submission to Congress, it would be extremely 
difficult to provide amended training forecasts in early February. 
Since the FLETC trains 70 different law enforcement agencies, it would 
be necessary to obtain input from each of them to update the training 
projections. While an update could be provided, it would have to be 
after the President's budget is submitted when the participating 
organization has more definitive information.
    Question. Can an agency cancel or reduce their training commitment? 
How much lead time must they provide the FLETC?
    Answer. The participating agencies provide training estimates as to 
the number of students to attend the various programs conducted. The 
FLETC uses numerous factors, including the participating agencies' 
request, past experience, facility requirements, Congressional/
Administration interest, etc., to determine the number of programs that 
will be conducted. Allocations or quotas are then made to each of the 
participating agencies at the start of the fiscal year. While an agency 
can conceivably cancel at any time, the FLETC requires that a minimum 
of 20 days' notice be provided so that other agencies can be contacted 
to use the unfilled slots. In reality, changes take place every day and 
the allocations/quotas constantly are adjusted to meet the demands and 
requirements of the clients. The FLETC strives to ensure that all 
programs are conducted with the maximum number of students.
    Question. What agencies have presented the greatest problems in 
scheduling?
    Answer. No single agency presents the greatest problem in 
scheduling. It seems to fluctuate as the large agencies have to address 
major initiatives that affect them, such as the Immigration and 
Naturalization Service is currently facing. In previous years, other 
agencies too have periodically experienced unprogrammed increases which 
have led to similar problems. While today it is INS, next year it may 
well be another agency.
    Question. Can this committee assist you in correcting the problem?
    Answer. The FLETC is not aware of anything that could be done at 
this point by the committee to help correct the problem.
                           firearms training
    Background: The FLETC currently provides firearms training to a 
great majority of the Federal law enforcement, either in a basic 
training program, an advanced training program, or the firearms 
instructor training programs.
    Question. Does the FLETC include training for all of its firearms 
training programs on the safety and appropriate storage of weapons in 
the home? This specifically addresses the increase in the number of 
accidental discharges of firearms involving children in the homes of 
law enforcement personnel.
    Answer. For several years all basic training programs included a 
two-hour block of instruction entitled, Off-Range Safety. This course 
outlined weapon handling off the range, in the office, among friends, 
and especially at home. Over the years, in Curriculum Review 
Conferences, the FLETC's customer agencies have phased out this course. 
The safety course taught to all basic training students outlined 
general firearms safety, with primary emphasis on the firing range, and 
weapon identification. Since then, however, as a result of the recent 
Presidential memorandum directing all issued Federal firearms to come 
equipped with a locking device, the safety course has been modified. 
The course now includes training on the use of safe gun-locking devices 
for the home.
    Advanced training programs are comprised of students who have 
graduated from the basic program and are attending either follow-on 
training or a specific firearms training program. These programs are 
designed by a Curriculum Development Conference and are updated every 
three years. During these updates, the FLETC, along with the 
participating agencies, decide on a curriculum. Although these students 
would have received this type of home safety training in their basic 
program, it may or may not be included in the advanced training 
program, depending on the particular curriculum.
    Question. Does the FLETC issue trigger locks to students receiving 
firearms training?
    Answer. No. The Presidential memorandum applies to duty weapons 
being issued to law enforcement officers. The FLETC does not issue duty 
weapons; they are supplied by the employing agency. The FLETC provides 
weapons to students only for the purpose of practicing firearms 
training and survival skills on the firing range. All such practices 
are done under close supervision and the weapons never leave the range 
with the students. All training weapons are stored in gun safes in a 
secured and alarmed armory.
    Question. What Federal law enforcement agencies are currently 
issuing and mandating the use of trigger locks and other weapons safety 
guidelines for storage of weapons in the home?
    Answer. Although it would require a government-wide survey to be 
certain, we assume all affected agencies are complying with the 
Presidential memorandum on this matter.
    Question. Do the Directors of each of the Bureaus present today 
believe that the trigger lock safety program is a viable one to reduce 
the numbers of accidental discharges of firearms, specifically by 
children in our homes?
    Answer. Yes. The FLETC realizes that a law enforcement tool 
designed and issued for the sole purpose of employing deadly force is 
inherently dangerous and imposes a professional and personal 
responsibility. Consequently, we believe that any step directed toward 
home safety, and especially the safety of our children, is desirable.
    Question. Are you in favor of agency policy mandating weapons 
safety guidelines for your gun-carrying personnel in their homes?
    Answer. Yes. Although home safety is, to a large degree, common 
sense. The fact that children continue to be injured and/or killed by 
handling a (law enforcement) parent's firearm indicates that more can 
be done. We believe proper training, accompanied by proper equipment 
and agency policy, will go a long way to increase and enhance the home 
safety mindset of law enforcement officers.
                            new construction
    Background: The FLETC is requesting fiscal year 1998 funds to 
construct a new warehouse complex at the Glynco facility. The FLETC has 
a number of buildings on site that are currently being utilized for 
storage.
    Question. What is the condition of the existing warehouse 
facilities at Glynco?
    Answer. The existing warehouse facilities at Glynco are inadequate 
for the purpose for which they are being utilized. We presently utilize 
portions of four buildings for warehousing at the Center and lease 
additional space at the Glynco Jetport. All four buildings used for 
warehousing at the FLETC are over 55 years old, and two of them are 
condemned and should not be used. The remaining two warehousing spaces 
are in one-story buildings that also house office space, various 
service contractors, and a shipping and receiving function. These other 
non-warehousing functions break up the space that is used for 
warehousing, thus making the warehouse areas less than desirable for 
storage purposes from both security, and size standpoint. None of the 
warehousing space on the Center is environmentally controlled, nor is 
it conducive to new and more efficient warehousing techniques. 
Consequently, the FLETC must lease additional warehouse space away from 
the Center grounds in order to meet its supplies and equipment storage 
needs.
    Question. Are the existing warehouse facilities utilized solely for 
storage of equipment and supplies?
    Answer. Yes.
    Question. What storage alternatives currently exist in the 
community?
    Answer. As was mentioned above, the FLETC has leased warehouse 
space off-Center in order to meet its warehousing needs. Although there 
is existing storage alternatives in the community, the warehouse 
operation could run in a more efficient and effective manner if it was 
housed all in one building and on-site.
    Question. Is there a specific requirement for on-base versus off-
base storage facilities?
    Answer. The on-base warehouse facility should be constructed in 
close proximity to an entrance gate. The warehouse would become the 
centralized receiving point for all goods entering the Center. Goods 
would only have to be handled once. They could be taken off the trucks 
and placed in storage without having to be moved in a separate 
operation. The placement of the warehouse at a gate entrance would also 
eliminate the present safety problem of having heavy duty trailer 
trucks operating on the Center's internal roadways where our students 
walk.
    Question. Should new facilities be acquired, what is planned for 
the current structures?
    Answer. Two of the current structures are unsafe and should be 
demolished. The other two would be utilized as storage areas for the 
on-site agencies.
                                 ______
                                 
                Bureau of Alcohol, Tobacco and Firearms
                youth crime gun interdiction initiative
    Background: The gun laws in the United States are among the least 
restrictive in the developed world. The FBI estimates there are 250 
million firearms in the country, that is one for every man, woman, and 
child. As a result, we should not be surprised that a February 7th 
Washington Post article stated that United States has the highest rate 
of childhood homicide, suicide and firearms related deaths of any of 
the world's 26 richest nations.
    According to the article, the epidemic of violence that has hit 
younger and younger children in recent years, is almost exclusively 
confined to the United States.
    On February 20th, the President went to Boston to outline a package 
of federal legislation aimed at deterring youth crime and to increase 
the severity of punishment. This package included initiatives costing 
$500 million to:
  --expand the Brady law
  --fund state and local government programs to hire additional 
        prosecutors, who will focus in on gang and juvenile violations, 
        and
  --provide annual grants to localities to fund after school programs.
    The President went to Boston to highlight the success that this 
City has experienced participating in the Youth Gun Crime Interdiction 
Initiative. This initiative requires the participation of Police Chiefs 
and prosecutors, who have been asked to supply the serial numbers and 
other characteristics of every gun seized form a juvenile committing a 
crime. It is my understanding that the data is used by ATF to trace the 
gun's origin of sale. Since all guns must have identification number 
and paperwork it is easy to trance these weapons.
    Question. Is there a correlation between gun laws and childhood 
homicides?
    Answer. In ATF's role in the fight against violent crime, it does 
not perform research that would determine whether there are 
correlations between gun laws and childhood homicides; however, under 
the Youth Handgun Safety Act, juvenile possession of handguns is 
illegal, with certain exceptions. ATF believes that effective 
enforcement of this and other of our nation's gun laws can reduce 
childhood homicide. ATF considered statistical information showing that 
the rate of juvenile homicide nearly tripled since 1985 in developing 
the Youth Crime Gun Interdiction Initiative as a component of the 
national firearms trafficking strategy. In addition, ATF has formed 
partnerships with the NIJ and academic community in an effort to gain 
additional information regarding effective enforcement of the Federal 
firearms laws. ATF is cognizant that this area is of great concern to 
America; however, it does not have the available resources, at present, 
to analyze guns laws and how they may affect childhood homicides. 
Information derived from the YCGII will allow ATF's investigative 
resources to better focus on illegal juvenile access to firearms.
    Question. I am aware of Boston's participation in the Youth Crime 
Gun Interdiction Initiative. Can you explain why this program is a 
success?
    Answer. The City of Boston participates in the YCGII as well as a 
multi agency initiative, the Boston Gun Project. To date, ATF has not 
conducted a formal evaluation of the Boston Gun Project that was funded 
by National Institute of Justice (NIJ) and in which ATF's Boston 
Criminal Enforcement Field Division participates. However, when ATF 
developed the YCGII, the Bureau examined how the Boston Gun Project 
worked, and tried to find ways its approach could be applied in other 
cities. The information pertaining to the Boston Gun Project contained 
in this response is based on information from ATF' Boston Field 
Division.
    The Boston Gun Project appears to be a success because it has two 
major components that work together. First, it uses crime gun trace 
analysis, information that can only be obtained through ATF, and 
debriefing of arrestees about the illegal sources of their weapons to 
develop a picture of the illegal sources of supply of crime guns to 
juveniles and gang offenders. To assist in investigative use of trace 
information, ATF has developed and deployed project LEAD, an illegal 
firearms trafficking information system, to assist in using arrestee 
information, ATF has established a special agent position, the Violent 
Crime Coordinator, who is responsible, among other areas for channeling 
information obtained from debriefings of armed arrestees to agents 
developing trafficking cases. This special agent must be able to 
analyze investigative information, affecting defendants who are to be 
prosecuted, to ensure that the subject will receive the maximum time in 
prison. The VCC must determine if Federal or State prosecution is best 
suited for each defendant that he/she comes into contact with.
    Based on this information, ATF in collaboration with the Boston 
Police Department and other law enforcement officials continue to 
improve the effectiveness of efforts against illegal traffickers in 
order to reduce the illegal supply of guns to violent young people and 
juveniles.
    Second, under the Boston Gun Project, many different Federal State 
and local agencies, including ATF, DEA, the police department, 
probation, parole, and others, are collaborating in directly 
communicating to street gangs that violence will not be tolerated. When 
necessary, they back up these communications with coordinated, 
interagency enforcement actions against gangs that have committed 
violent acts. The interagency group approach appears to have convinced 
some Boston street gangs that violent acts will be met with immediate 
consequences, and thus effectively deterred them from participating in 
gang violence. This aspect of the Boston Gun Project was made possible 
by a strong coordination, funded by the National Institute of Justice.
    ATF will be analyzing the effectiveness of the YCGII in the 1 year 
report which is scheduled to be completed in July 1997.
    Question. How much of the success of this program is dependent on 
the community's involvement?
    Answer. Both the gun trafficking prevention and the deterrence of 
gang violence in the Boston Gun Project are primarily carried out by 
Federal, State, and local law enforcement agencies. However, other 
important participants in this program are gang outreach workers, 
employed by the City of Boston, who provide various services to gang 
members and attempt to mediate gang disputes and community groups, such 
as Boston's Ten Point coalition which is a group of African American 
clergy. Additionally, other community programs may be involved in 
Boston; however, ATF's Criminal Enforcement is not aware of such 
initiatives.
    Question. The Youth Crime Gun Interdiction Initiative has been 
piloted in 16 other cities including Milwaukee, Wisconsin. Have there 
been similar results in other cities participating in the pilot?
    Answer. As in Boston, trace analysis and curbing the illegal supply 
of firearms are one component of the YCGII. ATF is presently analyzing 
the results of crime gun traces from each of the cities participating 
in this initiative. This analysis, which is the first of its kind to be 
reported by ATF, will provide law enforcement agencies participating in 
the initiative with critical information that may be able to assist 
them to develop strategies geared to reducing the illegal supply of 
firearms to juveniles and gangs.
    ATF will publish the results of 10 months of trace analysis in all 
sites in July. Each YCGII site has unique characteristics that must be 
analyzed. Upon the completion of the report, law enforcement in each 
YCGII site will be better able to implement a successful strategy to 
address juvenile firearms-related crime. It should also be noted that 
the coordinated anti-gang activity involving all federal and local 
agencies that is present in Boston is not part of the YCGII, as this 
exceeds ATF's jurisdiction, other than as a participant ATF would be 
pleased to participate in any such coordinated anti-gang effort in any 
site.
    Question. Is last week's seizure of guns and arrest of gun 
trafficker Lawrence Shikes in Milwaukee, an example of the 
effectiveness of this program? What can you tell us about this case?
    Answer. The Lawrence Shikes case in Milwaukee, Wisconsin, is an 
example of the effectiveness of this initiative. There are a number of 
ongoing cases currently in many of the other sites. However, these 
cases are presently ongoing criminal investigations and as such, ATF is 
not at liberty to discuss them. At this time, ATF's nationwide illegal 
firearms trafficking strategy, of which the YCGII is a component, has 
produced over 2,000 illegal firearms trafficking defendants annually 
since the implementation of the Integrated Violence Impact Strategy in 
fiscal year 1996.
    Question. How many programs and what is being spent annually to 
provide juvenile crime prevention programs nationally?
    Answer. ATF is responsible for administering, evaluating, and 
expanding the GREAT Program. The GREAT Program is currently funded at 
$11 million of which $3 million is required for ATF to administer and 
oversee the program. The remaining funds are provided to local 
communities to support their participation in the program. Please refer 
to question 31 for additional information.
    Question. Does the Youth Crime Gun Interdiction Initiative provide 
any grant money? Should grant funds be provided?
    Answer. Neither the Treasury Department nor ATF possess the 
authority to provide grant money so none has been provided under the 
YCGII. Funding in the amount of $1.175 million was provided by the 
Department of Treasury, Executive Office for Asset Forfeiture. A 
breakdown of that funding is as follows:
  --$550,000--To be used for investigative expenses such as evidence 
        purchase, informant subsistence, purchase of investigative 
        equipment, investigative travel, and other miscellaneous 
        investigative expenses.
  --$200,000--To be used for modifications to ATF's NTC's Firearms 
        Tracing System and Project LEAD.
  --$75,000--To be used for the purchase of 17 high speed, high 
        capacity Pentium laptop computers.
  --$300,000--To be used for research on crime guns to be performed by 
        the National Institute of Justice.
  --$50,000--To be used for mission travel related to training and 
        support of the initiative participants and systems.
    The YCGII sites were selected based on their demonstrated 
recognition of the problem of youth firearms violence and the desire 
for a coordinated effort; 10 of the 17 cities were already receiving 
funding from the Department of Justice's Office of Community Oriented 
Policing Services to conduct juvenile firearms initiatives; an 
additional 3 of the 17 cities already had a juvenile firearms research 
element in place through the National Institute of Justice; the 
remaining 4 cities had particularly active U.S. Attorneys.
    Grant funds to police departments may be useful in assisting them 
to trace all crime guns and to identify violent gangs, groups, and 
individuals for potential investigative action. However, since crime 
gun tracing and illegal firearms trafficking cases require ATF's 
assistance, ATF cannot recommend grant funds that would support 
activities that are not proportional to ATF's resources to respond to 
them effectively. If grant funds are issued, it must be ensured that 
ATF can effectively meet the demand for its services by State and local 
law enforcement.
    Question. I see you have not requested any funding for this 
initiative in the fiscal year 1998 request. Why not?
    Answer. The YCGII was funded by the Treasury Department in July 
1996 in response to the alarming rise in juvenile firearms violence. 
The funding was intended to provide ATF with the means to look at 
illegal firearms trafficking and how it affects juveniles separately 
and to produce crime gun trace analysis on a city-specific basis. 
Treasury's funding of the YCGII has supported computer upgrades, 
firearms tracing-related training, and law enforcement operations. ATF 
is now examining the results of the crime gun traces from the YCGII 
cities and finding that there are city-specific patterns of crime gun 
use by youth that differ from the patterns that typically characterize 
the adult populations crime gun supply. These preliminary results are 
showing significant promise to reduce illegal juvenile and youth access 
to firearms violent crime through expanded YCGII initiatives.
    YCGII cases are illegal trafficking cases that involve trafficking 
to juveniles and young people. Examples of the successes of the overall 
national firearms trafficking strategy are as follows:
    Case example: In 1996, Project LEAD and firearms trace analysis 
alerted ATF special agents in Kansas City, Missouri, to potential 
illegal firearms trafficking activity being conducted by an individual. 
Information indicated that a number of firearms recently recovered in 
crimes, by law enforcement in several States, had all passed through 
this subject. Investigation revealed that over the course of 3 years 
the subject, a former Federally licensed firearms dealer, had illegally 
trafficked over 1,300 firearms of which more than 200 of those firearms 
were recovered by law enforcement from gang members and violent 
criminals after their use in crimes ranging from illegal possession to 
homicide. The subject was subsequently arrested by ATF, prosecuted in 
Federal court, and in September 1996, sentenced to 6 years in prison.
    Case example: In 1995, Project LEAD and firearms trace analysis 
alerted ATF special agents in Greensboro, North Carolina, to potential 
illegal firearms trafficking activity being conducted by an individual. 
Information indicated that a number of firearms recently recovered in 
crimes, by law enforcement in several States, had all passed through 
this subject. Investigation revealed that over the course of 2 years 
the subject, a former Federally licensed firearms dealer, had illegally 
trafficked over 3,000 firearms of which more than 200 of those firearms 
were recovered by law enforcement in crimes ranging from illegal 
possession to homicide. The subject pled guilty to numerous Federal 
firearms violations and was subsequently sentenced to 34 months in 
March 1997.
    Question. Even if you can effectively crack down on illegal gun 
trafficking, won't there still be some guns out there that potentially 
violent criminals, even kids, will have access to?
    Answer. Yes, ATF's illegal firearms trafficking strategy and the 
YCGII are intended to address juveniles and the criminal element's 
access to firearms, especially new firearms, however, they cannot 
effectively address every illegal gun source. In addition to ATF's 
Illegal Firearms Trafficking Strategy, there are other initiatives to 
assist in removing guns from the criminal element. An additional 
firearms enforcement program is the Stolen Firearms Program which is an 
aggressive enforcement effort determined to reduce the amount of 
firearms stolen from interstate carriers and Federal firearms 
licensees. ATF research and data, based upon stolen firearms 
information contained in the Firearms Tracing System, reveal that 
stolen firearms, by their very nature, are destined to be crime guns. 
The criminal element, realizing that their ability to acquire firearms 
has eroded, sees stolen firearms as an instant source of untraceable 
crime guns.
    ATF is committed to investigating thefts from FFLs in order to keep 
these firearms away from the criminal element. ATF believes that 
proactive measures such as better security measures at FFLs, the 
illegal firearms trafficking strategy, and the Stolen Firearms Program 
will reduce the criminal element's access to a large number of 
potential crime guns illegally diverted from legitimate sources.
    In addition to focusing on crime guns that are new and can 
therefore be easily traced by NTC, ATF also investigates traffickers of 
older firearms, through debriefing arrestees and other investigative 
work.
    Question. If this is true, aren't other strategies needed to 
prevent violent crime, like crime prevention?
    Answer. Yes, effectively administered crime prevention programs can 
help. ATF has found programs such as GREAT and the Department of 
Treasury's Outreach Program to be useful to young people. In addition 
to traditional crime prevention initiatives, like G.R.E.A.T are 
enforcement strategies and projects that can have a prevention impact. 
For instance the illegal firearms trafficking strategy and YCGII are 
aimed at stopping the guns from getting to the criminal element, gang 
offender, and juvenile before a handgun is used in a crime or accident.
    In addition, ATF has dedicated personnel as Violent Crime 
Coordinators (VCC). The VCC is responsible for proactively preventing 
violent crime. The VCC is responsible for the following duties through 
the position description for this job:
  --Establishes threshold prosecution levels with the U.S. attorney's 
        office to ensure only those cases which the U.S. attorney's 
        office will prosecute federally are pursued by the VCC.
  --Evaluates all firearms-related cases referred for prosecution by 
        local, State, or other Federal agencies and determines which 
        judicial system is best suited for that case based on the 
        threshold levels of prosecution previously determined.
  --Establishes effective liaison and working relationships with the 
        various State, local, and other Federal agencies in the VCC's 
        area of jurisdiction.
  --Maintains the integrity of the Gun Control Act and the National 
        Firearms Act by ensuring that each State of local officer, 
        referring a case has met all the elements of proof, thus 
        avoiding the chance of creating unfavorable case law.
  --Gathers and exchanges intelligence derived from observed trends and 
        from defendants.
  --Ensures firearms from all referred cases are traced, thus enhancing 
        the ability of Project LEAD to generate information on illegal 
        firearms trafficking.
  --In cities with CEASEFIRE Project capabilities, ensures firearms 
        from all referred cases are test fired and that shell casings 
        and projectiles are subjected to Integrated Ballistics 
        Identification System testing thus enhancing the IBIS data base 
        and increasing the likelihood of ballistic matches. 
        Additionally, ATF utilizes the following strategies to address 
        and prevent violent crime:
  --The Achilles Project is a congressionally mandated enforcement 
        program that utilizes two tough Federal statutes (18 U.S.C. 
        Sec. Sec.  924(c) and 924(e)) to remove from society those 
        armed career criminals, armed narcotics traffickers, and other 
        violent offenders who are responsible for a disproportionate 
        percentage of this Nation's violent crime. These statutes 
        require mandatory/minimum terms of imprisonment for all 
        individuals convicted for armed narcotics trafficking. There 
        are Achilles task forces located in 20 cities nationwide that 
        consist of ATF special agents and inspectors and other Federal, 
        State, and local law enforcement officers. This program has 
        resulted in the arrest and successful prosecution of numerous 
        armed narcotics traffickers and other violent offenders.
  --The NTC traces firearms for law enforcement agencies both 
        domestically and around the world. The NTC is the only source 
        for information pertaining to the tracing of firearms in the 
        United States. During fiscal year 1996, the NTC traced in 
        excess of 134,000 firearms.
  --ATF's Firearms Trafficking Project is a comprehensive strategy to 
        interdict the flow of firearms to the criminal element, 
        including narcotics traffickers and violent offenders. Using 
        computer technology to access data from ATF's NTC and the 
        Stolen Firearms Program, ATF addresses illegal firearms 
        trafficking by identifying the illegal source of the firearms 
        to the criminal element. Through this program, ATF is able to 
        impact upon narcotics traffickers' ability to acquire firearms 
        in furtherance of their illegal activity.
  --Stolen Firearms Project which is an aggressive enforcement effort 
        determined to reduce the amount of firearms stolen from 
        interstate carriers and Federal firearms licensees. ATF 
        research and data reveals that stolen firearms, by their very 
        nature, are destined to be crime guns. The criminal element, 
        realizing that their ability to acquire firearms has eroded, 
        sees stolen firearms as an instant source of untraceable 
        firepower.
  --The CEASEFIRE Project provides support to law enforcement agencies 
        in areas of the country experiencing serious organized criminal 
        gang and drug-related shooting incidents. Currently, ATF is 
        utilizing a state-of-the art system that allows firearms 
        technicians to digitize and automatically sort bullet and shell 
        casing signatures and aids in providing matches at a greatly 
        accelerated rate. The equipment expeditiously provides Federal, 
        State, and local criminal investigators with leads to solve 
        greater numbers of crimes in a shorter period of time.
                           g.r.e.a.t. program
    Background: The Gang Resistance Education And Training (GREAT) 
program provides grants to communities that are participating in and 
encouraging the prevention of violence. The program, taught by 
uniformed officers, so far has provided training to over 2 million 
children, enrolled in seventh and eighth grade.
    GREAT is currently running in 54 locations in 21 states.
    Question. Director McGaw, the G.R.E.A.T. Program looks promising, 
why should we continue its funding? How can we qualify G.R.E.A.T as a 
successful program for future expansion?
    Answer. Youth gang violence is still a major concern for law 
enforcement in the United States. The G.R.E.A.T. Program provides a 
major step forward in helping school age children develop life skills 
which improve their social behavior.
    The G.R.E.A.T. Program is managed by a partnership representing all 
levels of law enforcement--Federal, State, county and city. This 
management team was assembled to make sure that the needs and concerns 
of the community and law enforcement are given consideration, and to 
provide the program the best possible leadership. Following established 
organizational development and leadership practices, G.R.E.A.T. has a 
well developed strategic plan which takes it into the year 2000.
    The program was scrutinized in a Cross Sectional Evaluation 
conducted by the University of Nebraska at Omaha and the evaluators 
report that there is ``significant statistical information'' showing 
that students who received G.R.E.A.T. training developed more pro-
social skills than those who had not attended the program. This 
evaluation was completed in 1996 and will be published by the National 
Institute of Justice. Also, a Longitudinal Evaluation is underway. At 
the end of one year of collecting information from G.R.E.A.T. students 
who are involved in the longitudinal study, the evaluators are 
unofficially reporting that they have seen responses which are similar 
to what they observed in the Cross Sectional Evaluation.
    This program is truly a partnership between law enforcement, 
educators, parents, and the community and because of this fact, it 
stands the best chance of making a positive impact on its targeted 
audience.
    The G.R.E.A.T. Program is being funded in a limited number of 
jurisdictions. In addition, the G.R.E.A.T Program is funded out of the 
Violent Crime Trust Fund which expires in fiscal year 2000.
    Question. If you consider this program a success, why has the 
funding request level remained constant for the past three years?
    Answer. The G.R.E.A.T Program has been growing at an extraordinary 
rate because participating police departments and ATF have been 
spreading the stories of success through formal and informal 
communications. However, until the University of Nebraska at Omaha's 
Cross Sectional Evaluation was completed at the end of fiscal year 
1996, ATF did not have scientific evidence that demonstrated that this 
program meets its objectives. Until the evidence of its success was 
obtained, we were taking an incremental approach in requesting funding
    Question. A public survey conducted in Green Bay, Wisconsin, 
relates increasing juvenile crime to gang activity. What could ATF do 
to help eradicate this problem?
    Answer. The G.R.E.A.T. Program is proving to be an effective tool 
in the fight against youth gang violence. However, in order for this 
program to have the most benefit it must be used with comprehensive 
illegal firearms suppression programs such as the Youth Crime Gun 
Interdiction Initiative, intervention programs, and other prevention 
programs which target youth offenders. G.R.E.A.T.'s strategic plan 
calls for us to seek and develop partnerships with other community 
based programs at the federal, state, and local levels. Through formal 
partnership with other Federal Departments (Justice and Education), 
state, local and non-profit agencies, G.R.E.A.T. has helped communities 
educate many American youths by providing them with valuable life 
skills which address the following topics: What are gangs and how they 
differ from Clubs; Crime/Victims and Victim Rights; Cultural 
Sensitivity/Prejudice; Conflict Resolution; Meeting Basic Needs; Drugs/
Neighborhoods; Responsibility; and Goal Setting.
    The Youth Gun Crime Interdiction Initiative is aimed at stopping 
the illegal supply of guns to gang offenders and juveniles. Since much 
youth firearms violence is gang-related, the YCGII is a critical 
component of our Nation's efforts against juvenile crime. The G.R.E.A.T 
Program give ATF, other Federal agencies, and State and local law 
enforcement tools to prevent violent crime and gang activities by 
developing the life skills of those people who attend the class and 
assuming that illegal firearms are less accessible.
    Question. Other than contracting for a University of Nebraska 
evaluation, has ATF developed any standards or criteria for measuring 
the G.R.E.A.T. Program success?
    Answer. G.R.E.A.T. is given its direction by a National Policy 
Board and managed by a National Training Committee which has developed 
a policy manual designed to insure that the curriculum is not changed 
and that the instructors are certified to teach and use the curriculum. 
We also continually have dialogue with program participants. However, 
the formal scientific evaluation of the program will be accomplished by 
the University of Nebraska study. This study will also provide the 
required outcome measures which could be applied in any local 
jurisdiction to measure success.
    Question. The University of Nebraska's preliminary evaluation of 
the G.R.E.A.T program is based on the first 18 months of a four year 
examination period. How statistically valid would the 18 month results 
be in a four year longitudinal study?
    Answer. The University of Nebraska has actually completed the first 
two parts of a three-part evaluation process. The results we now have 
are from the cross- sectional and process evaluation parts. Each shows 
G.R.E.A.T. as having positive results. As mentioned in the response to 
question 25, we only have unofficial, early results on the longitudinal 
study.
    The National Institute of Justice believes longitudinal evaluations 
provide the most statistically valid indication of the effects of 
prevention/resistance programs. The evaluation being conducted by the 
University of Nebraska at Omaha must pass a ``peer review'' before it 
will be accepted by the National Institute of Justice as a valid study. 
We cannot answer the question as to the statistical validity of the 
current results toward the four year study.
    Question. It has now been a year since the preliminary results of 
the Nebraska study were released. Has a 2nd phase analysis been 
produced?
    Answer. The initial evaluation was a cross-sectional evaluation 
that has been completed, and the results will be published by the 
National Institute of Justice (NIJ) soon. NIJ did conduct a press 
conference and announced the preliminary results of the study in 
October 1996 during the annual International Association of Chiefs of 
Police (IACP) conference, however, the report still needs to be 
published by them.
    In addition, the first phase of the longitudinal evaluation is in 
progress, and the data from the post test and one year follow-up 
questionnaires are being prepared for analysis. Preliminary results 
should be available in late summer 1997.
    Question. It is currently costing $3 million annually to administer 
this program, which has provided training to approximately 2 million 
students over a five year period. Do you consider that a cost effective 
use of the funds?
    Answer. Yes, the responsibility of ATF is to administer, evaluate, 
and expand the program, as well as provide assistance to communities 
who wish to join the program, or are using the program. All of these 
funds are not expended by ATF. Theses funds also pay for such things as 
G.R.E.A.T. officer training for non-cooperative agreement cities, the 
University of Nebraska's evaluation study, and 50 percent of the 
cooperative agreement with the city of Phoenix.
                       canine explosives program
    Background: In 1990, the U.S. Department of State, Antiterrorism 
Assistance Program requested ATF to evaluate their (DOS) canine 
program, which trained explosive detecting canines for foreign 
countries. ATF uncovered several serious deficiencies including no 
scientific testing, training, or oversight. DOS requested ATF's 
assistance in developing a training program to address the ATF 
concerns. As a result ATF started it's own program. The fiscal year 
1998 ATF budget requests $3.9 million and 17 FTE to expand the canine 
training program.
    According to ATF, their program is the only scientifically based 
training program, which utilizes specific scientific protocols to 
train, test and certify the performance of their canines. In addition, 
ATF has developed canine odor recognition training, using pure 
explosive substances, designed to eliminate cross contamination of 
explosives odors during explosives detection training. As a result, ATF 
has reported that their dogs can detect small amounts of some 19,000 
different explosive compounds.
    A number of agencies and departments involved in bomb and 
explosives detection have called into question, the claims ATF has made 
about it's Canine Explosives Detection Program.
    Question. What operational experience does ATF have in the pre-
blast use of canines to detect explosive substances and devices?
    Answer. As the primary Federal agency charged with explosives 
jurisdiction, ATF trains other Federal, State, and local law 
enforcement officials on bomb search techniques, explosives device 
recognition, etc. ATF's jurisdictional authority applies whenever the 
components of a device are present. ATF also trains FAA personnel in 
device recognition. Per the Gore Commission, they recognized ATF 
expertise in the explosives arena and recommended ATF join the airport 
consortia to do explosives and disguised firearms threat assessments.
    Because of the sensitive nature and significance of the 
investigative tool, ATF devotes additional resources to complement the 
handlers in the field. ATF is able to provide the other investigative 
tools associated with the Canine Explosive Detection Program (CEDP) 
such as laboratory analysis, explosives technology assistance, 
certified explosives specialists, National Response Teams, 
International Response Teams, explosives incidents data bank, 
explosives tracing, trend analysis, assistance in stolen explosives 
recovery, explosives training for law enforcement personnel, audit and 
major case oversight assistance, profiling, and polygraph examinations.
    The Canine Explosive Detection Program was developed and is 
designed to incorporate all the support systems necessary to maintain 
the integrity of the program and provide Federal, State, local, and 
foreign law enforcement with the most dependable, durable, and mobile 
explosives detection system available today. The CEDP incorporates the 
knowledge and experience of the ATF forensic laboratory explosives 
section and the technical expertise of ATF explosives experts, special 
agents, and canine trainers into a training regimen that produces a 
final product capable of addressing the escalating explosives threat 
faced by many communities.
    An added dimension to the explosives detection canine trained by 
the CEDP is its ability to detect firearms and ammunition. Because the 
canines are conditioned to detect smokeless powder and other types of 
explosives fillers, they may be used by law enforcement to detect 
firearms in luggage, vehicles and during the service of search 
warrants.
    ATF trained and certified canines have been used in pro-active law 
enforcement operations by foreign countries since the beginning of the 
CEDP in 1990. ATF canine teams are trained to work in a variety of 
different environmental settings on a daily basis. ATF has trained 122 
canines for 7 foreign countries to be used in the war against 
terrorism. These canines have provided the following pro-active law 
enforcement duties in foreign countries: VIP and presidential 
protection details; security sweeps in American and foreign embassies, 
synagogues, palaces, public buildings and border checkpoints; searches 
of airports and airliners; explosives detection on high-risk search 
warrants; ships and ports of entry; courtrooms; bomb threats; etc. 
Canine teams work extensively at the Italian presidential palace, at 
the Vatican and on the Pope's travels outside the Vatican, and on all 
of Egyptian President Mubarak's movements. Canine teams worked on a 24-
hour schedule in support of site, airport, and route security at the 
Peacemaker's Summit in Sharm al Sheik attended by the leaders of 17 
countries, including President Clinton, Arafat, Mubarak, Kohl, Major, 
and Peres.
    ATF introduced a pilot program two years ago with one ATF trained 
and certified explosives/weapons detection canine team. During the past 
two years, this canine team has been used in numerous pro-active ways. 
The team has helped locate weapons and ammunition on numerous search 
warrants, they have provided security sweeps of buildings for VIP 
visits, they have helped to recover evidence after explosives incidents 
and after a shooting incident, and they have been requested by State, 
local, and Federal agencies on numerous occasions for security/bomb 
sweeps for public buildings, schools, and government offices.
    Examples from ATF's pilot special agent/canine team include the 
utilization of the team to help recover evidence after a brutal murder 
during a ``carjacking'' involving a firearm in Charlotte, North 
Carolina. The ATF canine searched a heavily wooded area, previously 
searched by officers. As a result of the shooting, the canine found 
minute amounts of skull and brain tissue in debris and on a wall with 
gunpowder residue.
    Numerous searches have been enhanced by the presence of the ATF 
canine team. On one warrant the ATF canine found two concealed firearms 
during a search warrant. One of these firearms, a small semi-automatic 
assault weapon, was concealed in a bag and suspended in a crowded 
closet. On another warrant, the ATF canine helped in the recovery of 
over 110 firearms in various locations.
    The Department of State, Office of Antiterrorism Assistance (DoS-
ATA) has provided us with feedback on the work of the canines overseas. 
An example of the effectiveness of these canine teams on high risk 
search warrants comes from the Egyptian National Police. During entry 
to a terrorist safehouse, the canine teams were used with the entry 
team on their approach to the house. The canines alerted on the front 
door, the selected point of entry, prior to the entry. The point of 
entry was moved to an alternate entrance at the rear of the house. 
After entry was made, it was discovered the front door was booby-
trapped with explosives. The ATF/ATA canines were credited with saving 
the lives of the six entry team members.
    The Greek canine teams have performed over 15,000 searches, of 
which 10,000 were of a preventive nature in high profile targets, and 
the remainder concerned bomb threat searches. It is reported that no 
mistakes were made, as there were no bombs that went undiscovered and 
no other objects that were identified as bombs. Two improvised 
explosives devices were located, and the ATF/ATA canines were credited 
with saving the lives of many people. These finds are described below.
    Following a bomb threat telephone call at the residence of the 
former President of the Scientific Council on Terrorist Matters, the 
ATF/ATA canine team located the clockwork explosive device.
    Additionally, following a bomb threat telephone call at the 
Building of Justice in the city of Kavala, the ATF/ATA canine team 
located the device inside a ladies handbag.
    The ATF canine team and nine ATF/ATA canine teams from Greece and 
Chile were specifically requested by the International Olympic 
Committee (IOC) and the Atlanta Committee for the Olympic Games (ACOG) 
to provide security/bomb sweeps of the Main Press Center and the 
Marriott Marquis Hotel, where a large majority of the foreign 
dignitaries, Heads of State, VIPs, and executives of IOC and ACOG were 
lodging.
    The explosives enforcement officer assigned to the CEDP has 
extensive experience with the New York City Police Department (NYPD) 
Bomb Squad. He was an explosives expert/member of the bomb squad and 
was responsible for the oversight and training of all of NYPD Bomb 
Squad explosive detection canines. The NYPD Bomb Squad was responsible 
for extensive searches for the United Nations and for all of the pre-
blast security/bomb sweeps for the city, to include work at both 
LaGuardia and JFK airports.
    ATF also regulates the explosives industry and is the first agency 
to receive explosives samples, new packaging techniques, etc.
    Question. How effective is an explosives detection canine in the 
post-blast environment that has been littered with explosives material? 
Have any studies been performed on this subject?
    Answer. The effectiveness varies with the type of bomb and type of 
explosive. With pipe bombs, the canine search is very effective in 
locating fragments of the pipe bomb itself. In cases where a more 
vapor-producing explosive is used, such as dynamite, the canine is not 
effective in the crater area, but very effective in the wide outer 
perimeter area searching for components of the explosive device. ATF 
explosives experts are trained to recognize the blast seat and 
immediate areas surrounding it. The canines are most useful in the 
outer perimeter areas searching for bomb debris and fragmentation, 
where the fragments are not as easy to find. The canine is able to 
locate bomb debris and fragments in grass, in dirt, under leaves, in 
wooded areas, etc.
    Examples of this are the use of ATF/ATA canine teams at post-blast 
scenes. Two canine teams were asked to respond to a post-blast scene 12 
hours after two detonations occurred in Argentina. These teams 
responded to the scene and, immediately after starting the search, 
found remains of a pipe bomb. A few minutes later the canine teams 
found remains of the pipe bomb inside a garbage bag. Also, minute 
remnants of the other explosive device's power train, a small fraction 
of a cable, and a battery were found.
    Another example from Buenos Aires was a canine team that was called 
to a high school. A large group had been demonstrating near the school, 
and some detonations were heard. During the scene search, a canine had 
a positive alert to a barely visible gray spot of about 30 centimeters 
in diameter on a door of an outside patio and to a smaller spot on a 
door glass pane. These samples were sent to the laboratory which 
reported that the samples were identified as black powder residue.
    Presently no studies have been done, as this is a new area for the 
canine teams. When we have had occasions to use this technique, the 
canines found items that otherwise might not have been found by human 
searching. It has been particularly effective in cases where we have 
searched for weapons. A weapons search is essentially a search for the 
post-blast residues of smokeless powder. This works when you are 
searching for fired cartridge cases, fired weapons, or post-blast pipe 
bomb fragments.
    Question. How many ATF explosives detection dogs are operational in 
the United States? Please provide a position (job) description for an 
ATF explosives canine handler.
    Answer. After viewing the success of the ATF/ATA program in foreign 
countries, ATF decided to start its own pilot program, two years ago, 
with one operational canine team. This year ATF will add six additional 
special agent/canine teams. The position vacancy announcements have 
already been advertised for Chicago, San Francisco, Miami, Atlanta, 
Dallas, and Los Angeles. These teams, strategically placed throughout 
the United States, will help support ATF and assist State and local 
agencies. These additional teams were made possible through fiscal year 
1997 funding.
    ATF canine handlers are also ATF special agents. The special agent 
enhances the canine handler position by being an experienced law 
enforcement officer with a wide range of professional investigative 
training and experience. The special agent/canine handler is well 
versed in all areas of criminal enforcement and the various Federal 
laws enforced by ATF.
    ATF plans to train explosives detection canines for eight State and 
local agencies this year. Once the enhancements have been made to the 
canine training facility and additional training staff is in place, ATF 
will begin to train 100 canines annually. This is expected to happen 
during fiscal year 1999.

    [Clerk's note.--The position description for the ATF Special Agent/
Canine Handler position does not appear in the hearing record, but is 
available for review in the subcommittee's files.]

    Question. The House Treasury Appropriations Bill Report for fiscal 
year 1997 expressed concern about the existence of multiple Government 
canine explosives detection programs in an attempt to avoid duplication 
and waste. How does ATF's canine explosives detection program 
objectives differ from DOD's Military Working Dog Center and FAA's 
program? Could ATF use the established assets and resources at the 
Military Working Dog Program, already utilized by a number of Federal 
agencies?
    Answer. ATF has, on several occasions, asked the Department of 
Defense Military Working Dog Program (DOD-MWD) and the Federal Aviation 
Administration (FAA) for a copy of their certification standards and 
protocols. ATF has supplied these agencies with a detailed booklet on 
its program. ATF has had discussions with these agencies and is waiting 
to receive written information on these agency's certification 
standards and protocols.
    ATF uses different canine training methods and different protocols 
than the DOD-MWD program. One difference is ATF utilizes its National 
Forensic Laboratory, located in Rockville, Maryland, and its Explosives 
Technology Branch, located in Washington, DC, in conjunction with its 
training center for expertise in the selection of explosive compounds 
used in training. The scientific validation from ATF's National 
Forensic Laboratory is different from the scientific validation by DOD-
MWD's animal behaviorists' staff.
    The ATF program has always handled explosives samples differently 
than other programs to avoid contamination problems. Recently, some 
programs acknowledged contamination problems, and are now using the 
same or similar techniques for handling and storing explosives that ATF 
uses.
    ATF utilizes the blind test methodology, wherein the forensic 
chemist administers the certification test.
    ATF also utilizes a multitude of non-explosives distracting odors 
in its training and in the certification process. ATF believes the use 
of distracting odors more closely resembles the ``real world'' working 
environment. Canines will encounter all types of different odors while 
working, not just explosives.
    ATF only uses Labrador Retrievers, a hearty, intelligent breed 
which can readily adapt to changing environments and one which posses a 
nonaggressive disposition which is effective in searching for 
explosives.
    ATF is aware of only one Federal agency (FAA) that uses the DOD-MWD 
facilities. The FAA contracts with the DOD-MWD to train canines for 
their program. FAA then assigns these canines to other law enforcement 
agencies to support their mission. FAA does not train or have any of 
their own canine teams. ATF selects, trains, oversees, evaluates, and 
certifies all canines in their Canine Explosive Detection Program 
(CEDP).
    It would not be advantageous now for ATF to utilize the DOD-MWD 
facilities because two different training methodologies and program 
standards are utilized. ATF's certification standards are different 
from the DOD-MWD program. However, if their standards met ATF's our 
criteria and ATF needed to produce teams beyond the capabilities of the 
Front Royal facility we would consider it.
    ATF would also have to incur the expense of relocating personnel, 
lose the on-site response of its National Laboratory, and procure new 
explosives bunkers to alleviate any possible contamination problems.
    ATF has already established an excellent working relationship with 
the United States Customs Service (USCS), and is jointly utilizing 
their Canine Enforcement Training Center (CETC) in Front Royal, 
Virginia. ATF has received funding for, and is presently in the process 
of, constructing a canine training building and new kennel facility to 
augment the existing USCS facility.
    Question. Last year Congress also directed ATF to establish a pilot 
joint canine explosives detection program with the FAA to formulate 
standards for detection of explosives devices to further aviation 
safety. Where has ATF developed the necessary experience to train for 
searching and clearing large passenger airliners?
    Answer. ATF trains canines for the environments they will be 
primarily used in by the countries receiving the canines. ATF canines 
working in conjunction with the DoS-ATA Program were working pro-
actively in foreign airports long before the pro- active approach was 
introduced to U.S. airports. ATF does not just specifically train its 
canines to work in airports, nor does it specialize its training 
program for clearing airliners. ATF-trained canines are trained to work 
in a multitude of different environmental settings. It is ATF's belief 
that if the canine is highly trained to alert to the explosives odors, 
it can easily be trained to work in a variety of different 
environmental settings.
    The ATF/ATA trained canine teams belonging to the Egyptian National 
Police have been assisting on the majority of TWA flights transiting 
Cairo. The primary flight services Riyadh/Cairo/JFK and returns. Since 
the Alexandria letter bomb incident, the ATF/ATA canines are now 
assigned to all departing TWA flights.
    The Italian National Police initially received two ATF/ATA canines 
that have been used at the Rome Fiumicino Airport. A new class of eight 
handlers just completed training and will also be assisting at 
airports.
    The Greek National Police use ATF/ATA canines on a daily basis at 
airports. U.S. airliners are among the airplanes searched daily, as 
well as Olympic Airways aircraft that fly to the United States.
    ATF understands that canines have only just begun to work pro-
actively in U.S. airports since the explosion of the TWA flight. This 
initiative was started with fiscal year 1997 funding provided to the 
FAA for an additional 114 canine teams to be used in airports, which 
was supported by the White House Report on Aviation Safety and 
Security.
    It is ATF's understanding that the pilot program with FAA was to 
identify areas where the canines could be effectively utilized in 
airports and to gain knowledge from each others' canine programs. The 
congressional mandate authorizing the Secretary of the Treasury to 
establish national certification standards for explosives detection 
canines is separate from the joint pilot program with the FAA.
    Question. The joint FAA and ATF report to Congress is past due 
(April 1, 1997) on a trial canine explosives detection program at 
Dulles International Airport. What is the reason for the delay? What is 
the current status of the study? When is the report expected to be 
completed?
    Answer. An interim report on the establishment of a joint ATF/FAA 
canine explosives detection pilot program at Dulles International 
Airport has been prepared by ATF and is in the review process. It will 
be forwarded upon final review. We regret the delay in our response.
    ATF and FAA have met on five occasions to discuss implementation of 
the pilot program, most recently on May 19. ATF and FAA met with 
representatives from the Metropolitan Washington Airport Authority 
(MWAA) during March 1997. ATF has offered the full support of its 
Canine Enforcement Program along with an ATF special agent/canine team 
as part of the pilot program. This offer was declined by MWAA. ATF is 
continuing discussions with FAA in relation to the pilot program.
    ATF will forward their interim report on the pilot program progress 
upon final review. FAA has stated they will forward a similar report.
    Question. Have there been ``third party'' evaluations of the ATF-
trained dogs sent to the Department of State's Anti-terrorism 
Assistance designated countries? Please provide copies of ATF's 
scientific protocols for initial training, certification, and re-
certification procedures and standards used for the ATF Canine 
Explosives Detection trained teams.
    Answer. The Chief Explosives Forensic Chemist assigned to ATF's 
National Forensic Laboratory conducts the certification process for the 
ATF trained canines. Fresh explosives samples are brought from the 
National Laboratory's exemplar collection for the certification test. 
Two of the samples used and brought to the certification test are 
explosive samples that the canine teams have never been trained on 
before. The canine teams must positively alert to these two samples and 
the 18 other explosives samples presented in the tests to pass the 
certification process.
    An example of a third party evaluation of our canines was when the 
Greek National Police participated in the World Competition for Police 
Explosives Detection Canines in the Republic of Slovakia in September 
1996. The ATF/ATA trained and certified canine ``Garin'' won first 
place. Twenty-three countries participated using numerous canine teams. 
The Greek National Police believe this honor confirms that they are 
using the best explosives detection canines in the world.
    The Director of ATF invited representatives from every Federal 
agency with a canine explosives detection program to visit its training 
facility in Front Royal, Virginia. These agencies were invited to 
attend, discuss, and exchange information about ATF's certification 
standards and protocols, and observe the actual final certification 
process of the Egyptian National Police on November 4, 1996. Several 
agencies attended, including the FAA, Galaxy Scientific (an FAA 
research contractor), DOD-MWD, DoS-ATA, Technical Science Working 
Group--Office of Science and Technology (TSWG-OST), Department of 
Transportation (USDOT), United States Customs Service (USCS), United 
States Capitol Police (USCP), and the United States Secret Service 
(USSS).
    Attached is an ATF booklet prepared on the Canine Explosive 
Detection Program that explains the program and contains a scientific 
paper prepared by Chief Explosives Forensic Chemist, Richard Strobel. 
The paper discusses all aspects of ATF's pilot CEDP. This booklet has 
been supplied to all interested law enforcement agencies, and has been 
sent in response to inquiries made about our canine program.

    [Clerk's note.--The ATF booklet will not appear in the hearing 
record, but is available for review in the subcommittee's files.]

    Question. Are you aware of any client countries which have 
participated in the ATF Canine Explosives Detection Program (sponsored 
by DoS), seeking alternative canine program assistance? Have any of the 
teams failed re-certification? What happens to a team that fails re-
certification?
    Answer. ATF is unaware of any client countries who are seeking an 
alternative canine program to the current ATF/ATA program. In 1990, the 
DoS-ATA evaluated the private sector canine contractor they were 
utilizing and found some deficiencies in the training process. After 
this assessment, DoS-ATA entered into an agreement with ATF to produce 
a more effective explosives detection canine. One with the capability 
of detecting more explosives odors and in smaller quantities than was 
currently being done. ATF used the expertise and success of the Canine 
Accelerant Detection Program (CADP) to develop its Canine Explosives 
Detection Program (CEDP). ATF used the training methodologies and 
protocols from the CADP, ATF explosives experts, and the ATF National 
Laboratory to develop the CEDP.
    Some countries that currently participate in the ATA Program have 
been phasing out their prior (non-ATF/ATA) bomb dogs and are completely 
replacing them with ATF/ATA trained canines. Prior to each country 
receiving the ATF/ATA canine program, an assessment is conducted on 
their capability to support the stringent program requirements. In 
addition to them having to meet ATF/ATA requirements, they are advised 
they will receive a small number of canines for piloting (2 minimum, 6 
maximum).
    Each country then has the task of comparing the canines they have 
in their existing programs to the canines supplied by the ATA Program. 
All countries have unequivocally accepted the ATF/ATA program as being 
far superior to anything they have had previously.
    The bomb squads of the respective countries are the end user and 
have stated that they have confidence in the capabilities of the 
canines trained by ATF for ATA. In Cyprus for example, the bomb squad 
commander, Inspector A. Chakalis was skeptical of canines in general 
based on canines that were in use prior to the ATF/ATA pilot. During a 
period when the canine handlers and trainers were away from the 
training facility, he hid explosives, ammunition, and weapons in 
locations the canine personnel were unaware of. He then asked them to 
conduct a search of the area. Much to his surprise, the canines found 
everything he had hidden in all of the locations. He stated to the most 
recent ATA evaluation team that he did not believe canines were capable 
of doing the things that he observed the canines doing. Because of his 
new found confidence in the canines, he has met with the national 
police hierarchy and requested the canines be assigned to his unit. He 
is now in charge of the bomb squad and the canine unit is integrated 
into that system.
    The end user is really the person who evaluates the product. In 
Cyprus they are satisfied that the ATF/ATA canines they currently have 
are far superior than any other canines they have had in their 30 plus 
years of experience with canines.
    ATA sends evaluation teams back to the countries which have 
received ATF/ATA canines. These teams conduct assessments of odor 
recognition capabilities and application of operational methods as 
taught. The respective countries have been given training guidelines 
for the upkeep/maintenance of the canines to keep them effective. Based 
on the ATF/ATA evaluations, the countries have done very well in this 
aspect.
    In the canine's working environments, they encounter terrorist 
threats on a daily basis, thus there is no margin for error. The canine 
unit administrators, managers, supervisors, trainers, and handlers 
realize the business they are in and take what they do as a matter of 
life and death. Therefore, they train in real world situations and, at 
this time, there have not been any reports of any teams in any country 
being de-certified.
    All of the countries that have received ATF/ATA trained canines 
have requested more canines. A requirement of the ATA program is that 
the recipient countries have experience in managing a detection canine 
program. They are to evaluate the ATF/ATA canines in their respective 
countries. Each country must make their own assessment of the 
effectiveness of the ATF/ATA canine program. Thus far, all countries 
have requested additional ATF/ATA trained canines for use in their 
countries.
    Several of the countries with long histories of explosives 
detection canine programs utilizing the other training methods are in 
the process of converting their existing programs over to ATF's 
training methodologies and standards.
    ATF has trained three classes for Cyprus, two for Greece, three for 
Egypt, two for Chile, two for Israel, two for Italy, and two for 
Argentina (one class completed training and one class is in training). 
Jordan is the next country scheduled to begin training. Israel and 
other countries with much explosives experience, and with high rates of 
explosives incidents, have requested more canines than we can presently 
produce with our current resources.
    All 122 ATF/ATA canine teams that have gone through ATF's 10-week 
explosives detection training program have successfully completed the 
certification process with 100 percent of the explosives odors 
identification and have successfully completed all field training 
procedures.
    All of our client foreign countries have been satisfied. They 
encounter terrorists and improvised explosive devices more often than 
the United States. The fact that they continue to request more of our 
canines and have changed their former canine programs to match ours 
speaks for itself.
    There have been no reported failures in recertification in these 
foreign countries. If a team failed the recertification process, it 
would be evaluated and re- trained in the deficient areas, and returned 
to work, if appropriate.
    Question. How many explosives detection dogs has ATF trained to 
date? What is the projected operational life expectancy of the dogs? 
How many of these dogs are still operational?
    ATF has trained and certified 122 canine teams for the DoS-ATA 
Program and 1 pilot canine team for ATF's operational usage. ATF trains 
the canine and handler together so they work more efficiently as a team 
in the field.
    The operational ``working life'' expectancy of the Labrador 
retriever utilized in ATF's canine programs is 7 to 9 years. The health 
of the canine is of the utmost importance to ATF. ATF gives additional 
health care training to every class of students. ATF also requests that 
each country send its assigned veterinarian to the training facility, 
so the foreign veterinarians can learn the new technologies and medical 
information pertinent to this breed.
    ATF has also trained and certified 56 accelerant detection canines, 
using the same methodologies, since 1986. There are still 46 of these 
canines working today, exemplifying the excellence of this program. The 
remainder of these canines have since been retired. All of these 
canines have successfully recertified on an annual basis.
    To our knowledge, of the 122 trained canine teams, approximately 5 
are not operational because of medical reasons/age. We are not aware of 
any team having been taken out of service due to training problems or 
lack of ability to identify explosives odors.
    Question. Please provide certification of the scientific validation 
of your canine training program, including sufficient detail to allow 
independent verification of stated results, not a summary of the 
program. Also, please include any peer-reviewed articles published in 
professional journals that further substantiate ATF's claim of having 
the only scientifically validated training program in the world.
    Answer. The ATF pilot explosives detection program is outlined in 
Chief Explosives Forensic Chemist Richard Strobel's report in 
attachment B. These standards have been made public by ATF and sent to 
all requesting law enforcement agencies. ATF is unaware of any other 
canine program which has done the same.
    In 1984, ATF conducted a study to determine the feasibility of 
imprinting a canine with an accelerant odor using the same 
methodologies and protocols it now uses in the explosives detection 
program. The findings of this study were presented to the American 
Academy of Forensic Science.
    ATF recognizes that other programs use scientific data to verify 
their canine programs, such as the DOD-MWD's animal behaviorists' 
studies. However, ATF has not been supplied with any of this 
information.
    To our knowledge, ATF is the only canine explosives detection 
program that fully utilizes a nationally accredited explosives forensic 
laboratory to back up its validation and certification standards.
    ATF has invited and allowed anyone interested to view our program. 
ATF has also presented studies and findings performed in conjunction 
with Lawrence Livermore Laboratories at international symposia 
(International Symposium on the Analysis and Detection of Explosives 
1992 and 1995; sponsored by the FAA). Validation is provided by the 
scientific testing and evaluation process that each canine undergoes 
and which demonstrates that the training methodology is effective. ATF 
only claims that we use scientific methods and scientific controls for 
the testing and evaluation of the canines. ATF selects the explosives 
on which to train the canines based upon the chemical compositions and 
the chemical families of explosives which exist today.
    The CEDP incorporates the knowledge and experience of the ATF 
forensic laboratory and the technical expertise of ATF explosives 
experts, special agents, and canine trainers into a training regimen 
that produces a final product capable of addressing today's escalating 
explosives threats.
    Question. What is ATF's participation in the on-going canine 
detection enhancement work and olfaction studies being funded by the 
Technical Support Working Group, DARPA, FAA, DOD, ONDCP, USSS, and the 
international cooperatives with Israel and the United Kingdom?
    Answer. ATF is not participating in this study, however, it has 
received information in relation to this study. ATF has not received 
any funding in any fiscal year to do any similar studies.
    ATF would like to continue receiving information on this study and 
any other studies by Federal agencies who have been Federally funded to 
perform such canine studies. ATF recognizes the best way to improve any 
program is through the sharing of information. This is why ATF has 
shared information on our program with and has been responsive to the 
requests of other agencies.
    Question. Have ATF's unique training protocols for explosive 
detection been used by other canine programs within the local, State, 
and Federal governments, or the private sector?
    Answer. ATF in partnership with the Connecticut State Police, has 
trained and certified 56 State and local accelerant detection canine 
teams utilizing ATF's methodologies. ATF has not trained any private, 
local, State, or other Federal Government agencies of the United States 
in its canine explosives detection program for domestic use. Since 
fiscal year 1997 funding was received, ATF will begin canine explosives 
detection training for State and local law enforcement agencies. 
Applications for participation have been sent to State and local 
agencies who have requested participation in the Canine Explosive 
Detection Program. The first class for State and local agencies will be 
conducted this fall. ATF will provide the funding for these State and 
local agencies to participate in our CEDP.
    The NYPD Bomb Squad Canine Unit has been utilizing the classical 
conditioning method of training since the early 1970's.
    Question. ATF states that their fully trained explosives detection 
canines are capable of detecting 19,000 different explosive compounds. 
What is the degree of reliability for detecting each of these compounds 
and what is the expiration of this reliability quotient upon leaving 
basic training? Please provide the scientific evidence of the canines 
abilities.
    Answer. The 19,000 number is based on the number of explosives 
formulations that exist today. Each of these formulations has explosive 
compounds which are common to the five basic chemical families of 
explosives. ATF trains the canine on these basic odors, thus allowing 
the canine the ability to detect any explosive formulation that 
contains one of these odors. This method is validated when the dogs are 
tested at the end of their training. During this test the canines are 
tested on explosive formulations that they have not been exposed to in 
their training.
    The canines are tested using the pure forms of the explosives and 
on explosives compounds they have not been exposed to before. Examples 
include NESTT explosives, reagent oxidizers, foreign explosives, urea 
nitrate and a long list of experimental and specialty use explosives. 
There have been no instances where ATF has presented a new explosives 
formulation to a trained canine which the canine could not detect. 
After basic training the canines train on a continued daily basis and 
are tested continuously, assuring the canines are working effectively.
    The degree of reliability in large part relies on the continued 
training supplied by the handler, as it does with all canine programs 
for any detection discipline. Since the ATF canines train on the food 
reward system, they average 100+ training repetitions per day of 
smelling explosives odors. This varies greatly from some other forms of 
training. As with anything, the more training received, the more 
reliable the end product.
    The ATF canines must detect 100 percent of the 20 explosives odors 
to certify. We know of no other canine programs that require their 
canines to detect 100 percent of explosives odors in order to certify. 
ATF canines must also pass the annual recertification test with 100 
percent accuracy.
    Question. Please provide copies of the scientific studies that 
support ATF's training methodology, wherein training a canine using 
pure explosives substance (e.g., RDX, TNT, and Nitroglycerin) will 
reliably alert to other explosive compounds containing that pure 
component (i.e., 20 pure odors detecting 19,000 explosive compounds). 
Will a ATF explosives detection dog trained on a pure major compound in 
smokeless powder be able to detect all smokeless powders?
    Answer. Attachment B and answers to Q41, Q44 and Q46 provide 
information on the scientific studies that have been conducted that 
support ATF's canine training.
    Yes, a canine trained on the correct smokeless powder formulation 
will be able to detect all other formulations with that common 
ingredient.
    Question. What animal behavior studies support ATF's food reward 
and measured daily diet training methodology? Is there scientific 
evidence that this methodology remains effective once the dog and 
handler leave the disciplined training environment?
    Answer. ATF utilizes the classical conditioning method of training 
which has been utilized by the canine training profession for decades. 
The classical conditioning method is not a new theory in the realm of 
behavioral psychology, nor to the field of animal behaviorists.
    The ATF canines are fed their full ration of food every day by 
their handler/partner. This daily training method is supported by the 
Guide Dog Foundations (where ATF procures its canines) and by ATF's 
veterinarian staff.
    Answer. The scientific evidence that this training method remains 
effective in the field is proven by the operational usage of the 
canines, and the numerous explosives and weapons ``finds'' made by 
these canines in actual field operations. Also the fact that all ATF 
trained canines, in both the accelerant and explosives detection 
programs, are able to pass their annual re-certification tests by 
correctly identifying all of the accelerant or explosives odors 
presented to them.
    The technique also remains effective because the canine teams 
continuously undergo the same training on a daily basis with 100+ 
training repetitions wherein the canine is exposed to explosives odors.
    The recurring successes overseas and the fact that the accelerant 
detection program, using the same methodologies, has remained 
successful since 1986 is further evidence this program works.
    Question. What is the minimum acceptable margin of error for ATF's 
Canine Explosives Detection program (false positives/false negatives)? 
What has been the pass/fail history of the canine and handlers 
participating in the program?
    Answer. ATF-trained canines MUST pass the certification test with 
100 percent accuracy on all 20 compounds in order to receive ATF 
certification. Only one false alert on a non-explosives odor is allowed 
in the entire certification process. All 20 explosives compounds must 
be alerted to positively with no misses. This pass/fail standard 
ensures the proficiency of the canines and maintains the integrity of 
ATF's Canine Explosive Detection Program (CEDP). To ATF's knowledge, 
ATF is the only program with this number of explosives compounds and 
proficiency standards this high.
    ATF also utilizes the blind test methodology, wherein the forensic 
chemist administers the certification test. ATF also uses a multitude 
of distracting non-explosives odors in the certification test. ATF 
believes that canines working in ``real world'' environments will 
encounter all types of odors, not just explosives odors. Therefore, we 
train with and certify using distracting odors. Examples of distracter 
odors would be anything found in the environment in which the canine 
will be working, such as pet food, coffee, chewing tobacco, baby 
powder, toothpaste, denture cream, herbs, peanut butter, chocolate, 
soap, and tape.
    ATF certifies their canines on a minimum of 20 different explosive 
compounds in varying quantities ranging from 1.7 grams to 15 grams. 
Training quantities vary from 1 gram to amounts exceeding 1,000 pounds. 
Two odors used in the certification are from samples of explosive odors 
not previously used in training. This helps to verify that canines 
trained using ATF's methodologies on the basic families of explosives 
will enable them to detect any formulation of explosive compositions 
made from them. During a 6-year training period, ATF has utilized many 
different explosives compounds during training. All of these explosive 
compounds were detected and alerted to by ATF canines.
    To date, every canine entered into the ATF CEDP has successfully 
completed the entire training program and has received ATF 
certification as explosives or accelerant detection canines. ATF does 
not have a high ``washout `` rate which can result in a considerable 
waste of training time, resources, and money. ATF's success in this 
area can be attributed to the excellent breed and quality of canines it 
procures and the effective training methodologies we employ.
    Question. According to ATF, your training program produces 
certified canines that are capable of detecting explosives quantities 
as low as 3 grams. Please provide the reports that substantiate these 
detection levels. Does the amount of explosives relate to detection? 
Does temperature, humidity, surface area, and the presence of other 
contaminates or background odors impact detection? What validation does 
ATF propose to offer, to qualify canines detecting minimum threshold 
levels?
    Answer. All certification tests have been validated by the ATF 
National Laboratory. ATF has tested their canines on the 3 gram amount 
and lower. ATF not only uses small amounts of explosives to certify 
their canines, but also use distracting odors in the test. ATF has done 
this during the final certification test and each test is documented at 
the National Laboratory.
    Yes, ATF is fully aware that various factors/conditions will affect 
a canine's ability to detect odor, no matter what training methodology 
is used. There must be explosives odor available for the canine to be 
able to detect it. Since it is never known what the amount of available 
odor might be, ATF trains with minute quantities of explosives 
compounds. This helps give the canine the ability to detect the 
smallest quantities of explosives odors available.
    Since our canines are also conditioned to find smokeless powder and 
other types of explosives fillers, they are able to find firearms and 
ammunition. Our canines have made numerous weapons and ammunition 
``finds''. These include locating empty bullet cartridges that have 
been fired from weapons. They also located a new firearm which was 
fired once at the factory, factory cleaned, shipped out, purchased, and 
was never fired again.
    ATF offers the fact that 122 canines have been trained and 
certified by our National Explosives Forensic Laboratory on a minimum 
of 20 explosives compounds in quantities of 15 grams or less with 100 
percent accuracy. ATF routinely trains on levels less than those used 
in the final tests.
    Question. What quality assurance exists in the ATF program that 
dogs being trained are exposed to pure target samples of explosives, 
void of cross contaminant odors from other compounds (other explosives 
and commonly neutral material)? How does ATF verify and re-certify 
their training aids as being contamination free? What instruments are 
used to ensure that cross-contamination is not present in detectable 
levels by the canines undergoing training and certification?
    Answer. ATF obtains explosives in as pristine a condition as 
possible. ATF stores the explosives in magazines that have been tested 
to ensure that they are not contaminated by volatile explosives. ATF 
changes their explosives sample training aids and their containers on a 
weekly basis to minimize the odors obtained through normal handling. 
ATF obtains fresh explosives for each class it trains.
    The final testing of the teams is done with explosives that have 
been tested by the National Laboratory using either an EGIS or Scintrex 
EVD-1 explosives detector to check for cross contamination from other 
vapor producing explosives.
    Question. ATF states that they are the only agency in the United 
States (and in the world) producing explosives detection canines and 
handler teams based upon ``scientifically validated methods.'' What is 
the canine training methodology based on, employed by the other U.S. 
Government agencies? Should Congress question the degree of continuous 
reliability and effective performance of these other programs? Have 
there been documented cases involving these other Government programs, 
where explosive devices have been missed or never detected? What 
prompted the need for a ``Government-wide'' canine explosives detection 
standard?
    Answer. ATF recognizes that other canine programs have scientific 
validation for their programs. However, ATF has not been supplied with 
any of this information.
    To our knowledge, ATF is the only canine explosives detection 
program that fully utilizes a nationally accredited explosives forensic 
laboratory to back up its validation and certification standards. Until 
recently, ATF was not aware of any explosives chemists involved in the 
oversight of any other Federal canine programs.
    ATF is the Federal agency with jurisdiction over explosives 
incidents. ATF trains its own canines, oversees its own canine program, 
trains canine teams for other law enforcement agencies, and uses its 
National Laboratory to test and certify the canines.
    Since other programs have not provided ATF with information, we 
cannot comment on their programs. Other canine training programs should 
be required to report on their own respective training methodologies.
    Congress has the authority to question the reliability of all other 
agencies with canine explosives detection training programs funded by 
Congress and should be asked this same battery of questions regarding 
their canine programs.
    ATF is not supplied with documented ``finds'' or ``misses'' by 
other agencies. Heresay would not be an appropriate response. Congress 
has a legitimate role in the oversight of expenditures for Federally 
funded programs and can request this information from the other Federal 
agencies with canine explosives detection programs. Additional 
questions could be asked in reference to canine teams which have to be 
de-certified and for these agencies to supply information reference to 
their own in-house testing procedures and results.
    ATF believes that the new awareness of the necessity for the best 
security possible and the need to protect the American public against 
terrorists threats has a great impact on the field of explosives 
detection canines.
    There are general standards for everything used in the Federal 
Government. There has never been a standard placed on the effectiveness 
of explosives detection canines nor is there a definition of the 
capabilities expected of a canine purported to be a ``bomb dog''.
    Every Federal agency utilizing explosives detection canines has a 
specific operation/mission to fulfill. The training methodology is not 
as important as the canine's ability to actually detect explosives 
odors. ATF believes its program conditions canines to effectively 
detect explosives under most if not all conditions.
    Pursuant to law under the authority delegated to the Secretary of 
the Treasury by Congress, ATF is developing National Odor Recognition 
Proficiency Standards. These odor recognition standards are not 
intended to replace any current certification standards already set by 
each respective Federal agency that employs explosives detection 
canines. It is a basic odor recognition proficiency standard that 
should be incorporated into all certification processes. This standard 
will also provide State and local law enforcement agencies with 
guidelines when procuring explosives detection canines from the private 
sector for their own programs.
    We thank the committee for these excellent well-thought out 
questions and for giving us the opportunity to explain our program. We 
can not answer for other programs but feel these are questions that 
each canine explosives detection program should be required to answer. 
This will give Congress a thorough understanding of the canine programs 
funded by the US Government.
                     arson and explosives archives
    Background: The fiscal year 1997 Appropriations included an 
initiative to enhance the ATF Explosives Incident System (Archives) to 
allow direct access for all Federal agencies to report explosives and 
arson incidents. The fiscal year 1998 request for $1.6 million to 
complete the system development and hardware requirements and allow 
field office on-line access to this information.
    Question. What are the allied elements associated with gun running 
and counter-terrorism?
    Answer. The dissolution of the USSR and increased political, 
economic, and diplomatic sanctions against States sponsoring terrorism 
has caused certain terrorists groups to work with organized criminal 
organizations in order to obtain weapons or raise funds to buy weapons. 
For example, terrorist groups in South America have allied themselves 
with Colombian Drug Cartels. ATF is investigating U.S. nationals 
involved in trafficking firearms to insurgents groups in Central and 
South America, investigations involving Middle Eastern ethnic groups 
involved in firearms trafficking, and individuals involved in 
trafficking weapons to European terrorists groups. Firearms trafficking 
has also been associated with narcotics trafficking, alien smuggling, 
and other means in furtherance of organized crime, such as money 
laundering and the trafficking of any demand commodity.
    ATF works in conjunction with other Federal law enforcement 
agencies and national intelligence agencies to counter firearms 
trafficking in terrorist operations. ATF does this through the 
International Traffic in Arms (ITAR) and Project Lead programs. ITAR is 
accomplished through ATF's firearms tracing capabilities to identify 
illegally trafficked U.S. source firearms, assisting in the 
identification of individuals and businesses holding U.S. firearms 
permits and licenses, through foreign law enforcement liaison, and 
other joint Federal and international investigative and enforcement 
projects.
    ATF developed Project Lead, an automated firearms trafficking 
information system, which analyzes unique information on crime-related 
firearms gathered by ATF's National Tracing Center. Project Lead can 
help trace when a firearm entered the hands of a criminal, and who 
provided that firearm to the criminal.
    ATF is a member of several joint task forces which include the FBI 
Joint Terrorism Task Force. The task forces were established across the 
U.S. to combine efforts to battle international terrorist groups acting 
within the U.S. and domestic terrorist groups.
    Question. Is there any evidence that international governments are 
involved in gun running?
    Answer. Yes, ATF has noticed through firearms tracing statistics, 
an increase in the trafficking of U.S. source firearms to Mexico, 
Central and South America and Asian/Pacific Nations through firearms 
tracing statistics. ATF has also initiated investigations into firearms 
trafficking within the U.S., involving foreign firearms. One ATF 
investigation involves the alleged trafficking of guns through 
corporations backed by an Asian Nation. Through other investigations, 
ATF suspects government involvement in firearms trafficking to Mexico, 
and countries in Central and South America. Firearms trafficking is 
used not only in criminal and terrorist operations, but also for 
economic purposes, such as the avoidance of import or legal 
restrictions of the country of destination.
    Question. What is the scale of weapon diversion and what is being 
done to limit the market for weapon diversion?
    Answer. Weapon diversion of U.S.-source firearms (between 1991-
1996) has permeated the borders of 79 foreign countries, who reported 
over 30,000 firearms recovered. The majority of these firearms were 
located in three predominant countries; Canada, Mexico and Colombia. 
These firearms were used to commit violent crimes against the people of 
these countries. Allied crimes range from narcotics activities to 
terrorism and guerrilla activities.
    As a result of its unique ability to trace firearms, ATF is able to 
identify illegally trafficked U.S.-source firearms to these foreign 
countries. This information is used to identify smuggling trends in an 
effort to combat the illegal flow of firearms. The International 
Enforcement Branch (IEB) has established offices in Canada, Mexico and 
Colombia to assist international law enforcement agencies in the 
gathering and identification of U.S.-source firearms. IEB continues to 
provide extensive training in firearms identification, serial number 
restoration, and the tracing process. IEB has also established an 
international firearms response team whose mission is dedicated to 
responding to large cache of weapons seizures and properly identifying 
these large caches of firearms for tracing and investigative purposes.
    Question. Has the General Accounting Office done a study on this 
area?
    Answer. To our knowledge the General Accounting Office has not done 
a study in this area.
    Question. Please explain the international training programs run by 
ATF?
    Answer. International Law Enforcement Academy (ILEA)--Budapest: In 
partnership with the Department of State, Office of International 
Narcotics and Law Enforcement, and other Federal law enforcement 
agencies, ATF participates in training programs with foreign 
governments. During this partnership endeavor, skilled, dedicated, and 
experienced ATF instructors present to mid-level enforcement managers 
of the newly independent states of the former Russian Republic and 
Eastern/Central European countries, firearms trafficking investigation, 
explosives incident investigation techniques, and gangs/gang 
resistance.
    The block of instruction on Gangs/Gang Resistance provides an 
overview of the many gangs engaged in illegal activity in the United 
States, specifically dangerous street gangs. The instructor interacts 
with the students sharing and exchanging information enabling them to 
develop their own strategies to combat gang activities in their 
particular country.
    The Firearms Trafficking block of instruction provides an overview 
of the current firearms issues in the United States and discusses the 
most pressing law enforcement problems relating to firearms. The United 
States firearms law are reviewed and ATF's national firearms 
enforcement strategy is presented. Time is also allocated for the 
students to share and exchange information pertaining to their 
country's firearms laws, concerns, and issues, which should facilitate 
the development of strategies that meet their needs to combat firearms 
violence.
    The Explosives Incidents Investigation Techniques portion of 
instruction provides an overview of explosive theory, team concepts, 
and investigative techniques, utilizing ATF's ``100-Steps'' method of 
conducting postblast scene investigations.
    International Post-blast Investigation Training: The International 
Postblast Investigation Training is provided to countries of the newly 
independent states and countries of East/Central Europe. The students 
receive actual hands-on experience, learning how to conduct bomb scene 
investigations following an actual explosion, using the latest 
equipment available and following safe procedures while conducting 
postblast (bomb) scene investigations.
    ATF instructors present classroom instruction covering subjects 
that relate to explosive theory, team concepts, investigative 
techniques, reconstruction of crime scenes, postblast identification, 
military ordnance, the roles of the pathologist and chemist as it 
relates to explosive investigations, interview techniques and 
fingerprint processing. Practical field exercises requires the students 
to analyze the specific duties of each team member, utilize the ``100 
Steps'' method in investigating both a vehicle and residential bombing, 
and participate in the bomb scene investigation applying the learned 
investigative techniques.
    The course is conducted at the Federal Law Enforcement Training 
Center (FLETC), Glynco, Georgia. FLETC provides the facilities 
necessary to conduct this training including an explosive range.
    International Canine Explosives Detection Training: The canine dog 
detector course is designed to train canines to detect explosives 
compounds in minute amounts for use by foreign governments in the fight 
against terrorism. In addition, this program is designed to train the 
foreign governments' on how to train the explosives- detecting canines 
in the ATF methodologies so they will ultimately be able to duplicate 
this methodology without having to rely on ATF or the United States 
Government.
    International Firearms and Explosives Identification Training--
Latin America and the Caribbean: The Basic and Advanced International 
Firearms and Explosives Identification courses are a joint effort 
between the Department of State, the United States Customs Service 
(USCS) and the Bureau of Alcohol, Tobacco and Firearms (ATF). ATF's 
training objectives are as follows: (a) to reduce the flow of illegal 
U.S. source firearms and explosives abroad by training foreign law 
enforcement and military officials to accurately recognize, describe 
and initiate tracer actions designed to identify sources of illegal 
arms; and (b) to establish a partnership with international law 
enforcement officials in Latin America and the Caribbean region which 
will allow for an ongoing international exchange of information.
    During the basic course, the students are provided with an overview 
of ATF's history/function, U.S., laws and regulations relating to the 
illegal purchase and trafficking of firearms and explosives, as well as 
how ATF identifies and documents commercial and military firearms and 
explosives for tracing purposes. At the end of the course, the students 
are given a test that they must pass in order to attend the 1-week 
advanced (train-the-trainer) training. During the test, the students 
must be able to identify ten firearms and successfully complete ATF's 
tracing form. The basic courses are conducted in regional sites 
throughout Latin America and the Caribbean, and the advanced courses 
are conducted in Washington, DC. During the advanced course, the 
participants participate in training events at ATF's National Tracing 
Center and at a local arms manufacturing plant.
    International Serial Number Restoration Training: This technical 
course provides foreign law enforcement personnel with an overview of 
serial number structure and tracing covering all aspects of magnetic, 
chemical and electrolytic techniques. This is a two day course held 
either in a foreign country or at the ATF National Laboratory, 
Rockville, MD.
    International Explosives Safe-Handling and Bomb Threat Management: 
This course involves the recognition, documentation, and safe-handling 
of commercial and military explosives and ordnance. During this course, 
foreign law enforcement officials are provided with an overview of U.S. 
laws and regulations relating to the investigations of explosives, 
proper techniques and methods for handling explosives and searching 
buildings, terrorist tactics in the use of explosives, shipping of 
explosives to laboratories, and handling of explosives scenes. This is 
a one day course delivered abroad by ATF's Country Attaches.
    Question. Revolutionary forces are providing the backing for the 
arms trade. How is ATF investigating this activity and working to 
reduce these threats?
    Answer. There are numerous revolutionary forces trafficking in 
firearms to support their efforts. ATF has participated in several 
major investigations involving these groups, and has been successful in 
identifying firearms traffickers from the United States who are 
supplying firearms to these forces. ATF has trained numerous foreign 
officials in the identification of firearms which is essential for the 
accurate tracing of firearms that are being trafficked to these groups 
worldwide. ATF has also dispatched personnel from ATF's International 
Enforcement Branch and Firearms Technology Branch to these areas where 
large caches of firearms are recovered to issue accurate compilation of 
firearms nomenclature, which in turn provides better trafficking 
intelligence and successful arrest and prosecution of the traffickers. 
ATF has also cultivated sources of information by our foreign offices 
to determine the sources in the United States. When these sources are 
identified, ATF's domestic offices go to work in perfecting 
investigations against these illegal firearms sources. ATF's 
International Enforcement Branch has been instrumental in identifying 
trafficking patterns, and providing this information to our field 
offices for further action.
                   national crime information center
    Background: Criticisms from Members of Congress as well as recent 
news reports suggest the FBI is having difficulty upgrading automatic 
systems at the National Crime Information Center (NCIC). ATF 
contributes to the records managed by the Center as well as relies on 
them.
    Question. For the public to receive full value for the monies spent 
for law enforcement resources, should efforts be made to require a 
coordinated Treasury/Justice law enforcement solution to help solve the 
FBI's problem?
    Answer. The Federal Bureau of Investigation (FBI) has recognized 
the need for input from the Criminal Justice Information System (CJIS), 
formerly National Crime Information Center (NCIC), user community 
throughout the development of the upgraded automated systems at the 
FBI. Since the beginning of the development process, the Director of 
the FBI has received recommendations and guidance in the development 
and operations of CJIS from the four CJIS Regional Working Groups. The 
groups comprise representatives from all the state and selected local 
law enforcement agencies.
    Furthermore, in December 1994, the CJIS Advisory Policy Board 
expanded the number of working groups to include the addition of the 
Federal Working Group. This group comprises representatives from over 
eighty Federal agencies. This includes representatives from ATF, 
Customs, and Secret Service.
    In addition, the Federal Working Group also participates in the 
advisory process with the other users through their representatives on 
the CJIS Advisory Policy Board. This board, formerly the NCIC Advisory 
Board, comprises selected representatives from Federal, state and local 
law enforcement agencies. The twenty- seven member board serves in an 
advisory capacity to the FBI Director on all CJIS operations.
    The combined membership of the regional working groups and the CJIS 
Advisory Policy Board also provides the FBI Director with input from 
more than 150 representatives with extensive background in law 
enforcement and information technology.
                     explosives inspections program
    Question. Aren't the inspections of these facilities part of ATF's 
regulatory responsibilities? Won't these inspections continue past the 
life of the Trust Fund?
    Answer. Yes the inspections are part of ATF's regulatory 
responsibilities and will continue past the life of the Trust Fund.
    Question. If ATF were to receive this fiscal year 1988 funding as 
part of VCRTF how, would ATF continue to fund the initiative in the 
future? Would this become part of ATF's Salaries and Expenses base 
funding level?
    Answer. ATF wishes to continue the initiative for explosives safety 
purposes to maintain 100 percent coverage.
                             trigger locks
    Background: ATF on its own initiative, issued child safety locks, 
also known as trigger locks, to all of its agents.
    Question. In your opinion is this type of legislation important?
    Answer. ATF is a proponent of the use of trigger locks. When 
properly utilized, these devices will extremely beneficial by 
preventing children from causing tragic firearms related accidental 
injuries and deaths. Similar to a time when seatbelts were first 
introduced in the automobile industry, trigger locks might not be 
widely accepted and it will take time for the public to become 
accustomed to using them; however, they are clearly something that 
should be required.
    Question. Why did ATF issue child safety or trigger locks to its 
agents before it was a legal requirement?
    Answer. ATF issued these devices to its special agents because the 
laws of some States required them. Moreover, special agents had 
expressed concern about the safety of their children and other family 
members while their firearms where kept in the home.
    Question. Do you think child-safety or trigger locks can be an 
effective tool to protect kids?
    Answer. Yes, such trigger locks will deny access to operable 
firearms by children and should help prevent tragic and accidental 
deaths.
    Question. Do you support my bill?
    Answer. The Administration supports legislation requiring Federal 
Firearms Licenses to transfer locking devices to non licensees 
purchasing firearms. In contrast, your bill would require these 
transfers only upon the sale of handguns. There are other differences 
between your bill and the administration's bill that need to be 
resolved.
    Question. To all agency Directors present, how many accidental 
discharges of firearms involving children or others present in the home 
have occurred in the past with your own gun carrying personnel?
    Answer. ATF has received no reported accidental (unintentional) 
discharge incidents involving children or others in the home.
                  ceasefire/drugfire interoperability
    Background: Report language accompanying Public Law 104-208 (FY 
1997 Appropriations law) directed OMB to move forward the Memorandum of 
Understanding between ATF and the Federal Bureau of Investigation as a 
means of achieving Interoperability. Since that time OMB has been 
working with the National Institute of Standards and Technology to 
develop standards for the Interoperability of these systems.
    Question. What is the current status of the Interoperability issue?
    Answer. On January 15, 1996, the Bureau of Alcohol, Tobacco and 
Firearms, the Federal Bureau of Investigation, and the Office of 
National Drug Control Policy signed a Memorandum Understanding (MOU) on 
ballistics systems interoperability. The Office of Management and 
Budget has worked closely with the officials of the Bureau of Alcohol 
Tobacco and Firearms, the Federal Bureau of Investigation, vendors of 
the competing IBIS and Drugfire technologies, and State and local users 
of this technology to promote interoperability. National Institute of 
Standards and Technology (NIST) has been asked by OMB to lead the 
technical efforts associated with interoperablity implementation.
Significant events:
    On November 12, 1996, NIST chaired and hosted a meeting with 
representative of OMB, ATF, and FBI and the two vendors of ballistics 
systems and various State and local users of IBIS and Drugfire systems.
    NIST has received technical data from both contractors to be used 
to formulate the conformance test (i.e., does each system capture and 
store image and associated text data correctly on cartridge casings 
only).
    NIST will be scheduling a meeting for July 1997 for interested 
participants to discuss and adopt specific procedures for the cartridge 
limited interoperability test (i.e., can each system accept and use 
images captured by the other system).
    Question. Is the technology used to develop these systems the same?
    Answer. Both technologies are similar in some respects. They both 
capture images of breech faces, firing pins and ejector marks. Case 
information, GRC's, and images are stored in a commercial database. 
Before doing any type of correlation, database candidates are pre-
screened based on GRC's and event type (i.e., evidence or testfire). 
Both systems are network able.
    The United States is supporting the deployment of two incompatible 
ballistics identification systems within the law enforcement community. 
At this time, the image of a bullet or cartridge case captured on the 
Drugfire system cannot be analyzed by the IBIS system and vice versa. 
To further compound the problem, these Federally funded systems are 
provided to State and local law enforcement through separately funded 
ATF and FBI programs. Concerns have been raised within the 
Administration and the law enforcement community that having two 
divergent and competing programs is not in the best interest of law 
enforcement.
    Question. Is it feasible to make these systems interoperable?
    Answer. Currently, the Drugfire and IBIS systems are not 
interoperable. With information gathered by the National Institute of 
Standards and Technology (NIST), they've put forward specifications 
that could make both systems interoperable. With these changes in 
place, it would be possible to exchange information so that a limited 
correlation (database search) could be initiated.
    The interoperability study only considers the cartridge case 
modules of each system.
    Both systems have to capture an image in the other system's image 
format (different lighting); therefore, a hardware change is necessary. 
The graphical user intake and database structure has to be modified and 
networking protocol has to be implemented.
    Whether or not both systems can truly be interoperable is still 
unknown. We will only know for sure once we connect both systems 
together and perform all necessary tests.
    On March 27 1997, NIST proposed a test plan that briefly describes 
the evaluation method that will take place. The test is scheduled for 
summer 1997.
    Question. The ATF preferred system CEASEFIRE projects the image of 
the bullet or the cartridge while the FBI system Drugfire records the 
number of correlations between the bullets and other bullets. Does this 
variation in the way the system trace the bullets have an impact on the 
training of the staff required to complete the testing?
    Answer. Each system has its own training requirements. The ATF-
preferred IBIS technology only requires two weeks of training, provided 
by the manufacturer, to a NON-firearms examiner. It is unclear what 
training is required to operate the FBI's Drugfire system.
    Question. When was the last time ATF sat down with all the members 
of the MOU (FBI, ATF, NIST, OMB)? At that time were all questions 
concerning the interoperability of the systems answered?
    Answer. The last meeting between all agencies was November, 1996. A 
subcommittee made up of engineers from both Forensic Technology, Inc. 
(manufacturer of IBIS) and Mnemonics (manufacturer of Drugfire) was 
created and an agreement to meet again to discuss technical issues was 
set.
    Question. Who is conducting oversight to monitor regional placement 
of these two systems to prevent redundancy?
    Answer. The Omnibus Consolidated Appropriations Act for fiscal year 
1997 restricts duplication of the two systems in State and local 
jurisdictions. During the fiscal year 1998 budget process, the Office 
of Management and Budget worked to ensure that funding for redundant 
systems was not included in the fiscal year 1998 President's Budget.
    Question. Is there a requirement that the custodial department, 
where the CEASEFIRE equipment is located, demonstrate regional 
interagency usage of the system?
    Answer. The Bureau of Alcohol, Tobacco and Firearms, in partnership 
with the custodial law enforcement agency, has incorporated language 
into the Memorandum of Understanding that they must allow law 
enforcement agencies from the surrounding jurisdictions and networked 
systems access to their bullet and cartridge case database for search 
and evaluation capability.
    Question. What have been some of the achievements realized by 
CEASEFIRE?
    Answer. Over 400 ``hits,'' including bullets, have been made 
nationwide utilizing CEASEFIRE's Integrated Ballistic Identification 
System. The aforementioned hits include, bullet to bullet match, bullet 
to weapon match, cartridge to weapon match, and cartridge to cartridge 
match. These matches include bullets and or cartridges recovered from 
homicide scenes, assaults scenes etc. Examples of IBIS hits include the 
following:
  --In January, 1996, Washington D.C., a suspect made contact with an 
        ATF agent who was acting in an undercover (U/C) capacity. The 
        suspect offered to sell the U/C agent a .22 caliber handgun. An 
        arrangement was made to meet and conduct the transaction. On 
        this same date the U/C purchased, from the suspect, a Magnum 
        .22 caliber semi-automatic handgun.
      In January, 1996, the aforementioned firearm was test fired and 
        the shell casing was entered into IBIS.
      In January, 1996, ATF received verbal confirmation from the 
        Metropolitan Police Dept Firearms Examiner, that the test fired 
        shell casing taken from the Magnum .22 caliber, semi-automatic 
        handgun, purchased by the ATF U/C agent, matched the shell 
        casing found at a crime scene associated with a murder earlier 
        that month.
  --On June 8, 1994, suspects robbed a WinnDixie store in Danville, 
        Virginia. During the robbery the store manager was shot and 
        killed with a 9mm semi-automatic pistol.
      On June 12, 1994, a Bryco, 9mm semi-automatic pistol was 
        recovered from a juvenile in Washington D.C., by the United 
        States Park Police pursuant to an investigation of assault with 
        a deadly weapon. A firearms trace request initiated in which 
        ATF traced the firearm to Danville, Virginia where it had been 
        purchased on June 8, 1994.
      On January 12, 1995, ATF agents interviewed the purchaser of the 
        9mm Bryco pistol. The purchaser admitted to ``straw'' 
        purchasing the Bryco, 9mm, pistol for a local juvenile.
      On January 13, 1995, the 9mm Bryco pistol was retrieved for 
        ballistic comparison.
      On January 19, 1995, IBIS was utilized to conduct a comparison of 
        a test fire of the Bryce 9mm pistol and the shell casings and 
        projectile recovered from the June 8, 1994, murder scene at the 
        WinnDixie store. As a result of that comparison, a match was 
        confirmed of the shell casing and projectile.
      As a direct result of the test/comparison done by IBIS, the 
        juvenile pled guilty in State court to first degree murder. Two 
        additional defendants were successfully prosecuted in State 
        court.
  --On November 5, 1996, as a result of the attempted assassination of 
        Japan's Chief Law Enforcement Officer, Japanese investigators 
        and firearms examiners arranged to travel to the ATF National 
        Laboratory, Rockville Maryland, to input into IBIS the 
        projectiles recovered from the victim's body. The correlation 
        was not expected to link investigations, rather to identify the 
        type(s) of firearms used in the attempted assassination. 
        Through specific class characteristics exhibited by .38 caliber 
        projectiles, IBIS identified Colt as the most probable firearm 
        used. IBIS further gave the Japanese authorities two other 
        alternative candidates, a Miroku, (Japanese made firearm) and a 
        Squires-Bingham, (Philippines made firearm). Currently IBIS is 
        the only system capable of performing the aforementioned task.
  --On June 28, 1992, a victim was found in the Northeast section of 
        Washington D.C. suffering from a gunshot wound to the chest. 
        Recovered at the crime scene were numerous 9mm shell casings.
      On July 1, 1992, a suspect was taken into custody, by the 
        Metropolitan Police Department, on an unrelated assault charge. 
        A 9mm firearm taken into custody.
  --On January 31, 1996, ATF's CEASEFIRE Program in partnership with 
        the Metropolitan Police Department and using the IBIS 
        technology, linked the two aforementioned crimes giving the 
        local police department a suspect in the June, 1992 assault.
  --In December, 1995, New Jersey, an individual was the apparent 
        victim of a drive by shooting while walking his/her dog.
      In February, 1996, Newark, New Jersey, a individual was shot five 
        (5) times, three in the head. The victim of this shooting 
        survived his attack and identified his attacker.
      On January, 1997, Essex County Sheriff's Office utilizing the 
        IBIS system made a positive comparison (hit) between the 
        projectile used on the December, 1995 murder and the February, 
        1996 attempted murder.
      Essex County Prosecutor's Office is requesting that no publicity 
        be given to these results as this is an ongoing murder 
        investigation.
      In November, 1996, defendant arrested by the Orange New Jersey 
        Police Department, and charged with violations of New Jersey 
        State weapons laws, and aggravated assault. These charges were 
        a direct result of a comparison done on IBIS of projectiles 
        recovered from two crime scenes from two separate 
        investigations. The Essex County Sheriff's Department, where 
        IBIS is located, performed the comparison. The Sheriff's 
        Department was able to tie both shooting incidents together 
        through IBIS and along with other investigative leads obtained 
        and executed a New Jersey State search warrant which resulted 
        in the arrest of one individual currently charged in both 
        incidents. This case is pending judicial action.
    Question. Are there any agencies requesting CEASEFIRE, that in 
ATF's opinion, represent a serious regional need?
    Answer. To date, ATF has received requests for expansion of the 
CEASEFIRE Program to their sites or agencies from the Kentucky State 
Police; Allegheny County, Penn; Mississippi State Lab; Washoe County, 
Reno, NV; Georgia Bureau of Investigations, Savannah, GA; Alabama Dept 
of Forensic Science; and Charlotte, NC.
    Question. What are the shortfalls of the program that could be 
enhanced to achieve greater success?
    Answer. A major shortfall is interoperability between the ATF and 
FBI systems.
     demographics--potential trends in violent crime and juveniles
    Background: Criminologists have suggested that historical studies 
point to a cyclical pattern in criminal behavior. During peak periods 
of criminal activity juvenile crime always increases.
    According to population studies conducted by the Census Bureau, in 
the next fifteen years there will be a 12 percent increase in the 
population of persons between the ages of 16 to 24. Historically, 
juveniles in that age group are responsible for more than half the 
homicides in the nation. In the past fifteen years, the homicide rates 
for 13 and 14 year old's has risen by 145 percent, and the homicide 
rate for 15 year old's has risen by 240 percent.
    Question. Has ATF developed any long-term strategies to tackle the 
potential increases in juvenile crime and violence?
    Answer. Yes, ATF initiated the Youth Crime Gun Interdiction 
Initiative in 1996 in order to learn more about how youth gang 
offenders and juveniles obtain illegal access to firearms, to use 
Project LEAD to enable special agents to develop more cases focused 
specifically on illegal gun trafficking to juveniles and youth gang 
offenders, and to work with Sate and local law enforcement in crime gun 
tracing illegal firearms trafficking investigations.
    ATF believes that while there are some state and national patterns 
of firearms trafficking that are relevant it is important that each 
city with a large volume of firearms recovered by police have 
information on the illegal trafficking affecting their community. 
Therefore, ATF developed a set of standard analyses for each of 17 
pilot cities to provide snapshots of that city's illegal crime gun 
problem. ATF believes that law enforcement agencies, including ATF, 
U.S. Attorneys, police departments and district attorneys, will all 
benefit from this information, which can provide the basis for a 
collaborative enforcement strategy.
    Crime gun trace information in Project LEAD as well as information 
from debriefing armed arrestees and traditional investigative 
information is already providing the basis for cases against illegal 
trafficking to young people, however, more can be done in the future.
    In addition, ATF will be looking at youth and juvenile crime in the 
arson and explosives contexts as well, and tracking cases by age of the 
perpetrator to see if there are special problems that can be addressed 
through innovative law enforcement approaches.
    In general, ATF places an extremely high priority on strategies 
that address armed violence. in all categories age ATF pursues an 
integrated enforcement strategy through two major tactics: Denying 
Criminals Access to Firearms and Imprisoning Violent Offenders. The two 
tactics are complementary as information obtained from the firearms 
used by armed violent criminals provides leads to identify illegal 
firearms traffickers. Conversely, as illegal firearms traffickers are 
identified and incarcerated, the availability of firearms to the 
criminal element is reduced. Within each of these tactics are 
supporting projects discussed below. Each of these tactics will be in 
support of reducing juvenile crime and violence where the laws apply to 
juveniles.
  --The Achilles Project is a congressionally mandated enforcement 
        program that utilizes two tough Federal statutes (18 U.S.C. 
        Sec. Sec. 924(c) and 924(e)) to remove from society those armed 
        career criminals, armed narcotics traffickers, and other 
        violent offenders who are responsible for a disproportionate 
        percentage of this Nation's violent crime. These statutes 
        require mandatory/minimum terms of imprisonment for all 
        individuals convicted for armed narcotics trafficking. There 
        are Achilles task forces located in 20 cities nationwide that 
        consist of ATF special agents and inspectors and other Federal, 
        State, and local law enforcement officers. This program has 
        resulted in the arrest and successful prosecution of numerous 
        armed narcotics traffickers and other violent offenders.
  --The NTC traces firearms for law enforcement agencies both 
        domestically and around the world. The NTC is the only source 
        for information pertaining to the tracing of firearms in the 
        United States. During fiscal year 1996, the NTC traced in 
        excess of 134,000 firearms.
  --Project LEAD is state-of-the-art computer software that utilizes 
        available trace data maintained at the NTC. When crime-related 
        firearms are traced, information concerning when the firearms 
        entered the hands of a criminal and who provided that firearms 
        to the criminal can be gathered. Project LEAD analyzes NTC data 
        that will enable law enforcement to focus resources and 
        initiate criminal investigations against illegal firearms 
        traffickers and their source of supply.
  --ATF's Firearms Trafficking Project is a comprehensive strategy to 
        interdict the flow of firearms to the criminal element, 
        including narcotics traffickers and violent offenders. Using 
        computer technology to access data from ATF's NTC and the 
        Stolen Firearms Program, ATF addresses illegal firearms 
        trafficking by identifying the illegal source of the firearms 
        to the criminal element. Through this program, ATF is able to 
        impact upon narcotics traffickers' ability to acquire firearms 
        in furtherance of their illegal activity.
  --Stolen Firearms Project is an aggressive enforcement effort 
        determined to reduce the amount of firearms stolen from 
        interstate carriers and Federal firearms licensees. ATF 
        research and data reveals that stolen firearms, by their very 
        nature, are destined to be crime guns. The criminal element, 
        realizing that their ability to acquire firearms has eroded, 
        sees stolen firearms as an instant source of untraceable 
        firepower.
  --The CEASEFIRE Project provides support to law enforcement agencies 
        in areas of the country experiencing serious organized criminal 
        gang and drug-related shooting incidents. Currently, ATF is 
        utilizing a state-of-the-art system that allows firearms 
        technicians to digitize and automatically sort bullet and shell 
        casing signatures and aids in providing matches at a greatly 
        accelerated rate. The equipment expeditiously provides Federal, 
        State, and local criminal investigators with leads to solve 
        greater numbers of crimes in a shorter period of time.
      The importance of our various programs and initiatives to address 
        armed juvenile crime play an integral role in the Department of 
        Justice's national long term strategy to address juvenile crime 
        entitled Combating Violence and Delinquency: The National 
        Juvenile Justice Action Plan.
      ATF's formal efforts to reduce armed juvenile crime began in 1993 
        with a firearms tracing program specifically designed to 
        determine the source of firearms recovered on school property 
        and from juveniles who use them to commit violent crimes. This 
        initiative grew from an increase in juvenile-related violent 
        crime, including juvenile gang activity and shootings on or 
        near school property, and from the number of instances in which 
        juveniles brought firearms to school or committed acts of 
        violence at school.
      State and local law enforcement agencies were informed of this 
        initiative and encouraged to participate in our efforts to 
        reduce the frequency of firearms violence involving juveniles, 
        identify and stem the illegal flow of firearms to juveniles, 
        and apprehend and prosecute adults who violate firearms laws by 
        purchasing firearms for, or providing firearms to juveniles. 
        The results of that trace initiative were helpful in 
        identifying general sources of firearms for juveniles and the 
        firearm preferences of juveniles. This initiative also led ATF 
        to develop national strategies such as the Youth Crime Gun 
        Interdiction Initiative, and support strategies that 
        incorporate prevention and enforcement efforts. An example of 
        an effective prevention program is GREAT.
      The GREAT Program is a traditional prevention program, that 
        brings law enforcement officials into schools to teach children 
        the risks of gangs and guns. This new version of crime 
        prevention relies on a collaborative, coordinated approach that 
        makes deterrence work: Federal, State, and local authorities 
        working together to prevent violent gang crime by making it 
        clear to potential gang offenders that violence will not be 
        tolerated, and will be responded to with certainty, swiftness, 
        and whatever severity is required. This complements a law 
        enforcement strategy aimed at reducing the local illegal gun 
        supply. Both approaches to crime prevention have merit.
    Question. What percentage of violent crime committed by juveniles 
employs the use of a firearm or explosive?
    Answer. Current research by the National Institute of Justice 
indicates that on a national level, firearms-related homicide and 
violent crime rates involving juveniles are dramatically increasing 
while rates for similar crimes involving adults are showing a slight 
decrease. Nationally, we have estimated that in 1995 youths and 
juveniles were responsible for 6,430 murders with a firearm, 36,259 
robberies with a firearm, 39,988 aggravated assaults with a firearm and 
105,575 weapons offenses; totaling 188,252 youth and juvenile firearms 
related offenses. We are unable to estimate this data as a percentage 
of all juvenile crime. There is no data available regarding the use of 
explosives by juveniles.
    Question. What influences a juvenile to carry an illegal firearm?
    Answer. There are a number of factors that influence juveniles to 
illegally carry guns. Possible reasons may include carrying a firearm 
as a tool in furtherance of criminal activity; carrying and/or dealing 
in firearms for power, prestige or financial gain; as protection and 
out of fear of other juveniles carrying firearms; and/or as a result of 
status and peer concerns.
    Question. What are the sources of firearms for juveniles?
    Answer. There are illegal firearms traffickers-both large volume 
traffickers and small ``straw purchases'' who lawfully obtain firearms 
and then unlawfully transfer firearms to juveniles. In addition to 
diversion from retail purchase from FFL's, there is also diversion from 
the secondary market. Guns are sometimes stolen (from cars, homes, 
FFLs). Juveniles or gang members also share firearms and /or sell them 
to one another.
    Question. Director Magaw, what are your suggestions for reducing 
the juvenile access to and use of firearms?
    Answer. In most areas of the country, a joint Federal, State, and 
local law enforcement approach that incorporates ATF's illegal firearms 
trafficking strategy, as structured in the Youth Crime Gun Interdiction 
Initiative, can impact upon the access of juveniles to firearms. Since 
State and local law enforcement officers recover the majority of crime 
guns and encounter numerous offenders including juveniles in possession 
of firearms their participation and support of ATF's trafficking 
strategy is vital. It is the information from the debriefing of these 
defendants and the traces of these firearms that lead to the initiation 
of illegal firearms trafficking investigations against the sources of 
those firearms. ATF brings to this partnership the ability to Deny 
Criminals Access to Firearms, imprison the most incorrigible violent 
offenders removing them from the communities upon whom they prey and 
prevent young people from falling into violent gang behavior. In 
addition, ATF has the ability to trace firearms, analyze the data for 
leads, and use the Federal firearms laws to target the illegal firearms 
traffickers whose illegal activities often exceed the jurisdictional 
boundaries of State and local law enforcement and where often times 
there are no State laws to apply. By analyzing a specific city's crime 
gun trace information, ATF can also provide local law enforcement with 
an overview of its problem and a basis for strategy development to 
combat illegal trafficking.
    Current YCGII investigations and outside research confirm that 
juveniles prefer new firearms. This trend assists law enforcement in 
identifying firearms sources on recovered guns, since new firearms have 
a shorter time to crime and they are easier to trace the firearm and 
identify the gun's source.
    Therefore, the comprehensive tracing of all recovered crime-related 
firearms in an area experiencing high rates of armed crimes is a 
successful method for identifying those individuals who are illegally 
trafficking firearms. Additionally analyze crime gun data through 
Project LEAD, ATF's automated illegal firearms trafficking information 
system, is an important investigative tool.
    Additionally, effective utilization of the following firearms 
enforcement programs can help to address and hopefully reduce juvenile 
access to and use of firearms:
  --The Achilles Project is a congressionally mandated enforcement 
        program that utilizes two tough Federal statutes (18 U.S.C. 
        Sec. Sec. 924(c) and 924(e)) to remove from society those armed 
        career criminals, armed narcotics traffickers, and other 
        violent offenders who are responsible for a disproportionate 
        percentage of this Nation's violent crime. These statutes 
        require mandatory/minimum terms of imprisonment for all 
        individuals convicted for armed narcotics trafficking. There 
        are Achilles task forces located in 20 cities nationwide that 
        consist of ATF special agents and inspectors and other Federal, 
        State, and local law enforcement officers. This program has 
        resulted in the arrest and successful prosecution of numerous 
        armed narcotics traffickers and other violent offenders.
  --The NTC traces firearms for law enforcement agencies both 
        domestically and around the world. The NTC is the only source 
        for information pertaining to the tracing of firearms in the 
        United States. During fiscal year 1996, the NTC traced in 
        excess of 134,000 firearms.
  --ATF's Firearms Trafficking Project is a comprehensive strategy to 
        interdict the flow of firearms to the criminal element, 
        including narcotics traffickers and violent offenders. Using 
        computer technology to access data from ATF's NTC and the 
        Stolen Firearms Program, ATF addresses illegal firearms 
        trafficking by identifying the illegal source of the firearms 
        to the criminal element. Through this program, ATF is able to 
        impact upon narcotics traffickers' ability to acquire firearms 
        in furtherance of their illegal activity.
  --Stolen Firearms Project which is an aggressive enforcement effort 
        determined to reduce the amount of firearms stolen from 
        interstate carriers and Federal firearms licensees. ATF 
        research and data reveals that stolen firearms, by their very 
        nature, are destined to be crime guns. The criminal element, 
        realizing that their ability to acquire firearms has eroded, 
        sees stolen firearms as an instant source of untraceable 
        firepower.
  --The CEASEFIRE Project provides support to law enforcement agencies 
        in areas of the country experiencing serious organized criminal 
        gang and drug-related shooting incidents. Currently, ATF is 
        utilizing a state-of-the art system that allows firearms 
        technicians to digitize and automatically sort bullet and shell 
        casing signatures and aids in providing matches at a greatly 
        accelerated rate. The equipment expeditiously provides Federal, 
        State, and local criminal investigators with leads to solve 
        greater numbers of crimes in a shorter period of time.
    Question. Have you any evidence that prevention programs such as 
the G.R.E.A.T Program, the DARE program or Project Outreach will have a 
positive impact on the future level of juvenile crime?
    Answer. ATF is not in a position to speak to the effectiveness of 
any program other than the G.R.E.A.T. Program.
    The G.R.E.A.T. Program has been evaluated in a cross-sectional 
evaluation conducted by the University of Nebraska and the evaluators 
report that there is ``significant statistical information'' showing 
that students who received the training developed more prosocial skills 
that those who had not attended. This evaluation was completed in 1996 
and will be published by the National Institute of Justice. A five-year 
longitudinal evaluation is now in progress, also by the University of 
Nebraska. The National Institute of Justice and University Professors 
familiar with the process of conducting evaluations consider 
longitudinal evaluations to be a more reliable means of predicting the 
effectiveness of prevention/resistance programs than cross sectional 
studies.
    Anecdotal evidence and other feedback from participating police 
departments who use the G.R.E.A.T. Program, such as Boston, 
Massachusetts; Portland, Oregon; Tucson, Arizona; Phoenix, Arizona; 
Philadelphia, Pennsylvania, and others have reported a reduction in 
their youth violent crime since using the G.R.E.A.T. Program in 
conjunction with proactive suppression and intervention programs.
    This program is most effective when it is reinforced by 
intervention programs, and when Federal, State, and local law 
enforcement are collaborating to suppress illegal gun trafficking to 
gang offenders and juveniles.
                theft of military weapons and explosives
    Background: The U.S. Military has very large inventories of a wide 
variety of firearms, munitions, and explosives. In the past, theft of 
this inventory has raised concern, specifically when associated with 
anti-government groups, but also with individuals who seek to possess 
this category of weapons and explosives.
    Question. Does the military report all of its weapons and 
explosives thefts to ATF?
    Answer. There is a requirement under 10 U.S.C. 2722 that the 
Secretary of Defense shall report the theft or loss of any ammunition, 
destructive devices, or explosives to the Secretary of the Treasury. 
ATF has a Memorandum of Understanding with the Offices of the Inspector 
General, Department of defense which describes how this is to be done.
    We have been receiving this information on a routine basis from the 
Department of Defense since the fiscal year 1993.
    Question. Does ATF or the Military pass this information on the US 
Customs to monitor border movement of the stolen articles?
    Answer. ATF, the military, and in certain situations the FBI, do 
investigate known thefts or losses, and do pass on information to other 
law enforcement agencies, including Customs on a case-by-case basis 
when the investigation warrants such action. Known thefts of military 
munitions are put into N.C.I.C., to Customs has access. ATF does not 
automatically pass on all of this type of information to Customs.
    Question. Does ATF have any interaction with the military regarding 
incidents involving weapons and explosives?
    Answer. Frequently, ATF will assist military investigations 
concerning known thefts of weapons and explosives. Military Explosives 
Ordinance Disposal (EOD) is often called upon to assist ATF in the 
disposal of recovered explosives.
    Question. Of the past weapons and explosives seizures, how much is 
allied to thefts from the U.S. military installations? How much is 
associated with theft of foreign military equipment?
    Answer. Thefts of military explosives during a 5-year period (1991-
1995) constitutes less than 1 percent of all reported thefts. 
Currently, ATF doesn't capture foreign explosives thefts, only their 
recovery. We are currently working on a data base for this very 
purpose. When complete, this system will be titled the International 
Explosives Incidents System (IEXIS).
    Question. Do U.S. military explosives and ordnance contain 
taggants?
    Answer. The only ``tagging'' requirement in existing law is the 
requirement that plastic explosives manufactured or imported on or 
after April 24, 1997, contain a detection agent. Federal law 
enforcement agencies, the National Guard, and the military have a 15 
year ``use-up'' period for plastic explosives imported into or 
manufactured in the United States prior to the date of enactment of the 
law, April 24, 1996. ATF has been advised that the military has been 
marking the plastic explosives it manufactures (primarily C4) for the 
past year.
                              the internet
    Background: Most of us, whether we have computers or not, have 
become aware of the ability to surf ``The Internet.'' However, many 
people are unaware of what lies out in the Internet. Recently, we have 
been exposed more and more to the darker side of the information 
highway.
    Child pornography, sexual exploitation, get rich quick schemes, 
internet stalkers, how to do anything: create anarchy, rebel against 
your parents, commit the perfect murder, assemble an atomic bomb, all 
have been headlined in recent months out of concern for the social 
liabilities associated with access to this type of information and the 
precarious balance we wage with our first amendment right to ``Freedom 
of Speech.'' Recently, in the Baltimore-Washington metropolitan area, 
there have been a number of bomb incidents in our schools, involving 
students who acquired their homemade explosives recipes from the 
Internet.
    Question. Does ATF actively monitor the Internet for information on 
weapons and explosives?
    Answer. No, ATF does not monitor the Internet. However, ATF does 
look at and confirm information on the Internet related to specific 
information, incidents or investigations. ATF does some limited 
background research on what is on the Internet concerning weapons and 
explosives.
    Question. To what extent does Internet access provide information 
on the manufacturing of improvised explosives, munitions, bomb making 
and target assessment?
    Answer. We have found there is considerable information on the 
Internet concerning the making of explosives and bombs, sufficient that 
a novice on the Internet could find it easily. For example, as 
research, one person, during a three hour period found 12 sites which 
had explosives or bomb instructions. This time included reading enough 
of the site to confirm that the instructions were real. This was done 
on a 14.4 modem, which is now considered slow.
    Question. How extensive is the information pertaining to converting 
firearms to more lethal use? For example: ``How to convert a semi-
automatic weapon into a fully automatic machine gun?
    Answer. There are very few places to find out how to alter guns to 
fire fully automatic on the Internet. Such information is much too 
specific to each particular gun and often requires parts. The Internet 
could be used to order books about the individual firearm or process. 
There are a large number of firearms sites advertising dealers, books 
on guns, gun shows, parts and accessories.
    Question. Does the Internet provide direction on manufacturing 
homemade weapons, firearms, silencers, etc?
    Answer. This information is on the Internet in some of the same 
sites as the improvised explosives. There are directions on how to make 
such things as a potato gun, zip gun, air cannon and plastic bottle 
silencer.
    Question. Has ATF been able to trace the source of any of these 
bulletin boards? What types of individuals or groups are behind 
publishing this information.
    Answer. ATF has not traced the source of the information. The 
information is not illegal. Most of the sites are quite open as to who 
and what they are. The address of the site usually contains information 
about the source of the site. The sites about making explosives are 
generally not done by extremist groups, however, many extremist groups 
do have web links to go to these types of sites.
    Question. Does ATF pursue contact referrals for illegal services on 
the Internet?
    Answer. No, ATF does not on a routine basis look for and pursue 
contact referrals for illegal services on the Internet. ATF will on a 
case-by-case basis pursue any information on the Internet that we have 
reason to believe could result in a violation of a law which ATF 
enforces.
    Question. From ATF's perspective, what role is the Internet playing 
in this illegal gun and explosive arena?
    Answer. The Internet plays the same role as what a library might 
play as far as finding information on ``how to'' make things such as 
bombs or improvised weapons. Much of the information comes directly 
from books that have been published for years. The major difference is 
that the information can be found more easily and quicker in the 
privacy of a person's home. The Internet is an excellent research tool.
    The Internet also affords communication applications much like the 
U.S. Mail in that it allows E-Mail between persons throughout the 
world. The major difference is that it is faster and more convenient.
    The Internet also affords the opportunity for persons to advertise 
the sale of commodities much like magazines or the classified 
advertisements of the newspaper. Firearms accessories, parts, and books 
can be ordered right on the net. Locations of gun shops are advertised 
on the net.
    There are a few ``Chat Rooms'' and ``Newsgroups'' which have 
discussions about guns, explosives, bombs, fires, fireworks, or 
anything in which two or more people might be interested. We have also 
found ``how to'' information in the newsgroups.
       atf national lab and fire investigation research facility
    Background: ATF is requesting $55 million in fiscal year 1998 
(combined with $7 million in fiscal year 1997) to fund the design and 
construction of a new Firearms National Laboratory Center and the Fire 
Investigation Research and Development Center (FIRE). These two 
entities would be co-located in the same facility, a location yet to be 
finalized. ATF submits that the current laboratory facility located in 
Rockville, Maryland, is no longer suitable for its purposes. ATF cites 
a severe shortage of space to accommodate all levels of forensic and 
research activity that is required of the facility. In addition, 90 
percent of the current facility has failed EPA and OSHA health and 
safety standards.
    Question. What activity is currently being performed at the 
National Laboratory in Rockville, MD?
    Answer. The National Laboratory Center houses three separate 
functions: an Alcohol and Tobacco Laboratory, a Forensic Science 
Laboratory, and Enforcement Support Branch. The Alcohol and Tobacco Lab 
does analysis on beverage and non- beverage alcohol products, tobacco 
products and consumer complaints. The Alcohol and Tobacco Lab is 
responsible for new product approval, analysis of pesticides and 
contaminants, and Government Performance Results Act customer service 
plans. Products are checked for compliance with regulations and proper 
tax classification. The Forensic Science Lab analyzes physical evidence 
from firearms, arson, and explosives investigations. This laboratory 
also includes the IBIS Program management that supports ATF's CEASEFIRE 
initiative and a computer forensics program that has been successful in 
assisting in arson-for-profit investigations and firearms trafficking. 
In addition to chemical and physical analysis, the two laboratories are 
heavily involved in methods development and research on procedures to 
advance their capabilities. The Enforcement Support Branch supplies ATF 
agents with the technical equipment needed for investigations, 
including voice and radio equipment, protective gear, and state-of-the- 
art investigative tools.
    Question. Was the facility originally constructed to perform the 
functions that the lab is doing now?
    Answer. The building was built around 1972 as an office building. 
The building was converted to a laboratory in 1978. The architect and 
building contractor had never built a lab before. The result was a 
building without the necessary plumbing, electricity, and HVAC to 
support a lab facility. In excess $500,000 has been spent to remedy 
this with little success.
    Question. Have any personnel assigned to the laboratory been 
medically or physically compromised as a results of occupational 
exposure associated with conditions in the laboratory?
    Answer. Since we are aware that the ventilation system does not 
meet lab standards, some lab hoods are used while others are not used 
for certain procedures or experiments. This has been confirmed by 
outside chemical hygiene experts. At least two employees have been 
injured as a result of the HVAC's inability to control the temperature 
and humidity in the lab. In both cases, condensation on the floor 
caused chemists to fall and require medical attention.
    Question. Is the immediate community or environment being exposed 
to any hazardous material associated with the laboratory's activity?
    Answer. No, since we are aware of the limitations of the HVAC, the 
total ventilation system, and plumbing flaws, we limit our exposure and 
use of many hazardous materials. This also requires us to drum, store 
and pay for disposal of common lab solutions as hazardous wastes. This 
is very expensive and a drain on manpower.
    Question. Have any investigations been cross-contaminated or called 
into jeopardy because of the existing working conditions at the 
laboratory?
    Answer. We have made every effort to assure that no case is 
jeopardized due to cross-contamination of evidence samples. In order to 
do this, we have sacrificed some efficiencies. This becomes more and 
more difficult as the workload increases and space becomes more of a 
premium. This space problem also impacts our ability to house new 
equipment necessary to provide the highest quality service. This issue 
does jeopardize our American Society of Crime Laboratory Directors 
(ASCLD) accreditation and ability to attract the best professionals to 
our Lab.
    Question. Has a site been proposed for the new laboratory and 
research facility?
    Answer. We have concentrated on Federal land and donated land for 
the new site. We are in the process of reviewing each site with GSA. 
The sites currently being reviewed are Fort Meade, MD; White Oak, MD; 
Vint Hill Reservation, VA; and College Park, MD. Our current prospectus 
specified the Maryland suburban area. We are extremely concerned about 
maintaining our current staff and keeping family moves to a minimum.
    Question. Has the construction prospectus been transmitted back 
from both the House Committee on Transportation and Infrastructure and 
the Senate Committee on Environment and Public Works?
    Answer. The House Committee has approved the fiscal year 1997 $6.9 
million portion of the prospectus. The fiscal year 1997 portion of the 
prospectus is currently in the Senate Committee and will be considered 
within the next two weeks. Neither committee has passed the fiscal year 
1998 portion of the prospectus ($55 million).
    Question. If funding is not secured for construction of a new 
laboratory facility, how will this impact on ATF's future 
investigations and regulatory functions?
    Answer. Our ability to continue the quality scientific work that we 
are charged with is dependent on the move to a new modern facility. 
Safety, work requirements, and our continued accreditation are in 
jeopardy without a new facility. The three main parts of a successful 
scientific organization are the people, the equipment, and the 
facility. Any shortage in any of these three areas directly impacts the 
quality of work produced.
                                 ______
                                 
                          U.S. Secret Service
            presidential protection and white house security
    Background: The fiscal year 1998 Secret Service Budget requests an 
additional $28.8 million for Presidential protection and White House 
security.
    It is important that the citizens of the United States have access 
to the President and the White House. Certain groups are calling for 
the expansion of civil liberties (limiting government interference and 
intrusion), while advocating placing limits on the civil liberties of 
others (racism, anti-Semitism and class wars).
    Developing a balance between preventing threats to the President 
and the White House, while still providing citizens access to their 
leadership is important.
    Creating vacuums around our leaders would mean terrorists had won. 
But allowing our leaders to be under a constant state of siege, would 
disrupt the stability of the country.
    Question. What level of security would the Secret Service feel 
comfortable with?
    Answer. In 1996, the Department of the Treasury and the Secret 
Service completed a review of the security of the White House Complex. 
As a result of this review, the Service implemented new security 
procedures and provided enhancements to its existing security plan.
    The Secret Service is continually involved in a risk assessment 
process in conjunction with its protective mission. The purpose of this 
process is to ensure that reasonable security measures are in place to 
support our mission. This is the basis of our Strategic Management Plan 
in relation to all of our protective operations.
    With your continued support and with the procedures that we have 
implemented, the Service is comfortable with the level of security that 
we are currently providing to our protectees.
    Question. What level of resources ($ and FTE) would that level of 
security require?
    Answer. If the requested level of funding is provided in fiscal 
year 1998, and barring any additional requirements relative to the 
creation of ``Presidential Park'', the Service will have all the 
funding necessary for the security changes recommended by the White 
House Security Review for the White House Complex. However, some level 
of funding will need to recur in subsequent years to maintain, repair 
and replace the non-personnel security enhancements which have been 
installed within the White House Complex.
    In a public format, the Service does not divulge the number of 
personnel assigned to the White House, or the cost of securing the 
White House Complex. Disclosure of this type of information could 
possibly compromise security. We would prefer to provide this 
information to you in a closed briefing.
    Question. Has the Service seen an increase in threats over the past 
four years?
    Answer. The Secret Service has seen the number of investigations of 
persons who have made or who have possibly posed threats to the 
President remain relatively constant over the past four years. The 
number of threats directed towards President Clinton during his first 
term and through the first four months of his second term has been 
generally consistent with the number of threats directed toward 
previous Presidents. There is a slight increase observed when making a 
comparison with the number of threats received by President Bush during 
his term.
    In addition, there has been a rise in threats from international 
groups since the 1993 World Trade Center bombing, and domestic 
extremist activity has increased since the 1993 burning of the Branch 
Davidian Compound at Waco, Texas. Thus, there has been an increase in 
investigations conducted by this Service of threats emanating from 
terrorist activity.
    Question. Has the rise in the United States Militia movement 
resulted in increased Presidential threats?
    Answer. During the last few years there has been a dramatic 
increase in the number, size and activity of militia groups in America. 
There is evidence of militia activity in virtually every state. 
Intelligence analysts and law enforcement agree that the militia 
movement is a symptom of a national trend toward a rise in anti-
government sentiment.
    Beliefs underlying and motivating the militia movement include 
members' fears of a forthcoming ``one world government'', i.e. New 
World Order and suspension of the U.S. Constitution. The majority of 
militia members are ordinary citizens who have become fearful and 
mistrustful of the government.
    Federal law enforcement agencies are frequently viewed as enemies 
and collaborators in the perceived scheme to establish a New World 
Order. In some cases, Secret Service protectees will also be perceived 
as ``collaborators'' because of their affiliations with certain 
international political, economic or humanitarian organizations. 
President Clinton, foreign Heads of State/Government and some former 
Presidents should be considered potential targets because of their 
political policies or their associations with these organizations.
    The greatest concern among federal law enforcement personnel is the 
attraction to the militia movement by the ``fringe element'' which is 
no longer satisfied with maintaining a defensive posture. The April 19, 
1995 bombing of the Alfred P. Murrah Building in Oklahoma City 
illustrates, all too well, the unstable nature of certain radical 
elements influenced by militia philosophy.
    The persons and facilities protected by the Secret Service 
certainly can be considered as significant symbolic targets for 
domestic extremists.
    Question. Do fluctuations in international terrorism have 
corresponding impacts on Presidential security?
    Answer. Presidential security is adjusted as required based upon 
our assessment of intelligence information provided to the Secret 
Service from a variety of sources, including other government agencies.
    Fluctuations in international terrorism have a direct impact on 
presidential security. The capability and intentions of groups to 
target Secret Service protectees are dependent upon several factors. 
These factors include the groups' infrastructure; support from 
citizens; governments; the availability of weapons; and the ability to 
plan, organize, and carry out an attack. Host government security 
services' effectiveness and ability to monitor and control 
international terrorists impact Presidential security during foreign 
travel by the U.S. President.
    The degree to which an international terrorist group may target the 
President is often dependent upon world wide events. The Presidential 
threat level from international terrorists also fluctuates when certain 
foreign Heads of State/Government are in the presence of the U.S. 
President.
    Question. Director Bowron, I understand that 300 people are 
annually sent to St. Elizabeth to be physiologically profiled, as a 
result of reported threats to the Presidency. Could you elaborate on 
this and can you explain how the Washington, D.C. area compares to the 
number of individuals profiled nationally?
    Answer. Since January, 1993, the Secret Service has facilitated the 
commitment of just over 900 people in connection with its protective 
mission. Generally, someone who makes a threat, and who exhibits signs 
of a mental disorder, and is considered dangerous to themselves or 
others, is referred to a mental health facility for evaluation and 
possible commitment. They are not referred to these facilities to be 
profiled, but rather to determine if they are a danger to themselves or 
others, and if they are in need of treatment. During this time period, 
fifty-eight have been committed to St. Elizabeth's Hospital and twenty-
five to D.C. General Hospital. In addition, the Washington Field Office 
has facilitated commitment of thirty-three persons in the Washington, 
D.C. metropolitan area.
    Question. Has the Service developed a systematic analysis for 
monitoring the perceived level of threat toward its protectees? Has 
this been associated with a cost benefit analysis for the level of 
security required to ameliorate different levels of threat?
    Answer. The Secret Service has developed a Protective Intelligence 
program to systematically monitor the perceived level of threat towards 
its protectees. The Protective Intelligence program monitors the 
perceived level of threat directed towards protectees in a number of 
ways. First, the number of persons who make or otherwise may pose 
threats is thoroughly investigated and evaluated. Secondly, those 
persons who have been evaluated as posing a risk to a protectee are 
carefully monitored while they continue to pose such risk. Thirdly, the 
past intelligence history, to include the number and seriousness of 
known cases, is periodically reviewed. Additionally, as a protectee 
travels throughout the country, current investigations of concern are 
reviewed to determine appropriate action. The Secret Service 
Intelligence Division's liaison activities solicit and receive 
pertinent information from other federal agencies. Secret Service field 
offices are in regular contact with State and local law enforcement, 
and mental health agencies to identify additional individuals and local 
issues of concern that may impact the protectee visit. Also, knowledge 
about the motivations, behavior and communication patterns of past 
attackers are incorporated into each Secret Service protectee 
assessment.
    The Secret Service is constantly alert to any source of threat 
against a protectee. We pursue threats whether they come from 
individuals, groups, terrorists organizations or rogue governments. Any 
and all sources of potential danger to a protectee are fully 
investigated and evaluated by special agents assigned to Secret Service 
field offices throughout the United States and around the world. 
Security concerns are then analyzed in the Service's Intelligence 
Division.
    The Secret Service has procedures in place which are followed when 
assigning security personnel to a protectee. These procedures are based 
on an analysis of a collection of information concerning our 
protectees. This is part of the risk assessment process which we use to 
assist us in our resource allocation decision making strategies. Based 
upon our risk assessment analysis, security is adjusted accordingly.
    One of the objectives within our Strategic Management Plan is to 
ensure that resources associated with our protective operations are 
``balanced'' by the risk assessment process. We have developed criteria 
based upon our risk assessment procedures that evaluates perceived 
levels of risk directed towards our protectees.
                          counterfeit currency
    Background: Counterfeit currency funds drug trafficking, gun 
smuggling, and terrorist activities. These activities attack the 
economic stability of the United States currency.
    Question. Does the Secret Service have the resources to track the 
movement of counterfeit currency?
    Answer. The Secret Service has been very successful tracking the 
movement of counterfeit U.S. currency. Counterfeit currency tracking 
and reporting is accomplished by several different methods. The Federal 
Reserve system identifies approximately 30 percent of all reported 
counterfeit on a yearly basis. The remaining 70 percent is reported 
through commercial establishments, financial institutions and law 
enforcement efforts.
    Once a new counterfeit U.S. Federal Reserve Note (FRN) is reported 
to the Secret Service, it is examined forensically by counterfeit 
specialists in the Counterfeit Division's Printing and Technology 
Section. That particular counterfeit is then classified by its printing 
defects and assigned a circular number. Utilizing the circular number, 
the Service can monitor that one type of counterfeit note to track the 
passing or seizure activity. The Secret Service has identified over 
20,900 different counterfeit circulars, with over 20,000 variations.
    The circular number, in conjunction with the Service's counterfeit 
information system, is used to generate the necessary statistical 
information to focus investigative resources. It was found in fiscal 
year 1996, through forensic identification, that approximately 67 
percent of all counterfeit currency circulating domestically was 
produced outside the borders of the United States.
    The Secret Service has learned, through experience, that the best 
method to deal with this problem is to address counterfeit issues at 
their source. This is accomplished by the permanent stationing of 
Secret Service agents to foreign posts. Verification of all foreign 
seizures by the Secret Service is instrumental in determining the 
extent of counterfeit U.S. currency in the region. The ability to be 
able to immediately respond and verify certain counterfeit FRN's, as 
well as provide advice and assistance to foreign law enforcement, is 
instrumental to the Secret Service's success in suppressing 
counterfeit.
    Question. Does the Secret Service have the necessary authority to 
stem counterfeit activities?
    Answer. The Secret Service has exclusive jurisdiction for 
investigations involving the counterfeiting of United States 
obligations and securities under Title 18 of the United States Code, 
Section 3056.
    Occasionally the Secret Service proposes legislative changes that 
it believes would assist it in suppressing counterfeit currency. The 
Secret Service has identified counterfeiting trends that necessitate 
changes in forensic and investigative methodologies. One trend noted by 
the Service is the increased use of office machine copiers and computer 
printers. In fiscal year 1995, 8 percent of the counterfeit passed was 
office machine copied or computer generated. That statistic increases 
each year, with 11 percent circulated in fiscal year 1996 and 18 
percent for the first six months of this fiscal year.
    Some of the latest full-color digital copier systems are equipped 
with ``anti-counterfeiting'' security systems. These systems inhibit 
the production of counterfeit notes and/or encode a tracing pattern in 
each copy. The Secret Service has exclusive United States law 
enforcement capability in decoding the tracing system. The decoding has 
resulted in successfully identifying the machines used to produce 
counterfeits in approximately 65 criminal investigations.
    The Secret Service would like to see legislation enacted requiring 
that all full-color photocopy and computer output or printer devices 
manufactured in the United States or imported into the United States 
contain, as an anti-counterfeiting feature, a functional 
identification-tracing system which will leave a repeated ``latent 
code'' imprinted throughout every full color document produced by the 
device. The ``latent code'' must contain information sufficient to 
identify the make, model, and serial number of the device. Further, the 
manufacturers and/or importers must provide, to the United States 
Secret Service, the necessary information, software and training to 
decode said identification/tracing system, as well as customer 
information relating to the decoded latent imprint.
    Question. Does the Secret Service co-ordinate their counterfeiting 
intelligence with the CIA and other foreign intelligence agencies?
    Answer. The Secret Service uses various sources to obtain 
intelligence information concerning counterfeiting. Some of these 
sources provide hard data; others provide intelligence and background 
information from which certain informed judgments can be made. Our 
agency has a good working relationship with the CIA and other foreign 
intelligence agencies. The foreign intelligence community has been 
generally receptive to our intelligence needs.
    Question. It is my understanding that the Office of Foreign Asset 
Control (OFAC) tracks funding related to embargoed countries. What is 
OFAC's relationship with the Secret Service?
    Answer. The U.S. Secret Service, in a coordinated effort with 
representatives from the Drug Enforcement Administration, the 
Department of Justice, the Department of the Treasury, the Office of 
Foreign Assets Control, the Central Intelligence Agency, and the 
Federal Bureau of Investigation, have held meetings in connection with 
the enforcement of International Emergency Economics Powers Act (IEEPA) 
sanctions. The Service looks forward to enhancing those efforts and 
it's working relationship with OFAC.
    Question. Does the Secret Service share information with the OFAC 
and vice-versa?
    Answer. The Secret Service provides information to an IEEPA working 
group with the OFAC subsequently receiving information from this same 
group.
    Question. Could this relationship work better?
    Answer. There is continued interest by the Secret Service toward 
enhancing our relationship with OFAC. As an example, the Secret Service 
continues to investigate organized criminal alien groups which affect 
this country's financial systems. Many of the proceeds of their crimes 
(money laundering) are transferred overseas to foreign bank accounts or 
individuals. An increased exchange of information may be beneficial to 
both agencies and their respective goals.
    Question. What is the status of the Secret Service's overseas 
presence?
    Answer. At the present time, the Secret Service has 30 special 
agents and ten support personnel assigned to its ten foreign offices. 
Earlier this year, our request for an additional special agent position 
in Montreal was granted, and we received approval to open a new office 
in Ottawa. The Service also was granted a second special agent position 
in Hong Kong. The Chief of Mission in Bangkok is currently considering 
our request for an additional special agent position at that post.
    Question. Is the current level adequate?
    Answer. This level of staffing has improved the Service's ability 
to fulfill its protective and investigative duties overseas; however, 
there are a number of geographic areas where establishing or increasing 
our presence is necessary.
    To date, our requests to establish offices in Moscow and Mexico 
City, and our request for an additional special agent position in 
Bogota have not been approved. We continue to work closely with the 
Department of State regarding these requests, and we are hopeful that 
approval will be granted in the near future.
    Question. What are the long term costs and benefits associated with 
establishing these overseas offices?
    Answer. The personnel and space rental costs associated with 
establishing overseas offices are high and have a serious impact on an 
agency's fiscal resources. However, the cost of not making the 
commitment to respond to our criminal investigative responsibilities 
overseas is even greater. Experience has shown that where the Secret 
Service has established a permanent presence, the quality and quantity 
of the reporting of counterfeiting activity within the host country are 
greatly improved. Liaison with foreign law enforcement and foreign 
banking officials is also enhanced by the use of permanently assigned 
Service personnel at a particular posting. Many counterfeiting and 
other financial crime investigations are of considerable duration. The 
consistency that is inherent in a permanent overseas presence is 
preferable to the disruption to a case which sometimes is the result of 
the constant rotation of temporarily assigned personnel.
    Question. Does Secret Service's overseas operations duplicate the 
services of other U.S. or foreign law enforcement agencies?
    Answer. In 1996, legislation was passed which gave the Secret 
Service the particular authority to investigate the counterfeiting of 
U.S. currency outside the borders of the United States. The expertise 
that the Secret Service brings to foreign counterfeiting investigations 
benefits the U.S. economy; however, foreign banking and law enforcement 
officials also profit from the technical and investigative training 
that they receive from the Service. The Secret Service has also led the 
way in investigating the activities of Nigerian organized criminal 
groups, which have conducted 419 advance fee fraud and other financial 
fraud schemes on an international basis. The value of our overseas 
operations is not limited to our investigative mission. The Service's 
ability to fulfill its unique protective mission also is enhanced by 
its presence in a given foreign country. Although our agents may not 
have law enforcement authority in a foreign country, the Secret 
Service's expertise and investigative resources are valued by the host 
government law enforcement agencies as valuable tools in meeting our 
common goals.
    Question. Does the establishment of foreign offices require 
reciprocal actions by the United States to foreign governments?
    Answer. The Secret Service frequently hosts law enforcement and 
other officials from foreign countries when they visit the United 
States. Often these visits are related to training or information 
sharing activities.
    The Secret Service would defer to the Department of State on all 
matters concerning reciprocal actions for foreign law enforcement in 
the United States.
            forensic assistance for child exploitation cases
    Background: In recent years this subcommittee has provided funding 
so that the United States Secret Service could expand some of their 
unique forensic resources. In these times when many state and local 
police departments are experiencing limited budgetary resources, 
initiatives such as this one, could prove invaluable in investigations 
into child victimization cases.
    Question. Director Bowron could you provide to the committee your 
brief assessment of Secret Service's involvement with this program?
    Answer. I am pleased to report to this Committee that the Secret 
Service has taken a very active role in matters involving missing and 
exploited children by making forensic technology available to Federal, 
State and local law enforcement. To date, this initiative has been 
successful. Funding provided has allowed for increasing the forensic/
technical staff, and the updating of some forensic equipment. As a 
result, requests from State and local authorities receive the best and 
most up to date forensic assistance that the Secret Service can 
provide. Through the assistance of our polygraph program alone, we have 
played a role in the resolution of 38 serious child victimization 
cases. A Forensic Information System for Handwriting (FISH) database 
with over three-hundred (300) writers has been created allowing for 
approximately forty (40) searches of pedophile letters. A brochure has 
been produced, articles have been published in technical and law 
enforcement journals and forensic experts have presented talks at 
various law enforcement and National Center for Missing and Exploited 
Children (NCMEC) clearinghouses on the Secret Service initiative on 
missing and exploited children. The program is being well received by 
the State and local law enforcement community, and requests for 
assistance are increasing with the successes of this program.
    We have also assisted the Boston Police Department in a prevention 
project which involves the fingerprinting and photographing of school 
children in the Boston Public Schools.
    Two representatives of the Forensic Services Division have been 
assigned to the Federal Agency Task Force on Missing and Exploited 
Children and took part in the creation of the manual entitled ``Federal 
Resources on Missing and Exploited Children: A Guide for Law 
Enforcement and Other Public and Private Agencies.''
    The Secret Service is in the process of providing the Naval 
Criminal Investigative Service (NCIS) with a FISH workstation which 
will allow direct connectivity to our FISH system so that they can 
search our database on missing and exploited children for the U. S. 
Navy and, perhaps in the future, for all of the branches of the 
military.
    Question. How many states have requested assistance?
    Answer. To date, the Secret Service has provided assistance to 
State and local law enforcement in twenty (20) different states for 
matters involving missing and exploited children. Several of these 
states have made multiple requests. For example, State and local law 
enforcement in California has requested our assistance in fifteen (15) 
instances; Arizona, Colorado, Florida, and New Hampshire two (2) 
instances each, and Illinois with two requests, including the recent 
``Girl X'' investigation where a suspect was implicated as a result of 
the examination. These requests include polygraph and handwriting 
examinations, audio/video enhancements, age progression drawings, 
handwriting searches through the FISH system, fingerprint searches 
through the Automated Fingerprint Identification System (AFIS), and 
presentations at local NCMEC clearinghouses.
    I would like to stress that the Secret Service is providing 
services and resources to other law enforcement agencies upon their 
request. We are not investigating, but rather providing resources which 
might otherwise be unavailable.
    Question. Have successes in the program resulted in increased 
demands?
    Answer. Yes, especially in the area of polygraph examinations. As 
state and local law enforcement become aware of our successes in this 
area, the demand for polygraph examinations in cases involving missing, 
abused and child exploitation have increased. By utilizing other areas 
of forensic science, state and local law enforcement have learned of 
our involvement in specific cases and, as a result, now request our 
assistance in cases involving handwriting, voice, and fingerprint 
identification. With our continued involvement in this initiative, law 
enforcement organizations have increased their demands for our 
forensic/technical services.
    Question. The Secret Service fiscal year 1998 request includes 
Violent Crime Trust funding for 20 FTE to support this initiative. The 
Trust Fund was established to support and expand law enforcement 
operational activities. It is not meant as a funding source to provide 
for the costs of base law enforcement activities or to supplant 
activities which should be supported through the salaries and expenses 
appropriation. What are your plans for funding these additional 
personnel in the future?
    Answer. Because of the success of this program, it is currently 
anticipated that we will, prior to the expiration of Trust Fund 
funding, request to have the funding required to support this effort 
made part of our Salaries and Expenses appropriation.
                  west african problem and task forces
    Background: The Secret Service has an established history and 
success with an operation referred to as the ``West African Task 
Force''. The criminal element targeted in this initiative has a history 
of engaging in various financial crimes, as well as drug trafficking. 
These groups seem to have initially established themselves in urban 
areas, however, Secret Service has seen a proliferation of these crimes 
in areas not traditionally associated with this type of activity, such 
as Madison, Wisconsin.
    Question. Director Bowron, please give the subcommittee an 
assessment of the West African Crime problem, their activities, and 
where they conduct these activities?
    Answer. With the passage of the Crime Control Bill of 1984, the 
Secret Service received primary jurisdiction in the investigation of 
credit card fraud. One of the first groups that the Secret Service 
began to engage on a regular basis were loosely organized criminal 
elements within the growing Nigerian population in the United States.
    On September 17, 1986, these Nigerian criminal elements were dubbed 
``The Nigerian Crime Network'' by the Senate permanent subcommittee on 
investigations during hearings on emerging criminal groups. The term 
``Network'' was chosen because the subcommittee could find no evidence 
of a nationwide ``organization'' along the lines of traditional 
organized crime.
    The subcommittee determined that the network was made up of 
regional and local Nigerian organizations which maintain their 
identities and independence from the network as a whole. Further, the 
subcommittee statement purported that ``. . . unlike traditional 
organized crime, the organization appears to make no territorial 
claims, are highly mobile, and may display no clear hierarchy.''
    The Secret Service distinguishes between structured, traditional 
organized crime and what is now commonly referred to as organized 
criminal enterprises. Many of these groups do not follow patterns 
associated with organized crime in relation to structure. However, 
these groups do support themselves internally through ethnic 
association while externally creating enclaves or cells for criminal 
enterprises on a domestic and international scale.
    Since 1986, these Nigerian criminal groups have instituted 
sophisticated fraud schemes in the areas of advance fee fraud, bank 
fraud, false identification, immigration benefit fraud, various types 
of insurance frauds, passport and visa fraud, theft of services, and 
theft of cars/vehicles for export to Nigeria.
    Financial crimes committed by Nigerian criminals have bilked the 
United States economy out of enormous sums of money. Nigerian criminal 
elements have become one of the top importers of heroin and cocaine 
into the United States. It would be difficult to place a financial 
figure on the damage done to our society by Nigerian criminal elements 
through drug trafficking and the various financial fraud schemes.
    The mobility and growth of the Nigerian criminal groups are being 
facilitated by the society in which we live. Our nation is a mobile 
society and the growth of the Nigerian criminal network is being aided 
by a consumer or customer friendly industry.
    The United States Secret Service realizes that, unchecked, these 
Nigerian criminal elements will increasingly assume the characteristics 
of traditional organized crime. This is already becoming evident with 
the increased involvement in the trafficking of narcotics. In the early 
1990's the Nigerian criminal problem appears to have spread from 
primarily metropolitan areas to virtually every small town and county 
in the United States.
    Current Secret Service investigations strongly indicate that the 
organized Nigerian criminal elements are taking the proceeds derived 
from financial frauds and investing them into narcotics trafficking and 
other criminal enterprises. It is also apparent that narcotics proceeds 
are being intermingled with fraud proceeds. Certainly, it would be a 
mistake to conclude that the evolution of the Nigerian criminal network 
is complete.
    In response to the significant threat posed by Nigerian organized 
criminal elements, the Secret Service established twelve multi-agency 
task forces throughout the country, whose main focus is investigating 
crimes committed by Nigerian criminals.
    These task forces are comprised of agents from many federal 
agencies, as well as representatives from state and local law 
enforcement agencies. The Secret Service values the relationships that 
it has developed with its partners in state and local law enforcement. 
Our experience has shown that local law enforcement is often the first 
line of defense against Nigerian crime, and without local law 
enforcement participation, any national strategy to combat these 
elements will fail.
    Question. The State of Wisconsin has been the target of a fraud 
known as ``advanced fee fraud.'' I know that in my state alone, over 
350 businesses and individuals have been sent solicitation letters. The 
recipients are told they have been singled out to share in multi-
million dollar windfall profits--for doing absolutely nothing. Can you 
please tell me a little more about this sort of fraud and what your 
agency is doing to prevent it?
    Answer. The perpetrators of advance fee fraud (AFF), known as 4-1-9 
fraud after the section of the Nigerian penal code which addresses 
fraud schemes, are often very creative and innovative. Many of the scam 
artists, however, simply copy proven techniques developed by others. 
Perhaps because of this, certain elements of AFF seem to occur in 
nearly every scheme.
  --In almost every case there is a sense of urgency. This is designed 
        to minimize the ability of the victim to verify a deal or a 
        specific part of a transaction, and to limit the exposure time 
        of the participants.
  --The victim is enticed to travel to Nigeria or a border country. On 
        arrival, sometimes without visas, the victims are whisked 
        through airports, violating immigration laws.
  --There are many forged official looking documents.
  --Most of the correspondence is handled by fax or through express 
        mail.
  --Blank letterhead stationary and business invoices are requested 
        from the victim along with bank account details.
  --Any number of Nigerian fees are requested for processing the 
        transaction, such as attorney fees, taxes or even bribes.
  --Each fee is described as the last fee to be required, until errors 
        or oversights are discovered and the cycle starts again.
  --The confidential nature of the transaction is emphasized, and 
        victims are cautioned against contacting authorities.
  --There are usually claims of strong personal ties to Nigerian 
        officials.
  --A Nigerian residing in the United States, the U.K., or other venue 
        may add credibility to the scam by purporting to be a 
        ``clearing house'' bank for the Central Bank of Nigeria.
  --Offices in legitimate government buildings appear to have been used 
        by impostors posing as the real occupants or officials.
    The most common forms of fraudulent business proposals fall into 
seven main categories:
  --Disbursement of money from wills
  --Contract fraud (C.O.D. of Goods or Services)
  --Purchase of real estate
  --Currency conversion scams (black money)
  --Transfer of funds from over-invoiced contracts
  --Sale of crude oil at below market prices
  --Extortion
Disbursement of Money from Wills
    A Nigerian law firm, claiming that it represented the estate of a 
devout Catholic sent a letter to a British charity announcing that the 
devout Catholic had died and left the charity 150,000 British Pounds. 
They enclosed a counterfeit check payable to the charity for the full 
amount. The letter explained that this check could only be cashed, and 
the funds released, once 6,000 British Pounds were transferred to the 
law firm for death duties.
    Fortunately, before proceeding, the charity contacted their bank 
and discovered that the bank sorting code for the bank on which the 
150,000 British Pounds was being drawn, was not correct. Increasing 
numbers of U.S. charities and churches have been targeted by these 
schemes.
Contract Fraud
    Many small and medium sized businesses, without extensive export 
experience, have fallen prey to various forms of Nigerian contract 
fraud. In it's simplest form, contract fraud begins with an order from 
a Nigerian company and a bank draft for items which are to be shipped 
via air freight. The Nigerian company usually tries to negotiate a 
sample or introductory price (to allow it to introduce the products 
into Nigeria). Using a real or fictitious law firm, it may convince the 
exporter that registration, import and other fees are required to bring 
their products into Nigeria.
    In most cases, the first bank draft is real and the goods are 
shipped. The company becomes convinced that it has established an 
export opportunity and a new distribution system in Nigeria.
    In a few cases, firms have been known to ship goods before a bank 
draft has cleared, only to discover that the bank draft was a forgery. 
Once the buyer builds confidence (in cases when legitimate payment is 
made) with two or three more small shipments (less than $10,000 each), 
the exporter receives an urgent letter regarding the award of a 
substantial government contract. The contract requires shipment on an 
urgent basis (less than the time required for the bank draft to clear). 
The exporter learns too late that the bank draft is a counterfeit, the 
goods are not recoverable and the company is untraceable.
    Many of the cases of contract fraud begin with the use of actual or 
forged government tenders. In either case, the recipient is enticed by 
the size of the contract and the prospect of a Nigerian firm willing to 
facilitate the award.
Purchase of Real Estate
    Another type of Nigerian Advance Fee Fraud involves an offer to 
purchase real estate using the assistance of a real estate broker or a 
well established business executive. Once a suitable property is 
located, the broker or person acting on behalf of the home buyer, is 
required to pay certain fees to complete the transaction in return for 
receiving a normal commission.
Conversion of Currency (Black Money)
    Over the years, there have been attempts to defraud individuals 
using elaborate schemes in which people claim they can convert 
currency. One scheme involved the sale of a liquid which purportedly 
converted special ``black paper'' into U.S. currency. While the 
demonstration was impressive, the sample ``black paper'' was actually 
U.S. currency covered with a substance which was easily removed by the 
liquid. Other schemes involve the conversion of temporarily defaced 
money.
    These types of schemes are prevalent in London, and many Americans 
have been victimized, often in conjunction with over-invoiced contract 
schemes. Prior to traveling the victim will have been informed that the 
funds have been moved from Nigeria. In some cases they will have been 
required to pay freight charges for the transfer. On arrival the victim 
contacts his representative and arrangements are made for a meeting. 
The victim is shown a suitcase of what purports to be millions of 
dollars which have been coated with a black chemical to circumvent 
discovery while in transit. The victim is told that a special chemical 
is required to transform the defaced currency. Once again victims are 
persuaded to part with their money.
Sale of Crude Oil at Concession Prices
    One of the earliest and most prevalent fraudulent business 
proposals involves the offer of special crude oil allocations at lower 
than market prices. Like other fraudulent business proposals, the firm 
is required to pay special registration and licensing fees to acquire 
crude oil at less than 80 percent of the market price, only to find 
that the sellers have disappeared once the fees have been paid. Such 
special allocations do not exist. All sales of Nigerian crude oil are 
made through the Crude Oil Marketing Division of the Nigerian National 
Petroleum Corporation (NNPC). Firms with little experience in the 
petroleum industry can be easily duped by this scam, leaving the victim 
without his funds or the promised oil.
Re-victimization
    An American citizen was murdered in Lagos in June of 1995 while in 
pursuit of such a scheme. The subject did not possess a valid visa, 
which indicates he was smuggled into Nigeria by ``hosts'', either from 
a border country or through a port of entry in Nigeria. This scheme 
involves the attempt to rekindle the dying hopes of previous victims of 
advance fee fraud and is both simple and ingenious. An official looking 
letter, ostensibly from the Central Bank of Nigeria, is mailed or faxed 
to previous victims which states that the new military administration 
has set up a task force (usually the Presidential Task Force) to pay 
all outstanding debts. In order to facilitate the quick disbursement of 
the funds, the individual is requested to complete a questionnaire. The 
letter requests information which the victim probably has changed since 
first becoming a victim, especially bank account numbers.
    Some of these letters are accompanied by an excellent forgery, a 
page from a Nigerian newspaper, which is sandwiched between real 
articles. And of course the individual will be advised that certain 
fees will be required before their monies can be recovered.
    The investigation of these cases indicates strongly that advance 
fee fraud groups are either sharing or selling victims to other groups. 
It is not unusual to discover that a victim has been contacted by more 
than one advance fee fraud group during the course of the scam.
Transfer of funds from over invoiced contracts
    The most prevalent and most successful cases of advance fee fraud 
involve the fund transfer scam. In such a scheme, a company or 
individual will typically receive an unsolicited letter by mail from a 
Nigerian claiming to be a senior civil servant. In the letter, the 
Nigerian will inform the recipient that he is seeking a reputable 
foreign company or individual into whose account he can deposit funds 
ranging from $28-60 million which the Nigerian government overpayed on 
some procurement contract.
Initial Offer Letter
    Criminals obtain the names of potential victims from a variety of 
sources, including trade journals and shows, telephone directories, 
newspapers, magazines, advertising, and commercial libraries. These con 
artists do not target a single company, but rather send out mailings en 
masse. Allegedly, Nigerians have bribed postal employees to send out 
letters at discounted rates, bought off, or otherwise subverted, bank 
officials to get them to acquiesce in the fraud and permit access to 
bank premises and facilities, and entered into a relationship with 
officials to assist them in their schemes.
    The sender declares that he is a senior civil servant in one of the 
Nigerian Ministries, usually the Nigerian National Petroleum 
Corporation (NNPC). The letters refer to investigations of previous 
contracts awarded by prior regimes alleging that many contracts were 
over-invoiced. Rather than return the money to the government, they 
desire to transfer the money to a foreign account. The sums to be 
transferred average between $28,000,000 to $60,000,000 and the 
recipient is usually offered a commission of up to 30 percent for 
assisting in the transfer.
    Initially, the target is asked to provide company letterhead 
stationary and proforma invoicing, which will be used to show 
completion of the contract. The victim is advised that the completed 
contracts will then be submitted to the Central Bank of Nigeria for 
approval. Upon approval of the contracts, the funds will be remitted to 
an account supplied by the intended victim.
    The victim is also instructed to provide banking particulars, 
including the name of account holder, the name of the bank and branch, 
the account number, and bank telephone and fax numbers.
    Victims who are foolish enough to provide an account containing 
large sums of money, such as their company account, run the risk of 
having it compromised by the criminal. However, the intended purpose of 
obtaining the account information in the first place is to let the 
Nigerian know he has ``hooked'' another victim. Those who open a new 
account with a minimum deposit to avert the possible plundering of 
their other accounts are accomplishing nothing, since the account will 
never be utilized.
    The goal of the schemer is to delude the individual into thinking 
that he is being drawn into a very lucrative, albeit questionable, 
arrangement. Along with being drawn into the scheme, the target must be 
reassured and confident of the potential success of the deal, so that 
he will become the primary supporter of the scheme and willingly 
contribute a large amount of money when the deal is threatened. The 
term ``when'' is used because the con-within-the-con is that the scheme 
will be threatened in order to persuade the victim to provide a large 
sum of money to save the venture.
    The letter, while appearing transparent and even ridiculous to 
some, is really quite effective. It sets the stage, and is the opening 
round of a two layered scheme, or scheme within a scheme.
    The criminal will eventually reach someone who, while skeptical, 
desperately wants the deal to be genuine. The individual usually will 
not seek outside advice regarding the matter or, if they do, it is only 
for the purpose of minimizing a negative assessment of the transaction. 
The individual may even attempt to further assess the situation by 
requesting more information from the sender.
    The intended victim will respond to this initial letter by 
contacting the schemers either via telephone or facsimile. The main 
concern at this point is to get the target to send the requested 
information and/or documents. If the individual does not immediately 
respond with the information or documents but requests more details, 
the criminal will respond with plausible answers and plead for quick 
action on this matter before others find out about the funds.
    Advance fee fraud schemers will often urge their victims to keep 
the business relationship secret. The questionable character of the 
business proposals offered to potential victims may further discourage 
them from going to the authorities.
Sense of Urgency
    Limiting the amount of time in which the target must make a 
decision forces him to commit to the next step based on limited 
information, and before he can adequately reflect on the situation or 
contact more informed sources. Given the mark's proclivity to want to 
believe that the deal is genuine, there is increasing pressure to stay 
in the game.
    The perceived time limit also causes the intended victim to feel 
personally responsible for the success of the venture. The individual 
reasons that if there is indeed a time constraint (a reasonable 
assumption) and if these documents are indeed necessary (also 
reasonable) then, if this ``deal of a lifetime'' falls through, it will 
be his fault. By this time failure of the scheme is unacceptable to the 
individual, and he will typically send the requested documents.
    The scam now moves into full swing. The first and most important 
job of the criminal is to develop the individual's trust and confidence 
in the venture, which can be accomplished through various means.
Travel to Nigeria
    Victims are almost always requested to travel to Nigeria to 
complete a transaction. Individuals are often told that they will not 
need a visa to come to Nigeria to close the deal. The Nigerian con 
artists may then bribe airport officials to pass the victims through 
Nigerian immigration and customs. In other instances, the victims will 
be told to travel to a border country or other overseas venue to 
complete the deal. Upon arrival, the Nigerians will inform the victim 
that travel to Nigeria will be required, so the victim is transported 
into the country illegally. Because it is a serious offense in Nigeria 
to enter the nation without a valid visa, the victim's illegal entry 
may be used by the criminals as leverage to coerce the victims into 
releasing funds. Violence and threats of physical harm may be employed 
to further pressure victims who are often held incommunicado in a hotel 
room or a Nigerian residence. Numerous American citizens have had to be 
physically rescued by the American Embassy security teams in the past.
    The victim is effectively isolated in a foreign land where all his 
key contacts and activities are controlled and orchestrated by the 
criminals. As a result, the individual only sees and hears what they 
want him to; which is a consistent stream of information reinforcing 
the belief that the deal is genuine. The individual further believes 
that he is at times involved in possible illegal acts, and thus will 
feel legally isolated from seeking the assistance of his or her country 
in verifying the bona fides of the schemers.
    If the intended victim either refuses or does not have the means to 
travel, it does not mean that the scheme will not proceed. The criminal 
as a general rule will find a way to circumvent any obstacle presented 
to them. In these instances it is common practice for the schemers to 
suggest that a power of attorney situation be arranged to facilitate 
the execution of required legal documents in Nigeria. And, of course, 
certain fees will be requested from the intended victim to cover any 
legal fees incurred.
    At no time will the Nigerian criminal ever travel to the United 
States in furtherance of this scheme. This does not preclude them, 
however, from requesting significant sums of money to be used for 
travel expenses for various officials. This money will then join the 
rest of the advance fees in the bottomless pit.
Official Looking Documents
    Victims are often convinced of the authenticity of advance fee 
fraud schemes by the forged or false documents bearing apparently 
official Nigerian government letterhead, and seals, as well as false 
letters of credit, payment schedules and bank drafts.
False Identities/Bogus Agencies
    The criminal may establish the credibility of his contacts, and 
thereby his influence, by arranging a meeting between the victim and 
``government officials'' in real or fake government offices.
Setting the Hook and Advance Fees
    If this ploy is effective, and it often is, and if all the other 
actions have had their intended effect on the potential victim, then 
the first part of the scam has been completed and the target is 
committed to the fraudulent scheme. The individual overcomes any 
lingering doubts and surrenders himself completely to the scheme.
    Following the initial rush to have the individual furnish the 
documents, the criminal may take his time to establish his apparent 
credibility and the legitimacy of the deal.
    First, the intended victim needs time to internally develop a sense 
of trust and secondly, by the time the individual commits to the scam 
he will have invested a lot of time in the effort, and he will want to 
carry out the rest of the process as quickly as possible. Some victims 
have an ongoing relationship with their Nigerian counterparts for many 
months.
    Now the trap is sprung and some alleged problem concerning the 
inside man will suddenly arise. An official will demand an up front 
bribe; or an unforeseen tax or fee to the Nigerian government will have 
to be paid before the money can be transferred. These can include 
licensing fees, registration fees or various forms of taxes and 
attorney fees.
    Normally each fee paid is described as the very last fee required. 
Invariably, oversights and errors in the deal are discovered by the 
Nigerians, necessitating additional payments and allowing the scheme to 
be stretched out over several months.
    The criminal will usually claim that he has the majority, but not 
all, of the required funds and the victim visualizes the deal of a 
lifetime slipping through his fingers. The criminal has now succeeded 
in persuading the target to believe that:
  --the success of the deal now lies solely in his lap
  --he has a very limited amount of time in which to react, and
  --the criminal has made a believable, but utterly fictitious personal 
        financial sacrifice in an attempt to salvage the deal.
    Ultimately, the target does not want to be responsible for the 
failure of the deal and will typically arrange for the payment of the 
necessary funds.
Clearing House Bank Operations
    Investigation has shown that in a number of cases the advance fee 
fraud group based in Nigeria will make the initial contact with the 
intended victim, and at some point that victim will be contacted by a 
group identifying itself as a clearing house bank for the Central Bank 
of Nigeria. Sometimes the group will identify itself as the Federal 
Debt Reconciliation Committee (does not exist) or an Audit Trust Bank. 
This group has no affiliation to any legitimate bank, and is often 
nothing more than a store front.
    This action is perhaps an effort by the group based in Nigeria to 
lend additional credibility to the scam by demonstrating an affiliation 
with a clearing house bank based in the United States, London, or other 
foreign venue. Or perhaps the effort is made because the group based 
outside of Nigeria has developed the means to successfully launder the 
profits.
    In some instances, the clearing house banks receive a certain 
percentage of the proceeds received as commission. The remaining monies 
are then wired to overseas accounts controlled by other Nigerians who 
desire access to U.S. dollars. Upon receipt in this account, these 
Nigerians will pay the group in Nigeria in Naira (local currency) at an 
exchange rate favorable to the advance fee fraud group. In this manner, 
the money is successfully laundered and profits expanded.
    In another case, the victims were instructed to wire monies to an 
account that had been opened by a Nigerian living in the United States. 
The monies wired to this account were then used to purchase luxury 
automobiles for export to the largest automobile dealership in Lagos.
    Investigation indicates that in some cases monies wired by victims 
are bought at a discounted rate by ``legitimate'' Nigerian businessmen 
or illegal Bureaus de Change. It is similar to a situation in South 
America which may occur between businessmen, the Casa de Cambio, and 
the cocaine cartels.
    It also appears that ``legitimate businessmen'' are allowing their 
business bank accounts both in Nigeria and abroad to be sub-contracted 
by criminals to facilitate the retention and control of the proceeds of 
criminal activity.
    Evidence indicates that proceeds from advance fee fraud are being 
diverted into the distribution of heroin. A number of suspects that 
have surfaced in advance fee fraud investigations are known to be 
targets of narcotics investigations.
    In past years it was commonly perceived that operating criminal 
enterprises between several of the main tribes in Nigeria was virtually 
non-existent. Further, Nigerian organized criminal groups never dealt 
with other nationalities or ethnic groups in furtherance of their 
activities. However, that concept is now antiquated, as the groups have 
recognized the Nigerian successes and tend to collaborate with them on 
an increasing basis. Recent investigations have shown that non-
Nigerians have begun to work as accomplices with the advance fee fraud 
groups based in Nigeria.
               what is the secret service doing about it?
``Operation 419''
    Nigerian advance fee fraud (AFF), known internationally as 4-1-9 
after a section of the Nigerian penal code, has emerged as one of the 
most lucrative fraudulent activities perpetrated by organized criminal 
elements within the Nigerian community.
    Worldwide financial losses associated with AFF are conservatively 
estimated to be in the hundreds of millions of dollars, with victims in 
the United States perhaps accounting for half of the total.
    In response to this growing epidemic, the Financial Crimes Division 
of the Secret Service initiated a program dubbed ``Operation 4-1-9'' to 
combat AFF on an international basis.
    These advance fee schemes emanate solely from within Nigeria, 
though investigations indicate that Nigerians and non-Nigerians in the 
United States, Great Britain, and other countries, are acting in 
complicity to further this activity.
    Fraudulent ``clearing house'' banks, with alleged associations to 
the Central Bank of Nigeria, have been established in the United States 
and other venues to provide instructions to victims and lend additional 
credibility to the authenticity of the schemes.
    Beginning last year, agents have been assigned on a temporary basis 
to the American Embassy in Lagos to address the problem in that arena. 
Agents established liaison with Nigerian officials, briefed other 
embassies on the widespread problem, and assisted in the extrication of 
U.S. citizens in distress who had traveled to Nigeria in furtherance of 
a scam.
    Over the last two years, the Financial Crimes Division has been 
receiving up to 100 telephone calls and 300-500 pieces of related 
correspondence from victims and potential victims on a daily basis. The 
Financial Crimes Division has developed a database containing 
information gleaned from over 50,000 Nigerian scam letters. A link 
analysis of this data revealed the suspected locations of the top 
advance fee criminals in Lagos.
    Secret Service agents on temporary assignment to the American 
Embassy in Lagos, in conjunction with the Regional Security Office, 
supplied this information in the form of investigative leads to the 
Federal Investigation and Intelligence Bureau (FIIB) of the Nigerian 
National Police. (The Nigerian police has recently undergone a 
realignment. The FIIB is now the ``D'' Department under the Office of 
Investigations).
    The FIIB Special Frauds Unit has been tasked by the Nigerian 
Government with the enforcement of the advance fee fraud and money 
laundering decrees of 1995.
    This project was designed to provide Nigerian law enforcement 
officials with investigative leads to enable them to enforce their own 
jurisdictional venues.
    On July 2, 1996, officials of the FIIB, accompanied by Secret 
Service agents and the Regional Security Office in an observer/advisor 
role, executed search warrants on sixteen locations in Lagos, resulting 
in the arrests of forty--three Nigerian Nationals. Evidence seized 
included telephones and facsimile machines, government and Central Bank 
of Nigeria letterhead stationary, international business directories, 
scam letters and addressed envelopes, as well as files containing 
correspondence from victims throughout the world.
    On August 1, 1996, Commissioner of Police--FIIB Special Fraud Unit, 
appeared on the Nigerian Television Authority (NTA) and addressed a 
press conference to announce the arrests of forty-three ``419 
operatives'' in the Lagos area with the technical support and 
assistance of the United States Secret Service.
    The results of ``Operation Sweep'' were also extensively covered in 
a number of Nigerian newspapers.
    In December 1996, Secret Service agents traveled to Nigeria as 
representatives on a State Department sponsored trip to discuss money 
laundering issues with Nigerian government officials. Purportedly an 
additional one hundred and twenty-eight Nigerian criminals have been 
arrested as a result of follow-up investigations conducted in 
conjunction with ``Operation Sweep.''
    In addition, Secret Service agents and Embassy Officials met with 
ranking officers of the Central Bank of Nigeria (CBN), including the 
Deputy Governor for Domestic Monetary and Banking Policy.
    The first meeting, held at the Bank Examination Department of the 
CBN, concentrated on aspects of money laundering and advance fee fraud. 
The Director of the Bank Examination Department explained that his 
department has the responsibility to monitor banks for compliance with 
the new money laundering decree, and the power to place either a 
``caution'' or ``freeze'' on bank accounts that exhibited suspicious 
behavior. A caution limits the account so that only deposits can be 
made to it; withdrawals are not allowed. A freeze makes the account 
completely inaccessible.
    In response to our inquiry, the Director stated that if he were 
supplied with account information linking it to questionable 
activities, the Bank Examination Department could put a caution on the 
account pending an investigation.
    The Director further explained that there have been currency 
transaction reporting requirements placed on financial institutions 
which are similar to those in the United States, but that he does not 
have sufficient staffing or training to adequately monitor the 
activities of the numerous banks and bureaus de change which operate in 
Nigeria.
    At the conclusion of the meeting the CBN officials suggested that 
another meeting involving additional departments, more involved in 
advance fee fraud, and the Deputy Governor of the CBN, be held the 
following week.
    The aforementioned meeting was held on July 9, 1996, in the office 
of the Deputy Governor for Domestic Monetary and Banking Policy.
    At that meeting, ways were discussed by which the Central Bank, the 
U.S. Secret Service, and the American Embassy might work together to 
combat advance fee fraud and money laundering. The Deputy Governor 
approved the idea of the Bank Examination Department intervening on 
accounts identified by the Secret Service as associated with the 
receipt of the proceeds of advance fee frauds. In particular, The 
Foreign Operations Department and the Bank Security Department agreed 
to accept account numbers for investigations and, in turn, any 
derogatory information developed about foreign transfers would be 
shared. (The Central Bank of Nigeria is responsible for the monitoring 
and regulation of commercial banks in Nigeria).
    A frank discussion on the nature and consequences of advance fee 
fraud was held. The bankers espoused the standard Nigerian argument 
that the victims were also criminals; but after much discussion, 
conceded they were not criminals of the same caliber, and that not all 
advance fee fraud involved the simple transfer of ill-gotten money. 
Phoney bequests to churches and other charitable organizations, 
fraudulent oil deals, and unpaid business orders also generate 
considerable advance fee fraud money. The bankers also agreed that 
advance fee fraud hurts the image and business climate of Nigeria. The 
meeting concluded with pledges of future cooperation and with all sides 
grateful for the opportunity to meet and discuss these issues.
    Since these meetings, the Financial Crimes Division has forwarded 
numerous bank accounts known to be associated with the receipt of 
advance fee frauds to the Central Bank of Nigeria. While this 
correspondence is always acknowledged, the Secret Service is not aware 
of any arrests of suspected criminals or seizure and return of any 
monies associated with the accounts.
    The Secret Service has adopted a three-pronged approach of 
investigation, interdiction, and public education to combat this 
problem. It is anticipated that public education will have a 
significant impact on reducing the fraud losses associated with these 
schemes.
    It is not uncommon to receive a frantic telephone call from family 
members or attorneys of clients who are insistent on traveling to 
Nigeria in furtherance of these scams. Our agents have located victims 
in foreign venues and have assisted in their removal from a potentially 
dangerous environment and facilitated their safe return to the United 
States.
    The Secret Service has issued a public awareness advisory designed 
to inform and educate U.S. citizens about these schemes.
    In a cooperative effort with members of the public and private 
sectors, copies of this advisory have been reproduced and included in 
publications which reach the groups that appear most vulnerable to 
these schemes, including the elderly.
    The American Embassy in Lagos has reported a dramatic drop in the 
numbers of U.S. victims that come to their attention on a monthly 
basis. We believe that this can be directly attributed to the public 
awareness campaign initiated by this Service.
    We continue to work closely with the Departments of State, Justice, 
and Commerce, the American Embassy in Nigeria, Interpol, Scotland Yard, 
and Swiss, German, Canadian and French Law Enforcement officials, to 
name just a few, in an attempt to minimize the losses associated with 
these schemes. The Secret Service is currently planning a news media 
blitz scheduled for this summer. Our Public Affairs Division has 
contacted the major print and television networks who have shown an 
interest in assisting us in informing the American public about these 
schemes.
Investigations of Note
    Investigative leads provided by a recent case in New Jersey 
indicated that advance fee fraud was being conducted by a group from 
South Florida. Documents provided by a victim from Japan indicated 
advance fee fraud, but the associated documents were written in the 
grammatical style of an American, not a Nigerian.
    Investigation proved that a white male in his early 60's with a 
background in the banking industry acted in complicity with Nigerian 
criminals in Lagos to defraud victims throughout the world of over $8 
million.
    The defendant cooperated in this matter and was escorted to London 
where he participated in a ``lure operation'', resulting in the arrests 
of three of his accomplices. These accomplices are currently awaiting 
extradition to the United States. A fourth accomplice was arrested in 
Lagos, Nigeria.
    Wire transfer funds cannot be transferred directly from the United 
States to Nigeria, they must pass through a U.S. correspondent bank 
account--usually in New York. Sometimes victims will report they have 
wired monies to an account in New York where, in reality, the money 
merely passed through this account toward its final destination, often 
a Nigerian bank.
    In one of the first cases prosecuted in the United States, 
Nigerians, operating out of a store front in Jersey City, N.J., bilked 
victims from around the world of at least $5 million.
    Calling themselves the International Clearing House of the Central 
Bank of Nigeria, the criminals contacted victims, advising them that 
they had received their file. The victims were then told that the file 
reflected that certain fees had not been paid and the contract funds 
could not be remitted until said fees were paid. Payment instructions 
were then provided to the victims.
    The criminals operated through at least fourteen separate bank 
accounts. When the required fees arrived at the account, the criminals 
kept 30 percent and re-wired the remaining funds at the direction of 
their accomplices in Nigeria.
    According to a cooperating defendant, the monies were wired to 
legitimate Nigerian businessmen overseas who had ``purchased'' the 
money from the 4-1-9 group in Lagos. Thus, the 4-1-9 group was able to 
effectively launder the illicit proceeds and convert it to local 
currency.
    Question. Can you tell me what relationship ``Advanced Fee Fraud'' 
schemes have with our drug problems?
    Answer. Evidence indicates that proceeds from advance fee fraud are 
being diverted into the distribution of heroin and cocaine. A number of 
suspects that have surfaced in advance fee fraud investigations are 
known to be targets of narcotics investigations.
    Victims from around the world were instructed to wire transfer 
funds to an account controlled by a Nigerian residing in New Jersey. 
These funds were then used to purchase luxury automobiles for export to 
one of the largest car dealerships in Lagos. This dealership was known 
to launder illicit proceeds of narcotics traffickers. A Title I wire 
tap investigation was conducted in conjunction with the High Intensity 
Drug Trafficking Area (HIDTA) Task Force in Newark, N.J. It was learned 
that the owner of the dealership purchased the illicit proceeds at a 
discounted rate from criminals in Lagos. When the criminals presented a 
copy of the wire transfer, the owner of the dealership paid off in 
local currency. The dealership expanded profits by purchasing the 
illicit funds at a discount, laundered those funds through the purchase 
of luxury automobiles, and ultimately sold those automobiles at a 
substantial profit in Lagos.
    The controller of the bank account in New Jersey was also 
laundering the cash proceeds of narcotics trafficking. Heroin was 
shipped into the United States from Nigeria and was hand carried to 
Chicago where it was distributed. The cash proceeds were then delivered 
to the Nigerian in New Jersey who ``sold'' the cash to Nigerians in the 
U.S. Relatives or associates of the Nigerians who purchased the money 
then paid off at an advantageous exchange rate to the controllers of 
the heroin in Nigeria. The cash was effectively laundered, profits 
expanded through the exchange rate, and converted to local currency.
    Chicago is the center for the distribution of heroin throughout the 
Midwest. It is estimated that Nigerian traffickers control seventy 
percent of the heroin being imported into Chicago.
    Nigerians are considered mid-level brokers and are the primary 
source of heroin for street level dealers.
    Nigerian criminal enterprises are often engaged in myriad criminal 
activities. Though the Secret Service does not have jurisdictional 
authority to investigate the trafficking of narcotics, its financial 
crime investigations regularly place it in the center of drug related 
cases.
    Secret Service investigations into the money laundering practices 
of Nigerian organized criminal groups have shown that the individuals 
and institutions responsible for laundering the proceeds of advance fee 
are also laundering the funds associated with the trafficking of 
narcotics.
    The illicit proceeds of financial crimes are being used to enhance 
the lifestyle of the Nigerian criminal, to purchase durable goods for 
export to Nigeria, to use as a ``foreign exchange'' mechanism or 
underground bank, to invest in legitimate business throughout the 
world, and, as previously mentioned, to support the trafficking of 
narcotics.
    Question. Are you aware of any cities in Wisconsin in which these 
fraudulent activities have been associated with increased drug 
trafficking and arrests?
    Answer. No.
    Question. In what cities are your ``West African Task Forces'' 
currently operating?
    Answer. The Secret Service currently maintains Nigerian Task Forces 
in the following U.S. cities: Atlanta, GA, Baltimore, MD, Boston, MA, 
Chicago, IL, Dallas, TX, Greensboro, NC, Houston, TX, Miami, FL, 
Newark, NJ, New York, NY, Washington, DC, and Los Angeles, CA.
    Question. What agencies are currently participating in the Task 
Forces?
    Answer. Participating agencies include, but are not limited to, 
representatives from the following agencies: Drug Enforcement 
Administration, Federal Bureau of Investigation, Immigration and 
Naturalization Service, Internal Revenue Service, Postal Inspection 
Service, Social Security Administration, State Department Office of 
Diplomatic Security, and Customs Service.
    In addition, there are numerous representatives from state and 
local law enforcement and prosecutors involved in these task forces.
                coordination with other treasury offices
    Background: Director Bowron, the Treasury Department is undertaking 
an effort to create an Office of Professional Responsibility'' (OPR). 
According to the House report language establishing this effort OPR 
would have the authority to: undertake its own investigations such as 
``Good Ol' Boys''; convene panels of outside experts to review 
allegations; and provide quality control of all internal affairs 
offices. Recently, we received a letter from the Under Secretary for 
Law Enforcement that OPR will provide essential fact finding and 
independent assessment of bureau actions and policy implementation at 
Customs, Secret Service, ATF, FLETC, and FinCen.
    Question. What is your understanding of what this office's role was 
intended to be?
    Answer. It is the Service's understanding that the role of this new 
office will be essentially as you have described it. We believe the 
office will be created with the responsibility to cover the gap in 
oversight of senior level managers that currently exists between the 
Departmental Inspector General and the ``internal affairs'' offices of 
the individual law enforcement bureaus. The Service also understands 
that the oversight responsibilities of this new office will not 
interfere with the Inspector General Act, or the exemptions granted by 
this Act to the Secret Service as they relate to classified and highly 
sensitive protection information.
    Question. Have you discussed with Treasury their draft OPR plan? If 
so, will you share those comments?
    Answer. I had an impromptu conversation with Under Secretary Kelly 
concerning an early iteration of the OPR plan. I am not certain which 
version of the plan has been adopted, and therefore, I am not prepared 
to discuss the tenets.
    Question. Your agency has, in effect, an internal affairs division 
and the Treasury Department also has an Inspector General. Does the 
OPR, as described, result in an excess of oversight?
    Answer. As I have stated previously, I have not been briefed on 
which version of the OPR concept was finally adopted. Therefore, I am 
not in a position to discuss how the plan would complement existing 
oversight policy.
                                 ______
                                 
                          U.S. Customs Service
                          border drug seizures
    Background: The drug seizures along the Southwest border rose 
between 1993 and 1995. Officials dealing with drugs acknowledge that 
the seizures are small compared with the mountain of drugs that 
traffickers are believed to smuggled from Mexico each year.
    Marijuana seized in 1995, 119 tons versus Marijuana believed to 
enter the U.S. by land, 4,000 tons
    Cocaine seized in 1995, 11 tons versus Cocaine estimated to pass 
from South America to the U.S., 330 tons
    Heroin seized in 1995, 89 pounds versus Heroin estimated to arrive 
from Mexico to the United States, 5.5 tons (1 ton equals 2000 lbs)
    Question. According to Office of National Drug Control Policy 
(ONDCP) figures Customs is only seizing one percent of all drugs 
smuggled into the United States. What's Customs doing to increase drug 
smuggling interdiction efforts?
    Answer. In the past two fiscal years, U.S. Customs has witnessed 
many significant successes and milestones in narcotics interdiction, 
resulting in large part from Operations Hard Line and Gateway. In 
fiscal year 1995, Customs seized 61 percent of the cocaine, 51 percent 
of the marijuana, and 85 percent of the heroin seized by all federal 
law enforcement agencies combined.
    In fiscal year 1996, Customs continued successful interdiction of 
drug shipments by seizing record amounts of narcotics. For the first 
time in our history, the total amount of narcotics seized by Customs in 
one year exceeded 1 million pounds. As part of this record haul, 
Customs effectively removed over 82 metric tons (180,947 pounds) of 
cocaine from circulation in the United States through strong 
interdiction and investigative efforts. It is important to note that 
narcotics shipments that are intercepted and seized at the border by 
Customs are in large wholesale quantities and are at extremely high 
purity levels. The role Customs plays in interdicting these large, 
high-quality narcotics shipments through the control of our Nation's 
border is a vital and integral part of the national narcotics strategy. 
According to seizure statistics in the National Drug Control Strategy, 
this accounts for approximately 18 to 23 percent of the total amount of 
cocaine that enters the United States annually. In the process of 
achieving these excellent results, Customs also reduced the incidence 
and related violence of port running on our Southwest border by 59 
percent over the baseline year of 1994.
    Anticipating an increase in smuggling within the commercial cargo 
environment along the Southwest border as the pressure remained in the 
passenger processing environment with Hard Line, and between the ports 
with the Border Patrol's Operation Hold the Line and Gatekeeper, 
Customs intensified its cargo efforts with impressive results. 
Southwest Border port infrastructure has been fortified and Customs 
Inspectors have been equipped with better tools to perform more 
intensive narcotics exams. Customs currently has two operational fixed 
site truck x-ray facilities in Otay Mesa, California and Calexico, 
California. Customs has procured 3 additional truck x-ray systems for 
El Paso, Texas (2 systems), and Pharr, Texas. These systems are 
scheduled to be operational by October of 1997. In addition to fixed 
site truck x-ray equipment, Customs is testing Mobile Truck x-ray and 
Gamma-ray non-intrusive examination equipment. Customs has also paid 
additional overtime for pre-primary operations; purchased over 1,700 
sets of body armor; funded integrity training; bought 126 additional 
vehicles and purchased radios and other enforcement equipment.
    Customs has received pledges from over 800 trucking companies on 
the Southwest Border to better police their trucks and warehouses in 
order to prevent the exploitation of legitimate carriers and cargo by 
drug cartels under a program called the Land Border Carrier Initiative 
Program. In addition, Customs supports the work of the Business Anti-
Smuggling Coalition, (BASC) a business group working with its members 
to eliminate smuggling within their shipments.
    As a result of these technological advances and port infrastructure 
improvements, seizures in the Southwest border commercial cargo 
environment have doubled in each of the past two fiscal years.
    Since the initiation of Operation GATEWAY on March 1, 1996, Customs 
narcotic enforcement activities in Puerto Rico have increased 
dramatically. In comparing the first year of GATEWAY to the same period 
the previous year (March 1996 to February 1997 versus March 1995 to 
February 1996), cocaine seizures have risen 38 percent--from 23,324 
pounds in the pre-GATEWAY period as compared to 31,265 pounds since 
GATEWAY began. Also, there has been a 131 percent increase in the 
examination of full inbound containers. An additional 242 Outbound 
containers have been examined as well.
    As a direct result of outstanding air interdiction efforts by 
Customs, cross U.S. border air smuggling activity is at a level less 
than one-quarter of what it was in 1982. In fiscal year 1996, while 
continuing to maintain Customs success in preventing U.S. airways from 
being exploited by drug traffickers, Customs aircraft provided 
invaluable support to drug interdiction and investigative efforts 
throughout the hemisphere, by contributing to the seizure of over 
61,000 pounds of cocaine, 48,000 pounds of marijuana, and $18.3 
million.
    In addition, Customs Office of Investigations assigns significant 
investigative resources to those geographical areas where the majority 
of the narcotics enter the United States. However, intelligence 
developed as the result of investigative efforts exploiting Ports Of 
Entry (POE) seizures to their ultimate destination, through the 
utilization of ``controlled deliveries,'' indicates the drug smuggling 
organizations' ``command and control'' logistic centers are located at 
inland geographic locations away from the POE.
    Customs maintains an aggressive investigative posture by seizing 
drug smuggling organizations' contraband, proceeds and assets; 
arresting and prosecuting organizational members and their hierarchy; 
and infiltrating additional organizations utilizing informants, 
cooperating defendants, undercover operations, T-III wire taps, and 
long term surveillance. This specialized selective enforcement combines 
the resources of intelligence, technology, inspections and 
investigations. Information acquired from these enforcement actions are 
then fed back to the inspectors as to the smuggling routes, concealment 
methods, etc.
    Customs strives to create a constantly changing and unpredictable 
``border'' environment to challenge the smugglers, thereby forcing them 
to continuously modify their smuggling tactics making them more 
vulnerable to mistakes, seizures and arrests. For Customs to be 
successful in stopping the flow of narcotics across our borders, 
Customs must maximize the inspection/seizure process to build the 
``investigative bridge'' between the interdiction of the narcotics and 
the ultimate recipient.
    This approach is designed to enhance both internal and external 
cooperation and intelligence sharing, while maximizing the unique 
investigative and interdiction capabilities of Customs.
    Question. Can we construct physical barriers to prevent smuggling, 
such as a fence?
    Answer. The Customs Service has the authority to construct physical 
barriers to prevent smuggling within the ports of entry.
    With the advent of Operation Hard Line, Customs began a port of 
entry infrastructure improvement initiative to address the problems of 
border violence and narcotics smuggling. Through this initiative 
Customs is acquiring additional fencing, barriers, bollards, and stop-
sticks (controlled deflation of tires) to ``harden the ports'' along 
the Southwest border. Customs is now in the process of further 
strengthening and tightening the Southwest border by making numerous 
additional infrastructure improvements.
    The agency has taken action by dedicating over $4.76 million to 
acquire fixed assets which include additional fixed bollards, jersey 
barriers, stop-sticks, as well as lighting improvements, speed bumps, 
and fencing for the ports of entry along the Southwest border. These 
fixed assets will improve port security and harden the Southwest border 
ports of entry. Also, Customs is in the process of acquiring automatic 
license plate readers (LPRs) which will be installed in all primary 
vehicle lanes in Southern California and some Arizona ports of entry. 
The Land Border Passenger Automation Initiative contained in the fiscal 
year 1998 President's budget requests funding to expand the 
installation of LPRs across the Southwest border and at selected high 
threat Northern border ports.
    Question. Are you working with ONDCP to develop a coordinated drug 
policy? Are you using the ONDCP figures for levels of drug trafficking? 
Can these coordinated efforts stop the drugs from coming across our 
Borders?
    Answer. Customs entire approach is centered around the ONDCP's 
National Drug Policy, (especially goals 4 and 5) which the Customs 
Service played a significant role in developing. ONDCP's National Drug 
Control Policy states, in part, ``Our objective should be to constrain 
the activities of criminal drug organizations in all aspects of the 
drug trade and progressively drive them out of business. No dimension 
of their operations should be immune from counter action . . .''
    The Customs National Narcotic Investigative Strategy envisions 
doing just that, dismantling and disrupting smuggling and 
transportation cells of drug trafficking organizations. Custom is 
utilizing every facet of our enforcement and investigative facilities 
to combat the inflow of drugs across our nations borders and the 
outflow of narcotic proceeds. Identifying and targeting suspect 
shipments at the Port of Entry and interdicting narcotics at the first 
opportunity denies the smuggler the means of continuing his illegal 
drug trade. Broadening of Customs investigative efforts through the use 
of exploiting these seizures through controlled deliveries, Title III 
wiretaps, and enhancing Operations Hard Line and Gateway, will produce 
a cyclical effect of providing intelligence and tactical information 
back to the Ports of Entry to effect more enforcement actions. This 
will contribute to the dismantling and disruption of drug smuggling 
organizations. The dismantling and disrupting of drug smuggling 
organizations is an outcome, an effective measurable change, that will 
have a significant impact on the flow of drugs into and through the 
United States.
    Question. Are there uniform prosecution guidelines along the Hard 
Line and Gateway borders?
    Answer. Each U.S. Attorney's Office assesses their threat level and 
prosecutorial interest encompassing their varying community standards 
and sets their ``filing of prosecution'' guidelines accordingly.
    Question. Do these varying prosecuting limits impact the 
effectiveness of our drug interdiction?
    Answer. The drug interdiction efforts remain the same for Customs 
throughout the Nation. Prosecution limits vary according to districts 
based on volume, workload, and determination of the U.S. Attorney's 
Office and/or Department of Justice. Some offices in the Hard Line 
area, which are impacted by a high volume of seizures have programs 
established to refer prosecution to the State. This has been very 
successful in introducing the less obtrusive smugglers into the 
criminal justice system. The programs allow for repeat offenders to be 
elevated to the Federal system. This program also allows for non-U.S. 
citizens to be excluded from entry into the U.S., further impacting the 
drug smuggling organization's transportation operation.
    Question. Are arrests for all categories of contraband seizures 
(i.e. drugs, weapons, child pornography, money laundering, etc.) given 
the same weight for prosecution along the southern border?
    Answer. The prosecution of various categories is inherent to the 
``community standards'' and the severity of the contraband. Each case 
presented to the U.S. Attorney is independently reviewed for 
prosecution merit and effect on the community. The weighting of cases 
for prosecution is dependent upon the U.S. Attorney's Office with input 
from the investigator.
                             ports of entry
    The Secretary of Treasury establishes Ports of Entry through a 
delegation of authority from the President of the United States. The 
Secretary of Treasury, advised by the Commissioner of Customs, 
coordinates this designation with other Federal inspection agencies, 
and when appropriate, with Canadian and Mexican officials.
    In developing recommendations Customs established specific workload 
and other criteria in evaluating whether a location should be 
designated a port of entry. According to your report on the criteria 
used to designate ports of entry. These criteria establish whether the 
proposed port of entry is a worthwhile investment for the Federal 
Government and concurrently beneficial to the general area and its 
economy. It would seem to me that the designation would, in most 
instances, provide benefits to the economy of the newly designated 
area. I am more concerned about the investment for the Federal 
Government.
    Question. Although we have reviewed your Specific Port of Entry 
Criteria I still have questions about the information Customs collects 
and how the information is weighted to ensure port of entry decisions 
are made on an independent cost basis?
    Answer. Although there is no specific weighting of the collected 
data for port of entry applications, Customs carefully evaluates the 
information. We evaluate the actual and claimed potential workload 
activities for the applicable criteria. Wherever possible, we attempt 
to provide independent projections of the probable annual transactions 
and other factors. These factors are then evaluated to insure all 
interested parties are handled fairly and in accordance with published 
criteria.
    Question. The Criteria requires the need to include the following 
facilities:
  --Wharfage and anchorage adequate for ocean going cargo/passenger 
        vessels if a water port;
  --Cargo and passenger facilities;
  --Warehousing space for secure storage of imported cargo and 
        passenger facilities;
  --Administrative office space, cargo inspection areas, primary and 
        secondary inspection rooms and storage areas and other space 
        necessary for Customs operations.
    Do all the existing ports of entry include these facilities?
    Answer. At existing ports, the facilities required to support 
Customs operations must be available. The extent of these facilities 
generally reflects the type of port and the workload.
    Question. In your report you state the criteria includes 
consideration of actual or potential Customs workload levels. How are 
the potential Customs workload levels projected?
    Answer. The potential workload levels included in the criteria 
apply to deriving projected workload from the current period. For 
example, if an application includes workload for fiscal year 1996, 
Customs might derive a projected workload level for fiscal year 1997. 
This, usually, would be derived by projecting actual figures from part 
of the year. If there were seasonal or other factors involved they 
would be incorporated in the projection. The projection would be used 
to validate the workload trend.
    Question. Would you please provide a complete report on potential 
ports of entry sites for committee review?
    Answer. There are currently about 300 Customs ports of entry. These 
are the only ports for which Customs collects data. Customs does not 
maintain a list of potential ports of entry sites. If a site is 
currently not a Customs port of entry, we do not collect any data on 
the location. Since there is no Customs presence at these locations, 
there is no data on the activities included under the port of entry 
criteria.
                          chlorofluorocarbons
    The importation of refrigerants, belonging to the class of 
chemicals known as CFC's (chlorofluorocarbons), have been banned in the 
U.S. in conjunction with the international agreement known as the 
Montreal Protocol. This agreement, signed in 1987, established a phase-
out schedule for CFC's leading to their outright ban in the United 
States and other developed countries as of January 1996. This includes 
a chlorofluorocarbon known as Freon or CFC-12, which is known to 
destroy the ozone layer.
    The National Chlorofluorocarbons (CFC) Enforcement Initiative which 
combines the talents of the Department of Justice, the U.S. Customs 
Service, the Environmental Protection Agency and the Federal Bureau of 
Investigation, was designed to stop the flow of the banned chemicals 
into the United States. Customs role includes detection and deterrence 
of smuggling of CFC's into the United States.
    Question. Operation ``Cool Breeze'' has already resulted in over a 
dozen convictions of CFC smugglers, including $1 million in criminal 
fines and the imprisonment of the violators. Please describe Custom's 
role in Operation ``Cool Breeze.''
    Answer. Operation ``Cool Breeze'' is an operation started by 
Customs in Miami. Customs has been the lead agency in all the 
convictions mentioned in the question. The Customs agent who initiated 
these cases received the EPA's Environmental Award for 1996. This was 
the first time that a non-EPA employee has received such an award. From 
Miami, CFC cases have spread out throughout the country. Customs agents 
are actively pursuing these cases and we can expect further convictions 
in the near future. Customs is working in cooperation with agencies 
mentioned above with the addition of the Internal Revenue Service (IRS) 
which has the function of collecting the excise taxes.
    Question. In January, Customs assisted in the indictment of 12 
people charged with smuggling 100 tons of CFC's into the U.S. However, 
that is a tiny fraction of the 10,000 tons, valued over $400 million, 
that is estimated to enter the country illegally each year. It is my 
understanding that Customs is currently charging an excise tax of $5.85 
per pound on CFC-12. If 10,000 tons is being smuggled into the United 
States, the government is losing over $117 million in lost taxes 
annually. What steps is Customs taking to detect the smuggling of this 
chemical into the United States? In other words, what initiatives in 
your fiscal year 1998 budget request will reduce the level of smuggling 
of Freon?
    Answer. The fact is that no one knows the amount of CFC-12 which is 
being smuggled into the U.S. We do know, however, that there is a black 
market in CFC-12 and we are currently mounting efforts to deal with it. 
We are cooperating with all law enforcement agencies both domestic and 
foreign.
    Customs does not collect the excise tax because it is not assessed 
until the first sale or use in the United States. The IRS is currently 
collecting the $6.25 per pound excise per the implementation of the 
Montreal Protocol. Customs has notified the IRS of some $90 million in 
excise taxes due on imports, and IRS is working on this. They have 
assessed over $50 million so far. Customs is using an automated 
profiling system to identify means of smuggling. Right now, there is 
practically no CFC-12 coming into the U.S. described as such. The 
shipping documents do not describe it as CFC-12. Prior to 1996 CFC's 
were described as CFC's and Customs has captured that data and is 
working and developing historical cases. The black market is driven by 
the excise tax and the weather. The non-payment of the excise tax is 
the profit margin for the black marketeer. As with drugs, interdiction 
is not the total answer. The fact that CFC's get into the country does 
not mean that Customs is finished with them. Some of our best cases 
have been historical cases worked with other agencies. From within base 
resources, Customs hopes to increase the activity of our contraband 
enforcement teams, to pay for informants and information, and to mount 
special operations in fiscal year 1998.
    Question. What kind of an impact can we expect from this increased 
focus on Freon smuggling, in other words, what increased level of 
revenue?
    Answer. As was mentioned above, Customs does not collect the excise 
tax but Customs has and will continue to notify IRS of any CFC's that 
they are aware of. The impact will hopefully be an increased detection 
of what has become an ever more sophisticated smuggler.
    Question. Customs has seized a substantial quantity of smuggled 
Freon, which is currently being stored in its evidence warehouses. Is 
disposal of the seized Freon becoming a problem for Customs? If so, 
what action is being taken to dispose of this HAZMAT?
    Answer. Customs is incurring costs for the storage of the seized 
Freon. Seizures of pre-1996 Freon have been used by the Defense 
Department to meet their military needs. We are conducting talks with 
EPA and Justice to arrive at a means of disposal of post 1996 Freon 
that will comply with the Montreal Protocol. There is currently 
disagreement as to whether destruction or sales to Article 5 countries 
should be the means of disposal. Destruction is presently a very 
expensive proposition costing more than the value of the CFC.
                               corruption
    Background: A Blue Ribbon Panel provided recommendations for 
dealing with allegations, of corruption and mismanagement by Customs 
employees in the Southwest region. The Panel issued a report with 50 
findings and 51 recommendations. According to a GAO report issued in 
September 1996, Customs has taken action on 47 of the recommendations 
and is still reviewing the remaining three.
    Question. How will Customs guarantee the success of the 
recommendations?
    Answer. As reported to the General Accounting Office in 1996, 
several oversight mechanisms have been put into place to alert Customs 
managers to problem areas in their offices. For example, the Office of 
Policy and Oversight was established in the Office of Investigations 
(OI) to look for trends and patterns of systemic noncompliance with 
regulations and policies. Additionally, OI instituted a Discipline 
Review Board to ensure consistency in disciplinary actions and a 
Hardship Review Board to oversee reassignments of all OI and some 
Office of Internal Affairs (IA) personnel to ensure adequate 
consideration is given to claims of hardship due to the reassignments. 
Treasury Enforcement is currently performing an evaluation of Customs 
Office Internal Affairs to ensure the program's effectiveness and 
efficiency. Further, IA has developed performance measures for 
investigations and management inspections as well as an automated 
management inspection information system to assist with trend analysis 
of inspection findings. Finally, enhanced training for special agents 
and Customs employees and periodic notification of integrity and 
whistle blower protection issues has served to institutionalize many of 
the corrective actions put into place following the blue ribbon panel 
report.
    Future actions to implement the three recommendations not yet 
implemented will await funding identification.
    Question. Have there been arrests for alleged corrupt activities 
since the Blue Ribbon panel issued its report in August 1991?
    Answer. Yes.
    Question. What has been the level of these arrests since that time?
    Answer. See the chart below. Our automated case management system 
was not in place until fiscal year 1994. We were unable to retrieve 
information on prior years from the case management system.

   Customs Employees Arrested for Corruption \1\ Fiscal Years 1994-97

        Fiscal year/Employee Type                                 Number
1994:
    Inspector.....................................................     1
    Canine Enforcement Officer....................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................     2
                        =================================================================
                        ________________________________________________
1995:
    Senior Inspectors.............................................     5
    Inspectors....................................................     2
    Air Command Duty Officer......................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................     8
                        =================================================================
                        ________________________________________________
1996:
    Management Program Technician.................................     1
    Senior Operational Analysis Specialists.......................     2
    Supervisory Inspector.........................................     1
    Senior Inspectors.............................................     2
    Inspectors....................................................     2
    Mail Technician...............................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................     9
                        =================================================================
                        ________________________________________________
1997:
    Paralegal Clerks..............................................     3
    Senior Inspectors.............................................     4
    Customs Explorer..............................................     1
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................     8

\1\ Corruption is defined as unlawful acts by an employee involving the 
misuse of his/her official position for actual or expected material 
reward or gain. Source: IA SARs as of 5/7/97.

    Question. At what level have these arrests occurred--in the ranks 
or with the management levels?
    Answer. As the chart shows, these arrests have been almost 
exclusively in the ranks.
    Question. I know there have been discussions about the rotation of 
personnel to deter corruption. Are there any examples where this 
philosophy has succeeded with other agencies?
    Answer. Customs has not benchmarked other law enforcement agencies 
to determine if they have a specific program of relocation as an anti-
corruption technique. Customs' perception from previous discussion is 
that other agencies do not use relocation in this manner. We understand 
that other agencies and police departments reassign their investigative 
personnel as needed to address organizational workload. Customs 
personnel are rotated through assignments as a component of 
professional development and career advancement, but not as a specific 
anti-corruption procedure.
                     non-intrusive inspection (nii)
    Background: In 1991, Congress directed the Department of Defense to 
assist Customs in their effort to interdict and reduce the supply of 
drugs and other contraband from entering the United States. DOD applied 
their technology and systems expertise to increase Customs' ability to 
monitor ground, air and maritime border traffic. Technology was 
specifically directed at increasing the amount and effectiveness of 
commercial vehicle and container inspections. Additional advances were 
made in increasing surveillance and tracking technologies, along with 
computer data systems and other electronic support.
    Question. What new technologies are being employed in interdiction?
    Answer. There are two parts to the answer. The first is what 
enhancements are we making to existing technology, and second, what 
technologies are we employing that we have not used before. In the 
first part, Customs has been employing x-rays in the non-intrusive 
inspection of baggage, small parcels and mail packages for over 20 
years. More recently, innovations in the design of large, more powerful 
x-rays have allowed us to expand our targets to vehicles and empty and 
partially filled truck containers, through the deployment of fixed 
truck x-rays at two of our Southwest border ports, and a mobile truck 
x-ray that can be moved from one port to another rapidly. These systems 
have proven so effective that funding has been committed for six more 
fixed truck x-rays and two more mobile systems. In another example, the 
popular ``Buster'', a gamma-ray densitometer that is used to detect 
contraband in places such as car door and truck panels, has benefited 
from improved detector and electronics technology, making it safer and 
more sensitive in its use.
    Regarding technologies Customs has not employed before, there are 
several systems we are in the process of evaluating and which appear 
very promising. One is a transportable gamma-ray imaging system that is 
used to determine if contraband is being hidden in empty tanker trucks 
or other conveyances crossing the border. With some improvements this 
system will be a valuable addition to our arsenal of tools to inspect 
vehicles at land border ports. Another example of new technology is 
narcotic particle detection systems recently deployed at selected 
airports and seaports. The U.S. Coast Guard and Canadian Customs have 
had some success with these systems and we are guardedly optimistic. 
Some of these devices are being tested to see if narcotic 
``swallowers'' can be rapidly screened from breath, perspiration or 
saliva tests at the airport, prior to the more costly and time-
consuming hospital x-ray. Other new technologies include an ultrasonic 
device for verifying the contents of liquids in 55 gallon drums and 
determining if packages of contraband are secreted inside, and the use 
of geo-positioning systems (GPS) and covert infrared tags for 
investigative tracking and surveillance of vehicles.
    As part of the fiscal year 1998 President's Budget, Customs is 
requesting funding ($12.0 million) to purchase two higher energy fixed-
site seaport non-intrusive inspection systems to replace time-consuming 
physical examinations (requiring unloading, examination, and reloading) 
of suspect loaded containers. This system will allow Customs to examine 
the contents of loaded, sea-going containers to determine if contraband 
is present without physical examination. Customs also seeks funding 
($3.0 million) to continue the development of automated targeting 
systems (ATS) to better direct our inspection efforts to those 
shipments/containers with the highest probability of containing 
contraband. Once our evaluation of the ATS is complete, the system will 
be implemented at high-risk land and sea ports of entry. These combined 
systems would have the capability to conduct the equivalent of 
approximately 120,000 intensive inspections per year, enabling Customs 
to maintain its vigilance in the face of an expanding, sophisticated 
threat and accommodate increases in trade volume.
    Question. How do you decide where to put this new technology?
    Answer. Currently there are three criteria used to determine where 
we place technology. The first is where intelligence estimates and past 
operational experience tell us where the major threat exists. This may 
be a single port, a group of ports, or a region. The three regions with 
current Customs priority are the Southwest border, Puerto Rico and the 
Virgin Islands, and the Southern Florida area. The second criteria is 
dictated by the nature of the technology itself. The truck x-ray, for 
example, is designed to inspect vehicles and empty and lightly filled 
trucks, and would only be deployed at a land border crossing. Mobile 
assets, such as the mobile x-ray, might be deployed at various ports 
adjacent to where the fixed systems are, to catch the smugglers that 
try to avoid the fixed system by trying to enter at a nearby port, or 
rotated throughout a group of ports on an unpredictable schedule, 
keeping the smuggler in the dark as to where it may turn up next. The 
third criteria is by Congressional mandate, e.g., the technology 
included in the Anti-Terrorism Bill of 1997 will be deployed at major 
international airports only.
    As more technology becomes available, a fourth criteria may develop 
that relates to how well some technologies work with others. This will 
be the objective of a joint Customs/DOD operation in South Florida, 
where technologies will be applied in combinations to see if there is a 
synergistic effect. This operation is scheduled for next year.
    Question. What is better, mobile or fixed detection systems?
    Answer. With all other factors equal, e.g., types of targets, 
performance and cost, mobile systems are generally better, but factors 
are rarely equal. In addition, there is the compromise of 
``relocatable'' systems, i.e., those that can be dismantled and moved 
from one location to another in a matter of days or at the worst one or 
two weeks. On the one hand mobility brings the valuable attribute of 
flexibility to respond in the face of a mobile or variable threat, but 
on the other it also incurs the logistical problems and costs of 
managing the moving of a system from one area to another, including the 
required operational expertise, maintenance and training 
responsibilities. This implies that under equal conditions, mobile 
systems are more desirable, but will be more expensive to operate.
    Question. Based on history, I am concerned about the future of drug 
interdiction. Drug interdiction initiatives in the early 1990's focused 
on blocking the trafficking of drugs through the Caribbean corridor. As 
a result, drug traffickers moved their activities toward the Southwest 
border. How flexible are our current efforts?
    Answer. Customs has been very successful at adapting to the changes 
made by smuggling organizations.
    In order to meet the rising challenge of policing the Nation's 
borders against drugs, Customs has developed comprehensive new 
technologies and has integrated them with conventional inspectional and 
investigative techniques to support our priority missions. Customs took 
this approach due to the staggering workload along the Southwest 
Border. For example, last fiscal year, 3.5 million trucks, 75 million 
cars, and 254 million people crossed our land border through ports of 
entry. In contrast, during this time period, Customs had only 1,800 
inspectional personnel along the entire 2,000 mile border.
    Customs launched Operation Hard Line 24 months ago to permanently 
harden our Nation's Southwest Border ports of entry against drug 
smuggling activity. At the time, ports of entry along the U.S.-Mexico 
border were under siege by narcotics traffickers, known as port 
runners, who would brazenly speed drug-laden vehicles through border 
crossings, jeopardizing the safety of border officers and civilians. 
Operation Hard Line is evidence that the top priority for Customs is to 
stop drug smuggling. Port running has decreased over 56 percent. 
Southwest Border ports of entry are now safer for all Federal 
Inspection Service officers and civilians.
    Drug seizures on the Southwest Border increased substantially in 
fiscal year 1996; narcotics seizures increased 29 percent by total 
number of incidents (6,956 seizures) and 24 percent by total weight 
(545,922 pounds of marijuana, 33,308 pounds of cocaine, and 459 pounds 
of heroin) when compared to fiscal year 1995 totals. Additionally, the 
total weight of narcotics seizures in commercial cargo that entered the 
U.S. via commercial trucks on the U.S.-Mexico border in fiscal year 
1996 were up over 153 percent (56 seizures totaling 39,741 pounds) when 
compared to fiscal year 1995 seizure statistics. This increase in 
narcotics seizures is due to an increase in the number of intensified 
inspections and tactical intelligence resulting from Operation Hard 
Line.
    Nearly 165 experienced special agents and intelligence analysts 
have been reassigned under Operation Hard Line to the Southwest Border 
to work narcotics cases. Our fiscal year 1997 Budget provides an 
additional 657 positions and $65 million for Customs Operation Hard 
Line efforts along the Southwest Border and the Southern Tier of the 
United States.
    Southwest Border port infrastructure has been fortified and Customs 
Inspectors have been equipped with better tools to perform more 
intensive narcotics exams. Customs has procured four additional truck 
x-ray systems for El Paso, Texas (two systems); Pharr, Texas; and 
Calexico, California. The truck x-ray at Calexico, California, has been 
completed and has been operational since March of this year. The 
additional nonintrusive inspection systems for El Paso and Pharr are 
scheduled to be operational by October 1997. The Customs Service has 
also paid additional overtime for pre-primary operations; purchased 
over 1,700 sets of body armor; funded integrity training; bought 126 
additional vehicles and purchased radios and other enforcement 
equipment.
    Customs has also received pledges from more than 836 trucking 
companies on the Southwest Border to better police their trucks and 
warehouses in order to prevent the exploitation of legitimate carriers 
and cargo by drug cartels under a program called the Land Border 
Carrier Initiative Program.
    Question. It appears that mobile or portable technologies would 
give us the ability to refocus our interdiction efforts as needed, 
instead of revisiting this issue in another couple of years. How 
flexible will our future interdiction technology and efforts be in 
addressing drug trafficking along a new border front?
    Answer. Since the submission of the President's Budget, Customs is 
refining its requirements for non-intrusive technologies to achieve a 
greater mission capability and return on investment by including 
relocatability (capable of being deployed to another location in days 
or at most weeks) or mobility (capable of being deployed to another 
area in a matter of minutes or hours) as an important criterion. This, 
when augmented by the results from the joint Customs/DOD South Florida 
multiple systems demonstration scheduled for next year, should provide 
us with the tactical building blocks with which to design a flexible 
response to drug trafficking along a new border front.
    Question. Can't we purchase more portable systems for the price of 
one fixed site? Are there cost benefits to mobile technology over fixed 
sites?
    Answer. Mobility in and of itself is not necessarily less 
expensive. For example, the mobile truck x-ray with transmission will 
cost about $2.5 million, compared to the fixed truck x-ray cost of 
about $3.3 million, installed. The fixed system has twice the 
throughput as the mobile one, because it has two x-ray beams, where the 
mobile system only has one, and must make two passes for the same image 
coverage. In addition, there are the costs of moving the mobile x-ray 
from one site to another, extra training, and maintenance. The answer 
is a complex one that we are now in the process of addressing, since we 
have just deployed our first two mobile assets, the mobile truck x-ray 
and the transportable gamma ray imaging system, and will be obtaining 
performance and cost data from these operational deployments over the 
next several months.
    Question. What are the broader applications for this new generation 
of technology? Is it only capable of detecting drugs?
    Answer. Most of the non-intrusive inspection technology we are 
acquiring or currently use detects anomalies, rather than specific 
contraband types. X-rays, for example, are used to identify patterns, 
objects or targets that don't belong with what is expected. Thus 
inbound drugs and other contraband, or outbound explosives, weapons, 
currency or stolen cars, for that matter, all appear as anomalies to 
normal manifested goods. The performance and image resolution of the 
equipment is another matter, and systems designed to detect large 
anomalies, such as a low power x-ray to detect stolen cars in outbound 
containers, will have difficulty detecting 50 pounds of drugs in an 
inbound container. In this case, two separate systems may be required, 
each designed for its special application. To use a higher performance 
system for both applications will generally work, but at a lower cost 
benefit for those applications requiring less performance. The Buster, 
gamma-ray imaging system and ultrasonic systems described in previous 
answers are other examples of anomaly detectors.
    Trace detectors, on the other hand, are designed to identify 
specific drugs, explosives or characteristics of such contraband. Some 
drug particle and vapor detection systems, i.e., those that are based 
on ion mobility spectrometry (IMS), can detect either explosives or 
drugs with a small change in their operation, such as a switch. Customs 
is purchasing many of these systems for the anti-terrorism program with 
the intent that for dual-use applications, the explosive detector can 
be changed to a drug detector by flipping a switch.
                            air interdiction
    It is my understanding that the demand for Customs P-3 AEW aircraft 
has increased dramatically with implementation of the Administration's 
international Drug Strategy, particularly that which focuses on the 
source zones. According to Customs this requires better air 
interdiction methods.
    Question. What methods has Customs employed to ensure their air 
interdiction programs can meet this new challenge?
    Answer. Increased demands on the Air Program's assets have prompted 
creative methodologies and initiatives to accomplish our various 
missions. The most noteworthy is the application of the ``flex force'' 
strategy whereby Customs quickly deploys assets to areas requiring 
attention. Operation RAPIER is an example of this strategy and consists 
of periodic, multiple, and flexible deployments (approximately 10 days 
duration) to respond to high threat areas. Intensified interdiction 
methods are then employed to disrupt smuggling operations.
    ``Flex force'' operations are intelligence driven. Four basic 
initiatives are utilized to develop characterizations, or models, to 
identify smuggling trends in a specific area. These characterizations 
include: air environment, airfield environment, aviation community and 
active criminal organizations. Once the intelligence has been collected 
and analyzed, resources are dispatched to address the threat.
    In addition to ``flex force'' operations, adaptable scheduling of 
assets, along with an increased use of ``call out'' personnel, is being 
utilized for ``day-to-day'' operations. This allows support to be 
prioritized for maximum effectiveness.
    Question. Do the long-range air interdiction strategies differ from 
short-range border interdiction strategies?
    Answer. The long-range objectives of all interdiction efforts, to 
include Customs air interdiction efforts at and beyond U.S. borders, 
are to eventually deny drug traffickers the option of using a specific 
smuggling route or method for transporting their cargo. As has been 
demonstrated by Customs successes against the domestic air smuggler and 
port runners, this long-term objective is typically accomplished by 
implementing short-range strategies which involve saturating a specific 
drug trafficking route or method with forces and technology capable of 
identifying and apprehending suspects engaged in drug smuggling. In the 
near term, these efforts typically result in a dramatic increase in 
seizures. Eventually, however, seizures typically taper off as the 
trafficker seeks out and exploits other, less risky, means of 
transportation. Once this point is reached, the long-term strategy 
becomes one of leaving behind an interdiction presence capable of 
preserving this success, and then, once again, beginning the process of 
developing and implementing a short-term strategy to fight the 
trafficker in the newly exploited smuggling routes and methods.
    Question. Are the land and marine interdiction elements 
sufficiently placed and effectively staffed to respond to suspicious 
targets identified by the air interdiction effort?
    Answer. Although Customs aircraft support air interdiction efforts 
throughout the hemisphere, Customs, through the Domestic Air 
Interdiction Coordination Center (DAICC), coordinates only those 
efforts aimed at interdicting drug trafficking aircraft operating in 
the Arrival Zone (the continental U.S., Puerto Rico and their 
surrounding areas). The Department of Defense Joint Interagency Task 
Forces (JIATFs South, East, and West) are responsible for coordinating 
interdiction activities against targets operating in the Source and 
Transit Zones and would be the appropriate entities to speak to 
interdiction response capabilities in those regions.
    As far as the adequacy of interdiction elements to respond to 
targets identified by the DAICC, recently Customs has experienced 
difficulty in responding to targets referred by the DAICC for action. 
This is due primarily to the commitment of aviation resources to 
support international efforts and availability of aircrew staffing 
levels. Although there is no conclusive evidence which indicates that 
cross-U.S. border private air smuggling activity has returned to the 
widespread levels of the past, there have been a few recent incidents 
which suggest that there have been some attempts to exploit weaknesses 
in our coverage.
    The Air Program is in the process of trying to assess the extent to 
which this is occurring and determine the appropriate adjustment in 
resources and strategies.
    The land and marine interdiction elements are strategically placed 
to respond to targets identified by air assets. High impact areas such 
as South Florida, the Gulf Coast and San Diego are being challenged to 
meet the full threat.
    Question. What percentage of identified sea, air and land targets 
are we able to effectively respond to and physically challenge with the 
above enforcement elements (i.e., special operations search, seizure 
and arrest teams)?
    Answer. Fiscal year 1997 through March, the DAICC referred 233 
suspicious air, land, and sea targets to Customs Aviation Branches for 
action. Customs aircraft successfully intercepted 64 percent of these 
targets, 66 percent of which were successfully brought to an 
enforcement stop on the ground.
    Among the principal reasons for not successfully launching on, 
intercepting and/or bringing to ground a suspect aircraft target are: 
the suspect aircraft target was the subject of an investigation and 
there were specific instructions not to intercept or stop the suspect; 
the suspect aircraft remained in or returned to foreign air space prior 
to being intercepted or stopped; the suspect target was lost from radar 
prior to being intercepted or stopped; weather either precluded the 
launch of an interceptor or bust aircraft or forced the interceptor or 
bust aircraft to return to base; the suspect aircraft activity was 
identified only by means of visual sighting and the information was not 
timely or detailed enough to either launch an interceptor or for a 
launched interceptor to locate the suspect; there was no interceptor or 
bust aircraft in the area available to launch.
    The Marine program is responding to approximately 75 percent of the 
reported targets. The reasons for non-intercept are similar to those 
cited for the Air program above.
    Question. What assistance have we received or effort has been put 
forth from the source countries to suppress smuggling of contraband by 
air and sea?
    Answer. Within South America, a U.S.-sponsored interdiction effort 
is the cornerstone of the National Drug Control Strategy to attack the 
narcotics problem at its source. A sustained Customs aviation presence, 
coupled with host nation support, continues to disrupt air and maritime 
transportation of cocaine base from Bolivia and Peru to Colombia. The 
level of support is comprehensive and includes the utilization of 
forward operating bases, logistical backing and intelligence sharing. 
In addition, extensive coordination is provided by the host nation 
riders to secure ``hot pursuit'' overflight authority and prosecute 
successful interdiction. These riders are an integral part of the 
interdiction aircrew and instrumental in the success of these missions.
    Combined operations, such as the ones currently undertaken in South 
America, serve as force multipliers in restricting the flow of 
narcotics. According to the 1997 National Drug Control Strategy:

        By the end of 1996, Peru and Colombia seized or destroyed 
        dozens of drug trafficker aircraft, resulting in a two thirds 
        reduction in the number of detected trafficker flights over the 
        Andean ridge region compared with the number of flights 
        detected before the denial program was launched in early 1996.

    These operations have become so successful that by the end of 1996 
coca cultivation exceeded the transportation capability of the 
traffickers. The direct result was a 50 percent reduction in the price 
of coca in Peru.\3\
---------------------------------------------------------------------------
    \3\ Office of National Drug Control Policy, The National Drug 
Control Strategy, 1997, February 1997, p. 54.
---------------------------------------------------------------------------
    The challenge is to further exploit our successes by blocking 
traffickers from developing alternative routes. This can only be 
accomplished through combined operations as noted above.
    Per the Memorandum of Understanding (MOU) guidelines with the Drug 
Enforcement Administration, the Marine program does not participate 
with source countries in drug related matters.
    Question. What other U.S. agencies are involved in the air 
interdiction efforts?
    Answer. The United States Customs Service, as mandated by law, is 
responsible for protecting our land and sea borders from contraband 
smugglers. Several other federal and state agencies provide valuable 
support including the U.S. Coast Guard, which provides several 
aircraft, and the Department of Defense, which provides a detection and 
monitoring capability in the source and transit zones and radar data 
from the tethered aerostat network strategically positioned along the 
southern tier of the U.S.
    Question. Besides advanced intelligence, is the air interdiction 
program the next most viable means of identifying and interdicting air 
and sea smuggling?
    Answer. Accurate, timely, advanced intelligence information is 
without question the ideal basis for a successful interdiction effort. 
In the absence of intelligence the Customs air/marine interdiction 
programs are uniquely equipped to combat the contraband smuggler. The 
Customs aviation program is comprised of various airborne assets 
strategically positioned to intercept those smugglers. The Domestic Air 
Interdiction Coordination Center (DAICC) and its subordinate facility 
located in Puerto Rico, the Drug Interdiction Operations Center (DIOC), 
are responsible for protecting the arrival zones of the U.S. and Puerto 
Rico. The DAICC and DIOC are supported by specially equipped aircraft 
and law enforcement crews positioned along the southern tier of the 
U.S., New York state, and Puerto Rico. Vessels manned by Customs 
Officers are also strategically placed along the U.S. borders and 
Puerto Rico. Additionally, Customs has long-range, sensor-equipped P-3 
aircraft that protect our domestic borders and are forward deployed 
providing detection and monitoring platforms to participating host 
nations in South and Central America. The P-3 platforms are 
complemented by a network of sensor-equipped tethered aerostats placed 
along the southern tier of the U.S.
    The DAICC, being the only facility capable of doing so, has been 
designated the single facility responsible for sorting aircraft on an 
international basis to determine legal status.
    Question. Are the Custom's Black Hawk helicopters properly equipped 
with the necessary law enforcement equipment and staffed with special 
operations personnel to effectively confront these smugglers, once they 
touch down on land?
    Answer. All of the Customs Black Hawk helicopters are equipped with 
a law enforcement radio, a night sun flood light for night operations, 
and all are capable of night vision goggle operations.
    All Customs Pilots and Air Interdiction Officers are highly trained 
for the ``special operations'' they perform. Each receives 4 months of 
initial law enforcement training at the Federal Law Enforcement 
Training Center at Glynco, Georgia. Soon after returning to their post 
of duty, each new hire attends our 2-week in-house training known as 
Standard Tactical Aviation Training. Refresher training is provided 
periodically throughout their careers.
    Question. How many P-3 AEW aircraft are needed to effectively 
defend our southern border? What is the life expectancy of the current 
fleet of P-3 AEW aircraft?
    Answer. To date, the Customs Service has effectively defended the 
southern border with 4 P-3 AEWs, operated as aerostat gap fillers and 
in smuggling choke points along the smuggling routes to the U.S. 
border. Customs is currently increasing its fleet to 6 P-3 AEWs to 
extend its operations to other smuggling avenues in the western 
hemisphere while maintaining sufficient resources to defend the border. 
The success of this approach relies heavily on prior intelligence and 
empirical smuggling trends to position the P-3 AEW in an appropriate 
orbit location. Barring this type of approach, the theoretical maximum 
number of P-3 AEW aircraft required to cover the Southwest Border from 
Brownsville to San Diego, seven days a week, 24 hours a day 
(7<greek-e>24) on the U.S. side of the border is 30; assuming the 
aerostat system is operational at its current level. If the Government 
of Mexico would allow Customs to operate the P-3 AEW and its sensors in 
Mexican airspace, this would reduce the theoretical aircraft 
requirement to 23 due to advantages in the geographical layout. To 
extend this same coverage from Texas to Florida (across the Gulf), 
would require an additional 23 aircraft. Please see the calculations 
below for details.
Coverage (North of Border) with Aerostats (7 x 24 Hour)
    The Aerostats have 6 orbits along the Southwest Border. Half of the 
Aerostats are down every day for an average of 8 hours. To fill those 
gaps and address other known deficiencies between the Aerostats the 
following applies:
    1. Each airframe in the inventory is capable of 95 hours of flight 
time per month
    2. 3 orbits <greek-e> 24 hours = 72 hours/day (gap coverage)
    3. 3 orbits <greek-e> 8 hours = 24 hours/day (aerostat down time 
coverage)
    4. 72 + 24 = 96 hours/day <greek-e> 30 days = 2,880 hours/month
    5. 2,880/95 = 30 airframes required
Coverage Without Aerostats for Eastern U.S. (7 x 24 Hours)
    To cover the eastern half of the United States Southern Border 
would require three orbits. Aerostats are not a factor in determining 
coverage. The following applies:
    1. Each airframe in the inventory is capable of 95 hours of flight 
time per month.
    2. 3 orbits <greek-e> 24 hours = 72 hours/day of coverage
    3. 72 hours/day <greek-e> 30 days = 2,160 hours/month
    4. 2,160/95 = 23 airframes required
    The P-3 AEW, as configured for the Customs Service, is primarily 
designed for over water/jungle detection. Employment of the standard 
configured ``Dome'' over the Southwest Border (on the U.S. side) 
degrades the level of coverage. Supplemental processors and upgraded 
radars would improve the coverage south of the border for a single 
threat axis (i.e., south to north targets).
    The aircraft has no finite service life limitations as long as 
recommended inspections and maintenance are performed. There comes a 
time, however, when repairs required to keep an aircraft airworthy are 
no longer economically feasible. Based on the manufacturer's Service 
Life Extension Program studies and Customs P-3 mission profiles, it is 
estimated that Customs can expect a service life greater than 30,000 
hours for each airframe. Airframe hours for the four P-3As range from 
19,632 to 20,274. Airframe hours for the four P-3 AEWs range from 
15,506 to 22,183. Based on current utilization of approximately 500 
hours per year for each P-3A and 1,000 hours per year for each P-3 AEW, 
Customs expects another 10 years of service from its current fleet of 
P-3s.
                          marine interdiction
    The U.S. Army is transferring 8 King Air C-12's from the U.S. Army 
for use in the Customs marine interdiction program. It is my 
understanding that modification of these aircraft into the maritime 
surveillance configuration will cost $8.5 million and the suggested 
funding for the reconfiguration is through the Operation GATEWAY funds 
and unobligated carryover funds.
    Question. What type of reconfiguration is necessary? What would the 
cost of these modifications be if the aircraft were ordered with this 
configuration?
    Answer. These aircraft will be modified to incorporate a sensor 
suite that includes a sea search radar, forward looking infrared, and 
law enforcement radios for use in a marine surveillance and tracking 
configuration to replace our aging, out of production Australian-made 
Nomad Searchmaster aircraft.
    The cost for eight new aircraft with the marine surveillance 
modifications would be as follows:

------------------------------------------------------------------------
    Modification elements         Unit cost      Units      Total cost  
------------------------------------------------------------------------
New King-Air aircraft........      $3,880,000          8     $31,040,000
Radar........................       1,024,675          8       8,197,400
FLIR.........................         208,487          8       2,467,896
Law enforcement radios.......         274,235          8       2,193,880
Modification and integration.       1,065,000          8       8,520,000
                              ------------------------------------------
      Total..................       6,552,397  .........      52,419,176
------------------------------------------------------------------------

    Question. It is my understanding that each C-12 maritime aircraft 
has a resale value of between $825,000 to $875,000. Does it make sense 
to make modifications that cost more than the value of the aircraft?
    Answer. The manufacturer has no finite life limitation on the 
aircraft as long as recommended inspections and maintenance are 
performed. This aircraft does have a mandatory wing spar inspection due 
at 30,000 hours.
    This group of C-12's has an average total flight time to date of 
11,373 hours per aircraft which means we should be able operate them 
for approximately 16-20 additional years. Sensor modifications are 
always expensive. We therefore opted to invest $8.5 million to modify 
the Army C-12s instead of buying brand new aircraft in this 
configuration at a cost of just over $52.4 million.
    Question. What currently is in Customs marine interdiction fleet? 
Are any of these vessels on loan to or from other local, state or 
federal agencies?
    Answer. Customs currently has 167 operational vessels. Customs 
operates 84 and the remaining 83 vessels are loaned to state and local 
agencies who crew the vessels and pay for all operational expenses 
(fuel, maintenance, etc.).
    Question. In the past it was suggested that $20 million in 
carryover balances be used to fund portions of the air and marine 
interdiction programs. What is the current carryover balance?
    Answer. The unobligated Operations and Maintenance carryover 
balance (as of April 30, 1997) for the Air Interdiction program was 
approximately $6 million. These funds will be used to cover unfunded 
requirements including: increased aircraft maintenance contract labor 
rates; increased contract labor costs to support expanded missions; 
aircraft system upgrades such as radar and radio enhancements for 
compatibility and conformity to current standards; and additional pilot 
training costs associated with additional aircraft coming into the 
Aviation fleet.
    The marine program has a current carryover balance of approximately 
$393,000. This balance is being used to pay for operational and 
maintenance expenses incurred by the marine program.
    Question. The Hard Line initiative appears to be driving more of 
the drug smuggling off shore, utilizing small watercraft to beach loads 
above the U.S. border. Does Customs have enough interdiction craft and 
marine law enforcement personnel to meet this challenge?
    Answer. Customs is assessing resource needs and possible re-
alignments to meet the increasing marine smuggling events and properly 
address this emerging problem adequately.
                         tariff classification
    Background: A major employer in my State has been waiting for a 
decision from the Customs Service on the appropriate tariff 
classification of sanitary ware imported from Mexico (sinks, 
washbasins, toilets, and similar fixtures). I understand their case has 
been on hold for over a year and a half due to a 516 petition filed by 
another domestic manufacturer of these products. The Customs Service 
published a notice for comment over a year ago, and public comments 
were received last May. However, nearly one year later, there is still 
no decision.
    Since last fall, my constituent has been informed upon inquiry that 
the draft decision is in the clearance process at Customs or Treasury.
    Question. Would you please explain the reasons behind the delays in 
this case and inform me as to when there may be a decision on this 
matter?
    Answer. On July 25, 1996, the Customs Laboratory completed their 
review and provided their scientific understanding of the comments. 
Based on that report and other offices' review, Customs came to the 
conclusion that the actual petitioner's requests for replacement of the 
porcelain definition was not possible as Customs must use the tariff 
provided definitions. However, both domestic manufacturers and 
importers were concerned with knowing what methods were being used to 
determine whether sanitary ware met the porcelain or stoneware 
definition. Therefore, as a part of our obligation to inform the public 
as to Customs matters, any response to the petition and protest had to 
include a clear, concise explanation of all of the methods used to 
determine whether a particular article met the requirements of each of 
the subject definitions. Such an explanation of each requirement and 
the corresponding testing method has been prepared. This document is in 
review and upon final approval will be issued in the immediate future.

                          Subcommittee Recess

    Senator Shelby. Thank you for appearing here today and I 
hope we will never have an incident like this again.
    Ms. Lau. Thank you.
    Senator Shelby. Thank you. The subcommittee is recessed.
    [Whereupon, at 12:19 p.m., Thursday, April 17, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, May 14.]


  TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                        WEDNESDAY, MAY 14, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Shelby, Faircloth, Kohl, and 
Mikulski.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                 Office of National Drug Control Policy

STATEMENT OF GEN. BARRY R. McCAFFREY, DIRECTOR

                            Opening Remarks

    Senator Campbell. This hearing of the Treasury and General 
Government Subcommittee will be in order.
    I would like to welcome General McCaffrey. As I mentioned 
to you General, we have a disjointed hearing this morning. We 
are told we are going to have three back-to-back votes starting 
around 9:45 or 9:50. We will try to get through as much as we 
can when Senator Kohl arrives, and then we will probably have 
to recess for 30 or 45 minutes. I hope that does not 
inconvenience you too much, but I am sure you are aware of the 
process that we face here.
    This morning we are going to review the Office of National 
Drug Control Policy's [ONDCP] fiscal year 1998 budget request 
and, in that process, we will review the progress this office 
has made in curtailing the use of illegal drugs in this 
country. I believe, as my colleagues will also believe, in this 
tight budget time we have to demand the most out of each 
Federal dollar we spend and the effort to stem the illegal drug 
use is not exempt from that scrutiny.
    Last year General, you testified before us that in 1 year 
you would be able to demonstrate to this committee the 
successes with the funding Congress provided in fiscal year 
1997. We certainly look forward to hearing about those 
successes and certainly wish you well and want to work with you 
in furthering those successes.
    The Office of National Drug Control Policy plays a leading 
role in carrying out the country's antidrug efforts. All would 
agree that we must do what we can to combat the use of illegal 
drugs in this country. Nevertheless, we are also concerned 
about some of the particular approaches the administration and 
your office is taking.
    For example, I am somewhat concerned about our relationship 
with Mexico, where much of the illegal drug trade now seems to 
come from. I understand that Mexico and other Latin American 
countries have unique and serious challenges in their system 
that strain our efforts to help us combat drugs. I am also not 
convinced that the somewhat one-sided recertification of Mexico 
is necessarily a productive response.
    Second, I am concerned about the 5-year, $175 million per 
year request the administration has proposed for a new national 
media campaign. That is a great deal of money to be spent on 
radio and TV ads. Although I am not an expert in the field, it 
would seem to me that for much less a targeted approach we 
could probably get a lot more done for less expenditure of 
taxpayer's money. I am interested in hearing the details of 
this proposal and your defense of it.
    Finally, let me say it is not only the drugs themselves 
that are hurting our communities, but also the crime and 
violence that are so closely linked with the illegal drug use. 
In the battle against this illegal drug use we not only have to 
fight against the use of the drugs but also against the despair 
and the destruction that is inherent. As long as Americans 
unfortunately, keep using these killer substances, the drug war 
is going to be going on for a long time.

                           Prepared Statement

    With that, I want to submit my full statement for the 
record. I would ask Senator Kohl for his statement and, Senator 
Kohl, I mentioned already that we have some votes and we would 
probably have to take a recess at the conclusion of the 
General's statement.
    [The statement follows:]
                 Prepared Statement of Senator Campbell
    Good morning. I'd like to open this hearing of the Treasury and 
General Government Appropriations Subcommittee by welcoming General 
Barry McCaffrey, director of the Office of National Drug Control 
Policy. This is a rather disjointed hearing. I hope to begin about 
9:45. We will try to get through opening statements and then recess 
until after the vote.
    We are here today to critically review the ONDCP's fiscal year 1998 
budget request. In the process, we will review the progress the ONDCP 
Office has made in curtailing the use of illegal drugs in this country. 
I believe, and I think my colleagues will agree that in this tight 
budget time we must demand the most out of each federal dollar we 
spend, and the effort to stem illegal drug use is not exempt from this 
scrutiny.
    Last year, General McCaffrey testified before us that in one year 
he would be able to demonstrate to this committee the successes with 
the funding Congress provided in fiscal year 1997. I look forward to 
hearing about the successes ONDCP has seen over the last year, as well 
as your goals for the coming years, and any special challenges you will 
face.
    The Office of National Drug Control Policy plays a leading role in 
carrying out the country's anti-drug efforts. All would agree that we 
must do what we can to combat the use of illegal drugs in this country. 
Nevertheless, I am concerned about some of the particular approaches 
the Administration and your Office are taking. For example, I am 
worried about our relationship with Mexico, from where much of the 
illegal drug trade now comes.
    I understand Mexico and other Latin American countries have unique 
and serious challenges in their system that strain their efforts to 
help us combat drugs. But I am not convinced that a somewhat one-sided 
re-certification of Mexico is necessarily a productive response.
    Second, I am concerned about the 5 year, $175 million per year the 
Administration has proposed for a new ``national media campaign.'' This 
is a great deal of money to be spent on TV and radio ads. For less of 
this sum--through a targeted approach, we could get more done for less 
money. Nevertheless, I am interested to hear the details of this 
proposal, and your defense of it.
    Finally, let me say, it is not only the drugs themselves that are 
hurting our communities, but it is also the crime and violence that are 
so closely linked with illegal drug use. In the battle against illegal 
drugs, we not only have to fight against the use of such drugs, but 
also against the despair and destruction that is inherent where drugs 
are involved. As long as Americans keep using these killer substances 
the drug war will go on.
    The difference individuals can make is amazing. The message the 
American public needs to hear from you is that we are getting better at 
fighting drugs, and they need to be able to see progress in their 
communities and have tools to join the fight, too.
    Again, thank you for coming, General McCaffrey, I look forward to 
your testimony. Senator Kohl, would you like to make an opening 
statement?

                       Statement of Senator Kohl

    Senator Kohl. I thank you, Chairman Campbell, and I am 
happy to be here today. Although this is my first year as 
ranking member on this subcommittee, I have been interested in 
working on drug issues for many years.
    Director McCaffrey, I want to welcome you to the 
subcommittee hearing. I am glad we have another opportunity 
today to discuss our concerns about the devastating effects 
illegal drug use is having on the country. Since 1987, the 
Federal Government has invested an estimated $116 billion on 
drug control policies. In fiscal year 1998 the President's 
budget calls for an additional $15.9 billion, which would bring 
the total investment to over $132 billion.
    Aside from the direct costs of illegal drugs, the cost to 
our society from the violence associated with drugs and the 
increase in drug use by youths, our public's confidence has 
been shaken by the Government's ability to control the drug 
problems. I think we have reached a point where we need to be 
honest and say what works and what does not work.
    It seems a number of prevention strategies, such as the 
GREAT Program and the High Intensity Drug Trafficking Program 
are showing promise. If you can prevent drug use before it 
begins, the savings to society would be staggering. And some 
treatment programs are succeeding in moving people from drug 
use to a life that works and a life that is productive.
    At that same time, I do not believe that we can afford to 
fund anything and everything in the name of prevention and 
treatment just to see if it will work. We need to continue to 
analyze these programs and make some tough choices.
    General, let us decide the best methods for applying scarce 
resources. Let us get more aggressive and creative in our 
attacks on drugs and let us make sure that every effort is made 
to keep our children drug free.
    I have a number of questions about our national drug 
control strategy that I will ask after you deliver your opening 
statement. Those we do not have time to get to I will submit 
for the record. Again, I am pleased to be here with you, and 
with you, Mr. Chairman. We are prepared to proceed.
    Senator Campbell. With that, Director McCaffrey, you can 
proceed.

                 Statement of Gen. Barry R. Mc Caffrey

    General McCaffrey. Mr. Chairman, thank you for the 
opportunity to come over here this morning to lay out some of 
our plans and to try and respond to your own questions and 
interests.
    With your permission, I will not only address the ONDCP 
budget directly, the one that your committee monitors, but also 
try and put in context the larger national drug effort we are 
making, which as you know, is some $15.9 billion and is in nine 
separate appropriations bills, and also affects the actions of 
almost 50 Government agencies in total. I very much appreciate 
the leadership and the interest that both you and Senator Kohl 
have shown on this issue.

                             Introductions

    There are several important people that work in our effort 
against drugs that are here with us today and I would be remiss 
to not note their presence and to thank them for their support 
and wisdom. Robbie Callaway is our senior vice president of the 
Boys and Girls Clubs of America.
    As you may know, it reaches almost 3 million young 
Americans across the country, primary focused in disadvantaged 
youths. I have used Boys and Girls Clubs as an example, in some 
ways, as the best of what we do in drug prevention. Direct 
application of adult mentoring and care and standards and 
opportunity, outside of the school system, where arguably our 
children are safest in our society. So his counsel and support 
has been very important to me throughout the year.
    Bill Alden, deputy director of DARE, is also here. As you 
know, the DARE program of some 25,000 uniformed officers across 
the country reaches some 33 million children each year, both 
here and in the international community. Last week, when I was 
in Costa Rica, one of the last things I did was to go to one of 
their DARE programs, a couple of hundred kids, 70,000 children 
in Costa Rica alone.
    Obviously, the DARE program is not enough, but it is 
focused on fifth and sixth grade and trying to educate young 
people to have some appreciation of the menace of drugs and it 
has been really a tremendous contribution.
    Linda Wolf-Jones, executive director of the Therapeutic 
Communities of America is also here. Her leadership has been 
really essential in making me more aware of the effectiveness 
of more than 400 treatment programs, both in the United States 
and in Canada, and we very much appreciated her work.
    Then finally, one of the biggest things that I would argue 
that we are doing in America is talking to our public through 
the forms of communication that modern America listens to, 
which is television, film, radio, print media. We have here in 
the room with us today Mike Townsend from Partnership for Drug-
Free America. He and Jim Burke and about 30 professionals have 
been doing over $2.5 billion during their last several years in 
pro bono advertising work aimed at getting the message to 
America that drugs do not work, that drugs will kill you. They 
will be very heavily involved, as I will talk a little bit 
later on, in the $175 million a year public media campaign that 
you have already mentioned in your opening statement.
    Sir, with your permission, let me run through first a very 
short video tape which is an example of the work that 
Partnership for Drug-Free America has done and the kinds of 
thing we are talking about putting out in front of the American 
people. Then I will summarize our appropriations request for 
your consideration in a series of charts. This short video, I 
think, is illustrative of the kind of communications 
requirement we are going to be pushing.
    [Video tape played.]
    General McCaffrey. Pretty powerful messages. Of course, as 
we will explain later, part of the problem is that we have had 
a 30-percent decline in the availability rate of pro bono 
advertising in the last few years. The economics of this 
industry are changing and although we are getting out in 
volume, the quality of our PSA's has gone down.
    Senator, we have put a considerable amount of work into the 
written statement I have provided to the committee. It tries to 
pull together our thinking on the appropriations process and 
how we have linked it to the strategy in our plans for the 
future. In addition, I have provided for the committee copies 
of the charts that put in graphic form some of the data that 
has helped form our own judgments.
    Then there are three additional documents, Mr. Chairman, I 
would like to offer for your consideration. One of them is Dr. 
John Carnevale's, who is one of my senior colleagues working on 
the drug control budget analysis for the 5-year process, the 
1999 through 2003 drug budget that we have been putting 
enormous amounts of energy into for the last 6 or more months.
    We have also put together, that really goes in tandem with 
that, something that we think may end up changing in a broad 
way the way our Government works. Frank Raines, the OMB 
Director, and I and others are looking at performance 
measurement systems to ensure the drug strategy's success. We 
are going to try and link the strategy, its five goals, its 32 
objectives, with very carefully crafted targets and outcomes 
that have measurements to try and end up with a system that is 
not process oriented but output oriented. There are some 26 
working groups in the Government. I will try and have this to 
you in time for it to guide your thinking on the 1998 budget. 
So that is on the table.
    And then finally, Mr. Chairman, we are working, as you may 
well know, on the reauthorization bill for the Office of 
National Drug Control Policy. It has a sunset provision for 
September. This is a copy of the proposed ONDCP reorganization. 
No real increase in manpower, but we have tried to rationally 
look at how ONDCP is organized internally and how we can best 
support the purpose of the 1988 law.
    With your permission, Mr. Chairman, I will offer these 
documents for the record and for your consideration.
    Senator Campbell. Without objection, all of your supporting 
material will be included in the record.
    General McCaffrey. Mr. Chairman, I will quickly run through 
these slides, really to give you the broad outline of our 
position.

                             ONDCP's Budget

    The first slide is important. In some manner, we relate all 
of our activities, and particularly the appropriations process, 
back to the national strategy. In the last year we have managed 
to get the executive branch, in the nine major drug 
appropriations bills, to explain what it is trying to do in 
terms of the strategy rather than in terms of program elements.
    Although I would argue it is imperfect because, as you 
know, most of these appropriation moneys are scored by the 
parent agency as to whether or how much they relate to a drug 
issue, we think we have made considerable progress in trying to 
explain what we are doing in terms of a central conceptual 
architecture.
    The next slide just gives you a quick capstone of the ONDCP 
programs themselves, some $350 million, where they are going. 
One percent of the counterdrug strategy will be used for the 
national antidrug media campaign, some $175 million a year, and 
I will talk about that in greater detail. The HIDTA's, which as 
Senator Kohl mentioned are now up to 15 in number, are showing 
considerable promise we would argue. Salaries and expenses, the 
rather modest funding for the Counterdrug Technology Assessment 
Center, which is now trying to rationalize its mandate in 
support of the strategy. And then finally, a rather small drug 
policy research budget.
    To review the challenge, in sum, adult drug use in America 
is stable or declining, although the dynamic nature of the 
threat does not necessarily tell us that is the way it will be 
in the future. We are seeing heroin in enormously high purity 
and low expense show up, new populations are becoming exposed 
to heroin, methamphetamines, Rohypenol, PCP. But by and large, 
drug use in the American population is down by 50 percent.
    However, among our children, drug use has doubled. It is 
getting worse. It is half as bad now as it was in the 1970's. 
It started to turn around. The University of Michigan, where 
this data comes from, probably in 1989 to 1990, we started to 
see a shift on the disapproval rate for drug use, the risk 
perception of drug use, and then in 1992 we clearly see it 
starting up. And it has continued to get worse each year.
    Generational replacement, generational forgetting. That is 
the crux of the problem right there.
    Senator Mikulski. Mr. Chairman, excuse me. We need to leave 
for a vote, Mr. Chairman.
    Senator Campbell. We have had the first call for it.
    Senator Mikulski. I will not be able to come back and I 
just wanted to tell General McCaffrey he has my utmost support, 
my utmost admiration. Thank you for fighting drugs and thank 
you for HIDTA in Maryland.
    And you are an excellent chairman on this topic, Mr. 
Chairman. Your work in antigang activity is nationally known 
and nationally respected. So I just wanted to say that.
    General McCaffrey. Thank you, Senator.

                              Ad Campaign

    The ad campaign, just to summarize it quickly, our notion 
is that we would essentially devote 1 percent of the national 
drug control budget to try and target 68 million children, 90 
percent of that population four times a week, with primetime 
approaches. We are persuaded by Columbia University's evidence 
in particular that gateway behavior to drug addition suggests 
that if you can keep children from tobacco use, binge drinking, 
and marijuana--which are primarily the three gateway 
behaviors--through their 21st birthday, statistically the 
chances of them joining the ranks of the 3.6 million addicted 
Americans are remote.
    That is at the heart and soul of what we are trying to do. 
We have leaned very heavily on the thinking, the expertise, and 
the historical memory of the Partnership for Drug-Free America.
    In addition, the Advertising Council of America has a 
tremendous depth of expertise in this area.
    Senator Campbell. Director McCaffrey, we have already had 
the second call, so we are going to recess at this point. But 
if you could just leave that last chart up there, I would like 
to look at that a little bit more when I come back.
    With that, we will be in a recess for about 45 minutes. 
Thank you.
    [A brief recess was taken.]
    Senator Campbell. The subcommittee will be back in order. I 
apologize for the inconvenience of everyone and certainly 
General McCaffrey, but that is part of the deal. Had you 
finished your statement?
    General McCaffrey. Mr. Chairman, with your permission, I 
will just make sure you see the remainder of the outline.
    Senator Campbell. Please go ahead. I understand several of 
our colleagues are on the way.
    General McCaffrey. The problem of cocaine makes a good 
example of the dynamic nature of the threat we are facing. We 
have 12 million Americans regularly using drugs. It is a very 
serious situation. The consequences are staggering, 14,000 dead 
or more, $67 billion in losses.
    And yet the principal drug threat America currently faces 
is arguably cocaine. And as you look at cocaine over the last 
15 years, it is changing. It is plummeting. It is going down. 
This chart can be deceptive in that we are looking at three 
different arrays of data, new initiates to cocaine use, casual 
users, and chronic users. So they are not additive. These are 
separate mathematical functions.
    But the bottom line is new initiates to cocaine have gone 
down enormously in the last 8 years. Casual users have gone 
from about 6 million down to 1.4 million. What has remained the 
same is chronic users of cocaine. As you know, with this drug 
in particular, users develop tolerance and dependency, and we 
argue that we are actually still consuming almost 240 metric 
tons of cocaine a year.
    So cocaine use, as a gross problem affecting America, has 
gone way down and I would argue, as we look out toward the 
future, given the devastating consequences of cocaine 
addiction, this population on the far right will, with its 
tremendous mortality rate, continue to decrease.
    What that does not imply, cocaine use may be dropping in 
terms of numbers, but the impact of a smaller number of 
increasingly sick, desperate, and criminal people is 
significant. You notice we do have marijuana listed as a reason 
for health care emergency room mentions. In some cases, this is 
in conjunction with other drugs like alcohol or because of a 
traffic accident or whatever. But we do have a significant 
number of people coming into our emergency room system because 
of drug abuse and addiction.

                           The Prison System

    One of the biggest social problems facing America, is 1.6 
million Americans behind bars. The data inside these charts are 
deceptive. I do not know what the real answer is. What we 
suggest is two-thirds of the Federal prisoners, which is up 160 
percent--now almost 100,000 Americans in the Federal prison 
system--are there for drug related reasons.
    When it comes to the State system, about 900,000 Americans. 
We suggest that 22 percent of them are there for a drug-related 
reason. Experienced law enforcement officers argue the number 
is closer to being one-half. One million drug arrests a year, a 
significant amount of them driven by addicted behavior, and the 
criminality that comes from that addition.
    That process costs us $17 billion and has put us in the 
unenviable position of having the highest per capita 
incarceration rate of any civilized nation on the face of the 
Earth. We now have bypassed South Africa and Russia.
    We have to do something about it. The solution is not 
necessarily to direct that less people be in prison, but it is 
certainly to understand that the investment in drug prevention 
can lower that number, and that a reasonably small number of 
Americans--the number I use is 2.7 million--are chronically 
addicted, that subpopulation that consumes 80 percent of the 
drugs in America. And that two-thirds of them in a given year 
are involved in the criminal justice system.
    What we now have, and this number is illustrative only, is 
7 percent of the prison drug treatment capacity that we 
require. And so what my education from the law enforcement 
community of America and from physicians and from judges is 
that we have to get at this problem with a combination of drug 
treatment and drug courts and programs such as breaking the 
cycle out of the Department of Justice in which we mandate 
treatment along with incarceration and mandate drug testing. 
Otherwise, we cannot get out of this loop.
    If you look at those numbers, 1.6 million, the data 
suggests that it will go up 25 percent more between now and 
shortly after the turn of the century. Mr. Chairman, some of us 
argue we have a failed social policy on incarceration.
    There is also a racial subcomponent to this that is 
troubling, because an undue percentage of that population are 
minority Americans. I do not think, as I have studied the 
history of it, I do not suggest nor do I believe that there was 
a racist impulse to this, but we have to be concerned about the 
lack of trust of large numbers of Americans in a system that 
has an 11 percent African-American population, a 33 percent 
drug rate arrest, and a 48 percentage of the population in 
prison. Something is wrong. We have to look at this and 
determine what a rational new way of thinking through it is.
    Finally, Mr. Chairman, this chart could lend itself to 
mischief, and let me suggest my own conclusions from it. What 
you are looking at is for the easiest drug we face--and I only 
say easy because it does the most damage to us but we know 
where it is grown, how it is smuggled to the United States, who 
uses it. We know a lot about the menace of cocaine.
    We know that essentially 800-plus metric tons of cocaine 
are produced each year. With the exception of dramatic success 
in Peru in the last year, a minus 18 percent production rate, 
we have not really affected cocaine production through the 
entire period of 1990 through 1995 covered by this report.
    Each year we get about one-third of it and take it away 
from international criminals. Each year, of that 300-some-odd 
metric tons we seize in the international community, about 100 
metric tons is seized by U.S. law enforcement. Now I would 
suggest that taking away one-third of the available cocaine 
does us enormous good in American society. It means less of it 
in our school system, or work places, our sports teams, our 
society. It reduces the number of new initiates. What it cannot 
do is get at the price-availability-purity ratios of cocaine 
for the addicted Americans.
    So I would just suggest to you, when we look at 
interdiction, we can do a lot better and we have a lot of 
initiatives in this area. But over time it has been reasonably 
static from 1990 on.
    Mr. Chairman at this point I will, if I may, stop the 
prepared remarks and respond to your questions and interests.

                           Prepared Statement

    Senator Campbell. Thank you, General McCaffrey. We have 
your complete statement, and it will be made part of the 
record.
    [The statement follows:]
             Prepared Statement of Gen. Barry R. McCaffrey
    Good morning, Chairman Ben Nighthorse Campbell, Senator Herb Kohl, 
and other distinguished Members of this Senate Appropriations 
Subcommittee. It is an honor to be here today to discuss the fiscal 
year 1998 counterdrug budget submitted by the President for 
congressional consideration and to provide an overview of the 1997 
National Drug Control Strategy.
    The President instructed me upon my appointment as Director of 
ONDCP to help create a cooperative bipartisan effort among Congress and 
the federal, state and local governments and to mobilize public and 
private support for reducing drug abuse and its consequences in 
America. My commitment to the Senate when you considered my appointment 
in February of last year was to forge a coherent counterdrug strategy 
that would reduce illegal drug use and protect our youth and society in 
general from the terrible damage caused by drug abuse and drug 
trafficking. We believe that the 1997 National Drug Control Strategy, 
which was submitted to Congress in March, and the supporting 16 billion 
dollar fiscal year 1998 drug control budget provide both a necessary 
long-term framework and the required resources for accomplishing our 
common purpose of reducing drug abuse and its consequences in America.
    Before reviewing ONDCP's fiscal year 1998 agency budget, let me 
establish a framework by discussing the entire fiscal year 1998 
counterdrug budget (which is contained in nine separate appropriations 
bills), and the 1997 Strategy. First, allow me to recognize the members 
of the Senate Appropriations Committee for your commitment to the drug 
issue. In particular, let me acknowledge the leadership of former 
Chairman Richard Shelby and Senator Barbara Mikulski. We know that the 
bipartisan support the Subcommittee provided to appropriate ONDCP's 
fiscal year 1997 budget was critical to our successes. ONDCP has also 
appreciated your counsel and support in the development of the 1997 
National Drug Control Strategy. We look forward to working with the 
Committee as a whole in the future. Your continued support is essential 
if we are to achieve our objective: preventing 68 million Americans 
under the age of 18 from becoming a new generation of drug users.
                     i. the drug challenge we face
    Divergent conclusions can be reached about the nature of America's 
current drug problem and appropriate responses to it. Some maintain 
that the source of America's drug problem is the continuing 
availability of illegal drugs. Reduce availability, they suggest, and 
the magnitude of the drug problem will diminish. Others consider the 
record number of Americans imprisoned on drug-related charges and the 
record-high federal counterdrug budgets and see an unwinnable war on 
drugs. The problem, they argue, is flawed drug policy, not drugs 
themselves. Reduce the harm caused by draconian drug policy, they say, 
and we will have a less-pronounced drug problem. Still others consider 
the dramatic 50 percent drop in the number of illegal drug users over 
the past two decades and the 75 percent drop in casual cocaine use and 
conclude that the national anti-drug effort is essentially sound. Do 
more of what we know works, they suggest, and the drug problem can be 
reduced further.
    ONDCP sees the nation's drug problem in a different light. Our view 
is that a decade of progress in the effort to reduce the demand for 
illegal drugs is threatened by resurgent drug use by our children. We 
must continue our efforts to reduce drug-related crime and violence, 
the health and social costs of illegal drug use, and the availability 
of illegal drugs. However, the centerpiece of our national anti-drug 
effort must be to prevent the use of illegal drugs, alcohol, and 
tobacco by our children. Our children are vulnerable to these 
substances. Unlike mature adults, they are more prone to take ill-
considered risks. They may lack the backdrop of experience which would 
cause them to conclude that it makes little sense to use illegal drugs. 
Their developing bodies and emotions are even more vulnerable to these 
substances than are their adult counterparts.' We are now learning that 
exposure to addictive substances during formative years can cause a 
permanent predisposition to dependency. We must change the attitudes 
that are causing our children increasingly to use illegal drugs, 
tobacco products, and alcohol. We risk a catastrophic increase in the 
number of chronic drug users who will do enormous damage to themselves, 
their families, and our society in the future.
    The 1997 National Drug Control Strategy recognizes this reality. 
Its number one priority is to reinvigorate what must be a national 
anti-drug effort on behalf of our youth. At the same time, the Strategy 
seeks to organize better what must be a long-term effort to protect our 
citizens from drug-related crime and violence, reduce the health and 
social consequences of drug abuse, keep drugs out of our country, and 
reduce the cultivation and production of illegal drugs both at home and 
abroad. Our initial challenge is to gain consensus on the nature of the 
challenge we face. We must then expand community-based responses to the 
drug problem that are appropriately supported by federal anti-drug 
programs.
    The impact of drug abuse in America is enormously complex. Drugs 
affect each individual in a different way; so too do they disrupt 
different facets of our society. The natural reaction to this diversity 
of effect has been the mobilization of a myriad of organizations, 
resources, and policies to deal with the human and social costs of 
illegal drugs. At the apex of all this activity is the Office of 
National Drug Control Policy. We are charged to coordinate and develop 
the strategy to counter this debilitating threat to our nation.
              ii. a review of america's drug abuse profile
1. Fewer Americans are using illegal drugs
    As a nation, we have made enormous progress in our efforts to 
reduce drug use (see figure A-1). While America's illegal drug problem 
remains serious, it does not approach the emergency situation of the 
late 1970's or the cocaine epidemic in the 1980's. Just 6 percent of 
our household population age 12 and over was using drugs in 1995 on a 
past month basis, down from 14.1 percent in 1979. Recreational cocaine 
use has also plunged. In 1995, 1.5 million Americans were current 
cocaine users, a 74 percent decline from 5.7 million a decade earlier. 
In addition, fewer people are trying cocaine. The estimated 533,000 
first-time users in 1994 represented a 60 percent decline from 
approximately 1.3 million cocaine initiates per year between 1980 and 
1984. It is clear that when we focus on the drug problem, drug use can 
be driven down.
2. There are encouraging signs that our drug control efforts are 
        succeeding
    1995 marked the first time in the past five years that drug-related 
emergency department episodes did not rise significantly. In fact, they 
dropped for cocaine. There was a steady decline in drug-related 
homicides between 1989 and 1995. The 1996 Monitoring the Future study 
found that the use of heroin, inhalants, and LSD decreased among tenth 
and twelfth graders between 1995 and 1996. Coca cultivation in Peru, 
the source of 57 percent of the cocaine on our streets, declined by a 
dramatic 18 percent in the past year. Federal anti-drug laws, together 
with federal, state, and local anti-drug programs, are making inroads 
into the nation's drug problem.
3. Drug use is skyrocketing among youth
    The most alarming national drug trend is the increasing use of 
illegal drugs, tobacco, and alcohol among our youth. Children who use 
these substances increase the chance of acquiring life-long dependency 
problems. According to a study conducted by Columbia University's 
Center on Addiction and Substance Abuse (CASA), children who smoke 
marijuana are 85 times more likely to use cocaine than peers who never 
try marijuana. The use of illicit drugs among eighth graders is up 150 
percent over the past five years. Fifty percent of our children now 
will have used an illegal drug by the time they graduate from high 
school. While alarmingly high, the prevalence of drug use among today's 
young people has still not returned to near-epidemic levels of the late 
1970's. The most important challenge for drug policy is to reverse 
these dangerous trends.
4. The consequences of illegal drug use remain unacceptably high
    The social and health costs to society of illicit drug use are 
staggering. Drug-related illness, death, and crime cost the nation 
approximately $67 billion a year. This cost is exacted in additional 
health care expenses, extra law enforcement, more auto accidents, 
increased crime, and lost productivity resulting from substance abuse. 
Illegal drug use hurts families, businesses, and neighborhoods; impedes 
education; and chokes criminal justice, health, and social service 
systems. Some of those consequences include:
    a. Increased illness and death.--Drug-induced deaths increased 47 
percent between 1990 and 1994 and now number approximately 14,000 a 
year. More than 2,400 Americans suffered drug or gang-related deaths in 
1995. The nation's 3.6 million chronic drug users disproportionately 
spread infectious diseases like hepatitis, tuberculosis, and HIV. More 
than 33 percent of new AIDS cases can be traced to injecting drug users 
and their sexual partners. Indeed, AIDS is the fastest-growing cause of 
illegal drug-related deaths.
    b. Record high drug-related medical emergencies.--In 1995, there 
were a record high 531,800 drug-related hospital emergency episodes, 
slightly more than 1994's 518,500 incidents. Cocaine-related episodes 
remain at an historic high while heroin-related emergencies increased 
by 124 percent between 1990 and 1995 (see figure A-2).
    c. More heroin fatalities.--Heroin-related deaths increased between 
1993 and 1994, the most recent years for which these statistics are 
available. In Phoenix, heroin fatalities were up 39 percent, in 
Denver--29 percent, and in New Orleans--25 percent.
    d. Increased infant mortality.--About six percent of pregnant women 
are using illegal drugs and putting their children at risk. A 
Washington State study of Medicaid recipients showed an infant 
mortality rate of 14.9 per 1,000 births among substance-abusing women 
as compared to 10.7 per 1,000 for women who were not substance abusers. 
Children born to drug-abusing women were found to be 2.5 times more 
likely to die from sudden infant death syndrome.
    e. Juvenile addiction to nicotine and smoke-related illnesses.--
Every day, 3,000 children become regular cigarette smokers; as a 
result, one-third of these youngsters will die of a smoking-related 
disease. The vast majority of smokers (over 80 percent) first tried a 
cigarette before age eighteen.
    f. Decreased workplace productivity.--Drug users bring inefficiency 
to the workplace. An ongoing Postal Service study has found that 
compared to non drug users, their absentee rates are 66 percent higher, 
their health benefit utilization rate is 84 percent greater in dollar 
terms, disciplinary actions are 90 percent higher, and their turnover 
rate is significantly higher. Clearly, productivity rates can be 
increased by making drug use less prevalent among workers.
    g. Violent crime.--In 1995, a majority of arrestees tested 
positively for drug use (see figure A-3). Those arrested for robbery, 
burglary, and auto theft also had high positive rates. Many of the 12 
million property crimes and two million violent crimes committed each 
year are drug-related.
    h. Crowded prisons and jails.--In 1995, state and local law 
enforcement agencies made 1.4 million arrests for drug law violations. 
Almost 60 percent of federal prisoners are drug offenders as are 22 
percent of the inmates in state prisons. More than 1.6 million 
Americans are now behind bars. Drug-related offenses account for nearly 
three-quarters of the total growth in federal prison inmates since 1980 
(see figure A-4).
5. Drug use is a shared problem
    Many Americans erroneously believe drug abuse is not their problem. 
They have a misconception that drug users belong to a segment of 
society different from their own or that drug abuse is remote from 
their environment. They are wrong. Drug users permeate our society. 
They are our family members, classmates, teammates, neighbors, and 
coworkers. Seventy-one percent of illegal drug users aged eighteen and 
older (7.4 million adults) are employed. The majority are white. 
Approximately 45 percent of us know someone who has suffered a 
substance abuse problem.
    While drug use and its consequences threaten Americans of every 
socio-economic background, geographic region, educational level, and 
ethnic and racial identity, the effects of drug use are often felt 
disproportionately. Neighborhoods where illegal drug markets flourish 
are plagued by attendant crime and violence. Americans who lack 
comprehensive health plans and who have smaller incomes are less able 
to afford treatment programs. Those who depend on social services are 
often deprived of their benefits because too high a proportion of a 
social worker's case-load is occupied by drug-related medical problems. 
What we must all understand is that no one is immune from the 
consequences of drug use; every family is vulnerable. We cannot 
mistakenly assume that illegal drugs are someone else's concern.
    iii. the 1997 national drug control strategy: responding to the 
                               challenge
1. A comprehensive ten-year plan
    The 1997 National Drug Control Strategy is America's main guide in 
the struggle to decrease illegal drug use and its consequences. 
Developed in consultation with public and private organizations, the 
Strategy provides a compass for the nation to reach this critical 
objective. It also provides long-term guidance. We propose a ten-year 
commitment supported by five-year budgets so that continuity of effort 
can help ensure success. The Strategy addresses the two sides of the 
challenge: reducing demand and limiting availability of illegal drugs. 
The document provides general guidance while identifying specific 
initiatives.
2. Strategic goals and objectives
    The goals and objectives of the 1997 National Drug Control Strategy 
establish a framework for all national drug control agencies. They are 
intended to orient the integrated activity and budgets of all 
governmental bodies and private organizations committed by charter or 
inclination to reducing drug use and its consequences in America. Over 
the long term, these goals should remain relatively constant. Their 
supporting objectives allow for measurable progress and can be modified 
as success is achieved or new challenges emerge.
Goal 1: Educate and enable America's youth to reject illegal drugs as 
        well as alcohol and tobacco.
    Objective 1: Educate parents or other care givers, teachers, 
coaches, clergy, health professionals, and business and community 
leaders to help youth reject illegal drugs and underage alcohol and 
tobacco use.
    Objective 2: Pursue a vigorous advertising and public 
communications program dealing with the dangers of drug, alcohol, and 
tobacco use by youth.
    Objective 3: Promote zero tolerance policies for youth regarding 
the use of illegal drugs, alcohol, and tobacco within the family, 
school, workplace, and community.
    Objective 4: Provide students in grades K-12 with alcohol, tobacco, 
and drug prevention programs and policies that have been evaluated and 
tested and are based on sound practices and procedures.
    Objective 5: Support parents and adult mentors in encouraging youth 
to engage in positive, healthy lifestyles and modeling behavior to be 
emulated by young people.
    Objective 6: Encourage and assist the development of community 
coalitions and programs in preventing drug abuse and underage alcohol 
and tobacco use.
    Objective 7: Create a partnership with the media, entertainment 
industry, and professional sports organizations to avoid the 
glamorization of illegal drugs and the use of alcohol and tobacco by 
youth.
    Objective 8: Support and disseminate scientific research and data 
on the consequences of legalizing drugs.
    Objective 9: Develop and implement a set of principles upon which 
prevention programming can be based.
    Objective 10: Support and highlight research, including the 
development of scientific information, to inform drug, alcohol, and 
tobacco prevention programs targeting young Americans.
Goal 2: Increase the safety of America's citizens by substantially 
        reducing drug-related crime and violence.
    Objective 1: Strengthen law enforcement--including federal, state, 
and local drug task forces--to combat drug-related violence, disrupt 
criminal organizations, and arrest the leaders of illegal drug 
syndicates.
    Objective 2: Improve the ability of High Intensity Drug Trafficking 
Areas (HIDTA's) to counter drug trafficking.
    Objective 3: Help law enforcement to disrupt money laundering and 
seize criminal assets.
    Objective 4: Develop, refine, and implement effective 
rehabilitative programs--including graduated sanctions, supervised 
release, and treatment for drug-abusing offenders and accused persons--
at all stages within the criminal justice system.
    Objective 5: Break the cycle of drug abuse and crime.
    Objective 6: Support and highlight research, including the 
development of scientific information and data, to inform law 
enforcement, prosecution, incarceration, and treatment of offenders 
involved with illegal drugs.
Goal 3: Reduce health and social costs to the public of illegal drug 
        use.
    Objective 1: Support and promote effective, efficient, and 
accessible drug treatment, ensuring the development of a system that is 
responsive to emerging trends in drug abuse.
    Objective 2: Reduce drug-related health problems, with an emphasis 
on infectious diseases.
    Objective 3: Promote national adoption of drug-free workplace 
programs that emphasize drug testing as a key component of a 
comprehensive program that includes education, prevention, and 
intervention.
    Objective 4: Support and promote the education, training, and 
credentialing of professionals who work with substance abusers.
    Objective 5: Support research into the development of medications 
and treatment protocols to prevent or reduce drug dependence and abuse.
    Objective 6: Support and highlight research and technology, 
including the acquisition and analysis of scientific data, to reduce 
the health and social costs of illegal drug use.
Goal 4: Shield America's air, land, and sea frontiers from the drug 
        threat.
    Objective 1: Conduct flexible operations to detect, disrupt, deter, 
and seize illegal drugs in transit to the United States and at U.S. 
borders.
    Objective 2: Improve the coordination and effectiveness of U.S. 
drug law enforcement programs with particular emphasis on the southwest 
border, Puerto Rico, and the U.S. Virgin Islands.
    Objective 3: Improve bilateral and regional cooperation with Mexico 
as well as other cocaine and heroin transit zone countries in order to 
reduce the flow of illegal drugs into the United States.
    Objective 4: Support and highlight research and technology--
including the development of scientific information and data--to 
detect, disrupt, deter, and seize illegal drugs in transit to the 
United States and at U.S. borders.
Goal 5: Break foreign and domestic drug sources of supply.
    Objective 1: Produce a net reduction in the worldwide cultivation 
of coca, opium, and marijuana and in the production of other illegal 
drugs, especially methamphetamine.
    Objective 2: Disrupt and dismantle major international drug 
trafficking organizations and arrest, prosecute, and incarcerate their 
leaders.
    Objective 3: Support and complement source country drug control 
efforts and strengthen source country political will and drug control 
capabilities.
    Objective 4: Develop and support bilateral, regional, and 
multilateral initiatives and mobilize international organizational 
efforts against all aspects of illegal drug production, trafficking, 
and abuse.
    Objective 5: Promote international policies and laws that deter 
money laundering and facilitate anti-money laundering investigations as 
well as seizure of associated assets.
    Objective 6: Support and highlight research and technology, 
including the development of scientific data, to reduce the worldwide 
supply of illegal drugs.
3. Measures of effectiveness
    The development of objective measurements of effectiveness is 
essential to the success of this Strategy. The very idea of strategy 
implies a dynamic effort. Conditions change over time; initial 
approaches to a particular problem may or may not continue to apply. 
Introspection regarding the effectiveness of chosen courses of action 
is imperative. Consequently, ONDCP and the federal Drug Control Program 
agencies are developing a national performance system to measure 
progress of major drug programs supporting the Strategy, to provide 
feedback for strategy refinement and system management, and to assist 
the Administration in resource allocation.
    ONDCP has established a program evaluation office to oversee the 
design and implementation of this new system. A first set of targets 
and measures will be submitted for congressional review this fiscal 
year. The measurement system will be dynamic, flexible, and responsive. 
Our collective challenge is to reinforce success while not wasting 
resources on unproductive efforts. The performance measures system will 
be constructed in a way which ensures that sufficient time is allotted 
to a program for it to demonstrate success (an outline of this 
performance measurement system is provided at Appendix C).
4. Strategic initiatives
    The key to a successful long-term strategy is mobilizing resources 
toward the systematic achievement of established goals. Any strategy--
if it is to be effective--must be related to the resources it can put 
toward implementation. Included in this year's Strategy are some key 
initiatives--several of which ONDCP is responsible for implementing--to 
ensure steady progress toward decreasing drug use and its consequences. 
These include:
a. Youth-oriented initiatives
    (1) The Youth-Oriented Anti-Drug Campaign.--Unfortunately, in 
recent years the number of drug-related public service announcements 
(PSA's) carried by television, radio, and print media have decreased 
markedly. The economics of the media industry have made advertising 
space so competitive that pro-bono advertising has dropped more than 30 
percent in recent years. Even worse, virtually no PSA's appear in 
prime-time. We seek to reverse this trend by developing a public 
education campaign that supplements anti-drug announcements already 
offered by dedicated organizations like the Partnership for a Drug-Free 
America under Jim Burke's leadership and the Ad Council. The 
President's budget seeks to fund this targeted educational campaign 
through the $175 million provided in ONDCP's Special Forfeiture Fund. 
ONDCP will also seek matching private sector donations. Attitudes can 
be changed with accurate and convincing messages.
    (2) Collaborating with the media and entertainment industries.--
Youth, perhaps even more than the public at large, are affected by the 
icons of our society. The glamour of Hollywood movies, the charisma of 
celebrities, the perceived proximity of television stars, the prowess 
of accomplished athletes, and the artistry of musicians all sway young 
people's emotions. The creative talent of the entertainment industries 
can depict drug use and its consequences accurately, thereby increasing 
the perception of risk that young people associate with illegal drugs, 
alcohol, and tobacco. ONDCP will work with the entertainment industries 
to assist youths to form an accurate perception of the devastating 
consequences of illegal drugs.
    (3) Broadening ``drug-free zones'' and preventing alcohol and 
tobacco use by youth.--Young Americans are more likely to use illegal 
drugs, alcohol, and tobacco if these substances are readily available 
or if their use is encouraged directly or subtly in youth-oriented 
materials. We must keep illegal drugs, alcohol, and tobacco out of 
areas where children and adolescents study and play. We must also 
depict these substances and their effects in accurate ways. In addition 
to promoting the idea that youth must be educated about the dangers of 
illegal drugs, the Strategy recommends educating youth, their mentors, 
and the public at large about the dangers of underage drinking and 
about the lethal effects of tobacco products. We must encourage 
communities to support alcohol-free and tobacco-free behavior on the 
part of youth.
    (4) Expanding effective school-based prevention programs.--Schools 
offer both formal and informal opportunities for changing youth 
attitudes toward drugs. The Department of Education will continue to 
focus on improving the quality of drug and violence prevention 
programming and changing the attitudes of students and parents 
regarding illicit use of alcohol, tobacco, and drugs.
    (5) Reducing drugged driving.--20 percent of high school seniors 
say they have smoked marijuana in a car. Law enforcement officers cite 
marijuana as the second-leading cause of drug-related car crashes after 
alcohol. The drugs and driving initiative developed by ONDCP, DOT, and 
HHS is intended to reduce drug use by young people and driving under 
the influence of drugs.
    (6) Countering Attempts to Legalize Marijuana.--A 1994 survey by 
CASA found that a twelve to seventeen-year-old who smokes marijuana is 
85 times more likely to use cocaine than a non-marijuana smoking peer. 
Clearly, if we want to reduce the rate of teenage drug use and prevent 
American youth from using dangerous drugs like cocaine, we must 
continue to oppose efforts to legalize marijuana. Advocates for the 
legalization of marijuana are using two issues as subterfuges: 
``medical marijuana'', and ``industrial hemp''.
    (a) Medical marijuana.--The federal government has a responsibility 
to ensure the rule of law and protect the American people from unsafe, 
ineffective medicine. This is a critical Food and Drug Administration 
role. Marijuana continues to be designated a Schedule I drug under the 
provisions of the Controlled Substance Act, Title II of the 
Comprehensive Drug Abuse Prevention and Control Act of 1970, because it 
has a high potential for abuse and no currently accepted medical use in 
the United States. The time-tested medical-scientific process has 
provided our society with the best health care system in the world. 
This is the only system which can determine drugs as safe and effective 
for therapeutic uses.
    (b) Industrial hemp.--Hemp plants and marijuana plants are one and 
the same; they are Cannabis Sativa plants. They differ in that the 
cultivation process causes the plant to develop different 
characteristics. Marijuana growers seek to raise the psychoactive 
content of the plant while hemp growers bring out other characteristics 
of the plant. Federal law prohibits the cultivation of Cannabis Sativa 
because the primary purpose of growers has been to produce marijuana. 
Drug-legalizers seek to revoke this prohibition against the cultivation 
of hemp in order to camouflage drug crops.
    According to the Department of Agriculture, there is little legal 
economic incentive for the cultivation of hemp. Their research suggests 
that linen manufactured from hemp would cost twice as much as the 
highest-quality flax linen. They also conclude that hemp is not 
economically viable as a source of paper pulp; the cost of cultivating 
a ton of raw hemp is higher than the value of a ton of finished 
newsprint. Department experts project that the total U.S. market for 
hemp products might reach five to ten millions dollars a year, which is 
an almost insignificant figure when considered within the context of a 
national agricultural sector that generates more than 200 billion 
dollars a year. Labor-intensive hemp products are, however, 
economically viable in countries like China and India where wages are 
low. Relaxing the ban on hemp cultivation in the United States would 
only result in increased availability of marijuana.
b. Initiatives to reduce drug-related crime and violence
    (1) Integrating federal, state, and local efforts.--We are 
encouraging greater cooperation among our law enforcement agencies. 
Edward Byrne Memorial Grants will provide financial support to multi-
jurisdictional task forces. Coordination is also facilitated by ONDCP's 
$140 million High Intensity Drug Trafficking Area (HIDTA) Program. This 
program facilitates coordination of anti-drug activities and 
investigations of federal, state, and local law enforcement agencies in 
areas that are critically affected by drug-related problems. The Bureau 
of Alcohol, Tobacco, and Firearms' Achilles Program is another 
important mechanism for fostering task-force approaches to drug law 
enforcement.
    (2) Linking criminal justice and treatment systems.--Incorporating 
drug prevention and treatment programs within the criminal justice 
system can result in decreased drug use and criminal activity and lower 
recidivism. To that end, the Strategy encourages drug testing, 
treatment, and education for all prisoners. It also encourages expanded 
use of drug courts that offer incentives for drug rehabilitation in 
lieu of incarceration for non-violent drug users. Finally, the Strategy 
advocates ``coerced abstinence'' programs that incorporate progressive 
sanctions to encourage criminals to stop using illegal drugs. These 
programs have the potential to influence positively the two-thirds of 
the nation's chronic drug users who fall under the domain of the 
criminal justice system each year. More than 200 drug courts and 
community programs like Treatment Accountability for Safer Communities 
are already applying these principles and are helping non-violent, 
drug-using offenders to break the cycle of drugs and crime.
    (3) Reducing the number of chronic drug users.--3.6 million chronic 
drug users are at the heart of America's drug problem. Two-thirds of 
the nation's supply of cocaine is consumed by just one-quarter of the 
drug-using population. These chronic users maintain drug markets, keep 
drug traffickers in business, and commit a disproportionately high 
percentage of drug-related crime. The Strategy focuses on helping the 
3.6 million chronic drug users in America overcome addiction. Most of 
these drug abusers are involved in one way or another with the criminal 
justice system. It is clear that the coercive power of the criminal 
justice system can be used to test and treat drug addicts arrested for 
committing crimes. Drug use by persons under supervision of the 
criminal justice system should not be tolerated. We can dramatically 
reduce the number of chronic drug users if we harness the potential of 
the criminal justice system (see figure A-5).
c. Initiatives to reduce health and social problems
    (1) Lowering entry barriers to treatment programs.--The willingness 
of chronic drug users to undergo treatment is influenced by 
availability of treatment programs, affordability of services, access 
to publicly funded programs or medical coverage, personal motivation, 
family and employer support, and potential consequences of admitting a 
dependency problem. The Strategy seeks to reduce barriers so that more 
chronic users can begin treatment. Treatment programs must capitalize 
on individual motivation to end drug dependency. Publicly funded 
treatment must be accessible to people who cannot afford private 
programs or who lack adequate medical services.
    (2) Addressing needs of the vulnerable.--The health consequences of 
drug abuse are especially acute for pregnant women, children they are 
carrying, adolescents, the mentally ill, and the poor. We encourage 
treatment programs that address the special needs of these population. 
We encourage states, communities, and health-care professionals to 
integrate drug prevention programs in prenatal, pediatric, and 
adolescent medical practices and clinics.
    (3) Expanding drug-free workplace programs.--American businesses 
realize that keeping illegal drugs out of the workplace makes economic 
sense. Drug testing and employee assistance programs--when combined 
with supervisory concern, leadership, and support--reduce drug use. The 
share of major U.S. firms that test for drugs rose to 81 percent in 
January 1996. Our challenge is to expand these programs to the small 
business community that employs 87 percent of all workers.
    (4) Expanding community anti-drug efforts.--The community-based 
anti-drug movement in this country is strong, with more than 4,300 
organized coalitions. These coalitions are significant partners for 
local, state, and federal agencies working to reduce drug use, 
especially among young people. One of the most successful is the Miami 
Coalition established by Tad Foot and Alvah Chapman. The Community 
Anti-Drug Coalitions of America (CADCA) under Jim Copple's leadership 
has helped organize this community-based approach to the drug problem. 
They deserve our continued support and admiration.
d. Initiatives to shield our frontiers
    (1) Organizing for success.--We are a great nation. When we apply 
ourselves to a focused cause, few obstacles can bar our way. Human 
obstacles, no matter how ruthless or well-financed, can almost 
certainly be overcome. We face an enormous organizational challenge at 
our borders and in the air and maritime approaches to the United 
States. Our status as the preeminent commercial nation in the world 
makes us particularly vulnerable to drug trafficking. More than 400 
million people enter the United States every year; any one of them can 
carry several million dollars worth of heroin. Four hundred million 
tons of cargo also enter our country every year. Illegal drugs 
represent 0.00001 percent of that traffic. Our challenge is to stop the 
one millionth part that represents illegal drugs without significantly 
affecting legal commerce and movement, which represents the life-blood 
of our country. We have the capacity to be successful until we not only 
appreciably lessen the quantity of drugs on our streets but also make 
serious inroads into the ability of international thugs to continue 
operating. Such progress requires commitment, organization, and dogged 
effort. The National Drug Control Strategy reflects all of that. Our 
job is to ensure that it is implemented.
    (2) Addressing all drug entry points.--The greater our success at 
interrupting drug trafficking along any particular border, the more 
traffickers attempt to introduce illegal drugs elsewhere. Consequently, 
we must develop a comprehensive, coordinated capability that allows the 
federal government to focus resources in response to shifting drug-
trafficking threats. Existing organizations and initiatives--such as 
the three U.S. military Joint Inter-Agency Task Forces, the Immigration 
Service's Inspections Branch, the Border Patrols' surveillance 
operations between ports of entry, and the Customs Service's Domestic 
Air Interdiction Coordination Center--have increased our effectiveness 
and are the building blocks for this effort.
    (3) Preventing drug trafficking across the Southwest border.--If a 
single geographic region were to be identified as a microcosm of 
America's drug problem, it would be the two thousand mile-long U.S.--
Mexican border. Cocaine, heroin, methamphetamine, and marijuana all 
cross into the United States here, hidden among the 84 million cars, 
232 million people, and 2.8 million trucks that the Customs Service 
estimates cross the 38 ports along the border. American and Mexican 
ranchers are continually threatened and often harmed by violent bands 
of drug runners openly crossing their property.
    Significant reinforcements have been committed to the substantial 
resources already focused on the Southwest border. Our challenge is to 
design and implement an overarching operational strategy that better 
organizes our interdiction operations. We must focus resources, provide 
timely and accurate intelligence on the activities of drug traffickers, 
develop evidence for prosecutions, and respond to shifting drug-
trafficking patterns.
    (4) Closing the Caribbean ``back door.''--Our intelligence 
estimates that the Caribbean is the second-most significant drug-
trafficking route into the U.S. after Mexico. Puerto Rico and the U.S. 
Virgin Islands are particularly targeted because of the absence of 
Customs inspections between these U.S. territories and the mainland. We 
will continue to integrate our operations throughout the Caribbean 
while building on successful programs such as the Puerto Rico/Virgin 
Islands HIDTA and ongoing Border Patrol, Coast Guard, and Customs' 
operations. A particular challenge is finding ways to help small island 
nations develop autonomous and collective capabilities to curtail drug 
trafficking, confront corruption, and prevent money laundering. The 
U.S. Interdiction Committee, under the leadership of Admiral Bob 
Kramek, the Coast Guard Commandant, will continue to provide oversight 
to U.S. interdiction efforts across the breadth and depth of the 
Caribbean.
    (5) Assuring informed drug policy.--National Drug Control Program 
agencies must be supported by a national drug intelligence system that 
provides intelligence and information at all levels---strategic, 
operational, and tactical. While the federal government has already 
made a substantial investment in counterdrug intelligence capabilities, 
there are some areas where our information base could be significantly 
improved. Consequently, ONDCP is coordinating an extensive review of 
the federal drug control intelligence architecture based on the 
following tenets:
    (a) The National Drug Control Strategy and its implementing 
programs must be information-based and intelligence-driven.
    (b) Counterdrug intelligence products must support the needs of 
policy makers, operational planners, and the courageous men and women 
who confront criminal drug organizations both at home and abroad.
    (c) No criminal organization can compete with a U.S.-backed, well-
organized, streamlined, and integrated intelligence structure.
e. Initiatives to reduce drug availability
    (1) Bilateral cooperation with Mexico.--We share the Congress' 
concerns about our bilateral efforts to achieve results in combating 
the production of and trafficking in illicit drugs. Significant 
quantities of heroin, methamphetamines, and marijuana used in the 
United States are produced in or pass through Mexico. Approximately 57 
percent of the cocaine used in the United States is imported through 
Mexico. These drugs are moved across the Southwest border by criminal 
organizations, the largest of which operate on both sides of the 
border. Their actions, profits, and use of violence are a major cause 
of corruption on both sides of the border. We agree that the success of 
efforts to control drug trafficking depends on improved coordination 
and cooperation between Mexico and United States drug law enforcement 
agencies and other institutions responsible for activities against 
production, traffic, and abuse of illegal drugs, particularly in the 
common border area. This was one of the major issues of discussion 
during the President's trip to Mexico last week.
    The President's decision in March to certify Mexico's counterdrug 
efforts was based upon Mexico's accomplishments last year. President 
Zedillo has identified drug trafficking as the principal threat to 
Mexico's national security. Under his leadership, Mexican drug seizures 
increased notably in 1996, with marijuana seizures up 40 percent over 
1994 and opium-related seizures up 41 percent. No other nation in the 
world eradicated as many hectares of illegal drugs as did Mexico in 
1996. Mexico is clearly serious about responding effectively to the 
massive threats of violence and corruption generated by the 
approximately 50 billion dollars of U.S. expenditures on illegal drugs. 
Indeed, large numbers of Mexican police officers, prosecutors, and 
military have been killed while fighting to protect the Mexican people 
against drug-related threats.
    However, Mexico is facing an emergency situation of violence and 
corruption. Much more needs to be done. We shared the dismay of Mexican 
authorities at the revelation that Mexico's top anti-drug official, 
General Gutierrez Rebollo, was closely associated with the Carrillo 
Fuentes drug-trafficking organization. This high level betrayal 
underscores the enormous corrupting influence and violence of the 
illegal drug trade. There is no doubt that Mexican democratic 
institutions are under brutal internal attack by international drug 
criminals. We are encouraged by President Zedillo's dedication to 
rooting out corruption no matter where it is found. We are confident 
that we can demonstrate to our two peoples over the coming year the 
concrete results of continued cooperation.
    (2) Making cocaine less available.--Our national efforts against 
coca cultivation and the production and trafficking of cocaine must be 
guided by our western hemisphere counterdrug strategy. Major 
initiatives include:
    (a) Reduction of coca cultivation.--We are supporting effective 
coca cultivation reduction programs in South America. We are encouraged 
by the dramatic 18 percent reduction in coca cultivation in Peru last 
year. For the first time in ten years, Peruvian coca cultivation has 
dropped below 100,000 hectares. Our goal of significantly reducing the 
cultivation of illegal coca within the next decade is achievable. Our 
primary focus will be on alternative economic development in Peru--the 
source of 57.5 percent of the U.S. cocaine.
    (b) Interdiction.--We have demonstrated that interdiction efforts 
in the source country zone can disrupt trafficking patterns 
significantly. Carga flights (cocaine-carrying Caravelles and Boeing 
707's) between Colombia and Mexico have stopped. We have badly damaged 
the Andean air bridge between Peru and drug processing laboratories in 
Colombia. Over the past decade, U.S. and international interdiction 
efforts have consistently intercepted about a third of the coca 
produced in South America (see figure A-6). Our challenge now is to 
react flexibly and block drug traffickers as they attempt to develop 
alternative river, ground, and maritime routes. In the transit zone of 
the Caribbean, Central America, Mexico, and the eastern Pacific, we 
must continue to conduct flexible, in-depth, intelligence-driven 
defenses. Even now, drug traffickers are using shipping containers, 
cargo ships, and fishing trawlers to compensate for our effectiveness 
against aerial smuggling. The leadership of U.S. Southern Command in 
their new Miami Headquarters under the recently rationalized, single 
Unified Command Plan, will dramatically increase the coherence and 
coordination of U.S. north-south drug interdiction activities.
    (c) Actions against trafficking organizations.--The power, wealth, 
and sophistication of Colombian, Mexican, Dominican, and other drug 
syndicates pose enormous threats to governmental and judicial 
institutions in many Western hemisphere countries. Our international 
cocaine control strategy will continue to include an across-the-
spectrum attack on these criminal organizations.
    (3) Making heroin less available.--Efforts against production and 
trafficking of heroin will continue to be guided by the U.S. heroin 
control policy of November 1995. The heroin interdiction challenge is 
enormous. Potential global heroin production has increased about 60 
percent in the past eight years to approximately 360 metric tons. In 
1995, worldwide heroin seizures totaled 32 metric tons, less than 10 
percent of the global production potential. U.S. heroin seizures were 
just 1.3 metric tons. The U.S. demand for approximately 10 tons of 
heroin consumed by 600,000 addicts represents a fraction of the 
production potential.
    Our heroin control efforts must take these realities into account. 
We must work through diplomatic and public channels to promote 
international awareness of the heroin threat. We must help strengthen 
law enforcement efforts in heroin source and transit countries and 
bring cooperative law enforcement efforts to bear against processing 
and trafficking. These and other international challenges were raised 
by ONDCP during a recent session of the OAS Inter-American Drug Abuse 
Control Commission in Washington, D.C.
    (4) Countering the methamphetamine threat.--Methamphetamine abuse 
has been a growing problem on the West Coast and in the Southwest and 
Midwest. Methamphetamine is manufactured in both California and Mexico. 
It has also been produced in rural areas of the Midwest. All that is 
required to start up a methamphetamine laboratory is $100 worth of 
supplies, readily available from retail stores, and an Internet recipe. 
Methamphetamine production is increasing in California and the Midwest. 
DEA reported that ``meth'' lab busts increased 169 percent nationally 
in 1996 to 879. Lab busts in California were up 72 percent in 1996. 
This drug is an extremely addictive substance with long-lasting 
effects. Those under its influence often act violently (see figure A-
7).
    (5) Measuring and reducing illegal domestic marijuana 
cultivation.--Our domestic cannabis crop reduction efforts must be 
supported by accurate information about drug crop locations and 
potential yields. We currently have no accurate estimate of the extent 
of domestic marijuana cultivation, although we know that much of the 
marijuana smoked in the U.S. is cultivated domestically commercially, 
privately, outdoors, and indoors. ONDCP will coordinate the development 
of a domestic marijuana crop measurement program and more effective 
domestic eradication efforts.
    (6) Controlling the diversion of precursor chemicals.--Drug 
production can be dramatically curtailed if the necessary precursor 
chemicals can be controlled. We are encouraged that the importance of 
controlling chemicals is internationally accepted, and we will continue 
to urge adoption of chemical control regimes by other nations, e.g., 
Mexico's 1996 law criminalizing precursor chemical trafficking.
        iv. funding the 1997 national drug control strategy \1\
---------------------------------------------------------------------------
    \1\ NOTE: Charts summarizing the fiscal year 1998 counterdrug 
budget are provided at Appendix B).
---------------------------------------------------------------------------
1. Request for $16.0 billion in fiscal year 1998
    Progress on the drug front cannot be achieved without the funding 
necessary to educate children, reduce violent drug crime, treat 
addicted citizens, protect our borders, and address foreign and 
domestic sources of supply. To support these goals for fiscal year 
1998, the President has requested $16.0 billion to fund drug control 
efforts. This request represents an increase of $818 million (5.4 
percent) over the fiscal year 1997 level of $15.2 billion. The greatest 
proportion of spending, 35 percent, is for programs that increase the 
safety of America's citizens by reducing drug-related crime and 
violence. Budgetary highlights include:
    a. $620 million for Safe and Drug-Free Schools and Communities--an 
increase of $64 million (11.5 percent) over fiscal year 1997.
    b. $522 million for prevention and treatment research by the 
National Institute of Health (NIH)--an increase of $33 million (6 
percent) over fiscal year 1997.
    c. $510 million for Community Oriented Policing (COPS)--an increase 
of $41 million (9 percent) over fiscal year 1997.
    d. $367 million in drug-related resources for the Immigration and 
Naturalization Service (INS)--an increase of $48 million over fiscal 
year 1997. (The overall INS request provides for an additional 500 
Border Patrol agents to stem the flow of illegal drugs and illegal 
aliens across the Southwest Border).
    e. $214 million for the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs (INL), including $40 million for 
coca cultivation reduction and cocaine interdiction programs in Peru--
an increase of $17 million (74 percent) over fiscal year 1997.
    f. $75 million for drug courts--an increase of $45 million (150 
percent) over fiscal year 1997.
2. ONDCP fiscal year 1998 budget request of $351.223 million
    ONDCP is an organization of committed professional men and women. 
We will have 124 full-time employees (FTE's) and 30 detailees once 
hiring has been completed (see organizational chart at Appendix C). 
This fiscal year 1998 budget includes:
    a. $175 million to support a national media campaign for youth.--
Drug use has gone up among America's youth during the past five years 
(See figure A-8). The principal reasons that more of our children are 
using drugs is that fewer of them disapprove of illegal drug use and 
fewer perceive regular drug use as dangerous. The University of 
Michigan's Monitoring the Future Study makes clear this association 
between attitudes and usage rates. The Assets Forfeiture Amendments Act 
of 1988 established the Special Forfeiture Fund (SFF) in order to 
provide ONDCP with supplementary resources for critical counterdrug 
programs. In fiscal year 1998, ONDCP is requesting $175 million to 
support a National Media Campaign for Youth. This initiative supports 
the 1997 National Drug Control Strategy's first goal--``Educate and 
enable America's youth to reject illegal drugs as well as alcohol and 
tobacco.''
    The campaign will use both paid and public service television 
announcements to inform youth and their parents of the consequences of 
drug use. Targeted TV ads are among the quickest, most efficient and 
effective means of reducing drug use. They can modify adolescent 
perception of drug harmfulness and increase societal disapproval of 
drugs. They can also reach ``baby boomer'' parents who may be 
ambivalent about sending strong antidrug messages to their children. 
ONDCP believes this campaign can help to reduce youth drug use 
dramatically.
    b. $140.207 million for the High Intensity Drug Trafficking Area 
(HIDTA) program.--The congressionally-mandated HIDTA program 
facilitates coordination of anti-drug activities and investigations of 
federal, state, and local law enforcement agencies. The HIDTA program 
designates critical geographic areas to which federal resources are 
allocated to link local, state, and federal drug-enforcement efforts. 
Properly targeted, HIDTA's offer greater efficiency in countering 
illegal drug trade in local areas. HIDTA programs are based on a 
logical, comprehensive methodology for prioritizing needs and working 
with other initiatives. Since January 1990, counties in the following 
15 areas of the United States have been designated as HIDTA's:
  --1990: New York/New Jersey, Co-chairs, New York City Police 
        Commissioner Howard Safir and U.S. Attorney Mary Jo White; Los 
        Angeles, Chair, Assistant U.S. Attorney Lisa Lench; Miami, 
        Chair, Special Agent-in-Charge Doyle Jourdan, Florida 
        Department of Law Enforcement; Houston, Chair, Special Agent-
        in-Charge Don Clark, FBI; and Southwest Border, Director, Mr. 
        Dennis Usrey.
  --1994: Baltimore/Washington, D.C., Chair, Dr. Peter Luongo, Ph.D. 
        Clinical Director, Adult Mental Health and Substance Abuse 
        Services; and Puerto Rico/U.S. Virgin Islands, Chair, U.S. 
        Attorney Guillermo Gil.
  --1995: Chicago, Chair, Assistant U.S. Attorney Mark Prosperi; 
        Atlanta, Chair, U.S. Attorney Kent Alexander; and Philadelphia/
        Camden, Chair, U.S. Attorney Michael Stiles.
  --1996 designations include: Rocky Mountain HIDTA (Colorado, Utah, 
        and Wyoming), Chair, Special Agent Michael DeMarte, DEA; Gulf 
        Coast HIDTA (Alabama, Louisiana, and Mississippi), Chair, 
        Special Agent in Charge Ron Caffrey, DEA; Lake County HIDTA 
        (Lake County, Indiana), Chair, U.S. Attorney Jon E. DeGuilio; 
        Midwest HIDTA (Iowa, Kansas, Missouri, Nebraska, and South 
        Dakota), focused on methamphetamine, Chair, U.S. Attorney 
        Thomas J. Monaghan; and Pacific NW HIDTA (Washington Cascades), 
        Chair, U.S. Attorney Kate Pflaumer.
    The fiscal year 1998 request for $140,207,000 for the HIDTA program 
is the same as the fiscal year 1997 enacted HIDTA budget. In fiscal 
year 1997, $14.2 million in discretionary funds were allocated to the 
HIDTA program. Those funds are being used as follows:
    (1) $9 million to expand the Chicago, Philadelphia/Camden, and 
Atlanta HIDTA's ($3 million to each).
    (2) $2 million in seed money for the creation of new HIDTA's in San 
Francisco and Detroit ($1 million each) upon completion of the 
designation process.
    (3) $1.45 million for the New York/New Jersey HIDTA to support the 
Northern Manhattan Initiative (investigation of violent drug 
trafficking gangs).
    (4) $1.45 million for the Southwest Border HIDTA to establish 
regional tactical coordination centers.
    (5) $200,000 to fund a study to develop a system for identifying 
areas that should be supported by HIDTA's in the future.
    (6) $100,000 for the Houston HIDTA to incorporate several counties 
in the Corpus Christi area upon completion of the designation process.
    c. $18.016 million for ONDCP salaries and expenses.--This request 
will allow ONDCP to discharge its extensive responsibilities 
established by the 1988 Anti-Drug Abuse Act (Public Law 100-690) and 
Violent Crime Control and Law Enforcement Act of 1994 (Public Law 103-
322). These include:
(1) Public Law 100-690 Responsibilities
    (a) Develop the National Drug Control Strategy.
    (b) Develop a consolidated National Drug Control Budget proposal.
    (c) Certify drug control budgets of programs, bureaus, agencies, 
and departments.
    (d) Coordinate and oversee federal anti-drug policies and programs.
    (e) Encourage private and public sector drug prevention and control 
initiatives at federal, state, and local levels.
    (f) Designate High Intensity Drug Trafficking Areas (HIDTA's) and 
improve cooperation between federal, state and local law enforcement 
partnerships in those areas.
    (g) Operate a Counterdrug Technology Assessment Center (CTAC) to 
serve as the central counter-drug enforcement research and development 
center of the federal government.
(2) Public Law 103-322 Responsibilities
    (a) Formulate drug budget initiatives.--ONDCP is required to 
request heads of departments or agencies to include in their 
departments' or agencies' budget submission to OMB funding requests for 
specific initiatives consistent with priorities established in the 
National Drug Control Strategy.
    (b) Issue budget guidance.--ONDCP is required to provide, by July 1 
of each year, budget recommendations to drug control agencies for the 
budget being formulated by the President.
    (c) Certify federal Drug Control Program agency budgets.
    (d) Direct possible staff and budget resource transfers.--ONDCP may 
transfer department or agency drug program personnel on temporary 
detail to another department or agency, or transfer up to two percent 
of the funds appropriated to a Drug Program agency account to a 
different Drug Control agency with the approval of the House and Senate 
Appropriations Committees.
    (e) Issue funds control notices.--ONDCP may direct that all or part 
of an amount appropriated to the National Drug Control Program agency 
account be obligated by months, fiscal year quarters, or other time 
periods; and activities, functions, projects, or object classes.
    (f) Assess the drug situation.--ONDCP is required to include in 
each National Drug Control Strategy an evaluation of the effectiveness 
of federal drug control programs during the preceding year.
    (g) Evaluate data system adequacy.--ONDCP is required to include in 
each Strategy an assessment of the quality of current drug use 
measurement instruments and techniques to measure supply reduction and 
demand reduction activities; an assessment of the adequacy of the 
coverage of existing national drug use measurement instruments and 
techniques to measure the casual drug user population and groups at 
risk for drug use; and a discussion of the actions ONDCP shall take to 
correct the deficiencies and limitations identified.
    (h) Evaluate treatment system adequacy.--ONDCP is required to 
include in each Strategy a discussion of the specific factors that 
restrict the availability of treatment services to those seeking it, 
along with proposed administrative or legislative remedies to make 
treatment available to individuals in need.
    (i) Evaluate Strategy functional programs.--ONDCP is required to 
include in each Strategy an assessment of drug use and availability in 
the United States, focusing particularly on the effectiveness of 
interdiction, treatment, prevention, law enforcement, and international 
programs.
    In 1996, ONDCP discharged its extensive responsibilities in the 
following ways:
    (1) Consulting public officials.--Every cabinet officer and all 
departments and agencies participated in the development of strategic 
goals and objectives and in the formulation of supporting budgets, 
initiatives, and programs. Similarly, views and suggestions were 
solicited from every Member of Congress. At the state and local levels, 
ONDCP sought input from each state governor along with those from 
American Samoa, Puerto Rico, and the U.S. Virgin Islands, and from 
mayors of every city of 100,000 or more people. Views from public 
officials overseeing federal, state, and local prevention, education, 
treatment, law enforcement, correctional, and interdiction activities 
were also requested.
    (2) Consulting the private sector.--Suggestions were received from: 
representatives of more than 4,300 community anti-drug coalitions; 
chambers of commerce; editorial boards; non-governmental organizations; 
professional organizations (i.e. actors' guilds, bar associations, 
business associations, educational groups, law enforcement and 
correctional associations, medical associations, and unions); religious 
institutions; and private citizens including chronic drug users, 
inmates, parents, police officers, prevention specialists, recovered 
addicts, students, teachers, treatment providers, and victims of drug-
related crimes. I also joined many members of Congress in their states 
and districts to learn more about the drug problem and observe 
solutions. The interest displayed by all and the thousands of 
unsolicited letters received at ONDCP underscore that a majority of 
Americans believe that drug use and drug-related crime are among our 
nation's most pressing social problems.
    (3) Keeping the Congress informed.--The Office of National Drug 
Control Policy testified at 13 Congressional hearings in 1996. Topics 
included: drug policy priorities; the federal drug control budget; 
international drug control programs; drug trafficking in the Western 
hemisphere; preventing drug trafficking across the Southwest border; 
juvenile drug use trends; drug interdiction efforts; the global heroin 
threat; making cocaine less available; Arizona's Proposition 200, 
California's Proposition 215, and similar efforts in other states.
    (4) Keeping the American people informed.--ONDCP has supported the 
anti-drug efforts of every national television network and numerous 
local television and radio organizations over the past year; more than 
200 exclusive interviews were conducted. Detailed briefings were 
provided to the editorial boards of 24 newspapers and magazines. 
Spanish-language materials were generated for media organizations that 
serve Hispanic-Americans. A web site (www.ncjrs.org) and toll-free 
telephone service (1-800-666-3332) staffed by drug policy information 
specialists provide drug-related data, perform customized bibliographic 
searches, advise requesters on data availability and of other 
information services, and maintain a public reading room. In addition, 
ONDCP maintains a ``home page'' that provides up-to-date information 
about the Office of National Drug Control Policy and drug policy 
issues.
    (5) Building support for U.S. international drug control 
programs.--Leaders from key drug production and trafficking nations 
were briefed on the international components of the National Drug 
Control Strategy. Support for U.S. drug control efforts was also 
developed among important international and multilateral organizations 
such as the United Nations Drug Control Program, the Association of 
Southeast Asian Nations, the European Union, and the Organization of 
American States. ONDCP also sought to inform international non-
governmental organizations such as the International Commission of the 
Red Cross and the Washington Office on Latin America about U.S. drug 
control efforts.
    (6) Convening or participating in conferences and meetings.--ONDCP 
briefed participants in numerous gatherings of organizations like the 
National Governors' Association, the Conference of Mayors, the National 
Association for the Advancement of Colored People, the American Medical 
Association, the American Bar Association, Boys and Girls Club of 
America, D.A.R.E., PRIDE, National Families in Action, and the National 
Association of Police Officers. ONDCP also participated in major 
international conferences in Geneva, Sao Paulo, and Vienna. 
Additionally, ONDCP convened or participated in the following 
conferences and meetings to promote greater coordination of 
international, federal, state, and local anti-drug efforts; consider 
emerging problems; and consult experts as the 1997 Strategy was being 
developed.
    (a) The President's Drug Policy Council.--Established by the 
President in March 1996, this cabinet-level organization met on May 28, 
1996 and December 12, 1996 to assess the direction of the National Drug 
Control Strategy and discuss drug policy initiatives. Members of the 
council include heads of drug control program agencies and key 
presidential assistants.
    (b) Southwest Border Conference.--El Paso, Texas, July 9-10, 1996. 
Federal, state, and local representatives met to discuss the challenge 
of stopping drug trafficking across the 2,000 mile-long U.S.-Mexico 
border.
    (c) HIDTA Conference.--Washington, D.C., July 15-16, 1996. 
Participants considered how the congressionally-mandated HIDTA program 
can better coordinate regional law enforcement efforts.
    (d) USIC/J-3 Counterdrug Quarterly Conference.--Washington, D.C. 
These meetings provided a forum for executive-level discussions of U.S. 
international drug interdiction programs.
    (e) California Proposition 215/Arizona Proposition 200 Briefing.--
Washington, D.C., November 14, 1996. State, local, and community 
leaders briefed federal department and agency representatives on the 
recently-passed ballot initiatives as the federal response to both 
measures was being formulated.
    (f) Entertainment Industry.--Hollywood, California, January 9-10, 
1997. ONDCP met with leaders in the entertainment industry to discuss 
how the national drug prevention effort might be supported by the 
creative talents of the broadcast, film, and music industries.
    (g) Methamphetamine Conference.--San Francisco, California, January 
10, 1997. The purpose of this regional meeting was to examine the 
growing methamphetamine problem in western states, review progress made 
since the April 1996 release of the National Methamphetamine Strategy, 
and consider appropriate responses. A follow-on national 
methamphetamine conference will be held May 28-29, 1997 in Omaha, 
Nebraska.
    c. $17 million for the Counterdrug Technology Assessment Center 
(CTAC).--CTAC was created to serve as the central counter-drug research 
and development center for the federal government. Today, CTAC provides 
minimum but crucial funding for special research not covered by other 
agencies. It also assists law enforcement and demand reduction agencies 
in incorporating advanced technologies into their operations. Specific 
projects being supported by CTAC include research and development for 
therapeutic drugs to counteract or block the effects of cocaine abuse 
and development of cargo inspection technologies. CTAC conducts 
technology conferences and symposia, benchmark testing, and assessments 
of emerging technologies and systems. CTAC develops its long-term 
technology research and development strategy in conjunction with the 
Science and Technology Committee.
    d. $1 million for ONDCP-coordinated policy research.--ONDCP 
conducts research to inform the policy process, identify and detail 
changing trends in the supply of and demand for illegal drugs, monitor 
trends in drug use, identify emerging drug problems, assess program 
effectiveness, and improve the sources of data and information about 
the drug problem. ONDCP-supported research activities include:
    (1) Pulse Check.--This is a report on current drug use and emerging 
trends, based on qualitative information from the police, 
ethnographers, and epidemiologists working in the drug field, and drug 
treatment service providers across the country. This project is one of 
the best sources of current intelligence and data on drug use.
    (2) Retail value of drugs sold in the United States.--This is an 
annual project to determine how much Americans spend on illegal drugs. 
The report focuses on the retail sales value of cocaine, heroin, 
marijuana, and other illegal drugs. It provides ONDCP's estimates of 
the size of the chronic user population and the extent of drug use.
    (3) Drug market analysis.--Working with the National Institute of 
Justice, ONDCP is using the Drug Use Forecasting system as a vehicle to 
analyze drug markets. This project will provide information on drug 
dealing and the drug/crime connection.
    (4) Chronic user survey.--This project will develop a new 
methodology to provide a means to estimate the size, location, and 
characteristics of the chronic population of drug users in the United 
States. It involves the development of mathematical models to determine 
the demographics of chronic drug users.
    (5) Survey of illicit drug prices.--This project generates 
quarterly and annual illicit drug prices and purities for the U.S. and 
selected cities and is used to monitor market trends and support other 
research projects related to the illicit drug market.
    (6) Policy studies/briefs.--ONDCP commissions these studies for 
topical drug policy issues. In the past, studies and analyses have been 
conducted on treatment programs, transit zone interdiction efforts, and 
the progression of drug use.
    (7) Juvenile drug and violent crime study.--This project is a major 
effort to analyze the juvenile drug and violent crime issue from a 
public policy perspective. The project will also identify other types 
of risk behavior that may lead, facilitate, or predict entry into drug 
dealing and violent crime.
                             v. conclusion
    We remain confident that drug use and its consequences can be 
substantially reduced through a sustained and coordinated effort. The 
1997 National Drug Control Strategy and the supporting fiscal year 1998 
counterdrug budget submitted for your consideration will foster 
bipartisan consensus on national drug control policy, allow us to 
expand on notable successes, and attain the objective of reducing drug 
use and its consequences in America.
    ONDCP plays a critical role in the national drug control effort. 
This small but vital agency remains committed to the task of developing 
and sustaining a cooperative, bipartisan anti-drug effort that involves 
all branches and departments of the federal government and incorporates 
extensive initiatives that are ongoing in our states, cities, and more 
than 4,300 communities. All of us at the Office of National Drug 
Control Policy appreciate the support of the Committee over the past 
year. You have provided encouragement and resources to reduce drug 
abuse and its consequences in America.
    ONDCP's current statutory authorization sunsets on September 30, 
1997. The logic that caused the Congress to conclude that a 
coordinating drug policy entity such as ONDCP was required still 
applies today. The Administration has transmitted for Congressional 
consideration a reauthorization bill (the Office of National Drug 
Control Reauthorization Act of 1997) which we believe will improve our 
ability to develop, coordinate and implement the National Drug Control 
Program. We would welcome the opportunity to brief you on the proposed 
modifications to ONDCP's charter.
    We are proud of our accomplishments but recognize that we face 
enormous challenges. Our biggest challenge is to reverse the five-year 
trend of increased drug use by our children. We must further reduce 
drug-related crime and violence. We must reduce the health and social 
consequences of drug abuse. We must better organize our efforts to keep 
drugs out of America. Finally, we must develop more effective supply-
reduction efforts so that we can reduce the quantity of illegal drugs 
that are cultivated and produced both at home and abroad.
    Chairman Nighthorse Campbell, Senator Kohl, and other members of 
the Committee, we will continue to rely upon your guidance as we 
continue our important work. We welcome your continued involvement and 
oversight. Working together, we can succeed in better protecting our 
children, citizens, communities, schools, workplaces, and homes from 
the menace of illegal drugs.

    [Clerk's note.--The charts referred to in General 
McCaffrey's statement do not appear in the hearing record but 
are available for review in the subcommittee's files.]

                             Incarceration

    Senator Campbell. I have to tell you, General, your 
statistics are just astounding. I was just jotting them down as 
you were speaking them. Two-thirds of Federal prisoners now, 
are in for drug-related charges, $17 billion per year, highest 
per capita of incarceration of any industrial country, 1 
million drug arrests a year, and so on.
    You probably know my feeling about the so-called drug war, 
and I am a big supporter of incarceration and interdiction and 
all the rest of it. I have always felt that we fall down on 
rehabilitating people because we have this kind of cycle where 
they keep coming back in.
    You mentioned 7 percent, did I hear you right? Only 7 
percent of the prisoners are now in treatment that need 
treatment? Is that what your statement was?
    General McCaffrey. These data are all a little bit soft, 
but essentially we say we have 50 percent of the national 
treatment capacity we need, and only 7 percent of what we 
require for the prison system. So a minor percentage of what we 
require.
    The first increase we had in drug treatment was under 
President Bush. Thank God, he doubled it (from $1 to $2 
billion). Since then, under this administration, it is now up 
to around $3 billion. We have added a third $1 billion.
    Senator Campbell. I am trying to think in terms of number 
of people in prison. Can I interpret that to mean that the vast 
majority of them that need treatment are not getting it?
    General McCaffrey. That is exactly correct. We have been 
willing to pay an average of $22,800 a year to lock people up. 
We have been unwilling to put into the equation the treatment 
in prison and the follow-on care required to address this 
problem.
    Senator Campbell. I think we have talked in private about 
that and the problem in this place is that we get elected every 
2 years on the other side, and one-third of us are up every 2 
years on this side. And it is so much easier to talk about how 
tough we are than how we are trying to treat the root cause of 
it.
    Somehow, telling people we are going to lock them up and 
throw away the key forever sells better on election day than it 
does to say we are going to spend some money on treatment and 
rehabilitation. Until we put more emphasis on rehabilitation 
and treatment as part of that, we are going to continue this 
never-ending escalation, I think, of people in prison that have 
drug-related beefs.
    Let me ask you a couple of questions here. As I understand 
it, ONDCP is required by the Anti-Drug Abuse Act of 1988 to 
publish the national drug control strategy each year. Section 
1001 of that act requires that the director consult with State 
and local officials in developing a strategy, which of course I 
applaud and I think most of our members do.
    I am informed by the Colorado Department of Public Safety 
that ONDCP provided only 5 days for the department to provide 
input into the strategy, which they do not think is enough and 
I certainly do not think it is enough. Is that a national 
average? Could you respond to that?
    General McCaffrey. I cannot respond directly to that 
timeframe. I think there has been an ongoing interaction with 
literally thousands of people across the country that gave 
folks in law enforcement and drug treatment prevention an 
opportunity to respond. I personally read every one of them.
    I do not know. I can look into this one instance, but 
clearly we get some 15,000 letters a month, some 6,000 phone 
calls, hundreds of visitors. Now part of it may be when we 
started this process we had 25 folks. We have been staffing up 
to try and just respond to the input from America. The folks 
that wrote the strategy started off with three of them and I 
think now we have about 10 or 12 in that subdepartment.
    We will get back to Colorado and find out how we can be 
more attentive to their needs.
    Senator Campbell. I would appreciate it if you would get 
back to me. I am not only interested because of the State of 
Colorado, I was wondering if that was an average for all of the 
States because I know in our State some of our local officials, 
in fact, have--this is supposed to be a Federal strategy and is 
supposed to be with State initiative, but it has kind of left 
them out of the loop because they simply do not have the time 
to be able to respond.
    General McCaffrey. Your point is a good one, Senator. This 
is the eighth strategy, so it happens every year and actually 
we can accept input at any time. It does not have to be in 
response to a formal request, and we get a lot of input.
    But I think those letters all go out in the summer and we 
table the strategy in April.

                       Youth Prevention Programs

    Senator Campbell. In March of this year, the GAO issued a 
report to Congress highlighting two types of youth prevention 
programs that are showing some potential. One of them was a 
problem-solving, decisionmaking, training modification 
attitudes that encouraged drug use. And the other uses many of 
the aspects of a child's life in combining schools, community, 
family in kind of a comprehensive approach.
    Could you tell me what the average target age is for these 
youth prevention programs?
    General McCaffrey. Of those two, I cannot. There are 
several major areas of support for drug prevention in the 
Departments of Education, Health and Human Service and others. 
We even have aspects of National Guard budget to support the 
prevention programs.
    Our central scheme has been that there should be a 
consistent and appropriate message from kindergarten through 
the 12th grade that takes into account the circumstances of the 
adolescent population you are talking to. So it should not be 
the same cookie cutter program for Samoan youth as for suburban 
Detroit. A lot of these funds are decentralized.
    Safe and Drug Free Schools, as you know, goes out as a 
block grant which then is appropriated to support several 
different kinds of programs. A part of our program is an 
evaluation component of the effectiveness of some of these 
measures.

                          ONDCP's Ad Campaign

    Senator Campbell. That was going to lead to another 
question and I noticed with interest those ads. Have you found 
that the peer type of ads in which youngsters are dealing with 
youngsters are more effective than the so-called role model ads 
in which maybe professional athletes or people of stature in 
the community talk about decreasing the use of drugs? Have you 
found which is the more effective?
    General McCaffrey. There is a considerable body of 
experience, particularly out of Partnership for Drug-Free 
America but also others, on what works and does not work. I 
think there is considerable evidence that these public service 
announcements can change youth attitudes.
    Jim Burke and I have talked about it being essentially a 2-
year effort to start to reverse youth attitudes on disapproval 
rates of drugs. I might also add, Mr. Chairman, that some of 
these--the TV ads are one approach but there are other 
approaches. We are into print media, billboards, radio as well 
as TV.
    Some of these ads should also be aimed not at the children 
but at their parents. So I think we need a lot more work as we 
design next year's hopefully $175 million effort with a 
matching $175 million pro bono effort. We are going to try to 
get out of America a matching amount of free air and print 
time. But there is a body of evidence on what works and does 
not work.
    Senator Campbell. I note with interest, in some States they 
are taking youngsters who are right on the edge into prisons 
themselves and letting them talk or letting inmates talk to 
them about what went wrong in their life and I do not know if 
that works or not, but it is an interesting concept.
    General McCaffrey. I think it does. I am a little bit 
nervous about endorsing it here because there is also a 
counter-argument that I have read that is compelling that says 
watch out on putting the adolescent recovering addict in front 
of the schools for fear that that behavior becomes sort of a 
way in which you can generate interest and sympathy in the 
addicted. I am not sure where I come down on that.
    I think, though, when it gets into advertising, thank God 
we have one of the most creative industries in America that are 
used to getting results for money. I think that what we owe 
Congress is to get results.
    Senator Campbell. Let us talk about that a little bit. Let 
me ask you, before I turn it over to my colleagues for the 
first round of questions, in your request for $175 million you 
mention that there is a 30-percent decrease in the comped 
public service announcements. I worry a little bit that we 
might be setting into place a kind of a cash cow, that if we 
put this in statute that we are going to provide this money 
every year to pay for ads on television. Would we still get 
commitments by the private sector for free space, if they know 
that that money is available where they could simply charge the 
Federal Government for all the ads that in the past they have 
comped?
    General McCaffrey. Mr. Chairman, it is a legitimate fear. 
There is an analog, I might add, that we can study. N.W. Ayres' 
advertising campaign for the volunteer army is about the same 
order of magnitude. It also worked. It also posed exactly the 
kind of challenge you mentioned.
    We are going to have to negotiate and we have reason to 
believe from listening to the Advertising Council of America 
and PDFA, we believe we can continue to solicit pro bono 
support.
    But the economics of this industry are changing. The 
audience is getting fragmented. There are no longer only three 
TV channels. It is bunches of niche markets. Fortunately, the 
people who do this for a living still know how to deliver 
results on selling ideas. We do believe we can achieve what you 
have asked about, continue to get pro bono support.
    Senator Campbell. Should we put that in some kind of report 
language, that there should be some kind of an in-kind 
contribution if we are also going to spend money with the 
various stations?
    General McCaffrey. I think we would probably welcome that. 
As to how we negotiate this, we are about to put a contract out 
for a small amount of money to write a strategy, get a civilian 
advertising firm to show us how to go about this. I want this 
done by creative New York minds, not by Government bureaucrats. 
I will know more about it then.
    I am advised, though, that we do not want to have an 
algorithm that says we give you a buck, you give us a free 
buck, that there may be ways that we can get some very creative 
things happening here and still get pro bono time.
    Senator Campbell. I appreciate it. Let me now turn to my--
--
    General McCaffrey. We have entitled this, Mr. Chairman, I 
might add as a public-private partnership on getting this 
message to American children and their parents.
    Senator Campbell. I support that. Senator Kohl, do you have 
some questions?
    Senator Kohl. Thank you, Mr. Chairman.

                            Drugs in Prison

    Director McCaffrey, I would like to talk to you a little 
bit more about drugs in prison. I think the average American 
would find it, or does find it, incomprehensible that men and 
women in prison are regularly receiving drugs. How does it 
happen?
    General McCaffrey. Of course, Senator, I do not have a good 
number on it. My guess would be that it depends on the prison 
system that we are talking about: if it is high security 
Federal, if it is local jails. But drugs are pervasive in 
America among those populations. One-half of them test positive 
for drugs at arrest, one-half the Americans busted, 1 million 
arrests a year.
    They go into a prison system where controls are not 
absolute, where you have a very low volume commodity that is 
easy to smuggle, where we have not funded much drug treatment. 
We have not funded drug testing for the prison population, 
never mind for the corrections officers who manage this 
facility.
    I am not sure that they are not a lot more drug free in 
prison than they are out. I think that might be a little bit of 
an overstatement to suggest that. But I think it is a 
continuing problem, you are exactly right. We are going to have 
to get that population and put them in drug treatment and test 
them, and ensure that they are focused on their own recovery.
    Senator Kohl. But are you telling us and are we going to 
tell the American people that the men and women go into prison 
with drug problems and if they so wish, we have a system that 
allows them to continue receiving and using drugs in prison? 
That we do not have a system which does not permit them to 
receive drugs?
    General McCaffrey. I think it depends on the prison system. 
I have listened very carefully over the last year to those who 
manage that system. I think there are some splendid men and 
women, the numbers are surprisingly high, it is almost 500,000 
people involved in the American corrections system. But I think 
it is strictly a function of the population and the kind of 
facility you are talking about.
    The Federal system probably tends to be managed with a 
little more resources than State and local and, in some cases 
that may not be completely true either. I mean, some of the--
the Cook County correctional system is one of the most 
sophisticated in the country. So I think it depends on the 
facility.
    Senator Kohl. This is the information that we are now 
bringing to the American people, but we are responsible for 
doing something about it. That is why we are here.
    General McCaffrey. Absolutely.
    Senator Kohl. Would you say that there should be enormous 
vigilance in seeing to it that drugs are not permitted for 
people in jail?
    General McCaffrey. Absolutely, Senator. There is no 
question. I mean, drugs and violence need to be out of that 
system.
    Senator Kohl. Would you say that we who are supposed to be 
in charge can be accused of not doing our jobs if we do not see 
at least to that first step, that people incarcerated are not 
permitted to receive drugs?
    General McCaffrey. No; I would agree with you. I think we 
ought to be held accountable for providing a safe, drug-free 
environment for those who are incarcerated.
    Senator Kohl. We need to have, as we have talked about, 
drug treatment programs for all of those who have drug 
problems.
    General McCaffrey. I agree.
    Senator Kohl. So that when they return to society they are 
hopefully--everything has been done to rid them of the habit.
    General McCaffrey. Absolutely. And Senator, these programs 
work. I went down to Delaware, which has some enormously 
progressive rational approaches. It does reduce crime, 
violence, and welfare costs. Clearly, these in-prison systems 
that have a follow-on component do work and are cheaper than 
the alternatives.
    Senator Kohl. Is it also correct to say that if we do not 
do this, then all the money that we are spending to incarcerate 
them is, to a large extent, just wasted?
    General McCaffrey. Senator, I think almost any experienced 
police officer will tell you that if you ask them, that the 
current approach of just incarcerating people--in a lot of 
cases, we are talking about 3 days or overnight or 3 years--if 
there is no drug treatment, if they put them back in the 
community from whence they came, they are back to addictive 
behavior within a day or so and back to a life of crime without 
effective drug treatment.

                 High-Intensity Drug Trafficking Areas

    Senator Kohl. Thank you. We would like to talk a little bit 
about the high-intensity drug trafficking areas called the 
HIDTA's. Would you explain to us what the HIDTA is and what its 
intended use is?
    General McCaffrey. The HIDTA's, high-intensity drug 
trafficking areas, was an approach started in 1990. Director 
Bennett was the first to articulate the initial five of them, 
Houston, Los Angeles, Miami, New York, and the Southwest 
border. Initially, it was a concept in which we would try and 
provide limited Federal resources so that the task force 
concept would allow local, State, and Federal law enforcement 
and prosecutions to rationally oppose international criminal 
behavior.
    Over the years, through last year, we are now up to 15 
designated HIDTA's. They encompass many of the principal urban 
areas, but now they also include the Gulf Coast HIDTA, the Lake 
County HIDTA, Midwest Methamphetamines HIDTA. They are in 
various stages of development, but I would suggest it has been 
an enormously successful program in which modest amounts of 
money is invested--it is a $140 million program. For example, 
when you look at New York, it is $11 million in Federal money 
that has helped, in the last 4 years, and allowed New York to 
pull together coherent law enforcement prosecution and focus on 
drug gangs.
    It has made a difference. You can see it on the streets of 
New York at night. Howard Safir and his people and Federal 
authorities in concerted action.
    So I am very impressed, in general, with what I have seen. 
Miami, San Diego, the border HIDTA's, very impressive work.
    Senator Campbell. Would you yield just for a moment, 
Senator Kohl? I might tell you that we have had a year of 
experience in Denver. One was authorized in Denver and it got 
spread out a little bit, so we ended up opening a satellite in 
Laramie, WY, and Salt Lake City. It was funded just to a level 
of $3 million.
    I have had some meetings not only with HIDTA officials in 
Colorado but the local chiefs of police in six of the 
metropolitan areas. They all think it is a wonderful program. 
There is a lot of community involvement with it, too, as well 
as coordinating the different agencies.
    Their only concern, of course, is what we funded it for 
originally might have worked great for one office but it is too 
small when it gets spread to different satellite offices. But 
it seems to be one of the programs that we started out, that is 
having great success.
    General McCaffrey. I will try and give you a more coherent 
review of these programs, Senator, for the 1999 budget, and to 
show you where they might usefully grow. You are right, we need 
a more coherent way of managing this program.
    In the reauthorization act, I put together an office to 
manage the HIDTA program. The 1988 law suggests that I 
designate these programs. The last five were issued to me by 
congressional House appropriations action, in effect. I think 
we are going to have to be careful that in the coming years 
they are not added topsy-turvy and there is some sense of what 
we are doing, and an accountability for the money and what we 
are accomplishing.
    Senator Kohl. Just to follow on that point, Director, as 
you point out right now the HIDTA's are designated in various 
ways. Congress apparently has some responsibility for 
designating HIDTA's. ONDCP designates HIDTA. Do you not think 
we ought to have a clearer method of determining how we are 
going to spend this precious money on HIDTA's?
    General McCaffrey. Without question. I mean, the law is 
unequivocal. I am supposed to designate the HIDTA's and the 
appropriations action last year could not have taken effect 
unless I legally designated the counties that would receive the 
money. We tried to do it in the most sensible, rational fashion 
we could. I think it needs a review. I would suggest--I am 
going to task the National Defense Intelligence Center to look 
at the demographics, the smuggling rates, the use rates, the 
growing production rates domestically of marijuana, 
methamphetamines, and come up with a coherent way to move 
ahead.
    I think if you ask me to do it, which you have done in the 
law, and have me report to Congress, we will get a more 
rational way of approaching this problem.

                          ONDCP's Ad Campaign

    Senator Kohl. A little bit more on this media campaign that 
you would like us to commence. It is, as you know, $175 million 
and that is two-thirds of the proposed spending increase for 
drug abuse prevention programs in fiscal year 1998 and some 
people think that the media campaign is a great idea, some 
people think that it is not a great idea. No one knows whether 
or not it will be successful.
    My question to you, Director McCaffrey, do you not think it 
would be advisable for us to take an area or a State or a 
region and see whether or not the program is effective or can 
be effective on more of a pilot basis than deciding at the 
outset that we are going to do it in a national way and spend 
all that money?
    General McCaffrey. Senator, I share your caution in going 
into this. To put it in context, I think it is 1 percent of the 
counterdrug budget. I think it addresses a problem of enormous 
national emergency. Children drug use rates are skyrocketing.
    The most important chart I put up there was eighth grade 
rates of use. Here are the kids entering the most vulnerable 
period of their central nervous system's development, social 
development, educational possibility--and their drug use rates 
have tripled in 5 years.
    So I would suggest that we do know what we are doing on 
this program and that absorbing $175 million times two is 
something that this creative industry can do. We can be held 
accountable. We can develop performance measures. And we can 
make it work.
    There is some historical experience here. So even though I 
share your dedication to not throw money at a process, I think 
we can carry this off and in 2 years show you results starting 
to happen.
    I would also be concerned, and you mentioned this earlier 
along with the chairman, that we not start with a modest 
program. We analyzed it. We think $175 million will achieve our 
purpose and that we commit ourselves to 5 years of evaluation 
that shows it is working. I think if we went in with a partial 
program we may kill the pro bono aspect of it while not 
achieving our purpose.
    The final thing I would suggest is that we look at gateway 
behavior. To reach a 12-year-old kid--this is going to be hard 
work. This is not heroin addicts at 26 we are after. These are 
14- to 16-year-old kids smoking pot. That is what we have to 
stop. A 12-year-old smoking marijuana is 79 times more likely 
to be addicted in life than one who does not smoke.
    There are just phenomenal statistical correlations. A kid 
who is smoking is about sevenfold more likely to be addicted in 
life than a kid who is not at age 12. And binge drinking has 
similar rates of behavior. So we really, I think, have to get 
going with a sense of energy on this or we are going to lose 
another generation.
    Senator Kohl. I would just make one final comment and then 
pass it back to the chairman. I do not disagree with anything 
you are saying, but yet we are talking about very scarce 
resources. And here we are talking this morning about not 
having enough money to fund a very, very effective program that 
you have described, the HIDTA's. We are talking about not 
having, apparently, enough money to fund an essential program 
which is drug treatment in prisons.
    So it is a question of deciding how we are going to 
allocate our money. Intelligent people can have a different 
opinion.
    General McCaffrey. I agree.
    Senator Kohl. It seems to me, on the basis of what you have 
talked about this morning, with respect to how important it is 
that we see to it that prisoners are treated who have problems, 
how essential it is, and how important it is to designate, in 
view of their success, more HIDTA's that we need to have maybe 
a discussion about how we are going to fund these things, as 
well as a national media program.
    General McCaffrey. I agree, although, Senator, I would also 
suggest that from my own view of it, the smartest money we are 
going to spend is on drug prevention. By the time you end up 
with an addicted 21-year-old male in prison, addicted to 
cocaine or heroin or methamphetamines, we have a problem. At 
that point, you have a chronic relapsing disorder, a 
spiritually and physically and mentally damaged human being. 
You have them in jail at $23,000 a year. It is a $17 billion 
program to run that system.
    So I would suggest this investment up front is going to pay 
off as a capital investment cost in our future.
    Senator Kohl. No disagreement about the need to work with 
young people but we have, for example, a DARE program which is 
a direct program of getting at potential drug abuse problems 
with respect to young people in school. And that also is an 
underfunded program and a very successful one.
    So again, I think that reasonable people can debate how we 
spend this money most effectively on young people, on 
prevention.
    Thank you, Mr. Chairman.
    Senator Campbell. One thing I think all of us agree on is 
it is a lot cheaper, when you are talking about the expenditure 
of money, to do it up front in prevention than it is to do it 
afterward at $23,000 a year per person, perhaps for the rest of 
their life.
    But clearly, for that much money, we probably have to have 
some method of measuring and monitoring the results so we know 
we are getting some results with it, so we do not just keep 
putting funds into that area. Because we know that some of 
these other programs like DARE have had huge successes.
    With that, let me turn to Senator Faircloth and ask for a 
few questions.

                             Marijuana Use

    Senator Faircloth. Thank you, Mr. Chairman.
    General, why do you think the use of marijuana has 
skyrocketed among young people in the last 4 years? What is the 
reason?
    General McCaffrey. Senator, I have listened to a lot of 
very smart folks. Dr. Lloyd Johnson at the University of 
Michigan and his colleagues have been at this since the 1960's, 
thank God, and they have got some consistent sets of data that 
they have used.
    It probably is our consensus viewpoint that America was 
outraged in the 1970's at drug abuse. Who knows, 25 million 
Americans regularly using drugs, one-third of the armed forces, 
a catastrophic impact on our society and they were fed up with 
it. So 4,000 community coalitions sprang up. News media 
attention was enormous. Parents got involved. Drug use went 
down. It worked. We drove drug abuse in America down by one-
half.
    Now having said that, along came a new generation. We had 
solved the problem. News media attention plummeted and dropped 
off. And then finally, I would suggest, a new generation of 
parents, of schoolteachers, came along in America, many of whom 
had been exposed to drugs. Somewhere between 50 and 72 million 
Americans have used illegal drugs. It depends on your age 
group, your socioeconomic background. But if you are white, as 
I remember, and 36 to 45, the chances are 62 percent you have 
used an illegal drug.
    So that age group now is trying to----
    Senator Faircloth. Say that again, repeat that?
    General McCaffrey. If you were, I think it was, 36 to 45, 
white, the chances are 62 percent you have used an illegal drug 
sometime during your life.
    So now that generation is running America and they are the 
homeroom teachers, the police officers, young business leaders. 
They are trying to sort out: ``What do I tell my children? My 
employees? My Army company?'' And I think what we are 
suggesting we need to do is to say: ``Tell them the same thing 
you would about drunk driving.'' That in the 1960's one-half 
the people on a Saturday night were inebriated, driving around 
our highways, slaughtering the innocents. Mothers Against Drunk 
Driving got working on that issue.
    ``Tell them what you would about having smoked cigarettes 
in your twenties and finally stopped, as one-half of all 
Americans who smoke have done. Marijuana, crack cocaine, heroin 
almost wrecked America.''
    So now we are trying to get to that generation and say it 
is OK, it is not hypocrisy to tell your employees and your 
children and your school do not use drugs, it did not work. I 
think that is our challenge.
    Senator Faircloth. The California law, proposition 215, 
fiasco, whatever it turns out to be, but as I understand it 
there is nothing to prevent children just walking in and, from 
these so-called buyer's clubs, and purchasing marijuana. I 
understand that under the prescription rules they can stand on 
the street corner and smoke it and say they were verbally 
recommended to do so by their doctor; is that correct?
    General McCaffrey. By their health care provider, which 
could be an aroma therapist.
    Senator Faircloth. In other words, it is totally legalized 
in California?
    General McCaffrey. Well, Senator, we have enormous 
difficulties on this whole issue. We objected to the object 
behind propositions 200, 215. Our viewpoint was fully supported 
by the American Medical Association, the American Cancer 
Society, the American Ophthalmological Society, by all serious 
physicians' organizations. We think that the National Institute 
of Health and the Food and Drug Administration ought to be the 
place that American medicines are judged safe and effective, 
through a scientific process.
    And so propositions 215, 200--we think were a mistake. Now 
they are out there and we have a court case, as you are aware, 
in Federal district courts where the judge has given us a 42-
page opinion. We are trying to sort out what that means in 
terms of U.S. policy. But I think you are quite correct to be 
concerned.
    And the thing I would be most concerned about is that we 
protect this process that kept thalidomide and laetrile off the 
market, and that says it is not a political or ideological 
argument on what is a medicine, it is a scientific argument. I 
think that is the problem that we have with proposition 215.
    Senator Faircloth. Well, the effect in California under 
this proposition 215, it has the effect, it has legalized 
marijuana totally in California. When your caregiver, your 
whoever, that could be most anybody, recommends you smoke it or 
you use it. You can buy it on most any street corner at a legal 
so-called buyer's market.
    It concerns me, putting money into TV ads when you have 
effectively legalized it. Would you run ads in California 
saying that you should not use it when the State has said it is 
fine to do, you can buy it here, there and here? And all you 
have to do is say your caregiver recommended you smoke it.
    It would appear to me that that is pouring money down a 
rathole and going two different ways on the same thing.
    General McCaffrey. Senator, I would agree there is an Alice 
in Wonderland quality to all of this discussion. However, 
having said that, I sort of remind all of us that 80 percent of 
our children have never touched an illegal drug, period; that 
most Americans, including California, do not use illegal drugs. 
Twelve million Americans out of 265 million do.
    The problem is, by and large, a minority of the population 
that we do not want to see double and triple in size. So I do 
not believe we should give up on this effort. There is 
tremendous support throughout California and Arizona to 
confront this issue.
    This is still a medical issue that we are concerned about 
because we want American doctors to write prescriptions for 
medicine and to be held accountable for their own behavior. We 
do not want another system to exist in parallel, in Arizona, 
for heroin, LSD, marijuana, et cetera.
    As you know, Senator, Arizona's legislature, thank God, put 
this back in a better perspective and they have held in 
abeyance some aspects of this law pending FDA approval of these 
schedule I substances as medicine. So I think we are moving in 
the right direction in a really prudent manner.
    Senator Faircloth. I have a bill, S. 40, and it would 
prevent doctors from getting around the Federal law with verbal 
recommendations. And if they were found giving these so-called 
verbal recommendations, they would be punished by not being 
allowed to participate in the entire Medicare-Medicaid system. 
Would you support that?
    General McCaffrey. Senator, the Attorney General and her 
associates are studying the Federal district court's opinion. 
They are going to have to sort this one out.
    I think we all appreciate your attention to this serious 
problem and I look forward to working with you on it. The only 
challenge is that your bill, again, does not confront the free 
speech aspects of that Federal District Court ruling.
    Senator Faircloth. Tell me that again.
    General McCaffrey. In other words, the Federal district 
court--and again, I want to let the Attorney General speak to 
the enforcement and legal aspects of this--but the court 
decision was based on free speech, not medicine, not drugs. And 
that is where the difficulty has been.
    Senator Faircloth. In other words, the doctor can just--why 
write prescriptions then? Just sort of go verbally on 
everything.
    General McCaffrey. You are raising very serious questions. 
That whole proposition 215 was unsettling.
    I think the other thing is many of us believe that medicine 
is best run as a State responsibility. I think all of us are 
nervous about intruding too much in that. At the same time, we 
believe that the Federal Government should define this schedule 
I through V drug structure. That makes sense, to guarantee all 
of us nationally sensible medical medications.
    Senator, I look forward to working with you on it, but I 
want to let the Attorney General sort out what we should do 
about this district court ruling first.

                              extraditions

    Senator Faircloth. Let me ask you a question. There is no 
question the law enforcement people are well aware of the drug 
lords, they are easily identified. They live right across the 
border into Mexico. There has been news articles, pictures of 
their homes. I mean, they are clearly identified and 
identifiable.
    Of course, the President has been working with negotiating 
with Mexico, but what has he done and what did he do to work to 
extradite with the Mexican Government, extradite these drug 
lords? It looks like we--did the President pursue anything to 
extradite them and bring them to this country for trial? Was 
that discussed?
    General McCaffrey. Senator, the trip--and by the way, I am 
going to hopefully in the coming 2 weeks offer, in both the 
Senate and the House, an explicit debriefing on what happened 
on those trips, not only Mexico but also Central America and 
the Caribbean.
    We have a broad array of concrete partnership programs in 
the drug area. They are in the Department of Justice, 
Department of Health and Human Services, Department of Defense, 
our intelligence services. They involve binational border task 
forces. They involve extradition.
    Many of us believe that we have changed a 200-year mindset 
in a cooperative manner in which Mexico and the United States 
have decided to work together in the future, not only 
economically and politically but also on the drug issue. We did 
get 16 extradited out of Mexico last year, including two--for 
the first time in Mexican history--who were Mexican nationals. 
One of the principal four drug lords was expelled from the 
country, Juan Garcia Abrego, and is now serving a tremendous 
sentence here in the United States. There have been six more 
extraditions this year. I think in the future you will see more 
of them.
    But again, extradition must be in accordance with each 
nation's sovereign law, and there has been a considerable 
amount of unbalanced speculation in the press on this. What we 
do is the Attorney General puts together a packet by name on an 
alleged criminal, sends it to Mexico, and works that name. And 
then if they do not have charges outstanding, then we can 
extradite them.
    We are also about to change the process. We have discussed 
with the Mexican attorney general that we are going to explore 
and hopefully we will rapidly pass a new cooperative agreement 
in which we can extradite to stand trial someone who also has 
charges pending against them in the Mexican system. We have a 
similar agreement with several nations. So we will not let the 
evidence and the witnesses grow cold.
    If Mexico is going to charge a perpetrator, then when they 
try them, we will also extradite, try them, and return them for 
Mexican imprisonment. And then presumably, when they are freed 
from that sentence, they would come to us.
    I am very optimistic we are going to work in partnership on 
this issue.
    Senator Faircloth. Back to the bill, S. 40, that I have 
introduced, your answer was not very clear as to whether you 
would support it or not. The freedom of speech, or whatever 
that involves, is giving verbal descriptions. Would you support 
revoking the privilege of a doctor to participate in the 
Medicare-Medicaid governmental medical programs if they were 
giving these so-called recommendations without written 
prescriptions?
    General McCaffrey. Senator, I think I should be unclear in 
my answer to you.
    Senator Faircloth. Well, you have been.
    General McCaffrey. I think the Attorney General needs to 
study the 42-page opinion of this Federal district court judge. 
I welcome your intervention in this process. The form in which 
you might consider legislation should be held pending our 
analysis of the legal questions involved. I think that is the 
fairest answer to you, sir, that I can give.
    Senator Faircloth. Thank you, Mr. Chairman.
    Senator Campbell. I had about 25 or 30 questions I wanted 
to ask, but I did tell you I would get you out of here by noon 
for your appointment, and I have one, too. I am going to skip 
around a little bit, submit a bunch of questions to you that I 
would request that you give us something in writing on.

                           Prepared Statement

    Senator Faircloth. Mr. Chairman, I had an opening statement 
that I would like to submit for the record.
    Senator Campbell. Without objection, that will be included 
in the record.
    [The statement follows:]

                Prepared Statement of Senator Faircloth

    Mr. Chairman, I want to thank you for holding this 
important hearing to review the budget of the Office of 
National Drug Control Policy. I also want to welcome our 
distinguished witness, General Barry McCaffrey.
    Mr. Chairman, we all know how illegal drugs are devastating 
this country. Our inner cities have become war zones, torn 
apart by drugs and crime. And not just the inner cities. Drugs 
reach into every community, from Washington, D.C. to Clinton, 
North Carolina. What parent doesn't worry about the dangers of 
raising children in this drug-invested culture?
    I am pleased to have the opportunity to hear a progress 
report from General McCaffrey on this Administration's war on 
drugs. Quite frankly, I am not sure we are winning.
    Drug use is up since President Clinton took office, 
particularly marijuana use. It seems that many of the lessons 
that were learned in the 1960's and 1970's about the dangers of 
drugs are being un-learned by today's youth.
    I am particularly troubled by developments in California 
and elsewhere that legalize the use of marijuana. Following 
passage of California's Proposition 215 in last November's 
elections, so-called ``buyers clubs'' are selling marijuana to 
anyone who walks in the door, regardless of age.
    One recent article in the Washington Post noted that these 
buyers clubs do nothing to check whether or not their customers 
have a ``medical'' need at all. And the language of Prop 215 is 
so broad that ``medical need'' could be almost anything, even 
as trivial as a headache.
    To quote from the language of Prop 215, this statute which 
supposedly only legalizes marijuana for ``medical purposes'' 
also applies to: ``. . . migraine [headaches], or any other 
illness for which marijuana provides relief.''
    An initiative that was presented to the voters as helping 
relieve the pain and suffering of the terminally ill is quickly 
turning San Francisco, where many of these buyers clubs are 
located, into the next Amsterdam.
    I have introduced legislation to stop this dangerous trend 
towards legalization of marijuana through so-called ``medical 
marijuana'' initiatives.
    The Drug Use Prevention Act, Senate Bill 40, would close a 
dangerous loophole created by Prop 215.
    Doctors are already prohibited by federal law from writing 
a prescription for marijuana, but under Prop 215, patients who 
get a verbal recommendation from their doctor can obtain 
marijuana.
    If it is illegal under federal law for doctors to prescribe 
marijuana, it should be illegal for doctors to ``recommend'' 
marijuana as well. A doctor should not be able to avoid federal 
drugs laws by putting the prescription pad in his pocket and, 
perhaps with a wink and a nod, giving a ``verbal'' 
recommendation to smoke pot.
    My bill makes it clear that these kinds of recommendations, 
conducted by doctors in the course of their official duties, 
are also prohibited.
    Doctors who violate federal drug laws by making marijuana 
available to their patients would be denied access to the 
Medicare reimbursement system, and have their federal license 
to prescribe medicine revoked.
    These are the same kinds of punishments that already exist 
for doctors who commit fraud on the Medicare system.
    General McCaffrey, I know that you have spoken out about 
the dangers of marijuana. In fact, you have stated that there 
is currently no accepted medical use for marijuana, and that 
marijuana use is highly correlated with future use of addictive 
drugs like heroin and cocaine.
    I want to be sure that yours is not a lonely voice in the 
wilderness within this Administration. I hope to hear from you 
that this Administration will actively enforce federal law 
banning the use of marijuana, and I hope to hear that this 
Administration is focusing resources on this problem.
    I look forward to your testimony. Thank you.

                          Methamphetamine Labs

    Senator Campbell. Let me ask you first about the 
methamphetamine labs. As I understand it, they are very easy to 
set up, they are very mobile. They only cost maybe $100. There 
seems to be a huge increase nationally of seized labs. Within 
your ability to talk publicly about it, can you give the 
committee some information on how you intend to fight this very 
mobile kind of drug use?
    General McCaffrey. Senator, we have done a considerable 
amount of work. The Attorney General and I signed a joint 
methamphetamine strategy about a year ago, which we are now 
reviewing. As you know, the U.S. Congress has passed 
legislation in this area, thankfully, so we have now defined 
the precursor chemicals, penalties, and the kinds of drugs that 
are prohibited.
    We have had a regional methamphetamine conference out in 
San Francisco, in which we learned an awful lot from the six 
western States, in particular California and from California 
narcotics officers. This month, May 20 and 21, we will go to 
Omaha and I am going to host a national methamphetamine 
conference on prevention and treatment, law enforcement, 
environmental damage, and we will put out a report on that 
outcome.
    What is clear is that this is potentially the worst drug 
threat to ever face America. California, if I remember the 
numbers, busted more than 600 cooking operations last year. 
They have been very aggressive. It used to be a southern 
California biker-gang kind of drug. It is now the principal 
drug menace to America in Arizona, in Idaho, in southern 
California and San Francisco, in Hawaii. It has become the 
major drug threat in parts of the rural Midwest, Missouri, 
Kansas. It is simply astonishing.
    Its impact on human life is literally disgusting. It is 
ferociously and rapidly addictive. Crack cocaine is a 15-second 
acute high, powdered cocaine is 10 minutes, methamphetamine is 
6 to 15 hours and people are staying awake for 5 to 15 days 
straight while their personality unravels, tweaking behavior.
    It is also ferociously dangerous to handle and it is being 
cooked by people who are incompetent in handling chemical 
reactions. So we are saying, I do not know if this number is 
correct, that one out of six of these operations has a fire or 
explosion in a given year. Now they are cooking it not in the 
woods, far from human habitation, but in hotel rooms with 
hundreds of other people in the same hotel. And so the maid may 
encounter contamination of a lethality that approaches chemical 
warfare threats, hydriotic acid, red phosphorus, chemical 
reactions that if they go wrong can almost instantaneously kill 
you through asphyxiation, poisoning, or fire.
    They are pouring this stuff down sinks and in wells and in 
rivers and devastating the landscape. Some of this stuff stays 
active for 30 years, red phosphorus.
    It is hard to overstate the potential menace of all of 
this. We need a prevention program. We have legislation, we 
have a strategy and we are now seeking the involvement of local 
and State and Federal authorities in a task force approach.
    Senator Campbell. You mentioned it was the drug and lab of 
choice by the biker gangs. Heck, I already knew that. Has it 
been growing with inner-city gangs, too, using these labs?
    General McCaffrey. Well, it is sort of odd, it is growing 
in an unpredictable manner. It is not in Washington, DC, New 
York, Miami. It is in the rural Midwest. It is now Caucasian 
males who are doing the cooking. It is very little used by 
minority populations so far, thank God. It is the first drug in 
America that has more women than men addicted in several of 
these States.
    That and crack cocaine, as I look at the numbers, are the 
only two things in humanity's history that can shatter a 
mother's love for her own children. And so, some people are 
getting involved in this because it is a weight loss drug, and 
then they are addicted. It is of tremendous danger to us.

                             Certification

    Senator Campbell. Thank you. Let me skip to Mexico's 
certification, if I could.
    I have been concerned for some time about Mexico's decision 
not to let American DEA agents carry arms in Mexico. I would 
like to know what ongoing discussions there have been with 
Mexico so that we can be assured that our agents in Mexico are 
going to have some protection.
    General McCaffrey. Mr. Chairman, I would first of all start 
off by saying that Mr. Constantine, Mr. Freeh, Mr. Kelly in 
Treasury, those three principal Federal law enforcement 
agencies and I are in agreement. We, without question--and the 
Mexicans have signed onto this same point with us in an 
alliance between Presidents Zedillo and Clinton--we will 
protect our law enforcement officers. That is a principle that 
neither side will deviate from.
    I might add, it is not just in Mexico. The violence on our 
side of the border, the threat to our law enforcement officers, 
particularly in the four border States, is simply incredible. 
We had, as you know, this last year 116 police officers 
murdered in the line of duty, hundreds more shot or injured, 
23,000 assaults, and a lot of that was driven by drug behavior.
    In Mexico we have a considerable cooperative binational 
task force law enforcement effort. We are very concerned about 
the safety of both Mexican and United States law enforcement 
officers. Two hundred or more Mexican officers were murdered 
last year, a considerable number in the border regions. Of 
course, as we are aware of only too painfully, that is driven 
by $49 billion a year of United States drug purchases and, in 
many cases, by United States arms smuggling south into Mexico. 
That is how their police officers are being killed. So both 
sides are persuaded: we are going to protect our policemen.
    Now having said that, another principle that is in this 
counterdrug Alliance that the two presidents signed is an 
absolute respect for the sovereignty of the two nations. Only 
the police, prosecutors, and judges of the Nation will be 
allowed any authority on their own air, land, and sea space. I 
think, Mr. Chairman, that has been the problem.
    It also, I might add, involves some difficulty in talking 
about it in public. I would be glad to respond to your 
questions in more detail, but I think that is where we are. We 
are going to protect Mexican and United States police officers. 
We are going to ensure that no United States law enforcement 
officer enforces laws in Mexico. That is the other part of the 
sensitivity.
    Senator Campbell. I understand that. You know, I used to go 
to Mexico all the time years ago, 25 or 30 years ago, went 
myself a lot of times and never felt at risk, never felt 
endangered, got along just great down there. I have not been 
there for years and years. Then last winter I went to Tijuana 
with some Mexican friends and I want to tell you, if I had not 
had them with me, I would have felt in danger the entire time I 
was in that town, as an individual American being down there. 
Times have changed, that is for sure.
    Well, I did promise to try to wind this up at noon. I see 
Senator Shelby has shown up. I am going to submit the rest of 
my questions for you in writing, if you could answer them, so I 
can give Senator Shelby some time to ask you his questions.
    General McCaffrey. Yes, Mr. Chairman; I would be glad to.
    Senator Shelby. Mr. Chairman, I will try to be as quick as 
I can. I do want to say hello to General McCaffrey. I worked 
with him 2 years, when he was named drug czar, and Senator 
Kerry and I tried to help him everywhere we could on the 
appropriations process, as I know you will.
    I am sorry that I am late, but we have been involved in an 
intelligence briefing.
    General, you lay out five goals, as I understand it, in 
your national drug control strategy and support these goals 
with objectives to provide for what you call measurable 
progress, good friends, you know.
    I am pleased with this approach, I believe, because for the 
first time we will be able to have some kind of benchmark of 
what we are trying to accomplish. In the past, we talked a lot 
about doing things but did we know how to get there? Perhaps 
this is a mountain, at least a goal.
    The goals and many of the objectives that you lay out to me 
appear to focus on the key areas, education, interdiction, 
supply and demand, reduction and treatment and I think that is 
good. But I am puzzled somewhat, and you may have already 
talked about it before I got here, by one particular objective 
that you cite in your strategy, General.

                           Drug Legalization

    If you would look at goal one, objective eight, and it 
reads support and disseminate scientific research and data on 
the consequences of legalizing drugs. On page four of your 
strategy report from February 1997, you state that the 
rationale for this objective is ``Drug policy must be based on 
science, not ideology. The American people must understand that 
regulating the sale and use of dangerous drugs makes sense from 
a public health perspective.''
    Why or how, General, is that an objective in encouraging 
America's young people to reject illegal drugs? Is it part and 
parcel of an effort to combat efforts to legalize drugs like 
marijuana? Because I note in your testimony, on page 12, that 
combating efforts to legalize marijuana is important for all of 
us.
    How does this objective help achieve that and what does it 
mean that the ``medical scientific process'' is the only system 
which can determine drugs as safe and effective for therapeutic 
uses? Are you leaving the back door open on legalizing 
marijuana when you say this? I do not know. I would like to 
hear your comment?
    General McCaffrey. Senator, without overstating the case, I 
think we are facing a very well organized, very cunning, very 
well funded national legalization of drugs effort in this 
country.
    Senator Shelby. Absolutely, I think you are right.
    General McCaffrey. I think it has been done by people who 
recognize that if you read the polls, 85 percent of the 
American people are not going to accept the legalization of 
these drugs. So there has been an attempt to make it palatable 
and politically acceptable, a tricky manner.
    Senator Shelby. Make it easier to swallow?
    General McCaffrey. Absolutely. So I think personally, 
although I think there are a lot of sincere people involved in 
it, that propositions 200, 215 fall into this category. I have 
started to try and focus, in a scientific way, on the benefits 
of hemp as a product to save America, to try and understand 
from an agricultural and economic viewpoint whether or not this 
is the case.
    And that is really what is meant by that language, to not 
get flim-flammed by public relations ploys, but instead to fall 
back on what America does best, which is to rationally look at 
what is being offered in the democratic public debate.
    Senator Shelby. Rational is a good word here, is it not?
    General McCaffrey. Yes, sir; I think so.
    Senator Shelby. If the FDA came out tomorrow or even later 
this afternoon and said marijuana is safe for more general use, 
would you support it?
    General McCaffrey. Let me say unequivocally, as someone who 
has spent literally years in U.S. military hospitals, and I 
tell a lot of medical groups this, I have spent a lot more time 
as a patient than most of the doctors I deal with. One of the 
reasons we have such enormous confidence in the American 
medical system is because it is based on science.
    The AMA has been supportive of national drug policy 
throughout this whole argument. Now as I look at the people in 
the National Institutes of Health, Dr. Harold Varmus, a 
reasonably astute lad with a Nobel Prize in science, I think it 
is clear that he will approach this from a medical/scientific 
viewpoint.
    In the 1980's there were hundreds of investigations about 
smoked marijuana, 400-plus compounds. Out of that they 
determined that THC, one of the principal active components, 
might have medical benefit. So it was synthetically produced 
since 1985. It has been available for American physicians to 
use. It is not used a lot because in 1997 there are far too 
many effective therapeutic approaches for nausea from 
chemotherapy, for glaucoma, than to use THC. I think that we 
owe a rigorous evaluation of smoked marijuana. If there are 
other components that might be used or modified and offered to 
American medicine, so be it.
    Now there is no evidence that we have yet seen, that I am 
aware of, that suggests that smoking a carcinogenic 
psychoactive compound has benefit. Cocaine does. Cocaine is 
used for eye surgery. Methamphetamines are used for certain 
psychiatric problems and weight control. Again, I think we need 
a rational approach to this and we have to question where it 
belongs in the NIH and FDA.
    Senator Shelby. We all realize that substances are 
controlled for good reasons. To use a drug or any kind of drugs 
therapeutically, you know through the process of healing or 
medicine, is one thing. To use drugs for leisure, at the will 
of so-and-so, that is a totally different game; is it not, 
General?
    General McCaffrey. Yes.
    Senator Shelby. And in a sense, is that not what we are 
talking about?
    General McCaffrey. I think what we are doing is that we 
have allowed this to become a political debate by drug 
legalizers instead of trusting to American science, the NIH, 
the FDA, and American doctors. They deserve our trust.
    Senator Shelby. General, do you believe that the framework 
that you have set out here will allow you to adequately judge, 
within some reasonable amount of time, what is working and what 
is not working when resources need to be shifted to where they 
might be more effective, you know, one way or another? And how 
hopeful are you on this?

                          Performance Measures

    General McCaffrey. Senator, I think we have hard work to do 
on the performance measures of effectiveness. It has never been 
done. Frank Raines is committed to it. The President is 
committed to it. After some very blunt debate the executive 
branch has signed up for it. So our purpose is to develop such 
a system to be held accountable for achieving results.
    I do believe we are going to have to go through a growth 
period on this. I think we are going to write a plan, I am 
going to have it to you prior to October 1, that says: ``Here 
is how we intend to measure targets and outcomes.'' Then we are 
going to start measuring.
    Senator Shelby. This is a big departure from what we have 
done in the past?
    General McCaffrey. Yes, sir.
    Senator Shelby. We have talked about things but we have not 
really gotten down to the lowest denominator to measure them, 
have we?
    General McCaffrey. No; we have not.
    Senator Shelby. Not in the way you are talking about?
    General McCaffrey. No; now we may have some mistakes in it 
the first year. We may find out we are measuring the wrong 
thing. But at some point, you are quite correct, if a program 
does not work you need to throttle it back. If it is working, 
we need to reinforce success. That is our purpose.
    Senator Shelby. When you do measure progress, and I hope 
you will have a heck of a lot of progress, such as a decrease 
in the previous month's use for illicit drug use such as 
cocaine or a decline in drug-related homicides, I think it is 
important to have a standard that we measure this by. And I 
think that is what you are trying to set out, is it not, 
General?
    General McCaffrey. It is, and we have some good examples in 
the New York City Police Department where justice has been 
done. You have to make sure you measure the right thing. NYPD 
does not measure arrest or the kilograms of drugs seized. It 
does measure crimes that are indicative of the quality of life 
in the city.
    So I think that is our challenge. Dr. John Carnevale, and 
his 26 work groups, will figure out what our purpose is, what 
we are trying to achieve as an outcome, and then how do we 
measure that outcome.
    Senator Shelby. And what time period, the frame of time 
periods is important to measure, too; is it not?
    General McCaffrey. I think it is.
    Senator Shelby. Are we measuring it against where we are 
today, or what happened in the 1960's or 1970's or what? Or 
both?
    General McCaffrey. I think we will get a baseline and, in 
some cases, we will have data that may go back to the 1960's. 
In some cases it may be the first time we started tracking that 
information. So the most important point would be the baseline 
from where we start, because I think all of us are convinced 
that current rates of drug use and its consequences are 
unacceptable and need to come down. They are still historically 
at an unacceptable level.
    Senator Shelby. But whatever you measure and the results 
that you come up with, they have got to mean something. They 
have got to be meaningful because we have had a lot of press 
releases in the past, and you have seen it yourself, from not 
just this administration but others, too, said gosh, we are 
winning the war on drugs, we are doing this. When we knew 
basically we were losing the war on drugs in a lot of areas. 
Maybe making progress in some areas, wide open in others.
    General McCaffrey. Your point is well taken. At the same 
time, though, it always makes me uncomfortable. One of the 
reasons I have sidestepped the metaphor of a war on drugs is 
that if it were a war, we have not been losing it. The U.S. 
Armed Forces, the New York Police Department, college 
faculties, American business have reduced drug use enormously 
in the last 15 years, thank God.
    It is unacceptable where we are, and oh, by the way, our 
children are starting to use drugs again. So we should not be 
satisfied, but there have been results from this effort.
    Senator Shelby. General, I was struck, and you showed this 
ad--and I forgot what it was, but it was a child last year, 
dealing with medicine, whatever it was. You would know it 
better than I would, you know, do not play with matches, 
whatever it is, and do not do this. And drugs, what do you say? 
A big question. It was an effective ad.
    General McCaffrey. It was very powerful. That was the 
Partnership for a Drug-Free America.
    Senator Shelby. I remember when you came to the committee 
and you showed that, and I said whew, it was good.
    General McCaffrey. Very, very painful.
    Senator Shelby. Yes; that is what I thought. Are you still 
using something like that?
    General McCaffrey. We showed that again.
    Senator Shelby. Oh, you showed it earlier?
    General McCaffrey. Yes.
    Senator Shelby. I was gone, as the chairman pointed out.
    General McCaffrey. And I have a Partnership for Drug-Free 
America representative here. They and the Advertising Council 
of America will be the source of wisdom of historical 
experience on this campaign.
    Senator Shelby. Mr. Chairman, thank you for your 
indulgence.
    Senator Campbell. Thank you, General. We got you out of 
here pretty much on time. I am sorry you are going to be a 
little bit late for your appointment, but I am sure I can speak 
for the rest of the committee in telling you we are looking 
forward to working with you and hopefully we will look forward 
to a day when there is a big reduction in the drug use in this 
country. Thank you for appearing.
    General McCaffrey. Thank you, Mr. Chairman.

                          Submitted Questions

    Senator Campbell. We have additional questions that will be 
submitted in writing to be answered for inclusion in the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Campbell
                        drug prevention programs
    Question 1. I would like to take a moment to talk about youth drug 
prevention programs, for I am concerned with recent reports saying that 
one of the most widespread programs, D.A.R.E., is not working as well 
as we originally thought. Can you tell us why? How can we make 
improvements to the program and what would you recommend?
    Answer. Dare is a valuable means of teaching drug prevention while 
strengthening linkages between the police and the community. It is 
benefiting some 25 million U.S. children as well as 8 million 
youngsters in 42 other countries. A growing body of prevention research 
indicates that ``refusal-skills'' training is among the most effective 
drug-prevention approaches. D.A.R.E. incorporates this approach into 
its lessons, but we must be realistic about our expectations regarding 
D.A.R.E. or any other short-term prevention program. There is no one 
program that fits all children and all situations. Characteristics of 
effective programs and models for successful prevention may vary 
depending on developmental stages, target population, and whether the 
program is delivered in conjunction with other important elements such 
as policy and systemic change, family interventions, community anti-
drug coalitions, and media efforts. D.A.R.E. should be used in 
conjunction with other comprehensive approaches to show positive 
results. All children should receive drug education and prevention 
every year in a developmentally appropriate program that has been 
scientifically proven to work.
    Question 2A. I am concerned that if we are making the effort to 
keep our children from being influenced by drugs that we make a 
difference. Although I believe that not all programs will work in all 
areas, I do feel that there have got to be some common denominators 
which can guide the outcome of those efforts, being careful not to 
dictate from Washington. Along those lines, Mr. McCaffrey, are there 
currently any national standards or basic steps that all youth 
prevention programs must incorporate?
    Answer. Yes, there are national guidelines based on twenty years of 
science-based research that provide the ``principles'' to be applied in 
creating successful prevention programs. The National Institute on Drug 
Abuse (NIDA) has recently published a research-based guide to 
prevention programming, which reaffirms the findings of SAMHSA's 
congressionally mandated National Structured Evaluation of prevention 
programs. These science-based guidance documents are being disseminated 
to communities around the country.
    Question 2B. If there are national benchmarks, who establishes and 
evaluates them?
    Answer. HHS and the National Institutes of Health establish 
national benchmarks and have engaged in a rigorous research program to 
determine what really works. Additionally, ONDCP has established the 
development and implementation of a set of principles upon which 
prevention programming can be based as a major objective under its 
first goal of the National Drug Control Strategy, to educate and enable 
America's youth to reject illegal drugs as well as alcohol and tobacco.
    Question 2C. If there are not national benchmarks, what would it 
take to establish them?
    Answer. There are national benchmarks as discussed above.
    Question 3A. Positive outcomes are being seen in those programs, 
which increase a child's ability to fight peer pressure, help them to 
understand that they are not the only ones saying any to drugs [sic], 
teach them how to react to situations, and reinforcing these messages 
in all aspects of a child's life, through family, peers and community. 
These are programs like the Adolescent Alcohol Prevention Trial, the 
Life Skills Training Program, and Project Star or I-Star. To 
incorporate these types of activities into the current youth prevention 
programs, would it take a wholesale change in the way we are currently 
running the prevention programs, or would we just easily eliminate 
those that are not working?
    Answer. The programs listed are among these identified and 
highlighted by NIDA as effective in the recent research-based guide. 
What is needed is a more disciplined application of research results at 
the state and community level. As the research has shown, most 
individual programs need to be augmented with activities for the 
parents, peers, community and media as indicated. Some communities have 
very good resiliency characteristics and therefore do not need certain 
strategies. The importance of doing a risk assessment allows for 
tailoring of prevention programs at the delivery level. Some programs 
may in fact need to be eliminated if they are increasing risk factors 
in any manner. The vast majority of programs need assistance in the 
appropriate implementation of models, as prescribed in the empirical 
evidence.
    Question 3B. How hard would it be for us to incorporate these 
recommendations?
    Answer. Improving the effectiveness of prevention programs, both 
public and private, will require a commitment from local school 
districts, multiple agencies, community service providers and 
researchers. I believe the prevention field would welcome this 
challenge. Accountability will provide stable funding for the necessary 
drug prevention programs. The country will need them as we will see the 
largest population ever of young people age 12-18 in the year 2006. 
Currently there are 68 million under age 18. The prevention field has 
been employing rigorous evaluation and must continue to do so.
    Question 4. Mr. McCaffrey, I know that drugs are subject to fads 
just like anything else. Given this changing environment, how does 
ONDCP respond to these constantly changing trends?
    Answer. ONDCP keeps apprised of drug fads through its twice-yearly 
Pulse Check survey, which is a series of reports on drug use in 
selected cities across the nation. The Pulse Check provides valuable 
descriptions of the drug scene that informs researchers and policy 
makers in a timely manner. Additionally, the Pulse Check helps to 
predict needed interventions for both prevention and treatment. Needs 
assessments are mandated in the Substance Abuse Prevention and 
Treatment Block Grants (SAPT) and are shared with ONDCP. Another source 
is the Six State Consortium Project which shows trends at the state and 
substate levels for prevention planning purposes.
    Question 5. In your submitted testimony, you highlighted a chart in 
Appendix A, Figure A-3, titled ``Hemispheric Cocaine Seizures are 
Holding Steady.'' Can you tell us why there was such a dramatic drop in 
cocaine available for use between 1992 and 1993, whereas all other 
noted areas remained relatively stable?
    Answer. The amount of cocaine available is proportional to net coca 
cultivation in the source countries (Bolivia, Colombia and Peru). 
Between 1992 and 1993, a redistribution of coca growing areas within 
Peru reduced net Peruvian cultivation 16 percent (129,100 to 108,800 
hectares), consequently reducing potential coca leaf production in Peru 
by 28 percent (219,200 to 157,600 metric tons). During the same time 
frame, potential coca leaf production increased five percent in Bolivia 
(80,300 to 84,400 metric tons) and seven percent in Colombia (29,600 to 
31,700 metric tons). However, because Peru accounted for 65 percent of 
all coca leaf produced, these increases were not sufficient to offset 
the sharp decrease in Peruvian production. The net result was a 
decrease in worldwide potential coca leaf production by over 16 percent 
(329,100 to 273,700 metric tons), which, in turn, resulted in a 14 
percent net reduction in the amount of cocaine potentially available 
(835 to 715 metric tons). Concerning the causes of the relocation of 
coca cultivation in Peru, the National Narcotics Consumers Intelligence 
Committee (NNICC) Report 1995 (August 1996) notes: ``In 1993 and 1994, 
farmers moved out of the Upper Huallaga Valley (UHV), in part to escape 
insurgent activity, but other factors included soil depletion, plant 
disease, and a `gold-rush' mentality for new areas.''
                                 hidta
    Question 1A. What is the status of implementing the Rocky Mountain 
HIDTA?
    Answer. The Rocky Mountain HIDTA Executive Committee has been 
formed and meetings have been held. The Executive Committee has hired a 
director, Tom Gorman, currently Deputy Chief of the California Bureau 
of Narcotics. Director Gorman will report on July 1, 1997. The HIDTA 
headquarters will be in Denver. The Rocky Mountain HIDTA is in the 
process of selecting and training an intelligence staff. 
Representatives attended new HIDTA training sessions at the HIDTA 
Assistance Center in the Miami HIDTA. HIDTA staff will be selected and 
trained by July 1, 1997.
    Question 1B. What are some of this HIDTA's accomplishments to date?
    Answer. The Rocky Mountain HIDTA has formulated an initiative 
directed toward three threats: (1) the increasing number of traffickers 
with a nexus to the Southwest Border; (2) interdiction of distribution 
networks which have a harmful impact in the region; and (3) organized 
gangs actively involved in violent crime associated with illicit 
narcotic distribution. HIDTA staff have conducted research on the best 
practices of HIDTA intelligence sharing centers. The Rocky Mountain 
HIDTA intelligence sharing center will be activated this month. HIDTA 
representatives have met with most task forces in the Denver 
metropolitan area to inform them about this new program. With respect 
to training, the coordinator has arranged for six joint training 
classes. Law enforcement agencies from nearby jurisdictions outside of 
the HIDTA task force have requested and received training in 
intelligence and information sharing.
    Question 1C. What additional steps can be taken to support the 
HIDTA's satellite offices in Laramie, Wyoming, and Salt Lake City, 
Utah?
    Answer. The HIDTA Executive Committee has identified requirements 
for joint operations. The Rocky Mountain HIDTA intelligence sharing 
center will be establishing an intelligence sharing network with the 
offices in Laramie, Wyoming and Salt Lake City, Utah.
                   defense intelligence center study
    Question 1A. Mr. McCaffrey, during your testimony before the 
subcommittee, you stated that you were going to have the Defense 
Intelligence Center study, review, and submit a report to you on the 
amount of drugs coming into the United States. Can you please provide 
the committee with a specific outline of the goals and scope of this 
study and what you hope this study will provide?
    Answer. As I recall, during my testimony before the Subcommittee, I 
said that I was going to task the National Drug Intelligence Center 
(NDIC) to develop a methodology to evaluate the severity of the drug 
problem in various geographic areas (most likely counties) to assist in 
designating HIDTA sites, rather than a study on the amount of drugs 
coming into the United States. The methodology would consider, where 
possible, direct drug indicators (e.g., drug use prevalence, drug 
possession offenses, drug-induced deaths and morbidity), drug-related 
indicators (drug-related deaths and morbidity, suicides, crime), and 
demographics and other social indicators. We would then be able to rank 
each county within the United States (and graphically represent them) 
to determine where the most severe problems were occurring. This 
information would be considered when selecting future HIDTA sites. The 
study will be conducted using existing data from federal, state, and 
local sources.
    Question 1B. How much will this study cost, and is ONDCP going to 
pay for it out of its own budget?
    Answer. ONDCP estimates that this study will cost approximately 
$200,000. It will be funded through existing HIDTA funds. ONDCP will be 
tasking this study to its existing policy research contractor.
    Question 1C. What information will this study provide you that is 
not currently available?
    Answer. While the study is to be conducted using existing data, 
these data have never before been collated and synthesized for this 
purpose. We will have an extensive data base that can be used to 
geographically identify areas with the most severe drug problems. With 
existing computer mapping technology we will also be able to 
graphically represent these data. This information will not only be 
useful to the HIDTA selection process, but possibly to other federal 
priority-setting purposes. It also can be made available to the states 
who may have a particular interest in it for assistance in allocating 
block grant funds.
    Question 1D. Why was the Defense Intelligence Center the 
organization chosen to do this study, specifically, what attributes 
does this Center have that other organization do not, which makes them 
the appropriate choice to conduct such a study? How does this study 
overlap with the Drug Enforcement Agency already has done?
    Answer. Since my testimony ONDCP has determined, in consultation 
with NDIC, that NDIC is not the appropriate agency to conduct such a 
study. Instead, ONDCP has decided to task our policy research 
contractor, CSR, Incorporated with this project. CSR has more than 20 
years of experience in conducting substance abuse research for a 
variety of federal clients. They have served as ONDCP's primary policy 
research contractor for the past five years. As a contractor to the 
National Institute on Alcohol Abuse and Alcoholism, CSR conducted a 
similar study for county-level indicators of alcohol-related problems 
that has proven very useful to the states. Since this study is not 
concerned with an analysis of the amount of drugs coming into the 
United States, as the Subcommittee may have understood, there is no 
overlap with DEA's work.
    Question 1E. How will the Center have access to drug trafficking 
information that DEA has?
    Answer. Much of the data to be used for this study is publicly 
available and, therefore, readily available to CSR. Also, since the 
scope of the study is at the county level, any data used must be 
available for all U.S. counties. Most data that the DEA would have on 
drug trafficking probably does not meet this criteria. However, to the 
extent that the DEA has relevant data (e.g., STRIDE data), we do not 
anticipate any difficulty in obtaining it for analysis purposes. ONDCP 
and DEA have an ongoing arrangement for ONDCP to gain access to DEA's 
data excluding DEA operational data or other case sensitive data.
    Question 1F. Have you sought the Justice Department's reaction on 
this study, and if so, what is their position on involving the Defense 
Intelligence Center in this role?
    Answer. Given that ONDCP is using its own contractor, as discussed 
above, it is not necessary to discuss the study with DOJ.
    Question 1G. What impact, if any, will the Center's report have on 
existing HIDTA's?
    Answer. Results from the study will be shared with the existing 
HIDTA's which, in turn, could use them for evaluation purposes. 
However, the primary purpose of the study is to assist ONDCP in making 
future HIDTA site selections based on the severity of the drug problem.
                             media campaign
    Question 1. Given that ONDCP's mission is to coordinate the 
national drug policy across all federal agencies, do you plan to have 
those agencies with a hand in fighting drug use among our nation's 
youth, provide some of the $175 million requested for the youth media 
campaign?
    Answer. ONDCP has proposed that the Youth Media Campaign be funded 
within ONDCP's fiscal year 1998 appropriation without funds from other 
agencies. However, other federal agencies which play a role in 
preventing youth substance abuse such as the Departments of Health and 
Human Services and Department of Justice will derive benefits from this 
campaign. ONDCP's proposal involves negotiating free ``matching'' air 
time for PSA's devoted to appropriate messages about drugs and drug-
related issues, including youth substance abuse, drug-related crime, 
drug-related AIDS, mentoring, and parenting programs.
    Question 2. Do you currently have specific commitments from the 
private sector to provide their portion of the $175 million for the 
youth media campaign?
    Answer. ONDCP has not begun to negotiate with networks and media 
organizations at this time. If Congress appropriates funds for the 
Campaign that will be the responsibility of the media buying service 
with which ONDCP intends to contract. Such commitments are typically 
made when ad time is purchased and are based on negotiations. However, 
some networks have already committed to maintaining the existing level 
of anti-drug public service messages. In addition, at least seven major 
(non-media) national corporations have already contacted ONDCP 
indicating their willingness to become involved in a ``match'' 
arrangement whereby they would purchase air time for ONDCP messages.
    Question 3. How do you believe we can continue to receive pro bono 
anti-drug advertising if we begin to pay for those ads?
    Answer. Whereas ONDCP appreciates the extensive amount of public 
service time currently contributed by the media at the network and 
local levels, a great proportion of this time is in the middle of the 
night or at other times when children are not watching. It is important 
to note that even if public service time were to be increased 
substantially, a tailored, targeted campaign of the type ONDCP is 
proposing is impossible to undertake without paid ads. ONDCP must be 
able to target specific youth audiences which watch TV at specific 
times.
    As noted above, two major networks have indicated they will not 
decrease their existing anti-drug public service commitment should we 
purchase time for anti-drug ads. We expect other media organizations to 
follow. Other networks have indicated they will increase their in-kind 
public service contributions. We anticipate negotiating a greater 
percentage of free time in local or regional markets than on network 
television.
             interdiction efforts and mexico certification
    Question 1A. Mr. McCaffrey, I am aware that you lobbied the White 
House and Congress on recertifying Mexico, something which, as a 
Western Senator, concerns me because those of us in the West aren't 
convinced that Mexico is doing all it can in the war against drugs. I 
felt strongly enough to introduce a bill, S. 457, which gives countries 
seven months to prove they're holding up their end of the certification 
deal, whereby specific standards are to be met before the President re-
certifies them and if they don't meet the standards, aid is cut off. 
What are your views on the current drug certification process?
    Answer. As discussed above, the drug certification process provides 
one tool among many to help reduce the flow of illegal drugs across our 
borders. The sections of law which provide a foundation for the 
certification process require two major actions. They require the 
administration to report annually to Congress about the nature of 
cooperation between the United States and the major drug producing and 
transit countries, and they require non-discretionary penalties to be 
imposed against major drug producing and transit countries which are 
not certified.
    Considering the increasing importance of our bilateral drug control 
relationship with key countries such as Mexico, we have moved to other 
mechanisms in addition to the annual certification findings and the 
International Narcotics Control Strategy Report (INCSR) to advance drug 
policy and keep Congress informed and actively involved. We have 
briefed Members of Congress about developments in Mexico, and we will 
be providing a detailed report about progress in key areas in 
September. We also have raised the profile of our counterdrug policy 
with Mexico through the creation of the U.S.-Mexico binational High 
Level Contact Group. More recently with the signing of the U.S.-Mexico 
Counter-drug Alliance our two countries set out concrete goals toward 
which we are working cooperatively, and agreed to produce a strategy to 
reach those goals by the end of this year.
    Close cooperation with both Congress and with a foreign government 
has advantages, although it is resource intensive, and is a model we 
ought to consider in determining how certification can be improved.
    Question 1B. Given the recent House and Senate opinions of the 
Administration's recertification of Mexico, do you believe the current 
certification process is working?
    Answer. The legislation introduced in the House and Senate with 
regard to Mexico reflected deep frustration with the quantity of drugs 
entering the United States across the Southwest Border, violence along 
the border, corruption and apparent Mexican inability to reduce the 
flow significantly. Perhaps most importantly it reflected a belief that 
Mexico lacks the political will to act seriously against drugs. 
However, as discussed above, the certification process is working.
    In reaching a decision to certify Mexico we had to determine 
whether or not Mexico was cooperating fully with the United States or 
acting unilaterally to accomplish the goals and objectives of the 1988 
U.N. Drug Convention. On the basis of its accomplishments, Mexico 
earned certification in 1996. Drug seizures were up, eradication was 
the best in the world, kingpins were arrested, a Mexican citizen was 
extradited to the United States for the first time, and the Congress 
enacted landmark new counterdrug legislation. More importantly, the 
leadership put drug cooperation with the United States at the top of 
their agenda, explicitly recognized the threat of drug trafficking as 
the major national security threat to Mexico.
    The decision to certify Mexico is both legally and pragmatically 
correct; Mexico was allowed to cooperate more effectively with the U.S. 
than if we had decertified Mexico or certified on U.S. national 
interest grounds.
    Cooperation is not easily quantified. Quantity of drugs seized does 
not translate directly into a measure of national cooperation. The 
number of arrests is not significant in itself unless those arrested 
control drug trafficking networks and the arrest results in disruption 
of the network. Even arrest of a major trafficker is insignificant if 
the arrestee continues doing business from prison.
    Cooperation ought to be determined by how well a nation manipulates 
its political, economic, law enforcement, and judicial systems to 
reduce the impact of illegal drug trafficking and consumption. By that 
measure Mexico has taken significant steps, some in cooperation with 
the United States. It is engaged in a thorough reform of its law 
enforcement system, which, if successful over the next several years, 
will lead to an end to impunity for drug traffickers. The military is 
currently playing a more important role in counterdrug activities and 
is performing well. Drug policy with the United States is coordinated 
through the U.S.-Mexico Binational High Level Contact Group, and we are 
working to develop a shared drug strategy by the end of the year. The 
High Level Contact Group has greatly improved military-to-military 
relations, information sharing and the development of bilateral border 
task forces, which would not have been possible if we had decertified 
Mexico or certified on the basis of U.S. national interest.
    Question 1C. How would you improve it?
    Answer. The certification process is an important mechanism, though 
not the only one, to motivate foreign governments to work against drug 
trafficking. The process is also a device which requires the Executive 
Branch to report timely and relevant information to Congress. We can 
work towards improving our consultations with Congress consistent with 
Congressional interests and needs.
    Although the certification process is extremely complex, it plays a 
pivotal role in U.S. drug policy. It should not be changed without a 
thorough examination of the likely consequences of change, intended and 
unintended.
    Question 1D. Would ONDCP and the Administration support S. 457?
    Answer. Though this legislation has not been cleared through the 
White House, ONDCP feels that the proposed legislation, which 
introduces the option of a probationary certification, would decrease 
the discretionary authority of the President to impose sanctions on 
other countries. Rather than offering greater leverage in relations 
with drug producing and transit countries, a probationary period would 
lock the U.S. into a position regarding aid and development bank 
support early on in the process and could jeopardize opportunities to 
develop alternative solutions to the international drug trafficking 
problem. While we certainly agree that close Executive/Congressional 
communication on counterdrug initiatives is imperative, the proposed 
legislation is not a viable option to promote such communication. As a 
result, ONDCP would not support S. 457.
    Question 2A. Mr. McCaffrey, is your agency responsible for 
estimating the amount of drugs that come into this country each year 
and for tracking the success of our interdiction efforts?
    Answer. ONDCP is responsible for the overall assessment of the 
success of all of U.S. drug control programs. In 1994, ONDCP created 
the position of U.S. Interdiction Coordinator (USIC) to oversee all 
international interdiction activities. The USIC has recently chartered 
and taken sponsorship of the Interagency Counter Drug Performance 
Working Group (ICPAWG) to better measure the performance of our 
interdiction resources and activities.
    ONDCP coordinates the establishment of programs and processes to 
both implement the National Drug Control Strategy and assess the 
effectiveness of those efforts. We do not prepare the estimates of the 
amounts of drugs coming into the United States but we do establish the 
requirements for making such estimates. Making these estimates is a 
complex and difficult task that involves many of our drug control 
agencies such as the State Department, Central Intelligence Agency, and 
the Drug Enforcement Administration. Though we have had estimating 
processes in place for many years, we are currently making refinements 
to give us better, more reliable and more timely information on illegal 
drug production and shipment to the United States.
    Question 2B. Can you explain to the subcommittee how you know the 
amount of drugs coming to this country if we only know we're catching a 
small portion of it?
    Answer. Estimates of the amount of cocaine, heroin and marijuana 
coming to the U.S. are developed routinely by the drug intelligence 
community. Each year an imagery-based estimate is made of illicit 
narcotics cultivation in various parts of the world such as Burma, 
Afghanistan and Colombia for heroin, and Peru, Bolivia and Colombia for 
coca. The extent of opium and marijuana growing in Mexico is also 
assessed. This statistical methodology is highly reliable and provides 
a comprehensive baseline of illicit narcotics crops.
    Estimating the amount of illegal drugs actually produced from the 
available crops is less precise. Information such as local consumption 
of raw or semiprocessed coca or opium and efficiency in converting raw 
material into cocaine or heroin is difficult to obtain. Programs such 
as the Drug Enforcement Administration's ``Operation Breakthrough'' are 
assisting us in better understanding how efficient the cocaine 
producers are. Other interagency efforts are underway to expand and 
improve our information (e.g., non-U.S. demand, particularly for 
cocaine). Estimating how much and by what means the drugs actually come 
to the U.S. is an ongoing process carried out by the principal drug 
intelligence components: DEA, CIA and Customs. The estimates are based 
on information developed through foreign intelligence collection, law 
enforcement operations, open source information, and analysis.
    Our current estimates are that most marijuana produced in Mexico, 
Colombia, and other Central/South American countries (about 10,000 
metric tons) is destined for the U.S. We estimate that about 600 metric 
tons of cocaine are available for worldwide consumption. A significant 
portion of the cocaine leaving South America has historically come to 
the U.S. The increasing demand for cocaine in Europe and other parts of 
the world make it that much more difficult to estimate how much cocaine 
is actually destined for U.S. markets. The total estimated worldwide 
heroin production is approximately 400 metric tons annually. We 
estimate that the U.S. market demand is about 10-15 metric tons.
    Question 2C. How then do you know what percentage we're actually 
interdicting?
    Answer. The percentage of what we are interdicting of cocaine and 
marijuana is based on the amounts of drugs seized compared to the 
estimates of what is coming to the U.S. The seizures include those made 
in the transit zone (both on the high seas and in the transit 
countries) as well as at the borders of the U.S.
    Question 3. What are your interdiction Priorities for this year and 
is there a way for us to measure whether or not you're reaching these 
goals?
    Answer. Our interdiction priorities are to disrupt the flow of all 
illegal drugs we know about by interdicting them along the route from 
production area to domestic U.S. markets. Areas of major emphasis are 
the source countries, the Southwest Border (U.S.) and the eastern 
Caribbean, Puerto Rico and south Florida. Each year we compare 
disruptions in the flow (seized and jettisoned and destroyed drugs) 
with previous years' results to assess our interdiction effectiveness. 
This comparison, however, presents only a partial picture of 
effectiveness because changes in the amount, type and direction of the 
flow can also affect the level of disruption. For example, an increase 
in drug seizures may occur because the traffickers greatly increase the 
flow through an area. In this case increased seizures could mean less 
effectiveness instead of more. Accordingly, our proposed performance 
targets will seek to measure flow disruptions as a ratio of estimated 
drug flow from the source country, across the transit zones, and within 
the U.S. This innovative approach will require applying new modeling 
techniques to the intelligence we now receive and will be a priority in 
implementing our new performance measurement system.
                        interagency coordination
    Question 1A. Can you describe what types of authority ONDCP 
currently has to influence its interagency coordination efforts?
    Answer. ONDCP's current authorization contains a number of 
provisions that permit us to influence interagency coordination 
efforts. These include:
  --Development of the National Drug Control Strategy, 21 USC 1504, in 
        consultation with the heads of the National Drug Control 
        Program agencies.
  --Development of goals, objectives, and priorities for supply 
        reduction and demand reduction programs in the National Drug 
        Control Strategy, 21 USC 1504(b).
  --Development of performance measures for the National Drug Control 
        Strategy that evaluate the efficacy of all domestic and 
        international programs in relation to the goals and objectives 
        of the Strategy, 21 USC 1504(a)(7).
  --Development of a consolidated National Drug Control Program budget 
        and certification of the adequacy of the annual budget requests 
        of National Drug Control Program agencies to implement the 
        National Drug Control Strategy, 21 USC 1502(c).
  --Request National Drug Control Program agencies to include in their 
        annual submissions funding requests for specific initiatives 
        that are consistent with the President's priorities for the 
        National Drug Control Strategy and annual budget certification 
        by ONDCP, 21 USC 1502(c)(5).
  --Monitor implementation of the National Drug Control Program by 
        conducting program and performance audits and evaluations, and 
        requesting assistance from the Inspector Generals of relevant 
        agencies in audits and evaluations, 21 USC 1502(d)(7).
  --Issue funds control notices to National Dug Control Program agency 
        accounts, 21 USC 1502(f).
  --Certify policy changes by National Drug Control Program agencies, 
        21 USC 1503(b).
    Question 1B. Are there currently gaps in ONDCP's authority which 
make it more difficult for ONDCP to fulfill this mission and how can 
Congress help?
    Answer. The Administration has submitted legislation to Congress to 
reauthorize ONDCP. This bill contains the following provisions that 
will enhance ONDCP's effectiveness in coordinating the national drug 
program in the interagency process:
  --Amends current law to require the submission of a comprehensive 
        ten-year plan for reducing drug abuse and its consequences in 
        the United States.
  --Provides for an annual report to Congress on the implementation of 
        the ten-year strategy and performance measures. Permits 
        modification to the ten-year strategy as may be necessary to 
        meet new and varying challenges, as well as to improve, create, 
        or eliminate programs in supply and demand reduction efforts.
  --Amends current law to permit five-year drug budget projections to 
        support long-range planning for national drug control program 
        agencies.
  --Codifies the role played by the Director, ONDCP in the 
        certification process of drug production and trafficking 
        nations.
  --Clarifies ONDCP's jurisdiction over activities to reduce the 
        underage use of tobacco or alcoholic beverages. Reducing the 
        use of alcohol and tobacco by youth has long been recognized as 
        key to effective drug prevention and education programs.
  --The Administration's bill proposes a new performance measurement 
        system to evaluate the effectiveness of the National Drug 
        Control Strategy and federal drug control programs.
  --The bill establishes the HIDTA program as a separate program within 
        ONDCP and gives the Director the authority to issue regulations 
        for the efficient operation of the HIDTA program.
    Question 1C. How do you help multiple agencies coordinate the same 
or similar programs?
    Answer. In addition to the above mentioned tools for coordination, 
ONDCP employs two others: the ongoing development of the National Drug 
Control Strategy, and extensive, ongoing programs of consultation and 
information exchange. This takes many forms:
    1. Consulting public officials. Every cabinet officer and all 
departments and agencies participated in the development of strategic 
goals and objectives and in the formulation of supporting budgets, 
initiatives, and programs. Similarly, views and suggestions were 
solicited from every Member of Congress. At the state and local levels, 
ONDCP sought input from each state governor along with those from 
American Samoa, Puerto Rico, and the U.S. Virgin Islands, and from 
mayors of every city of 100,000 or more people. Views from public 
officials overseeing federal, state, and local prevention, education, 
treatment, law enforcement, correctional, and interdiction activities 
were also requested.
    2. Convening or participating in conferences and meetings. ONDCP 
briefed participants in numerous gatherings of organizations like the 
National Governors' Association, the Conference of Mayors, the National 
Association for the Advancement of Colored People, the American Medical 
Association, the American Bar Association, Boys and Girls Club of 
America, D.A.R.E., PRIDE, National Families in Action, and the National 
Association of Police Officers. ONDCP also participated in major 
international conferences in Geneva, Sao Paulo, and Vienna. 
Additionally, ONDCP convened or participated in the following 
conferences and meetings to promote greater coordination of 
international, federal, state, and local anti-drug efforts; consider 
emerging problems; and consult experts as the 1997 Strategy was being 
developed.
    (a) The President's Drug Policy Council. Established by the 
President in March 1996, this cabinet-level organization met on May 28, 
1996 and December 12, 1996 to assess the direction of the National Drug 
Control Strategy and discuss drug policy initiatives. Members of the 
Council include heads of drug control program agencies and key 
presidential assistants.
    (b) Southwest Border Conference. El Paso, Texas, July 9-10, 1996. 
Federal, state, and local representatives met to discuss the challenge 
of stopping drug trafficking across the 2,000 mile-long U.S.-Mexico 
border.
    (c) HIDTA Conference. Washington, D.C., July 15-16, 1996. 
Participants considered how the congressionally-mandated HIDTA program 
can better coordinate regional law enforcement efforts.
    (d) USIC/J-3 Counterdrug Quarterly Conference. Washington, D.C. 
These meetings provided a forum for executive-level discussions of U.S. 
international drug interdiction programs.
    (e) California Proposition 215/Arizona Proposition 200 Briefing. 
Washington, D.C., November 14, 1996. State, local, and community 
leaders briefed federal department and agency representatives on the 
recently-passed ballot initiatives as the federal response to both 
measures was being formulated.
    (f) Entertainment Industry. Hollywood, California, January 9-10, 
1997. ONDCP met with leaders in the entertainment industry to discuss 
how the national drug prevention effort might be supported by the 
creative talents of the broadcast, film, and music industries.
    (g) Methamphetamine Conferences. San Francisco, California, January 
10, 1997. The purpose of this regional meeting was to examine the 
growing methamphetamine problem in western states, review progress made 
since the April 1996 release of the National Methamphetamine Strategy, 
and consider appropriate responses. A follow-on national 
methamphetamine conference was held May 28-29, 1997 in Omaha, Nebraska.
    Question 2. Can you outline to the committee what are the most 
difficult areas of interagency coordination?
    Answer. The areas which pose the greatest challenge to interagency 
coordination are those in which multiple agencies have developed 
multiple, often duplicating, roles and missions over a long period of 
time. In areas such as these, an overall policy coordination agency 
such as ONDCP is critical to ensuring that available assets are used in 
the most effective manner possible. Perhaps the two most important 
areas where ONDCP has taken the lead in coordinating multiple agencies 
are in the development of an Intelligence Architecture and the 
Southwest Border Initiative.
A. Southwest Border Initiative
    If a single geographic region were to be identified as a microcosm 
of America's drug problem, it would be the two thousand mile-long U.S.-
Mexican border. Cocaine, heroin, methamphetamine, and marijuana all 
cross into the United States here, hidden among the 84 million cars, 
232 million people, and 2.8 million trucks that the Customs Service 
estimates cross the 38 ports along the border. American and Mexican 
ranchers are continually threatened and often harmed by violent bands 
of drug runners openly crossing their property.
    Significant reinforcements have been committed to the substantial 
resources already focused on the Southwest Border. Our challenge is to 
design and implement an overarching operational strategy that better 
organizes our interdiction operations. We must focus resources, provide 
timely and accurate intelligence on the activities of drug traffickers, 
develop evidence for prosecutions, and respond to shifting drug-
trafficking patterns.
B. Intelligence Architecture
    We face an enormous organizational challenge at our borders and in 
the air and maritime approaches to the United States. Our status as the 
preeminent commercial nation in the world makes us particularly 
vulnerable to drug trafficking. More than 400 million people enter the 
United States every year; any one of them can carry several million 
dollars worth of heroin. Four hundred million tons of cargo also enter 
our country every year. Illegal drugs represent 0.00001 percent of that 
traffic. Our challenge is to stop the one millionth part that 
represents illegal drugs without significantly affecting legal commerce 
and movement, which represents the life-blood of our country. We have 
the capacity to be successful until we not only appreciably lessen the 
quantity of drugs on our streets but also make serious inroads into the 
ability of international thugs to continue operating. Such progress 
requires commitment, organization, and dogged effort.
    Currently, many agencies and inter-agency groups collect, process, 
analyze and use intelligence on drugs and the movement of drugs. Our 
challenge as a government is to ensure that information acquired and 
processed by one agency is made available to all agencies who have need 
of it, while at the same time ensuring that sources and methods are 
protected. This means that we must find a way to get intelligence 
gathered by national assets down to the local sheriff on the border in 
time to make arrests. At the same time, we must ensure that this 
intelligence is preserved in accordance with the criminal justice 
system's evidentiary standards so that traffickers can not only be 
arrested, but can also be convicted. All of this must be done while 
still preserving the secrecy of collection methods, be they radio and 
wire intercepts, airborne radar tracking or human intelligence. The 
challenge is immense. It requires an agency such as ONDCP, which can 
take the long view without considerations of turf, to integrate and 
implement it.
    Question 3. I understand that ONDCP is currently in the process of 
working with all of these agencies to develop performance standards in 
our effort to combat drug. What is the current status of this effort 
and the interagency involvement in this project?
    Answer. More than 100 agency representatives have worked over the 
past six months to develop performance targets and measures for the 5 
Goals and 32 Objectives of the National Drug Control Strategy. ONDCP 
established five steering groups to oversee the development of targets 
and measures for each goal. Twenty-one working groups, chaired by 
agency representatives, developed the targets for each Strategy 
Objective. Under the supervision of steering groups, the working groups 
have performed exceptionally well and have drafted 103 targets and 
measures. These draft targets and measures are now being reviewed by 
ONDCP prior to submittal for formal interagency review. ONDCP intends 
to submit a report to the Congress by the end of the Summer discussing 
the proposed Performance Measurement System.
    Question 4. What areas do you see as current successes and failures 
of ONDCP Interagency Cooperation?
    Answer. It is important to note that one of the reasons the 
President adopted a 10-year National Drug Control Strategy was that it 
was not seen to be effective to try to gauge success or failure on a 
year-by-year basis. America's drug abuse problem is a long-term 
problem, and the solution to it must be similarly long-term. With that 
caveat in mind, we are seeing promising indicators in the following 
areas:
    Countering the Spread of Methamphetamines.--Meth, ``the poor-man's 
cocaine'', has the potential to ruin the lives of an entire generation 
of young Americans. ONDCP and other federal agencies spotted this trend 
early on. With the cooperation of many state and local agencies as well 
as members of Congress, ONDCP held two methamphetamine conferences to 
examine divergent areas such as treatment, precursor control, law 
enforcement and prevention. Based on these conferences, agencies have 
formed working partnerships to target the spread of methamphetamines 
from traditional hot spots on the Pacific coast. The payoff was in the 
most recent statistical indicators of methamphetamine use, which showed 
a marked decline.
    Adoption of the Ten-Year Strategy.--This was an innovation in 
government, and marked a new way of thinking about solving interagency 
problems. The President's plan to reduce drug abuse in the long-term is 
one of the boldest examples of interagency coordination in recent 
years.
    These successes, however, do not mitigate against what is surely 
the most disturbing aspect of drug abuse in America--the rapid rise of 
drug abuse among our children. ONDCP has proposed a $175 million 
advertising campaign targeted specifically at our young people. This 
campaign will deliver a powerful anti-drug message to 90 percent of our 
young people four times a week in prime time. The aim of the campaign 
is to foster a disapproval of drug abuse and a heightened awareness of 
the risks of drug abuse. Our research has shown us that, if these two 
conditions are met, then youth drug use will decline.
                       methamphetamine and heroin
    Question 1. What is ONDCP's view of the problems of 
methamphetamines and heroin?
    Answer. These are two of the most dangerous drugs we face. 
Methamphetamine is an incredibly addictive drug that is cheaper than 
cocaine and creates a longer high. It is a powerful central nervous 
system stimulant that creates extreme paranoia and aggressiveness. It 
severely reduces and sometimes destroys normal brain processes making 
treatment extremely difficult. The chemicals used to make this drug 
create toxic environmental hazards that pose dangers to people and 
property. It is being made in small labs in the U.S. (while Mexican 
traffickers move large quantities of the drug from super labs). The 
greatest use is in the West and Southwest but is gaining popularity in 
the Midwest. Anecdotal data indicates more use by women than men. 
Although methamphetamine abuse is a small part of the overall national 
drug problem it has the potential to become the next crack epidemic if 
it is not checked. This is why it is important to stop this emerging 
drug threat. We must act now if we are to prevent a future drug 
epidemic from methamphetamine or some other synthetic drug.
    If domestic methamphetamine production decreases, the demand for 
the drug in the U.S. will likely be met primarily by large, Mexican 
methamphetamine organizations. To meet this potential growing demand 
for foreign produced methamphetamine, large loads of Mexican-produced 
methamphetamine crossing the border by drug transportation groups will 
become more common.
    U.S. recognition of this growing threat was highlighted in recent 
conferences sponsored by ONDCP in Omaha and San Francisco. Cooperative 
efforts to control precursor chemicals and to work with Mexico to 
improve their ability to discover and investigate methamphetamine 
manufacturing and smuggling operations are underway.
    The heroin interdiction challenge is enormous. Potential global 
production has increased about 60 percent in the past eight years to 
about 360 metric tons. In 1995, worldwide heroin seizures totaled 32 
metric tons, less than 10 percent of the global production potential. 
The U.S. demand is approximately ten tons of heroin which is consumed 
by 600,000 addicts; it represents but a fraction of the production 
potential. U.S. heroin seizures in 1995 were just 1.3 metric tons. Our 
heroin control efforts must take this reality into account.
    A powerful narcotic, the typical user today consumes more heroin 
than ever because snorting or smoking high purity heroin is easier than 
injection. However, needle sharing is a transmitter of HIV. Severe drug 
dependencies develop--mental and physical--causing a person to commit 
many crimes to find dollars to purchase the drug. It remains readily 
available in many cities and Colombia's heroin trafficking has 
increased. We believe there are 600,000 chronic users in the U.S. 
Although our 1996 Pulse Check found that most users are older, chronic 
abusers, we are concerned that heroin use not spread among younger 
people. ONDCP is working to expand treatment capacity for these 
addicts.
    Question 2. What additional steps can ONDCP take to help sheriffs 
and police officers in fighting methamphetamines and heroin in Colorado 
and the Rocky Mountain Region?
    Answer. Further refinement and development of the Rocky Mountain 
HIDTA program is our most important effort in the region. Designated in 
October of 1996, we have launched two major initiatives in training and 
intelligence gathering. The law enforcement training program is firmly 
underway. The intelligence program--designed to improve information 
gathering and intelligence sharing--has recently obtained its technical 
equipment and its analysts are being hired and trained.
    At the federal level, we are developing methamphetamine-specific 
education and prevention materials that will be made available at the 
local level. We have awarded $10 million to the DEA, EPA and NIDA to 
develop programs that will assist local officials. We are updating the 
anti-methamphetamine strategy which is due out early next year. The 
refined strategy will allow us to better organize and coordinate at the 
national and regional levels. We are encouraged that recent data from 
the National Institute of Justice's Drug Use Forecasting Program (DUF), 
which indicate that methamphetamine use among drug arrestees decreased 
42 percent (3.8 to 2.2) over the past year; a promising indicator that 
our comprehensive strategy is working at the local level.
                       counter drug technologies
    Question 1A. Last month, this subcommittee held a hearing on the 
federal law enforcement agencies within the Treasury Department. An 
important part of that hearing was a display of some of the latest 
technologies which are being used to fight crime. Law enforcement 
officials in Colorado, including Sheriff Pat Sullivan of Arapaho 
County, have expressed interest in the work being done by ONDCP's 
Counter Drug Technology Assessment Center (C-TAC). Can you provide the 
subcommittee with an overview of the technologies being developed by 
the Center that may be useful for state and local law enforcement?
    Answer. Technologies being developed by C-TAC for state and local 
law enforcement stem from pilot projects funded by C-TAC and managed by 
a state and local organization. The most successful of these endeavors 
has been in the application of recent significant advancements made in 
the performance and capabilities of personal computers to the law 
enforcement tasks associated with financial crimes (State Attorney 
Generals in Texas, Arizona, and Utah), trafficker communications 
patterns (landline, cellular clones, and pagers--New York State 
Organized Crime Task Force), and drug-related violent crimes (Pinellas 
County Sheriffs' Office, Florida).
    C-TAC also conducts performance evaluations of drug detection 
systems and produces an evaluation report. These reports are 
distributed to law enforcement agencies (federal, state and local) to 
assist in buying the correct drug detection systems.
    Question 1B. What about in the area of methamphetamine detection? 
Is the Center working on technologies that would help detect and shut 
down methamphetamine labs?
    Answer. The number of clandestine drug laboratories seized in the 
United States has been increasing dramatically. Of particular concern 
is the illicit production of methamphetamine which has risen in the 
Midwest and Rocky Mountain regions. To support the increased activities 
of the Drug Enforcement Administration and regional law enforcement, C-
TAC is sponsoring programs that include the development of portable/
mobile platforms to provide on-site forensic analytical capability. 
This will keep valuable criminal and intelligence information from 
being lost when a clandestine laboratory is seized. Additionally, a 
comprehensive database related to drug preparation along with the 
precursor chemicals and drug preparation equipment is being developed. 
C-TAC is supporting development of a system to rapidly disseminate data 
to field agents to assist in identifying the different types of drug 
labs and safety requirements recommended. C-TAC and DEA are also 
coordinating on other advanced technological efforts in locating and 
dismantling drug laboratories that will be available to state and local 
law enforcement.
    Question 1C. Colorado is seeing an increase in heroin shipments 
coming up from Mexico. Are there technologies that could assist law 
enforcement in identifying these drug traffickers and their heroin 
shipments?
    Answer. C-TAC is addressing the issue of drug trafficking and the 
ability of technology to help law enforcement restrict such 
trafficking. One program develops the capability to provide remote 
communications to law enforcement officers in all types of terrain 
including rugged geographical areas like Colorado. Preliminary analysis 
of such capabilities is being presently undertaken by C-TAC with site 
visits in the states of Washington, Idaho and Colorado. C-TAC is also 
developing methods for communications among regional law enforcement 
task forces with non-standard communication equipment to enable 
regional anti-drug trafficking operations to be successful. Initial 
models have been placed in southern California law enforcement 
agencies.
    Question 1D. My understanding is ONDCP would like to change the 
title of Chief Scientist at the Center to `Director of Technology'. It 
seems that this change would place less emphasis on the importance of 
anti-drug technology. Could you explain the proposed change to the 
subcommittee?
    Answer. ONDCP's reauthorization legislation proposes a number of 
changes to the current statutory authority for the Counterdrug 
Technology Assessment Center (C-TAC), all of which are designed to 
enhance its role in the development of anti-drug technology. The 
Administration's bill proposed to change the title of ``Chief 
Scientist'' to ``Director of Technology'' to reflect ONDCP's current 
organizational chart. This organizational chart reflects the expansion 
of ONDCP's staff to 154 (124 FTE's and 30 DOD detailees) and alignment 
of staff responsibilities. C-TAC remains a special component that 
reports directly to the Director, ONDCP.
    The reauthorization proposal reflects the increasingly important 
involvement by C-TAC in the development of drug demand reduction 
technologies. This includes supporting biomedical research into the 
development of medications to prevent and reduce drug dependence and 
abuse. These exciting activities complement C-TAC's traditional role in 
supporting supply reduction efforts through research into nonintrusive 
inspection systems; improved border surveillance, detection, 
monitoring, and apprehension capabilities; and improving drug 
intelligence activities.
    The reauthorization proposal also contains new authority providing 
C-TAC support for ONDCP's efforts to develop and implement a system of 
measures of effectiveness for programs implementing the National Drug 
Control Strategy. The involvement of C-TAC in the national drug control 
performance measurement system is key to insure that appropriate anti-
drug technology considerations are included by national drug control 
programs agencies in the implementation of the Strategy.
                    fiscal year 1998 budget request
    Question 1A. The Administration is proposing to spend $16 billion 
in fiscal year 1998 on anti-drug efforts. Can you briefly explain those 
efforts for the committee?
    Answer. The Administration's proposal, summarized by each major 
functional area of the budget, is presented in the table below:

                                         [Budget Authority in Millions]                                         
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year--                       
                                                    ------------------------------------------------------------
                   Drug function                                                   1998      1997 to 1998 change
                                                     1996 actual      1997     President's ---------------------
                                                                    enacted      request     Dollars    Percent 
----------------------------------------------------------------------------------------------------------------
Criminal Justice System............................     $7,164.9     $7,835.5     $8,126.5     $291.0        3.7
Drug treatment.....................................      2,553.8      2,808.7      3,003.5      194.8        6.9
Drug prevention....................................      1,400.7      1,648.0      1,916.5      268.5       16.3
International......................................        289.8        449.7        487.6       37.9        8.4
Interdiction.......................................      1,321.0      1,638.6      1,609.7      -28.9       -1.8
Research...........................................        609.2        631.9        673.5       41.5        6.6
Intelligence.......................................        114.5        146.4        159.4       13.0        8.9
                                                    ------------------------------------------------------------
      Total........................................     13,454.0     15,158.9     15,976.8      817.9        5.4
----------------------------------------------------------------------------------------------------------------
Detail may not add to totals due to rounding.                                                                   

    The President's fiscal year 1998 request for $16 billion reflects 
the following priorities: reducing youth drug use, reducing the 
consequences of hardcore drug use, reducing drug-related crime and 
violence, stopping the flow of drugs at U.S. borders, and reducing 
domestic and foreign sources of supply.
  --Reducing Youth Drug Use. The centerpiece of our national 
        counterdrug strategy effort remains the prevention of drug use 
        by our children. Youth-oriented prevention programs today can 
        significantly reduce the number of addicted adults who will 
        cause enormous damage to themselves and our society tomorrow. 
        Major initiatives targeting illegal drug use by youth and 
        underage drinking and smoking include:
                  National public education campaign. ONDCP is 
                developing a national public education campaign to 
                supplement existing anti-drug public service 
                announcements developed by the Partnership for a Drug 
                Free America and other organizations and carried by 
                broadcast and print media. This effort will encompass a 
                broad public education campaign that warns our youth of 
                the hazards of using illegal drugs and emphasizes the 
                advantages of drug-free lifestyles.
                  Youth, drugs and driving initiative. The Department 
                of Transportation and ONDCP are developing an 
                initiative to address the problem of young people 
                driving under the influence of illicit drugs.
                  Enhanced school-based prevention programs. The 
                federal government, in partnership with state and local 
                governments and the private sector, will continue to 
                develop options to improve the effectiveness of drug 
                prevention education and to ensure that funds are used 
                as effectively as possible.
  --Reducing the Consequences of Hardcore Drug use. Hardcore drug users 
        comprise about 20 percent of the drug using population, yet 
        consume over two-thirds of the supply of drugs. By reducing the 
        number of dependent hardcore drug users, we can reduce the 
        health, welfare, and criminal consequences of illegal drug use. 
        Major program initiatives targeting hardcore users include:
                  Effective rehabilitation and treatment programs. 
                Efforts will continue to expand treatment capacity 
                inside and outside the criminal justice system in order 
                to prevent the problems of hardcore drug use from 
                overwhelming our health and criminal justice systems.
                  Anti-cocaine medications development. ONDCP, in 
                collaboration with the National Institute on Drug 
                Abuse, is sponsoring research to develop an artificial 
                enzyme that would block cocaine's effect on the brain. 
                Clinical trials are anticipated by the year 2000.
  --Reducing Drug-related Crime and Violence. A disproportionate number 
        of the more than 12 million property crimes and almost two 
        million violent crimes that occur each year are committed by 
        drug users or traffickers. Major programs targeting the drugs 
        and crime relationship include:
                  Increased police presence. More police and innovative 
                approaches to policing, such as Community Policing, can 
                enable communities to reduce drug related crime and to 
                support local prevention and treatment efforts.
                  Expanded drug courts. Drug courts have proven their 
                worth in showing that court-ordered rehabilitation and 
                treatment programs can be successful in reducing drug 
                use, drug crime, and alleviating prison and jail 
                overcrowding.
                  Implementation of prison drug testing. New Department 
                of Justice guidelines require states to develop anti-
                drug plans for prisoners and parolees over the next 
                year. States that do not comply with the new guidelines 
                by March 1, 1998, will lose federal prison grant 
                dollars.
                  Improved High Intensity Drug Trafficking Area (HIDTA) 
                programs. Properly targeted, the HIDTA program offers 
                greater efficiency and effectiveness in countering drug 
                effects in particularly troubled areas. The 
                Administration is responding to Congressional interest 
                in expanding and improving this program by developing a 
                comprehensive methodology for earmarking priorities of 
                needs, working with the Justice Department's Organized 
                Crime Drug Enforcement Task Force Program.
  --Stopping the Flow of Drugs at U.S. Borders. Unless we shield our 
        borders from the flow of drugs, the United States will never 
        stem illegal drug use. Interdiction is the key to stopping 
        illegal drugs from crossing our borders and reaching our 
        neighborhoods. Major initiatives supporting this effort 
        include:
                  Programs to stop drug trafficking across the 
                Southwest Border. Drug traffickers are clearly 
                exploiting the extensive legitimate commerce and 
                traffic that crosses the busiest border in the world. 
                ONDCP began a comprehensive review of the federal 
                effort to counter drug smuggling at the Southwest 
                Border with a conference in El Paso in July 1996. These 
                efforts will continue to be priorities for funding over 
                the five-year budget planning period.
                  Strategy to close the Caribbean ``back door''. The 
                Administration will continue to expand law enforcement 
                investigations and establish flexible maritime and air 
                interdiction programs to respond to drug trafficking in 
                this region.
                  Hardening of vulnerable drug entry points. The 
                Administration will develop a comprehensive 
                coordinating capacity that allows federal resources to 
                be focused more efficiently to prevent drug traffickers 
                from importing illegal drugs.
  --Reducing Domestic and Foreign Sources of Supply. Working with 
        source and transit nations offers a great prospect for 
        eliminating foreign sources of supply. Cocaine, heroin, and 
        recently methamphetamine, are illegal drugs produced outside 
        the United States that cause the greatest harm to our citizens. 
        Reducing the availability of these drugs is a priority. 
        Initiatives supporting these efforts include:
                  Reduction of illegal coca cultivation in Peru. 
                Targeting Peru for an intense program that comprises 
                economic development, eradication, improving the rule 
                of law, and sustaining and supporting the political 
                will to attack the drug trade is a top international 
                drug policy priority.
                  Bilateral cooperation with Mexico. The High Level 
                Contact Group established by the Federal Government in 
                March 1996 has provided a productive framework for 
                addressing drug issues. The United States will work 
                with the Mexican Government, recognizing concerns about 
                Mexico's sovereignty, to enable it to withstand the 
                corrupting influence of drugs.
                  Reduction of heroin production and trafficking. U.S. 
                access and influence is extremely limited in Burma, 
                Afghanistan, and Laos--the key heroin producing 
                countries. Efforts are underway to work against heroin 
                trafficking organizations in cooperation with other 
                regional partners, including China, and to develop a 
                consensus in the area that will support development of 
                a regionally-integrated anti-heroin effort.
                  Attack on international criminal organizations. 
                Coordinated interagency approaches to target major drug 
                kingpins have proven to be successful. Law enforcement, 
                supported by intelligence efforts, will continue 
                efforts to disrupt and dismantle major kingpins and 
                their organizations.
                  Reduction of international money laundering. The law 
                enforcement agencies charged with disrupting money 
                laundering schemes can help disrupt and destroy drug 
                trafficking organizations by attacking their finances. 
                The U.S. government will continue to tighten its own 
                regulations and enforcement procedures to freeze, 
                secure, and confiscate cash and criminally derived 
                assets.
    Major drug-related funding initiatives in the President's fiscal 
year 1998 request include the following:
  --National Media Campaign. The President's budget seeks to fund a 
        national youth media campaign targeting illegal drug 
        consumption by youth through the $175 million provided in 
        ONDCP's Special Forfeiture Fund. This initiative would rely on 
        high-impact, anti-drug television advertisements aired during 
        prime-time to educate and inform the public on the dangers of 
        illegal drug use.
  --Safe and Drug Free Schools. $620 million is requested for fiscal 
        year 1998, an increase of $64 million (11.5 percent) over the 
        fiscal year 1997 appropriation. New resources would provide 
        grant assistance to governors and state educational agencies 
        for drug and violence prevention programs.
  --Coast Guard. $389 million is requested in fiscal year 1998, an 
        increase of $53 million (16 percent) over fiscal year 1997. 
        These new resources will enhance maritime interdiction 
        operations in the Caribbean and Puerto Rico and provide 
        resources for Operation STEEL WEB.
  --Community Oriented Policing (COPS). $510 million in drug-related 
        resources is requested in fiscal year 1998, an increase of $41 
        million (9 percent) over fiscal year 1997. COPS serves as the 
        vehicle for the Administration's strategy to fight violent 
        crime and drug use by increasing the number of state and local 
        police officers on the streets.
  --Prevention and Treatment Research. $522 million is requested in 
        fiscal year 1998 for the National Institute on Drug Abuse 
        (NIDA), an increase of $33 million over fiscal year 1997. These 
        additional resources will further ongoing drug prevention and 
        treatment research efforts of NIDA and the Office of AIDS 
        Research.
  --Drug Courts. $75 million is requested in fiscal year 1998, an 
        increase of $45 million (150 percent) over fiscal year 1997. 
        These grants support state and local criminal justice agencies 
        to provide court-mandated drug treatment and related services 
        to nonviolent offenders.
  --INS Southwest Border Initiative. $367 million in drug-related 
        resources is requested for the Immigration and Naturalization 
        Service (INS) in fiscal year 1998, an increase of $48 million 
        over fiscal year 1997. This request provides for an additional 
        500 Border Patrol agents to stem the flow of illegal drugs and 
        illegal aliens across the Southwest Border.
  --International Narcotics Control and Support for Peru. The fiscal 
        year 1998 budget includes $214 million for the State 
        Department's Bureau of International Narcotics and Law 
        Enforcement Affairs (INL). Included in the INL budget is $40 
        million for Peru, an increase of $17 million over fiscal year 
        1997.
    Question 1B. Does the Administration's spending priorities in these 
areas reflect ONDCP's spending priorities.
    Answer. ONDCP plays an important role during the Administration's 
deliberations on the budget to ensure that key drug initiatives receive 
adequate consideration. ONDCP fully supports the President's fiscal 
year 1998 budget and the associated spending priorities.
    Question 2A. What is ONDCP's process in developing the annual Drug 
Strategy?
    Answer. Section 1005 of the Anti-Drug Abuse Act of 1988, as amended 
(Public Law 100-690) requires the President to develop and annually 
submit to Congress a National Drug Control Strategy. ONDCP is 
responsible for preparing the Strategy for the President. The law also 
requires the Director of ONDCP to formulate the Strategy in 
consultation with a wide array of experts and officials, including the 
heads of the national drug control program agencies, the Congress, 
State and local officials, and representatives of the private sector. 
Developing and implementing the Strategy is a process that continues 
throughout the year, and the consultation process for the 1998 Strategy 
is currently ongoing. The consultation process includes input received 
by the Director during his travels around the country speaking with 
individuals, organizations and associations about the Strategy, through 
the responses to more than 1,300 letters sent to individuals in the 
public and private sector specifically seeking their input on the 
Strategy, through conferences and meetings, and from the hundreds of 
unsolicited letters received every year. Each year, starting in the 
fall, ONDCP staff collate and process all of the information obtained 
through this consultation process and incorporate it into the initial 
draft of the Strategy. This draft is distributed to representatives of 
each of the primary drug control agencies for comment. Revisions are 
incorporated and the final Strategy is produced for submission with the 
President's budget.
    Question 2B. How does ONDCP solicit, collect and use input from 
state and local law enforcement?
    Answer. The solicitation process involves the sending of a letter 
from the Director to appropriate individuals. In the letter the 
Director notes the significance of the Strategy to the nation's effort 
against drugs and the valuable contribution to that effort that the 
addressee makes, and asks that written input to the Strategy be 
submitted.
    The first step in this process is to develop a mailing list. Given 
the large number (several thousand) of state and local law enforcement 
agencies throughout the country, it is not possible to send each agency 
a letter. Rather, an attempt is made to identify leading law 
enforcement officials involved with drug policy issues. This is done 
through ONDCP's Bureau of State and Local Affairs (including HIDTA 
staff), who closely coordinate activities with state and local law 
enforcement on a regular basis, and through other ONDCP staff who 
regularly interact with law enforcement through conferences and 
research activities. The consultation process for law enforcement 
officers is similar to that used for other topic areas (e.g., 
treatment, prevention, interdiction, source country), with appropriate 
ONDCP staff providing input to building the mailing list.
    The letters are sent prior to the Strategy drafting process in the 
fall. Last year the letters were sent on November 4. Responses are 
received and incorporated throughout the period during which the 
Strategy is written. Last year while the solicitation asked for 
responses by November 17, they were reviewed through January. Last year 
over 100 responses were received.
    As Director, I review each response and highlight suggestions that 
are to be incorporated into the Strategy. Input received at other times 
of the year through unsolicited letters, conversations with concerned 
parties, etc., are processed similarly. A report is prepared annually 
summarizing the input received from the public-and private-sector 
consultation process.
    Question 2C. Will you assure me today that Colorado and other 
states will be consulted further in advance and allowed a sufficient 
time to respond? Would you inform me as to how you intend to change the 
current policy in order to ensure this?
    Answer. Yes, I can assure you that Colorado and other states will 
be consulted further in advance and allowed a sufficient time to 
respond. Steps have already been taken to ensure that this will happen. 
For example, in December of last year ONDCP and the Bureau of Justice 
Assistance hosted a meeting at ONDCP with the State Administrators of 
the Byrne Memorial Grants to discuss ways in which the states can 
assist in forming federal drug control policy. ONDCP has taken 
immediate steps to provide state Administrators with appropriate ONDCP 
staff telephone numbers, and to assure them that their voices would be 
heard in the development of the 1998 Strategy. Additionally, the letter 
soliciting input for the Strategy will be distributed earlier to permit 
sufficient time for a complete and thoughtful response.
    Question 3A. Can you tell the committee which agencies have 
detailees working at ONDCP and which agencies have the largest number 
of detailees?
    Answer. ONDCP has civilian detailees and military assignees. We 
have civilians from the Department of State (1); the Department of 
Transportation (1); the Department of Health and Human Services (1); 
the National Science Foundation (1) and the Federal Bureau of 
Investigations (1). The military assignees are from the various 
branches of service within the Department of Defense (24).
    Question 3B. What is the typical length of assignment of these 
detailees? Is there any limitation on the amount of time detailees can 
be assigned to your agency?
    Answer. The typical length of an assignment is one year for 
civilian detailees with the possibility of a one-year extension. The 
extension must be a cooperative agreement between ONDCP and the sending 
agency. Immediately prior to the appointment of Barry McCaffrey ONDCP 
had no military assignees. Military personnel are assigned for three 
years.
    Question 3C. Does ONDCP provide these people with any training, and 
if so are these costs borne by ONDCP or the sending agency?
    Answer. The civilian detailees are provided training through the 
sending agency. However, if training is required by the Executive 
Office of the President to benefit ONDCP, the cost can be absorbed by 
ONDCP if the funds are available. Additionally, any professional 
development training required by the military assignee is funded by 
DOD. Military personnel assigned to ONDCP neither require nor receive 
any special training prior to assignment.
    Question 3D. What number of these are at ONDCP and their salaries 
are paid for by their originating agency and how may of them have their 
salaries paid for by ONDCP?
    Answer. Of the five civilian detailees, ONDCP reimburses salaries 
for three. The other two civilian detailees salaries are paid by their 
originating agencies.
    Question 4A. There is funding outlined in the budget request which 
indicated that the base is fully funded. Is your base fully funded?
    Answer. Our fiscal year 1998 budget request has sufficient funding 
to support the salary and benefits as well as the other requirements of 
154 staff, 124 FTE and 30 detailees.
    Question 4B. How many positions (FTE) are unfilled?
    Answer. Twenty-five of the 124 FTE positions are unfilled.
    Question 4C. What would it take to fill those positions?
    Answer. Recruitment has been ongoing. The following information 
specifies where we are in the process to date: Ten of the unfilled 
positions will be advertised in the near future; job announcements for 
six vacancies will close this month; interviews are ongoing for two 
vacancies; candidates are being sought for one remaining PAS position; 
one PAS is being vetted by the administration; and confirmation is 
pending for one PAS position. Four selectees are pending approval by 
the Administration (i.e., drug test results, security clearances, 
etc.).
    Question 4D. Is the amount requested to maintain current levels 
accurate? What will all of this funding be applied to?
    Answer. The ONDCP fiscal year 1998 budget request of $18,016,000 
will provide sufficient resources ($11,546,000) to support the salaries 
and benefits of 124 FTE (154 positions). The Travel object class 
request of $600,000 will cover the cost of staff and invitational 
travel, an increase of $75,000 over the fiscal year 1997 requested 
reprogrammed amount. The Transportation of Things object class request 
of $28,000 includes resources for miscellaneous moving expenses, 
freight and express charges. The Rent, Communications, and Utilities 
object class request includes GSA rent payments of $1,900,000 and 
communication and utility costs of $294,000. The Printing and 
Reproduction object class requires $302,000 for the printing of the 
National Drug Control Strategy and other publication requirements. The 
Other Services object class request of $2,889,000 supports personnel 
training, equipment maintenance, building security, the facilities 
contract to operate ONDCP's telecommunications center, and the 
Director's protection service. The Supplies and Materials object class 
request of $122,000 will allow ONDCP to purchase the supplies, 
materials, and publications required. The Equipment object class 
request of $335,000 will allow the purchase of required office 
equipment, personal computers and secure communications equipment.
    Question 4E. When President Clinton took office he issued Executive 
Order 12837 that mandated the reduction of administrative costs, as 
well as personnel over a four year period. ONDCP bore the brunt of this 
mandate with the Executive office. fiscal year 1997 was the last year 
of the Order, will you have to continue to carry out the mandated 
reductions in fiscal year 1998?
    Answer. Executive Order 12837 mandated that over a four-year period 
ending with fiscal year 1997, agencies shall submit budget requests 
that reflect no less than a 14 percent reduction in administrative 
expenses from the amounts made available for fiscal year 1993 adjusted 
for inflation. OMB has defined administrative expenses to reflect all 
non-payroll costs with the exception of GSA rent and furniture. Through 
fiscal year 1997 ONDCP administrative categories reflect a decrease of 
45 percent from amounts obligated in fiscal year 1993. Executive order 
12837 ends with the close of fiscal year 1997.
    Question 4G. Can you tell the committee the status of any unfilled 
Senate confirmed positions? How close are you to having these positions 
filled?
    Answer. Currently candidates are being sought for the Associate 
Director of the Bureau of State and Local Affairs. A short list has 
been developed and we anticipate that a nominee will be identified in 
the very near future. Confirmation is pending for the nominee Deputy 
Director for the Office of Demand Reduction: Patricia McMahon. The 
Senate Committee on Labor and Human Resources intends to hold a hearing 
on the nomination shortly. A candidate has been selected for the 
position of Deputy Director for the Office of Supply Reduction who is 
in the process of being vetted by the Administration.
    Question 5A. Mr. McCaffrey, in fiscal year 1997, the federal 
government will spend $15 billion on the fight against drugs. Recently, 
however, the GAO reported to Congress this past March, that although 
we've demonstrated some positive results, there needs to be more 
research done on understanding the elements of effective prevention and 
treatment programs. In your submitted testimony, you mention that in 
fiscal year 1998, the National Institute on Drug Abuse is requesting 
$522 million for this type of research.
    Can you briefly describe this research and when you expect some 
initial results?
    Answer. NIDA is conducting a wide variety of prevention and 
treatment research projects that will be supported with the requested 
funds. Of the total $522 million requested for NIDA, $217 million are 
for projects that support Goal 1 of the Strategy (i.e., prevention); 
these include:
  --Neurobiology of Addiction. This is continuing research on the 
        neurobiological mechanisms for drug abuse that sparked the 
        search for the brain's opioid receptors and their natural 
        ligands.
  --Drugs and the Brain. Advances in molecular biology and neuroimaging 
        have allowed researchers to visualize the effects of drugs on 
        the brain and to use drug probes to specify where drugs go in 
        the brain, how long they remain there, and how long brain 
        dysfunction remains after drug use ceases. These techniques 
        will ultimately be translated into tremendous improvements in 
        prevention and treatment.
  --Medications Development. NIDA's top priority remains the 
        development of an effective cocaine medication or ``cocaine 
        blocker.'' NIDA/NIH supported scientists have identified and 
        genetically specified the major receptor site where cocaine 
        works on the brain, and have discovered many of the mechanisms 
        of action both at the receptor and the molecular levels. In 
        addition, NIDA will continue research toward development of 
        potential new therapeutic compounds, and toward development of 
        additional medications for opiate addiction.
  --Determinants of Drug Taking Behavior Among Children and 
        Adolescents. NIDA is proposing to use the basic science of 
        development to identify the determinants of drug taking 
        behaviors among children and adolescents, and apply these 
        findings to implement effective prevention and treatment 
        approaches.
    Of the $522 million requested for NIDA, $307.9 million is for 
projects that support Goal 3 of the Strategy (i.e., treatment); these 
include:
  --Treatment Improvement. NIDA has established major programs to 
        identify, evaluate, and develop pharmacological and behavioral 
        therapies for drug addiction. As the breadth of NIDA-supported 
        research is expanded, they anticipate that novel approaches 
        from such areas as molecular biology, developmental and 
        cognitive psychology, and social learning theory, will present 
        opportunities to improve treatment efficacy.
  --Behavioral Treatments. Behavioral therapies often remain the only 
        available effective treatment approaches to many drug problems, 
        including cocaine addiction, where there are no viable 
        medications yet. NIDA continues to assess the value of 
        integrating behavioral therapies with medications and to 
        support studies to match specific types of patients to 
        particular behavioral interventions.
  --Health Services Research. Through this program NIDA is increasing 
        its focus on the organization and financing of drug abuse 
        treatment, especially as it relates to national studies or 
        alternative delivery systems including managed care and managed 
        behavioral health care systems.
  --HIV Infections and AIDS. The goal of NIDA's research program on 
        HIV/AIDS remains to reduce HIV transmission that is related to 
        drug abuse. NIDA research has demonstrated that drug abuse 
        outreach and intervention programs are highly effective in 
        reducing behaviors associated with HIV/AIDS.
  --Minority Populations. Racial and ethnic minority groups are 
        disproportionately impacted by drug abuse and its sequelae, 
        including AIDS. NIDA continues to support research to better 
        understand the bases of cultural differences in drug-seeking 
        and use; to develop new and enhance existing outreach/
        intervention approaches focused on racial and ethnic 
        minorities; and to develop new, and adapt existing, drug abuse 
        treatments shown to be effective with the general population to 
        meet the special cultural needs of racial and ethnic minority 
        groups.
    This research is ongoing as are the reporting of results. For 
example, results are routinely published on NIDA's HIV/AIDS 
intervention/outreach program that have had great impact on programs 
around the country. The timing of other results is more difficult to 
determine. For example, the development of a cocaine blocker is a 
lengthy and complex process that will involve lengthy clinical trials, 
peer review, and FDA approval. However, NIDA believes it is on the 
verge of developing such a medication that should be available within 
the next ten years.
    Question 5B. What do you believe is the likelihood that they will 
receive all of the $522 million requested?
    Answer. We cannot speculate on the likelihood of whether NIDA will 
receive all of the $522 million requested. However, we fully concur 
with NIDA on the importance of this research to the nation's health and 
well being and believe that it is critical to implement the goals and 
objectives of the 1997 National Drug Control Strategy.
    Question 5C. Will this research, once completed, enable you to make 
programmatic decisions? How and if not, then why not?
    Answer. As this research is completed it will be assessed by NIDA 
and others on its scientific merit and for its relevancy to 
programmatic decision making. We fully expect it to provide NIDA's 
program managers and individual state and local prevention and 
treatment program managers with valuable input. For example, we expect 
the development of a cocaine blocker to have tremendous impact on 
individual programs. Additionally, the research on minority 
populations, treatment improvement, medications development, HIV/AIDS 
outreach/intervention, and behavioral treatments are all expected to 
have significant ramifications for programmatic decisions as existing 
programs are evaluated and new ideas are tested. The results of this 
research will be used to evaluate program effectiveness to decide which 
programs work and which should be discontinued.
                                 ______
                                 
                  Questions Submitted by Senator Kohl
                          ondcp budget request
    Question 1. ONDCP is projecting a budget request in fiscal year 
2002 of $23 billion. Based on that projection, it would appear that 
ONDCP is not anticipating any success in resolving the drug problem and 
moving into a maintenance state. Is this a correct analysis of your 
projected request?
    Answer. A federal drug control budget of $23 billion is not a 
funding level that has been recommended or coordinated through an 
inter-agency process within the Administration. Although there have 
been notional discussions of possible fiscal year 2002 funding levels, 
the Administration has taken no official position on resources that 
will be required for drug control purposes in fiscal year 2002. We are 
beginning the process of constructing a five-year drug budget. This 
will require detailed input from each drug agency and department. For 
example, to close the treatment gap over the next several years, we 
will need a comprehensive analysis from the Department of Health and 
Human Services of the combination of programs to meet this objective, 
and an annual estimate of resources required to fund these programs. 
The five-year budget for fiscal year 1999 to fiscal year 2003 will 
incorporate this analysis and will be included in the 1998 National 
Drug Control Strategy.
    The drug control program may eventually reach a maintenance state, 
but that decision has not been made. Conceivably, as the Strategy 
succeeds in reducing the drug problem in the outyears, the budget could 
be reduced, except for those resources required to ensure that the drug 
problem does not return.
    Question 2. The Director has requested a desire for a five-year 
budget process. What exactly is being requested? Would you submit a 
Presidential request for an advance appropriation? Would drug control 
agencies be bound by these five-year estimates? If not, how does this 
request differ from the five-year projections required now?
    Answer. ONDCP's five-year budget will be a planning document. It 
will show funding requested by the President for the coming fiscal 
year, and anticipated resource needs for each of the four succeeding 
years. This proposal is considerably broader than current law, 
providing greater structure to this process and placing a greater 
responsibility on departments and agencies to participate in long-term 
planning. Further, this is not a proposal to alter the current 
appropriations process. No advance appropriations will be requested. 
Also, funding estimates for agencies may be revised as the five-year 
plan is updated each year, based on new challenges encountered. For 
example, the Administration is formulating a plan to provide for 
greater enforcement at and between ports-of-entry on the Southwest 
Border. This plan will involve additional resources for the Border 
Patrol. Initial funding plans covering fiscal year 1999 to fiscal year 
2003 may be revised, as the trafficking situation warrants, when the 
Administration presents its drug control plan for fiscal year 2000 to 
fiscal year 2003.
    Question 3. Could publishing five-year budget projections limit the 
ability of agencies to reflect programmatic successes indicated by a 
leveling or reduction in spending? Wouldn't this send a signal to those 
profiting from drug trafficking and sales where the emphasis is moving 
or weakening?
    Answer. Although the White House will have significant program 
detail associated with the five-year drug budget plan for each agency, 
and this information will be available to the Congress, published 
public documents will aggregate much of this information. This should 
mitigate the potential problem of signaling particular program changes 
in the outyears to our drug trafficking adversaries.
    Question 4. Under the projected increased allocation to the Drug 
Strategy, goals will be changed. Please explain how the projections for 
this reallocation were developed?
    Answer. The basic five goals of the Strategy have not changed. In 
fact, the goals are being proposed for a decade-long approach to 
confront America's drug problem. By way of background, funding used to 
be presented by major function, rather than by Strategy goal. Now ONDCP 
publishes spending estimates by both major function and by Strategy 
goal. Funding by goal is principally associated with the following 
spending functions:
    Goal 1--Prevention
    Goal 2--Domestic Law Enforcement
    Goal 3--Treatment
    Goal 4--Interdiction
    Goal 5--International and Domestic Enforcement
               pharmacological and behavioral treatments
    Question 1. I have read that the National Institutes of Health are 
establishing programs to identify, evaluate, and develop 
pharmacological and behavioral therapies for drug addiction. Are these 
approaches similar to the programs and pharmacological aids provided 
for nicotine addition?
    Answer. Treatment for nicotine addiction generally embraces two 
modalities: medications (nicotine polacrylax gum and nicotine 
transdermal patch) and cognitive behavioral interventions. Treatments 
for drug addictions are similar to that of nicotine treatment, but 
because of the complexities of poly-drug abuse, the success rates are 
not as profound.
    For the treatment of opiate addiction, methadone has been the 
medication of choice since 1964. In 1990, LAAM (1-alpha-acetyl-
methadol) was approved for treatment of opiate addiction as well. Both 
medications prevent withdrawal symptoms and drug hunger as well as 
blocking the euphoric effects of short-acting narcotics such as heroin. 
Methadone must be given once in a 24-hour period, while LAAM is a 
longer acting medication requiring dosing every 48 hours. Research has 
demonstrated increased effectiveness when medication therapy is 
combined with psychotherapy and life skills training. Naltrexone also 
has been shown to be effective in the treatment of opiate addiction. 
Marketed as Rivia, naltrexone has recently been shown effective in 
treatment of alcohol addiction.
    For the treatment of cocaine, research continues with 
buprenorphine. This medication is a partial agonist--a synthetic opioid 
that has been found to reduce both opiate and cocaine use in patients 
who abuse both substances. Critical in the treatment of cocaine 
addiction are the ``cuing techniques''--the concept of recognizing 
cravings and devising methods of reducing cravings without relapse. New 
medications being tested include bromocriptine and buproprion which 
work on the brain's dopamine system to treat cocaine dependence.
    ONDCP through C-TAC is funding research on the following: the 
development of catalytic enzymes that produce cocaine antibodies in the 
blood stream; the investigation of a family of NIDA compounds to block 
the effects of cocaine in the brain; state-of-the-art equipment to 
improve our understanding of drug addiction and the human brain; 
development of a national research tool that monitors the effectiveness 
of substance abuse treatment programs; development of advanced 
treatment technologies for court diversion of juvenile offenders with 
drug problems; research on alternative treatments to cocaine through 
the development of novel compounds for use as medications; and research 
on auricular acupuncture to treat cocaine problems.
    Question 2. If these therapies are not like the nicotine aids, how 
do they differ, and what success rate are we seeing for these types of 
the therapies?
    Answer. The success rates for methadone are excellent. Methadone 
has been shown to be medically safe to use and has been studied for 
more than 20 years. Success rates rose after a 1993 study by Dr. John 
Ball at the Addiction Treatment Center in Baltimore demonstrated 
appropriate dosages of methadone is a matter of individualization, not 
legislation. NIDA is currently testing a prototype instrument that 
enhances methadone treatment. The ``Vocational Readiness Screener'' is 
designed to quickly and reliably assess methadone treatment patients' 
employability and evaluate their vocational barriers and needs.
    All medication therapies are enhanced when used in combination with 
counseling and other social and medical services for the treatment of 
addiction to any illicit substance. Because of the complexity of the 
action of drugs on the brain, developing appropriate and tolerable 
medication therapy is a long, arduous process. Research has shown that 
the use of a systematic incentive program involving social support, 
education about drug-free recreation, vocational support, and monitored 
medication therapy appears to be very helpful in initiating drug 
abstinence. Relapse prevention services provide the additional 
structure and skills that have been proven effective for individuals 
with high rates of cocaine use. Successful research results have also 
been obtained through a ``harm-reduction'' approach. This assists the 
client in making gradual life style changes, combined with abstinence 
and decreased risks are considered steps in the right direction.
                              interdiction
    Question 1. The Federal budget for drug abuse control climbed from 
$1.5 billion in fiscal year 1981 to about $15 billion in fiscal year 
1997 (GAO Observations on Elements of the Federal Drug Control Strategy 
GAO/GGD 97-42, March 197). Yet according to a GAO study (GAO 97-42 p. 
12), the amount of cocaine and heroin seized between 1990 and 1995 has 
had little impact on the availability of illegal drugs in the United 
States. Why is this?
    Answer. Cocaine seizures outside the United States have remained 
fairly steady (between 150 and 200 metric tons), over the 1990-1995 
period (The NNICC Report, DEA-96024, August 1996, p. 5). While cocaine 
is widely available and prices have been decreasing, without these 
seizures an even greater supply of cocaine would depress prices 
further, consequently encouraging current consumption by the existing 
cocaine users and causing increased rates of initiation into cocaine 
use by non-users (increased incidence). Also, seizures and reduced 
domestic availability are not the only means by which drug interdiction 
raises prices as a way to affect current consumption and incidence.
    Disruption and denial of traditional drug trafficking routes force 
the smuggler to shift operations to new areas, or different modes of 
transportation, thus raising the cost of doing business. The intent is 
to drive up the street-price of the drug in the United States and 
decrease consumption. The recent destruction of the air-bridge between 
South American source countries is an example of an operation whose 
effectiveness cannot be measure by seizures. It appears that these 
operations, although not focused toward seizures, have pressured the 
smuggler into more expensive, and slower, riverine operations. The 
effect on street price and availability is still being researched.
    Question 2. According to a GAO Study (GAO 97-42), when confronted 
with threats to their activities, drug trafficking organizations use a 
variety of techniques to quickly change their mode of operations, 
avoiding capture of personnel and seizure of illegal drugs. What kind 
of flexibility is incorporated into interdiction efforts to meet the 
rapidly changing drug trafficking organization activity?
    Answer. Technological improvement can increase the flexibility and 
responsiveness of our interdiction effort. The extensive range and wide 
area Relocatable Over the Horizon Radar (ROTHR) systems can be used 
instead of older fixed radar sites to keep initial detection and other 
sensor assets mobile. Sensor capabilities can be improved by equipping 
aircraft and surface vessels with state-of-the-art radar for initial 
detection and further classification, as well as infrared and low-light 
devices for identification and sorting. In addition, technology 
improvements and sharing will enable intelligence systems to sort 
targets from among the large amounts of ``background noise'' and 
legitimate traffic in a region.
    In the area of intelligence, ONDCP sponsors an interagency working 
group to review cocaine movement on a quarterly basis and provide an 
assessment to the interdiction and law enforcement communities. This 
group's assessment of changes in routes, modes, and methods is key to a 
flexible interdiction program. The interagency working group produces a 
semiannual report with mid-period updates. Under ONDCP's lead, a 
similar interagency mechanism is being established to assess other 
illegal narcotics transiting to the U.S.
    Operationally, our interdiction forces respond to these 
intelligence assessments through the Joint Interagency Task Force 
(JIATF) structures. The JIATF's receive and analyze raw intelligence 
and law enforcement information from a variety of U.S. agencies and 
international intelligence sources in an attempt to develop short range 
estimates of trafficker intentions. Once refined and developed, an 
analysis of the information is shared with the other U.S. interdiction 
and law enforcement agencies.
    In the area of regional coordination, we continue to work closely 
with our Caribbean neighbors in cooperative efforts to guard the 
approaches to Puerto Rico, deny traffickers safe havens in the region, 
and assist the nations to reinforce both their democratic institutions 
and their ability to withstand the influence and corruption of 
international criminal trafficking organizations. We currently have 
bilateral counternarcotics agreements in place with 17 countries in or 
bordering the Caribbean which substantially increase the flexibility of 
U.S. and host nation forces to pursue and apprehend traffickers. Also, 
the U.S. Coast Guard and the Mexican Navy has developed procedures for 
the quick exchange of maritime interdiction information to allow forces 
operating in proximity of each other to respond rapidly to trafficker 
operations.
    The threat along the Southwest Border, both at ports-of-entry and 
in more rural areas between ports-of-entry, is a major concern of the 
law enforcement officials assigned to this area. To better shield our 
borders from the threat of illicit drugs, we have significantly 
increased the deployment of federal law enforcement personnel and 
assets and are improving the coordination and information sharing 
structure along the border.
    Recent changes to Unified Command Plan and corresponding changes to 
the National Interdiction Command and Control Plan will further enhance 
U.S. interagency and multilateral interdiction coordination. The 
movement of U.S. Southern Command headquarters to Miami and assumption 
of detection and monitoring responsibility for all of the north-south 
production areas and most major trafficking routes within the Western 
Hemisphere will support our efforts.
    Finally, each quarter the Joint Chiefs of Staff, Operations 
Directorate and the United States Interdiction Coordinator sponsor a 
conference to brief the senior interagency law enforcement and support 
staffs on the status of the counterdrug efforts. This review provides 
an interagency forum for the interdiction operations and intelligence 
agencies to review the current threat, assess force laydowns and 
ongoing operations, identify gaps and shortfalls and adjust policies 
and resources as required. Other planning conferences and ad hoc 
interagency meetings occur throughout the year to assess and adjust 
policy and resources.
                            ondcp management
    Question 1. At last year's hearing, the ONDCP Director stated, ``I 
owe you results not rhetoric.'' The Director also said that he was 
going to appear before the Appropriations Committee in 1997 and 
demonstrate in concrete ways what ONDCP has achieved with the money the 
Committee has provided. What can ONDCP show that will demonstrate 
ONDCP's achievement?
    Answer. ONDCP has, in the last year, set in motion a number of 
concrete objectives which have revitalized the government's efforts to 
counter drug abuse. Most notably, ONDCP developed for the President the 
nation's first long-term counter drug strategy. The 1997 National Drug 
Control Strategy is the baseline document for the nation's next decade 
of combating drug abuse in America. To support and implement this long-
range vision, ONDCP is in the process of developing a five-year budget 
to support a long-term strategy. This will allow us as a nation to 
quickly shift resources to target emerging trends with a flexibility 
which has been lacking in the past.
    This comprehensive five-year budget planning system will be 
supported by specific performance measures and targets for each Goal 
and Objective of the National Drug Control Strategy. To further this 
effort, ONDCP and OMB issued a joint memorandum to the Cabinet on June 
5, highlighting the importance of this approach and citing ONDCP's 
efforts as a model for long-term planning. With this new performance 
measurements system, consistent with the principles of the Government 
Performance and Results Act, ONDCP will be able to link funding for 
particular programs with desired outcomes under the Strategy. 
Performance targets and measures continue to be developed cooperatively 
with drug control agencies during fiscal year 1997, and ONDCP expects 
initial implementation of this system during fiscal year 1998. By then, 
Congress will have preliminary objective measures to assess the 
successes or failure of important drug control program components.
    ONDCP has also achieved impressive results in a number of other 
areas. Along the Southwest Border, ONDCP is leading the effort to 
develop a common effort among various agencies. In the area of 
intelligence architecture, we are spearheading a major initiative to 
reform our various information gathering systems so that redundancy is 
eliminated and key data reaches the right people at the right time. The 
Peru ``big idea'' under development will provide a package of 
incentives to coca growers as well as development programs to sustain 
last year's 18 percent drop in coca production in Peru. ONDCP held two 
methamphetamine conferences on both a regional and national scale which 
brought together experts from law enforcement, prevention, treatment 
and policy to coordinate techniques against this emerging drug threat. 
ONDCP has also developed a proposal for a Youth Media Campaign to 
target children with anti-drug messages during their prime viewing time 
in terms that they understand.
    Question 2. In a 1990 report (Drug Interdiction: Funding Continues 
to Increase but Program effectiveness is Unknown, GAO/GGD 91-10, Dec. 
11, 1990), GAO pointed out the difficulties in measuring effectiveness 
of drug interdiction activities.
    In a 1993 report on preauthorization of ONDCP, GAO found that 
national strategies contain inadequate measures for assessing the 
contributions of component programs for reducing the nations drug 
problem.
    In authorizing ONDCP in 1993, Congress specified that ONDCP's 
performance measurement system should assess changes in drug use, drug 
availability, the consequences of drug use, drug treatments capacity, 
and the adequacy of drug treatment systems.
    The fiscal year 1997 National Drug Control Strategy, once again 
addressed the need to assess programs and to provide performance 
measures. I am concerned that this is more of the same. Why haven't 
measures been provided before and why should the Subcommittee expect 
that ONDCP will produce the measures now?
    Answer. Developing performance measures that encompass more than 50 
federal agencies, 54 states and territories and 31 foreign countries 
requires a tremendous effort by ONDCP and all of the agencies involved. 
There is no precedent or model anywhere for measuring such a diverse, 
complex and widespread level of activity. ONDCP began its performance 
measurement effort in 1994 by setting up a pilot project to measure the 
effectiveness of its international programs. After setting up the 
program and providing training to the agencies, measurement of programs 
began in 1995.
    This effort produced standardized measurement definitions and 
methodologies, identification and description of all international 
programs, draft performance measures, assessments of program 
accomplishments and a relational database incorporating all 
international programs. From the pilot program we learned that we had 
to streamline and simplify our measurement process. Based on lessons 
learned, we developed a new architecture and approach for measuring the 
entire National Drug Control Strategy. In June 1996, we set up three, 
two-day offsites to test out the new measurement architecture and to 
begin development of targets and measures for the 1996 National Drug 
Control Strategy. Federal, state and non-government representatives 
attended these meetings. A more permanent interagency process was 
established afterwards. Steering groups were developed for each 
Strategy Goal and working groups for each Strategy Objective. The 
Objectives in the 1997 Strategy continued to be revised, as a result 
the interagency groups continued to meet through April 1997 to complete 
their work, which now must be reviewed by senior ONDCP and Department 
officials before submission to Congress this fall.
                       international interdiction
    Question 1. What type of flexibility is ONDCP and the drug control 
agencies providing in the development of drug interdiction programs to 
ensure they can meet the existing drug trafficking methods?
    Answer. Effective interdiction requires establishing defense-in-
depth from the source countries, transit zone, and along our borders, 
in concert with our regional allies. Although all U.S. drug 
interdiction agencies contribute throughout our defense-in-depth force 
structure, JIATF-South concentrates in the source countries, JIATF-East 
in the outer layer of the transit zone, the U.S. Coast Guard in the 
middle layer, and the U.S. Customs Service and Border Patrol in the 
arrival zone.
    Within the transit zone, actions against narcotics trafficking are 
reactive. Traffickers initiate the move of illicit drugs along routes 
and modes of transportation of choice. They also have a demonstrated 
capacity to adapt to bypass law enforcement interdiction efforts in the 
region shortly after they are initiated. In addition traffickers employ 
off-the-shelf technology, such as commercially available Global 
Positioning Systems, to reduce the need to communicate when making a 
rendezvous. Technology, accurate intelligence data, and good analysis 
are way to ensure our interdiction efforts are as flexible as the 
traffickers' smuggling efforts.
    As discussed above in the answer to A2, the technological 
improvements can greatly increase the flexibility and responsiveness of 
our interdiction effort.
    Question 2. On April 28, 1997, The Speaker of the House told Latin 
American Heads of States that the United States should scrap its system 
of certifying governments, as either effectively fighting drug 
trafficking or failing to do so. Earlier, Mexico's President Ernesto 
Zedillo said, ``Claiming that other countries are the problem does not 
stop a single transaction.'' How does ONDCP respond to questions about 
the U.S. certification system and does ONDCP believe that certification 
provides an effective tool to combat drug trafficking activities?
    Answer. The drug certification process provides one tool among many 
to help reduce the flow of illegal drugs across our borders. The 
sections of federal law which provide a foundation for the 
certification process require two major actions. They require the 
Administration to report annually to Congress about the nature of 
cooperation between the United States and the major drug producing and 
transit countries, and they require non-discretionary penalties to be 
imposed against major drug producing and transit countries which are 
not certified.
    Congress is correctly concerned about the impact of illegal drugs 
in the United States and has enacted legislation which requires a 
formal report about the state of affairs each year. Considering the 
increasing importance of our bilateral drug control relationship with 
key countries such as Mexico, an indepth annual report may be 
insufficient for Congress to express its views and work constructively 
with the Administration to confront the drug threat.
    The penalty provisions of the certification process should be 
evaluated pragmatically. If they cause major drug producing or transit 
countries to take action to meet the counterdrug objectives of the 1988 
U.N. Drug Convention, then the penalties are doing what they were 
designed to do and should be kept. If the automatic penalties are not 
effective, we ought to consider alternatives.
    It is not clear what the penalties have accomplished to advance 
U.S. drug policy objectives. In many cases decertification or the 
threat of decertification has served our national interest well by 
causing countries to take action against drugs they would not otherwise 
have taken. Nonetheless our certification procedure is perceived by 
many, especially in Latin America, as unacceptable international arm 
twisting and interference in internal domestic affairs. For example, 
the certification process was condemned recently at the OAS General 
Assembly in Lima.
    There is a case to be made that the certification process causes a 
backlash against the U.S. in some countries that makes cooperation on 
drug policy less likely rather than more likely. The effectiveness of 
the certification process varies from country to country depending on 
what leverage is available to us because of the penalty provisions, the 
political and economic conditions in the country, and the capacity of 
the country to act against drug trafficking under any circumstances. It 
is clearly in our interest to study this complicated question carefully 
before we act.
    Question 3. In reviewing the activities of the Mexican and 
Colombian governments, how do they vary in their attempts to eradicate 
drug trafficking activity in their countries?
    Answer. At the strategic level, the Government of Mexico is 
committed to fighting against drug trafficking and its corrupting 
influence. Mexico's counterdrug strategy seeks to attack all phases of 
the drug problem, from production to consumption. During 1996, the 
Mexican Congress approved changes to their criminal code and amended 
regulations to toughen enforcement against money laundering and 
chemical diversion. They passed an organized crime bill which 
authorizes use of modern investigative techniques, such as electronic 
surveillance, witness protection, and prosecution for criminal 
association and conspiracy. Mexico has established with the U.S. a 
High-Level Contact Group on narcotics control to explore joint 
solutions to the shared drug threat, to coordinate the full range of 
drug issues and to promote closer law cooperation. Mexico has 
acknowledged the need to strengthen counterdrug capabilities, given the 
serious threat posed by organized crime, and signed several technical, 
training and material support agreements with the U.S. as well as one 
on operational coordination. This High-Level Contact Group effort most 
recently yielded the ``Declaration of the U.S.-Mexican Alliance Against 
Drugs,'' signed by Presidents Clinton and Zedillo in May 1997. The 
Mexican Constitution prohibits extradition of Mexican nationals except 
under ``exceptional circumstances,'' though Mexico has extradited U.S. 
citizen and citizens of third countries to the U.S. in the past. 
However, President Zedillo approved findings of ``exceptional 
circumstances'' in the cases of three fugitives with court-upheld 
claims to Mexican citizenship, thereby permitting their extradition to 
the United States. In 1996, Mexico extradited thirteen fugitives to the 
U.S. and expelled two others.
    At the tactical level, however, results are more mixed. Mexico has 
continued an aggressive eradication program against opium poppy and 
marijuana. Drug seizures, lab interdiction and drug-related arrests all 
increased in 1996 as compared to 1995. Mexico intensified its 
investigations of criminal organizations linked to drug trafficking, 
making several prominent arrests. Interdiction activities resulted in a 
notable reduction of detected air shipments of illicit drugs in high-
speed aircraft in the past year, though traffickers quickly shifted 
more of their operations to maritime smuggling.
    On the other hand, Mexico continues to struggle with the effects of 
corruption. Government of Mexico law enforcement authorities and 
military personnel have not dismantled any major drug trafficking 
organizations. President Zedillo acknowledged that corruption was 
deeply rooted in Mexican institutions and in the general social conduct 
of the nation. Attorney General Lozano dismissed over 1,250 officials 
for incompetence and/or corruption. Mass firings of state and local 
police also took place for various crimes and dereliction of duty. The 
Director of the INCD (the Mexican ``Drug Czar'') was arrested in 
January 1997 on charges that he was receiving money from a Mexican drug 
lord.
    In Colombia, the U.S. continues to support and receive good 
cooperation at the tactical level. In 1996, military-police cooperation 
improved substantially, allowing a massive eradication and lab 
interdiction operation in an insurgent-infested area. The National 
Police also eradicated opium poppy. Colombian security forces 
interdicted cocaine and heroine shipments to the U.S. and Europe and 
destroyed more than 850 narcotics laboratories. The Colombian Air Force 
participated in 662 coordinated counterdrug operations (with the 
police, army, and marines), and launched 172 intercept/interdiction 
missions against narcotrafficking aircraft resulting in 34 losses of 
trafficking assets. The Air Force also provided airlift support to the 
National Police and transported herbicides to police forward operating 
bases. Colombia's Special Search Group, composed of specially-trained 
police and military personnel, kept pressure on narcotrafficking 
organizations through searches and seizures, causing several lower 
echelon leaders to turn themselves in. The Police confiscated and 
deciphered computers and documents leading to further confiscations. 
The Police also seized more than 100 trafficker properties whose assets 
could run into the tens of millions of dollars. The government of 
Colombia shared with the U.S. information on money laundering 
activities which was used to identify and economically isolate 
trafficking enterprises through U.S. sanctions imposed pursuant to the 
International Emergency Economic Powers Act. Colombian cooperation with 
international law enforcement entities, including intelligence sharing, 
is excellent.
    Nevertheless, shortfalls at the strategic level continue to 
undermine efforts at the tactical level. The Rodriguez Orejuela 
brothers (leaders of the Cali Mafia) received shamefully light 
sentences (though Miguel subsequently received a longer sentence on 
other charges). Other traffickers have also received light sentences. 
The traffickers continue to manage their drug empire from prison. The 
three Ochoa Vasquez brothers, kingpins of the Medellin Cartel, were all 
released from prison after serving sentences of only about 4.5 years 
each. President Samper was exonerated by the Colombian Congress of 
charges of corruption, though his campaign manager and treasurer were 
both convicted on the same charges. Attorney General Vasquez Velasquez 
was removed from office for corruption. The Colombian Congress did pass 
critical asset forfeiture, anti-money laundering and penalties 
enhancement laws, but only after a wire tap revealed the efforts of the 
jailed Cali Mafia kingpins to bribe and/or intimidate legislators. In 
1997, the Congress completed the first half of a process to amend the 
Constitution to reinstate extradition of Colombian nationals, but the 
bill is so full of restrictions that it would be useless in practical 
terms. We are urging Colombia to remove the restrictions in the second 
half of the process. The Congress is currently considering a bill that 
would favor sitting or former members of Congress convicted of illicit 
enrichment or other corruption charges. While acknowledging that 
alternative development is critical to the success of the eradication 
program, Colombia has not fully funded its alternative development 
program, and has applied it mostly in opium poppy growing areas, as 
opposed to coca growing areas where the vast majority of the 
eradication operations are taking place.
                           trends in drug use
    Question 1. Last year, the Substance Abuse and Mental Health 
Services Administration reported that there was a 50 percent decline in 
illegal drug use among Americans between 1979 and 1995. What has 
influenced this dramatic drop?
    Answer. Although no definitive study exists that looks at the drop 
in demand between 1979 and 1995, we hypothesize that a number of social 
factors raised citizens' awareness which contributed to the dramatic 
drop. First, schools during that time period had approximately 40 
percent more funding dollars to target drug issues, specifically the 
Safe and Drug Free Schools Program. Second, the media was very active 
and had a high reporting rate (93 percent higher than they do in 1997) 
on drug issues and their consequences. Third, large anti-drug multi-
media advertising campaigns were initiated. Specifically, the 
Partnership for a Drug-Free America launched its advertising campaign 
in 1987 with the equivalent of $115 million in advertising dollars. In 
1991, a height was reached in advertising dollars of $365 million, or 
$1 million a day, which has since decreased to $260 million in 1996. 
(Lloyd Johnston, Keynote Speech, 1997 Safe and Drug Free Schools Annual 
Conference--Turning Research into Action.)
    Question 2. 1991 and 1992 marked the lowest reported illegal drug 
usage among adolescents in the past 6 years, according to a 1996 
University of Michigan study of ``Past 30 Day Drug Usage'' by 8th, 
10th, and 12th graders. What accounted for the low and what is 
influencing the climb in usage among these teenagers?
    Answer. The social factors attributed to the overall decrease in 
drug use among Americans between 1979 to 1995, i.e., higher federal 
program funding, high media reporting rate on drug issues, focused 
media campaigns, can also be attributed to the lowest rates described 
in 1991-1992 by adolescents.
    What changed between 1992 and 1996 to increase drug use among young 
people includes: the decreased drug prevention programming in the early 
1990's; decreased media reporting of the drug issue (between 1991 and 
1993, the media had a 93 percent drop in the coverage of drug issues 
and their consequences); declining multi-media anti-drug advertising 
which gave Americans the sense that the so-called ``Drug War'' had been 
won; pro-drug music and media-including the very-visible cigarette 
smoking by young actors and artists; and parents not talking to their 
kids about the ills of drug use and abuse. Also, effective prevention 
requires a sustained and consistent message which declined in the late 
1980's.
    As the Monitoring the Future study indicates, there is a strong 
relationship between attitudes and drug use. Prior to 1990, drug use 
disapproval rates were consistently increasing, the perception of youth 
of the risk of drug use was consistently increasing each year, and at 
the same time, drug use decreased at a significant and reverse rate.
    In just three years, 1990, 1991, and 1992, the data show that as 
the risk perception and attitudes about drug use weakened--a similar 
but inverse increase occurred in drug use beginning in 1992 and 
steadily increasing through 1996.
    According to the Partnership For a Drug Free America's Attitude 
Tracking Study, driven by increasingly lax attitudes about marijuana, 
America's teenagers are seeing fewer risks and more personal rewards in 
drug use, and drug-savvy baby boomers are underestimating the threat of 
drugs and drug use among their own children. (Partnership for a Drug-
Free America, Adolescent Drug Use Likely to Increase Again in 1996; 
Teens See Fewer Risks in Marijuana and Drug Use, Press Release, 2/20/
96.) According to the study, teens are less likely to consider drug use 
harmful and risky, more likely to believe that drug use is widespread 
and tolerated, and feel more pressure to try illegal drugs than teens 
did just two years ago. Changes in attitudes drive changes in behavior. 
The study found that in a wide variety of categories, teenagers see 
significantly less physical and social risks in marijuana and drugs, 
and perceive more benefits in drug use, that is, more teens believe 
drugs help you relax and that getting high feels good. Increasingly, 
teens see marijuana as ``no big deal'' which is driving their overall 
changing attitudes about drug use. Also, pre-teens remain defiantly 
anti-drug but report more drug use around them.
    Question 3. How is the 1990 low, and subsequent rise in drug 
related emergency room cases related to these usage trends?
    Answer. The Drug Abuse Warning Network (DAWN), administered by 
NIDA, monitors the number and pattern of drug-related health 
emergencies and drug-related deaths in major metropolitan areas. DAWN 
data are collected in 21 metropolitan areas from hospital emergency 
rooms and medical examiners. DAWN is an indicator of drug use 
consequences and not a prevalence of drug use indicator, therefore it 
cannot adequately be compared to other drug usage trend data.
    Emergency room mentions for cocaine increased from the first 
quarter of 1986, reached a peak around the first quarter of 1989, 
declined steadily through most of 1990, and then climbed again during 
1991. Medical examiner reports followed a similar trend. Both of these 
trends varied inversely with the standardized price. (ONDCP, Price and 
Purity of Cocaine, The Relationship to Emergency Room Visits and 
Deaths, and to Drug Use Among Arrestees, 1992.) That is, as the price 
went down between 1986 and 1988-89 (the low), emergency room mentions 
increased as did medical examiner reports. And as the price reversed 
and increased to a high in 1990, the number of emergency room mentions 
were at their lowest.
    The inverse relationship between the standardized price of cocaine, 
emergency room mentions, medical examiner reports, and arrestees who 
tested positive for recent cocaine use, suggests that cocaine use and 
consequences increase as the standardized price rises. That all three 
measures decline when the price rises indicates that these patterns 
might be attributable to the changes in the supply of cocaine. (ONDCP, 
Price and Purity of Cocaine, The Relationship to Emergency Room Visits 
and Deaths, and to Drug Use Among Arrestees, 1992.)
    As cocaine on the street becomes scarce, users will bid more for 
the cocaine that is still available. This drives up the price of 
cocaine, which in turn reduces the quantity used. Conversely, when more 
cocaine is available for sale, drug dealers will lower prices to induce 
users to increase their drug use. Therefore, as the price of cocaine 
falls, drug use increases. This explanation of how supply-side induced 
changes can affect drug use is consistent with the patterns observed in 
these data. In addition, while the DAWN data are not indicators of 
prevalence, it is conceivable that the negative consequences associated 
with drug use would be influenced as rates of prevalence increase or 
decrease.
    In contrast, as demand for cocaine falls both prices and the amount 
would be expected to fall. Yet, the expectation based solely on changes 
in demand for cocaine is not consistent with the patterns observed in 
these data. Consequently, changes in demand alone do not explain the 
observed patterns between the standardized price of cocaine and 
emergency room mentions, medical examiner reports, and the percentage 
of arrestees testing positive for cocaine. (ONDCP, Price and Purity of 
Cocaine, The Relationship to Emergency Room Visits and Deaths, and to 
Drug Use Among Arrestees, 1992.)
    Question 4. The University of Michigan also reported that illegal 
drug use among 8th graders has increased a shocking 150 percent over 
the past five years. Is there a direct correlation between marijuana 
use among this age group and future abusive drug or alcohol behavior?
    Answer. Yes. According to a study conducted by the Center on 
Addiction and Substance Abuse at Columbia University, children who 
smoke marijuana are eighty-five times more likely to use cocaine than 
peers who never tried marijuana. (J.C. Merrill, K. Fox., S.R. Lewis, 
and G.E. Pulver, Cigarettes, Alcohol, Marijuana: Gateways to Illicit 
Drug Use, Center on Addiction and Substance Abuse at Columbia 
University, 1994.)
    In addition, we also know from the Monitoring the Future study that 
there is a two year delay between youths' disapproval of drug use, 
youths' perception of using drugs as a risk, and drug use. We see an 
inverse relationship occur over a few years--as the risk perception and 
attitudes about drug use decrease--specifically between 1990 and 1992, 
a similar but inverse increase occurs in drug use between 1992 and 
1996.
    Question 5. What factors are influencing this relationship, despite 
our current preventative efforts?
    Answer. A number of factors are influencing this relationship. In 
particular, the availability of drugs, and a general lack of social 
bonding to either the family or the community.
    As discussed above, according to the Partnership For a Drug Free 
America's Attitude Tracking Study (PATS), teens today have more casual 
attitudes about marijuana, they see fewer risks and more rewards in 
drug use. Also, the parents of today's teens underestimate the risk and 
harm of drugs and drug use among their own children. (Partnership for a 
Drug-Free America, Adolescent Drug Use Likely to Increase Again in 
1996; Teens See Fewer Risks in Marijuana and Drug Use, Press Release, 
2/20/96.) Teens today believe that drug use is widespread and 
tolerated, and experience more peer pressure to try illegal drugs than 
did teens two years ago. Marijuana is not viewed as dangerous by teens 
and this view is effecting their overall attitudes about drug use. Pre-
teens remain defiantly anti-drug but report more drug use around them.
    Most parents don't want their children experimenting with drugs and 
some feel hypocritical when talking to their kids about marijuana. 
While more parents say they are talking to their teens about drugs 
today (95 percent), only 77 percent of teens say their parents have 
talked to them. (Partnership for a Drug Free America, Partnership 
Attitude Tracking Study, 1995.)
    Question 6. Does ONDCP have any predictors which offer a forecast 
as to future adolescent trends for alcohol and drug use?
    Answer. ONDCP reports out data as collected and analyzed by other 
federally funded drug-control agencies and other organizations that 
conduct relevant data collection efforts.
    There are three indicators from the Monitoring the Future study 
that when looked at together are critical predictors of the 
relationship between prevailing attitudes and drug use. The indicators 
are: (1) youth disapproval rates of regular use of drugs; (2) youth 
perception that regular use is harmful; and (3) the percentage of youth 
who have used drugs in the last 30 days. (University of Michigan, 
Monitoring the Future Study, 1996.) What these three indicators show 
over time is a distinct relationship between youth disapproval rates of 
regular use of drugs, youth perception that regular use is harmful, and 
the percentage of youth who have used drugs in the last 30 days. These 
indicators have shown a distinct trend over time. As disapproval rates 
show a decrease at one point in time, the perception of drug use as 
harmful decreases one year later, and in the following year, a distinct 
and significant increase in drug use is observed.
                            methamphetamine
    Question 1. Is there a relationship between our cocaine 
interdiction efforts and the increase in methamphetamine production and 
usage?
    Answer. Methamphetamine has a similar effect to cocaine but is 
cheaper than cocaine (\1/2\ the price) and creates a longer lasting 
high (hours versus minutes). It can be produced inexpensively by 
clandestine labs. Precursor chemicals to manufacture this drug are easy 
to obtain. The manufacture of methamphetamine is a relatively simple 
process and can be carried out by individuals without special knowledge 
or expertise in chemistry. It is becoming the drug of choice, 
especially in areas where the availability of crack and cocaine has 
decreased.
    Question 2. Can ONDCP offer a forecast for the future trend of 
methamphetamine in America?
    Answer. Drug use behavior is a complex phenomenon for which the 
prediction of future trends is particularly difficult. With respect to 
methamphetamine, there have been several predictions since the mid 
1980's of impending epidemics that did not materialize (i.e., 1986, 
1988, 1989, 1991, and 1993). In 1996, primarily on the basis of data 
for 1995 from the Drug Use Forecasting (DUF) program and DAWN, a new 
epidemic of methamphetamine use has been predicted. These data showed 
high rates of methamphetamine use among arrestees in the West, 
Southwest, and Midwest, and increased methamphetamine-related emergency 
room episodes in the same areas, suggesting that methamphetamine use 
was on the rise and spreading from its endemic base of Hawaii and San 
Diego to other areas. However, data for 1996 from the eight DUF cities 
with the highest rates of use in 1995 indicate that while 
methamphetamine use continued to be detected among arrestees mainly in 
the western U.S. DUF sites, rates fell significantly (as much as 50 
percent) from 1995 levels. Data for the first half of 1996 from DAWN 
are about to be released and are expected to show similarly significant 
declines in methamphetamine-related emergency room episodes. The bottom 
line to be drawn from these data is that it is too soon to predict the 
future direction of methamphetamine use in America. We are encouraged 
by last year's downturn and we believe that the swift action taken by 
the Administration and Congress to increase the penalties for 
trafficking in methamphetamine have had an effect, but we also realize 
that a forecast cannot be made with one year's worth of data.
    Question 3. Mexico has been identified as the principal source for 
both manufactured methamphetamine and the source of precursor chemicals 
used for domestic production in the U.S. Does Mexico have a chemical 
precursor monitoring and enforcement program similar to the U.S. Drug 
Enforcement Agency?
    Answer. Mexico has a precursor enforcement program somewhat 
analogous to that in the United States. A Mexican law passed in May 
1996 establishes chemical trafficking as a crime subject to 5-15 years 
imprisonment and a fine. In 1996, Mexican law enforcement seized 3.3 
metric tons of ephedrine, 10 metric tons of phenylpropanolamine, and 
900,000 pseudoephedrine tablets. Regulatory controls also exist on 
precursor chemicals, but the administrative infrastructure for their 
enforcement is not as highly developed as in the U.S. Mexico lacks a 
comprehensive regulatory system to prevent the diversion of essential 
(as opposed to precursor) chemicals, but is now in the process of 
formulating legislation in this area.
    In terms of cooperative efforts with Mexico, the U.S. Mexico Bi-
National Drug Threat Assessment published in May 1997 was the first 
formal agreement by Mexico and the United States on the facts about the 
criminal activities associated with drugs, and the effects of drugs and 
drug trafficking and related criminal activities on both societies. 
Methamphetamine use, production, and trafficking were highlighted in 
the assessment. Since June 1996, Mexico has engaged with the Department 
of Justice through the Drug Enforcement Administration to determine a 
strategy for controlling the import, export, and sale of licit 
chemicals, for preventing the illicit use and traffic of those 
chemicals, and for reducing the diversion of chemicals. The U.S. and 
Mexico Attorneys Generals agreed to identify persons, businesses, and 
criminal organizations involved in the illegal transport, use, export, 
and import of chemicals, and to obtain the support and cooperation of 
other key countries where precursor chemicals are produced, 
transported, or brokered. Additionally, the Declaration of the Mexican-
U.S. Alliance Against Drugs signed by Presidents Zedillo and Clinton in 
May 1997 commits both nations to control essential and precursor 
chemicals to prevent chemical diversion and illicit use, and improve 
information exchange on the subject.
    The formal mechanism to spur and oversee this cooperation is the 
Bilateral Chemical Control Working Group under the aegis of the U.S.-
Mexico High Level Contact Group for Narcotics Control (HLCG). This 
working group has coordinated bilateral chemical and clandestine 
laboratory training, information exchange, cooperation on case 
investigations, and other matters relating to bilateral cooperation. As 
part of a joint ``Practical Strategy and Action Plan'' developed during 
the summer of 1996, Mexico now has in place restrictions on the entry 
of methamphetamine precursor chemicals to key ports for more efficient 
control.
    Question 4. Is Mexico contributing to interdiction efforts in 
controlling the movement of Methamphetamine across our borders?
    Answer. Cooperative efforts to control precursor chemicals and to 
work with Mexico to improve their ability to discover and investigate 
methamphetamine manufacturing and smuggling operations are underway. 
Mexico's primary effort to interdict methamphetamine/precursor 
chemicals is via the Northern Border Response Force/Operation Halcon. 
In addition, Mexico has a series of law enforcement checkpoints along 
many roads leading to the U.S. These checkpoints are intended to seize 
all contraband (Operation Precos). Mexico has also actively 
participated in a joint U.S.-Mexico methamphetamine task force focusing 
on the most significant Mexican methamphetamine trafficking 
organization. While to date this task force has recorded the seizure of 
75 kilograms of methamphetamine and the arrest of 12 individuals 
associated with this organization, they have not yet indicted or 
arrested the principals.
    The HLCG has significantly advanced bilateral cooperation between 
the U.S. and Mexico in controlling the abuse, production, shipment, and 
sale of illicit drugs, to include methamphetamine. The HLCG's U.S. 
Mexico Bi-National Drug Threat Assessment published in May 1997 
contributed greatly to a joint understanding of the drug threat, 
including methamphetamine, and to fostering a spirit of increasingly 
greater cooperation in the US-Mexico relationship. The Declaration of 
the Mexican-U.S. Alliance Against Drugs commits both nations to improve 
our capacity to interrupt drug shipments by air, land, and sea; to 
enhance cooperation along both sides of the common border; and to 
reduce the production and distribution of illegal drugs in both 
countries, particularly marijuana, methamphetamine, cocaine, and 
heroin. Presidents Clinton and Zedillo also directed development of a 
joint counterdrug strategy to address these goals by the end of 1997. 
The strategy will have several key objectives designed to improve 
ongoing U.S.-Mexican cooperative counterdrug efforts, such as the 
Bilateral Border Task Forces in northern Mexico which will be jointly 
staffed by Mexican and U.S. law enforcement and intelligence officers.
    Question 5. Is the methamphetamine interdiction and prosecution on 
the southwest border approached on the same level as cocaine?
    Answer. Trafficking of methamphetamines is usually done along 
established cocaine (and heroin) routes--because the border is 
controlled by the Mexican drug syndicates. Consequently, interdiction 
of cocaine will often result in methamphetamine seizures. Prosecution 
of methamphetamine traffickers is treated just as aggressively as 
cocaine and the recent enactment of the 1996 Methamphetamine Control 
Act strengthens the law significantly against methamphetamine 
production and trafficking. Numerous cases have been investigated and 
prosecuted by federal agencies in cooperation with local officials. DOJ 
required each U.S. Attorney to make an assessment of the 
methamphetamine threat in each district. Strategies and specific 
activities against the drug were developed in the most severely 
affected districts. Additionally, DEA Mobile Enforcement Teams (MET) 
have launched several operations in cities and towns in the region.
    Question 6. There has been a recent rise in ``Meth'' related crime 
in Wisconsin. Can you explain what factors are in place to cause a rise 
in this drug popularity?
    Answer. Increased use of methamphetamine can result in an increased 
tolerance for the drug, leading a methamphetamine addict into an array 
of criminal activities in order to support the habit. Long-term use of 
this drug often produces symptoms of extreme paranoia and psychosis 
that can lead to increase in violent behavior. The number of 
methamphetamine labs has increased due to an increase in profitability. 
The drug is cheaper to purchase (``poor man's cocaine'') and has longer 
lasting effects. And methamphetamine can be used by all of the common 
routes of illicit drug administration, e.g., inhalation, intranasal 
``snorting'', intravenous injection, and orally.
    Question 7. What actions can be taken to reduce this drug's 
popularity in the Northern Wisconsin Area?
    Answer. Drug testing among personnel in private sector industry, in 
the military, and among individuals supervised by the criminal justice 
system can substantially suppress illicit drug use. Intensive localized 
media campaigns can also suppress drug use by altering attitudes about 
acceptability of drug use and/or the risks associated with drug use. 
Education and training for law-enforcement officers about the effects 
of methamphetamine and more aggressive enforcement efforts can help 
reduce use, and there is some evidence that methamphetamine users 
sharply decrease their drug intake following treatment.
                         task force operations
    Question 1. The 1997 National Drug Control Strategy referenced the 
gaps that still need to be closed between a number of key agencies to 
improve drug enforcement intelligence coordination., What is ONDCP's 
current role and influence in the coordination of drug intelligence?
    Answer. ONDCP uses a variety of methods to ``influence'' expanded 
drug intelligence coordination, including the issuance of budget 
guidance and the certification of the drug control agencies' budgets. 
On a day-to-day basis, ONDCP either chairs or participates in all drug 
intelligence boards/committees. For example, ONDCP chaired an ad hoc 
interagency group that reviewed intelligence support to interdiction 
operations and developed a specific plan for improving that support. 
That plan, known as the Interdiction Intelligence Support Plan, called 
for the use of a specific ADP system as the primary tool to deliver 
intelligence to the interdiction centers. The drug intelligence 
community has subsequently expanded the use of this system to include 
use by law enforcement agencies. ONDCP also ``influences'' the drug 
intelligence system by tasking the system to provide specific 
assessments and analyses.
    Question 2. What are the current gaps or weaknesses in the 
intelligence system now?
    Answer. While the federal government has made substantial 
investments in counterdrug intelligence capabilities, there are areas 
where the information base of the National Drug Control Program 
agencies could be significantly improved. The most significant gaps in 
our drug intelligence system fall generally in two areas: (1) focusing 
available information in a way that most effectively supports the 
development of drug policy and related strategies; and (2) processing 
and disseminating operationally useful information in a timely and 
effective manner.
    ONDCP is working with the Attorney General and the Director of 
Central Intelligence, as well as other senior officials, to look at the 
whole drug intelligence effort to ensure that we have the best possible 
system. This effort will more clearly identify shortfalls and make 
recommendations for improvement.
    Question 3. How can the intelligence alliance be strengthened?
    Answer. The interdepartmental review discussed above has been 
designed to provide us with an assessment of the specific changes and 
adjustments that need to be made to strengthen our interagency 
intelligence work.
    Question 4. Is the intelligence dissemination in balance with 
intelligence collection?
    Answer. Drug intelligence, perhaps more accurately described as 
drug information, is collected by a variety of agencies for a variety 
of specific reasons. Law enforcement officers collect drug 
intelligence/information as a part of their regular, ongoing criminal 
investigative activities. Foreign intelligence agencies collect 
intelligence on a wide range of topics, including leadership, 
activities and capabilities of foreign-based drug trafficking groups, 
counterdrug activities of foreign governments, and other traditional 
foreign intelligence subjects. Because of these differences, it is 
sometimes difficult to share information across the two disciplines. 
Over the years, significant progress has been made in expanding the 
amount of information that is shared but more work is needed. This is 
one of the weaknesses that an improved Intelligence Architecture will 
address.
    Question 5. Is the intelligence being received by the local, state 
and federal enforcement agencies timely, reliable and in sufficient 
detail to be operationally effective?
    Answer. Most of the information that is tactically and 
operationally relevant to state and local law enforcement is collected 
through their own efforts. They are best able to determine its 
reliability and adequacy. The direct flow of federal strategic 
information from federal law enforcement agencies to state/local law 
enforcement is generally less timely and sometimes of undetermined 
value to the state, often because the information comes from other 
geographic areas, perhaps even from overseas. The most effective 
sharing of information between federal law enforcement and state/local 
agencies is through joint task forces where the various levels of law 
enforcement are working together against common targets.
    Question 6. In multi-agency operations, statistical overlap often 
occurs when reporting arrests, seizures, and prosecutions. What 
mechanism is being employed to keep these reports pure, avoiding 
redundancy?
    Answer. At the federal level, the Federal-wide Drug Seizure System 
(FDSS) was established to ensure that drugs seized jointly by two or 
more federal agencies were not counted more than once. The FDSS, which 
is administered by the Drug Enforcement Administration, publishes 
annual reports on the seizures by federal agencies of cocaine, 
marijuana, and heroin.
    Question 7. Does this reporting transcend the local, state, and 
federal enforcement lines?
    Answer. There is currently no system that accounts for all the 
illegal drugs seized by state and local law enforcement agencies around 
the country. The Federal Bureau of Investigation, through the Uniformed 
Crime Reporting system, is developing data elements with the UC that 
would record drugs seized at the local level.
                         department of defense
    Question 1. Will the Department of Defense continue sharing its 
technological logistical resources with Federal law enforcement?
    Answer. Technology developed by the Department of Defense (DOD) for 
military missions that have a counterdrug application will continue to 
be available to law enforcement agencies, both federal and state, in 
the performance of their roles and missions. As appropriate, it will be 
up to the individual law enforcement agency to plan, budget, and 
procure required equipment and systems. Logistical and operational 
support to law enforcement agencies will be coordinated through Joint 
Task Force Six located in El Paso, Texas.
    Small units in the military use equipment that meets needs similar 
to those of law enforcement. An example of this are night vision 
devices, developed by Army Materiel Command to enhance the Army's night 
fighting effectiveness. This application crosses over to law 
enforcement for night observation and can be adapted to camcorders. 
Technology developed by DOD can and should be used in other 
applications when possible, but should not be developed solely for law 
enforcement agencies. The responsibility to develop uniquely 
counterdrug technology should always reside with the end user.
    Question 2. Will technological initiatives emphasize serving 
multiple roles, to be used for different applications, by different 
agencies?
    Answer. Technology innovation frequently has multiple and varying 
operational applications. ONDCP will continue to encourage the use of 
innovative advancements in technology for all law enforcement end-
users. This task is accomplished through the use of multi-agency 
coordination panels and joint task forces such as JTF-Six and Operation 
Alliance.
    Question 3. How has the JIATF been working and what is the current 
commitment of Joint Task Force Six?
    Answer. JIATF's utilize and integrate command and control, 
communication, computer, and information systems to efficiently 
coordinate operations and intelligence information with other 
counterdrug centers, law enforcement agencies, and domestic and 
international counterdrug partners. They collect, fuse, and disseminate 
counterdrug information from all participating agencies to the 
detection and monitoring forces for tactical action as well as serve as 
the focal point for de-conflicting all non-detection and monitoring 
counterdrug activities within their respective areas of responsibility. 
The JIATF's provide a valuable service to the drug program by 
coordinating the participation of DOD assets in drug programs and 
providing substantial intelligence fusion and operational planning to 
DOD and non-DOD drug operations. They have significantly enhanced 
interagency coordination and promoted the seamless integration of 
agency interdiction forces.
    JTF-Six continues to carry out myriad missions in support of 
federal and state Law Enforcement Agencies. The JTF-Six mission is to 
provide effective Title 10 U.S.C. domestic counterdrug support as 
requested by law enforcement agencies--Operational, Intelligence, 
Engineering, and General--acting as the single point of contact for DOD 
support. JTF-Six has increased the efficiency and effectiveness of DOD 
support to domestic drug law enforcement operations by working closely 
with the law enforcement agencies, HIDTA's, and Operation Alliance.
    Question 4. Has ONDCP been able to measure significant gains as a 
result of these task forces? Is so, where have they been most 
productive?
    Answer. The JIATF's have been very effective bringing appropriate 
DOD intelligence, technological, and logistical assets to bear on the 
international drug problem. They also provide a valuable operational 
planning service that substantially increases the synergy of multi-
agency and multinational counterdrug operations.
    There are three geographically and functionally oriented JIATF's. 
They are: JIATF-South at Howard Air Force Base, Panama; JIATF-East at 
Key West Florida; and JIATF-West at Alameda, California. All three of 
the interagency task forces integrate command and control, 
communications, computers, and information systems to efficiently 
coordinate operations and intelligence information with other 
counterdrug centers, law enforcement agencies, and their international 
counterdrug partners. They collect and fuse counterdrug information 
from all participating agencies and disseminate to the detection and 
monitoring forces for tactical action. They also de-conflict other law 
enforcement counterdrug activities within their respective areas of 
responsibility. Each JIATF has a different regional focus in support of 
Goals Four and Five of the National Drug Control Strategy which address 
supply side issues.
    JIATF-West provides DOD support to law enforcement agencies and 
country teams in their efforts to disrupt international drug 
trafficking of heroin and other illegal drugs originating to Southeast 
and Southwest Asia through the Pacific ocean. JIATF-West has been key 
in the development and implementation of a regional program to track 
heroin trafficking. For example, JIATF-West sponsored the Asian 
Riverine Conference which developed a comprehensive regional course of 
action for counterdrug waterway management training.
    JIATF-South provides support to cocaine source country initiatives, 
especially detection and monitoring support to source country 
interdiction programs. Their mission is to execute U.S. national 
counterdrug policy by supporting federal agencies and participating 
nations' counterdrug efforts to deter, degrade, and disrupt the 
production and transshipment of illegal drugs within and from the 
JIATF-South area of responsibility. JIATF-South sponsored and provided 
the concept, planning, communications, and logistical support of the 
highly successful interagency and participating nation operation, Laser 
Strike. Operation Laser Strike essentially shut down the narcotics air 
bridge that flew coca base and precursor chemicals destined for the 
production of cocaine in Colombian laboratories. The disruption of the 
air bridge for almost two years has decreased the price of coca leaf to 
a point below profitability for many coca farmers. This, in turn, led 
farmers in great numbers to abandon coca and ask for help to convert to 
licit alternative development. As a result, coca cultivation has 
decreased by 18 percent in Peru last year.
    JIATF-East is the primary center for detection, monitoring, 
sorting, and handoff of suspect air and maritime drug trafficking 
events within their area of responsibility. Whereas the other JIATF's 
concentrate primarily on the regions of illicit drug production, JIATF-
East is responsible for interdiction within the transit zone of the 
Eastern Pacific, Caribbean Sea, Gulf of Mexico, and portions of the 
Atlantic Ocean. Their mission is to detect and monitor suspected air 
and maritime drug trafficking activity within the transit zone; handoff 
this information to appropriate law enforcement agencies; and de-
conflict non-detection and monitoring counterdrug activities occurring 
in the transit zone. Over the last three years, JIATF-East's support to 
U.S. and participating law enforcement agencies has shown a steady 
increase in drug seizures. JIATF-East has provided key support to 
counterdrug operations with DEA in Mexico and Central America, and to 
the interagency planning and operations of U.S. Customs and the U.S. 
Coast Guard in the approaches to Puerto Rico and the U.S. Virgin 
Islands.
    Finally, as an internal measure of effectiveness, the Joint Chiefs 
of Staff, Operations Directorate and the United States Interdiction 
Coordinator sponsor a quarterly conference to brief the senior 
interagency law enforcement and support staffs on the status of the 
JIATF counterdrug efforts. This review provides an interagency forum 
for interdiction operations and intelligence agencies to review the 
current threat, assess force laydowns and ongoing operations, identify 
gaps and shortfalls, policies and adjust resources as required.
    Question 5. Will the National Guard and reserve forces continue to 
support the Southwest Border interdiction effort?
    Answer. Support for law enforcement efforts along the Southwest 
Border continues to be a high priority for the National Guard. The 
governors of Arizona, California, New Mexico, and Texas received 
approximately $53.3 million for interdiction and demand reduction 
support in fiscal year 1997, which is approximately 33 percent of the 
total fiscal year 1997 State Plans Budget. While the governors can use 
these funds for support anywhere in the state, they are encouraged to 
give priority to the Southwest Border. Southwest Border support will be 
reduced to approximately $40 million due to the reduction in the 
National Guard's projected fiscal year 1998 State Plans Budget.
    During fiscal year 1997 DOD, through JTF-6 and the National Guard, 
has continued making significant improvements to the Otay Mountain road 
in southern California. This is in addition to the 30 miles of landing 
mat fence, barbed wire fence, and post obstacles already constructed in 
the San Diego area. The average number of DOD personnel including 
National Guard and other reserve components providing support on the 
border varies from an average of 1,500 to peaks of 2,500. The DOD 
programmatic commitment to the Southwest Border is $176.6 million for 
fiscal year 1997. The President's fiscal year 1998 request is $130.4 
million.
    Question 6. Is this a regional participation effort or are units 
from all over the country involved in supporting this program?
    Answer. DOD provides a wide range of counterdrug support to 
federal, state and local drug law enforcement agencies on the Southwest 
Border. National Guard (Title 32) support is coordinated by the 
National Guard Counterdrug Coordinator in the state where the support 
is to occur. Requests for military counterdrug support from federal 
agencies are prioritized by law enforcement through Operation Alliance, 
which is collocated with JTF-6. Requests by state and local agencies 
are prioritized by the state lead law enforcement agency.
                                 mexico
    Mexico's role as a cooperative partner in our drug interdiction 
efforts remains in question in view of hard intelligence that continues 
to identify Mexico as the main transit point for the flow of illegal 
drugs from South America into the United States. Also, Mexico 
increasingly is a major player in money laundering, production of 
marijuana, heroin, methamphetamine, prescription drug cloning and 
manufacturing of illegal chemical precursors.
    Question 1. How valid are the Mexican drug enforcement statistics? 
How have they been qualified?
    Answer. Statistics are reported from the Government of Mexico 
through the United States Embassy in Mexico City. The DEA and the 
Department of State's Bureau of International Narcotics and Law 
Enforcement should address the accuracy of the statistics; however, 
ONDCP can provide an overview. Some of the reporting by the Government 
of Mexico is independently verifiable (e.g., eradication efforts). 
Other categories of data--such as drug seizures and arrests--cannot be 
completely verified. Seizure data is usually provided by Mexican 
officials acting as liaison officers with U.S. personnel in Mexico and 
is compared with intelligence estimates from the same time frame. Often 
seizures can be verified by U.S. personnel when they are invited to 
view the seized contraband or are provided detailed reports of specific 
seizures. Arrests can be verified by reviewing photographs, statements, 
legal instruments and other documentation accumulated relating to an 
arrest. The information is distributed to U.S. law enforcement and 
intelligence agencies so that they can compare the reports with 
intelligence data and statistics from previous years. Only that data 
which can be corroborated is considered reliable.
    Question 2. Have U.S. drug enforcement personnel been given 
increased access by the Mexican government, to conduct investigations 
and surveillance operations in Mexico?
    Answer. Although prohibited by Mexican authority from conducting 
surveillance, DEA's access to Mexican documents, investigations and 
officials continues to expand. This has enabled U.S. agencies to work 
more closely with Mexican law enforcement entities involved in 
counterdrug activity. The DoJ Southwest Border Initiative provides for 
a regional concept for intelligence sharing, cooperative 
investigations, and coordinated enforcement activities.
    In addition, a cooperative international initiative has been 
established to create a joint task force concept with Mexican law 
enforcement officials in the Bilateral Border Task Forces in Mexico. 
According to DoJ, once they begin operations, the BTF's will offer the 
best opportunity for intelligence and information sharing between U.S. 
drug law enforcement agencies and Mexico. U.S. officers will be part of 
the BTF's along with specially vetted Mexican personnel. U.S. law 
enforcement agencies are also deeply involved in providing advice, 
assistance, and training to the Government of Mexico's efforts to 
reorganize its Attorney General's office and counterdrug enforcement 
apparatus. U.S. and Mexican cooperation from the operational law 
enforcement level through the national policy making level resulted in 
the HLCG's U.S. Mexico Bi-National Drug Threat Assessment, published in 
May 1997. This document marked the first bi-national agreement on the 
drug threat, and is emblematic of a spirit of increasingly greater 
cooperation. In the Declaration of the Mexican-U.S. Alliance Against 
Drugs, Presidents Zedillo and Clinton further committed both nations to 
increased cooperation, including development of a joint counterdrug 
strategy by the end of 1997.
    Question 3. What effect has NAFTA had on trafficking illegal drugs 
into the U.S.?
    Answer. One objective of NAFTA is to reduce barriers to free 
movement of goods and services between the U.S., Mexico and Canada. 
NAFTA also aims to increase investment opportunities and joint ventures 
among countries. Because the volume of commercial trade has grown, this 
increase has been and could continue to be exploited by drug 
traffickers. As the flow of money between the countries has expanded, 
so have the opportunities for the laundering of drug money. 
Consequently, flexibility and adaptability have become key to the 
success of interdiction efforts. The U.S. has addressed the growing 
drug threat by significantly bolstering its enforcement efforts along 
the border in the years following the creation of NAFTA.
    Drug traffickers often have connections with commercial trade-
related businesses. These include trucking firms, rail companies, 
commercial shipping, and the warehousing and storage that accompanies 
them. Additionally, traffickers can benefit from NAFTA-related 
transportation infrastructure upgrades such as highways, railways, air 
links, and ports. By using knowledge of the potential improvements to 
legitimate trade-related travel, traffickers may also be able to 
expedite the passage of contraband.
    It is expected that privatization of Mexican banks will continue as 
will the opening of foreign private investment. This can potentially 
aid money laundering in two ways. First, traffickers can buy bank 
stocks and seek election to bank boards to facilitate the laundering of 
their profits. Also, large amounts of U.S. currency could be invested 
into the Mexican stock market where it could increase in value, then be 
wired to a U.S. account as clean money. Detection methods of these 
suspicious transactions are complicated because the transactions can be 
completed electronically--in some cases from home computers over the 
Internet.
    Although NAFTA does not relax customs inspections, it does stretch 
current interdiction assets. We are taking action to offset any 
potential increased risk by:
  --Increasing the number of customs inspectors on the border;
  --Developing and deploying new, non-intrusive inspection 
        technologies;
  --Increasing Border Patrol staffing along the border with improved 
        secure communications and sensor systems;
  --Improving operational coordination along the border through 
        Operation Alliance and the Southwest Border HIDTA; and
  --Continuing a program of support to law enforcement agencies by 
        military and National Guard units along the border.
    These actions have produced solid results. For example, last year 
seizures of illicit drugs along the Southwest Border increased in terms 
of both the number of incidents and the weight of captured substances. 
Specifically, in 1996 narcotics seizures along the U.S.-Mexican border 
were up 29 percent by number of incidents and 24 percent by total 
weight over 1995 figures.
    Possible additional actions include:
  --Further education of law enforcement officials on NAFTA-related 
        provisions, rules, and laws;
  --Training of law enforcement officials on potential money laundering 
        schemes involving the Mexican stock exchange;
  --Close scrutinization of funds wired to the U.S. from foreign stock 
        markets;
  --Continued communication between law enforcement and commerce 
        agencies of cargo loads and modes of transportation; and
  --Development of alternate cargo inspection facilities and 
        establishment of guidelines to facilitate inspections.
    We are also working jointly with Mexico through the High Level 
Contact Group to define where we can most effectively combine efforts 
on the border. The HLCG's May 1997 U.S. Mexico Bi-National Drug Threat 
Assessment provides an excellent, mutually agreed upon description of 
the drug threat faced by both countries. The Declaration of the 
Mexican-U.S. Alliance Against Drugs commits both nations to 16 
counterdrug goals, including improving the capacity to interrupt drug 
shipments by air, land, and sea; combating corruption; enhancing 
cooperation along both sides of the common border; better information 
sharing and coordination between our counterdrug forces; and reducing 
the production and distribution of illegal drugs in both countries. 
Presidents Clinton and Zedillo also directed development of a joint 
counterdrug strategy to address these goals by the end of 1997.
    Question 4. Were any drug enforcement efforts compromised as a 
result of our alliance with General Rebollo?
    Answer. A comprehensive assessment of the impact on drug 
enforcement efforts is being conducted by law enforcement and 
intelligence agencies. To date, we are unaware of specific information 
that was compromised. We will be able to answer the question more fully 
when the assessment is complete but some general comments can be made. 
Law enforcement agencies have always been very careful in the types and 
amount of information they share, particularly with Mexico. Information 
is very specific and focused, and shared through specific, well defined 
mechanisms with appropriate safeguards. For example, DEA, FBI, USCS, 
and Mexico initiated establishment of several Bilateral Border Task 
Forces (BTF's) through which information was to be shared. The BTF's 
were not yet fully functional, and U.S. officers were not assigned to 
them at the time of General Gutierrez' arrest. As part of the 
reorganization of the Mexican Attorney General's office in the 
aftermath of the Gutierrez Rebollo revelations, all Mexican members of 
the BTF are being fully vetted by the Government of Mexico, to include 
background and financial investigations, and periodic polygraph and 
urinalysis tests.
    Question 5. What is the status of Mexico's current drug enforcement 
organizational effort?
    Answer. In late April 1997, President Zedillo directed the 
reorganization of those elements of the Mexican justice system involved 
in counterdrugs, due in part to concerns about corruption. The new 
organizations within the Mexican justice system, the Special Prosecutor 
for Crimes Against Health and the Organized Crime Unit are designed to 
be more carefully vetted, far leaner, and more focused than their 
predecessors. Individuals assigned to these units will be required to 
undergo a vetting process which will include background and financial 
investigations, and periodic polygraph and urinalysis tests. The first 
thirty of the fully vetted individuals began training with DEA in the 
U.S. on July 14, 1997.
    Question 6. Do you foresee relations improving between our 
respective drug enforcement agencies, which up until now, have been 
very strained on the operational intelligence and investigative levels?
    Answer. While there is extensive corruption in Mexico, there are 
also many brave, honest, and dedicated individuals fighting the 
corruption and violence that accompany drug trafficking. Over 300 
police were murdered in Mexico last year. Forty-three military 
personnel died, and 122 were wounded or injured in counterdrug 
operations. We believe that there are units in these organizations 
which are fundamentally sound and can be trusted with sensitive 
information. The degree of trust depends on the relationship that we 
develop over time in an environment where we will carefully watch the 
use of U.S. assistance.
    At the present time, there is a fairly effective cooperative 
relationship in effect between Mexican and U.S. law enforcement at the 
operational level. With the reorganization of Mexico's counterdrug 
enforcement structures and the institution of vetting procedures for 
their personnel, we expect that relationship to improve.
    We will continue to work at building a relationship of trust and 
cooperation with Mexican organizations involved in counterdrug 
activities which have contributed to the fight against trafficking-
related violence and corruption. President Zedillo clearly recognizes 
the menace of drug trafficking, naming it Mexico's number one security 
threat. His commitment is reflected in the cooperative workings of the 
High Level Contact Group, and in the Declaration of Alliance he signed 
with President Clinton in May. The U.S. Mexico Bi-National Drug Threat 
Assessment and the developing U.S.-Mexico Bi-national Counterdrug 
Strategy are products of improving bilateral relations and increased 
understanding and cooperation at all levels.
                            crop eradication
    Question 1. In the 1997 National Drug Control Strategy, ONDCP 
announced it's long term goals and objectives. Goal 5 is to break 
foreign and domestic drug sources of supply. The first objective for 
this goal is to reduce the cultivation of crops used in the production 
of illegal drugs worldwide, through crop eradication.
    For many of the countries identified as being principal growers of 
these crops, coca, opium, and marijuana are and have been the primary 
``cash crops'' underscoring the economy and political base of these 
poor countries.
    What is the incentive for a country to cooperate in this crop 
eradication initiative?
    Answer. It is in a country's own best interest to cooperate in crop 
eradication initiatives. In international relationships, crop 
eradication demonstrates compliance with the 1988 U.N. Convention and 
serious commitment to control illegal drug production. It is also a 
positive factor that is considered during U.S. certification 
deliberations, enhancing cooperation and support from the U.S., and 
possibly other countries. Specifically, a country's crop eradication 
program could be a factor in determining whether a country receives 
foreign aid and assistance in obtaining export-import (EX-IM) trade 
financing. Crop eradication can result in moving farmers to licit 
businesses and improving and diversifying the long-term potential for 
farmers' livelihood which is not dependent on a dangerous, destructive 
and illegal drug trafficking economy. It also helps create opportunity 
for alternative development funding and investment to improve a broad-
based, sustainable economy.
    Question 2. What is being proposed to offset the profitability of 
this crop cultivation and production of illegal drug product? What 
agricultural alternatives are we offering?
    Answer. U.S. alternative development programs which support host 
nation alternative development initiatives consist of funding for crop 
substitution, agricultural extension programs, community development 
projects, roads, schools, health care facilities, improvements in 
transportation modes, infrastructure improvements, marketing incentives 
and farm credit support. These programs are funded by the host nation, 
the U.S. and other donors. All of these programs are reinforced and 
stimulated by sustained interdiction and law enforcement measures to 
drive down the farmgate price of illicit crops, move farmers away from 
these crops, and help ensure they will not return.
    Agricultural alternatives clearly must be tailored to the local 
situation. In Peru, the principal country fully participating in 
alternative development, we support agricultural extension programs for 
former coca growers which facilitates their cultivation of cacao, 
coffee, rice, and papaya. In Bolivia there is support for pineapple, 
bananas, and other crops, as well as a juice plant to open markets in 
neighboring countries. The U.S. also helps both countries to fund 
technical help and training to turn farmers to these crops, supply 
plant pathologists to assist in creating doctoral programs at local 
agricultural universities, and provide assistance in obtaining farm 
credit financing.
    Question 3. Will this effort receive the full backing of the 
leadership in these countries, many of whom have benefited from the 
marketing of coca, opium and marijuana?
    Answer. The leadership of most drug-producing countries have come 
to the realization that narco-trafficking does severe damage to their 
legitimate economies through displacement of licit crops (including 
vital food crops) and legitimate businesses. Traffickers increasingly 
use contraband as a means to launder drug proceeds, leaving legitimate 
importers and manufacturers without the ability to compete. Obviously, 
the vast sums of money spent on law enforcement measures also take 
their toll on already stretched national budgets.
    In this regard, Peru's President Fujimori fully supports 
alternative development for the coca growing areas of his country, 
combined with a program of sustained interdiction, law enforcement, and 
the manual eradication of coca crops (vs. chemical eradication). The 
Colombian leadership supports crop eradication through chemical spray 
programs. The government of Colombia has an alternative development 
program supported in part by the UNDCP to assist farmers to move to 
legitimate crops. The government of Bolivia (GOB) supports manual 
eradication efforts and achieved a small net reduction in coca 
cultivation in 1996. The newly elected GOB has committed to a ``coca-
free Chapare''--the principal illicit coca growing area of Bolivia--by 
2002. In the opium growing source countries of Burma and Afghanistan, 
the leadership has not backed either eradication or alternative 
development measures.
    Question 4. What quality assurances will be implemented for the 
crop eradication program? How do we know they are effectively 
destroying these plants?
    Answer. The U.S. government, through annual reporting from the CIA/
Crime and Narcotics Center (CNC), publishes worldwide crop cultivation 
estimates for coca and opium based upon satellite imagery and aerial 
photography. These reports are verified by field surveys involving crop 
specialists from CNC who visit coca and opium growing areas (where 
accessible) to measure crop growth, the effects of crop eradication 
spraying efforts and abandonment of growing areas, to obtain ``ground 
truth'' of estimated cultivation.
    The U.S. verifies the effectiveness of crop destruction efforts 
through the CNC field surveys, as well as reporting from State 
Department/International Narcotics and Law Enforcement (INL) and U.S. 
Embassy personnel. State/INL supports crop eradication programs against 
coca and opium grown in the Andean source countries and participates, 
in varying degrees by country, with host nation personnel conducting 
crop eradication operations.
    Question 5. What infrastructure investment will the U.S. have to 
make into these targeted countries to facilitate crop conversion?
    Answer. ONDCP is coordinating an interagency process to develop 
estimates of the necessary resource requirements to achieve a 50 
percent reduction in coca leaf grown in Bolivia, Colombia, and Peru 
over the next five years. This investment would provide enforcement and 
interdiction measures that disrupt the cocaine export industry, as well 
as alternative development programs that would provide licit income 
alternatives and encourage the cultivation of legal crops.
    Question. 6. How accurate are these estimates in painting the 
universal picture of illegal drug production activity?
    Answer. The imagery-based sampling methodology used to estimate 
licit crops in the United States is used to estimate illicit narcotics 
cultivation around the world. The statistical methodology is highly 
reliable, and is used annually to provide a strategic trend assessment 
of the illicit narcotics crops.
    Estimating the amount of cocaine or heroin actually produced from 
the available crops is less precise. Information such as local 
consumption of coca leaves, efficiencies in converting raw materials to 
cocaine or heroin, etc., are difficult to obtain. Our overall 
estimates, therefore, are generally characterized as ``potential'' 
production. Programs such as the Drug Enforcement Administration's 
``Operation Breakthrough'' are assisting us to better understand how 
efficient the cocaine producers are. Other interagency efforts are 
underway to improve information concerning the non-U.S. demand, 
particularly for cocaine.
    Question 7. How much of our information is reliant upon figures 
provided to us by target countries? How reliable are their eradication 
and seizure activity reports?
    Answer. Information provided by the target countries for 
cultivation and production is very seldom relied upon by the U.S. 
government. Whereas seizure activity as reported by target countries is 
not completely unreliable, it does not provide a reference point for 
more in-depth analysis by U.S. authorities. Target country eradication 
figures provide a measure of the level of activity. Eradication 
assessments are based on U.S. government intelligence collection and 
crop assessments.
    Question 8. What are the current Central and South American 
estimates for production, eradication (to include in-country seizures), 
and shipment of cocaine, heroin, and marijuana to the United States?
    Answer.

                                LATIN AMERICA ILLICIT NARCOTICS PRODUCTIONS, 1996                               
----------------------------------------------------------------------------------------------------------------
                                                              Cultivation  Eradication   Potential     Seizures 
                                                                  (ha)         (ha)      production      (mt)   
----------------------------------------------------------------------------------------------------------------
Cocaine:                                                                                                        
    Bolivia.................................................       48,100        7,500          215        76.40
    Peru....................................................       94,400        1,260          435        19.69
    Colombia................................................       67,200   \1\ 16,053          110        23.50
Heroin:                                                                                                         
    Mexico..................................................        5,100        7,900            5         .363
    Colombia................................................        6,300    \1\ 6,028            6         .183
Marijuana: Mexico...........................................        6,500       12,200        3,400        1,150
----------------------------------------------------------------------------------------------------------------
\1\ Reported spray activity.                                                                                    
Seizure data: International Narcotics Control Strategy Report, 1997.                                            

To date, there are no reliable estimates regarding the shipments of 
heroin or marijuana to the United States, other than as discussed 
above.
    The Interagency Cocaine Flow Working Group estimated for 1996 that 
648 metric tons of cocaine left the source zone (i.e., South America) 
destined for the United States and other world markets. This estimate 
was based on known events totaling 321 metric tons and possible events 
estimated at 327 metric tons. Of the 648 metric tons that left South 
America, 191 metric tons were seized either en route or in the arrival 
zone (i.e., the United States). The remaining 457 metric tons were 
presumed to have reached world markets, including the United States. 
Estimates for the first quarter of 1997 suggest a continuation of this 
pattern.
    Question 9. What are the weaknesses in the estimates?
    Answer. As noted above, it is difficult to estimate the amount of 
coca leaf or opium gum actually harvested and processed. Illicit 
narcotic crops are detected using imagery; estimates of actual heroin 
and cocaine production are more difficult to measure.
    The principal weakness associated with our cocaine movement 
estimates are caused by incomplete intelligence. For example,
  --Even when we know a cocaine movement has occurred, we sometimes 
        have to estimate the volume of cocaine delivered.
  --For ``possible'' events, where cocaine movement intelligence has 
        not been corroborated, we often lack data elements, such as 
        route, conveyance, or quantity. In those cases, our estimate of 
        the missing data are based on precedent but subject to error.
  --Despite comprehensive monitoring of air and sea routes to the U.S., 
        traffickers are often able to avoid detection completely. This 
        is particularly true with small amounts (less than 10 kilos) 
        smuggled to world markets via commercial or maritime shipments.
    The principal weaknesses in seizure data estimates are: (1) 
Overestimates--host governments tend to overestimate reporting, and the 
possibility of double counting; and (2) Timeliness of reporting--host 
governments officially report seizures once a year to the U.S. just 
prior to certification. The CIA Counternarcotics Center maintains its 
own comprehensive database of actual seizure events from all-source 
reporting. The database provides an accurate representation of ongoing 
seizures in the source and transit countries. In some cases, however, 
the timeliness of seizure reporting can lag for a month or more, 
requiring constant updates to the database.
                            drugs and crime
    Question 1. What prevention programs are successful in keeping 
individuals from sliding into a life of drug abuse? What are the 
ingredients for a successful program?
    Answer. Over the past 20 years, HHS and the National Institute on 
Drug Abuse have supported a rigorous research program to determine what 
really works to help prevent drug abuse among youth. HHS was mandated 
by Congress to conduct a three-year study of prevention programs. The 
final product, the National Structured Evaluation, identified the 
necessary ``ingredients'' or ``modules'' which contributed to 
successful program outcomes. There are fourteen principles which focus 
on: enhancing ``protective factors'' and reversing known ``risk 
factors,'' targeting all forms of drug use, including tobacco and 
alcohol; teaching resistance skills and increasing opportunities to 
practice social competency skills; interactive methods; involving 
parents and school; working with communities to strengthen ``norms'' 
against drug use; age-specific, developmentally appropriate and 
culturally sensitive.
    In addition, NIDA has recently published a researched-based guide 
to prevention programming, which identifies and highlights ten school-, 
community-, and family-based programs as effective. These science-based 
guidance documents are being disseminated to communities around the 
country to assist in a more disciplined application of research results 
at the state and community levels.
    Question 2. What new programs are on the horizon? Who are the 
targets and what are the goals?
    Answer. New programs are being developed as part of a research 
protocol and tested in a family, school or community setting over a 
reasonable period with positive results. There are new definitions 
adopted by the prevention field, which describe programs by the 
audience for which they are designed--specifically, universal, 
selective, and indicated programs. Universal programs reach the general 
population--all students in a school; selective programs target groups 
at risk or subsets of the general population--children of drug users or 
poor school achievers; and indicated programs for people already using 
drugs or exhibit other risk-related behaviors.
    Life Skills Training Program is an example of a universal classroom 
program designed to address a wide range of risk and protective factors 
by teaching general personal and social skills in combination with drug 
resistance skills. Strengthening Families Program is a selective 
prevention program, a multi-component, family-focused program that 
targets 6-to-10-year-old children of substance abusers. Reconnecting 
Youth Program is a school-based indicated prevention program that 
targets young people in grades 9 through 12 who show signs of poor 
academic achievement and potential for dropping out of school. 
Adolescent Transition Program is one which integrates all three 
approaches and focuses on parenting practices.
    Question 3. What should be done for those who are arrested for the 
first time and found to be abusing drugs?
    Answer. At a minimum, pretrial or post-conviction release should be 
conditioned on compliance with a program of drug testing and 
monitoring. Preferably, a formal assessment should be performed to 
determine the extent of the drug problem and any release should be 
conditioned on compliance with the treatment and/or monitoring regime 
that is developed in response to the assessment. Sanctions should be 
graduated (ultimately ending with incarceration) and employed swiftly 
in response to any slips in compliance.
    Question 4. Are there any examples where early treatment referral, 
after arrest, has successfully disengaged these individuals from 
further drug use and a subsequent life of crime?
    Answer. Effective offender management programs bring offenders 
under criminal justice supervision early, employ a formal assessment, 
apply palpable sanctions swiftly, and maintain unbroken contact with 
the offender. A notable example is the TASC program (originally called 
Treatment Alternatives to Street Crime, now generally called Treatment 
Alternatives for Safer Communities), which has been formally evaluated 
by the National Institute on Drug Abuse (NIDA) and found to be 
effective in reducing both drug use and crime. The more recently 
established drug courts, which rely on TASC or TASC-like offender 
management, are experiencing similar results.
    Question 5. What are the most vulnerable ages and influencing 
demographics in this process?
    Answer. The most extensive research on development and 
vulnerability focuses on early childhood, especially the pre-school 
years. For this group, risk factors (e.g., unemployed, and/or drug 
using, and/or law breaking parents) and predictive behaviors (e.g., 
excessive shyness) have been identified. For older children, points of 
significant transition (e.g., from elementary to middle school and from 
middle to high school) are times of increased vulnerability. Children 
between 11 and 13 years of age appear to be particularly vulnerable, in 
that they are going through multiple transitions. Children with strong 
positive ties to healthy parents seem most able to weather these 
transitions.
                              drug courts
    Question 1. How successful are the existing Drug Court programs in 
reducing the demand for illegal drugs?
    Answer. One indicator of demand reduction is the extent to which 
drug-law offenders stop using drugs. Since Drug Courts began operating 
in 1990, more than 45,000 persons have entered the program. More than 
70 percent of them have ``graduated'' or are presently in a Drug Court 
program, outcomes we equate with abstinence.
    Question 2. How many programs are currently in effect nationwide?
    Answer. There are approximately 200 drug courts in the United 
States.
    Question 3. What key factors influence the success of this program?
    Answer. The success of Drug Courts is attributable to a number of 
factors including the immediacy of entry into the program, a condition 
often imposed within days of arrest; availability of treatment and 
other health rehabilitation services; direct judicial monitoring of 
offenders; immediate imposition of sanctions when program participants 
violate program requirements; Drug Court strategies that are 
comprehensive (e.g., inclusive of criminal justice system, treatment, 
community anti-drug organizations) and fully coordinated.
    Question 4. How early in the criminal justice process are eligible 
candidates referred into the Drug Court process?
    Answer. Participants usually enter Drug Court programs within days 
of their arrest. Indeed, many are transported to a Drug Court 
orientation facility immediately after acceptance in the program and 
prior to their (conditional) release into the community.
    Question 5. Please describe a typical case for Drug Court referral.
    Answer. Drug Courts differ. There are, however, commonalities that 
approximate a ``model.''
    For example, the person arrested and charged with illegal drug 
possession is interviewed by drug court staff while in custody, usually 
prior to arraignment. Program eligibility having been established, the 
defendant is arraigned before a Drug Court judge (often on the same day 
as arrest) and placed in the Drug Court program.
    The initiate is ordered to undergo program orientation (again, this 
often occurs on day-of-arrest). Ideally, pretrial services, treatment 
assessment, and ``Treatment Alternatives for Safe Communities'' (TASC) 
involvement are also achieved on day-of-arrest.
    Program participants are drug tested upon entry and must meet with 
supervisory staff and/or receive treatment at least weekly. Progress is 
monitored by the Drug Court judge monthly. At the conclusion of at 
least one year of treatment and supervision, participants ``graduate,'' 
their cases are dismissed and probation terminates.
    Question 6. What is the projected impact of these Drug Courts in 
breaking the cycle associated with drug-related crime and punishment?
    Answer. Research conducted by the University of Maryland (Center 
for Substance Abuse Research, University of Maryland, Drug Strategies, 
Cutting Crime: Drug Courts in Action, 1997, Washington, DC) concludes 
that ``recidivism has been significantly reduced for drug court 
participants.''
    Question 7. What happens to an individual who does not subscribe to 
the mandates of the Drug Court?
    Answer. Participants who do not fulfill their program obligations 
are subjected to graduated sanctions. At a minimum, drug testing 
frequency may increase and additional treatment might be required. As 
program violations mount, severe sanctions accrue, to include 
imprisonment, program expulsion, and reimposition of criminal 
proceedings.
                       hard core users and crime
    Question 1. ONDCP states that on average, 12.5 million Americans 
are considered to be ``past month users'', of which 3.6 million are 
considered to be ``hard core'' users. These 3.6 million hard core drug 
users are said to be responsible for most of the drugs consumed and 
drug related crimes in the U.S. today. Two thirds of these hard core 
individuals will come in contact with our criminal justice system.
    The National Drug Control Strategy is focusing on ``Demand 
Reduction'', which targets breaking the cycle of drug dependence. A key 
factor for the success of this initiative is in breaking the cycle of 
demand by hardcore drug abusers. Please define ``past month users'' and 
``hardcore users.''
    Answer. Past month use is a standard term used in many epidemiology 
surveys of drug use (e.g., the National Household Survey of Drug Abuse 
[NHSDA] and MTF.) Past month users are those individuals who use drugs 
at least once in the 30 days prior to the interview. They also are 
commonly referred to as ``past 30 day users'' and ``current users.'' 
Hardcore users (or chronic hardcore users) is not a term used typically 
in association with epidemiologic surveys because this population is 
difficult to measure and is, therefore, not well represented in surveys 
of the general population, such as the NHSDA and the MTF. However, it 
is a useful term in describing the most difficult and troublesome 
population of drug users. Hardcore users are those individuals who use 
drugs on a weekly (i.e., heavy) basis and whose use of drugs is 
accompanied by negative behavioral consequences (e.g., unemployment, 
criminal activity, and an inability to sustain relationships).
    Question 2.. How is society impacted by this population of hardcore 
users?
    Answer. Hardcore drug users are one of the most troubling aspect of 
the nation's drug problem and negatively impact society in many ways. 
For example, the hardcore using population while representing 
approximately 30 percent of the cocaine using population, accounts for 
more than two-thirds of all of the cocaine consumed in the United 
States. It is these users who maintain the illegal drug market, and its 
attendant violence, and keep drug traffickers in business. Hardcore 
users are responsible for a disproportionate amount of crime, and the 
frequency and severity of their criminal activity rises dramatically 
during periods of heaviest use. Hardcore users frequently are 
``vectors'' for the spread of infectious diseases such as hepatitis, 
tuberculosis, and HIV and other sexually transmitted diseases. It is 
this population that serves as a reservoir of drug use for periodic 
outbreaks of renewed use of drugs among the general population, as we 
may currently see with heroin and methamphetamine.
    Question 3. What precipitates hard-core drug use?
    Answer. Scientists have attempted for many years to determine the 
origins of illicit drug use and how it progresses to chronic use. Key 
factors have been identified that differentiate those who use from 
those who do not. Risk factors are associated with those who have a 
high potential for drug use. Factors associated with reduced potential 
for use are identified as protective factors. These risk factors can 
have different consequences dependent upon an individual's phase of 
development. Generally, however, these risk factors include:
  --Chaotic home environments, particularly in which parents abuse 
        substances or suffer from mental illness;
  --Ineffective parenting, especially with children with difficult 
        temperaments and conduct disorders;
  --Lack of mutual attachments and nurturing;
  --Failure in school performance;
  --Poor social coping skills;
  --Affiliations with deviant peers or peers around deviant behaviors;
  --Perceptions of approval of drug-using behaviors in school, peer, 
        and community environments; and
  --Availability of drugs, trafficking, and beliefs that drug use is 
        generally tolerated.
    Question 4. What mechanisms do we have to identify hard core drug 
users?
    Answer. There are a number of assessment instruments that can 
determine the relative severity and progression of a user's drug abuse, 
health and social consequences, and criminal and other behavioral 
consequences. Many also address the so-called ``stakes in conformity,'' 
the ties to society's institutions that can be helpful in recovery. For 
example, the Federal Bureau of Prisons employs a residential drug abuse 
treatment eligibility interview instrument that is linked to the 
Diagnostic and Statistical Manual (DSM IV) of the American Psychiatric 
Association. Many jurisdictions and programs use the Addiction Severity 
Index (ASI) developed through the efforts of researchers at the 
University of Pennsylvania and the Philadelphia Veterans' Affairs 
Program. Others, such as Colorado and Birmingham, use the Offender 
Profile Index (OPI), developed under a federal demonstration program. 
An example of a gross screening instrument would be the CAGE test for 
use by primary and/or emergency room health care professionals.
    Question 5. How effective have ONDCP efforts been in terms of 
hardcore users? In other words has the level of hardcore users changed 
over the past ten years?
    Answer. The level of hardcore drug users has remained relatively 
stable over the past 10 years. There are an estimated 2.1 million 
hardcore cocaine users and about 600,000 hardcore heroin users. 
However, this population is known to be very intractable and difficult 
to reduce. Also, research indicates that heavy use declines slowly 
following declines in initiation. According to a 1994 RAND study 
(Everingham and Rydell, Modeling the Demand for Cocaine): ``. . . the 
effect on heavy cocaine usage of government programs that reduce 
incidence (such as prevention programs) will only be realized many 
years later, and part of the effectiveness of local law enforcement 
programs and other programs that influence drug use in multiple ways 
(affecting incidence, flow rates, and the consumption rates of current 
users) also will be delayed.'' The good news is that the number of 
cocaine initiates has been declining. Cocaine initiates reached their 
peak in 1984 at 1,401,000. Since then they have fallen 62 percent to 
533,000 in 1994. Consequently, if we continue to support the 
coordinated efforts of prevention, treatment, interdiction, and source 
country programs then we can expect to begin to see a reduction in the 
hardcore user population.
    Question 6. What is the average life span of hard-core drug users?
    Answer. The average life span for the chronic addict, without 
therapeutic intervention, is shortened by about 20 years. The decreased 
life span is attributable to a number of factors including lifestyle 
(i.e., criminal behavior to support habit and diminished quality of 
life) and deterioration of health secondary to infection and resulting 
disease. With therapeutic intervention, the life span is the same as 
for the average American, if the addict receives adequate health care 
(including the use of appropriate medications) to effectively counter 
the effects of illicit drug use.
    For the approximately 600,000 opiate addicts that drug is 
Methadone. Methadone treatment clearly ranks as the most promising and 
available treatment for the opiate addict on the market today. The 
research indicates that the combined impact of psychosocial services 
and Methadone maintenance significantly improves the outcomes for the 
intravenous drug user. Some studies indicate that the longer a person 
remains in treatment the more lasting the benefits, i.e., less criminal 
activity, improved health, better overall quality of life.
    The approximately 1.6 million Americans who are chronically 
addicted to cocaine also experience a positive response (improved 
quality of life which equates with longevity) when provided 
comprehensive psychosocial interventions and appropriately medicated 
for relief of psychic and physical symptoms.
    Question 7. Is there evidence that the cycle of demand can 
effectively be broken for this group?
    Answer. The cycle of demand can be broken for the user. However, 
the extent of their addiction must be matched with treatment of 
sufficient intensity and duration. Addiction is a treatable, chronic, 
relapsing disorder. Significant benefits accrue to society at the point 
of an addict's entry into treatment--drug use, criminal activity, and 
infectious disease transmission are sharply reduced.
    For example, the congressionally-mandated, National Treatment 
Improvement Evaluation Study (NTIES) determined the persistent (12-
month follow-up) effects of substance treatment on predominately poor, 
inner-city populations as follows: use of illicit drugs dropped an 
average of 50 percent; batteries dropped by 78 percent, drug selling by 
78 percent, shoplifting by 82 percent, and arrests by 64 percent; 
exchange of sex for money or drugs dropped by 56 percent; homelessness 
dropped by 43 percent and receipt of welfare income by 11 percent; and 
employment increased 19 percent.
    Question 8. If we find there are no effective treatment tools, what 
will be our alternatives for dealing with this group?
    Answer. Fortunately, the threat or application of criminal justice 
sanctions linked to treatment has proven generally effective. For 
violent, drug abusing criminals, long-term incarceration may be 
necessary. Treatment should still be provided to this group because it 
will improve institutional and correctional staff safety and because it 
is bound to have some effect over time. For nonviolent but persistent 
petty drug abusing criminals, longer-term probation sentences linked to 
treatment would be in order. Those in need should receive treatment at 
every security level, linked with unbroken contact with the criminal 
justice system.
    Question 9. If you had to balance your spending between preventing 
the 1st time use of drugs and treatment programs for hard core users, 
what would be the best investment?
    Answer. It is very difficult to consider preventing drug use by our 
children and helping the 3.6 million Americans who are chronic drug 
users overcome their dependency problems as mutually exclusive 
priorities. They should not be viewed as either/or propositions. If 
resources are invested in effective drug prevention programs, then the 
number of future drug users will be reduced. This will mean that there 
will be fewer casual drug users, and even fewer chronic users.
    The 1997 National Drug Control Strategy recognizes that investments 
in drug prevention programs will pay off. That's why the Strategy's 
number one goal is to educate and enable America's youth to reject 
illegal drugs as well as alcohol and tobacco. We know that a 12-year 
old who smokes marijuana is 85 times more likely to use cocaine than 
one who doesn't smoke, drink, or use pot as a drug-free peer. As we 
learn more about the ways that psychoactive substances affect the 
brain, we understand that if youth avoid using alcohol, tobacco, or 
illegal drugs until their twenties, then they are less likely to suffer 
a drug dependency problem. This logic is at the heart of the ONDCP-
proposed youth-oriented anti-drug campaign.
    At the same time, we cannot ignore the fact that those Americans 
who are addicted to illegal drugs and other substances cause enormous 
damage to themselves, their families, and their communities. We must 
continue to invest in effective public and private treatment programs. 
We must also expand diversion programs within the criminal justice 
system (such as drug courts) so that we can break the cycle that links 
addiction, crime, and violence.

                          Subcommittee Recess

    Senator Campbell. The subcommittee is recessed.
    [Whereupon, at 11:58 a.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene at 9:32 a.m., Thursday, 
June 19.]


  TREASURY AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              


                        THURSDAY, JUNE 19, 1997

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Shelby, Faircloth, and Kohl.
    Also present: Senator Kerrey.

   NATIONAL COMMISSION ON RESTRUCTURING THE INTERNAL REVENUE SERVICE

STATEMENT OF HON. J. ROBERT KERREY, U.S. SENATOR FROM 
            NEBRASKA, AND COCHAIRMAN, NATIONAL 
            COMMISSION ON RESTRUCTURING THE INTERNAL 
            REVENUE SERVICE

                            Opening Remarks

    Senator Campbell. The subcommittee will be in order. This 
morning will be the final hearing on the fiscal year 1998 
budget for the Subcommittee on Treasury and General Government. 
This morning we will be discussing the 1998 budget for the 
Internal Revenue Service and the recommendations for the future 
of the agency.
    Since there appears to be little controversy on either 
subject, hopefully it will not be too painful. There are a lot 
of issues facing the IRS now and over the next several years. 
It is one of the largest Government users of computer 
technology. They face a huge task of correcting the year 2000 
recognition problem.
    As I understand it, right now the IRS does not know how big 
the Y2K problem is, let alone how much it is going to cost to 
fix it. In addition, there is the ongoing need to increase 
collections, while at the same time improve public relations 
with the taxpayers.
    There is also the necessary technological improvements 
originally envisioned as part of the tax modernization system, 
commonly referred to as a TSM, and now encompassed in the newly 
released modernization blueprint or architecture.
    The biggest problem, in my opinion, however, facing the IRS 
is the credibility problem, not only with the taxpayers 
themselves but with the Members of Congress, particularly the 
appropriators. It is difficult, if not impossible, for us to 
simply forget about wasted modernization funding and go right 
ahead and set up an informal information technology fund with 
the initial investment of over one-half of a billion dollars.
    Our first witness this morning is the former ranking member 
of this subcommittee, Senator Bob Kerrey, who is on his way and 
hopefully will be here when we finish our opening statements. 
Senator Kerrey is currently serving as the cochairman of the 
National Commission on Restructuring the Internal Revenue 
Service, an entity created by this subcommittee.
    This Commission is nearing completion of a year-long review 
of the IRS and will be issuing their comprehensive report on 
June 25. Hopefully we will have a preview this morning of some 
of the recommendations which will be contained in that report.
    Then we will be talking to the General Accounting Office. 
As many of you know, the GAO is reviewing various aspects of 
the IRS and has been for a number of years. And finally, we 
will hear from the Department of the Treasury and the Internal 
Revenue Service themselves.
    Representing the Treasury Department will be Deputy 
Secretary Lawrence Summers, the department-level person 
responsible for the IRS. Joining him will be the Acting 
Commissioner of the IRS, Michael Dolan. Also seated at the 
witness table with that committee and available to answer 
questions from the subcommittee will be David Mader, if I have 
pronounced that right, Chief of Management and Administration; 
Arthur Gross, the Chief Information Officer; and James 
Donelson, the Chief of Taxpayer Service.
    We have a lot of ground to cover and I do not know about 
Senator Kohl's briefing book, but mine has more questions than 
we will probably ever get through this morning. And so, we will 
be asking some and we will also be submitting a number of them 
for the record to be answered by the appropriate people.
    As a general announcement, since this is the last hearing 
of this subcommittee during the fiscal year 1998 budget cycle, 
we will be accepting written testimony from interested parties 
to be included in the complete hearing record only until close 
of business on June 30.
    With that, I will just go ahead and ask Senator Kohl if he 
has an opening statement.

                       Statement of Senator Kohl

    Senator Kohl. Thank you very much, Chairman Campbell. As 
members of the Treasury and General Government Subcommittee 
and, more importantly, as taxpayers, we all have great interest 
in the IRS. We need to know that the IRS is fulfilling its 
mission, namely collecting tax revenues at the least possible 
cost.
    The IRS's fiscal year 1998 request is almost $8 billion. 
That, of course, is a great deal of money. Before providing 
that funding, this committee has a right to know whether the 
IRS is being managed effectively and whether the Department of 
the Treasury is providing an adequate level of oversight.
    We are all aware of the creation of the Modernization 
Management Board chaired by the Deputy Secretary of Treasury 
Summers. What we do not know is whether that board is any more 
effective than past efforts in providing IRS with a consistent 
level of direction and review.
    I am concerned that the numerous issues the Deputy 
Secretary deals with will leave him little time to analyze the 
operations of the IRS. Perhaps consideration should be given to 
empowering someone to provide IRS oversight full-time. We are 
also concerned with the quality of management provided by the 
IRS Commissioner.
    We are aware that the Commissioner's position often acts as 
a revolving door. Structure needs to be developed to ensure 
that the person accepting this position is making a commitment 
to provide Federal service and leadership for an established 
period of time.
    The person selected must have a proven track record of 
having the management capabilities to run a large, successful 
operation. And it is important that the person appointed to 
that position has the ability to successfully supervise 
downsizing initiatives, modernization challenges, and the year 
2000 conversion.
    An example of why we have these continuing concerns with 
the IRS management efforts can be explained by a request we 
received just yesterday. IRS is requesting an additional $258 
million in fiscal year 1998 to complete a systems conversion to 
meet the year 2000 requirements. I am concerned about this 
request, which is tied to the modernization effort.
    We need to know, why are we hearing about it so late, what 
proposals the Department of the Treasury has for funding this 
request, has the Modernization Board approved this request, and 
how do we know the funds will be used to solve just the 
conversion problems?
    Today we will be hearing from the experts. Senator Kerrey 
is chairing a commission studying the IRS. The GAO office has 
issued over 140 reports on IRS operations, and Deputy Secretary 
Summers and the IRS staff are working through the modernization 
problems, customer service problems, and the latest crisis, the 
year 2000 compliance initiative.
    We are looking forward to an informative discussion on the 
steps that we, the Department of the Treasury, and the IRS must 
take to ensure that any further expenditures made are utilized 
appropriately. I have a number of questions for the IRS service 
that I will ask, and those we do not have time to get to, I, 
like Chairman Campbell, will submit for the record. Thank you, 
Mr. Chairman.
    Senator Campbell. Thank you, Senator Kohl. Well, since 
Senator Kerrey is running late--oh, well, he just came in. We 
have been waiting with bated breath for your testimony, Senator 
Kerrey. Why don't you go ahead and sit down? We just finished 
our opening statements and you may proceed.
    Senator Kerrey. Were they brilliant?
    Senator Campbell. They were brilliant, yes. You may go 
ahead and proceed.

                      Statement of Senator Kerrey

    Senator Kerrey. Mr. Chairman and Senator Kohl, it is very 
nice to be sitting here with you this morning. I appreciate 
very much the opportunity to testify before your committee. 
From your position, a couple of years ago, the National 
Commission on Restructuring the Internal Revenue Service began. 
It began as a consequence of making some observations about 
taxes and modernization not going well.
    We tried to fence it in conference committee, were 
unsuccessful in doing that, and with the support of the chair 
and the ranking member on the House side, we created this 
Commission. Therein lies the beginning.
    For the past year, as the cochair of the National 
Commission on Restructuring the Internal Revenue Service, I 
have worked with Senator Chuck Grassley and Congressman Rob 
Portman, who was the cochair of the Commission, as well as 
State tax administrators, private sector executives, and 
citizens groups reviewing IRS operations, management, 
governance, oversight, budget, work force, and technology.
    It is an honor to report to the Senate Appropriations 
Committee because as I said, you are the parent of our 
organization. As you know, we were created to take a hard look 
at the operations, management, governance, and oversight of the 
IRS.
    The Commission took a qualitative approach to its work, 
spending the majority of its time listening to American 
taxpayers, and experts on the IRS and the tax system. The 
Commission spent 12 days in public hearings and over 100 hours 
in private sessions with public and private sector experts, 
academia, and citizens groups.
    The Commission also held three field hearings in 
Cincinnati, Omaha, and Des Moines. We met privately with over 
500 individuals, including the majority of senior level IRS 
employees and interviewed close to 300 IRS frontline employees 
across the country.
    We received continuous input from stakeholder groups and 
conducted a nationwide survey on the American public's view of 
the IRS. And finally, the Commission reviewed thousands of 
reports and documents on the IRS itself. I am convinced, Mr. 
Chairman, that a well-run Internal Revenue Service is vital to 
the health of our Nation.
    Twice as many people pay taxes as vote. Therefore, the IRS 
is the only Federal Government agency many citizens interact 
with. We must make sure that the IRS meets their expectations 
for professionalism, service, and efficiency. A well-run IRS 
can increase the public confidence in their Government.
    The second reason IRS is so important is obvious. IRS 
collects 95 percent of the Nation's revenues. Without the IRS, 
we would not be able to fund highways, education programs, or 
the military. Now, what I will discuss today with you is the 
recommendations coming from the majority of the Commissioners. 
The Commission developed a simple, but sound vision: The IRS 
works for the taxpayer, not the other way around.
    I would like to quote from our report. ``Taxpayer 
satisfaction must become paramount at all levels of the IRS and 
the IRS should only initiate contact with a citizen if the 
agency is prepared to devote the resources necessary for a 
proper and timely resolution of the matter.''
    What that means is that rather than treating people as 
guilty, the IRS must recognize the majority of taxpayers want 
to pay their fair share of taxes, and it is the agency's job to 
make it easier for them to do so. A new customer service data 
base is integral to this vision. Electronic filing is also an 
integral part of the vision.
    Taxpayer rights are also part of the vision. Now, last 
year, some of the press asked the IRS head of strategic 
planning what was going to be the agency's strategic direction 
for 1997, and the answer, ``Get through the 1997 filing 
season.'' This is the epitome of what thinking strategically is 
not about. Our vision says that the taxpayer satisfaction all 
year long is equally as important as a smooth filing season.
    Today the IRS rates low in citizen approval for its 
service. It has a 20-percent error rate and it expends an 
incredible amount of resources and focus to correct these 
errors. They capture only 40 percent of the data from returns. 
It is 18 months before a return can be matched against 1099's.
    Can you imagine a private sector business taking 18 months 
to send someone a bill saying, ``Mr. Kerrey, our records show 
that a year-and-a-half ago, you underpaid your bill.'' 
Certainly they would not stay in business very long.
    The Commission report offers both a realistic goal for the 
new folks in charge of the agency and a credible plan for 
achieving that goal. In these days of tight budgets and limited 
governmental resources, the IRS must retool its 1950's 
processes and refocus these resources to add value to customers 
in order to reach the Commission's vision.
    After spending many months digging around in the many tough 
issues confronting the IRS, the substantial majority of our 
Commission members realized that the agency suffers from two 
root problems. First, the agency has a difficult time focusing. 
The result is that many plans receive no follow through and the 
organization often lacks a coherent strategy and direction.
    The most obvious example of this lack of focus was the tax 
system's modernization debacle. The IRS threw $4 billion in 
technology money at hundreds of unrelated projects. The result 
was lots of little interesting computer applications, but no 
significant business achievements.
    The IRS executives and Treasury never decided what the 
organization wanted to accomplish. Whether it was to answer 
more phones or have more taxpayer data available for customer 
service representatives. In a better run system, that kind of 
business decision would be the predicate for a modernization 
effort. All money would be directed toward achieving that 
organizational goal. In the case of the IRS, however, because 
of the lack of strategy and direction, the $4 billion went to 
disparate programs not integrated to meet a specific business 
objective.
    The second interrelated problem identified by the 
Commission was a lack of a coherent, accountable structure to 
implement a long-term vision and goal. We found that we in 
Congress often send conflicting signals to the agency. We found 
that Treasury has basically left IRS to its own devices, 
leaving a vacuum in the executive branch oversight of the 
agency.
    We found a set of managers unable to maintain focus and 
gain traction with Congress on IRS strategy. In short, at the 
top of the IRS and in Treasury, there are murky lines of 
accountability, a lack of necessary expertise to operate in the 
new information age, and no one with authority sticking around 
long enough to get the job done.
    The officials at the Treasury Department have expertise in 
tax law and enforcement, but do not have the expertise in areas 
of customer service, technology, and management to oversee the 
IRS. Furthermore, they are not around long enough to ensure 
focus on multiyear projects like TSM or changing the culture of 
the agency to be more responsive to taxpayers.
    Additionally, Treasury does not coordinate the oversight it 
does engage in. The Commissioner of IRS must deal with various 
assistant secretaries on budget, operations, computers, and 
other issues. At the end of the day, the Commissioner really 
reports to the Deputy Secretary who also manages 10 other 
agencies, not to mention the economy.
    The recently retired Commissioner of IRS, Margaret 
Richardson, told us that she reported to three different Deputy 
Commissioners during her time in office. Because of these 
problems, the Commission began developing ideas for a new 
governance structure. The criteria for success of any new 
structure were one, clear accountability; two, expertise in 
running a modern, customer-oriented organization; and three, 
the continuity to get the job done.
    To solve the problems of continuity, expertise, and 
accountability, the Commission will recommend first, a board of 
governors appointed by the President for staggered 5-year terms 
to assume full control of IRS governance. The board will be 
fully accountable for the performance of IRS, oversee the IRS 
management, be around long enough to enforce changes throughout 
the organization, and have unique public and private sector 
expertise in managing large service organizations.
    Second, the Commissioner will be appointed for a 5-year 
term so he or she will be around long enough to effectuate real 
change. Third, the Commissioner will be given greater 
flexibility to hire or fire his own team of executives who will 
bring new expertise into the IRS.
    Fourth, the IRS will receive stable funding so its leaders 
can undertake the proper planning to rebuild its foundation. 
Our recommendations specifically say that for 3 years, IRS 
should receive current levels of funding. It is up to Congress 
to decide whether that should be current budget or current 
budget plus inflation.
    We purposely left it up to Congress to decide. We were 
silent on technology funding except that we encourage any 
additional appropriations be targeted toward (a) building a 
taxpayer accounts data base to facilitate taxpayer assistance, 
and (b) ensuring certain success in the century date change 
problem.
    Last, we recommended congressional oversight could be 
better coordinated between the authorizing committees, the 
appropriating committees, and the Government oversight 
committees. We will recommend that committee leaders, minority 
and majority, meet regularly to ensure that IRS receives clear 
guidance from Congress and that Congress is given the proper 
information to oversee the IRS.
    As you may know, the Secretary of the Treasury Bob Rubin 
and the Deputy Secretary Larry Summers disagree with our plan 
for a Board of Governors to oversee the IRS. They have 
developed an alternative proposal which would create two 
advisory-type boards which are an attempt to strengthen 
Treasury's governance of IRS.
    While we seriously considered their proposal, in the end, 
the Commission rejected this approach. First, our opinion is 
that it further blurs accountability just when there is a need 
for clearer lines of accountability. Second, it does nothing to 
alleviate the continuity problem. Political appointees who 
traditionally serve for a short period of time will continue to 
oversee IRS operations.
    Third, it endangers politicizing the IRS. What we need is 
accountability without politicization. The Treasury's proposal 
to create an oversight board of officials from OMB, OPM, and 
the Vice President's Office could undermine the credibility of 
IRS as an apolitical institution.
    The White House has always, in our judgment, wisely tried 
to keep an arm's length distance from IRS. Finally, it does not 
guarantee that the people with the proper expertise in 
computers, technology, and service will oversee IRS operations.
    Secretary Rubin and Deputy Secretary Summers have been 
vigilant in their attacks of our proposal. They have said that 
private people should not control law enforcement and that our 
Nation's revenue stream will be at risk under our proposals.
    Those accusations, Mr. Chairman and members of the 
committee, are simply not true. First, we propose that the 
Board of Governors be presidentially appointed, Senate-
confirmed, and removable at the will of the President. While 
they serve on the Board, they will be special Government 
employees serving in a Government function, much like the 
Postal Board of Governors who have vast control over the Postal 
Service, including the enforcement arm of the Postal Inspection 
Service.
    Additionally, this Board will not have any role in tax 
policy, which will stay with the Secretary of the Treasury. 
Much like the Canadian system, our proposal will draw clear 
lines of accountability between tax policy and tax 
administration. Also, the Secretary of the Treasury will sit on 
the Board, subjecting the Board to scrutiny were there to be 
any appearance of impropriety.
    Finally, the Secretary of the Treasury would continue to 
have final say over the IRS budget before it is sent to 
Congress. Under our proposal, the Board would send Congress a 
copy of their budget at the same time they sent it to the 
Secretary, allowing Congress to make the decision of how much 
money to appropriate.
    As for the comment about endangering the Federal revenue 
stream, all I can say is that as far as I am concerned, that is 
an irresponsible comment. Anyone who understands the IRS knows 
it is like a tank, impenetrable. While our integrated proposal 
will hopefully jolt the agency into a customer focus, it 
certainly does not endanger its operation. I can only attribute 
this comment to the classic Washington battle over turf.
    The structural changes I described earlier will ensure the 
following operational changes are implemented. First, we 
advocate work force flexibility. Current Civil Service rules 
make it difficult for the IRS to retain competent employees, 
fire bad employees, and pay people appropriately. We recommend 
that the IRS be given the flexibility to redesign its work 
force rules and develop appropriate internal measurements to 
free employees from redtape and hold them accountable for 
performance.
    Second, we recommend modernizing the computers. IRS has had 
neither a strategic plan for technology nor had the people with 
the knowledge to implement technology plans. We recommend that 
the IRS develop a long-term strategic plan for modernization 
and hire qualified people to make these plans a reality.
    Third, we want to encourage paperless filing. Electronic 
filing saves the Government money and saves the taxpayer from 
receiving a baseless audit because of mistakes by the IRS. The 
Commission recommends that IRS develop a marketing plan which 
makes paperless filing the preferred method of filing for 80 
percent of the taxpayers within 10 years.
    Fourth, we have emphasized taxpayer rights. The Commission 
recommends additional steps to improve the taxpayer's ability 
to recover damages for wrongful actions by the IRS and 
encourages IRS and Congress to do everything they can to 
protect taxpayers from unnecessary disputes with the IRS. 
Stated simply, the best call from the IRS is no call from the 
IRS.
    Finally, we urge simplification of the tax code. The 
Commission found a direct connection between taxpayers' 
frustration with the IRS and complexity of the tax code. We 
encourage Congress to take steps to simplify the current law 
and to introduce a complexity index which will make Members 
consider the complexity of a new tax before they pass a bill.
    In conclusion, all of our recommendations are geared toward 
making it easier for citizens to interact with the IRS. The 
structural changes, the Board of Governors, enhanced 
flexibility for the Commissioner, and consolidated 
congressional oversight will ensure that the IRS can become a 
modern service organization.
    The other changes will make it easier for citizens to pay 
their taxes. All of them together will make the IRS run better 
and help restore citizens' faith in the American system.
    Finally, let me say that we worked very closely with 
Internal Revenue Service. I have high praise for Commissioner 
Richardson and all of her staff and people at the IRS. We 
accumulated a substantial amount of documents that are, in many 
instances, a first time look inside of the IRS. We facilitated 
an arrangement whereby we would be able to see, subject to 
privacy concerns, much of what is going on over there in a way 
that frankly I had not seen when I was on the oversight 
committee.
    Next, let me say that Secretary Rubin and the Commission 
also had a very, very good working relationship. I have always 
had a high regard for Secretary Rubin. I trust absolutely that 
his goal and our goal are one and the same. Since the 
Commission started its work, the administration has made a 
number of changes in the IRS, most notably bringing in Arthur 
Gross as the Chief Information Officer as well as creating this 
management board and making some other structural changes, the 
last of which was to bring on a business person whom they are 
going to recommend to be the new IRS Commissioner.
    My hope is that as we convert this into legislation, 
introduce it, and start to move it through, we will be able to 
reach agreement with the administration on the last point of 
difference, which is the significant structural changes that we 
are recommending with the new board.
    We have heard many arguments against this new board. Jerry 
Seib, a reporter with the Wall Street Journal, wrote an article 
yesterday. I would like to not only distribute it to this 
committee, but I would also like to make available to the 
committee the response that Congressman Portman and I made to 
the article.
    He inaccurately describes the proposal and after 
inaccurately describing the proposal, then sets out his 
objection to a proposal that we, in fact, did not make. It is 
not uncommon to have that occur in debate, but I just want to 
make it clear that you will hear many inaccurate statements 
made about our proposal and you will hear then arguments used 
why it should not be done.
    We have always maintained a goal of closing the gap, a 
breathtaking gap that currently exists between IRS's ability to 
serve customers and what the private sector can do. At the end 
of the day, the measurement is, what can my bank do and what 
can the IRS do?
    When you go to your bank and you try to get information, 
you are not told to come back in 18 months. You would find 
another bank if that was the case. There is a breathtaking 
difference. The IRS will constantly say, and to their credit, 
that the U.S. tax service is doing at least as good if not a 
better job than many other countries, and that is quite true.
    But unfortunately for the IRS and for the administration's 
defense of the IRS, the customer in the United States does not 
compare the IRS with the tax collection agency of the Federal 
Republic of Germany. They compare it to what is going on in the 
private sector.
    As I said at the start of my testimony, it is a vital 
agency because it touches every single American life, and not 
only are there benefits in restructuring and reforming the IRS 
to the taxpayer, both measured by the cost of running the IRS 
and the cost to comply, which is estimated by some to be $200 
billion a year, but there are also benefits in increasing the 
efficiency of the IRS because if this agency is regarded as 
efficient and effective, then it will go a long ways toward 
restoring and increasing the trust that citizens have in our 
capacity for self-government.
    Again, I appreciate, Mr. Chairman and members of the 
committee, your allowing me to come and present this testimony. 
Congressman Portman and I intend to produce a final written 
report as well as legislation that we hope to be introducing 
yet in this session.

                           Prepared Statement

    Senator Campbell. thank you, Senator Kerrey. We have your 
complete statement, and it will be made part of the record.
    [The statement follows:]
                  Prepared Statement of Senator Kerrey
                              introduction
    For the past year as the co-chair of the National Commission on 
Restructuring the IRS, I have worked with Senator Chuck Grassley, and 
Congressman Rob Portman, as well as state tax administrators, private 
sector executives, and citizens groups reviewing IRS operations, 
management, governance, oversight, budget, work force, and technology. 
It is an honor to report to the Senate Appropriations Committee, 
because you are the parent of our Commission.
    As you know, we were created to take a hard look at the operations, 
management, governance, and oversight of the IRS. The Commission took a 
qualitative approach to its work, spending the majority of its time 
listening to American taxpayers and experts on the IRS and the tax 
system. The Commission spent 12 days in public hearings and over 100 
hours in private sessions with public and private sector experts, 
academia, and citizen's groups. The Commission also held three field 
hearings in Cincinnati, Omaha, and Des Moines. We met privately with 
over 500 individuals, including the majority of senior level IRS 
employees, and interviewed close to 300 IRS front-line employees across 
the country. We received continuous input from stakeholder groups and 
conducted a nation-wide survey on the American public's view of the 
IRS. And finally, the Commission reviewed thousands of reports and 
documents on the IRS.
    I am convinced that a well run Internal Revenue Service is vital to 
the health of our nation. Twice as many people pay taxes as vote; 
therefore, the IRS is the only Federal government agency many citizens 
interact with. We must make sure that the IRS meets their expectations 
for professionalism, service, and efficiency. A well run IRS can 
increase the public's confidence in the government. The second reason 
IRS is so important is obvious-the IRS collects 95 percent of the 
nations revenue. Without the IRS, we would not be able to fund 
highways, education programs, or the military.
                        the commission's vision
    What I will discuss today is the recommendations coming from the 
majority of the Commissioners. The Commission developed a simple, but 
sound, vision: THE IRS WORKS FOR THE TAXPAYER, NOT THE OTHER WAY 
AROUND.
    I quote from our report: ``taxpayer satisfaction must become 
paramount at all levels of the IRS and the IRS should only initiate 
contact with a citizen if the agency is prepared to devote the 
resources necessary for a proper and timely resolution of the matter.'' 
What that means is that rather than treating people as guilty, the IRS 
must recognize that the majority of taxpayers want to pay their fair 
share of taxes, and it is the agency's job to make it easier for them 
to do so. A new customer service database is integral to this vision. 
Electronic filing is also an integral part of this vision. Taxpayer's 
rights is also part of this vision.
    Last year someone in the press asked the IRS head of strategic 
planning what was going to be the agency's strategic direction for 
1997. The answer: get through the 1997 filing season. This is the 
epitome of what thinking strategically is not about. Our vision says 
that taxpayer satisfaction, all year long, is equally as important as a 
smooth filing season.
    Today the IRS rates low in citizens approval for its service. It 
has a 20 percent error rate and expends an incredible amount of 
resources and focus to correct these errors. They capture only 40 
percent of the data from returns. It is 18 months before a return can 
be matched against 1099's. Can you imagine a private sector business 
taking 18 months to send someone a bill saying, `` Mr. Kerrey, our 
records show that a year and a half ago you underpaid your bill.'' 
Certainly, they wouldn't stay in business for long.
    The Commission report offers both a realistic goal for the new 
folks in charge of the agency and a credible plan for reaching that 
goal. In these days of tight budgets and limited governmental 
resources, the IRS must retool its 1950's processes and refocus these 
resources to add value to customers in order to reach the Commission's 
vision.
                             what we found
    After spending many months digging around in the many tough issues 
confronting the IRS, a substantial majority of our Commission members 
realized that the agency suffers from two root problems: First, the 
agency has a difficult time focusing. The result is that many plans 
receive no follow through, and the organization often lacks a coherent 
strategy and direction. The most obvious example of this lack of focus 
was the Tax Systems Modernization (TSM) debacle. The IRS threw $4 
billion dollars in technology money at hundreds of unrelated projects. 
The result was lots of little, interesting computer applications, but 
no significant business achievements. The IRS executives and Treasury 
never decided what the organization wanted to accomplish: e.g. answer 
more phones and have more taxpayer data available for customer service 
representatives. In a better run system, that kind of business decision 
would be the predicate for a modernization effort. All money would be 
directed toward achieving that organizational goal. In the case of the 
IRS, because of lack of strategy and direction, the $4 billion went to 
disparate programs, not integrated to meet a specific business 
objective.
    The second interrelated problem identified by the Commission was a 
lack of a coherent, accountable structure to implement a long term 
vision and goals. We found that we in Congress often send conflicting 
signals to the agency. We found that Treasury has basically left IRS to 
its own devices, leaving a vacuum in the Executive Branch oversight of 
the agency. We found a set of managers unable to maintain focus and 
gain traction with Congress on IRS strategy.
    In short, at the top of the IRS and in Treasury there are murky 
lines of accountability, a lack of necessary expertise to operate in 
the new information age, and no one with authority sticking around long 
enough to get the job done. The officials at the Treasury department 
have expertise in tax law and enforcement, but do not have the 
expertise in areas of customer service, technology, and management to 
oversee the IRS. Furthermore, they are not around long enough to ensure 
focus on multi-year projects like TSM or changing the culture of the 
agency to be more responsive to taxpayers. Additionally, Treasury does 
not coordinate the oversight it does engage in: The Commissioner of IRS 
must deal with various assistant secretaries on budget, operations, 
computers, and other issues. At the end of the day, the Commissioner 
really reports to the Deputy Secretary who also manages ten other 
agencies, not to mention the economy. The recently retired Commissioner 
of IRS, Margaret Richardson, told us that she reported to three 
different Deputy Commissioners during her time in office.
    Because of these problems, the Commission began developing ideas 
for a new governance structure. The criteria for success of any new 
structure were: (1) clear accountability (2) expertise in running a 
modern customer-oriented organization, and (3) the continuity to get 
the job done.
    To solve the problems with continuity, expertise, and 
accountability the Commission will recommend:
  --A board of governors, appointed by the President for staggered five 
        year terms, assume full control of IRS governance. The board 
        will: be fully accountable for the performance of IRS; oversee 
        the IRS management; be around long enough to force change 
        throughout the organization; and have unique public and private 
        sector expertise in managing large service organizations.
  --The Commissioner be appointed for a five-year term, so he or she 
        will be around long enough to effectuate real change.
  --The Commissioner be given greater flexibility to hire or fire his 
        own team of executives, who will bring new expertise into the 
        IRS.
  --The IRS receive stable funding so its leaders can undertake the 
        proper planning to rebuild its foundation. Our recommendations 
        specifically say that for three years IRS should receive 
        current levels of funding--It is up to you to decide whether 
        that should be current budget or current budget plus inflation. 
        We purposefully left it up to you to decide. We were silent on 
        technology funding, except that we encouraged any additional 
        appropriations be targeted towards (1) building a taxpayer 
        accounts database to facilitate taxpayer assistance and (2) 
        ensuring certain success in the century date change problem.
  --Congressional Oversight could be better coordinated between the 
        authorizing committees, the appropriating committees, and the 
        government oversight committees. We will recommend that 
        committee leaders, minority and majority, meet regularly to 
        ensure that IRS receives clear guidance from Congress, and 
        Congress is given the proper information to oversee the IRS.
                           competing proposal
    As you may know, the Secretary of the Treasury Bob Rubin and Deputy 
Secretary Larry Summers disagree with our plan for a board of governors 
to oversee the IRS. They have developed an alternative proposal, which 
would create two advisory type boards which are an attempt to 
strengthen Treasury's governance of IRS. While we seriously considered 
their proposal, in the end the Commission rejected this approach. 
First, our opinion is that it further blurs accountability just when 
there is a need for clearer lines of accountability. Second, it does 
nothing to alleviate the continuity problem--political appointees, who 
traditionally serve for a short time, will continue to oversee IRS 
operations. Third, it endangers politicizing the IRS. What we need is 
accountability without politicization. The Treasury's proposal to 
create an oversight board of officials from OMB, OPM, and the Vice 
Presidents Office could undermine the credibility of IRS as an 
apolitical institution. The White House has always, in our judgment 
wisely, tried to keep an arms length distance from IRS. Finally, it 
does not guarantee that the people with proper expertise in computers, 
technology, and service will oversee IRS operations.
    Secretary Rubin and Deputy Secretary Summers have been vigilant in 
their attacks of our proposal. They have said that private people 
should not control law enforcement, and that our nations revenue stream 
will be at risk under our proposal. Those accusations are simply not 
true. First, we propose that the Board of Governors be Presidentially 
appointed, Senate confirmed, and removable at the will of the 
President. While they serve on the Board, they will be special 
government employees serving in a government function, much like the 
Postal Board of Governors who have vast control over the postal 
service, including the enforcement arm-the postal police. Additionally, 
this board will not have any role in tax policy, which will stay with 
the Secretary of the Treasury. Much like the Canadian system, our 
proposal will draw clear lines of accountability between tax policy and 
tax administration. Also, the Secretary of the Treasury will sit on the 
board, subjecting the board to scrutiny were there to be any appearance 
of impropriety. Finally, the Secretary of the Treasury would continue 
to have final say over the IRS budget before it is sent to Congress. 
Under our proposal, the board would send Congress a copy of their 
budget at the same time they sent it to the Secretary, allowing 
Congress to make the decision of how much money to appropriate.
    As for the comment about endangering the Federal revenue stream--
all I can say is that as far as I am concerned, that is an 
irresponsible comment. Anyone who understands the IRS knows that it is 
like a tank: impenetrable. While our integrated proposals will 
hopefully jolt the agency into a customer focus, it certainly does not 
endanger its operation. I can only attribute this comment to the 
classic Washington battle over turf.
                             other changes
    The structural changes I described earlier will ensure that the 
following operational changes are implemented:
  --Work force Flexibility: Current civil service rules make it 
        difficult for IRS to retain competent employees, fire bad 
        employees, and pay people appropriately. We recommend that the 
        IRS be given the flexibility to redesign its work force rules 
        and develop appropriate internal measurements, to free 
        employees from red tape and hold them accountable for 
        performance.
  --Modernizing Computers: IRS has neither had a strategic plan for 
        technology, nor had the people with the knowledge to implement 
        technology plans. We recommend that IRS develop long term 
        strategic plans for modernization, and hire qualified people to 
        make these plans a reality.
  --Paperless Filing: Electronic filing saves the government money and 
        saves the taxpayer from receiving a baseless audit because of 
        mistakes by the IRS. The Commission recommends that IRS develop 
        a marketing plan which makes paperless filing the preferred 
        method of filing for 80 percent of the taxpayers within ten 
        years.
  --Taxpayer Rights: The Commission recommends additional steps to 
        improve the taxpayer's ability to recover damages for wrongful 
        actions by the IRS, and encourages IRS and Congress to do 
        everything they can to protect taxpayers from unnecessary 
        disputes with the IRS. Stated simply, the best call from the 
        IRS is no call from the IRS.
  --Simplification of the Tax Law: The Commission found a direct 
        connection between taxpayers' frustration with the IRS and the 
        complexity of the tax code. We encourage Congress to take steps 
        to simplify the current law and to introduce a complexity index 
        which will make Members consider the complexity of a new tax 
        law before they pass a bill.
                               conclusion
    All of our recommendations are geared toward making it easier for 
citizens to interact with the IRS. The structural changes (Board of 
Directors, enhanced flexibility for the Commissioner, and consolidated 
Congressional oversight) will ensure that the IRS can become a modern 
service organization. The other changes will make it easier for 
citizens to pay their taxes. All of them together will make the IRS run 
better and help restore the citizens' faith in the American tax system.

                          Opposition to Board

    Senator Campbell. I am sure I can speak for the whole 
committee on the hard work and leadership you have taken for 
the last 2 years on this Commission. You paint a picture of an 
agency in disarray without a clear chain of command, without 
clearly defined goals, and yet one that seems to be willing, up 
to a point, to improve.
    You mentioned that the Secretary is opposed to this newly 
appointed board by the President. Have you gotten any feedback 
from the President on that or will that be after----
    Senator Kerrey. No; I presume that there will be some 
response afterward. I am hopeful because my relationship with 
Secretary Rubin is and has been good and I have got great 
respect for the reasons that he opposes it and I intend, 
relentlessly, to come and say, ``Here is why we think that we 
are right and you are wrong.''
    He describes our proposal in this regard as being 100 
percent wrong. What you have to do, I think, Mr. Chairman, is, 
if you look at the two proposals and consider the principal 
argument that both he and Mr. Summers make, which is, they do 
not want a part-time board governing the IRS.
    Well, if it is a part-time problem that you object to, that 
is the problem now. I mean, the problem now is no Secretary, 
whether it is Secretary Rubin or whoever the Secretary is, no 
Secretary can give 100 percent of their time or even 50 percent 
of their time, I dare say likely even 10 percent of their time 
to worrying about an agency that I argue is the most important 
agency in all of Government.
    They manage not only the IRS, but they manage the Customs, 
the Secret Service, they manage BATF, and six other significant 
agencies inside of Treasury. So there is part-time management 
now and a lack of continuity now, and most importantly, what is 
missing is the ability to say, ``The executive branch and the 
legislative branch have agreed on a vision and a declaration of 
mission for the IRS.''
    This is where we want to go 10 years from now that we need 
to have in a joint agreement between the Congress and the 
executive branch. The only way that we could think of doing 
that is to create a strong and independent board that provides 
that kind of accountability, the President still appoints the 
Board members and they serve at the will of the President. By 
creating a single committee, we are recommending the relevant 
oversight committees coordinate oversight so that you can meet 
with this Board and agree what the purpose is going to be.
    When the private sector came to us and testified, there 
were a number of very notable things that they told us in 
response to the question, ``How do you do it? I mean, how do 
you satisfy your customers, because obviously, if you do not 
satisfy your customers on the business side, your customers can 
walk and go someplace else. They will choose someplace else 
because there are competitive alternatives. How do you keep 
your customers happy?''
    The most notable response was the investment in information 
systems. Well, then the follow-on is how did you make good 
decisions, and the answer was, sometimes we did not. Sometimes 
you make mistakes. But the most important thing in eventually 
getting it right is knowing what you want that technology to 
do.
    Having a clear vision and mission statement is the most 
important prerequisite to making the right decision. Finally, 
what the IRS said to us that I think is enormously helpful and 
relevant, but you are not going to get there under the current 
structure, they view the job being done when the tax return is 
completed.
    They see that as the finished, manufactured product. Part 
of the problem is there are start-go directions from Congress 
all the time, which is unquestionably true.
    But the IRS sees the completed product to be the form, the 
empty form, not the completed form, not the work being done and 
the tax return being completed. So the private sector 
instructions, when it comes to technology, which is the most 
crucial question when you are trying to increase that customer 
satisfaction, is you have got to have a clear vision of where 
you want to go.
    I would argue very respectfully with the President and very 
respectfully with the Treasury Secretary that unless we get 
some restructuring on their side and some reorganization on our 
side, it will be impossible to get there.
    Senator Campbell. Senator Kohl, did you have a question or 
comment?
    Senator Kohl. Just, Mr. Chairman, that it is a very 
thoughtful report that you have put before us. Obviously you 
have given it great consideration, much time and much thought, 
and you have many, many good recommendations and I look forward 
to working with you to move some legislation through that, in 
fact, does make the IRS more efficient, more effective, and 
more sensitive to the needs of people throughout our country. 
Very good report.
    Senator Kerrey. One of the companies I will mention by name 
is Intuit. I hope we can get to the level of customer 
satisfaction that that company has or even 5 percent short of 
it, which is maybe more a reasonable goal. Right now, we are 
way short of what the private sector can do.
    If IRS can get that close to it the reward will be not only 
for the taxpayer, again dollars I am talking about, but I think 
the reward will be that citizens will say we now have much more 
confidence that government by and for the people can work.
    Senator Campbell. Senator Faircloth.
    Senator Faircloth. Thank you, Senator Kerrey, and thank 
you, Mr. Chairman. I must say impressive report and I am just 
delighted to have a chance to hear it and what you are doing. I 
do have one question or concern and that is the irrevocable 
move we tend to be making toward electronic filing.
    I think it is a good idea, but I still think it should be 
done by incentives rather than a flatout demand that it should 
be an optional with the taxpayer.
    Senator Kerrey. Yes. Senator, that was a very hotly debated 
item inside of the Commission itself. We set a goal of 80 
percent and used language to make it clearer that optional 
paper filing will always be there. But the reason that 
electronic filing is such an impressive, preferred option is 
the low error rate. The error rate for electronic filing is 
around 1 percent and the error rate in the paper world is 20 
percent.
    Now, one of the interesting things that we found in the 
electronic filing system is that there is a requirement. 
Justice comes in and says, ``Even though you file 
electronically, you have got to have a signature document filed 
in a paper world.'' And Congressman Portman and I went down to 
visit a service center in Cincinnati. Actually, it is in 
Kentucky, but since it is in his district, they claim it in 
Ohio.
    In the trip through the service center, we talked to a 
number of employees and one of them said, ``We appreciate this 
need for the signature document, but with the quality of 
machines that can copy these things today, all you have to do 
is sign it in black and you cannot tell whether it is an 
original or a copy anyway.''
    So it is not going to hold up in a court of law if the 
individual signs it in black and it comes down. All this is to 
say that you are quite right. I think at the end of the day, it 
has got to be the customer making the decision, the customers 
deciding what it is that they want to use, if they want to do 
it with paper or they want to do it electronically.
    It is just, Senator, that there is such an impressive 
differential between cost of electronic and paper that the 
Commission came out on the side of saying that some goal for 
electronic filing ought to be part of the recommendation.
    Senator Faircloth. Well, if I understood what you said, you 
could file a tax return and not sign it.
    Senator Kerrey. In the electronic world?
    Senator Faircloth. Yes.
    Senator Kerrey. No; but you have to file a signature. The 
signature document has to be a part of the filing. You have to 
file a signature document on paper.
    Senator Faircloth. But did I understand you to say, 
Senator, that it does not necessarily have to be your 
signature, that it could be--that the signature in the 
electronic process would not be recognizable or hold up in a 
court.
    Senator Kerrey. Well, that is true with any paper.
    But there must be at least some evidence that the copy of 
the signature looks awfully close to the original. All I am 
saying is that even in the electronic world, even with 
electronic filing, there is a need for some paper trail.
    Senator Campbell. Thank you for your appearance, Senator 
Kerrey. We appreciate it.
    Senator Kerrey. You're welcome. Thanks.
                       GENERAL ACCOUNTING OFFICE

STATEMENT OF JAMES R. WHITE, ASSOCIATE DIRECTOR, TAX 
            POLICY AND ADMINISTRATION ISSUES
ACCOMPANIED BY:
        RONA STILLMAN, CHIEF SCIENTIST, INFORMATION SYSTEMS
        DAVID ATTIANESE, ASSISTANT DIRECTOR, TAX GROUP

                        Introduction of Witness

    Senator Campbell. The next panel of one will be Mr. James 
White, Associate Director for Tax Policy and Administrative 
Issues from the GAO. Mr. White, all of your written testimony 
will be included in the record. If you would like to abbreviate 
your comments, that would be fine.

                      Statement of James R. White

    Mr. White. Thank you.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today to discuss the budget of the Internal Revenue 
Service. With me are Rona Stillman, GAO's Chief Scientist 
responsible for much of GAO's work on IRS's information 
systems, and Dave Attianese, an assistant director in the tax 
issue area.
    This year, the IRS will collect about $1.5 trillion in 
taxes with over 100,000 employees and a budget of about $7.2 
billion. IRS's fiscal year 1998 budget request is for an 
increase somewhat less than the rate of inflation to almost 
$7.4 billion. The request includes a small decrease in full-
time equivalent positions of less than 1 percent.
    Table I.1 on page 26 of my statement summarizes the 1998 
budget request and compares it to the 1997 budget. As you can 
see, the changes are small. Table I.2 on page 28 shows IRS's 
budget since 1991 in inflation-adjusted dollars. In these 
terms, IRS's budget has been decreasing since 1995 with an 
accompanying decrease in FTE's.

                        Fiscal Year 1997 Issues

    Our statement makes the following main points. With respect 
to this year's budget, as directed by Congress, IRS did 
increase staffing for taxpayer service activities, and 
taxpayers' ability to get through to IRS on the phone during 
the 1997 filing season was up significantly.
    IRS has canceled some projects costing $36 million that 
were included in its fiscal year 1997 information systems 
spending plans. This raises the question of whether the $36 
million should be rescinded. In addition, we believe that the 
problems with IRS's private debt collection pilot program mean 
the fiscal year 1997 money earmarked for future pilots should 
not be spent until the problems are corrected.

                    Developmental Information System

    Shifting to the 1998 budget proposal, we have several 
points. First, $131 million for developmental information 
systems is included in the 1998 budget request and an 
additional $1 billion, spread over 1998 and 1999, is requested 
for a capital account for information technology investments. 
The $1 billion is not included in the $7.4 billion fiscal year 
1998 request, but is in addition to it.
    Neither the $131 million nor the $1 billion have been 
justified by the kinds of cost benefit analysis and other 
support required by current law and we believe Congress should 
consider not funding these amounts until they can be justified.

                         Year 2000 Date Change

    Our second point is whether the $84 million included in the 
1998 budget request for IRS's year 2000 date change effort will 
be sufficient. Because IRS is now planning to spend more than 
double the amount originally budgeted in 1997 on this effort 
and because IRS's overall conversion needs are still being 
determined, $84 million may be substantially less than what 
will be needed in fiscal year 1998.
    Based in part on information we received late yesterday 
from IRS, the amount of fiscal years 1997 and 1998 spending 
needed to ensure year 2000 compliance may be several times what 
has been requested to date.

                               Conclusion

    In conclusion, IRS and Congress face many challenges in 
trying to modernize our tax system. IRS has already experienced 
a decline in its inflation-adjusted budget and such real budget 
declines are likely to continue. At the same time, IRS is under 
pressure to improve its operations and taxpayer service.
    All this makes modernizing its processes and information 
systems critically important. To do so requires consensus on 
IRS performance goals and how to measure performance. We 
believe the provisions of the Chief Financial Officers Act, the 
Clinger-Cohen Act, and the Government Performance and Results 
Act provide a mechanism for accomplishing this.
    Mr. Chairman, that concludes my oral statement. I would be 
happy to respond to questions.
    Senator Campbell. OK. I thank you for that. As part of the 
fiscal year 1998 budget request, the IRS is asking for a $500 
million advance appropriation for the information system, which 
is not to be obligated during fiscal year 1998. It is an up-
front investment by Congress to demonstrate that we are 
committed to the modernization.
    Can you give the committee any insight about how that money 
would be spent, Ms. Stillman?
    Ms. Stillman. Unfortunately, Senator, we cannot because IRS 
cannot. There is no explanation. There have been no details 
provided as to precisely how that money would be spent. What 
they have said is they want that account there, earmarked for 
such time as they determine how it should be spent.
    Senator Campbell. So we do not know what would happen if we 
do not fund it?
    Ms. Stillman. Absolutely not. A key consideration to keep 
in mind is the availability of funds is no guarantee that you 
will get any good modernization results. In fact, you have 
provided IRS with over $4 billion in the past 10 years, but 
that has not gotten you modernization. An additional $1 
billion, unless it is well-planned, will not get you 
modernization either.
    Senator Campbell. Well, that original $500 million advance, 
I am just informed by staff that the IRS is now asking for $258 
million as of 2 days ago after my briefing book was submitted. 
So there is a pretty big disparity, which would tell me that 
somebody does not have any real plan for the money, if there is 
that big of a difference just in a few days of what they are 
asking for.
    The request for comment on a prime contractor of IRS new 
modernization plan calls for a $250 million up-front investment 
by the prime and only a 3-year contract. Do you feel a prime 
can recoup their investment within the 3 years. Ms. Stillman 
again, if you would like to answer.
    Ms. Stillman. Thank you, sir. We have not analyzed the 
details of the contracting arrangement between IRS and the 
prime, and as we understand to date, those details have not 
been worked out. In fact, IRS has asked the vendor community to 
give them suggestions for structuring a partnering arrangement.
    Senator Campbell. I see, OK. In the fiscal year 1997 
Treasury appropriations bill, this subcommittee funded a 
private debt collection project which was to do a pilot 
allowing the private sector to collect on accounts that the IRS 
considered uncollectible. There has been some concern expressed 
by the private sector that this pilot was set up to fail by the 
IRS. My understanding is that GAO has recently studied this 
issue. First, do you have any comments on the success or the 
failure of that program?
    Mr. White. Mr. Chairman, there have been problems with the 
pilot program. In addition, there are two future pilots that 
are proposed. There is money in the fiscal year 1997 budget for 
a second pilot by IRS and a pilot by Treasury. Each of those 
would cost $13 million. Also, there is still $9 million, 
approximately, that has not been spent from the first pilot.
    Because of the problems with the pilots, we believe that 
the money should not be spent at this time until the problems 
are corrected. We support pilot projects, we support the 
concept of testing using private contractors in the collection 
process, but there are problems with the current pilot.
    Senator Campbell. Thank you. I am going to submit a few 
questions written to you if you would also respond to them in 
writing. One last question to ask you, though. In the IRS 
fiscal year 1998 request, there is included an increase for 195 
full-time equivalent employees and $11 million to process paper 
returns.
    While the IRS is requesting an increase in paper returns 
processing employees, they are also projecting a steady 
increase in the number of taxpayers who are going to be filing 
electronically. So my question would be, with a growing number 
of electronic returns, is there really a need for that many new 
employees to process paper returns?
    Mr. Attianese. Mr. Chairman, we had tried to get behind 
that request and the data we saw behind that request made 
little sense to us actually. The data the IRS was using showed 
that there was very little savings in FTE's from processing 
electronic returns versus processing paper returns.
    It does not intuitively make any sense to us because as 
Senator Kerrey has mentioned, there are a lot fewer errors on 
electronic returns and you need a lot fewer people to process 
those returns and correct those errors. And so, the data behind 
IRS's study really led us to question what basis they had for 
asking for that additional staffing.
    Senator Campbell. OK, thanks. Just for the record, since 
you were not listed on the panel, would you identify yourself 
for the record?
    Mr. Attianese. David Attianese. I am an Assistant Director 
in GAO's Tax Group.
    Senator Campbell. Thank you. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman. Mr. White, the 
century date change is a potentially high risk area for the 
IRS. As you are probably aware, the IRS is requesting, as we 
have spoken of this morning, $258 million in fiscal year 1998 
funding.
    How confident are you in the IRS's ability to project the 
correct level of funding necessary?
    Mr. White. At this point, the Internal Revenue Service is 
still determining their total needs for century date 
conversion, and the estimates so far are not for the total 
needs. They have not determined their total needs yet.
    For fiscal year 1997, we know that they have just requested 
reprogramming to more than double the amount that they 
requested in their fiscal year 1997 budget request, and that is 
for the same amount of work. They are not accelerating work for 
1998 into 1997.
    Senator Kohl. Mr. White, does it make sense that technology 
is purchased for the conversion that is separate from the 
architecture approval process? Ms. Stillman?
    Ms. Stillman. As it has been structured, the year 2000 
problem is part of IRS's stay-in-business effort and would have 
to be done whether they modernized or not. In order to move to 
January 1, 2000, it is mandatory that IRS become year 2000 
compliant.
    It is a nondiscretionary effort. We are currently in the 
process of analyzing their architecture, which weighs about 50 
pounds. It is a substantial effort. It is unclear to us at this 
point how much it describes the current process and how much it 
describes a modernized set of processes, but we will be able to 
determine that at the end of our evaluation.
    Senator Kohl. OK. It is our understanding that the IRS has 
been the subject of 140 GAO reports over the past 4 years. In 
reviewing the IRS progress over that time period, where, in 
your judgment, has the IRS made real progress in implementing 
the GAO recommendations and where, in your judgment, has there 
been little progress?
    Mr. White. The IRS has made some progress. They have 
developed an architecture, for example, as Ms. Stillman just 
indicated and we are in the process of evaluating that. They 
have agreed not to spend money on developing new systems until 
the architecture is finalized and approved.
    They have taken steps to increase electronic filing and to 
cut down on filing fraud by using, for example, electronic 
filters in the electronic filing process. With electronic 
filing, you can use those filters to weed out tax returns 
before refunds are issued. And so there are a number of steps 
that IRS has taken. There are still serious management 
weaknesses, many of which Senator Kerrey described.
    Ms. Stillman. I would like to amplify on that a bit in the 
information technology area. In July 1995, we issued a report 
that made over a dozen specific recommendations for IRS to 
improve its ability to complete a successful tax systems 
modernization effort.
    To date, although IRS has engaged in many activities 
related to implementing those recommendations, none of those 
recommendations have been completely implemented, none.
    Senator Kohl. All right. Last question. Have you had a 
chance to think about and review the Kerrey report?
    Mr. White. We have not. The report has not been issued. We 
have worked closely with the commission on it, but I am not in 
a position to comment until we have seen the total package of 
recommendations, how the details will fit together.
    Senator Kohl. All right. Without knowing what direction we 
may or may not then go in, are you comfortable with the current 
structure of IRS and the way in which it relates to Treasury 
Department?
    Mr. White. Well, as we have indicated, we believe that 
there are serious management weaknesses at IRS, and I would add 
that some of the points that Senator Kerrey made, for example, 
the importance of electronic filing, is a point that we have 
been making for years now in our reports.
    Senator Kohl. Thank you. Thank you, Mr. Chairman.
    Senator Campbell. Senator Faircloth.
    Senator Faircloth. Thank you, Mr. Chairman. Mr. White, I 
read the things in your report and they are just more than 
disturbing. I mean, literally millions of dollars--I am just 
trying to take an overall view--disappeared or cannot be 
accounted for, into thin air. I have been in business for 50-
plus years now and they have been audited by the IRS many times 
over those years.
    Actually, I must say it has always felt like it was fair 
and well-done, but they certainly expected a high degree of 
accuracy from various businesses I had that were being audited 
and we tried to provide it. That is over a period of time, but 
as I say, my opinion of the IRS is that the agents that I have 
worked with over many years have always been very satisfactory.
    But to sit here and $4 billion, I think, went into the 
computer venture and a major portion of it wasted. Why has this 
happened? What is wrong?
    Mr. White. I think the fundamental problem again is some 
management weaknesses. They did not go into this with a 
strategic plan.
    Senator Faircloth. Now, I have never run the IRS, but I 
have run a lot of businesses, but if a man cannot do it, we 
fire him. That is the only way I know to solve a management 
problem. You can consult until you are dead with old age, but 
if you fire him, that gets rid of it pretty quick and you try 
again. Is that what needs to be done at the IRS?
    Mr. White. I think rather than comment on that, I would say 
that I think the IRS Commission is going to make some 
recommendations there. We have not had a chance to evaluate 
those recommendations. We do think that the problems we have 
identified with the IRS have to be solved by whatever new 
management structure is put into place.
    Senator Faircloth. Billions of dollars that cannot be 
accounted for and you do not know whether people ought to be 
fired or not? In a private business, if you were running a 
private company, if you were running it, what would happen to 
these people, do you think, that work for NationsBank?
    Mr. White. As I said, the problems with IRS are systemic, 
longstanding problems. I am not sure I am in a position to 
identify an individual.
    Senator Faircloth. In other words, nobody is accountable?
    Mr. White. There are certainly longstanding systemic 
problems at IRS that transcend any one administration. These 
problems are not recent. They are longstanding problems with 
IRS's systems, longstanding problems with IRS's ability to plan 
modernization.
    Ms. Stillman. May I amplify on that just a little.
    Senator Faircloth. I am sorry?
    Ms. Stillman. May I amplify on that just a little.
    Senator Faircloth. I would like it.
    Ms. Stillman. I will try. Flawed decisions that led to 
spending $4 billion for TSM when we cannot demonstrate benefits 
anywhere near $4 billion were made from the start. IRS did not 
determine requirements effectively and could not answer the 
questions. What should be built? What is worth investing money 
in?
    Those decisions were not made like a businessman would make 
them. A businessman would have asked, ``Give me reliable 
figures on what this will cost. Give me a return on investment 
that is risk-adjusted for the technology risk. Make sure that 
at key times in the development of this project I can determine 
if I am getting what I was promised and if I am not getting 
what I was promised, I will terminate this.'' IRS has not 
managed that way.
    In addition, they built and bought systems, in an 
undisciplined way. So their poor decisionmaking is a systemic 
problem exhibited from the top to the bottom of the 
organization.
    Senator Faircloth. Well, Mr. Chairman, I just went through. 
We looked at the same thing, but the FAA is buying equipment 
for the Air Force. Amounts of money were very close. Has our 
Government gotten to where we are incapable of managing it?
    Mr. White. Senator, I think part of what you may be getting 
at is the importance of developing performance goals and 
performance indicators and being able to generate data from 
information systems to reliably track progress in meeting 
goals. The Government--and this is not unique to IRS--has not 
historically done a good job at that.
    Recently, Congress has passed several acts that I mentioned 
in my testimony that we believe will begin to address this 
problem, but developing performance goals is one thing. IRS 
does have a very clear mission statement. Developing 
information systems and being able to generate data to reliably 
track progress in meeting those goals is going to be hard.
    It is not as simple as measuring profit in the private 
sector because Government has more than one goal. Government's 
goal is not simply to make profit.
    Senator Faircloth. May I ask one quick question? I know I 
am not going to get a quick answer, but it would be a simple 
one. What would happen if the IRS went into a company and they 
had $13 billion in accounts receivable, $46 billion for 
collectible accounts receivable that could not be determined. 
What would the--two answers. What would the IRS do to that or, 
Senate, what would you do if you were running the company and 
found that sort of discrepancy?
    Mr. White. There is no doubt, and we have reported on this 
many times, that there are serious problems with IRS's accounts 
receivable. The receivables are very old. That has actually 
been part of the problem with the private debt collection 
pilot, that the receivables are so old they become very 
difficult to collect.
    Again, the solution here is modernization. The problems 
with IRS are interdependent. The accounts receivable problem, 
part of that is due to the fact that IRS's information systems 
are antiquated, and so they do not have good information on 
their accounts receivables and they are old and therefore very 
difficult to collect.
    Senator Faircloth. Thank you, Mr. Chairman. I am more 
confused than when I started.
    Senator Campbell. It was interesting to hear you state that 
you had been audited several times, Senator. I have only been 
audited once in my life. I was a House member and it happened 
just shortly after I cosponsored the Taxpayer's Bill of Rights. 
I was told, however, that there was no connection whatsoever 
and the other members that also cosponsored it when they were 
audited were also told there was no connection whatsoever.
    Senator Shelby, did you have any comments or questions?
    Senator Faircloth. Mr. Chairman, let me say. I have been 
into a number of businesses and had a number of businesses and 
I simply look on IRS audits as all in a day's work.
    Senator Campbell. OK. Senator Shelby.

                           Prepared Statement

    Senator Shelby. Mr. Chairman, I ask that my opening 
statement be made part of the record.
    Senator Campbell. With no objection, it will be.
    [The statement follows:]

                  Prepared Statement of Senator Shelby

    Mr. Chairman, I look forward to the testimony of today's 
witnesses. I am particularly interested in hearing about what 
progress the IRS has made in addressing the very serious and 
many concerns raised by the Committee last year about financial 
management and tax systems modernization. Thank you.

                       Debt Collection Practices

    Senator Shelby. Mr. White, I was not here at the earlier 
part of the hearing, but I am very interested in the accounts 
receivable or the debt collection practices of the IRS. You 
will recall that this committee was in the forefront a couple 
of years ago to set up a pilot program that you mention in your 
report to collect debts.
    We have talked to a lot of the people that collect debts 
for a living in the private sector every day and most of them 
told me and other members that the IRS criteria to collect the 
debts, they did not want to fool with them. They did not want 
to do this.
    I wondered if the IRS had such a strong management, 
internal management bias against letting the private sector get 
involved in the collection of debts. I know they do because I 
remember the fight we had on the floor of the Senate and in the 
conference. But if the IRS has, and I have been told, anywhere 
from $80 to $100 billion of accounts receivable, is that about 
right?
    Mr. White. Yes, sir.
    Senator Shelby. In America, and they are not collecting it, 
what is wrong with turning over that to the private lawyers 
that specialize in collections in the commercial sector every 
day and see? That was our intent, to see if it would work. 
Heck, if they collected $10 billion, it would be a lot of money 
for us up here.
    But I noted, with a lot of skepticism, the reluctance of 
the internal workings of the IRS about letting the market work 
here. Give an incentive for people to collect; yet, those 
debts, as you mentioned, are getting older and the older they 
get, the harder they are to collect. You want to comment on 
that?
    Mr. White. Yes; as I said, we believe that testing the use 
of private contractors in debt collection is very useful. 
Unfortunately, the pilot that has been underway has had some 
serious problems with it.
    Senator Shelby. Let's talk about some of those.
    Mr. White. An example would be that IRS is apparently 
unable to pay contractors on a contingency basis, a percentage 
of what they bring in. So instead, payments have been made to 
contractors in cases that were greater than the amount of taxes 
actually collected in the case.
    Senator Shelby. That makes no sense, does it?
    Mr. White. No; it does not.
    Senator Shelby. Would you need legislation to change that? 
For example, collection professionals and lawyers that 
specialize in collections, which is part of the everyday life 
in America, collect billions of dollars each year. They work on 
a percentage. If they do not deliver, they do not eat. In other 
words, they do not get anything. Is there a prohibition in the 
IRS's law against paying a commission?
    Mr. White. I am not prepared to speak on that.
    Senator Shelby. Can you find out?
    Mr. White. I can do that and we can get back to you 
quickly. We have done some analysis on this, and as I said, 
because of the problems in the pilot, we do not believe that 
further money should be given.
    [The information follows:]

    According to IRS' Office of Chief Counsel, it is not 
entirely clear whether IRS is prohibited from paying a 
commission. On one hand, the Chief Counsel's Office points to 
congressional concern, as reflected in Taxpayer Bill of Rights 
I, that IRS collection employees not be evaluated based on 
collection results. The fear has been that paying collectors 
commissions or contingency fees based on how much they collect 
could induce them to engage in abusive tactics that violate 
taxpayers' rights. On the other hand, it is not clear how this 
limitation on evaluating IRS employees applies to compensating 
private sector collectors.
    In attempting to address this tension, IRS structured the 
contracts so that payments would be made for actions such as 
successfully locating and contacting delinquent taxpayers and 
that the payments could increase with increased revenue 
collection resulting from such actions.

    Senator Shelby. Oh, I agree. I do not think it should be 
wasted and I appreciate the analysis that you are doing on 
that. Some of us were dumbfounded that the IRS did not move out 
front on this and try to collect the money. I do not think they 
are going to collect it internally, it seems that way, when 
there is $80 to $100 billion sitting around and there are 
people in America that are telling us they can collect it.
    I believe they could collect a lot of it, maybe not all. 
But just say 10 percent, $10 billion, 20 percent of the 
billions of dollars, a lot of money, isn't it?
    Mr. White. Yes.
    Senator Shelby. I am sure you have been asked this question 
already and we have beaten--we have not beaten it to death yet 
because I do not think the IRS is sufficiently modernized yet, 
but the amount of money that has been spent in tax management, 
tax system modernization, is a travesty.
    I, when I chaired this committee, was involved in trying to 
get the IRS to modernize, to get outside people to go to the 
shelf, so to speak. I have had a lot of the financial people 
telling us basically that the IRS was so far behind the market 
in software and everything that goes with it that they need 
to--you know, they were working off of a system that was 10 
years old when they started, so to speak.
    I do not know if those are the exact years. In other words, 
they were looking backward and they were trying to do a lot of 
this internally, were they not?
    Mr. White. Yes.
    Senator Shelby. What is your recommendation there? That 
they go outside?
    Mr. White. I will let Ms. Stillman answer this, but I think 
what is key here is management, again, and contracting out----
    Senator Shelby. It is at the top, is it not?
    Mr. White. Yes; and in order to get the benefits of 
contracting out, you still have to have good management.
    Senator Shelby. Well, you have got to start with the 
management, like the Senator from North Carolina just brought 
out. Without management, somebody has to be responsible and it 
starts at the top, doesn't it? Somebody has to be accountable 
in the Government as well as the private sector.
    When you have an expenditure of some $4 billion and there 
are a lot of people that spent that money, made those decisions 
that are probably still around in some capacity, something is 
wrong. You want to comment on that?
    Ms. Stillman. Thank you, sir. There is no question that 
there are major problems. Bad decisions have been made starting 
at the top of the organization and implementation has been 
undisciplined as well on the way down. As to whether or not 
contracting out will provide an answer to IRS's modernization 
problems, the answer is that contracting out, per se, will not 
provide an answer.
    Whether you contract out----
    Senator Shelby. Say that again. Wait a minute.
    Ms. Stillman. Neither contracting out nor building in-house 
is the key to successful modernization. Those are two methods 
of doing the right thing once you have determined what the 
right thing is.
    Senator Shelby. What is the key?
    Ms. Stillman. The key is to determine what the right thing 
is, what a good return on investment would be, and managing it 
well.
    Senator Shelby. That is the role of top management to do 
that, is it not?
    Ms. Stillman. Top, bottom, and middle, correct. Absolutely 
true. Absolutely true.
    Senator Shelby. Does IRS have, in your judgment, the 
quality of top management to make those decisions? That is a 
good question now to answer.
    Ms. Stillman. That is a very good question.
    Senator Shelby. Do they have it? And if they do not have 
it, as the Senator from North Carolina said a minute ago, he 
used one of our major banks in the country that happens to be 
headquartered out of North Carolina, NationsBank, but it could 
be any big bank since we are dealing in financial situations.
    Somebody in the marketplace, $4 billion not only would one 
or two heads be rolling, I think the whole organization would 
be gone. Yet, IRS is still perking along and it is business as 
usual, I think, from what we read about your report. There has 
not, in the last 2 years, Mr. Chairman, to my knowledge, been 
any wholesale changes in IRS.
    I know Senator Kerrey and I, when I was the chairman of 
this committee, Mr. Chairman, and he was the ranking Democrat, 
was very involved, as he is today, in the modernization changes 
of the IRS.
    I think the American people deserve better. I think these 
businesses deserve better. And I think the people that work at 
IRS deserve the top quality management or leadership.
    Ms. Stillman. We agree with you 100 percent.
    Senator Shelby. How do we get it?
    Ms. Stillman. Actually, the Appropriations Committees 
control IRS's resources. And by ratcheting down their budgets 
to reflect their performance, I think you will get their 
attention.
    Senator Shelby. Well, we did some of that 2 years ago, as 
you will recall. We cut about $1 billion----
    Ms. Stillman. Absolutely.
    Senator Shelby. And 5,000 employees and they still maybe 
have not gotten the message. Mr. Chairman, I know you are very 
interested in this, to make IRS an efficient part of our 
Government. One last question, Mr. Chairman. I appreciate your 
indulgence.
    Does IRS have the capability to make that decision? It is 
similar to what I have just asked a minute ago. Do they have 
the management in place to make the decisions that they need to 
make to modernize the Internal Revenue Service?
    Ms. Stillman. I think they have admitted themselves that--
--
    Senator Shelby. That they do not.
    Ms. Stillman. They need augmentation at the very least. 
They are hiring additional people and trying to bring in a new 
Commissioner with a set of skills that they have not seen 
before. They will also get help from Treasury and/or the 
governing board.
    Senator Shelby. Mr. Chairman, thank you.
    Senator Campbell. We still have five witnesses, so we are 
going to need to move along here.
    Senator Faircloth. I have just one quick question.
    Senator Campbell. Go ahead, Senator Faircloth.
    Senator Faircloth. Senator Shelby, you were talking about 
the IRS hiring outside collection agencies, right?
    Senator Shelby. That is right, or lawyers.
    Senator Faircloth. If ever there was an organization that 
has the ability to go after a gnat with a hammer, it is the 
IRS. Hardly a week or 2 weeks go by that we do not get a 
certified letter to garnish either wages of this or that 
employee who is behind in taxes and, of course, we do it.
    But it is standard. I mean, a collection agency? I mean, 
they could steal a lockbox. The IRS can do anything to collect 
money, almost unlimited authority and power to collect money. I 
mean, they believe in the hereafter and they go after it.
    Senator Campbell. Did you have a question of the panel?
    Senator Faircloth. What?
    Senator Campbell. Did you have a question of the panel?
    Senator Faircloth. Yes; why do you need an outside 
collection agency?
    Mr. White. Part of what the collection pilot was focusing 
on was finding taxpayers that the IRS had been unable to 
locate.
    Senator Faircloth. Thank you, Mr. Chairman.

                           Prepared Statement

    Senator Campbell. OK. I thank this panel for appearing. Mr. 
White, we have your complete statement and it will be made part 
of the record.
    [The statement follows:]
                  Prepared Statement of James R. White
    IRS' fiscal year 1998 budget request is for about $7.4 billion and 
102,385 full-time equivalent (FTE) staff compared to a proposed 
operating level in fiscal year 1997 of about $7.2 billion and 102,926 
FTE's. IRS' fiscal year 1998 budget request includes $131 million for 
developmental information systems, the same amount that was provided in 
fiscal year 1997. The administration also is proposing a $1 billion 
capital account for IRS information technology investments. Neither the 
$131 million or the $1 billion is supported by the kind of analysis 
required by Clinger-Cohen Act, the Results Act, and the Office of 
Management and Budget. Therefore, Congress should consider not funding 
both the $131 million request and the capital account until management 
and technical weaknesses in IRS' modernization program are resolved and 
required analyses are completed.
    The fiscal year 1998 budget request also includes $84 million for 
IRS' turn of the century date change effort. IRS has already determined 
that it will need $61.2 million more for this effort in fiscal year 
1997 than had been allocated. Given that and because IRS' overall 
conversion needs are still being determined, it seems reasonable to 
question whether the amount requested for this effort in fiscal year 
1998 will be sufficient.
    GAO also has some concerns about certain fiscal year 1997 budget 
allocations. For example, IRS' fiscal year 1997 appropriation mandated 
that a total of $26 million be provided for debt collection pilots. 
GAO's review of the 1996 debt collection pilot identified various 
problems that impeded the pilot's success. Until those problems are 
resolved, GAO believes that IRS and Treasury should be prohibited from 
spending the $26 million. Also, given that IRS has decided not to begin 
any new systems development projects until October 1998, GAO believes 
that Congress should consider rescinding $36 million that was 
designated for that purpose in fiscal year 1997. That amount represents 
the total allocated to systems development projects that IRS has 
canceled for fiscal year 1997. By October 1998, IRS expects to have 
developed the internal capability to effectively manage systems 
development.
    Finally, IRS expects the funding limits it faces in fiscal year 
1997 and anticipates for fiscal year 1998 to continue until at least 
2002. Fiscal constraints as well as longstanding concerns about the 
efficiency of IRS operations make consensus on IRS' strategic goals and 
the measures for assessing progress against those goals critically 
important. The provisions and requirements of the Chief Financial 
Officers Act, the Clinger-Cohen Act, and the Results Act provide a 
mechanism for accomplishing this.
    Mr. Chairman and Members of the Subcommittee:
    We are pleased to be here today to participate in the 
Subcommittee's inquiry into the Internal Revenue Service's (IRS) budget 
request for fiscal year 1998. Our statement is based on a review of 
that budget request; a review of steps taken by IRS in response to its 
fiscal year 1997 appropriation, including its spending plans for 
information systems; and our past work on IRS' operations and systems 
modernization efforts.
    IRS' fiscal year 1998 budget request is for about $7.4 billion and 
102,385 full-time equivalent (FTE) staff compared to a proposed 
operating level in fiscal year 1997 of about $7.2 billion and 102,926 
FTE's. Appendix 1 provides a more detailed comparison of fiscal years 
1998 and 1997 along with data showing how IRS' appropriation has 
changed since fiscal year 1991. Appendix II has trend information for 
several of IRS' performance indicators.
    Our statement makes the following points:
  --In response to congressional concerns and direction, IRS allocated 
        about 1,000 additional FTE's to taxpayer service activities in 
        fiscal year 1997 and revised its fiscal year 1997 information 
        systems spending plans. IRS has since canceled some of the 
        projects that were included in those plans and that it had 
        estimated would cost a total of $36 million in fiscal year 
        1997.
  --Our review of IRS' private sector debt collection pilot program 
        identified significant barriers to the pilot's success. Those 
        problems should be resolved before fiscal year 1997 funds 
        earmarked for private sector debt collection pilots are 
        expended.
  --IRS' fiscal year 1998 budget request includes $131 million for 
        developmental information systems, the same amount that was 
        provided in fiscal year 1997. In addition to that basic 
        request, the administration is proposing a capital account for 
        information technology investments at IRS--$500 million for 
        fiscal year 1998 and another $500 million for 1999. Neither the 
        $131 million or the $1 billion is supported by the type of 
        analysis required by the Clinger-Cohen Act, the Government 
        Performance and Results Act (otherwise known as the Results Act 
        or GPRA), and Office of Management and Budget (OMB) Circular 
        No. A-11.
  --The budget request also includes $84 million for IRS' turn of the 
        century date change effort. IRS has already determined that it 
        will need several million dollars more for this effort in 
        fiscal year 1997 than had been allocated. Given that and 
        because IRS' overall conversion needs are still being 
        determined, it seems reasonable to question whether the amount 
        requested for this effort in fiscal year 1998 will be 
        sufficient.
  --IRS is also requesting funds to replace two old systems used to 
        process paper returns and remittances. Because spending on this 
        project has been accelerated in fiscal year 1997, all of the 
        funding being requested for 1998 may not be needed.
  --The largest staffing increase in IRS' budget request is for 195 
        FTE's (with an associated cost of $11 million) to process a 
        projected increase in the number of tax returns filed in 1998. 
        IRS expects that most of the additional returns will be filed 
        electronically. Data IRS used to determine how much more money 
        and staff it needed to process those additional returns show 
        only a small difference between the number of FTE's needed to 
        process a million electronic returns and the number needed to 
        process a million paper returns. That small difference is 
        inconsistent with what we would have expected and may reflect, 
        at least in part, the fact that electronic filing is not truly 
        paperless.
  --Finally, IRS and Congress face many challenges in moving the 
        nation's tax system into the next millennium. Funding limits 
        faced by IRS in fiscal year 1997 and anticipated for fiscal 
        year 1998 are projected to continue until at least 2002. Fiscal 
        constraints as well as longstanding concerns about the 
        operations and management of IRS make consensus on IRS 
        performance goals and measuring progress in achieving those 
        goals critically important. The provisions and requirements of 
        the Chief Financial Officers Act, Clinger-Cohen Act, and 
        Results Act provide a mechanism for accomplishing this.
                 overview of 1997 appropriation issues
    Before discussing the fiscal year 1998 budget request, it might be 
useful to summarize some of the issues associated with IRS' fiscal year 
1997 appropriation. The appropriation act \1\ and accompanying 
conference report \2\ for fiscal year 1997 indicated that Congress was 
concerned about various aspects of IRS' operations. Among other things, 
Congress expressed concern about (1) Tax Systems Modernization (TSM) 
and the need to direct more systems development work to the private 
sector; (2) TSM funds being directed at ``feeding the beast'' rather 
than at true modernization; (3) the ability of taxpayers to reach IRS 
over the telephone; and (4) the need to maintain taxpayer service at 
fiscal year 1995 levels, at a minimum.\3\
---------------------------------------------------------------------------
    \1\ The Omnibus Consolidated Appropriations Act (P.L. 104-208, 
Sept. 30, 1996).
    \2\ H.R. report No. 863, 104th Cong., 2d Sess. (1996).
    \3\ Congress added this requirement because it was concerned that 
IRS' pending reorganization of certain field activities would adversely 
affect taxpayer service.
---------------------------------------------------------------------------
    In response to its fiscal year 1997 appropriation and the 
congressional direction specified therein, IRS, among other things, (1) 
revised its spending plans for information systems and (2) reallocated 
resources within the processing, assistance, and management account to 
direct more FTE's to taxpayer service activities.
    Another issue associated with IRS' fiscal year 1997 appropriation 
involves funding provided for private sector debt collection pilot 
programs. We believe that spending on those programs should be 
prohibited until various problems we identified have been resolved.
IRS' fiscal year 1997 Systems Spending Plans Appear Consistent With 
        Congressional Direction, But $36 Million May No Longer Be 
        Needed
    For fiscal year 1997, IRS was appropriated about $1.3 billion to 
fund its information systems. The appropriation act specified that the 
$1.3 billion be spent as follows:
  --$758.4 million for legacy systems,
  --$206.2 million for TSM operational systems,
  --$130.1 million for TSM development and deployment,
  --$83.4 million for program infrastructure,
  --$62.1 million for ``stay-in-business'' projects,
  --$61.0 million for staff downsizing, and
  --$21.9 million for telecommunication network conversion.
    IRS' plans for spending its fiscal year 1997 information systems 
appropriation and IRS' obligations through December 31, 1996, appear 
consistent with the act's direction. Specifically, at the beginning of 
fiscal year 1997, we judgmentally selected eight projects, totaling 
approximately $197 million, that IRS planned to fund with its 
information systems appropriation and analyzed each relative to the 
categories and amounts specified in the act. Our analysis showed that 
IRS identified its projects in accordance with the legislative 
categories and that all of the projects we reviewed appeared to be 
consistent with the act's categories and spending levels.
    In analyzing IRS' spending, we found that IRS had 15 projects that 
were used to justify the allocation of $130.1 million for systems 
development and deployment. Of the 15 projects, 9 (with fiscal year 
1997 costs totaling about $87.3 million) were ongoing or completed. IRS 
is reviewing one other project that was used to justify $7 million and 
canceled the remaining five projects, which had projected fiscal year 
1997 costs totaling about $36 million.
    According to IRS' Chief Information Officer (CIO), IRS canceled 
these systems because business case analyses did not justify continued 
development. The canceled projects include the Corporate Accounts 
Processing System, the Integrated Case Processing System, and the 
Workload Management System.
    The CIO also stated that IRS will not start any new system 
development projects until about October 1998, after it has developed 
the internal capability needed to effectively manage such projects. 
Therefore, Congress should consider rescinding the $36 million that IRS 
will not be using for systems development and deployment in fiscal year 
1997.
    As noted earlier, $61 million of IRS' fiscal year 1997 information 
systems appropriation was allocated for staff downsizing. We question 
whether all of the $61 million will be needed for that purpose. IRS had 
requested those funds to downsize its information systems staff by 819 
positions. According to IRS' Chief for Management and Administration, 
however, attrition among information systems staff has been higher than 
expected and IRS' downsizing plans, as of March 3, 1997, included only 
228 information systems positions.
Increased Resources Provided for Taxpayer Service in 1997
    Given congressional concerns about the level of taxpayer service 
and the low level of telephone accessibility documented in several of 
our reports,\4\ IRS decided that its highest priority in 1997, other 
than processing returns and refunds, would be to improve taxpayer 
service, especially the ability of taxpayers to reach IRS on the phone. 
One important step IRS took to achieve that end was to increase the 
number of FTE's devoted to taxpayer service. According to IRS 
estimates, the number of taxpayer service FTE's will increase from 
8,031 in fiscal year 1996 to 9,091 in fiscal year 1997. The estimated 
number of FTE's for fiscal year 1997 is also higher than in fiscal year 
1995, which is in accord with congressional direction in IRS' fiscal 
year 1997 appropriation. According to IRS budget officials, some of 
these additional FTE's were achieved by reallocating resources 
originally targeted for submission processing; the rest were funded 
with user fees that IRS is authorized to retain.
---------------------------------------------------------------------------
    \4\ Tax Administration: Continuing Problems Affect Otherwise 
Successful 1994 Filing Season (GAO/GGD-95-5, Oct. 7, 1994); The 1995 
Tax Filing Season: IRS Performance Indicators Provide Incomplete 
Information About Some Problems (GAO/GGD-96-48, Dec. 29, 1995); and 
IRS' 1996 Tax Filing Season: Performance Goals Generally Met; Efforts 
to Modernize Had Mixed Results (GAO/GGD-97-25, Dec. 18, 1996).
---------------------------------------------------------------------------
    The bulk of the staffing increase for taxpayer service is directed 
at helping taxpayers reach IRS by telephone. In addition to the 
increase in taxpayer service FTE's discussed above, IRS also detailed 
staff from other functions to help answer the phone, including staff 
who would normally be doing compliance work. This increased staffing, 
along with other steps IRS took, seems to have succeeded in 
significantly improving telephone accessibility during the 1997 tax 
return filing season. As discussed in more detail in appendix III, 
accessibility increased from 20.1 percent during the 1996 filing season 
to 50.9 percent during the 1997 filing season.
Problems With IRS' Private Debt Collection Pilot
    As part of IRS' fiscal year 1997 appropriation, Congress mandated 
that $13 million be made available to extend the private sector debt 
collection pilot program that was initiated in fiscal year 1996. An 
additional $13 million was earmarked for a second private debt 
collection pilot to be managed by the Department of the Treasury. To 
date, none of the $26 million has been obligated.
    At the request of the Chairman of the Oversight Subcommittee, House 
Committee on Ways and Means, we evaluated the initial pilot and found 
significant legal, systems and operations, and performance measurement 
barriers to the pilot's success. Specifically we found that
  --IRS' legal interpretations prevented the pilot from being a true 
        test of private contractors' ability to collect delinquent 
        taxes;
  --systems and operations problems made it difficult to identify, 
        select, and transmit cases to the contractors; and
  --the pilot lacked appropriate performance measures to identify and 
        capture the best practices and techniques used by private 
        collectors.
    IRS agreed with our findings.
    On the basis of our findings, the Chairmen of the Oversight 
Subcommittee; the Subcommittee on Treasury, Postal Service, and General 
Government, House Committee on Appropriations; and the Subcommittee on 
Government Management, Information, and Technology, House Committee on 
Government Reform and Oversight informed the Secretary of the Treasury 
that contracts should not be awarded at this time for the Treasury-
managed pilot.
    Until the issues jeopardizing the success of the pilots are 
resolved, we believe that IRS and Treasury should be prohibited from 
spending both the $13 million to extend the ongoing IRS pilot and the 
$13 million earmarked for the Treasury-managed private debt collection 
pilot.
fiscal year 1998 budget request for information systems raises several 
                               questions
    IRS' fiscal year 1998 budget request includes $1.27 billion and 
7,162 FTE's for information systems. Of the $1.27 billion, $1.14 
billion is for operational systems, including funds for IRS' century 
data change effort and for replacing two old processing systems. The 
rest of the request ($131 million) is for developmental systems. In 
addition to the $1.27 billion, the administration is requesting $1 
billion over 2 years to fund a multi-year capital account, referred to 
as the Information Technology Investments Account, for new 
modernization projects at IRS.
    Our analysis of the information systems request raised several 
questions: (1) Should Congress approve the $131 million for 
developmental systems and the $1 billion capital account given the 
absence of the kind of supporting analyses required by the Clinger-
Cohen Act, the Results Act, and OMB? (2) Is the money being requested 
for IRS' century date conversion effort sufficient? and (3) Will IRS 
need all of the money requested for replacing two processing systems?
$131 Million Budget Request for Systems Development Not Justified
    The Clinger-Cohen Act, the Results Act, and OMB Circular No. A-11 
and supporting memoranda require that information technology 
investments be supported by accurate cost data and convincing cost-
benefit analyses. For fiscal year 1998, IRS is requesting $131 million 
for system development. However, IRS' request does not include a 
credible, verifiable justification. According to IRS budget officials, 
$131 million was requested for fiscal year 1998 because it was 
approximately the same amount IRS received in fiscal year 1997 for 
system development.
    The budget request states that IRS does not know how it plans to 
spend the $131 million because its modernization systems architecture 
and system deployment plan have not yet been finalized. IRS publicly 
issued a draft version of these documents on May 15, 1997, and provided 
them to private industry for review and comment by July 15, 1997. Once 
finalized, these documents are intended to guide future systems 
development.
No Justification to Support Billion Dollar Information Technology 
        Investments Account
    The administration is proposing to establish an Information 
Technology Investments Account to fund future modernization investments 
at IRS. It is seeking $1 billion--$500 million in fiscal year 1998 and 
another $500 million in fiscal year 1999--for ``yet-to-be-specified'' 
development efforts. According to IRS' request, the funds are to 
support acquisition of new information systems, expenditures from the 
account will be reviewed and approved by Treasury's Modernization 
Management Board (MMB), and no funds will be obligated before July 1, 
1998.
    The Clinger-Cohen Act, the Results Act, and OMB Circular No. A-11 
and supporting memoranda require that, prior to requesting multi-year 
funding for capital asset acquisitions, agencies develop accurate, 
complete cost data and perform thorough analyses to justify the 
business need for the investment. For example, agencies need to show 
that needed investments (1) support a critical agency mission; (2) are 
justified by a life cycle based cost-benefit analysis; and (3) have 
cost, schedule, and performance goals.
    IRS has not prepared such analyses for its fiscal year 1998 and 
1999 investment account request. Instead, IRS and Treasury officials 
stated that, during executive-level discussions, they estimated that 
they would need about $2 billion over the next 5 years. This estimate 
was not based on analytical data or derived using formal cost 
estimating techniques. According to OMB officials responsible for IRS' 
budget submission, the request was reduced to $1 billion over 2 years 
because they perceived the lesser amount as more palatable to Congress. 
These officials also told us that they were not concerned about the 
precision of the estimate because their first priority is to ``earmark 
funds'' in the fiscal year 1998 and 1999 budgets so funds will be 
available when IRS eventually determines how it wants to modernize its 
systems.
IRS and Treasury Are Still Addressing Modernization Weaknesses
    In 1995 we made over a dozen recommendations to the Commissioner of 
Internal Revenue to address systems modernization management and 
technical weaknesses.\5\ We reported in 1996 that IRS had initiated 
many activities to improve its modernization efforts but had not yet 
fully implemented any of our recommendations.\6\ Congress also took 
steps to improve the modernization effort. Specifically, in the fiscal 
year 1997 Omnibus Appropriations Act,\7\ Congress directed IRS to (1) 
submit by December 1, 1996, a schedule for transferring a majority of 
its modernization development and deployment to contractors by July 31, 
1997, and (2) establish a schedule by February 1, 1997, for 
implementing our recommendations by October 1, 1997. In its conference 
report on the act, Congress directed the Secretary of the Treasury to 
(1) provide quarterly reports on the status of IRS' corrective actions 
and modernization spending \8\ and (2) submit by May 15, 1997, a 
technical architecture for the modernization that had been approved by 
the MMB. Additionally, the MMB was directed to prepare a request for 
proposal by July 31, 1997, to acquire a prime contractor to manage 
modernization deployment and implementation.
---------------------------------------------------------------------------
    \5\ Tax Systems Modernization: Management and Technical Weaknesses 
Must Be Corrected If Modernization Is to Succeed (GAO/AIMD-95-156, July 
26, 1996).
    \6\ Tax Systems Modernization: Actions Underway But IRS Has Not Yet 
Corrected Management and Technical Weaknesses (GAO/AIMD-96-106, June 7, 
1996).
    \7\ public Law 104-208, September 30, 1996.
    \8\ H.R. Report No. 863, 104th Cong., 2d sess. (1996). Congress 
also required that Treasury provide a schedule for developing and 
implementing all modernization projects in Treasury's fiscal year 1996 
appropriations act (Public Law 104-52, Nov. 19, 1995).
---------------------------------------------------------------------------
    IRS and Treasury have taken steps to address our recommendations 
and respond to congressional direction. For example, in response to the 
1997 appropriations act, IRS (1) provided a November 26, 1996, report 
to Congress that set forth IRS' strategic plan and schedule for 
shifting modernization development and deployment to contractors and 
(2) submitted to Congress a February 27, 1997, report on the timetable 
for implementing our recommendations. For its part, Treasury (1) 
provided corrective action and spending reports to Congress for the 
first quarter of fiscal year 1997 and (2) submitted an MMB-approved 
architecture to Congress on May 15, 1997, that the department and IRS 
have circulated to private industry for review and comment. As part of 
this effort, Treasury and IRS are also soliciting private industry 
input on prime contractor management strategies.
    To assess the effectiveness of IRS' efforts to date, we are 
reviewing IRS' (1) recently issued modernization architecture, (2) 
capability to acquire software-intensive systems using contractors, and 
(3) information technology investment management process. While the 
results of these reviews are not yet known, it is important to 
reiterate what we have said before--until IRS fully implements our 
recommendations, its systems modernization will continue to be at 
risk.\9\
---------------------------------------------------------------------------
    \9\ GAO High-Risk Series, IRS Management (GAO/HR-97-8, Feb. 1997).
---------------------------------------------------------------------------
    Given IRS' poor track record delivering cost-beneficial TSM systems 
and the lack of justification for proposed system expenditures, 
Congress should consider not funding both the $131 million request for 
systems development and the $1 billion capital account until the 
management and technical weaknesses in IRS' modernization program are 
resolved and the required justifications are completed.
Funding Needs for Century Date Change Are Uncertain
    IRS, like other federal agencies, is in the midst of a major 
project aimed at making its computer systems ``century date 
compliant.'' Because IRS' systems, like many others in government and 
the private sector, use two-digit date fields, they cannot distinguish, 
for example, between the year 1900 and the year 2000 (the systems would 
show both years as ``00''). IRS estimates that the failure to correct 
this situation before 2000 could result in millions of erroneous tax 
notices, refunds, and bills. Accordingly, IRS' CIO has designated this 
effort as a top priority. The CIO established a year 2000 project 
office to coordinate work among the various IRS organizations with 
responsibility for assessing, converting, and testing IRS systems.
    IRS' current plans are to spend $106.2 million on century date 
conversion efforts in fiscal year 1997. This would exceed its fiscal 
year 1997 budget by $61.2 million. Of this amount,
  --$47.7 million is for non labor costs ( e.g., the purchase of 
        updated operating system environments, contractor support for 
        software conversion and testing, and additional hardware for 
        expected capacity increases) and
  --$13.5 million is for additional labor costs, which is to come from 
        IRS' existing budget for overall information systems staffing.
    To meet these needs, IRS is seeking approval to reprogram some 
fiscal year 1997 funds from other accounts and to use available ``no-
year'' TSM funds. In addition, the Chief Financial Officer's 
organization is conducting an IRS-wide review to identify other sources 
of funding should they be needed.
    IRS' fiscal year 1998 budget request includes another $84 million 
for the century date change effort. It is uncertain, however, if this 
amount will be sufficient to address IRS' century date funding needs 
for fiscal year 1998. The fiscal year 1998 request was based on 
September 1996 cost estimates that, in turn, were based on an estimate 
of lines of computer code for IRS' main tax processing systems. 
However, there are potentially significant costs in other areas for 
which IRS has yet to complete initial assessments, including (1) 
secondary tax processing systems that are also critical to the tax 
administration process; (2) telecommunications; (3) commercial off-the-
shelf software; and (4) non-information technology resources, such as 
elevators and heating and air conditioning units. IRS has efforts 
underway to address each of these areas. For example, IRS recently 
formed a committee of executives to address options for dealing with 
secondary systems. By the end of June, the committee expects to have 
made decisions on which of these systems will or will not be converted. 
IRS officials said that they expect to have a complete cost estimate 
for converting these systems by September 1997.
Replacement of Systems That Process Paper Tax Returns and Remittances
    Also as part of its information systems request, IRS is asking for 
$44 million in fiscal year 1998 to continue developing replacements for 
two systems--the Distributed Input System (a 12-year old system used to 
process paper returns) and the Remittance Processing System (an 18-year 
old system used to process tax payments)--and to begin pilot testing in 
January 1998. IRS reports that the systems are unreliable, costly to 
operate and maintain, and not year 2000 compliant.
    Project officials told us that to meet the January 1998 milestone 
for piloting the new systems, an additional $6.1 million of fiscal year 
1997 money has been reprogrammed to the Distributed Input System/
Remittance Processing System replacement project. Consequently, the 
project will not need this $6.1 million in fiscal year 1998. 
Accordingly, Congress should consider reducing the fiscal year 1998 
request for this project by $6.1 million.
request for additional returns processing staff raises questions about 
                     benefits of electronic filing
    IRS' largest requested budget increase is for $214 million and 195 
FTE's to maintain its fiscal year 1997 program levels in fiscal year 
1998. According to IRS, most of the $214 million is needed to cover pay 
and benefits for the employees it has on board. However, $11 million 
and all 195 FTE's are intended to cover ``mandatory workload 
increases'' in its returns processing function. More specifically, IRS 
has projected that the number of primary tax returns filed will 
increase from 197.9 million in 1997 to 200 million in 1998. IRS has 
also projected that 91 percent of the increase in primary tax returns 
(or 1.9 million returns) will be filed electronically.
    The data IRS used to determine its need for $11 million and 195 
FTE's indicated that IRS only saves about 5 FTE's for every 1 million 
returns that are filed electronically. This is contrary to what we 
would have expected. Because up-front filters keep certain taxpayer 
errors that are common on paper returns from contaminating electronic 
returns and because electronic returns bypass the labor intensive and 
error prone key punching process IRS uses for paper returns, we would 
expect that the labor and related costs to process electronically-filed 
returns would be substantially lower than the labor and costs 
associated with processing paper returns. According to IRS budget 
officials, IRS has an effort underway to determine the comparative cost 
of processing electronic and paper tax returns. They expect that study 
to be completed in September 1997.
    At least part of the smaller-than-expected savings from electronic 
filing can be attributed to the fact that electronic filing is not 
truly paperless. Taxpayers filing electronically, other than through 
TeleFile, must submit a paper signature document to authenticate the 
electronic portion of their return. And IRS has to process that 
document. In January 1993, we reported that to significantly increase 
the use of electronic filing IRS would have to resolve various issues 
that adversely affect the appeal of electronic filing.\10\ One of those 
issues is the requirement to submit paper documents with an electronic 
return.
---------------------------------------------------------------------------
    \10\ Tax Administration: Opportunities to Increase the Use of 
Electronic Filing (GAO/GGD-93-40, Jan. 22, 1993).
---------------------------------------------------------------------------
                       challenges for the future
    As discussed earlier, IRS data indicate that taxpayers had a much 
better chance of reaching IRS by telephone during the 1997 filing 
season than they had in 1996. This improvement, however, was not 
without cost. IRS used various strategies to improve accessibility, one 
of which involved detailing staff from other functions, including staff 
who would otherwise be auditing tax returns, to answer the phone. The 
funding limits and program tradeoffs faced by IRS in fiscal year 1997 
and anticipated for fiscal year 1998 are likely to continue for the 
foreseeable future. The administration's outyear projections actually 
reflect a decline in IRS funding when inflation is considered.
    At the same time, IRS is faced with competing demands and pressure 
from external stakeholders, including Congress, to improve its 
operations and resolve longstanding concerns. Modernization of IRS' 
processes and systems is critical to doing this. So is reaching 
consensus on IRS' strategic goals and performance measures.
    In recent years, Congress has put in place a statutory framework 
for addressing these challenges and helping Congress and the executive 
branch make the difficult trade-offs that the current budget 
environment demands. This framework includes as its essential elements 
the Chief Financial Officers Act; information technology reform 
legislation, including the Paperwork Reduction Act of 1995 and the 
Clinger-Cohen Act; and the Results Act, or GPRA.
    In crafting these acts, Congress recognized that congressional and 
executive branch decisionmaking had been severely handicapped by the 
absence in many agencies of the basic underpinnings of well managed 
organizations. We have found numerous examples across government of 
management-related challenges stemming from unclear missions 
accompanied by the lack of results-oriented performance goals, the 
absence of detailed business strategies to meet those goals, and the 
failure to gather and use accurate, reliable, and timely program 
performance and cost information to measure progress in achieving 
results. All of these problems exist at IRS. To effectively bridge the 
gap between IRS' current operations and its future vision while living 
within the budget constraints of the federal government, these 
challenges must be met.
    Under GPRA, every major federal agency must ask itself some basic 
questions: What is our mission? What are our goals and how will we 
achieve them? How can we measure performance? How will we use that 
information to make improvements? GPRA forces a focus on results. GPRA 
has the potential for adding greatly to IRS performance--a vital goal 
when resources are limited and public demands are high.
    GPRA requires each agency to develop a strategic plan that lays out 
its mission, long-term goals, and strategies for achieving those goals. 
The strategic plans are to take into account the views of Congress and 
other stakeholders. To ensure that these views are considered, GPRA 
requires agencies to consult with Congress as they develop their 
strategic plans.
    Congress and the administration have both demonstrated that they 
recognize that successful consultations are key to the success of GPRA 
and therefore to sustained improvements in federal management. For IRS, 
these consultations provide an important opportunity for Congress, IRS, 
and Treasury to work together to ensure that IRS' mission is focused, 
goals are specific and results oriented, and strategies and funding 
expectations are appropriate and reasonable. The consultations may 
prove difficult because they entail a different working relationship 
between agencies and Congress than has generally prevailed in the past. 
The consultations are likely to underscore the competing and 
conflicting goals of IRS programs, as well as the sometimes different 
expectations of the numerous parties involved.
    As a GPRA pilot agency, IRS should be ahead of many federal 
agencies in the strategic planning and performance measurement process. 
Nonetheless, IRS remains a long way from being able to ensure that its 
budget funds the programs that will contribute the most towards 
achieving its mission goals. While IRS needs more outcome-oriented 
indicators, it also has difficulty in measuring its performance with 
the indicators it has. For example, IRS' top indicator is its Mission 
Effectiveness Indicator. This is calculated by subtracting from the 
revenue collected the cost of IRS programs and taxpayer burden and 
dividing that result by true total tax liability. While this approach 
may be conceptually sound, IRS does not have reliable data to calculate 
taxpayer burden nor can it calculate true total tax liability.
    In summary, there are several questions regarding IRS' fiscal year 
1997 spending and IRS' fiscal year 1998 budget request that the 
Subcommittee may wish to consider. Among these are:
  --Should the $36 million that IRS will not be using for systems 
        development and deployment in fiscal year 1997 be rescinded?
  --Should IRS and Treasury be prohibited from spending the $26 million 
        earmarked for two private debt collection pilot programs until 
        issues jeopardizing their success are resolved?
  --What level of funding will IRS need to make its information systems 
        century date compliant?
  --Does IRS need all of the fiscal year 1998 funding it is requesting 
        for the Distributed Input System/Remittance Processing System 
        replacement project?
  --What level of funding should Congress provide for developing new 
        information systems, given the lack of any justification for 
        the $131 million requested for fiscal year 1998 and the $1 
        billion investment account for fiscal years 1998 and 1999?
  --What reliable, outcome-oriented performance measures should be put 
        in place to guide IRS and Congress in deciding how many 
        resources should be given to IRS and how best to allocate those 
        resources among IRS' functional activities?
    That concludes my statement. We welcome any questions that you may 
have.
                               appendix i
     Comparison of Fiscal Year 1998 Budget Request With Prior Years
    Tables I.1 and I.2, respectively, show how IRS' fiscal year 1998 
budget request compares to (1) its proposed fiscal year 1997 operating 
level and (2) its appropriations since fiscal year 1991.

  TABLE I.1: COMPARISON OF IRS' FISCAL YEAR 1998 BUDGET REQUEST WITH PROPOSED FISCAL YEAR 1997 OPERATING LEVEL  
                                             [Dollars in thousands]                                             
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year 1997          Fiscal year 1998    
                       Budget activity                       ---------------------------------------------------
                                                                Dollars       FTE's       Dollars       FTE's   
----------------------------------------------------------------------------------------------------------------
Submission processing.......................................     $788,138       15,481     $820,325       15,694
Telephone and correspondence................................      786,616       20,815      815,382       20,815
Document matching...........................................       67,298        1,904       69,783        1,904
Inspection..................................................      100,581        1,214      103,874        1,214
Management services.........................................      534,808        7,275      559,355        7,352
Rent and utilities..........................................      604,416          169      574,455          169
                                                             ---------------------------------------------------
      Subtotal: Processing, assistance, and management                                                          
       appropriation........................................    2,881,857       46,858    2,943,174       47,148
                                                             ===================================================
Criminal investigation......................................      371,780        4,595      385,081        4,595
Examination.................................................    1,586,545       25,910    1,641,834       25,916
Collection..................................................      715,552       12,387      751,918       12,387
Employee plans and exempt organizations.....................      128,116        2,117      132,696        2,117
Statistics of income........................................       23,756          471       24,781          471
Chief counsel...............................................      210,469        2,589      217,412        2,589
                                                             ---------------------------------------------------
      Subtotal: Tax law enforcement appropriation...........    3,036,218       48,069    3,153,722       48,075
                                                             ===================================================
Operational information systems.............................    1,156,408        7,708    1,141,596        6,912
Developmental information systems...........................      130,131          291      130,891          250
                                                             ---------------------------------------------------
      Subtotal: Information systems appropriation...........    1,286,539        7,999    1,272,487        7,162
                                                             ===================================================
      Grand Total...........................................    7,204,614      102,926    7,369,383      102,385
----------------------------------------------------------------------------------------------------------------
Source: IRS' budget estimates for fiscal year 1998.                                                             

    We did not extend the above comparison to fiscal years before 1997 
because IRS restructured its budget for fiscal year 1998 and adjusted 
only its fiscal year 1997 figures to coincide with that new structure. 
One major restructuring involved what used to be the ``Taxpayer 
Services'' budget activity. That activity, which is part of IRS' 
Processing, Assistance, and Management appropriation, was renamed 
``Telephone and Correspondence'' and was revised to combine various 
assistance programs with compliance activities conducted by phone and 
correspondence. Other restructuring included (1) a consolidation of 
what were four different resources management budget activities into a 
single Management Services activity, (2) creation of a separate budget 
activity for rent and utilities, and (3) the consolidation of what were 
four information systems budget activities into two--one for 
operational systems and one for developmental systems.

 TABLE I.2: COMPARISON OF IRS' FISCAL YEAR 1998 BUDGET REQUEST WITH IRS 
            APPROPRIATIONS FOR FISCAL YEARS 1991 THROUGH 1997           
                          [Dollars in billions]                         
------------------------------------------------------------------------
                                          Appropriations                
               Fiscal year                    in 1997       Total FTE's 
                                              dollars                   
------------------------------------------------------------------------
1991....................................           7,088         115,628
1992....................................           7,513         116,673
1993....................................           7,792         113,460
1994....................................           7,710         110,665
1995....................................           7,826         112,069
1996....................................           7,397         106,642
1997....................................           7,205         102,926
1998....................................       \1\ 7,182     \2\ 102,385
------------------------------------------------------------------------
\1\ Requested amount.                                                   
\2\ Estimate based on requested amount.                                 
Source: IRS' budget requests for fiscal years 1993 through 1998. Dollars
  are presented in 1997 constant dollars on the basis of GAO            
  computations using budget request data and Gross Domestic Product     
  Deflator.                                                             

                              appendix ii
             Trends for Certain IRS Performance Indicators
    The following tables show trends for various IRS performance 
indicators

        Table II.1: Number of Individual Income Tax Returns Filed

                              [In millions]

                                                    Number of individual
        Fiscal year                                   income tax returns
1991.............................................................. 114.1
1992.............................................................. 115.0
1993.............................................................. 114.2
1994.............................................................. 113.4
1995.............................................................. 116.3
1996.............................................................. 118.8

Source: IRS annual reports and data books.
---------------------------------------------------------------------------

                 Table II.2 Information Returns Received

                              [In millions]

                                                               Number of
        Fiscal year                                  information returns
1991.............................................................. 1,042
1992.............................................................. 1,035
1993.............................................................. 1,040
1994.............................................................. 1,052
1995.............................................................. 1,054
1996.............................................................. 1,070

Source: IRS annual reports and data books.
---------------------------------------------------------------------------

                Table II.3 Telephone Accessibility Rates

        Filing season                                            Percent
1991..............................................................    40
1992..............................................................    33
1993..............................................................    24
1994..............................................................    21
1995..............................................................     8
1996..............................................................    20
1997..............................................................    51

Note: Telephone accessibility is computed by dividing the total number 
of calls answered by the total number of call attempts, which we define 
as the sum of (1) calls answered, (2) busy signals, and (3) calls 
abandoned by the caller before an IRS assistor got on the line.
Source: IRS' Management Information System for Top Level Executives and 
IRS' Telephone Data Reports.

                    TABLE II.4: AUDIT COVERAGE OF INDIVIDUAL AND CORPORATE INCOME TAX RETURNS                   
----------------------------------------------------------------------------------------------------------------
                                                              Individual income tax       Corporate income tax  
                                                                     returns                     returns        
                       Fiscal year                        ------------------------------------------------------
                                                              Number of      Percent     Number of     Percent  
                                                               audits        coverage      audits      coverage 
----------------------------------------------------------------------------------------------------------------
1991.....................................................       1,313,168         1.17       67,618         2.52
1992.....................................................       1,206,019         1.06       79,597         3.04
1993.....................................................       1,058,966         0.92       79,873         3.05
1994.....................................................       1,225,707         1.08       58,110         2.31
1995.....................................................       1,919,437     \1\ 1.67       51,808         2.05
1996.....................................................       1,941,546         1.67       59,832         2.34
----------------------------------------------------------------------------------------------------------------
\1\ IRS attributes the increase in 1995 to auditors pursuing nonfiler cases and the increasing number of Earned 
  Income Credit claims reviewed by service center examination staff.                                            
Note: Audit coverage is the number of returns examined divided by the number of returns filed in the previous   
  calendar year.                                                                                                
Source: IRS data books.                                                                                         


              TABLE II.5: DELINQUENT TAX COLLECTIONS BY IRS             
                          [Dollars in billions]                         
------------------------------------------------------------------------
                                              Current                   
               Fiscal year                    dollars      1996 dollars 
------------------------------------------------------------------------
1991....................................            24.3            27.5
1992....................................            24.2            26.6
1993....................................            22.8            24.4
1994....................................            23.5            24.5
1995....................................            25.1            25.7
1996....................................            29.8            29.8
------------------------------------------------------------------------
Source: Current dollars from IRS annual reports and data books. 1996    
  dollars are GAO computations using IRS data and gross domestic product
  indexes.                                                              

                              appendix iii
                        Telephone Accessibility
    During each filing season, millions of taxpayers call IRS with 
questions about the tax law, their refunds, or their account. According 
to IRS data, as shown in table III.1, the accessibility of IRS' 
telephone assistance, as we have defined it in the past, has increased 
substantially.\11\
---------------------------------------------------------------------------
    \11\ Accessibility, as we have traditionally defined it, is the 
total number of calls answered divided by the number of call attempts, 
which is the sum of the following: (1) calls answered, (2) busy 
signals, and (3) calls abandoned by the caller before an IRS assistor 
got on the line.

----------------------------------------------------------------------------------------------------------------
                                                                  Number of call     Number of                  
                          Filing season                            attempts (in   calls answered      Percent   
                                                                     millions)     (in millions)   accessibility
----------------------------------------------------------------------------------------------------------------
1997............................................................            62.4            31.8            50.9
1996............................................................           114.0            22.9            20.1
----------------------------------------------------------------------------------------------------------------
\1\ These data are for January 1 through April 19, 1997, and January 1 through April 20, 1996.                  
Source: IRS data.                                                                                               

    As table III.1 indicates, the increase in accessibility is due to a 
combination of more calls being answered and fewer calls coming in. 
IRS' ability to answer more calls is due, at least in part, to (1) an 
increase in the number of staff assigned to answer the phone, some of 
which was achieved by detailing staff from other IRS functions,\12\ and 
(2) revisions to IRS' procedures for handling calls.
---------------------------------------------------------------------------
    \12\ In one service center, for example, 26 staff from the 
Collection area were detailed on an as-needed basis to answer the 
phones, 45 staff from the center's Adjustment/Correspondence Branch 
were detailed to answer phone calls during the filing season, and 
another 24 staff from that Branch were detailed to answer calls for 2 
hours each afternoon.
---------------------------------------------------------------------------
    As an example of the latter, this year, unlike past years, callers 
who indicated, through the choices they selected on the automated 
telephone menu, that they had a question in a complex tax area (such as 
``sale of residence'') were to be connected to a voice messaging 
system. Those callers were asked to leave their name, telephone number, 
and best time for IRS to call back, and they were told that someone 
would be calling back within 2 working days. Those return calls were to 
be made by staff detailed from IRS' Examination function. According to 
IRS, it made this change after a study showed that several areas of 
complicated tax law involved 20 to 30 minute telephone conversations 
and that an assistor could answer about 5 simpler calls within the same 
amount of time.
    The decline in the number of calls coming in can be attributed, in 
no small part, to IRS' ability to answer more calls. The more 
successful IRS is in answering the phone, the fewer times taxpayers 
should have to call in an attempt to get through. Another factor cited 
by IRS as a contributor to the number of call attempts was the 
elimination of certain notices that it deemed to be unnecessary, which, 
in turn, reduced the need for persons to call IRS with questions about 
those notices.
                       DEPARTMENT OF THE TREASURY

                        Internal Revenue Service

STATEMENT OF LAWRENCE H. SUMMERS, DEPUTY SECRETARY
ACCOMPANIED BY:
        MICHAEL P. DOLAN, ACTING COMMISSIONER
        DAVID A. MADER, CHIEF, MANAGEMENT AND ADMINISTRATION
        ARTHUR A. GROSS, CHIEF INFORMATION OFFICER
        JAMES E. DONELSON, CHIEF, TAXPAYER SERVICE

                       Introduction of Witnesses

    Senator Campbell. We will go to our last panel, which will 
be the Honorable Lawrence Summers, Mr. Michael Dolan, Mr. David 
Mader, Mr. Arthur Gross, and Mr. James Donelson. And as I 
mentioned before, we will probably be submitting some written 
questions to this panel. Deputy Secretary Summers and then we 
will just proceed down the line as they are listed on the 
witness list.

                    Statement of Lawrence H. Summers

    Mr. Summers. Thank you very much, Senator. I will be very 
brief in my opening statement. I want to make two primary 
points. First, I believe we are well on the way to getting the 
IRS information technology program back on track. We testified 
before this committee a year ago. We said that it was quite far 
off track.
    By bringing in a new Chief Information Officer, Art Gross, 
who is with us here today, by canceling or consolidating some 
26 projects that would have, over the coming year, spent more 
than $1 billion, by moving to a new approach based on private 
sector involvement and preparing a detailed architecture which 
is now receiving comment from potential prime contractors, by 
focusing our information technology investments on the highest 
priority items for which there is a strong business case, and 
by very substantially strengthening Treasury oversight of the 
IRS, I believe we have taken significant steps and that we are 
making significant progress toward the restoration of this 
information technology program to being what it should be.

                    Treasury Five Point Plan for IRS

    Those efforts come as part of a broader effort that the 
Department is engaged in to work to improve performance at the 
Internal Revenue Service to give the Internal Revenue Service 
the tools that it needs. One important component of that 
program is new leadership. As you may have read, a potential 
IRS Commissioner is going through the vetting process right 
now.
    He has a very different background than traditional IRS 
Commissioners, one that is grounded in management information 
technology and customer service in order to provide for 
continuity, which we see as central. Secretary Rubin has 
recommended, and this is a point on which the IRS Commission 
agrees, that the IRS Commissioner be given a 5-year term so 
that the job will be more removed from politics, so that there 
will be a longer term of service for the IRS Commissioner.
    Second, we are working to strengthen oversight of the IRS. 
We believe that it is essential that the IRS management have 
continuity, that it have accountability, and that it have 
substantial outside input. Our proposals do just that, the 5-
year term and an advisory board that would have continuity 
across administrations.
    It would make an annual report to the taxpayers on IRS 
performance and on our performance in IRS oversight as well as 
continuation of an internal Government board for the IRS that 
we believe has been quite effective over the last year to 
provide for accountability, a reporting requirement on the 
Secretary and the Deputy Secretary of the Treasury to report 
personally to Congress every 6 months on the performance of the 
IRS so that their accountability and through them the 
President's accountability is firmly established.
    We believe that this is the best way to safeguard the 95 
percent of the Government's revenue that is collected through 
the IRS. We believe this is the best way to protect what is a 
central law enforcement function in our country, the collection 
of taxes.
    We have very grave concerns about the proposals of some to 
turn the IRS over to a board of outside corporate-type 
directors whose primary loyalty would be to their own 
institutions on which they were employed full-time and who 
would only be involved on a part-time basis with the IRS, 
therefore, it seems to us, be in an appropriate position to 
oversee a critical law enforcement function or to take an 
active part in tax policy deliberations.
    The third part of our approach is an emphasis on sound 
budgeting practices. As we restore trust, as I believe we will 
by showing results, we think it is important that budgeting 
procedures for the IRS recognize the need for some stability in 
treating capital outlays and recognize that given that the IRS 
is the principal revenue generator for the Federal Government, 
cuts in the budget actually have the perverse consequence of 
substantially increasing the budget deficit.
    Fourth, we believe that it will be necessary, in part 
through legislation and in part through administrative action, 
to substantially increase the flexibility of top IRS 
management, to bring in new people from the outside as we were 
able to bring in Mr. Gross, to reassign people when that is 
warranted by their performance, to replace people when that is 
necessary given their performance.
    If we want the kind of service that people have come to 
expect from the private sector, we have to give top management 
the tools to operate in the way that a business does.
    And finally fifth, and really separate from our concerns 
today, but which I think are of the utmost importance if we are 
going to address these problems, we are working to simplify the 
Tax Code. The administration submitted a package of some 60 
simplification programs on April 15 that will do things like 
remove the need for paper boys with bank accounts to file 
taxes--with $100 savings accounts--to file tax returns.
    I am pleased that many of those suggestions have been 
reflected in the bills that are coming out and going through 
the markup process right now in both the House and the Senate.

                       Year 2000 Date Conversion

    Finally, Mr. Chairman, I would just say that the next 2 
years are not going to be easy. On top of all of the other 
problems, we face the Y2K year 2000 problem. The IRS is 
probably as large a collection of computers dating from the 
1960's as exists anywhere. It is an absolute, stay-in-business 
issue for the IRS. Therefore, we are going to meet that 
challenge.
    It is going to be expensive. It is going to be very 
expensive. The size of the need as we have scoped this has 
become larger and larger and I cannot tell the committee that 
we have fully identified all of the costs even at this point. 
But we are working to identify them, and more importantly, to 
solve the problems as rapidly as we possibly can. Thank you 
very much.

                          Prepared Statements

    Senator Campbell. Thank you, Mr. Summers. We have your 
complete statement, and it will be made part of the record. We 
also have a prepared statement from Mr. Dolan which will be 
inserted in the record.
    [The statements follow:]
               Prepared Statement of Lawrence H. Summers
    I am pleased to be here today to talk with you about Treasury's 
plan to implement lasting solutions to the difficulties the IRS faces. 
Before I begin, I would like to thank the Chairman, the Ranking 
Minority Member and the other members of this Committee for their 
leadership on the matter of IRS reform. With me today are Acting 
Commissioner of the IRS, Michael Dolan, Chief of Management and 
Administration, David Mader and Chief Information Officer, Arthur 
Gross. In addition, I hope you will join me in recognizing and thanking 
the more than 100,000 loyal and dedicated IRS employees who carry on 
the unpopular but vitally important task of collecting 95 percent of 
our government's revenue.
                           management reform
    Mr. Chairman, recent announcements of problems in modernizing the 
computer systems of the IRS have focused attention on the shortfalls of 
the information technology of the Service. At the same time, 
improvements in customer service in the private sector have led the 
American people to expect interactions with the IRS to be as efficient 
and straightforward as interactions with credit card companies and 
other private-sector financial institutions. This has occurred at a 
time when the IRS is also coping with an increased workload. This year, 
the IRS processed over 2 billion pieces of paper which, if placed side 
by side, would stretch over 200 miles. These developments have provoked 
an important debate about how best to improve the Internal Revenue 
Service.
    Over the last few years, the Treasury Department has focused 
intense efforts on improving the IRS. This Committee and others within 
the Congress have held extensive hearings on the matter. A consensus 
has emerged among a wide group of stakeholders, from business 
executives to Members of Congress to leaders of the IRS and National 
Treasury Employees Union on the need for change.
    I believe that, in the next year or so, we have the opportunity and 
the obligation to bring about the most far-reaching changes in decades 
in how the IRS is managed and how it does business. It will be the task 
of management at the IRS to manage information technology better and to 
harness it toward the goal of better customer service.
    Mr. Chairman, I know you and the Committee face many difficult 
choices as you work to balance priorities and funding for the coming 
fiscal year. We recognize that this Committee has provided critical 
support for making the necessary changes. But we also recognize the 
constraints imposed by the effort to balance the Federal budget by 
2002. Our budget request for the IRS therefore maintains operations 
essentially at the fiscal year 1997 level, providing the resources to 
support current staffing levels--which are over 12 percent below fiscal 
year 1993 levels. Our proposal will include funding to address the 
Century Date change--an issue not unique to the IRS, but one that could 
be disastrous for our tax system if not addressed effectively and 
quickly.
                         indicators of progress
    Secretary Rubin and I recognized last year in testimony before the 
Appropriations Committees that the IRS's modernization program was, as 
we put it at the time, off track. We called for a ``sharp turn'' and 
made clear our determination to bring about change in the way the IRS 
uses information technology and provides customer service. And there 
has been change. The results, while still in their early stages, give 
the IRS a solid foundation on which to build, and are already producing 
benefits. Some examples of the steps we have taken include the 
following:
  --We have appointed a new Chief Information Officer at the IRS, Art 
        Gross. Mr. Gross brings to the IRS considerable systems 
        integration and tax systems modernization experience from his 
        years with the State of New York.
  --In May 1997, after many months of intense preparation, Mr. Gross 
        released the IRS's Blueprint for Technology Modernization, 
        which was well-received in the professional information 
        technology (IT) communities both inside and outside the 
        government. This Blueprint is a significant and critical first 
        step in getting IRS on the right track for IT management, and 
        represents the first comprehensive attempt to form a strategic 
        partnership on IT with the private sector.
  --Following up on the Modernization Blueprint, we submitted a Request 
        for Comment for a Tax Systems Modernization prime contractor to 
        Congress and to industry on May 15.
  --Based on the reviews performed by Mr. Gross and senior IRS leaders 
        of the technology efforts underway at the IRS, we cut and 
        collapsed the number of projects by nearly two-thirds--from 26 
        to nine.
  --The IRS has increased outsourcing. The percentage of work on tax 
        systems modernization performed by contractors has increased 
        from 40 to 64 percent over the past two years. The number of 
        IRS staff working on tax systems modernization has decreased 
        from 524 to 156. We are also developing an outsourcing strategy 
        for submissions processing.
    Some other activities currently underway include the following:
  --The IRS is now working with a top marketing firm on an electronic 
        filing marketing strategy to bolster taxpayer participation in 
        the entire line of IRS electronic filing products, including 
        Telefile, On-line filing, 1040-PC filing, and traditional 
        electronic filing. The bureau is also putting forth a Request 
        for Information (RFI) that will produce opportunities for 
        partnering with the private sector to increase electronic 
        filing.
  --A joint Treasury, IRS, and National Performance Review (NPR) task 
        force is conducting a 90-day study of customer service. The 
        study will draw on the experience of front-line employees and 
        will focus on the issues that touch customers most deeply. 
        Among other tasks it will attempt to identify ways to improve 
        notices, the quality of walk-in center assistance, and 
        training.
    I understand that the IRS is providing separate testimony 
describing in further detail the progress that is occurring at the IRS 
in customer service, electronic filing and other performance measures. 
The steps we have taken so far are obviously only the beginning. 
Everyone involved in this process at Treasury, the IRS, Congress, and 
the Union has recognized that the problems at the IRS have developed 
over decades and will not be solved overnight or even over a couple of 
filing seasons. But I believe that we have set up an effective 
structure for reforming the IRS, and that we are making progress 
towards our vision of a tax system that serves taxpayers better, 
collects more unpaid taxes, and is more efficient.
         the treasury department's five-point plan for the irs
    Let me now present our broad approach to IRS reform. We are 
determined to bring about changes in the way the IRS uses information 
technology, provides customer service, monitors tax compliance, and 
manages its own resources. As with any institution, however, there is a 
right way and a wrong way to make change. We believe that the approach 
described below is the right way: it charts a new course for the IRS, 
but does so without jeopardizing the institution and our nation's 
revenue stream. Our approach has identified five critical areas to 
effect this ``right'' kind of change: (1) oversight; (2) leadership; 
(3) flexibility; (4) budgeting; and (5) tax simplification. I will 
address each of these in turn.
1. Strengthening Oversight
    First, Treasury has strengthened its oversight of the IRS and is 
committed to institutionalizing this oversight function. Oversight of 
the IRS by the Treasury Department is essential to ensuring 
accountability for the American people and to coordinating tax 
administration with tax policy.
    Last March, I announced the formation of the Modernization 
Management Board (MMB) comprised of senior officials from Treasury, the 
IRS, and other parts of the Administration. Initially, the MMB 
evaluated only information technology issues. Now, however, it is 
beginning to oversee the entire range of IRS activities. We are asking 
that the President sign an Executive Order that expands the powers of 
the MMB by making it permanent and clarifying that its responsibilities 
cover the broad range of strategic issues facing the IRS. This new 
Internal Revenue Service Management Board will meet at least monthly 
and will prepare semi-annual reports to the President and the Congress, 
which will be transmitted by the Treasury Secretary.
    The Executive Order will also contain the requirement that the 
Secretary and Deputy Secretary make themselves available twice yearly 
to Congress to report on the IRS.
    We will also establish the IRS Advisory Board, to report directly 
to the Secretary of the Treasury. This board will be comprised of 
senior business executives, experts in information technology, small 
business advocates, tax professionals, and others. It will meet 
regularly to make recommendations on major strategic decisions facing 
the IRS, and will issue an annual report to the American people and the 
Congress. This new Board will provide an additional vehicle for the 
private sector input from which the IRS can so clearly benefit, without 
compromising the bureau's government responsibilities, such as 
enforcing federal tax laws and ensuring the equitable administration of 
the tax system.
    These three steps, creating a permanent management board, requiring 
the Secretary and Deputy Secretary to report to Congress semi-annually 
and creating an advisory board comprised of outside experts will 
institutionalize the oversight function.
    In recent weeks, however, there has been considerable interest in a 
more radical model of oversight. As you know, two weeks ago, the 
National Commission on Restructuring the IRS proposed that the IRS be 
governed by an outside board of private citizens who serve on a part-
time basis. We believe that a private-sector board would not meet 
frequently enough to address the critical and complicated decisions 
facing the bureau over the next decade. The challenges the IRS faces 
and the size and complexity of the institution demand more than the 
part-time and sporadic attention that the Commission's proposed board 
would provide.
    In contrast, Secretary Rubin and I, as well as other Treasury 
officials, are available every day to discuss pressing issues with the 
IRS. Treasury oversight is also critical because tax policy and tax 
administration are inexorably linked. The IRS's relationship with 
Treasury provides an effective mechanism for presenting to senior 
Administration officials the IRS' analysis of the impact of proposed 
tax changes on tax administration. I raise such concerns frequently in 
tax policy discussions in the White House and elsewhere throughout the 
Administration. Furthermore, Treasury oversight allows the IRS to draw 
upon Treasury resources for critical projects, as demonstrated by our 
current cooperation on the Year 2000 conversion.
2. Recognizing the importance of leadership
    The second element of our approach to the IRS is recognizing that 
leadership is crucial to performance. As we move forward, we are 
excited by the prospect of appointing a new Commissioner with 
experience in managing organizational change, customer service 
improvement, and information technology challenges. We also will be 
proposing legislation to create a five-year fixed term for the 
Commissioner, to provide the continuity and leadership necessary for 
guiding the bureau into the next century.
    Taken together, the first two elements of our plan, strengthened 
oversight and renewed leadership can achieve the critical goals of 
ensuring continuity, outside input and accountability without putting 
at risk the progress underway at the IRS or the vital functions of 
government.
3. Enhancing IRS management flexibility
    The third component of our five-point IRS strategy is to enhance 
and strengthen the IRS's ability to manage its operations, working with 
Congress and the union to improve management flexibility in personnel 
and procurement. In return, employees of the IRS, as in any well-
managed business, will be held accountable for results. In addition, we 
will enhance and strengthen the IRS's ability to manage its operations. 
For example:
  --The IRS should be able to attract and retain the highest quality 
        information technology specialists and other professionals.
  --The IRS should not face rules that make restructuring the work 
        force needlessly difficult for employees and the employer.
    To strengthen the Commissioner's ability to effect change, we at 
Treasury will work with Congress, the Commission, and the union to 
improve flexibility: to bring on people with specific skills more 
quickly... to pay them more competitively... and to give them the 
training they need. This might include providing recruitment, retention 
and relocation incentives and using commercial recruiting firms to 
identify and screen employment candidates. Thus, the IRS faces a 
multitude of restrictions--restrictions that would be unacceptable in 
the private sector--that hamper its ability to provide efficient 
service. Some changes may require legislation, and we expect to propose 
this legislation to Congress later this year.
    Let me add that in taking these steps, we are committed to 
maintaining the independence and freedom of the IRS from political 
influence.
4. Obtaining stable funding
    The fourth component of our strategy is to work with Congress to 
obtain stable and predictable funding for the IRS. Today, the IRS 
operates in a low-trust, short-tether budgeting environment. This 
unduly complicates rational planning for capital projects in areas such 
as information technology. As we demonstrate that the IRS is investing 
its resources more prudently, Congress should consider longer-term 
approaches to budgeting. To this end, the fiscal year 1998 budget 
proposes multi-year investments for technology. This multi-year 
proposal would provide funding stability as the IRS modernizes its 
information technology operations.
    Over time, the Administration and Congress will have to give 
careful consideration to the appropriate size of the IRS budget. The 
IRS budget has declined by more than nine percent in real terms over 
the last two years. Reducing expenditures on compliance run counter to 
the goal of reducing the federal deficit. Over the long term, the IRS 
estimates that every dollar invested in IRS enforcement returns at 
least $4 in actual collections. For example, in 1995, we undertook to 
invest $2 billion over five years to increase compliance. In the first 
year of that program, we more than exceeded the targets established for 
revenue gains.
    Looking forward, there are conflicting pressures on the IRS budget. 
Efficiency improvements are surely possible through information 
technology, which should enable us to reduce the budget in the long 
term. But we must also strive to meet expanding customer service 
expectations, which could increase our budget requirements. And to 
promote fairness and integrity in implementing tax laws while keeping 
pace with increasingly complex business transactions, we should also 
invest additional resources in compliance.
5. Simplifying the tax code
    The fifth component of our strategy is to simplify, wherever 
possible, a tax code that currently covers 9,451 pages. In April of 
this year, the Administration offered a series of simplification 
proposals as part of our overall plan to improve IRS operations. The 
proposed package, which could save taxpayers millions of tax 
preparation hours, contains more than 60 legislative proposals to 
reduce the complexities and paperwork burdens of the existing Internal 
Revenue Code and provide substantial new tax rights to the American 
taxpayer. It is important to stress that these proposals would simplify 
the tax code without the severely adverse distributional consequences 
that detract from most other simplification proposals.
    We are pleased that Chairman Archer included most of our proposals 
in the recent Ways and Means Committee tax bill. Of the total of about 
80 simplification proposals in his bill, we count 69 that are 
substantially derived from the Administration package. These measures, 
if enacted, will improve the functioning and administration of the tax 
law for many taxpayers and the IRS.
    However, we note that the pending bill also includes many new 
provisions that are complex, and some that are far too complex. In 
crafting legislation, simplification must always be weighed with other 
important tax policy goals, including fairness, equity, economic 
efficiency, progressivity and revenue impact.
                                summary
    These five steps--institutionalizing oversight, introducing new 
leadership, increasing flexibility, obtaining predictable funding, and 
simplifying taxes--provide a framework for improving our tax 
administration system. Of course, there are other critical issues that 
we must address. But I believe that progress on these five fronts is 
essential to addressing the IRS' problems.
                               conclusion
    This morning I have discussed some of the specific steps we are 
taking to modernize the IRS. In turn, I have discussed the broad five-
point plan that we believe represents the best way to reform the 
management of the IRS.
    The Treasury Department is committed to working with the IRS as it 
moves forward with its change effort. I look forward to working with 
members of this Committee and other interested parties in the coming 
months and years to meet the challenges faced by the IRS. I would 
welcome your questions.
                                 ______
                                 
                 Prepared Statement of Michael P. Dolan
    Mr. Chairman and Distinguished Members of the Subcommittee:
    With me this morning are Arthur Gross, Associate Commissioner for 
Modernization and Chief Information Officer; Jim Donelson, Chief 
Taxpayer Service and Acting Chief Compliance Officer; Tony Musick, 
Chief Financial Officer; and Dave Mader, Chief Management and 
Administration. We are pleased to be here this morning to discuss the 
Internal Revenue Service (IRS) 1997 filing season as well as the 
Service's fiscal year 1998 budget request and its effect on taxpayer 
services, the IRS compliance efforts, the IRS reorganization, and our 
continuing efforts to modernize.
                            i. introduction
    In today's testimony, I would like to account for the IRS use of 
its recent appropriation. I believe the Service has made a series of 
improvements consistent with the direction provided by this 
Subcommittee. I also will outline what we expect to accomplish with our 
fiscal year 1998 appropriation. While many of the programs that IRS has 
initiated or improved take time before their results are fully 
reflected in performance indicators, the evidence is already clear that 
the IRS has made progress in making it easier for taxpayers to get 
information about their tax obligations, pay their taxes, file their 
returns, and obtain their refunds where appropriate.
    A critical responsibility for the IRS is to plan and manage a 
successful filing season. We collect more than one trillion dollars 
annually (see Chart 1), process more than 200 million returns and 88 
million refunds, and assist millions of taxpayers in complying with 
their obligations. Over the past few years, we have been trying to 
shift taxpayers, and the IRS, from some paper transactions. We have 
made more and more information available via the telephone, computer, 
fax services, and CD-ROM. We have published telephone numbers which are 
dedicated to refund information and we have established what amounts to 
an IRS answering machine so that taxpayers can call in and leave a 
brief description of their issue. We also have encouraged taxpayers to 
use alternatives to filing by paper.
    The Service recognizes that it must continue to improve services, 
reduce costs, and provide an effective balance between assisting 
taxpayers, processing returns, issuing refunds and ensuring that all 
segments of the taxpaying public--wage earners, self-employed, and 
businesses--pay their proper amount of tax, at the least cost to the 
government and to them. Balancing these seemingly competing interests 
so that the IRS can provide the quality of tax administration our 
citizens deserve is not a simple task.
    The fiscal year 1998 budget request is structured in a way that we 
believe strikes a balance that will see customer service improve 
further; key compliance and fairness issues effectively addressed; and 
critical systems improvement achieved.
                             ii. operations
    Background. The IRS, like many large businesses, has many functions 
which contribute to the achievement of its mission. The Service 
collects money, processes information, maintains customer accounts, and 
responds to taxpayers' questions. Customers expect the Service to do 
these functions accurately and efficiently while maintaining a high 
level of integrity and safeguarding their privacy. The Service is in 
the midst of a major transition that began several years ago and that 
will continue for several more.
                        serving taxpayers better
    Making It Easier For Taxpayers to Get Information. We understand 
that taxpayers get frustrated when they call the IRS and repeatedly get 
a busy signal. In the past four years, the IRS has answered more calls 
than ever before, but there are still taxpayers whose calls are not 
answered. There are also a growing number of taxpayers who visit or 
write. In 1993, the IRS heard from taxpayers by phone, visit, or letter 
73 million times; in fiscal year 1996, that number had increased to 
nearly 106 million taxpayers (see Chart 2). To deal with one kind of 
demand, access to the TeleTax recorded information line, which offers 
taped information on 148 topics all day, every day, and refund 
information 16 hours a day, Monday through Friday, has been expanded. 
In 1996, over 45 million TeleTax calls were answered. Assistors 
answered another 45 million toll-free calls. The overall level of 
taxpayer access to telephone assistance increased from 39 percent to 46 
percent in fiscal year 1996. More taxpayers were served by increasing 
productivity, expanding hours of service, and installing call routing 
equipment that allows the ever growing telephone workload to be better 
managed. This technology allows the Service, among other things, to 
route calls to available assistors, who may be in the next county, next 
state, or across the country. One result of these improvements is that 
in over 80 percent of the instances an account issue could be resolved 
with a single call.
    In fiscal year 1997, assistors will answer 60 million toll-free 
calls--an increase of 15 million over last year. In addition, the 
TeleTax system should provide service to over 47 million taxpayers. 
Realizing the criticality of answering a greater percentage of our 
customers' calls, the Service used its resources differently during the 
1997 filing season to ensure more taxpayers were served. So that 
assistors could answer more tax law and account questions, the IRS 
added a new, toll-free number that enabled taxpayers to quickly 
determine the status of their refunds without having to speak to an 
assistor. Taxpayers who wished to call after hours or who did not want 
to be put on hold left their questions on recorded messages, and they 
were contacted within two business days with an answer. In an effort to 
improve telephone service this year, the IRS also temporarily used some 
of its examination personnel to answer the telephones. In other words, 
compliance personnel were used to perform traditional taxpayer service 
functions. Because of these efforts, the IRS significantly improved the 
toll-free telephone system, answering approximately 70 percent of 
callers \1\ in 1997. In 1998, we want to institutionalize and improve 
these gains. As of May 31, 1997, this fiscal year we have answered over 
46 million toll-free calls. Also, our TeleTax System has provided 
service to 41 million taxpayers.
---------------------------------------------------------------------------
    \1\ IRS defines level of access as the percentage of callers who 
are able to get through to IRS. GAO defines level of access as the 
total number of calls answered divided by the total number of calls 
received. The total number of calls received is the sum of the 
following: (1) calls answered, (2) busy signals, and (3) calls 
abandoned by the caller before an assistor got on the line.
---------------------------------------------------------------------------
    Despite these improvements, not every taxpayer call was answered 
and not all taxpayers who wanted to be served were served. Resource 
constraints ultimately limit the number of calls that can be answered. 
Furthermore, it makes good business sense to find ways that might 
proactively reduce the number of calls which taxpayers are required to 
make. One sure way of affecting that equation is to make the 
information initially provided clear enough that taxpayers will not 
need to contact the Service.
    We already have made some progress with a notice reengineering 
effort. Through this effort, we eliminated 12 different notices in 
fiscal year 1996; this resulted in 18 million fewer notices being 
issued and mailed to taxpayers--avoiding millions of telephone calls or 
letters from taxpayers. We have eliminated another 20 notices and 
letters for fiscal year 1997. This is good for taxpayers, who not only 
are relieved of the stress when an official looking letter from the IRS 
arrives in the mail, but who may not need to follow up with the 
Service. It also is good for the IRS; money is saved on printing and 
postage and subsequent questions are eliminated. The notices that will 
continue are being rewritten in clearer language so that fewer 
recipients will need to have any additional explanation.
    Technology has enabled entirely new ways for taxpayers to get forms 
and information from the Service while reducing IRS' postage and 
printing costs. Three years ago, taxpayers requesting a publication or 
form either had to call to have the material mailed or they had to drop 
by an IRS office, their local post office, or library. Not today--at 
least for many taxpayers. Tax forms and publications now are available 
on CD-ROM, and, last year, the IRS instituted an innovative FAX-Forms 
service that processed over 79,000 requests for tax forms and 
instructions by fax during the filing season; as of June 1, 1997, over 
600,000 requests had been processed for tax forms, instructions, tax 
topics and newsletters. This service has been expanded this year by 
doubling the number of forms and instructions available and advertising 
the FAX phone number in all 1040 series tax packages.
    For the 1996 filing season, the Service also developed a world-
class Web site that provides access to over 700 current and over 3000 
prior year tax forms and instructions, tax publications, regulations 
with plain English summaries, frequently asked questions, disaster 
relief assistance, newsletters, press releases, information on 148 tax 
topics, interactive applications that answer tax questions, and other 
information. This service is available world-wide, 24 hours a day, to 
anyone with access to a personal computer and the Internet. During the 
1996 filing season, over 100 million ``hits'' were logged and over 
three million files were downloaded. Through June 1, 1997, of the 1997 
filing season, the site had logged over 137 million hits and over 6.1 
million files (usually a form or information publication) have been 
downloaded. This Web Site has received outstanding customer, media, and 
industry feedback and has been honored with over 40 awards for its 
design and ease of use from such sources as Netscape, PBS, Wired 
magazine, USA Today, Tax World, Money magazine, Microsoft, Harcourt 
Brace, PC Computing Magazine, and Government Executive magazine.
    As a way of expanding the help available to taxpayers, the IRS also 
sponsors VITA, the Volunteer Income Tax Assistance program, and TCE, 
Tax Counseling for the Elderly. With these two programs, the IRS 
increased taxpayer assistance by giving taxpayers the opportunity to 
have direct contact at almost 20,000 sites with volunteers trained by 
IRS personnel. Last year, over 80,000 volunteers served almost 3.5 
million taxpayers through both of these programs.
    Easier Filing Methods. Another of the Service's goals has been to 
make it easier for taxpayers to file their tax returns. Current data 
suggests progress is being made on this front. Almost 50 percent of 
individual filers now use the easiest tax forms and almost 75 percent 
take the standard deduction. The number of returns filed electronically 
by paid preparers and by telephone has increased from 14.9 million in 
1996 to 19.1 million in 1997. This year, through June 13, 1997, we have 
received approximately 14.4 million electronically filed returns 
through paid preparers; this is a 19 percent increase over the previous 
year.
    During the 1997 filing season, almost 26 million taxpayers were 
eligible to file their tax returns with a phone call that takes less 
than ten minutes. By making TeleFile available to married taxpayers and 
taxpayers wanting direct deposit of their refunds, three million more 
taxpayers could use TeleFile this year. During the 1996 filing season--
which was the first year of TeleFile's nationwide availability--the 
Service received 2.8 million TeleFile returns. As of June 13, 1997, 
almost 4.7 million have been received for this year. Starting in fiscal 
year 1994, taxpayers could file from their home computer through a 
third-party transmitter. In 1996, the IRS received over 158,000 returns 
that way, and as of June 13, 1997, 366,000 returns had been received. 
Also, last year, the IRS forwarded to these 31 states 3.2 million 
returns filed through its joint Fed/State electronic filing program. As 
of June 13, 1997, the IRS has forwarded 4.3 million returns to these 31 
states and to the District of Columbia. This represents a significant 
savings to taxpayers and to the states in this program.
    Electronic filing is not just limited to individuals. It is also 
available to businesses. Employers nationwide can now file their 
``Employer's Quarterly Tax Return'' (Form 941) electronically. Almost 
363,000 of these returns were filed in this manner for 1996. A TeleFile 
option for the simpler Form 941 returns began testing on April 1, 1997, 
with nearly 900,000 eligible businesses in 14 states and the District 
of Columbia. As of May 12, 1997, almost 49,000 returns have been filed 
through this test program. Electronic filing offers advantages for 
taxpayers and for the IRS. One advantage is that taxpayer refunds are 
received sooner--an average of 21 days as opposed to 40 days for paper 
returns. The advantage for the IRS is the receipt of more accurate 
information more quickly.
    Electronic tax administration means more than just receiving 
returns electronically; it includes electronic payments as well. Most 
of the over 88 million taxpayers who will be entitled to refunds this 
year can have them directly deposited into their bank accounts. 
Taxpayers enjoy the safety and ease of direct deposit and the 
government saves the expense of printing and mailing checks. A change 
to the Form 1040 has made it even easier for taxpayers to request 
direct deposit this year. Last year, if a taxpayer wanted a refund 
deposited directly into a bank account, he or she had to submit a 
separate schedule. This year, a few extra lines on the Form 1040 will 
do it. As of June 6, 1997, in this filing season, we have had an 
increase of approximately 57 percent in the number of filers requesting 
direct deposit of their refunds.
    The TaxLink/Electronic Federal Tax Payment System (EFTPS), used by 
employers to pay employment and other depository taxes electronically, 
is faster, easier, and more accurate for tax collectors and taxpayers 
alike. In fiscal year 1996, more than $380 billion were deposited 
electronically through TaxLink, an increase over the $232 billion 
deposited in fiscal year 1995. Approximately 1.2 million businesses 
will be required to begin making deposits through EFTPS on July 1, 
1997. As of June 14, 1997, we have more than 1.1 million of the 
required taxpayers enrolled and almost 500,000 voluntary enrollments, 
and over $124 billion had been collected through the new EFTPS. The IRS 
has communicated extensively with banks, payroll companies, and 
practitioner groups--as well as with the taxpayers themselves--to 
enable a smooth July 1 implementation. We recently announced that the 
IRS will not impose penalties through December 31, 1997, on businesses 
that make timely deposits using paper federal tax deposit coupons while 
converting to the new electronic payment system. Under current law, 
taxpayers with more than $50,000 of federal employment tax deposits in 
1995 are required to enroll in the EFTPS and to deposit electronically 
by July 1, 1997. The additional 10 percent penalty for not depositing 
electronically will be waived through December 31, 1997. However, 
deposits must still be made on time even when paper coupons are used, 
in order to avoid a late deposit penalty. The IRS encourages businesses 
to use this additional time to get acquainted with EFTPS. Making EFTPS 
payments successfully will show businesses that they are correctly 
enrolled and that their payments can be processed without error.
    The IRS currently is working through the Treasury Modernization 
Management Board on ways to further expand electronic tax 
administration. That strategy anticipates that we will--
  --fully explore ways to make electronic filing more attractive to 
        taxpayers;
  --leverage existing private and public sector infrastructure; and
  --aggressively partner with the private sector.
    In July we will submit, through a Request for Information (RFI) all 
interested parties' views and recommendations on the issues most 
crucial to develop a dynamic electronic tax administration program. 
Despite new electronic options, the number of paper tax returns remains 
large: the IRS processes over 190 million paper returns and documents 
each year. To address the continuing volume of paper returns, the IRS 
is pursuing the potential for outsourcing the processing of paper 
returns as was outlined in our January report. Based upon this input, 
and assuming that there is commercial interest, a Request for Proposal 
would be issued to obtain contractor bids. Risks are inherent in 
turning such a critical system over to an outside processor. Thus, the 
IRS has already begun the ongoing process of identifying specific risks 
and potential mitigation strategies as well as identifying ``inherently 
governmental'' functions in that process. Based upon the experience of 
other agencies in large scale outsourcing initiatives, the IRS 
estimates that it could be as many as four years before it could be 
ready for a pilot project on outsourcing paper returns processing. As 
this process proceeds, IRS will carefully review all steps forward to 
address concerns about privacy and scarcity of taxpayer information.
         fairness: ensuring all taxpayers pay the proper amount
    In addition to improving services to taxpayers, the Service has 
continued to improve its compliance operations. Taxpayers have an 
expectation that the system will treat them fairly. To most taxpayers 
that means they expect others to pay their correct amount of tax, and 
they expect the IRS to identify and deal with noncompliance.
    The fiscal year 1998 budget requests approximately the same number 
of employees in compliance as in the fiscal year 1997 budget. For the 
past four years, the IRS has improved the compliance program through 
earlier identification of noncompliance patterns, innovative uses of 
compliance tools, and improved procedures--such as the Market Segment 
Specialization Program, offers in compromise, and installment 
agreements. We expect to continue the emphasis on these up-front 
approaches.
    Collection. For the past three years, the collection yield has 
steadily increased. In fiscal year 1994, collection yield increased 
three percent; in fiscal year 1995, it increased more than seven 
percent; and in fiscal year 1996, it increased 19 percent. While some 
part of collection results will always be a reflection of the 
underlying economy, the 1995 and 1996 increases also reflect the 
additional collection personnel hired as part of the 1995 Compliance 
Initiative. The results also reflect the continued emphasis on early 
involvement with delinquent taxpayers. As a result of improvements in 
the Compliance Program and the Compliance Initiative, the revenue 
collected from compliance increased from $31.4 billion in 1995 to $38 
billion in 1996 (see Chart 4). We have consciously prioritized ``up 
front'' collection operations--notice and telephone calls--to deal more 
quickly and effectively with the tax debt. We also have made 
significant improvements in the rate at which examination personnel 
secure collection of agreed tax assessments. In 1996, 70 percent of 
agreed tax assessments were collected at the earliest possible time--
the close of the examination.
    The Service has also expanded the use of an important tool--the 
installment agreement--to keep taxpayers in the system who cannot 
immediately pay all they owe. By increasing the authority we give to 
our front line personnel to accept installment agreements, installment 
collections have increased from $2.28 billion in fiscal year 1992 to $6 
billion in fiscal year 1996.
    The improvements made in the collection process not only helped 
increase the collection yield over the last several years, but they are 
also helping the IRS manage the accounts receivable inventory. In 
fiscal year 1995, the Integrated Collection System (ICS), which 
provides on-line access to current account information to revenue 
officers, was installed in two districts. In these two districts, 
productivity increased more than 30 percent, translating directly to 
additional tax collections ``in the bank.'' By February 18, 1997, ICS 
was operational in nine districts.
    Examination. In 1996, the Service closed over 2.1 million 
examinations and audit coverage was 1.63 percent--maintaining the 
accomplishments achieved in fiscal year 1995. Over 184,000 
determination letters were issued for exempt organizations and employee 
plans.
    The compliance program, however, is more than just delinquent 
accounts and traditional audits. The Service has continued to develop 
new compliance approaches. Through programs like Accelerated Issue 
Resolution (AIR) and Advance Pricing Agreements (APA's), the IRS is 
stressing early resolution of issues--a practice that can save all of 
the parties time and money. With AIR, the IRS can accelerate the 
collection of the largest corporate assessments by resolving recurring 
issues and simply carrying the resolution forward to future years--
reducing the number of issues under examination. Under this procedure, 
taxpayers have agreed to pay about $1.1 billion between fiscal year 
1993 and fiscal year 1996.
    The APA program was developed as a new way to resolve intercompany 
pricing issues. As a cooperative process, both taxpayers and the 
government derive significant benefits. Taxpayers welcome certainty in 
a complex area and avoid a lengthy debate with the IRS. By the end of 
fiscal year 1996, the Service had entered into 79 APA's. Currently, 146 
APA's are in process.
    To address the noncompliance with underreporting of tip income, the 
IRS, working with industry representatives, developed the Tip Rate 
Determination Agreement (TRDA) and the Tip Reporting Alternative 
Commitment (TRAC). These two initiatives benefit both employers and 
employees. Employers benefit from not having significant unplanned tax 
liabilities assessed against them. Employees benefit from increased 
social security benefits, unemployment benefits, retirement plan 
contributions, and worker's compensation benefits. As of December 31, 
1996, the IRS had received over 3,100 TRAC agreements representing more 
than 21,000 establishments and more than 800 TRDA agreements with 
nearly 1,200 establishments. From tax year 1994 to 1995, tips reported 
have increased over $2 billion.
    Working with private industry, the Service is responding to the 
increased sophistication of transactions in the financial world and 
specialization in the business community. The IRS has cooperatively 
developed Market Segment Specialization Program guidelines, focusing on 
the practical problems of examining a market segment and identifying 
particular issues of interest to the IRS. (A market segment may be an 
industry such as construction or entertainment, a profession like 
attorneys or real estate agents, or an issue like passive activity 
losses.) In turn, taxpayers are better informed about the noncompliance 
in that market and about the IRS' position. Through May 1997, the 
Service issued 34 Market Segment guidelines. These guides are available 
to the public through the Government Printing Office and also on the 
IRS Home Page on the Internet.
    Last year, the IRS continued its efforts to address the problem of 
erroneous refund claims, one element of the filing fraud issue 
identified by GAO as an area of high risk for the IRS. The Service has 
contracted with the Los Alamos Labs for an anomaly detection program to 
help spot erroneous refund claims. The IRS also has continued and 
increased verifications, including increased checks of social security 
numbers. On the Electronic Return Filing System, there was a 25 percent 
reduction from fiscal year 1995 to fiscal year 1996 in the number of 
returns rejected because of missing, invalid, or duplicate uses of 
social security numbers. Similar validations were conducted on paper 
returns. In fiscal year 1996, these efforts prevented over $900 million 
in erroneous or fraudulent refunds from being issued.
    This past filing season, the IRS continued to refine the efforts to 
address refund fraud based on what was done last year. The Service is 
continuing to look carefully for suspicious returns and, under 
legislation enacted last year, can use a quicker, more efficient method 
to verify social security numbers as returns are processed.
    In addition to compliance activities in examination and collection, 
the IRS' Criminal Investigation (CI) Division investigates complex 
financial transactions of taxpayers, looking for criminal tax 
violations and money laundering. CI remains a major contributor to the 
Federal war on drugs by identifying, investigating, and assisting in 
prosecuting members of high-level drug trafficking and related 
enterprises and in dismantling their operations. CI is also actively 
identifying and investigating new and emerging areas of tax fraud that 
affect the economy and prey on honest citizens. These areas include 
bankruptcy, health care, insurance, motor fuels excise taxes, non-
traditional organized crime, and telemarketing. Last year, CI increased 
the number of investigations started in traditional criminal tax 
violations by 14 percent; money laundering investigations increased by 
eight percent; and bankruptcy investigations increased 58 percent.
                        iii. information systems
    Over the past several years, this Subcommittee, as well as other 
Congressional committees, have focused on IRS' efforts to develop, 
implement, and manage its technology modernization projects--
collectively referred to as Tax Systems Modernization.
    Because technology modernization is so important to the business of 
tax administration now and in the future, the Service has been working 
closely with Congress for the past year on this issue. The IRS has made 
progress in addressing the concerns and criticisms of the technology 
modernization efforts. However, the Service recognizes that there is 
more work to be done to meet the challenges of updating technology to 
better serve the American taxpayers.
    Efforts to improve the management of IRS' technology investments 
have benefited from this oversight, and Tax Systems Modernization 
remains a high priority for the IRS. The Service has made progress in 
the past year within Information Systems on modernization efforts in 
developing an architecture for modernization and in establishing a 
process for making intelligent investment choices. The fiscal year 1998 
budget proposal is designed to let the IRS continue these efforts.
    Maintaining the Legacy Systems. One accomplishment that often goes 
unheralded is the IRS' successful delivery of a tax filing season each 
year. A key factor in delivering a successful filing season is the 
group of conscientious employees in the Information Systems 
organization who continue to update the legacy systems, develop new 
computer programs to comply with legislative mandates, and manage a 
complex array of technologies.
    Year 2000 Conversion. The most immediate challenge is the massive 
century date conversion project--the Year 2000 conversion. This 
challenge is not unique to IRS and much has been recently reported in 
various media about the magnitude of this problem. Most legacy systems 
are programmed to display ``00'' in the year fields, so that beginning 
on January 1, 2000, date-based calculations will be based 
unintentionally on an interpretation of the year field as 1900. Failure 
to identify, recode, and retest each of these date-based fields could 
result in the generation of erroneous tax notices, refunds, bills, 
interest calculations, taxpayer account adjustments, accounting 
transactions, and financial reporting errors. Put another way--such a 
failure could significantly burden the over 200 million taxpayers and 
IRS resources and jeopardize IRS' ability to carry out its mission. 
This conversion not only is vital to IRS but also to other 
organizations with which the IRS shares data, such as the Social 
Security Administration, Federal Reserve Banks, and most of the states.
    To date, the Service has identified 62 million lines of computer 
code in the corporate systems that must be analyzed. The effort to make 
needed changes may exceed 2000 work years of effort on the part of both 
the IRS and its contractors to ensure these critical systems are 
century date compliant by January 1, 1999. The IRS also is aggressively 
completing the inventory of field based applications, which may require 
the review of an additional 40 million lines of computer code. In 
addition, the IRS is actively reviewing all commercial off-the-shelf 
software and hardware to either replace or upgrade to ensure 
compliance.
    With the support of Congress through a $45 million fiscal year 1997 
appropriation, the IRS has mounted a massive effort to ensure its 
systems become century date compliant. Given the broad scope of the 
Year 2000 Conversion, the Service also is diverting significant 
existing information systems resources to the project, deferring all 
but critical and legislatively mandated legacy systems changes during 
fiscal year 1997.
    In fiscal year 1998, the IRS is planning a further expansion of the 
project and, therefore, has requested a total of $84 million. The IRS' 
Chief Information Officer is currently leading an extensive effort to 
identify and cost the corrective actions that will need to be taken. If 
the resource requirements change upon completion of the field-based 
applications inventory, updated information will promptly be provided 
to the Subcommittee.
    To build the infrastructure for modernization and ensure that the 
Service's mainframe computers and supporting communications, network 
and customer service terminals are Year 2000 compliant, the Service has 
proposed consolidating its 67 mainframe computers at 12 sites to 12 
computers at two sites. This effort is consistent with a recent OMB 
directive to consolidate data centers and with the modernization 
architecture. It will also address many of the Service's operational 
concerns as well as provide the backbone for the Service's efforts to 
improve customer service.
    Management Processes and Practices. The Service has made 
significant progress towards improving the management processes and 
best practices that are requisite to managing the size and scope of 
IRS' modernization efforts. Specifically, the Service has focused 
fiscal year 1997 resources on the development of the program 
infrastructure--systems architecture and systems life cycle--needed to 
undertake major modernization efforts. The IRS adopted a Systems Life 
Cycle that provides the policies and processes needed to manage systems 
development efforts. The Systems Life Cycle is consistent with industry 
practice, thereby underscoring the commitment to shift significant 
aspects of the technology modernization efforts to contractors. The 
Service has completed a modernization blueprint, including the 
architecture, which identifies critical business requirements and 
provides for a sequenced rollout of modernization projects based on 
prioritized business needs.
    Advancing Modernization. The IRS has also put in place an 
investment review discipline to assess and prioritize information 
systems investments, monitor progress of spending against plans, and 
evaluate the results of those investments. The IRS Investment Review 
Board (IRB) has reviewed all ongoing technology development projects. 
Projects that failed to demonstrate significant business value or 
comply with best practices for disciplined systems development have 
been suspended. To date, the IRB has suspended the Document Processing 
System, Corporate Accounts Processing System, Workload Management 
System, and Integrated Case Processing System, resulting in significant 
future cost avoidance. The IRB also is overseeing the reallocation of 
resources from these projects to higher priority investments, in 
accordance with the principles of the Information Technology Management 
Reform Act.
    Last year, Art Gross was selected as the IRS Chief Information 
Officer. Art has significant technical management expertise and an 
excellent grasp of the tax ``business.'' This year, the Service has 
continued to strengthen its information technology management 
capabilities with the appointment of the new Director of the Government 
Program Management Office (GPMO), who is an experienced systems 
development program management executive from the New York State 
Department of Taxation and Finance, and a new Director of the Systems 
Standards and Evaluation Office (SSE), who was formerly with the GAO 
and has extensive experience in the development of systems life cycle 
standards, policies and procedures, and information technology program 
evaluation and oversight.
    The IRS recently initiated an aggressive, nationwide recruitment 
program for well-qualified individuals to fill approximately fifteen 
executive and senior management positions to enable the IRS to 
strengthen and improve its overall management of modernization efforts, 
including management of contractors.
    One measure of the effectiveness of an information technology 
organization is the comprehensiveness of its product assurance program. 
Between 1992 and 1996, IRS' Information Systems organization downsized 
by over 2,000 positions, with a disproportionate reduction in the 
product assurance program. In the product assurance program, resource 
levels sank to less than 30 percent of the industry standard. 
Accordingly, in 1997, the IRS is undertaking a major rebuilding of this 
program to mitigate systems acceptance testing deficiencies that have 
prevented the thorough testing and certifying of principal IRS 
operating systems.
    At the same time, the IRS continues to transfer significant aspects 
of the technology modernization program to the private sector. The 
December 1, 1996, report to Congress documents the modernization 
program resource allocation; 64 percent of it is provided by the 
private sector. The largest and most important initiative for fiscal 
year 1997 was the contract recently awarded to develop, pilot, and 
implement the submissions processing manual data entry systems 
replacement. The IRS also is in the process of competitively acquiring 
a Systems Engineering and Technical Assistance (SETA) contractor to 
provide technical, program, and project management guidance to the 
modernization effort. Pursuant to the fiscal year 1997 Treasury 
appropriation, the Treasury Modernization Management Board is 
conducting the preparation of a Request for Proposal for a prime 
contractor to manage, integrate, test and implement the program.
    The IRS has completed its strategic modernization plan, which 
integrates implementation schedules and establishes completion dates 
for each of the major components of the plan. The major components are 
(1) a Modernization Blueprint, which focuses on rebuilding the 
corporate data bases to enable customer service taxpayer account 
resolution and improved compliance; (2) a procurement strategy to shift 
primary responsibility for systems development and integration to the 
private sector; and (3) linkages among the short-term legacy and 
operational systems enhancements, the Year 2000 project, and the 
longer-term modernization sequencing plan. The modernization plan was 
submitted, as required, to Congress in May 1997.
    Downsizing. Significant progress is being made toward the Year 2000 
Conversion and implementing the program infrastructure needed to 
undertake major modernization efforts. However, the IRS also needs to 
manage a nearly 10 percent downsizing of the Information Systems 
program staffing levels during fiscal year 1997. The fiscal year 1998 
budget provides for a further downsizing of 736 FTE's. While this 
downsizing plan reflects the intention to shift additional elements of 
modernization to the private sector, this additional staff reduction 
must be carefully managed, given the importance and magnitude of the 
Year 2000 conversion and the number and the critical nature of 
initiatives that are underway in addition to modernization.
    Security of IRS Information. The IRS has long understood that 
protecting taxpayer information is essential to maintaining our 
country's self-assessment tax system. We also know that our security 
and privacy programs need to be strengthened, so that the Service has 
integrated and consistent safeguards in place to adequately ensure (1) 
the privacy and security of taxpayer account information; (2) 
continuity of its operations; and (3) security of the infrastructure 
for modernized systems.
    One taxpayer security area of particular concern to this 
Subcommittee and to us is the unauthorized access to taxpayer data by 
IRS employees--or ``browsing.'' The IRS does not tolerate browsing. We 
consistently stress both within and outside the IRS that unauthorized 
access of taxpayer accounts by IRS employees will not be tolerated.
    In the past several years, the IRS has taken a number of steps to 
ensure that unauthorized access of taxpayer information by IRS 
employees does not occur. It recently has taken action to further 
improve its processes and approach to better deal with unauthorized 
access to taxpayer records. The Service has a legal requirement to 
protect taxpayer records. The IRS review initiated a number of new 
actions aimed at improving deterrence, prevention, detection, and 
penalties. For example, in the area of detection, the IRS is 
centralizing case development for unauthorized access in its Office of 
the Chief Inspector to give it the high-priority attention that is 
needed to deal with such violations.
    In addition to the internal actions, the IRS has recommended and 
supported legislative efforts to amend the Internal Revenue Code and 
Title 18 to clarify the criminal sanctions for unauthorized computer 
access to taxpayer information.
 iv. using the fiscal year 1998 budget to achieve irs' strategic goals
    The IRS is one of the early federal agencies to use an integrated 
Strategic Management Process, one in which planning, budgeting, 
investment, performance measurement, and program evaluation processes 
are integrated. The IRS developed its strategic management process 
after consulting with other public and private sector organizations. 
The Service uses performance indicators to monitor progress during the 
year, to make mid-course adjustments to optimize performance, and to 
evaluate performance at the end of the year. In the fiscal year 1997 
budget request, the Service included outcome-oriented performance 
indicators rather than the traditional workload output measures. For 
fiscal year 1998, the Service refined these performance measures and 
used them to evaluate its program choices (see Appendix). Setting long-
term goals and annual targets, managing activities to achieve those 
goals and targets, measuring performance annually, and holding people 
accountable will help improve tax administration. It will also help the 
IRS and Congress make more informed budget decisions about balancing 
resources across these objectives.
    Fiscal Year 1998 Increases. The fiscal year 1998 IRS budget totals 
$7.369 billion and 102,385 FTE. It includes gross increases of $308 
million and 195 FTE, amounts which are reduced by $143 million and 736 
FTE. This produces a net increase of $165 million and a net reduction 
of 541 FTE from the fiscal year 1997 operating level (See Charts 5 and 
6). Also, an Information Technology Investment Account has been 
proposed to respond to the requirements of the Federal Acquisition 
Streamlining Act of 1994 and the Information Technology Management 
Reform Act of 1996.
    The $308 million increase has been requested to permit the Service 
to do the following: (1) maintain current service levels; (2) fund 
critical operational information systems needs; and (3) fund a very 
modest increase for Criminal Investigation to detect overseas money 
laundering. The $143 million in program reductions includes $113 
million from Information Systems and $30 million from rent.
  --Maintaining Current Service Levels. The Service needs a $214 
        million increase to fund mandatory pay increases and to 
        maintain fiscal year 1997 program levels in fiscal year 1998. 
        Without this increase, the Service would have to reduce the 
        number of employees and the programs they deliver as well as 
        further erode funds for essential training, travel, and 
        enforcement expenses.
  --Funding Critical Operational Information Systems Needs. The Service 
        is requesting a $93 million increase for Information Systems 
        investments to finance immediate improvements in taxpayer 
        services. Much of this increase will be used for Year 2000 
        Conversion efforts. However, a portion will be used to test 
        programming changes for major information systems; to replace 
        vital but aging Service Center computers used to process 
        remittances and input data from tax returns; and to replace 
        some of the laptop computers we use to examine individual and 
        business returns.
  --Deterring Money Laundering. The Service is requesting a $1 million 
        increase to combat overseas money laundering. Many governments 
        are considering, or have adopted, laws to criminalize money 
        laundering and other financial crimes. The globalization of 
        financial markets and the U.S. economy, and criminal 
        organizations' increased sophistication at concealing illicit 
        gains, have created an environment that requires the expertise 
        of IRS special agents. This includes facilitating the 
        development and utilization of information obtained in host 
        foreign countries in support of criminal investigations over 
        which the Service has law enforcement responsibility and 
        providing assistance and support in establishing or enhancing 
        money laundering, criminal tax, and asset forfeiture laws. This 
        international strategy is critical for effective law 
        enforcement against money laundering, criminal tax and other 
        financial crimes which no longer are limited by their 
        geographic boundaries.
    As a labor intensive organization (over 70 percent of our total 
budget goes for labor costs) funding for the pay raises and other non-
discretionary inflationary costs is crucial. For example, a 
``rollover'' budget in fiscal year 1998--one that is at the same dollar 
level as fiscal year 1997--would not allow us to both fund the pay 
raise and maintain FTE levels. Instead, IRS would need to reduce 4,000 
FTE and this would impact levels of assistance and revenue collection. 
Looking at the IRS budget over the next five years (fiscal year 1998 to 
fiscal year 2002), if the Service receives each year approximately the 
same dollars as today, it would in effect be taking a $1 billion cut in 
``purchasing power.'' To pay for this reduction, IRS would need to 
reduce its FTE by approximately 4,000 FTE per year for a total loss of 
FTE Servicewide of about 20,000. This reduction would need to be taken 
across the board and would impact all of the Service's programs. 
Modernization offers the potential to increase productivity and reduce 
the impact of FTE reductions but modernization investments need to be 
fully deployed before long term productivity benefits can be realized.
                v. improvements in financial management
    The GAO had listed five financial management problems as major 
contributors to the failure of the IRS to receive a clean financial 
audit opinion--two related to the administrative area and three to the 
revenue area. IRS has made significant progress toward correcting these 
five major findings.
    1. Amounts reported as appropriations available for expenditure for 
operations cannot be reconciled fully with Treasury's central 
accounting records. IRS has worked with GAO to bring this issue to 
resolution. As of fiscal year 1996, the reconciliations are current and 
there is an automated mechanism in place to ensure that these balances 
are reconciled monthly.
    2. A significant portion of IRS' reported $3 billion in non-payroll 
operating expenses cannot be verified. The IRS can and does have 
acceptable and auditable records to verify commercial vendor payments. 
The $3 billion in non-payroll operating expenses could not be verified 
because of the interagency payments included in GAO's sample. Within 
this sample were interagency payments for which they questioned whether 
the IRS had support showing receipt and acceptance from other federal 
agencies, primarily GPO and the General Services Administration.
    The interagency payment problem deals with a receipt and acceptance 
issue related to goods and services received from other federal 
agencies paid via the government's Online Payment and Collection 
system. Because they identified these transactions as exceptions, they 
concluded that their testing (review of supporting documentation) of 
the non-payroll expenditures could not be projected to the universe of 
$3 billion; therefore, they could not verify the non-payroll 
expenditures.
    The IRS has been working closely with GAO to define the problem 
areas and to propose interim and long-term solutions to the receipt and 
acceptance issues.
    3. The amounts of total revenue and tax refunds cannot be verified 
or reconciled to accounting records maintained for individual 
taxpayers. The IRS is now using individual taxpayer records to prepare 
financial statements and to ensure that the auditors can verify and 
reconcile the total revenue and tax refunds to the accounting records 
maintained for individual taxpayers. This is being done until such time 
as longer term systems solutions can be implemented.
    4. Amounts reported for various types of taxes collected (social 
security, income, and excise tax, for example) cannot be substantiated. 
In preparing the fiscal year 1995 and fiscal year 1996 financial 
statements, the IRS made great progress in developing methods to 
substantiate the revenue collected. For Social Security, the IRS 
developed an extract that enables it to report and match assessment and 
collection information. As stated earlier, the IRS is also using the 
Masterfile to provide all detailed transactions to support income tax 
collected. In providing excise tax information, the IRS will continue 
to analyze monies assessed and collected to determine if there are 
significant differences. Additionally, the IRS is developing 
programming that will enable it to have detailed assessment and 
collection information as it does with Social Security.
    5. The reliability of reported estimates for $113 billion in 
accounts receivable and $46 billion for collectible receivables cannot 
be determined. During the fiscal year 1995 audit, initial testing by 
GAO resulted in its conclusion that the Service's program that 
classified receivables as financial receivables, financial write-offs, 
and compliance assessments was flawed. Based on a review of cases this 
year to determine the validity of our categorizations, GAO has 
indicated that the systemic process is accurately segmenting our 
portfolio of receivables. GAO's next step is to review the supporting 
source documentation for the selected cases to verify they are 
accurate. The Service is in the process of building the ARDI Expert 
System, a centralized data base that allows analyses to be performed on 
the entire inventory using all of the existing information.
    Status of 59 Recommendations. The GAO has made 59 recommendations 
through their financial statement audits for the last four fiscal 
years. Of the 59 recommendations, the IRS and GAO agree that the IRS 
has implemented 22 of them. Of the remaining 37, the IRS believes it 
has met the requirements on an additional 23. The Service is working 
with GAO to get agreement before actually closing these items. Of the 
remaining 14, 9 are scheduled to be completed by the end of the fiscal 
year; and five have completion dates beyond fiscal year 1997. The IRS 
is committed to working with GAO to resolve these recommendations and 
believes that through mutual cooperation and effort this goal will be 
achieved.
                           vi. reorganization
    Beginning in 1993, the IRS announced the first of a series of 
reorganizations designed to streamline operations and reduce costs--a 
process that continues today. These carefully considered efforts, 
conceived and undertaken well before IRS appropriations were reduced in 
fiscal year 1996, were done in recognition that the IRS should 
concentrate the maximum amount of its resources on effectively and 
efficiently meeting customer needs. Prior to these organizational 
studies, the IRS organization had been relatively unchanged for forty-
plus years.
    The National Office has been reduced in size; three regional 
offices have been closed; 63 district headquarters have been 
consolidated into 33; 80 administrative support offices have been 
consolidated into 23; and 70 customer service sites have been reduced 
to 30, and ultimately will be consolidated and centralized to 24. 
Taxpayer assistance levels and problem resolution service have been 
improved over the past year. Consolidating offices and centralizing 
operations reduces or avoids redundant infrastructure costs, such as 
space, telecommunications, toll-free call distribution systems, and 
management overhead, thus allowing the Service to devote more resources 
to service to taxpayers. When the district and headquarters 
reorganizations are completed this fall, the IRS estimates that almost 
2,900 overhead positions will have been eliminated.
    For almost three years, the IRS, working with the National Treasury 
Employees Union (NTEU), has used a variety of voluntary transition 
tools to move employees into the new, streamlined organizational 
designed. In October 1996, the IRS and NTEU signed a Pre-Reduction In 
Force (RIF) Activities Agreement which provided buyouts, outplacement 
assistance, and moving expenses for affected employees. As a result of 
this agreement, and with the approval of Congress, almost 1,300 
employees accepted buyouts. These were either employees in non-
continuing positions, or those who occupied a position that created a 
placement opportunity for an employee in a non-continuing position.
    In May 1997, the IRS and NTEU signed a third amendment to the 
original Pre-RIF Agreement which provides additional placement 
assistance. The IRS is hopeful that this amendment will also help 
reduce the number of employees who might be involuntarily separated as 
a result of RIF later this summer. However, despite the Service's 
extensive voluntary efforts, there are still in excess of 1,100 
employees who have not been placed into continuing positions.
    The IRS and NTEU reached impasse concerning the procedures to be 
used for implementing the RIF, and resolution of the disagreement has 
been referred to the Federal Services Impasses Panel (FSIP). A hearing 
will be held before the panel July 8-10, 1997, and the IRS is hopeful 
for a decision shortly. The Service's inability to finalize its 
reorganization has caused a significant imbalance between workload and 
people. IRS has begun local negotiations on moving work, and certain 
critical vacancies have been filled in the continuing district 
headquarters (within funding limitations). However, until such time as 
the savings becomes available from the reorganization, the IRS will not 
be able to fully realize the efficiencies envisioned in its 
reorganizations. The IRS is currently placing employees in continuing 
positions and will know within the next month or so how extensive a RIF 
will have to be. After that, and once a decision is issued by the FSIP, 
the Service will move forward to separate employees. I know there is 
continuing interest in this matter by the Subcommittee and the IRS will 
continue to keep you informed about how it is proceeding.
                            vii. conclusion
    My colleagues and I appreciate the opportunity to present this 
testimony. The IRS is committed to achieving its mission in a way that 
provides the information and assistance required by our citizens and at 
the same time reinforces the overall fairness of the tax system by 
seeing to it that all of us pay our correct share of taxes. Under the 
most stable of circumstances this is a challenging responsibility. The 
testimony has highlighted some of the most important advances that we 
have made and also pointed out the many areas that still require 
improvement. The Service appreciates the consistent interest and 
support of this Subcommittee and its staff and we look forward to a 
continuing strong relationship.
                                appendix

          Current IRS performance measures for fiscal year 1998         
                                                                        
                                                             Fiscal year
                Budget level measures--Draft                     1998   
                                                               targets  
                                                                        
                       Mission Level                                    
                                                                        
Mission Effectiveness Indicator: Total Net Revenue--                    
 (Budget+Burden)<divide>Total True Tax Liability (percent).         79.9
                                                                        
            Objective--Increase Compliance (IC)                         
                                                                        
Total Collection Percentage................................         87.3
Total Net Revenue Collected (in trillions).................        $1.57
Servicewide Enforcement Revenue Collected (in billions)....        $35.2
                                                                        
         Objective--Improve Customer Service (ICS)                      
                                                                        
Taxpayer Burden Cost (in dollars) for IRS to Collect $100..        $8.06
Initial Contact Resolution Rate............................          TBD
Toll-Free Level of Access (percent)........................         60.2
Tax Law Accuracy Rate for Taxpayer Inquiries (percent).....           92
                                                                        
           Objective--Increase Productivity (IP)                        
                                                                        
Budget Cost to Collect $100................................        $0.47
 Customers Successfully Served per Dollars Expended (in                 
 Customer Service Organization)............................          TBD
Percent of Returns Filed Electronically....................         17.5
Percent of Dollars Received Electronically.................         48.4
Percent of Remaining Dollars Received Via Third Party                   
 Processors (Lockbox)......................................         66.3
Support Services Performance Index.........................      $11,718
                                                                        
            Budget Activity Code (BAC) Measures                         
                                                                        
Submission Processing BAC:                                              
    Number of Primary Returns Processed (in thousands).....      203,829
    Total Number of Individual Refunds Issued (in millions)           88
    Processing Accuracy Rate--Paper (percent)..............           95
    Processing Accuracy Rate--Electronic Filing (percent)..           99
    Refund Timeliness--Paper (in days).....................           40
    Refund Timeliness--ELF (in days).......................           21
Telephone and Correspondence BAC:                                       
    Dollars Collected per Dollars Expended (in Customer                 
     Service Organization).................................          N/A
    Taxpayers Gaining Access as a Percentage of Demand (in              
     Customer Service Organization)........................          N/A
    Number of Calls Answered (in millions).................        111.4
    ACS Dollars Collected per FTE (in millions)............         $1.4
    Service Center (Examination) Dollars Recommended per                
     FTE...................................................     $480,000
    Problem Resolution Program Average Processing Time To               
     Close Cases--District Office (in days)................         35.8
    Problem Resolution Program Average Processing Time To               
     Close Cases--Service Center (in days).................         30.3
    Problem Resolution Program Quality Customer Service                 
     Rate--Districts (percent).............................         89.4
    Problem Resolution Program Quality Customer Service                 
     Rate--Service Centers (percent).......................         84.5
    Currency of Problem Resolution Program Inventory--                  
     Districts (in days)...................................        109.4
    Currency of Problem Resolution Program Inventory--                  
     Service Centers (in days).............................         77.6
Document Matching BAC: Document Matching Dollars Assessed               
 (in billions).............................................         $1.2
Inspection BAC:                                                         
    Internal Audit Corrective Actions Completed (percent)..         66.3
    Criminal Cases Generating Prosecutions, Management                  
     Adjudications and Employee Protection Actions                      
     (percent).............................................         58.3
    Background Investigations Completed Timely (percent)...         82.6
    Corrective Actions Proposed, Investigations Closed and              
     Employee Integrity Presentations Per FTE..............         8.33
    Usefulness of Inspection Products to Customers.........          3.0
Management Services BAC: Support Services Overall                       
 Performance Index (percent)...............................            3
Rent and Utilities BAC: Office Space per Employee (sq. ft.)          164
Criminal lnvestigation BAC:                                             
    Fraud Convictions......................................        1,756
    Narcotics Convictions..................................          656
Examination BAC:                                                        
    Field Examination Dollars Recommended (in billions)....       $22.83
    Field Examination Dollars Recommended per FTE..........   $1,008,348
    Audit Coverage (percent)...............................          .57
    Appeals Non-docketed Cycle Time (days).................          238
    Appeals Staff Days per Disposal........................         2.14
Collection BAC:                                                         
    Field Collection Dollars Collected (in billions).......        $5.87
    Field Collection Dollars Collected per FTE.............     $542,000
    Field Collection Average Cycles Per TDA/TDI Disposition         34.9
EP/EO BAC:                                                              
    EP Determination Letter Cycle Time (days)..............          150
    EO Determination Letter Cycle Time (days)..............           87
    EP Examination Cycle Time (days).......................          TBD
    EO Examination Cycle Time (days).......................          TBD
Statistics of Income BAC:                                               
    Percent of Statistics of Income Projects Delivered on               
     Time..................................................           90
    Statistics of Income--Quality Customer Service Rate                 
     (percent).............................................           90
Chief Counsel BAC:                                                      
    Technical Advice and Service Assistance................           51
    Private Letter Rulings and Advance Pricing Agreements..           51
    Regulations, Revenue Rulings & Procedures, and                      
     Legislation (completions).............................            7
    Docketed Tax Court Litigation Closures.................           63
    Counsel Bankruptcy Closures............................          231
    Counsel Litigation and Advisory Support................          216
Operational Information Systems BAC:                                    
    Integrated Data Retrieval System (IDRS) Real Time                   
     Availability (percent)................................         99.0
    Weekend Taxpayer Information File (TIF) Update                      
     Completion Times (percent)............................         85.6
    Corporate Files On-line (CFOL) Availability (percent)..         99.0
Developmental Information Systems BAC: None................           NA
                                                                        

                                                             [GRAPHIC] [TIFF OMITTED] T13JN19.001
                                                             
                                                             [GRAPHIC] [TIFF OMITTED] T13JN19.002
                                                             
                                                             [GRAPHIC] [TIFF OMITTED] T13JN19.003
                                                             
                                                             [GRAPHIC] [TIFF OMITTED] T13JN19.004
                                                             
                     Computer Modernization Efforts

    Senator Campbell. It is my understanding that you will be 
testifying and other folks of the panel will be for questions. 
Let me just start by saying that I have a number of questions, 
some of them pretty technical, dealing with the year 2000 
issue, the Y2K issue. I have about six or seven questions in 
that area. Those I would like to submit and ask you to return 
the answers to the committee if you would, and just ask you a 
few general ones here.
    We have all heard reports that the IRS has wasted $4 
billion on computer modernization efforts over the past 10 
years. I think the committee understands the need for 
modernization and certainly supports the IRS in that effort. 
This subcommittee is going to be very reluctant to waste 
another $4 billion of taxpayers' money. You have mentioned a 
number of things like simplification reports to Congress and 
not being supportive of the commission that Senator Kerrey 
recommended.
    I would like to ask you, how are you going to assure that 
this time around, the money that we appropriate for 
modernization is going to be spent in a better fashion than it 
was the last time?

                      New Modernization Management

    Mr. Summers. Let me give a very brief answer if I could and 
then refer the question to Mr. Gross who has that 
responsibility. There is new management over the modernization 
program, a new Commissioner who has experience in this area, a 
Chief Information Officer who has done it successfully. Other 
senior executives previously associated with the program are no 
longer associated with the program.
    A new approach is being taken. That approach is based on 
only investing in the context of an architecture with a clear 
signoff by a tough-minded review board. It is based on an 
approach, in a sense, that involves planning before you build 
rather than building before you plan.
    It is based on the IRS no longer seeking to be its own 
systems integrator; but instead, going to the outside through a 
prime contractor mechanism and getting the expertise done by 
people who have done this kind of work before.
    By taking--and it is based on proceeding in small, 
measurable steps rather than in large steps where you cannot 
monitor performance for a period of several years. That is what 
the best practice in the private sector is. The person who is 
really doing it and who has prepared the architecture to date 
is Art Gross, so I might ask him to comment.
    Senator Campbell. Go ahead, Mr. Gross.
    Mr. Gross. Thank you, Mr. Chairman. All of the elements 
that Deputy Secretary Summers reported are precisely the 
elements required to go forward. In addition, as GAO reported, 
there are major process and practice deficiencies within the 
Internal Revenue Service with respect to our ability to build 
systems today.

                          GAO Recommendations

    For that reason, we do not plan to begin modernization 
until fiscal year 1999, and in the interregnum, we are in the 
process of implementing the recommendations that, in fact, GAO 
has reported. We agree with those recommendations.
    We have implemented several of those elements, including 
the issuance of an architecture, the issuance of a sequencing 
plan, the completion of an integrated test and control 
facility, and there are several other elements in play and 
underway to significantly mitigate those material weaknesses.
    Senator Campbell. I see. I do not know if you were in the 
room when Senator Faircloth was asking some questions or when 
Senator Shelby did, but I think they reflect the feeling of 
some of the members of the committee, in fact, maybe all of us, 
that we are having trouble determining a number of things in 
the IRS.
    One is, who is the person held responsible for IRS 
performance? I mean, we hear comments from the GAO and so on, 
but I know we just recently finished a hearing a couple months 
ago on browsing, and at that time, I was having problems 
finding out who the heck was responsible for reprimanding, for 
firing, for doing any number of things that should have been 
done and we found out people were just going through records 
with no authority to do so.
    Perhaps you could tell us that. Do you feel that you are 
the one who is going to be accountable for the performance or 
the lack of, as it moves down the line, Mr. Summers?
    Mr. Summers. The Secretary and I take responsibility for 
everything that happens at the Treasury Department.
    Senator Campbell. You also determine the direction the IRS 
takes along with the Secretary accepting the responsibility for 
that activity?
    Mr. Summers. The Secretary and I accept responsibility for 
the direction the IRS takes and for the top management choices 
at the IRS. The Secretary and I, in turn, hold the Commissioner 
of the IRS or, at this point, the Acting Commissioner of the 
IRS, accountable for performance of the organization and we 
expect the Commissioner, in turn, to hold their key 
subordinates accountable for performance in their specific 
areas.
    I think that is the only way to manage an organization and 
this is really something that we see as a central aspect. The 
Secretary has, I think, said many times that it would be 
easier, from his point of view, not to accept this kind of 
accountability, but we believe that if we are to have the best 
chance of success, it is crucial that the senior management of 
the department, directly in turn responsible to the President, 
be accountable for IRS performance.
    We would be very concerned about the proposals that would 
undercut that accountability by turning management over to a 
group whose primary loyalty and primary obligation was to their 
own private executive careers. We are prepared to accept that 
accountability.

                        Private Debt Collection

    Senator Campbell. In the fiscal year 1997 bill, this 
subcommittee funded a private debt collection project which was 
to do a pilot allowing the private sector to collect on 
accounts that the IRS considered uncollectible.
    There has been some concern expressed by the private sector 
that the pilot was set up to fail. I mentioned this earlier 
today, before you came in, with another panel. Could you give 
us a status report on that private debt collection, on the 
pilot for it? Mr. Dolan?
    Mr. Dolan. If I might, Mr. Chairman? I was here when you 
expressed interest earlier in the day. Essentially, I was a 
little disappointed by the characterization by the GAO because 
it is not quite on point with what I thought we had understood 
when we dealt with them face to face.
    The inference left was that there was something about the 
test and the way it was created that caused it to fail. Quite 
the contrary, I think what was tested were some propositions 
that the Congress asked us to test, which was essentially that 
there are some accounts that we do not get through today that 
are not determined, either because they are not locatable or 
because they are of a low dollar value.
    The hope was that we would experiment in an area that was 
considered not inherently governmental, and what turned out to 
be the crux of this, Mr. Chairman, was the contractor is unable 
to do the kinds of things that Senator Faircloth was talking 
about, by law.
    It was unable to seize, to levy, to do those sorts of 
things. And given the legal constraints of that understanding, 
I think the contract has not proven to be, essentially, a good 
business decision because the yield has been barely equivalent 
to the actual amount the Government has paid out.

                   Small Business in Colorado Springs

    Senator Campbell. OK. Thanks. Let me turn to a personal 
problem of a constituent. I have a constituent--she has moved 
to Albuquerque now, but she was in Colorado Springs for a 
number of years and had a small business there, by the name of 
Carol Ward.
    She went to court, as you know--or maybe you do not know--
perhaps you can review that if you do not know the 
circumstances. But according to some of the reports, 
particularly in our major newspaper in Colorado, the Denver 
Post, she made some comments to her auditor that the IRS felt 
threatened from or became angry about and her business was 
raided and locked up for owing $324,000 after that.
    Obviously, she did not settle for that. She hired an 
attorney and took it to a judge and the judge in Denver found 
the IRS agents were grossly negligent, and that they acted in a 
reckless disregard for the law, according to the article in the 
Post.
    They then awarded her a judgment of--I forgot what it was 
now. I think about $250,000 or something. It was a pretty large 
judgment. But in the meantime, they confiscated her property, 
they locked up her building, her daughter ended up quitting 
high school because the IRS statements were posted in the 
stores around. That led students to believe that the family was 
somehow involved in some kind of illicit drug smuggling.
    She did not owe any debts before this big problem was 
caused, and by the time the IRS finished with her, she owed 
$75,000 of private debts because her store was boarded up. The 
comments she made to the IRS were the kind that anybody 
probably would have made if they felt harassed.
    She said, and I want to quote this, when she accompanies 
her son to one audit after a rather rancorous meeting, she told 
the auditor, ``Honey, from what I can see of your accounting 
skills, the country would be better served if you were dishing 
out chicken fried steak on some interstate in West Texas with 
all that clunky jewelry and big hair.'' And that apparently 
really angered the person doing the audit and she got in a lot 
of trouble after that. The judge, of course, straightened that 
all out, but she is still out of business.
    I would like to know a couple of things. First of all, do 
the IRS employees receive training in law and policy in this 
area?
    Mr. Dolan. Yes, Senator, they do.
    Senator Campbell. What disciplinary action was taken as a 
result of that incident--by the way, the IRS admitted no 
wrongdoing. The judge said they did and they awarded her a 
monetary settlement. But the IRS never admitted wrongdoing. But 
has there been any disciplinary action taken because of this 
incident?

                   Small Business in Colorado Springs

    Mr. Dolan. Senator, if you would permit me, I would like to 
give you a careful answer on this because the decision you talk 
about, the district court decision is, in fact, a court 
decision that deals exclusively with whether the disclosures 
that were made in the particular taxpayer's case were ones that 
were actionable.
    The district court case did not, at any point, deal with 
the merits of the underlying tax issue, but the reason I am 
saying I want to be careful about this is that I do not want 
to, in this forum, breach any of the confidentiality around the 
taxpayer. So as a consequence, I cannot and will not talk about 
the underlying tax circumstances that the taxpayer confronted 
or how we might have dealt with that.
    I will tell you, Senator, that I read the decision, the 
district court decision very carefully the day after it was 
issued. There were a number of allegations that the plaintiff 
took to the court. All of those allegations are dealt with by 
the court, all of them centering around some aspect or another.
    There was a finding of wrongdoing and if that finding 
indeed turns out to be factual, if the finding of what the 
revenue officer did----
    Senator Campbell. This is an internal investigation?
    Mr. Dolan. Where we are right now, Senator, is between the 
point of consulting with the Justice Department on whether or 
not there will be an appeal of the decision. Once that judgment 
is made----
    Senator Campbell. When do you expect that judgment?
    Mr. Dolan. If you would allow me to come back to you with 
the specific timeframe?
    Senator Campbell. Yes.
    Mr. Dolan. And what I will do, subsequent to that judgment, 
is look particularly at the one employee's conduct that was the 
basis for the punitive damages that were awarded in this case.
    Senator Campbell. OK. I would appreciate it if you would 
get back to me on that. Senator Kohl.

                        Reduction of IRS Funding

    Senator Kohl. Mr. Summers, GAO said that we ought to send 
the IRS a message by reducing their funding. Do you have any 
thoughts on that?
    Mr. Summers. Senator, it will not surprise you if I tell 
you that I would not recommend that course of action, and I 
would not recommend it for three reasons.
    First, I think the IRS has gotten the message from a 10-
percent real reduction in funding that it has received over the 
last several years, from the fact that it has been forced to 
downsize by more than 12 percent, and from the kind of ongoing 
oversight that it is receiving from the Treasury Department and 
the enhanced attention that it has received from Congress.
    So I think the sense that there is a need for important 
change is a message that has been well-received. Second, if we 
are to have a prospect of bringing about that change, it cannot 
just spring full-blown.
    What Mr. Gross testified was that the work of modernization 
with the prime contractor and all that was basically going to 
begin in 1999, but that there were important preparatory steps, 
in part involving the year 2000, in part involving developing 
the capacities necessary to mobilize the prime contractor, in 
part in modernizing other systems so that they would be ready 
to integrate with modernization.
    If those resources were not made available, I think the 
consequences in terms of our ability to bring about the change 
we are trying to bring about would be very serious.
    Third, I would just remind you, as painful as it is, of the 
seriousness of the Y2K issue where our choices are few and 
expensive, and if we are going to have any prospect of dealing 
with that in a rational way, I think that we would certainly 
need the funding we have sought.
    I think GAO in its report, while it has been critical of 
some aspects, I think does recognize that the Y2K needs, if I 
understood the written report correctly, are likely to be 
somewhat greater than has been estimated so far.

                       Treasury Oversight of IRS

    Senator Kohl. All right. Can you tell us, Mr. Summers, with 
some specificity how much time you will be able to be spending 
on these IRS issues? That is a great concern to us.
    Mr. Summers. As I said, I think when I last had a chance to 
testify before this committee, I am spending more time on the 
IRS than on any other single project or single thing that I am 
involved with at the Treasury Department, and essentially no 
day goes by in which I do not have some involvement with an 
IRS-related issue.
    There are people who are directly on my staff whose 
essentially full-time responsibility is to be involved in IRS 
oversight and who are in close touch with me. I should say also 
that Secretary Rubin is very involved in the oversight of the 
IRS. About a week or 10 days ago, we had a meeting to review a 
variety of priorities with Secretary Rubin and myself and the 
Treasury oversight staff and the IRS senior management team 
that is present here.

                       Tax Refund Offset Program

    Senator Kohl. All right. Mr. Dolan, the IRS has 
successfully improved child support collection nationally 
through the tax refund offset program, as you know. This has 
helped collect more than $1 billion in past due child support 
just last year.
    But $34 billion is owed in child support past due payments 
to our Nation's children, so we would all like to see that 
program expanded. I would like to ask you what the potential 
for child support collections is under this program, in 
particular, how much of that $34 billion in past due support do 
you think that we will be able to collect and how would these 
increased collections impact your own resource needs?
    Mr. Dolan. Senator, I am not sure I can give you a 
quantification of how much we can get that you would want to 
take to the bank. I would say, and I think you know that based 
on some requests you made of the Commissioner earlier, we 
essentially were quite encouraged by the potential capacity to 
do some information matching with the Social Security 
Administration.
    I think we are in the final stages of making sure that 
there isn't an impediment in Social Security's ability to share 
that with us, and the lawyers are in the final innings of that.
    We felt pretty confident that if we could get that kind of 
data coming to us, which would essentially help us identify the 
right match between parent and child, that we could put it into 
one of our front-end programs that is a reasonably inexpensive 
way to match data and to go with a process that we essentially 
call an unallowable process, which does not envision the whole 
paraphernalia of an audit and all that.
    At this point, it would be a question of finding the 
resource to fund that program, but it is a relatively high 
return on investment kind of program. So it is a long-winded 
way of saying to you, if we can match the information but for 
this impediment on the privacy side, we think it is quite 
likely that we can put together a reasonably easy and, we 
think, high return program where we would take advantage of 
that data at the front end of the tax processing system.
    Senator Kohl. Good.
    Mr. Dolan. I would like to reserve the right to come back 
to you as we figure out this last hurdle so that we can maybe 
tell you more particularly what will come from that.

                       Year 2000 Date Conversion

    Senator Kohl. All right. Mr. Gross, year 2000 conversion is 
an area of great concern for all agencies, and especially those 
whose mission rely heavily on computer services. In fiscal year 
1997, Congress provided IRS with $45 million in the IRS fiscal 
year 1998 budget submission request of $84 million for this 
conversion.
    I now hear that this may not be enough and that the IRS 
will request $258 million. Can you explain why this number has 
been changed so often and who approved these changes?
    Mr. Gross. Senator, the Y2K problem has been an endemic 
problem for both the Internal Revenue Service, as you know, and 
all organizations depending on computers. When my tenure began 
in April 1996, we had three personnel and a total Y2K budget 
for the entire program of only $20 million.
    Since April 1996, which is 14 months ago, the Internal 
Revenue Service and Treasury have made a full--an intensive 
effort to create a viable Y2K program. When we developed our 
estimates, we made it quite clear--IRS, in conjunction with 
Treasury--that there are significant parts of this program, 
given the aging infrastructure, that we would not be able to 
estimate the cost of conversion for some time and that is still 
the case.
    If I could just go a bit further to give you some 
specifics? When we submitted a projection in 1997 for 1998, 
that projection did not take into account our field-based 
business operating systems, it did not take into account our 
telecommunications infrastructure, nor did it take into account 
the computers on which these applications actually run.
    It did not take those elements into account because we 
simply had not been able, at that time, to identify the Y2K 
issues associated with that infrastructure. Much of that has 
now been identified through the auspices of a partnership with 
the private sector. We engaged IBM and UNISYS with IRS to, as 
aggressively as practicable, develop the Y2K solution for a 
major component of the infrastructure, and that represents the 
lion's share of the $258 million funding need for 1998.
    Regrettably, we have not completed all of the inventorying 
of other elements of the infrastructure nor our field 
applications, and the implications of that are, as Deputy 
Secretary Summers reported, we believe that there are funding 
implications that will continue into fiscal year 1999, that we 
still have not fully identified all elements of the problem.
    What we can say, however, is that we believe we have 
identified and programmed all of the required conversion 
activities around the core tax systems, those systems that 
support the programs that service America's taxpayers. In other 
words, we believe we have identified the solution, the Y2K 
solution, for our ability to process tax returns, issue 
refunds, and manage our customer service and compliance 
programs.

                       Year 2000 Date Conversion

    So we have identified on a priority basis consistent with 
GAO planning guides, we have identified on a priority basis 
those applications that must be converted by year 2000, and we 
still have work to do on some of the lesser priority, but 
nevertheless important systems.

                     Earned Income Tax Credit Fraud

    Senator Kohl. All right, thank you. Mr. Dolan, many of us 
are long-time supporters of the earned income credit. It 
represents good public policy and is more important than ever 
now that we are trying aggressively to move people off public 
assistance and into the work force.
    But it is troubling that roughly 25 percent of the EIC 
filers over-claim that credit by more than $4 billion a year. 
How serious are the EIC noncompliance rates compared to 
problems with other tax provisions, and has the IRS made 
progress in bringing these rates down?
    Mr. Dolan. Let me start maybe at the back of the question 
and move forward. I think we feel reasonably good about the 
progress that has been made in recent years. I think as you may 
well remember, Senator, there was a full-court press put on in 
this arena 2 or 3 years ago based on some help that we got from 
some folks from the Kennedy School looking at different ways of 
both detecting and reacting to what we found out is not an 
uncommon phenomena across lots of parts of the financial 
services industry.
    So we took a look at best practices and ways of trying to 
do both things, both educate people--because a fair amount of 
these over-claims come as a result of people not understanding. 
And so there has been considerable work done in outreach and 
simplification of forms and schedules.
    Another area on which I would like to report more progress 
that we have made, but on which we still look for colleagues, 
is expanding the advanced earned income program. Because to the 
extent that we can get people on the advanced earned income 
program, it (a) assures that they are doing it right, and (b) 
it does not put this push, this press on the end of the year.
    But as to the actual claims, we have used a variety of 
electronic filters. We have again taken some consultation from 
some experts in this field as to how to detect patterns. Some 
of it, quite frankly, proved to be unscrupulous preparers who 
were leading people down roads that should have seemed too good 
to be true and, in fact, they were too good to be true.
    We had a very aggressive program looking at those kinds of 
folks and trying to eradicate them from the system. And so, I 
would say probably none of us are comfortable if you talk about 
an over-claim rate or an under-pay rate of more than zero.
    But if you look at the spectrum of our tax gaps, we find 
that there are lots of individual components of the tax cap 
where we are going to continue to work on bringing them down.
    I would say that is the way we have looked at earned 
income. I would not want to sit here and report to you that it 
is as good as it is going to get, but I also would not want to 
sit here and decry it, because I think we have made great 
progress and I think we expect to make even more progress on 
it.
    Senator Kohl. OK. Thank you, Mr. Dolan. Mr. Chairman, thank 
you.
    Senator Campbell. Senator Shelby.

                   Accountability for Appropriations

    Senator Shelby. Thank you, Mr. Chairman. I want to say, and 
I believe I speak for most people here, especially the ones 
that are not here, that we are not here to beat up on the IRS, 
but we are here as part of the appropriations process to see 
that this money is well-spent, that it is spent for the purpose 
it was intended because it is taxpayers' money. It is hard-
earned money.
    Secretary Summers, you know this. We all know that. The IRS 
is one of the most visible of the agencies of the Federal 
Government because it permeates all of us in the business 
world, individuals, in some way or form.
    But what we are trying to do, I think, is to restore 
credibility and confidence in the Internal Revenue Service. We 
all, I suppose to some extent, fear the IRS because you are the 
implementator of the tax policy and you have a job to do at the 
IRS.
    But at the same time, I think you have responsibility to 
spend the money that is appropriated to the agency very wisely, 
and I think it is a given. It goes without saying. I don't 
believe it is really arguable that so much of the money has 
been wasted. I think that has been acknowledged, basically. If 
it has not, it has certainly been highly newsworthy to 
everybody.
    So how do we create accountability at the IRS for what we 
appropriate, and at the same time, create what the American 
taxpayer looks and hopes to have a level playing field in 
dealing with the IRS? Most taxpayers feel that when they are 
dealing with the IRS, most people, that they are in the ditch 
and the IRS is up on top of the bank and that they do not have 
a level playing field.
    That is all part and parcel of the IRS and you know this. 
But we are troubled, and I know I am, I am troubled, from the 
committee standpoint, of money that we appropriate and it is 
not spent well. I realize that the IRS has a job to do in our 
form of government, but when we have the General Accounting 
Office report, when we have the Tax Commission, which we 
created, Mr. Chairman, report, highly, highly, Mr. Secretary, 
critical of the IRS and how they are spending money.
    For example, the Clinger-Cohen Act--I am sure you are 
familiar with that--among other things, requires a support that 
our information technology investments, which we are talking 
about modernizing the IRS, be supported by accurate cost data 
and convincing, convincing, cost/benefit analysis. They are 
basically saying to us, as I understand it, that there is no 
rhyme or reason to a lot of the requests that you have done, 
that you have not complied with the Clinger-Cohen Act, and that 
you do not know how you plan to spend a lot of this money, 
basically that there is no justification to support billion-
dollar information technology investments unless you know where 
you are going.
    You see this. I mean, this was released today. That is 
troubling, not to me, but it is going to be really troubling to 
the American people because this is going to be disseminated 
nationwide in just a few hours, if it has not already been.

                   Accountability for Appropriations

    So under the Clinger-Cohen Act, what we are trying to do 
there and the reason we passed that bill, which is an act 
today, was to support the agency where you need money, but let 
you justify the need and what you are going to do with it. And 
IRS is not the only agency, but it is the one before the 
committee today, that we think there has got to be 
accountability there.
    Now, having said that, where do we go, Mr. Secretary? In 
other words, what are you doing at the IRS to bring in, if you 
are, some of the top management gurus of the Nation, of the 
world? You know who they are, a lot of them. If you had a 
company the size of IRS, you have over 100,000 employees and 
that would be a large-size company, and you were having the 
kinds of management problems that you have in IRS, you would 
certainly bring in--you would roll some heads to begin with.
    Somebody would be accountable, make no mistake about that, 
and more than likely, you would bring in outside management to 
say, ``Gosh, what is wrong? What has gone wrong? What is wrong 
with the decisionmaking process here and where do we start 
today?''
    Maybe you have gone somewhere in the last 2 years, but 
according to the General Accounting Office, according to the 
Commission, I do not see a lot of progress and I am troubled, 
as the American people are troubled. You are probably troubled, 
Mr. Secretary. I know it is a big bureaucracy. I know it is 
hard to do and it is hard probably, as the Senator from South 
Carolina said, it is probably--North Carolina--to fire 
somebody.
    But in the private sector, heads would roll and there would 
be accountability. But there must be, must be accountability at 
the IRS for this kind of waste of the taxpayers' money. I know 
you have heard it before, but where do we go? Just in a few 
minutes, tell us. Where do you plan to go and how can you 
justify the expenditure in view of the Commission and the 
General Accounting Office saying, ``Gosh, you have not 
justified it.''
    Mr. Summers. Let me try to answer as best I can----
    Senator Shelby. Sure.
    Mr. Summers. Because I agree with a large part, a very 
large part, of what you said, Senator, and if I might do it by 
just going back to where we were a year ago?
    Senator Shelby. OK.

                    New Leadership for Modernization

    Mr. Summers. A year ago, we testified that this program was 
way off track. We said that we were going to bring in new 
leadership for the information technology function. The 
previous people who were involved with the modernization 
program are either no longer at the IRS or are not involved 
with the modernization program.
    We brought in an outsider to the IRS, Mr. Gross, and vested 
him with all the responsibility as Chief Information Officer 
for the modernization program based on his proven record in 
doing this on the outside.
    Senator Shelby. In addition to Mr. Gross, did you let him 
bring a team in? That is important, too, and let Mr. Gross 
select a team because just bringing the top manager in is not 
going to do it if you are not going to give him the latitude to 
bring his team in. Go ahead, Mr. Gross.
    Mr. Gross. Mr. Senator, from my first day here on April 15, 
1996, both Treasury and IRS top management have fully supported 
our efforts, and toward that end, we have just completed a 
recruitment process in which we will be appointing 13 new 
senior executive members to the information technology 
organization.
    And each of those bring----
    Senator Shelby. Where are they coming from?
    Mr. Gross. Mostly from the private sector.
    Senator Shelby. OK.
    Mr. Gross. Some internal promotions of individuals who have 
performed very ably, but mostly from the private sector and 
from outside of the organization.
    Senator Shelby. How much latitude are they giving you at 
the IRS to do this? A lot, some?
    Mr. Gross. I have received the full support of the top 
management at both Treasury and IRS to effectuate these 
changes.
    Senator Shelby. Go ahead, Mr. Secretary.
    Mr. Summers. If I could say, we have tried to give Art the 
maximum latitude that we can. I think there are a number of 
things that we are going to have to look as one of the things 
that I included in my testimony in terms of flexibility. We 
need more scope to be able to pay bonuses. We need to be able 
to recruit people more quickly through less of a Civil Service 
process.
    Senator Shelby. Do you need legislation to do that?
    Mr. Summers. We will need legislation to do some of those 
things, although there are some things that can be done with 
executive branch approval. We look forward to, at the 
appropriate time--and there is a lot of overlap here, by the 
way, on this issue, between us and the IRS Commission to making 
some specific proposals as to what we can do.
    Senator Shelby. Mr. Gross, a year hence, let's say it is 
June, this is projection. It is the middle of June 1998, a year 
hence. Where do you expect to go, not hope to go? Where are the 
realistic measurements that you think you could come up with to 
change some of the problems in a year? A year is a long time.

                       Year 2000 Date Conversion

    Mr. Gross. Year 2000 is a death march. It is the highest 
priority of our organization. We absolutely, by June 1998, need 
to be fairly well completed with our core business systems Y2K 
conversion. All of our metrics around Y2K conversion are 
targeted toward early completion of the conversion to leave 
1999 as a year for integration testing and certification.
    We also project that by June 1998, a year from now, we will 
have largely completed our preparations to begin modernization. 
We do not expect to be able to actually begin the modernization 
project, though, until at least October 1998 and that is 
because we still have much work to do on the ground in terms of 
best practice, and as Deputy Secretary Summers reported, we 
need to partner with the private sector.
    This venture could not be undertaken by the IRS alone, 
regardless of how much capacity we have acquired, and that 
private sector set of contractors, we project, will not be 
available until likely October 1998.

                     Justification for Expenditures

    Senator Shelby. How do you assure this committee, the 
Appropriations Committee over the IRS, in view of what the 
General Accounting Office has said, that you cannot justify, 
you do not have sufficient justification for these 
expenditures? What do you tell us, as appropriators, and what 
assurances can you give us that you are going to do all these 
things despite what they are saying about it?
    Mr. Summers. May I give a short answer, Senator?
    I think it is important. I think the first thing that I 
would want to emphasize is that--and I do not have the figures 
right before me--this program has been cut way back from where 
it was. The amount of money we are asking for amounts to 
spending at a rate of 25 or 30 percent.
    Senator Shelby. It is still a lot of money, isn't it?
    Mr. Summers. It still is a lot of money, but we have cut 
back. Mr. Gross, going through rigorous standards approved by 
our modernization management board, has cut back projects, some 
of which had been invested in not long before that a lot of 
people were very attached to but just do not make sense in 
light of current realities that would have spend-out of over $1 
billion.
    So the first thing to say is it is not that this train is 
still going in the way that it was before. It has been cut way 
back. Second, I have made the judgment, at least from the way I 
look at this, that it would be a mistake to cut back to zero, 
that there are a number of smaller projects that involve 
demonstrating capacity, that involve laying the groundwork for 
larger steps, that involve addressing the Y2K project, that 
make sense; they are all projects where progress can be 
monitored every few months and you can know whether this is 
working.
    It is not, you know, we are working away and we will let 
you know 2 years from now whether it is going to work. I do not 
think we can afford that. And so, the----
    Senator Shelby. Don't you think the taxpayer deserves 
better?
    Mr. Summers. The taxpayers deserve much better than the 
taxpayers have gotten and that is why----
    Senator Shelby. Better than the IRS has given in the last 
several years, 5 years.

                   Accountability for Appropriations

    Mr. Summers. Better than it has given in this area, 
absolutely, and that is why we have made a major point of, in 
this area, the fact that projects have to be monitorable, we 
have to be able to see what the results are every few months so 
that we can ask questions if the projects are off-track.
    We have also tried to look at some of the broad indicators 
of performance that matter for taxpayers. The phones are not 
being answered nearly well enough, but the rate at which they 
were answered was substantially higher in the last filing 
season than the previous filing season, and the IRS understands 
that there is an expectation and there will be accountability 
for their being answered in the next filing season than in the 
last.
    Senator Shelby. We have heard this before and I only hope 
that you come through because you are talking about a lot of 
money.
    Mr. Summers. Absolutely.
    Senator Shelby. A lot of it has gone down a rat hole. We 
hope you will close the rat hole, because if you do not, the 
American people are going to close it for you.
    Mr. Summers. Absolutely. Secretary Rubin and I, Senator, 
have said that we are prepared to accept accountability for 
this. I would also just say to you that we spent an enormous 
amount of time working with a major private sector executive 
search firm on the location of a new Commissioner for the IRS 
and the individual who is now being vetted is someone who has 
enormous experience, precisely the kind you spoke about, as a 
guru, if you like, or as an expert in implementation of 
information technology solutions.
    Senator Shelby. Well, we will be hopeful. Thank you, Mr. 
Chairman.
    Senator Campbell. Thank you, Senator Shelby. I was 
interested in your comment that you may be giving bonuses. I 
would like to put that in a perspective before we leave the 
room. Congress, as you know, has denied itself even a cost-of-
living increase for 4 years straight based on constituents' 
anger because they believe we need to improve our performance. 
You might apply the same logic when you are thinking of 
bonuses. Maybe they ought to be on future improved performance 
and not on the past performance because the past performance, 
according to the GAO and the commission, has not been all that 
good, as you know.

                          Submitted Questions

    Well, with that, this record will stay open for 2 weeks. We 
will submit a number of written questions by subcommittee 
members that we would appreciate if you would answer those in 
writing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Campbell
                         general budget issues
    1. According to out-year projections in the President's Budget, 
IRS' funding will remain virtually static between fiscal year 1998 and 
fiscal year 2002. (IRS' request is for $7.369 billion in fiscal year 
1998; the Office of Management and Budget's projection for fiscal year 
2002 is $7.308 billion). Because of the increasing cost of doing 
business, such static funding could lead to a significant cut in real 
dollars over the next five years.
    Question. Has IRS done any long-range planning to assess the 
potential impact of static funding over the next five years? If so, 
what is the potential impact? If not, why not?
    Answer. The IRS is doing long-range planning to assess the 
potential impact of static funding over the next five years. The IRS is 
also examining options for changing the way it does business and is 
reviewing its program priorities.
    The IRS is a labor intensive organization (more than 70 percent of 
our total budget goes for labor costs) and it needs an increase of 
about $200 million annually to pay for employee cost of living 
adjustments and other inflation costs and at the same time continue 
maintaining its operations at approximately the same levels. For 
example, a ``rollover'' budget in fiscal year 1998--one that is at the 
same dollar level as fiscal year 1997--would not allow us to both fund 
the pay raise and maintain full-time-equivalent (FTE) levels. Instead, 
the IRS would need to reduce 4,000 FTE and this would impact levels of 
assistance and revenue collection. Looking at the budget over the next 
five years (fiscal year 1998 to fiscal year 2002), if the IRS receives 
each year approximately the same dollars as today, it would in effect 
be taking a $1 billion cut in ``purchasing power.'' To pay for this 
reduction, the IRS would need to reduce its FTE by approximately 4,000 
FTE per year for a total loss of FTE Servicewide of about 20,000.
    This reduction would impact virtually all of the IRS' programs, but 
the need to protect Submission Processing and Customer Service means 
that the largest reductions would be in enforcement. Modernization 
offers the potential to increase productivity and reduce the impact of 
FTE reductions, but modernization investments need to be fully deployed 
before long term productivity benefits can be realized.
    Question. In developing its fiscal year 1998 budget, IRS gave 
higher priority to enhancing customer service than maintaining face-to-
face compliance programs, such as district office audits. Would IRS 
envision maintaining that prioritization under a static-budget 
scenario?
    Answer. The Service continues to seek a reasonable balance between 
customer service operations and face-to-face enforcement activities. In 
the face of static--or even declining--out-year budgets, IRS will 
continue to build on the considerable progress made during the last two 
years to raise telephone access levels. However, future enhancements 
will rely, primarily, on technology-driven improvements (e.g., 
nationwide call routing), rather than major increases in FTE levels. 
With respect to revenue-based compliance programs, including district 
office audits, we recognize the need to shift from the traditional one-
on-one enforcement approach to ``wholesale,'' market-segment based 
treatments to address noncompliant behavior. While we a concerned about 
the long-term erosion of audit coverage rates, improved matching of 
information documents, up-front detection of compliance problem and 
``early intervention'' efforts managed as a part of customer service 
all contribute to maintaining an effective enforcement presence. 
Assessing the relative contributions of better customer service (e.g., 
a five percent increase in the telephone access) and increased 
enforcement (e.g., a .05 percent increase in audit coverage or $800 
million in additional revenue) represent real challenges in our efforts 
to maximize both total enforcement revenue and levels of voluntary 
compliance.
    2. IRS is planning to downsize through a combination of buy-outs, 
attrition, and a reduction-in-force (RIF). Implementation of the RIF 
has been delayed to the point that, as of mid-February 1997, it was 
unclear just when the RIF would take place and how many staff would be 
affected. It is also unclear how, if at all, IRS' budget request 
reflects the cost and impact of IRS' downsizing efforts.
    Question. Please provide a status report on IRS' downsizing efforts 
and the actual and planned impact on staffing levels.
    Answer. Since May 1995, as a result of a series of reorganizations 
and downsizing efforts, the IRS has identified approximately 4,000 
occupied positions for elimination. These positions have been primarily 
overhead, managerial, and support positions, and many of the savings 
have been diverted to front line compliance and customer service 
activities, primarily in the customer service call sites. The IRS has 
successfully placed 2,800 employees who formerly occupied non-
continuing positions. There are currently approximately 900 occupied 
non-continuing positions in the field offices, and 300 in headquarters.
    Question. Considering the current status of the downsizing efforts, 
what cost, if any, does IRS expect to incur in fiscal year 1998 to pay 
for such things as severance pay, outplacement and relocation?
    Answer. The IRS estimates the cost to complete the Regional and 
District Management Consolidation (RDMC) and National Office downsizing 
will be $20 million. This cost includes opening a second buyout window, 
paying relocation expenses for interested employees, providing 
outplacement services to impacted employees, and paying severance pay 
to employees separated by a reduction-in-force (RIF). The vast majority 
of these costs will be incurred in fiscal year 1998.
    In fiscal year 1998, buyouts may be extended to locations and 
functions not previously included in prior buyouts depending on the 
fiscal year 1998 budget and other restructuring needs. A ballpark 
estimate is that 1,200 buyouts may be offered. If these buyouts are 
used, we estimate they will cost about $30,300 per buyout. ($20,671 for 
buyout payment, $3,371 for lump sum leave, and $6,258 contribution to 
the retirement fund.) A total of 1,200 buyouts would therefore cost 
$36,360,000. This would result in $61,076,000 in annualized salary 
savings.
    Question. What does IRS expect to save in the way of salaries and 
benefits?
    Answer. The salary and benefit savings from the field office 
reduction is estimated at $30.7 million in fiscal year 1998, and 
thereafter, over $40 million annually, as is the savings from the 
National Office downsizing. Therefore, the overall savings from the 
downsizing currently underway is over $70 million in fiscal year 1998, 
and over $80 million annually thereafter.
    Question. How are those costs and benefits reflected in IRS' fiscal 
year 1998 budget request?
    Answer. The FTE level in the fiscal year 1998 President's Budget 
Request does not reflect any impact from the planned 1997 RIF, which is 
now delayed until the early months of fiscal year 1998. When the RIF 
occurs, FTE levels will be reduced and salary savings will be used to 
pay for the costs of the RIF, such as terminal leave and severance pay. 
The IRS intends to redirect the limited fiscal year 1998 savings and 
the more substantial savings in future years to front line operations.
    Question. IRS' budget request shows a proposed operating level of 
102,926 full-time equivalent staff (FTE's) in fiscal year 1997 and an 
estimate of 102,385 FTE's in fiscal year 1998. Considering the current 
status of IRS' downsizing efforts, does IRS still expect to deliver 
102,926 FTE's in 1997 and 102,385 in 1998?
    Answer. Because there will not be a RIF in 1997, the fiscal year 
1997 FTE levels are not expected to be significantly impacted. If a RIF 
occurs early in fiscal year 1998, then almost 1,200 fewer FTE will be 
realized in the affected activities. These FTE reductions will be 
offset by FTE increases in frontline operations.
    Question. If not, what are IRS' current expectations and how would 
that affect IRS' funding request?
    Answer. Our fiscal year 1998 Budget Request assumes full funding 
for pay raises. If funds for the pay raises are not provided, then FTE 
levels would drop 4,000 to 5,000 FTE.
    3. Part of the Administration's proposal for helping the District 
of Columbia involves having IRS collect D.C. taxes. There is nothing in 
IRS' budget request relating to that additional responsibility.
    Question. Is IRS working with the D.C. Government to develop 
policies and procedures for assuming this responsibility?
    Answer. The IRS and D.C. Government officials have met weekly since 
June 4, 1997, to develop policies and procedures on assuming the 
responsibility for doing the compliance work on their individual income 
tax. The meetings are scheduled to continue at both the managerial and 
the technical level.
    Question. What kind of administrative problems, if any, does the 
IRS foresee in assuming this responsibility?
    Answer. There are a number of administrative problems that must be 
overcome to assume this responsibility, such as the need to:
  --Change the regulations and Internal Revenue Manual to perform the 
        necessary compliance work.
  --Develop procedures to account for and forward taxes collected to 
        D.C.
  --Coordinate the exchange of taxpayer data on compliance cases.
  --Redesign the D.C. individual income tax form(s).
  --Design Examination and Collection reports to reflect compliance 
        activity by the IRS functions.
  --Provide customer service and taxpayer assistance to D.C. individual 
        taxpayers when the IRS assumes responsibility.
  --Develop training for D.C. and IRS employees to administer the new 
        process.
    The meetings held to date have revealed many technical and 
administrative problems and concerns. These are being documented and 
will be addressed by working groups. These working groups have members 
from both the IRS and the D.C. Office of Tax and Revenue (OTR).
    Question. Has IRS developed preliminary estimates of how much it 
will cost annually, in FTE's and dollars, to collect D.C. taxes? If so, 
what are those estimates? If IRS expects to incur such costs in fiscal 
year 1998, how will they will be funded?
    Answer. Yes, the preliminary estimates for the D.C. tax collection 
effort in fiscal year 1998 are $15 million and 151 FTE. These costs 
were not included in the IRS budget request for fiscal year 1998. If 
legislation is passed requiring IRS collection of D.C. taxes in fiscal 
year 1998, a request for supplemental funding would be required.
    Question. Can Congress expect a request for additional funding?
    Answer. If the above event occurs (legislation is passed), then 
Congress could expect a request for supplemental funding.
    4. It is our understanding that IRS, in deciding how to allocate 
resources, considers customer service to be a higher priority than 
face-to-face compliance activities. While this prioritization should 
help to increase telephone accessibility and otherwise improve IRS' 
service to taxpayers, it will continue what has been a general decline 
in IRS' enforcement presence.
    Question. In deciding on priorities, how does IRS balance the need 
to provide good service with the need to maximize revenue collection?
    Answer. Our strategy emphasizes customer service to enhance 
voluntary compliance, as well as focused enforcement activity to 
collect revenue from non-compliant taxpayers. Compliance and Customer 
Service activities are complementary in reaching this goal. The major 
step in establishing Customer Service is combining service with the up-
front compliance activities. There is a direct relationship between 
service and compliance as we reach more people, answer more calls and 
focus on up-front compliance activities.
    Customer Service combines taxpayer assistance and taxpayer 
education activities with those compliance activities that do not 
require face-to-face contact. Providing assistance to the taxpayer who 
wants to comply with the tax law, with either tax law information or 
help with resolving a bill or a notice, results in collection of 
revenue early in the process and lessens the need for the more costly 
and labor intensive face-to-face compliance provided by Examination and 
Collection personnel.
    Question. How much does customer service contribute to improving 
compliance, and thus increasing revenues?
    Answer. Estimating the impact of various IRS activities on 
voluntary compliance has been a very elusive goal. A number of 
studies--both within the IRS and within the academic community--have 
attempted to measure these effects over the years, but none has been 
definitive. The IRS' most recent effort was an econometric analysis of 
filing and reporting compliance over the 1982-1991 period which 
evaluated the impact of a number of enforcement and non-enforcement 
activities. This study found that three customer service activities 
significantly increase voluntary filing compliance well in excess of 
their cost. These activities are: the processing of third-party 
information documents pertaining to income or deductions; the issuance 
of nonfiler delinquency notices; and the preparation of taxpayer 
returns in IRS district offices.
    Question. How does that compare to the impact of face-to-face 
compliance activities?
    Answer. IRS' study estimated that two face-to-face enforcement 
activities also have a significant, positive impact on voluntary 
compliance. Both audits and convictions arising from criminal 
investigations were estimated to increase the voluntary compliance of 
the general population many times their cost. (Collection activities 
presumably have a similar impact, but the study did not focus on 
payment compliance.)
    5. IRS' fiscal year 1998 budget estimates include numerous 
performance measures. Most of those measures seemingly focus on 
production or outputs (such as number of returns processed or dollars 
recommended per audit FTE rather than on outcomes, such as the impact 
on voluntary compliance.
    Question. How does IRS plan to achieve its compliance and customer 
service goals without measures more oriented to outcomes?
    Answer. In addition to continually working on improvements to 
performance measures, the IRS has initiated several strategies to 
increase compliance with the tax laws and improve customer service. 
These strategies are both measurable and link to our strategic 
objectives, and include:
Compliance Strategies
  --Identify noncompliant taxpayer groups, test and then deploy 
        treatments that directly address the underlying causes of their 
        noncompliance with a preference for non-enforcement treatments.
  --Protect revenue by identifying noncompliance up front, before 
        return processing is completed and refunds are issued.
  --Examine domestic and international tax returns, including those for 
        employee plans and tax exempt organizations.
  --Internationally, the IRS will continue to emphasize increased 
        administrative enforcement efforts, modernized regulations, 
        legislative change and coordination with trading partners and 
        industry groups to foster compliance.
  --Simplify tax returns, instructions, and publications.
Customer Service Strategies
  --Minimize the need for taxpayers to contact the IRS for assistance 
        by clarifying and reducing the numbers of notices issued, 
        simplifying forms and instructions and analyzing the sources of 
        demand for the IRS services.
  --Offer multiple cost-effective means (e.g., telephone, 
        correspondence, Internet) with expanded hours of operations for 
        taxpayers to contact the IRS and receive a prompt, accurate 
        resolution of their issue on the first contact.
  --Use automated systems to effectively address taxpayers' needs 
        without the need for a human tax assistor.
  --Maximize service and the productive use of IRS resources by 
        implementing improved network management systems, standardizing 
        the operation of Customer Service sites nationwide and managing 
        all workload at a corporate level.
  --Provide the training, tools and automated systems necessary to 
        allow the shifting of tax assistor resources to multiple types 
        of cases to address shifting demand among different workload 
        types and locations.
                       processing and assistance
    IRS' fiscal year 1998 budget request includes $2.9 billion for 
Processing, Assistance, and Management. The following questions relate 
to three major program areas covered by that request--the processing of 
returns and remittances, customer service, and document matching.
                 processing of returns and remittances
    1. During March 14, 1996 apropriation hearings on IRS, the Deputy 
Secretary of the Treasury cited three priorities based on GAO's work on 
Tax Systems Modernization (TSM). One of those priorities was the need 
to reengineer IRS' submission processing system. Last year at this 
time, IRS had a project underway assessing options such a 1) 
eliminating classes of returns, 2) expanding the eligibility for filing 
simple forms, and 3) outsourcing the data capture function.
    Question. What is the status of the reengineering project vis a vis 
the three areas cited above?
    Answer. The Tax Settlement Reengineering Project was discontinued 
because it was duplicative of the work being done under the auspices of 
the Systems Life Cycle Process recently adopted by the Service. The SLC 
requires the reengineering of business processes prior to the 
application of technology solutions. Reengineering of the business 
process will occur as the Service develops the Level 3 and Level 4 
business requirements in the areas of eliminating classes of returns 
and expanding eligibility for filing simple forms. Additionally, the 
joint IRS/NPR/Treasury task force looking at IRS Customer Service will 
include as one of its focus areas the filing and payment arena.
    Question. What is the earliest that IRS could begin outsourcing the 
data capture function?
    Answer. The May 15, 1997, Request for Comments for the 
Modernization Prime Systems Integration Services Contractor projects 
that outsourcing of the data capture function, if feasible, would 
commence in the form of a pilot, by January 1, 2000.
    Question. How, if at all, are these reengineering efforts being 
used to identify system requirements for the new Distributed Input 
System, funding for which is included in IRS' Information Systems 
request for fiscal year 1998?
    Answer. The Integrated Remittance and Submission Processing System 
(ISRP) formerly known as DIS/RPS Replacement, replaces two current 
systems, the Distributed Input System (DIS) and the Remittance 
Processing System (RPS). ISRP will ``rollover'' existing requirements 
of DIS but includes some reengineering to combine several existing work 
processes in the RPS. The replacement of the legacy DIS and RPS was 
necessitated by the fact that the existing systems are not, and cannot 
be made, Year 2000 compliant. In addition, the legacy DIS is 12 years 
old and the RPS is 19 years old, and both systems have become 
increasingly unreliable and costly to maintain. The ISRP System is a 
``Stay In Business'' replacement of existing functionality, rather than 
a reengineering effort.
    2. Despite the availability of alternative filing methods, like 
electronic filing, the large majority of returns are still filed in the 
traditional paper format and processed through a labor-intensive, 
error-prone keypunching operation. At one time, IRS' goal was to 
receive 80 million electronic returns a year by 2001. In 1996, however, 
only about 13 percent of the individual income tax returns were filed 
electronically, which includes those filed over the telephone (i.e., 
Tele-File).
    In response to GAO's July 1995 report on TSM (GAO/AIMD-95-156, July 
26, 1995), IRS said it would develop a comprehensive strategy for 
increasing the number of electronic returns. In its May 6, 1996 report 
to the Appropriations Committee on the status of TSM, Treasury said 
that a comprehensive electronic filing strategy would be in place by 
August 1996. That strategy has yet to be developed. On February 7, 
1997, IRS sent the Chairman of the House Appropriations Subcommittee a 
document entitled ``Critical Issues for the Development of an IRS 
Strategy for Electronic Tax Administration.'' After reviewing this 
paper, it is still unclear as to when IRS expects to have a 
comprehensive electronic filing strategy.
    Question. Why has electronic filing not grown nearly as fast as IRS 
had expected when it set its 80 million goal? Was attainment of IRS' 
goal dependent on certain things happening that proved to be 
unrealistic? If so, please explain what those dependencies were and why 
they were not achieved.
    Answer. The Electronic Filing Strategy Task Group Report (Rev. 5-
93) was developed to produce one document to serve as the ELF Strategy, 
to identify new ways to attract taxpayers to the program, and to 
develop action plans to maximize the number of electronic returns. The 
report outlined 21 initiatives that, if all were implemented, would 
deliver 80.2 million electronic returns (69.8 Individual and 10.4 
business) by the year 2001. Implementation of certain initiatives had a 
direct impact on the ability of the IRS to reach its goals. For 
example, one initiative required electronic transmission of returns 
from practitioners preparing 100 or more returns. The IRS is exploring 
other ways to expand electronic filing other than requiring mandatory 
electronic transmission of returns from practitioners. Another 
initiative was to allow the use of signature alternatives to eliminate 
the need for paper authentication. The IRS is still in the process of 
assessing the legal impact and assurance of authentication of signature 
alternatives and continues to explore and test several methods.
    Question. What is causing the delay in developing a comprehensive 
electronic filing strategy? When does IRS now expect to complete the 
strategy?
    Answer. The IRS is issuing an RFP/RFI for comments from the Private 
Sector to help us determine what the requirements will look like. 
Concurrently, we have contracted with a market research contractor to 
research data and help define a market strategy. We plan to combine the 
results of the RFP/RFI with the market research analysis. From that the 
IRS should have enough data to develop as soon as possible a short term 
and long term strategy for electronic filing.
    Question. How does IRS' plan to develop a strategy for increasing 
electronic filings mesh with its plan to assess the feasibility of 
outsourcing the processing of tax returns and other documents?
    Answer. The Project Office for Submission Processing Outsourcing 
contract vehicle will be structured in such a way that the contract 
will reflect a decreasing volume of paper returns with the increase of 
electronically filed returns.
    3. It would appear that IRS could improve the efficiency of its 
returns processing operation if it reduced the number of returns being 
filed and the amount of data included on filed returns.
    Question. What, if anything, is IRS doing in either of those areas?
    Answer. The IRS uses a comprehensive process to ensure that it asks 
only for information on the return that is needed to fulfill specific 
requirements of the tax law or for other tax administration purposes. 
For example, information is collected to: 1) verify many of the 
mathematical computations made on the return; 2) identify unreported 
income by comparing information on the return with documents provided 
by third parties; 3) identify overstated deductions, credits, etc.; 4) 
identify returns for audit; or 5) detect potential fraud.
    Developing and revising forms involves coordination among multiple 
functional areas of the IRS (e.g., information systems, customer 
service, examination, etc.) to assure the quality and usefulness of the 
information collected. Annual reviews of the forms and instructions are 
conducted to identify opportunities for burden reduction as well as to 
ensure that the necessary data is being collected for effective tax 
administration.
    The IRS has developed shorter, simpler versions of several forms 
for filers with simpler tax situations and less potential for 
noncompliance. For individual taxpayers, we developed Form 1040EZ, 
Schedule C-EZ (for sole proprietors), Form 2106-EZ (for employee 
business expenses) and Form 1040NR-EZ (for nonresident aliens). We have 
been able to increase the number of filers using the ``EZ'' forms by 
expanding eligibility. Since 1993, for the Form 1040EZ, we have added 
married filing joint taxpayers, unemployment compensation and a paid 
preparer line. We reduced taxpayer burden by more than 46.5 million 
hours. Over 28 million taxpayers can take advantage of the ``EZ'' 
forms.
    Since 1991, millions of individual taxpayers have been eligible to 
file their Forms 1040EZ by telephone. This year almost 4.7 million 
TeleFile returns have been processed. Since January 1997, we have 
received 50,000 Forms 941 filed electronically as a test for employment 
tax returns.
    For 1996, after reassessing their usefulness, several checkboxes 
and a line were eliminated from the Forms 1040 and 1040A. Since 1992 we 
have improved numerous forms and instructions and reduced taxpayer 
burden by over 94 million hours.
    As the IRS takes advantage of the technologies which improve the 
processing of tax information, we will continue to assess the need for 
the information being collected.
    Question. We understand that IRS inputs less than 40 percent of the 
data on a typical Form 1040 or a typical corporate tax return. If that 
is true, why does IRS need the other 60 percent? Couldn't some of that 
information be deleted from the return, with understanding that the 
taxpayer would be required to provide it if requested as part of an 
audit?
    Answer. The IRS uses a comprehensive process to ensure that is asks 
for information on the return that is needed to fulfill specific 
requirements of the tax law or for other tax administration purposes. 
For example, information is collected to: 1) verify many of the 
mathematical computations made on the return; 2) identify unreported 
income by comparing information on the return with documents provided 
by third parties; 3) identify overstated deductions, credits, etc.; 4) 
identify returns for audit; or 5) detect potential fraud.
    Annual reviews of the forms and instructions are conducted to 
identify opportunities for burden reduction as well as to ensure that 
the necessary data is being collected for effective tax administration. 
Developing and revising forms involves coordination among many 
functional areas of the IRS and Treasury, as well as external input 
from tax practitioners, taxpayers and other professional organizations. 
We continually assess the usefulness of the information collected.
    4. In its fiscal year 1996 and fiscal year 1997 budget requests 
combined, IRS asked for increases of 447 FTE's and 16.7 million for 
service center workload growth. In its fiscal year 1998 budget request, 
IRS is asking for another increase of 195 FTE's and $11 million for 
service center workload growth. According to its own projections, IRS 
expects to receive 200.1 million primary tax returns in 1998--an 
increase of 5.9 million over the number received in fiscal year 1995. 
Over the same time period, however, the number of returns filed through 
alternative methods (i.e., electronic filing, TeleFile, and 1040PC) is 
expected to increase by 13.7 million. It was always our understanding 
that returns filed through these alternative methods involve much less 
manual processing and are less costly to process.
    Question. Considering the actual and projected growth in 
alternative filings, which are supposedly easier and less costly to 
process, why does IRS continue to request more staff to process 
returns? Given the increase in alternative filings, shouldn't IRS be 
able to process more returns with the same or less staff?
    Answer. Each year, IRS processes more returns, per staff year 
expended, compared to the prior year, as a result of the growth in 
electronic filing, as well as other productivity gains. Nonetheless, 
the overall growth in all return filings, such as that expected for 
fiscal year 1998, typically outstretches IRS productivity gains, hence 
the request for additional FTE's for growth. A draft of the most recent 
IRS costing data available (i.e., for fiscal year 1996) shows that the 
cost of processing an individual electronic return is around 40 percent 
less than that for processing a paper individual return. Still, the 
processing of electronic returns requires IRS resources and involves 
more than just the receipt of return information. There are several 
processing costs, some that are unique to electronic filing, such as 
the processing of signature jurats (part of the ``pipeline'' processing 
cost), and other ``downstream'' processing costs that are essentially 
the same for electronic returns as for paper returns, such as making 
adjustments on taxpayer filed amended returns and resolving 
discrepancies over estimated tax payments. Further, more recent IRS 
projections of fiscal year 1998 growth, that take into account the more 
current economic outlook and actual return filings through the first 
part of 1997, now indicate even greater return growth for fiscal year 
1998 than previously estimated (i.e., 3.4 million returns instead of 
2.1 million), and with a large proportional share attributable to paper 
(i.e., 52 percent).
    Question. Do these alternative methods really cost less? Per 
return, what does it cost IRS to process (a) electronic returns; (b) 
TeleFile returns, including telecommunication costs; paper returns 
filed on Form 1040 PC; (d) paper returns filed on Form 1040EZ; and (e) 
paper returns filed on Form 1040?
    Answer. In general, alternative filing methods have a lower IRS 
processing cost compared to traditional paper returns. For example, 
based on the initial (draft) cost estimates derived from fiscal year 
1996 experience, it costs around $3.91 in direct expenses to process a 
paper individual return compared to only $2.10 to process an 
electronically filed individual return. In addition, available IRS data 
indicate that processing Form 1040EZ returns costs about 20 percent 
less than the typical paper Form 1040 return, and the cost for the Form 
1040PC is around ten percent less than Form 1040. However, better cost 
comparison data by form type are not readily available because of the 
need to allocate some common ``downstream'' processing costs and other 
administrative expenses across all form types and limitations in the 
available management information systems. At the present time, 
available IRS data also does not distinguish the cost between TeleFile 
versus standard electronic returns. The IRS is now carrying out a 
comprehensive cost review to provide more precise data on processing 
costs.
    Question. Since returns filed via these alternative methods involve 
less errors (both by taxpayers in preparing the returns and IRS in 
processing them), is it fair to assume that these alternatives save IRS 
money in downstream costs (e.g. the cost associated with sending out 
error notices and responding to taxpayer calls and letters about those 
notices)? If so, could IRS please quantify those savings?
    Answer. IRS information systems can not, at this time, precisely 
quantify the ``downstream'' processing cost savings from alternative 
filing methods. Alternative filing methods reduce certain errors, such 
as mistakes in taxpayer computations or IRS data entry errors, which, 
in turn, will reduce certain IRS downstream processing costs. However, 
existing management information systems do not capture detailed data on 
IRS adjustment activity associated with specific filing methods nor 
issues. In addition, some downstream processing costs are conceptually 
the same for electronic returns as for paper, such as responding to 
taxpayer filed amended returns, resolving discrepancies with 
withholding or estimated tax payment amounts or updating proper entity 
information. There are also other subsequent costs associated with 
collection and examination activities that are not reflected in the 
processing costs.
    5. In its budget estimates for fiscal year 1998, IRS says that 
return projections for fiscal year 1997 are lower than anticipated, 
which will allow IRS to reprogram resources to enhance telephone 
accessibility.
    Question. How did IRS use the reprogrammed resources to improve 
telephone service? Did IRS hire more staff to answer the telephone?
    Answer. During the 1997 filing season, the IRS detailed Examination 
employees to Customer Service to respond to written technical inquiries 
and to call back taxpayers who left recorded messages on tax law 
questions. The IRS also shifted personnel from certain correspondence 
work to the telephone to take advantage of non-peak workloads for 
correspondence at a time when telephone workload was at a peak.
    The Area Distribution Centers, which fill requests for tax forms, 
instructions and publications by telephone and through written 
requests, used staff savings generated by program changes, contracting 
of some work tasks, and additional automation efforts to increase 
hiring for the telephones. The IRS did bring on new hires in Customer 
Service to allow for more people to answer the toll-free lines.
    Question. What are the chances that return filings in fiscal year 
1998 will also be lower than anticipated? What is IRS' historical 
record in making such projections? Does it generally overestimate or 
underestimate filings?
    Answer. As presented in the ``FY 1998 Budget in Brief,'' IRS 
projected that 199.96 million primary returns would be filed in fiscal 
year 1998. Now, based on more recent return filing experience, as well 
as more current economic forecasts, it is most likely that actual 
fiscal year 1998 filings will be higher than that prior IRS forecast. 
From an historical perspective, comparable IRS forecasts over the past 
six years have had an average projection error of around two percent, 
which includes instances where IRS has underestimated actual filings 
and instances where IRS overestimated.
    6. According to IRS' budget estimates for fiscal year 1998, the 
number of Federal Tax Deposits received electronically has risen much 
faster than expected over the past few years. IRS says that about 1.2 
million more companies will be required to make electronic deposits in 
fiscal year 1997 and that even more companies can be expected in 1998.
    Question. Given the significant increase in electronic payments and 
the resulting reduction in the need for IRS to manually process those 
payments, why don't we see a commensurate FTE reduction in IRS' budget 
request?
    Answer. While staff year costs were reduced by the decrease of 
paper FTD coupons, the need for additional staff to provide telephone 
assistance to taxpayers attempting to use the EFTPS system for 
electronic payments offset the staff decrease. Electronic payments are 
convenient, and the system is easy to use. Taxpayers can use their 
telephone to make their payments if they choose.
    The Electronic Federal Tax Payment System (EFTPS) became 
operational in November 1996. As of June 28, 1997, we have processed 
approximately five million transactions and collected over $155 billion 
through the system. Enrollees in EFTPS now total 1.6 million, of which 
475,000 are volunteers.
    7. For the past several years, IRS has been using lockboxes to 
process payments sent in by individuals when they file their income tax 
returns. Because of concerns about the burden associated with having 
taxpayers send their returns to one location (an IRS service center) 
and their payments to another location (a lockbox bank), IRS decided, 
for 1996, to have taxpayers send their returns and payments to the bank 
and to have the banks then sort the returns and ship them to the IRS 
for processing.
    Question. In its report on the 1996 filing season (GAO/GGD-97-25, 
December 18, 1996), GAO said that IRS' data on burden was inconclusive 
and that IRS' decision to have taxpayers send not only their payments 
but also their tax returns to a Lockbox increased program costs in 1996 
by about $4.7 million. These costs are paid by the Financial Management 
Service (FMS). The IRS will be following the same procedure in 1997, 
and the FMS will again be paying. How much will this procedure cost the 
Government in fiscal year 1997 and 1998?
    Answer. Costs associated with Form 1040 returns received at 
lockboxes have not been determined for 1997. The $4.7 million increase 
referenced in the GAO report is the difference in the amount the 
government paid lockboxes for return handling in 1996 and the amount it 
would have cost if the returns were received at the service centers.
    Question. Given the extra cost to the Government, why does IRS 
continue to have taxpayers send their tax returns to the Lockbox banks?
    Answer. Based on information the IRS has received from tax 
practitioners and through focus group interviews, the IRS has decided 
that requiring taxpayers to mail their tax return separately to the IRS 
Service center and send the payment with voucher to the Lockbox bank 
would be burdensome for Form 1040 filers. Informal feedback received 
from practitioners indicated they would not be in favor of the IRS 
imposing the two envelope requirement on them.
    During our focus group interviews, most participants were concerned 
about the additional postage required by the two envelope concept; 
however, they did not reject the concept. It is our intent to continue 
with the one envelope, two labels for the upcoming filing season. We 
will continue to examine this issue more closely to determine if there 
is a need for reconsideration.
    8. Also in its report on the 1996 filing season, GAO noted that the 
number of fraudulent refunds identified by IRS in 1996 had declined 
significantly from the number identified in 1995 and that a major 
contributor to that decline was a sizable reduction in the staff 
assigned to the Questionable Refund Program (QR)--from 553 FTE in 1995 
to 379 FTE in 1996. In its fiscal year 1998 budget request to Treasury, 
IRS asked for 244 more FTE's for this area; Treasury denied that 
request. In appealing Treasury's denial, IRS noted that, in addition to 
reducing the number of fraudulent refunds identified, the reduction in 
FTE's had also caused an underutilization of the Electronic Fraud 
Detection System (EFDS), in which IRS had invested in excess of $30 
million.
    Question. How many FTE's has IRS allocated to the QRP in fiscal 
year 1997, and how many does it expect to allocate in fiscal year 1998 
if its budget request is approved?
    Answer. Fiscal year 1997 QRP allocation--280 FTE's; fiscal year 
1998 QRP allocation--280 FTE's.
    Question. Is that level of staffing sufficient for IRS to 
adequately identify and investigate Questionable Refund Schemes? If 
not, what are the negative consequences and how will IRS be able to 
effectively control against filing fraud? If the level of staffing is 
sufficient, why did IRS seek more staffing in the budget request it 
submitted to Treasury?
    Answer. Additional staffing will allow the QRDT to review and 
analyze additional returns seeking new patterns of fraud and abuse. 
Without additional staffing, the QRDT will be reviewing returns that 
meet a pattern of fraud identified in prior years.
    Question. To what extent is EFDS being underutilized? For example, 
how many terminals did IRS buy as part of EFDS?
    Answer. The total number of EFDS terminals is 628 based on fiscal 
year 1995 QRP staffing of 408 FTE's. Underutilization of the EFDS is 
attributed to staffing cuts in fiscal year 1996 and fiscal year 1997.
    Question. How many were used in 1996 and are being used in 1997 for 
the purpose intended (i.e. to help QRP staff identify fraudulent 
returns and refunds)?
    Answer. Because of the reduction in QRP staffing, as well as the 
strategic goal of EFDS becoming a multi-functional asset, terminals 
were made available to Examination for other Revenue Protection 
Initiatives implemented during the 1997 Filing Season. We are currently 
discussing a broader expansion to Examination for the 1998 Filing 
Season. Additionally, we are partnering with the District Office 
Research & Analysis (DORA) sites who will be using EFDS to research 
ways to improve detection of fraudulent refund schemes. Also, tests are 
being conducted in the Houston District and soon in the Philadelphia 
District for utilization of EFDS in the District Office, Criminal 
Investigation.
                            customer service
    1. IRS developed a ``Customer Service Vision'' to guide its efforts 
in improving service to taxpayers. The vision includes consolidating 
several parts of IRS' field organization into 23 customer service 
centers; providing customer service representatives with computer 
resources, training, and authority to enable them to resolve 95 percent 
of taxpayer issues during a single phone conversation; moving 
correspondence work to the telephone; and using automated applications 
to answer 45 percent of taxpayer's incoming calls.
    In October, 1995, GAO reported that IRS had made progress toward 
its customer service vision, but that the transition would last beyond 
the original goal of full operation in 2001 (GAO/GGD-96-3, Oct. 10, 
1995). Also in January, 1997, GAO reported that the promise of the 
vision was not likely to be fulfilled unless IRS made changes in the 
development and deployment of the integrated Case Processing (ICP) 
system, one of the primary information systems being developed to aid 
employees when taxpayers call for assistance (GAO/GGD-97-31, Jan. 17, 
1997).
    Question. What is the status of the field consolidation?
    Answer. Beginning in 1992, the IRS conducted a series of studies to 
fundamentally improve how it accomplished its mission. The studies 
resulted in decisions to make some major realignments in field office 
structure. These realignments were designed to: reduce management and 
overhead positions and redirect those resources to front line customer 
service and compliance programs; consolidate and improve our customer 
service telephone operations, and; centralize administrative and 
support responsibilities as much as possible.
    The realignments reduced the number of the IRS regional offices 
from seven to four; the number of districts from 63 to 33 and the 
number of customer service telephone sites from 70 to 23. The 
realignments were designed to take place in stages. First, during 
fiscal year 1994, the regional offices were consolidated. Executive and 
managerial personnel from the three discontinued regions were 
redeployed and their responsibilities assumed by the four remaining 
regions. The four region configuration became operational on October 1, 
1995. Throughout fiscal year 1995 the district offices designed and 
began to execute their transition plans in partnership with the 
National Treasury Employees Union (NTEU). On October 1, 1996, the IRS 
began operating with 33 districts. The vast majority of the executive 
and senior management personnel from the 30 non-continuing districts 
either left through retirement or transferred to continuing management 
positions during fiscal year 1995. In some cases managers chose to 
assume a technical position. At this point there was only minor 
redeployment impact on bargaining unit personnel and these actions were 
governed by negotiated agreement. At that time, it was acknowledged by 
both NTEU and IRS that there would be an impact on the employees in the 
compliance support operations. However, an agreement was reached which 
allowed the paraprofessional and administrative personnel to remain in 
their positions until September 30, 1996, unless they voluntarily left 
sooner.
    In October 1995, Congress failed to renew the IRS' compliance 
initiative. As a result, the IRS had more than 5,000 new compliance 
employees for which there was no funding. To address this situation, 
the IRS instituted a Servicewide hiring freeze (except for service 
center filing season hiring), severely curtailed training and travel, 
and sought other ways to fund these positions, such as a Servicewide 
furlough. One of the other areas examined was the field reorganization, 
to determine whether there was a way to achieve additional savings and 
to speed up the pace at which those savings would be realized.
    In April 1996, the Organizational Impact Analysis report was 
issued, which called for the elimination of several thousand additional 
positions, and an immediate consolidation of the compliance support 
units, and other overhead functions. Because the IRS no longer had the 
benefit of the compliance initiative, it was no longer feasible to 
finalize the reorganization solely through voluntary methods and 
attrition. NTEU was officially notified about the IRS' need to conduct 
a RIF. Negotiations began in August 1996, and the IRS and NTEU are 
currently at an impasse before the Federal Service Impasses Panel.
    To date, the IRS has placed through voluntary means approximately 
2,300 field employees, including 935 who accepted buyouts. There are 
currently slightly fewer than 900 occupied, non-continuing positions in 
IRS field offices.
    Question. Does IRS still plan to have 23 customer service centers?
    Answer. Yes, see Attachment 1.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T13JN19.005
    
    Question. Please identify those centers in operation and provide 
the schedule for implementing the others.
    Answer. See Attachment 1.
    Question. Please provide an overview of a typical center's 
workload, work processes, staffing, equipment, etc.
    Answer. A typical Customer Service center's workload and work 
processes include:
  --account and refund inquiries on toll-free lines
  --responding to taxpayer correspondence such as notices, requests for 
        adjustments
  --reviewing and processing amended returns
  --accounts receivable work and preparation of installment agreements
  --preparing proposed adjustments to tax returns based on matching of 
        third party documents and simple audits not requiring face-to-
        face interaction with taxpayers
    The typical front-line Customer Service employee is titled 
``Customer Service Representative'' at the pay level of GS-07, 
beginning at $28,400 per year. Each employee has a computer terminal 
that provides access to taxpayer account information as well as various 
research databases.
    Question. Please identify those offices and units that have been 
closed or consolidated with the 23 centers and provide the schedule for 
closing or consolidating the remaining offices and units.
    Answer. See Attachment 1.
    Question. What changes has IRS made in developing and deploying 
ICP?
    Based on the results of reviews done by internal and external 
offices (GAO and the Illinois Institute of Technology Research 
Institute), on February 3, 1997, the Associate Commissioner/Chief 
Information Officer presented the ICP 2.0 Project Disposition Review to 
the Investment Review Board (IRB), recommending an immediate and 
orderly shutdown of the ICP 2.0 systems development effort. The IRB 
concurred with this recommendation. Further roll out of these 
requirements will be in accordance with the Modernization Blueprint and 
Sequencing Plan.
    Question. How have the problems with ICP affected IRS' ability to 
implement its customer service vision?
    Answer. Although further development of ICP to allow for on-line 
update capability has been terminated, an earlier release of ICP (ICP 
1.5), which provides employees with the ability to carry out research 
in several stand alone data bases from a single terminal, remains 
operational supporting the customer service vision and facilitating the 
work of 3,000 users nationwide. ICP 1.5 will continue to provide access 
to IRS databases of taxpayer information, simplified account analysis 
and account actions through universal workstations in a graphical 
environment. Resources will be committed to produce the appropriate 
life cycle documentation and system maintenance.
    Question. What are the future plans for ICP?
    Answer. After conducting a review of the Integrated Case Processing 
(ICP) development efforts, the Associate Commissioner for 
Modernization/Chief Information Officer recommended that ICP 
development, beyond the maintenance of Release 1.5, be halted. The 
Investment Review Board (IRB) concurred with this recommendation on 
February 24, 1997. Plans are being developed by the Deputy CIO for 
Systems Development for the reallocation of equipment and other 
resources (e.g., reassignment of staff to Year 2000 date conversion). 
In the long run, the functional requirements that ICP was designed to 
meet will be addressed.
    Question. How much has IRS spent on ICP? Please provide an overview 
of future funding for ICP, by fiscal year and type of expenditure.
    Answer. The IRS will have spent $176 million on ICP through the end 
of fiscal year 1997. This includes $34 million spent on ICP Release 
2.0, which was terminated by the Investment Review Board on February 
24, 1997. The balance of the funds has been used on earlier releases, 
which have been deployed. Maintenance for ICP Release 1.5, which has 
been deployed to 3,000 workstations at 14 sites to provide customer 
service representatives with single terminal and direct access to the 
major legacy systems, will continue until ICP is replaced in Phase I of 
the Modernization Sequencing Plan. ICP functionality has been 
incorporated in the Modernization Blueprint. Funding requirements for 
this functionality have not been identified. Modernized Phase I 
Business Cases are due 10/97.
    Projected funding needs for ICP Release 1.5, which include Customer 
Service operational costs (e.g., telecommunication, systems 
administrators), are:

                          [Dollars in millions]                         
------------------------------------------------------------------------
                                                   Fiscal year--        
          ICP 1.5 expenditures           -------------------------------
                                               1998            1999     
------------------------------------------------------------------------
Labor...................................            $2.2            $2.2
ADP Equipment (including COTS)..........             0.2             0.1
Other (e.g., travel, supplies, training,                                
 awards)................................              .1              .8
                                         -------------------------------
      Total.............................             2.5             3.1
------------------------------------------------------------------------

    Question. Please provide similar information for other automated 
systems, such as Telephone Routing Interactive System, Automated Tax 
Law, and Predictive Dialer, that are being developed or implemented to 
aid IRS in assisting taxpayers.
    Answer. The IRS has spent $36 million on the Telephone Routing 
Interactive System (TRIS). TRIS development is terminated with Release 
2.5, which is scheduled to be completely rolled out in 23 customer 
service sites in early 1998. Maintenance for TRIS 2.5 will continue 
until the TRIS-like functionality that has been identified in the 
Modernization Blueprint is implemented on the new target architecture. 
While the President's Budget included a request for $500,000, revised 
future funding needs to complete roll out and maintain Release 2.5 are:

                         [Dollars in thousands]                         
------------------------------------------------------------------------
                                                   Fiscal year--        
          TRIS 2.5 expenditures          -------------------------------
                                               1998            1999     
------------------------------------------------------------------------
Labor...................................          $2,863            $452
ADP equipment and services (including                                   
 COTS products).........................           6,606           4,655
Other (e.g., travel, supplies, training,                                
 awards)................................             150             197
                                         -------------------------------
      Total.............................           9,619           5,304
------------------------------------------------------------------------

    The IRS has spent $23 million on Automated Tax Law (ATL). The ATL 
exists only on the Internet. The Investment Review Board deactivated 
the project office activities on March 3, 1997. All development of ATL 
telephonic applications will take place under Modernization.
    The IRS has spent $5 million on the Predictive Dialer initiative. 
The Predictive Dialer exists in the legacy systems as a test system in 
Buffalo, New York and two aging telecomputers in Austin and Atlanta 
which provide limited automated outcall capabilities for Collection ACS 
only. Development and deployment of corporate predictive dialer 
functionality will be done under Modernization as part of the Regional 
Communications Services components. Future funding requirements for 
legacy maintenance are:

                          [Dollars in millions]                         
------------------------------------------------------------------------
                                                   Fiscal year--        
     Predictive dialer expenditures      -------------------------------
                                               1998            1999     
------------------------------------------------------------------------
Labor...................................  ..............  ..............
ADP equipment and services (including                                   
 COTS products).........................          $1,425          $1,425
Other (e.g., travel, supplies, training,                                
 awards)................................              75              75
                                         -------------------------------
      Total.............................           1,500           1,500
------------------------------------------------------------------------

    Question. In implementing the customer service vision, how has the 
work, authority and training of telephone assistors changed?
    Answer. Formerly, Taxpayer Service representatives were not given 
the authority to complete certain compliance procedures, such as 
initiating certain installment payment agreements. ACS representatives 
did not have the authority to perform certain account adjustments, such 
as penalty abatements. As Compliance and Taxpayer Service work 
processes are blended at sites nationwide, authority for resolving 
account issues and making account adjustments while a taxpayer is on 
the telephone have been standardized for all Customer Service 
assistors, ensuring consistency between similar programs in different 
locations.
    Questions. Is resolving taxpayers' issues 95 percent of the time 
during a single telephone conversation still an IRS goal? When does IRS 
expect to reach that goal?
    Answer. Implementing our goal of resolving taxpayer issues 95 
percent of the time in the initial contact \1\ was predicated on the 
assumption that full integration of legacy systems would occur. 
Additionally, we have revised our initial contact resolution measure by 
including quality as a component.
---------------------------------------------------------------------------
    \1\ Clarification: ``Initial contact resolution'' should not be 
equated with ``resolving taxpayers issues during a single telephone 
conversation''. Initial contact resolution means that the taxpayer will 
contact IRS one time a single time and all issues will be resolved 
without further action from the taxpayer.
---------------------------------------------------------------------------
    Question. What are the goals for fiscal year 1997 and 1998 and what 
rate has IRS achieved so far in fiscal year 1997?
    Answer. The corporate goal for fiscal year 1997 is 75 percent for 
initial contact resolution. To date, the IRS has achieved a 79.5 
percent initial contact resolution rate for fiscal year 1997. fiscal 
year 1998 goals will be formulated using baseline data gathered during 
1997.
    Question. What has IRS done to encourage taxpayers to use the 
telephone instead of corresponding with IRS?
    Answer. IRS has taken the following actions to encourage taxpayers 
to call rather than writing to the Service:
    (1) Improved access by standardizing extended hours of service; 
provided service on three Sundays during the filing season; provided 
service on the final weekend of the filing season and extended hours on 
the last two days of the filing season; put more employees on the 
phone; and detailed compliance personnel to Customer Service to answer 
complex questions.
    (2) Established four toll-free telephone numbers to speak with an 
assistor, access an interactive system, or listen to taped information 
on tax law or account questions. Our toll-free numbers are advertised 
locally, included in IRS tax forms and publications, and provided on 
notices or correspondence issued by the Service.
    (3) Implemented systems that provide assistors access to nationwide 
databases and allow account adjustments while the taxpayer is on the 
telephone, regardless of the geographic location of the taxpayer. Oral 
testimony authorities have been expanded, allowing assistors to resolve 
more issues while the taxpayer is on the phone. Also, taxpayers may 
expedite certain transactions by faxing their authorizing signature to 
an assistor.
    (4) Identified and redesigned notices. References to writing a 
letter have been deleted from all notices and a 1-800 number has been 
referenced for taxpayer use. Return envelopes, formerly enclosed with 
each notice, are no longer provided unless payment is requested from 
the taxpayer.
    Question. Has the decline in correspondence been consistent with 
the increase in telephone usage?
    Answer. We do not have valid statistics on this issue.
    Question. On average, how much does IRS save when taxpayers call 
rather than write?
    Answer. Cost comparisons are not available on all transactions at 
this time. However, telephone transactions result in less burden and 
less cost for the taxpayer than written inquiries. When taxpayers call 
rather than write it generally results in early resolution of issue. 
When issues are resolved early, the need for follow up or repeat 
contacts is lessened or eliminated.
    Question. What is the basis for IRS' goal of using automation to 
answer 45 percent of taxpayers' incoming calls?
    Answer. The long -range vision for Customer Service included the 
goal of answering 45 percent of taxpayer incoming calls through 
automation by the Year 2000, through technological improvements and 
increased oral authority to resolve questions by telephone. Customer 
Service has already exceeded this goal.
    Question. What has been IRS' experience over the last 3 years, and 
what are IRS' goals for the future?
    Answer. We expect our Tele-Tax system to provide service to more 
than 47 million taxpayers in fiscal year 1997. Our Tele-Tax system 
provided service to 29 million in fiscal year 1994, 51.3 million in 
fiscal year 1995, and 45.3 million in fiscal year 1996.
    Question. What are IRS' plans for expanding these services?
    Answer. We are purchasing new Tele-Tax equipment to replace older 
equipment that was subject to potentially significant down time. This 
will save approximately $300,000 in annual maintenance costs and will 
allow us to answer 6 million additional calls. Also, we are rolling out 
TRIS 2.5 that will provide additional automated and interactive 
applications.
    2. IRS' fiscal year 1998 budget request includes a new activity 
called ``Telephone and Correspondence,'' which includes much of what 
was in the old Taxpayer Services activity plus various non face-to-face 
compliance activities, such as those conducted by the Automated 
Collection System (ACS) sites and the Service Center Collection 
Branches. It is unclear how staffing will be allocated among the 
various areas within the Telephone and Correspondence activity. Also, 
the performance measures for the collection components of the Telephone 
and Correspondence activity are by FTE (such as ``ACS dollars collected 
per FTE'') and do not show the total collections expected from each of 
these collection components.
    Question. Please provide a breakdown of the 20,815 FTE's requested 
for the Telephone and Correspondence activity by the specific 
components within that activity. Also, please provide information on 
the total collection goals for each of the collection components in 
this budget activity.
    Answer.

                                                                     FTE
Problem Resolution Program........................................   438
Toll Free Operations.............................................. 6,459
Adjustments/Taxpayer Relations.................................... 4,722
Service Center Collection Branch.................................. 2,844
Automated Collection System....................................... 2,839
Service Center Examination........................................ 3,473
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................20,815

    IRS Performance Measures for fiscal year 1998 for Automated 
Collection System (ACS): ACS Dollars Collected per FTE (in millions) 
target is $1.4.
    3. As part of the requirements of the Government Performance and 
Results Act of 1993, federal agencies are developing strategic plans 
that are intended to be the starting point for each agency's 
performance measurement efforts. The strategic plans are to include a 
mission statement, outcome-related goals, and a description of how the 
agency intends to achieve these goals. IRS has developed three 
strategic goals: increase compliance, improve customer service, and 
increase productivity. IRS' fiscal year 1997 and fiscal year 1998 
performance plans for the Telephone and Correspondence budget activity 
include customer service and productivity measures.
    Question. Does IRS measure the extent to which telephone and 
correspondence service affect taxpayer compliance? If not, why not?
    Answer. Estimating the impact of various IRS activities on 
voluntary compliance has been a very elusive goal. A number of 
studies--both within IRS and within the academic community--have 
attempted to measure these effects over the years, but none has been 
definitive. IRS's most recent effort, an econometric analysis of filing 
and reporting compliance over the 1982-1991 period, found no evidence 
that telephone assistance and correspondence service have any 
significant impact on the voluntary compliance of the general 
population. These results are consistent with the findings of an 
earlier study. That study found that taxpayer assistance improved the 
accuracy of returns, but also found that the revenue effect was neutral 
because the errors prevented by the assistance included fairly equal 
amounts of overstatements and understatements of liabilities. IRS is 
continuing to study these issues using additional and more recent data.
    Question. If so, when compared to an investment in enforcement, 
does an investment in these services have a greater or lesser effect on 
taxpayer compliance?
    Answer. Our customers, just like any other business--demand these 
services (correspondence, telephone, etc.); thus, the decision to 
invest resources into these activities is not based on return on 
investment, but on meeting our customers' needs.
    Question. How does IRS measure what taxpayers think of these 
services?
    Answer. IRS has used qualitative techniques such as focus group 
interviews and surveys to measure what taxpayers think of our telephone 
and correspondence services. A list of our more recent data gathering 
activities includes the following:
  --1993 Value Tracking Focus Group Report (This report is based on 
        extensive focus group interviews exploring the perceptions 
        taxpayers and small business owners have of the IRS and the 
        services it provides.)
  --1993 Notice Clarity Focus Group Report (This study examined 
        taxpayers reactions to a redesigned notice by comparing the new 
        format to the current version)
  --1996 Notice Redesign Focus Group Report (These interviews obtained 
        taxpayer feedback on newly redesigned notices.)
  --1995 IRS Customer Satisfaction Survey for Individuals -Final Report 
        (The survey obtains data on the perceptions of adult U.S. 
        residents regarding the quality of IRS service.)
    In fiscal year 1998, the IRS is planning a number of customer 
surveys, focus groups, and other vehicles to solicit customer feedback 
on its major products and services. These feedback mechanisms will 
allow the IRS to prioritize resources, develop new customer service 
measures by Business Lines, and measure district and service center 
level performance as it relates to customer satisfaction. Focus group 
interviews have been used in designing new customer service products 
such as the Automated Tax Law (ATL) application. Survey questions 
included at the end of Telephone Routing Interactive System (TRIS) 
scripts are used to obtain customer feedback. Management information 
collected by our systems indicates trends in taxpayer inquiries and 
taxpayer responses to our automated and interactive scripts. All such 
data is reviewed and applied to refine our customer service products. 
Also, the IRS has, and continues, to participate in the National 
Performance Review, conducting ``best practice'' interviews with 
industry leaders in customer service and applying the results to our 
products.
    Question. What has IRS learned?
    Answer. Some of the notable lessons learned from these reports are 
as follows.
  --IRS efforts to improve notices are having a positive effect. Tests 
        of the revised math error notice indicated that taxpayers felt 
        the new notice was easy to understand, and that the format and 
        tone of the notice were appropriate. Taxpayer behavior also 
        indicates that when notice language and format is clear and 
        brief, the IRS receives fewer notice inquiries.
  --Survey and focus group results indicated that taxpayers expect the 
        IRS to respond to their account inquiries like other major 
        financial institutions. They want complete and current account 
        information from the first IRS employee with whom they speak. 
        They wish to be treated with courtesy and professionalism. 
        Small business taxpayers especially, feel that IRS hours of 
        operation need to be expanded to better service their needs.
    Question. And what actions has IRS taken in response?
    Answer. Customer Service has used customer feedback in developing 
and enhancing scripts for Automated Tax Law (ATL) and Telephone Routing 
Interactive System (TRIS) applications by conducting focus groups. We 
have also hired a consultant to make our systems more user friendly. 
While we recognize that many opportunities to improve our service still 
remain, we are proud of several recent accomplishments. The IRS 
conducted a comprehensive review of its notices to taxpayers and 
eliminated some notices while redesigning others. The redesigned 
notices for earned income tax credit, refund, balance due and estimated 
tax were favorably received by taxpayers in focus group interviews. 
Taxpayers generally described the redesigned notices as friendlier, 
easier on the eye, and more ``people'' oriented.
    Based on information regarding telephone service to taxpayers, the 
IRS has undertaken a nationwide program, the Performance Data System, 
to assess and train customer service representatives. Training will be 
conducted in areas of customer service such as interpersonal 
sensitivity, negotiating, oral communications and listening skills. 
Preliminary data show the training to be effective in significantly 
improving the quality of telephone service provided by IRS customer 
service representatives. A follow-up test will be administered in 1998 
to determine if long term benefits resulted from the training.
    We anticipate additional study and process improvements in the 
arena of telephone access and correspondence service.
    4. An administrative provision in the fiscal year 1997 
appropriation act said that funds provided for IRS shall be used to 
provide ``as a minimum, the fiscal year 1995 level of service, 
staffing, and funding for Taxpayer Services.'' Another provision said 
that IRS may proceed with its field support reorganization in fiscal 
year 1997 only if it ``maintains in fiscal year 1997, the current level 
of taxpayer service employees that work on cases generated through walk 
in visits and telephone calls to IRS offices.''
    Question. Please explain, in detail, what IRS is doing to satisfy 
these provisions.
    Answer. In fiscal year 1997, the IRS has substantially increased 
the level of service provided to taxpayers through telephone, 
correspondence and walk-in assistance programs. In total, we expect to 
assist 116 million taxpayers. Much of the increase is attributable to 
improvements in the level of access to telephone assistance, which has 
increased from 39 percent in fiscal year 1995 to nearly 70 percent in 
fiscal year 1997 (as of 5/97).
    Question. How is IRS interpreting these provisions? For example, is 
it IRS' belief that it must maintain, as a minimum, the same level of 
staffing and service as in fiscal year 1995 for each element of 
taxpayer service (e.g., walk-ins and telephone) or just for taxpayer 
service overall (with the freedom to reduce walk-in service and 
increase telephone service)?
    Answer. IRS has made every effort to conform to both the letter and 
the spirit of the Conference Report language. We submitted on March 27, 
1997, a report to the Appropriations Committees on the impact of our 
field support reorganization on taxpayer service programs. Our 
interpretation is this restriction should be applied for ``overall'' 
taxpayer service.
    A copy of the ``Report on the Internal Revenue Service Field 
Support Reorganization has been provided as Attachment 2.
    [The information follows:]
                              attachment 2
  Report on the Internal Revenue Service Field Support Reorganization
                              introduction
    This report is prepared to meet the requirement of Public Law 104-
208, which funded the Internal Revenue Service for fiscal year 1997. An 
appendix is included which defines the technical terms used throughout 
the report.
    Section 105 of the IRS Administrative Provisions in the Treasury 
Department Appropriations Act, enacted in Public Law 104-208 states, 
``The Internal Revenue Service (IRS) may proceed with its field support 
reorganization in fiscal year 1997 after it submits its report, no 
earlier than March 1, 1997, to the Committees on Appropriations of the 
House and Senate only if the IRS maintains, in fiscal year 1997, the 
current level of taxpayer service employees that work on cases 
generated through walk in-visits and telephone calls to IRS offices.'' 
\1\
---------------------------------------------------------------------------
    \1\ As discussed with the Majority Staff Director of the Senate 
Appropriations Subcommittee, at the time of the Bill, the word 
``cases'' refers to Problem Resolution Program cases generated either 
through walk-in activity or local telephone contact, but does not refer 
to calls received via the ``1-800'' number.
---------------------------------------------------------------------------
    The Joint Explanatory Statement in Conference Report 10463 states, 
at page 1155, in reference to section 105: ``The conferees direct the 
IRS to report to the House and Senate Committees on Appropriations no 
earlier than March 1, 1997, on the impact of the reorganization with 
respect to: (1) taxpayer services, particularly taxpayer education and 
walk-in customer service offices; (2) problem resolution cases; and (3) 
the overall cost/benefit of the proposed restructuring. This report 
should also address how IRS taxpayer services will ensure adequate 
service to taxpayers in the future.''
    The reorganization has not and will not adversely impact service to 
taxpayers or the Problem Resolution Program. In fact, the IRS believes 
that completing the field reorganization will result in better service 
since resources will be redirected to customer service and compliance 
programs.
                               background
    Beginning in 1992, a series of studies were conducted to 
fundamentally improve how IRS accomplished its mission. The studies 
resulted in decisions to make some major realignments in the field 
office structure. These realignments were designed to: reduce 
management and overhead positions and redirect those resources to front 
line customer service and compliance programs; consolidate and improve 
customer service telephone operations, and; centralize administrative 
and support responsibilities as much as possible.
    The realignments reduce the number of IRS regional offices from 
seven to four; the number of districts from 63 to 33 and the number of 
customer service telephone sites from 70 to 23. The realignments were 
designed to take place in stages. First, during fiscal year 1995, the 
regional offices were consolidated. Executive and managerial personnel 
from the three discontinued regions were redeployed and their 
responsibilities assumed by the four remaining regions. The four region 
configuration became operational on October 1, 1995. Throughout fiscal 
year 1995 and early fiscal year 1996, the district of flees designed 
and began to execute their transition plans in partnership with the 
National Treasury Employees Union (NTEU). On October 1, 1996, the IRS 
began operating with 33 districts. The majority of the executive and 
senior management personnel from the 30 non-continuing district offices 
either retired or transferred to continuing management positions during 
fiscal year 1995. In some cases managers chose to assume a technical 
position. At this point the minor redeployment impact on bargaining 
unit personnel was governed by negotiated agreement.
    Because of the Congressional approval of a five-year revenue 
initiative in the fiscal year 1995 budget which funded over 6,000 
compliance full time equivalents (FTE), an assumption underlying all 
these actions was that the resources saved through consolidation would 
be redirected and invested in the core business of customer service and 
compliance, not that, even when jobs were being eliminated, IRS would 
significantly reduce overall staffing levels. The revenue initiative 
allowed the IRS and NTEU to join in formulating a series of 
redeployment strategies and transition plans designed to capitalize on 
the experience of the work force and ensure continued employment. The 
plans assumed a gradual transition which would allow for attrition and 
voluntary job movement to adjust necessary staffing levels between the 
continuing and non-continuing offices.
    This revenue initiative was discontinued after one year, which 
meant that 6,000 FTE were no longer funded, and thus the positions into 
which employees affected by the reorganization could be placed were no 
longer available. As a result, the IRS could no longer plan to complete 
the field restructuring over the period of time originally envisioned.
    As discussed later under the section, ``Costs and Benefits of 
Reorganization,'' the IRS will achieve significant savings over five 
years which will help the IRS absorb the unfunded cost increases that 
will result from the flat budgets proposed for the Service through the 
year 2002. For example, the savings will be used to fund essential 
compliance support employees, to improve taxpayer access to the toll-
free customer service telephone program and to expand employee 
opportunities for advanced technical training.
               effect of reorganizing on customer service
    The Joint Explanatory Statement of the Committee of Conference, at 
page 1154, in reference to section 103 states, ``The conference 
agreement includes a provision which requires the IRS to maintain the 
fiscal year 1995 level of service, staging, and funding for Taxpayer 
services. The conferees agree that this does not mean that IRS should 
be required to rehire staff or to open closed offices. The intent of 
the provision is to ensure that, overall, IRS maintains a level of 
Taxpayer Services which meets or exceeds the 1995 level of services. 
Additionally, the IRS should be very sensitive to the needs of 
taxpayers who use walk-in service centers during the tax filing 
season.'' [Italic added for emphasis.]
    The IRS has continuously committed to Members of Congress that the 
consolidation of compliance support organizations would not diminish 
service to taxpayers. In fact, the realignments proposed for field of 
rices, including the customer service sites, together with ongoing 
program improvements, will improve the Service's ability to deliver 
effective and timely service to greater numbers of taxpayers.
    Systems and telecommunications improvements now afford the IRS the 
ability to handle taxpayer inquiries regardless of their geographic 
location. This has opened up tremendous opportunities to establish 
centralized, well equipped call sites, staffed with well trained 
assistors, which will offer expanded hours of operation. If supported 
by resources partially redirected from field reorganization savings, 
these opportunities can be fully realized, bringing cost benefits to 
the IRS through reduction of overhead and facilities costs, but also 
bringing service benefits to the taxpayer through better access and the 
quality of answers.
    Customer service in the IRS now takes many forms. Today, taxpayers 
can get help in a number of ways: electronically through the IRS 
Homepage on the Internet and assorted Bulletin Boards; by telephone 
using various toll free numbers to access an interactive system, taped 
messages or to speak with an assistor; and through walk-in service at 
an IRS office.
    As illustrated in Chart I on the next page, for the current fiscal 
year, taxpayer walk-in assistance offices in combination with improved 
telephone services is projected to-deliver nationally a level of 
service considerably above that delivered in the 1995 filing season. 
Taxpayers have been more successful in getting through to the IRS on 
its toll-free telephone lines, and the total number of people served by 
the IRS is expected to increase to 118 million in fiscal year 1997 (an 
increase of 11.6 percent over the prior year).
    To ensure that resources are used as effectively as possible, walk-
in offices and staff have been placed in locations which generally 
serve the most taxpayers. Many walk-in sites were consolidated into 
others in the same geographic area. Despite the reduction in the actual 
number of sites providing walk-in service, the IRS has helped more 
taxpayers in walk-in sites this filing season than for the same period 
last year. From January of this year through March 8, 1997, the IRS has 
assisted 135,000 more taxpayers in walk-in sites, an increase of 7.7 
percent over the same period last year.
    In addition, taxpayer education activities will continue to be 
available in non-continuing district locations through the Volunteer 
Income Tax Assistance (VITA) Program, Tax Counseling for the Elderly 
(TCE), Understanding Taxes, Small Business Tax Education, and other 
community programs. Employees from walk-in assistance and compliance 
activities will be temporarily used as needed in the non continuing 
districts to work on these programs, particularly during the filing 
season.

                                            CHART I--CUSTOMER SERVICE                                           
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year--                    
                                                         -------------------------------------------------------
                  Service program area                                                    1997      1997 thru 3/
                                                           1995 actual   1996 actual    projected       8/97    
----------------------------------------------------------------------------------------------------------------
Telephone Access:                                                                                               
    Total Calls Answered................................   101,100,000    99,100,000   111,400,000    42,500,000
    Toll-Free Calls Answered by IRS assistors...........    39,200,000    45,100,000    60,200,000    21,900,000
    Calls Answered per FTE..............................         7,051         8,321         8,610           N/A
    Level of Access (percent)...........................          39.0          46.0            60            72
    Tax Law Accuracy Rate (percent).....................          90.1          91.6            92            94
Taxpayer (TP) Education/Outreach:                                                                               
    TP's Helped by Volunteer Income Tax Assistance                                                              
     (VITA).............................................     1,800,000     1,900,000     1,900,000           N/A
    TP's Helped by Tax Counseling for the Elderly.......     1,700,000     1,600,000     1,600,000           N/A
    Outreach \1\ (All Other Education Programs).........     9,600,000     9,200,000     9,200,000           N/A
Walk-In Customer Service: Number of People Served.......     7,500,000     6,400,000     6,400,000     2,900,000
----------------------------------------------------------------------------------------------------------------
\1\ Outreach programs include tax education packages and seminars for students, small businesses, etc.          

     effect of reorganizing on the problem resolution program (prp)
    The goal of PRP is to make certain that taxpayer rights are 
protected, to serve as an advocate for the taxpayer within the IRS and 
to represent the interests and concerns of taxpayers. The IRS will 
continue to work all PRP cases, regardless of volume, and adequate 
staffing will be provided to complete them. The caseworkers themselves 
will be generally consolidated in the district headquarters offices, 
and will continue to provide quality service to taxpayers in all 
locations within the district.
    The district Taxpayer Advocate (formerly the district Problem 
Resolution Officer) continues to be responsible for the oversight, 
training and direction of the caseworkers. An Associate Taxpayer 
Advocate (formerly known as Associate Problem Resolution Officer) 
remains in all non-continuing district offices and will handle local 
needs, continuing the commitment the IRS made to Members of Congress 
when it announced the district office consolidations in 1995. The title 
change was the result of the Taxpayer Bill of Rights 2, which also 
provided the Advocate with additional authority to assist taxpayers in 
hardship situations.
    As indicated in Chart II on the Problem Resolution Program (PRP), 
the IRS will continue to be responsive to taxpayers who experience 
problems.

                                      CHART II--PROGRAM RESOLUTION PROGRAM                                      
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year--                
                                                                 -----------------------------------------------
                      Service Program Area                                                             1997     
                                                                    1995 actual     1996 actual     projections 
----------------------------------------------------------------------------------------------------------------
Quality Customer Service Rate (District Office) \1\ (percent)...            79.9            80.6            81.6
Total PRP Cases Closed (same as cases received).................         416,476         328,088         ( \2\ )
----------------------------------------------------------------------------------------------------------------
\1\ Rate at which customer service standards are met in case work processing based on monthly review of samples 
  of closed cases from each district and service center. A scoring system allocates point values to the         
  processing standards.                                                                                         
\2\ No Projection. The IRS will work all PRP cases as it has in previous years.                                 

                  costs and benefits of reorganization
    The IRS will achieve significant savings as a result of its 
reorganizations (through fiscal year 2001). When the reorganization 
efforts in the field offices and the Headquarters Office in Washington, 
D.C. are combined, the total net five-year savings is estimated at 
$306.8 million, which is being redirected to front line customer 
service and compliance operations. This total net savings estimate 
differs from the original estimate provided to Congress for a number of 
reasons. The original estimate of $771 million in August 1996, included 
$441 million in savings from the elimination of 1,500 Information 
Systems (IS) positions. This was the best estimate of the required IS 
downsizing based on the fiscal year 1997 IRS budget being discussed at 
that time. In November 1996, IRS reduced its savings projection to $431 
million, which included the elimination of 819 IS positions. As the 
proposed downsizing of IS has been reduced, so have the estimated 
savings from the total IRS downsizing effort.
    As shown in Chart III below, the projected savings from the field 
component of the reorganization have remained fairly constant. The 
original estimate was $144 million. This was based on an anticipated 
reduction in force date of July 1, 1997. With the separation date now 
being projected as September 1, 1997, coupled with slight changes in 
the number of positions to be eliminated, the estimate is now $138 
million.

                                     CHART III--FIELD REORGANIZATION SAVINGS                                    
                                              [Dollars in millions]                                             
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year--                               
                                               -------------------------------------------------------   5-year 
                                                   1997       1998       1999       2000       2001      total  
----------------------------------------------------------------------------------------------------------------
Transition Costs..............................      $33.8      $10.2  .........  .........  .........      $44.0
Cost of Filling Positions.....................       24.0       49.9      $53.6      $54.7      $55.9      238.1
Salary Savings................................       38.3       90.8       97.0       97.0       97.0      420.1
Net Savings...................................     (19.5)       30.7       43.4       42.3       41.1      138.0
----------------------------------------------------------------------------------------------------------------
Notes:                                                                                                          
  --Transition costs include the cost of buyouts, moves, and reduction in force (RIF).                          
  --2,371 field positions are eliminated                                                                        
  --1,312 needed field positions are filled                                                                     
  --969 employees in field positions accept buyouts                                                             
  --Cost of new positions is the salaries and training costs of positions created due to reorganization.        
  --Salary savings is the reduction in salary expenses from positions eliminated due to the reorganization.     
  --These costs assume employees separated by RIF are off the rolls by September 1, 1997.                       
  --All costs considered in constant dollars.                                                                   
  --Beginning in fiscal year 1998, savings include approximately $8.7 million more in annualized rent cost      
  avoidance, in addition to the                                                                                 
      $138 million shown above.                                                                                 

    The redirection of these resources to front line customer service 
and compliance operations will allow the IRS to maintain stable levels 
of service and compliance in fiscal year 1998.
                               conclusion
    The efficiencies gained from the reorganization, and the ongoing 
actions discussed below, will enable the IRS to exceed the fiscal year 
1995 level of service to taxpayers. In addition, the IRS continues to 
put the customer first and introduce and refine new services that make 
it easier for taxpayers to get information, file their returns, pay 
their taxes and get their refunds, and less costly for the IRS to 
administer. For example:
  --The IRS is making it easier for taxpayers to file and get help. 
        During fiscal year 1996, the IRS received 15 million 
        electronically filed-returns, an increase of 27 percent over 
        fiscal year 1995. The biggest success was the TeleFile program, 
        where 2.8 million taxpayers were able to file by making an 
        easy, short telephone call (about nine minutes) to a toll-free 
        number. No paper is required. The returns processed through the 
        program had an accuracy rate of 99.5 percent. The TeleFile 
        program is available to over 26 million taxpayers in fiscal 
        year 1997. Through March 21, 1997, the IRS has received 3.8 
        million returns, more than all of fiscal year 1996.
  --The IRS has a world-class Web site on the Internet. The site 
        provides access to all IRS forms and publications, plain 
        language summaries of tax regulations, the IRS Bulletin, 
        answers to frequently asked questions and an array of other 
        self-help tools. This service is available worldwide, 24 hours 
        a day, to anyone with a personal computer and access to the 
        Internet. As of March 16, 1997, IRS has had 82 million contacts 
        to its Web site during this fiscal year, compared with 30 
        million for the same period last year.
  --Another effort to provide faster, more convenient service to 
        taxpayers is the TaxFax Service. Small businesses and 
        individuals are the primary users of this system. Through it, 
        taxpayers can order and receive tax forms and instructions 
        directly, thus providing faster service 24 hours a day at less 
        cost to the IRS. So far this filing season, over 240,000 
        requests for tax forms and instructions have been processed.
  --The IRS has a special telephone number for tax refund inquiries. 
        The new number helps taxpayers who only have a refund question, 
        and frees up the availability of assistors for taxpayers who 
        need help on tax law or account questions. Refund inquiries are 
        also available through TeleTax 16 hours a day on weekdays.
  --Taxpayers can use automated assistance options, such as interactive 
        telephone applications that allow callers to use their touch-
        tone phones to get tax account information. Two benefits of the 
        initiatives are that callers can learn the status of their 
        refunds and enter into installment agreements by using their 
        touch-tone telephones. Also, the automated Tax Topics 
        information service is available 24 hours a day, seven days a 
        week.
  --The IRS conducted a comprehensive review of its notices to 
        taxpayers. During 1996, it eliminated 12 notices that are 
        mailed out 18 million times per year. This relieved taxpayers 
        from unnecessary additional contacts with the IRS, and saved 
        postage costs for the IRS. IRS plans to eliminate another 20 
        notices or letters for fiscal year 1997.
  --Employers nationwide can now electronically file Form 941, 
        Employer's Quarterly Tax Return. The IRS processed almost 
        364,000 electronically filed Forms 941 in 1996. Electronic 
        filing of Forms 941 has increased accuracy and reduced 
        processing time from three weeks to as little as one week.
                     Appendix, Definitions of Terms
    After-Hours Calls.--The number of telephone calls after normal IRS 
business hours in which the callers select an automated service and 
complete the interactive process.
    Calls Answered per FTE.--The total of all calls answered [including 
assistor and automated responses, all customer service call sites and 
International, but excluding TeleTax calls received at (800) 829-4477] 
divided by total program FTE expended.
    Level of Access.--Actual calls answered (callers served) divided by 
unique number demand, i.e., the number of individual phone numbers from 
which the IRS received calls.
    Tax Counseling for the Elderly (TCE).--The TCE Program is 
administered by the IRS in cooperative agreements with nonprofit 
agencies and organizations. It establishes a network of trained 
volunteers who provide free tax information and return preparation to 
taxpayers 60 years of age or older.
    TaxFax.--System allowing taxpayers to order and receive tax forms 
and instructions by directly entering codes into their fax machines. 
This results in faster service (24 hours a day) for taxpayers and 
savings in postage and handling to the IRS. Small businesses and 
individuals are the primary customers.
    Tax Law Accuracy Rate--District Only.--Accuracy of tax law 
responses provided by IRS telephone assistors at district toll-free 
telephone sites, as measured by the Integrated Test Call Survey System, 
a centrally administered quality control site.
    TeleTax.--TeleTax is an automated interactive system which became 
available eleven years ago. It offers prerecorded information on the 
status of tax refunds and on 148 tax topics. The system is available to 
taxpayers seven days a week, 24 hours a day for tax topic information, 
and 16 hours on week days for refund inquiries.
    Toll-Free Calls Answered by IRS Assistors.--Number of telephone 
calls handled by IRS employees through the toll-free taxpayer service 
system, but not including local calls or those handled by automated 
applications.
    Total Calls Answered (Including Automation and After Hours).--Total 
of all telephone calls handled by IRS assistors on toll-free and non-
toll free lines, through TeleTax and Interactive Voice Response Units, 
and after-hours applications.
    Volunteer Income Tax Assistance (VITA).--Provides free tax 
assistance at community locations to individuals who cannot afford 
paid-professional tax help. Volunteers trained by the IRS assist 
taxpayers with basic returns, particularly people who have limited 
income or who have special needs, e.g., are disabled, non-English 
speaking, elderly, etc.
    Question. What are the fiscal year 1995 levels of service, staffing 
and funding that IRS is using as a baseline for implementing these 
provisions?
    Answer. As indicated previously, nearly 109 million taxpayers were 
assisted through telephone, walk-in and correspondence contacts in 
fiscal year 1995 (compared to 116 million in fiscal year 1997). 
Resources devoted to Taxpayer Service in fiscal year 1995 totaled 8,049 
FTE and $447.6 million (compared to 8,048 FTE and $482.0 million in 
fiscal year 1997).
    5. As a result of restructuring, two components of customer service 
have been transferred to IRS' enforcement functions. The Collection 
function is now responsible for managing the walk-in taxpayer service 
operation and the Examination function is responsible for managing 
taxpayer education activities.
    Question. Please explain the rationale for assigning these customer 
service activities to functions whose basic missions are enforcement 
oriented.
    Answer. Customer Service is responsible at the National level for 
the oversight of the Customer Service programs. On site and at the 
regional level, the day to day operation of the walk-in program is 
overseen by Collection management since a high percentage of employees 
on site in a walk-in office are Collection employees and walk-in issues 
are generally notice related issues that tend to be Collection related 
issues. IRS has determined that early resolution of account issues is 
the most cost effective way of doing business and is in the best 
interest of taxpayers. With that in mind, we have linked the various 
components of the organization to make it easier for taxpayers to 
comply with the tax laws. The Customer Service organization provides 
taxpayers with answers to tax law and account/procedural questions, 
provides payment options, computer matches third party information 
documents to filed returns and identifies non filers, performs 
correspondence audits to correct simple issues and assists taxpayers 
with balance due issues and, when appropriate, places a lien or levy 
against the taxpayer's assets. All of these functions are provided in a 
non face-to-face environment and the same taxpayer, or customer, may 
need to interact with IRS in several of these areas on the same issue.
    For example, under the former structure, a taxpayer who owed taxes 
might have to call three different functions to: 1) get answers to tax 
law questions to file his return; 2) request the abatement of 
penalties; and 3) set up a payment plan. Assistors in Customer Service 
treat taxpayers as customers of the entire IRS regardless of where they 
live and file their tax returns, rather than as customers of a single 
function within the IRS. The Customer Service structure allows for 
greater flexibility in the use of resources, allowing IRS to maximize 
compliance while reducing burden for the taxpayer and cost for the IRS.
    Question. How will IRS ensure that walk-in services and taxpayer 
education receive their fair share when Examination and Collection have 
to make tough decisions as to where to allocate their resources? On 
what basis, for example, will Collection make resource allocation 
decisions when faced with the competing priorities of collecting 
delinquent debts and serving taxpayers at walk-in sites?
    Answer. For fiscal year 1997 and 1998, the IRS will maintain both 
programs at the fiscal year 1996 level. The IRS continues to expand and 
enhance outreach efforts associated with taxpayer education, including 
VITA sites, Tax Counseling for the Elderly and a multitude of 
specialized programs aimed at educating students and new business 
owners on our tax administration system.
    During the height of the filing season, both Examination (tax 
auditors and revenue agents) and Collection (revenue officers) 
personnel are detailed to handle walk-in traffic in field posts of duty 
as needed to assist taxpayers with their tax law and account questions.
    Question. How does IRS measure and compare the impact of these 
different activities on its mission-effectiveness indicator?
    Answer. The Mission Effectiveness Indicator (MEI) is influenced by 
a number of external factors, such as personal income growth, 
inflation, unemployment, and other demographic characteristics. It is 
difficult to isolate the impact of these external factors from the 
impact of IRS actions. Consequently, it is very difficult to make 
direct quantitative links between IRS activities and the MEI. However, 
the IRS does not rely solely on this measure to evaluate its 
performance. IRS routinely monitors a large number of operational 
measures on which its activities have a clearly measurable impact.
    6. IRS' fiscal year 1996 toll-free telephone accessibility goal was 
37 percent. IRS reports that it achieved a rate of 46 percent by using 
automated call technology, improving call routing, balancing tax 
information and account calls, and emphasizing the use of the probe and 
response guide.
    Question. What did IRS do in fiscal year 1996 in each of these 
areas?
    Answer. In fiscal year 1996, level of access to toll-free lines for 
tax law and account assistance was 46 percent an increase from 39 
percent in fiscal year 1995.
    There are several noteworthy accomplishments that enabled us to 
make significant improvements in our customer service. The 
implementation of a system which allowed our assistors to access data 
in all of the service centers gave us the capability to maximize 
nationwide call routing. This initiative allowed us to provide more 
equal access around the nation and not only to answer questions, but 
also to make account adjustments from anywhere in the country.
    In 1996, we completed the installation of Automated Call 
Distributors (ACD's) in all sites. These devices allowed each callsite 
to route calls to an assistor with the expertise to answer the 
taxpayer's specific question. The combination of Voice Response Units 
(VRU's) and ACD's boosted our productivity. These two pieces of 
equipment efficiently identify issues, enabling taxpayers to be routed 
to either an automated system or to an assistor. The assistors are 
available for more complex issues, and the less complex inquiries are 
channeled to the automated systems. By more effectively routing 
nationwide traffic and getting individual calls to the appropriate 
assistor, we experienced an increase in productivity of approximately 
15-20 percent in each site as ACD's were installed.
    Another noteworthy achievement was the distribution of more than 
3,000 terminals equipped to use an early version of ICP which allowed 
the assistors to access multiple databases from a single terminal.
    7. According to the performance measures in IRS' fiscal year 1998 
budget estimates, telephone accessibility is projected to increase from 
46 percent in fiscal year 1996 to 60 percent in fiscal year 1997 and to 
remain at that level in fiscal year 1998.
    Question. What is IRS doing differently in 1997 compared to 1996 
that will enable it to increase accessibility to 60 percent?
    Answer. For this filing season, we implemented strategies to 
increase the number of taxpayers we can assist by increasing access. We 
expanded hours of service, provided Sunday service three times during 
this filing season and extended hours for the last four days of the 
filing season. We implemented a new toll-free number that enables 
taxpayers to quickly determine the status of their refunds.
    We are using our resources differently to ensure more taxpayers are 
served--for tax law questions, taxpayers who wish to call after hours 
or do not want to wait, may leave their questions on a recorded 
message, and an employee will call the taxpayer back within two 
business days with an answer. We are putting more people on the 
telephones. For complex questions, we have assigned senior technical 
personnel to answer written referrals. We have implemented consistent 
levels of authority to ensure that all assistors can make account 
adjustments while the taxpayer is on the telephone. We will enhance 
automation by introducing new interactive applications that allow more 
taxpayers to get answers to their questions and resolve issues without 
having to speak with an assistor.
    We are improving call site management practices by implementing 
site performance measures for fiscal year 1997 that address efficiency 
rather than volume. We have implemented guidelines for the use of 
automated applications that focus on customer satisfaction rather than 
calls answered.
    Question. Has IRS made any changes to the way it measures 
accessibility in 1997 compared to 1996?
    A slight change was made to the level of access formula for fiscal 
year 1997. Since demand is measured on a 24-hour basis, we measured 
calls answered on a 24-hour basis in fiscal year 1997. In fiscal year 
1996, calls answered did not include after hours calls.
    Question. Why is no increase projected for fiscal year 1998? Even 
without additional staffing in 1998, shouldn't some increase be 
expected as a result of improved productivity through additional 
modernization of systems or work processes?
    Answer. Based on our experience in fiscal year 1997, we are 
planning for improvements in our level of access, contingent on budget 
availability.
    8. We understand that one step IRS took to increase telephone 
access in fiscal year 1997 was to detail staff from other functions, 
such as the function that handles taxpayer correspondence.
    Question. How many staff have been or will be detailed from other 
IRS areas to answer telephone calls in 1997, and from what areas are 
those staff being detailed?
    Answer. The IRS expended 124.9 FTE detailed staff from Examination 
to respond to questions left by taxpayers on our phone answering 
systems. We also detailed employees from Adjustments, Taxpayer 
Relations, Collection and Examination Branches in the service centers 
to increase telephone accessibility. Centers reported 126 FTE detailed 
to answering telephone calls during the filing season.
    Question. Does IRS expect to do the same in 1998?
    Answer. Yes, we expect to detail staff in from the various areas 
again.
    Question. How are these details going to affect IRS' ability to 
respond in a timely manner to taxpayer correspondence? Do these details 
signify IRS' belief that it is more important to answer the phone than 
respond to correspondence?
    Answer. We are committed to maintaining our standards on timely and 
accurate responses to taxpayer correspondence. We are continuing to 
cross train our staff to become more flexible in order to be able to 
shift personnel to handle peak workloads in various areas of Customer 
Service.
    9. For fiscal year 1997, IRS has several toll-free numbers for 
persons to call if they need assistance. There are separate numbers, 
for example, for persons who have questions about their account, the 
tax law, and their refunds.
    Question. Does the accessibility measure cited in IRS' budget 
estimates relate to all those toll-free lines?
    Answer. Yes.
    Question. If not, to what toll-free line(s) does the measure 
relate, and what are the accessibility goals for the other lines in 
fiscal year 1997 and 1998?
    Answer. Our level of access goal is a combined goal for our toll-
free assistance lines.
    10. The best way to improve telephone accessibility is to reduce 
the need for taxpayers to call IRS in the first place.
    Question. What is IRS doing to reduce the need for taxpayers to 
call IRS? In responding to this question, please explain what IRS is 
specifically doing to simplify forms, clarify instructions and clarify 
notices.
    Answer. Recent notice re-engineering efforts eliminated 32 
different notices which resulted in 21 million fewer notices being 
mailed to taxpayers, preventing 21 million potential telephone 
inquiries. We are continuing to reduce the number of taxpayers who have 
to call us by improving or eliminating unclear or confusing taxpayer 
notices.
    Many taxpayers call about the status of their refund. Despite a 
reduction in the amount of time it takes to process returns and issue 
refunds, a significantly increasing percentage of all calls are related 
to the status of funds. We continue to research why we get so many 
inquiries and how to provide taxpayers with enough information so that 
they do not need to call.
    We document how the level of access affects repeat callers and the 
number of taxpayers who walk into our offices, how it impacts the 
amount of correspondence we receive, and how it alters our Problem 
Resolution cases.
    With such information, we can communicate better with taxpayers, as 
well as make better decisions about the application of resources, the 
need for additional systemic support, and the use of technology.
    Question. What constraints, if any, prevent the IRS from revising 
forms or clarifying notices?
    Answer. The IRS annually reviews its forms and instructions to 
identify opportunities to simplify them and to reduce burden. Over half 
of the reporting burden (2.7 million hours) is based on three tax 
returns forms: the 1040 for individuals, the 1120 for corporations, and 
the 1065 for partnerships. These forms represent the fundamental reason 
for the amount of this data; it is collected to administer the tax 
laws.
    The tax laws reflect a complex mix of policy goals that include 
achieving voluntary compliance, equity, economic efficiency, revenue 
protection, ability to effectively administer the law, and reduce 
taxpayer reporting burden. The IRS is faced with the formidable task of 
incorporating the legislative changes into comprehensive yet 
understandable tax forms, instructions, and publications. Extensive 
legislative changes enacted past July of any tax year makes it more 
difficult to implement the changes to forms, instructions, and 
publications because the IRS has less lead time to analyze the 
provisions, develop new and revised material for taxpayers and ensure 
that the information is printed and distributed timely to taxpayers at 
the beginning of the filing season.
    The Service has undertaken a major initiative to simplify and 
reduce the number of notices and letters that are sent to taxpayers. We 
are continuing to make significant progress in his area. So far, the 
IRS has eliminated 32 notices and letters that were previously sent out 
over 21 million times a year, reducing the need for taxpayers to call 
or write the IRS about the notices.
    Computer programs that generate most of our Master File and 
Integrated Data Retrieval System notices use older technologies that 
make it more difficult to make changes to the notices quickly.
    Other programming priorities, such as the Year 2000 conversion, can 
supersede program enhancements to these notices.
    Question. What legislative, technological, or procedural changes 
are needed to facilitate these processes? What specific evidence can 
IRS point to that illustrate these actions have had a positive effect?
    Answer. Technological alternatives to programming Master File 
notices, such as adequate software to provide nationwide one-page 
taxpayer notices with alternatives for individual text modification are 
also needed. These will save time and allow for forms to be modified on 
a timely basis. IRS has used qualitative techniques such as focus group 
interviews and surveys to measure what taxpayers think of our telephone 
and correspondence services. A list of our more recent data gathering 
activities were provided earlier in this document.
    Question. For example, does IRS keep statistics that would show how 
the number of calls relating to specific notices have changed since 
those notices were revised?
    Answer. IRS does not keep statistics on specific notices and 
related phone calls.
                           document matching
    1. According to IRS' fiscal year 1998 budget estimates, one 
component of the Document Matching activity--the Substitute for Return 
(SFR) program--was halted in January 1996 and will not be reinstated in 
fiscal year 1998 because of insufficient funding. However, IRS' budget 
estimates show that net tax delinquency assessments in fiscal year 1996 
for the SFR program were $1.47 billion. This was slightly more than the 
net tax delinquency assessments of $1.42 billion from another component 
of Document Matching--the Underreporter Program. (The $1.42 billion is 
the net of $1.56 billion in assessments less $135 million in refunds.)
    Question. Please provide information on the costs of the SFR and 
Underreporter programs that generated these assessments in fiscal year 
1996.
    Answer. The Underreporter Program cost was $59,819,624 and the 
Automated Substitute for Return (ASFR) Program cost was $12,885,233 in 
fiscal year 1996.
    ASFR, formerly a Collection nonfiler program, and the Substitute 
for Return (SFR), formerly an Examination program, are two separate 
programs. The question refers to the ASFR program. Only the ASFR 
program was halted. The Examination SFR program has always been fully 
funded and continues to be fully funded for fiscal year 1998. Some ASFR 
cases will be worked in the Examination SFR program in fiscal year 
1998.
    Question. And explain why, if the dollar amount of assessments is a 
valid performance measure, the SFR program was halted.
    Answer. In response to corporate budget reductions, the ASFR 
Program and Underreporter Program have been reduced. Less revenue is 
collected with ASFR than Underreporter per staff year. ASFR is not 
constrained by a statute of limitations and can, therefore, recover if 
a subsequent restoration of funding becomes feasible. The Underreporter 
Program, however, is time sensitive and cannot easily be restored if 
funding increases.
    Question. What are the collection rates for SFR and Underreporter 
program assessments?
    Answer. See Attachment 3.
    [The information follows:]

                         ATTACHMENT 3.--ESTIMATED COLLECTION RATES BY YEAR--COLLECTED DOLLARS AS PERCENT OF NET ASSESSED DOLLARS                        
                                                                  [Dollars in millions]                                                                 
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Fiscal year                                                                                           
                                                    1996 net                                                                                            
                     Program                        assessed   1996 year 1  1997 year 2  1998 year 3  1999 year 4  2000 year 5  2001 year 6     Total   
                                                    dollars                                                                                             
                                                    (actual)                                                                                            
--------------------------------------------------------------------------------------------------------------------------------------------------------
Underreporter...................................       $1,494  ...........  ...........  ...........  ...........  ...........  ...........  ...........
    Rate (percent)..............................  ...........           50           20           15            5  ...........  ...........           90
    Dollars.....................................  ...........         $747         $299         $224          $75  ...........  ...........       $1,345
Automated substitute for return.................       $1,929  ...........  ...........  ...........  ...........  ...........  ...........  ...........
    Rate (percent)..............................  ...........           10            5            5            2            2            1           25
    Dollars.....................................  ...........         $193          $96          $96          $39          $39          $19         $482
--------------------------------------------------------------------------------------------------------------------------------------------------------
NOTES:                                                                                                                                                  
1. Net assessed dollars include abatements.                                                                                                             
2. Source of fiscal year 1996 net assessed dollars and rates: Enforcement Revenue Information System (ERIS).                                            
3. Estimates are based on previous actual experience. Year 1 refers to year of assessment; year 2 is one year after year of assessment. Thus, for       
  Underreporter assessments made in fiscal year 1996, we estimate that 20 percent of that assessment would be collected in fiscal year 1997.            

    Question. More specifically, for each of those programs, how much 
of the assessments made in 1996 does IRS expect to collect in 1997.
    Answer. See Attachment 3.
    ASFR: 5 percent; $96 million. Underreporter: 20 percent; $299 
million.
    Question. In 1998?
    Answer. See Attachment 3.
    ASFR: 5 percent; $96 million. Underreporter: 15 percent; $224 
million.
    Question. Please explain the differences in the percentage of 
assessments collected from the two programs.
    Answer. The difference in the rate of collectibility is due to the 
type of taxpayer each program addresses. ASFR is designed to target the 
nonfiler, while the Underreporter Program primarily deals with a 
voluntary filer who fails to report income. Therefore, when the IRS 
through the Underreporter Program informs the taxpayer of his/her 
underpayment, the taxpayer complies and pays. The nonfiler, however, 
frequently does not comply unless further enforcement (levy) action is 
taken.
    Question. Since the impact of IRS' enforcement efforts is really 
determined by the amount actually collected, why doesn't the IRS use 
dollars collected as its performance measure for the SFR and 
Underreporter programs?
    Answer. The mission of the IRS is not only to collect the tax but 
to ensure voluntary compliance with the tax law. The document matching 
program enables the IRS to identify underreporting, including income 
reporting discrepancies, unsubstantiated deductions and nonfiling of 
tax returns. These programs provide a compliance presence and help to 
prevent the growth of nonfiler and underreported income populations. A 
1996 Internal Audit Review shows the Automated Substitute for Return 
Program (ASFR) resulted in 60 percent of delinquent taxpayers 
(nonfilers) becoming compliant (filers) in subsequent years. Dollars 
collected on all programs (including SFR) is a performance measure for 
the Collection function. Future collectability cannot always be 
determined at the time of assessment due to changing circumstances from 
the time of assessment to collection. However, we understand the 
importance of collecting tax dollars and encourage the payment of taxes 
owed as early in the process as possible.
                          tax law enforcement
    IRS' fiscal year 1998 budget request includes $3.2 billion for Tax 
Law Enforcement. The following questions relate to that portion of IRS' 
request.
                         criminal investigation
    1. In its budget estimates for Criminal Investigation, IRS note 
that 18 percent of its special agents are eligible to retire in fiscal 
year 1997, and another 13 percent will be eligible to retire in fiscal 
year 1998, 1999, and 2000.
    Question. How many of those eligible to retire does IRS expect will 
actually retire between now and 2000?
    Answer. The IRS estimates that approximately 550 special agents 
will retire between now and the end of fiscal year 2000. However, this 
is an estimate and since 49.7 percent of the work force is 45 years or 
older, a significantly larger number could retire depending upon 
economic conditions and employment possibilities.
    Question. What plans does IRS have to overcome the potentially 
adverse effects of such a high turnover of special agents?
    Answer. The IRS is planning to reduce its commitment to the ``War 
on Drugs''. In order to continue to fulfill its mission of fostering 
voluntary compliance, the IRS will concentrate the remaining special 
agents on ``Tax Gap'' investigations. The IRS's support of narcotics 
and money laundering investigations will be limited to the resources 
provided by the Organized Crime Drug Enforcement Task Force (OCDETF) 
through the interagency reimbursable agreement with the Department of 
Justice. This will be a reduction of over 50 percent from current 
levels. This reduction will seriously curtail IRS's ability to 
participate in multi-agency drug task forces sponsored by local United 
States Attorneys across the nation. The impact will be especially hard 
on OCDETF investigations. It will also significantly reduce the amount 
of funds flowing into the Treasury Asset Forfeiture Fund from IRS 
investigative forfeitures.
    Question. What succession planning exists?
    Answer. The IRS has a detailed succession planning program for 
special agents. The program covers the development of managers from 
first line through executives. It provides a step-by-step plan which 
details length of time between levels and the progression through 
districts of varying sizes up to eligibility for the Senior Executive 
Service. The program also requires service in a staff position at 
either the regional or headquarters level.
    Question. What on-the-job training or other means for developing 
needed expertise is planned?
    Answer. The IRS is in the process of revamping the entire special 
agent basic training program to ensure the highest quality training 
program which covers all essential special agent tasks. The program 
will cover classroom and on-the-job training. The task analysis was 
recently validated by a task force of field agents to ensure that all 
essential tasks are covered. The revision will be completed for the 
initiation of the advance special agent hiring program for fiscal year 
1999.
    2. The only significant program change in IRS' fiscal year 1998 
budget request, outside of the Information Systems area, is a $1 
million increase for combating overseas crime, specifically money 
laundering.
    Question. Why is this a priority for IRS?
    Answer. In 1995, the IRS Criminal Investigation (CI) organization 
developed an International Strategy to accomplish its law enforcement 
objectives in the international arena. Governments around the world are 
realizing that money laundering and other financial crimes are no 
longer limited by their geographic boundaries. Within the last five 
years, at least 100 countries have adopted or are considering passage 
of laws which criminalize various financial crimes including money 
laundering.
    In 1996, CI obtained permanent billets for special agents in 
Bogota, Colombia, SA; Mexico City, Mexico; and Frankfurt, Germany. In 
addition, temporary assignments were established for Ottawa, Canada, 
and Hong Kong. The establishment of permanent billets is anticipated 
for both of these locations in 1998.
    The CI International Strategy emphasizes cooperation among U.S. and 
international law enforcement communities. The successful financial 
disruption of major international criminal organizations, such as 
narcotics-related money laundering rings, can best be achieved through 
the multi-national investigation. Even with the short time period that 
our special agents have been assigned overseas, they have worked 
closely with investigators responsible for investigating similar crimes 
throughout the world, which has assisted in obtaining information 
needed in our domestic investigations. Our special agents provide 
valuable assistance in the form of training and advice to foreign 
governments trying to develop new financial crimes laws and 
information-sharing agreements. Numerous foreign governments worldwide 
have requested CI's assistance in developing money laundering and asset 
forfeiture legislation. Our special agents assigned to overseas posts 
attempt to assist these countries in developing improved banking laws 
and currency regulations as part of a comprehensive effort to deter 
money laundering and other financial crimes.
    Funding was not requested exclusively for conducting overseas money 
laundering investigations. Funding was requested to assign, support and 
maintain CI special agents in overseas posts.
    Question. What programs does IRS have in place relative to money 
laundering?
    Answer. The primary mission of CI is to foster voluntary compliance 
with the tax laws of the U.S. through vigorous enforcement of the 
criminal statutes over which CI has jurisdiction (i.e., Title 26 and 
31, tax, currency reporting, and forfeiture; and Title 18, money 
laundering and forfeiture). CI's statutory authority coupled with the 
financial investigative expertise of our special agents, has proven 
extremely useful in financially disrupting and dismantling criminal 
organizations in conjunction with the efforts of other federal law 
enforcement agencies.
    It is the objective of CI to identify, investigate, and prosecute 
the most significant tax, currency, and money laundering offenders; and 
to pursue the assets of those offenders both domestically and 
internationally for criminal, tax, and asset forfeiture purposes. Due 
to its limited resources and specialized expertise, CI will prioritize 
its efforts in currency reporting and money laundering enforcement, 
concentrating on those investigations whose size, scope, and complexity 
require the financial investigative expertise of its special agents. 
Selection and prioritization of targets for investigation will be in 
accordance with minimum standards set by the Assistant Commissioner 
(CI) and in furtherance of CI's mission.
    Question. What is IRS' authority and responsibility in this area?
    Answer. The IRS' authority to investigate money laundering is 
delineated in the Memorandum of Understanding among the Secretary of 
the Treasury, the Attorney General, and the Postmaster General 
regarding Money Laundering Investigations. The memorandum states, ``The 
Internal Revenue Service will have investigative jurisdiction over all 
violations of Section 1956 and 1957 where the underlying conduct is 
subject to investigation under Title 26 or the Bank Secrecy Act.''
    IRS' authority to investigate violations of Title 31 (Bank Secrecy 
Act) derives from Delegation Order 143. The Commissioner delegated the 
authority to initiate criminal investigations of financial institutions 
not currently examined by federal bank supervisory agencies to the 
Assistant Commissioner (CI). In addition, the Commissioner delegated 
the authority to initiate Title 31 criminal investigations of banks and 
brokers pursuant to Treasury Order 150-10, Directive 15-41 (the 
Memorandum of Understanding referenced above), and 26 CFR 301.7701-9 
(c).
                              examination
    1. In a September 1994 report on the Coordinated Examination 
Program (CEP) and a 1996 report on large corporations not in the CEP, 
GAO reported that less than 30 percent of the additional taxes 
recommended from audits was assessed after appeals (GAO/GOD-94-70, 
Sept. 1, 1994 and GAO/GOD-96-6, Oct. 13, 1996). Among other things, GAO 
recommended that IRS begin using dollars actually collected as a 
program measure. Although IRS can now get this kind of information from 
the Enforcement Revenue Information System (EGIS), the fiscal year 1998 
budget continues to show audit results in terms of dollars recommended.
    Question. When does IRS plan to begin measuring Exam results in 
terms of dollars collected?
    Answer. The IRS did not agree with the GAO recommendation to use 
collection rates as a measurement tool to measure effectiveness and 
productivity--this is true for the Coordinated Examination Program 
(CEP) and general program examination cases. Examination's primary 
function is to conduct examinations to determine the correct tax 
liability. Future collectibility cannot always be determined at the 
time of examination based on changing circumstances from the time of 
the audit to collection, e.g., a company that goes out of business. 
However, we understand the importance of collecting tax dollars and 
encourage the payment of taxes owed as early in the examination process 
as possible. We currently have two measures which foster the payment of 
taxes owed: Percent of Dollars Collected on Examination Assessments 
Prior to 2nd Notice and CEP Agreed Dollars per FTE. These measures are 
a small part of an aggregate of a field office's bottom line results 
and are not used to measure productivity; nor are they used to evaluate 
individual employees. Employees' performance is based on critical 
elements and performance standards which assess the overall performance 
of the duties and responsibilities of their position. In fact, our own 
policy statement prohibits the use of tax enforcement results in the 
evaluation of individual performance.
    Enforcement Revenue Information System (ERIS) data, which is more 
current than the GAO data, does track collections and is more 
indicative of current CEP accomplishments. The collection rate, 
represented by ERIS data, plays an important role in the allocation of 
budget and resources. However, it should not be used to measure 
productivity because the period from the time the case closes until the 
final dollars are collected spans more than the range of the most 
current data available in ERIS. ERIS data indicates that we average 
approximately $9.4 billion collected to date per year on all cases. 
While the percent collected of settled recommendations remains fairly 
constant at 23.7 percent, future collections cannot be confidently 
projected. Also contributing to the time span and unpredictability of 
collecting dollars on unagreed cases is the Appeals process. Appeals 
settles unagreed cases using a variety of methods including additional 
information submitted by the taxpayer, settlement authority, quid pro 
quo, hazards of litigation, etc.
    Collection rates do not fully measure CEP effectiveness or CEP 
productivity because they contain distortions and are influenced by 
actions beyond the control of Examination. GAO's collection rate 
included net operating loss and credit carrybacks as well as post 
closure abatements which distort the audit work and ultimately the 
recommended tax proposed by Examination. Examination has no control 
over these items. Nor do they have control over claims and other 
affirmative issues raised by taxpayers during the course of the audits. 
These distortions are significant and should have no role in measuring 
the efforts of the examination team.
    GAO acknowledged that these items, (net operating loss and credit 
carrybacks, post closure abatements and claims), influenced the 
collection rate but ignored them when they continued to stress using 
the collection rate as a measurement tool.
    One of the measurements we use to measure CEP productivity is Total 
Adjusted Revenue (TAR). This takes into account the recommended tax 
proposed by the examination team as well as their efforts in 
considering taxpayer claims, affirmative issues and credit and loss 
carrybacks. Not only do we measure potential for dollars being paid but 
also the efforts to prevent paying out dollars through claim and loss 
and credit carryback disallowances. These efforts do not show up in the 
collection rate but do represent a big part of our examination 
activities and deserve to be recognized. Revenue protection activities 
prevent dollars from being paid out of the Treasury.
    Question. In determining how it wants to allocate resources, how 
does IRS measure the relative return-on-investment of its various 
enforcement efforts?
    Answer. The allocation of resources is based on a number of 
factors; one of which is return-on-investment (ROI). ROI matches costs 
with results to ensure that resources are applied to the most 
productive returns and areas. In Examination, there are a number of 
measurements which are based on the ROI concept. For example, the 
Coordinated Examination Program measures its effectiveness using Total 
Adjusted Revenue Dollars per Full Time Equivalents (FTE) and also 
Agreed Dollars per FTE's. Examination Programs, other than CEP, also 
have measurements based on Recommended Dollars per FTE.
    In addition, there are other factors which impact resource 
allocations many of which revolve around ensuring compliance. For 
instance, our districts have analysis units searching for local 
projects and initiatives that have audit potential. Legislative changes 
often require resource commitments to ensure adequate compliance. 
Resources spent on these returns may not be as productive as our large 
corporate audits but our efforts are warranted none the less. Another 
example is our work in the international arena. In addition to our own 
initiatives, this area has generated a great deal of interest from 
Congress which has also urged us to pursue the shifting of income 
abroad by many taxpayers.
    2. Since 1995, IRS has reemphasized its use of so-called financial 
status techniques in its audits of individual taxpayers. These 
techniques have been around for years but have fallen into disuse until 
recently. Their reemergence has generated various concerns among 
taxpayers and their representatives.
    Question. What specific criteria drive the use of financial status 
techniques?
    Answer. ``Audit techniques'' are the methods, such as interviewing 
the taxpayer or contacting third parties, by which information to 
complete an examination can be collected. There is no distinction 
between ``financial status'' audit techniques versus some other type of 
audit technique. As a result, there is no set criteria for the use of a 
specific method. The facts of the individual case determine which 
method is most appropriate.
    Generally, the choice of audit techniques used during an audit will 
be influenced by three factors:
    1. Type of Return--The audit techniques used for an individual will 
be different than those used for a business (sole proprietorship, 
corporation, partnership, etc). An audit of an individual could only 
require oral testimony from the taxpayer while an audit of a 
corporation would involve an analysis of the company's internal 
records.
    2. Availability of Books and Records--Consideration is given to the 
type of records the taxpayer has to document the item being audited. 
For example, an individual may verify a mortgage interest expense with 
a 1099 issued from the finance company. If the mortgage was privately 
financed and a 1099 was not issued, the taxpayer may be asked to 
furnish canceled checks for the payments and the sales contract.
    3. Issue Development--Information gathered during the examination 
itself may warrant different audit techniques. For example, a 
taxpayer's records are incomplete and a supplier is contacted to 
confirm purchases the taxpayer claimed as an expense.
    Question. How does the IRS ensure that examination staff 
appropriately use these techniques?
    Answer. Four memorandums stressing the purpose and appropriate use 
of ``financial status'' audit techniques have been issued to the field 
since August 1995. The memoranda provide guidance for determining the 
depth of interviews and restricting questions to information needed to 
complete the audit; verifying third party information (to the extent 
practicable) with the taxpayer; communicating with authorized powers of 
attorney; emphasizing expectations for professionalism and courtesy; 
and applying judgment to assess the facts and circumstances of 
individual cases.
    An extensive new Manual section for completing income probes, 
including the use of appropriate audit techniques is being written. A 
draft will be available in September 1997.
    On April 1, 1995, our quality measurement system, Examination 
Quality Measure System (EQMS), was expanded to include evaluation of 
financial status analyses.
    Question. What percentage of audits used these methods in 1996? Is 
this more or less than in the past? What percentage would the IRS 
expect in 1997?
    Answer. All audits include ``techniques'' as warranted by the facts 
of the case. The use of some specific techniques can be measured 
through the Examination Quality Measurement System (EQMS). The 
following information is based on case reviews conducted between April 
1, 1995 and March 31, 1997.
Financial Status Analysis
    At a minimum, examiners complete a financial status analysis to 
determine whether reported income is sufficient to support the 
taxpayer's financial activities. The two key steps of the Financial 
Status Analysis are: (1) the development of a preliminary analysis 
based on the tax return and case file data such as W-2's and 1099's and 
(2) the updating of the preliminary analysis for additional information 
gathered during the examination process. The completed analysis should 
indicate income sufficient to support the taxpayer's personal expenses, 
business expenditures, and acquisitions.
    The depth of the analysis and the audit techniques used will be 
dependent upon facts of the individual case. When the financial status 
analysis indicates that reported income is sufficient to support the 
taxpayer's financial activities, then only the minimum requirements for 
the consideration of income must be performed. For individual 
nonbusiness returns, the taxpayer and/or representative will be 
questioned regarding taxable and nontaxable sources of income. For 
business returns, the minimum requirements include reconciling the 
books to the return, considering internal controls, evaluating the tax 
returns of significant shareholders, and analysis of the balance sheet.
    Most cases are closed based on the preliminary financial status 
analysis and minimum required consideration of income. Field revenue 
agents successfully complete the financial status analysis on 78.5 
percent of their cases; this percentage has remained constant since 
April 1995 and there are no indications that it will change in the 
future. Office auditors successfully complete financial status analyses 
on 84 percent of their cases; this is an increase from 73.5 percent in 
1995, but no further increase is anticipated.
Indirect Methods
    More in-depth audit techniques are used only when the financial 
status analysis cannot be reconciled. The most in-depth techniques are 
called indirect methods. There are five major indirect methods: (1) 
source and application of funds, (2) net worth, (3) bank account 
analysis, (4) percentage computations and (5) unit/volume analyses.
    Based on the facts of the individual case, indirect methods are 
used in 16 percent of Office Audit examinations and 41 percent of Field 
cases. This percentage has not changed significantly since April 1995 
nor is it anticipated that it will change in the future.
Interviewing Taxpayers
    Taxpayers are interviewed in 75 percent of both Office Audit and 
Field Examination cases. This percentage has not changed since April 
1995 and no change is anticipated in the future.
Third Party Contacts
    Examiners generally look to the taxpayer/representative as the 
primary source of information during an examination. Third party 
contacts are made only when the taxpayer cannot provide the 
information. Third parties were contacted in 20 percent of Field 
Examination cases reviewed during fiscal year 1997. This is a 
significant decrease from 32 percent in fiscal year 1996. This 
information is not collected for Office Audit examinations.
Tours of Business Sites
    Business sites are toured in 51 percent of examinations of business 
returns completed by Field Examination. This percentage has not changed 
since April 1995 and no change is anticipated in the future. Tours of 
business sites are not conducted for Office Audit cases.
    Question. How has the use of these techniques affected direct audit 
time and the amount of additional tax recommended?
    Answer. There are many factors which will influence the final 
outcome of an examination and the ability to isolate and measure the 
impact of an individual factor is difficult.
    However, one study of tours of business sites indicates that the 
examination cycle for business returns is shortened when a tour of the 
business site is conducted. This is true for agreed, no-change, and 
unagreed cases despite the significant difference in their examination 
cycles.
    As noted in the chart below, the technical quality of the 
examination, as defined by the Auditing Standards, is also improved.

------------------------------------------------------------------------
                                             Business      Business not 
               Key element                    toured          toured    
                                             (percent)       (percent)  
------------------------------------------------------------------------
1B. Income/Deduction/Crd Items                                          
 Considered.............................           88.05           86.17
2A. Internal Controls (Business Returns)           85.55           80.07
2B. Consideration of Books and Records..           80.44           76.62
2C. Financial Status Analysis...........           78.61           73.58
3A. Prior/Sub. Returns..................           88.52           83.64
3B. Related Returns.....................           81.82           77.68
4A. Interviews Conducted................           90.49           79.17
4B. Adequate Exam Techniques Used.......           93.03           89.67
------------------------------------------------------------------------
Note.--Each relationship was tested for independence using the Chi-     
  square analysis.                                                      

    No direct relationship between conducting a tour of the business 
site and the amount of additional tax recommended has been established.
    3. In order to mitigate the impacts of funding cuts in Examination, 
IRS intends to train all districts in the use of alternative 
classification methods to identify high-yield workload.
    Question. How do the alternative classification methods to identify 
high-yield workload differ from the methods that have been used in the 
past?
    Answer. Examination is completing the development of an automated 
system that has the ability to sort workload and provide districts with 
quick access to returns available for classification and assignment. 
The system can sort transcribed return data in Discriminant Index 
Function (DIF) order by market segment, income/asset ranges, potential 
complexity and location. The system allows the district to classify 
returns on-line versus looking at paper returns at a service center. It 
allows the Service to use examiners with market segment expertise to 
classify returns locally in their districts saving travel time and 
costs.
    Examination is presently conducting a test of the SIGMA 
(Statistical Information for General Market Analysis) program. The 
SIGMA method ranks returns for classification by market segment, major 
primary business activity code, form type and income strata. SIGMA 
identifies potential aberrant return filers by comparing a return 
against what the average return looks like in the identified market 
segment.
                              collections
    1. GAO recently reported in its High-Risk report on IRS that the 
inventory of tax debts at the end of fiscal year 1996 was $216 billion 
(GAO/HR-97-8, Feb. 1997).
    Question. Please provide a detailed breakdown of these receivables 
by their collection status at the end of fiscal year 1996.
    Answer. The attached chart (Attachment 4) shows our gross inventory 
of assessments broken down into our various workload statuses, and 
within the financial definitions.
    [The information follows:]

                          ATTACHMENT 4.--ACCOUNTS RECEIVABLE DOLLAR INVENTORY STRATIFIED BY FINANCIAL COMPONENTS AND BY ACTIVE INVENTORY AND CURRENTLY NOT COLLECTIBLE                          
                                                                                      [Dollars in billions]                                                                                     
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                 Total                          
                                                              Inactive    Deferred   Installment      TDA       Notice      Current      Other      NMF \3\     active        CNC       Totals  
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Gross inventory............................................      $20.56       $1.63       $14.42      $44.24      $10.94       $2.94       $4.79      $4.33      $103.86     $112.43     $216.29
NMF inventory..............................................        1.24  ..........  ...........        1.57         .30  ..........        1.22      (4.33)  ..........  ..........  ..........
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Subtotal after allocation............................       21.80        1.63        14.42       45.81       11.24        2.94        6.01  ..........      103.86  ..........  ..........
                                                            ====================================================================================================================================
Financial receivables......................................       15.09        1.40        13.33       26.34        7.83        2.94        3.35        .96        71.24       51.18      122.42
NMF inventory..............................................         .49  ..........  ...........         .20         .12  ..........         .15       (.96)  ..........  ..........  ..........
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Subtotal after allocation............................       15.58        1.40        13.33       26.54        7.95        2.94        3.50  ..........       71.24  ..........  ..........
                                                            ====================================================================================================================================
Financial writeoffs \1\....................................        1.36  ..........  ...........         .05         .08  ..........         .13        .06         1.61       26.68       28.29
NMF inventory..............................................  ..........  ..........  ...........  ..........  ..........  ..........         .06       (.06)  ..........  ..........  ..........
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Subtotal after allocation............................        1.36  ..........  ...........         .05         .08  ..........         .20  ..........        1.61  ..........  ..........
                                                            ====================================================================================================================================
Compliance \2\.............................................        4.88         .22         1.09       19.22        3.22  ..........        2.37       3.31        31.01       34.57       65.58
NMF inventory..............................................         .75  ..........  ...........        1.37         .18  ..........        1.01      (3.31)  ..........  ..........  ..........
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Subtotal after allocation............................        5.63         .22         1.09       20.60        3.40  ..........        3.38  ..........       31.01  ..........  ..........
                                                            ====================================================================================================================================
Compliance definition \5\..................................       17.12        1.63        13.35       39.23       10.47        2.94        4.44       4.33        93.53  \6\ 105.84  ..........
NMF inventory..............................................        1.24  ..........  ...........        1.57         .30  ..........        1.22      (4.33)  ..........  ..........  ..........
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Subtotal after allocation............................       18.36        1.63        13.35       40.80       10.77        2.94        5.66  ..........       93.53  ..........  ..........
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ RTC amounts included in Financial Writeoffs by major status: Inactive, $1.33; TDA, $0.05; Notice, $0.08; Other, $0.07; Total active, $1.53; and CNC, $18.35.                                
\2\ Trust Fund Recovery (TFR) amounts included in Compliance Assessments by major status: Inactive, $2.11; Installment, $1.07; TDA, $4.96; Notice, $0.40; Other, $0.27; Total active, $8.81; and
  CNC, $6.59.                                                                                                                                                                                   
\3\ In fiscal year 1995, we reported the Nonmaster File (NMF) figure as a separate category in the Total Active figures because our reports did not break these assessments into actual         
  statuses. For fiscal year 1996, we are now able to segment these assessments into the various statuses. For comparison purposes, we have shown the gross inventory and the three financial    
  components with NMF reported as a separate category, and after allocating the NMF into the various statuses in the subsequent lines.                                                          
\4\ No changes are required to the CNC and the total figures since they included NMF in the prior year's report.                                                                                
\5\ The Compliance Definition is used by the Chief Compliance Officer to report on workload. RTC and TFR amounts are not included in this inventory.                                            
\6\ The CNC column under the Compliance definition includes all of RTC but excludes the TRF amounts.                                                                                            

    Question. Please identify how much of this inventory represents 
valid financial receivables versus compliance assessments and how much 
IRS expects to eventually collect.
    Answer. For fiscal year 1996, the Service divided the total 
inventory of assessments into three major categories: 1) financial 
receivables, 2) compliance assessments, and 3) financial write-offs. 
This new methodology for valuing receivables was adopted in 1995.
    As of September 30, 1996, total financial receivables were $122.4 
billion. Financial receivables are the amounts that the taxpayers agree 
to or the courts have ruled is owed. The allowance for doubtful 
accounts (ADA) amount was $88.6 billion. The net receivables amount 
(how much we expect to collect) was $33.8 billion.
    We estimate the net realizable value of these financial receivables 
by applying an ADA using both a statistical sampling technique applied 
to a random stratified sample of financial receivables less that $10 
million, and a complete review of all assessments over $10 million. The 
ADA reflects an estimate of the portion of total financial receivables 
deemed to be uncollectible. Factors such as death, bankruptcy, personal 
hardship, inability to locate taxpayers, an IRS or taxpayer error, 
economic conditions, age, and the dollar amounts of these receivables 
affect the collectibility.
    Excluded from financial receivables are $28.3 billion in 
receivables designated as financial write-offs. Financial write-offs 
are a separate category of financial receivables whose ultimate 
collection is unlikely. Due to the ten-year statute of limitations, the 
IRS must maintain these accounts on the master file until the statute 
for collection expires.
    Also, excluded from financial receivables are $65.6 billion in 
compliance assessments. Compliance assessments consist of assessments 
primarily made for enforcement purposes. Actions may still be taken to 
collect these assessments, but because the taxpayer has not responded 
to validate the claim, or an appeal or tax court has not yet ruled, 
there is not an established claim with the taxpayer. Compliance 
assessments have been excluded from total tax receivables due to the 
uncertainty of their collection.
    The attached chart (Attachment 5) shows the gross inventory of 
assessments and how we break it out for our financial statements.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T13JN19.006
    
    Question. Provide an estimate of how much of this inventory will be 
abated and for what reasons.
    Answer. The IRS does not currently have any reports or estimates of 
how much of the inventory we expect to abate.
    2. Much discussion in past years has centered on the growth in the 
inventory of tax debts. However, because of the 10-year collection 
statute of limitations and interest and penalty accruals on accounts in 
the inventory, this may not be the best measure of performance.
    Question. What other measures does IRS think might be useful in 
assessing its performance in collecting tax debts?
    Answer. The measures that the IRS believes are useful in assessing 
its performance in collecting tax debts (based on available data) are 
total dollars collected as a percentage of current year field 
receivables; percentage of current year Automated Collection System 
receivables; and percent examination dollars collected pre-second 
notice as an assessment of collection performance in relationship to 
receivables. These measures are being tracked by the IRS.
    Question. For example, could IRS tell us the amount of new 
receivables identified in the past three years and the collection 
outcome of these receivables?
    Answer. Currently, the IRS uses the Enforcement Revenue Information 
System (EGIS) to track the collection outcome of accounts. Dollars 
collected on accounts that become delinquent are tracked from the date 
of assessment until the account is resolved or the statute expires. The 
IRS is developing a report that will show dollars collected from new 
receipts versus dollars collected from previously existing debt. 
However, this report will not be available for approximately one year.
    4. Collection industry experience shows that the sooner one 
identifies a delinquency and starts collection, the more likely the 
debt will be collected. Many of the delinquencies IRS pursues are 
generated through its compliance programs, which identify non-filers, 
underreporters, and others who fail to voluntarily disclose their true 
tax liability. These compliance programs may not identify the 
delinquencies for a year or more after the due date of the return.
    Question. What is the IRS doing to identify delinquencies sooner?
    Answer. For tax years 1995 and 1996, IRS has accelerated its 
nonfiler identification program. For tax year 1995, we identified 
nonfilers in September 1996. This is three months earlier than the 
prior tax year of 1994. For tax year 1996, we will identify nonfilers 
in July 1997. This is five months earlier than tax year 1994. Notices 
for tax year 1996 will be issued six months after the due date of the 
return. The IRS began accelerating its Underreporter program in 1995 by 
issuing tax year 1993 notices in March, four months earlier than 
previous years. An additional three months acceleration was achieved 
for tax years 1994 and 1995 when we began issuing Underreporter notices 
in December of the same year the tax return was filed. For tax year 
1996, we will begin to issue notices in December 1997.
    Question. Does IRS foresee being able to identify nonfilers and 
underreporters by the due date of the return?
    Answer. Under current systems and requirements, we do not foresee 
being able to identify nonfilers and underreporters by the return due 
date. These programs are driven primarily by income information 
extracted from various types of information returns filed by payers. We 
do not begin our nonfiler and underreporter identification programs 
until we receive this information. Some of this information has a due 
date of May 31 from the payers (e.g., Forms 5498 relating to Individual 
Retirement Accounts (IRA's)). This requires the IRS to identify 
nonfilers and underreporters after the due date of the return. In 
addition, the option of taxpayers requesting an automatic 120 day 
extension of time to file their return delays our identification of 
some nonfilers.
    Question. What is needed to accomplish this?
    Answer. Identifying nonfilers and underreporters by the return due 
date would require, in addition to significant systems modernization, 
the acceleration of information return reporting by payers; filing of 
extension to file requests before the return due date; and possibly 
postponing the return due date itself.
    4. Considering the major concerns that GAO has raised over the 
years on the reliability of IRS data, particularly the underlying data 
that support many of IRS' reports, we are concerned about the accuracy 
of IRS delinquent tax collection figures.
    Question. Please explain how collection figures are calculated?
    Answer. Collection figures are obtained from two major computer 
systems: Master File and the Integrated Data Retrieval System (IDRS). 
Master File is the official source for Collection figures while IDRS 
data, which is more discreet, is used for functional analysis. Both 
systems provide accurate data for their designated purposes. Accuracy 
concerns occur when, out of necessity, our existing systems are needed 
to produce figures for which they were not originally intended.
    Question. How is this money collected? For example, how much money 
is collected as a result of each of the following techniques: telephone 
calls, notices, liens, levies, seizures, and refund offsets.
    Answer. The basic design, for both our Master File and IDRS 
reports, is to determine what transaction codes posted to tax modules 
while the modules were in a Collection status. Attributing moneys to 
the techniques listed is difficult because the major computer systems 
(Master File and IDRS) do not store the fact that a telephone call was 
made. Also, the same module could be subject to several techniques. It 
would not be unusual for the same tax module to have a phone call, a 
lien and a levy. However, based on status codes and designated payment 
codes, the allocation of the fiscal year 1996 Master File Yield is as 
follows:

                    Fiscal year 1996 Yield Allocation

        Category                                                  Amount
Notices................................................. $14,711,979,711
Installment agreements..................................   6,037,882,519
Taxpayer delinquent accounts (TDA's)....................   8,432,408,035
Deferrals...............................................     530,800,398
Non-master file (NMF)...................................      63,028,124
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................  29,776,098,787

    5. IRS' budget estimates include two different figures for the 
dollars collected per FTE in the Collection field function for fiscal 
year 1996. In reporting on the fiscal year 1996 performance plan and 
results (pg. TLE-22 of the budget estimates), IRS shows actual 
collections of $509,000 per FTE, while the fiscal year 1996 actual 
shown with the fiscal year 1997 and fiscal year 1998 performance plans 
(pg. TLE-10) is $486,000 per FTE.
    Question. Please clarify this discrepancy.
    Answer. The $509,000 figure refers to dollars per staff year; the 
$486,000 figure refers to dollars per FTE. The difference between the 
two is that dollars per FTE includes all Collection Field function 
(CFf) time, even if some CFf personnel are detailed out to other 
activities such as the Automated Collection System (ACS). Inclusion of 
this detail-out time causes the dollars per FTE to be lower than the 
dollars collected per staff year.
    The IRS is moving toward usage of dollars per FTE as a consistent 
measure because FTE's give a more accurate reflection of resources from 
a financial standpoint and are in-line with budget allocations.
    6. In response to questions at last year's appropriation hearing, 
IRS mentioned various initiatives that would increase the productivity 
of its collection staff. In its recent High-Risk report on IRS, GAO 
also reported that several such initiatives were underway (GAO/HR-97-
8). However, in its fiscal year 1988 budget estimates (pg. TLE-10), IRS 
shows a lower collection figure per FTE in its field collection 
activity for fiscal year 1997 and fiscal year 1998 than it actually 
collected in fiscal year 1996.
    Question. Please explain why the collections per FTE are expected 
to be lower in fiscal year 1997 and fiscal year 1998 given the 
continuing initiatives to increase productivity.
    Answer. For fiscal year 1997, a three year baseline was the 
methodology used for goal setting, versus using the actual collections 
made in fiscal year 1996. The result was that the three year average 
was lower than the ending fiscal year 1996 results. In view of this, 
consideration is being given to using a different method in the future.
    7. IRS reported that it collected almost $30 billion in 
delinquencies during fiscal year 1996, which represented a 19 percent 
increase over the $35 billion collected the year before. IRS does not 
project that it will be able to maintain that level of collections in 
fiscal year 1997 and fiscal year 1998.
    Question. What factors accounted for the significant increases in 
Collections in 1996?
    Answer. While we cannot account precisely for the causes of the 
increase in fiscal year 1996 collections compared to the prior year, 
there are certain things that we know. The largest increase was in 
notice and installment agreement yield: 18 percent in Individual Master 
File (IMF) and 25.9 percent in Business Master File (BMF). Taxpayer 
Delinquent Account (TDA) yield also grew significantly: 14.9 percent 
IMF and 12.2 percent BMF. Review of monthly data indicates that the 
total dollar amount of first notices issued began growing rapidly in 
the third quarter of fiscal year 1995 and continued strong into the 
third quarter of fiscal year 1996. It appears likely, therefore, that 
simple growth in notices was a major contributor to the growth of 
notice yield in fiscal year 1995 and fiscal year 1996. The growth of 
TDA yield is no doubt due in substantial part to the fiscal year 1995 
compliance initiative. Prior research indicates a strong connection 
between Collection staffing and TDA yields. Substantial increases in 
Collection staffing occurred in fiscal year 1995; while staffing 
declined some in fiscal year 1996, it remained well above the fiscal 
year 1994 level. By fiscal year 1996, the new Collection personnel had 
completed their fundamental training and had begun to be more 
productive, making significant contributions to yield.
    Question. Why will IRS be unable to sustain this collection level 
in 1997 and 1998?
    Answer. Our original projections were based on the fact that the 
continued loss of experienced personnel would ultimately have an impact 
on collection yield. Although, to date, this has not occurred, with 
collection yield through May 1997 at 3 percent above the prior year, we 
strongly feel there is a connection and at some point overall yield 
will decline.
    8. Historically, IRS has devoted two-thirds of its collection 
resources to the field function where revenue officers, generally high-
graded staff with many years of experience, make personal contact with 
delinquent taxpayers. Although this function has been the least 
productive, and most costly, step of the collection process and is used 
infrequently by private collectors, IRS continues to support a high 
level of field collection staff. In response to questions at last 
year's appropriation hearings, IRS stated that, first, service centers 
and the Automated Collection System call sites are staffed to capacity, 
and then, any additional resources go to the field. According to IRS 
figures, collections per ACS FTE are about three times that of field 
FTE's.
    Question. Has IRS considered increasing the capacity at the call 
sites to take advantage of the higher productivity of this type of 
collection activity? If not, why?
    Answer. IRS budget requests for ACS sites have consistently 
reflected the productivity of this collection activity. We will 
continue to fully staff ACS sites to the maximum authorized budget 
levels.
    Question. What has the IRS done to improve the effectiveness and 
productivity of its field collection activity?
    Answer. Collection has a number of actions in place or underway to 
increase yield and limit the growth of our accounts receivable. 
Collection has focused their efforts towards improving workflow, 
procedures, culture, management information and automation. Some 
examples of these initiatives are:
    1. The Integrated Collected System (ICS): This is a computer based 
system that provides for automated field case actions such as notice of 
levy, case histories, trust fund recovery penalty computation. It has 
shown significant productivity enhancement for the nine districts in 
which it has been implemented. Roll-out of the system continues through 
fiscal year 1998.
    2. Collection financial analysis standards: New procedures that use 
national and local expense standards have been implemented nationwide. 
Collection financial analysis standards provide revenue officers with 
uniform standards for evaluating taxpayer expense claims against 
national and local norms. These standards are applicable to individual 
income tax cases and provide a decision model for recommending 
adjustments in taxpayer financial obligations and/or assets to allow 
payment of the liability. The expense standard method will ensure that 
allowed expenses are not inflated and that payment capability is 
maximized.
    3. The IRS continues its efforts in the Fed/State cooperation area 
to provide better information sources to its employees and provide 
higher productivity potential cases to the field from available 
inventories.
    4. The Entity implementation project continues. Entity is a 
management control system which provides managers better information 
about employee case productivity. Entity information is used by 
managers to identify effective performance and issues which may require 
management direction. Archive data is also useful in determining which 
case types (individual income tax, in business trust fund, estate 
taxes, etc.) return the highest productivity for staff power invested.
    5. Inventory Delivery System (IDS): Collection is working to 
improve workflow by preventing non-productive cases from reaching the 
field. IDS will centralize locator processing and use automated methods 
to evaluate delinquent accounts for collectibility so that the most 
productive accounts are sent to ACS or revenue officers.
    Question. How is performance being measured, and what are the 
results to date?
    Answer. The Annual Performance Plan measures listed below are used 
to rate performance in the Collection Field function and the National 
results as of May 1997:

Total dollars collected.................................  $3,888,500,000
Dollars collected per FTE...............................        $532,000
Total dollars collected as a percentage of current year 
    field receivables...................................            21.0
Average cycles per TDA/TDI disposition..................            34.6
Average hours per entity disposition....................            35.9

    9. The private debt collection pilot program has been in operation 
for about six months.
    Question. What are IRS' observations of the program at this time?
    Answer. General observations on results of the Private Sector Debt 
Collection Program are tentative, since the analysis of the full year 
of operations will not be completed until September 30, 1997. In 
general, the IRS was impressed with the professionalism and commitment 
shown by the contractors; their organizational and management 
capabilities; their sensitivity to the importance of privacy, 
disclosure, and security issues unique to IRS tax collection; and their 
willingness to work closely with the IRS in resolving design, start-up, 
and shut-down issues in this pilot program.
    However, experience based on quarterly and monthly invoices to date 
indicates that the results of the pilot will not be as satisfactory as 
thought in terms of dollar yield and number of open accounts resolved. 
The contractors are not finding and contacting as high a proportion of 
delinquent taxpayers as necessary to generate a revenue stream 
sufficient to produce a positive return on investment. Also, a much 
larger than anticipated proportion of the contacted taxpayers 
(approximately 63 percent) is being referred to the IRS for case 
resolution, which not only increases IRS overhead and contract 
administration costs, but inflates the opportunity costs of diverting 
highly productive ACS employees to handle lower value cases handed off 
by the contractors. IRS experience with these ACS employees reflect 
that they each bring in approximately 1.5 million dollars in revenue. 
Diverting these resources to handle contractor referred cases has the 
impact of reducing total revenue generated by ACS creating high lost 
opportunity costs. The IRS used ACS resources for the contractor-
referred cases due to the skill necessary to handle this type of work.
    The general conclusion to be drawn from experience to date is that 
the types of low activity aged cases reserved for contractors, as 
specified by the enabling legislation, are not very productive. They 
are low priority within the IRS for good reason, having already been 
worked through successive collection processes to the point of marginal 
yield potential. It is not cost effective, and is in fact 
counterproductive, to devote scarce resources to them, either by 
contract or in-house.
    Question. What have been the results to date?
    Answer. The contact rate, that is, the proportion of taxpayers that 
the contractors are able to talk to by phone through May 3, 1997, is 
approximately 18.5 percent of available cases. It is too early to give 
a precise estimate of the actual contact rate because the IRS has not 
yet processed and validated the contractor's invoices for the final two 
months.
    The success rate of the contractors in obtaining full payments and 
unassisted installment agreements through May 3, 1997, was about 13 
percent of the total number of contacts made. The success rate for IRS-
assisted installment agreements secured by contractors was also about 
13 percent of the total number of contacts. The success of the 
contractors in obtaining extended full pay commitments, however, was 
less than 1/10 of 1 percent, and the IRS has concluded that this 
category was not useful for the contractors. It must be emphasized, 
however, that even in those performance categories in which contractors 
have had some success, the revenue collected to date has been less than 
the IRS operational costs of the project.
    Question. Has IRS or any of the contractors encountered any 
problems? If so, please elaborate.
    Answer. Yes. Most of the problems experienced by the contractors 
and the IRS in the pilot project were operational in nature, or were a 
function of the newness of the program and the speed with which it had 
to be implemented. These were solved as they arose. Lessons learned for 
the future revolve around a few key problem areas:
  --Outdated IRS data processing systems exacerbated the inherent 
        difficulty of extracting qualifying cases from IRS master 
        files, controlling them, and reintegrating them with IRS 
        systems after contractor actions. These outdated systems also 
        introduced unforeseen complications in merging the work from 
        two IRS service centers.
  --The application of Government-wide rules concerning ``inherently 
        governmental activities'' resulted in severe limitations on the 
        actual tasks the contractors can legally be given: in 
        particular, contractors are prohibited from actually collecting 
        federal income taxes. As a result, the contractors are only 
        providing certain support activities to IRS collection, not 
        really collecting debts in the normal sense of the word. Added 
        to this is the extreme complexity of IRS tax accounts, which 
        are very active (not static like most commercial or consumer 
        debt accounts). Unlike most debt collection contracts, the IRS 
        contracts cannot incorporate a clean handoff of delinquent 
        accounts to the contractors and a clear separation between the 
        contractors' work and the work necessary by IRS employees to 
        support the contractors. As already mentioned, IRS employees 
        have become involved in 63 percent of the contacts made by its 
        contractors.
  --Availability of inventory: after reducing the raw inventory 
        available in the specified categories of work to eliminate 
        cases that exceeded the contractors' authority or ability to 
        work (for example: bankruptcies, deceased taxpayers, open 
        criminal investigations, delinquent filers, and many other 
        filers), and after further setting aside a large number of 
        qualifying cases for evaluation as a control group, the IRS 
        almost exhausted the inventory available for contractors in the 
        IRS Western Region.
  --A larger than anticipated number of cases (almost 25 percent) were 
        recalled from the contractors after assignment due to changes 
        of case status in IRS (for example, cases closed by refund 
        offset). Unlike commercial debt, IRS debt is not static: 
        controlling and tracking cases while they are assigned to the 
        contractors has been a significant challenge for the IRS data 
        processing support functions.
    Question. What has IRS learned from this pilot that could help it 
improve the collection of other accounts?
    Answer. The experience reinforces some insights contained in the 
IRS modernization plans that automated skip tracing tools and telephone 
management devices (such as predictive dialers), have the capacity for 
greatly enhancing productivity in out-call operations. We also plan to 
examine possible ``best practices'' with contractors to see if they 
would improve current methods.
    Question. Are there any legislative or other changes needed to 
improve the use of private debt collectors?
    Answer. Analysis of the current pilot will be completed September 
30, 1997, and may provide data that will be useful in responding to 
questions of this nature. Many legislative or regulatory changes could 
be considered that might facilitate private sector collection of IRS 
tax debts but the IRS does not advocate the desirability of any 
specific changes without full analysis of the results of test data and 
full consideration of policy, public perception, and administrative 
implications.
    Question. For fiscal year 1998, does IRS plan any changes in the 
pilot program? If so, please discuss these changes and why they are 
being considered.
    Answer. No. The pilot program was terminated at the end of the 
first year of operations.
    10. Over the past several years, IRS has studied various ways to 
reengineer and modernize its process for collecting delinquent taxes.
    Question. What major changes have been implemented as a result of 
these studies?
    Answer. The IRS has implemented a number of changes to its 
processes and procedures to improve tax collection over the last few 
years. Some significant initiatives and changes include:
  --Integrated Collection System--Revenue officers, managers and 
        support staff use laptop computers to provide current 
        information and automated case processing for account delivery, 
        research, collection and forms generation.
  --Entity--provides automated taxpayer based reporting and case 
        management.
  --Repeat Delinquent Taxpayer Program--identifies delinquent trust 
        fund taxpayers who have a history of repeated delinquency and 
        whose actions warrant more aggressive collection action by 
        revenue officers.
  --National Telephone Research--This contract provides the most 
        efficient and economical method of performing telephone number 
        research that is vital to ACS.
  --Early Intervention--Two individual notices and one business notice 
        have been eliminated from the collection process. This results 
        in earlier telephone contact with the taxpayer and accelerated 
        collection of accounts.
  --Notice Redesign--The IRS has changed the appearance and text of 
        their bills. In tests at two sites, the use of a credit card 
        type notice was more effective in generating revenue than the 
        traditional notice.
  --Collection Financial Analysis--New procedures that use national and 
        local expense standards were adopted. Studies and input from 
        the private sector indicate that the expense standard method 
        will ensure that allowed expenses are not inflated and that 
        payment is maximized.
  --Collection Appeals Process--This process provides a vehicle for 
        taxpayers to appeal specific collection actions quickly.
    Question. Does IRS have a comprehensive strategy for making 
collection programs more effective and efficient?
    Answer. Collection's emphasis is on helping taxpayers resolve their 
account problems, especially in those situations where they may be 
first-time delinquents. However, in those situations where taxpayers 
repeatedly fail to comply with filing, depositing, and paying 
requirements, innovative enforcement techniques are encouraged to 
achieve compliance with our tax laws. There is an obligation to ensure 
that collection tools are used effectively, fairly and timely.
    Collection has a number of actions in place or underway to increase 
yield and limit the growth of accounts receivable. We are focusing 
efforts on changing workflow, procedures, culture, management 
information and automation. As part of our effort to progress beyond 
traditional collection methods, we are looking at ways the private 
sector handles debt collection.
    Question. What are the IRS' long term goals?
    Answer. Some of the IRS' long term goals are: Increase total 
collections; reduce taxpayer burden; continue emphasis on quality case 
dispositions; resolve taxpayer inquiries at first contact; increase 
productivity; and reduce overall collection costs.
    Question. What changes does IRS plan to make over the next two to 
three years to implement these goals?
    Answer. Some changes that the IRS is planning to implement these 
goals are: Redesign of the revenue officer occupation; analysis of the 
offer in compromise process; implementation of customer service; 
integration of ICS and entity; and development and implementation of 
the IDS.
    Question. What information systems support, both directly and 
indirectly, the collection function? Does IRS plan to continue 
developing or implementing these systems in 1997 and 1998?
    Answer. ICS directly supports the collection function and provides 
automated case processing for revenue officers, managers, and support 
staff. ICS began nationwide implementation in fiscal year 1995 and is 
in production in 9 of the 33 consolidated districts. Implementation is 
scheduled to complete nationwide roll-out to the remaining 24 districts 
over the next two years, budget permitting. Collection is also 
dependent upon the IDRS, Masterfile, and ACS.
    Question. What are the objectives of these systems and when does 
IRS expect them to be fully operational?
    Answer. Collection uses these systems for account management. ICS 
is operational in 9 of 33 districts. ICS implementation is scheduled to 
complete nationwide roll-out to the remaining 24 districts over the 
next two years, budget permitting.
    Question. Has IRS discontinued any systems development in the 
collection area in fiscal year 1996 or 1997? If so please describe 
these systems and funding provided for 1996 and 1997 for these systems?
    Answer. Yes (to some degree). Based upon the need for more 
documentation and consistency with the Modernization Architecture and 
Sequencing Plan, IRS inactivated a prototype for its Collection 
Inventory Delivery System (IDS). The focus is to address IDS's full 
functionality as part of the Service's modernization plan presented to 
Congress, while delivering core functionality in the interim. Three 
major IDS components are being developed now. The expected benefits of 
these three components should approach $500 million annually.
                          compliance research
    1. For over 20 years, taxpayers' compliance in paying taxes owed, 
both voluntarily and after IRS enforcement, has hovered around 87 
percent. IRS has set a goal of reaching 90 percent compliance by the 
year 2001.
    Question. What has IRS done to improve compliance, and what else is 
needed to ensure that 90 percent compliance is attained by 2001?
    Answer. The IRS has undertaken a new approach to strategic business 
planning for its three Operations business lines: Submission 
Processing, Customer Services and Compliance. In fiscal year 1997, we 
issued the first Compliance Plan which linked Compliance activities 
with our strategic goal to ``Increase Compliance.'' Also in the fiscal 
year 1997 Compliance Plan, we identified, primarily through our 
research activities, seven national compliance strategies which target 
specific taxpayer populations. We plan to use cost-effective 
``wholesale'' approaches in which large groups of noncompliant 
taxpayers are addressed through a single application of resources to 
encourage or enable them to comply voluntarily, rather than correcting 
this noncompliance through traditional, costly face-to-face enforcement 
techniques. However, reaching the goal of 90 percent collection of 
total tax liabilities by 2001 may be out of reach.
    Question. How does IRS intend to increase voluntary compliance with 
an audit rate that is projected to decline from 1.63 percent in fiscal 
year 1996 to 1.17 percent in fiscal year 1998?
    Answer. The IRS' new authority to treat returns with missing or 
invalid dependent Social Security Numbers (SSN's) as math errors 
accounts for a significant portion of the decrease in audit coverage. 
Previously, returns with missing or invalid SSN's could only be 
adjusted--if the taxpayer could not provide a valid SSN--through an 
audit; thus, these were included in audit coverage. Currently, returns 
with missing or invalid SSN's are adjusted--if the taxpayer does not 
provide a valid SSN--as math errors. Math error adjustments are not 
currently included in audit coverage. We intend to replace traditional 
face-to-face audits in some market segments with new compliance 
strategies which will effectively increase voluntary compliance through 
alternative treatments. As a result of research activities, we will 
improve our workload selection and compliance treatments, saving costly 
one-on-one enforcement for the most egregious cases. We believe this 
application of resources will have a beneficial effect on compliance.
    2. IRS implemented its new Compliance Research and Planning 
Approach to address concerns about continued noncompliance with the tax 
laws and the large income tax gap. The new approach involves, to a 
large extent, researching ways to improve compliance for entire market-
segments--specific groups of taxpayers who share certain 
characteristics or behaviors--and using research results in ongoing 
compliance programs.
    Question. What is the current status of the new Compliance Research 
and Planning Approach in developing, testing, and implementing 
wholesale solutions to noncompliance?
    Answer. Of the eighty national compliance research projects 
underway, seventeen have advanced to the stage of studies which, by 
identifying major causes of noncompliance, will develop treatment 
hypotheses for testing in the coming year. Five projects are now 
testing treatments. Two projects have reported findings of successful 
treatment tests and are ready to be considered for national 
implementation. Based on earlier research that indicated a substantial 
degree of inadvertent noncompliance, both of these projects--one 
dealing with self-employment tax reporting compliance and the other 
dealing with duplicate use of dependent Social Security Numbers--have 
relied on nonenforcement techniques (i.e., ``reminder'' letters to 
taxpayers) to address the specific forms of noncompliance. Tests 
results indicate the potential of these treatments as low-cost, high-
impact solutions to these forms of noncompliance among these taxpayer 
groups. However, it should be recognized that continued budget 
reductions will ultimately have an adverse impact on the IRS' ability 
to reach its compliance goals.
    Question. How is IRS assessing the effectiveness of the Compliance 
Research and Planning Approach?
    Answer. In general, the effectiveness of the Compliance Research 
and Planning Approach will be assessed in terms of increased revenue 
and improved compliance for a lower resource investment. More 
specifically, however, the effectiveness of compliance research is 
measured in terms of its moving from profiling a market segment and 
testing non-enforcement treatments to successful implementation. 
Initiatives proposed for implementation are arrayed against each other 
and against traditional enforcement activities and adopted when they 
prove more cost-effective. Compliance research is, therefore, effective 
to the extent that it is actually implemented after having ``competed'' 
against alternative resource investments. For example, based upon 
research findings that significant noncompliance on the part of certain 
sales personnel in their reporting of sales incentives was due to an 
internal regulation, the Chief Counsel organization is in the process 
of revising and clarifying this regulation.
    Question. How is IRS ensuring that the necessary data can be 
collected and tracked?
    Answer. The Compliance Research and Planning Approach applies to 
each research initiative a systematic and uniform method of profiling, 
developing and testing with resultant baseline data. Subsequent 
wholesale implementation will have resultant data captured in the IRS 
Alternative Treatment Revenue reporting mechanism. In addition, IRS has 
submitted a Modernization Blueprint that includes system requirements 
to capture and track the data needed for realizing the Compliance 
Research and Planning Approach.
    Question. What impact will the new research approach have on 
planning compliance workload and resources across all IRS functions and 
programs?
    Answer. Traditionally, the Service has planned and allocated 
resources based on functional goals which were developed independently. 
However, the key to our new approach is to equalize marginal revenue to 
marginal cost across all Operations functions, programs and geographic 
locations, thereby maximizing revenue collections. Through our 
integrated planning process, each functional area will compete for 
resources with other areas and with new compliance strategies 
identified through our research efforts. Resources will then be 
allocated to those areas to equalize marginal revenue to marginal cost, 
after allowing for minimum presence in each segment of the population. 
Ultimately, we expect that the allocation of resources among our three 
business lines will be much different than it is today.
    Our research efforts will provide us with the modeling tools and 
supporting data to make these determinations. In addition, our 
profiling, studies and tests will produce new strategies that will 
successfully compete with our traditional operations. Improved access 
to data and more sophisticated analysis will enable us to select better 
workload for all our functions, making our operations more efficient 
and productive.
    Question. How does the research vision and the new research 
approach relate to the agency's strategic objectives and overall 
mission?
    Answer. The IRS Mission states that we collect the proper amount of 
tax at the least cost and continually improve the quality of our 
products and services. Closely related are our strategic objectives to 
``Increase Compliance'' and ``Improve Customer Service.'' Compliance 
Research supports these through a four-tiered prioritized strategy:
    (1) Ensure that those taxpayers who are currently complying 
continue to comply. This represents our taxpayer base; in order to 
build on it, we must ensure it doesn't erode.
    (2) Enable that those taxpayers who are trying to comply to do so. 
We must provide the tools to enable these taxpayers to comply. We 
believe an effective means for doing this is through education, 
outreach and informational notices designed for targeted populations.
    For these first two tiers, improved access to customer services and 
the quality and simplicity of our taxpayer education efforts will be 
key elements in our success.
    (3) For taxpayers who neglect or refuse to comply, our preferred 
treatment is ``upstream'' enforcement efforts initiated by telephone or 
through correspondence. The Automated Collection System, Correspondence 
Examination and Document Matching Activities have our best rates of 
return, maintain the highest productivity and are the least intrusive 
of our enforcement operations.
    (4) When these avenues are exhausted, or for those taxpayers for 
whom ``upstream'' enforcement is not appropriate, we will continue to 
maintain a leaner, better-targeted face-to-face enforcement program. 
Since these operations are the most costly, they will be reserved for 
the most egregious cases. While the rate of return is not as high as 
``upstream'' programs, the rate of return for face-to-face programs is 
still profitable.
    Question. Are there any linkages between the micro-level research 
of noncompliance among market segments and the macro-level agency goal 
to increase compliance and decrease the tax gap?
    Answer. Yes. Selection of market segments for further research is 
primarily determined by ranking their compliance (or noncompliance) 
based on, in particular, estimates of underreported tax liability. 
These estimates are obtained from various sources. Underlying most of 
these sources are the results of prior TCMP surveys. As research on 
these market segments is completed, IRS plans to implement successful 
treatments to increase compliance through its Operations Plan.
    3. In 1995, IRS postponed its Taxpayer Compliance Measurement 
Program (TAMP). Since the 1960's, TAMP has provided statistically valid 
data for use in measuring taxpayer compliance and in updating the 
discriminant function (DIF) formulas used to score returns as to their 
audit potential. The last CMP covered tax year 2988.
    Question. Without TCMP, what data does IRS have to measure overall 
tax compliance and update DIF formulas?
    Answer. Last fall the IRS contracted with an outside expert to 
review its approach to gathering compliance data and to recommend 
viable options to the traditional TCMP approach. The outside expert 
found that, in order to continue to measure overall tax compliance and 
associated tax gaps and to update the Service's DIF formulas, there is 
no substitute for the data from a TCMP-type program.
    Question. Does IRS have any plans for ways to measure overall 
compliance?
    Answer. Since the TY1994 TCMP was canceled, we have devoted 
substantial effort to investigating relevant potential options for 
capturing reliable compliance information as an alternative to TCMP. 
After considering a wide range of methodologies, we have concluded that 
there is no feasible alternative to audits of randomly selected 
taxpayers if we hope to obtain accurate measures of voluntary 
compliance. We procured the services of a consulting services firm to 
reassess the program options available to us by investigating any and 
all relevant data capture options to meet the compliance data needs of 
our stakeholders. This firm, as well, concluded that there is no 
alternative to audits of randomly selected taxpayers. However, the 
budgetary constraints which led to the postponement of TCMP continue 
and are not likely to diminish in the foreseeable future. At this point 
there are no plans to conduct a TCMP survey.
    Question. Does IRS have any plans for ways to update DIF?
    Answer. Existing DIF formulas were derived from data from the most 
recent TCMP surveys--1987 returns for corporations and 1988 returns for 
individuals. Certain revisions of DIF formulas resulting from major 
changes in the tax laws are implemented between TCMP surveys as needed 
to reflect the impact of law changes on the relative ranking of 
returns. These formula revisions are not considered updates of the DIF 
Formulas. Only data from complete TCMP examinations of randomly 
selected returns can serve as the basis for DIF formula updates.
    Question. Does IRS have any plans for ways to replace DIF with an 
objective audit selection system?
    Answer. IRS has conducted significant research on alternatives for 
developing workload selection systems as replacements for DIF and will 
continue its research efforts in this area. However, none of the 
techniques that have been identified and investigated were shown to 
perform better than, or even as well as, DIF.
    4. IRS' budget submission mentions that IRS is developing research 
programs to assist in improving its compliance operations.
    Question. Can IRS provide us with details on how these research 
activities will assist in the collection of delinquent taxes?
    Answer. IRS is actively involved in a number of research activities 
to improve the effectiveness of its collection activities. The ARDI 
Expert System, currently under development, is a ``next generation'' 
workload selection and prioritization system, the goal of which is to 
predict the disposition and collectability of accounts receivable. IRS 
has entered into a partnership agreement with the Idaho National 
Engineering Laboratory (INEL) to jointly develop a ``next generation'' 
process optimization system to begin the process of designing optimal 
work processes for accounts receivable. IRS will be announcing shortly 
a contract to acquire the assistance of outside consulting firms to 
develop workload selection systems for accounts receivable to compare 
against our internal systems.
    Question. Also, because prevention is the best way to deal with 
delinquencies in the first place, can IRS provide details on how the 
research activities will help in developing prevention programs?
    Answer. IRS has been involved in a number of research efforts to 
develop accounts receivable prevention strategies. The FTD Alert 
program is being analyzed to determine its effectiveness in identifying 
potential FTD receivable problems and resolving these problems to 
prevent a taxpayer from generating an account receivable. In the fiscal 
year 1997 Compliance Plan, we are implementing the first seven National 
Compliance Strategies, many of which have a delinquency prevention 
component. Among the most important:
  --We have identified high-income nonfilers who were brought into 
        compliance during the fiscal year 1993-94 Nonfiler Strategy and 
        have now become delinquent again. Using the data acquired from 
        these cases, our research activities will profile the 
        characteristics of these nonfilers, then develop and test 
        treatments to prevent them from becoming delinquent a third 
        time.
  --We estimate that unreported tip income approaches $9-$13 billion 
        annually. Through the use of Tip Reporting Alternative 
        Commitment (TRAC) agreements, employers put improved tip 
        reporting mechanisms in place and withhold taxes. This project 
        has been worked in some local jurisdictions for several years 
        and has been quite successful. The current effort seeks to 
        integrate Servicewide efforts under the umbrella of one 
        strategy. TRAC's reduce the need for resource-intensive, low-
        yielding tip audits.
    Question. What, if any, prevention programs have been started as a 
result of these research activities?
    Answer. All of the activities described in response S610 are 
preliminary research efforts. These studies must be completed, tested 
and implemented before any programs can be initiated.
                           dispute resolution
    1. Every year, IRS must attempt to resolve thousands of disputes 
with taxpayers over tax liabilities. Traditionally, IRS has done this 
through its Office of Appeals.
    Resolving disputes through the Office of Appeals takes a long time 
and is costly to both the IRS and the taxpayer. Since the early 1990's, 
the IRS has been attempting to implement various alternative dispute 
resolution methods to improve the cost-effectiveness of dispute 
resolution within the IRS as well as to reduce the burdens and costs 
imposed on taxpayers, particularly corporations.
    Question. How frequently has IRS used these alternative dispute 
resolution methods? What have been the specific impacts of these 
methods on the cost, time, and burden of dispute resolution and on the 
amount of tax assessments?
    Answer. ADR Program Results:
    Early Referral: The early referral process, including employment 
tax, has been used in 45 Appeals cases, involving approximately $7.3 
billion in proposed adjustments, and thus far has resulted in 
approximately $3.5 billion in agreed adjustments.
    Simultaneous Appeals/Competent Authority: Three simultaneous 
Appeals/competent authority cases have been completed. There are 
sixteen other cases in process, involving approximately $1.1 billion in 
proposed adjustments.
    Mediation: Since the inception of the mediation program, twelve 
requests for mediation have been made. Five requests were denied 
because they did not meet the mediation criteria. Two mediation cases, 
involving approximately $170 million in disputed adjustments were 
successfully resolved. This resulted in approximately $80 million in 
agreed adjustments. Five mediation cases involving about $622 million 
in disputed adjustments are in process.
    ADR Impact: The responses to our customer satisfaction surveys 
reveal that both the early referral and simultaneous Appeals/competent 
authority procedures have helped taxpayers resolve their cases more 
quickly than using the standard procedures. Also, taxpayers responded 
that they saved money by using mediation instead of having to litigate 
the issues. Appeals ADR initiatives offer prompt and less expensive 
methods for taxpayers to resolve their disputes after good faith 
negotiations have failed in Appeals or agreement cannot be reached with 
Compliance. When any of these programs enable the taxpayer and the IRS 
to reach agreement, burdens and costs to both of them are reduced.
    Appeals Process: It is important to keep in mind that most tax 
controversies are resolved through the time-tested successful Appeals 
negotiation process. In fiscal year 1996, Appeals closed 67,628 cases, 
of which more than 87 percent were agreed by both sides. We sustain 
approximately 30-40 percent of what Compliance recommends because we do 
provide taxpayers the opportunity to present their case and resolve 
cases in a fair and impartial manner. The administrative Appeals 
process is cost effective for taxpayers in relation to the alternative 
of litigating issues. If we were to add a mediator to this process, the 
costs to the taxpayer and the government would be prohibitive. Appeals 
will continue to function as a mediator for both the government and the 
taxpayer at the least cost possible. In fact, 66 percent of all the 
cases we consider are handled directly with the taxpayer, while 34 
percent employed a tax professional to represent them. While there are 
relatively few taxpayers using the ADR initiatives, these cases involve 
a significant amount of the dollars in Appeals inventory. As a result, 
Appeals ADR processes initially focused on the cases that involve the 
majority of disputed dollars coming into Appeals.
              brief description of appeals adr procedures
    Early Referral.--Early referral procedures, contained in Revenue 
Procedure 96-9, expedite Appeals consideration of key issues that are 
``unagreed'' (the taxpayer does not agree with the proposed examination 
adjustment). Appeals officers begin reviewing the unagreed issue while 
the examination of other issues continues, allowing for the possible 
settlement of key unagreed issues, and possibly closing the entire case 
in the Examination function, reducing costs for the taxpayer and the 
IRS.
    Although the early referral program was initially limited to 
Coordinated Examination Program cases, in Announcement 96-13 the IRS 
extended the early referral provisions to employment tax issues on a 
one-year test basis. Announcement 97-52 extends the test of the 
procedures for early referral of employment tax issues for an 
additional one-year period beginning on May 27, 1997.
    IRS examiners now consider the taxpayer's eligibility for 
employment tax relief under section 530 of the Revenue Act of 1978 
before initiating any examination of the relationship between a 
business and a worker. Taxpayers that disagree with the District's 
determination regarding the application of section 530 have the option 
of immediately requesting early referral of the issue from the District 
to Appeals.
    Simultaneous Appeals/Competent Authority.--Section 8 of Revenue 
Procedure 96-13 allows a taxpayer who has filed a request for competent 
authority assistance to also request simultaneous Appeals consideration 
of the competent authority issue. The procedure encourages taxpayers to 
request competent authority assistance and the participation of Appeals 
while a case is under Examination jurisdiction
    Mediation.--The IRS recently conducted a one-year test of mediation 
procedures for large cases in Appeals. Mediation is used later in the 
administrative process, after good faith negotiations have failed to 
produce resolution. Factual issues, such as valuation and transfer 
pricing issues, are appropriate for mediation.
    Announcement 97-1 extends the test of the mediation procedure set 
forth in Announcement 95-86 for an additional one-year period beginning 
in January 1997. Appeals will try mediation in more cases so that the 
program can be further evaluated.
    2. In an effort to speed up and reduce the cost of dispute 
resolution, Congress enacted a law that encouraged federal agencies to 
begin using independent third-party mediators to resolve disputes. IRS 
has offered only one dispute resolution technique involving an 
independent third party, which comes at the end of settlement efforts 
by the Office of Appeals.
    Question. Is IRS planning to introduce the use of third-party 
mediators earlier in the process, and if so, when?
    Answer. Yes, based upon current customer satisfaction survey data, 
we anticipate expanding mediation to cases or issues involving at least 
$1 million in dispute.
    The mediation procedure in Appeals was specifically designed to be 
used at the end of the administrative process, as a final attempt to 
resolve a dispute before litigation. Appeals has built a strong record 
of success through our standard techniques of dispute review and 
conferencing. Most tax controversies are resolved through the time-
tested successful negotiation process of the Appeals conference. Very 
few cases are litigated--about 1,200 in any given year. During fiscal 
year 1996, Appeals closed 149 cases where more than $10 million or more 
was in dispute. Only 15 of these cases were closed unagreed. The vast 
majority of cases are, therefore, successfully resolved without the 
need for any additional resources. The IRS' and taxpayer's cost for 
using an outside mediator is approximately $5,000 each. If we were to 
introduce mediation earlier in the process, it would only serve to 
extend the lapse time of the cases since it would be introduced prior 
to a failure of good faith negotiations. It would also add costs to the 
process, especially for the taxpayer since they would have to spend 
additional funds to mediate a case.
    Introducing mediation before good faith settlement negotiations 
have occurred, could serve to jeopardize the Appeals process. We must 
be careful to not dismantle an administrative appeals system that 
continues to serve the government well, and in our opinion is the 
premier alternative dispute resolution process in government. If the 
costs of adding additional mediators to the process were instead used 
to hire additional appeals officers, we could have an immediate impact 
on reducing lapse time. Our lapse time is a direct result of our 
efforts to work with the taxpayer to provide the necessary 
documentation and oral arguments in support of the position taken, to 
grant the government equal time to rebut the taxpayer's position or 
bolster its case, and finally to make an informed decision based upon a 
reasonable effort to obtain all appropriate documentation.
    Mediation is limited to CEP cases assigned to Appeals Team Chiefs. 
Taxpayers can use the mediation procedures in conjunction with early 
referral; however, early referral has a broader application and is 
available for all CEP cases. After early referral negotiations are 
unsuccessful, taxpayers are able to then request mediation if the early 
referral issue satisfies the mediation criteria. By combining the two 
procedures, taxpayers may be able to expedite their resolution. Appeals 
is considering expanding the mediation process to cases or issues 
involving at least $1 million in dispute.
    3. During the last few years, the IRS has developed some additional 
techniques for resolving or avoiding tax disputes that, except for one, 
do not include a third-party mediator. Most of these techniques, 
including the one involving a third-party mediator, are targeted toward 
large corporations.
    Question. When does IRS plan to develop other dispute resolution 
techniques that are targeted toward (1) other corporations and (2) 
individual taxpayers-those that can least afford a lengthy appeals 
process?
    Answer. Appeals is expanding our ADR programs as follows:
                            for corporations
    Mediation.--Appeals is considering expanding the mediation process 
to cases or issues involving at least $1 million in dispute, if an 
issue can't be resolved through either the early referral process or 
the normal Appeals process. Cases over $10 million in dispute that 
currently qualify for mediation account for only 1 percent of the 
inventory in Appeals, but 88 percent of the dollars in dispute. Cases 
over $1 million in dispute are 4 percent of the inventory, but 95 
percent of the dollars.
    Employment Tax.--Announcements 96-13 and 97-52, allow taxpayers 
whose returns are being examined to request early referral of one or 
more employment tax issue(s) from district compliance functions to 
Appeals. The purpose of early referral for employment tax issues is to 
resolve them more expeditiously through simultaneous action by the 
District and Appeals. These announcements are part of the IRS' strategy 
designed to improve employment tax administration for all taxpayers, 
including those who are small business owners. The program will be 
reviewed when the two-year test concludes in May 1998.
    International Penalties.--Appeals is considering extending the 
concept of the early referral procedures contained in Rev. Proc. 96-9, 
by providing for an expedited appeal of the following penalties: 
Internal Revenue Code Sections 6038(b), 6038A(d), 6038B(b) and 
6038C(c), which are not subject to deficiency procedures. This 
expedited referral procedure will allow taxpayers an administrative 
appeal prior to the payment of the penalty.
                            for individuals
    Bankruptcy Appeals Program.--Appeals is in the process of 
developing a dispute resolution program to assist taxpayers in 
resolving IRS-related bankruptcy disputes. Under current procedures, 
once the Collection Division takes enforcement action against a 
taxpayer, the taxpayer's recourse is often just filing for bankruptcy. 
The proposed Bankruptcy Appeals Program would provide an informal 
hearing with Collection, which, if not resolved, would then allow the 
taxpayer to move the dispute to Appeals for consideration. The issues 
that will be considered under the program will initially be limited to 
dischargeability determinations (other than when the Service asserts 
fraud under B.C. Sec.  523 (a)(1)(C)), proof of claim and 
administrative claim issues, automatic stay violation issues, off-set 
and refund issues, and preferences. The program will serve to reduce 
taxpayer burden since it will be simple to use, will process disputes 
quickly, and will give Appeals authority to reach agreements with 
taxpayers.
    Collection Appeals Program.--The Collection Appeals Program (CAP) 
started in April 1996. This program allows taxpayers to appeal lien, 
levy or seizure actions proposed by or made by the Service. Before this 
time, the only opportunity a taxpayer had to appeal these actions was 
through the Collection manager and up through Collection's chain of 
command. This is the first time in the history of U.S. taxation that an 
appeal on these Collection actions through an independent organization 
such as Appeals was possible. On January 1, 1997, appeals of 
installment agreements proposed for termination were added to the 
program. This installment agreement appeal right was provided for in 
the Taxpayer Bill of Rights 2 and the Service decided to add it to CAP.
    Any taxpayer may request an appeal. Appeals is expected to reach a 
decision on these appeals in five days. This is to ensure that 
taxpayers who are anxious for a decision will have one quickly and also 
to ensure that taxpayers who are simply trying to delay collection will 
not be able to do so.
    During the first year of CAP (through March 31, 1997), 
approximately 1600 cases were received by Appeals. Approximately 90 
cases were open in Appeals on March 31, 1997.
    Appeals Protest Form.--Appeals is developing a protest form which 
taxpayers and their representatives have told us would facilitate the 
Appeals process and assist us in reducing time, cost and taxpayer 
burden. We expect to begin testing this form in early 1998 for all 
Service Center generated correspondence examinations where the current 
process precludes a taxpayer from requesting an appeal prior to the 
issuance of a statutory notice of deficiency and the filing of a 
petition with the Tax Court. We expect the use of this protest form 
will significantly reduce the time span to resolve these cases in 
Appeals, the taxpayer costs associated with filing a petition, and the 
taxpayer burden in using the Appeals process.
    TRACES.--Appeals has initiated a review of Appeals functions and 
processes to come up with new, key performance indicators that will 
foster continuous improvement and provide improved customer 
satisfaction. These key performance indicators are known as ``TRACES'' 
and were developed for: Timely, Responsive, Accurate, Complete Service, 
Education, and Sustention Rate. These key factors focus on providing 
better products and services by reducing cycle/lapse time, providing 
prompt hearings for taxpayers and making settlements that are fair, 
impartial, and technically/procedurally correct.
    Customer Satisfaction Surveys.--Appeals conducts ongoing reviews of 
our programs through the information we receive from our customer 
(internal & external) surveys, including performance indicators for 
each program. The information from these surveys allow us to find ways 
to improve our services.
                          information systems
    IRS' fiscal year 1998 budget request includes $1.27 billion for 
Information Systems, of which $1.14 billion is for Operational 
Information Systems and $0.13 billion is for Developmental Information 
Systems. The following questions relate to that portion of IRS' 
request.
    1. Question. Although the IRS has taken some steps to correct 
management and technical weaknesses and more recently began to put the 
brakes on TSM development spending, what does IRS plan to do now to get 
the modernization back on track? Also, precisely which system 
development projects have been halted? Does this mean funds 
appropriated for these projects can be rescinded until further action 
is resumed? If not, why not? What impact does the spending halt have on 
the fiscal year 1998 request for these projects?
    Answer. The IRS has taken a number of steps in fiscal year 1997 to 
get Modernization back on track. These initiatives include, but are not 
limited to:
  --Recruitment of the Associate Commissioner for Modernization/Chief 
        Information Officer to provide the single point of authority, 
        responsibility and accountability for Modernization activities;
  --Development and implementation of a Systems Life Cycle that is 
        consistent with Military Standard 498 and best practices used 
        by world class technology firms that provide the procedures and 
        controls required in large scale development efforts;
  --Establishment of the Government Program Management Office to serve 
        as the nexus for Modernization activities and provide day to 
        day management of contractor and IRS development staff;
  --Review of fiscal year 1997 active projects, resulting in the 
        Investment Review Board approval to eliminate and/or 
        consolidate twenty-six projects down to the technically 
        feasible and maintainable nine;
  --Development and timely issuance of the Modernization Blueprint, 
        which serves as the baseline for Modernization and includes the 
        Business Requirements, Functional and Technical Architecture 
        and Sequencing Plan for a phased implementation; and
  --Recruitment of ten senior technology executives to strengthen and 
        improve the overall management of modernization efforts, 
        including management of contractors.
    The systems development projects that were halted include the 
Corporate Accounts Processing System (CAPS), Workload Management System 
(WMS), Document Processing System (DPS) and the Integrated Case 
Processing System 2.0 (ICP). The review of all projects was completed 
in March 1997.
    The funds that had been allocated to these projects in fiscal year 
1997 would be applied to continuing initiatives including Telefile, 
Inventory Delivery System and National Call Routing.
    All projects that remain active are characterized as Stay in 
Business initiatives and are included in the fiscal year 1998 budget 
request. Failure to fund these initiatives in fiscal year 1998 would 
have significant impact on the Business organizations.
    2. Because of IRS' poor track record in developing automated system 
software, Treasury and IRS plan to rely more on private sector software 
development contractors. For example, Treasury is drafting a request-
for-proposal for a ``prime contractor'' to perform and oversee all TSM 
software developmental efforts. In addition, IRS recently provided a 
plan to the Congress outlining how IRS planned to shift more system 
development tasks to private sector contractors. However, IRS has not 
had a good track record in managing contractors as evidenced by IRS' 
recent attempt to use contractors to acquire Cyberfile, which resulted 
in IRS spending over $17 million without fielding any of the system's 
promised capabilities.
    Question. What is IRS doing to ensure it has the capability to 
effectively manage software development contractors?
    Answer. The IRS has consolidated the management of all contractor 
activity into the Government Program Management Office (GPMO) which 
reports to the Associate Commissioner for Modernization/Chief 
Information Officer. This Office will manage the Modernization program 
and be staffed primarily by contractor technical management.
    The GPMO has been instrumental in building the ``team readiness'' 
that will be required for the IRS to be a successful partner in 
Modernization, including development of the framework required for 
management of contractors. Actions taken in fiscal year 1997 include 
but are not limited to:
    1. Systems Life Cycle which is based on Military Standard 498 and 
consistent with best practices employed by world class technology 
institutions. It is through the SLC that accountability, authority and 
responsibility will be assigned to all facets of the IRS and contractor 
community for system development activity. The day to day management of 
SLC activities is the responsibility of the GPMO. The Systems Standards 
and Evaluation Office (SSE), reporting to the CIO, is responsible for 
on-going monitoring and evaluation of conformance to the SLC.
    2. Modernization Blueprint which defines the Business Requirements, 
Functional and Technical Architectures and Sequencing Plan for a phased 
implementation. The Blueprint was developed in partnership with the IRS 
Integration Support Contractor (ISC).
    The Blueprint is defined through Level II of a four level 
architectural framework and serves as the baseline for future 
contractor development efforts. Responsibilities for Level III and IV 
are as follows:
  --Level III to be performed by either the IRS and ISC (Phase I of the 
        Sequencing Plan) or the PRIME Integration Services Contractor, 
        managed by the IRS (Phase II-V of the Sequencing Plan).
  --Level IV to be performed by sub-contractors and managed by the 
        PRIME.
    3. Request for Comments (RFC) for Modernization Prime Systems 
Integration Services Contractor (issued in conjunction with the 
Blueprint) to enter into a strategic partnership with a PRIME 
Integration Services Contractor to undertake a major Modernization with 
the IRS.
    Among the criteria for acquisition of the PRIME is the requirement 
that the PRIME maintain a software acquisition CMM Level 3 
Certification or mutually agreeable equivalent standard. This 
capability will ensure that the management and development processes 
required to undertake an initiative of this size, including the 
management of sub-contractors, are in place .
    Question. What assurance can IRS provide the Congress that 
contracting out will result in delivery of promised system capabilities 
on time and within budget?
    Answer. The IRS does not have the internal capability to complete 
Modernization alone, nor does the contractor community have the 
capability to complete Modernization alone. It is through a public/
private partnership that the IRS will leverage the expertise of both 
the government (e.g., knowledge of the existing systems) and the 
contractor community (e.g., technical design and build capabilities) to 
provide the capabilities required.
    There are three critical organizational entities with 
responsibility for ensuring investments in information technology are 
sound and that development is proceeding within budget and schedule 
parameters:
    1. Investment Review Board--Investment decisions would follow the 
Systems Life Cycle (SLC) development approach adopted by the IRS 
Executive Committee in November, 1996. This approach requires 
completion of business requirements, engineering analysis, and a 
business case documenting costs, benefits and risks associated with 
each proposal consistent with ITMRA and ``RAINES'' Rules. These steps 
must be completed prior to funding decisions by the Investment Review 
Board. The IRB consists of both IRS and Treasury executive management.
    2. The SLC provides for a Modernization Management Committee (MMC), 
chaired by the Associate Commissioner for Modernization/Chief 
Information Officer, responsible for reviewing budgetary and schedule 
issues that would not normally be handled by the IRB. These reviews 
would be supported by the GPMO Program Management and Control Division, 
responsible for managing and monitoring the Modernization Management 
Plan.
    3. The Department of Treasury IRS Management Board and the Treasury 
Investment Review Board have oversight responsibility for IRS 
information technology investments. It is through these boards that the 
Department evaluates major IRS initiatives (e.g., PRIME Request for 
Comments, Modernization Blueprint) and monitors program performance.
    3. The Administration has proposed creating an Information 
Technology Investments Account and funding it with $1 billion--$500 
million to be appropriated in fiscal year 1998 and another $500 million 
in fiscal year 1999. The goal of creating such accounts is to ensure 
that agencies request full funding in advance for the entire cost of a 
capital project so that the full costs are known at the time decisions 
are made to provide resources. In establishing these accounts, the 
Office of Management and Budget requires that 1) the capital assets 
support the agency's mission, and 2) the assets have demonstrated a 
projected return on investment (ROI) that is clearly articulated.
    Question. What investment does IRS plan to make with the $1 
billion? How did IRS develop the justification for the $1 billion, and 
what are the ROI's for each of the planned investments?
    Answer. On May 15, 1997, the IRS completed the Modernization 
Blueprint, Architecture and Sequencing Plan. Business Cases for the 
Modernization Blueprint, Phase I are scheduled to be completed in 
October 1997. The $1 billion represents an advance-funded account. This 
funding will allow the IRS and the selected Prime Contractor to 
complete the detailed planning for the next phase of Modernization.
    Question. How will these investments support the agency's mission?
    Answer. The Modernization Blueprint will focus on the development 
of accessible, secure and authoritative Corporate Data Systems which 
will support improved customer service. Before funds are expended on 
these investments, the Investment Review Board will ensure that the 
projects have been reviewed and the results indicate that the projects 
are consistent with the Clinger-Cohen Act.
    Question. What are the ROI's for each of the planned investments?
    Answer. The business cases for Modernization Blueprint, Phase I to 
be completed in October 1997 will include ROI analyses.
    Question. How does IRS know what its investments and associated 
costs are when re-engineering, business, architecture, and sequencing 
plans, which will guide IRS' modernization efforts, have not yet been 
completed?
    Answer. We don't yet. On May 15, 1997, the IRS published its 
Modernization Blueprint, which contains the business requirements, 
architecture, technical standards and sequencing plans. These data in 
addition to Phase I Level III analysis to be completed in September, 
1997, will be utilized to develop business cases including budgets, 
schedules and deliverables.
    Question. How do Information Technology Investment Account projects 
differ from those being funded with the $1.28 billion in the fiscal 
year 1998 request for the development and operation of IRS information 
systems?
    Answer. With the exception of the $130.1 million Development and 
Deployment component of the fiscal year 1998 budget, the $1.28 billion 
request is dedicated to Legacy, Operational TSM, Stay in Business and 
Modernization Program Infrastructure expenses. The Development and 
Deployment account will fund those Modernization projects which were 
reviewed and approved by the Investment Review Board. The ISIA account 
would also fund Modernization efforts.
    4. In July 1995 and again in June 1996 and September 1996, GAO 
identified and reported serious weaknesses with IRS' information 
technology investment management process. GAO's bottom line was that 
IRS did not have an effective process for ranking, prioritizing, and 
selecting its information technology investments.
    Question. In light of GAO's finding, please explain how IRS 
developed the $1.3 billion being requested for information systems in 
fiscal year 1998. What assurance does Congress have that in developing 
this request, IRS ranked, prioritized, and selected those projects that 
will best meet IRS' mission needs?
    Answer. With the exception of the $130.1 million Development and 
Deployment component of the fiscal year 1998 budget, the $1.27 billion 
request is dedicated to Legacy, Operational TSM, Stay in Business and 
Modernization Program Infrastructure expenses. The Development and 
Deployment account is based on business priorities in rank order as 
follows: Submission Processing; Customer Service; Compliance; and 
Administrative Systems.
    5. For fiscal year 1997, Congress appropriated $89.4 million for 
various activities, such as the Government Program Management Office, 
the Modernization Management Board, Systems Life Cycle Development, 
Architecture Development, Reengineering Studies, and Engineering 
Infrastructure.
    Question. Please provide a description of how the funding of each 
of these activities has been spent and what results are expected by the 
end of fiscal year 1997.
    Are each of these activities expected to continue in fiscal year 
1998? If so, what is the expected funding level, and what is the 
justification for continued funding for each of these activities? For 
example, how has the $5 million for reengineering activities been spent 
in 1997, and how will these activities be continued in 1998?
    Answer. The $89.4 million associated with these activities has 
provided the following results:
    Answer. The $89.4 million associated with these activities has 
provided the following results:

1. Government Program Management Office (GPMO): During fiscal 
    year 1997 this Office has been established and consists of 
    two Divisions; Architecture, Engineering and 
    Infrastructure and Program Management and Control. 
    Additionally, Project Offices have been established to 
    manage the implementation of technology investments for 
    Modernization. This office is responsible for ensuring 
    that the program infrastructure that is necessary for the 
    IRS to move forward with Modernization is in place 
    concurrent with the award of the PRIME Integrated Support 
    Services Contract (10/98).
    Key deliverables provided in fiscal year 1997 include, but 
    are not limited to: Development of the Systems Life Cycle 
    (SLC); Development of the Modernization Blueprint; 
    Establishment of the Program Office including 
    identification of programmatic interfaces with all IRS 
    organizations; Integrated oversight of all contractor 
    activities; Implementation of the SLC for Stay in Business 
    project offices; Development of a training plan for 
    project managers; Development of the Business Case for 
    Phase I of the Modernization Blueprint Sequencing Plan; 
    Development of the processes/procedures to implement 
    Legislative requirements (e.g., ITMRA, GPRA); Creation and 
    implementation of the Project Disposition Review to 
    provide for the inactivation of projects deemed not viable 
    technically, programmatically, etc. (e.g., Integrated Case 
    Processing 2.0); and Development of a Request for Comment 
    (RFC) for the PRIME Integration Support Services 
    Contractor................................................   $28.047
2. Modernization Management Board (MMB): The MMB has been 
    established as the focal point for review and approval of 
    significant IRS information technology and business 
    initiatives. The Board is convened on a monthly basis and 
    there is consistent interaction between the MMB staff and 
    the IRS. The MMB has been responsible for approval of such 
    items as the Modernization Blueprint, the Feasibility for 
    Outsourcing Submissions Processing and the Request for 
    Comment for the PRIME Integration Support Services 
    Contractor................................................       2.0
3. Systems Life Cycle (SLC): The development of the SLC is 
    being managed through the GPMO in partnership with the 
    IRS' Integration Support Contractor (TRW). To date, all 
    major processes have been defined and the SLC is being 
    used for project development activities (in a controlled 
    environment). By the end of fiscal year 1997, it is 
    anticipated that a training strategy will be in place to 
    deploy the SLC across the IRS, concurrent with the onset 
    of Modernization design activities........................     8.210
4. Architecture Development: The Modernization Blueprint, 
    which consists of the Business Requirements, Functional 
    and Technical Architecture and Sequencing Plan for a 
    phased implementation was developed and provided to 
    Congress on schedule on May 15, 1997.
    Activities for the balance of fiscal year 1997 include the 
    development of the Level III requirements and Technical 
    Architecture as well as the completion of the Business 
    Case for Phase I of the Sequencing Plan...................    17.844
5. Reengineering Studies: Through participation of the 
    Integration Support Contractor (TRW) reengineering 
    activities with the business are on-going.
    The $5 million requested in fiscal year 1997 for 
    reengineering activities through Tax Settlement 
    Reengineering is not being requested in fiscal year 1998. 
    Business reengineering activities in fiscal year 1998 will 
    be consistent with the Architectures (Functional and 
    Technical and the Sequencing Plan) as defined in the 
    Modernization Blueprint.
    Additionally, reengineering played a significant role in 
    the creation of the 3,500 Business Requirements contained 
    in the Modernization Blueprint............................       5.0
6. Engineering Infrastructure: The Engineering Infrastructure 
    has been established through the creation of the 
    Architecture, Engineering and Infrastructure Division 
    within the GPMO. This Division has provided significant 
    input in developing the Modernization Blueprint target 
    infrastructure, including the security infrastructure to 
    be developed as part of Phase I of the Sequencing Plan....    22.838
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    83.939

    With the exception of Tax Settlement Reengineering, all of these 
activities are expected to continue in fiscal year 1998 to ensure 
readiness for Modernization activities (as indicated above), including 
contractor support (i.e., ISC/SETA) and Modernization Infrastructure 
investments (i.e., Tax Return Data Base conversion).
    6. In fiscal year 1997, Congress appropriated $61 million for 
downsizing the Information Systems staff by about 900. It appears that 
most of the reductions, especially in the National Office, have 
occurred through attrition rather than through RIF's and buyouts.
    Question. If IRS will not have to RIF or buy out as many 
Information Systems staff as expected, is it fair to assume that IRS 
will not need all of the $61 million appropriated for that purpose? If 
so, how much will IRS need, and how will the rest of the $61 million be 
used?
    Answer. No--IRS will need the money for other purposes. Originally, 
IRS had proposed using $61 Million for RIF's of IS personnel. A RIF 
will no longer take place in fiscal year 1997. Of the original $61 
Million, IRS has proposed transferring $25 Million of those funds to 
pay for unbudgeted needs in the Year 2000 Project. The residual $36 
Million is being used to pay for various costs related to FTE 
reductions, including partial year salaries, and costs relating to 
voluntary separations and buyouts.
    7. Question. Is IRS experiencing funding shortfalls for any 
information systems or Information Systems program activities that will 
require reprogramming of funds from other sources for fiscal year 1997, 
and does IRS' fiscal year 1998 budget account for this?
    Answer. Yes, IRS is experiencing funding shortfalls in three 
critical areas in fiscal year 1997: Year 2000 Conversion, Distributed 
Input System/Remittance Processing Systems (DIS/RPS) Replacement, and 
Data Center Consolidation. These needs, along with continued increasing 
operational costs and continued progress on Modernization preparedness, 
have caused the IRS to reconsider Information Systems needs and 
priorities for fiscal year 1998. Summarized below are the results of 
this assessment compared to the budget request.

                          [Dollars in millions]                         
------------------------------------------------------------------------
                                                Estimate of             
             Priority                 Budget    needs as of    Over (+) 
                                     request     June 1997    under (-) 
------------------------------------------------------------------------
Operational Systems..............       $936.6       $978.0       +$41.4
Stay in Business:                                                       
    Year 2000 Conversion.........         84.9        170.0        +85.1
    Data Center Consolidation....  ...........        157.7       +157.7
    DIS/RPS Replacement..........         44.0         51.9         +7.9
    Quality Assurance Testing....          7.1         14.3         +7.2
    Examination Laptop                                                  
     Replacement.................          8.0          8.0  ...........
    Interim Revenue General                                             
     Ledger System...............          5.1          5.1  ...........
Modernization:                                                          
    Modernization Program                                               
     Management..................         27.5         36.5         +3.8
    Modernization-Infrastructure                                        
     Investments.................         28.3         32.1         +3.8
Business Line Investments........        130.9         49.5        -81.4
                                  --------------------------------------
      Total Information Systems..      1,272.4      1,503.1       +230.7
------------------------------------------------------------------------

                    operational information systems
    1. The fiscal year 1998 budget requests an increase of $4 million 
for quality assurance.
    Question. What has IRS budgeted for and actually spent on quality 
assurance in fiscal year 1996 and 1997?
    Answer. In fiscal year 1996: The Product Assurance Division was 
allocated 267 FTE and a combined total of $3,016,000 in funds for 
travel, overtime, ADP, etc.
    Actual use in fiscal year 1996 was: 267.8 FTE and a total of 
$2,294,570 in funding. The unused portion represents funds not used 
because of a delay in the implementation of the Integrated Test and 
Control Center (ITCC).
    In fiscal year 1997: The Product Assurance Division was allocated 
351 FTE and a combined total of $4,055,662 in funds for travel, 
overtime, ADP, etc.
    Projected use through the end of the fiscal year is: 271.9 FTE and 
$4,431,849 in funding. The division shows shortages in travel, overtime 
and training. These are projected shortages and the actual will differ.
    As noted above, the Product Assurance Division was allocated 351 
FTE in fiscal year 1997 but will actually use 271. A recruiting process 
began in October 1996 in an effort to attract new employees to the 
division. Announcements for testing analyst jobs at all grade levels 
were posted in the field and National Office. To date, the division's 
recruitment effort (through the competitive process) has attracted 57 
new testing analysts.
    Question. How far will the $4 million increase in fiscal year 1998 
bring IRS toward its goal of ``full systemic testing of all tax 
processing systems by January 1, 1999?''
    Answer. According to industry standards, the cost of Systems 
Acceptability Testing should be 30-45 percent of total life cycle 
resources. At the end of fiscal year 1996, the Product Assurance 
Division testing staff represented 10 percent of the life cycle 
resources. The Division is currently at 12 percent--the goal is 30 
percent. The $4 million will allow the Division to hire and relocate 
approximately 65 IRS field personnel which will bring the testing 
resources to 15 percent of the total life cycle resources.
    Question. What additional resources are required for testing 
changes to systems as a result of the century date change (year 2000) 
problem?
    Answer. The Product Assurance Division has requested $17.1 million 
in funding for contractors and other support in fiscal year 1997 and 
$10.2 million in fiscal year 1998. This funding is a component of the 
Year 2000 request.
    Question. Has IRS budgeted for this effort out of it's base level 
quality assurance budget?
    Answer. No, this funding is a component of the Year 2000 request.
    Question. If so, how much has been budgeted for fiscal year 1997 
and 1998?
    Answer. Product Assurance Division requires base staffing of 506 to 
do full System Acceptance Testing. For fiscal year 1997 and fiscal year 
1998, Product Assurance did not increase base needs to perform Y2K 
testing. Product Assurance utilized 46.2 FTE of existing staffing for 
Year 2000 testing. This is in addition to contractor needs. When Y2K 
testing is complete, the 46.2 FTE will revert back to full systemic 
testing as part of the 506 FTE.
    2. IRS' budget request includes an increase of $39 million for the 
year 2000 problem, which is on top of the $45 million allocated to that 
effort out of base funds.
    Question. IRS' budget request includes an increase of $39 million 
for the year 2000 problem, which is on top of the $45 million allocated 
to that effort out of base funds. How does the IRS plan to spend the 
$84 million?
    Answer. The current IRS fiscal year 1998 budget requirement for 
Year 2000 (Y2K) is $170 million. This is made up as follows:

Conversion and Testing Staff Costs......................     $59,000,000
Telecommunications......................................      15,000,000
ADP Equipment...........................................      13,000,000
COTS (mostly Operating Systems) Software................      17,000,000
Y2K Project Office/Program Management Support...........       9,000,000
Year 2000 Certification (Product Assurance).............       7,000,000
Plus contingency amount (expected increases) of.........      50,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total fiscal year 1998 Budget Requirement.........     170,000,000

    Conversion, testing and certification costs will guarantee the 
accuracy and completeness of system changes prior to production; ADP 
equipment, software and telecommunications costs will replace currently 
non-compliant inventory; and the contingency amount of $50 million is 
based on the following:
  --In many areas the IRS is still in the early stages of analyzing the 
        impact of the year 2000. The IRS may uncover significant 
        requirements in the future, such as systems which need major 
        overhauls to be made Y2K compliant.
  --There is still much uncertainty as to what can be expected when we 
        exchange Y2K data with external trading partners. This is 
        particularly risky because the IRS has limited knowledge and no 
        control over what processing and systems the partners use to 
        create the data (format is only one factor). The IRS is working 
        diligently to reduce these risks.
  --The evaluation of the telecommunications systems is not yet 
        complete. Recently, $8 million in new telecommunications 
        requirements was validated; additional needs/amounts may yet be 
        identified.
  --Analysis on minicomputers and personal computers is still underway, 
        particularly the systems that support business owned and 
        locally developed applications. The IRS is concentrating on 
        applications software first and then systems software/
        Commercial-Off-the-Shelf (COTS) and hardware to determine which 
        upgrades are needed. The IRS expects that significant upgrades 
        will be required in these categories Service-wide but dollar 
        estimates are not yet available. The areas of greatest concern 
        for these systems are: (1) the need to upgrade to Y2K compliant 
        systems software/COTS releases; (2) older hardware that cannot 
        run with the newer Y2K compliant software and must either be 
        upgraded or replaced; and (3) potential capacity requirements.
    Question. Given that many of the costs associated with year 2000 
conversion have not yet been determined and that most of the conversion 
must be completed by the end of 1998, what alternative sources of 
funding will IRS turn to if additional funds are needed?
    Answer. There are very limited alternative sources of funding. One 
known source is the reprogramming of Modernization (Development & 
Deployment) no-year and multi-year funds from fiscal years 1990, 1991, 
1993, 1995, and 1996 (totaling $44 million) which are still available. 
Additional funding requests may be submitted to the Investment Review 
Board and Congress.
    Question. How much funding is currently available for reprogramming 
to support the Year 2000 effort? Where would the IRS take the 
reprogramming funds from?
    Answer. As part of its fiscal year 1997 Appropriation, the IRS has 
$45 Million available for the Year 2000 effort and $7 Million available 
for the Data Center Mainframe Consolidation. In addition, $85 Million 
was requested in fiscal year 1998 for the Year 2000 effort. We are 
planning to reapply $36 Million of fiscal year 1997 Information Systems 
funds and we hope to be able to transfer $44 Million in additional 
funds from prior Information Systems no-year funds and multi-year 
accounts. These actions would help to alleviate our fiscal year 1997 
funding shortfall.
    For fiscal year 1998, we have identified our unbudgeted needs for 
Year 2000 totaling $258 Million, including:
  --$85 Million for Year 2000 to bring corporate systems into Year 2000 
        compliance and avoid risking filing season failure and also to 
        achieve telecommunications and field hardware compliance.
  --$15 Million for DIS/RPS Replacements and to strengthen quality 
        assurance by increasing testing of annual programming changes 
        before production releases.
  --$158 Million for Data Center Mainframe Consolidation which helps 
        ensure Year 2000 Compliance, increases operational 
        efficiencies, improves safeguards for taxpayer privacy and 
        disaster recovery capability, and positions the IRS for the 
        subsequent implementation of the modernization architectural 
        blueprint.
    Question. Does IRS believe that it can address the Year 2000 
problem within current funding levels without seriously impacting other 
areas of its operations?
    Answer. No. Without additional funding there would be severe 
impacts on operational systems support and conceivably necessitate the 
diversion of resources from Processing, Assistance and Management and/
or Tax Law Enforcement programs.
    Question. Has the IRS considered the need for a supplemental budget 
request for fiscal year 1998 for the Year 2000 effort? Have you 
identified an offset for this supplemental request?
    Answer. The IRS is still evaluating its total budget requirement 
for the Year 2000 project. Until we know what our funding level for 
fiscal year 1998 will be, and we determine the total costs for the Year 
2000 effort, we do not know if we will need a supplemental request.
    Question. In addition to the specific funding request for the year 
2000 conversion, are other costs associated with that effort imbedded 
in other parts of IRS' Information Systems budget request? If so, how 
much?
    Answer. In fiscal year 1997, $13 million of labor (approximately 
200 FTE's) is being diverted from the IS legacy systems base. The IRS 
expects that this diversion will be needed in fiscal year 1998.
    Question. For example, wouldn't replacement of the Distributed 
Input System, for which IRS is seeking funds in 1998, help to resolve 
part of IRS' year 2000 problem?
    Answer. Yes, because components of this system are not, and cannot 
be made, Year 2000 compliant.
    Question. IRS' Information Systems organization has apparently 
experienced significant attrition in the past few months and a planned 
RIF will apparently further reduce Information Systems staffing, 
especially in the field offices. How are attrition and the planned RIF 
affecting/going to affect the year 2000 effort especially if we assume 
that many of those leaving IRS are persons who would be most 
knowledgeable about the systems needing conversion?
    Answer. Experienced Information Systems (IS) professionals in all 
areas are in enormous demand to solve Y2K problems. An IRS RIF of IS 
staff would be counterproductive. It will exacerbate our Y2K problem. 
The IS industry is moving in the opposite direction from the IRS. It is 
expanding its IS professional staff in order to solve the Y2K problem.
    The IS organization has experienced significant attrition in the 
past few months due in part to the threat of a RIF. Experienced 
programmers have transferred to other federal agencies or left federal 
service to earn higher salaries in the private sector, often working on 
the Year 2000 problem. This continues to be a problem that could 
seriously impact the Service's ability to complete its Year 2000 
conversion. The Service has adopted a number of approaches to leverage 
its remaining experienced programmers. Assembler language programming 
classes have been provided to cross train programmers and analysts. 
Working under the guidance of IRS programmers, contractors have been 
hired specifically for Year 2000 conversion efforts. Recently, in an 
effort to retain its skilled employees, the Service announced a number 
of its vacancies for Grade 13 technical and team leader positions. This 
may result in promotions for the selected IRS employees and encourage 
some employees to remain with the IRS.
    3. In the past, IRS has been criticized for not having the 
information needed to be able to show the additional taxes assessed and 
collected as a result of its enforcement programs. IRS has been 
implementing the Enforcement Revenue Information System (EGIS) to 
provide information on tax assessments and collections as well as other 
information. IRS' fiscal year 1998 budget request for Operational 
Information Systems includes a program increase of $7 million for 
legacy systems, part of which is for EGIS.
    Question. How much of the $7 million is for ERIS and what, 
specifically, will the money be used for?
    Answer. The ERIS budget request for fiscal year 1998 is $6.08 
million. This amount is for: 1) outsourcing of data processing ($3.2 
million); 2) funding software integration and maintenance to conform to 
the six data source (feeder) systems, implementing calendar year 2000 
compatible software, and providing key data enhancements to better 
track and report enforcement results ($1.79 million); 3) continuing 
independent contractor software testing and certification ($1.0 
million); and 4) providing hardware maintenance, magnetic media, data 
transfer and other support ($90K).
    Question. How reliable are the data being entered into ERIS? What 
problems, if any, exist with the ERIS data?
    Answer. We believe ERIS to be highly reliable. This conclusion is 
based on two recently completed GAO reviews of ERIS processing and data 
that, based on oral reports from GAO, have identified no significant 
problems with ERIS. A third review of ERIS is underway as a part of the 
GAO financial review of IRS. In addition, all recommendations of 
earlier Internal Audit reports have been incorporated into ERIS.
    Although we are not aware of any problems with ERIS data, the 
project office continues to monitor and update the software for any 
changes to the feeder systems. Along with the rest of the IRS, ERIS is 
actively working to ensure that any issues associated with Calendar 
Year 2000 are dealt with in advance of the time when ERIS data will be 
impacted.
    Question. How, if at all, does IRS use ERIS data to assess the 
relative return on investment of its different enforcement programs and 
to allocate resources among those programs? If ERIS data are not being 
used in that way, why aren't they?
    Answer. IRS uses ERIS data to predict actual dollars collected 
based on Examination recommendations and to eliminate double counting 
of revenue between functions (e.g., dollars collected by Collection 
from an Examination case). However, ERIS only captures direct revenue 
collected. IRS resources are only partially allocated on the basis of 
direct revenue to cost. IRS adjusts allocations to account for the 
likely indirect effect of the various enforcement programs.
    Question. In response to a question last year, IRS said that it 
planned to use data on enforcement collections from ERIS in an 
enforcement resource allocation model that IRS was developing. What is 
the status of the model and when does IRS plan to begin using it to 
allocate resources?
    Answer. IRS has developed a simplified model to assist in 
allocating resources among Examination, Collection, and the Information 
Returns Program. Using an iterative process, this model allocates 
resources based on the estimated marginal yield to cost ratio. The 
methodology incorporated in this model is to allocate resources in each 
iteration to the function that is able to collect the most revenue at 
the least cost. ERIS data is used to enable the Service to convert 
Examination recommendations and underreporter assessments to actual 
dollars eventually collected.
    While this simplified model has been used in conjunction with the 
workload planning process, it has not been used as the exclusive 
determinant in allocating resources for several reasons. It does not 
allocate to all Compliance functions; Criminal Investigations, 
International, and EP/EO are excluded. The model also is limited to 
direct revenue collected; any indirect revenue or protected revenue 
(i.e., monies which IRS prevents from being improperly refunded) is not 
included in the model. The model is static in the sense that it 
allocates resources one year at a time; the multi-year, cross 
functional effects of resource allocation decisions are not included. 
Finally, the model does not allocate resources geographically.
    To address these limitations, IRS has begun to design a replacement 
model. The objective of this model is to maximize long term net tax 
revenue (both direct and indirect) subject to expected available 
funding. IRS has completed draft high level system design.
                request for comments, modernization plan
    On may 15, 1997 the IRS issued a Request for Comment (RFC) on its 
initial plan for acquiring the Prime contractor for its new 
modernization effort. The RFC's key theme is a partnership between IRS 
and the private sector.
    A partnership principle proposed ``mutually beneficial financial 
arrangements based on shared capital investment and shared risk'' 
(p.55). Part of that risk includes the private sector assuming front-
end capital investment, in exchange for certain undefined reward.
    Question. What do you consider to be an appropriate up-front 
capital investment by the private sector?
    Answer. The Request for Comments (RFC) for a PRIME Systems 
Integration Services Contractor, issued on May 15, 1997, proposes that 
contractors make available no less than $200 million of working 
capital.
    Question. How will the performance reward metrics be determined?
    Answer. It is anticipated that the private sector, through 
interactive technical conferences with the IRS scheduled between May 
15, 1997, and August 15, 1997, will provide feedback regarding the 
desirability and feasibility of incorporating a performance based 
contract approach, which applies performance metrics, in the final 
draft PRIME RFP scheduled for issuance no later than October 1, 1997.
    At this time, it is planned that systems outcome measures (to be 
derived from the Modernization Blueprint, Phase I, Level III analysis) 
would be included in the final draft RFP and that PRIME offerers would 
comment on these measures. Such comments would be considered in 
completing the final PRIME RFP to be issued on December 1, 1997. It is 
also anticipated that the final elements of the performance based 
contract and associated metrics would be negotiated after contract 
award with the successful PRIME offerer.
    Question. What parallel risks and/or changes will be made at IRS to 
meet the private sector investment--or will we continue to see business 
as usual?
    Answer. Given the massive size and scope of Modernization, success 
would be dependent on an effective public/private sector partnership, 
with the interdependencies of both parties defined, planned and 
scheduled.
    Thus, to mitigate risk, it would be essential for both the public 
and private sector parties to honestly and candidly assess the needed 
capacity and capabilities of each and develop Modernization plans, 
solutions and budgets which reflect such capabilities.
    For our part, the Associate Commissioner for Modernization/Chief 
Information Officer (ACM/CIO) has testified repeatedly that the IRS 
would not commence Modernization until it possessed the requisite 
capacities and capabilities. The ACM/CIO has testified that 
Modernization ought not begin before fiscal year 1999.
    During this interim period, the IRS must develop and deploy the 
essential ``best practices'' recommended by the GAO in 1995. Toward 
that end, the ACM/CIO is completing the recruitment of ten executive 
technical managers and has formed a Systems Standards and Evaluation 
Office to oversee Modernization. Len Baptiste, formerly a GAO senior 
manager, has been recruited as Director of the Office. While much needs 
to be done, significant progress has been made during the past year to 
implement the GAO recommendations.
    In addition to developing the requisite capacities within the IRS, 
the Department of the Treasury, pursuant to the President's Executive 
Order, has formed the IRS Management Board to provide agency 
oversight--particularly with respect to Modernization.
    Question. According to the RFC the Prime contract is to last for 
three years, does the IRS believe that the private sector can forge a 
strong business relationship and recoup its up-front capital investment 
with the IRS within that short time frame?
    Answer. Modernization will be managed in a manner that is 
consistent with the tenets of the Clinger-Cohen Act including 
incremental systems development and deployment.
    It is planned that the initial increments would be implemented 
within the initial three years of the contract with the aim of 
minimizing risk and quickly assessing the effectiveness of the PRIME/
IRS Modernization partnership. Early, incremental implementation also 
would enable the PRIME and applicable subcontractors to recover a 
portion of the ``up-front'' investment.
    It should also be noted that the IRS may extend the three year 
contract period in the final PRIME RFP based, in part, on industry 
feedback concerning the RFC. Further, the RFC currently provides for 
twelve (12) one year renewal periods, thereby providing for a potential 
fifteen year PRIME contract term.
    Question. What if the Prime fulfills its contractual obligations 
during the three year period, yet the IRS does not see any cost savings 
or return on investment, how will the Prime then be compensated?
    Answer. In general, ``performance based'' contracts provide for 
mutual agreement between the contractor and the customer concerning 
measurable outcomes of a systems implementation. Put another way, the 
contractor's compensation is dependent on not only implementing a 
system but also ensuring that the system performs in accordance with 
the pre-defined measurable systems outcomes.
    Applying these principles to the IRS, if the contractor ``. . . 
fulfills its contractual obligations . . .'' the IRS would realize the 
expected ``. . . cost savings or return on investment . . .'' and, in 
turn, the contractor(s) would be appropriately compensated.
    The specifics of the PRIME/IRS contractual relationship, however, 
would be dependent on the RFP requirements, the winning contractor's 
proposal and the post award contract negotiation.
    Question. As the private sector begins to absorb work now being 
performed by the IRS, what staffing changes will be made? Will FTE's 
remain at current levels, or will there be a significant reduction in 
staff as a result of more work going to contractors? How will the IRS 
accommodate any FTE reductions in this area?
    Answer. We don't anticipate significant staffing changes to be 
made. The IRS has lost staff through attrition or has redeployed staff 
to key legacy needs, including century date conversion and DIS/RPS 
Replacement; and is expanding its ability to test tax processing 
programming changes. In fact, during the period of fiscal year 1998-
2000 added resources are needed for: Year 2000 Conversion (Y2K); Data 
Center Consolidation; Product Assurance build up; Modernization build 
up; DIS/RPS Replacement; Security systems; and Tax Law changes.
    Therefore, the IRS Information Systems (IS) organization cannot 
accommodate any FTE reductions if we are to accomplish the above, 
implement the Systems Life Cycle (SLC) and build a Capability Maturity 
Model Level III program. Downsizing decisions on IS should be deferred 
until 2000 when the impacts of the completion of Y2K and the initial 
savings from Data Center Consolidation are realized. Programmatic 
efficiencies from Modernization ought not be expected earlier than 
2001. Downsizing Business operations prior to 2001 is premature.
    The IRS has already shifted more than 60 percent of the IS 
resources to the private sector. Further, with respect to Modernization 
Development and Deployment, the IRS has already reduced the IRS FTE's 
from 524 to 136.
                          new budget structure
    In the fiscal year 1998 request, IRS is proposing a new budget 
structure with three new categories: (1) Processing, Assistance, and 
Management, (2) Tax Law Enforcement, and (3) Information Systems.
    Question. Although this may be more in line with what IRS is trying 
to do management-wise, there is concern that this new structure makes 
it harder for Congress to track how IRS is spending taxpayer funds. 
Please comment.
    Answer. The proposed changes in the IRS' budget activities make 
very good business sense. The new activities more closely align the 
budget activities with the major business lines, facilitate receiving a 
clean audit opinion, create a separate account for capital investment, 
and provide maximum flexibility in balancing programs. The new 
activities are just as easily trackable as the previous ones. The new 
budget categories are still covered by the same restrictions regarding 
inter-appropriation transfers and transfers in and out of budget 
activities. IRS will still follow the same GAO and Congressional 
guidelines in reporting and monitoring our progress with the budget 
activities.
    Furthermore, the GPRA has directed government agencies to define 
performance measures and establish performance targets. The new budget 
activities have performance measures which are easily trackable. IRS 
will annually report on actual versus planned performance results.
    Question. Another concern is that the new structure makes it appear 
that there I more funding for Processing and less for Tax Law 
Enforcement, but there are some compliance efforts that now fall under 
Processing. However, the general public won't necessarily be aware of 
this and perception is everything. Please provide a list of which 
compliance efforts fall under Processing (PAM) and Tax Law Enforcement 
respectively.
    Answer. One of the key features of the new structure is the 
consolidation of activities in which IRS interacts with taxpayers by 
telephone and correspondence. The new consolidated structure would 
increase flexibility to handle telephone calls and balance resources 
for the peak period for both assistance and taxpayer account work.
    It is worth noting that the IRS Toll Free Taxpayer Assistance has 
never been only an assistance program. Historically, some 60-70 percent 
of our calls have been ``account related''; only 30-40 percent of our 
calls have been tax law related. Currently, depending on whether a 
taxpayer calls or writes, the same taxpayer questions could be answered 
by different employees using different procedures. With the new 
structure, IRS will have one organization responsible for handling the 
full range of account issues. The emphasis will be on early resolution 
of issues over the phone.
    The compliance pieces that will move to Processing, Assistance and 
Management (PAM) include ACS and the Service Center Collection Branch 
which are currently part of the Collection activity. Also, moving to 
PAM is the Service Center Exam Program. These activities will be 
consolidated with Toll Free in a single consolidated Telephone and 
Correspondence Budget Activity Code (BAC). Document matching will move 
to PAM as well but will retain an identity as a separate BAC.
    The Compliance activities that remain in Tax Law Enforcement (TLE) 
are those performed by district office personnel. The programs in these 
activities are ones in which IRS interacts with the taxpayer in person.
                                 ______
                                 
                             accountability
    The IRS has had a long history of missteps in many areas: taxpayer 
service, treatment of taxpayers, computer modernization, and auditing 
practices. Treasury oversight seems to only be apparent when Congress 
calls attention to a specific problem within the IRS.
    Question. Are there credible checks and balances within Treasury 
and the IRS to make sure policies are properly reviewed?
    Answer. I believe that we are putting the proper review 
infrastructure in place. Let me take a moment to describe the principal 
components:
  --Within the IRS, the IRS Investment Review Board is the major 
        management group responsible for reviewing investment 
        decisions. The Executive Committee reviews overall policy 
        directions.
  --Within Treasury, the IRS Management Board (IRSMB), which was 
        formerly known as the Modernization Management Board, is the 
        equivalent of a strategic oversight board or Board of 
        directors. The Treasury Investment Review Board is a separate 
        entity which deals with cross-cutting review of technical 
        issues related to modernization. The Treasury CIO chairs the 
        Treasury IRB and sits on the IRSMB.
  --Of course, Treasury continues to carry out day-to-day oversight on 
        a wide variety of management and tax policy issues through its 
        established structures.
  --Finally, we have promised to institute a blue-ribbon group of 
        outside experts to make certain that fresh perspectives and 
        ideas continue to be made available to us.
    Question. Who determines the direction the IRS takes on any given 
policy?
    Answer. It depends on the question. Tax policy issues go through 
the Assistant Secretary for Tax Policy to me and the Secretary. 
Administrative issues typically go through the Assistant Secretary for 
Management. The IRSMB will review major strategic issues in the areas 
of operations. We do not get involved in the normal course of events on 
individual cases; these are left for the IRS.
                      irs restructuring commission
    Question. The IRS Restructuring Commission is due to release its 
report later this month. Treasury has expressed strong opposition to 
some of the forthcoming recommendations of this report. Please 
elaborate the Department of Treasury's concerns.
    Answer. First, I would like to emphasize that we and the Commission 
agree on many things concerning the operations of the IRS. We agree, 
for instance, on the importance of a customer service focus in any 
efforts to reform the IRS, and the need for a stable and predictable 
budget for IRS operations and modernization. We have continued to 
stress these areas of agreement.
    That being said, it is well-known that we disagree with the idea of 
turning overall management responsibility for the IRS over to an 
outside Board of Directors. We simply think that the arguments for 
continuing to have the nation's tax collection agency responsible to 
politically accountable officials, and the problems involved in turning 
supervision over to a group of part-timers who by definition have their 
own vested interests, are both overwhelming.
    We also have a number of other issues with the Commission in the 
areas of mandatory electronic filing, due dates for returns and the 
like, but it is fair to say that we are farthest apart on the 
governance issue.
    Question. The Commission was established because Congress was 
frustrated by the fact that we couldn't get the IRS to carry out 
meaningful changes that would improve its operations. Last month you 
announced Treasury's own plan to preempt the Commission's 
recommendations. Now that there are two plans proposed, what criteria 
do you believe Congress should utilize to evaluate both proposals?
    Answer. Experience and common sense.
                    year 2000 conversion of the irs
    Question. Given the IRS' recent request for $258 million for the 
Year 2000 conversion effort, is Treasury supportive of this request?
    Answer. Treasury certainly agrees that the Year 2000 Date Change 
issue is a priority and will need to be adequately funded. We also 
agree that the numbers are likely to change a bit as the IRS works 
through its massive inventory of old systems and programs. At this 
point no one can say with certainty what the final costs will be for 
this effort, but what is needed should be spent.
    Question. Is Treasury or the IRS willing to reprogram funds for 
this effort?
    Answer. If a formal reprogramming is determined to be needed it 
will be requested. Otherwise funds will be reallocated to meet 
identified needs.
    Question. If the full funding requested is not provided to the IRS, 
what will the impact be on the Treasury?
    Answer. Fixing the Year 2000 Date Change problem is a stay-in-
business requirement. We have no real choice in the matter. For the 
IRS, this is a massive effort, involving changing millions of lines of 
code as well as updating all mainframe computers. By not fully 
addressing this issue now and providing adequate funding, we run the 
risk that IRS systems will not be up to acceptable standards by January 
1, 2000. This could result in significant financial problems for the 
entire government because it could impact on the IRS' processing 
functions whereby over 200 million tax returns and $1.5 trillion is 
collected each year. IRS collects approximately 95 percent of total 
federal revenues. Shifting money from other sources could also cause 
major problems; for each dollar taken from our operating appropriations 
we estimate that we forego $4.50 in revenue collections.
    Question. Is Treasury prepared to assist the IRS in finding an 
offset for this newly requested funding?
    Answer. Yes.
                                 ______
                                 
                 Questions Submitted by Senator Shelby
    Question. You've mentioned that you recognize the importance of 
bringing in outside expertise from the private sector to sit on the 
Modernization Management Board. Do you believe that an effort should be 
made to hire such people in order to inject fresh ideas into upper-
level management at the IRS?
    Answer. First, I would like to clarify our position on outside 
expertise. I believe that any public agency, or private sector company, 
will benefit from fresh ideas and insights from the outside. In the 
case of our oversight of the IRS, what we want to do is balance the 
executive-branch perspective that the MMB offers with the advice and 
counsel of outside experts who will form a separate blue-ribbon panel 
that can examine a range of issues and trends in areas such as customer 
service and technology. Both perspectives, acting in concert, will give 
us the proper balance of experience and new ideas.
    The question of whether and how to hire outsiders for day-to-day 
management inevitably raises a somewhat different set of questions. The 
proper mix depends on the circumstances for the organization. In 
general I think the IRS, at this point, can benefit from the addition 
of a greater number of outside experts. That is why we have included 
this kind of infusion of new thinking as part of our overall IRS reform 
strategy.
    Question. Indications are that one of the contributing factors to 
the ineffectiveness of upper-level management is a very high turnover 
rate. In your estimation, is this a significant problem, and if so, 
what can be done to attract and retain qualified people in upper-level 
management at the IRS?
    Answer. There is no question that the turnover rate at the top of 
the IRS has increased in the last few years, and that the result has 
hurt the agency. One possible reason is, in some cases, the kind of 
people who are qualified to hold senior executive positions at an 
agency that is as large and complex as the IRS are going to be in 
demand outside the government as well, and can probably increase their 
incomes by taking some of these offers. Other factors include the way 
the government retirement plan is structured and, frankly, the 
increasing pressure on IRS executives due to public attacks on the 
Service. Many of these attacks are mis-informed and unfair and IRS 
managers have very human reactions to this kind of criticism.
    Solutions are harder to come by. Better pay will help. But the 
ultimate solution, I suspect, is to put in place the kind of 
improvements at the Service that will lead to justifiable pride in the 
work that is being done. People don't bail out of planes that are 
gaining altitude.
                                 ______
                                 
Questions for Arthur Gross, Chief Information Officer, Internal Revenue 
                                Service
    Question. Last year's Appropriations bill spelled out several 
criteria that Congress instructed you to follow in selecting a prime 
contractor to fix the Tax Systems Modernization program. Two of the 
criteria that are particularly important are experience in managing 
large scale computer systems and experience in working with government 
tax and revenue agencies. As you've testified, you've already put out a 
Request for Comment on a new contract. Are there people in the private 
sector who can meet these criteria and fix the big problems that we all 
agree need fixing?
    Answer. Pursuant to issuing the Request for Comments (RFC) for a 
Prime Systems Integration Services Contractor, the IRS required 
potential PRIME contractor offerers to submit a ``Representation of 
Eligibility to Compete for the PRIME contract.'' Eligible contractors 
would be required to meet or exceed a variety of criteria including: 
``Demonstrated significant program management and systems integration 
experience including management of subcontractors as measured by lead 
responsibility for development and implementation of an integrated 
information system or systems with a scope: Requiring in excess of 5 
million lines of computer code or equivalent scope and complexity 
(e.g., integration of Commercial-off-the-Shelf (COTS) software and 
custom code); and/or Requiring a budget in excess of $300 million.''
    The following companies submitted representations meeting or 
exceeding these criteria: Andersen Consulting; Computer Sciences 
Corporation; EDS Government Services; GTE Government Systems; Hughes 
Information Technology Systems; IBM Corporation; Litton PRC; Lockheed 
Martin Corporation; Northrop Grumman Corporation; Raytheon E-Systems; 
Tracor Information Systems Company; and TRW Systems Integration Group.
    With respect to the criterion requiring ``. . . experience in 
working with government tax and revenue agencies,'' most if not all of 
the twelve companies possess such capabilities. Further, the evaluation 
criteria to be applied in selecting a PRIME contractor include ``Depth 
and breadth of experience and quality of past performance in developing 
tax administration systems and large scale integrated systems.''
    Based on the industry responses to date (i.e., Representations from 
the twelve aforementioned companies), it is the judgment of the IRS 
Chief Information Officer that a number of private sector companies 
meet or exceed the criteria and, indeed, ``fix the big problems;'' 
provided IRS develops the requisite capacities and capabilities to 
effectively partner with the private sector.
    Question. Given that the problems with the Tax Systems 
Modernization program have many facets, isn't it the case that rather 
than using one large firm, it would be more effective to use multiple 
firms who have expertise in each of these different areas?
    Answer. Indeed the IRS contemplates that a mix of firms would be 
required to address the many facets of the Modernization program both 
to ensure that a comprehensive array of management and technical 
expertise is deployed and to promote cost competition.
    Question. As both you and Mr. Summers mentioned, the IRS is working 
with a marketing firm to help facilitate electronic filing. Indications 
are that only 12 percent to 14 percent of returns are filed 
electronically, even though over one-half start in electronic form. In 
other words, depending on how complex an individuals returns is they 
might only be able to file certain parts of their return, while mailing 
other parts. Does the strategy you are now working on address this and 
other fundamental flaws in the current system?
    Answer. The above statement and question is addressing two separate 
issues. Returns starting out in electronic form are our targets for an 
aggressive marketing campaign in 1998 and future years. The second part 
addresses the Service's lack of our system's ability to receive 
electronically all schedules and attachments for the Form 1040. This 
issue is part of our Request for Information/Request for Proposal 
packages we are preparing to solicit assistance from third parties in 
expanding our electronic filing system.
                                 ______
                                 
                  Questions Submitted By Senator Kohl
               Questions for the Internal Revenue Service
    1. In testimony before the Treasury General Government 
Appropriations subcommittee on April 15, 1997, Deputy Secretary Summers 
stated that of the $3 to $4 billion spent on the Tax Systems 
Modernization, $500 million represents spending for systems or 
equipment that cannot be used. Over $775 million was used for personnel 
salaries and expenses.
    Question. What modernized functions can be provided from the 
equipment purchased with the remaining $1.7 billion?
    Answer. The IRS has obligated $3.296 billion of the $3.531 billion 
appropriated by the Congress for Tax Systems Modernization (TSM) from 
fiscal year 1987 through fiscal year 1996. Of the $3.296 billion, $607 
million has been spent on efforts that the IRS determined would not 
meet future requirements and priorities or could not deliver the 
appropriate benefits to justify continuation. Based on an analysis of 
the discontinued projects, approximately 28 percent of the 
expenditures, $170 million, were dedicated to hardware, commercial-off-
the-shelf software and site preparation that could be utilized in the 
current technology environment. The remaining TSM expenditures provide 
the IRS with better ways of delivering service, influencing compliance 
and administering the tax system.
  --Replacement of Aging Infrastructure: The IRS replaced and upgraded 
        significant components of its aging computer infrastructure to 
        support the processing of more than 200 million tax returns, 80 
        million refunds and $1.4 trillion of tax revenues. The 
        replacement and upgrading included computing center mainframes, 
        data storage and associated tape robotics as well as other 
        peripheral equipment. These funds also provided for site 
        preparation, universal wiring, PBX units and other 
        telecommunications equipment to link the computing centers with 
        the service centers, district offices and customer service 
        sites.
  --Development and Deployment of Return and Payment Processing 
        Systems: The IRS developed and implemented systems to provide 
        for the electronic transmission of tax returns and electronic 
        payments as well as the automated transcription of data from 
        paper Federal Tax Deposits, information return documents and 
        tax returns. Employers can pay employment and other depository 
        taxes electronically, which is faster, easier and more accurate 
        for taxpayers and the IRS. As of May 27, 1997, the IRS has 
        received $373 billion in electronic payments.
    As of May 23, 1997: The IRS received 19 million electronically 
        filed returns, an increase of 27 percent over fiscal year 1996; 
        Taxpayers filed almost 4.7 million returns through their 
        telephones using the IRS TeleFile program, up 65 percent over 
        fiscal year 1996; and A TeleFile option for the simpler Form 
        941 (Employee's Quarterly Tax Return) began testing on April 1, 
        1997, with nearly 900,000 eligible businesses in 14 states and 
        the District of Columbia. As of May 12, 1997, almost 49,000 
        returns have been filed through this test program.
  --Development and Deployment of Customer Service System: The IRS 
        deployed automated telephone systems capabilities and developed 
        and deployed the capability to facilitate the research of 
        taxpayer account issues. These investments included 3000 
        customer service workstations as well as the telecommunications 
        systems to support the toll free telephone systems (including 
        the Telephone Routing Interactive System) and the Teletax 
        system which provides information interactively to taxpayers. 
        The IRS developed a world-class Web Site on the Internet that 
        provides access to all IRS forms and publications, plain 
        language summaries of tax regulations, the Internal Revenue 
        Bulletin, answers to most frequently asked questions, and an 
        array of other self-help tools.
  --Development and Deployment of Compliance Systems: The IRS developed 
        and deployed distributed systems (e.g., servers, laptops) to 
        facilitate examination, collection and criminal investigation 
        functions as well as systems for compliance support functions.
    Question. In reviewing the IRS business plans for moving forward is 
the MMB considering the impact of previous technological investments? 
Or are you looking at the business plan without considering previous 
investments?
    Answer. One of the many myths about previous TSM investments is 
that somehow the government got nothing for all of its investments. As 
Art Gross has testified, we did receive many benefits in the form of a 
modernized technical infrastructure and better hardware platforms. The 
new Modernization Blueprint builds on these improvements in the 
operating environment.
    2. Since section 6103 prohibits the disclosure of tax return 
information, the IRS does not deposit, what many would consider 
historical records, with the National Archives and Records 
Administration.
    Question. Since this could be detrimental to creating an accurate 
history of IRS actions, what actions are being taken to ensure 
historical records are preserved.
    Answer. The IRS has taken affirmative steps in consultation with 
the National Archives and Records Administration (NARA), to ensure that 
IRS' historical records are preserved, not destroyed, while at the same 
time maintaining the confidentiality of section 6103 protected 
information.
    In answering this question, we think it is important to reiterate 
that according to NARA, only one to five percent of records in any 
Federal agency, IRS included, have historical value. For the most part, 
IRS records of potential historical value are its administrative 
records that document the policies, organizational structure, and 
program activities of the IRS. These can include, for example, certain 
directives and correspondence, organizational studies, manuals, news 
releases, official portraits, and photographs. Section 6103 does not 
preclude NARA from accessing and reviewing these types of IRS 
management and policy records. To the extent these records contain any 
section 6103 protected data, all such protected data can be masked 
before the records are provided to NARA.
    In sum, historical records containing or consisting of section 6103 
protected information constitute a very small percentage of the IRS' 
permanent records. However, the IRS is working with NARA to ensure that 
IRS' historically valuable records that are protected by section 6103, 
in whole or in part, are preserved, not destroyed, even though section 
6103 precludes the inspection of such records, or parts thereof, by 
NARA, by historians or journalists for research purposes, and by the 
general public. Moreover, the IRS has completed records inventories 
throughout all major IRS headquarters organizations. The primary 
objective of these inventories was to identify unique program and 
policy records that document the agency's history for ultimate transfer 
to NARA.
    Records preservation issues were addressed by NARA in its most 
recent evaluation of IRS' records management program. In the summer of 
1994, representatives of NARA met with IRS officials to begin an 
evaluation process of IRS' records management program. From October 
1994 to May 1995, NARA visited IRS' National and field offices in 
connection with their evaluation. NARA's research included standardized 
questionnaires and interviews across a broad spectrum of IRS employees 
to ensure an accurate overview of records management practices at all 
levels of administration.
    On December 14, 1995, the Archivist of the United States presented 
the IRS with NARA's evaluation report on records management at the IRS. 
NARA's report made 58 recommendations for improvements in IRS' records 
management. An interagency working group was established to address the 
issues and recommendations contained in NARA's evaluation report, and a 
time-line was established for implementation of NARA's recommendations 
in five phases to be completed by September 1997. As a result, 
significant progress has been made in implementing NARA's 58 
recommendations and IRS' actions are on schedule for timely completion 
by September. On May 8, 1997, NARA issued a progress report stating 
that it continued to be pleased with IRS' progress and confirming that 
NARA was satisfied that, thus far, IRS has implemented a total of 47 of 
NARA's original 58 records management recommendations.
    3. Over the past year it has been acknowledged that perhaps the TSM 
project was just too large to accomplish and that the logical approach 
would be to upgrade segments of the existing system, adapting portions 
as successes are achieved. Under the new scenario it would appear IRS 
is moving down the same path.
    Question. Please explain how this approach will be different?
    Answer. The Modernization Blueprint lays out our target 
architecture. Along with it you will find a flexible sequencing plan, 
which describes the step-by-step approach that we will be taking to get 
us there in modular fashion. we fully intend to move sequentially. As 
existing programs are replaced they will be retired. Until then we will 
keep them operational.
    In this connection I think it's important to get the metaphors 
right. TSM is not, in any real sense, a single project or program that 
will replace a single system. The IRS computing environment today is a 
tangle of separate systems, developed over forty years for specific 
purposes and tied loosely together. Since we obvious cannot shut the 
current systems down and wipe the slate clean, we have to modernize as 
we go, and take extreme care to make sure that the existing legacy 
systems continue to operate. This kind of incremental approach is the 
heart of the current sequencing plan. It is very difficult to do and 
demands careful control as we go along.
    4. The new architecture will provide for a modernization system 
that will be a centralized rather than a distributed information 
system. That sounds like a complete change from the original plan.
    Question. Should it be assumed that the costs associated with the 
new system will be at least as great as what has already been spent to 
modernize the tax collection systems?
    Answer. There are really two issues here--one relating to the 
technical change in emphasis from a distributed design philosophy and 
the other related to costs. As to the first point, it is certainly true 
that the new Modernization Blueprint puts far more emphasis on the use 
of centralized computing resources--the so-called mainframe-centric 
approach--than did the original TSM designs. I am told that this 
represents a general trend in the industry as designers get a better 
understanding of the true strengths and weaknesses of centralized 
systems versus the distributed systems that came into vogue a decade 
ago. In our case the arguments for a centralized approach--in terms of 
economy, efficiency, and security--seem to be very strong, speaking as 
a non-expert in the field.
    As to the ultimate cost, that will depend heavily on the success of 
our efforts to engage the private sector in our Prime Contractor 
effort. Those contracts remain to be written. And of course the 
ultimate cost depends on the sufficiency of appropriations. If we 
receive adequate funds, the project will be finished quicker and cost 
less in the long run than if we stretch things out over many years.
    5. Question. Is the IRS conducting internal reviews to determine 
the core functions and what functions can be done better by the private 
sector?
    Answer. As explained further below, the IRS has a number of 
initiatives underway to either transfer workload to the private sector, 
which is currently taking place with IRS' modernization program. We are 
also studying whether certain functions, such as submission processing 
or collection, could be performed better by the private sector. In 
making these determinations, the most important question that needs to 
be addressed is not whether to outsource an activity, but how to get 
the most effective and efficient performance for the taxpayer's dollar.
    Question. What functions have you reviewed and determined could be 
eliminated?
    Answer. The IRS, like many large businesses, has many functions 
which contribute to the achievement of its mission. In striving to 
maintain the proper balance between assisting taxpayers, processing 
returns, and ensuring that all segments of the taxpaying public pay 
their proper amount of tax, IRS' emphasis has been on performing these 
functions in the most effective and efficient manner possible. 
Sometimes this can be accomplished through partnering with the private 
sector or outsourcing, while sometimes other solutions are more viable.
    For example, in the Information Systems area, the IRS continues to 
transfer significant aspects of the technology modernization program to 
the private sector. The December 1, 1996, report to Congress documents 
that 64 percent of the modernization program resource allocation is 
provided by the private sector. The largest and most important 
initiative for fiscal year 1997 was the contract recently awarded to 
develop, pilot and implement the submissions processing manual data 
entry systems replacement. The IRS also is in the process of 
competitively acquiring a Systems Engineering and Technical Assistance 
(SETA) contractor to provide technical, program and project management 
guidance to the modernization effort. Pursuant to the fiscal year 1997 
Treasury appropriation, the Treasury IRS Management Board (IRSMB) is 
working with the IRS preparing a Request for Proposal (RFP) for a prime 
contractor to manage, integrate, test and implement the program.
    In order to address the growing volume of paper tax returns and 
documents, the IRS is also studying the potential for outsourcing the 
processing of paper returns as outlined in the January 1997 report to 
Congress. Assuming that there is commercial interest, a RFP will be 
issued to obtain contractor bids. Since risks are inherent in turning 
such a critical system over to an outside processor, the IRS has 
already begun the ongoing process of identifying ``inherently 
governmental'' functions in that process. Based upon the experience of 
other agencies in large-scale outsourcing initiatives, the IRS 
estimates that it could be as many as four years before it could be 
ready for a pilot project on outsourcing paper return processing. As 
this process proceeds, IRS will carefully review all steps forward to 
address concerns about privacy and security of taxpayer information.
    Aggressively partnering with the private sector is also a key 
aspect of our electronic tax administration strategy. This month, IRS 
will issue a Request for Information (RFI) seeking views and 
recommendations from all interested parties on the issues most crucial 
to develop a dynamic electronic tax administration program.
    Finally, as discussed in more detail in an earlier question, in 
June 1996, IRS awarded contracts to private debt collection agencies to 
study the feasibility of outsourcing the collection of delinquent 
federal taxes.
    Question. Won't eliminating IRS functions provide the IRS an 
opportunity to focus management efforts on IRS core responsibilities?
    Answer. One of the recommendations contained in the recently issued 
report by the National Commission on Restructuring the IRS was that 
Congress could simplify tax administration by limiting the assignment 
of non-core functions to the IRS. As the report notes, ``the addition 
of non-core functions exacerbates governance and management problems, 
diverting the organization from establishing a strategic direction with 
clear priorities.'' The IRS generally agrees with that assessment 
regarding the addition of non-core functions. However, shifting 
existing functions and activities to the private sector would not 
necessarily have the same impact since under that approach the IRS 
would still be responsible for ensuring that the function is performed 
efficiently and effectively.
               private sector debt collection initiative
    1. In fiscal year 1997 Congress directed the IRS to transfer $13 
million to the Department of Treasury for a second private sector debt 
collection program.
    Question. Could you please explain what action IRS has taken since 
the Departmental Offices directed IRS to be the program manager for 
this effort? Please explain how the funds have been obligated.
    Answer. In compliance with the directive from Congress to issue a 
second pilot private sector debt collection program, the IRS under the 
Department's direction, issued a Request for Information (RFI)/Draft 
Request for Proposals (RFP) on March 7, 1997, to enhance communication 
with contractors. Meetings were held between IRS representatives and 
prospective contractors to address questions and concerns regarding the 
proposed second pilot private debt collection program. The solicitation 
was released on April 30, with a due date of June 2. We received 17 
proposals.
    On June 10, Secretary Rubin received a letter from Congressmen Jim 
Kolbe and Stephen Horn and Congresswoman Nancy Johnson requesting that 
Treasury not move forward with awarding contracts solicited under the 
RFP at this time. The General Accounting Office (GAO) had reviewed the 
fiscal year 1996 IRS Private Sector Debt Collection initiative and 
identified several legal and administrative impediments that had 
prevented the pilot from being successful. They expressed concerns with 
continuing the Treasury initiative and thought that the problems 
identified by the GAO would likewise prevent contractors from producing 
an effective result. Based on GAO's findings and the IRS' pilot 
results, we agreed not to move forward with contract awards for the 
second pilot at this time. The funds have not been obligated.
    2. It is my understanding that the Private Sector Debt Collection 
contractors have a success rate of about 30.5 percent full payment from 
all contacts made. The IRS has a success rate of 14 percent. However, 
the contact rate by the contractors is below IRS expectations.
    Question. Since the cases the contractors are working are inactive, 
what level of contact would the IRS consider significant?
    Answer. The success rates referred to in the question seem to be 
slightly misstated, but appear to derive from data previously furnished 
by IRS to the House of Representatives. The success rates of the 
contractors in obtaining full payments and unassisted installment 
agreements through January 31, 1997, were about 30.5 percent of the 
total number of contacts made, roughly in line with IRS estimates. The 
contractors' success rate for IRS-assisted installment agreements is 
about 14 percent of the total number of contacts, about half the IRS 
estimate. However, the rate at which the contractors have been able to 
contact the taxpayers in the first place is significantly below the 40 
percent rate IRS considered necessary for the success of the contracts. 
As of the end of April, after nine months of operation, the contractors 
had contacted 28,273 taxpayers out of the 202,203 cases provided by 
IRS, or 13.98 percent. Although the final contact rate cannot be 
computed until contractors' invoices for May and June are verified, IRS 
projects that it will be in the range of 15 percent to 18 percent.
    Question. How does the level of contact compare to the IRS levels 
of contact.
    Answer. Since IRS does not routinely work the types of cases 
provided to the contractors, there is no IRS contact rate that is 
comparable to that of the contractors. IRS has no valid way of 
comparing the results of the contractors' work against that of any 
group of IRS employees. The cases contracted out, in accordance with 
the requirements of the authorizing legislation, were largely inactive 
and would not normally have been subjected to the kind of intense 
follow-up that the contractors are doing. Even if IRS employees were 
working similar cases, a comparison of IRS results with contractors' 
employees would be inappropriate, since IRS employees have the use of 
enforcement tools such as levy and lien, and decision making authority 
such as abatement, that cannot, by law, be transferred to contractors. 
However, IRS has established an evaluation plan that, when complete 
data are available, will compare the revenue generated from the 
contracts with revenue generated from a statistically valid control 
group of identical case types that are subject to the ordinary systemic 
and low-investment collection actions of IRS, such as annual reminder 
letters, refund offset, etc. The IRS has no preliminary estimate of the 
results such a comparison will show.
    Question. Is the IRS interested in the success of this program?
    Answer. Yes.
    Question. If so, how could the private sector debt collection 
initiative be structured to provide optimal success rates? If not, why 
not?
    Answer. The IRS does not advocate the desirability of any specific 
structure without full analysis of the pilot data results and full 
consideration of policy, public perception, and administrative 
implications. The analysis of the pilot will be completed September 30, 
1997. This analysis will provide data and analysis useful to responding 
to this question.
                       governance and management
    Question. Is the constant attention of micro issues preventing 
Treasury and the IRS from providing the necessary macro review of core 
IRS issues?
    Answer. The time devoted to addressing micro issues is considerable 
and definitely detracts from the attention that could otherwise be paid 
to more strategic matters. For example, as of June 30, 1997, there were 
nearly 50 open GAO audits covering the entire gamut of tax 
administration issues. Congressional committees also tend to focus 
their attention on specific issues and incidents. The seven committees 
(and their respective subcommittees) most responsible for IRS 
oversight--House Committee on Ways and Means, House Committee on 
Appropriations, House Committee on Government Reform and Oversight, 
Senate Committee on Finance, Senate Committee on Appropriations, Senate 
Committee on Government Affairs, and the Joint Committee on Taxation--
focus on different issues that change from year to year. Other 
Congressional committees and member offices also surface issues as does 
the judiciary, tax practitioners, other stakeholder groups, the media 
and the general public. While these issues are important, they do 
detract from a more coordinated, high-level review of the strategic 
issues confronting tax administration.
    Question. Is it possible for IRS management to be strategic rather 
than reactive?
    Answer. The IRS has long engaged in strategic or long term planning 
and, like most organizations, this process has under gone a number of 
changes over the past few years. Recently, IRS was one of the first 
federal agencies to use an integrated strategic management process; one 
in which planning, budgeting, investment, performance measurement and 
program evaluation processes are integrated. The IRS developed its 
strategic management process after consulting with other public and 
private sector organizations. Setting long-term goals and annual 
targets, managing activities to achieve those goals and targets, 
measuring performance annually, and holding people accountable will not 
only help improve tax administration, but it will also help the IRS and 
Congress make informed budget decisions about balancing resources 
across objectives.
    Since last year, the Department of Treasury supplemented the 
existing IRS decision making process with the Modernization Management 
Board (MMB) which brings together both policy makers from Treasury and 
the IRS, as well as other stakeholders, to provide proactive direction, 
much like an activist Board of Directors. The MMB contributed 
materially to the rigor of IRS strategic and policy analyses; the 
linkage between strategic choices and resource allocation through the 
budget process; and the practicability of the IRS' implementation 
strategies. In order to further strengthen this process, on June 24, 
1997, President Clinton issued an Executive Order which established a 
permanent Internal Revenue Service Management Board to assist the 
Secretary of the Treasury in ensuring effective management of the IRS.
    Question. Deputy Secretary Summers, the MMB currently has twenty 
members; eighteen are employees of the Department of Treasury, of which 
eight are IRS employees. Only two MMB members are from outside 
Treasury. With the majority of this Board consisting of IRS 
representatives can the Board really provide independent IRS management 
review?
    Answer. I believe that the MMB can do so, but it needs a little 
help, which we will give it. The MMB is explicitly designed to bring 
together the key executives from IRS, Treasury, OMB and the National 
Performance Review who deal with IRS operations in a ``common ground'' 
to discuss overall strategic issues. In addition, though, as we 
announced in March we will be establishing a group of outside experts 
in different fields to provide an independent source of advice and 
assistance to the secretary and me. These two groups will interact and 
support each other appropriately.
    Question. The Investment Review Board was established in October 
1995 to serve as the forum for senior IRS executives to make decisions 
regarding information systems expenditures and investments. This Board 
was established to provide executive direction and oversight for the 
information systems budget and for all information technology 
investments. Please explain how its functions differ from those 
proposed from the MMB and why the MMB will function better?
    Answer. The two groups really have different functions. The best 
analogy I can give is to compare the IRS to a large, Fortune 50-sized 
private firm, where you will often find both an executive committee or 
management committee which is responsible for detailed review of 
specific proposals and a Board of Directors which deals with long-term 
strategic issues. In our context, the IRS Investment Review Board is 
the internal management committee and the IRS Management Board, which 
will replace the MMB and carry on its general direction, functions as 
the equivalent of a Board of Directors. We would expect--and in fact 
this has turned out to be true--that most of the investment issues 
brought before the IRSMB have been previously discussed by the IRS IRB, 
but the IRSMB has a different purpose and a different perspective. So 
the two groups have different but complementary functions.
    Question. Acting Commissioner Dolan, the $1.28 billion requested 
for Information System in fiscal year 1997, includes $131 million for 
TSM development and deployment funds, and $83.9 million for program 
infrastructure. Please explain what those requirements are and how they 
fit into the architecture for the future TSM plan?
    Answer. The $83.9 million requested for program infrastructure in 
fiscal year 1997 was used to fund the non-recurred Tax Settlement 
Reengineering Study ($5 million), the Government Program Management 
Office, Performance Management Office and Systems Standards and 
Evaluation Office ($34.2 million), and contractor support ($44.7 
million) for the development of the Modernization Blueprint, 
Architecture and Sequencing Plan completed in May 1997. The fiscal year 
1998 request for the GPMO will fund: Core government systems 
engineering functions for modernized systems; Government management and 
control functions for modernization; The systems, privacy and security 
standards consistent with the architecture and evaluations for 
compliance with these standards; and The development and maintenance of 
business cases and operational measures.
    The $130.9 million for TSM Development and Deployment is funding 
projects approved by the Investment Review Board that have business 
value, are well managed, and are consistent with the Modernization 
Blueprint.
    Question. The initial financial plan included funding for 291 FTE. 
Through the second quarter of fiscal year 1997, 21 FTE have been 
realized. Can we assume that TSM deployment and development will not 
need the total amount of funds budgeted for this activity?
    Answer. The IRS is experiencing critical funding shortfalls in 
fiscal year 1997 for Year 2000, the replacement of DIS/RPS and funding 
the consolidation of service center mainframes. Additionally, the IRS 
lacks sufficient funds for critical information technology investment 
needed to improve customer service and compliance programs. Taken 
together, the IRS information technology needs for fiscal year 1997 far 
exceed available funds.
                           electronic filing
    Question. Electronic filing provides savings, gives the taxpayers 
immediate acceptance of returns and furnishes rapid refunds. a) What 
has the IRS done to market this service to all taxpayers? In 1993, the 
IRS projected 80 million tax returns would be filed electronically by 
2001. b) Do you believe the IRS can meet that goal?
    Answers:
    (a) Demographics/Psychographic analyses were completed for each 
return type and population segment. This information has been 
incorporated into marketing products that receive wide distribution.
    Potential markets were created and categorized by return type, age 
refund, AGI and method of return preparation. This analysis was 
conducted for all states and distributed to Field Executives. These 
profiles will continue to used to develop marketing plans in 
conjunction with nationally developed marketing products.
    A commercial advertising firm was hired to provide design, 
production and distribution assistance. A very aggressive campaign, 
with a major focus on our TeleFile Program, reached previously untapped 
markets.
    The IRS used the Internet and electronic Bulletin Boards as the 
electronic exchange of information to educate taxpayers and 
practitioners.
    We continue to conduct Tax Forums for the tax practitioner and 
electronic filing community to highlight, educate and market electronic 
commerce.
    (b) The Electronic Filing Strategy Task Group Report (Rev. 5-93) 
was developed to produce one document to serve as the ELF Strategy, to 
identify new ways to attract taxpayers to the program, and to develop 
action plans to maximize the number of electronic returns. The report 
outlined 21 initiatives that, if all were implemented, would deliver 
80.2 million electronic returns (69.8 Individual and 10.4 business) by 
the year 2001. Implementation of certain initiatives had a direct 
impact on the ability of the IRS to reach its goals. For example, one 
initiative required electronic transmission of returns from 
practitioners preparing 100 or more returns. The IRS is exploring other 
ways to expand electronic filing other than requiring mandatory 
electronic transmission of returns from practitioners. Another 
initiative was to allow the use of signature alternatives to eliminate 
the need for paper authentication. The IRS is still in the process of 
assessing the legal impact and assurance of authentication of signature 
alternatives and continues to explore and test several methods. The 
Office of A/C (Electronic Tax Administration) is currently working on 
revised goals.
    Question. Under the current IRS capabilities, the taxpayers using 
electronic filing must sign and mail a signature form as formal proof 
or authentication. Can you explain where the IRS is in terms of the 
``authentication'' and if all electronically filed transactions have 
the same level of authentication?
    Answer. IRS is in the early stages of developing an authentication 
policy that will articulate alternative methods of signature for IRS' 
electronic tax administration programs. The future policy will: 
identify approved alternative methods for signature with applicable 
standards; determine the level of authentication needed for various 
types of transactions; and define the degree to which the environment 
will be paperless.
    An interim policy may include a PIN and password approach along 
with other alternative methods for signature (e.g., digitized 
signatures, voice signatures, facsimile). The ultimate policy will also 
embrace digital signatures possibly based on a government-wide solution 
utilizing a public key infrastructure.
    Question. Electronic filing costs the individual filer, but will 
provide the IRS savings in processing and personnel. Is there a way 
that the IRS can share the savings with the tax preparers and provide 
incentives for electronic filing?
    Answer. The IRS is currently completing an in-depth analysis of 
determining the ``Full Cost Burden'' for filing paper and electronic 
returns. In addition, we are preparing to solicit the private sector 
for proposals on how they can assist us in achieving higher volume 
goals for electronically filed returns. Using these proposals and our 
``Full Cost Burden'' analysis we will be better able to substantiate 
savings of electronic filing and pursue monetary incentives for the tax 
practitioner or individuals.
                               compliance
    Question. The Coordinated Examination Program was established to 
audit the nations largest corporations with assets of over $250 
million. CEP audits consume approximately 20 percent of the Examination 
audit resources. How does this application of resources relate to the 
compliance levels of this industries? Is this an important analysis?
    Answer. The CEP Program consists of approximately 1,700 of the 
largest and most complex taxpayers. Although not every return is 
examined, these taxpayers received extensive audit coverage. The audit 
results are substantial and our ERIS data indicates that we ultimately 
collect as much as 40 percent of the results. The CEP Program has been 
in existence since the 1960's and has evolved to meet the challenges of 
a global economy. The large deficiencies generated are not necessarily 
indicative of intentional noncompliance but relates more to the 
complexity and gray areas of corporate tax law and also to aggressive 
tax accounting.
    We continue to devote resources because of the potential and also 
because of the interest over the years shown by Congress. Most 
recently, a group of House Representatives have urged us to pursue the 
IRC Section 531 Accumulated Earnings Tax Penalty against large 
corporate stock buy-backs.
    Question. IRS compliance accomplishments weigh heavily on 
compliance approaches. Two new programs have been developed to resolve 
interconnected pricing issues. The Advanced Pricing Agreement program 
and Accelerated Issue Resolution Program. Please explain why these 
programs are beneficial.
    Answer. Both of these initiatives deviate from the traditional 
enforcement techniques we have historically used over the years to 
ensure compliance. The Advance Pricing Agreement Program (APA) is an 
ADR process which supplements the traditional administrative, judicial 
and treaty mechanisms for resolving intercompany pricing issues. Rather 
than ensuring compliance after the return is filed through an audit, 
the APA attempts to reach agreement with the taxpayer on the proper 
transfer pricing of future transactions. This allows the taxpayer to 
file more accurate tax returns with the correct tax. The IRS will make 
a cursory review of these returns to ensure that the taxpayer followed 
the agreement and the facts did not change.
    Accelerated Issue Resolution (AIR) is another ADR technique used in 
the CEP Program to reduce the time span of the examinations and in the 
long run reduce resources committed by both the taxpayer and the IRS. 
It also encourages the resolution of issues at the Examination level as 
opposed to protracted administrative appeals or even litigation. AIR 
can be used with intercompany pricing issues but for the most part is 
used with domestic issues.
    In many instances in large corporate audits, there will be the same 
recurring issues raised on a series of tax returns. AIR permits the 
examiners to extend the examination to all of the taxpayer's returns 
which have these recurring issues. The idea is to resolve the recurring 
issues simultaneously for all the returns now, rather than wait to 
audit these issues as the returns are placed in examination over the 
next few years.
    Question. Please also explain the Tip Rate Determination Agreement 
and the Tip Reporting Alternative Commitment programs.
    Answer. Millions of dollars of unpaid income and social security 
taxes are lost each year as a result of not reporting or underreporting 
billions of dollars of tip income. Generally, tips are taxable to the 
employee for income and social security tax purposes and are to be 
reported when tip income exceeds $20 in any month. Once the employee 
reports the tips to the employer, the employer is required to withhold 
income and social security (FICA) taxes from the reported tips as well 
as match the employee's social security tax. Tipped employees 
constitute a multi-billion dollar market segment.
    The reporting of tip income and paying of income and social 
security tax by tipped workers in the food and beverage industry is 
among the lowest in any industry, with the exception of illegal 
activities.
    A 1995 IRS study estimated that the amount of tip income 
voluntarily reported in 1993 was less than 60 percent of the true tip 
amount, leaving over $9 billion of unreported tip income. 
Underreporting of tip income by the employee puts the employer at risk 
for a significant contingent liability on the unpaid FICA (Social 
Security and Medicare) taxes and also puts the employee at risk for an 
unplanned income tax bill. This noncompliance also impacts State income 
tax revenue, worker's compensation and unemployment insurance programs, 
and the social security and Medicare trust funds.
    In an effort to address this problem of non-compliance, the IRS has 
taken numerous approaches over the years to improve tip reporting 
compliance by tipped employees. Congress has amended the IRC as well to 
help increase compliance. Unfortunately, these efforts did not raise 
the income reporting compliance of tipped employees in the food and 
beverage industry.
    The IRS recognized that a different approach to the problem of tip 
income reporting was needed and began to explore new methods to achieve 
voluntary compliance and at the same time reduce the tax burden for 
employees, employers, and the IRS. The IRS introduced the Tip Rate 
Determination and Education Program (TRD/EP) in 1993. There are two 
arrangements under this program, the Tip Rate Determination Agreement 
(TRDA) and the Tip Reporting Alternative Commitment (TRAC).
    Under TRD/EP, employers are offered the option of either entering 
into a TRDA or a TRAC agreement. Under TRDA, the IRS works with the 
restaurant owner to arrive at a tip rate for the various occupations in 
the restaurant using historical data and information from the 
restaurant owner's books and records. At least 75 percent of tipped 
employees must sign a participation agreement. Participating employees 
must then report tips at or above the rate determined in the agreement.
    During late 1994 and early 1995, a coalition of both large and 
small food and beverage representatives working in conjunction with the 
IRS came up with a new method to increase tip compliance--TRAC. What 
makes this tip initiative unique, is that the industry was directly 
involved in its development
    Under TRAC, establishments in the food and beverage service 
industry sign an agreement with the IRS under which the establishment 
agrees to establish a reasonable procedure for accurate tip reporting 
by employees; institute a training program to educate employees of 
their tax reporting obligations as they relate to tips; and comply with 
all Federal tax requirements regarding the filing of returns, paying 
and depositing of taxes and maintaining records. If the employer stays 
compliant with the TRAC agreement, then the IRS agrees not to initiate 
any tip examinations of the employer or employees.
    To give employers and employees in the food and beverage industry 
the tools they need to meet the educational requirement of the TRAC 
agreement, the IRS produced, developed and distributed a video and 
written materials. The title of the video is ``Reporting Tip Income: On 
TRAC.'' The title of the brochure is ``Tips on Tips.'' There is both a 
version for the employer and one for the employee.
    As of March 31, 1997, the IRS has received more than 3,500 TRAC 
agreements representing more than 22,000 establishments. The number of 
TRDA agreements is more than 800 representing more than 1,100 
establishments for the same period.
    Employers in the food and beverage industry report to the IRS their 
gross receipts, charged sales, charged tips, and cash sales on Form 
8027, Employer's Annual Information Return of Tip Income and Allocated 
Tips. Our latest analysis of these forms reveals that filings of Form 
8027 and tips reported have been increasing steadily since the 
implementation of TRAC and TRDA Programs. Amounts reported are:
  --1993--Gross receipts reported per Forms 8027 were 48.4 billion. 
        Tips reported were $3.9 billion. The number of 8027 filings was 
        47,327.
  --1994--Gross receipts per 8027's filed were $58.0 billion, with tips 
        reported of $4.7 billion. The number of 8027 filings was 
        55,792.
  --1995--Gross receipts reported were $59.7 billion, with tips 
        reported of $5.2 billion. The number of 8027 filings was 
        56,986.
    From the Form 8027 we can determine the composite tip rate being 
reported. For 1993 the tip rate was 8.1 percent, for 1994 it was 8.2 
percent, and for 1995, it continued to climb, to 8.8 percent.
                    criminal investigation division
    Question. Does the IRS anticipate a growth in criminal activity 
associated with the growth in electronic money?
    Answer. Electronic money and cyberbanking provide increased 
opportunities for the taxpayer to conveniently settle his/her tax 
liability with the government. But they also provide new techniques for 
criminals to accomplish crimes. Electronic payments, in all their 
various proposed forms, present financial regulators, tax 
administrators, and law enforcement agencies with potential problems 
similar to the Bank Secrecy Act (BSA), banking and 26 United States 
Code 6050(l) issues. Unregulated and anonymous movement of monies aided 
by the developing cyber-payment technology could cause safety and 
soundness problems in financial institutions, create new venues for 
financial fraud, allow for increased credit and consumer frauds, and 
devise new methods to assist in tax fraud and money laundering. When 
electronic transfers cross outside the U.S. borders, foreign assistance 
is crucial to trace the flow of money through layers and layers of 
foreign corporations and bank accounts, particularly when legitimate 
funds are commingled with illegally derived funds.
    In the area of compliance with the tax laws, electronic commerce 
may create new variations on old issues as well as new categories of 
issues. The major compliance issue posed by electronic commerce is the 
extent to which electronic money is analogous to cash and thus creates 
the potential for anonymous and untraceable transactions. Another 
significant category of issues involves identifying parties to 
communications and transactions utilizing these new technologies and 
verifying records when transactions are conducted electronically. 
However, developments in the science of encryption and related 
technologies may lead to systems that verify the identity of persons 
online and ensure the veracity of electronic documents.
    Question. How has the Internet's international access and influence 
affected the way law enforcement addresses financial crime in the 
future?
    Answer. With the dissolution of geographic borders through use of 
the Internet, serious questions are raised concerning ``foreign'' 
activity in our country. U.S. News & World Report stated in their 
October 28, 1996, edition, that there are some 40 offshore banking 
havens, holding assets estimated at $2 trillion to $5 trillion. 
Beginning with the weekly drawings of InterLotto by the International 
Lottery in Liechtenstein in 1995, gaming activity on the Internet has 
mushroomed to hundreds of sites with rapid growth predicted 
(International Gaming & Wagering Business, August 1996). If these 
foreign businesses are not in compliance with U.S. laws, how do we 
prevent them from operating here? How can we verify that a particular 
Web site is actually located where represented?
    There is an enormous demand for U.S. currency throughout the world. 
U.S. currency is often the medium of exchange between foreign countries 
and can be easily exchanged for any other currency or vice versa. At 
the end of 1994, U.S. currency in circulation totaled approximately 
$405 billion. Of that amount, it is estimated that approximately two-
thirds or $270 billion is being held by the underground or foreign 
interests. That means an estimated $135 billion is being circulated in 
the banking systems within the U.S. The reasons for this discrepancy 
are numerous, some legal and some illegal. Whatever the reasons, this 
data creates an urgent need for international cooperation.
    Besides the off-shore tax-free banking, there are other tax 
dilemmas. The U.S. has extensive tax treaties with other countries that 
determine which country has the right to tax certain types of income 
and confer reciprocal benefits to residents of treaty countries. A 
quandary occurs when a buyer resides in one country and purchases 
products in a second country; however, to complete this business deal, 
the transaction is electronically conducted through several countries. 
For example, a company in England purchases goods stored in Brazil from 
a seller in the U.S., but has the goods delivered to Germany with 
payment made from an account in Hong Kong. Just trying to reconstruct 
this transaction could become a nightmare, but add tax implications and 
the problem gets bigger. Therefore, international cooperation will 
serve as the cornerstone to work through these tax administrative 
issues of using cybercurrency.
    Because of growth in technology and a rapidly changing economic 
environment, tax evasion and money laundering have become an 
international problem. To put it simply, crime has no borders. 
Governments throughout the world are recognizing that money laundering 
and other financial crimes are no longer limited by the geographic 
boundaries of nations. Our CI Division has adopted an International 
Strategy to promote a financial disruption of major international 
criminal organizations. Wire transfers to and from foreign countries 
have increasingly been found in domestic investigations opening up new 
areas, geographic and otherwise, to our law enforcement agents. This 
strategy places primary focus on money laundering crimes although 
criminal tax enforcement is included in those countries which are 
receptive to the investigation of tax law violations.
    With the advent of a global economy, this strategy will depend upon 
cooperation among the international law enforcement communities. The 
subject of international compliance cannot be addressed merely at home. 
As financial markets and economies of most nations become 
internationally intertwined, large-scale money laundering and other 
financial crimes have the potential to disrupt the stability of global 
economies. Therefore, our continued efforts to work together to foster 
international cooperation and joint compliance among our treaty 
partners and other economic allies is vital. The information we gained 
from international cooperation opens a window on how small the world is 
and how together we can meet the challenges presented by this latest 
technology of cybercurrency. Today, these types of exchanges among tax 
administrations are absolutely essential to developing consistent 
approaches to tax enforcement.
    Question. Is the IRS's automated investigation system ``FOCUS'' in 
full operation?
    Answer. The Automated Information Analysis System (formerly FOCUS) 
is currently being tested in Nebraska and Texas.
    Question. Has FOCUS performed up to IRS Criminal Investigation 
Division's expectations?
    Answer. We do not have any tangible results from the initial 
testing. Preliminary feedback from the districts has been positive. The 
effectiveness of the system has been somewhat limited by the 
restrictions as to the types of data that can be processed on the front 
end.
    Question. Please explain how the system is used in predicting 
illegal financial activity.
    Answer. The concept of FOCUS is to process large amounts of data 
and link the various financial transactions that may be indicative of 
income tax or money laundering violations. Historically, special agents 
have developed cases by taking a lead and then manually researching the 
various sources of information available to determine its potential. 
FOCUS is designed to reverse this process by electronically analyzing 
all of the data sources on the front end and providing leads to the 
special agent to evaluate. In its final format, the system is intended 
to be a true ``expert system'' by incorporating the special agent's 
knowledge into the way the computer program evaluates the data. FOCUS 
is unique to virtually any other similar computer program in that it is 
largely address driven.
    Question. Do any other law enforcement agencies have access to this 
system? Why?
    Answer. The technology is available to other law enforcement 
agencies. We are currently working with U.S. Customs. However, the data 
that is being used by the IRS in Nebraska and Texas regarding tax 
return information cannot be shared with other agencies due to IRC 6103 
which protects tax return information from disclosure to other agencies 
unless specifically authorized in IRC 6103.
    Question. In IRS' view, has the Suspicious Activity Reports (SAR) 
initiative provided viable leads for investigative personnel in 
combating money laundering schemes?
    Answer. Since April 1, 1996, financial institutions have been 
required to file SAR forms which are maintained in a database at the 
Detroit Computing Center (DCC). Internal Revenue-Criminal Investigation 
(IRS-CI) has created a National General Investigation (GI) number to 
track all Primary Investigations (PI) initiated for the evaluation of 
SAR information received from DCC. This number is used to track 
resource commitments and program accomplishments. The National GI 
number is not used when a CI district office evaluates an SAR form 
developed at the district level independent of the DCC.
    The following statistics from the IRS-CI Criminal Investigation 
Management Information System (CIMIS) illustrate the number of PI's 
where the SAR was the source of information used to open the PI. These 
PI's were then tracked to determine how many evolved into a Subject 
Investigation (SI). Finally, the SI's are broken down into the current 
status or disposition.

------------------------------------------------------------------------
            Fiscal year 1996                  Number          Percent   
------------------------------------------------------------------------
Primary Investigation...................           1,853  ..............
Subject Investigations..................             126            6.80
SCI Discontinued Investigations.........              44           34.92
SCI Prosecution Recommendations:........              19           15.08
SCI in Inventory........................              63           50.00
                                         -------------------------------
      Total.............................             126          100.00
------------------------------------------------------------------------


------------------------------------------------------------------------
          Fiscal year 1996 YTD                Number          Percent   
------------------------------------------------------------------------
Primary Investigation...................             925  ..............
    Subject Investigations..............              26            2.81
SCI Discontinued Investigations.........  ..............  ..............
SCI Prosecution Recs....................               1            3.85
SCI in Inventory........................              25           96.15
                                         -------------------------------
      Total.............................              26          100.00
------------------------------------------------------------------------

    It should also be noted that only those PI's whose initial source 
of information was an SAR are reflected here. The SAR's are also used 
along with CTR's and Form 8300's as an additional source of information 
for special agents in situations such as following a money trail, 
establishing ownership of the currency, or they can be utilized in 
indirect methods cases for determining cash deposits and withdrawals. 
In those situations, the SAR is not listed as the source of information 
in CIMIS and is, therefore, not reflected in the statistics above.
    It is important to remember that this form has only been in use for 
15 months. Additional time is needed for these cases to be completed. 
Perhaps, by the end of fiscal year 1998 we will have a clearer picture 
of the SAR's usefulness.
    Question. Would the SAR be valuable as an investigative tool in any 
other area of the financial community?
    Answer. The SAR contains information which would be useful to all 
aspects of the financial community involved in enforcement. Currently, 
there are proposed rules which will define a Money Services Business 
(MSB), formerly referred to as Non-Bank Financial Institution (NBFI). 
These rules also establish filing requirements for the MSB under the 
Bank Secrecy Act. The rules will likely go into effect sometime next 
Spring. At that time, these MSB's will establish an enforcement 
mechanism which law enforcement could use this information to enhance 
their efforts.
                          financial management
    Question. What is IRS' schedule for implementing GAO's 
recommendations for improving the Service's Financial Management?
    Answer. In his testimony before the Committee, Acting IRS 
Commissioner Michael Dolan stated that of the 59 original 
recommendations made by GAO as a result of their financial statement 
audits, we and GAO agree that we have completed 22. Of the remaining 
37, 23 are completed and awaiting GAO's concurrence, 14 are scheduled 
to be completed by September 30, 1997, and 5 are scheduled to be 
completed after September 30, 1997. We prepared a detailed action which 
addresses all the recommendations and provided a copy to the Committee 
on February 28, 1997. As shown in that action plan, the final actions, 
which are related to improving our tax accounts receivable, are 
scheduled to be completed by September 30, 1998.
    Question. Specifically, can appropriations available for operations 
expenditures be reconciled fully with Treasury Central Accounting 
Records?
    Answer. Yes, appropriations available for operations expenditures 
can be reconciled fully with Treasury Central Accounting Records. There 
is an automated mechanism in place to ensure that these balances are 
reconciled monthly.
    Question. And, can the IRS reconcile its cash balances to 
Treasury's records through fiscal year 1996?
    Answer. Yes, the IRS has reconciled cash balances to Treasury 
through fiscal year 1996.

                         Conclusion of Hearings

    Senator Campbell. That concludes the hearings. The 
subcommittee will recess and reconvene at the call of the 
Chair.
    [Whereupon, at 11:32 a.m., Thursday, June 19, the hearings 
were concluded and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


    MATERIAL SUBMITTED BY DEPARTMENTAL AND INDEPENDENT AGENCIES NOT 
                     APPEARING FOR FORMAL HEARINGS

    [Clerk's note.--The following departmental and independent 
agencies of the Department of the Treasury and the Executive 
Office of the President did not appear before the subcommittee 
this year. The subcommittee requested that these agencies 
submit testimony in support of their fiscal year 1998 budget 
request. Those statements and questions and answers follow:]

                       DEPARTMENT OF THE TREASURY

                       Bureau of the Public Debt

          Prepared Statement of Richard L. Gregg, Commissioner

    Mr. Chairman and members of the Subcommittee, I am pleased to have 
the opportunity to present the following information regarding the 
Bureau of the Public Debt's fiscal year 1998 budget request. Our 
request is reasonable and continues Public Debt's established track 
record of doing more with less and making the difficult decisions 
needed to make this possible.
                             bureau mission
    Public Debt is responsible for the sale, servicing and redemption 
of Treasury securities to handle the government's financing needs, and 
for accounting for the resulting debt and related interest costs. To 
accomplish our mission, we work closely with the Federal Reserve Banks 
that act as our fiscal agents. In addition, we are responsible for 
marketing savings bonds.
                    fiscal year 1998 budget request
    This year's request totals $173.8 million, an increase of 2.4 
percent from our fiscal year 1997 enacted level of $169.7 million. Our 
staffing levels remain at 1,805 FTE, unchanged from the fiscal year 
1997 enacted level. This is the first funding increase Public Debt has 
requested since fiscal year 1993. In fiscal year 1993 our appropriation 
was $194.6 million and 1,935 FTE. Our fiscal year 1998 request 
represents a 14.7 percent decrease in dollars and a 7.2 percent 
decrease in FTE from those fiscal year 1993 levels. These savings have 
been achieved through consolidation to Parkersburg and on-going 
management efforts to streamline functions.
    Nearly all of the requested funding increase is to cover the fiscal 
year 1998 pay raise and other inflationary cost increases. The only 
non-inflationary funding increase in our request is $460,000 that we 
need to begin offering a new security. Last September, President 
Clinton announced that Treasury would begin issuing an inflation-
indexed savings bond in 1998. This new savings bond is to follow the 
introduction of a new marketable inflation-indexed security (the first 
of which was issued in early February). These securities are designed 
to strengthen national savings by broadening the types of debt 
instruments available to investors and by offering Americans an 
investment that provides protection against inflation. We also 
anticipate that taxpayers will benefit as these securities are expected 
to reduce Treasury's financing costs.
    Our fiscal year 1998 request provides sufficient funding for us to 
accomplish our annual performance plan and continue progress toward our 
long-term strategic goals.
                         consolidation savings
    I would like to mention to the Subcommittee that, since our last 
hearing, we completed the consolidation of most of our operations in 
Parkersburg, West Virginia. This major Public Debt initiative has been 
an overwhelming success and was a product of Public Debt's long-
standing strategic planning process. The cost savings and other 
benefits from the consolidation have significantly exceeded our 
original expectations. Our operations are now more integrated and 
better controlled. Our staffing is more predictable. And most 
important, our customers are better served. Further, the consolidation 
has enabled us to submit reduced budget requests for fiscal years 1994 
through 1997. The budget reductions from our consolidation have 
resulted in an on-going annual savings of $15 million and 300 full-time 
equivalent work years. I appreciate the Subcommittee's support for this 
important initiative.
                               automation
    Public Debt is an organization that emphasizes the effective use of 
technology to improve operations. Our strategic planning process 
identifies and sets priorities for automation projects. As you well 
know, many Federal agencies are currently facing the same unavoidable 
challenge--modifying their automated systems to ensure that they will 
operate past 2000. Our strategic approach to make sure that our systems 
are ready is well underway and we do not expect to need any funding 
increases to make the necessary changes.
                            strategic goals
    Our long-term goals are straightforward and succinct:
  I. borrow what is necessary to meet the monetary needs of the 
        Government,
  II. minimize the cost of borrowing to the Federal Government,
  III. provide for participation by a wide-range of investors in 
        Treasury financing,
  IV. protect investors in government securities,
  V. provide quality customer service to investors in Treasury 
        securities, and
  VI. provide accurate and timely public debt accounting information.
    We have established strategies that support these goals. The 
strategies include the extensive use of technology to serve our 
customers and support our internal operations as well as an emphasis on 
simplifying the regulations and procedures that affect our customers. 
We plan, for example, to provide our investors with ever-increasing 
amounts of information electronically. This includes not only general 
information about Treasury securities but also account-specific 
information about holdings and account status. We also plan to offer 
investors the option of purchasing securities electronically.
                      strategic management process
    We have recently incorporated the requirements of the Government 
Performance and Results Act (GPRA) into our planning process. This law 
fundamentally changes the approach to Federal management and 
accountability from a focus on inputs and processes to a greater 
emphasis on outcomes and programmatic results. In essence, GPRA 
requires that we tell you what each of our programs is intended to do 
in the long-term, specifically what we intend to achieve each year, 
and, finally, what we achieved.
    The performance plans required by GPRA are now an integral part of 
the budget documents we send to you each year. In our fiscal year 1997 
budget request, we incorporated measures of program performance in 
addition to the traditional output-oriented workload measures. For 
fiscal year 1998, we have included a more comprehensive set of measures 
for our programs. We believe that our measures reflect the key elements 
of our responsibility, provide meaningful information about our 
programs, and are currently set at levels that provide excellent 
customer service and superior operational performance.
               fiscal year 1996 annual performance goals
    Public Debt's Saving Securities Program had two fiscal year 1996 
performance measures. The first was to issue 95 percent of over-the-
counter savings bonds in three weeks. In fiscal year 1996, we 
substantially exceeded this goal and were able to issue 99 percent of 
these bonds timely.
    The second measure, to complete 80 percent of customer service 
transactions in six weeks, represented a real stretch for our 
organization. We set this goal as part of an overall plan to improve 
customer service. In 1993, we were completing 13 percent of our 
transactions within this time. In fiscal year 1996, our employees made 
remarkable progress but fell just short of our 80 percent goal-we 
achieved 79 percent. While the 80 percent standard was not met for all 
of fiscal year 1996, we were exceeding the standard by the end of the 
year and have continued to exceed the standard and improve service.
    We established three measures for our Marketable Securities Program 
in fiscal year 1996. The first was to announce auction results within 
one hour, 90 percent of the time-we achieved 97 percent. The second 
measure was to complete 90 percent of TREASURY DIRECT customer service 
transactions within three weeks. Our performance was 95 percent. We met 
our third performance measure by establishing 99 percent of Treasury 
Direct accounts accurately.
                                closing
    I appreciate this opportunity to present the major policy and 
management issues facing the Bureau of the Public Debt in fiscal year 
1998.
                                 ______
                                 

                      Financial Management Service

         Prepared Statement of Russell D. Morris, Commissioner

    Chairman Campbell, Senator Kohl, and members of the Subcommittee, 
thank you for the opportunity to submit the Financial Management 
Service's (FMS) fiscal year 1998 budget request and related issues. We 
are requesting an appropriation of $202,560,000 and 2,029 FTE.
    We have always enjoyed and benefited from the bipartisan support of 
the Subcommittee. That support transcends budget dollars that, more and 
more, are in short supply. This Subcommittee has had high expectations 
of FMS; they have depended on us to lead the way in reforming and 
modernizing the government's financial practices.
                                overview
    FMS is a relatively small agency that provides payments, 
collections, accounting information and debt collection services to all 
Federal Agencies and every individual who receives money from the 
government or pays a bill owed to the government. We operate from seven 
locations in the United States, but we support government operations 
world-wide. While our production statistics are in the millions, 
billions, and trillions, our unit costs are measured in pennies. We are 
especially proud of the fact that FMS received nine Hammer awards, 
which are recognition awards given by the Vice-President for creating 
more efficient and effective ways of serving taxpayers. These awards 
were received in program areas related to FMS mission functions such as 
debt management services, financial information services, electronic 
funds transfer, and regional operations.
    Our central roll within the government, benefits the taxpayers as 
it creates efficiencies based on enormous volumes, allows Treasury to 
administer prudent financial management policies, and facilitates the 
collection of delinquent federal debt. The Debt Collection Improvement 
Act of 1996, Public Law 104-134, enacted last April was devised to take 
advantage of the fact that FMS issues most of the government's 
payments. The Law mandates that FMS offset payments to collect debts 
due the government before we pay anyone who is a delinquent debtor.
    FMS disburses payments to a wide array of federal recipients 
including those who receive Social Security, Veterans benefits, Civil 
Service Retirement, and Internal Revenue Service (IRS) tax refunds. FMS 
disbursed over 840 million payments during fiscal year 1996 on time. 
Our payment operations touched the lives of well over 100 million 
citizens last year.
    As this Subcommittee is well aware, FMS is transforming its payment 
operations by moving from paper checks to electronic funds transfers 
(EFT). We are making an aggressive transition in order to comply with a 
provision of the Debt Collection Improvement Act of 1996 (DCIA) that 
requires virtually all federal payments to be issued by some form of 
EFT by January 1, 1999. Presently about 57 percent of all payments are 
disbursed by EFT, most through the Direct Deposit program. The 
initiative was proposed by FMS and supported by members of this 
Subcommittee. I will address our EFT implementation efforts in detail 
later in my testimony.
    FMS manages the processing of all collections for corporate and 
individual income taxes, custom duties, federal fines, and other 
levies. We manage the world's largest collection network of over 17,000 
financial institutions.
    One of our major goals, in partnership with the IRS, is to continue 
to make the nation's tax collection system more efficient for taxpayers 
as well as the government. To this end, we are shifting from paper-
based to electronic systems. During fiscal year 1996, FMS collected 
over $400 billion in corporate withholding taxes using electronic 
systems. We anticipate that the rollout of the Congressionally mandated 
Electronic Federal Tax Payment System will dramatically increase 
electronic collections--to about $1 trillion--by the turn of the 
century.
                          financial reporting
    FMS also manages the central accounting and reporting systems that 
track the government's monetary assets and liabilities. FMS tracks and 
reports on enacted Congressional appropriations, some 7,500 separate 
accounts.
    FMS publishes the government's major financial and budgetary 
reports that are used by the public and private sectors to make policy 
and economic decisions. These reports include: the Daily Treasury 
Statement; the Monthly Treasury Statement; the Treasury Bulletin; and 
the U.S. Government Annual Report and Appendix.
    The Government Management Reform Act (GMRA) of 1994, directed all 
major federal agencies to prepare audited financial statements in order 
for the government to function in a more businesslike manner. GMRA 
mandates that Treasury issue the first audited government-wide 
financial statements beginning with fiscal year 1997, by March 31, 
1998.
    FMS is responsible for managing the preparation of the new audited 
financial statements and is working diligently with every federal 
agency, the Office of Management and Budget (OMB) and the General 
Accounting Office (GAO) to meet this requirement. We are requesting an 
appropriation of $2.5 million to upgrade the Government On-Line 
Accounting Link System (GOALS), a computer system that provides on-line 
information to federal agencies and is the foundation of the 
government's central financial systems. The requested computer 
enhancements are needed to maintain and improve the integrity of the 
government's financial data which is imperative to complying with the 
Chief Financial Officer Act and GMRA.
                                  dcia
    The debt collection legislation that I noted earlier, the DCIA, 
significantly increased FMS' responsibility to facilitate the 
collection of delinquent federal non-tax debt. We are in the process of 
implementing many provisions of the legislation. On behalf of FMS, I 
would like to thank this Subcommittee for its strong support of the 
DCIA.
    The debt collection statute was enacted to improve federal 
financial management by decreasing the amount of past-due non-tax debt, 
now estimated at more than $51 billion. We have always felt that the 
fair, prompt, and efficient collection of delinquent federal debt is 
sound financial policy, so we view full implementation of this bill as 
critical to performing our basic mission.
    The legislation created several new debt collection processes and 
tools, all of which require thorough coordination with other federal 
agencies and the issuance of complex regulations. FMS has met with over 
1,700 federal agency employees who are responsible for carrying-out the 
provisions of the DCIA and we have met with numerous groups and 
individuals that may have a stake in implementing this statute.
    One of the most important debt collection tools mandated by the 
DCIA is the Treasury Offset Program (TOP). This provision requires FMS 
to utilize Treasury's payment operations to administratively offset 
federal payments before they are issued to delinquent debtors. TOP has 
already collected over $300,000 with only a few agencies participating 
at this time. The law requires all agencies to provide FMS with their 
payment and non-tax delinquent debt information for offset. Once the 
program is fully operational, TOP will include all payments, including 
non-Treasury disbursed payments and all delinquent debt over 180 days, 
including delinquent child support debt. TOP will also include current 
programs such as the Tax Refund Offset Program and the Federal Salary 
Offset Program.
    The largest existing delinquent debt collection mechanism, the Tax 
Refund Offset Program (TROP), is currently administered by the Internal 
Revenue Service and FMS, and has been operational since 1987. Under 
TROP, the tax refunds of debtors are utilized to pay off their 
delinquent debts. Thus far, the program has recouped over $7 billion. 
The IRS and FMS have agreed to merge TROP with TOP beginning January 1, 
1998. This merger will create efficiency in administering the programs 
and make the process less complicated for federal agencies and debtors.
    An additional piece of the DCIA authorizes Treasury to help collect 
State debts such as past-due child support payments. In September, 
President Clinton issued Executive Order 13019, Supporting Families: 
Collecting Delinquent Child Support Obligations, to ensure that all 
federal agencies work with Treasury to collect past-due support. We 
will enter into agreements with States that voluntarily seek our help 
to collect these vital monies.
    The DCIA also included important provisions that can be used to 
assist families in collecting past-due child support obligations. The 
law allows the Federal government to partner with the states to collect 
child support obligations through the administrative offset program. 
Currently, eight states and the District of Columbia have taken the 
initial steps in participating in this program and over 725,000 
delinquent parents have been notified that their Federal payments could 
be seized to satisfy delinquent child support debts. All 50 states are 
expected to participate in this program. The jurisdictions currently 
participating are: Alaska; Arizona; California; Connecticut; the 
District of Columbia; Kansas; Oklahoma; Oregon; and South Dakota. 
Another major component of DCIA is the mandate that all Federal 
Agencies refer non-tax debts that are more than 180 days delinquent to 
FMS for collection. FMS is working with agencies on an individual basis 
to develop systems to electronically transfer this debt. FMS will soon 
issue a Request-For-Proposal to begin the process of hiring private 
debt collection agencies to help collect delinquent non-tax debts. FMS 
agrees with the sentiment of Congress that utilizing the talents of 
private debt collectors is an efficient and effective method to recoup 
past-due monies. Overall, collections are anticipated to be over $100 
million annually over current collections.
                                  eft
    As I stated previously, the DCIA contained a provision requiring 
that virtually all federal payments, with the exception of IRS tax 
refunds, be issued by some form of Electronic Funds Transfer (EFT) by 
January 1, 1999. We have encouraged agencies and financial institutions 
to use EFT because electronic payments are more reliable, less 
expensive and safer than payments made by check.
    We implemented the first phase of the EFT mandate when on July 26, 
1996, FMS issued a regulation that required all new recipients of 
federal funds to receive their money by EFT. Consistent with the law, 
the rule exempted tax refund payments and granted waivers for 
recipients who did not have bank accounts. This phase of the law has 
already paid dividends. FMS' EFT payments rate for January 1996 was 56 
percent while the EFT payments rate for January 1997 was 60 percent.
    The task of meeting the 1999 mandate--conversion of nearly 400 
million check payments to EFT--is infinitely more challenging. To help 
ensure the success of this unprecedented program, FMS is receiving 
support from the Department of the Treasury.
    FMS expects to issue a proposed rule to implement the 1999 mandate 
in the summer that will cover an array of sensitive issues related to: 
disbursing electronic payments to recipients who do not have bank 
accounts, including cost, access and consumer protection needs of 
recipients; electronic data interchange/vendor payments; and the 
establishment of a national federal Electronic Benefits Transfer (EBT) 
program. We expect that a final rule will be published by early fall.
    The EFT 99 project is transforming FMS and segments of the 
financial community. Its success is imperative if we wish to provide 
first rate payment services at the lowest possible cost.
                                  gpra
    FMS has worked diligently to implement the Government Performance 
and Results Act (GPRA) of 1993. GPRA levies three major requirements on 
federal agencies for the fiscal year 1999 budget cycle: strategic 
plans, annual agency performance plans, and annual agency performance 
reports. Our work has been commended and cited as an example to other 
agencies by the OMB and the GAO.
    FMS has relied on strategic planning for about 15 years. We have 
been measuring our programs' performance systematically since the 
passage of the Chief Financial Officers Act. FMS is especially proud of 
our accomplishments in performing a ``dry run'' of GPRA over the past 
year for the fiscal year 1998 budget cycle.
    FMS continues to review performance measures and their relevance to 
program goals resulting in four overarching strategic measures:
  --Dollar savings by reducing the number of check payments;
  --Dollar value of electronic collections as a percentage of total 
        collections;
  --Percentage increase over fiscal year 1997 baseline of FMS-managed 
        government-wide collected delinquent debt; and
  --Decrease in prior year recommendations and audit findings that 
        prevent a clean opinion of the audit of the Consolidated 
        Financial Statement of the U.S. Government.
    The measures are the foundation of our Annual Performance Plans as 
shown in the budget. We look forward to further refining our approach 
to GPRA implementation during the fiscal year 1999 Budget process.
                               year 2000
    FMS is heavily dependent on automated systems. Like most agencies 
of the government, FMS faces the challenge of adapting its systems to 
the date change--the Year 2000 computer problem. Correcting this 
problem is one of our highest priorities since both public and private 
sector customers rely on our products and the accuracy of the 
information associated with these products. We are requesting an 
additional $2 million for resources which will help make automated 
systems year 2000 compliant, work that is absolutely essential to our 
operations and to the integrity of our systems for paying, collecting, 
and accounting for money government-wide. I want to assure you that we 
are asking for funding for this initiative, and the GOALS initiative, 
only because we simply have no way to absorb these costs. Due to the 
nature of FMS' mission and the fact that virtually all program 
activities are mandated by statute, it is necessary to request these 
additional funds since no base programs can be eliminated or postponed 
and we have worked very, very hard to achieve all possible cost 
recoveries.
                          legislative proposal
    Finally, FMS is requesting Congress' consideration and support for 
an important legislative initiative in fiscal year 1998. The 
President's budget proposes to create a permanent, indefinite 
appropriation to reimburse Federal Reserve banks for their services as 
fiscal agents for Treasury's Fiscal Service. Proposed language to 
establish the fund is included in FMS's justification. This initiative 
is needed to create an accurate accounting for the cost of financial 
services provided to Treasury by the Federal Reserve. The proposal is 
deficit neutral. This legislation would enable Treasury to improve 
service to its customers by expediting the development and completion 
of financial projects by Federal Reserve banks. The proposal will also 
provide FMS opportunity to more fully use activity based costing 
methods to accurately identify program and product costs.
    Thank you for allowing me the opportunity to discuss FMS' mission 
and successes. I would be happy to answer any further questions you 
have regarding FMS.
                                 ______
                                 

                        Office of the Secretary

    Prepared Statement of Robert E. Rubin, Secretary of the Treasury

    Chairman Campbell, Senator Kohl, members of the Committee: I 
appreciate the opportunity to submit testimony on the Treasury 
Department's fiscal year 1998 budget request. Today, our national 
economy is strong. In large measure due to the deficit reduction 
program of 1993, and the economic growth that it generated, the deficit 
has fallen from close to five percent of GDP to an estimate of roughly 
one percent of GDP for 1997. That deficit reduction was key to reducing 
interest rates and increasing confidence, which, in turn, drove our 
recovery. Today, unemployment is at 4.8 percent, inflation is low, and 
the economy has generated over 12 million new jobs. Treasury's budget 
is constructed to be consistent with the objective of continuing the 
economic progress of the last four years.
    The Treasury plays a key role in the core functions of government: 
tax policy, banking policy, revenue collection, federal law 
enforcement, management of the federal debt, economic policy 
development, budget policy, international economic affairs, inner city 
economic development, the processing of federal payments and the 
manufacture of our nation's currency. With such a broad portfolio, we 
take very seriously the notion that we must continually seek new ways 
to improve services and lower costs. As Secretary, I have been 
interested in and very focused on management.
    In our fiscal year 1998 budget request of $11.7 billion, funding is 
proposed for the most essential operations. The operating budget of 
$11.2 billion, excluding the information technology fund for the 
Internal Revenue Service, is 4.2 percent over the fiscal year 1997 
appropriated level. Our request maintains current service levels for 
all of Treasury's operations, while proposing important advancements 
for a few Department programs and priorities.
    In accordance with the Government Performance and Results Act 
(GPRA), we are focusing resources on the highest priorities; changing 
our focus from input to results; and expanding cooperation among 
managers, workers and stakeholders. I am pleased to report that 
Treasury's budget this year is in compliance one year ahead of time 
with all requirements mandated under the government's strategic 
planning guidelines.
    The fiscal year 1998 request continues funding to help develop 
innovative economic, financial, enforcement and tax policies. This 
level will also provide the flexibility needed to meet Treasury's 
growing demands in areas such as expanded oversight of major law 
enforcement operations, reform of international financial institutions, 
ongoing tax code improvements, and policy implications of electronic 
payments and other complex financial instruments.
    Let me now highlight some budget items focusing on three key 
Treasury missions--law enforcement, management of the government's 
finances, and promotion of a prosperous global economy.
                            law enforcement
    Treasury is responsible for more than forty percent of the federal 
government's law enforcement personnel. We are requesting new resources 
to combat violent crime; decrease availability of illegal drugs and 
other contraband; protect designated officials; continue counter-
terrorism efforts; and upgrade law enforcement equipment, skill levels 
and facilities. Let me mention a few of our priorities.
    Requested funds will enhance Treasury efforts to decrease the 
availability of illegal firearms to criminals and juveniles, especially 
the Bureau of Alcohol, Tobacco and Firearm's successful Kids and Guns 
initiative. We also seek new resources for Customs to fight narcotics 
trafficking and other illicit smuggling activity at our borders.
    Financial crime enforcement continues to be a high priority. The 
profits of crime that are laundered into the United States' financial 
system each year are staggering and detrimental by any calculation, and 
the losses attributable to financial fraud--such as bank fraud and 
access device fraud--are a threat to financial transaction systems. We 
will enhance our tools in support of essential financial crime 
investigations to protect our financial institutions better and to 
trace illicit profits to their criminal sources.
    Money laundering and other financial crimes should be recognized as 
clear threats to financial institutions, and enforcement of financial 
crime statutes should be recognized as an avenue for law enforcement to 
attack the leaders of drug gangs and organized crime. The fiscal year 
1998 budget provides funds to continue efforts by the IRS, the 
Financial Crimes Enforcement Network, Customs and the Secret Service, 
in cooperation with other law enforcement agencies, to address money 
laundering.
    Additional resources for the Secret Service will be used to support 
the continued implementation of outstanding White House Security Review 
recommendations. We must maintain our vigilance in discharging our 
protective mission by employing methods to detect and confront security 
threats before they surface.
    We also continue to emphasize counter-terrorism efforts. Customs 
will continue aggressively to promote protection at airports through 
automated targeting, non-intrusive inspection systems, and increased 
enforcement presence. The Bureau of Alcohol, Tobacco & Firearms will 
work to decrease explosive and arson crimes through the canine 
explosives detection program, explosive inspections, and an arson 
clearinghouse.
    We also seek to upgrade law enforcement equipment, skill levels, 
and facilities for ATE, Customs, the Secret Service, and the Federal 
Law Enforcement Training Center.
              effectively manage the government's finances
    New resources will enable Treasury to manage the tax administration 
process to improve compliance with tax laws, advance the Government's 
fiscal and financial management, and secure effective and efficient 
information systems.
    Last year, we promised a sharp turn in program direction at the 
IRS. I am pleased to say that the commitments made last year have been 
kept, including, for example, hiring a new CIO, dramatically increasing 
the use of the private sector, implementing a new Investment Review 
process, and establishing the Modernization Management Board. Last 
week, President Clinton issued an Executive Order institutionalizing 
Treasury Department oversight of IRS management. This Executive Order 
makes permanent the Internal Revenue Service Management Board created 
by the Treasury Department last year. The Department will also 
establish a blue ribbon Advisory Committee, reporting directly to the 
Secretary of the Treasury, which will bring private sector expertise to 
bear on the management of the IRS. In addition, we have canceled 
several major contracts and collapsed over 30 separate modernization 
projects into a more manageable nine. We plan to introduce legislation 
to give the new Commissioner greater management flexibilities and to 
appoint the Commissioner for a five-year term.
    Changes of this magnitude at the IRS will take time, just as the 
problems developed over a considerable period of time. Let me state 
unambiguously that the Treasury remains committed to modernizing the 
IRS. We believe that it is essential for the Administration and the 
Congress to work together to improve the functioning of our tax 
administration system, and in my time at Treasury, this committee has 
played a major role in bringing effective focus to bear on the relevant 
issues.
    The Internal Revenue Service, Financial Management Service, 
Departmental Offices, Alcohol, Tobacco and Firearms and Secret Service 
are also requesting funds to ensure that technology systems will not be 
affected by the Year 2000 date changes. These systems are critical to 
core government functions such as cash management, payments, 
collections, accounting, and financial reporting.
    Finally, a priority for Treasury is to develop and implement 
policies relating to fiscal and financial issues such as electronic 
money and other complex financial instruments.
                   promote a prosperous world economy
    Treasury plays a key role in fostering global economic growth and 
stability, in order to further U.S. economic and national security 
interests. Treasury has been actively involved in issues ranging from 
assistance to Russia, help in reconstructing Bosnia, and emergency 
support for Mexico, which, as you know, has repaid the U.S. Government 
in full, principal and interest, including a profit of $580 million. 
Most of the funding for these priorities is through our commitments to 
the World Bank, the regional development banks, the International 
Monetary Fund, and the New Arrangement to Borrow, and are under the 
jurisdiction of another subcommittee. But let me just mention a couple 
of priorities in this area that are under the jurisdiction of this 
committee.
    The fiscal year 1998 budget proposes to strengthen the Department's 
capacities to engage in opening new markets for trade and investment, 
reducing financial risks throughout the world and forging links with 
emerging markets. We also seek to upgrade equipment for the Customs 
Service to support a more effective, trade law compliance and maintain 
analytical parity with its counterparts in other countries.
    Mr. Chairman, let me mention two final areas that are priorities 
for Treasury. First, a high priority for Treasury is to strengthen the 
soundness of financial institutions in this country. The Offices of 
Thrift Supervision and the Comptroller of the Currency continue to play 
a major role in ensuring bank and thrift safety and soundness in order 
to advance a strong national economy. The Office of the Comptroller of 
the Currency has been designated as the lead to coordinate Treasury's 
efforts to study the issues related to electronic money. In addition, 
the OTS and OCC are downsizing in response to the consolidation of 
financial institutions.
    Second, President Clinton strongly believes that it is critical to 
the economic well-being of all Americans, no matter where we live, or 
what our incomes are, that we bring the residents of America's inner 
cities and other economically distressed areas into the economic 
mainstream. Treasury is actively involved in this effort, through 
measures such as the Community Development Financial Institutions Fund, 
which provides much needed investment capital to distressed urban and 
rural communities. Our budget includes $125 million for this critical 
program, which last year drew more than 260 applications for over $300 
million in assistance, demonstrating the market demand and potential 
for this program.
    Mr. Chairman, let me conclude by saying that I appreciate the 
assistance and cooperation that I have received from this Subcommittee 
since coming to Treasury. I look forward to maintaining that 
cooperation as we move forward.
    It has been my great honor to serve as Treasury Secretary for the 
last two years. In that time I have been continually impressed by the 
high quality of Treasury employees. They are professional, very 
knowledgeable about their various fields of expertise, extremely 
dedicated to their work, and to serving the public. The people at 
Treasury are our greatest resource. They deserve our respect and 
support, especially as we go through the difficult process of reaching 
budget balance.
    Mr. Chairman, with such a dedicated and talented team, with the 
close cooperation of Congress and the Administration, and with the 
appropriate funding for the Treasury Department, we will be able to 
maintain--and improve--the high level of service you have come to 
expect from the Department. Thank you very much.

                Questions Submitted by Senator Campbell

                            budget structure
    Question. In looking over the IRS' fiscal year 1998 budget request, 
IRS has asked Congress to allow the IRS to restructure their budget 
into three categories: (1) Processing, Assistance, and Management, (2) 
Tax Law Enforcement, (3) Information Systems. Although this may be more 
in line with what IRS is trying to accomplish on the management side, I 
am concerned that this new structure may be harder for Congress to 
track how IRS is spending its money. Can you comment on this new 
structure?
    Answer. There are some elements of the restructuring that may make 
it easier to track how IRS is spending its money. For example, IRS' 
restructuring includes (1) a consolidation of what were four different 
resources management budget activities into a single Management 
Services activity and (2) creation of a separate budget activity for 
rent and utilities. Other elements of IRS' restructuring could make 
tracking more difficult. In that regard, one major restructuring 
involves what used to be the ``Taxpayer Services'' budget activity. 
That activity, which is part of IRS' Processing, Assistance, and 
Management appropriation, was renamed ``Telephone and Correspondence'' 
and was revised to combine various assistance programs with compliance 
activities conducted by phone and correspondence. At the same time, the 
restructuring transfers certain face-to-face customer service 
activities to the Tax Law Enforcement appropriation. Specifically, 
funds for the Taxpayer Education Program are now included in the 
Examination budget activity and funds for the Taxpayer Walk-in 
Assistance Program are now included in the Collection budget activity. 
While these changes may be consistent with IRS' plans for managing the 
related programs, they do make it difficult to separately track how 
much is being spent on customer service and compliance. Also, such 
changes in budget structure make it difficult, if not impossible, to 
assess spending trends over several years. With respect to the proposed 
structural changes in the fiscal year 1998 budget request, for example, 
IRS revised its fiscal year 1997 figures to coincide with the revised 
structure but figures for fiscal years before 1997 are not comparable.
                         information technology
    Question. As part of their fiscal year 1998 budget request, the IRS 
is asking for a $500 million advance appropriation for Information 
Systems, which is not to be obligated during fiscal year 1998. It is to 
be an up-front investment by Congress to demonstrate that we are 
committed to the modernization effort. You mentioned about the $500 
million fiscal year 1998 capital investment for IRS' modernization 
effort in your testimony. Can you comment further?
    Answer. As we stated in our testimony, IRS is requesting $500 
million in fiscal year 1998 and another $500 million in fiscal year 
1999 to establish an Information Technology Investments Account to fund 
future modernization investments. According to IRS' request, the funds 
are to support acquisition of new information systems. The request also 
stated that expenditures from the account will be reviewed and approved 
by Treasury's Modernization Management Board, and no funds will be 
obligated before July 1, 1998. We cannot comment further at this time 
because IRS has provided no additional details on what it plans to do 
with the $1 billion nor any justification for spending these funds.
    Question. What would happen to the nation's tax collection system 
should Congress withhold modernization funding as you suggest?
    Answer. Although IRS attempts at modernization over the last 10 to 
15 years have largely failed, IRS continues to collect taxes and 
process returns at levels it deems to be successful. This is because 
the operation and maintenance of existing systems is appropriated 
separately from the funds to modernize, i.e., to develop new systems to 
do IRS' business in new and better ways. Therefore, if Congress decides 
to withhold modernization funds (and only provides funds for current 
operational systems) until IRS strengthens identified management and 
technical weaknesses, IRS will continue to maintain and rely upon its 
operational systems and will continue to collect taxes and process 
returns as it does today. IRS' performance in collecting delinquent 
taxes would also remain the same. As we have reported, IRS' performance 
in that area has generally been poor due to inefficient processes and 
systems.\1\ However, as evidenced by the lack of significant 
improvement despite the substantial amount of modernization funds 
appropriated over the past several years, funding, in and of itself, 
will not correct those inefficiencies nor improve IRS' performance.
---------------------------------------------------------------------------
    \1\ ``High-Risk Series, IRS Management'' (GAO/HR-97-8, February 
1997).
---------------------------------------------------------------------------
    Question. Can you provide any insight to this subcommittee on what 
the IRS intends to spend these funds on?
    Answer. According to IRS' fiscal year 1998 budget request, the $500 
million, along with $500 million being requested in fiscal year 1999, 
is to establish an Information Technology Investments Account to fund 
future modernization investments. IRS has said it plans to use the 
funds to support acquisition of new information systems but has 
provided no further detail. It has also said that expenditures from the 
account will be reviewed and approved by Treasury's Modernization 
Management Board, and no funds will be obligated before July 1, 1998.
    Question. The Request For Comment on the Prime Contractor of IRS' 
new modernization plan, calls for a $250 million up-front investment by 
the Prime and only a three-year contract. In your assessment, is the 
size of the investment appropriate? Do you feel the Prime can recoup 
its investment within the three years?
    Answer. Until IRS completes the architectural blueprint, provides 
defining details and a timeline for the sequencing plan, and develops 
the cost estimates for implementing these plans, we cannot assess 
whether the $250 million is an appropriate up-front investment and 
whether or how it could be recouped within three years.
                            strategic plans
    Question. This year, agencies are consulting Congress on their 
strategic plans as part of the Government Performance and Results Act, 
which is a process to help agencies establish priorities, measure their 
performance and align their budgets to fit their mission. Can you 
highlight where you think IRS is doing a good job in their strategic 
planning and where they are having difficulty?
    Answer. In response to a congressional request from the House 
Majority Leader and several chairman of various House Committees, we 
are currently evaluating all departmental strategic plans to determine 
whether they comply with requirements of the Results Act. As a part of 
that effort we are reviewing the Department of Treasury' strategic plan 
and the plans of each agency under the purview of Treasury, including 
IRS. Our response is based on our preliminary review of IRS' current 
strategic plan. In the mid-1980's IRS developed a strategic plan that 
included a mission statement, objectives, and strategies for meeting 
those objectives. Since then, IRS has been refining its strategic 
planning process to (1) establish a better linkage between strategic 
planning and IRS' budget process and (2) develop more outcome-oriented 
measures. However, IRS faces a number of challenges in its attempts to 
develop and use results oriented performance indicators to manage its 
programs. These include a lack of good data, methodological constraints 
in measuring the effectiveness of its programs, and difficulty in 
collecting the data needed.
                     private debt collection pilot
    Question. In the fiscal year 1997 Treasury Appropriation bill, this 
subcommittee funded a private debt collection project, which was to do 
a pilot allowing the private sector to collect on accounts that the IRS 
considered uncollectible. According to your testimony, GAO's review of 
the ongoing debt collection pilot identified significant legal, systems 
and operations, and performance measurement barriers to the pilot's 
success. You say that additional spending should be prohibited until 
those problems are resolved. How much additional money do IRS and 
Treasury have available to spend on debt collection pilots?
    Answer. IRS was directed in its fiscal year 1996 appropriation to 
test the use of private collection companies, and Congress earmarked 
$13 million for that purpose. IRS estimates that only about $4 million 
of the original $13 million will be obligated. With the passage of IRS' 
fiscal year 1997 appropriation, Congress earmarked another $13 million 
and directed that IRS extend the initial pilot for a second year. An 
additional $13 million was also earmarked in IRS' fiscal year 1997 
appropriation for a second pilot--to be managed by the Department of 
the Treasury. None of this additional total of $26 million has been 
obligated.
    Question. Can you comment on the success of this program? Is the 
program's failure due to the way it was set up? Do you have any 
recommendations on how to make this a successful program?
    Answer. Certain design issues and operational problems affected 
implementation of IRS' private debt collection pilot program. The 
pilot's scope was limited at the outset by certain legal 
interpretations that restricted the types of collection activities that 
private contractors can do. Also, the pilot was not designed to 
identify successful collection techniques used by the private sector 
that could be adopted by IRS. In addition, operational problems 
occurred when IRS had to use its outdated computer systems to identify 
and select cases for the contractors. At the outset, the scope of the 
contractors' activity was limited to locating taxpayers who IRS could 
not find as opposed to collecting taxes from delinquent taxpayers. The 
Office of Management and Budget and IRS consider the collection of 
taxes to be an inherently government function that must be performed by 
government employees. As a result, the pilot's contractors could only 
assist IRS in locating and contacting delinquent taxpayers to remind 
them of their outstanding tax liabilities and to suggest various 
payment options. The contractors were prohibited from actually 
collecting funds to settle delinquent accounts. The contractors also 
could not be paid on a contingency fee basis; instead they were paid 
according to a performance fee schedule. Although the scope of the 
contractors' case work was limited to locating delinquent taxpayers, 
IRS could have used the contractors to help identify successful private 
sector collection techniques that could be adopted by IRS. However, the 
pilot did not include any provisions for doing so. There were also 
operational problems with the pilot. IRS never expected that taxpayer 
cases would be released to private collectors, thus its data systems 
contain sensitive taxpayer information that is inappropriate for 
release outside of IRS. Therefore, IRS had to develop criteria and 
computer programs to screen cases prior to their transfer to the 
contractors. In addition, IRS' outdated computer systems and technology 
and the inability to transfer data from one service center to another 
impeded the referral of cases to the contractors.
                         tax return processing
    Question. In IRS' fiscal year 1998 budget request there is included 
an increase for 195 full time equivalent employees and $11 million to 
process paper returns. While IRS is requesting an increase in paper 
returns processing employees, they are also projecting a steady 
increase in the number of taxpayers who file electronically. With the 
growing number of electronically filed returns, is there a need for an 
increase in the number of employees that process paper returns?
    Answer. IRS' methodology for determining the number of returns 
processing staff needed for fiscal year 1998 seems to indicate that 
additional staff are needed to process tax returns despite an estimated 
increase in the number of electronic returns. In explaining the 
requested increase, IRS projected that the number of primary tax 
returns filed will increase from 197.9 million in 1997 to 200 million 
in 1998 and that 91 percent of the increase in primary tax returns (or 
1.9 million returns) will be filed electronically. We believe that IRS' 
methodology is flawed because it does not appear to fully account for 
some of the benefits of electronic filing beyond the data capture stage 
of tax return processing. Specifically, electronic returns have fewer 
errors, which should reduce the need for error correction in subsequent 
processing stages. The data IRS used to determine its need for $11 
million and 195 full-time-equivalent staff years indicated that IRS 
only saves about 5 staff years for every 1 million returns that are 
filed electronically. At least part of the smaller-than-expected 
savings from electronic filing can be attributed to the fact that 
electronic filing is not truly paperless. Taxpayers filing 
electronically, other than through TeleFile, must submit a paper 
signature document to authenticate the electronic portion of their 
return. And IRS returns processing staff have to keypunch data from 
that document. In January 1993, we reported that to significantly 
increase the use of electronic filing IRS would have to resolve various 
issues that adversely affect the appeal of electronic filing.\2\ One of 
those issues is the requirement to submit paper documents with an 
electronic return. Despite the fact that electronic filing is not truly 
paperless, we would have expected more labor savings than IRS' analysis 
shows. Because up-front filters keep certain taxpayer errors that are 
common on paper returns from contaminating electronic returns, we would 
expect that the labor and related costs to process electronic returns 
after the data capture stage would be substantially lower than the 
labor and related costs associated with processing paper returns. 
According to IRS budget officials, IRS has an effort underway to 
determine the comparative cost of processing electronic and paper tax 
returns. They expect that study to be completed in September 1997.
---------------------------------------------------------------------------
    \2\ ``Tax Administration: Opportunities to Increase the Use of 
Electronic Filing'' (GAO/GGD-93-40, Jan. 22, 1993).
---------------------------------------------------------------------------
                       tax systems modernization
    Question. In July 1995, GAO reported serious management and 
technical weaknesses with IRS' tax system modernization and made over a 
dozen recommendations to IRS' Commissioner to address the weaknesses. 
In May 1996, Treasury reported to the Congress that it recognized that 
IRS did not have the capability to effectively modernize its systems 
and was working with IRS to obtain additional contractors--including a 
``prime'' contractor--to help accomplish the modernization. Following 
up on IRS efforts to correct the weaknesses, GAO reported in June and 
September 1996 that while IRS had initiated many activities to improve 
its modernization efforts, it had not yet fully implemented any 
recommendations. Consequently, in order to minimize the risk attached 
to continued investment in its systems' modernization, GAO suggested to 
Congress that it consider limiting modernization funding exclusively to 
cost-effective efforts that (1) support ongoing operations and 
maintenance; (2) correct IRS' pervasive management and technical 
weaknesses; (3) are small, represent low technical risk, and can be 
delivered quickly, and (4) involve deploying already developed and 
fully tested systems that have proven business value and are not 
premature given the lack of a completed architecture. In light of IRS 
actions to date to address GAO weaknesses, what remains to be done?
    Answer. As we noted in our recent high-risk reports addressing Tax 
Systems Modernization,\3\ IRS has not fully implemented any of the 
recommendations made in our July 1995 report.\4\ Therefore, IRS needs 
to make concerted, sustained efforts to fully implement our 
recommendations and respond to the requirements outlined by Congress. 
These efforts include (1) limiting information system projects, both in 
house and contracted out, to small, low risk, near-term projects that 
IRS has the ability to successfully develop or acquire; (2) improving 
IRS' system development and acquisition capabilities; (3) finalizing 
the architecture and ensuring that all IRS system projects conform to 
it; (4) instituting disciplined investment processes to ensure that all 
information technology investment decisions (e.g., project selection, 
control, and evaluation) are based on reliable, objective, and, 
whenever possible, quantitative data including cost and risk adjusted 
return on investment; (5) reengineering IRS business processes, 
focusing on electronic filing, and using these improved processes to 
determine those information technology investments needed to support 
the new processes; and (6) ensuring that all future IRS information 
systems budgets take into account IRS' performance as specified in the 
Clinger-Cohen Act. These efforts will take both management commitment, 
follow-through, and technical discipline by IRS in partnership with the 
Department of the Treasury, the Office of Management and Budget, and 
Congress. Once these essential improvements are made, IRS should have 
an effective implementation strategy for achieving its business vision, 
the capacity to make sound investments in information technology, and 
the necessary technical foundation for effectively modernizing its 
processes and systems. However, until these essential improvements are 
made and adequate justifications for system investments are provided, 
Congress, as we suggested in June and September 1996,\5\ could continue 
to limit modernization funding to only cost-effective efforts that (1) 
support ongoing operations and maintenance; (2) correct IRS' pervasive 
management and technical weaknesses; (3) are small, represent low 
technical risk, and can be delivered quickly; and (4) involve deploying 
already developed systems, only if these systems have been fully 
tested, are not premature given the lack of a completed architecture, 
and produce a proven, verifiable business value. As Congress gains 
confidence in IRS' ability to successfully develop these smaller, 
cheaper, quicker projects, it could consider approving larger, more 
complex, more expensive projects in future years.
---------------------------------------------------------------------------
    \3\ ``High-Risk Series, IRS Management'' (GAO/HR-97-8, Feb. 1997) 
and ``High-Risk Series, Information Management and Technology'' (GAO/
HR-97-9, Feb. 1997).
    \4\ ``Tax Systems Modernization: Management'' and ``Technical 
Weaknesses Must Be Corrected If Modernization Is To Succeed'' (GAO/
AIMD-95-156, July 26, 1995).
    \5\ ``Tax Systems Modernization: Actions Underway But Management 
and Technical Weaknesses Not Yet Corrected'' (GAO/T-AIMD-96-165, Sept. 
10, 1996) and ``Tax Systems Modernization: Actions Underway But IRS Has 
Not Yet Corrected Management and Technical Weaknesses'' (GAO/AIMD-96-
106, June 7, 1996).
---------------------------------------------------------------------------
    Question. IRS has intimated that if the Congress does not fund 
modernization projects, IRS will be unable to collect all taxes due to 
the government. What would happen to the nation's tax collection system 
should the Congress withhold modernization funding as you suggest?
    Answer. Although IRS attempts at modernization over the last 10 to 
15 years have largely failed, IRS continues to collect taxes and 
process returns at levels it deems to be successful. This is because 
the operation and maintenance of existing systems is appropriated 
separately from the funds to modernize, i.e., to develop new systems to 
do IRS' business in new and better ways. Therefore, if Congress decides 
to withhold modernization funds (and only provides funds for current 
operational systems) until IRS strengthens identified management and 
technical weaknesses, IRS will continue to maintain and rely upon its 
operational systems and will continue to collect taxes and process 
returns as it does today. IRS' performance in collecting delinquent 
taxes would also remain the same. As we have reported, IRS' performance 
in that area has generally been poor due to inefficient processes and 
systems.\6\ However, as evidenced by the lack of significant 
improvement despite the substantial amount of modernization funds 
appropriated over the past several years, funding, in and of itself, 
will not correct those inefficiencies nor improve IRS' performance.
---------------------------------------------------------------------------
    \6\ ``High-Risk Series, IRS Management'' (GAO/HR-97-8, February 
1997).
---------------------------------------------------------------------------
    Question. What are your views on Treasury's and IRS' strategy to 
increase their reliance on contractors, specifically a ``prime'' 
contractor, to manage modernization deployment and implementation. What 
does IRS need to do to position itself to effectively manage 
contractors?
    Answer. Increasing the use of contractors will not automatically 
increase the likelihood of successful modernization because IRS does 
not have the disciplined acquisition processes needed to manage all of 
its current contractors. As a case in point, IRS' Cyberfile--a system 
development effort led by contractors to enable taxpayers to personally 
prepare and file their tax returns electronically--exhibited many 
undisciplined software acquisition practices as well as inadequate 
financial and management controls. Eventually, IRS canceled the 
Cyberfile project after spending over $17 million and without fielding 
any of the system's promised capabilities. Therefore, if IRS is to use 
additional contractors effectively, it will have to first strengthen 
and improve its ability to manage those contractors.
            request for comments for modernization/blueprint
    Question. On May 15, 1997 the IRS released its Request for Comments 
to the IRS' Modernization Blueprint as the first step in searching for 
a Prime contractor for the IRS' new computer modernization effort. Many 
within the private sector have had a positive response to the IRS' 
Blueprint for Technology Modernization. What is GAO's opinion?
    Answer. We are in the process of reviewing IRS' blueprint with the 
goal of briefing the Congress, IRS, and Treasury later this summer.
    Question. IRS is responding to Congressional direction as evidenced 
by its Blueprint for Technology Modernization, efforts to outsource 
Modernization to a private sector Prime Contractor, and efforts to 
strengthen its project management capability through external 
recruiting. What level of funding should be provided to insure that the 
preparatory steps needed to be taken for Modernization are not delayed, 
jeopardized or prevented?
    Answer. In order to determine an appropriate level of funding, IRS 
must first identify the preparatory steps and estimate their associated 
costs. Congress then could evaluate IRS' plans and cost estimates, and 
fund those efforts that are supported by a convincing business case 
analysis. IRS funding requests need to place priority on steps to 
correct persisting management and technical weaknesses.
                          year 2000 conversion
    Question. You say in your testimony that the $84 million included 
in IRS' fiscal year 1998 budget request for the century date change 
effort may be insufficient. Why might that amount be insufficient and 
how much more might IRS need in fiscal year 1998 for this project?
    Answer. The $84 million included in IRS' fiscal year 1998 budget 
request was a preliminary estimate of century date change costs based 
on September 1996 cost estimates. This figure was based on an estimate 
of lines of computer code for IRS' main tax processing systems. IRS' 
estimates were preliminary because IRS did not have a complete 
inventory of other information management resources, including its 
secondary tax processing systems. Since then, IRS has been working to 
develop a comprehensive Service-wide inventory of its information 
management resources including all application programs, systems 
software, and hardware that should enable it to better identify its 
resource requirements for the century date change effort. The $84 
million figure also did not include cost estimates for the purchase of 
hardware and software that will be needed to make some systems century 
date compliant.
    Since submission of the 1998 budget request to Congress, IRS' 
century date change project office has been working with the various 
IRS organizations that have responsibility for carrying out century 
date conversion tasks to identify more precise cost estimates. As of 
June 6, 1997, the century date change project office had revised its 
fiscal year 1998 cost estimate from $84 million to $119 million. This 
estimate is still incomplete because there are potentially significant 
costs in other areas for which IRS has yet to complete assessments 
including (1) secondary tax processing systems that are also critical 
to the tax administration process, (2) telecommunications, (3) 
commercial off-the-shelf software, (4) increased computer capacity to 
handle expanded files, (5) replacement costs for systems that cannot be 
made century date compliant, and (6) non-information technology 
resources (e.g., elevators and heating and air conditioning units). IRS 
has efforts underway to address each of these areas. For example, IRS 
recently formed a committee of executives to address options for 
dealing with secondary systems. By the end of July, this committee 
expects to have made decisions on which of these systems will or will 
not be converted. IRS officials said that they expect to have a 
complete cost estimate for converting these systems by September 1997.
                          telephone assistance
    Question. During each filing season, GAO has consistently pointed 
out IRS' low levels of telephone accessibility. For the 1997 filing 
season, IRS added more staff to answer the telephone, including staff 
detailed from IRS' enforcement functions. What are your views on IRS' 
recent decision to add more staff to answer the telephone?
    Answer. According to IRS data, telephone accessibility increased 
from 20.1 percent during the 1996 filing season to 50.9 percent during 
the 1997 filing season. A major contributor to that increase was IRS' 
decision to add more staff, including enforcement staff, to answer the 
telephone. Although we recognize that there are costs associated with 
detailing enforcement staff to answer the telephone, we believe that 
IRS' decision was appropriate. Taxpayers who have questions about their 
account or about the tax law must be able to reach IRS by telephone. 
Although accessibility improved significantly in 1997, it is still far 
from acceptable. In trying to further improve accessibility, it is 
important that IRS look for solutions beyond merely adding more staff 
to answer the phones--solutions, for example, that negate the need for 
taxpayers to call IRS in the first place. That would require such 
things as simplifying forms and instructions, making the notices it 
sends taxpayers easier to read and understand, and continuing efforts 
to expand and market other sources of information (such as the IRS Web 
site on the Internet). The tradeoff between customer service and 
enforcement that IRS faced in 1997 is indicative of the kinds of 
tradeoffs that are likely to continue for the foreseeable future as IRS 
deals with competing demands. As we mentioned in our testimony, 
Congress has put in place a statutory framework, including the 
Government Performance and Results Act, for addressing these challenges 
and helping Congress and the executive branch make the difficult 
tradeoffs that the current budget environment demands.
                           electronic filing
    Question. Although there was an increase in electronic filing, 
including filing by telephone, in 1997, only about 17 percent of all 
individual income tax returns are filed electronically. In GAO's 
opinion, what are some of the major barriers to greater use of 
electronic filing?
    Answer. Our answer differs, in some respects, depending on whether 
we are talking about regular electronic filing (which we refer to 
hereafter as ``electronic filing'') or telephone filing (which we refer 
to hereafter as ``TeleFile''). For electronic filing, the most 
significant barrier, in our opinion, is cost. To file electronically, a 
person, even one who has prepared his or her return on a computer, must 
go through a third party and pay a fee. Thus, it is not surprising, in 
our opinion, that electronic filing has historically appealed most to 
persons who are due refunds and who want the money quickly. For those 
taxpayers who prepare their returns on computers but are unwilling to 
pay to transmit the returns electronically, the result is especially 
inefficient and counterproductive. The taxpayer prepares the return on 
a computer and then converts it to paper for mailing to IRS, which then 
employs a labor intensive, error prone process to input that 
information back into a computer. As discussed in response to an 
earlier question, one contributor to the cost of electronic filing, 
both to IRS and the taxpayer, is the fact that electronic filing is not 
truly paperless. IRS' ability to overcome barriers, like cost, and thus 
increase the use of electronic filing is impaired by the absence of 
comprehensive data on the comparative costs associated with electronic 
returns versus paper returns and the lack of a business strategy. With 
respect to the latter, we recommended in October 1995 that IRS identify 
those groups of taxpayers who offer the greatest opportunity to reduce 
IRS' paper processing workload and operating costs if they were to file 
electronically and develop strategies that focus IRS' resources on 
eliminating or alleviating impediments that inhibit those groups from 
participating in the program, including the impediment posed by the 
program's cost.\7\ IRS has yet to implement that recommendation. Cost 
should not be a barrier with respect to TeleFile. It does not cost the 
taxpayer anything to use TeleFile and, unlike electronic filing, 
TeleFile is truly paperless. However, the fact that only about 20 
percent of those persons who IRS thought would be eligible to use 
TeleFile actually used it would seem to indicate that barriers exist. 
Neither we nor IRS knows what those barriers are because IRS had not 
adequately surveyed nonusers. As we reported in December 1996, past IRS 
surveys of nonusers showed that many eligible users did not use 
TeleFile because they preferred paper, but the surveys did not probe 
into the reasons for that preference.\8\ Accordingly, we recommended 
that IRS (1) conduct, during the 1997 filing season, a survey of 
TeleFile nonusers that includes more specific information on why they 
prefer to file on paper and (2) take steps to address any identified 
barriers to increased user participation. It is our understanding that 
IRS has conducted such a survey, but the results are not yet available.
---------------------------------------------------------------------------
    \7\ ``Tax Administration: Electronic Filing Falling Short of 
Expectations'' (GAO/GGD-96-12, Oct. 31, 1995).
    \8\ ``IRS' 1996 Tax Filing Season: Performance Goals Generally Met; 
Efforts to Modernize Had Mixed Results'' (GAO/GGD-97-25, Dec. 18, 
1996).
---------------------------------------------------------------------------
                         audits/investigations
    Question. Would you please provide the Subcommittee with a detailed 
outline of the number of audit's the IG's office has conducted since 
1992.
    Answer.

Total number of OIG audit reports issued since fiscal year 1992

        Fiscal year                                              Reports
1992..............................................................    67
1993..............................................................   143
1994..............................................................   156
1995 \1\..........................................................   141
1996..............................................................   111
1997 \2\..........................................................    67
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   685

\1\ The OIG began devoting significant audit resources to financial 
statement audit work beginning in fiscal year 1995. Please note, the 
workload statistic for Number of Other Audit Reports Issued, shown in 
our fiscal year 1998 Submission, was inaccurately reported at 128. The 
correct figure is 130, with 11 Financial Statement Audit Reports Issued.
\2\ The figure reported is through March.

    Question. Of these audits, how many were conducted bye the IG's 
office? How many were don by the private contractors?
    Answer.

Total number of OIG audit reports conducted by the OIG

        Fiscal year                                              Reports
1992..............................................................    67
1993..............................................................    59
1994..............................................................    75
1995 \1\..........................................................    51
1996..............................................................    46
1997 \2\..........................................................    30
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   328

\1\ The OIG began devoting significant audit resources to financial 
statement audit work beginning in fiscal year 1995.
\2\ The figure reported is through March.
---------------------------------------------------------------------------

Total number of OIG audit reports conducted by Defense contracting audit 
agency

        Fiscal year                                              Reports
1992....................................................................
1993..............................................................    68
1994..............................................................    81
1995 \1\..........................................................    80
1996..............................................................    61
1997 \2\..........................................................    37
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   327

\1\ The figure reported is through March.
---------------------------------------------------------------------------

Total number of OIG audit reports conducted by other private contractors

        Fiscal year                                              Reports
1992....................................................................
1993..............................................................    16
1994....................................................................
1995..............................................................    10
1996..............................................................     4
1997 \1\................................................................
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................    30

\1\ The figure reported is through March.

    Question. Please provide the Subcommittee with a list of those 
audits over the last five years which were a part of the IG's annual 
audit plan and a detailed accounting of which audits were completed and 
the status of those which are not currently completed.
    Answer.

                                STATUS OF OIG AUDITS OVER THE LAST 5 FISCAL YEARS                               
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal years--                    
                                                                 ----------------------------------------  Total
                                                                   1993    1994    1995    1996    1997         
----------------------------------------------------------------------------------------------------------------
Issued..........................................................      68      50      38      17       9     182
Canceled........................................................      38      37      30      12       1     118
Rolled over \1\.................................................      23      19       8      14  ......      64
To be started...................................................  ......  ......  ......  ......      19      19
In process......................................................  ......  ......  ......  ......      25      25
CFO related \2\.................................................       2      10      11       2  ......      25
----------------------------------------------------------------------------------------------------------------
\1\ ``Rolled over'' indicates that audits were planned for one year and remained as planned for the following   
  year.                                                                                                         
\2\ ``CFO related'' indicates audits that were planned but were delayed and later included in broader based CFO 
  (financial statement related) audits.                                                                         

    It should also be noted that some of the OIG planned audits were 
consolidated and combined, which resulted in fewer reports than 
planned. Further, the OIG's program audit resources were significantly 
reduced in fiscal year 1995 to accomplish our responsibilities under 
the CFO Act. This resulted in fewer audits being undertaken because of 
the resources needed for financial statement audit work.
    Question. When carrying out an investigation, how long after the 
investigation begins is a contractor notified of the investigation?
    Answer. For clarification, many of our investigations do not 
involve contractors. For those that do, however, there is no 
requirement that a contractor be notified at any time that they are, or 
were, the subject of an OIG investigation. Generally, whether subjects 
of an OIG investigation are contractors or Treasury employees they will 
not be advised of their status as subjects until such time as they are 
interviewed by the OIG. At the time of an interview, the interviewing 
special agent will advise interviewees that they are either a witness 
or a subject. To ensure the integrity of the investigative process and 
to avoid compromising an investigation by premature notification, it is 
often not appropriate to advise subjects, including contractors, of the 
status until the need for an interview or the production of applicable 
documentation arises.
    Unlike an audit, where typically a contractor would be afforded an 
entrance briefing at the outset of the audit, investigations are 
conducted as discreetly as possible and only those individuals 
necessary to satisfactorily resolve the allegations are contacted. 
Allegations can sometimes be resolved by reviewing records or making 
limited contacts with third party witnesses. If, as sometimes happens, 
the investigative steps taken determine that an allegation is 
unfounded, there may be no need to contact the subject. In that case, a 
subject may never know that allegations were received and investigated.
    Question. In carrying out an investigation does Treasury IG 
personnel provide those being investigated with a list of materials to 
be produced and written questions to be answered?
    Answer. In carrying oust its investigations the OIG Office of 
Investigations, generally does not provide those being investigated 
with written questions to be answered. This is a standard law 
enforcement practice and not one that is unique within the Treasury 
OIG. Whether a list of materials to be produced is given to an 
interviewee depends entirely on whether an individual has access to 
necessary and relevant information, whether that person is the most 
appropriate provider of that material, and the degree of cooperation by 
the interviewee with the investigation.
    During an interview, documents may be requested if they are deemed 
to be relevant in resolving the allegations. Alternatively, there may 
be occasions when documents are needed in advance of an interview or 
are not otherwise voluntarily produced. An IG subpoena is another 
available mechanism for obtaining pertinent documents from a contractor 
or and individual subject.
    Question. Is it true that the Defense Contract Audit Administration 
regulations require a referral for investigation whenever a DCAA 
auditor finds evidence of wrongdoing during an audit?
    Answer. It is our understanding that DCAA's ``Contract Audit 
Manual'' requires DCAA Auditors to refer such indications for 
investigation. The GAO 1994 Revision to the ``Government Auditing 
Standards,'' Chapter 7.3 and 6.28-6.33 requires similar action.
    Question. Upon initiation of an investigation does the IG launch a 
formal investigations of wrongdoing based on specific allegations and 
is that discussed with those being investigate?
    Answer. TO OIG opens investigations based on specific allegations 
or indications of wrongdoing. It is our normal practice to discuss the 
specific allegations under investigation with to subject at the initial 
interview.
                           general questions
    Question. Is your base fully funded?
    Answer. Yes, the OIG base is fully funded for 305 FTE. However, the 
OIG has had to absorb the costs for pay raises and maintaining current 
levels over the past several years and this has not allowed the OIG to 
hire to its full FTE ceiling of 313 FTE.
    Question. How many positions (FTE) are unfilled?
    Answer. Currently, the OIG has 36 positions unfilled, of which 27, 
or 75 percent, have recruit actions/vacancies pending, and 9 which are 
in process. The OIG anticipates all positions to be filled by September 
30, 1997.
    This unusually high number of vacancies can be attributed to 
retirements and the attrition due to recruiting efforts of other OIG's, 
such as Social Security and Health and Human Services. In particular, 6 
high graded staff were recently hired by the newly established U.S. 
Postal Service Office of Inspector General. As the Treasury OIG is 
makings inroads to reduce its high grade staffing, personnel who are at 
the top of their grade levels are moving to other agencies to obtain 
promotions.
    Additionally, the OIG has requested 8 FTE with the necessary 
funding, to reach the FTE ceiling of 313, in support of the OIG's 
mission.
    Question. What would it take to fill those positions?
    Answer. The OIG is taking adequate steps to ensure that these 
unfilled positions are filled. As well, the OIG is using the past two 
years as a lesson on staffing within the organization. The OIG is 
recruiting lower level employees who will have a few years to reach the 
top of their career lacicler--from the current 27 recruit actions/
vacancies pending, 16, or approximately 60 percent, are grades 9 or 
lower.
    However, for the OIG to fill to the FTE ceiling of 313, the OIG 
requires an additional $614,000 to be able to support the 8 FTE that 
are not currently funded.
    Question. Is the amount requested to maintain current levels 
accurate? What will all of this funding be applied to?
    Answer. Yes, the amount of $787,000 requested to maintain current 
levels is accurate. OMB's economic assumptions were used to calculate 
this requested level of funding. This funding will be applied to our 
yearly inflationary increases in rent, communications, printing, 
supplies, and equipment.
    Question. Are there any new initiatives outlined in the fiscal year 
1998's budget request, if so, what are they?
    Answer. There is one program change outlined in the OIG's fiscal 
year 1998 budget request. The OIG is requesting a workload adjustment 
of $614,000 and 8 FTE to be able to further support program audit 
functions that review all facets of an agency's operations. Currently, 
the OIG is taking a proactive approach with the Treasury bureaus to 
address major financial management and internal control vulnerabilities 
that inhibit reliable operational and financial information. The OIG 
will be able to further work with bureaus to develop corrective action 
plans that address implementation. As well, the OIG will be able to 
further assist management in identifying corrective actions which must 
be taken within the existing framework versus the actions that cannot 
be implemented without major systems overhaul. The OIG also needs 
additional information technology support for the financial statement 
audit work to ascertain that the bureaus' automated systems are 
adequate to provide reliable financial data to assist the auditors in 
rendering an opinion.
    Question. What is the turnover rate in the IG's office and how does 
it compare to other IG offices? What percentage of the turnover is 
women or minorities?
    Answer. The turnover rate for the Department of the Treasury OIG in 
fiscal year 1996 was 9 percent and for fiscal year 1997, to date, was 
9.4 percent. As the OIG has been reducing the number of high grade 
positions, there have been fewer promotion opportunities, which the OIG 
believes has resulted in an increased turnover rate.
    We contacted several other OIG offices and the turnover rates seem 
to vary by fiscal years and Departments. For fiscal year 1996, the of 
Transportation OIG had a 7.1 percent turnover rate and for fiscal year 
1997, to date, a .25 percent rate. The Department of Commerce OIG had a 
15.4 percent turnover for fiscal year 1997, to date, and could not 
readily provide information about fiscal year 1996.
    Of the Treasury OIG's turnover rate in fiscal year 1996, 52 percent 
were women or minorities, and for fiscal year 1997, to date, 62 percent 
were women or minorities. As a reference, in 1996 and fiscal year 1997, 
to date, women and minorities made up approximately 58 percent of the 
total OIG work force.
                                 ______
                                 

                   EXECUTIVE OFFICE OF THE PRESIDENT

                        Office of Administration

          Prepared Statement of Ada L. Posey, Acting Director

    I am pleased to present the fiscal year 1998 budget request for the 
following nine Executive Office of the President (EOP) accounts: 
Compensation of the President, the White House Office, Special 
Assistance to the President, the Official Residence of the Vice 
President, the Office of Administration, the Office of Policy 
Development, the National Security Council, the Council of Economic 
Advisers, and Unanticipated Needs.
    The EOP is committed to the President's and Congress' goal of 
balancing the federal budget. The total for these nine budgets, 
excluding a Congressionally mandated transfer that has no net effect on 
the federal budget, is $89 million, an increase of only 4.2 percent 
over enacted levels in fiscal year 1993 when this Administration took 
office. Operating within these austere budgets has been challenging. 
During the past four years, the EOP has met this challenge by 
identifying cost saving measures, shifting resources, and deferring or 
delaying purchases. Inflationary cost increases and mandated pay raises 
for the EOP's many General Schedule employees have been absorbed. 
Agencies whose staffs are mostly or entirely in administratively 
determined positions, such as the White House, Vice President's Office, 
and Office of Policy Development, have held salary levels nearly 
static, delayed hiring decisions, and brought in new hires at lower 
levels. The most detrimental aspect of the budget restrictions has been 
the inability to adequately maintain a strong information technology 
infrastructure within the EOP.
    There are only two significant components contained in these 
budgets requiring additional funding over the current services levels 
requested for these EOP agencies. The first involves a Congressionally 
mandated transfer of funding from the White House Communications 
Agency, a Department of Defense component, to the White House Office. 
The second is a comprehensive plan to renew and strengthen the EOP's 
information management infrastructure.
    The White House Office fiscal year 1998 budget request includes a 
$9.8 million transfer to fund non-telecommunications support services, 
historically provided by the White House Communications Agency. This 
planned transfer is a result of a Department of Defense Inspector 
General audit that concluded that several support services provided to 
the White House Office since the 1930's went beyond the required 
telecommunications support. The audit concluded that these services, 
including audio-visual support, news wire, photographic and 
stenographic services should be funded by the White House Office. The 
funding transfer was mandated by the Fiscal Year 1997 National Defense 
Authorization Act. The Department of Defense budget has been reduced 
$9.8 million to reflect the transfer; thus, there is no net increase to 
the federal budget as a result of this transfer.
    The second component of this budget request that merits special 
note is the EOP's Capital Investment Plan, funding for which is 
requested by the Office of Administration (OA). The Capital Investment 
Plan, or CIP, is a strategy designed to provide the EOP with the 
technology and services needed to develop and strengthen the EOP's 
information systems infrastructure.
    As promised in the testimony of OA Director Frank Reeder, the OA 
delivered a Five Year Information Technology Plan before the end of 
fiscal year 1996 to the House and Senate Subcommittees. It was the 
first of its kind for the OA. After discussions with the House 
Subcommittee, they indicated that the plan did not meet their 
requirements. As a result, the OA reevaluated the entire planning 
process.
    Concurrent with these discussions, the fiscal year 1997 
appropriations language contained the provision that funds may not be 
obligated for computer modernization until OA had submitted, and the 
Committees on Appropriations have approved, a Five Year Plan. This 
restricted or fenced off information technology funding for six EOP 
agencies.
    The OA's reevaluation caused us to conclude that we were still not 
in a position to prepare the kind of plan requested by House 
Subcommittee staff. Yet, the OA was still committed to providing the 
Subcommittee with a blueprint schedule and prioritization list for EOP 
computer modernization efforts. In response to Subcommittee staff, 
Director Posey submitted a Capital Investment Plan (CIP) that included 
Office of Management and Budget (OMB) information technology 
guidelines. Our response also indicated the great need for unfencing 
the funds essential to the operations of the EOP. The Capital 
Investment Plan (CIP) requests $2 million in a no-year account to 
address immediate critical needs and to fund an Architecture Plan. This 
Architecture Plan would serve as the foundation for future EOP 
recommendations in information technology.
    The cornerstone of the plan is the establishment of an EOP 
information systems architecture. In response to Congressional 
direction, the OA has enlisted an outside contractor to develop an 
information technology architecture (ITA) or an ``architectural 
blueprint'' in fiscal year 1997. Upon receiving notification from House 
Subcommittee Chairman Kolbe, in a letter detailing conditions for 
release of the entirety of fiscal year 1997 fenced EOP technology 
funds, work began immediately to develop a statement of work to define 
the requirements for the development of the architectural blueprint. 
After careful review, an outside contractor was selected to develop the 
architectural blueprint. This contractor had developed ITA's for other 
government agencies and has an outstanding reputation. As a result, the 
contractor agreed to complete the project by July 15, 1997. The 
contract to develop the blueprint by this highly reputable firm is 
continuing expeditiously and is on schedule. In response to this 
notice, six months into the fiscal year, OA has diligently pursued the 
direction of the Subcommittee under extreme time constraints requiring 
the agency to expend an additional $77,000 over the estimated $250,000 
cost of the blueprint development for a revised total of $327,000 to 
complete the blueprint before the end of the fiscal year to allow the 
unfencing of the remaining funds for urgently needed fiscal year 1997 
purchases and upgrades. Moreover, in order to fund the increased 
expense of this contractual activity, OA has economized by delaying the 
filling of agency vacancies.
    In addition to funding the systems' architecture, the CIP would 
provide computer network upgrades. The EOP staff relies heavily on 
electronic communications, both within and beyond the EOP complex. OA 
provides electronic communications support to the EOP in a most 
challenging and dynamic technical environment. As an example, during 
the last four years, the EOP has experienced a five-fold increase in 
electronic mail traffic, coupled with more stringent records management 
requirements. The implementation of the White House home page and the 
resulting increased public access to government has introduced an ever 
increasing level of Internet traffic, along with the concomitant hacker 
and illegal access security concerns. The seemingly daily influx of new 
technology is increasing the OA's burden to provide constant vigilance 
and understanding of the technology in order to maintain the integrity 
of secure access. The current EOP network increasingly is experiencing 
performance problems and failures. The CIP would provide replacement 
network equipment to handle increased traffic and eliminate 
bottlenecks.
    The CIP also mandates the acquisition and installation of a new 
financial management system. Like other federal agencies and many 
businesses, the EOP's current financial management system is not year 
2000 compliant. It is critical that the EOP acquire and implement a 
financial system in fiscal year 1998 to have ample time for data 
migration, verification, and testing before the beginning of fiscal 
year 2000.
    The final element of the CIP is equipment replacement. The OA 
infrastructure supports more than two thousand desktop systems and 
associated printers, file servers, mainframe systems, and data storage 
devices. Many of these support systems are approaching or have exceeded 
their recommended useful lifetime. New equipment is crucial to stopping 
the trend of aging without replacement, and to prevent adverse impact 
on EOP staff productivity.
    Despite limited resources, this administration has made impressive 
gains over the last four years, particularly in the area of public 
access to White House information. The public's tremendous response to 
the White House home page was reported last year. Since that time, the 
home page's popularity has not waned; it has been accessed 33 million 
times since its development in October 1994. Electronic mail messages 
continue to be a favorite form of communication by the public with the 
White House. The President, Vice President, and First Lady received 
842,000 e-mail messages in fiscal year 1996, more than double those 
received in fiscal year 1995.
    As the Committee is aware, the President in 1993 reduced the size 
of the EOP by 25 percent (effective October 1, 1993). The baseline for 
that cut was the actual number of ``bodies on board'' in the Bush 
Administration. The staffing figures were accurate and complete. The 
number included not only EOP employees, but also detailees, assignees, 
Presidential Management Interns, and all other categories of Other 
Government Employees (OGE's) that were tracked by the Bush 
Administration. That 25 percent reduced level was maintained for four 
years.
    Today, the Executive Office faces new needs, particularly the staff 
requested by General McCaffrey to implement the President's aggressive 
drug control strategy to which the Congress agreed last year in the 
Omnibus Appropriations Bill. It will also be necessary to add staff to 
the Counsel's Office to respond to requests for information from 
Congressional and other bodies. Thus, it is no longer possible to 
maintain the 1993 staffing level. However, this Administration is 
committed to maintaining reduced staffing levels in accordance with the 
12 percent reduction mandated throughout the Federal government by the 
Administration's reinvention initiatives. The EOP's fiscal year 1998 
target of 1,185 staff--employees and OGE's--actually represents a 
reduction of 15 percent from the Bush Administration baseline.
    The following are highlights of the accomplishments of some of the 
Executive Office agencies:
    The Vice President's Office has spearheaded a wide range of 
Administration initiatives, including aiding the passage of the 
Telecommunications Reform Act of 1996, which stimulates private 
investment, promotes competition in the telecommunications industry, 
and strengthens and improves universal service so that all Americans 
can have access to the benefits of the information superhighway. Vice 
President Gore also chaired the White House Commission on Aviation 
Safety and Security. Over a six-month period, the commission conducted 
an extensive inquiry into civil aviation safety, security and air 
traffic control modernization. This inquiry resulted in a comprehensive 
list of recommendations adopted by President Clinton, including one 
that aims to reduce the aviation fatal accident rate by 80 percent over 
the next decade. The Vice President also continues to lead the National 
Performance Review to make the government work better and cost less. 
For example, the State Department has now made passport applications 
available on the World Wide Web.
    In 1996, the National Security Council coordinated the 
Administration's efforts in a broad range of initiatives to advance 
America's strategic priorities. These included: (1) helping build an 
undivided, democratic Europe by leading the historic process of NATO 
enlargement; (2) forging a strong, stable Asia Pacific community by 
reinvigorating the U.S. alliance with Japan; proposing, with South 
Korea, four-party peace talks on the Korean peninsula, and advancing a 
strategic dialogue with China; (3) expanding American opportunity and 
jobs by opening markets and securing an Information Technology 
Agreement; (4) promoting peace from Bosnia to Northern Ireland to the 
Middle East; and (5) fighting dangerous transnational threats--nuclear 
proliferation, terrorism and drugs.
    The Council of Economic Advisers (CEA) continues to work with 
Executive Branch agencies and Congress to ensure that the economic 
impact of policies is taken into account during the decision making 
process. In fiscal year 1996, CEA provided sound economic analysis and 
advice during development of a range of Administration policies, 
including telecommunications reform, regulatory reform and reform of 
our country's environmental laws. CEA also worked with other agencies 
to produce a number of White Papers on current economic issues, such as 
the importance of education to economic growth.
    The Office of Administration (OA) continues to improve its customer 
service to the other EOP agencies. The Financial Management Division 
improved the process of imprest reimbursements to EOP staff by 
eliminating cash disbursements in favor of electronic funds transfers. 
In the near future, all vendor payments and employee travel voucher 
reimbursements will be made via electronic transfer as well. The Human 
Resources Management Division launched a very successful initiative in 
fiscal year 1996 designing and distributing individualized employee 
benefits booklets which contained valuable information for all EOP 
employees regarding the benefits provided to them and their families. 
During the Office of Management and Budget's budget season, OA's 
Information Systems and Technology staff provided hundreds of hours of 
computer programming time and resources to support production of the 
President's budget. Finally, the new Remote Delivery Site (RDS) was 
completed and occupied in September 1996. The new RDS is an efficient, 
modern storage and receiving facility for screening all incoming mail 
and material prior to delivery to the White House complex. OA has 
nearly completed the consolidation and transition of its on-site office 
supply operations to the EOP's RDS. While saving rent expenses by 
physically relocating this critical support operation to the RDS, OA 
employed quality reengineering techniques to develop a catalog method 
of providing office supplies to its EOP customers. Office supplies are 
now delivered by the end of the business day upon receipt of a fax or 
e-mail order from EOP customers.
    It is imperative that the federal government stay the course toward 
a balanced budget. The EOP has contributed to this effort, consistently 
presenting budget requests during the last four years that have grown 
at much less than the rate of inflation.
    The EOP will continue to maximize its resources and implement cost 
saving measures. Yet, it is also imperative that the EOP be adequately 
funded to provide the quality of support deserved by our Chief 
Executive. It is crucial that the EOP maintain the existing 
infrastructure, and plan for future investments in personnel and 
information technology, now and into the 21st century.
                                 ______
                                 

                Questions Submitted by Senator Campbell

                         repair and restoration
    Question. Does this $200,000 cover the entire cost of the repairs 
and restoration of the White House in fiscal year 1998 and how are 
those costs above the $200,000 covered?
    Answer. The $200,000 requested is for the renovation of the 
existing electrical transformer vault, currently being replaced after 
nearly 48 years. The current vault would be converted, after the old 
outdated equipment is removed and operation of the new transformer 
equipment is assured, into an enhanced laundry/storage facility to 
improve the efficiency of operation.
     The Executive Residence Direct Program (Operating Funds) would 
continue to fund repairs and restoration of the Executive Residence and 
its Fine Arts Collection. There has been no increase in funding for 
this activity. In fiscal year 1990, the Congress funded, within the 
Direct Program, a curatorial conservation project.
    Question. Does the White House Historical Society cover some of the 
costs to the repairs and restoration and what is their role within 
restoration efforts?
    Answer. The White House Historical Association is a not for profit 
educational association that provides some funds through the sales of 
books on the history of the White House for some restoration work for 
those areas open to the public. Occasionally, the Association also 
provides funding for the purchase of items with an historical 
relationship to the White House or the Presidency.
     The White House Historical Association has no official role in any 
restoration efforts but is currently in the process of raising a 25 
million dollar endowment, the proceeds of which will be dedicated for 
the redecoration of the ``principle public rooms of the White House.''
    Question. Please explain to the Subcommittee why in fiscal year 
1997 there was not any funds enacted for repair and restoration and as 
a result of no funds enacted, are any restoration efforts occurring in 
fiscal year 1997?
    Answer. A separate account was established in fiscal year 1996 to 
program and track expenditures for capital improvement projects at the 
Executive Residence at the White House.
    In fiscal year 1996 funds were appropriated in the amount of 2.2 
million dollars for the replacement of the Executive Residence roof. No 
capital improvement funds were requested in fiscal year 1997 given the 
number of ongoing projects, and our ability to manage projects 
effectively.
    The Executive Residence Direct Program (Operating Funds) for fiscal 
year 1997 and fiscal year 1998 will continue to fund expenditures for 
normal repair and restoration of the White House and its Fine Arts 
Collection.
    Question. What is the impact of not providing the funds in fiscal 
year 1997?
    Answer. The severely needed storage space that could be made 
available in the old electrical vault would not be available. The 
existing vault would deteriorate and cost additional money to renovate 
in the future, and off-site storage space would continue to be used. 
The existing outdated laundry facility would deteriorate, posing health 
and safety issues and require added funding to update and correct 
deficiencies within the next few years.
                        office of administration
    Question. The Office of Administration is requesting a significant 
$2.783 million increase from fiscal year 1997, of which $2 million will 
be used for Capital Investment, please explain how those funds will be 
used.
    Answer. Frank Reeder, the former Director of the Office of 
Administration, began the review of the progress and direction of OA 
information technology infrastructure planning in 1995. With over 35 
years of management and information technology experience, Director 
Reeder provided the OA with the opportunity to conduct a detailed 
review of its five year plan methodology. At the direction of Mr. 
Reeder, the OA established the Information Technology Advisory Board 
(ITAB). The ITAB was organized with one or more representatives from 
each of the EOP agencies. The ITAB's mission was to perform the 
following functions: (1) identify functional requirements for 
information systems throughout the EOP; (2) ensure that adequate 
integrated computer systems are in place throughout the EOP to meet 
ongoing and future workload requirements; (3) ensure appropriate 
exchange of information technology among EOP agencies so that 
experiences and lessons learned are shared; and (4) review and 
recommend funding for information technology initiatives that are 
common to all EOP agencies.
    As promised to the House Treasury, Postal Service, and General 
Government Appropriations Subcommittee in the testimony of Director 
Reeder, the OA delivered a Five Year Information Technology Plan before 
the end of fiscal year 1996. The plan was provided to House and Senate 
Subcommittees. The first of its kind for the OA. After extensive 
direction from the House Subcommittee the OA reevaluated the entire 
planning process. A response letter was drafted, to include Office of 
Management and Budget (OMB) information technology guidelines, as well 
as incorporate a Capital Investment Plan (CIP). This reevaluation 
caused us to conclude that the OA was still not in a position to 
prepare the kind of plan requested by House Subcommittee staff. Yet, 
the OA was still committed to providing the Subcommittee with a 
blueprint schedule and prioritization list for EOP computer 
modernization efforts. In response to Subcommittee staff's request, 
Director Posey submitted the promised response. It provided a detailed 
presentation of the CIP, as well as indicating the great need for 
unfencing the funds essential to the operations of the EOP. The Capital 
Investment Plan (CIP) requests $2 million in a no-year account to 
address immediate critical needs and to fund an Architecture Plan. This 
Architecture Plan will serve as the foundation for future EOP 
recommendations in information technology:
    Information Systems Architecture Plan--$250,000.--Establishment of 
an Architecture Plan is the cornerstone of the CIP. A robust 
information systems architecture is crucial for supporting the EOP. The 
Architecture Plan will allow OA information technology to achieve 
greater parity with the current operation and future modifications to 
the EOP information systems, in accordance with recognized industry and 
government guidelines regarding the development, implementation, 
operation, and enhancement of information technology integration.
    Computer Network Upgrades--$650,000.--The ability to provide the 
EOP with electronic connectivity is a requirement for efficient EOP-
wide operations. The primary medium supporting this connectivity is the 
EOP Local Area Network (LAN), and connections to the Internet, which 
uses more than 60 servers. Electronic mail has grown by more than a 
factor of five, to nearly 50,000 messages a week, while investment in 
infrastructure has not kept pace with this explosive growth. The LAN is 
experiencing significant performance problems. Frequent LAN failures 
are resulting in unreliable electronic communications services, which 
adversely affect staff productivity. In order to maintain current 
services levels and to contain impact on staff productivity, it is 
necessary to replace network equipment and servers in fiscal year 1998.
    Financial Management System--$600,000.--The EOP's current Financial 
Management System is neither year 2000 compliant nor integrated with 
other financial systems such as procurement and travel systems, and 
restricts individual on-line access to authorized levels of financial 
information. To ensure the continuity of operations and to correct the 
year 2000 problem, it is critical to begin the Financial Management 
System activity even as the Architecture Plan activity is underway. 
This activity is time sensitive. It is an immediate and critical need 
within OA.
    Equipment Replacement--$500,000.--The OA's efficient infrastructure 
support operations require adequate automated data processing 
capability. This capability consists primarily of OA desktop systems, 
mainframe and distributed computer systems, and the supporting systems 
providing such capabilities as computer files storage, and data 
retrieval and manipulation. More than 2,000 desktop systems and 
associated printers, file servers, applications servers, mainframe 
systems, distributed systems, and data storage devices are in place. 
Many of these OA support systems are approaching, or have exceeded, 
their recommended useful lifetime. In order to maintain current 
productivity levels, it is necessary to replace such equipment in 
fiscal year 1998 or continue the trend of aging without replacement.
    Question. The remaining is for a 3 percent increase in BA for 
fiscal year 1998, other than the 2.8 percent pay increase, what will 
the 3 percent increase be used for?
    Answer. In addition to the personnel compensation and benefits 
increase, the major portion of OA's remaining increase will be used to 
meet the information technology needs for contractor support, desktop 
and PC equipment, desktop and networking supplies, and Internet and 
firewall equipment upgrades. OA's current information technology 
facility management contract is due to expire at the end of fiscal year 
1997.
    A total of $645,000 is budgeted to support contractor transition 
expenses and other contract increases. OA expects to use an existing 
government Indefinite Delivery Indefinite Quantity contract vehicle 
that will be performance based and will reduce costs. Increases of 
$415,000 for desktop and PC equipment and of $169,000 for desktop and 
networking supplies will begin to provide much needed upgrades and 
replacements throughout OA. These funds are necessary to maintain the 
vast infrastructure within the EOP and to upgrade computers in OA with 
NT Desktop environment. Furthermore, OA will require a $48,000 increase 
in equipment to maintain Internet access as well as to maintain 
firewall security standards for the EOP information systems. OA is also 
requesting $97,000 to restore significantly diminished funding for the 
EOP libraries. These funds, for library periodicals, microfilms and 
books, are essential in preventing gaps in the library collections.
    While OA has adequately provided services with constrained 
resources, the organization has remained committed to reducing 
expenditures where possible. OA has identified one-time reductions 
along with other savings: completion of NT Desktop development, 
$258,000; reductions in hardware and software maintenance expenses, 
$228,000; networking equipment decreases, $160,000; adjustments in 
commercial on-line systems for wire service, $123,000; small reduction 
in office space, $44,000; and additional net savings in other areas, 
$34,000.
    The 3 percent increase will help OA maintain the existing 
infrastructure supporting the President and the EOP. Although this 
current service level request does not fully meet OA's needs, it 
demonstrates OA's ability to find savings within limited resources and 
make necessary but limited technology upgrades.
    Question. Can you outline for the Subcommittee what the [$743,000] 
$734,000 will be spent on in the ``other services'' object class?
    Answer. The fiscal year 1998 increase for OA's ``Other Services'' 
object class is outlined below:

Facility Contractor Support................................... $645,000 
NT Development................................................ (258,000)
Hardware and Software Maintenance, net........................ (228,000)
Commercial Online Services, net...............................  (89,000)
Miscellaneous Increases and Decreases, net....................   64,000 
Capital Investment Plan.......................................  600,000 
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................  734,000 

    Question. Please outline for the Subcommittee what equipment the 
Office of Administration will purchase with the $1.749 million 
requested in fiscal year 1998?
    Answer. The fiscal year 1998 increase for OA's ``Equipment'' object 
class is outlined below:

ADP Hardware and Software--Desktop............................ $380,000 
Firewall and Internet Equipment...............................   48,000 
ADP Hardware and Software--PC Maintenance.....................   34,000 
Publishing Hardware...........................................   17,000 
Miscellaneous Equipment, net..................................   17,000 
Library Books--permanent collection...........................   13,000 
Networking Servers............................................ (160,000)
Capital Investment Plan.......................................1,400,000 
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................1,749,000 

    Question. Is the Office of Administration purchasing this equipment 
on an established modernization plan, if so please provide a detail 
outlining this plan to the Subcommittee.
    Answer. As promised to the House Treasury, Postal Service, and 
General Government Appropriations Subcommittee in the testimony of 
Director Reeder, the OA delivered a Five Year Information Technology 
Plan before the end of fiscal year 1996. The plan was provided to House 
and Senate Subcommittees. The first of its kind for the OA. The Plan 
set forth a vision and framework that would guide the EOP's information 
technology investments for the next five years. To that end, the plan 
described an overall strategy and priority setting system for 
activities but did not require or request specific investments in the 
future. The initiatives outlined in the plan identified the functional 
requirements for information systems throughout the EOP and ensured 
that adequate integrated computer systems would be in place throughout 
the EOP to meet ongoing and future workload requirements.
    Ensuing discussions with Subcommittee staff, resulted in agreement 
that OA needed to prepare a comprehensive systems architecture and 
investment plan. The $2 million requested comprises four components 
designed to improve information and financial management services 
throughout the EOP. An Architecture Plan is bring funded in fiscal year 
1997 and will serve as the foundation for future EOP recommendations in 
information technology.
    The equipment requested is critical in sustaining current EOP 
information systems operations until the Architecture Plan is 
completed. These expenditures cannot wait until the Architecture Plan 
is completed in fiscal year 1997. To maintain current productivity, it 
is necessary for the EOP to replace existing equipment that is 
approaching, or has exceeded, its recommended useful lifetime. In 
conformity with the CIP, the OA will make every effort to purchase 
components that are compatible with multiple architectures. In 
addition, our current fiscal year 1997 purchases are based on the same 
user-defined needs that underlie the Architecture Plan, providing for 
additional compatibility. Failure to pursue this activity in fiscal 
year 1998 will result in increasing network outages, increasing loss of 
productivity for EOP staff members, and interruptions in electronic 
communications to and from other government agencies and the public.
    Question. If the Office of Administration is carrying out a 
modernization plan, does it follow the general government guidelines 
for technology investment?
    Answer. Yes, modernization efforts by the OA anticipate adhering to 
the criterion included in the Office of Management and Budget's 
memorandum 97-02, ``Funding Information Systems Investments'' dated 
October 25, 1996 and the Clinger-Cohen Act of 1996 (Public Law 104-106) 
dated February 10, 1996, which facilitates the implementation of 
information technology architecture.
    Question. Is there the necessary evaluation of this plan by an 
``evaluation group'' and is there a systems architecture for this plan? 
If so, please provide a detail outline of the architecture to the 
Subcommittee.
    Answer. Yes, there are several EOP agency-oriented user advisory 
groups and an Information Technology Advisory Board (ITAB), both of 
which fit within the concept of an ``evaluation group.'' The agency-
oriented advisory groups concentrate on individual agency technical and 
business needs.
    The ITAB was organized with one or more representatives from each 
of the EOP agencies. The ITAB's mission was to perform the following 
functions: (1) identify functional requirements for information systems 
throughout the EOP; (2) ensure that adequate integrated computer 
systems are in place throughout the EOP to meet ongoing and future 
workload requirements; (3) ensure appropriate exchange of information 
technology among EOP agencies so that experiences and lessons learned 
are shared; and (4) review and recommend funding for information 
technology initiatives that are common to all EOP agencies. In 
addition, the ITAB has worked in concert with Office of Management and 
Budget (OMB) staff and OMB information technology guidelines to address 
Congressional concerns and direction. This interagency cooperation 
which has been rigorously reviewed by OMB staff has been found to be 
efficient and effective.
    The ITAB has also been advised by the Information Technology 
Resources Board of the Chief Information Officers (CIO) Council, a 
government-wide advisory body, as defined in Executive Order 13011 of 
July 16, 1996. The CIO Council has been established as the principal 
interagency forum to improve agency practices on such matters as the 
design, modernization, use, sharing, and performance of agency 
information resources. After careful review and consultation, an 
outside contractor who had developed ITA's for other government 
agencies and has an outstanding reputation, was selected to develop the 
architectural blueprint for the EOP. As a result, the contractor agreed 
to complete the project by July 15, 1997. The contract to develop the 
blueprint by this highly reputable firm is continuing expeditiously and 
is on schedule.
                          unanticipated needs
    The Congress provides the President with funds for unanticipated 
needs.
    Question. Have any funds from this account been used in this fiscal 
year? Please provide the Subcommittee with a breakout of these 
expenditures.
    Answer. There is no fiscal year 1997 appropriation for 
Unanticipated Needs. The $1 million requested was diverted by Congress 
to fund conferences on model state drug laws through the Office of 
National Drug Control Policy. In order to give the President the 
flexibility that historically has been given to other Presidents to 
respond to unplanned exigencies, we have requested restoration of this 
account in fiscal year 1998 in the amount of $1 million.
    Question. The President is requesting $1 million in fiscal year 
1998 for the Unanticipated Needs Account. Please provide the 
Subcommittee the types of activities that would necessitate the use of 
the Unanticipated Needs funds and the guidelines of how the 
Unanticipated Needs funds are to be used.
    Answer. This account has been used to fund unanticipated national 
priorities for which funding is either not available from regular 
budget accounts, or is not available in a timely fashion through the 
supplemental appropriations process. All funds allocated to this 
account that are not used for unanticipated purposes have been and will 
continue to be returned. The last request for Unanticipated Needs 
funding was in fiscal year 1994 for the J.F.K. Assassination Records 
Review Board, $250,000. Other initiatives which required funding from 
the Unanticipated Needs account include: start up costs for the 
National Space Council, $181,000 in fiscal year 1989; and the 
President's Commission on Privatization, $110,000 in fiscal year 1988.
    In order to obtain funds from the Unanticipated Needs account, the 
requesting agency petitions the Office of Management and Budget (OMB) 
with a detailed request and justification. OMB certifies that there are 
no funds available from other sources. Once OMB approves, the President 
alone authorizes expenditures from the Unanticipated Needs account. 
Prior use of these funds has occurred within strict budget controls and 
reporting standards.
                           general questions
    There is funding outlined in the budget request which indicates 
that the base is fully funded within all of the Executive Office of the 
President agencies. Please provide detailed responses for each of the 
following agencies: Council of Economic Advisors, Office of Policy 
Development, Special Assistance to the [Vice] President, Office of 
Administration, White House Office, and National Security Council.
    Question. Is your base fully funded?
    Answer. Please see response to question No. 18.
    Question. How many positions (FTE) are unfilled?
    Answer. Please see response to question No. 18.
    Question. What would it take to fill those positions?
    Answer. Please see response to question No. 18.
    Question. Is the amount requested to maintain current levels 
accurate? What will all of this funding be applied to?
    Answer. Please see response to question No. 18.
    Question. Are there any new initiatives outlined in fiscal year 
1998's budget request, if so, what are they?
    Answer. Detailed responses for question No.'s 14-18 for each agency 
are provided below.
Council of Economic Advisers (CEA)
    CEA's request of $3,542,000 adequately funds the fiscal year 1998 
base. In addition, it also enables CEA to fill 35 requested FTE 
positions. This represents a net increase of $103,000 in budget 
authority and no increase in FTE's over the fiscal year 1997 levels.
    CEA's budget request does not include any new initiatives in fiscal 
year 1998. The following highlights the changes from the fiscal year 
1997 budget.
    The additional 3 percent increase is mainly needed to cover 
increases in two areas: pay adjustments and scheduled replacement of 
computer hardware and software. Specifically, the net increase for 
personnel includes the 2.8 percent government-wide pay raise effective 
January 1, 1998 in accordance with the Office of Management and 
Budget's guidance. It also includes promotions and within-grade step 
increases.
    During the last three years, CEA diverted funds from the equipment 
category to offset inflationary costs and mandatory pay increases. The 
increase in equipment will restore these funds and establish a regular 
replacement program for CEA's personal computers. It will enable CEA 
staff to provide economic policy support to the President in the most 
efficient manner possible.
    This request contains no additional funding for travel, 
transportation of things, and rental payments to GSA as the agency can 
operate within existing resources. Increases have been included to 
cover inflationary cost increases in other administrative categories 
such as: printing, other services and supplies.
Office of Policy Development (OPD)
    OPD's request of $3,983,000 adequately funds the fiscal year 1998 
base. In addition, it also enables OPD to fill 31 requested FTE 
positions. This request reflects a 3 percent funding increase from the 
fiscal year 1997 enacted level, and no increase in FTE's.
    OPD's budget request does not include any new initiatives in fiscal 
year 1998. The following highlights the changes from the fiscal year 
1997 budget.
    The total requested increase of $116,000 would be used to fund 
increases in Personnel Compensation and Benefits, Other Services, and 
Supplies and Subscriptions.
    The net Personnel Compensation and Benefits increase of $76,000 
enables OPD to provide competitive salaries to continue to retain and 
attract high quality employees. In addition, it aligns Civilian 
Personnel Benefits with actual costs. These increases will be offset by 
limiting the length of detail assignments to OPD, thus decreasing the 
reimbursement required.
    This request also includes a $35,000 increase in Other Services and 
a $5,000 increase for subscriptions classified under Supplies and 
Materials. These increases are necessary to fund use of commercial on-
line services, such as Lexis-Nexis, and periodicals. Frequent access to 
a wide variety of printed and electronic information sources enables 
OPD's staff to provide up-to-the-hour research on current policy 
issues.
    OPD plans to absorb inflationary increases in the other object 
classes to shift the much needed resources to the above mentioned 
areas.
Special assistance to the President (OVP)
    OVP's request of $3,378,000 adequately funds the fiscal year 1998 
base. In addition, it also enables OVP to fill 21 requested FTE 
positions. This is an increase of $98,000 or 3 percent in budget 
authority and no increase in FTE over the fiscal year 1997 enacted 
levels.
    OVP's budget request does not include any new initiatives in fiscal 
year 1998. The following highlights the changes from the fiscal year 
1997 budget.
    The personnel compensation category, which has remained flat for 
two years, requires an increase of $117,000. Under the current funding 
level, the Vice President froze salaries, delayed filling vacancies, 
and had difficulty offering competitive salaries to prospective hires. 
This increase will be used to reverse this trend as well as provide 
funding for one reimbursable detailee.
    The request in communications, utilities, and miscellaneous charges 
reflects increases in local telephone tariffs, domestic long distance, 
pager, and GSA after-hour utilities costs. Although some savings have 
been achieved, a net increase is required to cover cost growth and is 
consistent with fiscal year 1997 costs incurred to date.
    A nominal increase in printing has been included in this request. 
The printing budget has remained flat for four years and requires an 
increase to keep pace with cost growth in printing and reproduction 
services.
    The $13,000 increase in other services reflects the anticipated 
increases in maintenance costs for ADP hardware, software, copiers, 
faxes, and other office equipment, as well as the estimated cost of 
commercial services.
    A reduction in supplies and materials reflects the Vice President's 
commitment to achieve savings through the use of technology. The 
savings will be achieved through the cancellation of subscriptions due 
to the use of Internet, on-line commercial databases, and electronic 
information resources.
    The decrease in equipment represents the integration of personnel 
and other operating priorities into a funding request that ensures 
appropriate application of technology. The request in this category 
will allow for system maintenance while the implementation of the next 
generation of technology is considered. It is one step in the continual 
process of providing and maintaining the tools required to effectively 
support the Vice President.
    While the fiscal year 1998 budget reflects a maintenance level 
operation, the effective implementation of new technology will continue 
to be a priority in future requests. These investments have required, 
and will continue to require, significant resources to purchase 
hardware, software and programming technology.
Office of Administration (OA)
    OA's request of $28,883,000 includes $2,000,000 in no-year funds 
for a Capital Investment Plan. The current services level of 
$26,883,000 represents a 3 percent or $783,000 increase over fiscal 
year 1997 and adequately funds the fiscal year 1998 base. In addition, 
it also enables OA to fill 192 requested FTE positions.
    Please see responses to question numbers 5 through 11 regarding 
maintaining the current services level and new initiatives.
White House Office (WHO)
    WHO's request of $51,199,000 adequately funds the fiscal year 1998 
base. In addition, it also enables WHO to fill 400 requested FTE 
positions. It includes $9.8 million required by the National Defense 
Authorization Act for Fiscal Year 1997 to fund services historically 
provided by the White House Communications Agency (WHCA). Excluding 
this Congressional mandate, the request represents a $1,206,000 or 3 
percent increase in budget authority and no increase in the FTE level 
from fiscal year 1997. The following highlights the changes from the 
fiscal year 1997 budget.
    The personnel increase of $883,000 provides for the 2.8 percent 
cost of living and locality adjustment per OMB guidance, within-grade 
increases for GS equivalent employees, and promotions. The requested 
increase also aligns the fiscal year 1998 budget with actual costs for 
detailees.
    The request in civilian personnel benefits reflects increases in 
worker's compensation and employee benefits. A decrease of $200,000 in 
benefits for former personnel will provide adequate funds for costs 
anticipated in a non-transition year.
    Other non-personnel object classes include a $110,000 increase in 
supplies to align the budget with actual costs. The request will more 
accurately reflect costs historically incurred in this category. This 
increase is nearly offset by a decrease of $107,000 in communications, 
utilities, and miscellaneous charges.
    The home page is rapidly becoming the most popular way to visit the 
White House and the next version of the WHO home page will be developed 
during fiscal year 1998. This increase will enable the WHO to take 
advantage of changes in technology and update the home page to reflect 
the latest information on the WHO and the Executive Office of the 
President.
    Under the past frozen budgets, reductions in the equipment budget 
have been used to absorb mandatory cost increases. The result was 
restricting purchases to an as needed basis only, which is only 
effective as a temporary solution. The majority of this increase will 
be used to fund a regular replacement program for desktop technology. 
This will ensure that the WHO staff have the appropriate tools to work 
effectively and avoid requests for large increases every few years to 
completely replace outdated technology.
    Although this budget request is a 3 percent increase, the WHO 
continues to freeze funding in many other object classes to meet 
operating priorities. After freezing our requests at the fiscal year 
1995 enacted level for two consecutive years, this increase is 
essential to continue to provide quality support to the President.
WHCA transfer
    The WHCA transfer was proposed by Representative Spence and 
supported by Representatives Clinger and Zeliff. The proposed language 
was enacted under the National Defense Authorization Act for Fiscal 
Year 1997 (Public Law 104-201, section 912, 110 Stat. 2422, 2623; 
codified at 10 U.S.C. section 111).
    The transfer will continue to fund necessary and historically 
provided official non-telecommunication services that have been 
provided by WHCA for decades. This includes audiovisual, news wire, 
stenographic, and photographic services that provide the historical 
record of a presidency. At the end of each administration, these 
records are sent to the National Archives and Records Administration to 
become part of the official history of this country.
    The WHO is working with WHCA to ensure a smooth transition. The 
transfer amount of $9.8 million was developed by the Office of 
Management and Budget (OMB) and the Department of Defense. Since the 
estimate is based on fiscal year 1996 actual WHCA costs, there may be 
unforeseen and unbudgeted costs that may require additional funds in 
future fiscal years. This has the potential to affect WHO requests 
until there are several years of operational experience to refine 
estimates. This increase is offset by a matching reduction in the DOD 
fiscal year 1998 budget request.
National Security Council (NSC)
    NSC's request of $6,648,000 adequately funds the fiscal year 1998 
base. In addition, it also enables NSC to fill 60 requested FTE 
positions. This represents the same levels that were enacted in fiscal 
year 1997.
    NSC's budget request does not include any new initiatives in fiscal 
year 1998. The following highlights the changes from the fiscal year 
1997 budget.
    This budget provides funds for two entities: the National Security 
Council (NSC), $6,051,000, and the President's Foreign Intelligence 
Advisory Board (PFiAB), $597,000. Unless specified otherwise, funds for 
both entities are listed in the aggregate in this budget submission.
    Funds in the amount of $4,690,000 will cover personnel compensation 
and benefits, which represents a decrease of $6,000 from that of fiscal 
year 1997. Funding levels for NSC are primarily determined by 
expenditures for personnel. Of the total funds requested for fiscal 
year 1998, 71 percent is for this category. This request includes 
funding for the locality pay adjustments and the cost of living pay 
adjustments per guidance from the Office of Management and Budget, as 
well as promotions and within-grade step increases.
    Also included in this personnel request is $1,285,000 for Special 
Personal Services Payments. This category covers the salaries and 
benefits of 8 reimbursable detailees assigned to NSC. NSC's portion of 
this request is due to the requirement in Public Law 93-126, section 
11, which stipulates reimbursement to the State Department for some of 
its detailees. Funding originally budgeted for 3 PFiAB reimbursable 
detailees will be used for other NSC and PFiAB personnel costs. The 
request for this category of personnel represents an increase of 
$379,000 from fiscal year 1997 for additional detailees.
    Rental payments to GSA have increased by $6,000 to a total of 
$1,108,000 due to the acquisition of additional storage space. No other 
additional office space has been acquired and space rental rates have 
remained constant with no increases for fiscal year 1998.
    For fiscal year 1998, NSC plans to decrease funding in 
communications to shift much needed resources to other services and 
supplies. Adjustments within these categories represent a realignment 
to historical spending levels. Other administrative operating expense 
categories such as travel, printing and equipment, have not been 
increased over fiscal year 1997 levels.
                                 ______
                                 

                          INDEPENDENT AGENCIES

                   ASSASSINATION RECORDS REVIEW BOARD

         Prepared Statement of Judge John R. Tunheim, Chairman

                            i. introduction
    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you for the opportunity to submit a written statement on behalf of the 
Assassination Records Review Board regarding the Board's request for 
$1.6 million for fiscal year 1998, to fund one final year of operation. 
The Board acknowledges that all of the issues surrounding the 
assassination of President Kennedy will likely never be fully resolved, 
however, this additional time will allow us to complete our work, 
including the review and public release of critical FBI and CIA 
records, submit a comprehensive and complete final report to the 
Congress and the President, and make available to the American public 
as much information as possible on the assassination of President John 
F. Kennedy.
    Please allow me to introduce the other members of the Review Board 
with whom I have had the professional honor and personal pleasure to 
work: Dr. Henry F. Graff, Professor Emeritus of History, Columbia 
University; Dr. Kermit L. Hall, Dean, College of Humanities, and 
Professor of History and Law, The Ohio State University; Dr. William L. 
Joyce, Associate University Librarian for Rare Books and Special 
Collections, Princeton University; and Dr. Anna K. Nelson, 
Distinguished Adjunct Historian in Residence, The American University. 
We have been honored to engage in this important effort to make the 
history of the Kennedy assassination available to the American public 
and I am pleased to submit a written statement to this Subcommittee and 
answer your prepared questions.
    I would also like to describe briefly the professional staff that 
we are fortunate to have hired. The Executive Director is Dr. David G. 
Marwell, a professional historian who gained vast experience dealing 
with large numbers of important historical documents with the Office of 
Special Investigations at the Department of Justice and later as the 
Director of the Berlin Document Center. He leads a staff of 28 full-
time employees, who have varied backgrounds as historians, lawyers, 
analysts, investigators, and administrators. The members of the staff 
have approached their unique task with seriousness of purpose, 
creativity, professionalism, and competence, and have assisted us in 
shedding new light on the assassination through the release of 
thousands of Federal Government records, and the acquisition of records 
in private hands and local governments that were not previously 
available to the American public. I believe that we assembled exactly 
the type of professional and diversified staff that Congress envisioned 
would be necessary to accomplish this difficult assignment.
                      ii. accomplishments to date
    As I know you are aware, the Review Board was created by The 
President John F. Kennedy Assassination Records Collection Act of 1992 
(JFK Act) as an independent Federal agency to oversee the 
identification and release of records related to the assassination of 
President Kennedy. The JFK Act is a unique piece of legislation 
designed to remove doubt and speculation about the content of 
government records related to the assassination of President Kennedy. 
As a result of these lingering suspicions, Congress determined that an 
independent board was the most effective and efficient vehicle to make 
all assassination records available to the public.
    The Review Board has accomplished much since we began releasing 
previously secret records in June of 1995. The Board has acted to 
transfer more than 14,000 documents to the President John F. Kennedy 
Assassination Records Collection (JFK Collection) at the National 
Archives and Records Administration. We would not have been successful 
in our efforts without the significant assistance of the National 
Archives. The JFK Collection currently totals approximately 3.7 million 
pages and is used extensively by researchers from all over the United 
States.
    By the end of fiscal year 1997, the Review Board will have reviewed 
and processed nearly all of the assassination records that have been 
identified by the more than 30 different government offices believed to 
be in possession of relevant records, with the important exception of 
the FBI and the CIA. I will elaborate on the status of records held by 
these two agencies later. The overwhelming majority of previously 
redacted information will have been made public by the Review Board.
    iii. release of government records related to the assassination
    Before discussing what we will accomplish with one final year, I 
would like to highlight for the Members of the Subcommittee some of the 
important records that the Board has made public. They include:
  --Thousands of CIA documents on Lee Harvey Oswald and the 
        assassination of President Kennedy that made up the CIA's 
        Oswald File and detail the agency's investigative activities 
        following the assassination;
  --Thousands of once-secret records from the investigation by the 
        House Select Committee on Assassinations, chaired by 
        Congressman Stokes, including the controversial Staff Report on 
        Oswald's trip to Mexico City;
  --Thousands of records from the FBI's core and related assassination 
        files that document the FBI's interest in Oswald from 1959-63, 
        after he had defected to the Soviet Union, three years before 
        the assassination; and
  --The extensive FBI files on its investigation of the assassination.
    The important work in which the Review Board has been engaged can 
be best and most graphically demonstrated by discussing the ``before'' 
and ``after'' versions of one of the pre-assassination FBI documents to 
which I just referred and that the Board has released to the public. 
Prior to the Review Board's review, this FBI document (JFK Collection 
Record Number: 124-10023-10236, Attachment Number 1) was only available 
to the public in a heavily redacted form. The only information that was 
not secret was the date of the memorandum, ``October 12, 1960,'' that 
it was to the ``Director, FBI,'' from ``Legat, Paris'' (the FBI 
representative in Paris), that the subject was ``Lee Harvey Oswald, 
Internal Security,'' and that it had to do with a ``Paris letter 9/27/
60.'' The rest of the text was blacked out. Obviously, this version of 
the document left room for a great deal of speculation among historians 
and researchers regarding what was underneath the black ink on this 
document with the provocative subject title.
    The Review Board aggressively pursued the release of the redacted 
information in this document and several others that relate to the 
FBI's interest in Oswald before the assassination. After protracted 
negotiations with the FBI, an initial FBI appeal to the White House in 
an effort to keep the document secret, and a direct appeal to the Swiss 
government, we were able to release the information. The unredacted 
memorandum shows that the Swiss Federal Police had been enlisted by the 
FBI to try to locate Oswald and to determine whether or not he had 
enrolled at a school in Switzerland. Now the public is able to see the 
document in full and judge its importance. In its redacted state, the 
document could have meant anything that a researcher's imagination and 
speculation could invent. In its released form, it must be analyzed for 
what it says.
  iv. identification and location of additional assassination records
    One of the most important, most difficult, and most time-consuming 
responsibilities of the Review Board is to identify and locate 
additional records that are relevant to the assassination. This is a 
task that to some degree must logically come later in the process, 
after the Review Board has gained a full understanding of the records 
that have already been identified. Although the Review Board has made a 
significant number of requests for additional records and information, 
some of which I would like to outline, much remains to be done before 
it can be confident that it has completed this responsibility.
    I would like to highlight some of our efforts to identify and 
locate additional assassination records. Some examples:
  --Medical Records Inquiry.--The Review Board has several ongoing 
        efforts to identify and locate assassination records involving 
        medical issues. As with any homicide, the medical records are 
        among the most important pieces of evidence. As part of its 
        attempt to ensure that the medical records are as complete as 
        possible, the Review Board staff has deposed the principal 
        pathologists involved in President Kennedy's autopsy, as well 
        as other individuals who had knowledge of the autopsy and 
        related photographic records.
  --Identification and Location of Additional FBI Records and 
        Information.--The Review Board has continued its efforts to 
        locate additional FBI assassination records by making several 
        requests for records and information. The FBI has assisted in 
        this effort by giving the Review Board members access to 
        requested files. The JFK Task Force at the FBI has, on the 
        whole, been extremely cooperative and helpful to the Board and 
        has provided the requested information.
  --Identification and Location of Additional CIA Records and 
        Information.--The Review Board has initiated a number of 
        requests to the CIA for additional information and records. The 
        Review Board expects that these requests will be promptly and 
        fully satisfied during the upcoming year.
  --Identification and Location of Additional Secret Service Records 
        and Information.--Time consuming and careful review of Secret 
        Service activities by the Review Board produced a series of 
        requests for additional records and information that, in turn, 
        led to the identification of additional relevant assassination 
        records. For example, in response to the Review Board's first 
        eight requests for additional information, the Secret Service 
        has submitted more than 1,500 pages of material.
  --Identification and Location of Additional Military Records and 
        Information.--The Department of Defense (including its many 
        components and the military services) (collectively ``DOD''), 
        identified few assassination records on its own initiative. DOD 
        has nevertheless been cooperative with the efforts of the 
        Review Board to locate assassination records. When such records 
        have been located, DOD has been willing to release the records 
        with few redactions.
      Additional work would be required in our last year to ensure that 
        all assassination records in the military archives have been 
        made a part of the JFK Collection. Fortunately, the diligent 
        efforts of the ARRB staff have set the stage for accomplishing 
        this task.
                v. release of private and local records
    In addition to the release of records in the Federal Government's 
vast files, and consistent with the Board's mandate to make the 
historical record of the assassination as complete as possible, we have 
been aggressive in identifying and acquiring significant assassination-
related records in the possession of private citizens and local 
governments, including:
  --The original personal papers of Warren Commission Chief Counsel J. 
        Lee Rankin that give further insight into the operations of the 
        Commission;
  --Copies of the official records of New Orleans District Attorney Jim 
        Garrison's investigation of the assassination;
  --The original papers of New Orleans attorney Edward Wegmann, from 
        his work as a member of the legal team that successfully 
        defended Clay Shaw in 1969 against a charge of conspiracy to 
        kill President Kennedy;
  --Copies of records from the Metropolitan Crime Commission of New 
        Orleans, including records on District Attorney Garrison's 
        investigation and prosecution of Clay Shaw and records 
        regarding New Orleans organized crime figures;
  --Long-lost films taken in Dallas on November 22, 1963, that the 
        public had never seen and that shed new light on the events of 
        that day; and
  --Private collections of records from individuals including Warren 
        Commission attorney Wesley Liebler, author David Lifton, FBI 
        Special Agent Hosty, attorney Frank Ragano, as well as others.
    I am also pleased that the Review Board has recently acquired the 
original personal papers of Clay Shaw, the late New Orleans businessman 
who is the only person ever tried in connection with the assassination 
of President Kennedy. Shaw was acquitted by a jury in 1969 after being 
charged as part of District Attorney Garrison's investigation. The Shaw 
papers will surely add another dimension to this particular chapter of 
the assassination story.
    All of these records will enrich the historical record of the 
assassination for future generations of Americans. Once these records 
are processed and described by the National Archives, they will be 
available for research.
                    vi. the need for additional time
    Despite our best efforts and significant accomplishments, some of 
which I have outlined, the Review Board will not be able to complete 
its work within the original three-year timetable set by Congress for 
the following reasons:
  --First, the authors of the original legislation believed that our 
        task would take three years. That estimate was based on the 
        best available information at the time, but the legislation 
        established an unprecedented process. There was no way of 
        knowing the problems of scale and complexity that the Board 
        would encounter, nor was there any way to factor in the 
        comprehensive approach we have taken in fulfilling our mandate.
  --Second, the Board was not appointed until 18 months after the 
        legislation was signed into law. As a result, without the 
        guidance of the Board, Federal agencies initially defined for 
        themselves the universe of records that should be processed 
        under The Act and to speculate about the kind of evidence that 
        would be needed to sustain the redaction of assassination-
        related information. Once the Board was in place, agencies 
        needed to redo a considerable amount of work. In fact, many 
        agencies have yet to complete their review and the Board is 
        still seeking their compliance.
  --Third, our enabling legislation imposed several restrictions on the 
        manner in which the Board could operate. Unlike other temporary 
        agencies, the Board could not hire or detail experienced 
        federal employees, but rather had to hire new employees who had 
        to undergo background investigations and be cleared at the Top 
        Secret level. Locating and renovating space that was suitable 
        for the storage of classified materials was required. As a 
        result, the Board could not begin an effective review of 
        records until the third quarter of our first year.
    We are pleased and proud that the Review Board and staff have been 
able to overcome these obstacles, and that we have developed an 
efficient and effective process for the review of records. All involved 
in this process want to see that the job is done, and do not want to 
cease now with a reasonable conclusion in sight. We want to finish the 
job we began, and with one additional year we can.
                           vii. the job ahead
    The additional year of operations will permit the Review Board to 
finish its task by completing several major areas of our work. Please 
be assured that these are identifiable projects that are critical to 
ensuring that the JFK Collection is as complete as possible, that 
relevant Federal agencies have been held accountable, and that all that 
we have done is documented in our final report. The Board would focus 
in our final year on the following:
  --CIA Sequestered Collection.--The Review Board has completed its 
        review of the Oswald ``201 file,'' the file created and 
        maintained by the CIA on Oswald and the assassination. The 
        Review Board is now faced with the task of reviewing the 
        agency's ``Sequestered Collection,'' the large collection of 
        files that was assembled by the CIA in response to requests 
        made by the House Select Committee on Assassinations, chaired 
        by Congressman Stokes, in the late 1970's. These records find 
        their relevance to the assassination defined in part by the 
        course of the HSCA investigation. The Sequestered Collection 
        originally consisted of 63 boxes of CIA- and HSCA-originated 
        records as well as 72 reels of microfilm. Unfortunately, these 
        records are in a confused order, poorly described, and are 
        replete with duplicates. Some of these records are clearly of 
        great significance, some are of only marginal interest, and the 
        relevance of others cannot be identified.
  --FBI Sequestered Collection.--The FBI divides its assassination 
        records into two general categories. The first is the ``Core 
        and Related Files,'' consisting of nearly 600,000 pages of 
        files collected in the course of the massive FBI investigation 
        into the assassination. The Review Board will complete its 
        review of this significant collection by the end of fiscal year 
        1997. The second, which the FBI refers to as its ``HSCA 
        records,'' is a large collection of records that were 
        identified as being of interest to the HSCA and which remain to 
        be reviewed by the Board. Like the CIA's Sequestered 
        Collection, this voluminous body of records (approximately 
        280,000 pages) ranges widely in relevance to the assassination.
  --The Records of Some Federal Agencies and Congressional 
        Committees.--Additional time will allow the Board to finish its 
        work with several agencies, including the Secret Service, the 
        National Security Agency, and Congressional committees, 
        including the Senate Intelligence Committee.
  --Search for Additional Records.--With one more year of operations, 
        the Board's search for additional records held by Federal 
        agencies, private individuals, and local governments would be 
        concluded with greater confidence. Some of these records have 
        been identified, but not yet acquired by the Board.
  --Federal Agency Compliance.--In November 1996, the Review Board 
        initiated a compliance program to ensure that Federal agencies 
        have fully cooperated with the Board in discharging its 
        responsibility of assuring Congress and the American public 
        that the goals of the JFK Act have been accomplished to the 
        greatest possible extent. The requests to document compliance 
        with the JFK Act were sent to 27 U.S. government agencies and 
        departments to confirm that the U.S. government has identified, 
        located, and released all records relating to the assassination 
        of President Kennedy. The agencies' statements of compliance 
        will be included in the Review Board's final report to the 
        Congress. The one-year extension will ensure that the 
        compliance program is completed and fully documented in the 
        final report.
    It is important for the Review Board to complete these major 
projects. The Board believes that the completion of the task outlined 
above, the inclusion of these important records in the JFK Collection, 
and the documentation of Federal agency compliance as part of the final 
report will mark an appropriate point at which to conclude the Board's 
work. We are confident that all that remains for the Board can be 
accomplished in an additional year.
  viii. an approach to the review of the remaining cia and fbi records
    It is clear to the members of the Review Board that there is much 
work to be done. The review of the remaining CIA and FBI records is a 
cumbersome and complicated task. However, the Board and staff have the 
benefit of our experience to date that sets the stage for an efficient 
and effective review of the remaining records. I would like to briefly 
describe our early experiences reviewing records and how the past two 
years set a firm foundation for the future and would work to our 
advantage in our last year.
    Our review of records in the early months was slowed by the 
complexities of the issues raised in the records. The unprecedented new 
standards of the JFK Act, which go far beyond those established under 
the Freedom of Information Act, required a time-consuming early phase.
    At first, the review process proceeded slowly and the agencies were 
afforded ample opportunity to present their evidence. Over time, the 
Review Board began to standardize its interpretation of the relevant 
section of the JFK Act and the issues raised in the various documents. 
Now that the Review Board and the agencies are familiar with the 
rigorous demands of the JFK Act, the process has accelerated. In a 
progressively increasing number of cases, records that initially 
contained proposed postponements can be released through a ``consent'' 
process. In this consent process, the ARRB staff notifies an agency 
that its proposed postponements are not likely to be approved by the 
Review Board and the agency thereupon voluntarily consents to the 
release of the information.
    In our review of the FBI's ``Core and Related Files'' and the CIA's 
``Oswald 201 File,'' the records that have been the focus of our 
attention to date, we subjected every requested redaction to a rigorous 
test: did the evidence of the harm that would result from the release 
of the information outweigh the public interest in the information?
    In considering our review of the CIA and FBI ``Sequestered 
Collections,'' the Board recognized that it needed to develop a 
different approach, one that would take into account the varied degree 
of relevance of individual records to the assassination. Only in this 
way could the Board ensure that it would appropriately expend its 
resources in its last year. As a first step, the Board carefully 
analyzed each collection in order to determine what priority should be 
assigned to the category of records. In addition, the Board developed a 
set of guidelines for the review of these records which recognized that 
some categories of records did not require the intensive word-by-word 
review that had been the rule for the core collections that have been 
the subject of the Board's attention to date. The development of these 
guidelines began with the August 6, 1996 Board public hearing and 
culminated in their adoption at the October 16, 1996 Board meeting. The 
ARRB staff will distinguish between records whose relevance to the 
assassination is clear and those not believed to be relevant (or 
``NBR''). Applying these new standards will permit the ARRB staff to 
identify and review the most significant remaining records in order of 
priority.
    These detailed guidelines will reduce the loss of valuable Review 
Board and ARRB staff time expended to review, on a word-by-word basis, 
those documents that have a remote relationship, at best, to the 
Kennedy assassination. Those documents that are identified as relevant 
to the assassination will continue to be reviewed word-by-word. These 
standards of relevance are designed to ensure that the greatest number 
of true assassination records is properly identified, reviewed, and 
made public in the JFK Collection at the National Archives.
    The fruits of our labor from the first three years would be 
realized in our last year, one in which we would be reviewing some of 
the most difficult records, and potentially most important records, but 
with the benefit of our invaluable experience. I am happy to report 
that we have received assurances from the FBI and CIA that they will 
work with us in a final year to make sure that the necessary resources 
are applied so that our task can be completed.
                             ix. conclusion
    In making our recommendation for a one-year extension, we, the 
members of the Review Board, are fully cognizant of the difficulties 
inherent in extending a temporary commission. We are aware of the 
concern that temporary bodies may have a self-preserving and self-
perpetuating instinct, and want to assure you in the clearest and most 
unambiguous manner that our recommendation is motivated strictly by our 
desire to complete the job. My colleagues and I were appointed as 
private citizens and have many competing claims on our time and energy. 
It is our collective conviction that the additional time is necessary 
and our sincerest commitment that we will complete our task by the end 
of fiscal year 1998, if given the means.
    As I know you are aware, the Administration is supportive of the 
one-year extension for the Review Board and has submitted an fiscal 
year 1998 budget amendment for $1.6 million to allow us to complete our 
work, close out our operation, and submit our final report. (The Board 
has a budget carryover of $500,000 in no-year funds from its first 
year, a sum that will fund a full quarter year of its continued 
operation.)
    In addition, we are pleased that House Government Reform and 
Oversight Committee Chairman Dan Burton introduced H.R. 1553, which 
would amend the President John F. Kennedy Assassination Records 
Collection Act of 1992 to extend the authorization of the Assassination 
Records Review Board until September 30, 1998, and authorizes $1.6 
million for the Board to complete its work. The bill was cosponsored by 
Congressmen Henry Waxman and Louis Stokes. It passed the House of 
Representatives on June 23, 1997, and the Senate on June 25, 1997. H.R. 
1553 has now been cleared for the President's signature. Senator Arlen 
Specter had introduced a companion bill in the Senate, S. 844, earlier 
this month. These Members have exhibited an admirable bipartisan spirit 
and an understanding that we as a government, and as a nation, must 
bring closure to a sad chapter of our history, and that we must seize 
this opportunity now.
    Since the Review Board began this effort three years ago, we have 
witnessed the widespread and passionate interest that the American 
public has in the assassination of President Kennedy. We have received 
thousands of letters, telephone calls, faxes and e-mail messages from 
individuals who care deeply about our history. They come from all walks 
of life, from all over the country, and are of all ages. Their interest 
is of varying degrees and they do not all agree on what happened in 
Dallas on November 22, 1963. However, they do agree that the public has 
the right to see the files on the assassination.
    I believe that what the Review Board is all about can be summed up 
in a letter we received from a man from California just last week. The 
author is not a professional historian, not a student working on a 
paper for a history class, but simply a private citizen interested in 
learning about this tragic historical event. He wrote the following:
    ``In my humble opinion, it appears that the ARRB is having a 
healing effect upon the American public, who may be coming to realize 
that there may be closure in sight (in our lifetimes) with regard to 
the JFK assassination.''
    These words capture why the Review Board was created by the 
Congress and why we hope that the Review Board will have the additional 
year to complete our task.
     The Assassination Records Review Board was conceived as a means of 
eliminating uncertainty and speculation about the contents of 
government files relating to the assassination of President Kennedy. 
We, the members of the Board, believe that a premature termination of 
the Review Board would surely generate intensified doubts within the 
general public about the commitment of Congress to release all 
information that relates to the assassination of President Kennedy, as 
well as renewed speculation about the conduct of our government and its 
institutions and personnel. If appropriate closure is not reached now, 
the identical issues will likely have to be addressed again in the 
future at even greater cost. The additional year that we recommend will 
allow for a confident conclusion of this important task.
    Mr. Chairman, and Members of the Subcommittee, on behalf of the 
members of the Assassination Records Review Board, I thank you for 
allowing us this opportunity to discuss our work and our future. The 
Board and staff stand ready to provide the Subcommittee with any 
additional information that may be required. Thank you.
                                 ______
                                 

                Questions Submitted by Senator Campbell

        review board request for one additional year of funding
    Question. In fiscal year 1997 the Review Board received $2.15 
million for operations and is requesting $1.6 million for fiscal year 
1998. Please explain the decrease in costs.
    Answer. The Review Board has a budget carryover of $500,000 in no-
year funds from its first year (fiscal year 1995), a sum that would 
fund a full quarter year of continued operation. The Board would 
consequently require $1.6 million of additional funds to operate for 
one final year in fiscal year 1998.
    Question. Please provide the Subcommittee detailed budget 
justification for the Review Board for fiscal year 1998.
    Answer. Please see the attached budget justification for the Review 
Board for fiscal year 1998.
    Question. Will the Review Board be in operation throughout the 
entire fiscal year 1998, or will it only need to operate through part 
of the year?
    Answer. After a careful analysis, the Review Board has concluded 
that it will need to be in operation throughout the entire fiscal year 
1998 to ensure that: (a) the remaining assassination records are 
reviewed and publicly released; (b) the compliance of federal agencies 
is documented; and (c) a complete final report is submitted to the 
Congress.
    Question. Does your budget request for fiscal year 1998 include 
costs associated with closing down the Review Board? If so, please 
outline them for the Subcommittee.
    Answer. Yes. The total estimated cost of shutting down is $100,000. 
This figure includes: (a) severance pay; (b) cash-out of any unused 
annual leave; and (c) other costs such as the purchase of archival 
boxes for the storage of records at the National Archives and Records 
Administration, moving expenses for records, and moving expenses for 
furniture and equipment. The Review Board anticipates full-scale 
operation through July 31, 1998. The decrease in staffing for August 
and September 1998 will offset the costs associated with closing down 
the agency.
    Question. What is your current FTE level and will that level be 
maintained throughout fiscal year 1998? If not, please provide details 
on the staffing decreases which will occur as the Review Board 
completes its work.
    Answer. The Review Board's current FTE level is 31. The Review 
Board plans full-scale operation through July 31, 1998. It is 
anticipated that eight staff members will be released in August 1998 
and an additional eight staff members in September 1998.
    Question. Will the Review Board be able to finish it's work with 
the one-year extension for operation?
    Answer. Yes. The additional year will permit the Review Board to 
finish its task by completing several major areas of work. These are 
identifiable projects that are critical to ensuring that the President 
John F. Kennedy Assassination Records Collection is as complete as 
possible.
                    budget request and justification
Object Class 11.1-Full-time staff--1,226
    The amount requested for full-time permanent staff represents the 
requirement to fund 28 full-time positions. We plan full-scale 
operations through July 31, 1998. The remaining two months of fiscal 
year 1998 will be consumed with drafting our final report that will 
reflect the benefit of the additional year, completing the review of 
records, documenting the compliance of federal agencies, and closing 
down our operations. Additionally, we have included $50,000 for 
severance pay and unused annual leave cash-out.
Object Class 11.3--Other than full-time permanent staff--148
    The amount requested in this category represents compensation to 
Board members and 3 intermittent employees. Each paid member of the 
Board will be compensated at the rate of level IV of the Executive 
Schedule (443.52/day) for each day the member is engaged in work for 
the Board. In January of fiscal year 1996 the Chair of the Board 
converted to non-pay status. It is estimated that during the year each 
of the four paid members will attend ten Board meetings and/or public 
hearings. The estimate represents 20 work days for each member of the 
board. This estimate also includes approximately $113,000 for 
intermittent employee salaries.
Object Class 12.1--Civilian personnel benefits--294
    The estimate in this category represents the government's 
contribution for employee benefits at the current rate of 25 percent.
Object Class 21.0--Travel--48
    The amount requested for this object class includes travel costs 
for Board members and staff to attend Board meetings and public 
hearings, travel for staff to visit records repositories and relevant 
individuals, meeting expenses, and local travel.

10 meetings (5 board members).................................   $22,000
Staff travel..................................................    20,000
Meeting expenses..............................................     3,000
Chair travel..................................................     2,000
Local travel..................................................     1,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    48,000

Object Class 23.1--Rental Payments to GSA--298
    The estimate for this object class represents the amount the Board 
will pay to the General Services Administration for office space rental 
totaling 10,000 sq. ft. at an annual rate of 28.87 per sq. ft. (fiscal 
year 1997 cost). This estimate includes an increase of 3 percent for 
inflation.
Object Class 23.3--Communications, utilities, misc.--18
    The requested amount represents estimates for telephones, postage, 
express intercity service, and local delivery service. Since Board 
members are located in other parts of the country, it is important to 
distribute information to them on a timely basis. In addition, the 
Board anticipates intense public interest in its activities. In an 
effort to meet this public demand, the Board intends to continue its 
active public information program that includes regular mailings.

Telephone.....................................................    $9,000
Postage/Postage Equipment/Delivery Services...................     9,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    18,000

Object Class 24.0--Printing and reproduction--32
    The major items in this object class are costs related to copying 
and copier maintenance, the publication of reports to Congress, ARRB 
public information items, Federal Register publication of ARRB notices, 
and the Final Report of the Review Board.

Federal Register notices (175 columns)........................   $22,000
Public and press information..................................     5,000
Copier costs--lease/maintenance/copies........................     5,000
                        -----------------------------------------------------------------
                        ________________________________________________
      Total...................................................    32,000

Object Class 25.2-Other Services--6
    The major items in this category include media services and on-line 
services.
Object Class 25.3--Services from other Government agencies--48
    This category includes GSA administrative support services and 
moving expenses reimbursed to GSA.
Object Class 26.0--Supplies and materials--24
    Anticipated expenses include routine office supplies, subscriptions 
and library materials, ADP software. This estimate is based on current 
operating costs and the additional expenses related to closing an 
agency.
Object Class 31.0--Equipment--10
    This estimate includes the cost of maintenance contracts for 
computer hardware, software, and other office equipment.

              SALARIES AND EXPENSES--OBJECT CLASSIFICATION              
                        [In thousands of dollars]                       
------------------------------------------------------------------------
                                                    1997         1998   
                                                  estimate     request  
------------------------------------------------------------------------
11.9  Total personnel compensation............        1,620        1,668
21.0  Travel and transportation of persons....           65           48
23.1  Rental payments to GSA..................          292          298
23.3  Communications, utilities, misc.........           24           18
24.0  Printing and reproduction...............           34           32
25.2  Other services..........................           10            6
25.3  Services from government accounts.......           55           48
26.0  Supplies and materials..................           30           24
31.0  Equipment...............................           23           10
                                               -------------------------
99.9      Total obligations...................        2,153        2,152
------------------------------------------------------------------------

                                 ______
                                 

                      FEDERAL ELECTION COMMISSION

          Prepared Statement of Joan D. Aikens, Vice Chairman

    As Vice Chairman of the Commission and Chairman of our Finance 
Committee, I herewith submit testimony, on behalf of the Commission, in 
support of our fiscal year 1998 budget request.
    From a campaign finance point of view, the 1996 election involved 
unprecedented amounts of financial activity, possibly over-stepping the 
boundaries of campaign limitations and prohibitions. This forced us to 
reevaluate our fiscal 1998 budget request. We are, therefore, 
presenting a two-part budget. I will start with a justification of the 
budget request we concurrently submitted to the Congress and the Office 
of Management and Budget on October 10, 1996. This I characterize as 
our floor budget. I then will speak to a compelling need to augment 
this budget with the resources necessary to address the extraordinary 
compliance issues raised in the 1996 election cycle. This augmentation 
is presented as an amendment to the fiscal 1998 request.
        fiscal year 1998 floor budget: $29.3 million--313.5 fte
    Our floor budget is a modest request in the face of rapidly 
expanding requirements, both in terms of workload volume and public 
sensitivity. This request was tempered by the rescission enacted in 
fiscal 1995 and two successive years in which our requests were rolled 
back by both the Office of Management and Budget and the Congress. 
Therefore, being sensitive to the Congress and President's quest for a 
balanced budget, the Commission made a decision to present two funding 
levels to OMB for fiscal year 1998: a reduced performance level of 
funding ($29.3 million and 313.5 FTE) which will support a performance 
level beneath which we do not believe we can responsibly go; and a 
standard performance level ($32.6 million and 331.5 FTE) that would 
roughly return us to the performance level we were approaching prior to 
the fiscal year 1995 rescission. The Office of Management and Budget 
concurred with our $29.3 million reduced performance budget request. It 
is important to remember, however, this budget was formulated before 
certain campaign financing controversies arose during the 1996 
elections.
    At this floor funding level, we believe we can cover projected 
increases in staff salaries, rent and other overhead expenses and 
increase our staffing by six positions. Therefore, we can perform at 
roughly the same level we sustain today.
    As to our core disclosure program, that performance is exceeding 
our projections. The financial activity level reported to the 
Commission in this election exceeded $2.7 billion. Despite this 
astonishing surge in fundraising and reporting, we will meet our 48-
hour statutory deadline on indexing nearly 85,000 reports and making 
them available for public inspection. Our data capture of nearly 2 
million itemized transactions to date has been accomplished within 30 
days of report receipt--47 percent faster than the last cycle. 
Furthermore, we are employing better and more technologically-advanced 
means of getting this information to the public. For all but Senate 
candidate committee reports, we now employ digital imaging rather than 
microfilm to duplicate and display these reports to the public. On-line 
computer access to our data bases is available both through a 
subscription service and over the Internet. We inaugurated our web site 
in mid-February 1996; by October 1, this site had been accessed over 
one million times. Even though the election is behind us, public 
interest in our information remains exceedingly high. As of February 
1997, accesses to this web site have exceeded 2 million.
    New computer systems development, however, will slip slightly from 
our original five-year plan under this budget. We have equipped all 
staff with a basic level of computer support under our new network of 
PC's. We also are moving forward steadily with our voluntary electronic 
filing system under Public Law 104-79. At the floor funding level, 
however, we will have to slow certain planned PC network enhancements 
and, in particular, put off expanding our digital imaging technology 
for documents other than financial reports by political committees. 
Despite our ability to reprogram some extra funding into our 
computerization efforts in fiscal year 1996, our request for $3.26 
million for computerization in fiscal year 1997 was cut by a larger 
amount to $2.5 million. Sensing that we could not expect more than the 
amount allowed for fiscal year 1997, and concerned about expanding the 
overall budget request, we have therefore limited our request for 
computerization in fiscal year 1998 to the same $2.5 million level. 
This is well below the fiscal year 1998 funding level suggested in our 
original Computerization Strategic and Performance Plan. Taking into 
consideration current budget constraints, our revised Computerization 
Strategic and Performance Plans for fiscal year's 1997-2002 now extends 
by one year the implementation period for digital imaging and adjusts 
upward the costs for certain fiscal years. The overall cost for the 
computerization initiatives will not increase over the originally-
planned level, however.
    We project mixed performance in our compliance programs at this 
level of funding. Our present field audit work largely is consumed with 
the eleven presidential primary campaigns, the national party 
conventions and three general election campaigns--all of which 
participated in the public funding program. About $235 million in 
public funds were disbursed to these committees. Our auditors are 
confident, however, they can meet our two-year internal deadline of 
releasing final reports for all these extensive audits. This timetable 
was aided by the Democratic primary being essentially uncontested and 
by many of the Republican primary candidates dropping out early in the 
race.
    The disclosure reports of privately-financed House, Senate, PAC, 
and Party committees are given desk audits by our Reports Analysts. 
This activity serves multiple purposes. It identifies and corrects 
disclosure problems, thereby ensuring an accurate public record; it 
serves to train treasurers on how to comply with the law; and, finally, 
it identifies glaring problems that warrant addressing under either our 
enforcement or for-cause field audit programs. This activity has been 
strained by combining fewer staff and more and larger reports. We now 
have over 8,000 reporting committees. Within that number, larger 
committees (Senate campaigns over $500,000 and other committees over 
$250,000) represent the bulk of this desk audit work. The number of 
committees within that subset has doubled from 1982 to 1994 * * * from 
568 to 1,249. In response, higher tolerance thresholds have been set in 
our review procedures. This reduces the workload, but it also glosses 
over some degree of non-compliance.
    Our enforcement and litigation staff continue to be strained, 
despite the implementation of a similar threshold process--the 
Enforcement Priority System. At present, even without the Enforcement 
Priority System in place, the Commission has more cases awaiting 
assignment than being actively worked. As of January 31, 1997, we had a 
total caseload of 366 matters. At the beginning of fiscal year 1995, 
prior to the rescission, our Office of General Counsel had 32 Attorney 
FTE assigned to enforcement cases. Today, we have only 26 Attorney FTE 
assigned to enforcement cases. To demonstrate the impact of these 
reductions, in 1995 we had as many as 163 cases being actively worked; 
now only 98 cases are active. The floor level we seek adds only 2.7 FTE 
to the fiscal year 1997 ceiling for the Office of General Counsel. Many 
of the investigations and civil actions currently underway are too 
important to dismiss and too complex for one or two staff to handle.
    It is, therefore, a mixed message I am giving today as regards our 
proposed floor funding level. We fully appreciate the fiscal climate 
and present a request reflecting that reality. Given the workload 
before us, we urge this level not be reduced. At the same time, we must 
be candid and realistic on what can be accomplished under this budget.
    This floor funding and the attached performance plan address the 
workload we anticipated when we developed our original budget request. 
The augmentation addressed in the following paragraphs addresses the 
unexpected compliance work arising out of the 1996 election.
            fiscal year 1998 amendment: $4.9 million--37 fte
    With full support from the President and OMB, we propose to augment 
the floor budget with a special multi-disciplined project to mount an 
appropriate investigative response to the extraordinary problems 
associated with the 1996 election.
    To implement the first phase of our proposal, the FEC requested 
$1.7 million and 7.8 FTE to supplement our fiscal 1997 budget. 
Unfortunately, the recently-enacted Emergency Supplemental bill 
contained no provision for the FEC. At this juncture, we appeal to you, 
Mr. Chairman, and your colleagues, to report out a bill at the level of 
our fiscal 1998 amended request so that we will have the necessary 
funds for this agency to accomplish its mandated mission.
    This election generated a third more complaints than the 1994 
election. Among them are several allegations of violations of 
unparalleled scale. These cases entail complex factual matters, 
contentious legal and constitutional issues, and involve millions of 
dollars and thousands of financial transactions requiring detailed 
review. The law's confidentiality provisions preclude much elaboration 
on these matters, but we all read the newspapers and know well the 
alleged excesses that arose in this election. The alleged abuses 
involve fundraising from non-resident foreign nationals, the use of 
soft money possibly spent to circumvent the party spending limits on 
behalf of publicly-funded presidential candidates, coordination in 
assertedly independent expenditures, and massive, but undisclosed, 
expenditures on issue advertisements with an electioneering message by 
labor and business interests.
    Under 2 U.S.C. Sec.  437c(f)(3), we are seeking assistance from 
other investigative agencies for non-reimbursable staff details for 
this effort; however, given the fiscal climate, we are not optimistic 
about such an augmentation. We know we will need investigators, 
attorneys, auditors, systems analysts and clerical support staff to 
uncover the extent of the potential violations. Appropriate overhead 
expenses for space, supplies, computer hardware, travel and contractual 
support are also necessary. Our initial cost analysis was based on an 
assumption that we would cover most of this efforts' fixed start-up 
costs with the $1.7 million 1997 supplemental funds and then cover 
essentially staff and direct support costs in fiscal 1998. With the 
loss of the supplemental, we will now have to bear those start-up costs 
(mostly for computer hardware, software, and equipment, furniture and 
supplies) in fiscal 1998. This then reduces the number of additional 
staff we can afford from 47 to 37 FTE. This, in turn, means narrowing 
the breadth of our investigations.
    We have priced this investigative effort on the attached tables 
which break down these expenses by the traditional object 
classifications. If we secure the support of details and/or services 
from other agencies, we will adjust these figures downward.
    Until such time as we have developed more complete evidentiary 
records on these allegations and deliberated on whether and to what 
extent the law may have been broken, it is difficult to project how 
many discreet investigations should go forward and with what degree of 
depth. We also do not know the degree of cooperation or recalcitrance 
we may encounter from respondents. These matters warrant thorough 
investigations. If, however, we do not need all of the additional 
funds, we can either request reprogramming or lapse any funds not 
needed. This request is thus a ``worst case'' scenario.
                               conclusion
    Finally, I must emphasize, this budget request speaks only to our 
responsibilities under the current law. We know Congress is 
deliberating a number of proposals that would significantly amend the 
law significantly. Any additional mandate imposed on the agency for 
rapid implementation likely will require additional funding. Given the 
variety of ideas proposed and the considerable effort involved in 
formulating cost projections thereon, we would rather defer a cost 
analysis on these proposals until enactment of a given set of proposals 
looks likely.
    This concludes our testimony. We stand ready to provide the 
Subcommittee with any additional information it may require.

                 FISCAL YEAR 1998 FEC BUDGET REQUEST AS AMENDED, NO FISCAL YEAR SUPPLEMENTAL FEC STAFFING BY FTE (FULL TIME EQUIVALENT)                 
                                                                    [In fiscal years]                                                                   
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                       FEC historical FTE                               
                                                                                          1997  -------------------------------                         
                                                                  1995  post-    1996   M. plan                          1998       1998         1998   
                             Office                                rescission   actual             1997  M.     1997   reduced   amendment     request  
                                                                                        current      plan     M. plan             24-June      amended  
                                                                                                  supplement    final  perfor.                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Commissioners...................................................         19.1     16.3     17.7  ...........     17.7     18.0  ...........         18.0
Staff director..................................................         26.1     25.8     25.0  ...........     25.0     25.0  ...........         25.0
Administration..................................................         19.2     20.0     20.0  ...........     20.0     20.0  ...........         20.0
Audit...........................................................         31.3     37.3     34.3  ...........     34.3     34.0            8         42.0
Information.....................................................         13.5     12.7     13.0  ...........     13.0     13.0  ...........         13.0
General counsel.................................................        104.3     95.3     93.3  ...........     93.3     96.0           27        123.0
Clearinghouse...................................................          6.0      5.2      5.0  ...........      5.0      5.0  ...........          5.0
Data systems....................................................         35.0     30.7     35.0  ...........     35.0     35.0            2         37.0
Public disclosure...............................................         14.6     14.6     13.3  ...........     13.3     14.0  ...........         14.0
Reports analysis................................................         41.9     40.4     41.0  ...........     41.0     42.0  ...........         42.0
Office of Inspector General.....................................          3.8      4.0      4.0  ...........      4.0      3.0  ...........          3.0
                                                                 ---------------------------------------------------------------------------------------
      Subtotal..................................................        314.8    302.3    301.6  ...........    301.6    305.0           37        342.0
ADP/EF..........................................................           NA      6.2      5.3  ...........      5.3      8.5  ...........          8.5
                                                                 ---------------------------------------------------------------------------------------
      Total.....................................................        314.8    308.5    306.9  ...........    306.9    313.5           37        350.5
--------------------------------------------------------------------------------------------------------------------------------------------------------


                  FEC FISCAL YEAR 1998 AMENDED BUDGET REQUEST, NO FISCAL YEAR 1997 SUPPLEMENTAL                 
----------------------------------------------------------------------------------------------------------------
                                               No fiscal year 1997 supplemental                                 
                                           ---------------------------------------  Administration      Total   
                                                OGC         Audit         Data                                  
----------------------------------------------------------------------------------------------------------------
Total costs:                                                                                                    
    Personnel.............................   $1,726,000     $282,000     $104,000  ................   $2,112,000
                                           =====================================================================
    ADP equipment.........................      279,500       70,500       17,000  ................      367,000
    ADP support...........................  ...........  ...........      100,000  ................      100,000
    Training..............................  ...........  ...........       10,000  ................       10,000
    Furniture/equipment...................  ...........  ...........  ...........          $185,000      185,000
    Space.................................  ...........  ...........  ...........           408,600      408,600
    Phones................................  ...........  ...........  ...........            37,000       37,000
    Copy equipment........................       31,500  ...........  ...........  ................       31,500
    Supplies..............................  ...........  ...........  ...........            74,000       74,000
                                           ---------------------------------------------------------------------
      Basic overhead......................      311,000       70,500      127,000           704,600    1,213,100
                                           =====================================================================
    Travel................................       60,000       50,000  ...........  ................      110,000
    Depositions...........................      110,000  ...........  ...........  ................      110,000
    Litigation document:                                                                                        
        Support...........................    1,320,495  ...........  ...........  ................    1,320,495
        Equipment.........................       50,000  ...........  ...........  ................       50,000
                                           ---------------------------------------------------------------------
          Subtotal........................    1,540,495       50,000  ...........  ................    1,590,495
                                           ---------------------------------------------------------------------
          Fiscal year 1998 total..........    3,577,495      402,500      231,000           704,600    4,915,595
                                           =====================================================================
Start-up costs:                                                                                                 
    Personnel.............................  ...........  ...........  ...........  ................  ...........
                                           =====================================================================
    ADP equipment.........................      279,500       70,500       17,000  ................      367,000
    ADP support...........................  ...........  ...........  ...........  ................  ...........
    Training..............................  ...........  ...........  ...........  ................  ...........
    Furniture/equipment...................  ...........  ...........  ...........           185,000      185,000
    Space.................................  ...........  ...........  ...........  ................  ...........
    Phones................................  ...........  ...........  ...........            18,500       18,500
    Copy equipment........................  ...........  ...........  ...........  ................  ...........
    Supplies..............................  ...........  ...........  ...........  ................  ...........
                                           ---------------------------------------------------------------------
      Basic overhead......................      279,500       70,500       17,000           203,500      570,500
                                           =====================================================================
    Travel................................  ...........  ...........  ...........  ................  ...........
    Depositions...........................  ...........  ...........  ...........  ................  ...........
    Litigation document:                                                                                        
        Support...........................  ...........  ...........  ...........  ................  ...........
        Equipment.........................       50,000  ...........  ...........  ................       50,000
                                           ---------------------------------------------------------------------
          Subtotal........................       50,000  ...........  ...........  ................       50,000
                                           ---------------------------------------------------------------------
          Fiscal year 1998 total..........      329,500       70,500       17,000           203,500      620,500
                                           =====================================================================
On-going costs:                                                                                                 
    Personnel.............................    1,726,000      282,000      104,000  ................    2,112,000
                                           =====================================================================
    ADP equipment.........................  ...........  ...........  ...........  ................  ...........
    ADP support...........................  ...........  ...........      100,000  ................      100,000
    Training..............................  ...........  ...........       10,000  ................       10,000
    Furniture/equipment...................  ...........  ...........  ...........  ................  ...........
    Space.................................  ...........  ...........  ...........           408,600      408,600
    Phones................................  ...........  ...........  ...........            18,500       18,500
    Copy equipment........................       31,500  ...........  ...........  ................       31,500
    Supplies..............................  ...........  ...........  ...........            74,000       74,000
      Basic overhead......................       31,500  ...........      110,000           501,100      642,600
    Travel................................       60,000       50,000  ...........  ................      110,000
    Depositions...........................      110,000  ...........  ...........  ................      110,000
    Litigation document:                                                                                        
        Support...........................    1,320,495  ...........  ...........  ................    1,320,495
        Equipment.........................  ...........  ...........  ...........  ................  ...........
                                           ---------------------------------------------------------------------
          Subtotal........................    1,490,495       50,000  ...........  ................    1,540,495
                                           ---------------------------------------------------------------------
          Fiscal year 1998 total..........    3,247,995      332,000      214,000           501,100    4,295,095
----------------------------------------------------------------------------------------------------------------


                              FISCAL YEAR 1998 BUDGET REQUEST OBJECT CLASS SUMMARY                              
                                                [In fiscal years]                                               
----------------------------------------------------------------------------------------------------------------
                                       FEC 1998 budget request object class detail                              
                                  -----------------------------------------------------    Change        1998   
           Object class                1996       1997  M.    Change  97    1998  red.   amendment    amendment 
                                      actual    plan  Oct.-  to 98  Jan.-  perf  Oct.-    Jan.-97      Jan.-97  
                                     Sept.-96        96           97            96                              
----------------------------------------------------------------------------------------------------------------
Salaries and benefits............  $18,654,291  $19,632,500   $1,084,500   $20,717,000   $2,112,000  $22,829,000
Overtime.........................       73,249      122,000      (55,000)       67,000  ...........       67,000
Witnesses........................          997        5,000  ............        5,000  ...........        5,000
Cash awards......................      170,789      200,000       70,000       270,000  ...........      270,000
Other............................       27,146       10,000       35,000        45,000  ...........       45,000
                                  ------------------------------------------------------------------------------
      Total personnel............   18,926,472   19,969,500    1,134,500    21,104,000    2,112,000   23,216,000
                                  ==============================================================================
Travel...........................      140,939      208,000       58,000       266,000      110,000      376,000
Transportation of things.........       21,122       23,000        4,000        27,000  ...........       27,000
GSA space........................    2,527,167    2,535,000       86,000     2,621,000      408,600    3,029,600
Commercial space.................       24,502       26,000  ............       26,000  ...........       26,000
Equipment rental.................       83,762       88,300        1,700        90,000       31,500      121,500
Telephone local..................      180,633      170,000       10,000       180,000       33,500      213,500
Long distance/telegraph..........       11,277       10,500          500        11,000  ...........       11,000
Telephone intercity..............       78,514       80,000        5,000        85,000        3,500       88,500
Postage..........................      229,159      230,000       10,000       240,000  ...........      240,000
Printing.........................      293,669      300,000      (28,000)      272,000  ...........      272,000
Microfilm prints.................       29,167       28,000        2,000        30,000  ...........       30,000
Training.........................       40,181       56,383        9,617        66,000       10,000       76,000
Administration expenses..........       80,127       69,420       13,580        83,000  ...........       83,000
Depositions/transcripts..........       28,700       36,000        3,000        39,000      110,000      149,000
Contracts/other..................      724,676      686,500        7,500       694,000    1,420,495    2,114,495
Building maintenance.............       15,606       11,080       (6,080)        5,000  ...........        5,000
Other repairs/maintenance........      281,259      286,200       26,800       313,000  ...........      313,000
Tuition..........................        6,413        3,617        2,383         6,000  ...........        6,000
Software, hardware...............      190,632      225,000       20,000       245,000  ...........      245,000
Federal agency service...........      298,892      282,500          500       283,000  ...........      283,000
Supplies and materials...........      331,287      255,000        5,000       260,000       74,000      334,000
Publications.....................      128,472      133,500        3,500       137,000  ...........      137,000
Publications service.............      122,082      124,000        3,000       127,000  ...........      127,000
Equipment purchases..............      135,015      117,000      (21,500)       95,500      602,000      697,500
Computerization: EF/AD...........    1,546,465    2,210,500     (216,000)    1,994,500  ...........    1,994,500
                                  ------------------------------------------------------------------------------
      Nonpersonnel total.........    7,549,718    8,195,500          500     8,196,000    2,803,595   10,999,595
                                  ------------------------------------------------------------------------------
      Total FEC..................   26,476,190   28,165,000    1,135,000    29,300,000    4,915,595   34,215,595
----------------------------------------------------------------------------------------------------------------

Transactions entered into data base each election cycle: 1994-96--as of 
                        December of election year

        Election cycle                                      Transactions
1984..........................................................   365,796
1986..........................................................   234,530
1988..........................................................   620,263
1990..........................................................   720,443
1992.......................................................... 1,076,315
1994.......................................................... 1,191,272
1996.......................................................... 1,799,827

Total disbursements in Federal elections includes reportable ``soft 
money''

                        (In millions of dollars)

        Election cycle                                Total disbursement
1976..............................................................  $310
1978..............................................................   386
1980..............................................................   768
1982..............................................................    95
1984.............................................................. 1,259
1986.............................................................. 1,094
1988.............................................................. 1,607
1990.............................................................. 1,115
1992.............................................................. 2,051
1994.............................................................. 1,708
1996...........................................................\1\ 2,650
1998...........................................................\2\ 2,000

\1\ Projected 12/31/96.
\2\ Estimate.
---------------------------------------------------------------------------

  1980-1996 Presidential elections: Certification of primary matching 
           funds; millions of dollars certified per audit FTE

        Election cycle                                            Amount
1980.............................................................. $2.18
1984..............................................................  2.81
1988..............................................................  4.27
1992..............................................................  4.99
1996..............................................................  6.30
                                 ______
                                 

                Questions Submitted by Senator Campbell

                               adp budget
    Question. Much of the FEC public records work and in the agency's 
fiscal year 1998 amended request notes that further modernization of 
ADP will result in some savings in staff resources. Please explain, in 
light of these potential savings, why the FEC has planned for a 
$216,000 reduction in the ADP budget?
    Answer. The Commission has not planned a reduction in the ADP/
Electronic Filing projects budget. The attached spreadsheets for fiscal 
year 1997 and 1998 depict the total planned expenditures for the ADP/EF 
projects is $2,519,496 in fiscal year 1997 and $2,516,000 in fiscal 
year 1998, which is virtually the same. The summary by object class is 
somewhat misleading in that it depicts a $216,000 decrease in non-
personnel costs allocated to the ADP/EF projects from fiscal year 1997 
to fiscal year 1998; however, this number does not include personnel 
costs for the projects. The difference is made up in personnel, with 
5.3 FTE planned in fiscal year 1997 and 8.5 FTE budgeted for fiscal 
year 1998. This reflects need for staff to design, implement, maintain, 
service, and train users of the new systems in fiscal year 1998 and 
beyond.

                                      ORIGINAL FEDERAL ELECTION COMMISSION AMENDED FISCAL YEAR 1998 BUDGET REQUEST                                      
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years                                                                       
                       Division/office                        --------------------------  Supplement   Final 1997  Fiscal year   Amendment   Final  1998
                                                                   1996         1997         1997                      1998         1998                
--------------------------------------------------------------------------------------------------------------------------------------------------------
Commissioners................................................   $1,652,437   $1,817,675  ...........   $1,817,675   $1,930,500  ...........   $1,930,500
Staff director...............................................    1,926,607    2,052,499  ...........    2,052,499    2,007,500  ...........    2,007,500
    SDO/COM. SEC.............................................      824,583      899,037  ...........      899,037      882,000  ...........      882,000
    P AND M..................................................      167,567      201,967  ...........      201,967      184,500  ...........      184,500
    Personnel................................................      443,578      473,559  ...........      473,559      442,000  ...........      442,000
    Press....................................................      401,652      386,440  ...........      386,440      399,000  ...........      399,000
    EEO......................................................       89,227       91,496  ...........       91,496      100,000  ...........      100,000
Administration...............................................    4,803,343    4,849,538      448,783    5,298,321    5,046,900      605,100    5,652,000
Audit........................................................    2,216,413    2,375,714      157,550    2,533,264    2,460,000      401,500    2,861,500
Information..................................................      921,093      956,341  ...........      956,341      972,000  ...........      972,000
OGC..........................................................    7,012,057    7,258,667    1,041,262    8,299,929    7,744,100    3,697,495   11,441,595
Clearinghouse................................................      492,340      503,252  ...........      503,252      526,000  ...........      526,000
Data systems.................................................    3,008,497    2,903,200       61,320    2,964,520    3,047,000      211,500    3,258,500
Public disclosure............................................      885,013      794,191  ...........      794,191      852,500  ...........      852,500
RAD..........................................................    1,738,233    1,861,777  ...........    1,861,777    1,967,500  ...........    1,967,500
IG...........................................................      246,192      272,650  ...........      272,650      230,000  ...........      230,000
ADP/EF.......................................................    1,573,965    2,519,496  ...........    2,519,496    2,516,000  ...........    2,516,000
                                                              ------------------------------------------------------------------------------------------
      Total..................................................   26,476,190   28,165,000    1,708,915   29,873,915   29,300,000    4,915,595   34,215,595
--------------------------------------------------------------------------------------------------------------------------------------------------------
Notes: Cash awards are not distributed by office in fiscal years 1997 and 1998; they are budgeted for areasand held in the personnel office, P and M,   
  OGC, AUDIT, and SDO until awarded.                                                                                                                    
Administration overhead such as space and supplies are allocated to the administration division in the fiscal year 1997 supplemental and fiscal year    
  1998 amendment packages as they normally are.                                                                                                         
Fiscal year 1996 reflects lapse to Treasury as of 9/30/96 of $14,810 to cover outstanding obligations made but not finally paid as of 9/30/96 (potential
  changes in final payments).                                                                                                                           
Budgets for the SDO components are subtotals of the SDO total.                                                                                          

              contract services/incremental support costs
    Question. Please provide for the Subcommittee a detailed outline of 
how the FEC intends to obligate the $1.343 million in the Contract 
costs/other object class 25.2 Answer. The $1.343 million referenced 
reflected the increment to this object class from the original FEC 
``Reduced performance Level'' request of $29.3 million to process the 
extraordinary cases arising from the 1996 elections. The $1.343 million 
cost included two major elements:

Original fiscal year 1998 incremental budget request for 1996 cases

Litigation document control services (OGC)....................$1,243,125
ADP support (data systems)....................................   100,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total object class 25.21................................ 1,343,125

    The estimate for document control services is based on volume 
estimates for documents and pages to be scanned and indexed, and vendor 
fee schedules for that service. The ADP costs were an increment to 
existing Data Systems infrastructure support for 47 additional FTE in 
fiscal year 1998.
    Because our requested fiscal year 1997 Supplemental was not 
approved, we will be unable to support 47 FTE with the requested 
increment for fiscal year 1998, as start-up costs initially contained 
in the fiscal year 1997 supplemental now will be expended in the fiscal 
year 1998 budget. As a result, only 37 FTE will be supported, but the 
infrastructure support still will be necessary. However, work on the 
enforcement cases which was to be initiated in fiscal year 1997 now 
will occur in fiscal year 1998. Up-front work such as preparing 
documents and initial organizational case work will take place; further 
investigational efforts will be delayed because of diminished staff 
resources As a result of these changes, the incremental support costs 
are as follows:

Revised fiscal year 1998 incremental budget request for 1996 cases

Litigation document control services (OGC)....................$1,320,495
ADP support (data systems)....................................   100,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total object class 25.21................................ 1,420,495

    The contract services are for on-going litigation and enforcement 
efforts, and are not to be confused with the developmental work 
contained in the ADP/EF project funds. Those funds will develop and 
implement the FEC's own case management and document control systems 
for future work.

                              FISCAL YEAR 1998 BUDGET REQUEST OBJECT CLASS SUMMARY                              
                                                [In fiscal years]                                               
----------------------------------------------------------------------------------------------------------------
                                       FEC 1998 budget request object class detail                              
                                  -----------------------------------------------------    Change        1998   
           Object class                1996       1997  M.    Change  97    1998  red.   amendment    amendment 
                                      actual    plan  Oct.-  to 98  Jan.-  perf  Oct.-    Jan.-97      Jan.-97  
                                     Sept.-96        96           97            96                              
----------------------------------------------------------------------------------------------------------------
Salaries and benefits............  $18,654,291  $19,632,500   $1,084,500   $20,717,000   $2,112,000  $22,829,000
Overtime.........................       73,249      122,000      (55,000)       67,000  ...........       67,000
Witnesses........................          997        5,000  ............        5,000  ...........        5,000
Cash awards......................      170,789      200,000       70,000       270,000  ...........      270,000
Other............................       27,146       10,000       35,000        45,000  ...........       45,000
                                  ------------------------------------------------------------------------------
      Total personnel............   18,926,472   19,969,500    1,134,500    21,104,000    2,112,000   23,216,000
                                  ==============================================================================
Travel...........................      140,939      208,000       58,000       266,000      110,000      376,000
Transportation of things.........       21,122       23,000        4,000        27,000  ...........       27,000
GSA space........................    2,527,167    2,535,000       86,000     2,621,000      408,600    3,029,600
Commercial space.................       24,502       26,000  ............       26,000  ...........       26,000
Equipment rental.................       83,762       88,300        1,700        90,000       31,500      121,500
Telephone local..................      180,633      170,000       10,000       180,000       33,500      213,500
Long distance/telegraph..........       11,277       10,500          500        11,000  ...........       11,000
Telephone intercity..............       78,514       80,000        5,000        85,000        3,500       88,500
Postage..........................      229,159      230,000       10,000       240,000  ...........      240,000
Printing.........................      293,669      300,000      (28,000)      272,000  ...........      272,000
Microfilm prints.................       29,167       28,000        2,000        30,000  ...........       30,000
Training.........................       40,181       56,383        9,617        66,000       10,000       76,000
Administration expenses..........       80,127       69,420       13,580        83,000  ...........       83,000
Depositions/transcripts..........       28,700       36,000        3,000        39,000      110,000      149,000
Contracts/other..................      724,676      686,500        7,500       694,000    1,420,495    2,114,495
Building maintenance.............       15,606       11,080       (6,080)        5,000  ...........        5,000
Other repairs/maintenance........      281,259      286,200       26,800       313,000  ...........      313,000
Tuition..........................        6,413        3,617        2,383         6,000  ...........        6,000
Software, hardware...............      190,632      225,000       20,000       245,000  ...........      245,000
Federal agency service...........      298,892      282,500          500       283,000  ...........      283,000
Supplies and materials...........      331,287      255,000        5,000       260,000       74,000      334,000
Publications.....................      128,472      133,500        3,500       137,000  ...........      137,000
Publications service.............      122,082      124,000        3,000       127,000  ...........      127,000
Equipment purchases..............      135,015      117,000      (21,500)       95,500      602,000      697,500
Computerization: EF/AD...........    1,546,465    2,210,500     (216,000)    1,994,500  ...........    1,994,500
                                  ------------------------------------------------------------------------------
      Nonpersonnel total.........    7,549,718    8,195,500          500     8,196,000    2,803,595   10,999,595
                                  ==============================================================================
      Total FEC..................   26,476,190   28,165,000    1,135,000    29,300,000    4,915,595   34,215,595
----------------------------------------------------------------------------------------------------------------

                              cola request
    Question. What is the COLA percentage rate requested in the fiscal 
year 1998 amended budget request?
    Answer. The projected COLA's, based on OMB guidance at the time of 
the preparation of the fiscal year 1998 budget request, were 3.0 
percent for fiscal year 1997 (effective January 1997) and 3.1 percent 
for fiscal year 1998 (effective January 1998, or for approximately 75 
percent of the fiscal year ). The effective 1998 increase was, 
therefore, 2.33 percent in fiscal year 1998.
                       reduced budget assumptions
    Question. Please provide a detailed breakdown of the activities the 
FEC will not be able to continue if the fiscal year funding level is 5 
percent, 10 percent or 15 percent below the amended request rate.
    Answer. As noted in our testimony, our amended budget is based upon 
an extraordinary additional compliance workload related to the 1996 
election. Because of the law's strict confidentiality provision, we 
cannot speak to the issues before the Commission, except in the most 
general terms. Until we have a reasonable idea of the resources we will 
receive for fiscal year 1998, the Commission cannot determine either 
how many investigations and audits to mount or what mix of cases (new 
and old--complex and simple) best serve the law's remedial and 
deterrent goals. If our budget is reduced, tough decision-making will 
be required to parse out insufficient funds for the competing interests 
of compliance, disclosure, education, and prudent agency 
administration. Staff levels that can be supported at the specified 
funding levels are outlined below; however, we cannot specify what 
necessary work would not be undertaken at these levels.
    Our original amended request of $34.2 million was presumed to 
support a total of 360.5 staff members expressed as full-time 
equivalents (FTE's). With the loss of the fiscal year 1997 
supplemental, however, we now must absorb the major start-up costs for 
the incremental units within fiscal year 1998. Most of that money is 
needed for a one-time case management computer support contract and 
desk top computing equipment for the additional staff. Having to bear 
this cost in fiscal year 1998 means we already will have lost 10 FTE. 
That amounts to a 20 percent reduction in the incremental staff we want 
to apply to the 1996 election compliance work. Fewer investigations 
will be commenced and those undertaken must be narrowed in focus and 
likely will take longer to resolve.
    Five percent of $34.2 million amounts to $1.71. While this is 
roughly the same amount lost when the supplemental was rejected, more 
of it would have to be taken from staff salaries. Including salaries, 
benefits and all the associated equipment, supplies, space and 
overhead, the loss of that amount translates to about 15 FTE. The loss 
of another 15 staff means initiating even fewer cases and audits, and 
those commenced would take longer (which matters would be foregone 
would be the subject of considerable analysis and deliberation).
    A ten percent reduction would represent the loss of an additional 
15 FTE, which, when combined with the 10 FTE lost because of the 
rejected supplemental and the 15 FTE noted above, effectively 
eliminates 40 of the 47 FTE increment sought in the amendment. At this 
point, the Commission would have no augmentation in the face of the 
high profile compliance issues that arose during and immediately 
following the 1996 election. At least some of the major compliance 
matters nonetheless demand concerted Commission investigation and this 
will divert resources from the regular caseload. This, in turn, will 
result in more summary closings without proper resolution and possible 
court challenges by aggrieved complainants. Cuts in other activities, 
such as proactive outreach and training, in all likelihood will be 
required. Such training reduces costly compliance problems within the 
regulated community and facilitates voluntary compliance, so making 
such reductions can result in long-term inefficiencies.
    A fifteen percent reduction goes even further and cuts into the 
original floor level of funding which would have sustained 313.5 FTE. 
At 15 percent off our amendment request, we project we could support 
only about 305.5 FTE and have limited support funds for travel, 
equipment and supplies. This level is below what the Commission deemed 
its floor level to meet its statutory obligations before encountering 
the 1996 election excesses. It is likely the tradeoffs to adapt to this 
level funding also would result in delayed implementation of computer 
systems development.
                        reduced fte assumptions
    Question. Please provide a detailed breakdown of activities the FEC 
will not continue if the requested FTE are not provided.
    Answer. The Commission is structured to make its programmatic and 
administrative decisions in a collegial fashion. Beyond the general 
response to this question outlined immediately above, we are not yet in 
a position to provide greater specificity. We certainly hope we will 
not have to make such decisions, but if so, they would be set out in a 
management plan for fiscal year 1998 once we know the funding level. As 
detailed as our management plans have been, even here we are guarded 
when speaking to our enforcement and audit workloads because of the 
confidentiality provision. Therefore, we respectfully must demur on 
forecasting greater specificity at this time.

                 FISCAL YEAR 1998 FEC BUDGET REQUEST AS AMENDED, NO FISCAL YEAR SUPPLEMENTAL FEC STAFFING BY FTE (FULL TIME EQUIVALENT)                 
                                                                    [In fiscal years]                                                                   
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                       FEC historical FTE                               
                                                                                          1997  -------------------------------                         
                                                                      1995       1996   M. plan                          1998       1998         1998   
                             Office                                  actual     actual             1997  M.     1997   reduced   amendment     request  
                                                                                        current      plan     M. plan             24-June      amended  
                                                                                                  supplement    final  perfor.                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Commissioners...................................................         19.1     16.3     17.7  ...........     17.7     18.0  ...........         18.0
Staff director..................................................         26.1     25.8     25.0  ...........     25.0     25.0  ...........         25.0
Administration..................................................         19.2     20.0     20.0  ...........     20.0     20.0  ...........         20.0
Audit...........................................................         31.3     37.3     34.3  ...........     34.3     34.0            8         42.0
Information.....................................................         13.5     12.7     13.0  ...........     13.0     13.0  ...........         13.0
General counsel.................................................        104.3     95.3     93.3  ...........     93.3     96.0           27        123.0
Clearinghouse...................................................          6.0      5.2      5.0  ...........      5.0      5.0  ...........          5.0
Data systems....................................................         35.0     30.7     35.0  ...........     35.0     35.0            2         37.0
Public disclosure...............................................         14.6     14.6     13.3  ...........     13.3     14.0  ...........         14.0
Reports analysis................................................         41.9     40.4     41.0  ...........     41.0     42.0  ...........         42.0
Office of Inspector General.....................................          3.8      4.0      4.0  ...........      4.0      3.0  ...........          3.0
                                                                 ---------------------------------------------------------------------------------------
      Subtotal..................................................        314.8    302.3    301.6  ...........    301.6    305.0           37        342.0
ADP/EF..........................................................           NA      6.2      5.3  ...........      5.3      8.5  ...........          8.5
                                                                 ---------------------------------------------------------------------------------------
      Total.....................................................        314.8    308.5    306.9  ...........    306.9    313.5           37        350.5
--------------------------------------------------------------------------------------------------------------------------------------------------------


                  FEC FISCAL YEAR 1998 AMENDED BUDGET REQUEST, NO FISCAL YEAR 1997 SUPPLEMENTAL                 
----------------------------------------------------------------------------------------------------------------
                                               No fiscal year 1997 supplemental                                 
                                           ---------------------------------------  Administration      Total   
                                                OGC         Audit         Data                                  
----------------------------------------------------------------------------------------------------------------
Total costs:                                                                                                    
    Personnel.............................   $1,726,000     $282,000     $104,000  ................   $2,112,000
                                           =====================================================================
    ADP equipment.........................      279,500       70,500       17,000  ................      367,000
    ADP support...........................  ...........  ...........      100,000  ................      100,000
    Training..............................  ...........  ...........       10,000  ................       10,000
    Furniture/equipment...................  ...........  ...........  ...........          $185,000      185,000
    Space.................................  ...........  ...........  ...........           408,600      408,600
    Phones................................  ...........  ...........  ...........            37,000       37,000
    Copy equipment........................       31,500  ...........  ...........  ................       31,500
    Supplies..............................  ...........  ...........  ...........            74,000       74,000
                                           ---------------------------------------------------------------------
      Basic overhead......................      311,000       70,500      127,000           704,600    1,213,100
                                           =====================================================================
    Travel................................       60,000       50,000  ...........  ................      110,000
    Depositions...........................      110,000  ...........  ...........  ................      110,000
    Litigation document:                                                                                        
        Support...........................    1,320,495  ...........  ...........  ................    1,320,495
        Equipment.........................       50,000  ...........  ...........  ................       50,000
                                           ---------------------------------------------------------------------
          Subtotal........................    1,540,495       50,000  ...........  ................    1,590,495
                                           ---------------------------------------------------------------------
          Fiscal year 1998 total..........    3,577,495      402,500      231,000           704,600    4,915,595
----------------------------------------------------------------------------------------------------------------

          fec enforcement activities; request for fbi details
    Question. On March 10, 1997, the FEC contacted the Justice 
Department to request the use of FBI services to enhance the 
enforcement activities of the FEC. What was the Department of Justice's 
response?
    Answer. Although no decision has been reached yet, staff from the 
Department of Justice and the FEC have met to discuss the possibility 
of FBI or other DOJ personnel enhancing the Commission's enforcement 
activities.
          proposed ``soft money'' ban; effect on fec resources
    Question. The President recently suggested eliminating ``soft'' or 
``in kind'' campaign contributions. How would this change impact FEC 
resources and responsibilities?
    Answer. While the Commission has received and released for public 
comment two petitions for rulemaking on ``soft money'', neither 
petition addresses ``in-kind'' campaign contributions. The Commission 
is still in the very early stages of considering these petitions and, 
in accordance with agency rules, has not yet taken any position on the 
merits of the proposals. For this reason, it is impossible to predict 
what impact any change would have, as the range of potential outcomes 
remains broad.
                clearinghouse of election administration
    Question. The Clearinghouse on Election Administration provides 
information to election administrators. Please provide a breakdown of 
the costs associated with maintaining this and related databases.
    Answer. The Clearinghouse is comprised of 5 staff (6 prior to the 
fiscal year 1995 appropriation), and has responsibility for 
implementing aspects of the NVRA among more continuing 
responsibilities. An annual research budget of $50,000 to $100,000 
(depending on FEC funding) provides for contracts to produce products 
for use by state and local administrators of federal elections. The 
Clearinghouse staff acts as a resource for election administrators, and 
provides assistance to foreign election officials, particularly for 
developing democracies. The total Clearinghouse budget is normally 
about $500,000. fiscal year 1996 (actual), 1997 (planned), and the 
proposed fiscal year 1998 budget are compared below:

                          CLEARINGHOUSE BUDGETS                         
------------------------------------------------------------------------
                                               Fiscal years--           
           Object class           --------------------------------------
                                       1996         1997         1998   
------------------------------------------------------------------------
Personnel........................     $387,889     $377,022     $400,000
Travel...........................       10,853       35,000       45,000
Contracts........................       44,901       55,000       55,000
Printing.........................       42,465       30,000       20,000
Other............................        6,232        6,438        6,000
                                  --------------------------------------
      Total budget...............      492,340      503,440      526,000
                                  ======================================
Staffing (FTE)...................          5.1      \1\ 4.2          5.0
------------------------------------------------------------------------
\1\ Projected.                                                          

                          cola's/locality pay
    Question. The FEC budget request includes a pay increase of 3.1 
percent in fiscal year 1998 to cover [the cost of] the COLA and 
locality pay increases. Please adjust the budget request to reflect the 
fiscal year 1998 pay increase of 2.8 percent only.
    Answer. A pay increase of 2.8 percent effective January 1, 1998 
percent versus a pay increase of 3.1 percent results in a reduction of 
$40,000 from our base request of $29,300,000 and a reduction of $5,000 
from our requested fiscal year 1998 increment of $4.9 million. The 
total adjustment for fiscal year 1998 would be: $45,000 (the difference 
between an effective cost of 2.33 percent and an effective cost of 2.1 
percent). However, we note the requested fiscal year 1998 budget did 
not include any costs for the newly-proposed increase in employer 
contributions to the CSRS funds. A .5 percent increase in CSRS 
contributions would cost the FEC $35,000 in fiscal year 1998. For 
illustrative purposes, raising the CSRS contributions in fiscal year 
1998 would result in the following increases:

Increase in agency CSRS contributions

        Agency increase to CSRS                      FEC Cost in FY 1998
7 to 7.5 percent..............................................   $35,000
7 to 8 percent................................................    70,000
7 to 8.5 percent..............................................   105,000

    In sum, a .5 percent increase in CSRS agency contributions would 
offset the decrease in COLA costs in fiscal year 1998. Any increase in 
agency CSRS contributions above .5 percent would more than offset any 
savings from the COLA reduction.
                                 ______
                                 

                   FEDERAL LABOR RELATIONS AUTHORITY

             Prepared Statement of Phyllis N. Segal, Chair

                            i. introduction
    Mr. Chairman and distinguished Members of the Committee: I welcome 
this opportunity to present the FLRA's fiscal year 1998 appropriations 
request and discuss the FLRA's contributions toward improving labor-
management relations government-wide, as well as the improvements the 
FLRA has made in its internal operations. I am pleased to report that 
the FLRA is meeting the challenges posed by a constrained budget by 
increasing the efficiency and effectiveness in how we carry out the 
responsibility entrusted to us by Congress.
    We continue, as we must, to meet our statutory responsibility to 
investigate, prosecute and decide cases, and resolve bargaining 
impasses. However, instead of seeing this enforcement/adjudicatory role 
as an end in itself, our focus has shifted to giving employers and 
unions the tools with which they can carry on a constructive labor-
management relationship, in which they are largely able to solve their 
own problems within the structure of rights and responsibilities 
created by the law. Our success is essential because the effectiveness 
of the FLRA has an impact throughout the government. We call it the 
``multiplier effect''--every dispute that we resolve expeditiously or, 
better yet, prevent from ripening into a case that must be litigated 
and decided, saves money for the agencies and employees involved.
    As Chair of the FLRA, I have two distinct responsibilities, which 
are reflected in today's testimony. First, I am the Chief Executive and 
Administrative Officer of the FLRA, responsible for providing 
leadership to its three primary, independent components: the Authority, 
the Office of the General Counsel and the Federal Service Impasses 
Panel (the Panel). Second, I am the Chair of the three-Member 
Authority, responsible for the agency's adjudicatory functions.
    I will first testify in my capacity as the FLRA's Chief Executive 
and Administrative Officer, reviewing the FLRA's mission and general 
operations, our appropriations request, and our overall agency 
accomplishments and initiatives. I will then outline the 
accomplishments and initiatives of the Authority.
                              ii. the flra
A. Our mission and operation
    The FLRA is an independent agency which administers the labor-
management relations program for 1.9 million non-postal Federal 
employees world-wide, over 1.3 million of whom are exclusively 
represented in more than 2,200 bargaining units. The FLRA is charged by 
statute with providing leadership in Federal labor-management relations 
and with resolving disputes under and ensuring compliance with Title 
VII of the Civil Service Reform Act of 1978, known as the Federal 
Service Labor-Management Relations Statute (the Statute).
    The Authority is really three agencies consolidated into one. Each 
component is independent and performs very different functions. In 
addition to the three separate components, the FLRA also provides staff 
support for two other organizations. Let me briefly outline each:
            1. The Authority
    The Authority consists of three Members who are appointed by the 
President with the advice and consent of the Senate. The Authority 
adjudicates disputes arising under the Statute, and assists Federal 
agencies and unions in understanding the Statute. In addition to 
deciding cases concerning unfair labor practices, arbitration, 
negotiability and representation issues, the Authority also works to 
help parties understand their rights and responsibilities under the 
Statute and facilitate collaborative problem-solving relationships 
between agencies and unions. The Authority includes the Office of 
Administrative Law Judges, the Office of the Solicitor, the Office of 
the Inspector General, and provides central agency management and 
administrative support to all FLRA components. In addition, the 
Authority provides staff support to the Foreign Service Labor Relations 
Board.
            2. The Office of General Counsel
    The FLRA's Office of General Counsel is the investigative and 
prosecutorial component of the FLRA. The General Counsel, who is 
appointed by the President with the advice and consent of the Senate, 
is charged with (1) investigating unfair labor practice charges; (2) 
establishing policies and procedures for processing unfair labor 
practice charges, including the active encouragement of dispute 
resolution; (3) filing and prosecuting unfair labor practice complaints 
before the Authority; and (4) supervising the Regional directors in 
carrying out their responsibilities to process representation petitions 
and supervise elections. The General Counsel is also responsible for 
the management of the Office of General Counsel employees, who make up 
over one-half of the FLRA's total work force.
            3. The Federal Service Impasses Panel
    The Panel consists of seven Presidential appointees who serve on a 
part-time basis, and are supported by a small full-time staff. The 
Panel resolves impasses between Federal agencies and unions 
representing Federal employees arising from negotiations over 
conditions of employment under the Statute and the Federal Employees 
Flexible and Compressed Work Schedules Act. In short, the Panel is the 
last step in Federal sector collective bargaining--the substitute for 
the strike and lockout in the private sector. The Panel staff also 
supports the Foreign Service Impasse Disputes Panel.
            4. The Foreign Service Labor Relations Board
    The Foreign Service Labor Relations Board (the Board), established 
under the Foreign Service Act of 1980 (the Act), administers the Act 
and is composed of three members. The Board resolves labor-management 
policy issues within the Foreign Service work force.
            5. The Foreign Service Impasse Disputes Panel
    The Foreign Service Impasse Disputes Panel, also established under 
the Foreign Service Act of 1980, resolves impasses arising from 
collective bargaining over conditions of employment affecting Foreign 
Service personnel. The Disputes Panel is composed of five members.
B. Appropriation request
    The FLRA's fiscal year 1998 appropriations request supports all of 
these operational components. It totals $22,039,000, which will fully 
fund 216 full-time equivalent (FTE) workyears of effort. This request 
is 2 percent, or $402,000, higher than the fiscal year 1997 estimate.
    The additional funding we are requesting for fiscal year 1998 
includes: (1) $432,000 to fully fund 216 FTE's by providing the full-
year cost of fiscal year 1997 and fiscal year 1998 pay increases of 2.8 
percent, periodic within-grade increases, career-ladder promotions, 
employee awards, and increased employee benefit costs; and (2) $35,000 
to provide for small increases in the costs of contracting out the 
travel processing and ADP support function (offset by salary and 
benefit savings due to FTE reductions in these areas), accounting and 
payroll support, and other miscellaneous service costs.
    As a result of space reductions in headquarters and Regional 
offices, we will be reducing rental payments to GSA by $65,000 in 
fiscal year 1998. This rent reduction allows us to make a smaller total 
request for our fiscal year 1998 funding than would otherwise be 
necessary.
    The FLRA's request for 216 authorized FTE's in fiscal year 1998 
represents a 14 percent decrease in our work force since fiscal year 
1993 (the baseline year for federal work force reduction initiatives) 
and maintains the agency at the same level authorized in fiscal year 
1997. This current staffing level is 33 percent smaller than it was in 
1980, FLRA's first full operating year.
    Approximately 80 percent of the FLRA's fiscal year 1998 budget 
request is attributable to employee compensation and benefit costs. 
Office rent and telecommunications account for another 11 percent of 
the budget. The remaining nine percent of the budget accounts for all 
other spending, which includes:-the travel necessary to investigate, 
prosecute, and adjudicate complaints; transcription costs to provide a 
record of formal hearing proceedings; purchase of current legal 
research materials; costs associated with printing and issuing bound 
volumes of Authority decisions; employee development and training; and 
equipment maintenance, repair, and replacement.
    This analysis clearly demonstrates that the FLRA's work is 
personnel intensive, leaving little flexibility to absorb budget 
reductions or mandatory cost increases, such as pay raises. Any 
reduction in our budget of necessity translates into a reduction in 
staff, which leads directly to a diminished ability to fulfill our 
mission. In addition, if it becomes necessary to decrease staff, we 
would lose our newest staff members, in whom we have invested training 
and mentoring, and without whom the FLRA would be unable to provide the 
optimal level of service. We would also lose the benefits of having a 
stable work force that will allow us to continue our commitment to 
effectively carrying out our mission in the years ahead.
    In this era of necessary ``downsizing'', we believe that the FLRA 
is currently ``rightsized'' at 216 FTE's to provide the level of 
service that is necessary to deal with the current workload, and 
address the backlog in the FLRA's caseload inventory.
C. FLRA accomplishments and initiatives
    Since my arrival as the FLRA Chair in July of 1994, I have worked 
closely with the Authority Members, the General Counsel, and the Panel 
Chair to continuously improve FLRA management and operations. We have 
strengthened the quality of our customer service by recognizing that 
our separate components share a unified mission. This has been a 
dramatic shift from the way the FLRA historically operated, when each 
component focused solely on its area of responsibility.
    One example of how we are successfully working together is the new 
representation regulations which went into effect in March of 1996.
    Representation issues involve such questions as when employees are 
represented in a bargaining unit and with which union the agency must 
bargain. These issues proliferate when agencies reorganize or downsize. 
Our new regulations streamline the representation petition process, 
expedite the procedures for conducting elections, and create procedures 
to narrow and resolve issues once a petition is filed.
    Another important initiative is the promotion of efficient Federal 
sector labor-management relationships by providing assistance, 
facilitation, education, training, and intervention services. I am very 
pleased to report that, in 1996, the FLRA launched its Collaboration 
and Alternative Dispute Resolution (CADR) program. This is the first 
ever agency-wide program dedicated to improving the parties 
relationship, helping them solve problems themselves before they become 
cases, and thereby reducing the cost of conflict and litigation in the 
Federal sector.
    CADR expands, and provides overall coordination and leadership to 
strengthen, the FLRA's labor-management cooperation and ADR efforts. I 
would like to offer two examples of this in practice. For the first 
time, we are using ADR techniques in the negotiability appeals process, 
to help parties resolve their disputes without a formal decision. In 
the area of unfair labor practice charges, ADR has been integrated into 
every step of the process: when charges are filed, which is leading to 
fewer cases being litigated (which the General Counsel will discuss); 
and at the hearing stage, when the Administrative Law Judge settlement 
project pro-actively encourages the voluntary settlement of cases, 
reducing the number that are settled on the ``court house steps.''
    In fiscal year 1996, the FLRA conducted hundreds of training and 
intervention programs for thousands of participants nationwide, on 
rights and responsibilities under the Statute, interest-based problem-
solving, and alternative dispute resolution. This year, as the FLRA 
continues to intervene in disputes, facilitate partnerships, and 
address the legal issues related to government-wide reinvention, one of 
our primary goals is to encourage an even greater reliance on 
alternative dispute resolution to increase the early and efficient 
solution to problems.
    Our fiscal year 1998 appropriations request reflects our efforts to 
become more efficient through resource reallocation. While we are 
requesting the same number of FTE's, 216, we have reallocated staff 
from the Authority component to the Office of General Counsel to allow 
the agency to process cases in the most effective fashion.
    The FLRA's dedication to strengthening the quality of services 
through greater agency-wide coordination is illustrated by the agency's 
draft strategic plan, which we developed in February of 1996, almost 
two years before such a plan is required by the Government Performance 
and Results Act (GPRA). Even without the strictures of GPRA, I believe 
that strategic planning is vital to a well-run agency. It forces all 
employees to focus on the agency's mission and accomplish its goals. 
The FLRA's strategic planning initiative establishes agency-wide goals 
and, importantly, lays out performance indicators which will allow us 
to measure our progress. I am proud to say that OMB has used the FLRA's 
draft strategic plan as a model for other small agencies. Next month, 
we will be reviewing our experience under our draft strategic plan and 
reviewing the performance measures, not simply to assess whether the 
agency accomplished its goals over the past year, but also to determine 
that we are using the best available outcome-based measurements. We 
look forward to consulting with Congress, as required by GPRA, before 
finalizing our strategic plan.
    To guarantee that individual employee performance is tied to the 
agency's strategic planning, we also developed, in partnership with our 
employees, a new agency-wide Performance Management Plan, which ties 
each employee's performance to the agency's overall goals in concrete, 
measurable fashion. The Performance Management Plan went into effect in 
August of 1996, which puts us half-way through the first year of 
implementation. All of our staff received training about the plan, to 
ensure that our employees know what is expected of them. Our 
supervisors have received additional training to increase their skills 
in providing feedback to their staff during the mid-year reviews and 
address any performance problems which may surface during the year. We 
view this year as the first phase of our effort to truly integrate 
individual performance into our strategic planning.
    Finally, we are also increasing staff productivity and ensuring 
greater agency-wide coordination through improved technology. All of 
our Regional Offices are now fully integrated into the agency's micro-
computer network, which will allow all staff to access Authority 
decisions and other research tools. We are also in the second phase of 
up-grading our case tracking system, which will help us measure our 
performance against the agency's strategic plan.
    Agency-wide, the FLRA and each of its components have accomplished 
much this past year. I believe we are on the right path and we look 
forward to having our customers, and most importantly the American 
taxpayer, reap the benefits as we continue.
    I would now like to turn to what each of our components has done to 
move itself down this road. Let me begin with the Authority, and then 
give the General Counsel and the Chair of the Panel an opportunity to 
present their statements.
                           iii. the authority
    As I mentioned earlier, the Authority encompasses the three-Member 
adjudicatory entity, as well as the management and administration of 
the entire agency. The fiscal year 1998 appropriations request for the 
Authority totals $11,245,000 and 90 FTE's. The activities of all the 
program and administrative offices within the Authority are described 
in detail in our Budget submission. I would like to focus here on the 
unit comprised of the Offices of the three-Member Authority.
    While the accurate forecasting of the Authority's caseload is 
difficult since the cases are initiated by the parties, based on recent 
and historical trends, we expect our caseload in fiscal year 1998 to 
remain approximately the same as the actual fiscal year 1996 level, 
i.e. roughly 550 cases. Our appropriations request reflects this 
expectation. In fiscal year 1996, the Authority closed 271 cases, a 38 
percent increase over the number closed in fiscal year 1995. The 
Authority expects to continue increasing our productivity, which will 
allow us to continue to reduce our caseload inventory.
    However, I would like to point out that our caseload is not a 
complete reflection of our total workload. Our ADR efforts, for 
example, are not captured in caseload statistics. Revisiting and 
revising agency regulations require significant staff time to complete. 
The changes in our representation regulations also affect our caseload 
statistics. For example, the new representation regulations will mean 
that we will receive one consolidated representation petition, which in 
the past would have been filed as several different petitions. While 
this consolidated petition is likely to be more complex than one of the 
prior fragmented petitions, it enables a more expeditious, efficient 
and integrated resolution of the representation questions presented. 
This illustrates the reality that each case is not equivalent. Some 
cases present complex and novel questions of law. Others simply require 
the Authority to apply settled doctrine to resolve a dispute. 
Therefore, while our caseload is one performance measure, it should not 
be the only method used to judge our overall workload.
    To increase the timeliness and quality of our decisions, we are 
developing new approaches to deciding cases filed with the Authority. 
Our goal is to maximize the clarity and stability of the law governing 
Federal sector labor-management relations, so that the parties will 
better understand and be guided by their respective rights and 
obligations. Our primary focus is concentrated on cases where the law 
is unsettled. We are working to produce decisions that are clearly 
articulated to guide the parties in the future and are soundly reasoned 
to withstand judicial review. Our aim is to create doctrine that 
emphasizes the responsibilities of the parties to each other.
    To ensure that our decisions are informed by a thorough 
understanding of some of the most complicated issues we are facing, we 
have broadly sought the views of interested and affected parties 
through amicus briefs in cases involving pivotal issues of government-
wide concern, and initiated face-to-face meetings between Authority 
staff and parties in an attempt to clarify the issues that need to be 
decided, and here again, encouraged parties to find a negotiated 
resolution of their dispute.
                             iv. conclusion
    Our direct customers are continuing to struggle with the issues 
raised by budget reductions and agency downsizing. Effective labor-
management relations are essential if, as Congress has encouraged, 
agencies, unions and the employees they represent are to contribute to 
the efficient operations of government. The FLRA is committed to 
providing the leadership necessary during these crucial times by 
promoting sound Federal labor-management relations. I believe that our 
fiscal year 1998 budget request will enable the FLRA to perform this 
necessary leadership role and provide an effective labor relations 
program that meets the needs of our customers and the public they 
serve.
                                 ______
                                 

 Prepared Statement of Betty Bolden, Chair, Federal Services Impasses 
                                 Panel

                            i. introduction
    Mr. Chairman and distinguished Members of the Committee: I am 
pleased to have the opportunity to submit written testimony on behalf 
of the Federal Service Impasses Panel (the Panel) in support of the 
FLRA's fiscal year 1998 appropriations request. As noted by Chair 
Phyllis Segal in her testimony, the Panel resolves impasses between 
Federal agencies and unions representing Federal employees arising from 
negotiations over conditions of employment under the Federal Sector 
Labor-Management Relations Statute (the Statute) and the Federal 
Employees Flexible and Compressed Work Schedules Act (the Act). In its 
statutory role, the Panel is often referred to as the last step in 
Federal sector collective bargaining--the substitute for the strike and 
the lockout in the private sector.
    The Panel consists of seven Presidential appointees who serve on a 
part-time basis, and are supported by a small full-time staff. The 
Statute requires that Panel Members be appointed ``solely on the basis 
of fitness to perform the duties and functions involved, from among 
individuals who are familiar with Government operations and 
knowledgeable in labor-management relations.'' Since my initial 
appointment as the Panel's Chair in October 1994, I have been fortunate 
to serve with colleagues who, in both background and temperament, are 
particularly well-suited to meet the challenges of Federal sector 
dispute resolution as they exist at the present time. The other Members 
of the Panel are Gilbert Carrillo, from Davie, Florida; Bonnie Prouty-
Castrey, from Huntington Beach, California; Stanley M. Fisher, from 
Shaker Heights, Ohio; Dolly M. Gee, from Pasadena, California; Edward 
F. Hartfield, from St. Clair Shores, Michigan; and Mary E. Jacksteit, 
from Takoma Park, Maryland.
                          ii. past highlights
    Since its inception in 1970, the Panel has been committed to 
assisting parties in the voluntary resolution of their bargaining 
impasses. Implicit in its guiding philosophy is the recognition that a 
solution to practical workplace problems fashioned from within a 
relationship is far more preferable than a solution imposed by third 
parties. For this reason, the Panel has been highly supportive of the 
recent emphasis on interest-based bargaining and collaborative 
approaches to problem solving. Fostering a climate where collaboration 
can thrive is particularly important in the current environment of 
downsizing and streamlining, where the joint development of successful 
strategies for meeting the challenges facing agencies and employees are 
critical for survival.
    Some recent statistics from fiscal year 1996 and 1997 illustrate 
the Panel's emphasis on voluntary resolution. In fiscal year 1996, the 
Panel closed 156 cases. Of these, it was successful in obtaining 
voluntary settlements in 37 cases through prompt, personal 
interventions by Panel Members and staff. Through the first half of 
this fiscal year, of the 74 cases closed by the Panel, 22 resulted from 
voluntary settlements. Moreover, even where complete settlements are 
not attained, the use of alternative dispute resolution techniques in 
face-to-face interventions often can lead to significant reductions in 
the areas over which the parties disagree, and to a much better 
understanding by the Panel of the merits of the parties' positions.
    It has been the Panel's consistent experience that voluntary 
settlements are most likely to occur when the parties are provided with 
face-to-face assistance, either at the Panel's offices or at the site 
of the dispute. In some cases, the nature of the dispute makes it 
imperative that the Panel visit the worksite. Face-to-face assistance 
was provided in 37 cases in fiscal year 1996, and the Panel continues 
to provide such assistance in this fiscal year. While the Panel 
continues to supplement face-to-face assistance through informal 
telephone conferences, the Panel cannot be effective in achieving the 
voluntary resolution of disputes unless it can expend the necessary 
resources to cover salary and travel costs.
    While the Panel has had considerable success in promoting 
cooperative, interest-based problem solving, in some cases face-to-face 
assistance is either inappropriate or unavailing. In such 
circumstances, consistent with its statutory mandate, the Panel must 
impose settlement terms through a written decision. Written final 
actions issued by the Panel are made on a case-by-case basis after a 
thorough examination of the evidence and arguments presented. Although 
they set no precedents in the legal sense for future cases on similar 
issues, they provide valuable guidance to Federal sector labor 
relations practitioners, and can be crucial in avoiding subsequent 
impasses. Thus, given their significance to the particular parties to 
the dispute, as well as to the entire professional community, they must 
be carefully crafted and include clear and convincing rationale. During 
fiscal year 1996, 33 cases were resolved through written final actions, 
18 through the issuance of Decisions and Orders of the Panel, and an 
additional 15 through Arbitrators' Opinions and Decisions, normally by 
one of the Panel Members.
                iii. appropriations request and workload
    The fiscal year 1998 appropriations request for the Panel totals 
$877,000 and 9 FTE's (with the seven part-time Presidential appointees 
comprising 1 FTE). Accurate forecasting of the Panel's caseload is 
difficult since the cases are initiated by the parties. From fiscal 
year 1991, when the Panel received a record 293 requests for 
assistance, through fiscal year 1996, when 163 requests were filed, 
caseload has declined steadily. During this same time, in response to 
the initiatives of the President and Congress to shrink the Federal 
work force, the Panel's level of FTE's was reduced from 11 in fiscal 
year 1993, to its current level of 9.
    While there are no formal studies to confirm the reasons for the 
decline in the Panel's caseload, we believe the two factors which have 
contributed the most are: (1) the development of labor-management 
partnerships in the Federal sector as a result of the issuance of 
Executive Order 12871 on October 1, 1993; and (2) a decision by the 
FLRA in 1993 which excluded from further negotiations matters already 
covered by existing agreements. As to the first factor, the emphasis on 
labor-management partnerships has increasingly moved the parties away 
from the traditional adversarial approach and toward collaborative 
approaches where they resolve more issues themselves, without Panel or 
other third-party intervention. With respect to the second factor, the 
exclusion from further negotiations of matters covered by existing 
agreements is focusing the parties' attentions on end-of-term 
negotiations, resulting in a decrease in the Panel's traditionally high 
percentage of impact-and-implementation impasses.
    However, like the rest of the agency, the Panel's caseload does not 
completely capture our workload. The decline in the Panel's caseload 
from fiscal year 1991 to fiscal year 1996 was offset by increases in 
the difficulty of the filed cases. The era of labor-management 
partnerships ushered in by Executive Order 12871, and the increase in 
the number of cases involving end-of-term negotiations has 
significantly altered the character of the disputes the Panel now must 
deal with. For example, the Panel is increasingly helping parties 
resolve issues relating to interest-based bargaining and so-called 
``(b)(1)'' matters. These Panel efforts are often labor-intensive 
requiring increased assistance, particularly during the initial 
investigation stage of the dispute. Moreover, the parties often 
conclude that the complex problems associated with continuing 
Government downsizing and streamlining are not amenable to resolution 
through partnership and interest-based bargaining. Disputes over these, 
their most difficult issues, are then reserved for traditional 
bargaining, and eventually come before the Panel for final resolution. 
Similarly, the parties' increased focus on end-of-term negotiations 
often results in massive, multi-issue impasses which require 
significant expenditures of the Panel's time and resources.
                    iv. future goals and objectives
    Without repeating Chair Segal's description of the FLRA's strategic 
planning efforts which integrate the various activities of the FLRA's 
components into one agency in philosophy and practice, over the past 
year the Panel has established specific objectives for improving the 
timeliness and quality of service, for effectively using and promoting 
alternative methods of dispute avoidance and resolution to reduce the 
costs of conflict, and for developing and maintaining a highly 
efficient organization with the flexibility to meet program needs.
    For example, in the area of timeliness, we have set quantitative 
standards for case processing for fiscal year 1997 based on current 
baselines. In pursuit of the objective of improving the quality of our 
dispute resolution services, we have established quality standards for 
the most important written documents produced by the Panel's staff. As 
part of the FLRA-wide strategic planning initiative, the Panel has 
established objectives, developed performance indicators, and is 
attempting to measure its performance against those indicators to 
ensure that the Panel performs its mission in an efficient and 
effective manner.
    The Panel's future goals are directly related to what experience 
has shown maximizes the Panel's ability to excel in performing its 
mission of dispute resolution. To summarize, the Panel is striving to: 
(1) investigate promptly and with the highest possible quality of 
service all requests for assistance involving negotiation impasses in 
the Federal sector, either by telephone or through a face-to-face 
meeting with the parties, depending upon which method is most 
appropriate given the location of the parties; (2) assist the parties 
in reaching a voluntary settlement of their dispute by using 
appropriate mediation and alternative dispute resolution techniques 
designed to address their stated interests, and to encourage such 
voluntary settlements at any stage of the Panel's processes; (3) make 
timely procedural determinations regarding whether the Panel should 
assert jurisdiction in a given request for assistance and, if so, to 
select the dispute resolution procedure designed with the specific 
intent of moving the parties toward accommodation; (4) impose terms 
that resolve the dispute as promptly and equitably as possible through 
written decisions which clearly articulate the rationale providing the 
basis for the Panel's decision in cases where the Panel's and the 
parties' best efforts fail to obtain a voluntary settlement; (5) serve 
as a resource to Federal sector employees, their unions, and management 
representatives to improve their knowledge and understanding of the 
purposes, policies, rights, and responsibilities under the Statute and 
Executive Order 12871; (6) make the Panel's case handling processes 
easier to understand, easier to use, and more responsive to the needs 
of the parties; (7) improve the parties' relationships by working 
collaboratively with the other components within the FLRA to provide 
quality and effective training programs designed to educate labor and 
management on the benefits of resolving disputes without having terms 
imposed by a third party; and (8) manage effectively the resources of 
the Panel by ensuring that the parties uniformly receive the highest 
quality of service from its representatives in the most expeditious, 
courteous, and effective manner possible.
    v. customer-oriented initiatives, training, and other activities
    In addition to the Panel's participation in the FLRA's strategic 
planning initiatives, during my tenure as Chair, the Panel has 
continually engaged in efforts to improve the quality of its service. 
In this regard, Panel Members and staff met directly with customers in 
Houston, Texas, in May 1995, in Chicago, Illinois, in July 1995, and in 
Boston, Massachusetts, in May 1996, to receive valuable suggestions 
regarding where improvements could be made. We held another round-table 
discussion with our customers in San Francisco on June 9, 1997.
    In addition, in September 1995, the Panel sent out customer surveys 
to all union and management representatives who requested its 
assistance in fiscal year 1994 and 1995, the first in its 26-year 
history. The survey effort culminated in the issuance of a report which 
summarized its most important findings and listed a number of action 
items to improve the quality and timeliness of the Panel's services 
consistent with the needs expressed by its customers. Among the 
initiatives launched as a result of this report was a new expedited 
arbitration procedure intended to provide the parties with resolution 
of selected, time-sensitive disputes within 48 hours of the close of 
the arbitration hearing. In conjunction with the survey and report, the 
Panel also completed the first thorough review of its rules and 
regulations since the passage of the Civil Service Reform Act of 1978. 
The Panel published revised regulations which became effective on 
August 18, 1996, aimed at making the regulations more user-friendly by, 
among other things, providing easier access to the Panel's services 
through the use of facsimile filings of requests for assistance.
    In addition to ensuring the Panel's continued effectiveness in 
performing its traditional role as the last step in the collective-
bargaining process, the Panel has in the past, and will continue in the 
future, to collaborate with FLRA staff members in providing interest-
based bargaining training to parties in pending Panel cases, and 
providing Panel and staff members for participation in conferences and 
union-and management-sponsored training sessions. These efforts reflect 
the Panel's commitment, in conjunction with the other components of the 
FLRA, to provide leadership within the rapidly changing Federal sector 
environment, and to incorporate effectively the concepts of labor-
management cooperation and interest-based bargaining into the Panel's 
mission of Federal sector dispute resolution. To ensure they are able 
to meet the challenges of this new era in labor-management relations, 
it is important to provide adequate and appropriate training and 
developmental opportunities to its professional and administrative 
support staff. To this end, as part of the FLRA's strategic planning 
initiatives, the Panel has established individual development plans for 
staff members reflecting its immediate and long-term training 
requirements. Along with the rest of the FLRA, it is also developing 
performance management measures to ensure that the training it provides 
results in enhanced performance of the Panel's mission.
                            vii. conclusion
    As long as collective bargaining in the civil service is deemed to 
be in the public interest, and Federal employees are denied the right 
to strike, some mechanism for the resolution of bargaining impasses 
will always be required. The Panel, and the FLRA as a whole, have 
worked diligently to improve the efficiency and effectiveness of its 
staff. The ``multiplier effect,'' the impact that a reduction to FLRA's 
budget would have on other agency's budgets, should not be ignored. 
Every dispute that we resolve quickly, or better yet, prevent from 
requiring a final Panel decision saves money for the agencies and 
employees involved.
                                 ______
                                 

       Prepared Statement of Joseph Swerdzewski, General Counsel

                            i. introduction
    Mr. Chairman and distinguished Members of the Committee: It is my 
pleasure to present testimony on behalf of the Office of General 
Counsel of the Federal Labor Relations Authority (FLRA) in support of 
the FLRA's appropriations request. My remarks will summarize for the 
Subcommittee our accomplishments during the past year, and the progress 
we have made toward improving the quality, responsiveness and cost 
effectiveness of the services we provide to management and labor.
                   ii. the office of general counsel
    As noted by Chair Phyllis Segal in her testimony, the FLRA's Office 
of General Counsel (OGC) is the investigative and prosecutorial 
component of the FLRA. The General Counsel, who is appointed by the 
President with the advice and consent of the Senate, has authority to: 
(1) investigate, settle and prosecute all allegations of unfair labor 
practice charges filed with the FLRA; (2) review all appeals of a 
regional director's decision not to issue a complaint; (3) establish 
policies and procedures for processing unfair labor practice charges, 
including the active encouragement of dispute resolutions; and (4) 
manage, direct, and supervise all employees in the OGC in the 
performance of their delegated responsibility to process representation 
petitions and supervise elections. The fiscal year 1998 appropriations 
request for the OGC component of the FLRA total is $9,936,000 and 117 
FTE's.
                  iii. accomplishments and initiatives
    The Office of General Counsel over the past three years has managed 
its operations in accordance with its strategic planning initiative 
begun in 1995. This plan sets forth a strategy for reducing the cost of 
conflict in the Federal Sector labor relations program by improving our 
processes for the administration of the Statute, developing innovative 
approaches to resolving disputes and improving the relationships 
between labor and management in the Federal sector. The OGC strategic 
plan correlates with the agency-wide FLRA strategic planning 
initiative, which as Chair Segal mentioned, will be discussed with 
Congress before it is finalized, as is required by the Government 
Performance and Results Act.
    The first goal of our Strategic Planning initiative has been to 
improve the OGC's administration of the Statute. One objective to reach 
this goal has been to improve the timeliness of processing of unfair 
labor practice and representation cases in order to be current in the 
processing of our caseload. In fiscal year 1996 our goal was to reduce 
the number of ULP cases over 180 days old to a total of 70 cases 
nationwide by the end of the fiscal year. (This objective was a 75 
percent reduction of cases over 180 days old in the OGC's inventory). 
The OGC exceeded this goal by reducing ULP cases over 180 days to 62. 
This objective was recently updated to no more than 210 cases over 90 
days old by the end of June 1997. If achieved, the OGC will have 
accomplished a 75 percent reduction in the number of cases over 90 days 
old in its inventory (from over 1000 cases over 90 days old to 210 
cases). As of the presentation of this testimony, we are on target to 
successfully attain this goal of becoming current in our case 
processing.
    For the first time in many years the OGC is within striking 
distance of being current in our ULP case processing because of our 
success in reducing conflict between labor and management in the 
Federal sector. For the second straight fiscal year unfair labor 
practice case filings have remained at approximately 30 percent below 
the level of filings in fiscal year 1995. We believe the significant 
reduction and maintenance of the reduction has been in large part as a 
result of the implementation of our Facilitation, Intervention, 
Training and Education (FITE) program.
    FITE exists under the umbrella of the Collaborative Dispute 
Resolution (CADR) a cross-component dispute resolution program. This 
program is aimed at developing alternative approaches to resolving 
disputes and working with the parties to improve their relationships in 
order to prevent unnecessary conflict in the future. Instead of solely 
using resources to investigate and prosecute individual unfair labor 
practice charges, we have developed this initiative to enable us to 
work with the parties in a problem solving environment, as opposed to 
the stereotypical labor-management adversarial environment. Over the 
past two years we have initiated and accomplished approximately 300 
FITE programs per year. The investment of our resources in this area 
has paid off in the significant reduction in case filings in both ULP 
and representation cases. A survey of labor and management who used our 
FITE services was conducted in February 1995. This survey indicated 
that these programs are very useful and efficient in reducing unfair 
labor practice activity at their facilities. A follow-up to this survey 
is planned in early fiscal year 1998.
    Over the past 3 years we have shifted a portion of our resources 
from enforcement of the parties' rights and responsibilities to the 
prevention of disputes and improvement of the parties' relationships. 
We are best able to assist both labor and management meet the 
challenges of government downsizing and reorganization by working with 
them to solve the disputes in a problem solving environment rather than 
through time consuming and expensive, and sometimes what may turn out 
to be pointless, litigation. Working with the parties to develop 
collaborative and non-adversarial relationships requires more than a 
single input into their relationship. It requires a wide variety of 
programs to assist them in improving their relationship, developing new 
approaches to collective bargaining and assisting them to understand 
their rights and obligations under the Statute. Although our caseload 
has gone down from a statistical point of view, our workload has not 
diminished because more of our resources have been diverted to the 
prevention of disputes rather than litigation to resolve disputes.
    The OGC has continued to provide significant services to those 
parties who have agreed to jointly develop a collaborative relationship 
under Executive Order 12871. As result, labor-management partnerships 
now exist in various forms throughout the Federal government. As part 
of these processes, we have assisted the parties in developing new 
approaches to resolving issues without resorting to litigation and in 
developing various methods of alternative dispute resolution.
    A second major goal of our strategic planning initiative has been 
to develop innovative approaches to resolving disputes in the Federal 
sector. In 1995 we began to work with facilities who filed a large 
number of cases. By using newly developed intervention techniques 
designed to improve the parties' relationships, we have been able to 
reduce the level of conflict at these facilities. As a result of our 
success in using these programs, we have increased our emphasis by 
targeting new facilities for future intervention and have lowered our 
threshold for facilities targeted for assistance from 100 cases filed 
in a 12 month period to 30 cases. We have found that high filers tend 
to come from the same facilities year after year. If we can be 
successful each year at a number of these facilities, we will hopefully 
be able to manage our ULP caseload more efficiently and effectively. As 
noted above, our strategy is to push very hard this year to become 
current in case processing so that we can use these new approaches in 
working with high filers closer to the time disputes arise and thereby 
reduce the costs to both labor and management of resolving these 
disputes, as well as hopefully preventing future ones.
    In furtherance of our goal to improve our administration of the 
Statute, the OGC has issued a number of new policies. We have continued 
to operate under our Prosecutorial Discretion policy issued three years 
ago. This policy sets forth criteria for the dismissal of what would 
otherwise be meritorious charges because they are technical violations 
of the Statute which do not otherwise further the purposes and policies 
of the Statue. Over the past three years approximately 80 charges a 
year, which otherwise would have been litigated, have been dismissed. 
Our Settlement policy places greater responsibility on the parties to 
settle their own disputes by crafting solution responsive the 
particular needs of the parties. This policy has given OGC regional 
directors more discretion to approve settlements which to do not fit 
the traditional settlement mold. We have seen significant improvements 
in the number, quality and creativeness of the settlements since the 
implementation of this policy as well as a significant decrease in the 
number of complaints, which is the first phase of the litigation 
process.
    The OGC has also issued a policy on the scope of investigations 
which explains the various investigative techniques that may be used 
and gives discretion to the regional office to stop needless 
investigation when the charge clearly has no merit. The techniques used 
to investigate will vary based on the nature of the issues in the 
unfair labor practice charges. In order to be most effective, the 
technique used must fit the charges, rather than one technique for all 
charges. This policy is aimed at reducing the cost and time consuming 
nature of an investigation by using the best technique to investigate a 
charge. It also stops an investigation when further investigation would 
not be probative. All charges deserve a high quality investigation, but 
all charges do not need the same type of investigation. With this in 
mind, the OGC has established a Quality policy which sets forth quality 
standards for the processing of unfair labor practice charges and a 
separate quality policy for representation cases.
    As a method of determining whether these quality standards are 
being met, the OGC has developed a new Appeals Policy. This new policy 
establishes quality review and not just legal review as requirements 
for each appeal filed with the OGC. Furthermore each of the OGC's 
regional offices, as part of their regional strategic plans have 
adopted regional quality review processes to ensure theses standards 
are met.
    The OGC has issued a number of guidance memoranda on various 
Federal sector labor relations subjects. I have begun this practice as 
a means of educating the parties on the current state of the law, 
giving them an understanding of how the OGC will interpret, and 
therefore enforce, the law and provide them an opportunity to gain a 
better understanding of the processes of the Statute. The OGC has 
received an average of 300 requests from throughout the Federal sector 
for the guidance memoranda and the policy issuances. We will continue 
to issue labor relations guidance in order to provide clarity and 
understanding of the Statute and the OGC's processes.
    The FLRA recently issued new representation case regulations which 
greatly changed the OGC's processes for the handling of representation 
cases. The new regulations provide much greater flexibility in using 
problem solving approaches to assist the parties with the wide spread 
reorganization of government agencies which is going on today. In the 
past, representation cases required adherence to arcane and very rigid 
rules and processes to resolve issues of the status of bargaining 
units. The resolution of disputes concerning representation matters 
frequently required litigation which in many cases became very drawn 
out and expensive. Using the new processes we have developed under the 
regulations, the OGC has been able to further expand its very vital 
assistance to agencies and unions undergoing a reorganization.
    For example, the OGC just completed assisting the Department of 
Health and Human Services and its unions to dramatically reorganize the 
structure of the bargaining units in HHS to provide a significantly 
more efficient system for dealing with labor-management negotiations 
and the changes which resulted from a massive internal reorganization 
of HHS. The methods we used are estimated to have saved over $300,000 
in litigation costs alone, and the entire process from initial meeting 
to final decision took a little over four months. In fact, no 
litigation was required because the parties entered into stipulations 
which resolved all outstanding issues. Although we cannot provide a 
precise calculation of the savings to the government by the efficiency 
brought about by the new approach to bargaining unit structure put in 
place through our assistance, such a reorganization as large and 
complex as this one which affected all employees of the Department and 
all divisions would have required numerous hearings and, in the past, 
would have taken close to three years to accomplish. Furthermore, it is 
doubtful in an adversarial environment whether the reorganization could 
have been completed as successfully to fulfill the needs of the parties 
and consistent with the requirements of the Statute.
    Similarly, we have assisted reorganization activity in a number of 
large components in the Departments of Defense and Agriculture. By 
using these new approaches the number of cases have declined and the 
costs to the parties and taxpayers have likewise declined 
significantly. However, as I mention with respect to unfair labor 
practice cases, while our representation caseload has declined, our 
workload has not. In fact, the services rendered by the OGC are in 
greater demand than ever in order to assist the parties in working 
collaboratively through the myriad of issues associated with 
governmental reorganization. With the forecasts of significant future 
reorganizations, this workload could significantly increase beyond our 
caseload forecasts. However, if we can continue to build on our 
successful approaches to dealing with these reorganizations, there will 
not be a concomitant increase in cases and the costs associated with 
them.
    This illustrates what we have called the ``multiplier effect.'' 
FLRA's efforts and resources have a direct impact on the resources of 
other agencies. Without our assistance, HHS, DOD or Agriculture would 
have spent far more staff time and, therefore, money on their 
reorganizations.
    We have been successful at reducing the cost of conflict in the 
Federal sector labor relations program and assisting in the successful 
reorganization, and therefore greater efficiency of government 
departments and agencies. We have set new goals in order to be able to 
obtain even greater savings for the government in the future. We intend 
on continuing to multiply the taxpayers investment in the OGC by 
continually seeking to improve our processes and to be responsive to 
needs of our customers.
                                 ______
                                 

                    GENERAL SERVICES ADMINISTRATION

          Prepared Statement of David J. Barram, Administrator

    Mr. Chairman and Members of the Committee: I am Dave Barram, and I 
am pleased to provide a statement for the record that discusses the 
General Services Administration (GSA) and its budget request for fiscal 
year 1998.
    Last year, I promised Congress that the agency would be bold and 
begin to address fundamental and paradigm-shifting approaches to 
accomplishing its dual policy and operational roles within the Federal 
community. We are doing this, and it shows.
    When I tell people about change at GSA, they sometimes give me a 
strange look, perhaps thinking that ``this poor guy from California 
believes that a 50 year old agency will really change.'' Well, this is 
cynical and very unfair, because we are on a mission: a mission to show 
that we can be the best in every area in which we operate. I think 
three impulses drive us toward change.
    First, we believe the customer is king. We're learning what that 
really means. We thrill our customers with GSA Advantage!, with less 
than 2 cents a network minute for long distance on-net telephone 
service, and with class A space at good rates. We're getting praise for 
fixing mistakes, for making vendors provide our customers what they 
agreed to, and for explaining our products. Our Office of 
Governmentwide Policy will also thrill customers by developing 
enlightened policies in new collaborative ways.
    Second, GSA employees are taking more direct responsibility for 
their work, for their organization, and for the skills they need to 
flourish. When we decided Can't Beat GSA Leasing and Can't beat GSA 
Space Alterations made a lot of sense, GSA employees did it; we didn't 
go out and hire a bunch of high-priced consultants. Both programs re-
engineer processes to achieve efficiencies and economies, while giving 
customers added options to meet their requirements in these areas. And, 
on behalf of the Vice President, I just announced the new Access 
America Plan that will give customers the ability to get services from 
the Government electronically; our Office of Governmentwide Policy is 
heavily involved in this initiative, and GSA is well positioned to make 
the Access America vision of electronic government a reality.
    Third, where we work and how we work is changing, and the 
availability of technology will drive that change. The ``office'' we 
are used to will be different; workers will share space, have more than 
one ``location,'' and have to be accessible wherever they are. We plan 
to be in front of that wave, to provide the workplace of the future. We 
are not just in the buildings, supply, or telecommunications business; 
we are in the business of providing Federal employees with great work 
environments that are effective, innovative, productive, and that 
anticipate the workplace of the future.
                              perspectives
    These impulses drive us and form our framework for action. Before 
moving on to specifics of the fiscal year 1998 budget, I would like to 
put some of GSA's programs and accomplishments into this framework, and 
provide an overall perspective that the Committee may find helpful.
    Measured in obligations, our fiscal year 1998 program will be 
slightly over $13.3 billion, much of which is in the form of funded 
requests from other agencies. This continued growth over the years 
reflects customer satisfaction and confidence, an outcome of 
successfully implementing initiatives to make GSA the most competitive 
and cost effective source for goods and services within the Federal 
community.
    At the same time, budgeted employment of 14,403 full-time 
equivalents (FTE's) will be at a record low, down almost 29 percent 
since fiscal year 1993. This is also over 24,000 FTE below our peak 
work force of the early 1970's, and 9,500 FTE below employment in 1950, 
our first year of operation. We are doing more with less, and we are 
doing it well.
    Most GSA spending winds up in the private sector in some fashion. 
Of $13.3 billion in expected fiscal year 1998 obligations under our own 
accounts, only $919 million, less than 7 percent, is for personnel 
salaries and benefits. The balance represents orders that will be 
placed with commercial vendors, directly or through revolving funds, 
for goods and services.
    In total, GSA's programs will influence over $43 billion in 
Government financial transactions in the budget year. As one example, 
the agency will set in place contracts that other Federal agencies will 
directly use for an estimated $14 billion in procurements. These 
provide goods and services at significant cost savings due to GSA's 
leverage as a central purchasing agent, shown in a number of fiscal 
year 1996 accomplishments:
  --GSA's contract for the IMPAC/VISA Government purchase card saved 
        $394M, and refunded $1.6M to the Government.
  --GSA's contract with American Express for the travel charge card 
        generated $18M in refunds.
  --We obtained unrestricted airfares at about 56 percent off normal 
        coach fare on 5,152 airline routes, and saved $1.5 billion. 
        Savings of $2.4 billion are projected for fiscal year 1997.
  --The agency brought its lowest long-distance telephone rates down 35 
        percent, and saved more than $200M a year.
  --Almost $205M was saved on the purchase of office supplies.
  --GSA provided fleet automobiles for 20 percent less than commercial 
        rates, saving $51M.
  --Small package overnight delivery was provided for one-third below 
        commercial rates, saving $40M.
  --GSA also negotiated prices for shipping freight and relocating 
        employee household goods that saved $95M and $74M, 
        respectively.
    As previously noted, we have accomplished a significant employment 
downsizing since fiscal year 1993--over 5,800 FTE, or nearly 29 
percent. This streamlining has been accomplished entirely without 
reductions in force or other adverse actions. Some has resulted from 
managed attrition, augmented by 4,270 buyouts planned for the fiscal 
year 1994-1997 period.
    In its operations, GSA has been rapidly moving from being a 
mandatory source to being a provider of choice, and is now effectively 
competing for customer purchases of supplies, fleet services, 
information technology services and, increasingly, real property 
services. For example, GSA's Public Buildings Service is finding new 
ways to become more competitive and customer-focused. Its Can't Beat 
GSA Leasing and Can't Beat GSA Space Alterations initiatives are 
reducing delivery times and enhancing cost effectiveness by cutting 
cumbersome procedures and offering greater competition and choice to 
Federal agencies.
  --Only fully underway for a short time, Can't Beat GSA Leasing is 
        already demonstrating efficiencies, and potential savings are 
        estimated at tens of millions annually.
  --Can't Beat GSA Space Alterations is targeted to take up to 60 
        percent off of traditional delivery schedules, reduce 
        administrative costs, and put vacant Government building space 
        back into revenue-generating operation faster.
    Our programs often involve meeting broad societal goals and 
improving the quality of life for Federal employees.
  --GSA is a leader in family-friendly workplaces. We opened 3 new 
        child care centers in fiscal year 1996, bringing the total to 
        105 GSA-managed centers in Federal buildings, serving more than 
        6,500 children. We also established 15 telecommuting centers 
        nationwide, used by 40 Federal agencies, to make it easier for 
        Federal employees to do their work.
  --Last year, GSA launched its Good Neighbor program, a public/private 
        partnership with communities that enhances local efforts aimed 
        at maintaining the vitality of American cities. The program 
        supports the Clinton Administration's urban agenda by using 
        GSA's authorities in real and personal property to revitalize 
        downtowns and local communities across the country.
  --Under the Administration's Computers to Schools initiative, GSA 
        donates its surplus computer equipment to schools and non-
        profit organizations, including community-based educational 
        organizations. Particular preference is given to these entities 
        in Federal enterprise communities and empowerment zones.
  --GSA celebrated a record-breaking year in contracting with small, 
        minority, and women-owned businesses.
  --GSA manages the Federal Government's recycling program, which 
        recycled 40,000 tons of recyclable material in fiscal year 
        1996. Besides saving trees, reducing waste, and avoiding 
        pollution, the program earned more than $500,000 from the sale 
        of recovered materials, which, under legal authority, was 
        returned to agencies to use for authorized purposes.
  --The Clean Air Act Amendments of 1990 require reduction in the 
        production of ozone-depleting chemicals. GSA funds projects to 
        replace or retrofit air-conditioning equipment that uses CFC's.
  --Under the Interagency Fleet Management Program, an increasing 
        percentage of GSA's motor vehicle inventory is being replaced 
        annually with alternative fuel vehicles, in accordance with 
        Executive Order 13031.
  --Energy conservation laws and associated Executive Orders require 
        all Federal agencies to reduce overall energy use by 20 percent 
        from 1985 levels by fiscal year 2000. At present, we are on 
        target to meet the goals and, in fiscal year 1996, captured 
        nine Federal energy and water conservation awards presented by 
        the Federal Interagency Energy Policy Committee and the 
        Department of Energy.
                  the fiscal year 1998 budget request
    In total, we are asking the Committee to provide GSA with $224.6 
million in appropriations and $5 billion in Federal Buildings Fund 
(FBF) new obligational authority (NOA) for fiscal year 1998. This is 
summarized and compared with Committee action in prior years in the 
table, below.
    Operating appropriations are a relatively small but important part 
of our program, supporting the Office of Governmentwide Policy, the 
Office of Inspector General, and a few remaining operating programs. 
The total request of $140.6 million is $19.2 million, slightly over 12 
percent, below enacted levels for fiscal year 1997. This is basically 
attributable to the transfer of certain functions to reimbursable 
financing and termination of one-time fiscal year 1997 efforts.

                                     THE FISCAL YEAR 1998 BUDGET IN SUMMARY                                     
                                            [In millions of dollars]                                            
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal years--                 
                                                               -------------------------------------------------
                                                                  1996 actual      1997 current    1998 request 
----------------------------------------------------------------------------------------------------------------
Operating appropriations:                                                                                       
    Salaries & Expenses, Policy & Operations..................         119.214          118.173          104.487
    Office of Inspector General...............................          33.274           33.863           33.870
    Allowances, former Presidents.............................           2.181            2.180            2.250
    Expenses, Presidential transition.........................  ...............           5.600   ..............
                                                               -------------------------------------------------
      Subtotal budget authority/appropriation.................         154.669         $159.816         $140.607
                                                               =================================================
Federal buildings fund new obligational authority:                                                              
    Construction & acquisition of facilities..................         545.002          758.711   ..............
    Repairs and alterations...................................         659.250          639.000          434.000
    Installment acquisition payments..........................         163.663          173.075          142.542
    Rental of space...........................................       2,402.337        2,395.228        2,275.340
    Building operations.......................................       1,344.551        1,544.651        1,331.789
    Authority for prior-year projects/activities \1\..........       (-296.943)       (-383.600)         680.543
                                                               -------------------------------------------------
      Subtotal FBF New obligational authority.................       5,114.803        5,510.665        4,864.214
                                                               -------------------------------------------------
      Subtotal FBF budget authority...........................          67.692          392.544           84.000
                                                               -------------------------------------------------
      Subtotal FBF appropriations.............................          86.000          400.544           84.000
                                                               -------------------------------------------------
      Total, TPO action (BA and NOA)..........................       5,269.472        5,670.481        5,004.821
                                                               =================================================
Budget authority..............................................         222.361          552.360          224.607
Appropriations................................................         240.669          560.360          224.607
----------------------------------------------------------------------------------------------------------------
\1\ Non-add entries in fiscal year 1996 and 1997 reflect approved program that cannot be accomplished due to    
  Rent shortfall.                                                                                               

    There are several points that I want to highlight concerning the 
fiscal year 1998 FBF real property program. First, we are requesting no 
new construction projects, and only one major repair project. The 
latter is $84 million for the third and final phase of the Interstate 
Commerce Commission/Connecting Wing/Customs renovation project. In the 
interim, GSA will continue to be very much involved in construction and 
major repair efforts, given that up to $1.2 billion in previously-
authorized projects remains available for design and/or construction 
award in fiscal years 1997 and 1998.
    Second, the budget reflects $681 million in NOA in fiscal year 1998 
to fund capital projects previously authorized by Congress. This 
Committee provided for these projects in appropriations acts based on 
GSA estimates of Rent income that GSA later determined were too high by 
$681 million. The adjustments to our revenues have resulted from a 
combination of several factors, including a market-driven reduction in 
the Rent that we charge occupying Federal agencies that we failed to 
fully account for in our estimates, overly optimistic assumptions on 
when new space would enter our inventory, and generally underestimating 
the effects of Federal downsizing. We have continued to review 
anticipated net revenues and, as explained in the attached letter from 
Public Buildings Service Commissioner Robert Peck, we expect that net 
revenue will be further adjusted downward from the budget estimate by 
$79 million in fiscal year 1997 and $132 million in fiscal year 1998. 
Corrective measures have been taken to ensure that obligations do not 
exceed income through fiscal year 1997, and we are working to refine 
the process to avoid errors in anticipated income of this magnitude in 
the future.
    Third, the budget program for Rental of Space and Building 
Operations activities anticipates a net reduction of over $100 million 
based on estimated savings from
    Federal downsizing and various cost containment strategies. This 
will be an impressive and very difficult challenge, but one that I 
believe we can meet.
    Following the tragic Oklahoma City bombing of the Alfred P. Murrah 
Federal Building, GSA participated in the Vulnerability Assessment 
Study directed by the President and conducted by the Department of 
Justice. As a result of the study, GSA requested, and this Committee 
provided, increased funds in fiscal year 1997 for security enhancements 
at GSA-controlled facilities nationwide, and we will be adding over 370 
police officers and 211 other positions, which will result in over 
1,400 security personnel in addition to 3,000 contract guards. While 
the total for police officers alone will be increased to more than 700, 
based on recommendations of a staffing study by Booz-Allen, this is not 
consistent with a ``floor'' of 1,000 Federal Protective Officers 
(FPO's) established by a provision in the fiscal year 1989 
Appropriations Act, and we are asking for its repeal.
                                closing
    About one-hundred years ago, Elbert Hubbard said, ``the world is 
moving so fast these days, that the man who says something can't be 
done is generally interrupted by someone else doing it.'' If the need 
for adapting and changing was true a hundred years ago, it is even more 
so today.
    We are doing it. We're changing our methods and our culture, and 
our budget and accomplishments show it.
    Our Federal Supply Service keeps innovating and increasing market 
share. That's a new idea, increasing market share. Other agencies were 
starting to develop their own contracts. Now, they are abandoning them 
because we can serve them better.
    The Federal Telecommunications Service continues to creatively 
lead. Nothing is more complex these days than the world of 
telecommunications. Just over one year ago, the Telecommunications 
Reform Act of 1996 was enacted, which set in motion dramatic changes in 
the telecommunications market. We're now in the midst of the 
acquisition of telecommunications services that will support the 
Federal community well into the next century.
    And, we're doing it in the Public Buildings Service, too. Can't 
Beat GSA Leasing was a great step. Can't Beat GSA Space Alterations was 
another one. These initiatives are reducing delivery times and 
enhancing cost effectiveness by cutting cumbersome procedures and 
offering greater competition and choice to Federal agencies.
    In summary, we are moving forward, and we feel a sense of urgency. 
The President talks about having less than 1,000 days before the turn 
of the Century. I would like to see us accomplish our goal of being the 
best well before the beginning of the next millennium. I know we want 
to, and I believe we can if we keep our vision as broad as we possibly 
can. You will be hearing even more GSA success stories when we come 
before you to discuss the budgets for fiscal years 1999 and 2000.
    Mr. Chairman, this concludes my formal statement.
                                 ______
                                 

                Questions Submitted by Senator Campbell

    Question. What is GSA proposing for the properties acquired from 
the Pennsylvania Avenue Development Corporation. If disposed of, where 
will the proceeds for this property be deposited?
    Answer. GSA proposes full disposition of all six holdings received 
from PADC within the next year. The real property assets transferred to 
GSA consist of two participating interests on sites previously sold, 
two ground leases, and two undeveloped sites. GSA is currently 
evaluating issues related to the dispositions for their feasibility and 
potential for economic return. Developing and implementing the 
disposition plans will take a minimum of one year. Factors involving 
approval process, and the real estate market where these properties are 
located, will also affect the timing of final disposal.
    The proceeds from the disposal of any of the properties that GSA 
acquired from the former Pennsylvania Avenue Development Corporation 
(PADC) will be deposited into GSA's Pennsylvania Avenue Activities 
Account.
    Question. PBS is marketing a program called ``Can't Beat GSA Space 
Alterations.'' This program provides customers a choice in performing 
space alterations of less than $100,000 themselves, or through PBS. Why 
aren't agencies being given the same flexibility for more expensive 
space alterations? The program has been available since the start of 
the year. How many clients have opted for private sector space 
alterations contracts?
    Answer. GSA has limited its blanket delegation of authority for 
customers' choice to do their own alterations to the Simplified 
Acquisition Threshold (currently $100,000) of the Federal Acquisition 
Streamlining Act of 1994. Below this threshold, customers can use the 
simplified acquisition procedures authorized by the Act, which cover 
over 90 percent of all reimbursable alteration projects.
    GSA has not made a blanket delegation of authority to customers 
above the Simplified Acquisition Threshold because we believe it 
advisable to handle choice over this amount on a case-by-case 
delegation basis. This is due to more complex procurement requirements 
above the threshold and the potential adverse impacts of larger scale 
projects on building systems and other Federal tenants.
    We do not yet have measurements on how many customers have opted to 
alter their space themselves. We expect our first measurements on GSA 
``market share'' in October. Whether or not customers choose to do work 
in the buildings themselves is still largely driven by who operates the 
building. It should be noted that GSA has delegated the operation of 
approximately 20 percent of GSA's occupiable square footage to occupant 
agencies. If the agency operates the building, alterations are 
typically done by the agency.
    Question. On May 22, 1997, the Department of Energy announced a $5 
billion renovation of Federal buildings to cut energy bills by one 
quarter. According to the Department of Energy all funding will come 
from private companies. GSA has been engaged in an energy efficiency 
program since the passage of the Energy Policy Act of 1992. The Act and 
subsequent Executive Orders require PBS to reduce energy consumption by 
30 percent (from the base year 1985) by the year 2005. How will the 
Energy Department program impact GSA's existing program? According to 
the Department of Energy, contracts have been awarded for Federal 
office buildings in Alaska, Arizona, California, Hawaii, Idaho, Nevada, 
Oregon, and Washington. How will this program impact facilities that 
GSA has modernized or updated through its Energy Efficiency Program? 
Please detail prior year spending under the GSA energy efficiency 
program.
    Answer. DOE has developed and awarded an Indefinite Delivery/
Indefinite Quantity (IDIQ) Contract in the Western Region of the 
country for the purpose of allowing Federal agencies to acquire energy 
efficiency related products and services. Performance-based energy 
services are available to all Federal agencies with Government-owned 
facilities in Alaska, Arizona, California, Hawaii, Idaho, Nevada, 
Oregon, Washington, Hawaii, and the Pacific Trust territories, through 
delivery orders executed under an IDIQ contract under the Federal 
Acquisition Regulation (FAR) process. This new Super Energy Savings 
Performance Contract (ESPC) involves the competitive selection of a 
small number of contractors (multiple awards).
    The Energy Department program will not directly affect the GSA 
Energy Efficiency Program. The Energy program can be used by GSA as an 
additional method to obtain products and services to meet the energy 
reduction goals of the Energy Policy Act of 1992. GSA's modernization 
or updating program is a different program than the energy efficiency 
program. The modernization program is a comprehensive reinvestment in a 
building to replace and improve major operating systems, interior space 
and finishes, and building features which result in a building with a 
new expected useful life equal to that of a new building.
    In fiscal year 1996, GSA expended $7.4 million on energy savings 
projects. From fiscal year 1990-1995, GSA spent a total of $145 million 
on major energy projects.
    Question. Please provide a chart showing construction projects in 
the pipeline. Please indicate the original completion date (and if 
necessary a revised completion date) for each component site 
acquisition/design/construction, and the status of the project for all 
major construction and repair and alteration projects.
    Answer. The requested information follows:

                                                    IN DESIGN                                                   
----------------------------------------------------------------------------------------------------------------
                                                                  Design complete                               
               Project                      Description       ----------------------          Comments          
                                                                Original   Current                              
----------------------------------------------------------------------------------------------------------------
IRS Center, Andover, MA.............  Facility modernization.  .........    3/31/98  ...........................
J.C. Cleveland FB, Concord, NH......  Facility R&A...........  .........    2/14/98  ...........................
FB-CT, Providence, RI...............  Facility R&A...........    4/30/97    4/15/97  ...........................
IRS Service Center, Holtsville, NY..  Mod.hvac/elec sys, ADA.  .........    2/11/98  ...........................
PO-CT, New York, NY.................  Renovation/adaptive      .........    2/18/98  ...........................
                                       reuse.                                                                   
Operations Bldg., Woodlawn, MD......  R&A....................  .........     6/8/98  ...........................
J.A. Byrne, Philadelphia, PA........  Facade upgrade.........  .........    10/1/97  ...........................
U.S. Courthouse, Erie, PA...........  New construction.......   10/30/98     6/1/98                             
IRS Service Center, Covington, KY...  Renovations............  .........    9/20/97  ...........................
FB-PO-CT, Raleigh, NC...............  Renovations............    8/20/98    8/20/98  ...........................
F.M. Johnson, Jr. FB-CT, Montgomery,  Renovations............    8/20/98    8/19/99  ...........................
  AL.                                                                                                           
Courthouse, Jacksonville, FL........  USCT N/C...............     8/1/97     9/1/97  ...........................
Courthouse, Orlando, FL.............  New construction.......        TBD        TBD  Site only.                 
CDC Env Lab, Chamblee, GA...........  New construction.......  .........     8/1/97  ...........................
CDC Infectuous Dis Lab, Atlanta, GA.  New construction.......  .........   10/20/97                             
Courthouse Annex, Savannah, GA......  New construction.......   12/31/97   12/31/97  ...........................
Courthouse, Greeneville, TN.........  New construction.......   12/30/97   12/30/97  ...........................
Courthouse, Miami, FL...............  New construction.......        TBD        TBD  Need House design          
                                                                                      authorization.            
Kluczynski FOB, Chicago, IL.........  Highrise improvements..  .........     7/1/97  ...........................
JCK/PO Bldgs, Chicago, IL...........  Lobby glazing, pl        .........    1/11/95  ...........................
                                       improve.                                                                 
Kluczyoski FOB, Chicago, IL.........  Elevator improvements..  .........    3/19/96  ...........................
H. Washington FOB, Chicago, IL......  Plaza imprvts & curtain  .........    9/24/97  ...........................
                                       wall.                                                                    
H. Washington Center, Chicago, IL...  Elev upgrade & misc      .........     9/5/97  ...........................
                                       improve.                                                                 
H. Washington Center, Chicago, IL...  Electrical improvements  .........    8/11/97  ...........................
USPO & CT, Cincinnati, OH...........  Ct Exp & Bldg              12/1/97    12/1/97  ...........................
                                       improvements.                                                            
Courthouse, Youngstown, OH..........  New construction.......        TBD        TBD  Hold.                      
FB-CT, Cape Girardeau, MO...........  New construction.......        TBD        TBD  Site only.                 
USBS Admin Bidg, Del Rio, TX........  Construct new import     .........    2/25/97  ...........................
                                       lot and docks.                                                           
FB-CT, Laredo, TX...................  Construct new FB.......    6/30/98    4/29/98  ...........................
Customhouse, New Orleans, LA........  Modernization-Audubon..  .........    11/1/98  ...........................
New FB Complex, Oklahoma City, OK...  New construction.......  .........    2/18/99  ...........................
Murrah Garage, Oklahoma City, OK....  Repair to Garage/        .........    7/30/97  ...........................
                                       Landscaping.                                                             
DFC Bldg 25, Lakewood, CO...........  Major replacemen/        .........    4/30/98  ...........................
                                       upgrades.                                                                
Rogers Court Annex, Denver, CO......  New construction.......        TBD        TBD  ...........................
U.S. Border Station, Babb, MT.......  New construction.......  .........    4/24/98                             
U.S. Border Station, Sweetgrass, MT.  New construction.......  .........   10/30/98                             
Moss Court Annex, Salt Lake City, UT  New construction.......        TBD        TBD  Need House design          
                                                                                      authorization.            
450 Golden Gate FB, San Francisco,    Upgrade urban            .........    3/31/98  ...........................
 CA.                                   landscaping.                                                             
Appraisers Building, San Francisco,   Tenant realignment.....  .........    9/17/97  ...........................
 CA.                                                                                                            
Old U.S. Mint, San Francisco, CA....  Modernization..........        TBD        TBD  ...........................
FB, San Francisco, CA...............  New Construction.......        TBD        TBD  ...........................
USGS Bldg 1&2, Menlo Park, CA.......  Modernization..........  .........   12/17/97  ...........................
Courthouse, Fresno, CA..............  New construction.......        TBD        TBD  Need House design          
                                                                                      authorization.            
Courthouse, San Francisco, CA.......  New construction.......        TBD        TBD  Site only.                 
Federal Building, Anchorage, AK.....  HVAC and other           .........   12/23/97  ...........................
                                       improvements.                                                            
The Pioneer Courthouse, Portland, OR  Renovation, chiller        5/30/98   11/23/98  ...........................
                                       replacement.                                                             
Border Station, Oroville, WA........  New construction.......  .........    4/30/98  ...........................
Border Station, Blaine, WA..........  New construction.......  .........    7/29/97  ...........................
Consolidated Law Bldg, Portland, OR.  New construction.......        TBD        TBD  ...........................
Courthouse, Seattle, WA.............  New construction.......        TBD        TBD  Need House design          
                                                                                      authorization.            
Lafayette FB, Washington, DC........  Modernization..........  .........        TBD  ...........................
Main Interior, Washington, DC.......  Modernization Ph 1/3...  .........        TBD  ...........................
Old Executive Omce Bldg, Washington,  Misc building            .........    4/30/98  ...........................
 DC.                                   improvements.                                                            
FOB 1OB, Washington, DC.............  Modernization..........  .........    9/30/97  ...........................
T. Roosevelt FB (OPM), Washington,    Modernization..........  .........        TBD  ...........................
 DC.                                                                                                            
State Dept Ph 1/4...................  General building         .........    10/1/97  ...........................
                                       renovation.                                                              
JW Powell FB, Reston, VA............  Laboratory improvements  .........   11/17/97  ...........................
SEFC infrastructure, Washington, DC.  New construction-        .........        TBD  ...........................
                                       infrastructure.                                                          
CT Annex, Washington, DC............  New construction.......        TBD        TBD  Need House design          
                                                                                      authorization.            
FDA Lab CDER, White Oak, MD.........  New construction.......  .........    6/30/98  ...........................
FDA Lab CDRH, White Oak, MD.........  New construction.......  .........    3/30/99  ...........................
FDA Lab CBER, White Oak, MD.........  New construction.......  .........    9/30/00  ...........................
FDA Lab OC, White Oak, MD...........  New Construction.......  .........    9/30/00  ...........................
----------------------------------------------------------------------------------------------------------------


                                                 IN CONSTRUCTION                                                
----------------------------------------------------------------------------------------------------------------
                                                                   Construction                                 
                                                                     complete                                   
               Project                      Description       ----------------------          Comments          
                                                                Original   Current                              
----------------------------------------------------------------------------------------------------------------
A.A. Ribicoff FB, Hartford, CT......  Facility upgrade.......  .........    1/31/98  ...........................
Norris Cotton FB, Manchester, NH....  Facility alteration &    .........    3/15/99  ...........................
                                       upgrade.                                                                 
J.O. Pastore FB, Providence, RI.....  Facility upgrade.......  .........    9/15/97  ...........................
USCT, Boston, MA....................  New courthouse.........    1/25/99    7/25/98  ...........................
USBS, HighGate Springs, VT..........  New border station.....  .........    10/7/97  ...........................
Peter Rodino FOB, Newark, NJ........  Elev. modernization....  .........    6/30/99  ...........................
USCT (40 Foley Sq) New York, NY.....  Modern/upgrd hvac......  .........    3/12/01  ...........................
Jacob K. Javitz, New York, NY.......  Space alt..............  .........    3/31/99  ...........................
USCT (40 Foley Sq), New York, NY....  Elev. modernization....  .........    6/30/99  ...........................
CT, Brooklyn, NY....................  New courthouse.........    6/30/01    2/24/01  ...........................
Foley PO-CT, Albany, NY.............  1st flr isa for U.S.       6/30/99     3/1/99  ...........................
                                       marshalls.                                                               
PO/CT, San Juan, PR.................  Historic/Adaptive use..    5/31/99   12/26/98  ...........................
FOB/CT complex, ISLIP, NY...........  New Federal bidg, &        9/30/00     2/2/00  ...........................
                                       USCT.                                                                    
J.A. Byrne CT, Philadelphia, PA.....  Elevator renovations...  .........     9/1/98  ...........................
Byrne-Green Complex, Phliadelphia,    R&A, CT expansion......    1/30/99     9/1/98  ...........................
 PA.                                                                                                            
SSA-Mid Atlantic Ctr, Philadelphia,   System retrofit........  .........    8/20/97  ...........................
 PA.                                                                                                            
SSA East High-Low Rise, Woodlawn,     Modernization..........  .........     3/1/98  ...........................
 MD.                                                                                                            
SSA Annex, Woodlawn, MD.............  Modernization..........  .........     6/1/00  ...........................
G.H. Fallon FB-CT, Baltimore, MD....  IRS expansion..........    6/30/98     4/1/98  ...........................
C.S. Fisher FB-CT, Trenton, NJ......  Courthouse backfill....   11/28/98    8/11/98  ...........................
M.H. Cohen USCT, Camden, NJ.........  Courthouse backfill....    6/30/99    3/30/99  ...........................
FB-CT, Harrisburg, PA...............  Court expan & sys          9/30/97    7/27/97  ...........................
                                       improv.                                                                  
SSA-Mid Atlantic Ctr, Philadelphia,    R&A...................  .........    5/10/98  ...........................
 PA.                                                                                                            
Courthouse, Scranton, PA............  R&A....................  .........    8/17/99  ...........................
FOB, Richmond, VA...................  Building upgrade.......  .........    6/30/98  ...........................
Courthouse Annex, Richmond, VA......  R&A....................  .........    3/24/98  ...........................
Courthouse Annex, Scranton, PA......  New construction.......    8/30/98    5/10/98  ...........................
VA FOB-phase 2, Philadelphia, PA....  Demol of existing bidg/  .........   10/29/97  ...........................
                                       parking.                                                                 
FB-CT, Charleston, WV...............  New construction.......   12/30/97   10/10/97  ...........................
FB-CT, Beckley, WV..................  New construction.......    6/28/99    6/30/99  ...........................
FB-CT, Wheeling, WV.................  R&A....................    8/30/99  .........                             
IRS Facility, Martinsburg, WV.......  New construction.......  .........     9/8/98  ...........................
FB-CT, Asheville, NC................  Renovations............    9/12/97    9/12/97  ...........................
Strom Thurmond FB-CT, Columbia, SC..  Renovations............    11/3/00    11/3/00  ...........................
F.M. Johnson Jr FB-CT An,             New construction.......    1/27/99    9/22/99  ...........................
 Montgomery, AL.                                                                                                
Courthouse Annex, Tallahassee, FL...  New construction.......   11/29/98     2/1/99  ...........................
FB-CT, Ft Myers, FL.................  New construction.......     2/2/98     2/2/98  ...........................
FB-CT, Tampa, FL....................  New construction.......    6/16/97    9/16/97  ...........................
IRS Service Ctr Annex, Chamblee, GA.  New construction.......  .........    7/28/98  ...........................
Courthouse, Albany, GA..............  New construction.......    6/16/98    2/15/99  ...........................
FB-CT, Covington, KY................  New construction.......     9/3/99     9/3/99  ...........................
Courthouse, London, KY..............  New construction.......     9/2/99     8/6/99  ...........................
Matthew J. Perry FB-CT, Columbia, SC  New construction.......   10/17/00   10/17/00  ...........................
EPA Lab, Research Triangle, NC......  New construction.......  .........     2/1/01  ...........................
Howard Baker, Jr CT, Knoxville, TN..  New construction.......    1/25/98    8/28/98  ...........................
Kluczynski IRS, Chicago, IL.........  Mod & Realignment......  .........    1/26/00  ...........................
E.M. Dirksen FB-CT, Chicago, IL.....  HVAC improvements......  .........     7/9/99  ...........................
E.M. Dirksen FB-CT, Chicago, IL.....  Elevator improvements..  .........    7/25/00  ...........................
Harold Washington, Ctr, Chicago, IL.  HVAC/EMCS..............  .........    8/31/97  ...........................
Kluczynski FOB, Chicago, IL.........  New fire alarm system..  .........     4/6/98  ...........................
536 S Clark FB, Chicago, IL.........  R&A....................  .........     8/1/97  ...........................
E.M. Dirksen FB-CT, Chicago, IL.....  Clean HVAC ductwork....  .........    4/29/99  ...........................
E.M. Dirksen FB-CT, Chicago, IL.....  Chiller plant            .........    7/27/98  ...........................
                                       demolition.                                                              
E.M. Dirksen FB-CT, Chicago, IL.....  District court              1/3/00     1/3/00  ...........................
                                       expansion.                                                               
A.J. Celebrezze, Cleveland, OH......  Elevator modernization.  .........     1/6/98  ...........................
FB-CT, Cleveland, OH................  New construction.......   12/24/00   12/24/00  ...........................
FB-CT, Milwaukee, WI................  Courts expansion.......   10/30/97   10/30/97  ...........................
Courthouse, Hammond, IN.............  New construction.......    8/12/98        TBD  Award protest.             
Border Station, Baudette, MN........  Minor new construction.  .........    11/8/97  ...........................
FB-CT, Wichita, KS..................  New parking fac/CT impr    6/30/98    1/16/98  ...........................
Thomas Eagleton FB-CT, St Louis, MO.  New construction.......   10/12/98   10/12/98  ...........................
FB-CT Kansas City, MO...............  New construction.......    3/12/98    6/30/98  ...........................
FB-CT, Omaha, NE....................  New construction.......     7/7/99    7/25/99  ...........................
Federal Building, Little Rock, AR...  Elec, plumb, sprink,     .........    3/18/98  ...........................
                                       asbes.                                                                   
U.S. Border Station, Santa Teresa,    R&A....................  .........    9/29/97  ...........................
 NM.                                                                                                            
Old law school-bankruptcy, Little     Renovation of law          3/30/98   12/10/97  ...........................
 Rock, AR.                             school.                                                                  
U.S. Border Station, Brownsville, TX  Modernize border         .........    2/28/99  ...........................
                                       station.                                                                 
FB-CT, Lubbock, TX..................  Modernize Federal          5/30/98    4/23/98  ...........................
                                       building.                                                                
Bota Border Station, El Paso, TX....  Expand import lot &      .........     3/7/98  ...........................
                                       docks.                                                                   
A Maceo Smith FOB, Dallas, TX.......  Fire safety/             .........   10/15/97  ...........................
                                       modernization.                                                           
U.S. Border Station, El Paso, TX....  Expand bs land and       .........    1/31/98  ...........................
                                       facility.                                                                
Courthouse, Lafayette, LA...........  New construction.......    1/31/99   10/25/98                             
FB-CT, Albuquerque, NM..............  New construction.......   11/30/99    9/16/98  ...........................
VA Data Center, Austin, TX..........  New construction.......  .........    12/8/98  ...........................
FB-CT, Brownsville, TX..............  New construction.......   12/31/98    10/1/98  ...........................
Courthouse, Corpus Christi, TX......  New construction.......    9/30/00    6/30/00  ...........................
FB-CU, Denver, CO...................  R&A....................   12/21/97   12/21/97  ...........................
FB-PO-CT, Bismarck, ND..............  Modernization..........    1/10/98    7/15/98  ...........................
NOAA Lab, Boulder, CO...............  New construction.......  .........   10/11/98  ...........................
USGS Lab Bldg, Lakewood, CO.........  New construction.......  .........   10/11/98  ...........................
U.S. Border Station, Pembina, ND....  New construction.......  .........     9/1/98  ...........................
FB-CT Annex, Fargo, ND..............  New construction.......    10/2/97   12/15/97  ...........................
FB 300N Los Angeles, Los Angeles,     R&A....................  .........     8/1/02  ...........................
 CA.                                                                                                            
CT, 312N Spring St, Los Angeles, CA.  R&A....................    9/30/98    6/30/98  ...........................
FB, 2800 Cottage Way, Sacramento,     Seismic upgrade &        .........    3/17/99  ...........................
 CA.                                   renova.                                                                  
USGS Bldg 3, Menlo Park, CA.........  Building modernization.  .........    1/17/98  ...........................
FB-CT(US attorneys), San Diego, CA..  U.S. atty alignment,      10/10/98    6/12/99  ...........................
                                       bidg, sys.                                                               
Border Station Main Bldg, Tecate, CA  New construction.......  .........   10/30/98  ...........................
Prince Jonah KK FB-CT, Honolulu, Hi.  R&A....................  .........    3/30/99  ...........................
Courthouse, Tuscon, AZ..............  New construction.......    8/15/99    9/30/99  ...........................
Courthouse, Phoenix, AZ.............  New construction.......   12/15/99   12/15/99  ...........................
Courthouse, Santa Ana, CA...........  New construction.......    4/30/98   10/30/98  ...........................
Courthouse, Sacramento, CA..........  New construction.......   12/27/97    3/31/98  ...........................
Courthouse, Las Vegas, NV...........  New construction.......    3/15/00    4/30/00  ...........................
FB-USPO, Richland, WA...............  Seismic, fire            .........    4/15/98  ...........................
                                       protection, HVAC.                                                        
Courthouse, Portland, OR............  New construction.......    7/23/97    7/30/97  ...........................
Ariel Rios FB, Washington, DC.......  Finishing the            .........    3/30/98  ...........................
                                       unfinished fa-  cade.                                                    
ICC, Customs, Connecting Wing,        Building modernization.  .........    12/4/00  ...........................
 Washington, DC.                                                                                                
FOB 8, Washington, DC...............  Elevator upgrade.......  .........    12/1/97  ...........................
Ariel Rios FB, Washington, DC.......  Modernization Ph 2/2...  .........    9/27/99  ...........................
New Executive Office Bldg,            Replace chillers.......  .........    7/31/97  ...........................
 Washington, DC.                                                                                                
FOB 6, Washington, DC...............  General building         .........     4/1/98  ...........................
                                       renovation.                                                              
Secret Service Hq, Washington, DC...  New construction.......  .........     6/1/99  ...........................
SEFC Site Prep/Decontamination,        New construction......  .........   10/28/98  ...........................
 Washington, DC.                                                                                                
Ronald Reagan Bldg, Washington, DC..  New construction.......  .........    11/3/97  ...........................
IRS Hq, New Carrollton, MD..........  New construction.......  .........    9/30/97  ...........................
Secret Service Admin Bldg,            New construction.......  .........    11/1/98  ...........................
 Beltsville, MD.                                                                                                
Columbia Plaza Hi-rise, Washington,   Renovation & upgrade...  .........    1/11/98  ...........................
 DC.                                                                                                            
Justice Bldg Ph 1, Washington, DC...  Modernization Ph 1/3...  .........     8/1/97  ...........................
FDA Lab CFSAN, College Park, MD.....  New construction.......  .........    8/30/98  ...........................
----------------------------------------------------------------------------------------------------------------

                        public buildings service
    Question. The Federal Buildings Fund was established to provide 
funds for the operation, maintenance, repair and alteration and, with 
remaining revenues, construction of federal facilities. The revenue for 
these activities is generated through agencies' payment of commercially 
equivalent rental rates. This ``Rent'' forces agencies to budget for 
their office space in their annual budget requests to Congress. The 
Public Buildings Service has stated that these revenues no longer can 
provide adequate funding levels for construction and in some cases 
major repairs and alterations. Please explain why the original revenue 
generating Rent system will no longer provide the revenue levels 
adequate to meet Federal space requirements.
    Answer. In recent years the underlying assumptions of the Federal 
Buildings Fund have not proven to be accurate. Usually, the FBF has 
generated enough revenues to operate, maintain and repair buildings. 
The Fund can also generate enough revenues to fund a limited capital 
program consisting of major building renovations and new construction. 
In recent years, the Fund has had to cope with unforeseen major 
expenditures, including the exponential expansion of our court and law 
enforcement agencies and with rent caps.
    Congress has recognized, at least tacitly, the limitations of the 
Fund by supplementing it with appropriations for many projects, such as 
the purchase contract program in 1972 and the lease purchase projects 
in the late 1980's. Over the last four fiscal years Congress has 
appropriated over a billion dollars to the Fund for construction and 
renovation.
    Question. The Federal Buildings Fund has been discussing proposing 
a new ``rent'' system since 1995. What is the status of the new system? 
Will the new system include a revolving fund component? Will agencies 
``rent'' be tied to actual costs?
    Answer. The new Rent system, which is referred to as the New 
Pricing Policy, is presently under review by the Of lice of Management 
and Budget. Changes to the Federal Property Management Regulations 
(FPMR) necessary to implement the New Pricing Policy are being 
circulated for review and comment by OMB. There is no revolving fund 
component to this new policy. Under the new policy, Rent for leased 
space will consist of a cost pass-through of lease contract costs, 
operating costs that exceed those embedded in the lease contract, and 
GSA fees. The Rent for owned space will be priced at fair market value, 
which will be based upon a market appraisal.
    Question. What safeguards has PBS developed and implemented to 
ensure that a revenue shortfall of over $800 million does not recur?
    Answer. PBS is taking a number of different actions to deal with 
the shortfall. PBS is reviewing the accuracy of its current inventory 
data base. PBS is making improvements to its existing tracking and 
management systems. This will insure that as PBS transitions to the new 
inventory and rent data system (known as STAR), the basic data included 
in the system will be accurate and up-to-date. PBS is tracking its 
billing and collection systems continuously. PBS has asked the GSA 
Inspector General to monitor an audit of our inventory data, to be 
conducted by private contractors. This audit will consist of a detailed 
examination of all basic information on a statistically significant 
sample of the GSA inventory. Buildings will be physically measured, and 
this ``actual'' square footage will be used to validate existing 
assignment data in our system for the building, the square footage used 
to determine our billing rates, and the square footage used to bill 
customer agencies.
    PBS is also developing early warning systems to alert us to changes 
in the space inventory. The new Of flee of the CFO within PBS is 
tracking monthly income and expense data from all of our regions to 
establish trends in our system quickly. Interdisciplinary teams within 
PBS have been established to make recommendations for long-term 
improvements to the system. One such solution, which we believe has 
great potential, is our pilot program to recapture vacated space in the 
inventory in a short time period by financing the cost of our tenant 
space consolidation. This is the program we have labeled ``Ponding the 
Raindrops.''
    Question. The Public Building Service's reorganization includes an 
Innovation Division. Please explain, in detail, the responsibilities of 
this division and how the division will correspond and coordinate its 
activities with the General Services Administration's Policy and 
Operations Department?
    Answer. The Strategic Innovations Office is a small group within 
the Public Buildings Service which is responsible for nurturing and 
facilitating the development of innovative products, practices and 
strategies that improve PBS' performance, services and competitive 
edge. This organization will evaluate emerging issues affecting PBS, 
develop ideas until they are well-framed, work with other organizations 
within PBS and GSA to coordinate and shepherd initiatives, and bring 
together appropriate resources to review, evaluate and pursue concepts 
and ideas.
    Strategic Innovations will work closely with other organizations 
within the Public Buildings Service as well as other organizations 
within the General Services Administration, including the Office of 
Governmentwide Policy. The Office of Governmentwide Policy has a 
broader role as it is charged with developing governmentwide policy. 
Coordination of activities between that Of lice and Strategic 
Innovations will be accomplished through the close working relationship 
the two organizations have established.
    Question. PBS signs leases requiring fixed term leases. The 
construction of the facility or the tenant build-out is not always 
completed by the lease start date. Please provide a breakdown of 
revenue lost as a result of signing firm term leases in fiscal year 
1995, fiscal year 1996 and projected for fiscal year 1997. (Please 
include the revenues for the Ronald Reagan Building in the 
calculations.) PBS is projecting a 10 percent vacancy rate in 
Government owned and leased space. How does that compare to the 
industry standards?
    Answer. PBS's information systems use buildings, rather than 
leases, as the base data in all income analysis. Therefore, it is not 
possible to provide a breakdown of net revenue loss resulting from 
delays in build-out or construction completion. Most of the lease 
contracts written by PBS provide for a flexible occupancy date. 
Normally PBS payments to lessors are not made until space is ready for 
agencies to occupy.
    With respect to the Ronald Reagan Building, it should be noted that 
the building is a lease purchase project, not a lease. The current 
financing arrangements for the Reagan Building were prepared by the 
Pennsylvania Avenue Development Corporation and the Federal Financing 
Bank, not a private lessor.
    The 10 percent vacancy rate you refer to includes a number of space 
classifications which are not comparable to vacant space in the 
industry, including space that is being readied for a new tenant or 
under alteration for a tenant. Currently GSA has approximately 13.5 
million square feet of vacant available space, which could be occupied 
immediately. This is 4.7 percent of the GSA inventory, and considerably 
less than the vacancy rates currently experienced by the industry in 
general, and by the industry in most metropolitan markets. CB 
Commercial's Office Vacancy Index of the U.S. indicated that the 
nationwide metropolitan vacancy rate was 11.6 percent for the first 
quarter of 1997, and that individual area vacancy rates ranged from a 
low of 4.3 percent in San Jose, CA, to a high of 21.6 percent for 
Hartford, CT.
                         policy and operations
    Question. The Public Buildings Service is developing an Innovation 
Division within the Service. What safeguards are in place to ensure the 
policies developed by PBS are consistent with overall real property 
policies developed by the Policy and Operation Department.
    Answer. The role of Strategic Innovations is not strictly policy 
development; as noted in response to question 4 in the section entitled 
``Public Buildings Service'', above, Strategic Innovations is 
responsible for nurturing and facilitating the development of 
innovative products, practices and strategies that improve PBS' 
performance, services and competitive edge. The Office of Real Property 
within the Office of Governmentwide Policy develops policies that apply 
to PBS and other agencies that operate under the authority of the 
Administrator of General Services. Among other things, it identifies 
and shares best practices across the government.
    To the extent that new policies emerge from the work that Strategic 
Innovation does, we would expect that policy to be consistent with 
governmentwide policy in general, as it has been in the past. For 
example, PBS worked closely with the Office of Governmentwide Policy to 
develop the innovative ``Can't Beat GSA Leasing.'' program. Further, as 
noted in the response to the earlier question, Strategic Innovations 
has a close working relationship with the Office of Governmentwide 
Policy; if Strategic Innovations were to pursue an initiative that 
would improve PBS' performance but would have policy implications 
inconsistent with existing policies enunciated by Office of 
Governmentwide Policy, we would expect Strategic Innovations to 
collaborate with the Office of Governmentwide Policy as part of the 
development of the initiative.
    Question. Planning a change of the Federal presence in a locality 
requires knowledge of the existing and projected Federal presence. 
Since not all Federal properties are in the General Services inventory, 
what steps is the Office of Policy and Operations taking to develop 
comprehensive community plans? When will the plans be completed?
    Answer. As a follow-on action to its Federal Real Property Asset 
Management Principles issued in October 1996 and at the request of OMB 
in its fiscal year 1998 Budget Passback to GSA, the Office of Real 
Property is conducting a research study which includes an Interagency 
Community Master Plan (ICMP) to determine the value of Federal agencies 
sharing information needed for future real property asset management 
decisions. Also, this research study, scheduled to be completed by 
September 1997, will determine what type of community-based real 
property information is essential, the degree of detail needed, and the 
best form of presenting this information to all Federal agencies. An 
ICMP will be completed as one form of presenting this information. The 
research study will assess the merits and make recommendations as to 
whether ICMP's are the most practical means for sharing community based 
information, or whether another process/form will be of greater utility 
to Federal agencies.
    Question. Please provide detailed information on the Electronic 
Clearinghouse being developed, in conjunction with the Financial 
Management Service, to enhance the disposal of real estate assets.
    Answer. In August 1996, the General Services Administration 
established an electronic real property information clearinghouse on 
the Internet. The URL address is http://policyworks.gov/org/main/mp/
library/policydocs/chhome.htm. The clearinghouse provides building and 
facility information and data, and policies and procedures that can be 
accessed and shared among real property professionals globally. Federal 
agencies that have surplused or excessed real property can link 
directly to specific clearinghouse categories where properties can be 
listed as vacant for renting and outleasing or advertised for sale. 
There are also electronic links to governmentwide policies and 
information, to GSA business lines, and to Federal agency homepages 
that can provide training and technical assistance to agencies in 
expediting the disposal of real property.
    The clearinghouse will continue to be expanded in scope and refined 
overall to reflect consistent, accurate, real time information and 
data, and ``best practices'' that promote efficient and effective real 
property asset management.
    Following is a copy of the Real Property Clearinghouse Home page:

                 Real Property Clearinghouse Home Page

    The Real Property Information Clearinghouse provides the electronic 
gateway to the dissemination and sharing of building and facility 
information and data among real property professionals. This 
collaborative effort is in response to the National Performance Review 
which recommends that the General Services Administration (GSA) act as 
a clearinghouse to offer Federal agencies alternatives for satisfying 
their real property requirements.
    GSA accepts no responsibility for the completeness, accuracy or 
validity of the building and facility information and data that is 
provided through the clearinghouse by non-GSA entities, nor does GSA 
endorse those non-GSA Real Property Professionals that provide 
information and data through the clearinghouse.
    The categories below contain building and facility information and 
data provided by real property professionals. Questions on building and 
facility information and data should be referred to the specific 
contact person where the information and data is located. Select a 
category or scroll down for an explanation of each category.
    1. Available Vacant Space Data
    2. Property for Sale Data
    3. Property Inventory Data
    4. Federal Space Needs Data
    5. Real Property Highlights Data
    6. Federal Real Estate Suppliers Data
    7. Policies and Procedures Data
    8. Organizations Data
                       explanation of categories
    1. Available Vacant Space Data: Provides a listing of the available 
Federal Government's controlled space and commercially available space 
and establishes the web page links for each provider of the information 
data.
    2. Property for Sale Data: Identifies real property (buildings and 
facilities) that is for sale by Federal agencies and commercial realty 
property owners, and establishes the web page links for each seller.
     3. Property Inventory Data: Provides descriptive information and 
data on buildings and facilities, and establishes the web page links 
for each provider of the information and data.
    4. Federal Space Needs Data: Provides notification of Federal 
agency's need for real property (buildings and facilities), and 
establishes the web page links for each notification provider.
    5. Real Property Highlights Data: Identifies agency developed 
measures which relate to buildings and facilities, and establishes the 
web page links for each provider of the information and data.
    6. Real Estate Suppliers Data: Specifies real estate services and 
related providers, and establishes the web page links for each 
information provider.
    7. Procedures Data: Displays Federal real property policies, 
procedures and guidance, including how to do business with an agency, 
and establishes the web page links for each provider of the information 
and data.
    8. Organization Data: Displays organizational structures for 
Federal real property providers and establishes the web page links for 
each provider.
    Real property professionals that are either interested in becoming 
a partner of the clearinghouse or want to add or modify these existing 
categories, should contact: Ron Whitley on (202) 501-1505 or Internet 
E-Mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="683a070609040c463f00011c040d11280f1b09460f071e">[email&#160;protected]</a>
    Question. Please provide a list of real property disposals 
completed in fiscal years 1993 through 1996. Please include the 
property location, appraised value, sales proceeds, and the marketing 
and administrative costs related to these sales.
    Answer. During the time period of fiscal years 1993 through 1996, 
GSA had nearly 2,500 individual disposal actions, with a total value of 
approximately $850 million (whether or not cash was actually received). 
For fiscal year 1997 to date, there have been 497 individual disposal 
actions with a total value of approximately $158 million. For the 
purpose of this answer, we believe the attached summary chart might be 
most beneficial. The second chart summarizes the marketing and 
administrative costs associated with Public Sales for fiscal years 1993 
through 1996. If more in-depth information is required, the Office of 
Property Disposal would be pleased to discuss or submit additional 
information to the Committee.

                                     PROPERTY DISPOSAL REDEPLOYMENT PROJECTS                                    
                                              [Dollars in millions]                                             
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal years--                           
                                          ----------------------------------------------------------------------
                  Method                       1993          1994          1995           1996        1997 \1\  
                                          ----------------------------------------------------------------------
                                            No.    Cost   No.    Cost   No.    Cost    No.    Cost   No.    Cost
----------------------------------------------------------------------------------------------------------------
Fed. transfer............................     24    $41     20    $54     34    $10      16    $21     18     $1
Public benefit...........................     26     14     33     51     59    141      44    138     21     20
Homeless.................................      5     28      5      1      2      1       2      1  .....  .....
Public sale..............................    195     31    360     38    458     37   1,070     69    450     37
Neg sale.................................     36     10     23     26     28     58      44     81      8    100
                                          ----------------------------------------------------------------------
      Total..............................    286    124    441    170    581    248   1,176    309    497    158
----------------------------------------------------------------------------------------------------------------
\1\ Note: As of 3/31/97.                                                                                        

Office of Property Disposal

                (Marketing and administrative costs \1\)

        Fiscal year                                                     
1993..........................................................  $899,000
1994..........................................................   902,032
1995.......................................................... 1,084,100
1996.......................................................... 2,021,700

\1\ Marketing and Administrative cost of Public Sales.
---------------------------------------------------------------------------
                      information technology fund
    Question. ``One-Time'' expenditures from the Reserve Fund were 
required in fiscal year 1996 ($34 million) and are projected for fiscal 
year 1997 ($46 million) and fiscal year 1998 ($49 million). Please 
explain the events requiring Reserve Fund expenditures in each year?
    Answer. The reserve expenditures reflected in the budget submission 
for fiscal year 1996 through fiscal year 1998 are consistent with the 
IT Fund's Cost and Capital Requirements Plan approved by the Of floe of 
Management and Budget (OMB). As part of the annual budget process, use 
of the reserve must be approved by OMB pursuant to section 110(a)(1) of 
the Federal Property and Administrative Services Act of 1949.
    The Cost and Capital Plan provides funding for capital investments 
and program costs that are one-time or non-recurring in nature that 
improve delivery of services to our customer agencies. The majority of 
the planned expenses for fiscal year 1996 through fiscal year 1998 are 
in support of the FTS2000 long distance program. To ensure stable rates 
for its clients, the FTS2000 program funds one-time expenses and some 
transition costs through the FTS2000 Reserve. These expenses include 
costs associated with transitioning the Department of Treasury from 
Sprint to AT&T, one-time system development costs, and expenses 
associated with transitioning to the FTS2001 contracts. In addition, $5 
to $6 million a year (1 percent of the FTS2000 business volume) is 
included to fund information technology initiatives approved by the 
Interagency Management Council (IMC), and the Government Information 
Technology Services (GITS) Board.
    The remaining reserve expenses are for costs associated with the 
Local Telecommunications, Federal Systems Integration and Management 
Center (FEDSIM) and the Federal Computer Acquisition Center (FEDCAC), 
and Federal Information Systems Support Program (FISSP) programs. The 
Local Telecommunications program reserve expenses include depreciation 
of the Aggregated Switch Procurements (ASP), the Individual Switch 
Procurements (ISP) and Washington Interagency Telecommunications System 
(WITS) procurements, projected one-time costs associated with the WITS 
99 procurement, and the Metropolitan Area Acquisition (MAA) program. 
The MAA program is expected to achieve substantial price reductions for 
its local telecommunications customers. FEDSIM/FEDCAC and FISSP primary 
use of reserve funds is for capital investments for system 
enhancements/automation, and for service management initiatives that 
are one time in nature and benefit the client agencies.
    The following table reflects the Reserve Fund expenditures by 
category by fiscal year:

                        [In millions of dollars]                        
------------------------------------------------------------------------
                                                     Fiscal years--     
               Reserve category               --------------------------
                                                 1996     1997     1998 
------------------------------------------------------------------------
FTS2000......................................       22       32       40
IT initiatives...............................        1        7        5
Local telecommunications.....................        3        4        4
FEDSIM/FEDCAC, FISSP.........................        1        1  .......
Other........................................        7        2  .......
                                              --------------------------
      Total..................................       34       46       49
------------------------------------------------------------------------

    Question. What is the status of the FTS2001 procurement? Have the 
competing bidders expressed an interest in continuing a mandatory use 
requirement?
    Answer. The Request for Proposals (REP) for the FTS2001 procurement 
was issued in May, 1997 with proposals due at the end of September, 
1997. We anticipate contract award in early to mid-1998, with 
transition to take place over the following year. During the early 
years of development of the FTS2001 strategy (1993-1995) there was 
considerable discussion, both pro and con, with the bidder community 
about the necessity of mandatory use provisions. It was concluded that 
this requirement for the current system under enacted appropriation 
language would no longer be necessary for the follow-on system. There 
will be minimum revenue guarantees, which will likely be fulfilled in 
the early years of the new contracts, which should satisfy the 
successful bidders.
                          general supply fund
    Question. The General Supply Fund is required to operate on an 
industrial funded basis. Each of GSA's industrial funds finance many 
different items. Is it GSA's policy throughout the industrial funding 
to recover the full cost of each item or to break-even on an aggregated 
fund basis?
    Answer. Within GSA's Federal Supply Service (FSS), goods and 
services are provided to customer agencies through several means. These 
include FSS Supply Distribution Facilities, Stock Direct Delivery, 
Special Orders (Nonstores and Automotive), Federal Supply Schedules, 
Excess Personal Property Sales, Transportation Management Operations, 
and the Interagency Fleet Management System (IFMS). Annual government 
sales in each of these programs range from $40 million to $5.8 billion. 
It is the policy within FSS that each of these methods of supply are 
priced to recover the full cost of the item or services provided 
through that method of supply on a break-even basis and not to base 
pricing on an aggregated fund basis. Each of these methods of supply 
have independent pricing structures to recover their costs. Net Income 
financial statements are produced and evaluated on a monthly basis for 
each of the methods of supply. Based upon year-end financial results, 
price adjustments may be made to the subsequent year's pricing to help 
ensure that each method of supply continues to approximate a break even 
posture.
    Question. What methodology does GSA use to account for 
transportation costs in the price of items supplied under the retail 
packaging products program? Has GSA attempted to determine whether the 
price should be applied standard transportation cost mark-ups?
    Answer. FSS utilizes a cost distribution model to allocate 
aggregate transportation costs to individual commodities supplied under 
the retail packaging products program. These individual transportation 
costs are then rolled up and included as part of the class mark-on for 
the commodities involved. The cost distribution is based on the weight 
of the item, the number of shipments incurred, and the average distance 
over which items are shipped from known distribution points. FSS has 
attempted to look at several different options for pricing 
transportation expenses, including a standard transportation cost mark-
on. However, due to the tremendous variability in the cost of 
transporting certain commodities (e.g., a box of pens sent via express 
mail versus a pallet of fiberboard shipped by the truckload), the cost 
distribution model has continually proven to be the most accurate 
available means of identifying the cost of transportation for a given 
class of commodities.
    Even with the cost distribution model, only an average 
transportation cost can be computed for any particular item or Federal 
Supply Class for pricing purposes. This is because it is impossible to 
distinguish the transportation cost of other items being shipped in the 
same packaging or the same order. A box of pencils may be shipped with 
some rolls of tape via mail carrier one time, whereas another order 
includes a box of pencils with fifteen different office supply items 
the next time.
    Question. GSA adds a 7 percent surcharge to cover costs of 
delivering items to post offices under this program. How was this 
surcharge calculated? How often is the surcharge evaluated?
    Answer. The 7 percent surcharge was calculated based on a retail 
packaging products transportation cost study done at our Burlington 
Depot. The study reported the number of orders, the total weight of 
orders, and the cost of transportation for the orders that were shipped 
via USPS. It also reported the same data elements for those orders 
shipped via truck freight. The study was done in March 1995 and has not 
been redone since that time. The following data is from the study:

----------------------------------------------------------------------------------------------------------------
                                                                                           Actual               
                                                                 Lines        Weight       price      Trans cost
----------------------------------------------------------------------------------------------------------------
USPS........................................................          193        4,630    $3,774.66    $1,325.59
GBL.........................................................           95       10,425     7,846.28       826.07
                                                             ---------------------------------------------------
      Totals................................................          288       15,055    11,620.94     2,151.66
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                 Lines       Convert      All USPS      To UPS  
----------------------------------------------------------------------------------------------------------------
UPS.........................................................          193        4,630    $3,774.66      $667.45
GBL.........................................................           95       10,425     7,846.28       826.07
                                                             ---------------------------------------------------
      Totals................................................          288       15,055    11,620.94     1,493.52
----------------------------------------------------------------------------------------------------------------
Note: Using USPS cost GSA $658.14 more than UPS.                                                                

    The following chart shows how the data from the study was combined 
with the transportation of other items to arrive at 6.6 percent 
(rounded to 7 percent) surcharge to cover the additional transportation 
cost:

----------------------------------------------------------------------------------------------------------------
                                          Postal resale items (Burlington depot)            USPS         ISPS   
               Mode                -----------------------------------------------------------------------------
                                        USPS         GBL         Total        Annual       Annual     Futr. Amt.
----------------------------------------------------------------------------------------------------------------
Weight............................        4,630       10,425       15,055    2,395,828  ...........  ...........
Percent of weight.................           31           69          100  ...........  ...........  ...........
Cost..............................    $1,325.59      $826.07    $2,151.66     $342,412     $210,952   $1,130,101
Percent of cost...................           62           38          100  ...........  ...........  ...........
Cost/lb...........................  ...........  ...........  ...........  ...........  ...........  ...........
Lines.............................          193           95          288       45,832  ...........  ...........
Lb./line..........................           24          110           52  ...........  ...........  ...........
Value.............................    $3,774.66    $7,846.28   $11,620.94   $1,849,338  ...........   $9,907,166
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                    remote                     USPS         USPS     USPS future
                                       Depots       CSC's        total       discount    difference     diff.   
----------------------------------------------------------------------------------------------------------------
GBL...............................  $29,189,160   $1,714,218  $30,903,378  ...........  ...........  ...........
USPS..............................    4,739,403      572,118    5,311,521          .07     $371,806     $450,914
RPS...............................    5,802,168    1,507,941    7,310,109  ...........  ...........  ...........
UPS...............................    4,267,848    1,858,935    6,126,783                                       
                                   -----------------------------------------------------------------------------
      Total.......................   43,998,579    5,653,212   49,651,791  ...........  ...........  ...........
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                                           Resale       Resale  
                                            All CSC items   Resale items      Markup       items        items   
                                            FY 1993 rate        rate          factor    annual amt.  future amt.
----------------------------------------------------------------------------------------------------------------
Commodity cost...........................    $112,970,100    $112,970,100  ...........   $1,849,338   $9,907,166
Noncommodity cost........................     $47,489,180     $58,072,916  ...........     $950,662   $5,092,834
                                          ----------------------------------------------------------------------
      Total cost (selling price).........  ..............    $171,043,016  ...........   $2,800,000  $15,000,000
                                          ======================================================================
Markup...................................           42.04           51.41         6.60  ...........  ...........
Transp. cost (USPS cust.)................      $8,121,185  ..............  ...........     $132,945     $712,205
Transp. cost (norm. rate)................  ..............     $18,704,921  ...........     $306,202   $1,640,370
Weight shipped...........................     130,876,900  ..............  ...........  ...........  ...........
Cost/lb..................................            .062            .143  ...........  ...........  ...........
Transp. cost difference..................  ..............     $10,583,736  ...........     $173,257     $928,164
----------------------------------------------------------------------------------------------------------------

    Question. What percentage of orders are sent by U. S. Mail?
    Answer. The GSA supply systems only record the method of delivery 
for orders which are processed through the FSS-19 system, and the 
postal retail items are not captured in this system. For all customers, 
3,503,794 orders were processed through the FSS-19 system, of which 
734,467 or 21 percent were mailed, representing 1.8 percent of total 
weight shipped.
    Question. For orders sent by U. S. Mail what is the average and 
median postage charge incurred by GSA and what is the average and 
median dollar amount of the order?
    Answer. The GSA supply systems do not record the cost of mailing 
individual orders. Small orders are consolidated into larger mailing 
containers whenever practical, with a consequent loss of visibility of 
the cost of mailing each individual order. Given the small dollar cost 
of mailing each container and the large number of containers involved, 
it has not been practical to attempt to capture and allocate this data 
at the individual order level. Instead, daily summaries of mailing 
costs are aggregated monthly by the Distribution Centers and then 
consolidated into monthly management reports. These management 
summaries indicate that the GSA Distribution Centers mailed 1,172,160 
containers to all customers, from both the FSS-19 system and the 
Customer Supply Center system, at an average cost of $5.05 per 
container. The summary method employed in collecting this data 
precludes development of medians.
    For orders mailed from the FSS-19 system to all customers, the 
average order value was $46.30, with an average weight of 9.6 pounds. 
The statistical tools available in our current inquiry package do not 
develop medians.
    Question. In the Customer Supply Center program, how many items are 
offered for sale to the U. S. Postal Service for the retail packaging 
program? How are these items identified? Could GSA price retail 
packaging program items in the CSC based on their actual cost? Can the 
items be readily identified and segregated from other items in the CSC?
    Answer. The Customer Supply Centers are currently stocking 25 
National Stock Numbers (NSN's) for the retail packaging products 
program. These items are illustrated in a special Mailing and Packing 
Items section in the introduction section of each CSC catalog and are 
also located in the general content of each catalog. The items are 
priced based on actual cost as explained above, but the pricing is 
established on a nationwide basis by GSA's Office of Business 
Management and Marketing in coordination with the Office Supplies and 
Paper Products Commodity Center. These items are categorized by usage 
for all Federal customers and are not identified for purchase for any 
singular customer. All items stocked are identified by NSN and located/
stored within each center. The Centers do not commingle NSN's in one 
location; thus, every item stocked is readily identified.
    Question. Please explain the process for excessing Federal 
furniture and discuss whether proper channels were followed in 
excessing furniture in Arkansas as it relates to the Arkansas 
Cooperative Extension Service.
    Answer. Under the provisions of the Federal Property and 
Administrative Services Act of 1949, as amended (the Property Act), and 
the Federal Property Management Regulations, executive agencies are 
supposed to continuously survey personal property in their possession, 
including furniture, to determine whether such property is still needed 
for official use within the agency. Property not needed for official 
use within the agency is declared excess and reported to the General 
Services Administration (GSA) to be screened for possible transfer to 
other Federal agencies. Federal agencies may acquire excess property 
for their direct use or for use by their cost-reimbursement 
contractors, project grantees and cooperative agreement participants.
    Property for which there is no Federal requirement, as determined 
by GSA, is declared surplus and is made available for transfer to the 
States for subsequent donation to public agencies at the State and 
local level and certain non-profit organizations as authorized by 
Congress. Property not needed for donation purposes is offered for sale 
to the general public by competitive means or otherwise disposed of.
    The Arkansas Cooperative Extension Service is eligible to receive 
excess property through the U.S. Department of Agriculture. However, 
title to such property remains vested in the Federal Government. As a 
public agency of the State of Arkansas, it is also eligible to receive 
donated surplus property through the Arkansas State Agency for Surplus 
Property. We are not familiar with any incident alluded to in the 
question, but we would be happy to address any specific questions on 
this matter.
                                 ______
                                 

                     MERIT SYSTEMS PROTECTION BOARD

          Prepared Statement of Benjamin L. Erdreich, Chairman

    Chairman Campbell, Ranking Member Kohl, and Members of the Treasury 
and General Government Subcommittee: I am pleased to provide a 
statement, as the Subcommittee begins its consideration of the 
appropriations for the U.S. Merit Systems Protection Board (MSPB) and 
other components of the Federal government's civil service system. This 
statement provides an opportunity to report to the Congress about 
employment and personnel issues facing Federal agencies and employees 
from MSPB's unique dual perspectives. MSPB cases present specific 
issues and problems facing Federal employees and managers, and its 
published studies provide a broad picture of trends and concerns about 
the civil service system. The independent review provided by these two 
statutory functions is central to preserving a merit-based employment 
system free from actions taken arbitrarily or for political 
motivations.
                mspb budget request for fiscal year 1998
    After thorough consideration of our resources and needs, it is 
clear that the Office of Management and Budget (OMB) level of funding--
$26,880,000--is insufficient. At that level, we will be forced to RIF 
administrative judges and attorneys directly involved in adjudicating 
cases. Because this staff is necessary to ensure that there is a sound 
due process system in our Federal civil service, we are making a 
priority request for an additional $840,000 over the OMB passback level 
pursuant to our budgetary bypass authority, 5 U.S.C. 1204(k). We are 
also using our bypass authority to request an additional $270,000 to 
support critical ADP needs. An investment in information technology now 
will allow us, as we move toward a paperless case file system, to 
handle future cases more quickly and with fewer staff. I urge you to 
support both these requests and fund the Board at $27,990,000 in fiscal 
year 1998.
                  reduced resources--the mspb response
    The MSPB's pattern of constant demand on shrinking resources is 
clear. The MSPB case load has continued at high levels, and, although 
its budget has steadily declined, the MSPB has maintained its 
outstanding record of case handling through cut backs in staff, 
restructuring, and reduced administrative costs. Even these extensive 
changes have not been enough. We will be cutting 20 more administrative 
positions by October 1, 1997, through a combination of RIF's and 
buyouts. The MSPB is now, however, at the point where further cost 
cutting will have deleterious effects on its adjudicatory mission.
    The figures speak for themselves. Since 1993, available funds for 
the MSPB, adjusted for inflation, have dropped from $26,400,000 to 
$23,571,556. The OMB passback level for fiscal year 1998 would put the 
MSPB at $23,373,913--a total drop in available funding of $3,026,087. 
As the attached chart shows, the MSPB has met these resource limits. 
Since 1993, when I was appointed, FTE has been cut by 18 percent (from 
326 to 266), SES positions reduced by 26 percent, regional offices 
shrunk from 11 to 5 (eliminating 1 and converting 5 others to field 
offices), office space consolidated, regional directors moved from 
administrative work to adjudicating cases, and office administrators 
retrained as paralegals.
    In planning the best use of steadily declining resources, the MSPB 
decided to preserve its core of administrative judges and attorneys as 
indispensable to its statutory adjudicatory mission. That strategy has 
worked. The MSPB's case handling record is impressive.
  --In fiscal year 1995, the Board and its regional and field offices 
        closed over 13,000 cases, including cases resulting from the 
        U.S. Postal Service restructuring--a 24 percent increase over 
        the cases closed in fiscal year 1994 and a 40 percent increase 
        over fiscal year 1993.
  --If the Postal Service cases are excluded from the fiscal year 1995 
        totals, the MSPB workload has remained constant--between 
        10,300-10,700 cases decided each year since 1994.
  --In fiscal year 1995, the regional and field offices handled 8,925 
        cases--the second highest volume in 10 years--a caseload of 129 
        cases per administrative judge. The Board Members closed 1,375 
        cases in fiscal year 1996, including appeals of agency actions, 
        alleged Hatch Act violations, and other original jurisdiction 
        cases.
  --In fiscal year 1996, the Board's principal reviewing court, the 
        U.S. Court of Appeals for the Federal Circuit, left 97 percent 
        of the MSPB decisions it reviewed unchanged.
  --As for MSPB timeliness, in fiscal year 1996, on average, 
        administrative judges decided cases in 94 days. The average 
        processing time at Board headquarters for review of initial 
        decisions by administrative judges was 121 days. This means 
        that, on average, an appeal to the Board was processed through 
        both levels of review in just over seven months.
                              the outlook
    The MSPB is now at the point where it can make no further cost 
reductions without eliminating administrative judge and attorney 
positions. If Congress limits MSPB appropriations to the OMB passback 
level, the immediate effect will be an increase in the number of 
pending cases. Delay in resolving employment disputes creates extra 
costs for the parties--and ultimately for the American taxpayer, 
exacerbates the antagonism that accompanies litigation, and weakens 
productivity in the Federal workplace.
    There is little chance that the fiscal year 1998 budget problem 
will be solved by significantly reduced filings with the Board. It is 
also unlikely that the recently reauthorized Administrative Dispute 
Resolution Act will help reduce litigation until it is embraced and 
implemented by agency heads to resolve disputes where they arise--in 
the workplace--not in the courthouse.
    The MSPB projected volume of cases--about 10,700 for fiscal year 
1998--reflects continued agency downsizing; expansion of MSPB 
jurisdiction with regard to groups of employees (e.g., whistleblower 
protections for employees of government corporations and coverage of VA 
health care professionals); and newly created statutory protections 
(e.g., the Uniformed Services Employment and Reemployment Rights Act; 
Presidential and Executive Office Accountability Act). Indeed, the 
Congressional Budget Office recently stated that the continued 
expansion of veteran's preference appeal rights will increase budgetary 
pressures on the MSPB.
    The MSPB reflects a unique budgetary tension in the Federal 
government. It is simultaneously an agency that continues to undergo 
significant downsizing, while its own workload includes adjudicating 
the broader downsizing actions taken government-wide.
    Nor can the fiscal year 1998 budget problem be solved by squeezing 
MSPB spending on specific object classes further. The MSPB has little 
financial flexibility. It devotes approximately 80 percent of its 
budget to personnel compensation. An additional 12 percent is required 
for rent, utility, and maintenance costs while another 3 percent is for 
direct case processing costs, including travel, court reporting, and 
legal research. This leaves little flexibility--about $120,000--for 
employee training, printing, technology improvements, and equipment or 
to adapt to uncontrollable changes in workload.
    One promising prospect for future budget reductions lies in MSPB 
use of information technology. But, that future savings requires an 
outlay next year. ADP is a cornerstone of our ongoing agency planning, 
and we have carefully stepped from needs assessment, to architectural 
plan, to implementation. The desired results include dramatic 
reductions in paperwork, easier access by Federal employees seeking to 
file cases, and greater efficiencies at the MSPB. This efficiency 
includes using technology as a safety net for support functions 
eliminated through downsizing. The fact is that we have been barely 
able to squeeze out such planning and implementation under more recent 
budgetary constraints. Our request for $270,000 for information 
technology over the OMB passback reflects the reality that we have no 
flexibility remaining in our budget to pursue these improvements.
               due process requires support from congress
    Providing a fair, neutral and timely process to review Federal 
employment disputes is essential to a merit-based employment system. 
While I appreciate the difficulty facing Congress this year in 
allocating scarce resources, I am compelled to request additional funds 
for our function.
    Without the requested additional funding for the MSPB, the job of 
providing statutorily demanded due process in a timely and high quality 
manner will be jeopardized. To avoid undermining the MSPB's ability to 
review employment disputes, I ask you to support an appropriation of 
$27,990,000 for the Board in fiscal year 1998.
                                 ______
                                 

                Questions Submitted by Senator Campbell

                         information technology
    Question. The Merit Systems Protection Board has requested $1.11 
million more for fiscal year 1998 than approved by the Office of 
Management and Budget. One of the primary reasons is to fully fund 
improvements in the computer system. While we understand the need to 
invest in technology in order to streamline operations, we have learned 
the hard way the significant ADP investment should only come after the 
completion of a comprehensive plan. Has MSPB prepared a blueprint for 
ADP investments?
    Answer. Yes, the MSPB has a Technology Plan, fiscal year 1996-2000. 
In accord with the plan, the MSPB will first complete the architectural 
framework needed for client server computing. Once the architecture is 
in place, MSPB will begin evaluation and testing of components of a 
client server system, including electronic filing of the MSPB appeal 
form, electronic receipt and dissemination of case documents between 
MSPB and the parties to the case, electronic storage of case files, and 
redesign of the case management system. The MSPB is in the initial 
stages of a pilot project--an electronic filing project with the U.S. 
Court of Appeals for the Federal Circuit, the MSPB's primary reviewing 
court. Building upon experience gained during the pilot, MSPB will 
develop a prototype paperless case file system in a regional office.
    Question. If there is a blueprint for ADP investments, was the 
blueprint developed in-house?
    Answer. The MSPB Technology Plan was developed in-house by the 
MSPB's Director of Information Technology with limited consultation in 
design of architecture.
    Question. If so, what are the qualifications of the person who 
prepared the comprehensive plan?
    Answer. The director who prepared the Technology Plan has a 
Master's degree in Computer Systems from American University and 
approximately 25 years of experience in the IRM field, 15 years as a 
division director in four agencies.
                                training
    Question. Table 3 of the MSPB budget justification document is 
``Obligations by Object Class'' which outlines specific spending 
expectations. We note that training is not mentioned in this table. How 
much has MSPB spent over the last two years for employee training?
    Answer. MSPB spent $99,000 in fiscal 1995 and $212,000 in fiscal 
1996 on payments for training. The higher amount in 1996 reflects our 
need to provide more training for staff who have been asked to take on 
new or greater responsibilities as part of our continuing downsizing 
and reengineering. It should also be noted that travel costs associated 
with training for fiscal year 1996 were captured as a part of training 
expenses to give us a true picture of our training costs.
    Question. How do those costs break out with regard to career versus 
political employees?
    Answer. Less than 1 percent of training funding ($565) was spent on 
training for political employees in fiscal 1995 and 8 percent of 
funding ($17,381) was spent in fiscal 1996. The training for political 
employees was to assist them in their leadership roles in managing the 
MSPB's downsizing and reengineering efforts. For fiscal 1996, the 
Chairman funded a leadership training course for all department heads 
(nonpoliticals), and training of new staff members, including training 
in alternative dispute resolution techniques.
    Question. What are the anticipated training costs for fiscal year 
1998?
    Answer. We expect to spend about $100,000 in fiscal 1998 for 
training staff to take on changed responsibilities, training legal 
staff, including training new administrative judges in hearing 
procedures, and training staff in information technology.
    Question. Is there a training schedule for employees at the MSPB?
    Answer. Last year, senior managers began a program to look at 
training agencywide preceding a new budget year to determine top 
priorities in training, e.g., adaptation to new technologies, 
enhancement of individual skills (where corrective measures may need to 
be taken or new responsibilities undertaken as the MSPB downsizes and 
restructures), and direct mission-related activities (e.g., the 
Judicial Conference of the U.S. Court of Appeals for the Federal 
Circuit, the primary reviewing court of the MSPB, the National Judicial 
College training for new administrative judges). There are two 
objectives of the MSPB training program: (1) effective spending of 
limited resources; and (2) preparing for the future.
    Question. How are employees designated to receive training?
    Answer. Employees are, in general, designated to receive training 
by their supervisors. In some cases involving training in basic core 
competencies, a request is reviewed and approved by senior staff 
responsible for managing overall training in a specific broad area such 
as adjudication practices and procedures for administrative judges. For 
other specific, one-time courses, a supervisor may directly approve 
training.
                                 travel
    Question. There is a marked increase in travel costs between fiscal 
year 1996 and fiscal year 1997, and another increase for fiscal year 
1998. What is the justification for these increases?
    Answer. The majority of MSPB travel cost is for administrative 
judges' travel to hearing sites, both in the continental United States 
and outside. The travel amount in the budget submission for fiscal 1996 
is actual; the amounts for fiscal 1997 and 1998 are estimates. We are 
working to use technology to reduce travel costs. We have tested video 
conferencing equipment for use in hearings, conferences, and other 
meetings. Our initial testing indicates that it will provide good 
interaction while reducing transportation, hotel, and subsistence 
expenses. It will also cut back on indirect costs associated with 
travel, including lost work time. However, currently increased travel 
costs reflect a number of factors such as higher travel and hotel 
rates, travel costs related to installation of the wide-area network 
connecting MSPB regional, field and headquarters offices, and costs 
associated with relocating staff to fill important vacancies or to move 
staff as offices are closed as part of our downsizing and reengineering 
initiatives.
    Question. Was all travel by MSPB employees in fiscal year 1996 and 
so far in fiscal year 1997 absolutely necessary for the completion of 
the agency's mission?
    Answer. The majority of MSPB travel expense is for administrative 
judges to conduct hearings which are held throughout the world and 
sometimes last several days. The rest is to support the agency's 
mission by attending conferences to discuss legal issues and our study 
reports with the Federal personnel community and other interested 
parties and for routine administrative and supervisory functions.
         the civil service retirement and disability trust fund
    Question. The Merit Systems Protection Board has statutory 
authority to draw down from the Civil Service Retirement and Disability 
Fund, up to a certain limit. What are the statutory limitations for use 
of trust fund monies?
    Answer. 5 U.S.C. 8348 authorizes payment from the Civil Service 
Retirement and Disability Trust Fund to the MSPB, subject to annual 
limitation established by Congress, for expenses incurred in 
administering appeals in retirement cases under 5 U.S.C. 8347(d) and 
8461(e)(CSRS and FERS cases). The annual limitation is established as 
part of the Treasury-Postal Service appropriation. For fiscal year 
1997, the Trust Fund limitation is $2,430,000.
    Question. Does MSPB maintain records of the utilization of those 
funds?
    Answer. Records of the annual amounts are available. The amount of 
the limitation on use of the Trust Fund since fiscal 1993:

        Year                                                      Amount
1993..........................................................$1,950,000
1994.......................................................... 1,989,000
1995.......................................................... 2,250,000
1996.......................................................... 2,430,000
1997.......................................................... 2,430,000
1998.......................................................... 2,430,000

    The amount has gradually grown over the years as costs and workload 
have increased. MSPB expenses often exceed the Trust Fund limitation. 
For example, in fiscal year 1996, the MSPB spent $2,522,00 in 
adjudicating retirement cases, $92,000 more than we were reimbursed 
from the Trust Fund.
    Question. If approved for fiscal year 1998, specifically how will 
the $2.43 million from the trust fund be allocated?
    Answer. The majority of the funds will be allocated to the ten 
regional and field offices which adjudicate the initial appeals 
submitted to MSPB. Lesser amounts will be allocated to the Office of 
Appeals Counsel and the Board offices that adjudicate the petitions for 
review from the initial decisions. Funds are also allocated to the 
Office of the General Counsel for handling appeals to the U.S. Court of 
Appeals for the Federal Circuit.
                            strategic plans
    Question. Under guidance by OMB, agencies are to have their initial 
strategic plans to OMB by August 15, 1997, and to Congress by September 
30, 1997. Prior to the submission of the initial plan, agencies must 
consult with Congress in developing this strategic plan. The Committee 
on Appropriations has not yet seen a draft strategic plan from MSPB. 
When can we expect to see a preliminary draft strategic plan?
    Answer. We expect to deliver a draft to the Committee on 
Appropriations and other Congressional committees by the middle of 
July. The Results Act requires agencies to meet with stakeholders, 
those interested in or affected by their programs. At the end of May, 
we met with MSPB stakeholders in two focus groups, and we are currently 
evaluating their comments and revising our strategic plan in light of 
their comments and recommendations.
    Question. What is the timing for consultation with Congress on the 
MSPB strategic plan?
    Answer. At the request of Chairman Mica, Subcommittee on Civil 
Service, House Committee on Government Reform and Oversight, we 
provided a copy of an early draft of our strategic plan. We are 
reconsidering our plan in light of their reaction to the draft. We will 
be happy to meet with you, and other committees, now, or later, after 
we have revised our initial draft.
                                 ______
                                 

              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

  Prepared Statement of John W. Carlin, Archivist of the United States

    I would like to set our 1998 request in context with a brief review 
of the unique and critical mission of the National Archives and Records 
Administration (NARA), the challenge of carrying out that mission in 
1998, and the structure of our current budget. I would then like to 
discuss the specific priorities outlined in the President's 1998 
request.
    First of all, while we are very small in the context of the Federal 
budget, the National Archives and Records Administration is a public 
trust on which our very democracy depends. It enables people to inspect 
for themselves the record of what government has done. It enables 
officials and agencies to review their actions and helps citizens hold 
them accountable. It ensures continuing access to the essential 
evidence that documents the rights of American citizens, the actions of 
federal officials, and the national experience.
    Ready access to essential evidence is critical for upholding the 
faith of the American people in their system of government. We need 
look no further than the headlines about ``Nazi Gold'' to see the 
importance of preserving records and making these accessible for public 
examination. The entire world is focused on the impact that open, 
accessible Federal records are having on writing this latest chapter of 
the Holocaust tragedy.
    But it's the records that don't get the headlines that we also need 
to support--the military service records from which we answer 2 million 
reference requests a year from veterans, the Census and Ship Passenger 
Arrival records that hundreds of thousands of citizens pour over each 
year to trace their family histories, and the sampling of digitized 
records that we now make available on the Internet that are being 
accessed by thousands of students, teachers, and citizens each month. 
The American people rely on our records, have a right to our records, 
and we must be vigilant in preserving and providing access to those 
records.
    As President Herbert Hoover said, upon laying the cornerstone of 
the National Archives Building, on February 20, 1933, ``Here will be 
preserved all the records that bind State to State and the hearts of 
all our people in an indissoluble union.'' Every time I look at the 
three founding documents of our country--the Declaration of 
Independence, the Constitution, and the Bill of Rights--which we 
preserve on public view in the rotunda of that building, I feel an 
awesome responsibility to the citizens of this country. Serving as a 
public trust, which the National Archives does, is no insignificant 
matter.
    To provide ready access to essential evidence for citizens, the 
National Archives and Records Administration maintains a national 
system of facilities and programs. In addition to our central National 
Archives facilities in downtown Washington and College Park, Maryland, 
NARA operates fifteen regional offices, two Presidential materials 
projects, and nine Presidential libraries. We also publish the Federal 
Register, maintain the Center for Legislative Archives, oversee the 
Information Security Oversight Office, make grants through the National 
Historical Publications and Records Commission, and annually host more 
than two million visitors to the Charters of Freedom and other exhibits 
of documentary treasures in our downtown facility, the Presidential 
libraries, and other facilities across the nation.
    While unquestionably important, the mission of the National 
Archives and Records Administration is increasingly difficult to carry 
out due simply to the unceasing passage of time. As I often remind 
people, we are in a perpetual growth industry--we can't drop off a 
century of our history as we add a new one to the books. Everyday more 
records are created and new history is being made. And while the era of 
big government may be over, government downsizing with shut downs of 
federal programs and military base closures simply means that we 
receive records this year that we thought we wouldn't receive until 25-
30 years from now. When government grows, archives grow, and when 
government shrinks, archives grow. No matter what the size of 
government, records continue to be created and require proper 
management every day.
    This relentless growth has forced us to devote nearly half our 
total budget for space just to store our records. Our large, costly 
space requirements represent an ever increasing percentage of our 
budget to the point where building rents and mortgages are eating up 45 
percent of our budget, and when combined with personnel costs, the 
total is 90 percent of our operating expenses. That leaves us just 10 
percent for preservation costs, information technology, printing, 
training, technology improvements, communications services, travel and 
everything else. That is why the guarantee of our base is so important.
    However, we do not expect this committee to support the base or our 
1998 priorities on blind faith. When I took over this position two 
years ago, I didn't accept the contention that the National Archives 
and Records Administration was doing everything that it could to make 
the most effective use of its existing resources and I initiated a 
comprehensive strategic planning process to examine just how we were 
using our internal resources and how much more efficiently and 
effectively we might be able to carry out NARA's critical mission. 
Based on that effort we issued a strategic plan in August of last year 
and are concentrating on the priorities from that plan during this 
year.
    First of all, to implement the plan we must develop the 
infrastructure to carry it out. We have begun by instituting a two-
stage reorganization to improve communication, reduce bottlenecks, end 
overlaps, clarify individual unit responsibilities, establish who will 
be accountable for what and speak with one voice in providing guidance 
and implementing policies. The new structure has reduced the number of 
offices and combined related functions to improve services to federal 
agencies and the public and to provide more records management 
assistance to agencies up-front, at the time they create their records.
    Our remaining priorities for the year include bringing the plan 
into full compliance with the Government Performance and Results Act as 
a basis for budget requests beginning with fiscal year 1999. Further we 
are initiating a dialogue with our federal agency partners on how we 
can work together better to improve government records management and 
ensure that essential evidence is cared for from its creation to its 
final disposition. We also will continue our construction of a 
nationwide, integrated on-line information delivery system that 
educates citizens about NARA and its facilities, services and holdings; 
makes available digital copies of high-interest documents; and contains 
an on-line ordering capability. In these ways we are increasing our 
ability to provide the public with ready access to essential evidence. 
And this year I can say to you as well that we are now implementing a 
plan for doing so with greater economy, efficiency and effectiveness.
       1998 request and changes from 1997 appropriated fund level
    NARA's 1998 request for appropriations for operating expenses is 
$206,479,000, a net increase of $9,210,000 over the adjusted 1997 
appropriation of $197,269,000. This budget reflects the continuing need 
to protect our base in the face of four unavoidable budget mandates and 
to fund clear priorities in the areas of space, technology and 
preservation.
    The overall appropriation request includes decreases of $306,000 
for one-time costs in 1997 for the reappropriation of unobligated 
balances from fiscal year 1996 appropriated funds (which is to be made 
available in 1997), and $392,000 for Rent for the Bush Presidential 
Materials Project. The Bush Presidential Library is scheduled to open 
in the latter part of fiscal year 1997. Therefore rental space will be 
vacated when that move is completed.
    These decreases are offset by four unavoidable budget mandates. The 
first three are $2,314,000 for the 1998 pay raise; $1,055,000 for 
facility rate changes which include utility and contract cost 
increases; and, $1,300,000 for the operation and maintenance costs for 
the new Bush Presidential Library. The latter costs are the 
responsibility of NARA once the facility is completed and turned over 
to the Federal Government. This funding will provide for guards, 
custodial services, mechanical services, elevator maintenance, fire and 
security, alarm maintenance, and utilities. The fourth unavoidable 
budget mandate is the $1,319,000 requested in the budget to convert 
many of NARA's intermittent employees to regular full-and part-time 
employment. Much of the work now being performed by NARA's intermittent 
employees should be performed on a full-or part-time basis. 
Intermittent employment is appropriate only for work that is sporadic 
and irregular. Heavy use of intermittents was a legitimate employment 
approach for a period in the Agency's history, but no longer. This 
change will not increase FTE for NARA but will require the funding 
necessary to cover the Federal employment benefits these employees will 
become entitled to when they are placed on full-or part-time work 
schedules.
    Now to our priorities. Adequate space and properly maintained 
facilities are our first line of defense to preserve our records and 
our history. We must provide proper storage for the valuable holdings 
entrusted to us. We also must maintain our facilities in proper 
condition for public visitors, researchers, and employees. And we must 
maintain the structural integrity of the buildings. In the fiscal year 
1996 appropriation, the Congress established the Repairs and 
Restoration account to enable NARA to provide ongoing repairs, 
alterations, and improvements to Archives facilities and Presidential 
Libraries and to provide adequate storage for holdings nationwide. 
Requirements in 1998 are $6,650,000--a decrease of $9,579,000 over the 
amount provided in 1997. The $6,650,000 includes $2,750,000 for such 
repairs as chiller replacement, roof replacement, elevator repair and 
replacement, plumbing, air handlers, security systems, humidification 
and de-humidification systems, lighting, and drainage.
    This year we are requesting an additional $1,800,000 for moving 
expenses to vacate the New York Federal Records Center which is located 
at the Army's Military Ocean Terminal, in Bayonne, New Jersey. The 
records center is the largest civilian agency tenant on this base, 
which is scheduled for closure under the Base Realignment Closure 
process. The current buildings are old--built during World War I--and 
are in very poor condition. Requested funding will provide for the 
relocation from that facility of 1.2 million cubic feet of Federal 
records and related office support equipment.
    The second need under the Repairs and Restoration account is 
funding to continue the consolidation of other Federal Records Centers 
throughout the country when it is appropriate and cost-efficient to do 
so. Other records center facilities, although rather inexpensive to 
rent, are in extremely poor condition, and totally lack environmental 
controls. Records stored in these crumbling warehouses are at risk. 
$2,100,000 is required to consolidate those records.
    The budget incorporates two additional initiatives that are 
necessary for the agency to carry out our new Strategic Plan. First of 
all, we are requesting $2,000,000 for critical upgrades to and 
development of NARA's systems for managing records in various formats, 
but particularly records generated electronically. The request includes 
funds for expert consulting services and for equipment and 
communications enhancements to NARA's existing network infrastructure.
    Second, our request includes $1,920,000 to begin a five-year action 
plan to preserve the audiovisual heritage of the United States, 
documenting the history of the United States from the 1930's to the 
1960's. Much of this heritage is in danger of being lost because many 
of the film images are on an unstable base, and many of the video and 
audio recordings were made on formats that are now obsolete.
    The budget also includes funds for grants that I award on the basis 
of recommendations from the National Historical Publications and 
Records Commission. Beginning in fiscal year 1995, the grants program 
of the NHPRC was separated from the operating expenses of NARA and a 
new appropriation account was established for the grants. The 
administration and reference services for the grants program remain 
part of the operating expenses appropriation for NARA. The grants 
program is currently authorized through fiscal year 2001. NARA is 
requesting an appropriation of $4,000,000 in 1998--a decrease of 
$1,000,000 from 1997. Nonetheless, this request is important to us 
because NHPRC grants finance research-and-development projects on 
electronic records, among other things we need, and foster partnership 
programs with state and local governments, which are trying to care for 
many records generated by federal programs that are administered by 
states and localities. NHPRC grants are important to them and to us.
    In summary, this small, but vitally important Federal agency has a 
very large challenge facing it today and into the foreseeable future. 
Ensuring that the government and the citizen will continue to have 
ready access to the essential evidence of our history will require an 
efficient and effective National Archives and Records Administration 
and the cooperation of the Congress to provide the resources necessary 
to carry out the task. For 1998, our budget request gives priority to 
financing the space necessary to adequately house our holdings and 
serve the public, the electronic infrastructure to manage the life 
cycle of growing quantities of digital records in particular, and the 
preservation tools required to protect the audiovisual holdings of the 
20th Century that are currently at risk.
    Thank you.
                                 ______
                                 

                Questions Submitted by Senator Campbell

                        repairs and restorations
    Question. The fiscal year 1997 Appropriation provided $16.2 million 
for repair and alterations of Archives facilities and the Truman and 
Roosevelt libraries. On April 15 Archives forwarded to the subcommittee 
a report on the renovation of the Truman Library. What is the status of 
the funding? Has the Archives received matching private sector 
donations to complete the $25.5 million project?
    Answer. As discussed in the April 15, 1997, report submitted by 
NARA, the $4 million provided this fiscal year for the Truman Library 
will allow the continuation of a complete renovation of the Library's 
permanent museum exhibits and related improvements to the facility. The 
April 15 report shows that NARA has a long-range plan for this project 
which relies upon both federal funds and the support of the private 
Truman Library Institute. Now that our report is submitted, we will 
begin the obligating and contracting process to utilize the $4 million 
allocated this fiscal year, and continue the renovation.
    Regarding private support, the Truman Institute has already raised 
$5.3 million for the museum renovation. The first phase of the project, 
which involved major changes to the Oval Office and White House gallery 
exhibits, was completely paid for by the Institute. Led by new Board 
members and a strengthened development staff, the Institute intends to 
raise the remaining amount it has pledged for the renovation and 
associated educational programs by the year 2000. This schedule is 
consistent with the overall renovation plan presented by NARA in the 
report of April 15, 1997.
    On June 13, 1997, we also submitted to the subcommittee our report 
on the renovation of the Roosevelt Library. Regarding private support, 
the Roosevelt Institute has agreed to raise $4.0 million for the 
renovation. This will include: design of the Visitors Center and 
renovations to existing building; furnishing and equipping the Visitors 
Center and renovated library; partial funding of Visitors Center 
construction; and, to continue non-Federal fund-raising initiatives 
which already support Library programs, including planning for 
replacement of permanent exhibit and development of a new orientation 
film.
                    non-textual records preservation
    Question. The fiscal year 1998 Budget includes a request for $1.9 
million for non-textual record preservation as the first increment of a 
five-year program. What is the total funding level for the non-textual 
preservation program? Please explain how the $1.9 million will be 
obligated.
    Answer. Initiatives over the five years to preserve nontextual 
records shall include the following five action steps that are priced 
below based on our best current knowledge of costs for the various 
types of services, equipment and supplies. These initiatives will cover 
the first phase (five years) of a long range preservation plan. 
Implementation of the initiatives will stay within the $1,920,000 
annual total but the costs may change and shift among categories as 
actual procurements are made and contracts are awarded:
(1) Rent cold storage space off site to store the most valuable and/or 
        most deteriorated records
    Provide cold storage for records on acetate and nitrate based 
photographic film, black and white and color, including still 
photographic images, motion aerial images and accessioned microfilm. 
Beginning in fiscal year 1998 and within five years, acquire sufficient 
archival quality cold storage to move all NARA acetate and nitrate 
based records into cold storage. The cold storage will extend the 
usable life of these records, thereby providing time to initiate a long 
term and cost effective duplication plan. Cost estimates are based on 
generic lease figures from the General Services Administration. Costs 
may change when additional cold storage space actually is leased or 
more cold storage space is configured in NARA's buildings. Costs in the 
first year (1998) are estimated at $552,000; the cost to maintain this 
cold storage space in each of years two through five is $370,000.
    These costs estimates cover the lease of space, the purchase of 
shelving, and the expense of moving the records in the first year and 
continuing leasing costs in the subsequent years. The goal is to 
provide for storage of 58,000 cubic feet of the most at risk acetate 
records that are not now in cold storage.
(2) Increase the capacity of the NARA laboratory by purchase of 
        equipment and supplies
    Increase NARA preservation lab capacity to duplicate and provide 
ready access to records in cold storage, and to copy those items so 
fragile that outside contractors are not available to perform this 
work. Increased capacity will come from reallocating and retraining 
agency staff whenever possible and more importantly from the purchase 
of equipment. Much of the equipment is decades old and modern equipment 
will support better production. New motion picture duplication 
equipment will be acquired and the numbers of cameras for copying still 
photography on polyester roll film will be increased. Equipment costs 
first year (1998): $600,000; in subsequent years the equipment costs 
should be minimal unless procurement regulations and procedures delay 
some purchases.
    Lab supplies should increase $300,000 over their current base 
during the first year (1998) and remain at this level through the 
following four years. Cost in each of years one through five, $300,000.
    The combination of new equipment and increased lab supplies will 
permit increased preservation copying work on all the major media 
within NARA. The internal NARA copying operation will work in tandem 
with the outside contracts described next under action steps No. 3 and 
No. 5 to meet NARA's most urgent needs for preservation copying.
(3) Mobilize NARA technical and acquisition staff, as well as procuring 
        assistance from contract experts, to write statements of work 
        and establish contracts that, together with expansion of the 
        NARA lab, will greatly expand the preservation effort. NARA 
        plans to contract out copying some audio and video records on 
        obsolete media, to copy nitrate and diacetate negatives in 
        regional archives, to begin preservation duplication in 
        presidential libraries, to copy deteriorating aerial indexes, 
        to begin long term coping of aerial roll film and motion 
        picture film
    Let contracts to inspect, clean, and copy aerial photography, still 
pictures, and motion picture film that are on acetate media and to copy 
some audio and video obsolete formats. While NARA labs can increase 
their preservation copying work, they can never with current staffing 
resources perform all the preservation work necessary for NARA's 
holdings. Consequently, NARA must let contracts for these preservation 
efforts. To make sure that the statements of work will be the best 
possible and will be in place during the second year of the action 
plan, NARA will utilize the NARA technical and acquisition staff during 
the first year to prepare Statements of Work (SOW's), technical 
evaluation criteria, and the other facets of a major contracting effort 
to establish a series of preservation contracts that become fully 
effective in the second year and, via the exercise of option years, 
continue at the same general level through the fifth year of the plan.
    Cost in first year (1998), $0: Cost in each of years two through 
five, $900,000.
    These contracts will be addressed to convert obsolete format audio 
and video records to current formats on more stable base media; to 
inspect, repair, and duplicate aerial photography and aerial index 
film; to copy nitrate/diacetate negatives in the regions; to start on 
the need for preservation copies of still photographs, audio tapes and 
motion pictures in the presidential libraries; and to inspect, repair, 
and duplicate motion pictures.
(4) Provide necessary supplies, equipment, and internal reallocation of 
        staff to perform the on going holdings maintenance actions that 
        serve to protect records such as photographic prints, maps, and 
        building plans which will not be copied
    Costs for supplies to recan motion and aerial film, to refolder, 
rejacket, and rebox maps, posters, paper photographic prints will allow 
staff in NARA's nontextual records branches to perform basic non-lab 
preservation work on the at risk holdings. A major effort will be made 
in the first year and will continue at reduced level in the next four 
years as more of the records go out to contractors performing the 
preservation duplication work described under action steps No.'s 3 and 
5. Cost the first year (1998) $468,000; cost in each of years two 
through five, $250,000.
(5) Establish an on going program of copying audio and video records on 
        magnetic media, every 20 years as recommended by experts
    To schedule, write and let four year contracts to copy as much as 
possible of the 42,000 video tapes and 61,000 audio tapes that need 
recopying to ensure no information is lost by the aging process for the 
magnetic media. The first year there will be no contract cost except to 
write the statement of work for copying both media in during the next 
four years. The estimated cost for each subsequent year is $100,000, 
but--given the many preservation needs indicated under the contracting 
effort in No. 3--NARA may have to reduce the priority of this action 
and postpone it beyond this 5 year action plan. Cost the first year 
(1998) $0; cost in each of years two through five, $100,000. (See 
attached chart for Preservation costs.)

   NATIONAL ARCHIVES AND RECORDS ADMINISTRATION--NONTEXTUAL PRESERVATION REQUEST COSTS--FISCAL YEARS 1998-2002  
                                            [In thousands of dollars]                                           
----------------------------------------------------------------------------------------------------------------
                                                                       1998     1999     2000     2001     2002 
----------------------------------------------------------------------------------------------------------------
Cold storage:                                                                                                   
    Rent ($25.00 per sq. ft.--conversion=/3.9).....................  \1\ 276      370      370      370      370
    Shelving ($3.70 per cu. ft.)...................................  \1\ 160  .......  .......  .......  .......
    Moving records ($2.50 per cu. ft.).............................  \1\ 106  .......  .......  .......  .......
    Travel.........................................................       10  .......  .......  .......  .......
                                                                    --------------------------------------------
      Total cold storage...........................................      552      370      370      370      370
                                                                    ============================================
Equipment:                                                                                                      
    Motion picture lab.............................................      300  .......  .......  .......  .......
    Recording lab..................................................      100  .......  .......  .......  .......
    Microfilm dupl. lab............................................  .......  .......  .......  .......  .......
    Still photo lab................................................       70  .......  .......  .......  .......
    Aerial.........................................................      130  .......  .......  .......  .......
                                                                    --------------------------------------------
      Total lab equipment..........................................      600  .......  .......  .......  .......
                                                                    ============================================
Contracts:                                                                                                      
    Nitrate copying................................................  .......       85  .......  .......  .......
    Motion picture:                                                                                             
        Obsolete video.............................................  .......  .......  .......  .......  .......
        Obsolete audio.............................................  .......  .......  .......  .......  .......
        Inspection (incr. to existing contract)....................  .......      150      200      200      200
        Dupl. of acetate base film.................................  .......      300      300      300      300
    Aerial: Inspection, repair, cleaning and duplication...........  .......      365      400      400      400
                                                                    --------------------------------------------
      Subtotal.....................................................  .......      900      900      900      900
                                                                    --------------------------------------------
    Audio and Video: Recopying of audio and video  tapes...........  .......      100      100      100      100
                                                                    --------------------------------------------
        Total contracts............................................  .......    1,000    1,000    1,000    1,000
                                                                    ============================================
Supplies:                                                                                                       
    Laboratory.....................................................      300      300      300      300      300
    Motion picture (recanning).....................................      338      150      150      150      150
    Still photo (jackets, mylar, folder............................       50       40       40       40       40
    Aerial/cartographic (boxes, cans, folders).....................       80       60       60       60       60
                                                                    --------------------------------------------
      Subtotal (without Laboratory)................................      468      250      250      250      250
                                                                    --------------------------------------------
      Total Supplies...............................................      768      550      550      550      550
                                                                    ============================================
      Total nontextual preservation................................    1,920    1,920    1,920    1,920    1,920
----------------------------------------------------------------------------------------------------------------
\1\ Based on 43,000 cubic feet.                                                                                 

                       private sector involvement
    Question. What efforts, if any, have been made to encourage private 
sector involvement in the cost of non-textual record preservation? For 
example, if aerial photographs made to show the bomb damage in Europe 
during World War II are used by environmentalists and bomb disposal 
experts, not to mention the motion picture industry, perhaps they could 
be encouraged to contribute to preservation costs.
    Answer. NARA has made efforts to encourage private sector support 
for preservation of non-textual records, with rather limited success. 
At four Presidential Libraries, the private foundations associated with 
those libraries have provided some support for preservation work on 
Library holdings, but the support is primarily for textual records and 
museum items. The Herbert Hoover Library Association, for example, 
provides approximately $4,000 annually for preservation projects at the 
Hoover Library from an endowed fund. The Reagan Presidential Foundation 
funded $1,000 worth of preservation on a portion of Ronald Reagan's 
pre-Presidential collection at the Reagan Library and purchased 
audiovisual equipment that is used in small part for preservation work. 
The Truman Library Institute has provided financial support primarily 
for conservation of museum objects. The Truman Library Gift Fund also 
was the designated beneficiary of a special one-time fundraising event 
associated with the opening of a local movie theater complex in 
Independence, Missouri--those funds are dedicated to preservation of 
collections the Library could not otherwise afford. The Kennedy Library 
Foundation also recently established a preservation fund.
    On the other hand, NARA has made other efforts to obtain private 
sector support for specific non-textual preservation projects without 
success. During the World War II fiftieth anniversary commemorations, 
for example, we attempted to obtain assistance from veteran's groups to 
support copying of photographs and some textual records. Several 
private organizations have been approached to support preservation 
copying of the remaining Nuremberg memobelt recordings with no 
response.
    From our experience, and similar experiences among state 
institutions, the private sector interest is in providing support for 
exhibits and public outreach projects that can provide a visible 
demonstration of the corporate involvement, and not support for core 
functions. While we will continue to seek private support for projects, 
we believe that this approach is not a viable means of obtaining the 
funds needed for systematic preservation treatment needed for our non-
textual holdings over the long term. First, the private sector appears 
to consider preservation of Federal records to be a Federal government 
core responsibility and is more supportive of non-textual preservation 
needs in the non-Federal sectors. The American Film Institute, for 
example, has provided grants to archival institutions around the 
country for preservation of non-Federal audiovisual records. Second, as 
the question indicates, seeking private support requires identification 
of specific collections and development of grant proposals that match 
the interests of the private sector group. Even where we have done 
this, success is not guaranteed. More important, this approach does not 
necessarily result in preservation of the records most in need of 
treatment. We therefore conclude that appropriated funding is an 
essential base for preservation of non-textual records in NARA custody.
              consolidation of existing storage facilities
    Question. The fiscal year 1998 Budget includes a request for $2.1 
million for the consolidation of existing storage facilities. Please 
provide information on what centers would be consolidated and where the 
consolidated facility will be located.
    Answer. The National Archives and Records Administration has taken 
several important steps to manage its records center space requirements 
on a more cost effective basis while improving the environmental 
conditions in which it stores all of its records. With the funding 
requested in this initiative, we will be able to continue meeting these 
objectives of providing more cost effective and environmentally sound 
records center space.
    While we have not yet reached a final decision as to the next 
records center consolidation/relocation site(s), we are making great 
strides in our first relocation effort funded under this appropriation. 
The move of the New York Federal Records Center to the new site in the 
Kansas City, Missouri area is estimated (in the report to the Archivist 
on ``Replacing the New York Federal Records Center'') to save at least 
$14 million and as much as $23 million, over the 20-year life cycle, 
when compared to relocating to a facility in the New York/New Jersey 
area. While we cannot guarantee the same savings with the $2.1 million, 
we are looking at significant long term reductions in annual operating 
expenses. The lessons learned and the experience gained from the move 
of records from the Bayonne facility to Kansas City, Missouri are 
serving as a guide as we continue planning for a second relocation in 
fiscal year 1998 into more cost efficient space. This $2.1 million is 
critical to accomplish this move.
            announced changes consistent with strategic plan
    Question. On April 7, 1997, the Archivist announced changes 
consistent with the Archives Strategic Plan. The announced changes 
impact Archives management of FTE and hiring personnel. Please explain 
how these announced changes will assist managers in meeting the 
Archives goals.
    Answer. The personnel resources reallocation policy announced on 
April 7, 1997, allows the Archivist with the advice of his Leadership 
Team to review positions as they become vacant throughout the agency 
and determine whether they will be filled in the program where the 
vacancy occurred, or whether the resources should be shifted to another 
program. NARA's strategic plan lays out the functions and activities 
that are most important to carry out the agency's mission. To begin to 
carry out the vision of the strategic plan without an infusion of new 
resources requires the redirection of existing resources. To some 
extent that was done through an agency reorganization in which phase 
one was completed last January and phase two is expected to be 
effective January 1998. Programs were combined in a manner that 
encompass the direction set by the strategic plan, and individual staff 
members were redirected from activities not included in the forefront 
of the plan's initiatives. The policy announced in April is a 
continuation of the attempt to identify resources that can be shifted 
internally to provide staff with the kinds of skills and abilities 
needed to confront the kinds of increasingly difficult problems NARA 
must confront to assist Federal agencies to manage wisely and 
effectively agency records which continue to grow in volume and 
technical complexity, and to ensure long term access to these essential 
records for the Government and the public.
      national historical publications and records commission fund
    Question. What is the current status of the National Historical 
Publications and Records Commission fund? Why did the Archives request 
reduced funding for that grants program in fiscal year 1998?
    Answer. For fiscal year 1998 the NHPRC is authorized to receive $10 
million in grant funds. The Administration's budget for fiscal year 
1998 requests $4 million, which is $1 million less than the actual 
appropriation for fiscal year 1997, and returns the Commission to the 
funding level it had in 1979 nearly two decades ago. The reduced-
funding request reflects no dissatisfaction with the NHPRC's program or 
achievements nor does it reflect the great need for grant funds 
throughout the country. The request is consistent with what the 
Administration has recommended in the past several years.
                      agency contributions to csrs
    Question. The President's Budget and the Bipartisan Budget 
Agreement both assume that agency contributions on behalf of their 
employees covered by the Civil Service Retirement System (CSRS) will be 
increased by 1.51 percent. Further, according to the Office of 
Management and Budget, this increase must be absorbed by agencies, at 
least in fiscal year 1998. What would be the cost of this proposal at 
NARA? Would implementation of this proposal require any staffing 
adjustments?
    Answer. The cost of this proposal for NARA is estimated at 
$580,000. During the last 10 years, NARA's base has absorbed over $23 
million dollars for such items as pay raises, Gramm-Rudman reductions, 
increased space needs, and mandated administrative and personnel 
reductions. Although we recognize that this is a time of restricted 
resources throughout the government, NARA does not have discretionary 
funding to absorb any further cuts. The largest portion of our budget 
is fixed costs for personnel, space and buildings, and Presidential and 
Congressional mandates. In fact 45 percent of our budget must go for 
rent and mortgages, and to maintain, operate and repair our buildings. 
As such, our only option is to take any new mandates out of existing 
personnel resources. This will definitely lead to a reduction on our 
personnel level, and further exacerbate the current problems we have 
dealing with critical issues relating to the management and 
preservation of Federal electronic records and the increasing early 
transfer of government records to NARA due to agency streamlining, 
closing of military bases, closing of agencies, and ending of programs.
                                 ______
                                 

                      OFFICE OF GOVERNMENT ETHICS

            Prepared Statement of Stephen D. Potts, Director

    Thank you for the opportunity to submit a statement in support of 
the Office of Government Ethics' (OGE) request for fiscal year 1998 
resources of $8,265,000 and 84 FTE's. This request represents an 
increase of $187,000, primarily to meet the expected inflationary 
increases in rent and personnel costs.
    The ethics program in the executive branch is decentralized. Thus, 
the downsizing and streamlining taking place at many agencies is 
reducing the resources available to devote to the ethics program. OGE 
is expected to take up the slack. Agencies will rely more heavily on 
OGE to assist them in developing innovative program support strategies 
and educational materials to maintain the quality of the ethics 
program. Therefore, we expect this increased agency reliance upon OGE 
to translate into our provision of more services for the same resources 
previously devoted to the program. We look forward to that challenge 
and believe we offer a fiscally and programmatically responsible 
budget.
    The ethics program directed by OGE is part of the basic 
infrastructure that supports anticorruption and conflict programs 
within the executive branch of the United States Government. The 
resources expended by OGE to direct and support prevention and 
education programs are but a small amount in comparison to the 
resources expended by those who pursue wrongdoers as well as the 
resources lost through inadvertent or deliberate misuse. We believe the 
resources we have requested are those necessary to adequately support a 
strong ethics program.
                            fiscal year 1998
    We would like to highlight some of the new and continuing major 
programs anticipated for fiscal year 1998.
    In the ethics education and training area, we plan to continue to 
develop more off-the-shelf education and counseling materials, 
including computer based training materials. These materials can be 
used by agencies with little or no modification, thus allowing them to 
use their reduced resources elsewhere in the program. Ethics education 
materials developed by OGE and by agencies are collected in our Ethics 
Information Center. They are made available to agencies as they develop 
their ethics training programs. Many of the textual materials can be 
downloaded and reproduced locally by agencies thus reducing the overall 
cost to the Government. Additionally, OGE has found an inexpensive 
source to reproduce first quality copies of OGE-developed video tapes 
for agency purchase. Finally, many of the materials produced by OGE are 
available from our WEB site and/or a CD-ROM which is issued twice a 
year through a subscription.
    To continue to strengthen our communications with agency ethics 
officials, OGE expects to continue its program of the Director's 
informal brown-bag luncheon sessions with agency ethics officials in 
Washington, and to expand its program of more direct communication with 
ethics officials in the region. With regard to the latter, OGE plans to 
expand the regional development program initiated in 1997 in the New 
York and Atlanta regions to the Chicago and Denver regions.
    The number of nominations to Presidential appointments requiring 
Senate confirmation is expected to be high particularly during the 
first half of fiscal year 1998. Consequently, resources devoted to the 
review of the financial disclosures of these nominees and the resultant 
conflicts counseling and ethics agreement development will be greater 
than usual. We will also continue to support agency ethics officials as 
they provide post-employment counseling to increased numbers of first-
term appointees returning to the private sector. Further, we will 
continue to provide advice and counseling with regard to the executive 
branch standards of conduct and continue to review individual agency 
supplemental standards.
    OGE desk officers will maintain their day-to-day communications 
with the agencies assigned to them. This continuing liaison between OGE 
and agency ethics staffs enables OGE to respond to the needs of the 
agencies in a timely and accurate manner. In addition, this interaction 
provides OGE with an early warning that an agency ethics program is 
deficient or has problems that require specialized attention.
    The program review teams will continue to provide evaluations of 
agency ethics programs to agency heads and ethics officials that will 
help the agencies identify their programs' strengths and weaknesses. 
The specific recommendations for program enhancements will be designed 
to ensure that the integrity of the agency's operations will not be 
compromised by actual or potential conflicts of interest.
    These are just some of the programs envisioned for fiscal year 
1998. We are pleased with the past success of the executive branch 
ethics program and look forward to the challenge of maintaining and 
enhancing the quality of the program while remaining fiscally 
conservative.
                                 ______
                                 

                     OFFICE OF PERSONNEL MANAGEMENT

           Prepared Statement of Hon. James B. King, Director

    Mr. Chairman and members of the subcommittee: I appreciate very 
much this opportunity to discuss the request of the President for 
appropriations for the Office of Personnel Management (OPM) for fiscal 
year 1998. It may be useful, before reviewing OPM's budget request, to 
consider the significant changes the agency has undergone in the past 4 
years.
    When the President noted the end of the era of big government and 
called on Federal employees to do more with less, OPM responded. our 
reduction of 48 percent in our full-time equivalent (FTE) level of 
employment, from the fiscal year 1993 baseline of 6,208 to 3,253 in 
fiscal year 1998, has led the government and provided an example of the 
way in which a willingness to make the hard decisions can enable an 
organization to operate within dramatically reduced funding levels and 
continue to successfully carry out its missions.
    A total redesign of the agency's functions and the privatization of 
two major programs, training and investigations, have refocused our 
organization and strengthened our role as trustee and custodian of the 
merit system. As a result, we renewed our commitment to our core 
functions including merit systems oversight and the development of work 
force information. In the investigations privatization, we pioneered 
the approach of creating an employee stock ownership plan (ESOP) 
company from an existing unit in a Federal Agency.
    In addition, we have transformed a substantial portion of our 
employment information and staffing services into reimbursable 
activities. And, as government has been downsized, we have accepted 
significant governmentwide responsibilities by coordinating career 
transition efforts through our interagency advisory group of personnel 
directors. Our investment in technology has paid dividends in the form 
of a steady improvement in customer service in our employee earned 
benefit programs.
    The President has now challenged all of us to be committed to a new 
kind of Government and to build on the Vice President's efforts to make 
our Government work better even as it costs less. OPM is prepared to 
meet that challenge.
    The total OPM request of $12.9 billion includes appropriations 
which are 2 percent discretionary and 98 percent mandatory. For our two 
discretionary appropriation accounts containing general funds and trust 
funds, we are requesting a total of $186.2 million. Our request for our 
three mandatory payment appropriations totals an estimated $12.7 
billion. Permit me to describe each of these in more detail.
    Our request for basic operating expenses from general funds totals 
$85.4 million and 777 FTE's, a decrease of $1.9 million and 70 FTE's 
from fiscal year 1997. This is largely attributable to the success of 
our ongoing effort to transition many of our employment services, 
including testing, examination development, and employment information, 
to a fee-for-service basis. We expect to complete the process this 
fiscal year.
    Despite these reductions, we plan to invest approximately $4.5 
million in information technology enhancements during fiscal year 1998. 
Through a phased implementation of our integrated information 
technology architecture and migration plan, we will not only comply 
with the requirements of the information technology management reform 
act, but also enable OPM to maintain its leadership role in the 
development, implementation, and communication of personnel management 
policies throughout the Federal community.
    We also intend to extend our leadership role in the application of 
technology to crosscutting human resources concerns, both through the 
development of new approaches to governmentwide electronic personnel 
recordkeeping and by exploring the feasibility of extending the 
technology we apply to our internal operations (particularly electronic 
imaging) beyond OPM. There is, we believe, an opportunity for 
significant cost savings for all Federal agencies by reducing the labor 
intensive nature of the human resources function.
    For the administration of the retirement and insurance programs for 
Federal employees, we are seeking $91.2 million in transfers from the 
trust funds and 1,431 FTE's, a decrease of 10 FTE's from fiscal year 
1997. Our efforts over the next 2 years will be concentrated on the 
redesign and modernization of our benefits systems to provide our 
customers with a greater variety of services and to improve the speed 
and accuracy of all of the services we offer.
    Although it will be discussed in greater detail in a separate 
statement, it should be noted that the request for OPM's office of the 
inspector general (OIG) is, again this year, for $9.6 million and 103 
FTE's. This includes about $1 million in general funds and $8.6 million 
in transfers from the trust funds.
    OPM also provides a variety of services that are financed by 
payments from other agencies through the revolving fund. For ongoing 
revolving fund programs, the fiscal year 1998 budget includes an 
estimated $174.6 million in obligations and 770 FTE's to be financed by 
other agencies in exchange for OPM's services. The employment service 
provides employment information and automated staffing services, and 
conducts testing for the department of defense using the revolving 
fund. In addition, OPM operates its management and executive training 
programs, provides consultative services on human resources management, 
and manages the investigations program using the ESOP contractor (U.S. 
Investigations Service, Inc.) to conduct field investigations, along 
with the remaining employees of OPM's investigations service who are 
responsible for the integrity, security, and privacy interests in the 
program. It is important to note that we have reversed a 10-year trend 
of higher deficits in our revolving fund through a combination of tough 
management decisions, tighter financial controls, increased 
accountability, and downsizing.
    As always, the OPM budget request includes mandatory appropriations 
to cover the Government's contributions to the Federal employee life 
insurance and health benefits programs on behalf of annuitants, since 
those enrollees have no employing agencies to contribute the 
Government's share for them. The difficulty in predicting the needed 
amounts with precision obliges us to request a ``such sums as may be 
necessary'' appropriation for each of these accounts. For the 284,000 
nonpostal annuitants retiring after 1989 and electing post-retirement 
life insurance coverage, we estimate that $32.4 million will be 
required, while an estimated $4.3 billion will be necessary to finance 
the Government's contribution toward health benefits coverage for the 
11.8 million participating annuitants.
    In addition, as required under the system of financing established 
by Public Law 91-93 in 1969, we are requesting a ``such sums as may be 
necessary'' appropriation for the civil service retirement and 
disability fund. This payment, estimated to be $8.3 billion, represents 
the 30-year amortization of liabilities resulting from changes since 
1969 (principally pay increases) which affected benefits.
    It is also important to note that we have included once again in 
the general provisions the legislative language necessary to ensure 
that Federal blue-collar workers receive pay adjustments that parallel 
those granted their white-collar counterparts. For fiscal year 1998, 
the President's budget proposes an increase of 2.8 percent. The 
appropriate distribution between a national pay raise and locality pay 
will be determined following discussions with employee organizations 
and other interested parties.
    Thank you. I would be pleased to provide any additional information 
for the record that the subcommittee may require.
                                 ______
                                 

   Prepared Statement of Hon. Patrick E. McFarland, Inspector General

    Mr. Chairman and members of the subcommittee: Thank you for 
providing me with this opportunity to discuss the President's fiscal 
year 1998 request for appropriations for the Office of the Inspector 
General. The total request for the office of the inspector general is 
$9,605,000, which equals the amount appropriated in fiscal year 1997. 
Of this amount, $960,000 is from the salaries and expenses/general fund 
and $8,645,000 is from the trust funds. In addition, we plan for 
$150,000 in advances and reimbursements.
    The Office of Inspector General recognizes that oversight of the 
retirement and insurance trust funds administered by the Office of 
Personnel Management is, and will be, its most significant challenge. 
These trust funds are among the very largest held by the United States 
Government. Their assets totaled $417.8 billion in fiscal year 1996 and 
their annual outlays were $57.6 billion. The amounts of their balances 
alone are material to the integrity of the Government's financial 
position. I have allocated 90 percent of the Office of Inspector 
General's efforts and resources to trust fund oversight, and I believe 
that we are now as fully committed to trust fund work as is possible 
within the context of our current resource structure.
    Outlays from the OPM retirement trust funds are made in the form of 
payments to millions of annuity recipients. The health insurance trust 
fund provides payments to approximately 500 health insurance carriers 
nationwide. In turn, the health insurance carriers pay millions of 
claims for services filed by their enrollees and health care providers. 
Such payments are highly susceptible to fraud. Studies by law 
enforcement agencies, the general accounting office, and industry 
groups have consistently projected that substantial amounts will 
reflect improper, inaccurate, or fraudulent payments. We owe an 
affirmative obligation to Federal employees and annuitants to protect 
the integrity of their earned benefit programs, and to the Federal 
agencies and the American taxpayers who provide the majority of the 
programs' funding to reduce losses due to fraud and impropriety and to 
recover misspent funds whenever possible.
    Working with limited resources, the Office of the Inspector General 
has achieved an impressive record of cost effectiveness in combating 
fraudulent activities. Audits and investigations of the trust fund 
programs have resulted in significant financial recoveries to the funds 
and commitments by program management to recover additional amounts. In 
fiscal year 1996, we achieved a total financial impact of approximately 
$71.8 million, which is one of the largest such figures in the Federal 
inspector general community. This equates to $7 in funds returned for 
each dollar appropriated to OIG by congress.
    Our responsibilities for combating fraud and promoting efficiency 
in the trust fund programs will not diminish in future years. In fact, 
the retirement and insurance service's workloads are likely to grow in 
fiscal year 1998 and beyond, generating the need for intensified audit 
and investigative efforts on our part.
    The Federal Employees Health Benefits Program (FEHBP) is the 
largest employer-sponsored health insurance program in the United 
States--providing health benefits to over 9 million persons, and is the 
third-largest federally funded health care program, after Medicare and 
Medicaid. It has increasingly been cited as a model of the way a health 
insurance program can offer a wide choice of coverage options while 
controlling cost increases. Oversight responsibility for a program of 
this size and significance requires my office to devote every effort 
toward achieving recognition as a nationwide leader in fighting health 
care fraud. Our priority for 1998 is to enhance our ability to 
accomplish this goal. We are seeking to have the FEHBP included as a 
full participant in the health insurance portability and accountability 
act of 1996. Through an apparent misunderstanding of the nature and 
structure of the program on the part of the drafters of the portability 
act, FEHBP has been inadvertently excluded from most of the remedial 
and civil enforcement authorities for health care fraud which were made 
available to other Federal heath care programs. This not only has the 
effect of drastically limiting our capacity to combat fraud, but also 
reflects an unjustifiably inferior treatment of the health care 
interests of Federal employees and annuitants.
    Separate and apart from this proposal, we will also seek changes to 
the FEHBP Amendments Act of 1988 to allow OPM the same ability to 
impose administrative sanctions, in the form of debarment and civil 
monetary penalties, against health care providers who defraud FEHBP as 
is already available to other Federal health care programs. The 
principle at issue here is similar to the exclusion of FEHBP from the 
Portability Act. The 1988 legislation placed procedural requirements on 
OPM's sanctions authority which were far more restrictive than those 
which apply to programs such as Medicare and champus. The result was 
that it has not been feasible for OPM to take administrative action 
against providers, even in cases where fraud has been clearly 
established, unless other agencies had previously sanctioned them. This 
has left FEHBP programmatically, and its enrollees personally, with a 
decidedly substandard degree of protection against fraudulent or 
improper actions on the part of health care providers. This concludes 
my prepared remarks. I will be pleased to respond to any questions 
which you may have.
                                 ______
                                 

                Questions Submitted by Senator Campbell

                  trust funds--administrative expenses
    Question. The Office of Personnel Management has statutory 
authority to draw-down from various trust funds, up to a certain limit 
set by Congress. In fiscal year 1998, OPM is requesting $85.385 million 
in appropriated funds and a total of $91.2 million transferred from 
trust funds--$78.9 million from the Civil Service Retirement and 
Disability Fund, $11.7 million from the health benefits fund, and 
$609,000 from the life insurance fund. What are the statutory 
limitations for use of trust fund monies?
    Answer. Title 5, United States Code, (section 8348(a)(2) for the 
Civil Service Retirement and Disability Fund, section 8909(a)(2) for 
the Employees Health Benefits Fund, and section 8714(a)(2) for the 
Employees' Life Insurance Fund) sets forth the basic terms and 
conditions under which the Office of Personnel Management (OPM) can 
draw against these funds to cover administrative expenses. Specific 
spending limitations, authorities, and restrictions are contained in 
the annual Treasury, Postal Service, and General Government 
Appropriations Acts passed by Congress.
    Question. Does OPM maintain detailed records of the utilization of 
those funds?
    Answer. Yes, OPM's financial management system tracks 
administrative expenditures for each of the employee benefit program 
trust funds on what is essentially a transaction basis.
    Question. What protections are in place to prevent cross-
subsidization of other OPM activities?
    Answer. OPM's financial management system prevents cross-
subsidization by linking, to the maximum extent possible, specific 
transactions to specific fund sources. In those instances where this is 
not possible, the OPM Chief Financial Officer distributes costs in 
accordance with established formulas. In recent years, the agency's 
accounting and procurement systems have been refined to the point where 
only a small percentage of its costs are allocated in this manner.
                use of trust funds by inspector general
    Question. Since the Office of Inspector General also receives 
transfers from all three trust funds, who conducts audits to ensure 
appropriate use of trust fund monies?
    Answer. The Office of the Inspector General (OIG) receives 90 
percent of its operating resources through transfers from the OPM 
administered trust funds. These funds are used to perform audits and 
investigations of the Federal Employees Health Benefits Program, the 
Civil Service Retirement and Federal Employees' Retirement Systems, and 
the Federal Employees' Group Life Insurance Program. The OIG has 
achieved significant positive financial impact in these employee earned 
benefit programs. This positive financial impact was $71.8 million in 
fiscal year 1996 and for fiscal year 1992 through fiscal year 1996, our 
results exceeded $309 million.
    The OIG does not perform any ongoing financial management or 
accounting functions in-house except for budget execution and 
formulation activities. These functions are the responsibility of the 
Office of the Chief Financial Officer (OCFO) for all OPM program 
offices, including the OIG.
    However, the Chief Financial Officers Act does require that the OIG 
perform annual audits of OPM's financial statements prepared by the 
OCFO. The audits of the fiscal year 1996 trust fund financial 
statements were recently completed by an Independent Public Accountant 
(IPA). The OIG worked closely with the IPA and provided the oversight 
and coordination necessary to ensure that the audits were completed in 
a proper manner.
    The intermingling of IG and agency funds is such that an IG opinion 
on audited financial statements does not reflect specifically on the 
OIG's appropriated monies from the fund.
                health benefits--government contribution
    Question. One of the responsibilities of the Retirement and 
Insurance Service is the administration of the Federal Employees Health 
Benefits Program. This program benefits current Federal employees and 
their dependents as well as retired Federal employees and their 
dependents.
    The formula now in place for determining the Government's share of 
FEHB premiums contains a proxy or phantom component to replace one of 
the so-called ``Big Six'' which left the program in 1989. That phantom 
formula will expire at the end of 1999.
    What would be the impact on employees of the elimination of the 
phantom component of the existing formula?
    Answer. The estimated impact on enrollees of the expiration of the 
Phantom formula and a subsequent switch to a Government contribution 
based on the remaining ``Big Five'' would be a monthly increase of 
approximately $23 per enrollee. The shift in costs from the Government 
to enrollees would amount to approximately $900 million annually.
    Question. Is OPM currently developing a different formula to 
propose to Congress?
    Answer. At the request of several Members of the House of 
Representatives, we provided technical assistance in developing a 
``Fair Share'' proposal that was included by the Committee on 
Government Reform and Oversight in its final reconciliation package. We 
are providing similar assistance to the Senate Committee on 
Governmental Affairs.
          impact of increased agency retirement contributions
    Question. The President's budget and the Bipartisan Budget 
Agreement both assume that agency contributions on behalf of their 
employees covered by the Civil Service Retirement System (CSRS) will be 
increased by 1.51 percent. Further, according to the Office of 
Management and Budget, this increase must be absorbed by agencies, at 
least in fiscal year 1998. What would be the cost of this proposal at 
OPM?
    Answer. In fiscal year 1998, this proposal would cost OPM an 
estimated $1.7 million including reimbursable programs. About half of 
these costs will be offset because of a reduction in Federal Employees' 
Retirement System (FERS) normal costs, effective October 1, 1997.
    Question. Would implementation of this proposal require any 
staffing adjustments at OPM?
    Answer. No.
    Question. As the Government's personnel agency, has OPM developed 
any estimates of the impact of this proposal on the staffing levels of 
various agencies?
    Answer. No. Each agency is responsible for managing to budget and 
communicates the effect of financing changes on staffing plans to the 
Office of Management and Budget and Congress through the budget 
process.
    Question. Do you have any reason to believe that implementation of 
this proposal would result in massive reductions-in-force?
    Answer. No about half of the costs Governmentwide will be offset by 
the October 1, 1997, reduction in FERS normal costs. Where reductions 
in staff are necessary, agencies should be able to accommodate this 
additional cost through attrition. However, when combined with other 
funding reductions, some agencies may be forced to consider reductions-
in-force.
    Question. Would this proposal result in efforts to ``encourage'' 
employees covered by CSRS to retire earlier than planned?
    Answer. CSRS employees will not be targeted, because they will 
still cost the agencies less than FERS employees. However, some 
agencies may offer early outs to encourage increased attrition.
                      investigations privatization
    Question. There was much controversy in 1995 and 1996 over the plan 
to privatize the background investigations responsibilities of OPM. At 
that time, many feared that the Federal Government would lose control 
over sensitive information and that, over time, costs would rise.
    It is almost one year since the investigations unit was converted 
to an Employee Stock Ownership Plan with the creation of U.S. 
Investigations Services, Inc. What is the status of this program?
    Answer. The ESOP company, U.S. Investigations Services, Inc., has 
been able to continue completing work for OPM's customers on a timely 
basis with no deterioration in the quality of the product. OPM has 
continued to provide oversight of agencies' personnel security programs 
and provide assistance to agencies as needed.
    Question. Is it working?
    Answer. The ESOP company, US Investigations Services, Inc. has been 
quite successful. It has exceeded its first year projections in 
obtaining non-OPM work and, has hired a number of new personnel as well 
as individual contractors to meet the continuing Federal workload 
demand from OPM.
    Question. Has sensitive information remained secure?
    Answer. OPM continues to be the requester of Federal law 
enforcement information from the Federal Bureau of Investigations. 
Release of information to requesters continues to be strictly 
controlled by OPM through the Federal staff, which has maintained a 
presence at our facility in Boyers, Pennsylvania. We have not found any 
contractor staff in violation of the Privacy Act. Anyone found in 
violation will be immediately prohibited from working for OPM under the 
Federal contract.
    The Personnel Investigations Processing System continues to be 
controlled and maintained by Federal employees of OPM. Access to the 
data base is strictly controlled by OPM and we have kept sensitive 
information secure.
    Question. Is the Federal Government saving any money?
    Answer. Significant long-term savings have already been achieved by 
removing over 600 personnel from the Federal retirement system. Savings 
have also been achieved through the company moving from advance 
payments to performance payments for work completed for OPM some six 
months ahead of the contract schedule.
    Savings have also been achieved by OPM not having to raise prices 
to its customers. At a minimum, OPM expects to be able to hold the line 
on future price increases.
          use of annual leave to reach retirement eligibility
    Question. The fiscal year 1997 appropriations bill contained a 
provision which allows Federal employees who are involuntarily 
separated to utilize unused annual leave in order to reach retirement 
eligibility. Has this authority been utilized to any great degree?
    Answer. Information on the use of annual leave to attain retirement 
eligibility is not captured in our automated records. A review of our 
paper files to obtain an exact count of the persons taking advantage of 
this provision would be cost prohibitive. Our benefit specialists 
report it has been used by very few of the approximately 5,000 
involuntary retirements we expect to process this year.
                                 ______
                                 

                          U.S. POSTAL SERVICE

Prepared Statement of Marvin Runyon, Postmaster General/Chief Executive 
                                Officer

    A quarter century ago, the U.S. Postal Service was commissioned by 
Congress to fulfill two distinct, yet vitally important, mandates.
    First, to be a fundamental service to the people. To bind the 
nation together with a communications network accessible to all. To 
provide postal services in every community. To deliver to everyone, 
everywhere, every day.
    Second, to serve the people like a business. To make use of the 
most modern management tools and technologies available. To render 
high-quality, low-cost products and services that can stand on their 
own in the marketplace. To be financially stable and self-supporting.
    Today, I am pleased to report that we are fulfilling these mandates 
in an historic way.
    Our national network has never been stronger. Last year, we 
delivered 183 billion pieces of mail to 128 million locations, both 
all-time highs. We are keeping our 38,000 post offices open longer, and 
we are offering a broader array of services to our nation than ever 
before.
    At the same time, we are delivering results that any business would 
be proud of.
    The past two years have been the most profitable in our history--by 
far. We ended 1996 with a net income of $1.6 billion. That followed on 
the heels of the historic $1.8 billion we earned in 1995. The combined 
surpluses of these two years is $3.4 billion, more than the total net 
income of the past 23 years put together.
    We have put that money to good use. In the past two years, we have 
lowered prior year losses by more than half. Earlier this year, we also 
put forward the most ambitious capital investment program in our 
history. That includes $14 billion over the next five years in new 
technologies and facilities that will help us cut costs and improve 
service.
    Our financial picture has remained healthy in 1997. Through May 23, 
our net income for the year stands at $1.34 billion. That is $322 
million ahead of expectations. Our revenues are $362 million below our 
plan, but we have made the necessary adjustments to cut expenses and 
come out ahead on our aggressive bottom line. Net income traditionally 
erodes during the lighter mailing months of the summer. However, we 
expect to end the year solidly in the black, only the second time in 
the past quarter century that we have had three straight years of 
positive net income.
    The Postal Service, however, is facing a loss of $1.4 billion in 
1998 and rising red ink beyond. It also has accumulated losses of $2.6 
billion still to repay. The Governors of the Postal Service are 
considering their options on future postage rates. A decision is 
expected soon.
    Mail service continues its upward climb. The Postal Service has 
once again set a new service record for local First-Class Mail service. 
Last week, we announced that independent measurements by Price 
Waterhouse confirm that 92 percent of local First-Class Mail was 
delivered overnight during the third quarter, March 1 to May 23. That 
is our highest score ever, and it is thirteen points higher than where 
we stood three years ago. The credit for this performance milestone 
goes to our managers, supervisors, and craft employees. Once again, 
they pulled together and pulled off a new service record.
    Local mail service helped lead the way. We have promised to make 
the nation's capital a model for mail service. We have made great 
strides. Southern Maryland and Northern Virginia set new performance 
records with scores of 94 percent and 93 percent, respectively. And 
Washington reached 90 percent, its second highest mark ever. 
Baltimore's score also jumped six points, from 85 to 91 percent.
    For the second straight quarter, the nation's four largest cities 
also finished at 90 percent or better. Los Angeles and New York each 
tied the national mark of 92 percent. Chicago and Philadelphia both 
scored 90.
    Despite its recent success, the Postal Service finds itself in an 
increasingly vulnerable position. On the one hand, our costs are 
growing several billion dollars a year. On the other hand, each of our 
services is feeling the pinch of competition. Market share is either 
flat or declining in four of our six major product areas, including 
correspondence and transactions, expedited mail, ground packages, and 
international. And while overall mail volume continues to grow, the 
rate of growth is eroding. We have gone from gains of 5 percent on 
average each year in the 1980's, to increases of just 2.2 percent so 
far in the 1990's. And last year, our growth was an anemic 1.1 percent.
    We are responding with bold, sweeping changes to prepare this 
organization for the 21st century. We are applying modern management 
techniques like process management and re-engineering to our 
operations. We are investing in employees with effective new training 
initiatives. We are putting more technology in our plants so that we 
can complete our letter mail automation program by next year. And we 
are developing the next generation of equipment like robots and 
advanced tray management systems. They're bringing us closer to our 
goal of a fully automated working environment.
    We are improving as quickly as we can, because we realize that what 
is at stake is the survival of a great American asset--universal mail 
service. Every dollar we save and every dollar we take in contributes 
to our financial well-being and our ability to continue our historic 
mission. It allows us to keep thousands of small post offices open for 
business. And it enables us to send our letter carriers to every 
doorstep and mailbox in America, whether you live in the Washington 
suburbs or somewhere north of Nome, Alaska.
    As you know, the Postal Service receives no tax money from the 
federal government, except for reimbursements for services mandated by 
Congress.
    Today, the Postal Service requests a total appropriation of 
$121,124,000 for fiscal year 1998. Of that amount, we request 
$86,274,000 for revenue forgone for free and reduced postage rates for 
certain types of mail, as set forth by Congress. Most of this amount--
$55,296,000--reimburses the Postal Service for the costs of providing 
free mail for the blind and overseas voting.
    The Postal Service also requests $29,000,000 to reimburse past year 
shortfalls in revenue forgone funding. This request is the fifth 
payment in a series of 42 annual payments authorized for this purpose 
in the Revenue Forgone Reform Act.
    Consistent with the law, our request includes a net reconciliation 
adjustment to appropriations in previous years. Each year, 
appropriations for free and reduced rates are based on estimated mail 
volumes. When final audited mail volumes become available, these 
figures are reconciled with the estimates.
    Our request for $1,978,000 covers adjustments through fiscal year 
1995. We note that funding for our fiscal year 1997 request of 
$12,384,000 was deferred by Congress. In the meantime, final audited 
mail volumes for fiscal year 1995 indicated that an excess of 
$10,406,000 was received for that year. That excess is accordingly 
returned to the government, and is reflected in the net request for the 
coming fiscal year. The President's budget agrees with our request for 
current revenue forgone funding, but makes no provision for covering 
last year's revenue forgone reform reimbursement shortfall.
    Our request also includes an appropriation of $34,850,000 to cover 
workers' compensation payments for employees of the old Post Office 
Department. This appropriation funds the compensation paid to 1,828 
individuals or their survivors for injuries which occurred before July 
1, 1971. These expenses are directly related to the operations of the 
former Post Office Department and remain a liability of the U.S. 
Government. When received, these funds are paid directly to the 
Department of Labor.
    It should be noted that this appropriation is not, in any way, a 
subsidy to the Postal Service. Every one of the compensation cases 
predates our first day of operation. The responsibility of the U.S. 
Government for these Post Office Department liabilities is set forth in 
the legislation that established the Postal Service.
    Unlike the former Post Office Department, which was supported by 
annual appropriations, the Postal Service was chartered to become a 
self-supporting enterprise, financed out of its own revenues. Congress 
recognized that this would never happen if the years of deficits 
recorded by the former Post Office Department were passed forward to 
future mailers.
    To prevent this, Congress built a firewall between the liabilities 
of the former Post Office Department and the operations of the new 
Postal Service. Secure beyond that firewall, the Postal Service could 
attain financial stability. It could charge fair and reasonable postage 
rates based on the current cost of serving present-day customers. And 
it could obtain financing at realistic market rates for capital 
improvements.
    To reduce the federal deficit, the President's budget recommends 
the transfer of these Post Office Department liabilities to the Postal 
Service. This could require us to accrue immediately the full future 
cost of these liabilities, some $240 million. That would do harm to our 
financial status and impact the cost of postage.
    We strongly believe that the firewall between our activities and 
those of the Post Office Department should be maintained. To do 
otherwise, and ask today's mailers to absorb liabilities that date back 
more than a quarter of a century, would be a breach of the legislative 
contract Congress signed with postal customers.
    Finally, an annual public service appropriation of $460 million, 
authorized by law, is not requested. We have not requested nor have we 
received it since 1982. By not using these funds, the Postal Service 
and this Committee have saved the Federal Government $6 billion. We see 
this as a good faith effort to honor the legislative contract that made 
the Postal Service a self-supporting government establishment.
    We remain committed to upholding another important part of that 
contract--universal mail service. It is a cornerstone of democracy, a 
vital ingredient in social life, and a linchpin in our economy. We hope 
and trust that we have your support in fulfilling this mandate.
                                 ______
                                 

                Questions Submitted by Senator Campbell

    Question. What are the primary reasons why the Postal Service wants 
reform? What is the Postal Service trying to accomplish?
    Answer. The existing postal ratemaking process is a form of cost-
of-service regulation. Over the last 25 years, this regulatory 
framework has been criticized as stifling innovation, promoting 
inefficiency, and taking the focus of management away from the 
customer. An alternative regulatory model, called incentive regulation, 
has been applied successfully in railroad and telecommunications 
industries, both here and abroad. The experience with these industries 
strongly suggests that incentive regulation, if properly designed, can 
provide the framework for a more efficient and more innovative Postal 
Service. Under incentive regulation, the ratemaking process is 
streamlined by allowing reasonable pricing changes to occur without 
extensive regulatory hearings. Also, the Postal Service would be able 
to react more quickly to changing market conditions and focus more 
directly on the needs of its customers. Incentives for efficiency are 
enhanced because cost increases cannot be passed routinely to customers 
via rate increases.
    Incentive regulation provides the prospect for meaningful planning 
and budgeting for both the Postal Service and its customers. As 
ratemaking uncertainty is reduced, financial planning can be improved; 
budgeting becomes a true management tool. Incentive regulation would 
give the Postal Service more control over its pricing and enhance its 
ability to execute strategic plans. It would also give our customers 
more control for budgeting their postal costs. Freeing the annual 
income statement from the existing boom and bust of the rate cycle will 
improve financial planning and make budgets more meaningful and useful 
as measures of management performance. These efficiencies and 
improvements are entirely consistent with the basic mission of the 
Postal Service: universal public service. In fact, the increases in 
efficiency and customer focus should make the Postal Service even 
better able to fulfill its mission.
    Question. One of the integral parts of reform discussions, at least 
from the perspective of the Postal Service, is financial freedom. As 
you are aware, the Treasury Department is under the jurisdiction of 
this appropriations bill. What exactly does the Postal Service mean by 
financial freedom?
    Answer. The Postal Service seeks access to the best financial 
services available in the marketplace, and to gain the efficiencies 
that would accompany the private sector's flexibility, competition, 
innovation and rapid response to customer business needs. The Postal 
Service believes Treasury understandably has much higher priorities 
than provision of the most competitive financial services to government 
business enterprises.
    More specifically, the Postal Service seeks the authority to:
  --(1) maintain the Postal Service Fund in a Federal Reserve bank or a 
        commercial bank depository for public funds selected by the 
        Postal Service;
  --(2) invest funds in marketable obligations of, or obligations 
        guaranteed by, the Government of the United States, or 
        businesses closely related to the Postal business; and
  --(3) issue debt in the marketplace without preemption by Treasury.
    The reforms the Postal Service seeks are in contrast to current 
requirements, which are as follows: the Postal Service Fund must be 
maintained within the U.S. Treasury; investments must be in non-
marketable, special issue Treasury securities; and the Postal Service 
must first offer all debt obligations to the Secretary of the Treasury 
before proceeding to sell the obligations to another party or parties.
    Question. The President's Budget and the Bipartisan Budget 
Agreement both assume repeal of a provision which requires the Federal 
Government to pay for workers' compensation benefits to Post Office 
Department employees injured before the creation of the United States 
Postal Service in 1971. The savings to the Federal Government, and the 
resulting cost to the Postal Service, from repeal of this mandatory 
appropriation is estimated to be $261 million over ten years. What is 
the effect on the Postal Service of the elimination of this provision?
    Answer. The Postal Service, like other business enterprises, 
follows Generally Accepted Accounting Principles (GAAP). In the event 
of elimination of the appropriation for Post Office Department claims, 
and the assumption of these costs by the Postal Service, GAAP would 
require that the Postal Service recognize on its financial statements 
the amount of the present value of all estimated future cash outlays on 
behalf of these former employees of the Post Office Department. 
Currently we estimate that the total of such future cash outlays is 
about $330 million, and that the present value of these outlays is 
about $240 million. Thus, the primary effect of elimination would be an 
immediate negative impact on the Postal Service financial statements of 
$240 million. (The $90 million balance would be recognized in future 
fiscal years.) This proposal would also result in a loss of cash to the 
Postal Service. The first cash outlay, in fiscal year 1998, would equal 
$34.9 million; subsequent cash outlays would be for lesser amounts.
                                 ______
                                 

                             U.S. TAX COURT

           Prepared Statement of Mary Ann Cohen, Chief Judge

    Mr. Chairman and members of the Committee, I present for your 
consideration the appropriation request of the United States Tax Court 
for fiscal year 1998.
                    fiscal year 1998 budget request
    The Tax Court's fiscal year 1998 budget request is for $34,293,000 
and 350 permanent positions. This amount represents an increase of 
$512,000 from the fiscal year 1997 appropriation of $33,781,000 and no 
increase over the fiscal year 1997 request.
    This increase results from the following items: $273,000 for 
annualization, promotions, within-grade increases, and personnel-
related benefits; $372,000 for the pay raise effective January 1998; 
and a decrease in the amount of (-$133,000) due to lower telephone, 
mail, and equipment requirements.
    The Court's request is simply to fund the normal day-to-day 
operations of processing cases from the time of filing through trial 
and final decision.
                    inventory of the u.s. tax court
    Any discussion of the Court's workload must emphasize that, at the 
present time, the Tax Court handles approximately 95 percent of all 
substantive tax litigation, exclusive of collection actions, in the 
Federal courts. As the Committee knows, it is the only court where 
taxpayers can litigate their cases without prior payment of a tax 
deficiency determined by the Internal Revenue Service. Proceedings in 
the Tax Court are begun by the filing of a petition by a taxpayer who 
has been issued a notice from the Commissioner of Internal Revenue 
determining a deficiency in tax. The Tax Court has no control over 
issuance of the notices.
    During fiscal year 1996, the number of cases filed with the Court 
increased 10 percent from the previous year, from 25,402 cases filed in 
fiscal year 1995 to 27,892 cases filed in fiscal year 1996. The Court 
closed fiscal year 1996 with 29,281 cases pending, a 1 percent 
reduction from September 30, 1995.
    The Court cannot predict with certainty the number of new cases 
that will be filed. We have no reason to expect that the number of 
petitions in fiscal years 1997 and 1998 will differ significantly from 
the number filed in 1996. The number of closings will keep pace, and 
the inventory as a whole is and will remain current.
                                summary
    While manageable, the Tax Court inventory is substantial and will 
continue to be so because of its unique jurisdiction. The Tax Court's 
goal is to resolve cases expeditiously while giving careful 
consideration to the merits of each matter. The Court is also committed 
to providing taxpayers with a convenient forum for trial and 
simplifying the presentation of disputes involving relatively small 
amounts of tax dollars. The goals, as always, will remain constant as 
the Court endeavors to function as a safety valve in the self-
assessment system, to assure a uniform interpretation of the Internal 
Revenue Code, and to provide a national forum for the resolution of 
disputes between the taxpayers and the Internal Revenue Service.


                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The following testimonies were received by 
the Subcommittee on the Treasury and General Government for 
inclusion in the record.
    The subcommittee requested that public witnesses provide 
written testimony because, given the Senate schedule and the 
number of subcommittee hearings with Department witnesses, 
there was not enough time to schedule separate hearings for 
nondepartmental witnesses.]

          Prepared Statement of Bernard H. Berne, M.D., PH.D.

                          summary of testimony
    I am a resident of Arlington, Virginia. I serve the Food and Drug 
Administration (FDA) as a Medical Officer and as a reviewer medical 
device approval applications. I am testifying as a private individual 
and not as a representative of FDA or of any other organization.
    The General Services Administration (GSA) is evaluating the former 
Naval Surface Warfare Center in White Oak, Maryland, for the major FDA 
consolidation. However, this is a very poor site for this federal 
administrative and laboratory facility.
    Metrorail is three miles away. Nearby highways and roads are highly 
congested during rush hours.
    GSA and FDA are planning a country club in White Oak's affluent 
suburbs. FDA's 130-acre campus will have a visitor center and other 
amenities. Adjacent federal property will contain a golf course and a 
woodland.
    Congress must stop this extravaganza. The Administration has not 
requested any funds to begin this project, which lacks an approved 
prospectus. Congress should not initiate any appropriation to support 
the project.
    The Southeast Federal Center in Washington, D.C. is now available 
for a major federal headquarters. Adjacent to the Navy Yard Metro 
station and close to the Capitol, this site appears ideal for FDA's 
facility.
    Two Executive Orders, GSA's own regulations, and the policies and 
of President Clinton's Administration and of the National Capital 
Planning Commission (NCPC) require that GSA and FDA give the Southeast 
Federal Center preference over the White Oak site. However, because of 
past actions and requests by Conference Committees on Appropriations, 
GSA is not evaluating it.
    I therefore ask the Committee on Appropriations of the United 
States Senate to take the following four actions:
    1. Please oppose any appropriation of funds to support an FDA 
consolidation at the former White Oak Naval Surface Warfare Center in 
Montgomery County, Maryland.
    2. Please appropriate $5,000,000 to the study of a major FDA 
consolidation in the District of Columbia, with an initial focus on the 
Southeast Federal Center and its vicinity.
    3. Please do not appropriate any funds for the General Services 
Administration (GSA) to decontaminate,prepare, or acquire any site for 
any part of the FDA consolidation until a prospectus for the entire 
consolidation is approved in accordance with the provisions of the 
Public Buildings Act of 1959.
    4. Please ask GSA or the General Accounting Office to appraise the 
value of the White Oak site.
                        explanation of requests
1. Please oppose any appropriation of funds to support an FDA 
        consolidation at the former White Oak Naval Surface Warfare 
        Center in Montgomery County, Maryland
    The present need for this project is questionable. New FDA 
buildings in Prince George's County will house those FDA Centers that 
now contain most or all of the FDA offices and laboratories that are 
reported to be in poor facilities.
    Many FDA offices, including my own, are in excellent buildings. 
None of my coworkers complain about their present offices. 
Nevertheless, we would all relocate to the Montgomery County 
consolidated facility.
    My coworkers and I rarely need to visit other FDA centers while 
reviewing medical device applications. The need to consolidate seems 
small.
    White Oak is three miles from the closest Metrorail station. In 
contrast, FDA's largest office building is presently only half a mile 
from a Metro station. FDA will likely lose many experienced employees 
if it moves to White Oak.
    The Naval Surface Warfare Center is in an affluent suburban 
residential neighborhood. The White Oak area does not require federal 
aid to support its development.
    Roads and highways near White Oak are highly congested during rush 
hours. These include such major arterials as Capital Beltway, New 
Hampshire Avenue, and Colesville Road. These do not need the additional 
traffic that this project would bring to the area.
    The Congressional Concurrent Resolution on the Budget for fiscal 
year 1996-2002 assumes a 30 percent reduction in funds for Federal 
Buildings construction in its seven year plan to balance the federal 
budget (Conference Report for H. Con. Res. 67: H. Rept. 104-59, June 
26, 1995, p. 84). House and Senate Committees on Appropriations need to 
address this programmed reduction in discretionary spending.
    President William J. Clinton urged Congress to further reduce 
spending on federal building projects when he vetoed the first 1995 
rescission bill (H.R. 1158). The President does not appear to support 
costly federal construction projects, especially since the 
Administration did not propose any 1998 funding to initiate or support 
this project.
    There is no urgent need for a major FDA consolidation. Congress 
needs to implement its Budget Resolution and the President's policies 
by appropriating no new 1997 funds for FDA's Montgomery County 
consolidation.
    FDA and GSA are developing plans for an extravagant 130-acre campus 
at White Oak. According to GSA's March, 1996, Draft Environmental 
Impact Statement (DEIS) for the Montgomery County consolidation, the 
White Oak campus will contain a visitor center and will feature both a 
woodland and a six hole golf course on adjacent federal property.
    FDA can accomplish its mission without a sprawling campus, a golf 
course, a woodland, or a visitor center. FDA does not need a country 
club.
    Congress has not reviewed or approved any prospectus for any part 
of the FDA consolidation. Congress does not know the specifications or 
the costs of this project.
    GSA presently has an opportunity to acquire property near the 
downtown Silver Spring Metrorail station by donation from the 
Montgomery County government. GSA also can locate the project on 
federally-owned property in downtown Washington, D.C. With such 
opportunities, Congress should not support a White Oak consolidation.
2. Please appropriate $5,000,000 for the study of a major FDA 
        consolidation in the District of Columbia, with an initial 
        focus on the Southeast Federal Center and its vicinity
    Rescissions in 1996 removed all of the funding for federal 
construction at the Southeast Federal Center. The 1997 Omnibus 
Appropriations Act provided funds for environmental clean-up activities 
at this site. This federal property is therefore available for the FDA 
consolidation.
    The Southeast Federal Center is adjacent to the Washington, D.C., 
Navy Yard. It is next to the Navy Yard Metro Station and is only a mile 
from the Capitol building.
    Previous actions and statements by Congressional conference 
committees on appropriations and rescissions have directed FDA's major 
consolidation to White Oak. Citing these actions and statements, GSA 
officials have refused my repeated requests to evaluate the Southeast 
Federal Center site as an alternative site for the consolidation.
    The March 1996 DEIS does not evaluate any sites other than the 
White Oak Naval Surface Warfare Center. Only Congress or a Federal 
court can change GSA's direction.
    A 1996 National Capital Planning Commission (NCPC) plan has 
recently designated the Southeast-Federal Center as an important site 
for new offices. NCPC expects this new economic development to ``assist 
the transformation of the Southeast Federal Center and adjacent Navy 
Yard into a lively urban waterfront of offices, restaurants, shops and 
marinas'' (``Extending the Legacy'', Plan for Washington's Monumental 
Core, NCPC, March 1996).
    The goal of NCPC's plan is to preserve and enhance Washington's 
Monumental Core, which is centered at the U.S. Capitol building. An FDA 
consolidation at the Southeast Federal Center can revitalize a decaying 
D.C. neighborhood and help achieve NCPC's goal.
    The Southeast Federal Center and its nearby depressed commercial 
area can hold buildings up to 14 stories high. If necessary for the 
consolidation, GSA can purchase adjacent commercial property at a low 
cost. The Southeast Federal Center is an ideal site for a large new 
federal headquarters facility.
    The legislation that initiated the FDA consolidation (Public Law 
101-635) authorizes only a single consolidated FDA administrative and 
laboratory facility. Indeed, Senate Report No. 101-242 (Feb. 1, 1990), 
which accompanied the authorizing legislation, states, ``the FDA needs 
to be consolidated in a buildings.'' Public Law 101-635 did not 
anticipate or authorize a 130-acre FDA campus and two satellite 
facilities.
    FDA does not require a 130-acre campus for its consolidation. Large 
high-rise buildings can readily house most or all of FDA's offices, 
laboratories, and ancillary facilities.
    Cities throughout the Nation contain many such research and office 
centers. Over 2000 National Institutes of Health (NIH) research 
laboratories are located in a single 14-story building that the 
government constructed in 1981 in Bethesda, Maryland. A single 18-story 
building in Rockville, Maryland, now houses many of FDA's offices, 
including the Office of the Commissioner.
    Congress and the Secretary of Health and Human Services (HHS) can 
readily oversee FDA's activities if FDA consolidates at the Southeast 
Federal Center. Additionally, FDA's visitors and regulated industries 
would find this site to be far more convenient than suburban White Oak.
    The Southeast Federal Center is close to both Maryland and 
Virginia. An FDA consolidation there will enhance the economies of 
three jurisdictions (D.C., Maryland, and Virginia). In contrast, a 
consolidation at White Oak would benefit Maryland at the expense of the 
District and Virginia.
    The median annual household income in the White Oak residential 
neighborhood exceeds affluent Montgomery County's median at $65,000. 
Southeast Washington's median household income is much lower. Federally 
supported economic development is far more critical to Southeast D.C. 
than to White Oak.
    Please recommend a survey of other sites in the District if GSA 
finds that FDA cannot feasibly consolidate at and near the Southeast 
Federal Center.
    A direction of planning funds to study sites in the District would 
place the project in compliance with Executive Order No. 12072 (August 
16, 1978), and with its implementing regulations in 41 CFR Sec. 101-
17.000 et seq., as reaffirmed by the present Administration in 41 CFR 
Sec. 17.205 (Location of space) (Federal Register, Vol. 61, No. 46, pp. 
9110-9112, March 7, 1996). It would also be consistent with the 
purposes of the National Capital Planning Act of 1952 and the policies 
and recommendations that NCPC has developed to implement it.
    Executive Order 12072 and its implementing regulations direct the 
locations of federal facilities in urban areas, including the National 
Capital Region. They require federal agencies to locate and use their 
space and facilities so that the facilities ``shall serve to strengthen 
the Nation's cities'' and ``shall conserve existing urban resources, 
and encourage the development and redevelopment of cities.''
    Executive Order 12072 and its implementing regulations require GSA 
and FDA officials to ``economize in their requirements for space''. The 
Order states: ``Except where such selection is otherwise prohibited the 
process for meeting Federal space needs in urban areas shall give first 
consideration to a centralized community business area and adjacent 
areas of similar character * * * .''
    President William J. Clinton reaffirmed Executive Order 12072 in 
his Executive Order 13006, May 21, 1996, (Federal Register, Vol. 61, 
No. 102, May 24, 1996, pp. 26071-26072). Section 1 of President 
Clinton's Order states:
    ``(Statement of Policy). Through the Administration's community 
empowerment initiatives, the Federal Government has undertaken various 
efforts to revitalize our central cities, which have historically 
served as the centers for growth and commerce in our metropolitan 
areas. Accordingly, the Administration hereby reaffirms the commitment 
set forth in Executive Order No. 12072 to strengthen our nation's 
cities by encouraging the location of Federal facilities in our central 
cities.''
    On March 11, 1997, President Clinton stated that, as part of his 
economic stimulus package to revitalize D.C., he had ``directed his 
Cabinet secretaries to find other ways to help the District, beginning 
with keeping federal agencies in the city'' (Washington Post, March 12, 
1997, page 1). This is consistent with his Executive Order 13006 and 
with established federal policies concerning the location of federal 
facilities in the Washington Metropolitan Area.
    GSA's 1996 interim rule, 41 CFR 101-17.205 (Location of space), 
requires GSA and other federal agencies to comply with Executive Order 
12072. It also states in paragraph (n), ``* * * These policies shall be 
applied in the GSA National Capital Region, in conjunction with 
regional policies established by the National Capital Planning 
Commission and consistent with the general purposes of the National 
Capital Planning Act of 1959 (66 Stat. 781), as amended. These policies 
shall guide the strategic plans for housing of Federal agencies within 
the National Capital Region.''
    GSA and FDA have long disregarded the Executive Order and NCPC's 
regional policies and recommendations when planning, leasing and 
constructing federal buildings in the National Capital Region. To help 
President Clinton resolve D.C.'s financial crisis, Congress needs to 
correct this.
    A long-standing NCPC policy presently encourages government 
agencies to redistribute federal jobs in the National Capital Region. 
This redistribution is long overdue. Congress needs to address this in 
the federal buildings appropriations process.
    The redistribution would implement NCPC policies and 
recommendations that NCPC has developed in compliance with National 
Capital Planning Act. It would reverse recent trends and correct a 
growing imbalance of federal employment in the National Capital Region.
    In a recent Proposed Federal Capital Improvements Program (PFCIP), 
National Capital Region, fiscal years 1997-2001 (April, 1996) (p. 9), 
NCPC reported that the District of Columbia will lose 889 federal 
employees as a result of the FDA consolidation project. This would 
accelerate a continuing transfer of federal employment from the 
District to the Maryland and Virginia suburbs.
    According to NCPC's PFCIP (p. 10), the District's percentage of the 
total Federal employment in the National Capital Region has declined 
from 58.0 percent in 1969 to 52.4 percent in 1994.
    Because of this trend, NCPC's PFCIP (p. 12) has a final 
recommendation that states, ``The Commission encourages each agency to 
adhere to the policy in the Federal Employment element of the 
Comprehensive Plan adopted in 1983 which specifies that the historic 
relative distribution of Federal employment of approximately 60 percent 
in the District of Columbia, and 40 percent elsewhere in the Region 
should continue during the next two decades. This policy is used by the 
Commission to ensure the retention of the historic concentration of 
Federal employment in the District of Columbia, the seat of the 
national government.''
    A major FDA facility at the Southeast Federal Center is consistent 
with President Clinton's expressed policies and orders to his Cabinet 
secretaries, Executive Orders 12072 and 13006, GSA's implementing 
regulations, and NCPC policies and recommendations. A facility at White 
Oak would be inconsistent with all of these.
    FDA now plans to move about 700 federal employees in its Center for 
Food and Applied Nutrition (CFSAN) from the District of Columbia to a 
new facility in Prince George's County, Maryland. To reverse the 
accelerating decline of the nation's capital city, Congress must 
mitigate such relocations by directing the major FDA consolidation to 
the District of Columbia.
4. Please do not appropriate any funds for GSA to decontaminate, 
        prepare, or acquire any site for any part of the FDA 
        consolidation until a prospectus for the entire consolidation 
        is approved in accordance with the provisions of the Public 
        Buildings Act of 1959
    The Public Buildings Act of 1959 requires the approval of a 
prospectus for all GSA building projects before funds can be 
appropriated for construction and site acquisition. However, no 
prospectus for any phase of the FDA consolidation has ever been 
approved.
    Provisions in the 1992, 1993, and 1995 Treasury, Postal Service, 
and General Government Appropriations Acts (Public Law 102-141, Public 
Law 102-393, and Public Law 103-329) permitted GSA to use the funds 
made available in those Acts for the FDA consolidation and for certain 
other projects, even though no prospectuses for these projects had been 
approved. These provisions released GSA from its obligation to comply 
with the Public Buildings Act of 1959 when planning the early phases of 
the FDA consolidation.
    The 1996 and 1997 Appropriations Acts (Public Law 104-52 and 104-
208) and contained no such exemptions. Provisions in these laws state 
that appropriated funds shall not be available for construction, 
repair, alteration, and acquisition project for any project if a 
prospectus for project has not been approved. The 1998 Appropriations 
Act should contain such a provision.
    In 1995, the House of Representatives debated the need for a 
prospectus for the FDA consolidation (Congressional Record, July 19, 
1995, p. H7200-H7206). Some members of Congress appear to believe that 
the consolidation's authorizing legislation (Public Law 101-635) 
exempts the consolidation from the prospectus requirement.
    Congress must eliminate this ambiguity and ensure proper 
congressional oversight. Congress should appropriate no new funds for 
any phase of any FDA consolidation until a prospectus describing the 
entire project is approved.
    Because of a 1996 rescission (Public Law 101-19), GSA and FDA have 
no funds available to construct its major consolidated facility at 
White Oak or at any other location. Congress needs to review a 
prospectus for the project before any funds are appropriated any funds 
to construct it.
5. Please ask GSA or the General Accounting Office to appraise the 
        value of the White Oak site
    This would prepare the government for a sale of part or all of the 
Naval Surface Warfare Center. It would also help Congress evaluate the 
real cost of an FDA consolidation at White Oak. A sale would support 
the original purpose of the base closure, which is to help balance the 
federal budget.
                         additional information
    The following observations further support my requests:
    1. The government long ago designated its Southeast Federal Center 
as a site for a new federal facility. However, nothing has been built 
there yet. An FDA facility would stimulate the revitalization of this 
D.C. area.
    2. As noted above, the National Capital Planning Commissions 1996 
plan for Washington's Monumental Core states in the category of 
Economic Development, ``Assist the transformation of the Southeast 
Federal Center and adjacent Navy Yard into a lively urban waterfront of 
offices, restaurants, shops and marinas''.
    An FDA consolidation at the Center would help implement this Plan. 
The government could rent space in the ground floors of FDA's office 
buildings to operators of shops and restaurants.
    3. Unlike White Oak, the Southeast Federal Center is near a Metro 
station. Development at this site would encourage the use of Metrorail. 
This would increase the use of the area's financially troubled public 
transit system and reduce air pollution and traffic congestion.
    If the consolidation occurs at the Southeast Federal Center, many 
more FDA workers will likely choose to use Metrorail than presently do. 
This would benefit the Washington Metropolitan Transit Authority 
(WMATA) and local, state, and federal governments.
    In contrast, an FDA facility at White Oak would encourage the use 
of private automobiles. The roads near White Oak are already highly 
congested.
    The sections of I-95 and the Capital Beltway that serve White Oak 
rank among the most congested highways in the National Capital Region. 
They are the sites of frequent accidents and traffic jams.
    The White Oak area is principally residential. For this reason, few 
buses run from Metro stations to the White Oak Naval Surface Warfare 
Center in the morning and from it in the afternoon. Thus, most FDA 
employees would find it difficult to use public transportation to 
commute to and from work at White Oak.
    New public transportation routes are costly. There can be no 
assurance that bus service will improve if FDA moves to White Oak.
    If FDA consolidates at White Oak, WMATA will lose revenues from FDA 
employees who now use Metrorail and Metrobuses on a daily basis. Local, 
state and federal governments will have to pay for this, since WMATA is 
heavily subsidized.
    4. White Oak's distance from Metrorail and from the core of the 
National Capital Region will induce many employees to work at home 
under FLEXIPLACE. This will defeat the purpose of the consolidation.
    5. The Southeast Federal Center is in a decaying urban commercial 
area that is in great need of the economic development that the FDA 
consolidation would bring.
    Southeast Washington is one of the most economically distressed 
areas of the nation's capital city. As is well known, the District of 
Columbia is itself in great need of economic development.
    According to a table in the March 1996 DEIS (p. 3-55), the District 
of Columbia had in 1994 the lowest average household income ($30,727) 
of nine jurisdictions in the Washington, D.C., Metropolitan Area.
    In contrast, the White Oak site is in an affluent residential 
neighborhood that is not in great need of economic development. 
According to a March 29, 1996, Maryland National Capital Park and 
Planning Commission staff report on the White Oak DEIS, the 
neighborhood's median household income exceeds the median income for 
Montgomery County at $65,000 per year.
    According to the Washington Post (April 3, 1996), the White Oak 
neighborhood already boasts a community swimming pool, tennis courts, 
and four tot lots. A map in the March 1996 DEIS shows that a 
neighborhood community center abuts the Naval Surface Warfare Center 
near the FDA site. The FDA consolidation would add a federally-owned 
golf course to these amenities.
    The DEIS (p. 3-55) states that Montgomery County, Maryland, had in 
1994 the second highest average household income ($64,596) of nine 
listed Washington, D.C. Metropolitan Area jurisdictions. Montgomery 
County therefore does not appear to be in great need of large federal 
employment centers that might otherwise be located in the District of 
Columbia.
    There is a great economic contrast between Southeast Washington and 
White Oak. Federal development would serve a far better purpose at the 
Southeast Federal Center than it would at White Oak.
    6. FDA can place its laboratories and offices in compact and 
efficient 14-story buildings at the Southeast Federal Center. In 
contrast, its buildings at White Oak would be only five to six stories 
high.
    FDA's present headquarters are in a 18-story office building (the 
Parklawn Building in Rockville, MD). The Office of the Commissioner of 
Food and Drugs is in this building, which is half a mile from the 
Twinbrook Metro station.
    The National Institutes of Health has a 14-story research 
laboratory building that was built in 1981 at its Warren Magnuson 
Clinical Center in Bethesda, Maryland. The National Cancer Institute 
has some of its nationally-renowned laboratories in the 13th floor of 
this building, which, according to an NIH brochure, holds 2000 separate 
laboratories.
    It is therefore likely that FDA can consolidate its laboratories 
and offices in buildings up to 14 stories high in the Southeast Federal 
Center. If needed, GSA can purchase additional property nearby at low 
cost. Neighboring properties do not appear to be in good condition.
    7. The Navy Yard Metrorail Station is on Metro's Green Line. The 
station is only three stops from Maryland's Southern Avenue Metrorail 
station and only two stops from Virginia's Pentagon Station. An FDA 
facility at the Southeast Federal Center will therefore benefit the 
economies of both Maryland and Virginia, as well as the District.
    In contrast, an FDA facility at White Oak would benefit only 
Maryland. It is too far from D.C. and Virginia to provide any economic 
benefits to either of these jurisdictions. Instead, it would draw 
federal employees and associated businesses away from Virginia and D.C.
    8. An FDA consolidation at suburban White Oak would violate former 
President Jimmy Carters Executive Order 12072, which President William 
J. Clinton's Executive Order 13006 reaffirmed. It would also violate a 
federal regulation in 41 CFR 101-17.205 that GSA issued in 1996 to help 
implement the Order.
    When issuing this new regulation, GSA stated, ``On August 16, 1978, 
President Carter issued Executive Order 12072, which directs Federal 
agencies to give first consideration to centralized community business 
areas while filling federal space needs in urban areas. The objective 
of the Executive Order is that Federal facilities and Federal use of 
space in urban areas serve to strengthen the Nation's cities and make 
them attractive places to live and to work. This regulation serves to 
reaffirm the Administration's commitment to Executive Order 12072 and 
its goals.'' (Federal Register, Vol. 61, No. 46, March 7, 1996, p. 
9110.)
    The Southeast Federal Center is in an economically depressed 
centralized community business area in the city of Washington, D.C. 
This area's neighborhood urgently needs revitalization. In contrast, 
the Naval Surface Warfare Center at White Oak is not in any city, is 
far from any centralized community business area, and is in an affluent 
Montgomery County residential neighborhood.
    The Executive Order and the CFR have provisions that make them 
especially applicable when the neighborhood of the urban site 
(Southeast Washington) is economically depressed while the suburban 
site is affluent, and when the urban site is adequately served by 
public transportation, while the suburban site is not. Because of its 
residential suburban location, the White Oak site is served only 
infrequently by buses that run from Metrorail stations in the morning 
and to the stations in the afternoon.
    Appropriations legislation makes funds available for federal 
construction in specified locations. The language of such legislation 
and its supporting committee reports should not conflict with an 
existing Executive Order and a recently revised Federal regulation that 
both require federal agencies to give preference to a different 
location.
    FDA must economize on its space requirements to a great enough 
extent to allow it to consolidate at the Southeast Federal Center, 
rather than at suburban White Oak. Congress should not support the 
appropriation of funds if such an appropriation would encourage GSA to 
violate the Executive Order and its implementing regulations.
    9. The March 1995 DEIS discusses a federal report to the Secretary 
of HHS (Final Report of the Advisory Committee on the Food and Drug 
Administration, May 15, 1991) that assessed the need for new FDA 
facilities. According to the DEIS (p. 1-8), the Committee summarized 
its chapter on resources by recommending, ``The FDA must now begin to 
correct the most urgent of its facility needs, particularly for food 
and veterinary medicine laboratories and field operations.''
    It is noteworthy that FDA is now planning to relocate its food and 
veterinary medicine laboratories to new facilities in Prince George's 
County, Maryland. Facilities for field operations would not be improved 
by an FDA headquarters consolidation. According to documentation cited 
in the DEIS, the FDA offices and centers that FDA plans to move to 
White Oak do not appear to be in great need of new facilities at this 
time.
    While some FDA facilities may need renovation or replacement, many 
do not. Senate Report 101-242; which supports the consolidation, cites 
only one example of a facility that is antiquated. This is a laboratory 
in CFSAN, which FDA plans to relocate to Prince Georges County and not 
to Montgomery County.
    FDA and GSA officials may describe to you certain existing 
buildings that are inadequate. These descriptions may be correct; 
however, my personal observations indicate that the conditions of such 
buildings are not representative of most buildings that FDA now 
occupies.
    One FDA laboratory building that may need repair is on the NIH 
campus in Bethesda, Maryland. This is a laboratory of the Center for 
Biologics Evaluation and Research (CBER), which would be relocated to 
White Oak. However, this building is owned by the Federal government.
    The government will have to fund the CBER lab's renovation even if 
FDA leaves it. Further, if FDA leaves this facility, its personnel will 
lose valuable personal interactions with world-renowned personnel who 
work for NIH. They will also lose the ability to use valuable and 
unique NIH equipment. The government will gain nothing from this move.
    Some of the CBER laboratories have recently moved into a new 
building on the NIH campus. Thus, even within CBER, not all 
laboratories are in poor condition.
    In contrast to some FDA laboratories, many of the office buildings 
used by FDA are in good or excellent condition. Some are in leased 
buildings that are quite new. Some even contain amenities such as large 
atriums with palm trees.
    Such superb facilities can be observed at the Center for Devices 
and Radiological Health (CDRH) offices at 9200 Corporate Blvd. in 
Rockville. Other excellent CDRH office facilities are located at 1350 
Piccard Drive and 2094 and 2098 Gaither Road in Rockville. Still others 
can be seen at the offices of other Centers in the Metropark North 
buildings on Crabbs Branch Road in Rockville.
    The adequacy of the CDRH office facilities is documented in an 
Interoffice Memorandum sent by Electronic Mail dated 01-Feb-1995, from 
Connie J. Wilhelm-Miller, of' the CDRH Office of Management Services, 
Division of Resource Management. This memo, whose primary subject is 
Smoking Policy (smokers were putting burns in the floors and walls of 
new buildings), states that ``most of CDRH's office space is fairly 
new''. My personal observations confirm the accuracy of this statement.
    A Conference Committee Report (House Report 102-234) that supported 
the 1992 Appropriations legislation (Public Law 102-141) stated that 
there is no disagreement that FDA facilities are antiquated, 
inefficient and overcrowded. This is simply incorrect. It overstates a 
problem that is being experienced by only a small portion of FDA.
    House and Senate Reports supporting the consolidation state that 
FDA's antiquated facilities are causing recruitment and retention 
problems. However, this is only true at very few places, and perhaps 
only in the CFSAN laboratory that is relocating to Prince George's 
County.
    I know of no FDA building housing an office or laboratory that will 
move to the White Oak campus that is in such disrepair that people will 
not work in it. Some buildings may need improvement, but none are that 
bad.
    Most FDA workers work only in offices. Many of these are in fairly 
new buildings that are in good condition, such as the one in which I 
work. There is little reason to expect that many of these employees 
will be happier in a new facility at White Oak.
    Limited replacement of facilities with local consolidations where 
needed may well be desirable. However, a massive consolidation of 
Montgomery County facilities is not.
    10. FDA facilities are presently dispersed. However, this does not 
create great inefficiencies. Many FDA offices with related functions, 
such as those in CDRH in Rockville, are consolidated in buildings 
within one or two miles of each other. A large number are in and near a 
single building (the Parklawn Building) near the Twinbrook Metro 
Station in Rockville, MD.
    Although there are a number of functions that involve different 
offices in different centers, most functions are carried out within one 
Center. More importantly, few interoffice functions require more than 
occasional face-to-face interactions which necessitate travel.
    In addition, travel times between existing Centers that will 
consolidate in the Montgomery County campus are not great. All are 
connected by Rockville Pike and I-270. The average trip between offices 
is probably less than \1/2\ hour.
    It is important not to overrate the need for consolidated 
facilities.
    The U.S. Armed Forces won the Second World War operating from bases 
and headquarters throughout the U.S. and in much of the rest of the 
world. Only a tiny percentage of defense workers and military personnel 
were located in any single facility. Decentralized agencies can and do 
often work at least as efficiently as those that are consolidated.
    Further, the great majority of product approvals require 
decisionmaking within only a single building. It is only unusual 
decisions that require conferences in separate buildings. Only a tiny 
minority require conferences among offices in widely scattered 
facilities.
    Most FDA personnel therefore have no need to travel between 
different centers or offices on a regular basis. The need for 
consolidation is not great, despite the statements made in 
Congressional Committee Reports.
    A number of present FDA centers are located near Metro stations, 
such as Medical Center, Shady Grove, and Twinbrook. The large Parklawn 
Building is an example of this. Many employees can therefore now travel 
quickly and easily from one Center to another, as well as to meetings 
at NIH and in downtown D.C.
    In contrast, White Oak is 3 miles from Metrorail. Few, if any, 
people will take Metro to commute or to go to meetings at NIH or in 
D.C.
    Most communications occur today by phone and by electronic mail. 
Electronic networks allow documents to be transmitted to anyone with a 
receiver. Indeed, many FDA personnel now regularly work at home using 
FLEXIPLACE. Using home computer modems, they can connect with FDA 
computer networks to perform most necessary functions.
    The need for a costly consolidation is not great. It cannot be 
expected to greatly increase FDA's efficiency. By causing experienced 
workers to leave the agency, it may actually decrease FDA's 
effectiveness.
    11. Congress should only appropriate funds for a consolidated FDA 
facility if the consolidation would help increase the use of mass 
transportation or would aid in the redevelopment of a depressed urban 
center such as Southeast Washington, D.C. It is environmentally and 
economically unsound for Congress to fund the construction of a new 
facility at White Oak that is far from an urban center.
    12. Most FDA employees need to work only at a single location. The 
approval of new drugs and medical devices usually takes place within a 
single FDA Center. A major FDA consolidation, if it occurs, will 
primarily benefit a small cadre of FDA managers who often travel 
between centers and who are promoting the consolidation.
    In actuality, a major consolidation is not likely to benefit many 
FDA employees. It is even less likely that a consolidation will 
significantly speed the approval of new drugs and medical devices.
    13. During President George Bush's term in office, the Office of 
Management and Budget (OMB) opposed funding of the FDA consolidation 
because it was not worth the cost. The Administration considered it 
more cost/effective to renovate facilities as needed.
    It was a Congressional Appropriations conference committee that 
first proposed the appropriation of funds for the FDA consolidation 
(Conference Report for Public Law 102-141: House Report 102-234, Oct. 
3, 1991). The Conferees directed FDA, GSA, HHS, and OMB to work 
together to submit a funding plan for the project and urged OMB and the 
President to support the Conferees' concept of the ``consolidation''.
    The Conferees introduced the concept of building separate FDA 
facilities in Prince George's and Montgomery County. They recommended 
the appropriation of $200,000,000 in the Federal Buildings Fund to 
begin the process of dismantling the single-site consolidation that the 
FDA Revitalization Act (Public Law 101-635) had previously authorized.
    Public Law 101-635 had amended the Federal Food, Drugs and 
Cosmetics Act. It had authorized the Secretary of HHS (not the 
Administrator of GSA) to construct a single consolidated FDA facility.
    Despite this authorization, the Conferees recommended the 
appropriations of funds from the Federal Buildings Fund for the GSA 
Administrator to use to construct two FDA facilities in separate 
counties located in the State of Maryland. The Conferees also 
recommended that the appropriation for the FDA facilities be exempt 
from prospectus requirements of the Public Buildings Act of 1959.
    Appropriations Conference Committees have therefore undermined the 
FDA Revitalization Act, the Public Buildings Act of 1959, Executive 
Order No. 12072, 41 CFR 101-17.000 et seq., and the National Capital 
Planning Act of 1952. They have made it difficult for government 
officials to follow procedures that assure compliance with 
Congressional oversight legislation and site selection requirements in 
the National Capital Region and elsewhere.
    These Conference Committees have endorsed the appropriations of 
funds for more than one FDA ``consolidated'' facility, have designated 
the GSA Administrator (rather than the Secretary of HHS) as the planner 
and builder of the facilities. They have also allowed GSA to construct 
buildings without a prospectus.
    Appropriations conferees have recommended that FDA build a campus 
rather than consolidate in a single building. Additionally, they have 
caused FDA to transfer federal jobs out of the financially distressed 
District of Columbia and into more prosperous Maryland counties and 
neighborhoods.
    This is not good planning. It is pork barrel politics at its worst. 
Congress must correct itself.
    14. Senate Report No. 101-242, Feb. 1, 1990, which supported the 
FDA Revitalization Act (Public Law 101-635) estimated that the cost of 
the consolidation would approximate $500,000,000.
    FDA and GSA now estimate the total cost of the consolidation to be 
at least $600,000,000. This would create a cost overrun exceeding the 
original $500,000,000 estimate by $100,000,000.
    15. Despite the 1995 rescission of funds for a sprawling FDA 
facility in Clarksburg, Maryland, FDA's and GSA's facility engineers 
continue to plan for a large FDA campus. They do not wish to seriously 
economize in the agency's use of space.
    By creating unnecessarily large requirements for space, they are 
evading their responsibilities to consider locating the consolidated 
facility in a compact site in a central city. One such site is now 
available at the Southeast Federal Center.
    Unless Congress intervenes as it did in 1995, GSA and FDA will 
likely violate major provisions of Executive Order No. 12072 and the 
National Capital Planning Act of 1952. As noted above, these now 
dictate a preference for the Southeast Federal Center.
    16. Some reports on FDA have suggested that certain FDA facilities 
are overcrowded. This may no longer be true.
    GSA has recently leased a number of new buildings for FDA. 
Overcrowding is therefore not as acute as it was several years ago.
    17. The DEIS contains no information on the number of buildings 
that FDA will reuse at White Oak. FDA will not be able to use many of 
the existing buildings because they are contaminated, deteriorated, of 
unsatisfactory conformation, and poorly located. FDA will clearly need 
to build a number of costly structures at White Oak.
    18. Some of the planned excess capacity at the 130 acre White Oak 
facility is desired for future expansion. However, this amounts to 
nothing more than speculation.
    Expectations of FDA expansions may well be unrealistic. FDA has not 
grown significantly in recent years, except in a few specific areas. 
Further, regulatory agencies often do not grow over long periods of 
time when there is an antiregulatory climate, when there are budgetary 
problems, or when there are pressures to privatize Federal functions.
    FDA's major growth occurred years ago in response to obvious and 
important needs. FDA can now meet most of these needs without any 
further growth. Although many agencies try to justify their own 
expansion, FDA may never be able to significantly increase its size or 
number of employees.
    A compact site such as the Southeast Federal Center is more 
consistent with proposed FDA reform legislation than is a 130 acre site 
at White Oak. This reinforces the need for Congress to direct a study 
of the Southeast Federal Center.
    19. Because FDA would acquire more land at White Oak than it 
presently needs, it will surely press for additional funding to 
construct more buildings in the future. This will increase future 
government expenditures.
    As the FDA campus adds buildings at White Oak in the future, it 
will increase the urbanization of its surrounding residential 
neighborhood. This will eventually exceed the limits imposed by current 
zoning and land use plans and will create local controversies.
                                 ______
                                 

 Prepared Statement of Lansing E. Crane, Chairman and Chief Executive 
                          Officer, Crane & Co.

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to present a statement for the record on behalf of Crane & 
Co. In the past few months, much has been said about Crane & Co. in 
connection with the production of U.S. currency paper which is 
factually incorrect. This statement is intended to set forth Crane's 
position on the issues relating to currency paper production and to 
clarify some of the confusion and misinformation surrounding these 
issues.
    Crane & Co. has been the nation's currency paper supplier for 118 
years, as has been noted frequently. Nevertheless, Crane & Co. does not 
have a monopoly on the currency paper bidding process; that process is 
open as stipulated by Federal law, with bids solicited at least every 
four years by the Bureau of Engraving and Printing (BEP). Additionally, 
the Secretary of the Treasury has the authority to divide the contract 
for currency paper even if a second company has bid a higher price. 
While Crane has been a de facto sole-source supplier during most of 
this period, other companies have, on occasion, bid on and won part of 
the government's currency paper business. With only a few exceptions, 
the opportunity to bid has always existed for any domestic paper 
company.
                              competition
    Crane & Co. strongly supports the concept of competition and the 
efforts of the Bureau of Engraving and Printing to ensure that U.S. 
currency paper contracts be open to bid. In point of fact, Crane & Co. 
has always operated as if it were competing, even when other companies 
have chosen not to bid on the currency paper contracts.
    The claim has been made that other companies do not have an 
opportunity to bid for currency paper contracts. This is not accurate. 
What is accurate is that other paper companies, many of which are 
perfectly qualified and able to bid, have simply chosen not to do so.
    The primary reason for companies choosing not to enter the currency 
paper business is that these companies can make more money producing 
other paper products, particularly commodity paper products. Further, 
many companies are not willing to make the necessary capital 
investments in the equipment and facilities required to produce 
currency paper because the size of the U.S. currency paper contracts 
has not been large enough to justify the investment, and the future of 
the industry is increasingly uncertain.
    Crane & Co. is and always has been willing to compete for currency 
paper contracts and does not argue for any barriers to access to 
competitive bidding by any interested companies, domestic or foreign. 
In fact, Crane competes successfully in those countries which do not 
have their own currency paper production capacity. On the other hand, 
Crane is precluded from competing in countries where there is a 
resident paper producer. The process in those countries does not allow 
for competitive bidding, particularly from outside sources. For 
example, the Bank of England purchases its currency paper from Portals 
without competitive bidding. The same is true for the Bundesbank in 
Germany which purchases from Louisenthal. When the ``Euro'' is 
introduced in 1999, the paper will be procured by allocation, not bid, 
from existing European suppliers and will not be open to manufacturers 
outside Europe.
    In short, the same companies pushing for international access to 
U.S. currency paper bidding are based in countries where the markets 
are not open to competition from any U.S. company.
    There is currently a worldwide excess of currency paper production 
capacity and this will only increase in the near future. Various 
factors, such as the move to plastic currency in some countries and the 
building of state-owned currency paper mills in others, are constantly 
reducing the worldwide demand for paper.
    The state-owned mills, after fulfilling their own comparatively 
small requirements, tend to devote their excess capacity to compete 
with established commercial suppliers such as Portals and Crane. Thus, 
the international market is shrinking for commercial companies. In this 
situation, the Bureau's consideration of capital assistance to 
artificially create new, additional currency paper capacity in the U.S. 
inevitably would be destabilizing for this industry.
                          the conte amendment
    The Conte Amendment is a provision in law which requires that the 
Treasury Department obtain currency paper from manufacturers within the 
United States as long as a domestic source exists--and multiple 
domestic sources currently exist. The purpose of this requirement is to 
simplify the job of the Secret Service in maintaining the security and 
integrity of U.S. currency. This requirement is also typical of other 
nations which have domestic currency paper production capacity. There 
are no nations in the world which import currency paper where an 
adequate domestic supply exists.
    The assertion has been made that the Conte Amendment ensures that 
``only Crane & Co. can bid on U.S. currency paper contracts.'' In fact, 
this provision does not prevent any U.S. paper manufacturer from 
bidding for U.S. currency paper contracts. Two U.S. paper companies, in 
addition to Crane, have already expressed to the Bureau an intent to 
bid on the next round of contracts.
    The position of Crane & Co. on the Conte Amendment was and is that 
the company does not oppose any change in the Conte ownership 
percentage which Congress might wish to make, nor does it seek 
protection from foreign competition. Crane does believe, however, that 
the home base markets of international companies that want open access 
to U.S. currency paper bidding should also be open to the same type of 
bidding which exists in the United States. Crane believes that the U.S. 
Trade Representative is capable of certifying when and where such 
access for U.S. companies exists.
                        capacity considerations
    In the case of Crane & Co., the company's manufacturing capacity 
has been developed to match the needs of the U.S. Treasury. This is 
done because the highly specialized, expensive equipment designed for 
high denomination, multiple security-feature paper production cannot be 
economically utilized to make other paper. Further, standard 
papermaking equipment is less and less suitable for making currency 
paper, other than the lowest denominations. In short, manufacturing 
capacity must be dedicated to one product alone, with that capacity 
typically matching the domestic demand.
    Crane believes that as long as Congress requires that all U.S. 
currency paper manufacturing facilities be located within the U.S. any 
significant increase in domestic capacity will result in significant 
domestic over-capacity which, in turn, will be difficult to place on 
the international markets given the shrinking opportunities there and 
many closed markets.
    It may be that the answer to some of the problems brought on by 
security-related limitations is to work toward eliminating all tariff 
and non-tariff barriers worldwide so that capacity can flow freely to 
meet demand. However, the reality of the currency paper industry 
worldwide--that countries purchase from domestic suppliers--and the 
increasing number of state-owned facilities make such open access to 
markets unlikely, if not impossible.
    Crane does not argue for artificial barriers to competition for 
U.S. currency paper contracts. However, Crane believes that it is 
important that Congress understand the context of the U.S. market and 
how the market interacts with the rest of the world.
    Crane believes that in adopting laws to limit or expand 
opportunities for companies to ``compete'' for U.S. currency paper 
contracts, Congress should do so based on informed. expert data and 
analysis of the long-term impact of such laws given the state of the 
industry worldwide. Such changes should not be made based on either 
marketing efforts by individual companies or philosophical beliefs in 
``competition'' without careful consideration of the realities of this 
specific industry. In the absence of such consideration, there is great 
potential to destabilize a strategically important, dedicated domestic 
industry.
                             capitalization
    When the competitive REP was published in draft form for comment 
from the industry, Crane communicated to the Bureau Crane's concerns 
about the proposal to furnish ``Contractor Acquired Property'' to 
Crane's competitors. Crane's concerns, as articulated to the Bureau 
were, and are, that such assistance appears to be calculated to provide 
a competitive advantage to companies interested in tooling up to 
compete with Crane.
    This proposal was clearly not intended to be a loan, which if 
furnished on ordinary commercial terms would not have a competitive 
impact or advantage. The Draft RFP was vague on the basis for repayment 
by the contractor, and there clearly was the potential for the 
contractor to enjoy a competitive advantage in the negotiation of 
repayment terms, if any amounts were to be repaid at all. Federal 
acquisition regulations are ambiguous on the need and method for 
neutralizing any competitive advantage.
    Furnishing Contractor Acquired Property also would establish a 
partnership between the Bureau and the new contractor similar to that 
between a lending bank and a borrower of a very large loan. The Bureau 
would have a real and substantial stake in justifying the 
capitalization.
    Anything other than a true loan would inevitably be a subsidy--
something that would be unfair to Crane which has invested its own 
capital to support the Bureau. Further, as an artificial factor in the 
market, such subsidies would disrupt and destabilize a dedicated 
industry. It is this concept of Contractor Acquired Property that Crane 
objected to in the REP and in the proposed language in the Supplemental 
Appropriations Bill.
                    crane, the sole source supplier
    Sole source suppliers have been in disfavor in federal contracting 
for a number of years. Over-charging and under-performance are the 
perceived byproducts of the absence of two or more responsible 
contractors competing for the same government business. This may have 
been true in defense contracting in the 1980's but is not and has not 
been true of Crane & Co. as a supplier to the Treasury.
    Crane does not argue that it should be protected as a sole source 
contractor. On the other hand, it should not be penalized for doing 
what the Treasury has required, namely to provide a reliable source of 
the highest quality currency paper available in the world. Unlike any 
other company in the world, including Portals, Crane is capable of 
making three different varieties of currency paper to supply the 
nation's requirements.
    It has Cylinder Vat and Fourdrinier machines as well as a third 
process currently used for the U.S. $100's and $50's. There isn't a 
currency paper made by any company in the world that Crane cannot 
supply to the Bureau and no one can supply the range that Crane does.
    Crane has tooled up to sufficient capacity to meet not only the 
minimum quantities the Bureau contracts to purchase, but the maximum 
quantities that they project to need without making a commitment to 
purchase. This capacity was developed for and has been contractually 
committed to the Bureau without a reciprocal commitment to purchase 
that full capacity. The Bureau commits Crane to be prepared to provide 
both minimum and maximum quantities of paper, but the Bureau only 
commits itself to purchase the minimum quantities.
    In the last seven years, the Treasury has twice changed the basic 
character of U.S. currency, other than the $1 note, and that has 
required Crane to develop equipment and processes to meet the Bureau's 
needs. This developmental and retooling effort had to occur before any 
contract was issued to purchase the newly designed paper (note the 
Treasury's testimony in July of 1994 before the House Banking Committee 
on the schedule for new currency). In short, Crane's investment of 
money and effort to support the Bureau helped bring these programs on 
line, but had to be made prior to a contractual commitment from the 
Bureau to actually purchase the paper. There are other ways that a 
dedicated currency paper supplier supports the national interest, and 
the Bureau and the Secret Service can furnish such information.
    Crane does not offer these as reasons for Congress to endorse a 
sole source arrangement as the company strongly supports the concept of 
competition. However, Crane should not be criticized for being the sole 
source when the company has simply committed itself to supplying what 
the Treasury needed and required.
                                  risk
    Some have suggested that the country is at risk if there is only 
one source of a strategically important item like currency paper. 
Crane's answer is that the risk is small, containable and acceptable 
when compared with the cost and destabilizing effect of artificially 
creating a second source. No other country has dual domestic sources, 
because no other country evaluates the risk of a sole source as 
strategically unacceptable.
    To address reliability of supply issues, Crane maintains its 
facilities extremely well and has redundant parts as well as multiple 
paper machines in multiple locations. Furthermore. the Treasury can and 
should stockpile a strategic reserve of currency paper. All such paper 
would ultimately be used so there would be no waste associated with 
such a stockpile, and the cost of buildup would be much less than 
seeking to artificially stimulate a market already open to competition.
    Finally, the Conte Amendment and the thinking behind it only 
requires domestic procurement when there is a domestic source 
available. If an interruption in availability of supply occurs, which 
hasn't been anticipated by redundancy or by strategic reserves, the 
Treasury is authorized to turn to international markets for currency 
paper.
                              performance
    Crane & Co. supplies a raw material that is designed to support one 
of the Federal Government's few manufacturing processes--the printing 
of currency. It is designed to perform well as finished currency--to 
have a long life, to have a consistent ``feel'' and to promote 
counterfeit deterrence. Crane's paper, and the customer service that 
supports the product and the BEP, is also designed to yield the most 
efficient manufacturing of currency by the Bureau. Any cost analysis of 
currency paper must take into account the extent to which the raw 
material, as delivered, promotes efficient manufacturing by the Bureau. 
Performance is not an abstract concept but one that matters for 
production efficiency as well as cost savings from long life in 
circulation and counterfeit deterrence.
                                 price
    Crane firmly believes that the prices it negotiates with the Bureau 
are fair and reasonable to the government. From 1965 until 1991, when 
one uniform product was furnished to the Bureau, the negotiated price 
increased less than the rise in the cost of living and the price itself 
was comparable to Crane's business stationery.
    From 1991 to 1995, when currency paper developed into three 
distinct products with much greater sophistication, prices were 
negotiated through arbitration. The arbitrator, Professor Ralph Nash, 
was selected by the Treasury and is a recognized expert in government 
contracting. In 1995, Professor Nash determined the prices for 1991 to 
1995 deliveries with a retrospective summary of Crane's production 
costs in front of him. It was his task to determine what profit was 
appropriate for these contracts, and Crane and the Bureau each believed 
that his final determination was fair and reasonable. The Bureau 
confirmed its agreement with the determination, in writing.
    In analyzing Crane's business performance from 1991 to 1995, 
Professor Nash concluded that Crane had driven down the manufacturing 
cost of currency paper during that period, and had conducted its 
operations as if there had been actual competition. Professor Nash is 
the only neutral person who has ever analyzed Crane's costs, profits, 
and prices. His conclusions should be accorded far greater weight than 
the opinions of people who might have a preconceived point of view or 
competitive interest, or who have not had access to all of the relevant 
facts.
    In the absence of other competitive bidders, Crane would be 
comfortable having final contract prices determined by an arbiter of 
Professor Nash's experience, stature and neutrality. Such an 
arrangement would put to rest any concerns that the government pays a 
fair price for its paper.
                               conclusion
    With the passage of the fiscal year 1997 Supplemental 
Appropriations Bill and the requirement in that bill for a GAO study of 
the procurement of U.S. currency paper, there is an opportunity to 
analyze the complex business of currency paper manufacturing and 
procurement. Contrary to impressions created by misinformation, a 
significant body of material already exists. In the end, however, it is 
important that policy makers be assured through an objective GAO review 
of the facts, that U.S. currency paper is produced under the most 
secure arrangements possible, and at a fair and reasonable price.
    Crane & Co. is fully prepared to do its part to get the facts on 
the record in an objective fashion so that the currency paper business 
can be properly analyzed and understood and the public interest served.
                                 ______
                                 

 Prepared Statement of Chris Koelfgen, President, National Association 
                         of Foreign-Trade Zones

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Association of Foreign-Trade Zones, thank you for the 
opportunity to present this statement to the Subcommittee concerning 
the fiscal year 1998 appropriation for the U.S. Customs Service.
    The NAFTZ is a non-profit trade association representing over 600 
members, including grantees, operators, users and service providers of 
U.S. foreign-trade zones. Today there are more than 200 approved zone 
projects located in 49 states and Puerto Rico. The total value of 
merchandise received at foreign-trade zones annually exceeds $140 
billion. Over 2,800 firms utilize foreign-trade zones and employment at 
facilities operating under FTZ status is over 300,000. The NAFTZ 
provides education and leadership in the use of the FTZ program to 
generate U.S.-based economic activity by enhancing global 
competitiveness.
    There are three issues concerning the U.S. Customs Service that we 
would like to bring to the Subcommittee's attention. They are of vital 
concern to our members and directly impact the efficient administration 
and reporting of international trade in U.S. foreign-trade zones. The 
issues are:
  --(1) Automation of the FTZ admission process;
  --(2) Expanded Customs weekly entry procedure; and
  --(3) Training of Customs personnel in FTZ procedures.
                automation of the ftz admission process
    The National Association of Foreign-Trade Zones seeks automation of 
the FTZ admission process as part of the existing ACS system, or as an 
initial priority under the new Customs ACE system currently under 
development. As of December 1996, Customs' projection for automating 
the FTZ admission procedure estimated the process as part of the fifth 
and final phase of ACE implementation. Under this scenario, it is 
unlikely that the FTZ admission process will be automated in the next 5 
years.
    With the significant amount of economic activity moving through 
foreign-trade zones, the continued manual filing of the Customs Form 
214 is burdensome and inefficient for government and industry. The 
NAFTZ seeks Congressional assistance to mandate the automation of the 
FTZ admission process. If additional funding is required to provide for 
Customs to implement this procedure, the NAFTZ requests that Congress 
take appropriate action.
    The NAFTZ has been pursuing Customs automation of the FTZ admission 
process since the early 1980's. Today, the CF 214 is the only Customs 
form used nationwide, in large quantity, on a daily basis, that cannot 
be transmitted to Customs electronically. This form provides notice to 
Customs that merchandise has arrived and been admitted to the zone. The 
U.S. Census Bureau also collects a statistical copy of this form.
    The U.S. Customs Service was committed for years to automate the 
FTZ admission process under the existing Customs Automated Commercial 
System (ACS). This process was never implemented. When the new Customs 
Automated Commercial Environment system (ACE) was conceived, Customs 
committed to automating the FTZ admission process during Phase 1 of ACE 
development. We now understand that the FTZ admission process has been 
pushed back to Phase 5 of ACE development. Customs' delay in automating 
the FTZ admission process is particularly disturbing in light of the 
fact that in each review of an application for a new zone since the 
mid-1980's Customs has required that zone operators sign a statement 
committing to the establishment of an electronic interface with the 
U.S. Customs Service. Customs has stated that it will not activate any 
portion of an approved zone if the electronic interface has not been 
established.
    Currently, all FTZ admission data must be manually typed into the 
existing Customs system, the Automated Commercial System (ACS), by 
Customs personnel at individual ports, upon receipt of the C.F. 214. 
This FTZ admission information enables Customs to determine that 
merchandise is no longer moving in-bond under the carrier's liability, 
and that merchandise has arrived at the zone, thereby transferring 
liability to the foreign-trade zone operator's bond. Re-typing, the 
only procedure currently available to the U.S. Customs Service, creates 
an enormous burden and an incredible amount of duplicate data entry 
nationwide for Customs personnel. If the FTZ admission process were 
automated, all of this data could be transmitted electronically. In an 
environment of significant increases in international trade, coupled 
with a shrinking pool of resources, U.S. Customs Service personnel can 
and should be better utilized.
    As previously mentioned, other agencies depend on the U.S. Customs 
Service for data collection. The U.S. Census Bureau has voiced ongoing 
concerns regarding problems associated with Customs' manual collection 
of FTZ admission data. In many instances, the U.S. Census Bureau is not 
receiving the timely and accurate data it needs from the Customs 
Service to fulfill its reporting responsibilities. The Food and Drug 
Administration (FDA) has also indicated a need for admission data to be 
transmitted electronically. Currently, FDA notification is tied to 
Customs entry, which occurs when merchandise is removed from the zone. 
The FDA has been unable to link its notification requirement to the 
admission of FTZ merchandise because Customs has not automated this 
process.
                expanded customs weekly entry procedure
    Proposed regulations were published in the Federal Register on 
March 14, 1997. The National Association of Foreign-Trade Zones seeks 
final regulations and general implementation of this procedure for all 
foreign-trade zone users that meet the established criteria.
    The NAFTZ has been pursuing U.S. Customs Service implementation of 
an expanded weekly entry foreign-trade zone procedure for distribution 
operations since 1990. Title VI of the North American Free Trade 
Agreement Implementation Act (Public Law 103-182, 107 Stat. 2057), 
which included the Customs Modernization Act, was enacted on December 
8, 1993. Section 637 of the Customs Modernization Act, amended 19 
U.S.C. 1484 concerning the entry of merchandise, by providing statutory 
support for expanding the weekly entry procedure.
    This procedure extends the current Customs regulations, which allow 
for weekly Customs entry of manufactured goods removed from a foreign-
trade zone. The new expanded procedure allows for goods stored in a 
foreign-trade zone for the purpose of warehouse and distribution to be 
removed from the zone under a weekly Customs entry process. This 
expanded procedure further reduces paperwork and document processing by 
the U.S. Customs Service, while facilitating the movement of cargo 
through zones for companies that meet certain criteria established by 
the U.S. Customs Service.
    The criteria established by the U.S. Customs Service in the 
proposed regulations requires foreign-trade zone users to employ 
electronic entry filing and excludes weekly entry of restricted or 
quota status merchandise. In order to qualify, the particular zone 
operation must be fairly predictable, continuing and repetitive, and 
relatively fixed in variety by the type of merchandise and the nature 
of the business conducted at the site. The Port Director is provided 
discretion in approving the application to utilize the expanded weekly 
entry procedure. Once approved, instead of filing multiple Customs 
entries per day or per week, this procedure allows foreign-trade zone 
users to file one entry covering a seven-day consecutive period.
    This procedure is critical for foreign-trade zone users operating 
in just-in-time inventory environments because it allows for prompt 
shipment of merchandise from the zone. At the same time, the procedure 
reduces the number of entries that Customs must process and encourages 
automated filing. The proposed pilot program, implemented in September 
1994 to test the new procedure at a selected number of foreign-trade 
zones, has been evaluated by the U.S. Customs Service as a success.
    Expanding the weekly entry procedure will reduce the overall volume 
of paper or reports the U.S. Customs Service must manage without 
impairing the enforcement and revenue protection responsibilities of 
the agency. The automation of the zone admission procedure, along with 
this reduction in the volume of entries filed will generate a 
significant improvement in the accuracy and efficiency of U.S. Customs 
Service operations.
            training of customs personnel in ftz procedures
    In order to ensure that the efforts of the joint steering committee 
are implemented, the NAFTZ requests that Congress appropriate funds for 
the training of Customs personnel. If additional funds are not 
available, the NAFTZ requests that Congress make a statement about the 
importance of allocating existing Customs appropriations for training. 
An explicit reference related to the need for Customs training on 
foreign-trade zones should be included.
    Under the reorganization of the U.S. Customs Service, Port 
Directors have now been given responsibility for all of the foreign-
trade zone functions formerly carried out by the District Directors of 
Customs under the previous organizational scheme. Port Directors are 
facing these additional responsibilities with little or no training on 
specific trade programs, including FTZ's.
    At the same time that Port Directors are being challenged to make 
decisions without appropriate training, Customs Headquarters has 
reduced its staff by one-third, with further reductions ahead in the 
future. This sequence of events has made it difficult, if not 
impossible, for Port Directors to receive timely responses to requests 
for internal advice on foreign-trade zone issues. As a result, foreign-
trade zone users have experienced ad hoc decision-making by Customs 
personnel on a port by port basis. The effect of this decision-making 
is a lack of uniformity in Customs' administration of the foreign-trade 
zones program.
    To respond to this problem, the NAFTZ is currently participating on 
a joint steering committee with Customs to develop training for Port 
personnel on FTZ issues. Among the initiatives being undertaken, the 
steering committee is developing a traveling seminar. It is proposed 
that the traveling seminar will be taught by Customs personnel at 
various ports where port personnel can attend at minimal cost to the 
government. Because of the significant economic activity taking place 
in zones, it is imperative that each Customs Port Director have at 
least the same level of competence as the former District Director.
    Training is an important ingredient for improving any 
organization's operational efficiency. Training is particularly central 
when an agency is undergoing a massive transition such as that 
experienced by the U.S. Customs Service. However, we know from 
practical history that training budgets tend to be a prime target for 
reductions and eliminations. The NAFTZ believes that an investment in 
staff training constitutes the only way the U.S. Customs Service will 
emerge from this transition as an agency that can perform all of its 
responsibilities effectively.
    Thank you for your consideration of these issues. If we may answer 
any questions or provide further information, please contact us at 202-
331-1950.
                                 ______
                                 

  Prepared Statement of Sharpe James, Mayor, on Behalf of the City of 
                               Newark, NJ

    Newark, New Jersey, the largest City in the state, is a regional 
hub of State and Federal government operations, as well as home to 
municipal and County government. The Federal presence includes such 
locations as office buildings, courts and postal facilities. Thousands 
of visitors and employees access Federal services in Newark daily, and 
their safety and security has become an important issue for the City.
    In the aftermath of the tragedy in Oklahoma City, extraordinary 
security measures were put into place around Newark's Federal complex. 
Streets through and surrounding the buildings were closed, metered 
parking spaces were eliminated, and an additional municipal Police 
presence was established. As time has passed, these actions have become 
part of an overall permanent Federal security plan for the area. Since 
Newark's Police Headquarters, Municipal Courts, and City Hall itself 
are immediately adjacent to the Federal complex, forming what is called 
Government Center, the Federal plan has had a marked impact on the 
ability of citizens to access not just Federal services, but Municipal 
ones as well.
    The City government has worked cooperatively with Federal 
authorities on this critical issue over the past two years, and the 
City has absorbed the expenses of these measures. However, we are 
seeking your assistance in recovering costs that the Newark municipal 
government has incurred in advancing the security of Federal 
facilities.
    The local Federal officials have requested the permanent closing of 
five (5) streets to vehicular traffic, and that the streetbeds be 
deeded over to the Federal government to allow permanent access 
control. An independent appraisal has valued this property at $3 
million. In addition, the City has lost revenues from 21 parking meters 
surrounding the Peter Rodino Federal Building, which had been high 
turn-over spaces, as well as from longer-term parking on adjacent 
streets. Further, summons revenue in the area has been eliminated, 
while Police overtime and patrol costs have skyrocketed, averaging at 
least $13,000 per month. The street closings have dramatically shifted 
both the traffic and parking patterns in the Government Center area, 
causing further congestion and delays in the already clogged area, and 
when they become permanent, the City will have to make a substantial 
expenditure for traffic engineering items such as traffic studies, 
resignalization and signage replacement. It is estimated that the total 
of all of these expenses has exceeded four million dollars 
($4,000,000). We are seeking the assistance of this committee in 
securing compensation for these expenditures.
    In a related matter, several years ago it was recognized that the 
United States Post Office distribution facility in the Federal complex 
had become crowded and obsolete. In an effort to save Newark-based jobs 
and comply with the intent of Executive Order 12072, which directs 
federal agencies to be located in downtowns, the City of Newark entered 
into discussions with postal officials about locating a new mail 
handling facility in the heart of Newark's major redevelopment area. 
The original concept was for the USPS to acquire over 17 acres for the 
300,000 square foot operation, to employ 1,200 workers. However, our 
current realities of downsizing and budget cutting have impacted on 
this project too.
    Current plans for a site of only 4.5 acres to house a much smaller 
and less ambitious project. It will now accommodate the functions of 
the relocated 07103 branch facility, which is situated within the 
University Heights redevelopment area. A new Post Office in this 
neighborhood will service the thousands of new housing units-public, 
private, market-rate and low-income--which have been or will be 
constructed in the area. It is estimated that site acquisition, 
required relocations, site preparation and construction of a modern 
postal facility will cost five million dollars ($5,000,000). These 
funds will be the first Postal Service investment in a Newark 
neighborhood in decades, and show, in bricks and mortar, the Federal 
commitment to Newark, its people, and its jobs.
    To conclude: I ask you for help in coping with the changing 
situation in Newark. It is my understanding that GSA has requested $250 
million to upgrade security at Federal facilities throughout the 
country. We support that request, and urge the Subcommittee to include 
language in the bill that will direct some of these funds to be spent 
on the projects noted above.
    We have felt the ripples of the impact of a terrible tragedy, and 
ask for your help in dealing with them. And we have built a new 
neighborhood, with much Federal assistance, and ask for your help in 
completing a community by providing an essential service to its 
residents. Your help today can make the difference.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Aikens, Joan D., Vice Chairman, Federal Election Commission, 
  prepared statement.............................................   578
Attianese, David, Assistant Director, Tax Group, General 
  Accounting Office..............................................   415

Barram, David J., Administrator, General Services Administration, 
  prepared statement.............................................   599
Berne, Bernard H., M.D., Ph.D., prepared statement...............   639
Bolden, Betty, Chair, Federal Services Impasses Panel, Federal 
  Labor Relations Authority, prepared statement..................   593
Bowron, Eljay B., Director, U.S. Secret Service..................   144
    Memorandum from..............................................   194
    Prepared statement...........................................   144

Calahan, Richard, Deputy Inspector General, Department of the 
  Treasury.......................................................   181
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  prepared statement.............................................   316
Carlin, John W., Archivist of the United States, National 
  Archives and Records Administration, prepared statement........   620
Cottos, James, Assistant Inspector General, Investigations, 
  Department of the Treasury, memorandum from....................   189
Coverdell, Hon. Paul, U.S. Senator from Georgia, prepared 
  statement......................................................   175
Crane, Lansing E., chairman and chief executive officer, Crane & 
  Co., prepared statement........................................   648

Dolan, Michael P., Acting Commissioner, Internal Revenue Service.   437
    Prepared statement...........................................   443
Donelson, James E., Chief, Taxpayer Service, Internal Revenue 
  Service........................................................   437

Erdreich, Benjamin L., Chairman, Merit Systems Protection Board, 
  prepared statement.............................................   615

Faircloth, Hon. Lauch, U.S. Senator from North Carolina, prepared 
  statement......................................................   350

Glenn, Hon. John, U.S. Senator from Ohio.........................     1
    Prepared statement...........................................    11
Gregg, Richard L., Commissioner, Bureau of the Public Debt, 
  prepared statement.............................................   543
Gross, Arthur A., Chief Information Officer, Internal Revenue 
  Service........................................................   437

Kelly, Raymond W., Under Secretary, Enforcement, Department of 
  the Treasury...................................................    81
    Prepared statement...........................................    86
Kerrey, Hon. J. Robert, U.S. Senator from Nebraska...............   399
    Prepared statement...........................................   407
King, James B., Director, Office of Personnel Management, 
  prepared statement.............................................   628
Koelfgen, Chris, president, National Association of Foreign-Trade 
  Zones, prepared statement......................................   652
Kohl, Hon. Herb, U.S. Senator from Wisconsin, prepared statement.    84

Lau, Valerie, Inspector General, Department of the Treasury......
                                                          51, 181
    Letters from.................................................   185
    Memorandum from..............................................   192
    Prepared statements..........................................
      52, 181....................................................

Mader, David A., Chief of Management and Administration, Internal 
  Revenue Service................................................
  51, 437........................................................
Magaw, John, Director, Bureau of Alcohol, Tobacco and Firearms...    91
    Prepared statement...........................................    92
McCaffrey, Gen. Barry R., Director, Office of National Drug 
  Control Policy.................................................   315
    Prepared statement...........................................   323
McFarland, Patrick E., Inspector General, Office of Personnel 
  Management, prepared statement.................................   630
Morris, Russell D., Commissioner, Financial Management Service, 
  prepared statement.............................................   545
Morris, Stanley E., Director, Financial Crimes Enforcement 
  Network........................................................   132
    Prepared statement...........................................   133

Posey, Ada L., Acting Director, Office of Administration, 
  Executive Office of the President, prepared statement..........   560
Potts, Stephen D., Director, Office of Government Ethics, 
  prepared state- ment...........................................   627

Richardson, Margaret Milner, Commissioner, Internal Revenue 
  Service........................................................    51
    Prepared statement...........................................    58
Rinkevich, Charles, Director, Federal Law Enforcement Training 
  Center.........................................................   118
    Prepared statement...........................................   119
Rubin, Robert E., Secretary, Department of the Treasury..........   548
Runyon, Marvin, Postmaster General/Chief Executive Officer, U.S. 
  Postal Service, prepared statement.............................   634

Segal, Phyllis N., Chair, Federal Labor Relations Authority, 
  prepared statement.............................................   589
Sharpe, James, mayor, city of Newark, NJ, prepared statement.....   654
Shelby, Hon. Richard C., U.S. Senator from Alabama, prepared 
  statement......................................................   421
Stillman, Rona B., Chief Scientist, Computers and 
  Telecommunications, General Accounting Office..................
  41, 415........................................................
    Prepared statement...........................................    43
Summers, Lawrence H., Deputy Secretary, Department of the 
  Treasury.......................................................
  13, 437........................................................
    Prepared statements..........................................
      16, 439....................................................
Swerdzewski, Joseph, General Counsel, Federal Labor Relations 
  Authority, prepared statement..................................   597

Thompson, Jeff, chief of Government Relations for Don Novey, 
  State president, California Correctional Peace Officers 
  Association, letter from.......................................    77
Tobias, Robert M., national president, National Treasury 
  Employees Union, prepared statement............................     4
    Letter from..................................................    78
Tunheim, Judge John R., Chairman, Assassination Records Review 
  Board, prepared statement......................................   570

Weise, George, Commissioner, U.S. Customs Service................   108
    Prepared statement...........................................   109
White, James R., Associate Director, Tax Policy and 
  Administration Issues, General Accounting Office...............   415
    Prepared statement...........................................   425
Willis, Lynda, Director, Tax Policy and Administration, General 
  Accounting Office..............................................    41


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF THE TREASURY

                Bureau of Alcohol, Tobacco and Firearms

                          U.S. Customs Service

                Federal Law Enforcement Training Center

                  Financial Crimes Enforcement Network

                          U.S. Secret Service

                                                                   Page
Administrative recordkeeping.....................................   202
Advanced fee fraud...............................................   170
Air interdiction.................................................   159
Border fences....................................................   158
Border Patrol....................................................   153
Budgetary process estimates......................................   176
Canine explosive detection.......................................   165
Case tracking document...........................................   190
Case tracking form...............................................   200
    Amended......................................................   206
    Failure to provide original..................................   206
Congresswoman Collins' request...................................   201
Counterfeit currency.............................................   171
Counterfeiting...................................................   178
Crime bill funding...............................................   174
Crime prevention.................................................   150
Discount policy..................................................   176
Drug seizures....................................................   156
E-mail message...................................................   203
Environmental:
    Changes......................................................   173
    Requests.....................................................   172
Executive order..................................................   210
Federal Law Enforcement Training Center:
    Budget request...............................................   118
    Commitment and support.......................................   119
    Cost savings.................................................   118
    Growth.......................................................   118
    Initiatives..................................................   119
    Number of graduating students................................   118
Financial Crimes Enforcement Network:
    Fiscal year 1998 budget request..............................   132
    Money laundering.............................................   132
Funding workload increases.......................................   172
Gang Resistance Education and Training [GREAT] Program...........   162
Immigration and Naturalization Service participation.............   173
Integrity Committee, referral to.................................   207
Intigrated ballistic identification system [IBS].................   165
Intimidating future witnesses....................................   208
Investigation:
    Initiated on October 2.......................................   204
    Status of....................................................   184
Master plan funding..............................................   173
Militia movement in the United States............................   169
National Center for Missing and Exploited Children...............   178
New interdiction technologies....................................   160
Office of National Drug Control Policy, relationship with........   179
Office of Professional Responsibility............................   155
Oklahoma City bombing............................................   164
Operation Hardline...............................................   152
Overestimating numbers, solution to..............................   176
Potential criminal investigation, concerns about.................   199
Privacy rights, concerns about...................................   189
Record, attempt to clarify.......................................   188
Secret Service, response to......................................   192
Security.........................................................   168
Small law enforcement agency training............................   174
Smuggling........................................................   154
Standard operating procedure.....................................   207
State and local requirements.....................................   175
Submitted questions..............................................   210
Suspicious activity reporting system.............................   177
Task forces......................................................   170
Temporary facility...............................................   173
    Cost of......................................................   174
Train-the-trainer, benefit of....................................   174
Trigger locks....................................................   164
Youth crime gun interdiction initiative..........................
  161, 167.......................................................

                        Internal Revenue Service

Appropriations, accountability for...............................
  467, 471.......................................................
Automatic security programs......................................    55
Browsers, IRS treatment of.......................................    63
Browsing.........................................................    13
    In 1994......................................................    27
    Penalties for................................................    23
    Punishment for...............................................    64
    Reasons for..................................................    65
    Repeat.......................................................    62
    Safeguards against...........................................    61
Colorado Springs, small business in..............................   462
Computer modernization efforts...................................   460
Disciplining unauthorized access.................................    56
Earned income tax credit fraud...................................   466
Employee education...............................................    56
Expenditures, justification for..................................   470
General Accounting Office recommendations........................   460
Inappropriate browsing through taxpayer files....................     3
Inspector general, role of.......................................    65
Internal Revenue Service:
    Browsing at..................................................    20
    Browsing of tax records by employees.........................    51
    Disposition of browsing cases................................    30
    Management failures at.......................................    21
    Prime contractor.............................................    22
    Reduction of funding.........................................   464
    Seasonal employment..........................................    30
    Stopping browsing at.........................................    24
    Supervision of employees.....................................    25
    Treasury:
        Executive attention to...................................    23
        Five point plan for......................................   437
        Oversight of.............................................   464
        Plan to improve..........................................    14
Modernization, new leadership for................................   469
New modernization management.....................................   460
Private debt collection..........................................   461
Problems, extent of..............................................    57
Qualifications for next Commissioner.............................    64
Submitted questions..............................................
  32, 66, 472....................................................
Tax records:
    Privacy of...................................................    24
    Unauthorized access to.......................................    55
Tax refund offset program........................................   465
Tax systems modernization........................................
  28, 62.........................................................
    Accountability for...........................................    29
    Cost of......................................................    28
Taxpayer bill of rights..........................................    26
Year 2000 date conversion........................................
  439, 465, 470..................................................
Zero tolerance policy............................................    60

                   EXECUTIVE OFFICE OF THE PRESIDENT

                 Office of National Drug Control Policy

Ad campaign......................................................
  320, 339, 344..................................................
Budget...........................................................   320
Certification....................................................   352
Drug legalization................................................   353
Extraditions.....................................................   348
High-intensity drug trafficking areas............................   342
Incarceration....................................................   337
Marijuana use....................................................   346
Methamphetamine labs.............................................   351
Performance measures.............................................   355
Prison system....................................................   322
Prison, drugs in.................................................   341
Submitted questions..............................................   357
Youth prevention programs........................................   339

                       GENERAL ACCOUNTING OFFICE

Browsing, degree of seriousness about............................    47
Debt collection practices........................................   422
Developmental information system.................................   416
Fiscal year 1997 issues..........................................   415
Snoop or browse, capabilities to.................................    46
Tax systems modernization project, funding for...................    48
Year 2000 date change............................................   416

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
